<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2002</title>
<body><pre>[Senate Hearing 107-337]
[From the U.S. Government Printing Office]



                                          S. Hrg. 107-337 , Pt. 1 deg.

  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2002

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2217

  AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF THE INTERIOR AND 
RELATED AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2002, AND FOR 
                             OTHER PURPOSES

                               __________

                         PART 1 (Pages 1-xxxx)

                       Department of Agriculture
                         Department of Energy
                Department of Health and Human Services
                       Department of the Interior
                       Nondepartmental Witnesses
             John F. Kennedy Center for the Performing Arts
                        National Gallery of Art
                        Smithsonian Institution
            Woodrow Wilson International Center for Scholars
                          Department of Energy
                        Smithsonian Institution

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
70-755 PDF                  WASHINGTON : 2002

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     MARY L. LANDRIEU, Louisiana
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
                 Terry Sauvain, Minority Staff Director
                                 ------                                

    Subcommittee on Department of the Interior and Related Agencies

                    CONRAD BURNS, Montana, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
ROBERT F. BENNETT, Utah              HARRY REID, Nevada
JUDD GREGG, New Hampshire            BYRON L. DORGAN, North Dakota
BEN NIGHTHORSE CAMPBELL, Colorado    DIANNE FEINSTEIN, California
                                     PATTY MURRAY, Washington

                           Professional Staff

                              Bruce Evans
                              Ginny James
                            Leif Fonnesbeck
                            Christine Drager
                              Ryan Thomas
                       Peter Kiefhaber (Minority)
                      Brooke Livingston (Minority)

                         Administrative Support

                              Isaac Green
                         Angela Lee (Minority)




                            C O N T E N T S

                              ----------                              

                       Wednesday, March 28, 2001

                                                                   Page

Department of the Interior: Office of the Special Trustee for 
  American
  Indians........................................................     1

                        Tuesday, April 24, 2001

Department of the Interior: Office of the Secretary..............    45

                          Tuesday, May 1, 2001

Department of Agriculture: Forest Service........................   137

                          Tuesday, May 8, 2001

Department of Energy: Office of the Secretary....................   187
Nondepartmental witnesses........................................   239
  

 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2002

                              ----------                              


                       WEDNESDAY, MARCH 28, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns and Campbell.

                       DEPARTMENT OF THE INTERIOR

           Office of the Special Trustee for American Indians

STATEMENT OF THOMAS N. SLONAKER, SPECIAL TRUSTEE FOR 
            AMERICAN INDIANS
ACCOMPANIED BY:
        M. SHARON BLACKWELL, DEPUTY COMMISSIONER OF INDIAN AFFAIRS, 
            BUREAU OF INDIAN AFFAIRS, DEPARTMENT OF THE INTERIOR
        ROBERT J. LAMB, DEPUTY ASSISTANT SECRETARY FOR BUDGET AND 
            FINANCE, DEPARTMENT OF THE INTERIOR


               OPENING STATEMENT OF SENATOR CONRAD BURNS


    Senator Burns. I will call the committee to order. Sorry 
for a little bit of a delay this morning due to voting. We 
appreciate everybody being here as we look into this trust 
reform.
    We want to especially welcome you and your staff and the 
Special Trustee for the American Indians. Mr. Slonaker, 
congratulations on being asked by the administration to 
continue your service there. We appreciate that very much 
because we know it is a tremendously big job, and I know there 
are times when there are fits of frustration. Nonetheless, we 
believe that it is very, very important, and we want to thank 
you for that.
    Over the past several years, many stories have been written 
about the Federal Government's mismanagement of Indian trust 
funds. It is embarrassing to note, however, that this is not a 
new revelation. For example, I have a copy of the front page of 
a Philadelphia paper dated July 6, 1876. Also in the same paper 
that announced the Battle of the Little Bighorn, it was very 
critical of the United States' ability to handle Indian trust 
monies. I find that very interesting, as I read those stories.
    There is also another story in here about something that we 
are dealing with today, if you pick up the same paper, the 
events of the Old World, the Turks and the Serbians. It seems 
like most of our problems continue to plague us through the 
years.
    ``The Secretary of the Interior has prepared a statement of 
what appears to be gross irregularities in the investment of 
the Indian trust fund by officers of the Government.'' That was 
the report out of the newspaper in 1876. So, needless to say, 
the mismanagement of the Indian trust funds has been occurring 
for over 100 years.
    But after all these years, the subcommittee is hopeful that 
the Federal Government is finally getting on the right track 
with the trust responsibilities it holds on behalf of the 
American Indians and the Alaskan Natives. It is certainly my 
interest that the Federal Government fulfills its trust 
responsibilities to the Native Americans in my own State of 
Montana, as well as fulfills its responsibilities to the 
American Indians and the Alaska Natives throughout the entire 
Nation.
    During recent years, the subcommittee has shown its support 
by significantly ramping up appropriations to support the trust 
management reform. In fact, since fiscal year 1996, the 
subcommittee appropriated close to a total of $450 million for 
trust reform. Also, the fact that the subcommittee has decided 
to hold a hearing specifically on trust reform this year 
indicates the subcommittee's continued interest and concern in 
this critical area.
    However, I should note that although we want to continue to 
be supportive, we cannot do this without hearing confident 
responses from you that the Government is moving in the right 
direction and that positive results will be seen in the near 
future. The subcommittee gets concerned and uneasy when we see 
flare-ups in the press such as a recent article covering the 
release of an employee's memo criticizing a significant part of 
the Department's trust reform plans.
    So, today we are interested in hearing about any progress 
that you have made in trust reform, as well as any stumbling 
blocks that you have come across. The day might not be long 
enough to hear all of those, but nonetheless, we may have to 
search them out.
    Also, in addition to having a frank discussion today, I 
encourage you to continue to update us throughout the 
appropriations cycle to ensure that we find ways together to 
effectively and efficiently provide funding for most of the 
critical areas of trust reform.
    It was encouraging that Secretary Norton specifically noted 
in her confirmation hearing that one of her top priorities was 
the special responsibilities that we have to the American 
Indians. The subcommittee looks forward to helping the 
Secretary keep that trust reform a top priority for the Federal 
Government.
    Now joining me this morning is my good friend from 
Colorado, Senator Ben Nighthorse Campbell.


          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL


    Senator Campbell. Well, thanks for convening this hearing, 
Mr. Chairman. Over the past 10 years, the Committee on Indian 
Affairs, which I Chair, has had dozens of hearings on many 
elements of Indian trust reform, land consolidation, computer 
and accounting systems, probate backlogs and a number of other 
things, lease approvals, and the list goes on.
    The results of those many hearings, very frankly, have been 
somewhat disturbing for me because I am not sure that we are 
making all that much progress on this issue.
    With the past leadership of this committee of Chairman 
Gorton and the commitment of your leadership, Senator Burns, 
and others on the Senate Appropriations Committee, the 
continued effort of the Indian Affairs Committee, along with 
our colleagues in the House of Representatives, I think we have 
made every reasonable effort to commit sufficient resources to 
solving the problem. You mentioned the figure $400 million. 
Well, since 1997, as near as I can figure, we have spent about 
$200 million on all aspects of Indian trust reform, and there 
does not seem to be any end in sight.
    But clearly I think Congress is running out of two things. 
One is patience and the other may be money. We might not be 
able to find the money that we need to continually fund the 
effort that we need to. There are going to be some limits on 
our funding this year, as you know.
    When Congress enacted the Indian Trust Management Reform 
Act of 1994, it gave the Special Trustee and his staff the 
authority to have access to every record, every report, every 
document, and every employee within the Department of the 
Interior. Under the law, as I understand it, there was no chain 
of command when it comes to communicating with the Special 
Trustee about the problems with efforts to improve the trust 
management. I am very concerned that there seems to be a 
suppression of the bad news, or there has been in the past. And 
I am not sure we are going to fix the problem under the current 
system.
    I know the Special Trustee. In fact, I presided over his 
hearing when he was appointed. I am convinced that Mr. Slonaker 
not only did not cause the problem, but brings a great deal of 
expertise and background into trying to resolve the issue.
    Nevertheless, a little more than a month ago, the Federal 
Appeals Court in Washington, D.C. affirmed the lower court 
decision that the United States has failed and is continuing to 
fail in its obligations to Indian beneficiaries. In the words 
of that court, in fact, they said efforts to reform that trust 
situation were ``a day late and a dollar short.''
    You alluded to the memo from Dom Nessi, the BIA's Chief 
Information Officer, of February 23 to Mr. Slonaker. I tell you 
that was not a very comforting letter because basically in that 
letter Mr. Nessi calls it a system that is imploding and says 
that there is pretty much a total lack of trust between the 
different sub-agencies that are supposed to deal with this.
    But clearly making more excuses is not going to solve the 
problem of the Indian people that deserve that money, earn that 
money, own that money, and still find it locked up so they 
cannot access it.
    But for better or worse, Mr. Slonaker, you are judged by 
the progress we make, and I wish you well and look forward to 
working with you. But you are in a very tough job and are under 
the gun, just as we are, to find some solutions in a hurry so 
this thing does not go on for another decade or 2.
    Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Campbell.


                SUMMARY STATEMENT OF THOMAS N. SLONAKER


    Mr. Slonaker, if you could just summarize your testimony. I 
have got your full statement and it shall be made a part of the 
record.
    I would say to those folks who are attending this hearing 
today, get a copy of the statement because you have covered a 
lot of ground in here. I know I found it very educational, as 
far as I was concerned, because I have not delved in this as 
deeply as maybe some of my colleagues have. There are some 
daunting numbers in here and circumstances about which I think 
there is very little understanding. So, I would just invite 
everybody to read this full statement on their own because I 
think it is a very good statement, and I think it covers the 
ground that we want to cover.
    So, if you want to summarize and then we can turn to the 
discussion, that would just be hunky-dorey. So, thank you for 
coming today. We appreciate your efforts and we appreciate this 
hearing too.
    Mr. Slonaker. Thank you, Mr. Chairman. Thank you for having 
me. It is a real opportunity for me and for the Department. And 
thank you, Senator Campbell, for your remarks.
    I must just tell you that when I was sworn in, Secretary 
Babbitt gave me a copy of that 1876 paper and he said, Tom, do 
not worry about General Custer. There are more serious problems 
you really need to get on with.
    Senator Campbell. Just remember what General Custer got.
    Senator Burns. The only thing good about that is he said, 
at least we do not have to go back to North Dakota.
    Mr. Slonaker. I am here as the Special Trustee. My 
responsibilities, as you will recall, under the 1994 act are to 
oversee and ensure the coordination of trust reform at the 
Interior Department on behalf of both the Secretary and, of 
course, of Congress.
    I was sworn in last June. I have had now a chance to really 
dig into the depth of this whole project. So, let me just 
highlight some of the points in my testimony in the next few 
minutes, if you will.
    Let me first give you just a little bit of perspective on 
this from somebody who has come from the private sector. We are 
turning around nothing less than a very large trust department 
by commercial standards. This trust department has as its 
principal asset 56 million acres of revenue-producing land, 
roughly 80 percent of which is for the benefit of tribes and 
the other 20 percent for individual Indians. That revenue from 
leasing is fed through to the tribal accounts and to individual 
Indians, of course, on a regular ongoing basis. There are also 
about $3 billion worth of invested balances in marketable 
securities, again mostly tribal funds. But nevertheless, there 
are about 260,000 individual Indian accounts along with the 
1,400 tribal accounts.


                          TRUST REFORM EFFORTS


    To respond to your comment a moment ago, I have found that 
in my opinion the Government is moving in the right way. Much 
has been accomplished. Let me give you the pluses and minuses.
    A majority of the milestones, as we call them, of the High 
Level Implementation Plan have been met. Now, that is the 
blueprint. It has been revised once early last year.
    For example, a major financial accounting system has been 
running for about a year now which produces statements, 
balances of accounts, and keeps track of all those tribal and 
individual Indian accounts down in Albuquerque. That is up and 
running and that project has been accomplished.
    The land title portion of what is commonly referred to as 
TAAMS, which is the accounting system under development for 
tracking the land assets and the leasing assets, is now a 
system of record for the 12 BIA regions. That happened last 
December.
    The TAAMS realty, or what properly is called the leasing 
module, is expected to be ready for user testing and our 
Interior Steering Committee approval for the system of record 
in the Rocky Mountain region early in the summer.
    Finally, you have probably heard about the regulations that 
were published in January for probates, leasing, grazing, and 
trust funds. The important thing from a trust perspective to 
keep in mind is that regulations such as these are very helpful 
to trust management from the standpoint that they give clear 
standards for doing the work for the beneficiaries. So, those 
clear standards are obviously very important.
    However, there are major challenges remaining. First of 
all, many of these projects have an interdependency. That is, 
if one project slows down or does not meet its objectives on 
time, it will slow down one, two, or perhaps more other 
projects. So, there is that aspect.
    There are three major projects--the TAAMS project, which is 
asset accounting, which I have already mentioned, the probate 
backlog reduction project, and the BIA data cleanup project--
which comprise together a large piece of trust reform and are 
very much interrelated.


                               NESSI MEMO


    Now, let me just give you a comment relative to the TAAMS 
project and relative to the letter that I think Senator 
Campbell brought up just a moment ago. In late February, indeed 
the BIA's Chief Information Officer, Dom Nessi, wrote a 
confidential note to me outlining some fundamental concerns 
that he had with the High Level Implementation Plan, along with 
the issues he had with management of that plan, as well as the 
litigation fallout. Dom has been project manager of TAAMS and 
the BIA data cleanup project since 1998 and has guided these 
projects since then.
    As the Special Trustee, I agree with a lot of what was in 
Dom's letter. On some points I do disagree.
    It was not news. I have cited issues related to Dom's 
observations in the three quarterly reports to the court that I 
have made since I have been on board. I reviewed these issues 
also with former Secretary Babbitt and now with, of course, 
Secretary Norton.
    The course of the TAAMS project has been under review by 
the Department's Trust Improvement Steering Committee, which I 
chair, and is under strong scrutiny currently to determine how 
to bolster the management going forward. I do believe strong 
management of certain projects has been lacking, particularly 
with respect to planning, staffing, budget management, and 
progress measurements. Furthermore, what I have found is that 
the experience with the development of large systems is 
lacking. I need to say also that accountability is sometimes 
lacking as well.
    Change of this magnitude is similar to the changes I have 
seen in my private sector career. Change is not easily 
accepted. I believe that the BIA has a significant challenge 
which will test its leadership to accept new and standardized 
procedures and common systems if trust reform is to be 
completed and the beneficiaries are to be properly served.
    I must note, however, in all fairness and candor, as I 
suggested earlier, that substantial progress on many of these 
projects has been made.


                             TRUST RECORDS


    A couple more things. Then I will be finished.
    I am also very concerned about trust records. Records are 
the heart of any trust system. I think that is pretty obvious. 
You should know that, while virtually all individual Indian 
trust records are now stored and available for trust 
operations, there are still some tribes which resist the notion 
that individual records--not tribal records--which are subject 
to the Privacy Act and are Federal property must be maintained 
by the Government as the trustee. Otherwise, we cannot comply 
as a Government with our obligations to the individual 
beneficiaries.
    You should know that in my role as the Special Trustee that 
I have the responsibility to ensure that funding for trust 
projects is advanced only when work and staffing plans and 
progress reports provide a basis for successful execution and 
completion of a project. In some cases, funds have been held 
until the next fiscal year when planning has not been, in our 
opinion, sufficient.


              COBELL LITIGATION--POTENTIAL FOR SETTLEMENT


    Last, soon after I was confirmed, I initiated negotiations 
with the plaintiffs' attorneys with the presence of the Justice 
Department. We had a two-page summary of the terms required to 
wrap up all of the issues pertaining to ``fixing the system'' 
and had begun to talk very generally and very broadly about the 
possibility of settling on the accounting itself. Those 
negotiations broke down after several months in November of 
last year, at the point at which the Department of Justice was 
drafting a consent decree to carry through, hopefully, the 
execution. I believe negotiations can and should be resumed 
now, and the Secretary does too.


                          STATISTICAL SAMPLING


    Finally, at the direction of former Secretary Babbitt and 
Secretary Norton, I should tell you also that we are proceeding 
with a plan to present to Congress on the feasibility of using 
a statistical sampling approach for individual trust accounts 
that may provide the basis of an historical accounting or may 
provide for a settlement, given the enormous costs of a full 
reconciliation and the state and condition of older trust 
records, in particular. We have had a fair amount of experience 
in what is often referred to as paragraph 19 document 
discovery. We have proven to ourselves, in executing that 
discovery process, that the cost of resurrecting the records is 
indeed enormous if we were to do it for every single account.


                           PREPARED STATEMENT


    At any rate, those are my thoughts, Mr. Chairman and 
Senator Campbell. Thanks for the chance to be here.
    [The statement follows:]
                Prepared Statement of Thomas N. Slonaker

                              INTRODUCTION
    Good morning, Mr. Chairman and Members of the Subcommittee. I 
appreciate the opportunity to appear before you today to discuss the 
status of the Department of the Interior's efforts and our commitment 
to resolve decades old trust fund management issues for both Tribal and 
individual Indian account holders. With the assistance of this 
Committee, Congressional interest and support have been strong and have 
helped us move ahead on reform efforts for several years. Since fiscal 
year 1997, this Subcommittee has been instrumental in supporting the 
development and implementation of appropriate accounting systems, and 
management information systems to help the Government meet its trust 
responsibilities to Tribes and individual Indians. Last year, Congress 
also passed much needed legislation to reform land consolidation 
activities. Additional funding has been appropriated each year for the 
day-to-day trust asset management program operations of the Bureau of 
Indian Affairs (BIA), Minerals Management Service (MMS), Bureau of Land 
Management (BLM) and the Office of Hearings and Appeals (OHA). Because 
of these additional resources, the Department has made progress in 
implementing much needed Indian trust reform efforts. As you know, we 
are actively working with you to resolve a number of key projects that 
have considerable work remaining.
    When Congress enacted the American Indian Trust Fund Management 
Reform Act in 1994, it reaffirmed the Federal Government's preexisting 
trust responsibilities. The Reform Act further identified some of the 
Secretary of the Interior's duties to ensure proper discharge of the 
trust responsibilities of the United States. These include (but are not 
limited to) the following:
  --Providing adequate systems for accounting for and reporting trust 
        fund balances;
  --Providing adequate controls over receipts and disbursements;
  --Providing periodic, timely reconciliations to assure the accuracy 
        of accounts;
  --Preparing and supplying periodic statements of account performance 
        and balances to account holders;
  --Establishing consistent, written policies and procedures for trust 
        fund management and accounting; and
  --Appropriately managing the natural resources located within the 
        boundaries of Indian reservations and trust lands.
    As part of my testimony today, I want to provide the Committee with 
some background information and context to help illustrate the broad 
scale of trust activities. I think it is important to have an 
understanding of the vast scope and complexity of trust asset 
management and litigation related activities in which DOI is currently 
involved. While a more extensive reference list follows my statement, I 
want to mention just a few facts about the government's Indian trust 
responsibility:
  --In the early 1800's, the United States pursued the policy of 
        ``removal'' which promoted the relocation of tribal communities 
        from their homelands in the East and Midwest to remote 
        locations.
  --For most of the 19th century, the Federal Government entered into a 
        series of treaties and agreements identifying the lands owned 
        by the tribes. Tribal lands vacated were then declared 
        ``surplus'', purchased by the U.S. and added to the public 
        domain.
  --Proceeds from the sale of Indian lands were used in a variety of 
        ways. In some cases the money was placed in a trust fund for a 
        specific Tribe or distributed to individuals. In other cases, 
        the funds were used to settle claims against the Tribe.
  --For the most part, early treaties vested ultimate authority for 
        financial management of the Tribal resources with the 
        President. In a few cases, the Secretary of Treasury, an Indian 
        agent, the Indian Commissioner, or after 1857, the Secretary of 
        the Interior were given authority.
  --The individual trusts at issue here were created over one hundred 
        years ago through the General Allotment Act of 1887, also known 
        as the ``Dawes Act''.
  --Under the Dawes Act, tribal lands were divided into parcels and 
        allotted to individual Indians. The United States was 
        established as the trustee of the allotted lands for 
        individuals, and individual accounts were set up for each 
        Indian with a stake in the allotted lands to be managed for the 
        allottees' benefit.
  --This system established under the Dawes Act remained relatively 
        intact even when the Indian Reorganization Act of 1934 stopped 
        the process of dividing tribal lands, but extended all trusts 
        periods indefinitely. The Federal Government's duty as trustee 
        over control of allotted lands and the individual accounts that 
        form the basis of the individual Indian money (IIM) accounts 
        has remained and this is what we are grappling with today.
  --Today the BIA is responsible for the management of 56 million acres 
        of trust lands, including 46 million acres held in trust for 
        Tribes and 10 million acres held in trust for individuals.
  --The BIA also administers approximately 110,000 surface and mineral 
        leases on these trust lands each year, with annual revenue in 
        excess of $100 million. These revenues flow either directly to 
        the Tribe, individual allottee or into the trust fund system.
  --The Office of the Special Trustee (OST) manages approximately $3 
        billion in trust funds. These funds require the active 
        management and investment of some 262,000 accounts in the 
        individual Indian money system with a balance of approximately 
        $400 million, and 1,400 Tribal accounts with a balance of 
        approximately $2.7 billion.
  --Although authorized to do so by the 1994 Reform Act, only a few 
        Tribes have withdrawn their tribal funds from OST's management.
  --OST spends an average of $147 per year, per account to maintain the 
        263,000 accounts.
  --To date, in response to the Cobell litigation, the Department has 
        produced more than 159,000 documents, representing more than 
        385,000 pages of information. This required the expenditure of 
        more than $19 million and is represented in thousands of hours 
        of staff and contractor time.
    Judicial attention also has affected trust reforms. In 1999, the 
Federal District Court held the Interior Secretary, the Treasury 
Secretary, and an Interior Assistant Secretary in contempt in the 
Cobell v. Norton (formerly Cobell v. Babbitt) litigation for failure to 
produce all court ordered documents. The District Court also appointed 
a Special Master to oversee the discovery process and trust record 
production and retention. Increasingly, however, time spent on 
responses required for the Cobell litigation adversely impacts the time 
and energies of the Special Trustee, as well as the OST, BIA, and 
Departmental managers who are all the principal directors of trust 
reform.
    Unfortunately, to date, efforts to reach a negotiated settlement of 
portions of the issues at trial in the Cobell case have not been 
successful. Interior continues to pursue a resolution of these matters. 
Throughout the Cobell litigation, the Department has placed a high 
priority on the trust reform and addressing the ongoing requests of the 
District Court and the Special Master.
    The Special Trustee monitors and oversees a multi-agency, multi-
year effort to achieve and sustain meaningful trust reform. Pursuant to 
the Reform Act, a strategic plan was developed, part of which evolved 
into the High Level Implementation Plan. Subsequent District Court 
action resulted in the inclusion of plans to remedy four breaches of 
trust responsibility identified by the Court. Although the Appeals 
Court agreed that all the matters identified by the District Court were 
not breaches of the Reform Act, the Appeals Court left in place the 
government's obligation to address and report on those matters.
    Management reform in any setting is a daunting task. In my view, 
the problems of the past will be corrected only with strong policy and 
project management. Changes to government management practices and 
locally developed procedures that vary from location to location and 
from year to year do not come easily. Change has been long overdue in 
the management of Indian trust assets. These changes affect the full 
spectrum of trust asset management activities within Interior. In 
addition, these changes in management practices will also impact trust 
resource management activities of Tribes and individual Indian account 
holders.
    We are changing trust business practices to bring them into 
conformity with the best practices used in the private sector for the 
management of trust assets. Most important, these changes will improve 
the stewardship of trust resources for Tribes and individual Indian 
account holders.

                 INDIAN TRUST MANAGEMENT REFORM TO DATE
    I was sworn-in as the Special Trustee last June, and I can report 
that there has been progress in trust reform over the past year. Some 
recent accomplishments and developments include:
  --OST completed the conversion of all Tribal and IIM accounts in all 
        12 regions to the Trust Funds Accounting System (TFAS) in March 
        2000. Currently, approximately 263,000 Tribal and IIM accounts 
        are maintained on the system. Approximately 120,000 statements 
        are mailed out each quarter to account holders.
  --The majority of IIM trust financial records have been consolidated 
        into a central location in Albuquerque, New Mexico, with the 
        exception of IIM records from three tribal locations. The 
        Deputy Commissioner for Indian Affairs and I recently sent 
        letters to the three Tribes requesting that each Tribe approve 
        the transfer of IIM account holder jacket folders, which are 
        federal property, to our Albuquerque office. OST is responsible 
        for the efficient use, accuracy, and preservation of these 
        trust records. If a satisfactory solution cannot be reached 
        soon, the Department will notify the Court of this barrier to 
        the Trustee's exercise of proper trust responsibility.
  --OST has begun using a national commercial database to help locate 
        more than 65,000 account holders whose whereabouts are unknown. 
        To date, more than 31,000 accounts have been compared with the 
        database to identify possible addresses. More than 18,000 
        letters requesting confirmation of identities have been sent. 
        More than 2,600 account holders have been located and their 
        account information updated. Responses to the majority of the 
        letters are still pending.
  --Effective December 29, 2000, the land title portion of the Trust 
        Asset and Accounting Management System (TAAMS) was made the 
        system of record. With this designation, TAAMS is officially 
        designated the system for the recordation and maintenance of 
        Indian title documents reflecting current ownership for current 
        title processing in four BIA Regions: Alaska, Eastern Oklahoma, 
        Rocky Mountain, and Southern Plains. The conversion of title 
        history data is not yet complete.
  --The Trust Management Improvement Project Steering Committee 
        determined that the TAAMS leasing module should be available 
        for Steering Committee evaluation and approval for the Rocky 
        Mountain Region by May 31, 2001. A recent update on the 
        progress indicates that the realty module will be available in 
        the Rocky Mountain Region to run parallel with the legacy 
        systems by June 1, 2001. The BIA has assigned key managers on a 
        full-time basis to complete this effort. A schedule and plan 
        for deployment to the other BIA Regions will be developed.
  --BIA and OHA have hired additional staff and contract assistance to 
        begin reducing the existing backlog of Indian probates cases, 
        streamline the probate process, and develop a case management 
        tracking system. These efforts will require significant 
        management attention for several years to address all the 
        impacts of probate on trust programs in BIA, OHA and OST 
        operations.
  --Final regulations were published on January 22, 2001 for Leases and 
        Permits on Indian Lands, Trust Funds for Tribes and Individual 
        Indians, Grazing Permits on Indian Lands and Indian Probates. 
        These revised regulations are long overdue and will establish 
        nationwide standards of uniformity for trust administration.
  --The Risk Management Program Handbook was published November 30, 
        2000. This Handbook provides the guidelines for OST's 
        monitoring and review of risk within the Department's trust 
        processes.
  --The non systems training program for relevant Interior and Tribal 
        trust asset management employees has been initiated in 
        locations across the country. Training the trust asset 
        management workforce is an ongoing commitment that is critical 
        to the successful implementation of new business practices, 
        accounting systems, new regulations, and management information 
        systems.
  --In late December 2000, former Secretary Babbitt directed me to 
        proceed in planning, organizing, directing, and developing a 
        plan to present to Congress on the feasibility of using a 
        statistical sampling approach that may provide the basis of a 
        historical accounting or some basis for settlement of Cobell. 
        This approach was considered because of the state of trust 
        records and the enormous costs associated with a historical 
        accounting for each individual account. Secretary Norton has 
        recently reconfirmed this decision. I am hiring a senior 
        project manager and staff presently to begin development of 
        this project plan.
  --Congress passed the Indian Land Consolidation Act Amendments of 
        2000, Public Law 106-462. This legislation will help prevent 
        further fractionation of trust allotments made to Indians and 
        consolidate fractional interests and ownership of those 
        interests into usable parcels. The Act fully supports the 
        consolidation of fractional interests in a manner that enhances 
        tribal sovereignty and promotes tribal self-sufficiency and 
        self-determination. It also helps reduce the administrative and 
        financial burden created by the fractionated ownership of 
        Indian lands, an important component of Indian trust fund 
        management reform. This fractionation of interests not only 
        undermines the vitality of allottee-owned land, but it also 
        severely complicates the government's management of trust 
        assets and resources. As of December 2000, BIA has acquired 
        more than 27,000 interests representing more than 14,600 acres. 
        These purchases should avoid more than 600 probates and 
        eliminate more than 200 IIM accounts.

                               NEXT STEPS
    There is still a great deal yet to be done before the Government 
can say that it is fully in compliance with the law with regard to our 
trust responsibility.
    Three projects in particular, comprise a critical part of the 
Department's trust reform effort: TAAMS, BIA data cleanup and probate. 
These are large, complex, interdependent projects. As an example, until 
the historical data required to be accessed is properly corrected, the 
TAAMS system cannot provide fully accurate and complete data output on 
which to make payments and reports to account holders. I am concerned 
that we ensure that the management teams on these projects have the 
capacity and management resources to bring these projects to a 
successful conclusion. This is not a question of willingness, nor is it 
solely a question of funding. It is a question, as well, of providing 
the appropriate additional management expertise and leadership. The 
Department is addressing this management concern.
    While some new regulations affecting trust reform were published in 
January, additional regulations relating to trust fund accounts and to 
reconciling commercial leasing to the Indian Lands Consolidation Act 
Amendments of 2000 are necessary. Internal review, revisions and Tribal 
consultation of these new regulations will need to be completed soon in 
order to assist in the implementation of various trust reform business 
practices. A procedural handbook also needs to be completed which will 
provide a compilation of uniform business rules and practices for the 
administration of tribal and IIM trusts. The development, 
implementation and enforcement of consistent fiduciary business 
practices are mandatory to the success of trust reform.
    The development of tools for evaluating the Department-wide trust 
asset management workforce, both in terms of the numbers of people 
needed and their competencies, is very important to the trust reform 
effort. Workforce planning will be an ongoing effort.
    While continued support of this Committee is needed to complete our 
trust reforms, cost-effective management of those resources is 
essential for our success. As Special Trustee, I am responsible for 
ensuring that funding is spent properly and that sufficient work plans, 
including staffing, are developed prior to the release of funds to 
projects for obligation. In some cases, as these are no year funds, 
they have carried over until the next year so that project work plans 
can be properly addressed prior to funding.
    As outlined in the President's Blueprint, the 2002 budget will 
continue to provide the funding necessary for Indian trust reform. The 
OST, BIA, MMS, BLM and OHA budget requests will provide the resources 
needed to sustain the operational and organizational improvements 
initiated in previous years. The BIA trust management functions, 
including efforts such as real estate services, probate, cadastral 
surveys, and land titles and record programs, are absolutely crucial to 
ensure that the trust management improvements we are implementing are 
institutionalized and maintained in the long term.
    On a final note Mr. Chairman, I again want to thank this Committee, 
and its former Chairman for its past and current support and assistance 
provided me and the Department in this critical endeavor. Without the 
interest and support of this Committee, the reforms we have made and 
the improvements we have initiated simply would not be possible.
    This concludes my opening statement, Mr. Chairman. I look forward 
to continuing to work with this Committee and you as the new Chairman, 
and will be pleased to answer questions of the Subcommittee.
           scope of doi trust asset management responsibility
General Asset Management Information
    Over the past 40 years, the number of trust and restricted acres of 
land administered by the Bureau of Indian Affairs (BIA) has grown by 
approximately 80,000 acres per year.
    Today, the BIA administers approximately 56 million trust and 
restricted acres of land.
    Over 46 million of these acres are administered on behalf of Indian 
Tribes.
    Over 10 million of these acres are managed on behalf of individual 
Indians.
    The BIA administers 110,000 surface and mineral leases on these 
trust lands. These leases generate over $100 million in revenue to the 
Indian land owners.
    In fiscal year 1999, approximately 1,800,000 acres of land were 
leased for oil and gas, generating an additional $100 million in 
royalties to Indian land owners.
    Also in fiscal year 1999, over 27 million tons of coal was sold 
from Indian lands, generating over $60 million in royalties.
    In fiscal year 2000, 579 million board feet of timber was harvested 
from Indian trust lands worth $96 million.
    In fiscal year 2000, the Office of Hearings and Appeals adjudicated 
3,300 probates.
General Individual Indian and Tribal Account Management Information
    Currently, the Office of the Special Trustee for American Indians 
(OST), through the Office of Trust Funds Management (OTFM), manages 
approximately 262,000 Individual Indian Money (IIM) and 1,400 Tribal 
trust fund accounts.
    The balance of the IIM accounts is approximately $400 million, and 
the balance of the Tribal accounts is approximately $2.7 billion.
    Under the provisions of the American Indian Trust Fund Management 
Reform Act of 1994, two tribes have withdrawn all their funds from 
trust, and two tribes have partially withdrawn their funds. Six Tribes 
have withdrawn all their funds from trust based on other Public Laws 
and/or their Use and Distribution Plan(s).
    OST spends an average of $147 per year per account to maintain more 
than 263,000 accounts.
Of the more than 262,000 IIM accounts currently held in trust (as of 
        February 28, 2001), approximately
    101,000 (38 percent) of these accounts are unrestricted and 
individual account holders may determine the timing and amount of 
disbursements from the account.
    138,000 accounts (53 percent) are restricted accounts for minors, 
individuals determined to be non compos mentis, or individuals in need 
of financial assistance.
    23,000 accounts (9 percent) are special deposit, forestry and other 
accounts.
    135,000 of these accounts (52 percent) have had no activity, except 
interest postings, in the last six months. However, this includes those 
accounts that only receive resource income annually.
Of the 239,000 accounts held for individuals
    33,300 accounts (14 percent) are for minors (including accounts for 
those individuals whose date of birth indicates they are no longer 
minors, but who cannot be located or have not responded to 
correspondence).
    65,000 accounts (27 percent) are for account holders whose 
whereabouts is unknown and for whom OST has no current address.
    The average balance in unrestricted IIM accounts is approximately 
$420.
    The average balance in restricted IIM accounts is about $2,100.
    142,000 accounts (59 percent) maintain balances in the IIM system. 
Of these, 91,000 have a balance of less than $500.
    97,000 accounts (41 percent) are flow through accounts, and checks 
are issued to account holders as soon as their balance reaches $15.
    OTFM produces approximately 493,000 checks annually to account 
holders. Additional disbursements also are made via direct deposit and 
electronic funds transfers.
Of the 1,400 Tribal Accounts
    OTFM issues approximately 24,000 per capita payments annually at 
the request of tribes.
    OTFM requests approximately 12,000 checks be cut annually for the 
Osage quarterly headright (annuity payments), which is the result of 
Tribal Mineral Income less expenses.
    OTFM prints and mails approximately 100,000 checks annually for the 
Wind River agency quarterly dividend for the Shoshone and Arapaho 
Tribes.
During the conversion to a new Trust Funds Accounting System (TFAS)
    Over 5,540 boxes of trust fund account documents were cleaned up by 
an outside contractor.
    More than 30 boxes of documents relating to pre- and post-TFAS 
conversion testing were cleaned up by OST staff. This effort included 
closing duplicate accounts, correcting invalid dates and sort character 
corrections.
    Over 70,000 accounts have been closed and/or corrected as a result 
of the cleanup effort.
Cobell v. Norton Litigation Efforts
    To date, 55 CD-ROMs containing 159,384 documents have been provided 
to the Court in response to the Cobell litigation.
    These documents contain 385,421 pages of material.
    In OST alone, 14,000 boxes containing more than 35 million pages 
were searched for responsive documents and 46,600 documents were 
indexed and imaged on 26 CDs.
    To date, $17 million has been appropriated to DOI organizations 
specifically to support litigation efforts, and thousands of staff 
hours have been spent responding to document requests.
Records Management Improvements
    The Indian Affairs Records Management (IARM) program became 
operational in December 1999. The program is responsible for 
implementing a uniform and comprehensive records management program for 
BIA and OST. The Major emphasis of the IARM program is on cleaning up 
inactive records stored in off-site facilities.
    IARM has been to some 60 BIA regional and agency offices to assess 
records management practices and to identify records to be transferred 
to Federal Records Centers or other appropriate storage, and for non-
trust records to be properly disposed. As part of this effort, IARM has 
arranged for the purchase of fireproof or other modern filing systems 
for more than two-dozen BIA locations to date.
    More than 1200 employees at all levels have attended IARM records 
training.
    More than 2300 cubic feet (nearly 6 million pages) of records have 
been transferred to Federal Records Centers, ending a four-year 
moratorium. 5,200 cubic feet (13 million pages) have been packed and 
inventoried by IARM through the National Archives and Records 
Administration and its contractor.
    Approximately 75 million pages of trust financial and IIM account 
records have been transferred to OST storage in Albuquerque.
Arthur Andersen ``Reconciliation'' of Tribal Trust Accounts
    In 1996, a report was issued by Arthur Andersen pursuant to its 
contract with BIA to review Tribal accounts held in trust for the 20 
year period of 1972 to 1992. This contract with Arthur Andersen cost 
$21 million.
    Arthur Andersen successfully identified receipts and disbursements 
for 86 percent of the transactions reviewed, representing $15.3 
billion.
    Arthur Andersen was unable to identify complete historic 
transactions to determine the origin of 14 percent of the transactions, 
worth $2.4 billion. This $2.4 billion has not been ``lost,'' but is 
held in the Department of the Treasury.
    In conjunction with the Tribal effort, Arthur Andersen estimated 
the cost of performing a reconciliation of the IIM accounts. At the 
time, Arthur Anderson estimated that between $108 and $281 would be 
needed to complete a 20 year review. Information collected since these 
estimates indicates that this cost could be well in excess of $300 
million.
    Following this effort, the Department crafted legislation to create 
a process by which it could negotiate settlements with the Tribes, 
based on the Arthur Anderson findings. The legislation was met with 
widespread Tribal opposition.

    Senator Burns. We thank you.
    I was just taken last night, as I was reviewing your 
testimony and some of the parts of the lawsuit, with what has 
been done and the cost of that. And then to see what was really 
at stake here was surprising to me.

                Summary statement of M. Sharon Blackwell

    Thank you for coming, M. Sharon Blackwell. We appreciate 
you and the work that you do and are looking forward to your 
statement.
    Ms. Blackwell. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman and Senator Campbell. I appreciate this opportunity to 
appear here for the first time and to discuss the work of the 
Bureau of Indian Affairs on the reform of trust assets 
management.
    I also am here today to confirm the Bureau of Indian 
Affairs' commitment to the trust reform initiative. We too 
share the goals that you have expressed this morning, Senator 
Campbell, to ensure that the fulfillment of this Nation's trust 
responsibility to tribes, to individual Indians is made a 
reality.
    Due to the support of Congress, the BIA has been able to 
address decades-old policies and procedures. I believe that we 
have made some meaningful changes. There is much that remains 
to be done.
    Before I discuss the highlights of the work of the BIA over 
the past year, it gives me great pleasure, and with your 
permission, I would like to introduce Mr. Bruce Maytubby who is 
a BIA Realty Officer from the Southern Plains region in 
Anadarko, Oklahoma and who heads our TAAMS design team. Mr. 
Maytubby is in the room with me.
    Senator Burns. Welcome.
    Ms. Blackwell. We have much to do to overcome the legacy 
that was left by the failed allotment policy of the late 
1800's. That allotment policy followed the scandals that you 
read about today in the 1876 newspaper, and we now know, with a 
look back over the shoulder, that that policy too failed.
    It has taken a long time to get where we are today, and it 
will take careful planning and I believe strong partnerships 
between all agencies within the Department of the Interior and 
all branches of the Federal Government to correct. It will also 
take time, I believe, to gain the confidence of the Indian 
landholders that we serve.
    Trust reform obviously touches every aspect of the work 
that we do in Indian Affairs. I would just like to highlight 
again what we have done this past year.

                              Regulations

    Last Friday, as Special Trustee Slonaker mentioned, final 
BIA regulations on agricultural leasing, grazing, IIM accounts, 
and new probate regulations have been promulgated by the Bureau 
of Indian Affairs and were made effective last Friday.
    The BIA probate regulations will permit BIA attorney 
decision-makers to make in-house heirship determinations where 
there are no factual issues. This will, we hope, significantly 
cut down on the backlog of the probate of estates to determine 
current ownership. We intend to monitor the effectiveness of 
the new regulations, particularly the probate regulations, and 
we are prepared to engage in further rulemaking, if it is 
necessary, to ensure the success of a streamlined probate 
program.

                                 Youpee

    We have completed the first phase of a pilot study to 
determine the cost to redistribute approximately 178,000 
fractionated, disputed interests from the tribes to individual 
landowners as determined by the Supreme Court in Youpee v. 
Babbitt. On December 29, 2000, the ownership or land titles 
module of TAAMS was deployed in 4 of 12 BIA regional offices. 
As new ownership information is known, that is, after the 
completion of the probate process or resulting from 
conveyances, it will be recorded in TAAMS and utilized for the 
realty programs.

                             TAAMS Modules

    The leasing module of TAAMS is scheduled to be deployed at 
our pilot site in Billings in June. This module contains 
information regarding lease activities in forestry, range, 
commercial leases, recreational leases, minerals, and will also 
contain rights-of-way and easement data. An experienced team of 
BIA realty staff, headed by Mr. Maytubby, are stationed in 
Dallas, Texas working beside our software contractor to develop 
this module.
    Title and realty modules in the remaining eight BIA 
regional offices are scheduled to deploy later this year.

                              Data cleanup

    Let me just stand back and say a word about how we get to 
deployment for a TAAMS module. Deployment comes only after 
extensive data cleanup which involves the examination and the 
reconciliation of documents and that information that is in the 
legacy system. You can appreciate that some of these documents 
are almost 100 years old. This work is very exacting, but the 
Bureau of Indian Affairs is committed to doing it right the 
first time. We want the information that goes into TAAMS to 
have integrity.
    All data cleanup in all BIA regions is conservatively 
projected for completion by 2005, but the data cleanup effort 
will not halt the deployment of TAAMS. TAAMS will continue to 
be deployed. The data cleanup effort will continue 
simultaneously. In fact, it is most likely that the deployment 
of TAAMS will enhance the cleanup initiative.
    Senator Burns. Can I interrupt there? Did we get the cart 
before the horse when we started structuring this reform, as 
far as you are concerned?
    Ms. Blackwell. No, sir. I do not believe we have. Data 
cleanup was inevitable. While the design phase was going on, we 
have had cleanup teams in each of the regional offices working. 
So, the data will be ready when it is time to deploy TAAMS in 
that region.
    Once again, we will not stop with the deployment of TAAMS. 
With the improved system, we believe that it will make the 
cleanup efforts easier in fact.
    Just to give you an idea about the complexity of what we 
are dealing with, we have charted today one allotment out of 
the 23,000 original allotments that were made in the Billings 
region, our pilot. This original allotment was an 80-acre 
tract. It was made in the late 1800's to one person. I believe 
the chart is over in the corner. That 80-acre tract is now 
owned by 147 fractionated interest holders.
    Senator Burns. I could not believe this. The schematic was 
unbelievable.
    [The chart follows:]
    [Clerk's Note.--The chart will be retained in the 
subcommittee files.]
    Ms. Blackwell. In fact, of the 23,000 original allotments 
in Billings alone, only 1 of our 12 regions, those 23,000 
allotments have been partitioned, have been divided by family 
agreement, through devise, into approximately 38,000 individual 
tracts. So, we begin with the original allotment, but we also 
are tracking ownership records for the parcels where the 
allotments have been divided into parcels.

                             Fractionation

    The legend on the chart indicates that as of May 1999, 
almost 2 years ago, there were five pending probates. I think 
you can see that on the chart. And there was one life estate. 
What that means is at the end of the probate process or when 
the life tenant dies, it is likely that in the past year, the 
ownership interests have increased by at least 25 owners.
    TAAMS not only will contain the information that you see 
charted on the graphic. It will contain all of the title 
information, but in addition to that, it will contain the 
leasing activities of each of these owners over the years. We 
also will maintain a hard copy of the information, which we are 
referring to as one of our legacy systems, so that the hard 
data will be available as well.

                               Timelines

    Given the magnitude of the tasks completed and the 
magnitude of those things yet to be accomplished, there has 
been some slippage in the dates outlined in the HLIP. In almost 
all instances, slippage is due to the commitment we have to 
make this a comprehensive, user-designed and thus a user-
friendly system and to ensure, as we go along, the integrity of 
the data that is being placed into this system.

                            TAAMS Interfaces

    TAAMS will interface with the Trust Funds Accounting System 
and with MMS royalty systems. OTFM and BIA staff have worked 
together to develop a memorandum of understanding that will be 
reviewed and an accompanying handbook that identifies the 
respective responsibilities and duties of the offices of OTFM 
who manage the fiscal accounts and the Bureau of Indian Affairs 
and their day-to-day interactions. We intend to engage in an 
aggressive interagency training program between these two 
agencies. We will do so as well with MMS.

                   Indian Land Consolidation program

    Finally, Mr. Chairman, the Indian Land Consolidation Pilot 
Project that has had the support of this committee is in its 
third and I would say successful year. Support for this project 
has permitted us to continue to halt the geometric progression 
in the number of owners and to reverse the harsh effects of the 
allotment era. Today over 29,000 ownership interests have been 
sold at market value. 310 IIM accounts at the pilot agency have 
been closed. We intend to aggressively pursue this project in 
the year to come within the Midwest region and we are also 
analyzing now whether the project could be expanded to another 
region.

                           PREPARED STATEMENT

    In summary, I believe we have made important and meaningful 
progress in reforming the Department of the Interior's 
operations of trust functions. We understand the challenges. As 
we progress through the various phases of trust reform, we are 
prepared to meet new management prerogatives as they develop. 
We are also confident that this can be accomplished. There is, 
though, much that remains to be done.
    Thank you for this opportunity to address you. I would be 
pleased to respond to any questions.
    [The statement follows:]
               Prepared Statement of M. Sharon Blackwell

                              INTRODUCTION
    Good morning, Mr. Chairman and Members of the Subcommittee, thank 
you for this opportunity to be here to discuss the Bureau of Indian 
Affairs' (BIA) work on reform of the Indian trust assets management and 
to affirm the BIA's continuing commitment to correct where needed, and 
to strengthen throughout, the administrative processes for fulfillment 
of this Nation's trust responsibilities to Indian Tribes, Indian 
individuals and Alaska Natives.
    Last October the BIA celebrated its 175th anniversary with a look 
back at the BIA's unique role in the history of federal Indian policy. 
As many of us know full well, that history contains some dark chapters. 
Among those is the decades old neglect of the task of formulating 
uniform and consistent standards to govern our management of Indian 
trust lands and the revenues that are generated through that 
management. It is not surprising that the United States now finds 
itself engaged in litigation brought by Indian landowners and account 
holders which challenges old management practices and procedures. The 
recent decision of the Federal Circuit Court of Appeals in Cobell v. 
Norton described in great detail the historical shifts in Indian policy 
and the unintended results which sometimes worked at odds with prudent 
management prerogatives. Suffice it to say that the legacy left by the 
failed allotment policy of the 1800s was long in creation and will take 
not only careful planning and strong partnerships between all branches 
of the federal government to correct, but will also take time to gain 
the confidence of the Indians whom we serve.
    With the support of this Committee, the BIA, along with other 
agencies in the Department of the Interior, has begun trust reform 
which literally touches every aspect of the work we do in Indian 
affairs. We believe that we have made substantial progress in a number 
of areas. We readily acknowledge that there remains much to be done.
    I would first like to advise the Committee that the $32 million 
increase that the BIA received for trust work for fiscal year 2001 has 
been distributed to the 12 BIA Regional Offices and on to the 87 field 
installations in Indian Country that carry out the day to day 
management and administration of Indian trust and restricted lands. The 
distribution of this funding was made based upon such factors as 
caseload, number of trust and restricted tracts, and number of 
fractionated owners in each Region. The factors were designed to ensure 
that these funds were placed in those programs with the greatest need 
to support the Department's trust reform initiative. The funds are 
being used to hire additional staff in the specialized areas of real 
estate services, appraisals and land titles. These new hires will 
enhance the surface leasing program that annually generates over $100 
million in income to Indians who own trust and restricted lands. The 
goals are not complex, but long overdue: to ensure that Indian leases 
are timely processed by professional real estate services personnel, 
rental valuations are prepared by the qualified and certified 
appraisers, title and ownership records maintained by the BIA and 
Tribal contractors are up-to-date and accurate, and, that rentals and 
other compensation due the owners are correctly computed and timely 
paid.
    The reform is challenging. Old policies and procedures grew in each 
of the Regions to meet differing Tribal specific statutory requirements 
for allottee and Tribal resources. For an example, while the Osage 
Reservation in Oklahoma was divided into allotments in 1906, the oil 
and gas reserves underlying the Reservation were held intact by the 
United States as a mineral reservation. Interests in the mineral 
reserve are referred to as ``headright interests''; the BIA is charged 
with maintaining and distributing the quarterly mineral income to 
thousands of headright holders, who claim their interest through one of 
the original 2,297 Osage allottees. Departmental responsibilities in 
this area includes the examination and approval of Osage wills, 
conducting administrative proceedings after the death of an Osage 
testator when an approved will is challenged, monitoring the eventual 
probate of the will in state court, in addition to exercising 
superintendence over the surface allotted lands. There are hundreds of 
such examples of unique statutory and regulatory requirements that 
guide the work of the BIA. Transposing this work, which in some areas 
has been done with pen and ink on index cards for decades, into 
national uniform systems and operational practices is exacting and 
challenging. It is not unexpected that some managers become frustrated.
    While there remains much to be done to correct deficiencies, much 
has been done. Some of the more significant accomplishments include the 
following:
  --Last year after extensive consultation with the Indian Tribes and 
        legal scholars, the Department issued a historic Secretarial 
        Order that identifies 13 principles which embody what the 
        courts and the Congress has determined to be the parameters of 
        the trust responsibility. Departmental agencies and bureaus 
        that carry out trust functions are mandated to use these 
        principles to examine their policies, programs, and day-to-day 
        operations, and to take remedial actions where necessary. This 
        will be published in the Departmental Manual.
  --The BIA regulations on agricultural leasing, grazing, management of 
        Tribal and individual trust funds prior to and after processing 
        by the Office of the Special Trustee for American Indians 
        (OST), Office of Trust Fund Management (OTFM) and an expanded 
        probate processing program, were published as final regulations 
        on January 22, 2001.
  --The BIA has worked with OTFM to draft a handbook that identifies 
        the respective responsibilities, duties and documentation 
        requirements between OTFM and the BIA field offices for the 
        processing of funds derived from trust assets.
  --As mentioned by the Special Trustee, the ``land titles'' module of 
        the Trust Asset Accounting and Management System (TAAMS) which 
        contains current ownership records based upon common law 
        notions of legal root of title, has been deployed at four of 
        the BIA's 12 Regions.
  --We are near the testing stage of the design of ``leasing module'' 
        of TAAMS. This module will permit thousands of the various 
        kinds of leases and permits on the 56 million of acres of trust 
        and restricted Indian resources to be nationally documented, 
        uniformly tracked and monitored. Following successful testing, 
        an executive management decision expected in early this summer, 
        will determine future deployment of the leasing module to the 
        pilot Region and onto the remaining BIA locations. Building on 
        lessons learned from industry, the design team is composed of 
        BIA ``users'' from the various program disciplines of forestry, 
        agriculture, range, housing, minerals and commercial leasing. 
        This team is working alongside the system's software design 
        contractor in Dallas to complete this module.

                              BIA PROJECTS
    The BIA is responsible for five projects under the Trust Management 
Improvement Plan: implementation of TAAMS, cleanup of land records 
data, probate, appraisals, and policies and procedures, as well as the 
related land consolidation project. The size and scope of this 
Departmental undertaking is unprecedented. I will briefly highlight 
some of the issues that we face in our efforts to meet the requirements 
in the High Level Implementation Plan (HLIP) and more importantly, the 
Federal Government's fundamental trust responsibility to Indian Tribes 
and individuals and Alaska Natives.
TAAMS implementation and data cleanup
    The BIA continues to meet milestones leading to the successful 
implementation of TAAMS. Decades of under-investment in information 
technology means, as mentioned earlier, that ownership and leasing data 
at some agencies exists only in hard copy while others have developed 
desktop computer-based applications or have used parts of the outdated 
systems, also referred to as legacy systems. Conversion of existing 
data to TAAMS requires a unique approach from Region to Region and 
often even from agency to agency. As we have learned more we have 
modified our TAAMS implementation approach along the way to guarantee 
that it is done right the first time. I am mindful that there are 
skeptics, however, I remain confident that when completed, TAAMS will 
be a comprehensive, user-designed, and thus, a user-friendly system for 
modernizing trust management activities in the Department. We are on 
schedule to meet our deadline of May 31, 2001, for completion of the 
leasing software design. After the design and system testing is 
complete, our contractor will analyze the user testing results and 
produce a report, which will be the basis for an executive level 
decision to deploy the leasing portion of the realty module to our test 
site in Billings, Montana.
    Once the leasing module is implemented, future work includes the 
design, testing and implementation of a conveyance module which will 
track the ultimate disposition of trust and restricted land either by 
gift, bargain and sale, condemnation, or voluntary removal of 
restricted or trust status. Additional tasks will address the 
integration of the probate and appraisals modules.
Probate
    The Department of the Interior's responsibility to probate the 
estates of deceased Indians who own trust assets was first addressed by 
the Congress almost 100 years ago. Over the last century, four main 
components of this process have evolved: (1) BIA agency staff prepare a 
probate package that includes an inventory of the trust assets of the 
decedent, known relatives of the decedent, potential heirs or devisees, 
and provides a will, if any exists; (2) an Administrative Law Judge 
(ALJ) from the Office of Hearings and Appeals (OHA), or in summary 
administrative proceedings, the Agency superintendent or attorney 
decision-maker, determines the heirs or approves the will; (3) the BIA 
records the new ownership interests in the title plant; and (4) the 
OTFM distributes trust funds to the heirs or devisees. Over the years, 
significant backlogs have accumulated in each of these offices which 
affect some 15,000 estates.
    Progress has been made on several fronts for the probate 
subproject. The BIA and OHA probate activities have been combined under 
joint OHA/BIA management, a full-time project team is on board, and 
both BIA and OHA hired additional staff to prepare and decide probates. 
More than 200 staff attended training and BIA is sponsoring additional 
training this month to familiarize staff with the revised probate 
regulations. Regulatory changes will increase the number of cases that 
can be decided in-house so that the OHA judges can concentrate on the 
cases where there are factual disputes. A pilot project is ongoing in 
the Western Region headquartered in Phoenix for processing probate 
packages. A national roll-out plan is under development. We are also in 
the process of hiring a contractor to post ownership information in the 
title plants to address the backlog in posting and recording.
    The existing OHA case tracking system is being modified to include 
BIA case work. A team comprised of experienced staff from BIA, OHA, and 
TAAMS contractors are putting together the system requirements for the 
probate module for TAAMS.
    In 1997, the United States Supreme Court found in Youpee v. Babbitt 
that the escheat provision of the Indian Land Consolidation Act was 
unconstitutional. The practical effect of the decision is that the BIA, 
OHA, and OTFM must redistribute the 178,000 fractionated escheated 
interests from the Tribes. In fiscal year 2000, we completed a pilot 
project at the Pawnee Agency which monitored the time and cost to amend 
title records to reflect the new owners of the escheated interests. The 
data is being examined to determine the BIA costs for this work. Phase 
II of the Pawnee Agency pilot will study OTFM's time and cost to 
prepare journal vouchers and distribute income that accrued to Tribal 
accounts prior to the holding in Youpee. We have targeted July 2001 to 
complete development and begin implementation of the BIA's plans to 
redistribute the Youpee interests nationwide.
Appraisals
    Only with limited exceptions, DOI is required to conduct appraisals 
prior to approving any lease or sale of restricted or trust land. Last 
year, BIA produced almost 26,000 appraisal reports. At the 
recommendation of the Special Trustee we are evaluating the realignment 
of the BIA appraising function into an independent branch within the 
Office of Trust Responsibilities. We will consult with Indian Tribes 
this spring and following results of the consultation and of workload 
data, we may submit a reorganization proposal for the Committee's 
consideration. We will keep you informed of our efforts.
Policies and procedures
    In August 1999, responsibility for the development of comprehensive 
trust policies and procedures was transferred from OST to the BIA. In 
January, 2001, the BIA published the first set of revised regulations 
governing agricultural leasing, grazing, probate, and supervision of 
funds held in trust for individual Indians. Following promulgation of 
the first tier regulations, a second tier of proposed regulations that 
includes commercial and mineral leasing will be examined. Additionally, 
based on comments received during Tribal consultations and the public 
comment period, we will re-propose certain provisions governing adult 
Individual Indian Monies (IIM) accounts and the probate regulations.
    At the end of this month, BIA will submit a report to the 
Department's Trust Management Improvement Council that will provide an 
overview of the work remaining to be done to update Indian Affairs' 
policies and procedures. Many of our regulations and much of our policy 
guidance and handbooks are 30-50 years old. To help us identify the 
order in which the work will be undertaken, we sent a survey to all 
Indian Tribes and to our field staff asking that they identify 
priorities within some 80 different areas. We will assist other 
Departmental bureaus to update their policies and procedures that 
impact trust services. Individual bureaus will address bureau-specific 
policies and procedures while the BIA will coordinate policy 
development on crosscutting issues.
    Further, the BIA will identify changes that need to be made in 
existing laws. For example, under the law, many Indian adults are 
considered incapable of managing their affairs unless they have 
received a ``certificate of competency'' from a BIA superintendent.
Indian land consolidation
    One of the most important aspects of trust reform is taking place 
outside of the overall plan. Thanks to the support of the Committee, we 
are in the third year of the Indian Land Consolidation project. The 
recent amendments to the Indian land Consolidation Act Amendments of 
2000 by the Congress also eases the burden on the day to day activities 
of the BIA and will result in more timely delivery of trust services to 
Indian landowners. Through this project, BIA pays willing sellers for 
their interests in restricted lands and restores the land to Tribal 
ownership. This represents the first serious effort of the Federal 
Government to reverse the harsh effects of the allotment era. With its 
continuation and expansion, this will help to halt the geometric 
progression in the number of owners of parcels of allotted lands. The 
Midwest Region continues to be the primary acquisition site for the 
land program. To date, 1,788 individuals have sold 29,236 ownership 
interests that allowed us to close 310 IIM accounts. More than 90 
percent of the interests purchased are those of 2 percent of less of 
the total undivided interest in a parcel. In fiscal year 2001, the BIA 
plans to continue these efforts with reservations in its Midwest Region 
and consider expanding it to reservations in another Region.

                    INSTITUTIONALIZING TRUST REFORM
    Mr. Chairman, in addition to the ten remaining projects in the 
HLIP, the Department also has the responsibility of institutionalizing 
trust reforms and ensuring that the problems do not reoccur. To remedy 
one of the four breaches of trust identified by the District Court in 
the December, 1999, decision in the Cobell litigation, we are in the 
process of conducting a thorough analysis of our staffing requirements 
for all aspects of delivery of trust services, including the Tribes 
that manage trust programs. Other trust-related services include: 
enforcing the terms of leases and taking actions against trespassers, 
which covers over 100,000 surface leases, in addition to timber sales, 
grazing permits, and rights of way; courts and social workers who 
oversee supervised trust accounts. Also, ensuring that Indian Tribes 
meet the same standards that are placed on the Federal government as 
trustee will necessitate an assessment of Tribal capacity prior to 
entering into any contract, as well as conducting on-going reviews of 
Tribal trust management.

                        TRIBAL-FEDERAL RELATIONS
    The obligation to conduct meaningful consultation with American 
Indian Tribes and Alaska Natives remains a priority for the BIA. For 
the last 25 years, the BIA has been moving farther and farther from 
direct intervention in Tribal affairs. Through the Indian Self-
Determination Act, Congress has authorized Indian Tribes and Alaska 
Natives to redesign programs, to re-prioritize program funding, and to 
develop their own operating standards. Tribes determine staffing levels 
and required staff competencies. By law, reporting from most Tribes is 
limited to an annual financial audit and a brief program narrative. 
However, the Indian Self-Determination Act also provides that nothing 
in the Act shall serve to reduce the Secretary's trust responsibility. 
That means that we are equally responsible for Tribal actions or 
inaction in the delivery of trust services as we are for our own. We 
will do our best to work with Indian Tribes to reach consensus on how 
we assure that both the BIA and the Tribes meet the standards required 
of a trustee. Implications from the ongoing Cobell case will also play 
a role in these discussions, especially in records management.
    The published final regulations state that trust records are 
Federal records and are subject to the provisions of the Privacy Act. 
We must ensure that those with access to the records, both BIA and 
Tribal, meet the federal standards required of those who hold sensitive 
positions.
                               CONCLUSION
    In the next weeks, we will be sending you the President's budget 
request for fiscal year 2002 that will continue the efforts for trust 
reform.
    This concludes my opening statement, Mr. Chairman. I look forward 
to working with you and the Committee and thank you for the assistance 
it has provided on behalf of trust reform. I will be glad to respond to 
any questions from the Subcommittee at this time on trust reform.

    Senator Burns. Ms. Blackwell, thank you and thank you for 
bringing your talents to the table. You undoubtedly know the 
subject, and so we just thank you for your dedication to this 
and we appreciate that very much.

                  Summary statement of Robert J. Lamb

    We have with us today Bob Lamb, who is Deputy Assistant 
Secretary of Budget and Finance. Would you like to offer any 
comments at this time?
    Mr. Lamb. If I could, just very briefly, because I know you 
want to get on with the questions.
    The article you referred to also had a fourth story that I 
noticed and it was about appropriations and the Congress being 
locked up in appropriations disputes near the end of the 
session. So, in some ways the article is also prescient in 
terms of some of the debates we have been through.
    But for this committee and this project, we have nothing 
but thanks for your strong support, as well as Senator 
Campbell's legislation last year, shepherding through Indian 
land consolidation, which we have said for many years--and I 
know the Senator firmly agrees--is the root problem of the 
fractionation problem which causes this very complexity that 
you have alluded to, Mr. Chairman.
    I was the Budget Director in 1990 for the Department when 
the trust reform effort started, the tribal trust effort and so 
forth. I testified in the trial. One of the topics was whether 
or not the Government had provided sufficient resources. The 
judge heard my testimony and that of others and dismissed that 
charge, in large part because, while the appropriations process 
is complicated, this committee has been very responsive, as has 
OMB, and we appreciate that.

                             TAAMS PROGRESS

    You did ask about progress, and if I could just briefly 
mention three things that I think indicate progress. They are 
not things that I am going to say. I am going to point to 
others. I think the two witnesses have pointed to what we are 
doing. I just wanted to call your attention to three things.
    One, with regard to TAAMS, it is not often that the General 
Accounting Office ever says anything nice about an agency, but 
with regard to this project--and again, because the Indian 
Affairs Committee asked them to step in and take a look--it 
does point out, in their most recent review of TAAMS, that 
significant improvements are being made, but there are still 
risks. They point out that Interior is taking the critical 
steps necessary to install the processes, practices and 
discipline needed for this system. They concluded their study 
by saying significant actions to strengthen TAAMS management 
have begun as we have begun to recognize the value of following 
disciplined processes. We have to keep on that course, but we 
are getting there. It requires our continuing attention.

            National Academy for Public Adminstration study

    The other study I would like to mention, also supported by 
this committee, was a complete review of the Bureau of Indian 
Affairs' administrative capacity. As you know, the Bureau has 
suffered staggering FTE reductions over the years, at times 50 
percent. Although this study was focused primarily on its 
administrative management, when the National Academy for Public 
Administration, using funds appropriated by this committee and 
under the direction of this committee, happened to stumble into 
trust reform when it was out interviewing people, it made this 
observation. A 1993 comparison of BIA natural resources staff 
with those in the Department of Agriculture and other agencies 
with similar natural resources management responsibility--and 
Mr. Slonaker has indicated it is the source of the income--
showed that BIA would have to more than double its staff to be 
on par with other agencies. In light of the substantial BIA 
staff reductions since 1993, the differences in staffing levels 
are even greater today. The same Indian forest management 
assessment team report cited that BIA Indian forestry programs 
as having 2.8 natural resource professionals or foresters per 
million acres while the Forest Service has 14.
    And the report goes on. Again, the resources are needed. 
And last year in the current appropriations that we are now 
executing, this committee provided for the first time 
additional resources to focus on the land management 
responsibilities of the Bureau. Again, we thank the committee.

                          Trust reform efforts

    Last, the court itself, while in the trial saying that 
court supervision is absolutely required and will be maintained 
over the next 5 years, did cite that we are failing to meet our 
trust responsibilities, but did acknowledge that significant 
steps towards reform, towards meeting the discharge of our 
trust responsibilities are underway. Both the appeals court and 
the district court acknowledge that. We are making progress.
    This, as you said, Mr. Chairman, is a daunting task. It is 
our most solemn obligation and our most serious management 
challenge in the Department.
    We thank you for your support. It has the full attention of 
Secretary Norton, and we are taking the comments of Mr. Nessi 
and everyone seriously.
    Senator Burns. Well, we thank you.
    Just from my own observation, this particular exercise 
leading to a positive conclusion is ultimate to our 
responsibilities we have to the Native Americans and also to 
rebuild a trust that has eroded over the last 100 years.
    By the way, I get a big kick out of these old newspapers. 
This is out of Philadelphia. In the same article, it says under 
personal notes, among the visitors to Fortress Monroe are 
Senators Thurmond, Boge, Veelinghasen, Stephenson, and 
Representatives Page and Platt. Senator Thurmond has been lying 
about his age.

                 Cobell litigation--document production

    Let us go back to some of these questions and highlight 
some of the things. There is a stack of documents on the Cobell 
litigation I see on the table. They are way down yonder. I just 
need someone to lay it out and tell us what this is all about 
and to explain what is going on here.
    Mr. Lamb. Mr. Chairman, if I could, what you have at the 
end of the table is the index of the documents that we 
produced, page after page. Those files indicate the documents 
that we produced.
    Now, why did we produce these documents? Under the 
discovery request for the first trial, the Government lawyers 
promised to produce for the five named plaintiffs and their 
predecessors all documents related to the trust. Now, whether 
that was a wise decision or a foolish decision, it was a 
commitment.
    Senator Burns. It was a decision.
    Mr. Lamb. In fact, it was that failure to respond in a 
timely manner to that court order that resulted in two cabinet 
officers and the Assistant Secretary for Indian Affairs being 
held in contempt.
    As a result of that contempt trial, we came to the Congress 
and asked for the funds necessary to assemble these documents. 
We were not doing it in a timely way. That was clear. We spent 
$20 million. We produced 160,000 documents, 386,000 pages of 
documents, for the 5 named plaintiffs and their 31 agreed upon 
predecessors. We looked at 76 tracts for the predecessors in 
interest and 33 for their lineal predecessors, a total of 109 
tracts. It required eight different bureaus of the Department 
to be involved and visitation of 77 sites.
    I have to tell you, Mr. Chairman, this was not just going 
through a file cabinet and saying, oh, it is right here all 
organized. It meant going through tens of thousands of boxes to 
determine which documents were responsive and which were not. 
It was a tremendous undertaking.
    We have delivered these documents to the court, and so that 
this tremendous investment bears some fruit, we have hired 
Ernst & Young, an accounting firm. Even though this is not the 
scientific sample across the entire landscape of IIM accounts, 
we will do an accounting based on these records of these five 
named plaintiffs and their predecessors to see how much income 
did we collect, how much did we pay out, did the lease tie to 
what we show in our records, et cetera. I think it will be 
helpful both in our effort to do a more scientific sample and 
to get some value out of this document production.
    Senator Burns. I did notice one of the litigants was 
Cobell, and you did that schematic which we see up here. That 
80 acres--it boils down to the ownership of .0080 of 80 acres. 
Now, you cannot even raise a tomato plant on that.
    Spoken like an old farm kid.
    What did all that cost?
    Mr. Lamb. That cost us $20 million. The documents 
themselves are obviously a much bigger stack than that. That is 
just the index, Mr. Chairman.
    Senator Burns. Boy, do we know how to spend money.
    Does this also include the resources of the Department of 
Justice? Does this also include the work that they have done?
    Mr. Lamb. We have paid for some of the Justice cost, but 
only some as it relates to their assistance in our carrying out 
some support functions. In addition to that $20 million I am 
sure the Justice Department----

                             Trust records

    Senator Burns. I can remember Senator Campbell in a hearing 
alluding to records being stored in old houses and they were 
water damaged and time damaged. Then I am going to turn it over 
to him. We have some questions here. It looks like it would be 
awfully hard to verify the authenticity of those records.
    Mr. Lamb. For example, in one of these tracts, they have 
been able to go back and track this. It is rather impressive.
    I would also point out when we started the tribal 
reconciliation project, the thought was we would never find the 
documents to support the tribal transactions. I was looking 
over the data again last night, and we found supporting 
documentation, as determined by Arthur Andersen, for the basic 
reconciliation of 90 percent of the transactions.
    Now, part of the problem that we have is we all feel that 
the Federal Government has let down the tribes and individual 
allottees. We feel guilt for that. It has occurred over a long 
time. These are complicated matters. Mr. Chairman, I appreciate 
the time you spent in going over these details and your obvious 
command of them.
    When we produced the documentation, the 90 percent of the 
documentation that we found, Arthur Andersen said that we had 
found about 90 percent of this. The newspaper accounts said 
that the Interior Department had lost $2.4 billion. The 
Interior Department did not lose $2.4 billion. It did not find 
the supporting records to document $2.4 billion worth of 
transactions that were in the system. It found over $15 billion 
of those transactions and found the supporting documentation. 
But in a matter this complex, when it gets rolled up into a 
headline, the easy snapshot is Interior lost.

                              IIM accounts

    In the same article about Mr. Nessi, it said the Department 
has failed to keep track of 50,000 or 65,000 account holders. 
Well, there are people here who can tell you what we have done. 
It is a question, I might offer, that account holders have not 
told us where they are.

                            Address updates

    Ms. Blackwell told me the other day that she had not 
updated her account recently, and why? Because a large percent 
of the individual accounts are very small income-producing 
accounts, and in some cases it does not make sense to go back, 
to notify. Ms. Blackwell indicated to change an address, or 
make a change to an IIM account, or for disbursements OST 
requires the account holder's signature to be witnessed by any 
Department of the Interior employee or be notarized by a notary 
public.
    We are trying to close this gap. I think this is one of the 
things that discourages those people who are working on this 
daunting task. The overall summary, when it is rolled up, 
paints a very bleak picture. We have got to get this job done. 
We are working to get it done, and with your help and support, 
we will continue.
    Senator Burns. We are going to help you. I will just make a 
comment here before Senator Campbell.

                              Crow agency

    I am familiar with the lady who used to have the trust 
responsibility for everybody down on the Crow reservation. 
Campbell Farming Corporation was one of the big corporations 
down there that farmed all that land out to the west of Crow. 
Nobody in that tribal government knew anything more than she 
did. She almost had it by memory. She was the lady that did it 
all. And then she passed away. Come to find out, she remembered 
it all, but she did not put everything down on paper. It was a 
daunting thing.
    Senator Campbell, you have some questions.
    Senator Campbell. Thank you, Mr. Chairman. A couple of 
comments.
    First, who provided this very nice schematic for us? Was 
that Ms. Blackwell?
    Ms. Blackwell. Yes. That was prepared by the Bureau of 
Indian Affairs.
    Senator Burns. I suppose you found yourself in there.
    Senator Campbell. Listen, overweight guys who do not have 
glasses and are over 50 cannot even read this thing.
    I was going to suggest in the future make it a little 
larger. I cannot even read the thing. It looks like a DNA 
schematic or something.
    Ms. Blackwell. We brought the larger one, Senator Campbell.
    Senator Campbell. Well, anyway it does allude to the 
complexity of it, even though I cannot read most of the names. 
It is too small. But thank you for providing that. I will give 
that to a young staffer with 20-year-old eyes who can tell me 
what it says.
    Let me ask Ms. Blackwell something first. I am a little bit 
confused. Maybe Mr. Lamb can chime in on this too.

                              Data cleanup

    You mentioned the process that is going on now of examining 
and cleanup. Is that a code word for some high tech method of 
trying to record these in a machine, or does cleanup and 
examine mean you are getting into those boxes and garbage bags 
and so on down in Albuquerque and finding documents that 
originally we were told were lost?
    We had been told at one time at least 100,000 documents 
were missing. Mr. Lamb suggested that about 90 percent of those 
documents now are there. Is the other 10 percent the 100,000?
    Mr. Lamb. If there is anything I have learned over the 
years on trust reform, it is very hard to make any generality 
because you always can find exceptions. But I went back to the 
Arthur Andersen study and then the work that we did after and 
looked at what they said in terms of the basic reconciliation 
efforts. They found about 85 percent of the transactions. We 
did another 5 percent after that. And we could account for, in 
that basic reconciliation project, by their terms, supporting 
documents for those.
    Senator Campbell. For a layman like me, 90 percent sounds 
pretty good, but I imagine if I was in the other 10 percent and 
my documents were lost, I might not be too happy.
    Mr. Lamb. Absolutely.
    Senator Campbell. Mr. Slonaker brings a world of experience 
here with an M.B.A. from Harvard and former head of the Farm 
Credit Funding Corporation, Senior VP of the Mellon Bank, and 
so on. In your private life, if you said to your stockholders 
or your people who had investments or savings in the Mellon 
Bank, you tell them, well, listen, we are in pretty good shape, 
we know where 90 percent of the money is, it would not be a 
real vote of confidence, would it, for that other 10 percent. 
So, I try to put that in perspective. 90 percent is great, but 
boy, there are still going to be some people, if we do not find 
the remainder of it, who are going to be hurt.

                         Trust reform authority

    I wanted to ask you perhaps, Mr. Slonaker, do you need 
additional authority to give some real discipline to the 
reform? And if you do, could you suggest what we ought to do 
from a legislative standpoint, No. 1?
    No. 2, maybe you can give us idea, since this committee is 
going to have to go to bat for the funds in the full committee, 
of what additional appropriations you might expect to be asking 
for?
    Mr. Slonaker. Let me take the second question first. In 
general, Senator, I do not believe this is a question of 
funding. I think to echo what Bob said just a moment ago, the 
funding by Congress of these efforts has been certainly more 
than adequate. The real issue here has been, not to belabor the 
point, a question of management.
    The authority question is a very interesting one. I think 
it is reasonable and fair to say that that is a question that 
we are examining within the Department right now. It is true 
that the Special Trustee, if you read the 1994 act carefully--
and you had a good part in forming it--does not give the 
Special Trustee line authority over this effort. I basically in 
my role represent the Secretary and attempt to ensure and 
coordinate the effort, but it is not line authority.
    Probably somebody needs to be in charge and there also 
needs to be accountability down the line. As I said earlier, 
there is massive change on the ground here in terms of trust 
process and procedures, and that massive change is threatening 
normally to human beings, even though it should not be 
threatening to them. It makes their job better and easier and, 
most importantly of all, it is all for the benefit of the 
beneficiaries ultimately. But I do think there is a question of 
line authority and I think there is a question of acceptance 
and accountability down the line.
    Senator Campbell. Well, I was going to take that up with 
the Secretary, whom I am going to see in a couple of days. But 
as you probably know, in 1994 the Secretary then did not 
support line authority. He wanted some involvement and wanted 
him directly to report to him. Your predecessor got crossways 
with him because of that, as you remember. But I appreciate 
your doing that.

                               NESSI memo

    I might also mention that that so-called confidential memo 
from Mr. Nessi, if I could say it in New Yorkers' terms, 
confidential in this town? Forget about it.
    Senator Campbell. There is no such thing.
    Mr. Slonaker. We learned that in a hurry.
    Senator Campbell. The press probably saw that thing before 
you did.
    Well, in any event, if there is additional authority 
needed, if you could tell this committee or at least the Indian 
Affairs Committee at your earliest convenience, we will try to 
do whatever we have to do.

                          Statistical sampling

    Also, as I understand it, the plaintiffs want to use what 
is called the economic model to get accurate balances. The 
agency wants to use what is called sampling. Could you explain 
very quickly the difference between those two proposals and if 
there is a legislative proposal that would help it?
    Mr. Slonaker. Well, I am not sure I can give you the best 
definition of the plaintiffs' approach, but I will give it a 
good try. I have not been permitted to see it, so until I do, I 
really cannot tell you authoritatively.
    But basically I believe the approach is to look at the land 
assets over a period of time at the opportunities they could 
have had in terms of being leased out and the revenues that 
could have been derived. In some cases, I think there are 
sufficient records, particularly in the oil and gas industry, 
that provide some pretty good tracking of leasing and lease 
payments. To reconstruct a revenue flow that could have existed 
I think is the fair way to say it. I think that is a very 
interesting approach, but it is only one approach.
    The difficulty that we have, as I alluded to before, is the 
condition of the records and the cost of uncovering and 
reconstructing all of the records that we have. The Department 
felt, and Secretary Babbitt agreed, that a sampling approach 
might begin, to use my words, to corral in where the final 
answer is in terms of what is owed under an accounting.
    So I think, Senator, it is probably a combination of those 
two approaches, and there are some other statistics and facts 
that we have been able to gather over a period of time, 
including the study of the tribal accounts which gives you some 
clues, that can produce some kind of a reasonable number in 
this matter.

                            Project timeline

    Senator Campbell. One final thing, Mr. Chairman. I think 
Indian people, and certainly this committee too, have a right 
to get a little better handle on how we are moving and if there 
is going to be a deadline for the completion of the project. I 
do not expect you to have that just off the top of your head 
now, but we would be very interested, and I am sure Indian 
country would too, in finding out, if the light is at the end 
of the tunnel, when can we expect a deadline to be met and a 
total cost figure to be reported. So, when you have a little 
firmer information on that, I am sure we would appreciate it.
    [The information follows:]
                Statistical Sampling Timeframe and Costs
    The Office of the Special Trustee recently selected a senior 
executive level Project Manager to oversee and guide the Sampling 
Project, who reported for duty to OST on April 9, 2001. The first major 
task for the Project Manager is to develop the detailed plan requested 
by the Committee. Preparation of the plan will be preceded by a period 
of consultation by the Project Manager with a wide variety of 
interested parties and by consultation with one or more technical 
experts on statistical sampling techniques. This is a complicated 
effort that will take a considerable period of time. A long-term 
funding commitment by both the Administration and the Congress is 
essential for ensuring that the project can move forward to address 
issues as they arise. We believe that the conceptual approach of 
examining issues and methodologies, evaluating results, and only then 
proceeding with full scale sampling, should that be warranted, assures 
the Congress that the funds for this project will be used prudently. 
The fiscal year 2002 budget request for OST includes $7.5 million to 
continue efforts to develop and implement a statistical sampling plan.
    While the cost to complete the Project are unknown, a very rough 
cost estimate, based primarily on experience with the plaintiffs' 
records in the Cobell case, was derived using some initial, preliminary 
assumptions as a starting point:
  --Assume a sampling of 350 accounts. This number might be understated 
        given the difference in records systems from year to year and 
        agency to agency, as well as the availability of records and 
        ease of accessing them.
  --Assume a cost ranging from $50,000 per account (those more recently 
        opened) to $200,000 per account (the approximate cost of the 
        Cobell account analyses).
  --Under these assumptions, the cost, excluding any DOI staff, and 
        related contract development and management expenses, ranges 
        from $17,500,000 to $70,000,000.
    These are rough approximations based on limited (although 
intensive) experience with records production, and we will have a 
better idea as we move through the early project development phase.

                          Tribal consultation

    Senator Campbell. Last, one of the complaints this 
committee, and Indian Affairs too, often gets is that Indian 
input and involvement from tribal groups is not enough, and the 
agencies often make their decisions in a vacuum, and then they 
say, this is it and what do you think of it.
    I do not know if you have been active with some of the 
Indian associations like the National Congress of American 
Indians, but I know that they have insisted that, if there are 
new regulations, they should incorporate both internal controls 
and accounts receivable too. It is my understanding that the 
Department's proposed regulation states we believe the 
regulations are not an appropriate place to address accounts 
receivable. Would you like to comment on that?
    Mr. Slonaker. That is a complex matter. The real issue here 
is, do regulations address the policy, or do they get down into 
actual procedures? I think there is a feeling within the 
Department that that particular subject gets more into 
procedure and out of the status of policy.
    Another complication is that these regulations replaced, as 
I understand it, in some cases regulations that have been in 
place for a long, long time. Regulations are not easily 
changed. So, one must be very careful, in my opinion, that you 
write regulations in such a way that they can cover some broad 
circumstances as the landscape changes over a period of time. I 
think that is the heart of the issue here, Senator.
    Senator Campbell. Well, you know the term ``negotiated 
rulemaking.'' I would encourage that as you move along, you 
include tribal input.
    Mr. Slonaker. Absolutely.
    Senator Campbell. I hope you would.
    Thank you, Mr. Chairman.
    Senator Burns. We never encountered negotiated rulemaking 
in the U.S. Marine Corps.
    I want to pick up on what Mr. Slonaker said. Usually 
progress is either slowed or stymied because of a couple of 
things, and that is, it was asked about bright line authority 
and definitions. Would you agree with his statement that he 
just now made on bright line authority? And do we need to do 
some work maybe along those lines legislatively?
    Ms. Blackwell. Thank you, Mr. Chairman.
    I have not had an opportunity to think about legislation. I 
think that it is an appropriate time in trust reform to look at 
management at the top and management within the Department of 
the Interior as these projects begin to come together. The 
Bureau of Indian Affairs has responsibility for only five. 
There are other projects under the direction of the Office of 
the Special Trustee for American Indians, the Minerals 
Management Service, and others. We are at a place now where we 
do need some kind of central coordination as they meet each 
other. Whether or not that takes legislation, I am not sure 
that legislation is necessary.
    Mr. Lamb. Mr. Chairman, the Department is fortunate to have 
rather broad legislative authority in terms of how it organizes 
itself. Under the 1950 Reorganization Plan Act, the Secretary 
can make organizational changes. We normally do those in 
consultation with the Congress. But I know the legislative 
route is a long and drawn out one often.
    Senator Burns. We do not draw too many bright lines up 
here, I will tell you.
    Mr. Lamb. The conversations that Senator Campbell is going 
to have with the Secretary and I am sure that you will--I think 
there is existing legislative authority in terms of flexibility 
of who reports to whom and who is held accountable.
    Senator Burns. Especially in this asset and accounting 
management systems, I think it is very important that there be 
some bright lines of authority because you have got to make 
some decisions independent of what is going on around you.

                      Trust fund accounting system

    Tell me about the Trust Funds Accounting System, the TFAS, 
your progress there. Are you satisfied with it? Just give us an 
update on that.
    Mr. Slonaker. The so-called TFAS system is actually a 
system that I was familiar with in the private sector and is 
basically a service bureau, largely off the shelf, if you will, 
and a very competent system. It is up and running in every 
respect. In fact, Donna Erwin who is the director in 
Albuquerque who manages and oversees that activity is here. So, 
that is one project that has actually been completed.
    If I can carry your question just another inch or so, that 
system, the TFAS system, will couple up with the TAAMS system. 
So, the TAAMS system is really accounting for the assets and 
passing the information through the interfaces.
    Senator Burns. Those two systems can interface? They can 
talk to one another?
    Mr. Slonaker. They will be, yes. The interfaces are, I 
think it is probably fair to say, pretty much in place, but 
they are not completed yet. But the TAAMS system itself has to 
be brought into an operational mode, and then the interfaces 
will be there. So, those two systems will, in effect, become 
almost a service bureau to the whole trust system. But TFAS 
will not work at its best until TAAMS, of course, is in place.

                             PRIVATE SECTOR

    Mr. Lamb. One of the questions that always comes up is why 
do you not just contract this out. In essence, that is what we 
have done. This financial system that we are using is used by 
150 different banks and financial institutions from Wells Fargo 
to Bank One to Mellon to State Street, et cetera. So, we are 
using the private sector. We did not build a unique system. We 
are using a system that is a common service provider. It makes 
a lot of sense.
    We have been doing daily reconciliations of our accounts 
with Treasury, going back for almost 10 years now.
    Again, there are always stories. We cannot reconcile the 
past until we get some sort of settlement. Paul Holman has said 
this. Mr. Slonaker has said this. We cannot say for certain. 
Our annual audits of our trust accounting system always come 
back to saying, well, we are not sure. As auditors, we cannot 
tell you what the beginning balances are until you settle the 
past.
    We have focused in this effort to fixing the future, and we 
have in place now for a year this system used by 150 major 
financial organizations that is looking well. Account holders 
are getting quarterly statements. But we have not resolved the 
past.
    Senator Campbell. If I might interject, Mr. Chairman, a 
couple of years ago, Senator Murkowski and I and several others 
believed that the Department simply could not straighten up the 
problem with regard to investment options. We introduced a 
bill, in fact, to let the private money managers, the private 
industry who are skilled in that expertise do it. The 
Department obviously opposed that and felt it could. As I 
understand you, you are using the systems that would have been 
used if we had turned it over to the private sector and it 
seems to be working.
    Mr. Lamb. Yes, and we are using other techniques and other 
advisers. Donna Erwin can elaborate if you like. But we are 
using the best practices of the private sector.
    Senator Campbell. Well, at the time we introduced that 
bill, there was some unfortunate response from some of the 
tribes who thought that it might somehow erode trust 
responsibility, when in fact it was sunsetted so it would have 
come back under the jurisdiction of the Bureau after it was 
straightened up. But I am glad you are using the skills that 
work so well in the private sector.
    Senator Burns. Do you want to comment on that, Ms. 
Blackwell?

                                 TAAMS

    Ms. Blackwell. Yes, Mr. Chairman. I just wanted to make 
sure that the committee understands that, as Special Trustee 
Slonaker has said, TFAS is essentially an off the shelf 
product. Mr. Lamb has testified that this is the system that is 
used by other financial institutions.
    That is very different from TAAMS. Essentially we are 
designing the TAAMS system. We attempted in a time past to 
locate an off-the-shelf system, and frankly, for those of us 
who are students of the Indian problem, it just was not 
possible. There is nothing out there to compare. There is not a 
system out there that contains the kind of intricacies and 
complexities that this Indian land title has. So, the TAAMS 
system is being developed and being designed by the users. It 
will interface with TFAS.
    We also have plans to interface with MMS' system as well. 
TAAMS will be feeding to the mineral royalty system.

                       DIRECT PAY LEASE PAYMENTS

    Senator Burns. Let us take that a little bit further. In 
last year's hearing, I asked a question regarding lease 
payments on the Crow Indian reservation. You remember that. At 
that time BIA was in the process of changing the method of 
distributing lease payments. Instead of allowing the American 
Indians to receive lease payments directly from leasees, the 
BIA was in the process of requiring those payments to go 
through the BIA first before going to the owners. Obviously, it 
would be easier for the tribes if they could obtain those lease 
payments directly. On the other hand, I understand that the BIA 
has concerns and may require those funds to pass through the 
BIA first so they can be adequately accounted for.
    Can you tell me the status of that issue, and what was the 
final outcome of it?
    Ms. Blackwell. Yes, sir, I can. In response to the concern 
that was raised in this committee and in response to the BIA 
consultation policy with individual Indians and Indian tribes 
across the country, as we developed these regulations, we had 
regional consultations. In response to that, we rejected the 
idea of prohibiting direct pay, and the regulations that were 
effective last Friday continue the direct pay provision.
    Senator Burns. Thank you. Good answer.
    Senator Campbell, do you have any further questions?
    Senator Campbell. No. I have no further questions, Mr. 
Chairman.
    But I would reiterate, since we are going to have a tight 
year for the appropriations process, that we need to know early 
on if it is going to take additional money to help you.

                           LITIGATION EFFECTS

    Senator Burns. The litigation we understand has caused some 
spinoff problems down there tying up personnel, and sometimes 
morale gets a little low. Every time we try to do something, 
the litigants become a part of the problem. Tell us how it is 
going with them in this situation and how you deal with that.
    Mr. Slonaker. It presents difficulties. There is what I 
would consider to be a great deal of motion practice, which I 
think the attorneys would call it, that is going on between 
Justice and the plaintiffs' attorneys. A lot of that is related 
to records. A lot of it takes work. People are subpoenaed. I do 
not know whether it is any different than in the private 
sector. It is certainly far more active than I have ever 
experienced. But it does consume time and it takes time away 
from trust reform, and we just have to deal with it.
    Mr. Lamb. More broadly, Mr. Chairman, I just jotted down 
this morning when I got to work what we are doing 
simultaneously. This is not all court-related. It is the scope 
of this project. It is not all the plaintiffs' practice of law. 
Simultaneously we are building new systems. We are reforming 
business practices and making more uniform those policies 
across BIA's 12 regions. We are rewriting regulations that are, 
in some cases, 50 years old. We are converting paper records to 
electronic media. We are converting old systems information to 
new systems. We are filling out data gaps. We are tracking down 
account holders. We are responding to document production 
requests and court requirements. We are interfacing systems, 
one system to the other, as you just heard. And our employees 
are being deposed.
    Senator Burns. What do you do the rest of the day?
    Mr. Lamb. These are the same people for which, in many 
cases, we had 2 or 3 compared to the Forest Service's 14. 
Again, we are building those staff. We are recruiting.
    We are using the private sector on the TAAMS system. We 
selected Applied Terravision out of Dallas, Texas. They are the 
single largest software producer in the oil and gas industry. 
They are no rookies in this business. They have been, by GAO's 
account and by our account and by our evaluation, a very 
responsive firm. We are trying to do this right, but it is an 
enormous task.

                  CLOSING OBSERVATIONS--CHAIRMAN BURNS

    Senator Burns. I will tell you that I am committed to 
supporting this effort. Tell us, as we go into the season of 
appropriations, if you would just correspond with us on your 
needs, because I think we are in a situation now where this is 
not a game and it is very serious to establish that trust, 
literally, that we need to complete this. I am dedicated to the 
situation of this coming to a successful conclusion, knowing 
that it is not going to get done in 1 or 2 years even. I think 
anytime we set dates of completing something, then we run over 
more than we pick up, and we have got to go back and do it 
again just to make a deadline.
    I know the bureaucracy loves to build a lifelong career out 
of one issue. I have always said if I went into wildlife 
biology, I would find myself an endangered species and I could 
deal with that endangered species for the rest of my career in 
government. I could not find that tree toad and I did not have 
a degree in wildlife biology anyway.
    We want to be very supportive of what you are doing, and 
this dialogue is very, very important because basically the 
taxpayers are starting to ask some questions too, and we have 
got to be responsible to our taxpayers.
    Senator Campbell. Mr. Chairman, I understand the importance 
when you talk about the number of people you would like to 
have, but very frankly, I am not sure that just sheer numbers 
count as much as expertise and skills.
    Mr. Lamb. Yes, and I am in complete agreement with you.
    Senator Burns. Your investment in people who have those 
skills is very, very important. So, anything that we can do to 
help you out in that respect, let us know. We look forward to 
working with you.
    Do you have a closing observation?

                              DATA CLEANUP

    Ms. Blackwell. Mr. Chairman, I know the hour is late. May I 
respond to Senator Campbell's question on data cleanup in 
writing?
    Senator Campbell. Yes, if you would.
    Ms. Blackwell. Thank you.
    [The information follows:]
                              Data Cleanup
    Data cleanup entails both a review of electronic records using 
anomaly reports produced from the existing databases and requiring 
subsequent research and analysis by the data cleanup contractor. It 
also requires the proper organization of paper records for direct entry 
into the TAAMS.
    The data cleanup effort is a long and arduous task with many 
components. For land title records, there is over a century of data 
that must be addressed. Even offices with relatively good automated 
data have ``lapses'' in their databases where a span of years is not 
complete. In most cases, there are paper records available to recreate 
this data. The recreation of title data is not easily accomplished. The 
data must be entered into the TAAMS in the exact order that it would 
have occurred chronologically in order to ensure the proper building of 
ownership and chain-of-title. It takes experienced data cleanup 
personnel to perform this task. Performing data cleanup on the 
remainder of the electronic records requires that anomaly reports be 
produced and that discovered anomalies be researched and corrected. 
This process is underway in all title plants where the electronic 
records have been deemed sufficient to ``cleanup''. In some title 
plants, the electronic records either did not exist or were in too poor 
condition to migrate to the TAAMS. These records are being reentered in 
their entirety.
    For leasing records, very few Regions have sufficient electronic 
files to migrate. Those that do are being cleaned up using anomaly 
reports and performing the necessary research. However, many offices do 
not have sufficiently accurate electronic records to migrate into the 
TAAMS. Those offices will have all currently active leases entered 
directly into the system ensuring a very high rate of accuracy from the 
onset.

    Senator Burns. There are a couple other members who could 
not make it this morning, and I think they would probably have 
questions. If they have questions, we will try to get them to 
you, and if you could respond to them and the committee.
    Senator Campbell. Mr. Chairman, I noted with interest that 
Mr. Slonaker retired in 1996 before he came to work for the 
government after that illustrious career he had in the private 
sector. I was wondering if he has had any second thoughts about 
retirement.
    You do not need to answer that.
    Mr. Slonaker. I do not think I will.
    Senator Campbell. Everybody has a pain threshold, and I am 
sure you are about up to yours sometimes.
    Senator Burns. I say again I want to thank you all for 
government service because sometimes you do not think it is 
worth it, but it really is. So, I want to thank you for 
accepting these duties and doing it with a willing spirit and 
all of that. I appreciate that very much.

                     Additional committee questions

    If we have more questions, we will get them to you. We will 
leave the record open. We look forward to working with you as 
we move those appropriations. Thank you for coming today. It 
has been very enlightening to me.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Conrad Burns
    Question. Please explain the U.S. Treasury's role in managing the 
tribal trust funds in the past and its current role.
    Answer. While the Interior Department is responsible for executing 
most of the federal government's trust duties, the Treasury Department 
has substantial trust responsibilities as well. In particular, Treasury 
holds and invests IIM funds at the Interior Department's direction and 
provides accounting and financial management services. The Office of 
Special Trustee has requested Treasury to provide a more complete 
response, which we will forward separately to the Committee.
    Question. Recently, there has been mention in the press that the 
Crow Tribe is concerned that they have had a delay in receiving federal 
funds and that the delay may be due to the fact that an assistant 
secretary for Indian Affairs has not yet been appointed. Please comment 
on this.
    Answer. While a news article referred to the absence of an 
incumbent Assistant Secretary--Indian Affairs, there has not been a 
delay in the BIA appropriations to the Crow Tribe. Currently, there are 
internal issues within the Tribe itself which has played a role in its 
financial affairs; however, neither the absence of an Assistant 
Secretary nor the allocation of fiscal year 2001 BIA appropriations to 
the Tribe is a factor in the situation.
    Question. It is the subcommittee's understanding that both the 
title and realty portions of TAAMS are scheduled to be implemented in 
the BIA's Rocky Mountain Region in Billings, Montana during the first 
week of June. Will the BIA be able to meet that deadline?
    Answer. The title function has been operational in the Rocky 
Mountain Region since December 2000. The BIA is currently testing the 
leasing function at the Rocky Mountain Region Office.
    Question. Please lay out the current time line for TAAMS full 
deployment.
    Answer. The development of land title and record functions was 
completed in the summer of 2000. Improvements were made subsequent to 
implementation and TAAMS became the system of record in four BIA 
Regions for title in December 2000. The leasing function is being 
tested and reviewed with a final system decision to be made in June 
2001. The land title, record, and leasing functions represent the core 
of TAAMS. The BIA is planning additional improvements to the TAAMS core 
in the fall of 2001, as well as adding modules for appraisal and 
probate.
    The TAAMS deployment of the title and leasing modules of TAAMS is 
predicated on successful user acceptance testing and a Departmental 
deployment decision. Once the foregoing conditions are met, the 
following projected deployment schedule may be slightly adjusted to 
accommodate Site Readiness Reviews. The BIA is planning to deploy TAAMS 
core modules in three phases of groups.
Group A:
    Rocky Mountain--June-August, 2001
    Southern Plains--July-October, 2001
    Eastern Oklahoma--September-October, 2001
    Alaska--October 2001-February 2002
Group B:
    Southwest--January-March, 2002
    Navajo--February-May, 2002
    Western--April-July, 2002
    Northwestern--June-September, 2002
Group C:
    Great Plains--September-November, 2002
    Midwestern--October, 2002-January, 2003
    Eastern--December, 2002-February, 2003
    Pacific--January, 2003-March, 2003
    BIA intends to phase the deployment process to complete one group 
before moving to the next. The driving force in implementation will be 
three factors: Data cleanup/data entry completion; Data migration 
(where applicable); and Training of BIA staff.
    However, TAAMS will undergo continual change for many years to come 
as new modules are added, additional features are included and as the 
system evolves to reflect changes in statutes and regulations. TAAMS is 
scheduled to be completely deployed and implemented throughout the BIA 
and required Tribal sites by the end of fiscal year 2003.
    Question. How much money has the government spent, to date, to 
develop TAAMS?
    Answer. Approximately $38 million has been appropriated through 
fiscal year 2001 for development and implementation of TAAMS. We are 
requesting $14 million in fiscal year 2002 for further development and 
deployment of TAAMS modules.
    Question. The Department of the Interior has had failed computer 
systems in the past. One that comes to mind is ALMRS for BLM. Please 
explain how TAAMS is different from ALMRS?
    Answer. The two systems have been developed in completely different 
environments. TAAMS has had a high degree of user input from the 
beginning of the development effort, ensuring a much higher degree of 
acceptability. It is our understanding that the BLM user did not have 
as much participation in the design and development process as the BIA 
user community. Additionally, the manner in which TAAMS was developed 
(evolutionary prototyping) has allowed for the user to see the system 
in action at key points along the process and to make any necessary 
changes before the next prototype was developed.
    Question. What assurance do you have that TAAMS will not be another 
failed computer system?
    Answer. All system developments have risk, however risk with 
respect to TAAMS is minimized by the work performed up front on the 
design and planning of the system. Initially it was determined that the 
software for TAAMS was commercially available, and thus, minimal design 
was needed up front. When it became clear that that minimally modified 
commercial off-the-shelf software (COTS) product would not meet the 
needs of the BIA to fully carry out its trust responsibility, the BIA 
worked hard to customize the software design to ensure the greatest 
possibility for success. The BIA believes that the success of TAAMS 
software development is demonstrated by the deployment of the land 
title module, as well as in recent testing of the lease module.
    Question. The backlog of probate cases is serious and will only get 
worse if the government does not get a handle on the situation. Have 
you made any progress in this area?
    Answer. Yes. Work began on the BIA probate backlog in fiscal year 
2000 and has continued in fiscal year 2001 with the modification of one 
contract and execution of a new contract to reduce the backlogs in case 
preparation, processing, and posting and recording new title 
information. The Office of Hearings and Appeals' Probate Rule is 
expected to be published in the Federal Register by June 2001. The 
Attorney Decision Makers (ADMs) should eliminate the summary 
distribution backlog by the end of the fiscal year 2001. Additional 
progress includes establishment of partnerships with approximately 60 
Tribes for the performance of probate functions, completion of Phase I 
Workforce Planning at the end of April 2001 and nation-wide training 
for the web-based, probate data-tracking system. A summary of the 
status of activities follows:
    Probate Case Processing Backlog.--There were approximately 5,400 
cases identified in the HLIP in which 90 days had elapsed since BIA had 
received the notification of death, the time frame that the existing 
OHA regulations allow for BIA's processing of the case. Under the BIA's 
final regulations, effective March 23, 2001, the time to complete the 
probate package was changed to 120 days after the verification of the 
death to provide an adequate and more realistic timeline to prepare a 
probate package. In fiscal year 2001, the BIA executed a contract to 
conduct a pilot to plan and budget for this work. The pilot sites 
selected are three BIA agencies and one contract Tribe within the 
Western Region (Phoenix area). The pilot's goal is to complete 
approximately 120 cases within four months and prepare a project 
management plan to roll-out the contract on a national basis. The plan 
is to begin work in the entire Western Region by June, 2001. This 
effort is expected to be completed by fiscal year 2003.
    Summary Distribution Backlog.--This backlog is the primary focus of 
work in fiscal year 2001. Approximately 1,000 backlog cases which 
involve only trust funds must be prepared, processed, and if the heirs 
elect, decided through summary distribution. For the three-month period 
ending January 31, 2001, 331 cases were submitted and 231 cases are 
pending decisions. In summary distribution, the BIA probate staff must 
first prepare the probate package and then refer the case to the ADMs. 
If all the summary distribution cases are prepared and submitted, the 
ADMs should eliminate the summary distribution backlog by the end of 
the fiscal year 2001.
    BIA Posting and Recordation Backlog.--Approximately 4,600 cases 
have been decided, but are awaiting BIA posting and recording actions 
to amend the land ownership records to reflect the new ownership set 
forth in the decision. This includes posting, recordation of title 
information in the Land Title and Records Office (LTRO), and amendment 
of BIA agency records. In July 2000, BIA awarded a contract to initiate 
the work at three LTROs: Great Plains Region (serving the Great Plains 
Region, Aberdeen, South Dakota and Midwest Region, Minneapolis, 
Minnesota); Southwest Region (serving the Southwest Region, 
Albuquerque, New Mexico; Navajo Region, Gallup, New Mexico; and Western 
Region, Phoenix, Arizona); and the Northwest Region, Portland, Oregon. 
As of February 2001, 765 cases involving 7,123 tracts have been 
completed at these three LTROs. An additional 216 cases have been 
completed by the contractor and are awaiting BIA approval. The contract 
to eliminate this backlog continues throughout the remainder of fiscal 
year 2001 and into fiscal year 2002.
    Backlog Created by Youpee v. Babbitt.--In response to the Supreme 
Court's decision, approximately 178,000 restricted and trust interests 
involving 13,000 estates will be redistributed. In fiscal year 2000, a 
pilot project was conducted at the Southern Plains Regional Office 
title plant and at its Pawnee Agency to redistribute the escheated 
interests in 65 estates. The data collected in the pilot is currently 
under examination and a final report is targeted to be completed by May 
2001. In fiscal year 2001, Phase II of the Youpee pilot is designed for 
the Office of the Special Trustee for American Indians, Office of Trust 
Funds Management (OTFM), to study the financial costs of determining 
the amount due and payable, including interest, and the income to the 
proper heirs or devisees. In fiscal year 2002, Phase III of the Youpee 
pilot will examine nationwide land valuation to determine the costs to 
buy-out the escheated interests.
    Based on these pilot activities, the BIA will develop a national 
rollout plan to be implemented in phases. The redistribution of 
escheated interests will be contracted and will continue for several 
years. Funding for the redistribution contract is included in the 
fiscal year 2002 request for the Indian Land Consolidation Program 
account in the Office of the Special Trustee.
    Question. What would make trust reform efforts in the probate 
backlog area easier?
    Answer. Project management plans are addressing three areas of 
backlog in the BIA: (1) posting and recording; (2) case preparation and 
processing; and (3) Youpee redistribution. These backlog tasks are to 
be contracted to an independent contractor to provide the BIA and 
Tribal probate field staff an opportunity to complete the backlog in 
summary distribution cases and to maintain their current caseloads.
    As ownership of Indian land descends from one generation to 
another, fractionation of ownership has burdened the Department's 
ability to administer the transactions generated from resources located 
on the lands, maintain current and up-to-date ownership and maintain 
records and timely distribute income. The BIA's land consolidation 
program has consolidated over 29,000 highly fractionated interests in 
allotted Indian lands to date. Implementing the new provisions of the 
Indian Land Consolidation Act Amendments of 2000 will further ensure 
the success of the Department's efforts in consolidating fractional 
interests to reduce the administrative burden and improve the economic 
value of the lands for the Indian owners.
    Question. Pursuant to the recommendation in the National Academy of 
Public Administration report, the Bureau of Indian Affairs moved the 
Office of Information Resources Management to Reston from Albuquerque 
so that it would be closer to BIA headquarters. Funds were appropriated 
to support this move.
    Please give us an update on the move as to whether the move was 
successful and whether the move achieved its intended purpose.
    Answer. The relocation, which addressed issues raised in the 
National Academy of Public Administration Study report, has placed the 
Office of Information Resources Management (OIRM) under closer 
supervision of the Assistant Secretary--Indian Affairs' senior 
management. The data center operations and programming support 
continues to be contracted with ISI, Inc., who originally assumed these 
functions when most of the OIRM staff chose not to relocate to the 
Reston facility. Only 13 OIRM staff transferred to the Reston facility. 
Hiring replacement employees for those that chose not to relocate has 
been a challenge in the competitive environment of the greater 
Washington, DC area. However, contracting for services has been 
somewhat easier. Since April 2000, the OIRM staff has increased from 13 
FTE to 42 FTE and 20 contractors. The OIRM is in the process of 
extending the ISI, Inc. contract for an additional year. The contract 
extension will require thorough documentation of computer room 
operations and legacy computer programs so that overall knowledge of 
operations and support will increase. The goal is to increase the 
overall quality of OIRM support. OIRM anticipates the need to continue 
to contract for legacy system support and data center operations; the 
need for contractor support will diminish as TAAMS becomes operational.
    Question. The BIA has been under a lot of criticism regarding the 
BIA's control of the financial records for American Indians and Alaska 
Natives. Has the BIA always been responsible for these financial 
records?
    Answer. Throughout its history, BIA has made, received and 
maintained financial records pertaining to American Indians and Tribes. 
Today, the records management policy for BIA and OST is under the 
auspices of the Office of Special Trustee.
    Question. What is currently being done to find the financial 
records that are deemed lost?
    Answer. After the court's December 1999 ruling, a sub-project was 
initiated to obtain missing documents and information from sources 
outside the Federal Government. The effort is designed to: (1) describe 
the nature and extent of IIM trust accounts since passage of the Reform 
Act; (2) present a logical approach to assess the state of 
documentation, information and data available and necessary for the 
Department to meet its obligations under the Reform Act; and (3) 
identify approaches and options for gathering missing documents, 
information and data from third parties to supplement the Department's 
current files. The project is managed by a team of senior trust 
managers in the Office of the Special Trustee, and the status of this 
project is reported in the quarterly reports to the Court. This project 
is undergoing re-assessment through joint meetings between the special 
projects staff, contractors and the project manager recently designated 
for the Statistical Sampling component of the historical accounting.
    Question. Are you concerned that there may be problems with the 
Department's data clean up efforts? Please outline what the Department 
is currently doing to accelerate and improve the data clean up efforts.
    Answer. The data cleanup effort is a long and challenging task with 
many components. The BIA and OST each are responsible for a data 
cleanup subproject, as noted in the revised HLIP. The subprojects are 
aimed at ensuring that data housed in existing or new systems are 
accurate and complete, and at eliminating transaction processing 
backlogs to ensure records are up-to-date--particularly land ownership 
information and records. OST's data cleanup project entails 
standardizing and verifying IIM system data for trust financial 
records, and correcting and establishing an inventory of hard copy 
records for each trust fund account. Progress has been made on several 
fronts, including completion of a plan to resolve and cleanup Special 
Deposit accounts in January 2001. Also, the plan for the Revised 
Management Coding project, which outlines the steps necessary to review 
and correct the code discrepancies, was completed in December 2000.
    BIA's trust records cleanup projects involve ensuring accurate land 
title and resources management information. This project relates 
directly to the TAAMS projects and this effort will be coordinated with 
the eventual deployment of TAAMS at each implementation site. For land 
title records, there is over a century of data that must be addressed. 
Even offices with relatively good automated data have ``lapses'' in 
their databases where a span of years is not complete. In most cases, 
there are paper records available to develop automated data. Assembling 
title data is not easily accomplished. The data must be entered into 
TAAMS in the exact order that it would have occurred chronologically in 
order to ensure the proper building of ownership and chain-of-title. It 
takes experienced data cleanup personnel to perform this task. 
Performing data cleanup on the remainder of the electronic records 
requires that anomaly reports be produced and that discovered anomalies 
be researched and corrected. This process is underway in all title 
plants where the electronic records have been deemed sufficient to 
``cleanup.'' The BIA data cleanup effort is concentrating its data 
cleanup efforts to correspond with the TAAMS deployment schedule for 
Group A
    In some title plants, electronic data either does not exist or is 
in too poor condition to migrate to TAAMS. The records in these 
instances are being reentered in their entirety. For leasing records, 
very few Regions have sufficient electronic files to migrate to TAAMS. 
Those that do are being cleaned up using anomaly reports and performing 
the necessary research. Those that do not will have all currently 
active leases entered directly into the system to ensure a high rate of 
accuracy from the onset.
    Regarding the BIA data cleanup project, the Principal Deputy to the 
Special Trustee is to set up a work group to validate the existing 
statement of work, assess the direction of the project, and to provide 
recommendations on future management, direction, priorities, schedules 
and funding for the project.
    Question. According to the 1994 Reform Act, Tribes are authorized 
to withdraw their tribal funds from the Office of Special Trustee's 
management. How many tribes have withdrawn their tribal funds? Why do 
you think only a few tribes selected to withdraw their accounts?
    Answer. Under Title II of the American Indian Trust Fund Management 
Reform Act of 1994, a Tribe may voluntarily withdraw its funds from the 
trust, subject to plan approval by the Secretary. As of December 31, 
2000, only two Tribes had withdrawn their funds and two Tribes had made 
partial withdrawals. During calendar year 2000, seven new inquiries 
were received regarding the withdrawal process. While several Tribes 
have inquired about the process for withdrawal, and OTFM provides 
assistance in understanding the process and forms to complete, the 
decision to proceed with withdrawal rests solely with the Tribe.
    One possible reason withdrawal has not occurred often is the 
likelihood that private sector firms would charge significant 
management fees and costs. Another reason is that unique federal powers 
not available to private firms are often required to provide continuous 
protection of tribal interests and resources. The Government has an 
enduring trust responsibility to American Indians which often goes 
beyond mere financial management. The 1994 Reform Act contemplates that 
the withdrawal of trust funds affects the trust responsibility only 
with respect to the funds withdrawn. 25 U.S.C. Sec. 4022 (c). Tribal 
funds are often utilized in ways that affect the stewardship of trust 
land and natural resources, which continue to be managed in trust by 
the Department of the Interior. The questions presented entail complex 
asset coordination and policy issues, requiring full consideration of 
the government's overall trust obligation in the context of self-
determination and tribal sovereignty.
    Question. In late December of last year Secretary Babbitt directed 
you to conduct a statistical sampling of Individual Indian Money 
Accounts, and Secretary Norton concurred with that directive. How far 
along is the Department in this process and what will the statistical 
sampling involve?
    Answer. The Office of the Special Trustee selected a senior 
executive level Project Manager to oversee and guide the Sampling 
Project, who reported to duty in OST on April 9, 2001. The first major 
task for the Project Manager is to develop the detailed plan requested 
by the Committee. Preparation of the plan will be preceded by a period 
of consultation by the Project Manager with a wide variety of 
interested parties and by consultation with one or more technical 
experts on statistical sampling techniques.
    The detailed plan, to be provided to the Committees, will include a 
phased approach, starting with an assessment of the sampling issues and 
then developing one or more potential methodologies that can be tested. 
This is a complicated effort that will take a considerable period of 
time.
    About $10 million is available this fiscal year to plan the 
sampling project. The fiscal year 2002 budget request for OST includes 
$7.5 million to continue efforts to develop and implement a statistical 
sampling plan. We believe that the conceptual approach of examining 
issues and methodologies, evaluating results, and only then proceeding 
with full scale sampling, should that be warranted, assures the 
Congress that the funds for this project will be used prudently.
    Question. What steps are you taking in the near future to get this 
jump started?
    Answer. The Senior Project manager has been hired and the 
Department is currently working on the development of a plan to present 
to Congress on the historical accounting of IIM accounts. This plan 
will present how we will conduct the accounting, the methods we intend 
to use, what it will cost, and how long it will take. The plan will 
include alternatives and options considered on scope, methodology, 
costs, and timing. In developing the plan and overseeing the historical 
accounting, we will hire contractors to provide expertise in accounting 
and statistics not available within the Department. It is estimated 
that the plan will not be submitted to Congress for review and approval 
until early in fiscal year 2002.
    Question. What are the projected costs for the statistical sampling 
approach?
    Answer. The cost to complete the Project is unknown. A very rough 
cost estimate, based primarily on experience with some plaintiffs' 
records in the Cobell case, was derived using some initial, preliminary 
assumptions as a starting point:
  --Assume a sampling of 350 accounts. This number might be understated 
        given the difference in records systems from year to year and 
        agency to agency, as well as the availability of records and 
        east of accessing them.
  --Assume a cost ranging from $50,000 per account (those more recently 
        opened) to $200,000 per account (the approximate cost of the 
        Cobell account analyses).
  --Under these assumptions, the project costs could range from 
        $17,500,000 to $70,000,000 (excluding DOI contract development 
        and management expenses).
    These are rough approximations, based on limited (although 
intensive) experience with records production. The Special Trustee or 
Department will have a better idea as we move through development of 
the plan.
    Question. As Special Trustee, how have you engaged in oversight of 
the TAAMS process? Have you had a chance to review the company that is 
building the TAAMS software? Please tell us a little bit about this 
company, who they are, and are you satisfied with the company's 
stability?
    Answer. The Special Trustee and staff engage in continuing 
oversight of the TAAMS project. The Special Trustee has met with 
officials of the development contractor, Artesia, which is a company 
that provides well respected products and services in the private 
market. The firm competed and was selected as successful bidder on the 
contract in accordance with the Federal procurement process. The 
Special Trustee does not have any information regarding their financial 
or business stability.
    Question. Not only BIA and the Office of Special Trustee are 
charged with the trust reform activities. Minerals Management Service, 
Bureau of Land Management and the Office of Hearings and Appeals are 
also involved. This requires everyone to work as a team.
    Please describe how you ensure that all of the agencies efficiently 
coordinate and communicate with each other to ensure that the 
Department meets the deadlines that it has set in the quarterly reports 
that it files with the Court.
    Answer. Within the Department, the Trust Management Improvement 
Project Steering Committee meets twice a month to address status and 
issues associated with trust reform and improvement projects and to 
establish strategic direction. The Steering Committee is chaired by the 
Special Trustee and consists of the Assistant Secretary for Policy, 
Management and Budget; the Deputy Assistant Secretary for Budget and 
Finance; the Assistant Secretary for Indian Affairs; the Deputy 
Commissioner for Indian Affairs; the Solicitor; the Associate Solicitor 
for Indian Affairs; the Principal Deputy Special Trustee; and the Chief 
Information Officer. In addition, the Special Trustee has recently 
designated several members of the Special Trustee's staff to be project 
liaisons and to work with the project managers to monitor progress and 
issues on each project. These liaisons will meet with project managers 
during the cycle of preparation of the Quarterly Reports to the 
District Court.
    Question. You particularly have to coordinate with BIA. Have you 
come up with any ways to make coordination between the two agencies 
smoother and more efficient?
    Answer. The Special Trustee meets frequently with the Assistant 
Secretary for Indian Affairs and the Deputy Commissioner for Indian 
Affairs to discuss a broad range of issues and address activities 
related to trust reform. During the past two years OST/OTFM and BIA 
have successfully collaborated on several projects:
  --OTFM participated in weekly teleconferences between the Deputy 
        Commissioner of Indian Affairs and her staff and the Director, 
        OTFM, and her staff on a variety of issues.
  --OST/OTFM has participated with BIA on the TAAMS project and has 
        sent several personnel to Dallas on numerous occasions.
  --OTFM has provided a staff member to participate in the field Users 
        Group and the Probate Teams.
  --OST/OTFM has worked with BIA in the development of a joint 
        Interagency Procedures Handbook. The handbook is now being 
        reviewed in a draft status.
  --OTFM has assumed the printing previously done by BIA in Albuquerque 
        (Checks, Explanation of Payments (EOP's) and IIM quarterly 
        statements, and 1099 INTs).
  --OTFM has assumed the reporting of ISSDA checks to Treasury that was 
        previously done by BIA in Albuquerque.
  --OTFM's senior management participated in BIA's Line Officers' 
        meeting at the request of BIA.
  --OTFM staff participated in the drafting of the new CFR regulations 
        and attended the consultation meetings.
    Despite problems, both BIA and OST are committed to working 
cooperatively. We are in the late stages of developing a handbook that 
will specify the responsibilities of each office over the entire range 
of transactions and functions that affect both BIA and OST (OTFM). This 
handbook also will specify documentation requirements for each function 
or transaction so that BIA and OTFM offices throughout the country will 
have standard guidelines and expectations about how to request and 
distribute trust funds for Indian beneficiaries.
    Question. You testified that you did not agree with some parts of 
the memo sent to you by Dom Nessi on February 23, 2001. Please outline 
all of the portions of the memo you agree with, and please outline all 
of the portions of the memo you do not agree with.
    Answer. The Special Trustee disagrees that the relationship between 
BIA and OTFM has deteriorated, as referenced in the previous question. 
The HLIP is not built on wishful thinking. Taken as a whole, it is a 
reasonable blueprint. High level plans, in the Special Trustee's 
experience, have time-lines, or milestones.
    The HLIP projects are not stand-alone projects, and there is 
coordination though the Special Trustee. There is, however, no line 
authority for the Special Trustee over a number of the projects. There 
needs to be along with accountability. The Department is currently 
reviewing options to address these issues raised by the Special 
Trustee.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell

                   THE HIGH LEVEL IMPLEMENTATION PLAN
    Question. Which of the 6 remaining milestones for Subproject #2, 
BIA Data Cleanup, can be characterized as accomplishing the terminus of 
data cleanup and data loading into TAAMS? In other words, at the 
completion of which task will TAAMS include current information as well 
as the historical data which is presently being deferred? If 
appropriate, please indicate whether none of the current milestones are 
associated with this particular event.
    Answer. In milestone I, ``Post-deployment data cleanup,'' all BIA 
data cleanup activities associated specifically with the TAAMS 
initiative are scheduled to be completed by December 31, 2003. However, 
data cleanup and data management will remain on-going activities as 
part of the normal operating procedures.
    Question. Has the Department made any effort to develop a total 
cost for completing data cleanup and loading? Please provide that 
estimate or describe the process that is in place to develop this cost 
and when this process is project to be completed. If appropriate, 
please indicate that there is no process in place to determine the 
cost.
    Answer. We have no estimate for the total cost of data cleanup at 
this time. There will be far more direct data entries, rather than data 
transfers from the legacy systems, than originally planned. The data 
cleanup process is underway in all title plants where the electronic 
records have been deemed sufficient to ``cleanup.'' The extent of 
cleanup activities in each BIA Region is not easily estimated until the 
contractor has actually been on-site and had an opportunity to review 
the precise condition of the electronic data and supporting paper 
records. Answer. The data cleanup effort is a long and challenging task 
with many components. The BIA and OST each are responsible for a data 
cleanup subproject, as noted in the revised HLIP. The subprojects are 
aimed at ensuring that data housed in existing or new systems are 
accurate and complete, and at eliminating transaction processing 
backlogs to ensure records are up-to-date--particularly land ownership 
information and records. OST's data cleanup project entails 
standardizing and verifying IIM system data for trust financial 
records, and correcting and establishing an inventory of hard copy 
records for each trust fund account. Progress has been made on several 
fronts, including completion of a plan to resolve and cleanup Special 
Deposit accounts in January 2001. Also, the plan for the Revised 
Management Coding project, which outlines the steps necessary to review 
and correct the code discrepancies, was completed in December 2000.
    BIA's trust records cleanup projects involve ensuring accurate land 
title and resources management information. This project relates 
directly to the TAAMS projects and this effort will be coordinated with 
the eventual deployment of TAAMS at each implementation site. For land 
title records, there is over a century of data that must be addressed. 
Even offices with relatively good automated data have ``lapses'' in 
their databases where a span of years is not complete. In most cases, 
there are paper records available to develop automated data. Assembling 
title data is not easily accomplished. The data must be entered into 
TAAMS in the exact order that it would have occurred chronologically in 
order to ensure the proper building of ownership and chain-of-title. It 
takes experienced data cleanup personnel to perform this task. 
Performing data cleanup on the remainder of the electronic records 
requires that anomaly reports be produced and that discovered anomalies 
be researched and corrected. This process is underway in all title 
plants where the electronic records have been deemed sufficient to 
``cleanup.'' The BIA data cleanup effort is concentrating its data 
cleanup efforts to correspond with the TAAMS deployment schedule for 
Group A.
    In some title plants, electronic data either does not exist or is 
in too poor condition to migrate to TAAMS. The records in these 
instances are being reentered in their entirety. For leasing records, 
very few Regions have sufficient electronic files to migrate to TAAMS. 
Those that do are being cleaned up using anomaly reports and performing 
the necessary research. Those that do not will have all currently 
active leases entered directly into the system to ensure a high rate of 
accuracy from the onset.
    Regarding the BIA data cleanup project, the Principal Deputy to the 
Special Trustee is to set up a work group to validate the existing 
statement of work, assess the direction of the project, and to provide 
recommendations on future management, direction, priorities, schedules 
and funding for the project.
    Question. Will TAAMS include functionality in addition to the Title 
Portion and Realty Functions? If it will, please provide a list of the 
additional functionalities. When will the Department reference the 
effort to include additional functionality in the Quarterly Reports? 
Will this include milestones for these development efforts?
    Answer. The land title, record, and leasing functions representing 
the core of TAAMS is planned to be completed in June 2001. However, 
TAAMS will undergo continual design changes as new modules are added, 
additional features are included and as the system evolves to reflect 
changes in statutes and regulations. TAAMS is scheduled to be 
completely deployed and implemented throughout the BIA and required 
Tribal sites by the end of fiscal year 2003. After implementation of 
the title and leasing modules, other major modules to be added include 
appraisals and for probate functions. At present, the design effort is 
completed for appraisals and is underway for probates. Once design of 
the leasing is complete, the contractor will develop a programming 
schedule for the appraisal module. These development milestones will be 
included as appropriate in the quarterly report to the Court.
    Question. Which of the HLIP subprojects and tasks can be 
characterized as providing for the establishment of internal controls 
and a functionality for accounts receivable? Are there specific 
milestones or completion dates to establish internal controls and 
accounts receivable?
    Answer. In the broader sense, many HLIP subprojects address 
internal control problems in Interior's management of Indian trust 
accounts: systems; data clean-up; and the supporting efforts in records 
management, training, policy and procedures and internal controls. 
However, as the name implies, the Internal Controls subproject is 
specifically designed to provide a continuing oversight presence to 
ensure that: (1) adequate internal controls are put in place, and (2) 
internal control problems previously identified and corrected do not 
re-occur. The Internal Controls subproject has specific milestones and 
tasks necessary to implement a continuing trust risk management 
program.
    The TAAMS subproject is charged with designing and implementing a 
modern, standardized accounts receivable module and process for future 
Indian trust operations. However, the TAAMS subproject plan currently 
does not have identified and published milestones relating to 
development and implementation of an accounts receivable system. A 
schedule and milestones for development of this function will be 
determined following the management decision in the summer of 2001.

              MANAGEMENT AUTHORITY AND MEASURING PROGRESS
    Question. In answer to my question you indicated that the real 
issue is not one of funding, but of management. Yet, Mr. Lamb and 
others seem to think that resources and staff is the key to resolving 
these issues. Would you care to comment?
    Answer. Yes. There is no conflict in these two views. The 
development, implementation and enforcement of consistent business 
practices are mandatory to the success of trust reform. The Special 
Trustee is concerned that we ensure that the management teams on these 
projects have the capacity and management resources to bring these 
projects to a successful conclusion. The Special Trustee has stated 
that it is not solely a question of funding. He believes that it is a 
question, as well, of providing the appropriate additional management 
expertise and leadership. The Department is addressing this management 
concern. As stated by Mr. Lamb in the hearing, the 1999 National 
Academy of Public Administration's study, ``A Study of Management and 
Administration: the Bureau of Indian Affairs'' documented the staffing 
deficiencies in the BIA as compared to other agencies with similar 
responsibilities. With funding provided by the Congress in 2001, the 
BIA is making progress toward addressing the concerns raised in NAPA's 
study. The Special Trustee strongly endorses the additional funding and 
staffing increases proposed for BIA trust activity in the President's 
2002 Budget.
    Question. You cited the ``inter-dependency'' of the trust reform 
elements as a challenge that must be met in order for trust reform to 
be undertaken. Given this interdependency, is there a need to have, in 
essence, a ``Trust Reform Tsar'' over all elements within the 
Department of Interior to coordinate and manage these elements? Is a 
legislative approach to this issue warranted?
    Answer. As it stands, the Special Trustee believes the 
responsibility is not clear and is too diffuse. There are five line 
operations and several Departmental staff and offices involved in trust 
reform, as well as several offices responsible for HLIP projects. 
Accordingly, the Department is reviewing options to strengthen the 
Special Trustee's oversight and accountability for HLIP subprojects.
    A legislative approach is not warranted. The Department feels that 
the authority provided in the Reform Act is sufficient to address the 
management responsibilities of trust reform.
    Question. On March 30, 1992, the Assistant Secretary for Indian 
Affairs responded to a draft GAO report with the statement that ``in 
the last two years reorganization, additional staffing, training, 
integration of investment systems, and strengthened internal accounting 
procedures have led to improved accounting practices.'' (June 1992, 
GAO/AFMD-92-38) In addition, while the Department agreed that 
substantial improvements were warranted, it made a commitment to make 
such improvements including ``better internal control processes and 
improved accounting and records systems.'' Based on the Assistant 
Secretary's representation to the GAO in 1992, the Department has been 
engaged in trust reform efforts for at least eleven years.
    In your testimony you indicated the U.S. was ``moving in the right 
way'' on trust reform. How much longer should Congress allow the 
Department to attempt to reform itself before Congress begins to 
actively consider and perhaps implement alternatives for the management 
of trust resources?
    Answer. While it may seem like progress has been slow, as the 
Department has stated in the past, the practices of the past 150 years 
cannot be easily corrected. Through the trust reform effort and the 
ongoing implementation of the HLIP, it is clear that much work has been 
done, and several notable successes achieved. For example, the Trust 
Funds Accounting System has been implemented nationwide and has 
replaced dated legacy systems for administering trust accounts. 
Likewise, certain data cleanup efforts--OST's IIM file jackets and 
BIA's appraisal backlog reduction--have been well executed. In the 
Policies and Procedures area, publication of the Secretary's Trust 
Principles and the BIA's trust regulations are notable. Progress has 
been made in improving records management and an internal control and 
risk management program is being implemented. A nationwide program to 
provide non-systems training to the several thousand Interior and 
relevant Tribal employees engaged in trust management has been 
initiated. The BIA's efforts, assisted by the Indian Land Consolidation 
Act Amendments in 2000, in dealing with fractionated interests, through 
purchase of small property interests is also progressing well.
    Given the wide variety of projects and tasks, setting a final date 
for completion of trust reform is not feasible. While several projects 
have completion dates of 2004, other projects' final completion dates 
are currently up for review. Some aspects, such as developing the Trust 
Fund Accounting System, have moved from ``project'' status to 
``implementation'' or ``operational'' status. Over the next year or two 
we will see many more efforts make a similar transition. Some projects, 
such as the cleanup of data and probate backlog reduction activities, 
will likely continue for several years. Our commitment is to move 
promptly, but carefully, from project to operational status. Remember 
also, that as new technology becomes available, these options must also 
be explored to improve operations.
    Question. After the final trust-related regulations were published, 
a number of drafting, technical, and substantive errors were 
identified, especially with respect to the Probate Regulations. Senate 
staff were assured that these matters would be addressed and the 
testimony provided to the Committee included similar assurances. What 
process and time-frame will the Department use to fulfill this 
commitment?
    Answer. Preliminary discussions have been held with the Senate 
staff and the National Congress of American Indians (NCAI) with regard 
to technical amendments to the probate regulations. The process and 
time-frame have not yet been decided, but meetings are being scheduled 
to agree on a process.
        account balances and the ``sampling v. modeling'' debate
    Question. You indicated that settlement talks with the Cobell 
plaintiffs broke down in November while a consent decree was being 
drafted. What, in your mind, were the reasons underlying this 
breakdown?''
    Answer. To produce a settlement, all parties on both sides of an 
issue have to reach closure. Unfortunately, this was not able to be 
achieved last year. Beyond that, I cannot speculate because of the 
ongoing litigation in which we are involved.
    Question. Mr. Lamb indicated that it cost the U.S. $20 million to 
generate an ``index'' of documents to be produced for the plaintiffs 
pursuant to court order. These documents include only the 5 named 
plaintiffs and their predecessors in interest. Do you believe that 
given what will probably be an astronomical amount of federal money for 
the remaining 300,000 to 500,000 plaintiffs that a fair and accurate 
settlement is what is called for at this point in time?
    Answer. Mr. Lamb indicated that $20 million was used to plan the 
document production effort, implement the search for records; and 
collect, image, index, and produce these documents. The 159,384 
documents, comprising 385,421 pages, were collected for 5 named 
plaintiffs and 31 agreed upon predecessors in interest and involved a 
total of 109 tracts. Even though all the accounts records may not be 
retrievable, the costs will be significant for all accounts to be 
reconstructed. Consequently, when the Special Trustee was first 
confirmed, he initiated efforts to settle this case. The Department 
believes that this case should be settled based upon the best 
accounting information we can obtain within reasonable limits of time 
and costs, subject to Congressional approval.
    Question. What assurance can the Department provide to Congress 
that the statistical sampling method will even be admitted as evidence 
in Cobell v. Norton based on the Supreme Court's test in Kumho Tire Co. 
(U.S. Sup. Ct. 1999)? Does the Department agree that the Federal 
court's in Cobell v. Norton have expressed some level of skepticism 
about the proposal to use statistical sampling in this case? For 
example, when the Court of Appeals stated:
    It remains to be seen whether in preparing to do an accounting the 
Department takes steps so defective that they would necessarily delay 
rather than accelerate the ultimate provision of an adequate 
accounting, and the detection of such steps would fit within the 
court's jurisdiction to monitor the Department's remedying of the 
delay.
    Answer. The Department does not agree that either the Court of 
Appeals or the District Court expressed skepticism about the proposal 
to utilize statistical sampling as part of the historical accounting. 
The Supreme Court's decision in Kumho Tire Co. v. Carmichael relates to 
the reliability of expert testimony and the factors a court can 
consider, in appropriate district court proceedings, when deciding to 
admit expert testimony. The Department does not believe that Kumho Tire 
would apply to the historical accounting effort because that is an 
administrative decision subject to limited judicial review under the 
Administrative Procedures Act.
    Question. Is the Department willing to allow independent review of 
its statistical sampling method, for example by the General Accounting 
Office or the Justice Department Office of Legal Counsel, before 
spending resources on this method? Is the government willing to 
consider economic modeling in place of or in addition to statistical 
sampling?
    Answer. In developing the statistical sampling method, the 
Department intends to consult with and obtain advice from a broad range 
of experts, stakeholders, and affected parties. We expect to have a 
full review of the statistical sampling plan within the Department of 
Justice. Further, because the plan must be submitted to the House and 
Senate Committees on Appropriations before commencing a full sampling 
project, we anticipate consulting with the General Accounting Office as 
the plan is developed and seeking their review of the plan.
    At this point, no approaches or methods have been ruled out for 
determining how to do the accounting. We will review and consider 
economic modeling approaches and their applicability to the IIM 
accounting.
    Question. What assurance can the Department provide Congress that 
the statistical sampling method can be used as a basis for negotiating 
with the plaintiffs in Cobell v. Norton?
    Answer. The Department is committed to exploring a statistical 
component of the historical accounting. We expect that the information 
and results generated by the sampling project can be used to help 
establish historic IIM balances and will be immensely useful in 
resolving the Cobell litigation. However, the Department cannot give 
assurances about what plaintiffs may accept as a basis for settlement 
negotiations.
    Question. In your testimony before the Subcommittee, you indicated 
that one problem with utilizing the ``economic modeling'' method for 
arriving at a settlement figure is the lack of complete records of 
transactions. Why is this not also a problem for utilizing a sampling 
method?
    Answer. The problem for any method, whether an economic model or a 
statistical sampling approach, will be the availability of the 
transaction records from which to construct a model or select a sample. 
Although the Department has not received a copy of or detailed 
information relating to Plaintiff's version of economic modeling, our 
initial understanding of economic modeling is that it addresses 
opportunities and uses of allotted lands and resources. Modeling may go 
beyond the obligation to perform an accounting for the IIM 
beneficiaries. As we look toward a possible settlement, we see 
opportunities to examine modeling and sampling approaches.
    Question. You indicated that a reasonable settlement figure could 
combine elements of both the ``sampling'' approach and the ``modeling'' 
approach. Can you explain this in greater detail?
    Answer. Again, although the Department has not received Plaintiff's 
version of economic modeling, our understanding of economic modeling is 
that it considers whether Indian allottees and their heirs received 
comparable value when their lands were leased for income generating 
activities like grazing or for consumptive uses like oil and gas 
production. This raises the question ``what could the income have 
been'' instead of ``how did we account for and disburse the income.'' 
The former question is beyond the scope of the Cobell litigation, and 
the issue of an accurate reconciliation of the IIM accounts.
    For purposes of the litigation and the obligations on the 
Department, we believe the statistical sampling is an appropriate 
component of determining the historical IIM account balances. Sampling 
does not preclude the accounting from considering what might be learned 
from economic modeling and the underlying assumptions in the modeling. 
Nor does this view prevent the Federal government from considering 
modeling during settlement discussions.
    Question. In your testimony you indicated that more than 50 percent 
of the HLIP milestones were met. Can the percentage or number of 
milestones met for each subproject--or for the HLIP as a whole--be used 
as a measure of the extent that the subproject is complete? For 
example, subproject #2, BIA Data Cleanup, the Department's Quarterly 
Reports indicated that the BIA has completed 5 or 45 percent of the 11 
milestones for this subproject. By any standard, other than the number 
of milestones completed, is this subproject 45 percent complete? Can 
the Department estimate what percentage this subproject is complete?
    Answer. As a general statement, it is difficult to judge HLIP 
project completion status entirely through reviewing high level 
``milestone'' completion. Not all milestones are equal in effort, work 
and time required. Due to the wide variety of the work required in the 
various subprojects, the Department is not able to issue a blanket 
statement on percentage completion. In some cases, the documented 
milestones are sufficient to indicate status and completion, setting 
out the tasks and work chronologically. And, while a few projects 
envision a continuing effort, work that will extend beyond the ``trust 
reform'' phase as it's commonly known, there are cases where the 
project plans documented in HLIP 2000 either do not provide sufficient 
milestones, or do not completely reflect the actual work needed or in 
process. To account for this difficulty in communicating by percentage 
the level of completion of the trust reform effort, the Department has 
used the Court-mandated Quarterly Reports to provide narrative updates 
on the progress of the trust reform projects.
      tribal withdrawal and management of funds under the 1994 act
    Question. I remain concerned that, even in the absence of 
identifying discrete balances in Indian accounts, the rates of return 
now being earned on Indian money is unacceptably low.
    Answer. The statute that prescribes the investment which OTFM can 
invest Indian funds is 25 U.S.C. 162(a), (c) and (d). Only insured bank 
deposits or debt instruments of the U. S. Treasury, and certain U. S. 
Government Agencies, are suitable for investment of Indian Funds. There 
is absolutely no provision for investment in corporate bonds or 
equities (common stocks) which historically have produced much higher 
rates of return than fixed income U. S. Government debt instruments, 
which are considered risk-free investments. Therefore, the rates of 
return now being earned on Indian money are the highest that current 
law will allow, but, certainly, in the absolute sense, lower than can 
be obtained from investing in risky securities (corporate bonds and 
common stock). The statute controls, and OTFM is precluded from 
producing rates of return other than what is afforded from the most 
conservative of investments available in the current investment market 
place.
    Question. Can you identify those tribes that have chosen to 
withdraw and manage their own funds?
    Answer. Two Tribes, Mescalero and Delaware, have made partial 
withdrawals, and two Tribes, Navajo and Citizen Band Potawatomi, have 
made total withdrawals under the 1994 Act.
    Question. Can you identify which, if any tribes, have returned any 
of those funds?
    Answer. None of the four tribes have returned any of the withdrawn 
funds.
    Question. Can you identify what assistance the Department provides 
in assisting and facilitating tribal withdrawals under the 1994 Act?
    Answer. OST works with the tribes directly, or with chosen fund 
managers or advisors, in completing the applications for withdrawal. 
OST works with any tribe seeking to withdraw funds. OST also clarifies 
for Tribes and fund managers regulatory requirements and the approval 
review process, and reviews submitted information to advise the 
submitting Tribe of basic acceptability of the proposals. When 
necessary, the advice of the DOI Solicitor's office is requested.
    Question. Can you identify any necessary legislative or policy 
changes that will ensure that tribal withdrawal provisions of the 1994 
Act are working as Congress intended?
    Answer. It is the Department's view that the provisions of the law 
with regard to withdrawal is working in accordance with the law. 
Therefore, the Department does not believe that any legislative or 
policy changes are necessary.

                          SUBCOMMITTEE RECESS

    Senator Burns. Thank you very much, that concludes the 
hearing. The subcommittee will stand in recess until 10 a.m., 
Tuesday, April 24, when we will meet in room SD-138 to hear 
from the Secretary, Department of the Interior, Gale A. Norton.
    [Whereupon, at 11:16 a.m., Wednesday, March 28, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
April 24.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2002

                              ----------                              


                        TUESDAY, APRIL 24, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Campbell, Byrd, Leahy, Reid, and 
Dorgan.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. GALE A. NORTON, SECRETARY OF THE 
            INTERIOR
ACCOMPANIED BY:
        ANN R. KLEE, COUNSELOR TO THE SECRETARY
        JOHN D. TREZISE, DIRECTOR OF BUDGET

               Opening statement of Senator Conrad Burns

    Senator Burns. The hearing will come to order. It is a 
great pleasure to welcome Secretary Norton to the committee to 
testify in support of the Department of the Interior's fiscal 
year 2002 budget request. I think we all look forward to 
getting to know you, and to working with you as you address 
some of the many complex challenges that your Department faces.
    The Department's budget request this year looks somewhat 
different than the last several administration requests, and 
appropriately so.
    There are, without question, pressing fiscal needs on 
Federal lands, in Indian country, and throughout the 
Department's many bureaus. But it is clear that the 12 percent 
annual increases requested in recent budgets would not be 
sustainable over the long term.
    President Bush's budget proposes more modest growth for 
most Interior programs, with some substantial increases for 
certain priorities identified by the President during his 
campaign.
    I think you will find, Madame Secretary, that there is 
broad agreement on this committee that the priorities set by 
the President are important ones.
    Increasing the State Assistance program to the level 
authorized in the Land and Water Conservation Fund Act will be 
highly popular.
    Further escalating our attack on the National Park Service 
maintenance backlog is something that we absolutely have to do.
    Many members of this subcommittee, Senators Domenici, 
Dorgan, Campbell, and I in particular, are very pleased that 
the President's budget sustains this committee's commitment to 
the construction and repair of Indian schools. We will do our 
best to provide for these and other priorities identified by 
the President.
    But I think you will also find, Madame Secretary, that 
members of this committee are deeply concerned about some of 
the reductions that have been proposed in this budget, in large 
part to make room for the President's priorities. Funding for 
Payments In Lieu of Taxes, PILT, is one of those examples that 
is troublesome to most of us. I am sure you will hear about it 
from several of my colleagues today.
    We hope you will work with us throughout the year and find 
appropriate balance among all of these competing interests. In 
the end, it must be our common goal to produce a bill that is 
fiscally responsible, but also provides the resources necessary 
to protect our parks, our public lands, and to carry out our 
trust responsibilities to Native Americans.
    Thank you for joining us today, Madame Secretary. I, for 
one, am grateful to see a fresh face before us. This is my 
first time chairing this committee and, of course, your first 
time in the appropriations process.

                           PREPARED STATEMENT

    Now, I am joined today by the ranking member, the 
distinguished Senator from West Virginia, Senator Byrd.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns
    It is a great pleasure to welcome Secretary Norton to this 
committee to testify in support of the Department of the Interior's 
fiscal year 2002 budget request. I think we all look forward to getting 
to know you, and to working with you to address the many complex 
challenges that your department faces.
    The Department's budget request this year looks somewhat different 
than the last several administration requests, and appropriately so. 
There are without question pressing fiscal needs on Federal lands, in 
Indian country, and throughout the Department's many bureaus. But it is 
clear that the 12 percent annual increases requested in recent budgets 
would not be sustainable over the long term.
    President Bush's budget proposes more modest growth for most 
Interior programs, with some substantial increases for certain 
priorities identified by the President during his campaign.
    I think you will find, Madame Secretary, that there is broad 
agreement on this committee that the priorities set by the President 
are important ones.
    Increasing the State Assistance program to the level authorized in 
the Land and Water Conservation Fund Act will be highly popular. 
Further escalating our attack on the National Park Service maintenance 
backlog is something that we absolutely should find a way to do.
    And many members of this subcommittee Senators Domenici, Dorgan, 
Campbell and I particularly are very pleased that the President's 
budget sustains this committee's commitment to the construction and 
repair of Indian schools.
    We will do our best to provide for these and other priorities 
identified by the President.
    But I think you will also find, Madame Secretary, that members of 
this committee are deeply concerned about some of the reductions that 
have been proposed in this budget, in large part to make room for the 
President's priorities. Funding for Payments In Lieu of Taxes is one 
troublesome example that comes to mind. I'm sure you will hear about 
several others today from my colleagues.
    We hope you will work with us throughout the year to find an 
appropriate balance among all of these competing interests. In the end 
it must be our common goal to produce a bill that is fiscally 
responsible, but that also provides the resources necessary to protect 
our parks and public lands, and to carry out our trust responsibilities 
for Native Americans.
    Thank you for joining us today Madame Secretary. I, for one, am 
grateful to have a fresh face and a fresh perspective at the witness 
table in my first year as chairman of this subcommittee.

              Opening statement of Senator Robert C. Byrd

    Senator Byrd. Thank you, Mr. Chairman.
    Let me say with regard to the fresh face, Mr. Chairman, 
your predecessor was one of the finest Chairman that I have 
ever served with on a subcommittee, but I have no doubt that 
you will be as well.
    Senator Burns. You will have to coach me.
    Senator Byrd. No, I will not. You will not need any 
coaching from me.
    But I will enjoy working with you. It is a pleasure to have 
this opportunity to join with you in welcoming the Secretary.
    Madame Secretary, I know that you have worked hard to 
prepare for this event. I know that we have problems which we 
will need to work together on. I look forward to working with 
you, and I join the chairman in welcoming you to the 
subcommittee this morning.
    Thank you.
    Senator Burns. Senator Campbell.

          Opening Statement of Senator Ben Nighthorse Campbell

    Senator Campbell. Thank you, Mr. Chairman.
    I welcome my friend and colleague from Colorado, Gale 
Norton. Gale has provided leadership on public lands issues for 
a good number of years in our State, and I was delighted that 
she was appointed as the Secretary of the Interior.
    This budget honors, as you have mentioned, Mr. Chairman, 
commitments to Native Americans. It empowers States and local 
communities and our citizens by working with them, and not 
directing from the Washington hierarchy as we have seen in the 
past.
    Some are probably going to say that this budget has been 
cut too drastically. It has got about 3.4 percent less money in 
it than we had last year, as I understand it. But then last 
year's budget had some extraordinary growth in funding, too.
    I guess I, like many, have never quite understood how a 
moderate rate of growth is called a cut, but that is Washington 
legalese as you probably know by now, Madame Secretary. We have 
some land acquisition requests. I would like your continued 
commitment and funding on that.
    I have some questions dealing with water on the Animas 
LaPlata Project that you are aware of, and the Black Canyon of 
the Gunnison which was just upgraded to national park status 
last year. That I will ask, too, when the time is appropriate.
    But I did want to thank you particularly for trying to hold 
harmless the Indian programs. In fact, there is a moderate 
increase in the 2001 enacted levels. And the President's 
priorities in law enforcement, education, construction, land 
and water settlement, and trust reforms are extremely 
important.
    And while I mention that, I was interested in reading a 
very recent article, that you are named by a plaintiff as a new 
defendant in the trust fund debacle. You just got here, were 
not a party to that at all, but all I can say is: Welcome to 
Washington, and I am sure you will work your way through that.
    Thank you for appearing here.
    Senator Burns. Thank you, Senator Campbell.
    Secretary Norton, nice to have you with us today and hear 
your testimony. If you would want to shorten it up, your full 
testimony will be made part of the record, and we will get into 
the question and answers. But welcome today, and we look 
forward to your statement.
    Senator Reid. How about me, do you mind if I----
    Senator Burns. Oh, I am sorry. I did not even see you come 
in.
    I am deeply struck----
    Senator Reid. I will bet.
    Senator Burns [continuing]. By the attendance of the 
Minority Whip, Senator Reid of Nevada.

                Opening statement of Senator Harry Reid

    Senator Reid. Mr. Chairman, thank you very much. I would 
ask my full statement be made part of the record.
    But I disagree with my friend from Colorado, who I have 
worked so closely with over the years, that I do believe there 
are cuts in this that really are harmful and far below what was 
in the budget last year. In fact, there are a number of Nevada 
programs that are cut completely out of the budget, programs 
that I think are in keeping with what we are trying to 
accomplish in this country.
    Nevada is almost 90 percent owned by the Federal 
Government, and we have programs that are extremely important 
to the State of Nevada. We have one program that has been 
funded now for 8 years, dealing with biodiversity of the whole 
Great Basin. We believe as a result of that work that major 
problems have been circumvented by not having new listings of 
endangered or threatened species. I think that is so important.
    I think we proved in the State of Nevada that you can have 
a major listing and still have growth with the desert tortoise. 
And I think the work that we did there is exemplary in 
determining what habitats should be. In short, we will get into 
more specificity at a later time.
    I would ask, Secretary Norton, that you take a very close 
look at the biodiversity program that has worked so well. I 
would also--we have a cutthroat trout program which has also 
been eliminated in the budget that has been submitted, and I 
think it is clear that efforts to prevent the decline of 
species pays dividends especially in the long term.
    I believe that Federal agencies have a responsibility to 
help recover endangered species, especially in States like 
Nevada that have almost 90 percent of it owned by the Federal 
Government.
    So I would ask that you direct your personal attention to 
the Nevada Biodiversity Initiative which, by the way, started 
out of Stanford University. They are studying the Great Basin 
and they moved that--started jointly with the University of 
Nevada. And then it all became part of the University of 
Nevada.
    So I would hope that you would take another look at this, 
that the whole administration would, to ensure that this 
important work continues. Otherwise, with Nevada being, for the 
last 10 years, the fastest growing State in the union, it is 
going to throw a State that is 90 percent owned by the Federal 
Government into chaos, because we literally have prevented 
probably one species a year from being listed.
    So, Mr. Chairman, I have, as I said, a full statement. I 
would ask your permission to have it be made part of the 
record. And I will reserve some questions that I have for the 
Secretary at a later time.
    Senator Burns. Thank you very much, Senator.

                SUMMARY STATEMENT OF HON. GALE A. NORTON

    Senator Burns. Secretary Norton, thank you for coming this 
morning.
    Secretary Norton. Thank you very much, Mr. Chairman, 
members of the committee. It is a pleasure to appear in front 
of you this morning to describe the President's budget proposal 
for the year 2002.
    I would like to begin by introducing the people who join me 
at the table today. Ann Klee is working directly with me as 
Counselor to the Secretary. And she may be familiar to many of 
you from her time as general counsel with the Senate 
Environment Committee.
    Also with me is John Trezise who is the Department's 
Director of Budget.
    This subcommittee plays a crucial role in providing the 
resources to carry out the mission of the Department. I look 
forward to working closely and collaboratively with you as we 
deal with issues over the coming months and years. We need to 
protect the great wild places of this country and the 
environmental treasures that are entrusted to the Department of 
the Interior.
    During my confirmation hearings I spoke about what it means 
to be a compassionate conservative and a passionate 
conservationist and that those two concepts are very 
complementary. This is a budget that is compassionate in the 
way it protects the environment and conservative in how it 
spends taxpayers' money and gives local people more control 
over the lands they know and the lands they love.
    Overall, the Department's budget that is appropriated is 
approximately $10 billion. This subcommittee has the lion's 
share of that. The Department requests $9.1 billion in 
appropriations from this subcommittee for fiscal year 2002.
    This is the second largest budget in the history of the 
Department. The 2001 fiscal year was a spike in our budget as 
it was for many other departments. The 2001 budget was 20 
percent above the fiscal year 2000 budget. This year's budget 
request is 17 percent above the 2000 budget.
    The Department's budget has grown rapidly over the last 3 
years, outpacing inflation and the overall rate of 
discretionary spending. During this period, Interior's budget 
grew by 23 percent. The 2002 budget contains this growth while 
still providing robust spending.

                    LAND AND WATER CONSERVATION FUND

    Let me highlight four major initiatives in this budget. The 
first of those is the Land and Water Conservation Fund. This is 
the first time that the executive branch has proposed fully 
keeping our commitment to the States through this fund. It 
provides $450 million to the States and $450 million to Federal 
agencies.
    On the Federal side, this would also include $60 million 
that would go to enhance habitat and for other activities on 
private lands to encourage private landowner cooperation.
    The $450 million on the State side is an increase of $360 
million. This would allow the States to have more flexibility 
to address their own recreation and conservation needs. These 
funds can be used by the States to address their most pressing 
needs, whether it is for conservation programs or recreation 
habitat protection or urban parks. The point is to give States 
greater flexibility in deciding on their priorities.
    Our new approach to the Land and Water Conservation Fund 
includes, as I mentioned, programs that would assist private 
landowners. That includes a $50 million incentive program that 
would be operated through the States to provide incentives for 
landowners to enhance habitat on their property. And it would 
also include $10 million of private stewardship grants that 
would be awarded directly by the Federal Government.
    The landowner incentive concept is an idea that came from 
the President's experiences in establishing a similar program 
in Texas. It offers landowners positive incentives to protect 
rare species and restore habitat while still being able to 
carry on farming and ranching and other activities.
    With the $390 million Federal portion of the Land and Water 
Conservation Fund, a new emphasis will be placed on input from 
affected communities. We plan to pursue easements and land 
exchanges. As an alternative to the Federal Government buying 
property outright as its first approach, we will certainly 
pursue Federal acquisitions where it is necessary and where 
there is strong support from the local communities.

               national park service maintenance backlog

    The second priority is the National Park Service backlog, 
and I have recently begun the process of visiting the national 
parks to deal with them as the landlord and caretaker. I have 
to say my experience is a little different than when I visited 
as a tourist. Now I visit the parks and see things like the 
rotting wood in some of our buildings or the peeling paint, or 
the situations where the septic systems are not doing the work 
that they should.
    This proposal would provide $440 million, an increase of 
$100 million, to maintain historical structures, visitor 
facilities, safe trails, clean water, and well kept campgrounds 
in our national parks. This is part of the President's overall 
proposal to deal with the National Park Service maintenance 
backlog over a 5-year period.
    The budget also includes $50 million for the natural 
resources challenge within the park system. This is a 66 
percent increase over last year. This increase will allow us to 
really deal with the environmental aspects of our parks, with 
the scientific aspects, so that we can fund on-the-ground 
restoration work, including the management of non-native or 
invasive species.

                            indian education

    The third priority in the President's budget for the 
Department of the Interior is Indian education. During the 
campaign, the President pledged to leave no child behind, 
including no Indian child. The budget proposes a two-pronged 
approach to bettering Indian education by improving the 
physical facilities in which children learn and enhancing the 
learning that occurs in classrooms.
    One-fifth of the buildings in the BIA school system are 
more than 50 years old. Serious deficiencies pose real threats 
to students' health and safety and make it more difficult for 
students to learn. The budget includes $293 million for 
education construction and maintenance, including $128 million 
to replace buildings at six Indian schools.

                   land use and conservation balance

    The fourth initiative in this budget addresses the need to 
balance land use with conservation. This Department manages 
nearly one out of four acres within this country as the members 
of this committee well know. Management of these lands plays an 
important role in ensuring domestic energy security at the same 
time as providing important opportunities for public 
recreation.
    The budget requests an increase of $7 million to accelerate 
land use planning. These plans ensure that there is public 
involvement in deciding the proper mix of authorized activities 
and multiple uses, from energy to recreation, for our public 
lands. With this increase, the Bureau of Land Management will 
be able to assess, revise, or amend 42 natural resource plans.
    The budget also includes $15 million to increase the BLM's 
mineral activities, and a $7 million increase for MMS work in 
the Gulf of Mexico to ensure that our offshore programs keep 
pace with the Nation's need for energy.

                        WILDLAND FIRE MANAGEMENT

    Before concluding my remarks, let me touch on the issue of 
wildland fire management. We are moving aggressively to ensure 
that the increases last year provided for firefighting are 
being used effectively to strengthen our wildland firefighting 
capability and to begin reducing the tremendous fuel load 
within our wildland areas. Our budget continues and sustains 
these efforts in light of the experiences of last year, the 
worst fire season in 50 years, with 93,000 fires covering 7.4 
million acres.

                          INDIAN TRUST REFORM

    Let me also touch on the issue of trust reform. We are 
looking closely into the Indian trust reform issue to ensure 
that the Department continues to make management improvements. 
As I have learned more about that budget and about the problems 
we face, I am struck by what tremendous obstacles we need to 
overcome, and we will work to ensure that those are a very high 
priority for the Department.
    We have recently reached agreement with Judge Lamberth that 
we will have a court-appointed monitor working with the 
Department on its activities to move forward. We believe this 
will be beneficial to the Department as well as to Congress in 
providing objective information about those processes.
    One final note: As we go forward with management of the 
Department, we are faced with the difficulties that arise from 
not having our full team in place, and I look forward to 
working with you.
    We are trying to move as quickly as possible in getting our 
appointees to you, and then we look forward to working with you 
as the Senate confirms the appointees for the Bush 
administration.
    Thank you very much for this opportunity to talk with you 
and to explain the budget. I look forward to working with you.
    [The statement follows:]
                  Prepared Statement of Gale A. Norton
    I am pleased to be here today before the Subcommittee on Interior 
and Related Agencies to present the fiscal year 2002 budget for the 
Department of the Interior. I appreciate the opportunity to highlight a 
number of important initiatives and to answer questions that you might 
have.

    CONSULTATION, COMMUNICATION AND COLLABORATION IN THE SERVICE OF 
                              CONSERVATION
    For several months, I've been explaining what it is to be a 
compassionate conservative and a passionate conservationist. The 
Department's 2002 budget exemplifies these concepts. It's a budget 
that's compassionate in the way it protects our environment and 
conservative in how it spends taxpayers' money and gives local people 
more control over the lands they know and the lands they love.
    This budget supports our efforts to conserve and manage the great 
wild places and unspoiled landscapes of this country, that are the 
common heritage of all Americans. Using consultation, communication, 
and collaboration, we will forge partnerships with interested citizens 
and ensure success in our effort to conserve America's most precious 
places. We can achieve this while maintaining America's prosperity and 
economic dynamism, respecting constitutional rights, and nurturing 
diverse traditions and culture.

                            BUDGET OVERVIEW
    The budget outlines actions that make the government more 
accountable for how it spends taxpayer dollars and for achieving 
results. This budget emphasizes the importance of working in 
partnership with States, local communities, and the private sector. The 
budget pays down our national debt, sets aside a contingency fund for 
future needs and emergencies, and provides broad, fair, and responsible 
tax relief.
    The 2002 budget for the Department of the Interior proposes 
important initiatives that fulfill the President's commitments and 
support the goals that he and I share. Within our budget you will find 
increased resources to support high priorities, including conservation 
of America's wild places through innovative environmental partnerships. 
The budget proposes the revitalization of the State portion of the Land 
and Water Conservation Fund, and the establishment of new landowner 
incentive and stewardship programs to help individuals protect 
imperiled species, enhance habitat, and conserve fragile land. The 
budget supports our shared goals to eliminate the National Park Service 
backlog over five years and improve natural resource management. The 
2002 budget seeks resources that will enable us to achieve real results 
for every Indian child and upholds the President's commitment to leave 
no child behind, by investing in repair and replacement of Indian 
schools and increasing funding for school operations.
    The budget also funds five recently adopted Indian land and water 
settlements, maintains a high level of funding to prepare for and 
suppress wildfire and to treat forests and range lands to reduce fire 
danger, and maintains historically high levels of funding for 
operational programs at national parks, wildlife refuges, and public 
lands. The budget also proposes management reforms that respond to the 
President's challenge to create a bureaucracy that is more flexible, 
creative, and responsive; to bring decision making closer to the 
customer; while continuing our emphasis on front-line service.
    The 2002 budget for the Department of the Interior is $10.0 billion 
in appropriations, a funding level that is $345.7 million, or 3.4 
percent below the 2001 enacted level. To give perspective to this 
comparison, it is important to note that 2001 appropriations reflected 
extraordinary growth of 20 percent in funding over 2000 levels, and 
included substantial emergency and one-time appropriations that need 
not be continued in 2002. When compared to historical funding levels, 
the 2002 budget request is $1.4 billion or 16 percent higher than 2000 
and $1.9 billion or 23 percent higher than 1999. This budget is the 
second highest in the history of this Department.
    For Department programs that are under the jurisdiction of the 
Subcommittee, the request for annual appropriations is $9.1 billion, a 
decrease of $348.8 million below the 2001 level. When compared to 
historical funding levels, the 2002 budget is $1.4 billion or 17.6 
percent higher than the 2000 level.

                   BUILDING CONSERVATION PARTNERSHIPS
    The Department of the Interior has a long and proud history of 
working in partnership with State, local, and private landowners in the 
conservation of natural resources. The 2002 budget builds on this 
capacity and provides new resources and tools to States, communities, 
organizations, and individuals to take leadership roles in finding 
innovative ways for conservation in cooperation with the Federal 
government.
A Flexible LWCF State Grant Program
    The Land and Water Conservation Fund was created in 1965 to assure 
that revenues from offshore resources that belong to all of the people 
of the United States are used to develop and preserve recreation and 
conservation benefits. The LWCF has made an outstanding contribution 
over the last three and one-half decades by protecting America's land 
heritage and providing recreational opportunities. However, the promise 
for full funding that was made in the authorizing legislation has not 
been kept. From 1965 to 1995, funding for State grants averaged only 
$108 million a year and no State grant funds were appropriated for 
years 1996 through 1999.
    The 2002 budget keeps the promise for a fully funded Federal-State 
partnership, requesting the authorized level of $450.0 million for 
State grants, an increase of $359.7 million over the 2001 level of 
$90.3 million. Amounts that would be allocated to States, the District 
of Columbia, and the Territories are significantly increased, expanding 
every State's capability to support our shared goals for conservation. 
The budget proposes to make $10.0 million available for competitive 
grants to Tribes, funding tribal participation in this program for the 
first time.
    The 2002 budget also proposes to revitalize the State grant program 
both by increasing the resources available and by expanding the scope 
of activities eligible for funding. It allows States flexibility to 
determine their own priorities in recreation and conservation, and 
encourages program innovation. Conservation of wildlife and habitat has 
become a major component of conserving and enjoying our natural 
resources. In this broadened State grants program, States can continue 
to use funding for traditional recreational venues such as ball fields 
and parks. They will also be able to use this funding to protect and 
enhance habitat for fish and wildlife. The updated LWCF State grant 
program incorporates the purposes of more narrowly-focused grant 
programs that support goals including: urban park recreation and 
recovery, wildlife conservation and restoration, migratory bird habitat 
conservation, and the conservation of habitat for threatened and 
endangered species. To enhance collaboration the budget allows States 
to partner with non-governmental entities to plan State-wide 
recreational needs, enhance lands that have already been acquired, and 
to acquire easements.
    The 2002 budget proposes $100.5 million for three Fish and Wildlife 
Service programs to further facilitate conservation partnerships. The 
request includes: $54.7 million for candidate conservation, threatened 
and endangered species recovery, habitat conservation planning, and HCP 
implementation through the Cooperative Endangered Species Conservation 
Fund; $14.9 million for wetlands and migratory bird conservation 
activities through the North American Wetlands Conservation Fund; and 
$30.9 million to enter into partnerships with private landowners for 
conservation purposes through the Partners for Fish and Wildlife 
program.
Facilitating Local and Private Conservation
    The 2002 budget includes two new programs to promote conservation 
in the United States. The Fish and Wildlife Service budget proposes 
$50.0 million to establish a Landowner Incentive program for grants 
that are competitively awarded and cost shared. Grants provided to 
States, the District of Columbia, Territories, and Tribes will help 
landowners protect and manage habitat, while continuing to engage in 
traditional land use practices.
    This initiative is modeled on the successful private lands 
enhancement program in Texas. This program provides technical 
assistance to landowners that want to consider wildlife needs in their 
land use practices. Texas wildlife biologists work with private and 
public land managers in the preservation and enhancement of habitat for 
important wildlife species.
    The budget also recognizes the importance of private citizens and 
non-governmental groups in the protection and conservation of natural 
resources. The 2002 budget includes $10.0 million for a new Private 
Stewardship grants program that will support individuals and groups 
engaged in voluntary land and wildlife conservation efforts. This 
funding will support local community efforts to protect imperiled 
species, enhance habitat for fish and wildlife, and conserve important 
resources.
    In support of our collaborative and consultative approach, our 2002 
budget proposes $259.1 million for Federal land acquisition projects 
that focus on the use of alternative and innovative conservation tools 
such as easements, purchases of development rights, and land exchanges. 
We have made sure that these proposed acquisitions include the input 
and participation of the affected local communities. For example, the 
Bureau of Land Management budget proposes $2.0 million to acquire 788 
acres of conservation easement interests and 100 acres of fee simple 
interests to protect scenic and recreational values in the Lower Salmon 
River Area of Critical Environmental Concern in Idaho. Acquisition of 
these precious resources has the support of the Friends of the Lower 
Salmon and the Idaho Department of Fish and Game. By using easements, 
we can leave the lands in private ownership, while protecting the 
breathtaking scenery of the river canyon.

                     PRESERVING OUR NATIONAL PARKS
    America is a land of singular beauty and Americans are proud of the 
many natural treasures within our shores. The President and I believe 
that a top priority of the Department of the Interior is the 
conservation of these treasures. The 2002 budget proposes increased 
funding to conserve the national treasures in our national parks. The 
2002 budget includes an increase of $61.1 million in appropriations, 
coupled with targeted recreation and concession fees for a total of 
$439.6 million to eliminate the maintenance backlog that is an obstacle 
to resource protection. We are also providing $20.0 million to restore 
natural resources, including removal and management of invasive 
species, in national parks. This initiative will help to restore our 
parks and ensure a positive legacy of protecting our cultural, natural, 
and recreational treasures for Americans today and in the future.
Eliminating the NPS Maintenance Backlog
    Just as the establishment of the National Park Service in 1916 was 
an innovative idea, so too are we challenged to devise new and 
innovative ideas for the management of these national treasures. Today, 
the Park Service faces challenges that could not have been imagined by 
the early managers of the park system. More than 285 million people 
visit the parks annually; visitation this year at Yellowstone National 
Park alone will exceed the visitation of the entire system in 1916. As 
the park system ages and visitation increases, the parks' 
infrastructure is stressed and showing the effects of inadequate 
maintenance funding.
    It is estimated that the current deferred maintenance backlog is 
roughly $4.9 billion, including $2.2 billion that is attributable to 
facility maintenance needs funded through Interior and Related Agencies 
annual appropriations. The 2002 budget proposes funding to begin to 
reverse the decline in the condition of facilities in parks, requesting 
$439.6 million to make significant progress in eliminating the $2.2 
billion facilities-based maintenance backlog. Annual funding will 
include $339.6 million in appropriations and $100.0 million in 
recreation and concession fees. At this funding level the Park Service 
will address the $2.2 billion deferred maintenance backlog over five 
years.
    The Park Service will undertake projects in the backlog in an 
orderly process using a five-year plan that prioritizes first the 
completion of health and safety and resource protection projects. 
Projects that will be completed with this funding are diverse, 
including for example: replacement of deficient guardrails at the Blue 
Ridge Parkway; replacing a failing water line at Petrified Forest 
National Park; and conducting critically-needed preservation work at 
the Lincoln Memorial in Washington, D.C.
    The balance of the backlog, $2.7 billion, is associated with road, 
bridge, and transportation projects funded through the Transportation 
Equity Act for the 21st Century. The 2002 budget defers decisions on 
increased funding for these transportation-related projects and assumes 
the existing funding level of $165 million annually through 2003, as 
TEA-21 is not subject to reauthorization until 2004.
The Natural Resource Challenge
    The 2002 budget proposes $49.5 million for the National Park 
Service Natural Resource Challenge, a program focused on preservation 
and restoration of the rich natural heritage in the National Park 
System. For this third year of the program, the Park Service is 
requesting an increase of $20.0 million in order to improve knowledge 
of plants, animals, and ecosystems in park units. This infusion of 
resources will increase the Park Service's capability to understand the 
potential impacts of habitat destruction, invasive species, pollution, 
and pressures caused by increasing visitation. The Park Service will 
continue to work collaboratively with the U.S. Geological Survey and 
local universities in order to develop strategies to ameliorate threats 
to natural resources, and implement solutions to resource problems.

              KEEPING OUR COMMITMENTS TO AMERICAN INDIANS
    One top priority concerns the special responsibilities of the 
Secretary of the Interior with regard to American Indians. The 
President and I have committed to uphold the unique government-to-
government relationship with Tribes. There is much that needs to be 
done and that we can do, in partnership with our Nation's Indian 
Tribes, to improve conditions and provide a more hopeful future. The 
2002 budget includes $2.2 billion for BIA, an increase of $65.9 million 
or three percent over the 2001 level, and a 17 percent increase over 
the 2000 level. The budget contains substantial funding for Native 
American initiatives and builds on increases provided last year for 
school construction, Indian education programs, and trust management 
improvements.
Building Better Schools In Indian Country
    President Bush has pledged to ``leave no child behind.'' To 
accomplish the goal, we must improve the schools that serve nearly 
50,000 children. The BIA, through its management of 185 Indian schools, 
is one of only two agencies in the Federal government directly 
responsible for an elementary and secondary school system. In 2002, BIA 
will fulfill the President's commitment to improve education in America 
by implementing a two-pronged approach improving education facilities 
and enhancing school operations.
    One-fifth of the buildings in the BIA school system are over 50 
years old, and half are more than 30 years old. Due to age and 
inadequate maintenance, many schools have serious deficiencies that 
pose real threats to the health and safety of students and faculty and 
make it difficult for students to learn. These schools have leaking 
roofs, peeling paint, overcrowded classrooms, and inadequate heating, 
cooling, and ventilation. The 2002 budget includes $292.5 million for 
education construction, including $122.8 million to construct 
replacement buildings at six schools and $5.0 million for planning and 
design of future replacement schools.
    The six schools slated for funding in 2002 are the highest priority 
based on BIA's priority ranking list. Funding will be used to replace: 
educational facilities at the Polacca Day School in Arizona and the 
Ojibwa Indian School in North Dakota; school and dormitory facilities 
at the Pascal Sherman Indian School in Washington; dormitory facilities 
at the Holbrook Dormitory in Arizona and the Wingate Elementary School 
in New Mexico; and new classroom facilities at the Santa Fe Indian 
School in New Mexico.
    The education construction budget also includes $161.6 million for 
facilities improvement and repair, an increase of $13.6 million or 
eight percent over the 2001 funding level. This proposal will fund 
deferred and annual maintenance needs, major and minor repair projects 
to address health and safety concerns, and program deficiencies at 
educational facilities. The President has established a goal to 
eliminate the current repair and maintenance backlog by 2006. With this 
funding, we will make significant progress towards achieving that goal.
Learning: A Life-Long Journey
    Providing safe schools is only the first step in improving 
educational opportunities for Indian children. One of BIA's strategic 
goals is to provide quality educational opportunities from early 
childhood through adulthood, helping to instill a desire for life-long 
learning. The 2002 BIA school operations budget proposal of $504.0 
million includes a program increase of $9.1 million. This funding will 
be used at schools operated by BIA, as well as at schools operated 
under contracts or grants to Tribes and tribal organizations, to ensure 
that schools maintain accreditation; have access to textbooks, 
computers, and other vital learning tools; have adequate teaching 
staffs; and can provide transportation. Individual schools and school 
boards at the local level make the final decisions on how best to use 
these funds.
    The 2002 budget maintains funding of $12.2 million for the early 
childhood development program, including the family and child education 
program and the therapeutic residential model program. The family and 
child education program involves parents in the critical early stages 
of their children's education, improves adult literacy, and teaches 
parenting skills that help improve children's readiness for school. The 
therapeutic residential model program is an intensive, hands-on program 
that focuses attention on Indian youth attending boarding schools and 
helps them to achieve positive changes in attitude, behavior, and 
academic performance.
    In addition, the 2002 budget proposes $39.1 million for operation 
of the 25 tribally controlled community colleges. This is an increase 
of $1 million for these colleges that serve a vital role in furthering 
Indian education beyond the high school level and building critical job 
skills.
Resolving Land and Water Claims
    Settlements of land and water disputes resolve long-standing claims 
made by Indian tribes and are the outcome of negotiations between the 
Tribes, the Federal government, and other interested parties. The 
settlements reflect the Federal government's commitment to fulfill its 
promises to the Indian community. The 2002 budget includes $60.9 
million, an increase of $23.5 million, to fund ongoing settlements and 
five recently authorized settlements. The budget requests: $6.3 million 
to complete the Federal commitment for direct tribal payments in the 
U.S. v. Michigan Great Lakes joint Tribal-State-Federal consent decree 
on fishery resources; $6.0 million for the Torres-Martinez settlement 
in California; $2.0 million for the Santo Domingo settlement in New 
Mexico; $5.0 million for the first payment for the Shivwits Band of the 
Paiute Indian Tribe of Utah; $8.0 million for the Colorado Ute 
settlement to settle claims on the Animas and La Plata Rivers in 
Colorado. The budget will continue to fund the Rocky Boy's settlement 
at $8.0 million and the Utah Ute settlement at $24.7 million.
Fulfilling Trust Responsibilities
    For more than 150 years, the Department has been responsible for 
managing assets in trust for American Indian Tribes and individual 
Indians. The management of trust funds and administration of leasing 
activities continues to be an important responsibility and is an 
essential service to foster opportunities for Tribes and individual 
Indians. The 2002 budget upholds commitments made to institute sweeping 
changes in the management of trust assets. Trust management reform 
efforts focus on correcting deficiencies; improving and implementing 
new trust management and financial systems; and sustaining 
accomplishments to ensure that trust management problems do not recur.
    A total of $110.2 million is requested for the Office of the 
Special Trustee in 2002, including $73.0 million for trust management 
improvements under the Department's High Level Implementation Plan. 
Activities that will continue in 2002 under HLIP include: replacing 
BIA's land records system with the Trust Asset and Accounting 
Management System; reforming the probate and appraisal program; curing 
decades-old records management deficiencies; providing training on 
trust systems; and developing comprehensive and consistent policies and 
procedures. Continued implementation of these management reforms will 
resolve decades old trust fund management issues, improve 
accountability, and help to meet the Department's trust 
responsibilities to Tribes and individual Indians.
    The 2002 budget includes $11.0 million for the fourth year of the 
Indian Land Consolidation program to expand land acquisition activities 
and continue implementation of the Indian Land Consolidation Act 
Amendments of 2000. This will support activities including: 
consolidating fractionated interests into more useable and leasable 
parcels of land; reducing the administrative burden associated with 
fractionated ownership; and reforming probate by establishing uniform 
rules for the descent and distribution of interests in allotted lands.
    The 2002 budget proposes $118.4 million for BIA trust-related 
services. This includes an increase of $12.0 million for additional 
staff and resources for critical trust services programs that have been 
historically under funded and understaffed, such as real estate 
services, probate, appraisals, and land titles and records programs. 
These increases will help BIA to continue to improve performance in 
meeting responsibilities in managing revenue-generating lands held in 
trust for Tribes and allottees. The program increases will further 
timely and accurate processing of real estate transactions and 
appraisals; increase capability to keep pace with growing probate 
workloads; help keep land records current; provide additional resources 
for tribal courts to address the increased court caseload; support 
background investigations of employees and contractors who manage trust 
assets and records; improve management of natural resources on trust 
lands; and improve information resource management and trust records 
security.

                    BALANCING USE WITH CONSERVATION
    Federal lands administered by the Department of the Interior play 
an important role in ensuring domestic energy security, supporting 
economic development, and providing important opportunities for the 
public to experience the Nation's natural heritage. As stewards of 
public lands and resources, the Department must balance the development 
of mineral and energy resources with environmental protection. The 2002 
budget proposes program increases totaling $22.1 million for BLM and 
$14.7 million for MMS to support this balanced approach.
Onshore Energy and Minerals Programs
    BLM manages leasing and development for energy and minerals on 
onshore lands that produce approximately five percent of annual 
domestic oil production and eleven percent of domestic natural gas 
production. BLM's management of energy and mineral resources, including 
50,000 oil and gas leases, are an important part of the Nation's energy 
program.
    The 2002 budget proposes a program increase of $15.0 million for an 
expanded BLM energy and mineral program. This proposal includes $5.0 
million for BLM to identify and evaluate oil and gas resources and 
reserves on public lands as required by the Energy Policy and 
Conservation Act of 2000. BLM will work with the Department of Energy, 
U.S. Forest Service, and U.S. Geological Survey to survey onshore 
reserves. An increase of $5.0 million will be used to support another 
lease sale offering in the National Petroleum Reserve--Alaska and to 
initiate planning and associated studies in the 1002 area of the Arctic 
National Wildlife Refuge to support future oil and gas lease sales, if 
authorized by Congress. The request includes an additional $2.0 million 
to increase leasing and processing of permits to drill for coalbed 
methane, and $3.0 million to increase coal leasing and other mineral 
development on Federal and Indian lands, and to address increased 
workload for land and realty processing of rights-of-way.
Consensus Building with Land Use Planning
    BLM land use plans govern the management of pubic lands and are the 
primary tool for building consensus and incorporating public comments 
in our land and resource management programs. Many of the plans now in 
use were completed prior to 1989 and need to be updated to reflect 
current conditions. The 2002 budget includes an increase of $7.1 
million to update plans in order to facilitate more collaborative and 
better decision-making.
Offshore Energy Programs
    MMS oversees oil and natural gas production in the Outer 
Continental Shelf. OCS activities account for approximately 26 percent 
of annual domestic oil production and 28 percent of domestic natural 
gas production. To meet the demand for increasing energy production, 
the budget includes an increase of $7.4 million for MMS' Gulf of Mexico 
leasing and regulatory program. This increase will allow MMS to be 
responsive to requests for services in processing permits and the 
review of development plans. An additional increase of $7.3 million is 
proposed to acquire a management system that is necessary to support a 
royalty-in-kind program for oil and gas production on Federal lands. 
Where favorable conditions exist, taking royalties in kind as an 
alternative to the traditional method of collecting royalties in value 
is an innovative approach that may potentially reduce administrative 
burdens.

                             MANAGING FIRE
    The lessons learned in the 2000 fire season laid the groundwork for 
our current efforts in the Wildland Fire program. As a result of our 
past experience, we are focusing on building capacity in preparedness; 
implementing an expansive fuels treatment program that targets the 
wildland urban interface; ensuring an adequate fire suppression program 
at the Federal and local levels; and conducing rehabilitation of burned 
areas to prevent additional loss and promote land health. In 
conjunction with the U.S. Forest Service, the Department continues to 
make significant progress in the implementation of the National Fire 
Plan. Working in partnership with the Western Governors' Association, 
National Association of Counties, Tribes, other Federal partners, and 
non-governmental organizations, the Department and the Forest Service 
are developing a plan of action and are engaged in designing a ten year 
strategy for treatment in the wildland urban interface to protect 
communities from the threat of fire.
    The 2002 budget funds the wildland fire program at $658.4 million, 
or more than double historical levels for this program. Although this 
proposal is $318.7 million lower than the 2001 level, a large part of 
this decrease reflects the elimination of an emergency contingency fund 
of $199.6 million and $26.8 million in one-time costs for equipment 
purchases and a specific, targeted research project. The 2002 
President's budget continues funding for critical fire program 
components and includes a $5.6 billion national emergency reserve that 
will be available to pay for emergency needs, including higher than 
average wildland fire costs, if needed.
    The 2002 budget funds preparedness at $280.8 million. This funds 
readiness at $252.0 million, or 95 percent of the amounts included in 
the National Fire Plan, adjusted for fixed costs. This level combined 
with resources expected to be available from 2001 provides sufficient 
funding to maintain full readiness in 2002. The budget continues 
funding for the fire science program at $8.0 million and includes a 
proposal to fund important research conducted by the U.S. Geological 
Survey within this amount. A total of $19.8 million is budgeted for 76 
high priority deferred maintenance and capital improvement projects.
    The 2002 budget proposes to fund fire operations at $367.6 million. 
Suppression costs are funded at the ten-year average of $161.4 million 
including an additional $8.3 million to increase fire control 
capabilities. The 2002 budget continues funding for hazardous fuels 
reduction at $186.2 million including $111.3 million for fuels 
reduction in the wildland urban interface. The budget also funds 
rehabilitation at the ten-year average of $20.0 million. The budget 
reflects a reduction of $84.8 million from 2001 levels, reflecting a 
reduction in funding amounts that will be targeted to rehabilitate 
areas burned in the 1999 and 2000 fire seasons.
    Lastly, the budget provides $10.0 million for technical assistance 
and support for rural fire districts. Funding provided to these 
volunteer fire departments is critical, as they are often the first 
line of defense in protecting wildland urban interface areas threatened 
by fire.

  OPERATION OF NATIONAL PARKS, NATIONAL WILDLIFE REFUGES, AND PUBLIC 
                                 LANDS
    The 2002 budget continues funding for the operational programs in 
the National Park Service, Fish and Wildlife Service, and Bureau of 
Land Management at historically high levels, maintaining significant 
funding increases provided in prior years and allocating an additional 
$69.1 million for uncontrollable cost increases. Funding for these 
operational programs in 2002 totals $3.2 billion, an increase of 2.4 
percent over 2001 levels, and an increase of 12.7 percent over 2000 
levels.

                        RESTORING THE EVERGLADES
    The President's 2002 budget invests significant resources in the 
long-term restoration of the South Florida ecosystem, requesting $37 
million for the Corps of Engineers and Department for implementation of 
the Comprehensive Everglades Restoration Plan authorized by the Water 
Resources Development Act of 2000. An additional $183 million is 
proposed, government-wide, to continue ongoing construction, research, 
and land acquisition activities associated with restoration of the 
ecosystem. The South Florida/Everglades ecosystem is a national 
treasure. Restoration of the Everglades continues to be a top priority 
for the Department.
    The Department's 2002 budget includes $122.8 million for South 
Florida/Everglades restoration activities. The 2002 budget proposes an 
increase of $5.7 million for CERP implementation to provide technical 
assistance and expertise in the planning, design, construction, and 
adaptive assessment of restoration projects constructed by the Corps. 
The budget includes $27.4 million for acquisition to support 
restoration, including $15.0 million for a matching grant to the State 
of Florida. A total of $39.2 million is proposed for the Modified Water 
Deliveries project.

                       ENDANGERED SPECIES LISTING
    The 2002 budget proposes a total of $8.5 million for the endangered 
species listing program, a 34 percent increase over 2001, and a 37 
percent increase over 2000. This increase will help return balance to 
the listing program, enabling the U.S. Fish and Wildlife Service to 
protect species that are in decline, respond to citizen petitions to 
list new species and designate critical habitat for species that are 
already listed.
    However, because a flood of court orders requiring FWS to designate 
critical habitat for hundreds of species threatens to consume the 
entire listing budget in 2002 as it has in 2001, the budget increase 
will not be enough by itself to restore this balance. In fact, after 
complying with existing court orders to designate critical habitat for 
2001, FWS does not have any remaining resources or staff to place new 
species on the list of threatened and endangered species or to respond 
to citizen petitions to list new species. In short, because of the 
lawsuits, FWS currently does not have an effective listing program.
    The prior Administration requested Congress place a cap on the 
listing program beginning in 1998, and this Administration is asking 
Congress to continue the cap. The reason for the cap is to ensure that 
FWS can maintain an overall endangered species program that not only 
includes listing new species and designating critical habitat but also 
undertaking recovery programs, working with States, landowners, and 
others to conserve species before they require listing, consulting with 
Federal agencies where required by the Act, and delisting species when 
they have recovered. Absent the cap, courts might require the Service 
to take funds from other endangered species activities to designate 
critical habitat. If this were to happen, the imbalance that currently 
plagues the listing program would spread to the entire endangered 
species program.
    The President, therefore, is continuing efforts begun by the last 
Administration to break this gridlock and get back to the important 
business of protecting imperiled species. We are asking Congress to 
concur that funds be spent on listing actions that provide the greatest 
benefit for species at risk of extinction. This proposal would not 
change any of the underlying substantive requirements of the ESA, but 
would allow the FWS to use its resources to protect the species that 
are in greatest need of listing. The Service hopes to engage the public 
and interested groups in a dialogue on the development of a 
prioritization system, and then to put the resulting priority system 
out for public review and comment this summer.
    We recognize that this proposal has resulted in considerable 
controversy. While the problem is real and needs to be addressed, we 
would welcome the opportunity to work with this Committee and other 
interested Members/Senators to craft a solution that meets with wide 
approval.

                            GOOD GOVERNMENT
    The 2002 budget begins to shape the Department in a manner that 
supports the President's vision for a government that is active but 
limited, citizen-centered and not bureaucracy-heavy, results-oriented 
and not process driven, and market-based in order to promote innovation 
and competition. The budget proposal slows the growth in staffing, 
reflecting a reduction of more than 1,700 FTE below levels originally 
planned for 2001. The budget identifies streamlining savings that total 
$57.3 million that will be achieved through reductions in 
organizational layers, contracting efficiencies, lowered grade levels, 
management downsizing, and elimination of extraneous positions.

                               CONCLUSION
    In conclusion, the 2002 budget provides strong support for 
Interior's programs and for the men and women who carry out our 
mission. Further, it provides expanded opportunities to work with our 
constituencies involving them to a greater degree with expanded 
consultation, communication, and collaboration. As we expand their 
involvement, we can increasingly benefit from their creativity and 
capacity to innovate and thereby increase our effectiveness.
    I was reminded very recently that we can accomplish more by working 
together and building partnerships across ideological and political 
boundaries. Three weeks ago, I helped to release five endangered 
California condors back into the wild, achieving something that was 
once thought to be impossible. The captive breeding effort and 
subsequent reintroduction of the condors into the wild was made 
possible by collaboration with State, local, and private organizations.
    This concludes my overview of the 2002 budget proposal for the 
Department of the Interior and my written statement. I will be happy to 
answer any questions that you may have.

    Senator Burns. Thank you, Madame Secretary. We appreciate 
your statement very much. And I think most of us that live in 
the west--we're also geared up to have another very bad fire 
season this year because our moisture situation is not very 
good, at best.

                      ENDANGERED SPECIES LISTINGS

    One of the areas in the budget request that catches the eye 
more than anything else is the $2.1 million request for the 
listing program under the Endangered Species Act. Additionally, 
the President has requested that Congress modify the 
legislative language that puts a cap on listing.
    Could you explain how the administration plans to use the 
additional $2.1 million for listing and explain why the 
administration believes that the language for the cap on the 
listings should be modified?
    Secretary Norton. As I began talking with the career people 
throughout the Department who are in charge of administering 
programs, I learned from them about some of the difficulties, 
and this was one that we identified.
    The listing portion of the Endangered Species Act 
administration focuses on drawing the lines for the critical 
habitat as well as putting species onto the endangered list. 
The concern is that that part of the program is not as 
important for the actual recovery of species as some other 
aspects of the program. It might crowd out the other aspects 
that are the ones that really focus on making changes to 
enhance habitat and improve the plight for the species.
    The prior administration had taken the step of containing 
that budget and putting limitations on that process. We 
increased the amount of money that is available within that 
budget, but continued the approach of having a limitation on 
that.
    What we also heard was that the priorities were being set 
by court orders. It was like an emergency room where patients 
were treated not on the basis of the seriousness of their 
problems, but on the basis of the date of their court dockets; 
and so we were in effect treating hang nails when we were 
letting heart attacks go untreated.
    We proposed to put in place a listing process or a 
prioritization process that will be based on the needs of the 
species and deal with that in that respect.

                        PAYMENT IN LIEU OF TAXES

    Senator Burns. Another area in this budget where you have 
cut $50 million back is on the Payment In Lieu of Taxes. As you 
well know, some counties in the west are completely dependant 
on public lands and on those PILT monies for the services 
provided by county and government.
    While I agree with much of your budget, there are a number 
of details that concern me. For example, last year we reached a 
compromise of around $200 million to fund PILT. Now, that is 
not fully funded, by the way. You have taken another $50 
million away from that to lower it down to $150 million. And as 
a former county commissioner, I note those things.
    So, should we look at this reduction as a policy stance on 
the part of the administration regarding the merits of PILT, or 
as a result of a shortfall in the budget and the monies 
available?
    Secretary Norton. Well, as a westerner myself, Mr. 
Chairman, I certainly understand the importance of PILT and 
what that means to communities. I would like to continue to 
move toward full funding in future years, but within the 
overall budget constraints necessary for 2002, this was not 
possible.
    I do note though that we are moving toward more 
decentralization of our funding and that the funds that are 
being supplied to States through the Land and Water 
Conservation Fund are the kinds of things that will allow us to 
have more State control of the funding.
    Senator Burns. Secretary, we have been joined by Senator 
Dorgan of North Dakota.
    Senator, do you have a statement, because I am going to 
Senator Byrd next?
    Senator Dorgan. Chairman, I will withhold and make a 
statement during my time for questions.
    Senator Burns. Senator Byrd. Thank you very much.

                   ABANDONED MINE RECLAMATION PROGRAM

    Senator Byrd. Madame Secretary, I am concerned about the 
proposed funding levels for the Abandoned Mine Reclamation 
Program administered by the Office of Surface Mining. This is 
an environmental restoration effort which is effectively self 
funded because of the Federal tax placed on every ton of coal 
mined in this country.
    Over the past quarter century, since the enactment of the 
Surface Mining Control and Reclamation Act in August of 1977, 
the AML fund has accumulated more than $5.8 billion. And while 
Congress has appropriated $4.3 billion of that, the fact is 
that $7.7 billion worth of identified mine clean-up work 
remains to be done.
    In my State of West Virginia alone, $626 million worth of 
the highest priority reclamation work has not been funded. And 
yet, despite the obvious and well documented needs that exist 
all around this Nation, your Department's budget would slash 
AML funding by 38 percent from the current level of $171 
million down to $124 million.
    Would you please tell the subcommittee why the AML program, 
which by all accounts is extremely successful, is being 
subjected to a 38 percent cut?
    Secretary Norton. Senator Byrd, I do remember having the 
opportunity to talk with you in your office about the AML 
program and other issues of concern to you. This is, in part, a 
reflection of the Health Benefits Program that we discussed.
    $97 million of the difference in the funding is because of 
funding that was provided last year from that fund, not for the 
abandoned mine land activities, but for health benefits. And I 
understand that is an important issue that needs to be----
    Senator Byrd. Are you talking about the conbined benefits 
fund? That money is coming out of the interest on the 
principal. Yes?
    Secretary Norton. Yes.

                        REDUCTION IN AML FUNDING

    Senator Byrd. But why do we have a 38 percent cut?
    Secretary Norton. That is because the previous year's 
budget included health benefits as part of the funding.
    As to health benefits, I certainly hope that that will be 
resolved in the more ordinary course of business by the Senate.
    On the enforcement side, the current level of funding, 
first of all, has been increased for the regulatory activities 
of the Office of Surface Mining.
    We do see a cutback in the Abandoned Mine Reclamation Fund. 
That is a program that we continue to support. This will allow 
us to restore 6,000 to 7,000 acres in 2002.
    Senator Byrd. The 38 percent cut, is that coming out of the 
principal?
    Secretary Norton. I'm sorry?
    Senator Byrd. Is it coming out of the principal? The 
combined----
    Secretary Norton. Yes. Payments are from the principal.
    Senator Byrd. Can we offer some explanation for the people 
who are forced to live near these unsafe and hazardous 
abandoned mine sites, why the administration is gutting the one 
Federal program geared toward solving a problem?
    Secretary Norton. We look forward to continue working with 
the States on dealing with those problems, and to look at how 
we can better operate our programs. We are looking at how we 
can prioritize our activities and enhance the management of 
that fund.
    Senator Byrd. Well, we look forward to doing that, but 
aren't we putting the States at a disadvantage and the program 
at a great disadvantage when it sustains a 38 percent cut?
    Secretary Norton. Senator, there are many important and 
good programs, and as we look at trying to bring under control 
the level of increase within our spending and at paying down 
the national debt----
    Senator Byrd. I understand all that.
    Secretary Norton [continuing]. We do need to look at some 
of these cuts.
    Senator Byrd. And I am for paying down the national debt, 
but we are also going to have over $1 trillion tax cut that the 
President is proposing.
    Staff. $1.6 trillion.
    Senator Byrd. $1.6 trillion, and what I am interested in is 
this AML program. And I am going to do what I can to keep you 
from subjecting that program to a 38 percent cut. I do not 
think the justification is there.
    What you are telling me, in essence, is we have got to make 
these cuts in order that the President might have his big tax 
cut. Now, I am not saying I am against any and every tax cut, 
but I am certainly against a tax cut of this size and 
especially when programs like the Abandoned Mine Land Fund are 
going to have to provide the monies to make up for the cut.
    Secretary Norton. Senator Byrd, let me just put this in 
perspective in terms of what this means for the program.
    Senator Byrd. I wish you would.
    Secretary Norton. We are looking at a very similar level of 
number of acres that we expect to be treated under the program, 
7,200 to 8,600 acres compared to 6,000 to 7,000 acres in the 
2002 budget. The funding request will continue the program at a 
fairly similar level, and we look forward to working with the 
States to ensure that those monies are spent as wisely as 
possible.
    Senator Byrd. Well, that still does not answer the question 
as to the real justification for making such a cut in the AML 
program. This is a self funded program because of the tax paid 
on every ton of coal that is mined throughout this country.
    And I think you have to come up with a better justification 
than you have thus far. I say that most respectfully, but I am 
going to be watching this fund, you can be sure. And I am not 
so sure you are going to get a 38 percent cut in it.
    How much time do I have left?
    Senator Burns. Well, we have everybody on the honor system 
today, Senator.
    Senator Byrd. Well, I am very much for the honor system. 
What is that?
    Senator Burns. Whenever your conscience goes to hurting.
    Senator Byrd. Well, I will wait----
    Senator Burns. We can keep within 5 minutes but, you know, 
it is kind of one of those things that you have control of more 
than I.
    Senator Byrd. Yes. Well, thank you. I am sure I have taken 
my 5 minutes, so I will pass to the next one.
    Senator Burns. We have been joined by Senator Leahy of 
Vermont.
    Senator, do you have a statement or shall we just continue 
with the questioning and----
    Senator Leahy. I think because I am late, I will put my 
statement in the record, but when it becomes my turn, Mr. 
Chairman, I do have some questions I want to ask.
    Senator Burns. And your statement will be made part of the 
record.
    [The statement follows:]

             Prepared Statement of Senator Patrick J. Leahy

    Madam Secretary, welcome and thank you for your presence today to 
let this Subcommittee know of the Interior department's budgetary plans 
for public lands and natural resources. I am sure you know that I 
consider your agency to hold the greatest responsibility for, and 
accountability to, the protection and conservation of our nation's most 
precious lands and open spaces. With clear authority for active and 
visionary conservation of millions of acres of grazing lands, wildlife 
habitat, recreational sites, and waterways, your agency holds in its 
budget priorities the real future of millions of acres of publicly-
funded lands.
    And you, Madam Secretary, are now one of this nation's leading 
voices deciding that future. We all know of your sensitivities to 
private landowner needs. I share many of those concerns and believe we 
have seen the success of voluntary, incentive-based partnerships 
between the federal government and private landowners created and 
enhanced by the last Administration.
    And I also hope that this next year will be the first of many for 
you to show this Congress your leadership not only on private lands 
initiatives, but also in public lands conservation. I hope you will 
carefully hold the line on those who would exploit publicly-funded 
lands for short-term, private gain.
    Places such as the majestic Denali National Park in Alaska, the 
historic Pelican Island National Wildlife Refuge in Florida are 
national treasures. They are sources of great national pride, managed 
carefully by hardworking staff at Interior and on-site. All are faced 
with less than adequate budget resources each year as visitors to the 
sites continue to increase. I hope you will strive to make real 
progress, set a real vision, and put real budgetary resources towards 
the long-term conservation and protection of our nation's treasured 
land, resources, and wildlife.
    I am pleased that this Administration is paying close attention to 
the importance of the Land and Water Conservation Fund in the fiscal 
year 2002 budget--especially the stateside land conservation program. 
In fiscal year 2001, Vermont forests and parks will use stateside LWCF 
grants to repair hundreds of much-used and much-loved public 
facilities, from soccer fields to nature trails. The fiscal year 2002 
increase in stateside funding is a step in the right direction.
    Yet I do have concerns with the programs this Administration is 
promoting under the authority of LWCF--many of which are not in the 
original authorization language of the fund and which decrease the 
funds available for public lands protection. I have been a strong and 
consistent supporter of fully funding LWCF programs, and for the other 
programs you are calling ``LWCF'' in fiscal year 2002--but these 
programs should not be combined in this budget without full and fair 
explanation that the original LWCF is not truly being funded.
    I do commend you, Madam Secretary, for your budget's recognition of 
the importance of the Silvio O. Conte National Wildlife Refuge as 
unique lands that should be carefully managed and protected. Spanning 
four states and the entire Connecticut River watershed, the Silvio O. 
Conte National Fish and Wildlife Refuge holds numerous wetlands, 
forests and rivers used by hunters, bird-watchers, and recreationists 
alike. Two years ago, the Department of the Interior and the U.S. Fish 
and Wildlife Service helped Vermont facilitate a unique federal, state, 
and local partnership in the Nulhegan that conserved 133,000 acres in 
the northern part of the state. Vermont communities are now looking 
forward to bringing in national visitors with a Nulhegan-based Visitor 
Education Center, the design and planning of which should take place 
with funds appropriated in fiscal year 2002. Your agency's continued 
support of Vermont's efforts to protect lands of regional significance 
for future generations, and to provide facilities for national and 
international visits to these sites, is much needed and greatly 
appreciated.
    Given this type of successful federal-state partnership to conserve 
public lands, I also hope your agency will rethink its budgetary cuts 
to programs such as the Payment In Lieu of Taxes, or PILT, program and 
its commitment to fully funding the Refuge Revenue Sharing Fund, or 
RRSF. Created to offset the tax-base loss when lands are conserved with 
public funds, both PILT and RRSF are critical to helping local 
communities afford long-term commitments to publicly-funded land and 
resource protection. Last year's increase to PILT funding finally 
upheld a long-standing federal promise to send more funds to local 
communities interested in conservation. Without full PILT funding, our 
nation is turning its back on commitments to communities and states and 
purposefully setting up public lands for failure. These programs need 
your support.
    Also needing your immediate support are scientific programs 
unfortunately cut at the United States Geologic Survey, or USGS. In all 
aspects of earth system science, be it mapping, water quality, geology, 
wildlife biology, or natural hazards analysis, the USGS is this 
nation's lead agency. While I have yet to receive a detailed budget 
justification for the agency, early reports are that the mapping and 
water quality efforts by USGS have been seriously cut, if not 
discontinued. I find this alarming given the importance of USGS science 
to policy-making decisions nationally, regionally, and locally. I am 
particularly concerned with the possible zeroing of USGS Water Research 
Institutes funds, the cut of funds to the Geologic Mapping Program, and 
the lack of funds in the Community/Federal Information Partnership, or 
C/FIP.
    Finally, Madam Secretary, I do appreciate the increase in funds and 
attention to National Parks made in the fiscal year 2002 budget. The 
Marsh-Billings-Rockefeller National Historic Park in Woodstock, 
Vermont, the only National Park located in my state, is already 
overwhelmed by its own popularity and success after only six years of 
operation. This park and its Conservation Study Institute (CSI) are 
both receiving tens of thousands of visitors each year. In addition, 
the CSI's staff is actively participating in educational outreach for 
forest and land conservation throughout the country, hosting symposia 
and teaching workshops with great success. This year, as they did last 
year, both the park and CSI are bracing for even more visitors and more 
requests for conservation education outreach. I hope that the 
Department of Interior will continue to recognize the importance of 
both this singular National Park within Vermont's borders, and its 
Conservation Study Institutute, as the fiscal year 2002 budget is 
finalized.
    Again, thank you, Madam Secretary, for being here today. I look 
forward to working with you, and your agency, to protect and conserve 
our publicly-funded lands and resources for our citizens today, and for 
future generations.

    Senator Burns. Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman.

                      BLACK CANYON OF THE GUNNISON

    Madame Secretary, I mentioned in my opening statement the 
Black Canyon of the Gunnison and the water right dispute that 
has come up. I thought that was covered in the bill that we 
passed last year that was signed by President Clinton, but 
apparently not.
    And it concerns the Park Service's filing for 
quantification of a reserve water right of the water that goes 
through the Black Canyon. That filing was done in the waning 
days of the Clinton administration. There were formal requests 
to work with the State of Colorado. They did not. And we 
believe that that claim is going to really wreak havoc with 
power production, with irrigation, with a Gold Medal Trout 
Stream, and a number of other things.
    Going back to the 1980s, there have been previous attempts 
to be more realistic than this latest effort, I think. And they 
just simply have not taken any of the input from the State of 
Colorado.
    I understand there have been 383 statements of opposition 
that have been filed, including one from the State of Colorado, 
the Water Conservation Board, one from the state engineer and 
one from the Division of Wildlife. And I know your Department 
inherited that, like you have inherited many other things.
    But I would like to know if you, since you are going to be 
in charge of the national parks, too, why did the Park Service 
ignore those stakeholders in filing that claim? Have you heard 
at all?
    Secretary Norton. Senator Campbell, I have recently become 
aware of the claim that was made by the Park Service in the 
Gunnison. And I have asked one of my top staff people to look 
into that and to learn more about it, and so we are in the 
process now----
    Senator Campbell. Okay.
    Secretary Norton [continuing]. Of studying that claim that 
has been made.
    Senator Campbell. If you would keep me in the loop and 
inform me when you find out some information, I would 
appreciate it.

                        NPS MAINTENANCE BACKLOG

    Let me ask you a little bit about, since we are talking 
about the Park Service, the maintenance backlog in the parks. 
How are you going to start that? Is that going to be done 
geographically? And what types of maintenance will the 
Department attempt first?
    Secretary Norton. The National Park Service has a priority 
list for its backlog that is based on health and safety 
concerns and on the most pressing needs to ensure that we are 
protecting water supplies and things like that, so that we are 
not violating the environmental laws, and to make sure that we 
are in compliance. Those are some things that I think are very 
important.
    It is not being done on a geographic basis, but by priority 
of what are the most pressing needs from the perspective of the 
parks' operations.
    Senator Campbell. Okay. Thank you.

                          INDIAN WATER RIGHTS

    Let me get back to water, about some Indian water rights. 
There is a sizeable backlog in outstanding Indian claims and 
water claims. And one idea that has been proposed informally is 
that we take those settlements off budget so the programs 
within the Interior Department do not have to compete with the 
land and water claims payments. What do you think of that?
    Secretary Norton. I have been very concerned by the way in 
which we have entered into settlements and then not followed 
through on some of those settlements. We have a pattern of 
doing that.
    I would like to see that, as settlements are initially 
reached, we have thought through how they are going to be paid 
for. Obviously, Congress needs to be in the loop on the 
settlements, making sure that the commitments of the United 
States include following through on those things. I do not have 
a specific mechanism at this point that would accomplish that.
    Senator Campbell. No feeling about whether this ought to be 
off budget or not?
    Secretary Norton. I do not yet have an opinion on that.

                             COURT MONITOR

    Senator Campbell. Last week--along Indian issues, last week 
a court monitor was appointed by Judge Lamberth. He appointed a 
gentleman by the name of Joseph Kieffer as the monitor in the 
Cobell v. Norton litigation--welcome to Washington--and 
directed him to report back to the judge.
    How do you interpret that appointment?
    Secretary Norton. We agreed with that appointment, Senator. 
I think it does make sense to have a good flow of accurate 
information between the courts and the Department. I am 
planning to meet with him later today, and I do believe that it 
is important that we have that kind of a dialogue with the 
courts. Everybody understands that these are difficult issues.

                         INDIAN LAW ENFORCEMENT

    Senator Campbell. Okay. And perhaps one last question, too: 
We have put a great deal of money into Indian law enforcement, 
in the tribal courts, in the training and a number of other 
things. One of my personal interests has always been those 
things that are somewhat related to law enforcement and working 
with youngsters.
    Can you determine and maybe get back to the committee 
whether the existing inter-agency initiatives such as GREAT, 
the Gang Resistance Education and Training Program, are 
successful in Indian country or not? And if they are, I am 
personally interested in expanding that. And if they are not, 
we ought to be looking at some other way of trying to keep kids 
from going on the wrong side of the law in Indian country.
    Secretary Norton. I will be happy to get back to you with 
more information on that.
    Senator Campbell. Okay. Thank you.
    Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Campbell.
    Senator Reid.
    Senator Reid. Thank you, Mr. Chairman.
    Madame Secretary, when I first met you, I let you know how 
impressed I was that you got a perfect score on the law school 
aptitude exam, which rarely happens. I did that so that I would 
recognize, first of all, that you knew that I knew how smart 
you are and that, second, that I would let you know that you 
could not outsmart me.
    I did not get a perfect score on the LSAT, Madame 
Secretary, but I have to be very honest with you. This budget 
is, I think, headed in the wrong direction. You have the Land 
and Water Conservation Fund, which was originally set up to 
allow the Federal Government to purchase environmentally 
sensitive land. And now you are using it for all kinds of 
science-based programs and things of that nature, a purpose for 
which the fund was not intended.
    So, I agree with Senator Byrd, there are a lot of programs 
here that you are going to have to deal with. The Land and 
Water Conservation game will not cover these programs.

                     NEVADA BIODIVERSITY INITIATIVE

    Now, for example, I mentioned in my opening statement that 
there has been a Nevada Biodiversity Initiative. It has been 
very, very good. Dr. Dennis Murphy, who is a Stanford 
professor, is now at University of Nevada; Dr. Peter Burssard 
and Dr. Dick Tracy. These are eminent scientists.
    I repeat what I said earlier: Their work along with the 
work of others, including people from your Interior Department, 
helped develop the Clark County Multi-Species Habitat 
Conservation Plan. This is a blueprint for continued economic 
growth, enhanced environmental protection, ongoing improvement 
in quality of life in southern Nevada. But I think whenever we 
have a listed species, this is some place we can look to call 
success.
    I mean, for you just to eliminate this and say, ``We have 
the Land and Water Conservation Fund. Good luck,'' is not going 
to do the trick especially when your budget cuts also wipe out 
funding for restoration of the Lahonton cutthroat trout which 
is designated as a threatened species by the United States Fish 
and Wildlife Service.
    So, I will ask you specifically: Do you agree that efforts 
to prevent the decline of species pays dividends in the long 
run?
    Secretary Norton. I certainly do believe that efforts to 
work on species pay dividends.
    Senator Reid. And do you believe that Federal agencies have 
a responsibility to help recover endangered species?
    Secretary Norton. Absolutely.
    Senator Reid. Okay. Now, I ask you, Madame Secretary, are 
you familiar with the Nevada Bio-Diversity initiative?
    Secretary Norton. I have learned something about your bio-
diversity center, if that is what you are referring to.
    Senator Reid. Okay. And are you aware of the good work that 
has been done in Clark County dealing with the multi-habitat 
conservation that I just talked about, that conservation plan?
    Secretary Norton. I am not familiar with the specifics of 
that.
    Senator Reid. Well, I would say that your predecessor 
thought it was a blueprint for how we should do things around 
the country. And I would ask you if you and your very limited 
staff that you have, that we hope will increase soon, would 
take a look at that and report to me in writing how you think 
the Clark County Multi-Species Habitat Conservation Plan 
worked. Would you do that?

                          NEVADA LWCF FUNDING

    Secretary Norton. will be happy to provide you with that 
information. The State of Nevada will be receiving a $5 million 
increase through the Land and Water Conservation Fund, and we 
would certainly hope that Nevada might see using that funding 
for this type of activity. And that is what we have in mind, 
is----
    Senator Reid. Madame Secretary----
    Secretary Norton [continuing]. Allowing those who really 
understand those issues firsthand to help prioritize those.
    Senator Reid. I appreciate that. But let me just say: 
During my years here, we have used that money to purchase 
environmentally sensitive land. We have Lake Tahoe which is 
desperately in need of land purchases. $5 million is a drop in 
the bucket.
    The Federal Government has obligations there for hundreds 
of millions of dollars of land purchases that we have been 
doing a pretty good job, but not good enough.
    We have, through the Land and Water Conservation Fund, 
purchased land around Lake Tahoe and Heavenly Valley that was 
going to be subdivided.
    $5 million will not do the trick, I have to tell you, just 
for the purchase of land that is desperately needed to move 
into the public sector out of the private sector. So, I 
appreciate your good thoughts about using the $5 million for 
this.
    And the sad part about it is: With the contacts we have had 
with your Department, your Cabinet, we find that this $5 
million is supposed to be used for everything, and that is what 
everybody in this committee is going to get, ``We have got the 
Land and Water Conservation Fund. Have at it.'' But that is not 
the purpose of the Land and Water Conservation Fund.
    When I saw that this administration had funded the Land and 
Water Conservation Fund, I was elated. I think that is a 
tremendous improvement in what has been done in recent years. 
But from what I hear from you, it is not to be used for 
purchase of land. It is going to be used for science-based 
initiatives, for funding other programs that have no relation 
to the Land and Water Conservation Fund as it was originally 
established.
    Secretary Norton. If we look at what needs to be done from 
the perspective of not who owns the land, but what happens on 
that land, one of our proposals is to enhance habitats and to 
do exactly the kinds of things we do when we purchase land for 
conservation purposes.
    If there is a farm in which the habitat needs to be taken 
care of by doing away with invasive species and allowing 
fencing off of some areas to protect sensitive, riparian areas 
from cattle grazing or other activities, we have the option of 
buying that farm which might cost millions of dollars, or of 
providing some fences and the mechanisms to take out the 
invasive species.
    It can be much more cost effective and allow us to protect 
the habitats in many, many more acres if what we focus on is 
what needs to be done to protect the property as opposed to 
purchasing everything to accomplish the Federal goals. What we 
want to do is be more creative, allow local parties to have 
more of a say in that.

                 LAND AND WATER CONSERVATION FUND USES

    Senator Reid. Mr. Chairman, I will end by waiting for my 
next round, but say this: We worked very hard to change the 
Endangered Species Act. I recognize there are some changes that 
need to be done.
    Former Senator Chafee and I and Senator Baucus, Senator 
Kempthorne, we introduced legislation, and it was compromise 
legislation, for various reasons. It did not come to the Senate 
floor.
    I understand the problems with the Endangered Species Act, 
but I go back to the Land and Water Conservation Fund. The Land 
and Water Conservation Fund was not set up to take care of the 
Endangered Species Act. We have specific legislation with 
specific funding to take care of the Endangered Species Act.
    If I go to the State of Nevada, we have almost 90 percent 
of the State which is owned by the Federal Government, and we 
have certain pieces of land that the Federal Government is 
obligated to purchase. And the Land and Water Conservation Fund 
was set up for that.
    We got into a lot of trouble. Senator Ensign has led the 
charge and done an excellent job of developing legislation, of 
which I assisted, when he was in the House, to change the 
provisions where we would exchange land. A lot of problems 
happened. People got in trouble, some criminally, as a result 
of that, because it was so hard with the rapidly escalating 
price of land in Nevada to ever set a price that you could 
fairly exchange it.
    But I repeat what I said earlier: The Land and Water 
Conservation Fund cannot be used as a sop by this 
administration for everything they want done and that deals 
with the environment. It will not work. There is not enough 
money there.
    These programs that you are eliminating are programs that 
have been placed in this bill in this legislation in years past 
by Senators with great thought and deliberation, and the 
committees accepted that. So I would hope that you are prepared 
to take a bill that we are going to report out here that is 
much different than the one you have given us.
    Secretary Norton. I still believe the Land and Water 
Conservation Fund, with the flexibility that it provides to the 
States, and continuing Federal land acquisition where it is 
appropriate, working at acquisition of easements to be as cost 
effective as possible. In what we are doing, it is great for 
the environment in the long run.
    Senator Reid. I look forward to working with you in that 
regard.
    Secretary Norton. Thank you. I look forward to working with 
you.
    Senator Burns. Senator Dorgan.

                             INDIAN ISSUES

    Senator Dorgan. Mr. Chairman, thank you very much.
    While I am interested in a lot of subjects dealing with 
your agency, Ms. Norton, I want to just use my time to speak of 
one, and that is the issue of Indians.
    First of all, thank you for being here. We have clearly a 
crisis in Indian education, housing and health care. It is 
clearly a crisis. I have a letter from a Tribal Chairman in 
North Dakota, a rather lengthy one.
    ``Dear Mr. President''--he sent it to the President a year 
or so ago--``I come from a third world country called Turtle 
Mountain Indian Reservation.'' Then he described the conditions 
of health care, education and housing. And the data and the 
statistics would represent third world conditions.
    I want to mention just about three or four things. Then I 
want to ask you to comment on what you believe the Federal 
Government's responsibility is in addressing these issues. This 
is my framework of reference: We have four reservations in 
North Dakota. We have a lot of folks who cannot very well speak 
for themselves, who are put in conditions that are very 
difficult.
    A young girl named Tamara Demaris was 3 years old when she 
was put in a foster care by a woman who was handling 150 cases. 
She never checked out the foster home. So, at age 3, Tamara was 
beaten severely at a drunken party. Her hair was pulled out by 
the roots, she had a broken arm and a broken nose, and scars 
from which she probably will never recover. Why? Not enough 
money was available for someone in whose custody a 3-year-old 
was entrusted to be able to check out where that 3-year-old was 
going to be placed.
    Sarah Swift Hawk, just south of our border, a grandmother, 
laid down and died on a cot in a home that had no windows. It 
was 40 below. The grandmother froze to death.

                            TRIBAL COLLEGES

    We spend $2,000 less per student at tribal colleges than we 
do other colleges in this country, $2,000 less per student, and 
we know this works.
    A woman in North Dakota was cleaning the toilets in the 
hallways of a tribal college with four children. Her husband 
had left her, and she decided she wanted to do more than clean 
the rooms. The day I spoke at the college graduation, she was a 
graduate wearing a cap and gown. This works, and yet we 
dramatically underfund tribal colleges.
    The Spirit Lake Nation held a hearing one day and the woman 
who was in charge of the social services broke down and cried 
as she described the stacks of files in which sexual abuse and 
abuse against children had been alleged that were not even 
investigated.
    She broke down saying, ``This is my responsibility, but I 
have to beg even to borrow a car to be able to transport a 
young kid into Devils Lake to get some help,'' and then she 
began weeping.
    These are conditions on our Indian reservations. Some of 
them are dealing with Indian health and I know that is not in 
your area, although this subcommittee does that. The tribal 
priority allocations and other issues in education are well 
within your area of responsibility and we need to do much, much 
better. It is unforgivable what is happening to those, 
especially children, on Indian reservations because we have not 
done our job.
    Now, I would like to ask you to respond. Do you not agree 
that we face almost third world conditions, that we face a full 
blown emergency in Indian education?

                            INDIAN EDUCATION

    These Indian schools, Madame Secretary, are judged by those 
who have inspected them to be some of the worst in the country. 
They are in desperate need of repair, renovation. I could talk 
at great length about that, but I shall not.
    Give me your attitude about what we need to be doing to 
address these issues on American Indian reservations.
    Secretary Norton. Well, I certainly do understand that many 
of these schools are in desperate situations, and that the 
education that we are providing for young people in Indian 
country is not up to the par that we expect.
    This is the responsibility of the Department that I take 
very seriously. We have 50,000 children who we have a 
responsibility to educate, and I think that is the first step 
in trying to really make fundamental changes. That is what we 
need to do in order to improve the situation there.
    The Turtle Mountain School, that I believe is in your area, 
is in the next group of schools on the priority list, and it is 
likely for 2003.
    I think working to do what we can to help our schools is 
critical and why the President has made this one of his top 
priorities. We are increasing the funding--or making sure we 
have a sustained commitment to the funding in that area. There 
was only $31 million for school construction in 1997, about a 
quarter of the $128 million we are up to now. It is a dramatic 
increase.
    It is something I am very concerned about. I am planning to 
do some visits to the schools so that I can see firsthand the 
situations that have been described to me.
    Senator Dorgan. Well, in fact the increase for these 
schools have been increasing in the last several years. We have 
provided some additional resources, but we have a clear 
emergency here and we are not providing nearly the resources.
    I would make the same point my colleague Senator Byrd made. 
There are conflicting needs and conflicting goals perhaps in 
the minds of some, but we do have to compare. What are the 
emergency situations and how do we respond to them?
    This is, in my judgment, it is not optional for us when we 
have a trust responsibility, which is what we have with Indian 
children. Our responsibility to provide for the education of 
these Indian children is a trust responsibility, not an option. 
It is mandatory. And all of us, it seems to me, if we were 
required to tour a good many of these schools, would hang our 
head and say, ``How on earth could we have let this happen?''
    This is not a partisan comment. I say to Democratic and 
Republican administrations: We have got to do better. This is 
not an option for us. We have got to put sufficient money in 
our budgets to do it. And if it is that versus a tax cut or 
from $1.6 trillion to $1.59 trillion or whatever it is, we need 
to meet our responsibilities.
    I just urge you: Spend some time visiting these 
reservations and work with us to find ways within this budget 
framework to make the appropriate choices.
    Let me just make one other point. I appreciate the 
recommendation on Ojibwa and I say to the administration: Thank 
you for that. We have been working for a long while to get that 
done.
    But we are still short in a wide range of areas. And let me 
ask you to specifically pay attention to Tribal Colleges. We 
are $2,000 per student below what is happening at other 
colleges, and these colleges work and work very well. We need 
to do much better there as well.
    I said I am interested in a wide range of issues. I wanted 
to focus only on this because I think in so many cases these 
are people who do not have much of a voice in these matters, 
and we have a responsibility to provide that voice.
    Madame Secretary, thank you again and I look forward to 
working with you on other issues when we have a chance to have 
further discussions.
    Senator Reid. Mr. Chairman, I would ask you now, I ask 
consent that I might be allowed to join in the comments of 
Senator Campbell and Senator Dorgan as it relates to Indians 
and the plight in the State of Nevada.
    Senator Burns. Without objection.
    Senator Dorgan. And if I might just say, I did not mention 
my colleague Senator Campbell, but I should have. He has been 
just a relentless voice here in Congress with myself and 
Senator Domenici and others to try to move in the right 
direction, along with Senator Reid, and so I thank him for his 
work on this as well.
    Senator Burns. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    Madame Secretary, I am sure you look forward to these 
hearings with anticipation of one form or another. We are 
delighted to have you here.
    Senator Reid has spoken to you about the Land and Water 
Conservation Fund, and others and I share his concern. I share 
his concern about the cuts in the Interior budget. I do not 
like the idea of taking non-Land and Water Conservation Funds, 
putting them under the Land and Water Conservation Fund and 
say, ``Now they are fully funded,'' because it is basically 
robbing Peter to pay Paul.

                ADMINISTRATION'S ENVIRONMENTAL POLICIES

    Let me ask you this: In the first 100 days of this new 
administration, the President has received some serious 
criticisms concerning his environmental policies, or some would 
say the lack of those policies.
    Among controversial action, he has certainly reversed his 
campaign promise to cut carbon dioxide emissions from power 
plants. He has suspended and delayed a rule that would minimize 
arsenic in ground water. He has withdrawn the United States 
from the Kyoto negotiations to combat climate change, and we 
have heard from most of our major allies of their concern.
    Now, do you believe these criticisms are unwarranted or due 
to a failing by the White House in conveying its messages or do 
these criticisms of the President represent substantive errors 
in his understanding of the importance of environmental 
policies?
    Secretary Norton. Senator, it is my understanding that the 
U.S. Senate has expressed some grave concerns about the Kyoto 
Treaty as well, and the burdens that it placed on the United 
States without placing burdens on the rest of the world in 
order to----
    Senator Leahy. Should we withdraw from the negotiations 
because of that, or should we keep on working to make it 
better?
    Secretary Norton. The administration is in the process of 
examining options to deal with global climate change. Obviously 
it is an important issue, and we need to deal with that. The 
United States should deal with that in the perspective of 
working with other countries to ensure that everyone carries 
their share of trying to resolve the issues and not just the 
people of America carrying the burden that should be shared by 
the rest of the world.
    Senator Leahy. Does the fact that these other countries are 
all our NATO allies, for example, are involved in it--are you 
saying that their involvement means they are not willing to 
carry their share?
    Secretary Norton. Well, I am obviously not the one who has 
the lead on negotiating on climate change issues, but let me 
assure you that the administration is looking very seriously at 
this issue and we are working to find the kinds of solutions 
that make sense. But when the U.S. Senate----
    Senator Leahy. Well, do you feel----
    Secretary Norton [continuing]. Had a 95 to nothing vote 
saying that the Kyoto approach was not exactly the right one, I 
think it is our responsibility----
    Senator Leahy. Well, do you abandon it just entirely?
    Secretary Norton [continuing]. It is our responsibility to 
take a second look at that.
    Senator Leahy. It would also probably be the responsibility 
to say what you are looking at. To say ``We will just 
withdraw,'' that does not really say you are looking at 
anything else.
    I mean it is like the arsenic in water. It is the carbon 
dioxide emissions, which was one of the things he got elected 
on, was in--in that regard, and he has changed that.
    But you feel--the criticisms of the President's actions 
which have been fairly loud and fairly bipartisan, you feel 
these criticisms are unwarranted?
    Secretary Norton. Absolutely. I certainly believe that this 
administration has done a good job in responding in a very 
careful and thoughtful way to what has been put on the table 
for us. We have seen the past administration essentially govern 
for 7 years and 11 months with a status quo on environmental 
issues, and we are now dealing with what they did in the last 
month and even the last weeks that they were in office. And 
that has caused us to----
    Senator Leahy. I think considering some of the 
legislation----
    Secretary Norton [continuing]. Examine a lot of issues 
again.
    Senator Leahy. Concerning some of the legislation I saw 
pass, pushed by the administration all during the past 8 years, 
it is kind of hard to say that they spent 7\1/2\ years really 
doing nothing. I mean there are ways of doing things and ways 
of not doing things.
    The previous administration, they had a commitment to child 
nutrition and listed ketchup as a vegetable. This one says they 
are interested in helping health and welfare of the nation as 
any President would, but suddenly takes a different position on 
arsenic in ground water.
    I raise these points, not in a partisan way because they 
have been raised by Republicans and Democrats in my State. The 
concern has been virtually unanimous. Republican-oriented 
newspapers, Democratic-oriented newspapers, Republican leaders, 
Democratic leaders, have all said basically what I have said 
here.
    But let me ask you another area, and I would not----
    Senator Byrd. Mr. Chairman, would the Senator yield?
    Senator Burns. Of course.

                         GLOBAL CLIMATE CHANGE

    Senator Byrd. I have asked him to yield because I want to 
join him in expressing concern with respect to global warming. 
I was, with Senator Hagel, the chief co-sponsors of the 
resolution that was passed by the Senate, adopted by the Senate 
by a vote of 95 to nothing on the Kyoto--on the global warming.
    Now, Madame Secretary, I was not the chief co-sponsor of 
that resolution because I am against doing anything about 
global warming. I am not one of those who is ready to 
thoroughly disregard the scientific advice that we have been 
getting over the years concerning global warming. I did not--I 
was not the co-sponsor because I just wanted to get away from 
the table and not do anything about it.
    As one who has lived 83 years and is well on the way to his 
84th birthday, I have seen a lot of changes in this country. I 
do not have to take it from scientists that something is 
happening out there.
    We are having more floods. We are having more droughts. We 
are having the melting of the ice around the two poles, the 
North and South Pole. The water level is rising. We are seeing 
storms more suddenly come upon us. There is something happening 
and we ought to be concerned about it.
    Now I am concerned. My concern is the administration 
apparently is going to withdraw from the table.
    Senator Leahy. So they say.
    Senator Byrd. Now that concerns me. I hope that is not the 
case. I think we ought to stay at the table. Now, the 
resolution we passed was just a warning across--my position in 
the matter, and I think I generated that resolution, was to put 
a shot across the bow of the Clinton administration, because it 
appeared to me that they were going whole hog to get a treaty 
that I felt would not pass the scrutiny of the U.S. Senate.

                              1992 TREATY

    Now, there was a treaty that was adopted by the U.S. 
Senate. What treaty was that? It was some years back.
    Secretary Norton. In 1992, I believe there was.
    Senator Byrd. All right. And here is what happened. That 
treaty was adopted when not a handful of Senators were on the 
floor, did not have a single vote against it. Why? Because 
there was no vote taken.
    It was one of those situations in which the Majority leader 
or someone calls up the matter in the late hours of the 
session. We are doing what we call our homework, ``doing 
homework.'' And it is called up, passed, unanimous consent. 
Nobody takes a look at it, and that was a treaty.
    If they had a vote, it was a voice vote because I went back 
and researched this. And you can have three people on the 
floor. If two stand, if the Chair asks for a standing vote, 
vote by show of hands or by standing, and two stand and one 
sits, that is two-thirds if nobody challenges it. Now, that is 
the way that first treaty was passed.
    So, I went back and studied that and I thought ``We had 
better let this administration''--in that instance, it was the 
Clinton administration--``We better let this administration 
know that they better not send that treaty up here unless they 
get the countries, the developing countries, to go along.'' And 
so that is what we were saying. Now, the developing countries 
joined at the beginning.
    Also, we want to know what the economic results are going 
to be on big industries in America, coal, steel, whatever. What 
is going to be the economic impact of such a treaty? That was 
my shot across the bow, but I did not say we ought to withdraw 
and get away from the table and show no interest at all.
    And I am very concerned if that is what the Senator is 
indicating is maybe going to happen here. We ought to stay at 
the table and be a voice at the table.
    I thank the Senator.
    Senator Leahy. I agree with the Senator from West Virginia 
on that. I was one of the ones who voted for his and Senator 
Hagel's resolution, not because I wanted to withdraw from Kyoto 
procedure by any means, but to define, sharpen it.
    My concern is that the current administration is not just 
sharpening it or doing the things that our allies, our major 
industrial allies have done, but rather saying ``We want to 
leave this,'' some kind of a symbolic thing here. ``We will 
just walk away from the table.'' It is an easy thing to do, but 
terribly difficult to explain to future generations.
    Secretary Norton. Senator, let me correct what I think is a 
misperception, and that is that we are walking away from the 
table. This administration will be remaining engaged with the 
world in trying to deal with the issue of global climate 
change. That is something that we take seriously.
    We also need some creativity. We need to have a re-
examination of the issues. We need to ensure that what we are 
doing is based on a thorough understanding of the scientific 
aspects of global climate change, and that is what we will be 
pushing for.
    Senator Leahy. Madame Secretary, nobody can disagree with 
those sentiments of yours of making sure we are doing the right 
thing, re-examining and so on.
    I remember a former director of the EPA who finally had to 
explain to this committee, this Appropriations Committee, why 
in her attempts to make sure they are doing--well, she said to 
``do things right,'' they would reorganize their enforcement 
division about every 30 to 50 days, say, ``We just want to make 
sure we get it right.''
    Well, what they did, of course, was add several years of 
being able to tell everybody, ``We are not going to enforce any 
laws, any of the environmental laws because we are 
reorganizing,'' a sort of ``Go ahead and pollute. We do not 
give a hoot.'' And that is exactly what happened.
    And so I have no question, nor anybody, of examining and 
re-examining what you are doing, but when re-examining becomes 
a definition of doing nothing, then we get concerned.
    Now, it has only been 100 days and I am not suggesting that 
is what is happening, but I think that there will be concern, 
it will be bi-partisan concern here, if the re-examination is 
done in a way that we do not ever look at what is there.
    Let me ask you this, and my time is up, but I will ask you 
this one question. I will submit the rest for the record.
    I do know your reputation is that of listening to both 
sides of controversial issues, and I applaud that. We have had 
Cabinet members in different positions in both Republican and 
Democratic administrations who did not have the reputation of 
listening to both sides of a controversial issue, and I think 
the Departments and the country suffered when that happened. So 
I applaud you for listening to it.
    Now, I know that you and a number of other members of the 
Bush administration want to open the coast of the Arctic 
National Wildlife Refuge to oil and gas interests. Many of us 
in Congress, again both parties, oppose that. If the public 
opinion polls are accurate, the majority of Americans oppose 
that. I know you have heard arguments on both sides.
    Can you tell me: Of the arguments that come to you against 
opening it, what are the two most compelling arguments you have 
heard?

                         GLOBAL CLIMATE CHANGE

    Secretary Norton. Senator Leahy, let me first of all close 
on the issue of global climate change. You talked about some 
problems that you had seen in prior administrations, and then I 
appreciate clarifying that you were not saying that that is 
what we were doing. And you used the phrase ``do not give a 
hoot'' about what is happening. I find that is----
    Senator Leahy. That was back some time ago.
    Secretary Norton [continuing]. Not what we are----
    Senator Leahy. It was at the same time we were hearing 
about ketchup as a vegetable. It was back in the 1980s, but go 
ahead.
    Secretary Norton. Yes. We are taking this very seriously. 
We are looking at an issue where there is not a national 
consensus on what should be done, and where there is great 
scientific uncertainty. And we are working hard to move forward 
with something that will reflect more national consensus and 
will be based on solid science. And that is our goal in dealing 
with global climate change.

                    ARCTIC NATIONAL WILDLIFE REFUGE

    As to the Arctic National Wildlife Refuge, I personally 
visited there. I had the opportunity to stand outside in 75 
degrees below zero chill factor and to examine things 
firsthand.
    Senator Leahy. Were you a little bit concerned that just a 
few days before you arrived, they found that a very large 
percentage of the cut-off valves were not working?
    Secretary Norton. That is something that does cause me 
concern. Obviously we need to have strong, solid enforcement 
program to ensure that the environmental protection measures 
that are put in place are ones that actually operate. That is a 
cause for concern for me.
    I was pleased to see the technology that is in use in some 
of the areas to ensure that we do have good environmental 
protection. At the same time, we are exploring for the sub-
surface resources, and so I would certainly understand the 
Senate wanting to take a close look at the environmental 
measures that might be put in place and would help to do that.
    Senator Leahy. But then my question, before the time runs 
out, is: What are your two most compelling reasons against it 
that you have heard?
    Secretary Norton. I think there are some emotional concerns 
about the protection of the area, and I understand the great 
deal of concern that people have for preserving wild places. I 
want to see that we do have strong environmental protections. 
That is something that I do think we need to ensure.
    I also understand the concern of the local people there in 
having a say in what happens. I mean it is frustrating to talk 
with people who are there, whose lives are being affected, who 
are either for it or against it; and the decision is being made 
many thousands of miles away from where they live. I understand 
that concern.
    Senator Leahy. Thank you.
    Senator Burns. Senator, would you yield?
    You might raise the questions of Kyoto and the questions 
you are concerned about. Senator, the Secretary of Energy will 
be before this committee in 2 weeks and I think that is the 
time to raise the question that you were raising with regard to 
Kyoto.
    Senator Leahy. I like to get the full picture though.
    Senator Burns. I know.
    Senator Leahy. I want to know all the nuances of the 
administration.
    Senator Burns. Yes. I know.
    Senator Reid. Mr. Chairman?
    Senator Burns. Yes.
    Senator Reid. I would ask you for consent that I have a 
series of questions I would like to submit to the Secretary and 
that she would respond to those in the next couple of weeks.
    Senator Burns. Without objection. And she can respond to 
you and to the committee.
    Senator Reid. Thank you. That would be fine, be perfect.

                        FIBER OPTIC LEASE RATES

    Senator Burns. Madame Secretary, last year we spent a great 
deal of time and effort in slowing the BLM's plans to increase 
drastically lease rates for fiber optic right-of-way crossings. 
I Chair Telecommunications over on the Commerce Committee, 
which is in the next building over.
    At the end of the year, we prevented both the Interior and 
the Agriculture Departments from implementing the final rule 
that would replace the current linear right-of-way fee 
schedule. As chairman of the Commerce Subcommittee on 
Communications, I represent a rural State where these fiber 
optic lines are very, very important to some of the out-of-the-
way places in our State.
    I am afraid that what we are advocating on these fees 
deepens the digital divide, so to speak, that everybody talks 
about.
    Can I have your assurance that any activity by the 
Department of the Interior to re-evaluate fiber optic lease 
rates will be fully disclosed to Congress? And additionally, 
can you assure me that rural interests will be consulted prior 
to another rulemaking proposal?
    Secretary Norton. I am just beginning to become familiar 
with that proposal. I know we need to balance getting a fair 
return for the public on the use of their lands, but I also 
understand the concerns that rural communities might not have 
access to telecommunications if we do not do that.
    So I will work with you on those issues and let you and 
other Senators and rural communities know what is happening.
    Senator Burns. This is a very, very important issue, 
because the ranking member of this committee represents a 
mountainous State as I represent a mountainous State.
    We also understand that distance learning, tele-medicine, 
all of these communications issues are the key to providing new 
services and expanded services into isolated areas where we 
cannot, especially on a two-way basis, interact for things such 
as distance learning and tele-medicine.
    We are going to manage our medical care to our elderly in 
rural areas in different ways, and a key part of this is fiber 
optics and broadband services, extended services, etc. So we 
are very, very much concerned about that.
    We know the value of that, and we know that some of these 
services are going to have to be provided on the backs of the 
commercial services that are offered there. If they are priced 
completely out of hand, then we never will get a build-out of 
those technologies into rural areas and some of the isolated 
areas of our States. So that becomes a very, very important 
thing.

                   U.S. GEOLOGICAL SURVEY REDUCTIONS

    The next question I want to ask is in regard to the USGS. 
You have taken away a lot of money from the Geological Survey, 
and yet we still have--as was indicated on this committee this 
morning--we still have some concern about energy. My State is 
wrestling with an energy crisis like you cannot believe, and 
our legislature just closed with trying to deal with it. In 
some areas, I think they dealt with it very responsibly, and 
maybe in other areas they needed some help.
    But when we start talking about geothermal energy, when we 
talk about the knowledge of our planet in this day and age, I 
would caution the administration that the cutbacks they have 
taken are of concern to us. Now, you have taken some of that 
money and are using it somewhere else, and that is why I asked 
you about where there are areas where we may have to expand, or 
what will we have to do. The Abandoned Mine Land Program, that 
is just as important a program. That is just as important to 
Montana as it is to Senator Byrd's State.
    But nonetheless, our understanding of geothermal energy and 
what our earth is and what it can be revolves around this 
particular agency, and we are cutting it back.
    Can you give me a specific reason why we would take from 
that end of this appropriation to shore up some other end?
    Secretary Norton. The Geological Survey has been involved 
in a broad range of different activities. We are in the process 
of trying to focus the activities of the Geological Survey to 
try to have those things that will be most beneficial to us, 
first of all, in management of the Department of the Interior's 
resources and in working with States, with universities, and so 
forth in research efforts.
    We have been trying to examine our programs. We will 
continue to examine programs to try to identify those things 
that are the most significant and the most valuable.
    Some of the activities are ones where the Geological Survey 
was really providing benefits for others without having the 
involvement of those people and the financial support of those 
people in its efforts. We would like to look at cost sharing 
kinds of arrangements and some other things so that the USGS is 
not carrying the full burden.
    Senator Burns. I think you have pretty well covered ANWR, 
and I have two or three other questions that I will also submit 
to you in writing, and you can respond to me and to the 
committee if you would like.

                            ROYALTY-IN-KIND

    The Minerals Management Service has been studying the use 
of royalty-in-kind, RIK, as a way to avoid disputes with 
lessees over the evaluation of oil and gas, to potentially 
increase the revenues to the Treasury.
    In the fiscal year 2001 Interior Appropriations bill, the 
Committee expanded the agency's authority to use RIK. What has 
been your analysis shown thus far when it makes sense--and does 
it make economic sense to implement RIK?
    Secretary Norton. I have to say I have learned that is a 
much more complex issue than I thought it was when I first came 
to office. I looked at it from just the perspective that it is 
a good approach to minimize some of the complications that 
arise in trying to value royalties. I still think it has a lot 
of potential, but I understand that we need to work with a lot 
of issues.
    Senator Burns. You have expanded--you have added $7 million 
to implement the program, so I would assume that there are some 
positives coming out of this that would warrant that $7 million 
increase.
    Secretary Norton. Instead of trying to figure out the 
imputed costs and the constructive costs and so forth with a 
very complex kind of approach, it is much easier I think to 
just be straightforward and sell natural gas or sell oil on the 
market and see how much the Federal Government gets from that 
sale. I think there is some real potential benefit in that, and 
so it is something that I personally support trying to move 
forward on.
    Senator Burns. Senator Byrd.
    Senator Byrd. I had my chance.
    Senator Burns. You had your----
    Senator Byrd. I had my chance, so let him go.
    Senator Burns. Senator Campbell, do you have a couple of 
others?
    Senator Campbell. Yes. I have a number of questions, but in 
the essence of time, I would like to submit those and ask for 
those to get back in writing.
    I will just ask you a couple, but since everybody has 
expanded somewhat on ANWR and global warming, I want to put my 
two cents in, too, Senator.

                         GLOBAL WARMING TREATY

    I can say in a nutshell, the reasons it was 95 with 5 
absent was it was a bad agreement, very simply. It would have 
just devastated the American economy because it would have just 
crushed our manufacturing base and the energy that comes from 
States like Senator Byrd's State to use that manufacturing 
base.
    You cannot make a treaty where over 100--in fact, I think 
it was 110--countries were exempt. Anybody in their right mind 
ought to know that multi-national corporations, if they cannot 
do business here, they are going to go somewhere else and do 
business. If they cannot manufacture here, they are going to go 
to one of those exempt countries and manufacture there.
    So from the standpoint of a global warming treaty, it would 
not reduce a thing. It would just make less here and more 
there. But from a global standpoint, we would have had the same 
number of hydrocarbons in the air. And so I think most of us 
saw it as a real flawed treaty.
    There was a huge loophole in the thing, and so we did not 
support it. But that does not mean we want to back away from 
the table, and other Senators have mentioned that already.

                            Drilling in ANWR

    From the standpoint of ANWR, I have been up there as you 
have and one of our Senators--I am sorry he has already left--
he mentioned that the polls are opposed to going to do any 
drilling in ANWR.
    Well, I can tell you, polls are skewed depending on how far 
the wolf is from the door. And gasoline has already hit $2 a 
gallon in some towns in the United States. When it hits $3 a 
gallon, you are going to see the polls change. And when it hits 
$4 a gallon as it is in some countries, there is going to be 
overwhelming support by poll to drill in ANWR. And when it hits 
$5 a gallon, there will probably be a march on Washington 
because we have not done something about it.
    So, the polls should not mean anything in this dialogue 
about if we are going to do the right thing for working 
Americans.
    I might mention from the Native Alaskan standpoint, too, 
Mr. Chairman, just since it has been on the table here, that 
the Alaska Federation of Natives supports drilling in that 
small area of ANWR, as you probably know, Madame Secretary. The 
only village in the area also supports it. The only village 
within the boundaries of ANWR also supports the drilling.
    And the only native Alaskans I can find that are really 
opposed to it are the Quinhagaks, most of whom are Canadian 
citizens, not American citizens.
    So I think that we have got a long way to go on that, but I 
know that when we talk about the energy crisis, it ought to be 
clear to anybody that one of the reasons we are in this 
terrible mess is we have not built a refinery in 30 years. We 
are dependent on OPEC, and we are giving money now to Saddam 
Hussein who is shipping more oil over here than he did before 
the war and he is re-arming with the money we are giving him, 
American money we are giving him that some day may be buying 
arms that are going to kill more Americans.
    We ought to have enough sense to get away from that. And we 
cannot if we are not going to use the energy within this 
country.
    And so when we get into these flawed treaties, I tell you 
what, that is why it was such a huge margin opposed to it. It 
is not because we did not want to clean up the air; it is 
because we do not want to be suckers again.

                            INDIAN EDUCATION

    Let me ask you just a couple of questions. Since Senator 
Dorgan did talk a great deal about Indian education, as you 
probably know, Madame Secretary, Indian education is a little 
different area because they do not have a tax base. They 
cannot--they do not have a property tax base. They cannot raise 
the mill levy to build a new school. They are totally dependant 
on the Federal Government to provide money for school 
construction.
    In the President's budget, he said he wanted to leave no 
child behind, and I agree with that. His request includes $16.5 
million more for school operations, and a modest increase of 
$162,000 for school construction over last year.
    But given those numbers, is the Department on track in 
eliminating the backlog of Indian school facilities by 2006 as 
the President has indicated he wanted to do?
    Secretary Norton. Yes, Senator. Our plan is to do that. And 
that is the time period. It looks like the overall amount on 
that would be $1.8 billion. That includes not just school 
construction, but other aspects of enhancing education.
    Senator Campbell. Okay. I thank you. One thing, too, 
because I live on a reservation, and I am out there all the 
time with the chairman of the Indian Affairs Committee, I can 
tell you that education of Indian kids cannot be viewed in a 
vacuum.
    You can give the best education in the world to a 
youngster. If there is no job or no place to use that education 
when he gets done, he is still going to be destitute, and that 
is what we have on Indian reservations. So we are trying to do 
a lot of other things in the Indian Affairs Committee to try to 
help self-determination, by putting things in place where 
American corporations deal with tribes to try to get some jobs 
out there for these youngsters when they do get out of school.

                           TRIBAL CONTRACTING

    One of the things we have done is increase the tribal 
contracting and the compacting to provide the necessary startup 
in administrative costs associated with managing of a contract. 
But in the President's budget, there is a small decrease in 
self governance grants this year.
    Does that budget item mark a change in how the incoming 
administration views Indian contracting?
    Secretary Norton. It is my understanding, Senator Campbell, 
that there is actually a net increase when you look at the 
relevant categories that are put together. Well, it is a net 
increase of $1 million.
    Senator Campbell. Okay.
    Secretary Norton. But I will be happy to provide the 
details on that.
    Senator Campbell. Perhaps my numbers are wrong, but I would 
hope there is, because to me clearly strengthening the Indian 
economy and the creation of jobs is going to be related to what 
they do if we can get them the education in the first place.
    Thank you, Mr. Chairman. I have no further questions. The 
other ones I will submit.
    Senator Burns. Madame Secretary, well, most of my questions 
have to do with the infrastructure on the National Park Service 
and also restoring some historic spots with regard to those 
areas, natural resources and some other questions. I will 
submit those to you in writing.
    As we start through this thing and working very closely 
with Senator Byrd in coming up with a final product--but those 
are the areas that I was mainly interested in.
    On this committee, there are a lot of folks that are in 
agreement with you, and there are some areas where we have some 
disagreement, but we will work through those as best we can. We 
have always done it before. I do not see any reason why we 
should not do it this time.
    Senator Byrd, do you have a closing thought or some 
questions?
    Senator Byrd. Yes, just briefly. Let me say, however, I 
want to thank you for the courtesy that you have extended to 
each of us, the fairness with which you characteristically have 
conducted this hearing and I am sure that the future hearings 
will be likewise well done.
    Also, I want to thank the Secretary for her testimony this 
morning. West Virginia cannot complain very much with respect 
to many areas of her budget.

               U.S. GEOLOGICAL SURVEY FUNDING REDUCTIONS

    I do want to ask just a couple of questions here concerning 
something the chairman has already touched upon, the U.S. 
Geological Survey. I am concerned with the 9 percent funding 
cut being posed for the U.S. Geological Survey. A reduction of 
this size, some $69 million, would have a severe impact on the 
USGS budget, and as such, it warrants close scrutiny.
    Ironically, the supporting materials supplied by the 
Department state that your budget, Madame Secretary, focuses, 
and I am quoting, ``focuses resources on core mission programs 
such as mapping and hazards and those that directly support the 
Department of Interior's Land and Resource Management 
Bureaus.''
    My question: If programs such as mapping and geologic 
hazards are considered core programs, and you are supposedly 
focusing resources on them, why are their budgets being 
reduced? The mapping program is cut by $6.7 million. Geology is 
cut by $11 million, and biological research is cut by $11.3 
million.
    Now, how is this focusing resources on these programs? And 
as you address this issue, or these issues, please tell me what 
effect such cuts would have on U.S. Geological Survey 
facilities in my State of West Virginia.
    Secretary Norton. Senator, we are trying to focus within 
each of the areas on eliminating those aspects of the USGS 
activities that are duplications of what other departments or 
other programs are doing, and so that is one aspect of the way 
in which we are examining USGS issues.
    We are also trying to see how those things can be done in a 
way that will leverage private money and State money and 
working with other partners on the areas of research so that we 
can ensure that the other players are involved with their fair 
share.
    My understanding is that as to West Virginia, the primary 
area impacted would be the Leetown Science Center, and that 
funding is maintained at last year's levels.
    Senator Byrd. Madame Secretary, I thank you very much for 
your testimony.
    Secretary Norton. Thank you very much, Senator.
    Senator Burns. Thank you, Senator Byrd.
    Thank you, Madame Secretary, for coming this morning. And 
we will submit those questions.
    The record will remain open for a week, I suppose, to those 
folks wanting to make a comment on this budget.
    We appreciate your willingness to come and sit and to work 
out some of these difficulties we had because we have an $18 
billion budget here. And we are trying to allocate those 
resources to where they benefit the most people as far as the 
management of our public lands and the areas that you cover are 
concerned.
    So, we appreciate your attendance here this morning in the 
committee. And if you want to respond to those questions both 
to the individual Senators and to the committee, that would be 
appreciated, too. And these hearings are closed.
    Secretary Norton. Thank you.

                     Additional committee questions

    Senator Burns. Thank you very much. There will be some 
additional questions which will be submitted for your response 
in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Conrad Burns

              LAND AND WATER CONSERVATION FUND--STATESIDE
    Question. The request for the LWCF's stateside program is a 
substantial one--roughly a 500 percent increase.
    Are you confident that the states are prepared to manage this 
increase effectively and allocate the funds quickly?
    Answer. The initial reaction from the States to the Department 
concerning the President's proposal has been very positive. The 
Department believes that, if the proposal is adopted, this positive 
reaction will translate into active participation in the program.
    As with any group of entities, some will proceed more rapidly than 
others. Regardless of how rapidly any one State will move to 
effectively allocate funds, research by the National Recreation and 
Park Association indicates that for the period 2000-2004, local park 
and recreation systems needed close to $55 billion for capital 
investments to rehabilitate, enhance, and acquire recreation sites and 
facilities.
    It is also important to note that, when the LWCF program was 
established, the authors included language that allowed the States two 
additional years after the year of appropriation to obligate their 
fiscal year grant funds. By so doing, Congress recognized that 
variances existed among States and that adequate time is necessary to 
administer a multi-million dollar grant program with States who must 
prioritize not only their own recreation needs but those of local 
applicants as well. In addition, the 2002 request establishes the funds 
in a no-year account.
    Question. How many states currently have planning documents in 
place that will allow them to expend these funds consistent with the 
requirements proposed in the budget request?
    Answer. The three different existing planning documents of the 
States that could be involved to a greater or lesser extent in the 
proposed 2002 LWCF State grants program are the Statewide Comprehensive 
Outdoor Recreation Plan (SCORP), the Wildlife Conservation and 
Restoration Program (WCRP) Comprehensive Plan, and the Cooperative 
Agreements implementing section 6 of the Endangered Species Act (ESA). 
There is no planning requirement for funding allocations by the States 
for wetland projects; rather, projects must meet the requirements of 
the North American Wetlands Conservation Act. The status of State plans 
for the three programs follows.
    All States either have a current Statewide Comprehensive Outdoor 
Recreation Plan (SCORP), the long-required LWCF States grants program 
planning documents, in place or have been given the flexibility to 
certify the existing SCORP while an updated version is being prepared.
    The Fiscal Year 2001 Commerce, Justice, State and Related Agencies 
Appropriation Act (Public Law 106-553), provided $50 million to fund 
States' wildlife conservation, wildlife conservation education, and 
wildlife-associated recreation projects, with a focus on species with 
the greatest conservation need. The Act created a subaccount under the 
Federal Aid in Wildlife Restoration Act for a Wildlife Conservation and 
Restoration Program, a formula-based apportionment to the 56 States and 
territories. There has been considerable communication and cooperation 
among the Service, the States, and the International Association of 
Fish and Wildlife Agencies during the development of this new program.
    One new requirement established by the Act was for States to submit 
a Comprehensive Plan (Comp Plan) for approval prior to being eligible 
to receive grants under the Act. Of the 56 states and territories, 29 
had submitted their Comp Plans by April 16, and all but one had 
submitted their Comp Plans by May 2. Submission of a Comp Plan by a 
State constitutes a commitment to develop and begin implementing, 
within five years, a Wildlife Conservation Strategy that will 
facilitate the identification of the State's greatest wildlife 
conservation needs. Each Comp Plan must substantiate the authority and 
capability of the State to implement the WCRP and indicate public input 
and participation.
    The Service has facilitated the delivery of these new funds to the 
States through three significant actions. It has: (1) developed and 
distributed WCRP implementation guidelines that make program 
requirements and planning clearer; (2) sponsored three regional 
workshops in cooperation with and for State and regional Federal Aid 
partners to promote implementation; and (3) established a WCRP 
Comprehensive Plan Eligibility Determination Team (with Federal and 
State members), which has met three times and forwarded recommendations 
to the Director to approve 51 of the 55 Comp Plans submitted to date.
    The Team anticipates completion of its review and recommendations 
for all 56 State and territory WCRP Comp Plans by the end of June 2001. 
Two States have already submitted grants for specific projects to 
Service Federal Aid Regional Offices.
    All 50 States and three territories have Cooperative Agreements 
pursuant to Section 6 of the Endangered Species Act for animals and 44 
States and two territories have plant agreements.
    In addition to proposing changes in the purposes for which the 
stateside grant funds may be used, the budget proposes a change in the 
allocation formula for stateside funds.
    Question. What is your rationale for this proposed change?
    Answer. The use of land area, along with population, in computing 
the annual apportionment of funds to the States, recognizes that LWCF 
grant funds will also be used to benefit wildlife, habitat, endangered 
species and wetland ecosystems, and by so doing, will be addressing 
both recreation and habitat needs. Because land area, not population, 
is a more relevant measure of the need with respect to species and 
habitat protection, the proposed 30 percent land area/70 percent 
population split maintains population as the major factor in the 
distribution of funds while recognizing the importance of land area in 
the preservation of wildlife and their habitat.
    Question. Please provide for the record a table showing how LWCF 
state grants would be allocated under the current formula vs. the 
proposed new formula.
    Answer. The table follows:

   LWCF STATE GRANTS COMPARISON OF DISTRIBUTION OF $450 MILLION UNDER
                      CURRENT AND PROPOSED FORMULA
------------------------------------------------------------------------
                                                            Fiscal year
                  State                     State-side     2002 proposed
                                            current law       formula
------------------------------------------------------------------------
Alabama.................................      $7,195,322      $7,189,872
Alaska..................................       3,516,950      16,599,201
Arizona.................................       8,194,703       9,090,930
Arkansas................................       5,183,783       6,040,542
California..............................      40,573,280      29,181,968
Colorado................................       7,334,564       8,311,282
Connecticut.............................       6,831,092       5,441,352
Delaware................................       3,824,434       4,500,000
Florida.................................      19,975,686      14,936,024
Georgia.................................      10,499,393       9,842,030
Hawaii..................................       4,224,422       4,500,000
Idaho...................................       3,981,303       5,828,473
Illinois................................      15,909,365      12,604,094
Indiana.................................       8,876,859       7,934,129
Iowa....................................       5,345,209       6,296,171
Kansas..................................       5,333,510       6,734,679
Kentucky................................       6,310,612       6,666,867
Louisiana...............................       7,457,976       7,039,204
Maine...................................       3,971,101       4,622,535
Maryland................................       8,829,253       6,789,507
Massachusetts...........................      10,125,029       7,468,118
Michigan................................      13,295,867      10,981,864
Minnesota...............................       7,667,647       8,167,968
Mississippi.............................       5,101,338       6,035,763
Missouri................................       8,271,224       8,370,924
Montana.................................       3,625,476       7,012,285
Nebraska................................       4,458,086       5,970,984
Nevada..................................       4,953,704       6,919,164
New Hampshire...........................       4,118,401       4,500,000
New Jersey..............................      12,585,735       8,832,214
New Mexico..............................       4,594,869       7,088,793
New York................................      23,685,508      16,773,193
North Carolina..........................      10,334,550       9,539,204
North Dakota............................       3,540,622       5,078,565
Ohio....................................      14,769,037      11,558,212
Oklahoma................................       6,091,250       6,939,404
Oregon..................................       6,250,845       7,548,345
Pennsylvania............................      15,993,663      12,264,361
Rhode Island............................       4,180,707       4,500,000
South Carolina..........................       6,763,711       6,425,808
South Dakota............................       3,576,359       5,312,224
Tennessee...............................       8,300,327       7,796,956
Texas...................................      24,229,796      22,958,082
Utah....................................       5,184,219       6,439,798
Vermont.................................       3,449,128       4,500,000
Virginia................................      10,051,824       8,683,721
Washington..............................       9,045,872       8,516,462
West Virginia...........................       4,451,308       4,821,397
Wisconsin...............................       8,055,753       7,881,510
Wyoming.................................       3,378,141       5,626,342
                                         -------------------------------
      Subtotal--States..................     433,498,811     424,660,521
                                         ===============================
Dist. of Columbia.......................         995,947         748,929
Puerto Rico.............................       6,045,929       5,057,501
Guam....................................         172,527         199,825
Virgin Islands..........................         135,797         158,626
Samoa...................................          72,409          83,209
Marianas................................          78,580          91,389
                                         -------------------------------
      Subtotal--Other...................       7,501,189       6,339,479
                                         ===============================
Tribes..................................  ..............      10,000,000
Dist. to All............................     441,000,000     441,000,000
Administration..........................       9,000,000       9,000,000
                                         -------------------------------
      Total.............................     450,000,000     450,000,000
------------------------------------------------------------------------

             LAND AND WATER CONSERVATION FUND--FEDERAL SIDE
    Question. Within the President's budget request for the federal 
side of LWCF, there is a proposal for two new programs: $50 million for 
a competitively-awarded, cost-shared landowner incentive program and 
$10 million for a new Private Stewardship grants program.
    Please explain how these two new programs are different from each 
other?
    Answer. The budget includes $50 million in the FWS land acquisition 
account to establish a competitively-awarded, cost-shared Landowner 
Incentive Program for grants to States, the District of Columbia, 
Territories, and Tribes to establish or supplement their own Landowner 
Incentive Program. This program will provide technical and financial 
assistance to private landowners all across the country to help them 
protect and manage habitat, while continuing to engage in traditional 
land use or working land conservation practices.
    The new $10 million Private Stewardship Grants Program, also in the 
FWS land acquisition account, will provide grants to individuals and 
groups engaged in local, private, and voluntary conservation efforts 
that benefit federally listed, proposed, or candidate species, or other 
at-risk species. A diverse panel of representatives from State and 
federal governments, conservation organizations, agriculture and 
development interests, and the science community will assess 
applications and make grant recommendations. Both new programs will be 
administered by FWS.
    Question. Do these programs overlap with current Departmental 
programs? How are they different?
    Answer. There are two existing FWS programs that share similarities 
with the new Landowner Incentive Grant Program: the Federally-operated 
Endangered Species Act Landowner Incentive Program and a portion of the 
Cooperative Endangered Species Conservation Fund (CESCF). While 
similar, they do not fully meet the goals of the new program nor are 
they funded at the levels envisioned by the President.
    Existing programs are not targeted exclusively to providing 
financial and technical incentives, or are Federally operated rather 
than State operated. Specifically, the CESCF provides grants to states 
for numerous purposes, including HCP land acquisition, candidate 
conservation agreements, recovery actions, and other State initiatives 
to conserve candidate, proposed, and listed species. States are not 
required to use these funds to support private landowner conservation 
efforts. The Federally operated ESA landowner incentive program is 
directly operated by FWS; FWS solicits proposals directly from private 
landowners.
    Similarly, there are existing FWS programs that share similarities 
with the new Private Stewardship Grants program: the North American 
Wetlands Conservation Fund and the Partners for Fish and Wildlife 
program.
    The North American Wetlands Conservation Fund provides grants to 
individuals or organizations that have designed a long-term wetlands 
conservation project for acquisition, restoration, and/or enhancement. 
Tribes, private landowners, private citizens, Federal agencies, State 
agencies, local governments, businesses, local conservation clubs, or 
schools are all eligible to receive grants. A 100 percent match is 
required. This program is not targeted exclusively to private 
individuals and groups.
    FWS also provides direct funding to private landowners for cost-
sharing habitat restoration activities through its Partners for Fish 
and Wildlife program. This program is a mix of financial, technical, 
and other assistance, as opposed to 100 percent financial assistance as 
proposed in the new grant program.

             BUREAU OF INDIAN AFFAIRS' EDUCATION INCREASES
    Question. One particular area that President Bush focused on is 
increased funding for the Bureau of Indian Affairs. Specifically, he 
has requested $2.2 billion for BIA, which is a 17 percent increase over 
the 2000 budget. I have always expressed an interest in increasing 
funding for education for American Indian students, not only at the 
grade school and high school level but also at the college level. As 
such, I was pleased to see that you have focused on increasing funds 
for Indian education, both for construction and operations. I also 
noticed a modest increase for tribally controlled community colleges.
    Please provide the subcommittee with more details about these 
increases for construction and operations and also for tribally 
controlled community colleges.
    Answer. The $161.6 million requested for the Education 
Construction, Facilities Improvement and Repair program will provide 
for the following: major repairs to 10 existing school facilities; 
purchase of portable classrooms; roofing repairs and replacement; 
continue work on backlog validation and update; minor repairs and 
improvements at multiple school locations; environmental-related work, 
plan and design of future year projects; emergency repair work; and, 
demolishing of existing buildings which are no longer necessary for 
programs. The request for FI&R is $13.6 million above the enacted 
level. Within this amount, $8 million is requested for annual 
maintenance to help prevent the maintenance backlog from continuing to 
grow and the remainder of the increase is targeted to high priority 
projects on the deferred maintenance list. Also, $122.8 million is 
requested for replacement of six schools on the priority list.
    The request for school operations is $504 million, which includes a 
$15.6 million increase to ensure that schools maintain accreditation 
and have access to computers and updated textbooks. This funding level 
provides an increase of $135 per weighted student unit. The additional 
$1 million requested for operating grants to Tribally Controlled 
Community Colleges will provide an increase of $104 per ISC.

                     SAN CARLOS IRRIGATION PROJECT
    Question. The Bureau of Indian Affairs runs the San Carlos 
Irrigation Project (SCIP) in Arizona. It serves approximately 12,000 
customers, both Indian and non-Indian. Due to increased rates, the San 
Carlos Irrigation Project has been forced to use its reserve and faces 
increased power costs this summer. Please update the subcommittee as to 
what the Department is doing to address this potential problem.
    Answer. To meet the SCIP obligations, the Department has provided 
$47.5 million in additional funds to continue operations through the 
end of August. Funds have been provided as follows:
    March 2001--$6.5 million.--Reprogrammed from within the Bureau of 
Indian Affairs Operation of Indian Programs account.
    April 2001--$8.0 million.--Emergency Transfer from the National 
Park Service land acquisition account.
    May 2001--$33 million.--Emergency Transfer from: National Park 
Service land acquisition account ($20 million); Fish and Wildlife 
Service land acquisition account ($10 million); and, Bureau of Land 
Management land acquisition account ($3 million).
    The Administration has requested a supplemental appropriation of 
$50.0 million as required under the Section 102 emergency transfer 
authority.
    Short-term power constraints related to the regional power market 
should diminish on September 1, 2001, when the project will join a 
consortium of public power entities. This is expected to substantially 
reduce power costs from that time forward.
    The Department is pursuing divestiture as an option for releasing 
SCIP from direct Federal control. The Department has initiated 
discussions within the Administration on divestiture of SCIP and has 
begun work on a legislative proposal. Proceeds from divestiture might 
be applied to make whole any entity that supplies assistance to SCIP in 
the short term.

            CONSERVATION RESEARCH CENTER IN FRONT ROYAL, VA
    Question. Recently there has been talk of the U.S. Fish and 
Wildlife Service taking a role in the Conservation Center in Front 
Royal, Virginia which is currently operated by the Smithsonian. Could 
you please provide us with more detail about these preliminary plans?
    Answer. FWS believes that the Smithsonian Institution's 
Conservation and Research Center, a unit of the National Zoological 
Park, has an important role in national and international efforts to 
conserve endangered and declining species. The Smithsonian 
Institution's initial proposal to discontinue operations at the 
Conservation and Research Center created an opportunity for the 
Department to develop a partnership effort with the Smithsonian, 
States, universities, private conservation organizations and private 
donors to help the facility continue operating. The Department and FWS 
proposed to work with and assist the Smithsonian and National Zoo to 
maintain the facility as a private/public partnership. The Smithsonian 
Institution announced May 6, 2001, that it would withdraw its proposal 
to close the Conservation and Research Center.

     U.S. FISH AND WILDLIFE SERVICE--INVASIVE ALIEN SPECIES CONTROL
    Question. What has been budgeted for invasive alien species control 
within the U.S. Fish and Wildlife Service's budget? Please provide an 
overall figure and a breakdown within the budget.
    Answer. FWS works in cooperation with private groups, state 
agencies, other federal agencies and other countries to combat invasive 
plant and animal species. Four FWS programs have been specifically 
targeted to conduct invasive species activities in 2002. Through these 
programs, the President's Budget includes about $11.1 million to combat 
and control invasive species.
Fisheries and Habitat Conservation--($4,664,000)
    The Fisheries and Habitat Conservation Program leads the effort to 
implement aquatic nuisance species activities authorized under the Non-
indigenous Aquatic Nuisance Prevention and Control Act of 1990 (as 
amended, 1996) through the cooperative activities of the Aquatic 
Nuisance Species (ANS) Task Force. The FWS and NOAA serve as co-chairs 
of the ANS Task Force whose role is to coordinate the activities of 
seven federal agencies and 11 ex-officio members to prevent and control 
aquatic nuisance species. FWS program staff at the Washington Office, 
Regional offices and Fishery Resource Offices work with state and 
private cooperators to coordinate and conduct activities carried out 
under the ANS Task Force to implement a variety of provisions under the 
Act.
    Key efforts that will be conducted in 2002 include:
  --Providing grants to States for implementation of State/interstate 
        ANS Management Plans approved by the ANS Task Force;
  --Supporting Regional Panels to develop priorities and coordinate 
        regional/State/local aquatic invasive species activities;
  --Conducting detection and monitoring activities including 
        establishing baseline surveys of high profile areas and 
        supporting the USGS Non-indigenous Aquatic Species database;
  --Conducting a variety of prevention programs aimed at keeping 
        invasive species out of the U.S. including preventing the 
        spread and dispersal of those invasive species that have become 
        established, and identifying priority pathways to be addressed 
        (programs include the 100th Meridian Initiative, the Alaska 
        Ballast Water Initiative, Bait Pathway Analyses, and Dispersal 
        Barrier studies);
  --Supporting the development of new ballast water treatment 
        technologies through the Ballast Water Demonstration Program 
        conducted in cooperation with the National Sea Grant Program;
  --Developing and conducting cooperative control programs (i.e., 
        ruffe, brown tree snake, Chinese mitten crab, Asian Swamp Eel) 
        to address those species which have become established and are 
        declared Aquatic Nuisance Species by the ANS Task Force;
  --Providing support for outreach and education efforts; and
  --Providing program support for the Aquatic Nuisance Species Task 
        Force and support for Non-indigenous Species Coordinators in 
        all seven FWS Regions and the Washington Office to ensure that 
        FWS Regional priorities for invasive aquatic species are 
        coordinated with the ANS Task Force for cooperative action and 
        program development.
Partners for Fish and Wildlife--($1,996,000)
    The 2002 budget includes $1,996,000 specifically earmarked for 
invasive alien species control. In addition, a portion of general 
program activities may support invasive alien species control, however, 
these funds are allocated, in part, on a competitive basis, and support 
other types of habitat conservation initiatives. Fiscal year 2002 
funding for these activities was $1,550,000; 2001 and 2002 amounts may 
be more or less.
    The Partners for Fish and Wildlife Program provides financial and 
technical assistance to private landowners to help them restore 
degraded fish and wildlife habitats on their property. The Partners 
program often performs invasive species control as part of its 
restoration efforts. The impact of these funds is increased by matching 
contributions of financial and technical assistance as well as on-the-
ground efforts by our partners. As a result, the impact of this funding 
is multiplied not only in terms of resources available to combat 
invasive species, but in the total land area which can be addressed.
    Landowners benefit from improved ecological health and productivity 
of their land; the spread of invasive species is minimized; and habitat 
is improved for migratory birds, inter-jurisdictional and anadromous 
fish, and other threatened, endangered, and declining species. Examples 
of Partners Program's activities include using prescribed burning, 
integrated pest management techniques, physical removal, fence 
construction, and restoration of native plant communities to control 
invasive plants and animals for the benefit of a host of Federal trust 
species.
    In 2002 the Partners for Fish and Wildlife program will continue 
efforts to eradicate, control, or manage invasive species on at least 
2,690 acres of private lands. This goal will be accomplished through 
the continuation of the above listed activities as well as:
  --Restoring habitat in Texas which has been degraded by Salvinia (an 
        aquatic plant). This plant which is native to Brazil can double 
        in area in five days. Unchecked, this plant will quickly and 
        completely fill water bodies, removing all nutrients, 
        preventing re-oxygen of the water, diminishing photosynthesis, 
        and killing all the beneficial native aquatic plants.
  --Working with The Nature Conservancy and other landowners in 
        Pennsylvania to remove exotic species such as multi-flora rose 
        and purple loosestrife from bogs and other wetlands to aid in 
        the recovery of the endangered bog turtle.
  --In California, over 1,000 acres of native riparian forest have been 
        degraded by European giant cane. Restoring these native willow 
        and cottonwood habitats will benefit listed species such as the 
        least bell's vireo, southwestern willow flycatcher, red-legged 
        frog, and steelhead trout.
  --In New York, European buckthorn and Japanese honeysuckle are 
        overrunning grassland habitats vital to neotropical migratory 
        songbirds. Prescribed burning and physical removal of these 
        invasive species will restore these grasslands benefitting 
        declining bird species such as the bobolink, meadowlark, 
        grasshopper sparrow and vesper sparrow.
Refuges and Wildlife--($2,694,000)
    An estimated six million acres of refuge lands are affected by 
invasive pest plants that are conflicting with wildlife management 
objectives and threatening wildlife species. Refuges control invasive 
plant and animal populations on the National Wildlife Refuge System. 
These activities prevent the introduction and spread of invasive non-
native species and control them where they have already become 
established. Some of the most insidious plant invaders on national 
wildlife refuges include salt cedar, leafy spurge, thistles, Brazilian 
pepper, purple loosestrife, Australian pine, Chinese tallow trees, old 
world climbing fern, and melaleuca. In addition, a variety of animal 
invaders such as Norway rats, nutria, brown tree snakes, Asian carp, 
Asian Swamp eels, feral goats and wild pigs are a problem throughout 
the Refuge system.
    In 2002, FWS will incorporate a full spectrum of integrated pest 
management techniques including chemical, mechanical, cultural, and 
biological techniques to prevent, control, or eradicate aquatic and 
terrestrial invasive species. As part of the Fulfilling the Promise 
Implementation Plan, FWS has established a multi-discipline team to 
develop a National Strategy for the Management of Invasive Species 
throughout the Refuge System. This National Strategy will be the 
guiding document for conducting invasive species prevention and control 
operations at the field, regional, and national levels. The National 
Strategy will include information to determine priority actions and 
project development, monitoring and survey recommendations, program 
organizational guidance, standard operating procedures for conducting 
field operations, partnership development guidance, and other related 
invasive species management information.
International Affairs--($199,000)
    The International Affairs program develops scientific information 
to evaluate potentially invasive foreign species that may qualify for 
the list of injurious wildlife. This information will assist FWS in 
making decisions about the regulation of imports of these species into 
the United States. International Affairs conducts risk analyses and 
biological assessments on potentially invasive species, to identify 
species that pose unacceptable risks and should not be imported. This 
analysis is a critical first step to help ensure that intentionally 
imported wild plants and animals are not potentially invasive. The 
program also develops outreach and partnership efforts with the 
scientific community, industry, non-government organizations and the 
public. In 2002, the International Affairs program will continue to 
develop scientific information and aggregate trade data to assess the 
risk of introduction of potentially invasive foreign species that may 
qualify for the list of injurious wildlife.

                FWS--INVASIVE SPECIES BUDGET BY ACTIVITY
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                    2001         2002
                    Program                       enacted      proposed
------------------------------------------------------------------------
Fisheries and Habitat Conservation Partners           1,996        1,996
 for Fish and Wildlife (1121).................
Branch of Invasive Species (1332).............        4,664        4,664
Refuge Operations (1261)......................        2,694        2,694
International Affairs (1671)..................          199          199
                                               -------------------------
      Total Devoted Exclusively to Invasives..        9,553        9,553
Estimated Amount of Additional Funding Under          1,550        1,550
 The Partners for Fish and Wildlife Program...
                                               -------------------------
      Grand Total.............................       11,103       11,103
------------------------------------------------------------------------

U.S. FISH AND WILDLIFE SERVICE--WILDLIFE CONSERVATION AND APPRECIATION 
                                  FUND
    Question. The budget request for fiscal year 2002 does not include 
a request for funds for the Wildlife Conservation and Appreciation 
Fund. Explain the rationale for this decision.
    Answer. The Wildlife Conservation and Appreciation Fund has 
provided grants to States and territories to benefit a broad array of 
non-game species and to provide for their recreational enjoyment. The 
2002 budget proposes funding for the Land and Water Conservation Fund 
State Grant Program at $450 million an increase of $360 million. States 
may use their share of the $450 million LWCF State Grants' Program for 
wildlife conservation and restoration in line with the purposes of the 
Wildlife Conservation and Appreciation Fund. These formula driven 
grants will gives States priority-setting capabilities within their 
overall allocations.

                      ENDANGERED SPECIES--LISTING
    Question. The Budget Request includes a $2.1 million request for 
the ``listing program'' under Endangered Species. Additionally, the 
President has requested that Congress modify the legislative language 
that puts a cap on listing. Please explain how the Administration plans 
to use the additional $2.1 million for listing and explain why the 
Administration believes that the language for the cap on listing should 
be modified.
    Answer. The President's budget estimated that the requested funding 
level would enable the Service to finalize the listing of all 37 
species that have been proposed for listing; complete approximately 25 
pending citizen petitions; and develop proposed rules on 12 of the 236 
candidate species. As a result of additional critical habitat work 
related to court orders and settlement agreements, the Service now 
estimates that a lesser amount of work could be completed.
    The President's budget includes revised appropriations language 
that, if adopted, would help ensure FWS can spend its 2002 ESA listing 
appropriation in accordance with biological priorities after meeting 
existing court orders. The language is aimed at ensuring limited 
listing funds are directed toward activities that provide the greatest 
benefit for species at risk of extinction.
    This revised language continues a provision recommended by the 
previous Administration, and enacted by Congress in fiscal years 1998 
through 2001, limiting the amount of the resource management account 
that can be used for completing listings and critical habitat 
designations to the amount provided by Congress. That is, the effect of 
the language is to prohibit FWS from reprogramming funds from other 
programs to the listing program. However, because some Courts have 
concluded that they have little or no discretion to give FWS relief 
from certain underlying mandatory deadlines in the ESA, even when 
limited listing funds do not allow FWS to meet all of the ESA listing 
requirements, the President's proposal also includes language 
clarifying that the FWS may expend its listing resources only to comply 
with existing court orders or according to a biologically based 
priority system. FWS would develop that priority system after public 
review and comment.
    FWS needs a mechanism to allow for the orderly management of the 
listing program that allows FWS to address the species most in need. 
FWS also must be able to plan its work for the year efficiently, 
without having to change the plan and shift resources around in 
response to new court orders throughout the year.

              U.S. GEOLOGICAL SURVEY--PROPOSED REDUCTIONS
    Question. The fiscal year 2002 budget for the Survey proposes 
reductions totaling $69.4 million from the current level. In addition, 
GS is proposed to absorb a portion of their fixed cost increases, which 
further diminishes program dollars.
    What reasons can you give us as to why the Survey's ongoing 
programs--particularly water resources investigations--do not appear to 
merit support in the fiscal year 2002 budget?
    Answer. The 2002 budget focuses USGS resources on core mission 
programs, such as mapping and hazards, and those that directly support 
the Department of the Interior's land and resource management bureaus. 
USGS currently conducts a significant amount of water research that 
primarily benefits other Federal agencies, States, and local 
governments. The budget proposes that certain programs, such as the 
National Water Quality Assessment and Toxic Substances Hydrology 
programs, would be more appropriately funded by or cost-shared with 
program beneficiaries. Funding for the Ground Water Resources program 
is continued at the 2000 level.
    Question. If these funding levels are enacted into law, do you 
anticipate reductions in force and, if so, have you planned and 
budgeted for the costs that will be incurred as a result? Please 
explain.
    Answer. USGS is reviewing staff-reduction options, such as not 
backfilling vacancies, offering early retirements, and potentially 
using a reduction in force. We plan to work with both OMB and the U.S. 
Office of Personnel Management in the near future regarding staffing 
cuts, which will be funded through USGS annual appropriations.

             U.S. GEOLOGICAL SURVEY--MISSION OF THE AGENCY
    Much of the Survey's work has been in the form of collaborative 
efforts with state and local governments. In addition, the independent 
scientific research USGS performs has proven to be a valuable tool for 
other Federal agencies. The fiscal year 2002 Interior Budget Summary, 
rather than stressing USGS accomplishments nationwide, appears to 
emphasize the work GS will do to support the Department's land 
management agencies.
    Question. Is the mission of USGS evolving from one with broader 
goals of national scope to one that predominately provides service 
support to the other Interior agencies, who in turn would define the 
work of GS? Please tell us what the expectations are for USGS as an 
agency during the coming four years.
    Answer. Over the past 120 years, USGS has adapted its programs to 
respond to the Nation's need for objective earth science information. 
The USGS will continue to evolve in order to address increasingly 
complex issues. Today, USGS provides a broad range of national 
expertise in mapping, geology, hydrology, and biology. The 
Administration still regards USGS as the Nation's principal earth and 
biological sciences agency, but because of the increasing complexity of 
managing Interior's resources, it is the Department's position that the 
primary customers of USGS science are the land and resource management 
bureaus of Interior.

                                AML FUND
    Question. The OSM budget indicates a decrease of $49 million for 
the Abandoned Mine Land (AML) program compared to last year. This will 
reduce the amounts that states will get in the form of grants to do 
reclamation work. Some of this reduction ($12.5 million) can be 
explained by removing funds for a one-time project that was funded last 
year, but this still means a reduction of over $35 million.
     How will this large reduction affect the program's accomplishment 
level? For example, how many fewer acres will be reclaimed?
    Answer. This Funding level will provide resources to reclaim 6,000-
7,000 acres, as compared to approximately 8,600 acres in fiscal year 
2001.
    Question. How much in fees for the coal tax does the agency believe 
will be collected in the AML fund versus what the agency has requested 
in grant funding?
    Answer. In fiscal year 2002, $283 million is anticipated in 
receipts from coal fees. OSM is requesting $166.8 million from the AML 
fund appropriation in fiscal year 2002, of which $124.1 million will 
fund reclamation grants, including Clean Streams grants in the 
Appalachian coal region.
    Question. The OSM budget justification states that there is a $2.5 
billion backlog of priority 1 and 2 reclamation problems that threaten 
public health and safety. In light of this, is such a large reduction 
in the AML program prudent?
    Answer. OSM believes that the states and tribal programs can absorb 
the lower funding level this year. The impact of this reduction is 
lessened because states and tribes generally follow a three year grant 
cycle to fully expend funds received in any one given year. OSM and the 
Department fully support and remain committed to the Abandoned Mine 
Land reclamation program. The 2002 request provides funds to reclaim 
6,000 to 7,000 acres of hazards.
    Question. Please provide to the Committee a breakout of how each 
state that gets reclamation grants will be impacted by this reduction.
    Answer. The following table lists the funding provided to each 
State and Tribe in fiscal year 2001, including the one-time 
Pennsylvania funding.
    The fiscal year 2002 distribution shown here is an estimate. The 
actual distribution will not be identical to this because some of the 
necessary information is not yet available, including fiscal year 2001 
AML fee collections and States' fiscal year 2002 emergency program 
needs. It assumes a $1.6 million minimum program funding level.

              FISCAL YEAR 2002 ESTIMATED AML GRANT FUNDING
    This estimated distribution cannot be exact because it is 
calculated using fiscal year 2000 collections, and the fiscal year 2001 
emergency program request; (OSM cannot predict the amount needed for 
the fiscal year 2002 emergency program.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                 Actual       Estimated
                                               fiscal year   fiscal year
                 State/Tribe                   2001 total    2002 total
                                              distribution  distribution
------------------------------------------------------------------------
Alabama.....................................           3.9           3.0
Alaska......................................           1.6           1.6
Arkansas....................................           1.6           1.6
Colorado....................................           2.6           1.9
Illinois....................................          10.4           7.7
Indiana.....................................           6.0           4.5
Iowa........................................           1.8           1.8
Kansas......................................           2.1           2.1
Kentucky....................................          17.8          12.9
Louisiana...................................           0.1           0.1
Maryland....................................           1.8           1.8
Missouri....................................           1.8           1.8
Montana.....................................           4.0           3.0
New Mexico..................................           1.9           1.6
North Dakota................................           1.7           1.7
Ohio \1\....................................           6.8           7.0
Oklahoma....................................           1.8           1.8
Pennsylvania................................          40.3          19.7
Texas.......................................           1.7           1.3
Utah........................................           1.7           1.6
Virginia \1\................................           4.5           4.3
West Virginia \2\...........................          23.4          17.4
Wyoming.....................................          28.8          21.3
Crow Tribe..................................           0.6           0.4
Hopi Tribe..................................           0.5           0.3
Navajo Nation...............................           2.6           1.9
                                             ---------------------------
      National total........................         171.8        124.1
------------------------------------------------------------------------
\1\ In fiscal year 2001, Ohio, Virginia, and West Virginia also received
  $2.0, $1.0, and $3.2 million, respectively, from an account which
  holds unallotted emergency funds that have been recovered from prior
  years and carried forward for future emergency needs.
\2\ In fiscal year 2002, West Virginia also would receive $2.6 million
  from the unallotted emergency funds account. This account holds prior
  year emergency funds that have been recovered and carried forward for
  future emergency needs.

                       STATE REGULATORY PROGRAMS
    Question. The Committee is concerned about adequate funding for 
state regulatory programs. The OSM's fiscal year 2002 budget maintains 
funding for this program at fiscal year 2001 levels. How much 
additional funding have the states requested from the agency for this 
program?
    Answer. The states and tribes provided funding estimates for fiscal 
year 2002 totaling $62.4 million. This budget requests that regulatory 
grants to states continue to be funded at the fiscal year 2001 level of 
$55.6 million. OSM carefully examines anticipated state/tribal 
expenditure levels, historic obligation rates, the availability of 
State matching funds, in formulating the budget request. OSM will 
continue to monitor state and tribal funding requests and expenditures 
closely to ensure that program needs are met.
    Question. Does lack of funding for state regulatory programs 
contribute to potential lawsuits in states that could affect mining 
activities?
    Answer. OSM and the Department believe that the funding requested 
for fiscal year 2002 provides sufficient matching funds for primacy 
states to administer the regulatory provisions of SMCRA. Because OSM 
carefully evaluates state needs and finances before estimating the 
request for State regulatory program grants, OSM does not believe that 
the difference between state estimates and the 2002 request would 
contribute to potential lawsuits in States that would have an effect on 
mining activities. In addition, throughout the year, OSM queries the 
states to determine if their current program changes would result in 
excess regulatory funds, which can be returned to OSM to be 
redistributed to other states which need extra funds.
    Question. Please provide a list of States that currently have 
litigation pending with respect to the adequacy of their regulatory 
program.
    Answer. Below are the states and current litigation. There are 
several Notices of Intent to sue that could result in additional 
litigation in states.
    Pennsylvania.--Pennsylvania Federation of Sportsmen's Clubs, Inc. 
v. Seif, No. 00-2139 (3d Cir.). Litigation was filed against OSM and 
the State of Pennsylvania on the adequacy of the State's bonding 
system.
    West Virginia.--West Virginia has three cases concerning broad 
issues of program administration:
    Bragg v. Robertson, No. 99-2683 (4th Cir.). Litigation is related 
to mountaintop mining and valley fills;
    West Virginia Highlands Conservancy v. Babbitt, No. 00-1062 (S.D. 
WVa.). Litigation was filed against OSM and West Virginia, involving 
primarily the adequacy of the State's bond system; and
    Ohio River Valley Environmental Coalition, Inc. v. Callaghan, No. 
00-0058 (S.D. WVa.). Litigation was filed regarding the adequacy of the 
State's process for reviewing hydrologic impacts.

                         STATE MINIMUM FUNDING
    Question. The Abandoned Mine Reclamation Act of 1990 establishes a 
minimum State grant funding level of $2,000,000 per State. From fiscal 
year 1995 through fiscal year 2000 funding for the program was limited 
to $1,500,000 per State. In fiscal year 2001 this was increased to 
$1,600,000. In the past, the agency has recommended increasing the 
minimum State share to $2,000,000, but it has not done so for fiscal 
year 2002. Has the agency changed its position with respect to the 
proper level of funding for minimum program states?
    Answer. OSM believes that $1.6 million (an increase from $100,000 
from fiscal year 2000, and continued in fiscal year 2001) is an 
appropriate level of funding for fiscal year 2002.
    Question. Is there sufficient high-priority work in each State that 
increasing each State's minimum share to $2,000,000 will not reduce 
efforts to complete highest priority work nationwide? What would be the 
impact, if at all, on the agency's other work if this increase were 
provided?
    Answer. An analysis of data taken from the Abandoned Mine Land 
Inventory System shows that the majority of reclamation being done 
nationwide is high priority work in all States including the minimum 
program States. This generally means that the overall reclamation 
priorities would not change.
    The minimum program adjustment is taken from Federal Share Funds, 
which are distributed to states based on their historical coal 
percentages. Therefore, if an increase in funding to minimum program 
states were provided, the States with the largest historical coal 
percentages and highest priority needs would be most affected, i.e., 
Pennsylvania, West Virginia, Kentucky and Illinois. Some States, 
(Louisiana and Texas) receive less than $1.6 million. This is because 
they have certified completion of all known eligible coal sites and 
thus while able to receive funds from their state share, they are not 
eligible for minimum program funding.

                     TRUST REFORM--COBELL V. NORTON
    Question. Recently, the Judge in the Cobell cases appointed Mr. 
Kieffer as Court Monitor to oversee the Department's trust reform 
efforts.
    Could you please provide the subcommittee with some background into 
why the Court Monitor was appointed and what his role will be.
    Answer. The Federal District Court in Cobell v. Norton conducted a 
series of meetings with legal counsel for the Plaintiffs and Defendants 
during the end of March 2001 and the beginning of April 2001. On April 
16, 2001, after the final such meeting, the Court conducted a status 
hearing on the record. At that hearing, the Court indicated that a 
Court Monitor would be appointed to help the Court deal with questions 
presented in the case, including the Plaintiff's motion to reopen trial 
one (which involved the issue of trust reform). The Court mentioned 
that assistance from a Court Monitor would help the Court with its 
heavy docket and trial calendar. Legal counsel for Plaintiffs and 
Defendants consented on the record to the appointment of Joseph S. 
Kieffer, III as Court Monitor. The ensuing written order dated April 
16, 2001, provides that the Court Monitor is a representative of the 
Court and will serve for at least one year. It provides that the Court 
Monitor will ``monitor and review all of the Interior defendants' trust 
reform activities and file written reports of his findings with the 
Court.'' The reports will include summaries of Interior's trust reform 
progress. The Court Monitor is expected to issue an initial report to 
the Court after becoming acquainted with the issues in the case. The 
initial report is expected sometime this summer and will help the Court 
as to scheduling and the resolution of pending motions. The fees and 
expenses of the Court Monitor are to be paid by Interior.
    Question. It is my understanding that the Court ordered the 
Department to bear the costs of the Court Monitor. Has it been 
determined where these costs will come from within the Department's 
budget?
    Answer. The Office of the Special Trustee intends to utilize funds 
appropriated for Cobell related expenses to pay the fees and costs of 
the Court Monitor. In fiscal years 1998, 1999, and 2001, Congress 
appropriated a total of $23.7 million to the Office of the Special 
Trustee for the costs to support the ongoing Cobell litigation, 
including document production and costs for Trial II. These funds 
remain available until expended. Approximately $6.9 million currently 
remains unobligated and available for ongoing Cobell related expenses.

                       BUREAU OF LAND MANAGEMENT
                                  PILT
    Question. Madame Secretary, while I agree with much of your budget, 
there are a number of details that concern me. For example, last year 
we reached a landmark compromise that would fund PILT to a total level 
of $200 million for fiscal year 2001. Unfortunately, the budget request 
drops PILT back down to a level of $150 million for fiscal year 2002. 
As a former county commissioner, I am less than enthusiastic about this 
reduction.
     Should we look at this reduction ($50,000,000 in PILT) as a policy 
stance on the part of the Administration regarding the merits of PILT, 
or is it the result of a shortfall in the overall Interior budget?
    Answer. The Department of the Interior fully supports the intent of 
the PILT program to provide support to local governments that have 
Federally owned tax exempt lands located within their jurisdictions. 
The competing priorities required difficult choices to be made in 
compiling the 2002 budget request. The funding level for PILT proposed 
in the 2002 budget, although reduced, is still $15.6 million above the 
amount available in 2000.

                      WILD HORSE AND BURRO PROGRAM
    Question. Last year the BLM received an additional $9.1 million for 
the Wild Horse and Burro program to bring populations down to an 
appropriate management level (AML). Is BLM still on track to reach its 
AML goals with last year's funding increase and this year's request? 
Can you assure this subcommittee that this program is now being managed 
in a manner that will allow us to reach our AML goals without 
unforeseen increases in upcoming fiscal years?
    Answer. The BLM is aggressively implementing its strategy to reach 
AML on all herd management areas (HMA) by the end of 2005. While it is 
difficult to predict how future unforseen events such as drastic 
wildfires and drought would effect BLM management capabilities, we are 
planning to meet our AML goal through appropriate management of this 
program. As conditions warrant, we will adjust our strategy to meet 
short-term demands while continuing to move forward towards the AML 
goal. The following is an example of how we have adapted our AML 
strategy to changing conditions. The AML strategy was predicated on the 
assumption that 1,500 animals would be in temporary holding facilities 
on October 1, 2000. As a result of the fiscal year 1999 and fiscal year 
2000 wildfires and drought conditions, a number of emergency wild horse 
removals became necessary, increasing the number of animals in 
preparation facilities to 5,500 at the end of fiscal year 2000. In 
order to implement the strategy as proposed it became necessary to 
contract for additional interim holding facilities to hold animals 
until they could be placed in the adoption system or into long-term 
care. Specifically, an additional facility was contracted for in Nevada 
to accommodate the increased number of animals requiring removal from 
that State. Two additional long-term/interim holding facilities, with a 
total capacity of 4,000 animals, will be contracted for this fiscal 
year. The two new facilities will be coming on-line a year ahead of 
schedule. The BLM has been adjusting internally to compensate for the 
increased costs associated with bringing the facilities on-line ahead 
of schedule.

                           LAND USE PLANNING
    Question. Madame Secretary, your proposed budget includes a $7.079 
million increase to update land use plans. To many Westerners an 
increase of this size for ``planning'' can raise concerns. Some have 
the impression that many of our federal agencies spend too much time 
``planning'' and not enough time ``doing.'' Can you explain why this 
increase is necessary and highlight some of the activities that will be 
allowed to go forward as a result of an increase in the planning 
budget?
    Answer. Updated land use plans support the vast majority of BLM's 
activities. For example, land use plans are the key decisionmaking 
tools at the local level that spell out whether or not the BLM can 
authorize activities on specific land units, such as: leasing oil, gas, 
coal bed methane, or coal; construction of electrical transmission 
lines, gas pipe lines, and roads; issuing permits for livestock grazing 
or outfitting; and, selling or exchanging lands for the benefit of 
local communities.
    Most of BLM land use plans were completed in the 1980's and early 
1990's. Since the completion of BLM's first land use plans and 
associated EISs, new, major national priorities have emerged. Examples 
include, the increasing demand for new energy sources as evidenced by 
the exponential growth in the development of coal bed methane, the 
likelihood of thousands of new deep gas wells, new standards in 
implementing the Clean Water and the Clean Air Acts, the listing of 
many additional species under the Endangered Species Act, and rapid 
population growth in the West. As a result, the BLM is increasingly 
finding that its land use plans and NEPA documents have become out-of-
date with regard to current natural resource, technological, or socio-
economic conditions. This situation is increasingly leading to 
litigation.
    In California, the BLM was sued for failing to consult with the 
U.S. Fish and Wildlife Service on threatened and endangered species on 
a plan-wide basis. In Idaho, the BLM was sued for not making 
adjustments in livestock grazing to adequately protect riparian areas 
and water quality. In Montana, a land use plan was challenged because 
decisions relating to allowable uses were out-of-date.
    These lawsuits and notices of intent to sue have required the BLM 
to complete consultation actions, implement conservation measures, and 
complete additional activities. All of these activities cost the BLM 
millions of dollars annually. As a result, management actions and land 
use authorizations have been delayed or deferred pending the completion 
of this additional court mandated work. It has become increasingly 
apparent that BLM's planning base must be updated to address these 
issues, provide the cumulative analysis required by law, meet 
applicable environmental standards, and minimize the threat of 
litigation.
    With the additional $7.09 million, BLM will be able to fund the 
start, revision, or amendment of 42 land use plans. These plans will 
support a variety of land uses and land use allocation decisions on the 
public lands. Examples include: five plans to be revised in Wyoming 
that will support energy and mineral development; five California plan 
amendments addressing legal settlements associated with endangered 
species consultation and providing for off-highway vehicle and other 
recreational uses; a plan to be completed in New Mexico that will 
address oil and gas development and community growth needs. This 
additional land use planning funding will ensure that the BLM can 
implement these and other critical tasks, such as the Administration's 
new initiatives for leasing energy minerals and authorizing the 
construction of an enlarged energy transportation network, key elements 
in the President's National Energy Policy.

                     FIBER OPTIC RIGHT OF WAY FEES
    Question. Last year we spent a great deal of time and effort 
slowing BLM plans to drastically increase lease rates for fiber optic 
right of way crossings. At the end of the year, Congress prevented both 
Interior and Agriculture from implementing a final rule that would 
replace the current linear right-of-way fee schedule. As Chairman of 
the Commerce Subcommittee on Communications, and a Senator representing 
a rural state with vast expanses of public land, it troubles me that 
Interior would be advocating a rule that would only deepen the digital 
divide often found in rural areas.
    Can I have your assurance that any activity by the Department of 
the Interior to re-evaluate fiber optic lease rates will be fully 
disclosed to Congress? Additionally, can you assure me that rural 
interests will be consulted prior to another rule-making proposal?
    Answer. Section 340 of the Department of the Interior and Related 
Agencies Appropriations Act for Fiscal Year 2001 (Public Law 106-291) 
directed that the Secretaries of the Interior and Agriculture were to 
only use existing rates in the current linear right-of-way fee 
schedules used by both the BLM and FS in assessing rental fees for 
fiber optic rights-of-way. Both agencies are doing so. The BLM issued 
interim policies and procedures for fiber optic rights-of-way in 
January of this year that provide clear direction on the continued use 
of existing linear right-of-way rental fee schedules. The policy also 
makes clear that Rural Electrification Act providers, including fiber 
optic companies that qualify for funding as Rural Utility Service (RUS) 
providers, will be exempt from rental fees. The FS issued a policy 
memorandum in October 2000 that discontinued the practice of conducting 
case-specific appraisals for determining rental fees for fiber optic 
rights-of-way.
    The BLM and FS, however, have an ongoing obligation to respond to 
the Office of Inspector General and General Accounting Office reports 
(USDI OIG 95-I-747 and GAO/RCED-96-84), citing that the land use rental 
fees for commercial linear rights-of-way are below fair market value. 
Both agencies began a market study of linear right-of-way uses on 
nonfederal lands in fiscal year 2000 in response to the OIG and GAO 
reports. This market study will also include rural market areas. We do 
not anticipate that the market study will be completed until sometime 
in fiscal year 2002. After consultation with industry groups and 
congressional offices in fiscal year 2000, the BLM and FS agreed to 
only use a formal regulatory process, with full public involvement 
(including rural interests), to develop any revised rental fee policy 
for fiber optic rights-of-way. The BLM and FS do not anticipate 
beginning any rulemaking effort until at least fiscal year 2002.
    We continue to remain committed to working with Congress in 
development of any policies and procedures related to fiber optic 
rights-of-way and in any future rulemaking effort regarding rental fee 
schedules.

      MONTANA SPECIFIC (UNDAUNTED STEWARDSHIP AND MSU WEED CENTER)
    Question. I was also concerned that a couple projects that I have 
worked hard to include in the budget are reduced in the 
Administration's request. Two within the BLM are Undaunted Stewardship, 
and the National Center for Ecologically Based Weed Management at 
Montana State University. The budget documentation provided to me 
incorrectly states that these two projects are now capable of operating 
independently. Can I have your assurance that the BLM will continue to 
fully support these projects through fiscal year 2001, as we work 
together to ensure they will receive additional funds in fiscal year 
2002?
    Answer. Funding was provided in fiscal year 2001 to a group called 
Undaunted Stewardship to provide grants to local groups that operate 
along the Lewis and Clark trail, to protect cultural sites and evaluate 
easement alternatives. Funds are also used for a stewardship 
certification program. Much of the work associated with the funding 
provided in fiscal year 2001 will continue into fiscal year 2002. Since 
funding provided in fiscal year 2001 is expected to still be available 
for use in fiscal year 2002, we did not request additional funds for 
Undaunted Stewardship. BLM will focus available resources on the 
highest priority needs for the Lewis and Clark projects.
    Building on the efforts of fiscal year 2000, the BLM continues to 
work with Montana State University in fiscal year 2001, to establish 
the National Center for Ecologically Based Weed Management. Fiscal year 
2001 funds have been obligated for the Center. The Center has submitted 
bills against approximately 20 percent of the fiscal year 2000 
obligation, and expects to exhaust the remainder of those funds this 
year. It is projected that the Center will utilize approximately one-
quarter of the fiscal year 2001 funds this year, with the remainder to 
be utilized through fiscal year 2003.

                      MINERALS MANAGEMENT SERVICE
                            ROYALTY-IN-KIND
    Question. The Minerals Management Service has been studying the use 
of Royalty-In-Kind (RIK) as a way to avoid disputes with lessees over 
the valuation of oil and gas and to potentially increase revenues to 
the Treasury. In the fiscal year 2001 Interior Appropriations bill, the 
Committee expanded the agency's authority to use RIK.
    What has the agency's analysis in Wyoming shown thus far about when 
it makes economic sense to use RIK?
    Answer. The RIK Pilot in Wyoming shows that there are circumstances 
when RIK makes sense. Over the period covered by the evaluation, the 
pilot has shown that selective use of RIK can be revenue neutral, while 
lessees can benefit from reduced administrative burdens. One of the 
lessons learned from the Wyoming Pilot was that RIK does not work for 
every property. In Wyoming, properties that were not connected to 
pipelines did not receive attractive bids, and are no longer included 
in the RIK sales. The administrative burden associated with these 
properties made them unattractive to potential bidders for RIK oil.
    Question. When will the agency complete an analysis of the use of 
RIK in the Gulf of Mexico?
    Answer. There are three RIK pilots (two natural gas and one oil) in 
the GOM. The GOM gas pilot that is being coordinated with the Texas 
General Land Office should have preliminary results available from the 
initial analysis this summer. Once the analysis of this gas pilot is 
completed, MMS will begin an analysis of the second gas pilot, followed 
by an analysis of the oil pilot. No time frame has been set as to the 
completion of the second gas pilot or the oil pilot project.
    Question. Are there differences between the Gulf of Mexico and 
Wyoming markets that may cause the analysis of the Gulf to reach a 
different conclusion with respect to RIK than was reached in Wyoming?
    Answer. The primary difference between these initial pilots is the 
commodity that MMS took as RIK--oil in Wyoming and natural gas in the 
Gulf of Mexico. There are other differences in the characteristics of 
these markets that also may affect the conclusions of the pilot 
evaluations. The Wyoming oil market has fewer buyers and sellers than 
the Gulf coast markets, and therefore less spot market activity. The 
gas market in the Gulf of Mexico is much more open and robust with many 
public price indices available. The results of the gas pilot won't be 
known until the evaluation is complete, but the potential for 
shortening the compliance time period and reducing valuation disputes 
should be similar to those identified in Wyoming.
    Question. The MMS budget includes over $7 million for systems to 
support the RIK program. Can you describe what these new RIK systems 
are designed to do and how they will facilitate greater use of the RIK 
program in the future?
    Answer. MMS 2002 budget request of $7.3 million will fund the 
development of a gas management system which will provide the 
technological tools to support to MMS's ongoing RIK gas pilot 
activities. This technology solution will support MMS gas pilot 
activities in the areas of identification and tracking of gas 
production available for sale, nomination of gas volumes for sale, 
reconciliation of gas volumes between nominations and actual sales, 
tracking of gas volumes transported and/or processed before sale, and 
tracking and resolution of volume imbalances. Further, the gas 
management system will support the invoicing of gas sales and support 
tracking of receivable balances. Most of this work is now done manually 
with limited systems support.
    A commercially available solution will be purchased that closely 
aligns with MMS royalty system, and which will be patterned after 
accepted gas marketing/management practices used by industry. The 
solution is scaleable to increases or decreases in business activity. 
The system will fully integrate with MMS's reengineered Financial/CAM 
systems.
    Question. Do we know a sufficient amount about RIK at this point 
considering that an analysis has only been done in Wyoming to justify 
spending $7 million on software to expand the use of this authority?
    Answer. Yes. The Wyoming Oil RIK Pilot is just one facet of MMS's 
experience in managing royalties through RIK. MMS has considerable 
additional experience in operating RIK activities for both oil and gas. 
For natural gas, MMS is now operating multiple pilots in the Gulf of 
Mexico. Begun in 1998, the gas pilot program has tested a number of 
approaches and practices and is identifying and refining best 
practices. Currently, MMS is selling approximately 360 million cubic 
feet of gas per day in the Gulf of Mexico under a variety of sales 
scenarios and is utilizing both transportation and processing 
agreements and infrastructure to support those sales.
    MMS has steadily focused on the adoption of industry best 
practices. The gas management systems that MMS would purchase in fiscal 
year 2002 are utilized by industry and are designed to support these 
practices.
    MMS also has a significant experience base for oil RIK. For many 
years, MMS has been operating and steadily improving its Small Refiner 
Program. Under this Program, MMS currently sells approximately 70,000 
barrels per day of OCS crude oil. Furthermore, the Wyoming pilot has 
been in place for over three years now and has involved sales reaching 
over 6,000 barrels per day. Additionally, MMS recently completed the 
delivery of over 28 million barrels of Gulf of Mexico RIK oil to the 
Department of Energy for the Strategic Petroleum Reserve. Lastly, MMS 
is currently selling over 7,000 barrels of crude oil per day from the 
Gulf of Mexico in its competitive pilot program. As with natural gas, 
MMS has been focusing on the adoption of oil industry best practices 
where applicable. This approach leverages the breadth of experience in 
the industry and helps assure that the available commercial-off-the-
shelf (COTS) liquids management solutions will fit closely with adopted 
business practices.
    Every business endeavor will evolve over time. The MMS RIK activity 
is no different. Changes in the marketplace will continue to happen and 
MMS must be prepared to adapt to those changes. From the information 
technology perspective, we believe that the adoption of COTS solutions 
provides the best and most effective strategy for continuing to have 
the tools to support the MMS RIK activity.

                               VALUATION
    Question. What is the status of the current litigation challenging 
the new oil valuation rule that was put into effect last year?
    Answer. The MMS published the final version of the rule in the 
Federal Register on March 15, 2000, effective June 1, 2000. Immediately 
following its publication, the American Petroleum Institute and the 
Independent Petroleum Association of America filed a complaint in U.S. 
District Court for the District of Columbia (IPAA v. Norton and API v. 
Norton).
    The Department of Justice recently submitted the Administrative 
Record for this case. The court set a briefing schedule with the 
plaintiffs' first brief filed January 24, 2001, and the Government's 
responsive brief followed on April 13.
    Question. Is a significant ruling expected in the near future?
    Answer. There will be opportunities for additional briefs to be 
filed by both parties. Resolution of these cases is not expected soon.
    Question. Could RIK be used on most federal production so that 
valuation disputes could be minimized?
    Answer. One of the benefits of RIK is that it minimizes valuation 
disputes and the resulting litigation. However, decisions to take 
royalty in kind are based on several factors, such as:
  --Simplicity, accuracy, certainty for lessees and government;
  --Revenue neutrality (or better) for government; and
  --Reduced administrative burden for lessees and government.
    Through the evaluation of the Wyoming oil RIK pilot, MRM identified 
areas where RIK is not an attractive alternative. This includes 
properties where the lease is not serviced by a pipeline, an 
aggregation point or properties with marginal production.

                          OFFSETTING RECEIPTS
    Question. Almost one-half of the Minerals Management Service's 
budget is derived from offsetting receipts which come from rents 
collected by the agency on federal leases. The amount of offsetting 
receipt collections for fiscal year 2002 is significantly lower than it 
has been in the past two years. What explains this large decrease?
    Answer. The Minerals Management Service (MMS) receives 
approximately half of its budget from rents derived from offshore 
leases. Subject to a cap described in the annual Interior and Related 
Agencies appropriations bill, MMS has been allowed by Congress to 
retain any increase in per acre rental rates put into effect since 
August 1993. Income from the pre-August 1993 rental rates and any 
rental income collected above the Congressional Cap are deposited to 
the Treasury's General Fund.
    The Congressional CAP has been reduced by approximately $21 million 
from fiscal year 2000 to fiscal year 2002 as the projected income 
available to MMS from rental rates declined. During this period, total 
rents, which include amounts deposited to the Treasury as well as the 
portion available to MMS, have remained virtually unchanged.
    Question. Recent information provided to the Committee suggests 
that offsetting receipts may, in fact, be higher than the agency's 
initial projections that were included in the Budget. Is this the case?
    Answer. Yes. Sale 178 in the Central GOM produced rents that were 
slightly higher than MMS projected.
    Question. If so, how much more is the agency expecting in 
offsetting receipts?
    Answer. Sale 178, conducted in March 2001, is expected to bring in 
slightly more rental income than had been projected in the fiscal year 
2002 President's budget. The following table gives a comparison of 
projected rental income from the President's budget and data from the 
sale. The exact amount of rental income will not be known until all 
bids have been accepted or rejected.

     COMPARISON OF PROJECTED AND ACTUAL RENTAL INCOME FROM SALE 178
                        [In millions of dollars]
------------------------------------------------------------------------
                                   President's
                                      budget     Sale data      Change
------------------------------------------------------------------------
Gross Rents......................        10.96        16.87         5.91
Rents Available to MMS...........         5.53         8.55         3.02
------------------------------------------------------------------------

    Question. Given the higher prices for oil/gas which have increased 
interest in drilling does the agency expect offsetting receipts to 
increase at some point in the future?
    Answer. While the current higher prices for oil and natural gas 
will have a positive impact on the amount of royalties collected by 
MMS, the impact on offsetting receipts through rents will be minimal. 
The reason for this minimal impact is that the most promising tracts in 
the central and western Gulf of Mexico are currently under lease. 
Additionally, rental payments stop as tracts move into production. 
Since higher prices provide incentive to begin production as soon as 
possible, MMS rental revenue may decline even faster as a result.

                             REENGINEERING
    Question. The agency's budget indicates that the reengineering 
effort that has been funded over the last two years will be completed 
in fiscal year 2001. Are there any significant issues that remain which 
might delay completion?
    Answer. There do not appear to be any significant issues in the 
development of the new financial system, with completion scheduled for 
October 1, 2001. Acceptance testing begins this month, and MMS has 
planned operationally and financially for all reasonably likely 
contingencies. Nevertheless, some companies have expressed concerns 
that their system development will not coincide with that of MMS. MMS 
has agreed to work closely with those companies, to provide any 
information that will help with their development and conversion, and 
to provide some additional time for completio n of their development 
and implementation.
    Question. When does the agency expect to see true gains from this 
effort in terms of more efficient, accurate collection of royalties?
    Answer. Many of the day-to-day efficiencies expected in the new 
system should be apparent soon after implementation. This includes 
consolidation of most of the more than 40 stand-alone systems used for 
many of the financial processes. States will benefit almost immediately 
with the implementation of disbursements within one business day for 
those states desiring more frequent disbursements. The benefits of 
electronic commerce with more than 4,000 companies will be realized as 
soon as these companies are converted to the new system and to our 
electronic commerce vendor. Companies, states, tribes and other Federal 
agencies will have more immediate access to their relevant information 
through our web site, rather than receiving paper sent by mail. This 
benefit also should be realized soon after October 2001.
    While the new compliance system will be operational on October 1, 
2001, we are continuing to transition producing properties from the 
current system to the compliance and asset management (CAM) approach in 
order to reduce the compliance cycle from 6 to 3 years or less. Not 
only will the compliance cycle be reduced, but broader coverage of the 
lease universe will occur within available resources. While we will see 
some gains soon after October 1, 2001, true gains will not be realized, 
particularly from the large universe of onshore oil and gas leases, 
until fiscal year 2003.
    Question. Have other stakeholders such as the industry, states, and 
tribes been pleased with the reengin eering effort?
    Answer. Industry, states, and tribes have been significantly 
involved with MMS throughout the reengineering process, since as early 
as 1995. Industry, especially through many of its trade associations, 
has participated in the development of the new reporting forms, has 
provided comments to all of the public notices referencing the various 
changes, and has participated in numerous meetings with MMS to comment 
on the issues and the development processes. We have adopted many 
changes to the royalty report resulting from recommendations by 
industry. The solid minerals industry is particularly pleased with the 
new Internet-based reporting developed for solid minerals that replaces 
eight existing forms. Since testing of the financial processes has yet 
to start, industry reception of these changes can not be gauged at this 
time.
    To minimize transition issues, MMS is providing group and 
individual company training in many cities through the summer of 2001. 
Detailed reporter handbooks have been written and will be provided by 
next month to all companies. MMS' website has extensive and timely 
information for all interested organizations relative to the 
reengineering efforts. This includes ``Dear Reporter'' letters, 
questions and answers, reference data listings, and all information 
necessary to develop the systems companies will use for the reporting. 
As problems and concerns arise, MMS responds to them as quickly as 
possible. MMS recognizes that all concerned entities including itself, 
are going through substantial changes during the next few months, but 
at the end, the reengineering effort will result in more relevant, 
timely and efficient reporting and payment of royalties to all of the 
recipients.
    Industry, states, and tribes have been fully engaged in the 
development of the new compliance process through operational models 
that have been functioning since November 1998. The operational models 
have proven effective in testing and refining the CAM process, 
developing the requirements for the automated support systems, and 
beginning the transition of compliance personnel to the new operational 
process.
    State and tribal auditors under FOGRMA 202/205 audit contracts with 
MMS have expressed some concerns about moving from the current 6-year 
audit process to a 3-year, end-to-end, property-based compliance 
process. MMS is confident that the new compliance tools that we are 
developing will allow us to provide greater coverage of onshore mineral 
properties within 3 years or less. To help alleviate the State and 
Tribal auditors concerns, we are involving them in the detailed 
development and testing of those tools. MMS is meeting jointly and 
individually with the State and Tribal audit delegations to address 
their concerns and to develop transition plans for their individual 
States and reservations. The transition of onshore properties will 
necessarily progress slower than offshore properties due not only to 
the fact that several organizations are involved in the compliance 
function for onshore, but due also to the size and complexity of the 
onshore lease universe.
    Question. Are there any problems these groups see with the 
reorganization? If so, what are they?
    Answer. MMS is not aware of any State, industry, or Tribe that have 
issues with the reorganization implemented in October 2000. The MMS has 
responded to questions received about whom to contact in the new 
organization by issuing ``Dear Payor'' letters to industry and 
providing briefings and contact lists to the States and Tribes.

                             GULF OF MEXICO
    Question. The MMS budget includes an additional $7 million for 
increased activity in the Gulf of Mexico. Will this increase ensure 
that the agency does not accumulate a backlog of unprocessed drilling 
permits?
    Answer. MMS anticipates that the additional resources requested 
will be adequate to process the projected increase in the number of 
drilling permit requests expected in fiscal year 2002. MMS will 
continue to monitor permit processing activities to ensure that 
adequate resources are available to process permits in a timely manner.
    Question. Does the agency expect industry interest in the Gulf to 
remain high over the next few years?
    Answer. Industry interest in the Gulf of Mexico is currently high 
and is expected to remain so in the near future. This expectation is 
based on the relatively high price of oil and gas and the large 
inventory of high quality prospects, especially in deepwater.
    Question. Leasing in the Eastern Gulf of Mexico is considered by 
some to be controversial but given the existing moratorium on offshore 
drilling there are few places left where offshore leasing is 
authorized. What are the potential reserves for oil and gas in the 
Eastern Gulf?
    Answer. The Eastern Gulf of Mexico is primarily a gas-producing 
area. The estimate of current gas reserves from known accumulations is 
0.683 Tcf. The estimates of recoverable resources for the entire area 
is:

------------------------------------------------------------------------
                                                  Oil (BB)    Gas (Tcf)
------------------------------------------------------------------------
Low level.....................................        2.351       10.024
Mean..........................................        3.576       12.306
High level....................................        6.614       18.934
------------------------------------------------------------------------

    Question. What are the agency's future plans with respect to 
leasing in the Eastern Gulf and is this an issue that is being 
considered as part of the President's national energy strategy?
    Answer. The issue has been discussed as part of the Energy Task 
Force review. The Department plans to rely upon the requisite statutory 
and regulatory processes to consider this controversial issue. Under 
the current schedule for proposed Lease Sale 181, MMS is preparing its 
final EIS for release this summer, and will base its decision on this 
analysis and the other balancing factors provided under the Outer 
Continental Shelf Lands Act, including economic and energy benefits and 
concerns of the affected states.

                              DESTIN DOME
    Question. What is the current status of the Destin Dome project 
located off the Alabama and Florida coastlines?
    Answer. Chevron appealed the State of Florida's denial of 
consistency to the Department of Commerce (DOC). The Interior 
Department provided comments on the appeal, and prepared a preliminary 
Final Environmental Impact Statement for DOC to consider. The appeal 
decision is currently before the Secretary of Commerce.
    Question. When will the coastal zone management determination be 
finalized?
    Answer. This depends on when the Secretary of Commerce makes his 
decision.
    Question. If a favorable decision is made by the Secretary of 
Commerce on the Coastal Zone Management appeal, how soon could this 
project be brought into production?
    Answer. Once Chevron has all permits it will take approximately 30 
months to bring the project on line.
    Question. What are the expected reserves of natural gas from this 
field?
    Answer. The Chevron project (DD56) currently has 3 wells drilled 
into a single reservoir. There are 2 additional untested traps within 
the unit area. Estimated gas reserves from this reservoir are 0.57 Tcf.
    The estimate of resources for the Destin Dome Unit, including the 2 
untested traps, is from one to three tcf of conventionally recovered 
natural gas.

                         EVERGLADES RESTORATION
    Question. The budget request includes a $39 million increase for 
activities associated with restoration of the Everglades ecosystem.
    How will the Department ensure that its continuing investment in 
restoration of the Everglades natural areas is realized, and not 
diminished by competing demands from other aspects of the restoration 
effort (urban water supply, etc.)? What management and planning systems 
are in place to ensure that this will happen?
    Answer. Ensuring that the benefits to the natural system from 
restoration activities are achieved and maintained is the highest 
priority for the Department in its Everglades restoration effort. While 
providing for other water related needs of the region will result from 
the implementation of the Comprehensive Everglades Restoration Plan 
(CERP), the overarching purpose is unequivocally natural system 
restoration, including restoration of Everglades Nation Park and other 
lands managed by the Department. To ensure that natural system benefits 
are not diminished by competing demands we will work with the 
Department of the Army and the State of Florida to develop programmatic 
regulations to establish clear procedures for ensuring that the 
restoration projects are consistent with this overarching purpose. 
Required as part of the recently enacted CERP legislation, these 
regulations will also establish interim restoration standards that will 
allow us to evaluate the implementation of this 25-year project. In 
addition, we will be working with the State and the Army on the 
development of an agreement that will ensure that the State reserves 
the water from CERP projects that has been allocated to the natural 
system.
    To coordinate and facilitate the Department's many activities in 
the Everglades, the Secretary has established the Office of Everglades 
Restoration, located in Florida, to coordinate the actions of the 
Department's Bureaus with each other as well as with other Federal 
agencies, the State, Tribes, local governments, and the public. This 
will help ensure that the restoration efforts are planned and 
undertaken in an efficient and effective manner.

                          MAINTENANCE BACKLOG
    Question. The President has established a laudable goal of 
eliminating the National Park Service's deferred maintenance backlog in 
the next five years. This commitment is reflected in the Budget request 
in a number of places.
    Is there an official measuring stick that this Committee can use to 
evaluate progress toward this goal? Is the deferred maintenance 
estimate in the Department's annual ``Accountability Report'' such a 
measuring stick, or will the Department use other measures?
    Answer. An ``official measuring stick'' does not yet exist. One 
measure could be the progress of reducing the deferred maintenance 
backlog by annually comparing the amount of funding applied against the 
previously identified deferred maintenance estimate. But, the total 
deferred maintenance estimate is not a static number and it does not 
reveal what the outcomes are (such as the improvement in condition).
    Therefore, the National Park Service is putting into place a 
process that will provide a true measurement of accomplishment. The 
process consists of:
  --Performing comprehensive condition assessments on assets that will 
        identify the degree of deficiencies existing at the time of the 
        inspection and reporting.
  --Utilization of a standardized, Servicewide cost estimating tool to 
        cost out the identified deficiencies.
  --Determination of the replacement cost for each asset that is 
        assessed.
  --Based upon the information gained from the steps above, calculation 
        of the facility condition index for each asset assessed, which 
        in turn generates a condition code of good, fair, or poor.
  --As resources are applied to correct asset deficiencies, the 
        facility condition index will change, resulting in a condition 
        change that is measurable.
    Question. Please describe the Department's progress in implementing 
the computer system that is designed to manage and track the deferred 
maintenance projects. Are the necessary resources included in the 
budget request to fully implement the system? Will further increases in 
future years be required for full implementation?
    Answer. The MAXIMO software program was selected by the National 
Park Service and approved by the Department of the Interior for its 
adaptability to reflect the current National Park Service facility 
management needs and its ability to accurately report the resultant 
outcomes of resources applied to the operation and maintenance of 
National Park Service facilities. An initial deployment to pilot the 
software system in 30 NPS units was successfully concluded in fiscal 
year 2000. The term ``deployment'' means that a park has access to the 
software system. The system is being deployed in an additional 90 units 
in fiscal year 2001. The Asset Management Program (AMP) process was 
implemented in some of the original pilot parks in January 2001. A 
needs assessment selection process has been developed to prioritize 
park assets for evaluation. The pilot parks will utilize/test the AMP 
process, identifying facility deficiencies to be corrected. The NPS has 
projected that with requested funding the Service will accomplish 
deployment of FMSS to all 384-park areas by the conclusion of fiscal 
year 2003. It is the NPS' intention to provide a Comprehensive 
Inventory that is consistent with the implementation of the FMSS. The 
estimated backlog will be refined and updated annually and collaterally 
with the FMSS process.
    The budget request would provide a total of $3.5 million for fiscal 
year 2002 and is representative of the annual expected maintenance 
requirements for the software system for fiscal year 2003. In 
subsequent years after the system is acquired, approximately $2.1 
million per year will be required.
    Question. Is it possible that when this system is fully on-line 
that an entirely new baseline for the backlog will come to light? Will 
we find ourselves facing a $10 billion backlog because parks are more 
carefully documenting every conceivable maintenance project?
    Answer. Yes, it is probable that comprehensive facility condition 
assessments will result in an increase in the total dollar backlog 
because of improved identification of existing deficiencies and more 
accurate cost estimates of the identified deficiencies. The National 
Park Service manages a complex diversity of facility types. In managing 
its facilities, the NPS has not had the benefit of a comprehensive 
asset inventory by age, type, size and number for many years, if ever. 
The physical condition, functionality, suitability and life expectancy 
of facilities and the backlog of deferred maintenance requirements are 
not adequately documented at this time. However, the Service has begun 
a process to provide comprehensive asset inventory and condition 
information. A Servicewide desk audit of inventory was conducted in 
1997 and updated in 2000. The information from this inventory is being 
utilized as a starting point for the development of the comprehensive 
inventory. Additionally, the Service is using existing data from the 
Federal Highways Inventory of Roads and the NPS Housing Inventory. The 
NPS is utilizing the recently developed Facility Management Software 
System (FMSS) with a standardized cost-estimating tool to produce a 
comprehensive list of assets that will document current condition and 
anticipated repair and rehabilitation needs for the facilities. The 
backlog maintenance identified through this effort will be imported 
into the Project Management Information System and prioritized for 
funding and accomplishment. Because of the thoroughness of this 
process, it is anticipated that this process will identify an even 
greater amount of overall deferred maintenance but at this time we have 
no way to judge the size of the increase. As comprehensive condition 
assessments are completed, the Department will be analyzing results. 
For instance, in the recently completed U.S. Geological Survey's 
comprehensive condition assessments of nine science centers, an 
approximately 30 percent increase in the deferred maintenance backlog 
was documented. However, this 30 percent factor cannot be projected for 
NPS because enough data are not yet available.
    The Budget Blueprint states that 60 percent of National Park 
Service fee demonstration revenue will be dedicated to ``deferred 
maintenance needs'' as part of the Presidential commitment to eliminate 
the backlog over a five year period. The Department's fiscal year 2000 
report on the fee demonstration program states that 61 percent of NPS 
fee demonstration revenues are currently dedicated to ``deferred 
maintenance or critical health and safety issues.''
    Question. Do these numbers mean that NPS will continue to apply 
roughly the same percentage of fee revenues to the maintenance backlog, 
or are the figures not directly comparable? Explain.
    Answer. No, the figures are not directly comparable. The 
requirement to dedicate 60 percent of the fee revenue to address 
deferred maintenance needs will be a sizable increase in the amount of 
fee receipts dedicated to deferred maintenance. Our best estimate at 
this time is that approximately 47 percent of the funding approved to 
be undertaken from fee receipts (over the lifetime of the fee 
demonstration program) has been identified as addressing deferred 
maintenance needs. While this percentage has been increasing in recent 
years, the current amount is less than 60 percent.
    The Annual Interagency Report stated for fiscal year 2000, 61 
percent of the approved projects addressed ``deferred maintenance or 
critical health and safety issues.'' It is important to note that this 
estimate also includes ``health and safety projects,'' (such as the 
installation of bear-proof lockers) which are not necessarily 
categorized as deferred maintenance.
    However, in order to expedite progress on eliminating the backlog, 
the NPS plans to dedicate increasing amounts of fee receipts to 
deferred maintenance projects beginning in fiscal year 2002.
    Question. The Fish and Wildlife Service, the Bureau of Land 
Management, and the Bureau of Indian Affairs also have deferred 
maintenance backlogs of some magnitude. How does your budget address 
the issue of deferred maintenance in these bureaus?
    Answer.
Bureau of Indian Affairs
    The BIA's fiscal year 2002 budget request addresses deferred 
maintenance backlog as follows:
    For the Bureau of Indian Affairs (BIA) non-resource management 
programs, the BIA's Facilities Management Information System (FMIS) 
produces cost estimates that are updated on a daily basis. Field users 
add, update, and complete deficiency items as they occur, therefore, 
this data is not static. As of January 2001, the total BIA deferred 
maintenance backlog for facilities is $1.4 billion. The deferred 
maintenance backlog for education facilities, estimated, at $942 
million, makes up the largest portion of the total, with the remainder 
attributed to employee quarters, public safety facilities, and general 
administration facilities.
    Funding in fiscal year 2001 is expected to reduce the deferred 
maintenance backlog for education facilities by $109.2 million to 
$832.6 million. Funding at the fiscal year 2002 request level would 
reduce the backlog an additional $140 million to an estimated level of 
$692.6 million. Highlights of fiscal year 2002 funding for facilities 
repair follow.
    Education Facilities: $161.6 million is requested for facilities 
improvement and repairs. Within this amount are the following amounts: 
$61 million for Major repairs and improvements at 10 schools and 
dormitories; $45.9 million for preventive and cyclical maintenance; $3 
million for portable classrooms, $6 million for roof repairs and 
replacement; $4 million for continued backlog validation and update; 
$14.2 million for minor repairs and improvements at multiple school 
locations; $11 million for plan and design future year projects in the 
BIA's five-year deferred maintenance plan; $11.7 million to address 
critical environmental issues; $2.2 million to address emergency work, 
and $1.5 million to demolish existing buildings which are no longer 
necessary for program need.
    Employee Housing: $3.1 million is requested for condition surveys, 
upgrades of fire alarm and detection systems, installation of ramps and 
fixtures to met accessibility codes, and repairs to meet health and 
environmental codes.
    Public Safety and Justice Facilities: $5.5 million for facilities 
improvement and repairs. Of this amount $1.4 million will be used to 
address deferred maintenance related to emergency repairs, minor 
repairs, environmental work and inventory validations in law 
enforcement facilities and $4 million for structural fire protection 
(fire sprinkler systems, fire alarms, fire stations, fire trucks, fire 
fighting equipment.
    General Administration Facilities: $8.4 million requested to 
address deferred maintenance related to emergency repairs, minor 
repairs, environmental work and inventory validations, and seismic 
safety work in offices, warehouses, shops, fire stations and other 
support facilities.
    A copy of the BIA's Five-Year Facilities Maintenance and 
Construction Plan, which provides more details on projects planned in 
the various budget subactivities from fiscal year 2002 to fiscal year 
2006, is submitted to the Subcommittee.
Bureau of Land Management
    The goals of the BLM maintenance program are to protect visitor 
safety, maintain the public investment in facilities and transportation 
systems, provide universal accessibility and promote wise use of public 
lands. To attain these objectives it is incumbent on the Bureau to 
reduce and ultimately eliminate the existing backlog of maintenance 
needs.
    Correction of the current deferred maintenance needs will be 
obtained through a focused expenditure of funding and personnel 
resources as directed by the Five Year Deferred Maintenance and Capital 
Improvement Plan. The Five Year Planning process results in a priority 
ranked listing of all known corrective maintenance actions necessary to 
protect public health and safety and facility value and maintain the 
facility in an operable status.
    The Five Year Planning process has been invaluable to the BLM in 
helping to identify and correct our deferred maintenance and 
construction needs. This process provides the BLM with the information 
it needs to prioritize workloads within available resources in an 
effective manner. This process has been especially useful with the 
recent availability of the Conservation Preservation and Infrastructure 
Improvement funding. The proposed President's Budget for fiscal year 
2002 will provide for the needed corrective actions on 164 deferred 
maintenance projects at a total cost of $44.4 million. The goal of the 
BLM is to eliminate the current backlog of maintenance needs while 
preventing the development of new problem situations. The President's 
Budget request for fiscal year 2002, and the continued availability of 
funding at a comparable level, should ultimately achieve this goal 
within the next 6 to 10 year period. This objective however, is 
predicated on the requirement that sufficient funding is available on a 
continuing basis to assure that annual and cyclic maintenance needs are 
achieved.
Fish and Wildlife Service
    The 2002 budget request proposes an increase of $10.0 million to 
address maintenance needs of the National Wildlife Refuge. This request 
includes an additional $1.9 million in salaries and benefits for 33 
maintenance workers and an associated increase request of $2.2 million 
in annual maintenance that will allow maintenance workforce to 
accomplish preventive maintenance projects, keeping them from being 
added to the backlog. In addition, a $6.0 million increase is requested 
to address deferred maintenance, bringing total 2002 funding for 
deferred maintenance to $65 million.

                       NATURAL RESOURCE CHALLENGE
    Question. The President's budget reflects his commitment to support 
the Natural Resource Challenge, an effort to expand our scientific 
understanding of park resources.
    Does the $1.2 million increase requested for Yellowstone bison 
management fully fund the bison management plan? Assuming the increase 
is provided, do you anticipate the need for any additional increase in 
fiscal year 2003 or beyond? Are funds included in the U.S. Department 
of Agriculture budget to implement that management plan? If so, how 
much and for what activities?
    Answer. The request will provide the National Park Service the 
ability to fully meet its responsibilities under the Interagency Bison 
Management Plan as described in the Final Environmental Impact 
Statement (Volume 1, pp. 177-195) and Federal Interagency Record of 
Decision (pp. 21-34). No additional increase in fiscal year 2003 or 
beyond is anticipated to meet NPS responsibilities under the approved 
Interagency Bison Management Plan. The USDA-USFS is expected to provide 
support for ongoing planning, compliance, and habitat acquisition or 
management. The USDA-APHIS is expected to provide extensive support for 
the Interagency Bison Management Plan including cattle brucellosis 
testing and vaccination, cattle herd disease-free certification, and 
cooperative funding support for bison management outside the park. At 
this time, the NPS has not been advised of the status of USDA budget 
planning for bison management during fiscal year 2002 or beyond. The 
Final Environmental Impact Statement displays an expected combined 
annual cost of between $1.2 and $1.5 million for the USDA.
    Question. An increase of $2.4 million is requested for native and 
exotic species control. How will the expenditure of these and other 
base funds be coordinated with neighboring landowners to maximize the 
efficiency of exotic species management?
    Answer. At least 2.65 million acres of national parklands are 
infested by invasive plant species. Coordination with local, regional 
and Federal partners to maximize efficiency of exotic species 
management is a key component of the NPS exotic species management 
response including the proposed six additional Exotic Plant Management 
Teams (EPMTs) and the current four EPMTs in operation. The success of 
the EPMT derives from its ability to adapt to local conditions and 
needs. Each team employs the expertise of local citizens and the 
capabilities of local agencies. Priorities for control are determined 
by the following factors: severity of threat to high quality natural 
areas and rare species; extent of targeted infestation; probability of 
successful control and potential for restoration and opportunities for 
local public partnerships. Each Exotic Plant Management Team proposed 
for funding was required to successfully address the following 
criteria: ``The proposed plan effectively combines and coordinates 
actions with activities of surrounding landowners or other 
stakeholders.'' For example, the Exotic Plant Management Team of 
Florida provides excellent illustration of the effectiveness of local 
partnerships. The Florida EPMT formed a partnership with the Upland 
Invasive Plant Management Program of the Florida Department of 
Environmental Protection and approximately 136 other groups in the 
program to control invasive plants. Together they fund removal of 
exotics in eleven units of the National Park System in Florida.
    Question. Please provide for the record a table that displays the 
major subactivities that comprise the Natural Resource Challenge, the 
total increases provided for those subactivities to date, and the 
increases requested for fiscal year 2002.
    Answer. A table that displays the major subactivities that comprise 
the Natural Resource Challenge, the total increases provided for those 
subactivities to date, and the increases requested for fiscal year 2002 
follows:

                                   NATURAL RESOURCE CHALLENGE FUNDING HISTORY
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                         Fiscal years--
                                               -----------------------------------------------------------------
               Funding elements                                                     2002                 Total
                                                1999 Base     2000       2001    requested  2000-2002     2002
                                                   \1\       change     change     change   increases   request
----------------------------------------------------------------------------------------------------------------
NATURAL RESOURCE CHALLENGE CATEGORIES:
    Complete basic natural resource                 5,787      7,309  .........  .........      7,309     13,096
     inventories, except vegetation mapping
     \2\......................................
    Vegetation mapping cost-share with  USGS..  .........  .........      1,746  .........      1,746      1,746
    Monitor vital signs in networks of parks..  .........  .........      4,191      4,200      8,391      8,391
    Expand water resource protection and            4,754  .........        823      1,000      1,823      6,577
     restoration \3\..........................
    Monitor water quality in parks and assess   .........  .........      1,272  .........      1,272      1,272
     watershed conditions.....................
    Expand air quality monitoring and related       6,285  .........  .........      2,600      2,600      8,885
     activities...............................
    Inventory air emissions in parks \4\......  .........  .........        200  .........        200        200
    Make natural resource data useable for            455  .........      1,098  .........      1,098      1,553
     management decisions and public \5\......
    Expand NRPP project fund, specialized           5,432      2,875  .........      4,000      6,875     12,307
     inventories, training....................
    Create native/nonnative program/field       .........      3,449  .........      2,400      5,849      5,849
     teams for nonnative species management...
    Protect geologic resources \6\............      1,918        696  .........  .........        696      2,614
    Increase park bases for nonnative and          25,693  .........      3,395      3,200      6,595     32,288
     threatened and endangered species
     recovery \7\.............................
    Establish Learning Centers................  .........  .........        898      1,800      2,698      2,698
    Establish CESUs...........................  .........  .........      1,596  .........      1,596      1,596
    Establish resource protection fund........  .........  .........  .........        300        300        300
    Implement Resource Protection Act to        .........  .........  .........        500        500        500
     restore resources........................
                                               -----------------------------------------------------------------
        Total, Natural Resource Challenge.....     50,324     14,329     15,219     20,000     49,548     99,872
                                               =================================================================
NON-CHALLENGE NATURAL RESOURCE CATEGORIES: \8\
    Park Base.................................     31,402      5,046      6,014      2,235     13,295     44,697
    Regional Project Programs.................      2,093  .........  .........  .........  .........      2,093
    Servicewide Project Programs \9\..........      2,216        -23          8         12         -3      2,213
    Central Office Support \10\...............      8,196      1,731      1,498        156      3,385     11,581
                                               -----------------------------------------------------------------
      Total, Non-Challenge Natural Re-             43,907      6,754      7,520      2,403     16,677     60,584
       sources................................
                                               =================================================================
EVERGLADES RESTORATION AND RESEARCH...........     12,800     -4,092      1,299        862     -1,931     10,869
                                               -----------------------------------------------------------------
      Total...................................  .........     16,991     24,038     23,265     64,294    171,325
                                               =================================================================
      TOTAL NATURAL RESOURCES APPROPRIATION BY    107,031    124,022    148,060    171,325  .........   171,325
       YEAR \11\..............................
----------------------------------------------------------------------------------------------------------------
\1\ Enacted amount shown in fiscal year 2000 Budget Justification.
\2\ Fiscal year 1999 figure includes program support and $895,000 for monitoring projects; in addition, $2.2
  million appropriated for this program was previously transferred to parks for their prototype monitoring
  activities.
\3\ Part of larger Water Resource Program; Water Quality Monitoring will be included in this total in the Budget
  Justification.
\4\ Included in Budget Justification as Air Quality Program, with air quality monitoring, shown separately here.

\5\ In fiscal year 1999, these funds were not shown separately in the Park and Program Summary.
\6\ Part of a larger Geologic Resources Program that also includes Abandoned Mine Land Restoration and other
  mining and minerals-related activities.
\7\ Estimated amount in park bases, prior to the initiation of the Natural Resource Challenge, devoted to
  activities related to invasive and threatened and endangered species management. Estimated amount is derived
  from park base amounts contained in official NPS accounting system, adjusted to reflect portions of amounts
  identified against GPRA Goals (Ia1 and Ia2).
\8\ Primarily consists of ``uncontrollable changes'' (i.e., pay cost) and park specific increases (outside the
  Challenge) affecting natural resources. Small amounts of uncontrollable changes affecting base amounts in
  Natural Resource Challenge categories are included here. Uncontrollable changes to base have not been tracked
  in the Natural Resource Challenge numbers.
\9\ Oil Pollution Program and Geographic Information Program.
\10\ Includes Headquarters and Regional Office support
\11\ Comprised of the following three Program Components included as part of the Resource Stewardship Budget
  Subactivity in ONPS: Natural Resource Research Support; Natural Resources Management, and Everglades
  Restoration and Research.

                       HISTORIC PRESERVATION FUND
    Question. The budget request reduces many of the programs that 
received additional funds in Title VIII of the fiscal year 2001 
Interior bill. Unlike many of these programs, however, the activities 
supported by Historic Preservation Fund grants-to-states are not 
eligible for the modified Stateside grant program. As such, the budget 
proposes a very real $15 million reduction below the fiscal year 2001 
level.
    Is this reduction based on departmental views of program 
performance, relative needs, or on some other philosophical reason, or 
is this simply an instance of having to make reductions to meet overall 
budget constraints?
    Answer. Competing demands require prioritization of available 
funding. The Administration's highest priority for the NPS 2002 budget 
is to address the maintenance backlog that threatens the continued 
operation and enjoyment of our national parks and to provide full 
funding of the Land and Water Conservation Fund. Nevertheless, the 
Administration has revised its fiscal year 2002 Budget request to 
include a request for $30 million to continue the Save America's 
Treasures grants program.

                  RECREATION FEE DEMONSTRATION PROGRAM
    I note that the budget request assumes a four-year extension of the 
recreation fee demonstration program.
    Question. Does the Administration intend to submit an actual 
legislative proposal to extend the program? If so, when?
    Answer. The Department is currently preparing a legislation 
proposal for the recreation fee program. We will work closely with the 
Office of Management and Budget (OMB), and expect to provide this to 
Congress soon.
    Question. If no legislative proposal is to be submitted, does the 
Department intend to convey to the Committee through other means any 
specific recommendations as to whether and how the fee program should 
be modified if made permanent?
    Answer. The Department does plan to submit a proposal.
    While the authorities provided under the fee demonstration program 
are fairly broad, its primary purpose was clearly to reduce the 
maintenance backlog and provide enhanced visitor facilities. I am a bit 
concerned that fee demonstration funds may increasingly be being used 
for activities of a more ongoing, operational nature. While these 
activities may well be important priorities, there is a risk inherent 
in supporting them with revenues from a program that remains subject to 
annual reauthorization.
    Question. What, if any, is departmental policy in this regard? Do 
the individual bureaus have specific policies?
    Answer. The Department is committed to ensuring that recreation fee 
receipts are used for the purpose that Congress intended. The 
individual bureaus also have specific policies on how recreation 
demonstration fees can be spent. For example, the current NPS guidance 
to managers in the field specifically states that fee receipts cannot 
replace or supplement appropriated operations funding. The current 
policy of the BLM is that fee receipts should first be spent on 
reducing the maintenance backlog and improving existing facilities and 
programs. The current FWS policy emphasizes that fee receipts should be 
spent on projects that provide a visible benefit to the public; tied as 
closely as possible to the recreation fee that the visitor has paid. If 
a refuge cannot use its fee receipts in a manner directly tied to 
visitor use, deferred maintenance projects are the next priority for 
spending fee receipts.
    Question. Are fee demonstration revenues currently being used to 
support permanent FTEs within the various Interior bureaus? If so, how 
many and for what general purposes? What would happen to these 
positions if the fee demonstration program were not to be renewed?
    Answer. Fee receipts can be used to cover the cost of an approved 
project as well as the cost of collecting the fees. This includes the 
salaries of employees that are directly involved in collecting or 
supervising the collection of recreation fees. The bureaus have 
endeavored to ensure that fee receipts are spent on projects rather 
than on FTEs. Less than 20 percent of fee receipts are spent on 
collection operations.
    The NPS pays employees through the recreation fee program if they 
are directly involved in collecting fees, or if their labor is directly 
tied to the project. For example, temporary workers that are hired as 
part of a trail maintenance project would be paid through the 
recreation fee program. There are approximately 280 permanent FTE 
within NPS that are involved in collecting fees and are totally 
supported by recreation fees. While this number may appear large, it is 
important to note there are 137 NPS sites where recreation 
demonstration fees are collected.
    Within the BLM, any labor that directly supports a recreation fee 
project can be billed to the project; therefore some temporary workers 
are paid through recreation fee receipts. Recreation fee collection is 
generally a collateral duty of permanent staff, with only a portion of 
their salaries paid through the recreation fee program. BLM has 
approximately 4 FTE totally supported by recreation fees.
    The FWS charges recreation fee project costs in a similar fashion. 
There are approximately 7 FTE that are totally supported by recreation 
fees.
    Non-renewal of the recreation fee program would eliminate a source 
of funding for much needed projects that benefit visitors and would 
require base operational funding to cover the cost of collecting 
entrance fees.
    Question. As the fee program continues to help parks make progress 
against deferred maintenance and other project needs, will there be an 
inevitable pressure by parks to use more and more fee dollars to 
enhance ongoing operations?
    Answer. The NPS is reviewing these types of issues in consideration 
of extension of the program. The National Park Service's policy on 
spending fee receipts currently prohibits replacing or supplementing 
appropriated operations funding. In addition, the project approval 
process is designed to prevent a park from using fees to enhance 
ongoing operations. At a minimum, all projects must be approved at the 
regional level. All projects funded through the 20 percent funds 
(receipts that are divided among smaller parks) that have an estimated 
cost greater than $100,000 and all projects funded through the 80 
percent funds (fee receipts that can be retained by the collecting 
park) that have an estimated cost greater than $500,000 are reviewed by 
the Department, OMB, and Congress.
    The examples of fee demonstration projects provided in the annual 
report for the Fish and Wildlife Service include many outreach and 
education projects and programs.
    Question. Given the relatively small amount of fee demonstration 
funds available to the Service, why are these types of project a higher 
priority than more basic maintenance of visitor facilities or resource 
protection?
    Answer. While improving the visitor experience is a high priority 
for FWS fee managers, significant amounts of recreation fee receipts 
are spent on other types of projects. At the end of fiscal year 2000, 
10.8 percent of FWS recreation fee receipt obligations were for health 
and safety maintenance projects, 3.2 percent were for resource 
protection, 16.1 percent were for collection costs, 58.6 percent were 
for visitor services, and 11.3 percent were for ``other''.
    It is also important to note that many of the refuges that are 
demonstration sites do not generate the high level of receipts that 
would enable a refuge to undertake major maintenance recreation fee 
projects such as replacing a water treatment system.
    There is currently a set-aside within the 20 percent fund for 
conservation corps work and for ADA compliance projects.
    Question. Will these set-asides be continued?
    Answer. In 2001, the NPS set aside $5 million from 20 percent funds 
for accessibility projects at smaller parks. This was a one-time 
commitment, but that does not preclude that the commitment could be 
made again. Previous to this set-aside, NPS devoted recreation fee 
money toward accessibility projects, so it is likely that NPS would 
continue to do some accessibility projects if the set-aside were not 
continued.
    Recreation fees from the service-wide 20 percent funds have been 
set aside for Public Land Corps (PLC) for the past three years. These 
dollars are used as matching funds for small projects in parks. These 
projects are primarily deferred maintenance.
    The BLM and FWS do not have set aside programs.

                            BISON MANAGEMENT
    Question. When does the NPS expect to begin a brucellosis 
vaccination program for the bison in Yellowstone National Park?
    Answer. The Federal Interagency Record of Decision (page 26, Item 
6) states that the National Park Service is expected to initiate a 
brucellosis vaccination program of vaccination eligible bison inside 
the park with a (safe) and effective delivery system during winter 
2003-2004. This date is consistent with the timelines for expected 
completion of ongoing research on brucellosis vaccine (RB51) safety and 
efficacy, field-testing and validation of a vaccine delivery system, 
and NEPA compliance on the vaccine delivery system.
    Question. What delivery systems are being considered and when will 
a decision on the delivery system be finalized?
    Answer. The Federal Interagency Record of Decision (page 22) 
describes the need for ``a program for delivery of a safe and effective 
vaccine to vaccinate eligible bison inside Yellowstone National Park so 
as to decrease the risk of transmission of brucellosis and diminish the 
overall (prevalence) of brucellosis in Yellowstone bison.'' Consistent 
with the completion of ongoing research on brucellosis vaccine (RB51) 
safety and efficacy, during 2001-2003 the National Park Service is 
leading the development of a remote-ballistic vaccine delivery system. 
A remote-ballistic vaccine delivery system will utilize a biodegradable 
pellet (bio-bullet) that is fired at a distance of 30-50 meters from a 
compressed-gas or conventional rifled cartridge. The remote-ballistic 
vaccination delivery system will be simple, practical, and safe, and 
minimize to the degree possible disturbance of the natural and human 
environments of the park. A decision on implementation of the delivery 
system is expected in 2003.
    Question. What additional research, if any, needs to be completed 
before such a vaccination program can begin?
    Answer. Initiation of an in-park bison vaccination program in 
winter 2003-2004 is contingent on completion of two principal research 
programs being conducted jointly by the NPS, USGS/Biological Resources 
Division (BRD) and USDA/Agricultural Research Service (ARS). This 
research includes the completion of studies on the safety and efficacy 
of the RB51 brucellosis vaccine (expected completion in 2002), and 
refinement and field-testing of a safe and effective remote-ballistic 
delivery system (expected completion in 2002-2003). NEPA compliance and 
a decision to implement the delivery system are expected in 2003.
    Question. Are adequate funds included in the fiscal year 2002 
budget request to complete this research and begin implementation? Are 
other agencies within the Department of the Interior contributing to 
this effort? If so, what funds are being requested for these agencies 
and in what activities?
    Answer. The fiscal year 2002 NPS budget request includes 
continuation of funding to satisfy its interagency research and 
development responsibilities for an in-park bison vaccination program. 
The NPS is collaborating with USGS-BRD in research on the technologies 
(such as non-toxic biomarkers, biodegradable bio-bullets, delivery 
firearms) necessary for a remote-ballistic vaccine delivery system. A 
comprehensive interagency brucellosis research program under the lead 
of USGS-BRD operates under an August 2000 Memorandum Of Understanding 
(MOU) with the National Park Service and the U.S. Fish and Wildlife 
Service. Annual funding under this MOU is negotiated by each agency for 
a wide array of brucellosis related research projects (in fiscal year 
2000 the NPS funded $300,000 of the $850,000 total interagency 
contributions; fiscal year 2001 funding and work plans are being 
developed). The current USGS-BRD research plan shows a commitment for 
continuation of collaborative research on an in-park remote-ballistic 
vaccine delivery system through fiscal year 2003. The fiscal year 2002 
NPS budget request also includes a request for $1.2 million in funds 
for Yellowstone National Park to begin implementation of the bison 
vaccination program.
    Question. How are DOI's efforts being coordinated with USDA 
activities in this area?
    Answer. Coordination of DOI research efforts for an in-park bison 
vaccination program occurs through a MOU (August 2000) between the NPS, 
U.S. Fish and Wildlife Service, and U.S. Geological Survey. The NPS 
serves as the lead for planning and compliance for an in-park bison 
vaccination program. NPS staff are in regular contact with USDA-ARS 
staff on their efforts, testing, and evaluating of vaccine safety and 
efficacy. Coordination between DOI and USDA also occurs through 
interagency participation in the Greater Yellowstone Interagency 
Brucellosis Committee.

                   GRAND CANYON TRANSPORTATION SYSTEM
    Question. The Department is currently reviewing the proposed Grand 
Canyon transportation system pursuant to the requirements of the 
Omnibus Consolidated and Emergency Supplemental Appropriations Act for 
Fiscal Year 2001.
    What is the review? Are sources being consulted in this effort that 
were not consulted during development of the original plan? Is there 
significant new information now available that was not available during 
development of the original plan?
    Answer. The NPS is conducting a technical and financial evaluation 
of four alternatives to the light rail transit option the agency was 
prepared to release to bidders last November. The report on the 
findings will include the light rail option for comparison. All options 
include rubber-tired bus technology in a variety of roadway and station 
configurations. In addition, an evaluation of seasonal transit options 
and an examination of the viability of seasonal bus sharing with 
winter-peak transit operators will be included. The report is expected 
to be submitted to the House Subcommittee on Appropriations for the 
Interior Department in July, 2001.
    Two pieces of information spurred the requirement for this analysis 
and report. First, projections of visitation to the park were revised 
in 1999 based on six years of relatively flat visitation growth. Those 
revisions reduced the anticipated demand for transit in the short term 
and pushed high demand into later years. Second, there were questions 
in Congress and in the NPS about whether the light rail project would 
be economically viable for a private concessioner at a ticket price 
reasonable to visitors. The system was proposed for concessioner 
financing, to be operated over 20 years, and to be paid for on a per-
person basis by visitors. In order to keep ticket prices low, the park 
proposed to reduce its entrance fee. This created another problem in 
that it reduces the receipts available for the project. The new 
analysis will address these two issues, as well as a review of the 
previous analysis. As described below, NPS consulted with a wide 
variety of people and organizations with a great deal of knowledge of 
this industry.
    Question. Has NPS consulted with Wall Street investors about the 
viability of a privately financed rail project? Has it consulted 
potential bidders concerning the private sector's ability to eliminate 
or mitigate the Federal Government's economic risk in a privately 
financed project?
    Answer. In crafting the concession contract, the NPS consulted with 
KPMG Consulting to explore various funding options and perform the 
financial analyses necessary to proceed. Several bonding scenarios were 
explored through not-for-profit entities but none gave the NPS a level 
of comfort concerning the agency's ability to control the system's 
operation on Federal lands. Therefore, although at higher cost, a 
privately financed system was proposed. The NPS pre-qualified five 
bidding teams including a wide variety of industry-leading firms, in 
January of 2000. A draft Request for Proposal (RFP) was prepared and 
sent to the teams for comment in summer of 2000. Comments were 
incorporated and a final RFP was prepared by November 1, 2000. At that 
point the process was halted for the reasons stated above. Through 
informal channels, the NPS understands bidders were interested or even 
enthusiastic about bidding on the project. However, concerns over 
prices at the entrance station and substantially reduced entrance fee 
revenues remain.

                              CONSTRUCTION
    Question. The table on p. NPS-272 shows an fiscal year 2000 level 
of $18.845 million for recoveries of prior year obligations.
    What are the sources of these recoveries, either by project or by 
general classification? Is the level of recoveries shown for fiscal 
year 2002 typical?
    Answer. Recoveries result from obligations being incurred, then 
cancelled. On occasion, a contract for a project is awarded, the funds 
are obligated, and then the entire contract is cancelled. When the 
obligation in the accounting system is cancelled it counts as a 
recovery, even though a new contract is to be awarded for the same 
purpose. More often, recoveries are created when a contract is awarded 
and obligated for a fixed amount but completed for a lesser amount. In 
this case a recovery is recorded for the difference. These residual 
balances of funds are applied as needed to overruns on other projects 
or to cover emergency law and order/search and rescue costs in 
accordance with transfer authorities provided by Congress in annual 
appropriations bills. In fiscal year 2000, none of this money was used 
to cover emergency law and order/search and rescue expenses. Of the 
$18.8 million reported as recovered in fiscal year 2000, $5.0 million 
fell into the categories as described above. The largest share of the 
total reported resulted from making accounting corrections to 
obligations posted for reimbursable agreements. It is quite common for 
NPS to enter into reimbursable agreements for a fixed amount that 
proves to be in excess of the costs of executing the agreement. In 
fiscal year 2000 NPS accountants concentrated effort on cleaning up old 
reimbursable agreements and removing the portion of the obligation that 
remained unexpended. This transaction creates a recovery in the 
construction account where we capture all reimbursable activity. The 
NPS holds no residual funds as a result of this transaction, since the 
reimbursing agency provides reimbursement as actual costs are incurred. 
Examples of this type of funding include Title V and Title VI funding, 
which were appropriated to the Department rather than NPS, and Y2K 
funds. Total recoveries caused by these adjustments were $13.8 million 
in fiscal year 2000. The level for fiscal year 2000 will likely be 
repeated in fiscal year 2001 as the effort to clean up old reimbursable 
accounts is completed. In subsequent years, the total should remain 
small unless exaggerated by the effect of a cancelled construction 
project.
    Question. To what other projects have these recovered amounts been 
applied? How are these decisions made?
    Answer. In the case of true recoveries in a particular project 
account, the recovered funds remain in that specific account and are 
used for the original project for which they were originally 
appropriated. If the recovered amount represented a true savings (and 
not to be obligated again for the same purpose), the funds could be 
withdrawn and, in accordance with established policy, the savings used 
on other projects that have overruns. If the savings were large enough 
to meet the threshold for Congressional reprogramming, then a formal 
reprogramming action was initiated.
    Question. The Administration's commitment to reduce the deferred 
maintenance backlog is part of the justification for the increase in 
the construction budget. Which of the line item projects in the fiscal 
year 2002 request represent components of the deferred maintenance 
backlog?
    Answer. Of the fifty-seven line item construction projects in the 
NPS fiscal year 2002 budget request, fifty-three will help reduce the 
deferred maintenance backlog of the National Park Service if funded. 
Forty-five have been classified as rehabilitation work on facilities 
for which maintenance has been deferred, including the request for a $5 
million grant to the National Park Foundation that would match 
appropriated funds with non-federal monies to fund not yet identified 
NPS deferred maintenance projects. This also includes the Elwha River 
restoration project, which is a regulatory compliance project (Public 
Law 102-495).
    Eight others involve capital improvements to solve critical health 
and safety situations where repairing a deferred maintenance situation 
has been determined unworkable or inefficient. It is important to note 
that the following ``replacement'' requests are considered maintenance 
projects because the deferred maintenance needs for the replaced 
facilities will be eliminated: new utility systems at the mainland unit 
of Apostle Islands National Seashore; completion of the rehabilitation 
of the Monroe School at Brown v. Board of Education National Historic 
Site; replacement of the Flamingo wastewater system at Everglades 
National Park; construction of a safe bicycle/pedestrian path at 
Gateway National Recreation Area; construction of a marine maintenance 
facility at Glacier Bay National Park and Preserve; replacement of the 
Apgar water system at Glacier National Park; replacement of the 
maintenance facility at Tumacacori National Historical Park; and 
replacement of the collections storage facility at Yellowstone National 
Park.
    Of the four remaining requested line item projects, the 
modification of the water delivery system at Everglades National Park 
is the continuation of a project begun in fiscal year 1991 to save the 
Everglades ecosystem; the requests for Cape Hatteras National Seashore 
and Sequoia National Park are the completion phases of long term 
projects to protect resources, and; the Home of Franklin D. Roosevelt 
National Historic Site request is for the NPS share of a partnership 
project with the National Archives and Records Administration and 
donors to construct a joint visitor center/library.

                        OFFICE OF THE SOLICITOR
    Question. What is the current status with regard to staffing of the 
Office of the Solicitor in fiscal year 2001?
    Answer. The Office's current staffing level is 389 employees, 
including 343 funded by direct appropriation and 46 funded by 
reimbursable support agreements with the client bureaus. This level of 
staffing is expected to remain constant throughout the year.
    Question. What steps are being taken to ensure that the Office can 
continue its mission with the funds available?
    Answer. During fiscal year 2001, the Office is absorbing $1.4 
million in uncontrollable cost increases. The Office has curtailed 
travel and training, cutback expenditures for supplies, legal books and 
subscriptions, frozen promotions, and limited hiring to filling only 
critical positions. These actions alone, are not enough to offset the 
$1.4 million absorption and the Office will be charging the client 
bureaus for half of this year's indirect costs associated with the 46 
reimbursable positions. The Office will be able to continue providing 
quality legal services to the Department and its offices and bureaus.
    Question. Will staffing reductions be necessary?
    Answer. The Office does not foresee staffing reductions during 
fiscal year 2001.
    Question. Does the increase for fixed costs requested in fiscal 
year 2002 anticipate or assume any extraordinary actions that may be 
taken in fiscal year 2001?
    Answer. The Office's fiscal year 2002 budget request for 
anticipated adjustments in uncontrollable cost increases assumes 
funding for the same level of Office-funded staffing as fiscal year 
2001. The increase does not anticipate or assume any extraordinary 
actions in fiscal year 2001.

                   OFFICE OF INSPECTOR GENERAL (OIG)
    Question. The justification indicates that the Department intends 
to begin contracting for bureau financial audits rather than have the 
IG perform them in-house. How much does the IG estimate it is currently 
spending on these efforts by bureau?
    Answer. In March 2001, the OIG completed the fiscal year 2000 
financial statement audits of all Departmental bureaus and offices 
(except the National Park Service audit, which was conducted by KPMG). 
The OIG has begun oversight of audit work on the fiscal year 2001 
financial statements, which are being performed by KPMG for all 
Departmental bureaus and offices. It is estimated the OIG will incur 
approximately $5 million in costs by the end of fiscal year 2001--which 
includes completion of the fiscal year 2000 audit (from October 1, 2000 
through March 1, 2001) and providing oversight of the fiscal year 2001 
audit being conducted by KPMG, which has been awarded a one year 
contract to perform financial statement audits. This contract includes 
the option to renew up to four years. (See Enclosure 1 for costs by 
bureau). The OIG was reimbursed $1.6 million in fiscal year 2001 to 
offset its costs for performing this work.

        Bureau                                      Fiscal year cost \1\
BIA...........................................................  $692,366
USGS..........................................................   491,823
BOR...........................................................   652,956
BLM...........................................................   420,237
FWS...........................................................   594,733
OSM...........................................................   102,910
DO............................................................   392,233
MMS...........................................................   479,226
                    --------------------------------------------------------------
                    ____________________________________________________

    Bureau Subtotal........................................... 3,826,484
                    ==============================================================
                    ____________________________________________________
Consolidated Audit............................................   306,432
Cost for contract support.....................................   162,000
                    --------------------------------------------------------------
                    ____________________________________________________

    Subtotal--DOI fiscal year 2000 audit...................... 4,294,916
                    ==============================================================
                    ____________________________________________________
Estimate for oversight of first half of fiscal year 2001 Audit   682,322
                    --------------------------------------------------------------
                    ____________________________________________________

    Total Estimate for fiscal year 2001....................... 4,977,238

    \1\ Fiscal year 2001 COST--for 2nd half of fiscal year 2000 
financial statement audit PLUS oversight of fiscal year 2001.

    In order to answer the question as posed (i.e., amounts funded and 
expended during fiscal year 2001), we must address workload efforts 
that cover two fiscal year financial statement audits. A financial 
statement audit for a given fiscal year is conducted over the course of 
two fiscal years (e.g., the audit for fiscal year 2000 was performed 
between June 2000 to March 2001--or from the latter part of fiscal year 
2000 through the first half of fiscal year 2001). Unfortunately, this 
causes the answers to the Subcommittee's questions to be somewhat 
complicated. We are happy to discuss these answers further, if 
necessary.
    Question. Which of these are being funded directly by the IG and 
which are being funded through reimbursable agreements with the 
bureaus?
    Answer. The fiscal year 2001 audit, which began in early June, will 
be performed completely by KPMG and funded by the bureaus, including an 
equitable contribution from the OIG. The OIG will provide oversight for 
the entire audit, which will be completed March 1, 2002. For fiscal 
year 2001 (from June through September 30, 2001), the OIG estimates 
oversight costs to be $683,000.
    For fiscal year 2002, total financial statement audit oversight 
costs are estimated to be $1,484,000. This covers completion of the 
fiscal year 2001 audit and the start of the fiscal year 2002 audit.
    Question. By bureau, what amounts are included in the fiscal year 
2002 request (for each bureau) to support financial audits?
    Answer. The Department will provide this information for the 
committee.
    The Justification indicates that 10 FTEs currently supported by 
reimbursable agreements will no longer be supported in that manner, and 
that 5 of these FTEs would be supported with the $835,000 programmatic 
increase requested.
    Question. Do the remaining 5 FTEs represent a programmatic 
reduction?
    Answer. Yes, the remaining 5 FTEs represent a program reduction. 
The OIG will absorb costs associated with these FTEs by not filling 
audit positions vacated during fiscal year 2001.
    Question. With regard to the 5 FTEs that would be supported with 
the increase, what duties will they be performing?
    Answer. The 5 FTEs that we request to be added to our direct 
appropriation are FTEs that are currently supported through 
reimbursable agreements with the bureaus. These FTEs would be supported 
by the requested $835,000 and would reflect a transfer from our 
reimbursable authority to our direct appropriation, rather than a 
program increase. These FTEs would be used to support oversight of 
contractor work on the financial statement audits and program 
performance audits in areas identified by the OIG as the most serious 
management challenges facing the Department.
    Question. What is the process followed to allocate staff to 
particular ``discretionary'' audits?
    Answer. Discretionary audits are selected based on the Top 
Management Challenges the OIG identified for the Congress and the 
Department. These are areas that have been identified as the 
Department's most serious management and programmatic challenges. They 
provide the basis for prioritizing discretionary workload assignments. 
In addition, the OIG is committed to increasing its consulting services 
capacity, with the focus on taking a more proactive, problem-solving, 
solution-oriented approach to areas of significant concern with the 
Department. One of the primary objectives for Audits is to institute 
more short-term/quick response approaches to respond more effectively 
to Congressional and DOI management requests and to independently and 
expediently assess areas of concern, usually within a 60-90 day period. 
The purpose is to identify actions that Departmental management can 
take to improve operations and meet program objectives in a more 
effective and, if feasible, a less costly manner before major problems 
arise.

                        DEPARTMENTAL MANAGEMENT
    Question. No increase for fixed costs is requested for the 
Departmental Management.
    How will the Department absorb the increases required for pay and 
other fixed costs?
    Answer. The various offices within the Office of the Secretary will 
absorb the increases required for pay and other fixed costs by 
consolidating management functions, eliminating positions, and taking 
steps to reduce other costs, thereby realizing savings in salary, 
benefits, and support costs.
    Question. What will be the impact of a flat budget on general 
departmental management and oversight functions?
    Answer. Enactment of a flat budget will require that the Department 
take steps to reduce costs to accommodate $3.4 million in pay and other 
uncontrollable costs. The Department plans to implement organizational 
changes and eliminate vacancies in order to do this.
    Question. Does the budget make any assumptions regarding savings 
from appointed and Schedule C positions that may be unfilled for a 
significant portion of fiscal year 2001?
    Answer. No, the budget assumes that those positions will be filled 
during fiscal year 2001 and will be filled for the entirety of 2002.
    Question. Did the fiscal year 2001 request for Departmental 
Management make any such assumptions?
    Answer. When the fiscal year 2001 request was formulated, the 
Department made no assumptions regarding savings from position lapse in 
appointed and Schedule C positions. The Office of the Secretary will 
use any savings in fiscal year 2001 for one-time purchases to catch up 
on replacement of obsolete equipment in preparation for 2002.

                       OFFICE OF INSULAR AFFAIRS
                          COMPACT NEGOTIATIONS
    Question. What is the current status of renegotiation talks with 
the Federated States of Micronesia and the Marshall Islands.
    Answer. Talks with the Federated States of Micronesia have been 
ongoing for the past year. Progress is being made with significant 
agreement on conceptual aspects of future financial assistance, such as 
the use of sectoral grants and increased accountability. Talks with the 
Marshall Islands have not commenced. Talks were planned for September 
2001, but OIA understands there have been recent discussions between 
the State Department and the Government of the Marshall Islands about 
moving the talks to an earlier date in July.
    Question. When should this process be completed?
    Answer. Because of the two-year transition period provided for in 
the original Compact, there appears to be little incentive for the 
freely associated states to agree to implementation of a new financial 
assistance period before fiscal year 2004. Given this assumption, OIA 
believes it is imperative that talks be completed and a legislative and 
budget package be transmitted to Congress before the end of fiscal year 
2002. This would allow one year for the approval process and important 
planning and other preparation activities that must be completed prior 
to implementation.
    Question. What are the major issues remaining to be resolved?
    Answer. With respect to the Federated States of Micronesia, the 
major issue appears to be the level of assistance. This includes 
whether an inflation formula is incorporated into the agreement and the 
nature and extent of any trust fund to provide future long-term 
assistance. There are also issues that need to be resolved regarding 
continuation of certain Federal programs and services and possible 
changes to the immigration provisions of the existing Compact. With 
respect to the Marshall Islands, it is premature to define issues or 
areas of disagreement given that talks have not begun.
    Question. How, if at all, is the issue of Compact impact aid being 
considered in this process?
    Answer. Impact aid is somewhat tangential to the negotiations 
process, in that the State Department is not negotiating with the 
freely associated states the amount of impact aid for U.S. insular 
areas. It is, however, a part of the overall process in that the 
Administration is trying to identify new sources of funding for direct 
impact aid and modify current immigration policies and practices.
    Question. Have the views of Hawaii with respect to impact funding 
been reviewed during the renegotiation?
    Answer. Yes, the concerns of Hawaii and its desire for impact 
assistance have been considered as part of the overall negotiation 
process.

                           TOBACCO SETTLEMENT
    Question. The fiscal year 2000 Interior bill contained language 
that advanced almost $20 million to American Samoa. Part of this 
funding was contingent upon a financial plan being approved by the 
Department. How much of these funds have been released?
    Answer. The loan was divided into two parts. The first portion of 
$14.3 million was to pay creditors, at a discounted rate, who were owed 
money by American Samoa prior to April 1999. This money has been paid 
to American Samoa and passed on to the creditors. The remaining $4.3 
million was for implementation of a fiscal recovery plan. The plan has 
not yet been developed, so none of this money has been released.
    Question. For what purposes have these funds been expended?
    Answer. All funds expended to date have been used to pay creditors. 
The largest single group of creditors was health care providers, most 
of whom were located in Hawaii. Major payments were also made to the 
American Samoa Power Authority for past due government utility bills 
and to the General Services Administration for supplies and services 
provided to the American Samoa Government.
    Question. Has the issue of overdue payments to medical services 
providers in Hawaii been completely resolved with these funds?
    Answer. OIA doesn't feel comfortable saying the issue has been 
completely resolved. The loan only covered bills prior to April 1999. 
Between the loan and other action taken by American Samoa more than $10 
million was paid to medical providers, which OIA understands completely 
resolved all overdue payments prior to April 1999. Since April 1999, 
some additional medical referral debts have accumulated. The last 
figure given to OIA was approximately $800,000. OIA does not have an 
aging of those accounts so it cannot comment on how seriously some of 
the accounts may be overdue.
    Question. What is the status of the ASG's financial plan?
    Answer. The American Samoa Government has created and staffed a 
small office to deal with financial reform. It is our understanding 
that this office has the outline of a plan, but has not yet completed 
the document. OIA had encouraged ASG to have the plan completed by May 
2001.
    Question. Has the Department received the plan?
    Answer. No, the Department has not received the plan. The Office of 
Insular Affairs is trying to schedule a meeting with ASG officials the 
first week of June to discuss the status of the plan.
    Question. When is approval expected?
    Answer. Once OIA has the plan, it should be approved in less than 
30 days. The Department has also been directed to enter into a 
Memorandum of Understanding with the American Samoa Government 
regarding plan implementation, including benchmarks and reporting/
monitoring mechanisms. Work on this MOU can be done concurrently with 
plan approval and should be completed soon after approval of a final 
plan.
    Question. Language was also included in the fiscal year 2001 
Interior bill that requested the Department to assist ASG in 
identifying opportunities to diversify the economy. Has the Department 
been working with ASG in this regard?
    Answer. Yes, the Department is working cooperatively with the 
American Samoa Economic Development Commission and is also talking 
directly with officials from the American Samoa Government regarding a 
specific proposal.
    Question. What potential activities have been identified?
    Answer. The American Samoa Government is exploring the possibility 
of E-Commerce. The concept would be to create a business located in 
American Samoa with employees who either perform data entry services 
for large American or global businesses or receive and process 
electronic orders for supplies and services. The Department is 
discussing a technical assistance request from ASG for a feasibility 
analysis and development of a business plan.

                                ENEWETAK
    Question. Recently, the people of Enewetak atoll obtained a 
judgment from the Nuclear Claims Tribunal for over $350 million based 
on the damage caused from nuclear testing in the atoll. What is the 
Department's position with respect to this judgment?
    Answer. Article X of the Section 177 agreement of the Compact of 
Free Association states that the agreement constitutes the full 
settlement of all claims, past, present, and future of the government, 
citizens, and nationals of the Marshall Islands which are based upon or 
are related to the nuclear testing program, and which are against the 
United States. The Administration therefore considers this issue 
closed.
    Question. If this judgment is ultimately sanctioned by the U.S. 
courts what, if any, budget impacts would there be for the Department?
    Answer. Unless paid from the Department of Justice judgment fund, 
the impact on the Department of the Interior budget would be severe.

                   PRIOR SERVICE BENEFITS TRUST FUND
    Question. The Subcommittee remains concerned about the financial 
condition of the Prior Service Trust Fund. The Committee provided 
$700,000 last year to maintain the fund. What is the remaining corpus 
left in the fund?
    Answer. The trust fund administrator is independent and has no 
reporting responsibility to the Department. OIA understands, however, 
that there was a balance of approximately $2 million at the end of 
fiscal year 2000. Congress' appropriation of $700,000 would have then 
meant $2.7 million available at the beginning of fiscal year 2001. OIA 
further understands that current outlays are approximately $1.2 million 
annually. This would mean that the balance at the beginning of 2002 
will be approximately $1.5 million.
    Question. How much funding would be required to ensure that 
benefits maintain their current levels for the lifetime of the 
beneficiaries?
    Answer. OIA's understanding of the actuarial estimates is that it 
would require a current appropriation of approximately $23 million, or 
it could be funded annually for a period of approximately 40 years at a 
level that begins at approximately $1.2 million and gradually declines 
as the number of beneficiaries decreases.
                                 ______
                                 

              Questions Submitted by Senator Thad Cochran

                               CAT ISLAND
    Question. What is the current status of the National Park Service's 
appraisal of Cat Island, Mississippi, that was scheduled for review by 
the Service's Washington Office in March 2001?
    Answer. Public Law 106-554 authorized the acquisition, only with 
the owner's consent, of approximately 2,000 acres of land on Cat 
Island, Mississippi, for addition to Gulf Islands National Seashore. An 
appraisal obtained by the National Park Service is presently under 
review and has not yet been approved. Both the Boddie family and a non-
profit conservation organization have obtained independent appraisals 
of the property. In light of the landowners concerns regarding 
significant disparities among the values indicated by these appraisals, 
the NPS has asked its contract appraiser to reinspect the property. The 
updated appraisal report will be due 45 days after the reinspection of 
the property. A date for the reinspection has not been scheduled.
    Question. The Interior budget for fiscal year 2002 has included 
$2.0 million from the Land and Water Conservation Fund for land 
acquisition for Gulf Islands National Seashore. How much of this 
funding will be obligated for the purchase of Cat Island, Mississippi?
    Answer. The $2.0 million request for land acquisition funds in 
fiscal year 2002 for Gulf Islands National Seashore is for the purpose 
of purchasing 365 acres; 225 on Horn Island and 140 acres on Cat 
Island.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

                       BLACK CANYON WATER RIGHTS
    Question. I am concerned about the National Park Service's filing 
for quantification of the reserved water right for the Black Canyon of 
the Gunnison National Park. This filing was done in the waning days of 
the Clinton Administration after formal requests to work with the State 
of Colorado on this critical issue were ignored. As a result, their 
claim could wreak havoc on gold medal trout water, power production, 
recreation and this might even cause flooding in the town of Delta. 
Like I said, the previous Administration filed this claim, but you have 
inherited this problem and it seems that it is proceeding forward.
    Efforts to quantify this right go back to the 1980s and previous 
attempts have been far more realistic than this latest effort. 
Moreover, this unrealistic filing could have impacts on cooperative 
efforts to recover and delist endangered species.
    Had they taken just a little input from the State of Colorado, the 
Bureau of Reclamation, Western Area Power Administration (WAPA), BLM, 
and even their own staff at Curecanti, they would have never filed an 
application that would bring out this kind of opposition. But, the 
damage is done. I understand 383 Statement of Opposition have been 
filed, including one for the State of Colorado through its Water 
Conservation Board, State Engineer and Division of Wildlife.
     We know that your department did not file this claim while you 
were Secretary, but you are still in charge of the National Park 
Service. I have to ask, why did the Park Service ignore these 
stakeholders in filing this claim and have you talked to them about 
their actions?
    Answer. The NPS has been working with individual stakeholders, 
including the State of Colorado on this issue, for about 12 years. 
Although the law requires that the claim must focus on park purposes, 
input from stakeholders was considered so that effects on other river 
management concerns would be minimized. The Department has chosen to 
not withdraw the claim and believes that it can be used as a starting 
point for negotiations to formally identify stakeholders and make 
negotiations more focused and fruitful. Since the claim was filed, the 
Department bureaus, including the NPS, have met with the State of 
Colorado to begin the formal negotiation process.
    Question. Why did the National Park Service seek input from other 
federal agencies and then not include them in the claim that was filed?
    Answer. The Department of the Interior Solicitor used input from 
the Bureau of Reclamation, U.S. Fish and Wildlife Service, Bureau of 
Land Management, and Western Area Power Administration to make 
decisions about the claim. The claim includes the flow numbers and also 
language recognizing the authority of the Secretary of the Interior to 
restrict delivery of flows based on other river management needs such 
as Aspinall Unit and endangered fish needs.

                      MAINTENANCE BACKLOG IN PARKS
    Question. I am glad to see that you and the President are committed 
to decreasing the maintenance backlog in our National Park System. 
Where are you going to start geographically and what types of 
maintenance will the department do first.
    Answer. The Department's comprehensive 5-Year Maintenance and 
Capital Improvement Plan identifies maintenance needs throughout the 
Park System and is comprised of a prioritized listing of deferred 
maintenance projects. The fiscal year 2002 maintenance program for the 
National Park Service places highest emphasis on critical deferred 
maintenance needs in health and safety, resource protection, and bureau 
mission. We believe that addressing the priorities included in the 5-
year plan in a systematic manner is the most effective means of 
achieving our goals. Through this planning process, the Department will 
be able to present and convey a more consistent and credible view of 
its budgeted resources and capital investments, goals, needs, and 
priorities, and most importantly, results, to the Congress.

                            FIRE SUPPRESSION
    Question. Last year we had a terrible fire season, especially in 
the West. And there were times that we started to run low on retardant, 
tankers, personnel and other resources used to fight wildfires. Can you 
break down what this increase of funding is going to be used for?
    Answer. To address this shortage of firefighting resources 
President Clinton proposed, and Congress funded the National Fire Plan. 
This plan includes funds in fiscal year 2001 specifically to prepare 
for and ensure fire readiness to suppress expected fire activity during 
a ``normal'' fire season. In addition, the National Fire Plan included 
additional monies to increase firefighting capabilities to support 
large fire suppression activity that may occur. The President's fiscal 
year 2002 budget continues support for the National Fire Plan. The 
attached table indicates the types of personnel, equipment, and 
aircraft increases the DOI agencies are making to address fire 
preparedness needs and to prevent wildland fire fighting capability 
shortages during future fire seasons.
    The Department of the Interior's funding request in Wildland Fire 
Suppression was increased from $153,109,000 in fiscal year 2001 to 
$161,424,000 in fiscal year 2002. This additional $8,315,000 will be 
used to fund the increased cost of suppressing wildland fires 
especially in the wildland urban interface and in areas of increased 
hazardous fuel loadings.
    Additional information regarding the National Fire Plan and the DOI 
proposed action plan can be found at the Department of the Interior's 
National Fire Plan, Implementation Action Plan website: http://
www.nifc.gov/fireplan/index.htm
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. Does any of the funding go to remediating lands 
especially to help with erosion and discharges that can contaminate 
water supplies?
    Answer. The Department of the Interior (DOI) Wildland Fire 
Operations account includes funds for burned area rehabilitation. These 
funds are specifically designated for emergency rehabilitation and 
stabilization of federal lands damaged by wildland fires. The primary 
purpose of these funds are to: protect life, property, soil, water, 
and/or vegetation resources; prevent unacceptable on-site or off-site 
damages, including those resulting from erosion or discharge from 
burned areas; facilitate meeting land use objectives; and reduce the 
invasion and establishment of undesirable or invasive species of 
vegetation.
    The Presidents budget included a request of $20.0 million in fiscal 
year 2002 for burned area rehabilitation. These funds are used for 
rehabilitation treatments that may include such management practices as 
reseeding and revegetation, sediment control, drainage control, and 
protection from livestock and human use. Funds may also be used for 
repair of damaged structures such as fencing, wildlife/livestock 
improvements and other minor improvements essential to protecting 
resources and managing the land.

                           LAND ACQUISITIONS
    Question. As you know, Colorado has a few projects in your budget. 
Some are fully funded, which I want to thank you for, but others are 
not. Many of these projects will complete legislation that was 
previously passed, but we are now waiting for the proper funding to 
close the doors on these projects, like land acquisition funds for the 
Black Canyon of the Gunnison National Park and the Great Sand Dunes 
National Park. Will you work to obtain the adequate funds for these 
projects?
    Answer. In order to complete necessary land acquisition authorized 
by recent legislation regarding Colorado units of the National Park 
System, this Department has requested and obligated funds for such 
acquisition. Additional funds for such acquisition are included in the 
fiscal year 2002 budget request. The Department's efforts to complete 
these acquisitions will continue.
    Public Law 106-76, enacted October 21, 1999, provided authority to 
acquire an additional 2,500 acres for inclusion in Black Canyon of the 
Gunnison National Park in the State of Colorado. Since enactment of 
Public Law 106-76, the National Park Service has acquired interests in 
2,221.46 acres of land for addition to the park. The NPS fiscal year 
2002 budget request for land acquisition includes $200,000 to acquire 
an additional 120 acres for the park.
    On May 16th, the Department requested from the Appropriations 
Committees approval to reprogram $340,000 from prior year land 
acquisition funds to acquire the 120-acre Woodell tract at Black Canyon 
of the Gunnison National Park. The House has approved this 
reprogramming request.
    Federal acquisition of the Baca Ranch was authorized by Public Law 
106-530. The total cost of Federal acquisition of the ranch, located 
adjacent to Great Sand Dunes National Monument, will be $31.28 million. 
In fiscal year 2001, the National Park Service obligated $8.2 million 
towards the purchase of a portion of the ranch. The fiscal year 2002 
budget includes $2.0 million and funding to complete the acquisition 
will be sought in future years.
    The BLM's 2002 budget request includes $43.2 million for land 
acquisition. There are two priority projects in Colorado in the BLM 
request; Gunnison Basin ACE ($2.5 million), and Upper Arkansas River 
Basin ($1.5 million) that account for 9 percent of the BLM Land 
Acquisition request. The Department will work toward completing land 
acquisition priorities in areas within Colorado that have received 
special designation in a timely fashion that balances acquisition 
priorities across states.

                                  PILT
    Question. We all know that many local communities rely on PILT 
funds. Many smaller counties can be severely hurt if they receive a 
decrease in these payments. In the budget I see there is a decrease in 
these funds. There are a number of us that would like to see these 
funds restored. Can you commit to us that you will work with this 
committee to try and restore some of these funds?
    Answer. The Department of the Interior understands and supports the 
benefits that are derived by local communities from PILT funds. We will 
be pleased to work with you concerning PILT funding for fiscal year 
2002 within the overall budget constraints and competing priorities of 
the BLM and the Department.

                         INDIAN AFFAIRS ISSUES
I. Incentives for Tribal Contracting
    Question. ENCOURAGING SELF-DETERMINATION: one of the best ways to 
increase Tribal contracting and compacting is to provide the necessary 
start-up and administrative costs associated with the management of the 
contract. I see there is a small decrease in self-governance grants 
this year. I think we all agree that Tribal contracting is universally 
successful. Does this budget item mark a change in how the incoming 
Administration views Indian contracting?
    Answer. No, the budget proposal to not provide new funds in fiscal 
year 2002 for the Self Governance Shortfall (Grants), under the Non-
Recurring Programs subactivity, is due to the fact that this grant 
program has a carry over balance of approximately $600,000. This amount 
is estimated to be sufficient to meet the programmatic needs in fiscal 
year 2002.
II. Education Issues
    Question. OPERATIONS AND CONSTRUCTION: one of the key goals that 
you and I share is in educational improvement. The request includes a 
$16.5 million increase for school operations, and a modest $162,000 
increase for school construction. Given these numbers, is the 
Department ``on track'' to eliminating the backlog in Indian School 
Facilities by fiscal year 2006 as the President has indicated?
    Answer. The fiscal year 2002 Budget Request for the Bureau of 
Indian Affairs includes a total of $292.5 million for Education 
Construction, of which $122.8 million is specifically for replacement 
of six school facilities on priority list (as of January, 2001). With 
continued funding at the fiscal year 2002 level, the Department is ``on 
track'' to meeting the goal to eliminate the current repair and 
maintenance backlog by 2006.
    All BIA schools are included in the Bureau's Five-Year Deferred 
Maintenance Plan that addresses the present facilities backlog. The 
plan is being revised to include infrastructure replacement for 
deteriorated and unsafe utilities systems that include gas, water and 
electrical lines and associated systems support requirements. 
Additionally, the replacement school construction application process 
is in the final stages of revision for a Federal Register notice for 
solicitation of new applications which will result in the addition of 
replacement school construction projects to the national replacement 
priority list. The Bureau has intensified efforts to train construction 
grant officers, restructure and improve construction contracting 
capabilities, entered into interagency agreements with other Federal 
agencies to assist with construction project implementation, and 
improved its efforts to ensure project oversight and fiscal 
accountability.
    Question. SCHOOL BONDING: one of the legislative ideas that has 
surfaced is to complement Federal funds by authorizing the issuance of 
``Tribal School Construction Bonds'' to hasten the construction of 
Indian Schools. Do you support the concept included in this 
legislation?
    Answer. The Department has performed a preliminary review of S. 
243. In general, we would support the concept of Tribes issuing bonds 
for school construction. Other details of the bill, such as proposed 
tax credits for bond holders and Federal appropriations to defeat the 
principal of such bonds, require further assessment.
    Question. JOINT VENTURE: the fiscal year 2002 request provides for 
a ``Demonstration Program'' aimed at 50-50 Tribal-Federal Partnerships 
for the Construction of Schools. How many Tribes have requested 
participation in this Program?
    Answer. In fiscal year 2001, the Conehatta Elementary School for 
the Mississippi Band of Choctaw Indians is being constructed using 
funding under the demonstration program. The fiscal year 2002 request 
for the Bureau does not include continued funding for the demonstration 
program.
III. Law Enforcement
  --Tribal Courts.--The request includes a total of $13.1 million to 
        support 250 Tribal courts, and there are additional resources 
        appropriated to the Justice Department for Tribal courts as 
        well.
  --Training.--Through the Treasury/General Government Subcommittee, 
        which I chair, I have tried to get other Federal agencies to 
        include BIA and Tribal police staff in their training.
    Question. Can you determine and then report back to this Committee 
whether in fact existing inter-agency initiatives (such as the ``Gang 
Resistance Education and Training'' `GREAT') are successful for Indian 
programs and if not why not?
    Answer. The Bureau implemented the GREAT curriculum in school 
systems where gangs were being established. This program proved a vital 
and key instrument in decreasing gang-related crimes, violence, 
vandalism, and student/gang recruiting. In one community, gang-related 
incidents decreased from an average of 12 per school to zero. The GREAT 
program has provided Indian youth with alternatives to gangs and 
effective techniques to avoid gang involvement.
IV. Trust Reforms
    Question. ``COURT MONITOR'' APPOINTED: last week Judge Lamberth 
appointed Joseph Kieffer to be the Court Monitor for the Cobell v. 
Norton litigation and directed him to report back to the Judge. How do 
you interpret this appointment?
    Answer. The Department believes the appointment is a positive step 
in the trust reform efforts. The Federal District Court in Cobell v. 
Norton conducted a series of meetings with legal counsel for the 
Plaintiffs and Defendants during the end of March 2001 and the 
beginning of April 2001. On April 16, 2001, after the final such 
meeting, the Court conducted a status hearing on the record. At that 
hearing, the Court indicated that a Court Monitor would be appointed to 
help the Court deal with the questions presented in the case, including 
the Plaintiff's motion to reopen trial one (which involved the issue of 
trust reform). The Court also mentioned that assistance from a Court 
Monitor would help the Court with its heavy docket and trial calendar. 
Legal counsel for Plaintiffs and Defendants consented on the record to 
the appointment of Joseph S. Kieffer, III as Court Monitor. The ensuing 
written order dated April 16, 2001, provides that the Court Monitor is 
a representative of the Court and will serve for at least one year. It 
provides that the Court Monitor will ``monitor and review all of the 
Interior defendants' trust reform activities and file written reports 
of his findings with the Court.'' The reports will include summaries of 
Interior's trust reform progress. The Court Monitor is expected to 
issue an initial report to the Court after becoming acquainted with the 
issues in the case. The initial report is expected sometime this summer 
and will help the Court as to scheduling and the resolution of pending 
motions. The fees and expenses of the Court Monitor are to be paid by 
Interior.
    Question. TRUST SERVICES: there is some $44 million requested for 
Probate, Real Estate Appraisals, and related services, and there are 
millions more for the Office of the Special Trustee. There is a lot of 
``activity'' that seems to surround Indian trust reforms; but let me 
ask you: do you foresee a time in the immediate future where our 
collective efforts will be on settling the account balance 
discrepancies? How can we help you and the Indian Plaintiffs get there?
    Answer. There are two tracks to ``settling the account balance 
discrepancies'': The historical accounting along with the negotiation 
of a settlement with the Plaintiffs. DOI is pursuing an historical 
accounting that seeks to determine historical IIM account balances. 
Simultaneously, we are seeking discussions with the Plaintiffs' 
representatives to find a satisfactory basis that would limit 
litigation as well as the time required for a full accounting. The 
continued support of Congress to fund the necessary work to accomplish 
a satisfactory resolution to these matters is a significant help to 
this effort.
    Question. LEGISLATION TO ASSIST IN SETTLEMENT: would you find it 
helpful to have some legislation that seeks to find the best and most 
efficient method of determining the correct account balances?
    Answer. As Congress has required, the Department will present our 
plan for an historical account to the Appropriation Committees 
including the manner in which we believe that accounting can be 
accomplished and the resources that may be needed. Until this plan is 
prepared and given to Congress the question of any legislation that may 
be needed is best deferred.
    Question. HIGHER RATES OF RETURN: last session I co-authored a bill 
(S.739) aimed at getting tribal assets greater rates of return by 
investing in the Market. As we sort out account balances and the 
computer systems and all the rest, it seems to me we can do something 
to provide immediate relief to Indians. Do you have any views on this 
idea?
    Answer. The Special Trustee believes that changes to the law to 
broaden options for the investment of individual and Tribal monies 
should be considered. Currently, 25 U.S.C. 162a prescribes the 
investment policy of the government for these funds. Investments are 
limited, in most cases, to U.S. Government securities (Treasury and 
other agency issues) and insured deposits or deposits collateralized by 
U.S. Government securities.
    It is important to consider the negative impact on those accounts 
for certain beneficiaries where, for example, the cost of living change 
cannot be offset with investment over the long term in fixed income 
investments (bonds). The capability to use equities to offset the 
effect of inflation for long-term requirements is desirable. The 
Special Trustee would recommend a legislative change to provide for a 
prudent investment policy that protects the long-term beneficiaries 
against inflation impact.
    Question. WATER ISSUES: Madam Secretary, this year's request 
includes funding for Indian water settlements that were subject to 
negotiations between Tribes, the United States, States and other 
parties. As you know there is still a sizeable backlog in outstanding 
Indian land and water claims. One idea that has been proposed 
informally is to take these settlements off-budget' so that the 
programs within the Interior Department do not have to compete with 
land and water claims payments. What do you think of this idea?
    Answer. The Administration is committed to seeking discretionary 
funding for settlements once they are enacted. While I am not familiar 
with the details of the proposals, I understand that the Department has 
had discussions in the past with the Senate Budget Committee regarding 
proposals to move funding for settlements off Interior's discretionary 
budget. The Department would be willing to explore these ideas further. 
I believe that OMB and the Congressional Budget Office would also need 
to be brought into any such discussions because of the broad policy and 
budget implications of such a proposal.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                              STREAMLINING
    Question. Your budget request for the Department includes $57 
million in streamlining savings that you expect to ``create more 
efficient systems and processes without affecting program delivery.'' 
What processes and systems have you identified that would yield such 
significant savings and how much will you save from each one?
    Answer. The Department's Budget request for 2002 proposes $15.3 
million in streamlining savings and an additional $41.8 million in 
uncontrollable costs that will be absorbed by streamlining. In order to 
meet these goals, the bureaus and the Department's Offices are 
conducting reviews of administrative costs and staffing levels to 
identify inefficiencies and reduce redundancy and incorporating 
processes for working smarter. Savings will be realized through a 
combination of actions including reducing organizational layers, 
implementing contracting efficiencies, modifying grades of current 
positions, management downsizing, and eliminating extraneous positions.
    Specific examples of actions planned by the Department include: the 
NPS will save $6.1 million by reducing travel, exploiting new 
technologies, eliminating low priority vacancies, and additional 
efficiencies that are identified through the park business plan 
process; BLM will save $3.2 million in part by reducing headquarters 
travel and consolidating supplies procurement; FWS will save $3.5 
million by headquarters and regional consolidations, travel reductions, 
and other administrative savings; MMS will reduce its budget by $2.0 
million by reducing redundancy and inefficiency and by improving 
business processes; and the Department is planning to consolidate 
offices and eliminate layers of management.
    Question. Did you analyze the current systems and practices to 
determine that there is $57 million worth of overspending before you 
proposed these budget cuts?
    Answer. The streamlining savings proposed in the budget amount to 
only one-half of one percent of the Department's 2001 appropriation. 
The Department believes that savings of $57 million through cost 
avoidance and selective reductions are easily achievable within a $10 
billion budget.
    Question. Fuel prices could be substantially higher in 2002 than 
they are today. How can you promise travel cost reductions when energy 
prices, which are beyond our control, are in a state of flux, and 
specifically, how much do you propose to save with travel reductions?
    Answer. The travel reductions are within the mix of savings 
measures proposed in the 2002 budget and as such are only one component 
of the total cost reductions that the Department anticipates it will be 
able to accomplish. The proposed reductions in travel total $6 million, 
a reduction of three percent in travel budgets from the 2001 level. The 
Department is anticipating that it will be able to achieve the travel 
cost reductions, given the goals outlined in the President's energy 
plan that will result in reductions in energy prices.

                 NATIONAL CONSERVATION TRAINING CENTER
    Question. The National Conservation Training Center, located in 
Shepherdstown, West Virginia, is owned and operated by the Fish and 
Wildlife Service and is, by any definition, a world-class training 
facility. Since it opened its doors in October of 1997, more than 
25,000 people have gone there to improve their natural resource 
management skills. In addition to Fish and Wildlife Service employees, 
the Training Center serves individuals from many different 
organizations, coming from every state, and from over a dozen 
countries.
    The success of the Center, though, is dependent on the ability of 
the Department's employees being able to travel to West Virginia for 
the courses and programs offered. As such, I am concerned with two 
proposals that I fear could have a detrimental effect on the Center's 
mission. First, the budget request proposes to cut travel expenditures 
for the Fish and Wildlife Service by $1.5 million, and by $1.8 million 
for the National Park Service, which also sends employees to the 
Training Center. Secondly, under the guise of ``streamlining,'' the two 
bureaus have been told to find $9.6 million in undefined management 
cuts in their budget, and then to absorb $17.2 million in 
uncontrollable costs. That is an extra $26.8 million that would have to 
come from somewhere, and knowing that managers are reluctant to cut 
back their programs, I fear that much of that $26 million may come out 
of the travel budgets.
    Can you assure this committee that the substantial investment the 
taxpayers have made in constructing and operating the National 
Conservation Training Center will not be wasted?
    Answer. The U.S. Fish and Wildlife Service's National Conservation 
Training Center trains and educates natural resource managers to 
accomplish FWS' resource conservation mission of conserving fish, 
wildlife, plants, and their habitats, for the benefit of the American 
people. NCTC brings exceptional training and educational opportunities 
to FWS employees and others. NCTC is constantly full to capacity, and 
courses and workshops typically need to be scheduled one to two years 
in advance. The streamlining proposals in the 2002 budget are not 
expected to have any impact on the operations at NCTC. The travel 
reductions in the 2002 budget are expected to be achieved largely by 
reducing meetings and conferences, as opposed to reducing travel for 
training. The Department's land management bureaus recognize that a 
well trained, highly motivated workforce is critical to mission 
accomplishment.

                               STAFF CUTS
    Question. The Department of the Interior reduced its employment by 
7,500 since 1992. Your budget proposes to reduce employment by 1,707. 
Most of the reductions are proposed for the U.S. Geological Survey, the 
Bureau of Land Management, the National Park Service, and the Fish and 
Wildlife Service. I would like to know where these cuts will occur and, 
in particular, how many will be taken in West Virginia.
    Answer. The FTE reduction of 1,707 reflects the reduction in 
staffing from the levels that were originally planned for 2001. The 
Department's 2001 plans anticipated increased staffing based on the 
2001 appropriation which provided significant resources for on-the-
ground programs that are FTE intensive including wildland fire 
management, park operations, and Indian trust management. The 
Department scaled back its initial estimates for 2001 staffing by 1,132 
FTE assuming a reduced need for staffing with expanded use of 
contractual services and outsourcing, and elimination of extraneous 
positions that are not needed for program delivery. In effect, this 
portion of the staffing reduction will not result in cuts to on-board 
personnel.
    A further reduction of 575 FTE is proposed in the 2002 budget, 
which is distributed as follows: USGS (506 FTEs), Fish and Wildlife (53 
FTEs), National Park Service (100 FTEs), Departmental Management (25 
FTEs), and the Inspector General (5 FTEs). These estimated reductions 
are offset by estimated increases in the Minerals Management Service 
(39 FTEs), Bureau of Indian Affairs (64 FTEs), and Office of Special 
Trustee (11 FTEs).
    Given the effect of staff turnover and actions that are being taken 
in 2001 to limit staffing, the Department does not anticipate 
significant cuts in on-board personnel with the exception of the U.S. 
Geological Survey. USGS is currently evaluating staffing impacts of the 
2002 budget. At this time it is not possible to estimate how many 
employees might be affected and in what locations. The Bureau of Land 
Management, the Fish and Wildlife Service, and the National Park 
Service do not plan any staff reductions in West Virginia from fiscal 
year 2001 to fiscal year 2002.
    Question. Across the country, how many National Wildlife Refuges 
are currently understaffed, and by how many staff members? How many 
refuges have no staff at all?
    Answer. There are currently 2,648 personnel assigned to 535 refuges 
in the National Wildlife Refuge System (NWRS). There are currently 212 
unstaffed National Wildlife Refuges. FWS has no plans to staff over 
half of the unstaffed refuges. The President's budget includes funding 
for 2,839 full-time equivalent positions within the NWRS, and the 
Administration believes this is the appropriate staffing level.
    At the direction of the House Appropriations Committee, FWS 
examined essential staffing vacancies throughout the NWRS and provided 
a 1999 report that identified 1,475 essential staffing vacancies. The 
staffing study has been helpful in identifying NWRS staffing 
priorities, and since 1999, 125 of these positions have been filled. 
Additionally, the study has been useful in justifying the increase of 
33 refuge maintenance workers included in the 2002 budget request.

             FISH AND WILDLIFE SERVICE--ENDANGERED SPECIES
    Question. Please provide specific detail about the ``listing 
priority system'' that would be used by the Secretary under the listing 
language proposed in the Fish and Wildlife Service's budget 
justification.
    Answer. FWS would develop a science-based listing priority system 
to ensure listing actions that provide the greatest conservation needs 
are addressed first. There is a significant backlog of required listing 
actions that FWS needs to complete, including decisions about listing 
candidate species, responses to public petitions, final decisions 
concerning proposed actions, and critical habitat designations for 
already-listed species.
    FWS will develop the listing priority system through notice and 
comment in the Federal Register and anticipates publishing a notice of 
intent to develop the listing priority system early this summer. This 
NOI will likely include outlines of several possible science-based 
approaches to prioritizing all types of listing actions and will ask 
the public for comments on these alternatives, and request other 
possible approaches to prioritization. By September 30, 2001, FWS 
intends to publish a draft listing priority system, along with a draft 
work plan for the listing program in fiscal year 2002. This draft work 
plan would describe to the public how the listing priority system would 
work, based on the information available at the time it is prepared and 
will be provided for public comment. Through a pilot program with 
Sustainable Ecosystems Institute, FWS will also request peer review of 
the listing priority system. Based on this public and peer review, FWS 
intends to finalize the listing priority system by December 2001.
    No matter what priority system is developed, our listing work plan 
for fiscal year 2002 is already dominated by court-ordered actions. FWS 
is currently subject to numerous court orders that require work in 
2002, and additional requirements could result from the many ongoing 
listing deadline cases. FWS intends to comply fully with these court 
orders and settlement agreements.

               FISH AND WILDLIFE SERVICE--LAW ENFORCEMENT
    Question. No increase is proposed for Law Enforcement activities in 
the President's fiscal year 2002 budget request. Are additional funds 
needed to carry out the Service's law enforcement responsibilities? 
After the July class is in the field, will any vacancies--particularly 
high priority ones--remain unfilled? How many law enforcement officers 
will retire next year?
    Answer. The 2002 Law Enforcement Program budget provides adequate 
funding to perform the highest priority activities needed to protect 
the Nation's wildlife resources, including funding for plainclothes 
special agents, wildlife inspectors, and forensic scientists.
    FWS currently employs 195 special agents and 88 wildlife inspectors 
of the authorized strength of 253 agents and 94 inspectors. The 2001 
increase will enable the Service to hire 35 agents by late July. At 
that time, the agent force is expected to total 225. While this is 28 
fewer agents than authorized, no high priority agent positions will be 
vacant.
    FWS historically loses 10 to 12 agents annually to early 
retirement, resignations, termination, and other situations, excluding 
mandatory retirements. Four special agents face mandatory retirement in 
2002, and another 48 agents will be eligible to retire.

                      BISCAYNE BAY CAMPSITE LEASES
    Question. Madam Secretary, in the Conference Report accompanying 
Public Law 106-554, the 2001 Omnibus Appropriation Act, the Congress 
extended the leases for seven campsites at ``Stiltsville'' in the 
Biscayne Bay until March 31, 2001. The Congress expected that would be 
sufficient time for the National Park Service to assume occupancy of 
the houses. Within a month of your confirmation as Secretary the leases 
were extended for another year. Please explain you reasons for 
extending the leases?
    Answer. On March 30, 2001 the Department of the Interior and the 
Department of Justice reached a settlement agreement with the current 
leaseholders that provides the present Stiltsville leaseholders the 
right of continued occupancy until April 1, 2002, in exchange for their 
dismissing without prejudice the pending lawsuits against the 
Government. The agreement provides for them to pay $700 a year rent, 
maintain liability insurance, protect the park resources and meet other 
conditions during this time. If necessary, the agreement may be 
extended by mutual consent of the parties.
    This settlement agreement maintains the status quo and allows the 
National Park Service time to continue to develop a Stiltsville 
Management Plan, which will provide alternatives for public uses of the 
Stiltsville structures and will fulfill National Environmental Policy 
Act compliance requirements.

                       PAYMENTS IN LIEU OF TAXES
    Question. The PILT account received an increase of $50 million in 
2001 that the Department did not request for 2002. How much will West 
Virginia receive in 2001 and 2002?
    Answer. PILT is calculated under alternative formulas specified in 
the PILT Act, as amended for each county. A county's PILT payment is 
determined by factors such as changes in the amount of certain Federal 
land within a county, the amount of certain prior year Federal land 
payments received, changes in county population, and inflation 
adjustments to population and per acre values used in the formula. We 
are still in the process of accumulating the data necessary to compute 
the fiscal year 2001 PILT payments which will be made in September, and 
are therefore not able to determine what the specific PILT payments to 
West Virginia counties will be for fiscal year 2001. However, we would 
expect payments to West Virginia counties to be higher since the fiscal 
year 2001 budget for the PILT program is approximately $65 million or 
32.6 percent higher than in fiscal year 2000. We do not have sufficient 
information at this time to predict PILT payments for 2002. We would 
expect, however, that if less appropriated PILT funds are available in 
2002 than 2001, payments to West Virginia counties, and all counties 
nationwide, could be expected to be lower.

                              MAINTENANCE
    Question. I am equally concerned that the emphasis on National Park 
maintenance will mean that the Department is paying less attention to 
basic operations at our Parks and Refuges. I note, for example, that 
the National Park Service is proposing a program reduction of $1.6 
million for visitor services within the operations account, and while 
the Fish and Wildlife Service is proposing a $1.1 million increase in 
refuge operations, the fact is that money will be used to hire 
maintenance workers.
    Whether these amounts are slight increases or decreases, I think 
the important point here is that the operational budgets for these 
agencies are effectively stagnant. My concern is that we will put our 
energies into fixing up our visitor centers only to find that we do not 
have the staff to keep them open. Can you please tell the committee how 
you intend to balance these two Federal responsibilities, particularly 
in light of the fact that the Administration has been more than 
generous in its treatment of non-Federal grant programs?
    Answer. The budget contains a net operational increase of $79 
million. We believe that this budget provides the NPS with funding to 
cover its current commitments, as well as increases for high priority 
operational needs. These increases include: $35.7 million for the 
January 2002 pay increase, $20.0 million for the National Resource 
Challenge, $19.9 million for maintenance projects and management 
software, and $3.0 million for Everglades restoration. In addition, the 
budget contains over $4.0 million in base operational increases 
provided in fiscal year 2001. This recent infusion of funding will 
ensure that operational needs are met and are in balance with the 
fiscal year 2002 grant requests.
    The fiscal year 2002 budget contains sufficient funds to accomplish 
the core operational responsibilities at parks. It is anticipated that 
increased efficiencies through technology and streamlining will allow 
certain uncontrollable increased costs to be absorbed with minimal 
disruption of park operations. Funds may have to be shifted from park 
to park or within parks to accommodate the highest priority activities 
in resource protection and visitor services. The President has 
committed to a five year program to improve the infrastructure of the 
National Park System. Increased operating needs is a consequence of 
this initiative and added funding will be required in the future as the 
Service must staff and properly maintain these facilities. The NPS will 
evaluate these needs on a park-by-park basis.

                    LAND AND WATER CONSERVATION FUND
    Question. One of the President's campaign pledges was to fully fund 
the Land and Water Conservation Fund. The budget request your 
Department has sent to the Congress carries through on that commitment 
by seeking $900 million for land acquisition, a 66 percent increase 
over the fiscal year 2001 enacted level. The big story here, of course, 
is not the negligible rise in the Federal portion of the Fund, which is 
barely $500,000, but rather, the extra $360 million being sought for 
the state grant program, an increase, believe it or not of 397 percent. 
And that does not even include the additional $60 million the 
administration wants to hand over to the states out of the Federal half 
of the Fund.
    At the same time the states are hitting the jackpot, the 
administration is suggesting, among others, a cut of $47 million in 
abandoned mine cleanup, a $69 million cut in U.S. Geological Survey 
science programs, and a $35 million cut in Fish and Wildlife Service 
construction. All in all, the Department would cut $350 million from 
the current fiscal year, almost enough to pay for the increase in state 
LWCF grants.
    My basic question is this: Why is it necessary to provide an 
astronomical increase for a state grant program when we are clearly not 
meeting our Federal commitments in the areas of environmental cleanup, 
land management research, and basic operations and upkeep of our Parks, 
Refuges, and Forests?
    Answer. During his presidential campaign, President Bush promised 
the American people that he would reinvest in America's natural 
resources by fully funding the Land and Water Conservation Fund (LWCF) 
at its authorized level of $900 million, including 50 percent or $450 
million for State and local conservation efforts. The 2002 budget meets 
the President's commitment. It departs from the past practice of 
allocating funds to States in amounts and for purposes narrowly 
prescribed and proposes a new approach that gives States the ability to 
set their own priorities and address their needs for recreation, 
wildlife and wetlands conservation, and protection and recovery of 
threatened and endangered species. Although a four-fold increase in 
funding, States have expansive needs for recreational planning and 
wildlife and endangered species conservation as evidenced by the 
overwhelming number of requests that we receive for funding under 
existing programs.
    Question. Can you explain to this committee why the Congress should 
shortchange Federal responsibilities, some of which have a direct 
impact on the health and safety of the American people, so that the 
states can supplement their own recreation budgets?
    Answer. The Department believes the Administration is carrying out 
essential Federal responsibilities and is proud of its efforts this 
year both to address critical health and safety issues in the Bureau of 
Land Management, the U.S. Geological Survey, the Fish and Wildlife 
Service, the National Park Service, and the Bureau of Indian Affairs 
and to provide States with LWCF funds to address their locally 
identified needs. For example, the 2002 budget dedicates $440 million 
for the NPS maintenance backlog and includes $872.1 million for the 
DOI-wide Five-Year Plan for addressing critical health and safety and 
critical resource protection maintenance needs. The budget also funds 
BIA education at the $292.5 million.
    Across the country, States are enthusiastically responding to the 
public's interest in increasing the amount of open spaces for 
recreation and habitat use. Many States have recently passed new 
initiatives for preserving open spaces. In 2000, 174 of 209 ballot 
measures to fund open space protection were approved providing $7.5 
billion for land conservation. In the preceding two years, voters 
passed 90 percent of the 102 referenda (1999) and 84 percent of 148 
referenda (1998) authorizing more than $10.1 billion in local taxing 
authority and bonds for open space preservation. This is indicative of 
an increased capacity for local governments to identify recreation and 
open space needs, plan projects, and spend funds.

             NATIONAL ZOO CONSERVATION AND RESEARCH CENTER
    Question. I wish to ask you about an article that appeared recently 
on the front page of the Washington Post, titled ``A Preserve's Fight 
for Survival: Scientists Oppose Smithsonian Plan on Research Center.'' 
Among other things, the article describes the general criticism in the 
scientific community over a proposed plan by Smithsonian officials to 
close what many consider to be one of the finest biological research 
facilities in the world, namely, the National Zoo's Conservation and 
Research Center in Front Royal, Virginia. The article also notes that 
you personally visited the facility last week, and that officials at 
the Fish and Wildlife Service are engaged in preliminary discussions 
with their counterparts at the Smithsonian over ways to offer support.
    I have two questions about this matter: First, do you consider the 
Conservation and Research Center to be a top notch research facility 
worth saving, and secondly, would you update the committee on what the 
Fish and Wildlife Service is planning to do in terms of support, 
financial or otherwise?
    Answer. The Service believes that the Smithsonian Institution's 
Conservation and Research Center, a unit of the National Zoological 
Park, has an important role in national and international efforts to 
conserve endangered and declining species. The Smithsonian 
Institution's initial proposal to discontinue operations at the 
Conservation and Research Center created an opportunity for the 
Department to develop a partnership effort with the Smithsonian, 
States, universities, private conservation organizations and private 
donors to help the facility continue operating. The Department and FWS 
proposed to work with and assist the Smithsonian and National Zoo to 
maintain the facility as a private/public partnership. The Smithsonian 
Institution announced May 6, 2001, that it would withdraw its proposal 
to close the Conservation and Research Center.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

payment-in-lieu-of-taxes (pilt) and refuge revenue sharing funds (rrfs)
    Question. Overall cuts to the Interior Budget in fiscal year 2002 
are unfortunate, and, I believe, show a backsliding on Congressional 
commitments that our nation's lands and resources can ill-afford. Last 
year, this Congress finally passed long-awaited funding increases to 
public lands and conservation programs through Title 8 of the Interior 
Appropriations bill and provisions in the final Omnibus Appropriations 
bill. In the context of years of underfunding, it was difficult not to 
call last year's package an ``historic increase'' to Interior programs. 
Yet, in truth, these funds were really only Congress finally keeping 
its promises to our citizens to protect and manage their public lands 
and natural resources.
    Will you explain your decision-making process in cutting funding 
for PILT?
    Answer. The funding level for PILT proposed in the 2002 budget, 
although reduced, is still $15.6 million above the amount available in 
2000. The 2002 funding request excludes the additional increment of 
$49.6 million provided in Title VIII of the 2001 appropriations act. 
The Department of the Interior fully supports the intent of the PILT 
program to provide support to local governments that have Federally 
owned tax exempt lands located within their jurisdictions. The 
competing priorities required difficult choices to be made in compiling 
the 2002 budget request.

                USGS WATER RESOURCES RESEARCH INSTITUTES
    Question. With environmental quality issues, such as arsenic 
concentrations in groundwater, of such great concern to communities, 
Unites States Geological Survey (USGS) personnel and their combined 
understanding of geological, hydrological, and chemical processes, 
should be a key component in this administration's science-based policy 
decisions. Yet, despite this, the USGS is slated for serious cuts this 
year across the board in its geological, water, and biological 
divisions.
    Focusing on one of these cuts, I have heard that the Water 
Resources Research Institutes (WRRI) program may be discontinued by 
this Administration. I find any cuts to USGS, and especially cuts to 
such a successful USGS state partnership program for water quality 
science, alarming.
    In my own state, the Vermont Water Resources and Lake Studies 
Center has served citizens by funding research on major issues of 
concern to the state, by distributing information on water resources 
throughout Vermont, and by helping students learn more about water 
resources. Vermont's Water Center has studied critical policy issues 
related to agricultural water quality, mercury in Lake Champlain, 
alternative methods of wastewater treatment, and groundwater quality.
    This administration has pledged that it will base environmental 
decisions on sound-science. The removal of funding for USGS science 
related to the safety of our nation's ground and surface waters would 
seem to strongly undercut this pledge.
    Please explain the decisions that have led to the cuts, or the 
zeroing, of funds for the Water Resources Research Institutes program 
at USGS.
    Answer. The Water Resources Research Institutes program receives 
the preponderance of its funding through non-USGS sources. The 2002 
budget proposes to discontinue the USGS share based on the program's 
success in obtaining funding from other sources.
    Question. What assurances can you give me that the funds for such 
partnerships will be available for professional water quality 
scientists in fiscal year 2002--scientists whose data and knowledge are 
critically needed in communities around the Nation?
    Answer. No grant funds will be available from the USGS budget for 
professional water quality scientists outside USGS in fiscal year 2002. 
A number of Water Resources Research Initiatives have been extremely 
successful in obtaining non-USGS funding to support their research 
projects. Some Water Resources Research Initiatives may continue to 
find other sources of funding based on their past success.

                     PARTNERS FOR WILDLIFE PROGRAM
    Question. There is a critical need in Vermont to restore waterways 
and create sustainable, healthy ecosystems for aquatic life and public 
health. Increasingly, our waters are being threatened by urban 
development and contaminated run-off and Vermonters want a long-term 
plan to safeguard this precious resource. Your Department's Fish and 
Wildlife Service has played a key role in confronting, and solving, 
state water quality issues--especially with a completely voluntary and 
extremely popular program: Partners for Wildlife. In the past two 
years, the Partners for Wildlife program has helped Vermont complete 
over 50 habitat restoration projects, most of which directly addressed 
water quality. These projects included installing fencing to keep 
livestock out of streams, stabilizing streambanks, and creating in-
stream habitat in the Lake Champlain watershed. Nationally, the 
Partners for Wildlife program has had wait-lists of over 2000 private 
landowners. In Vermont, there are already several hundred landowners in 
line. I am concerned to see a $5.5 million cut in this program in your 
fiscal year 2002 budget.
    Given the need for voluntary, incentive-based water quality 
programs for private landowners and the incredible popularity and 
success of the Partners for Wildlife program, please explain the fiscal 
year 2002 cut and whether you would support stronger funding for this 
program in the final appropriations bill.
    Answer. The 2002 President's Budget request for the Partners for 
Fish and Wildlife Program eliminates Congressionally earmarked funds 
that are listed under the Partners for Fish and Wildlife line item that 
are not associated with the program. Most of these items are pass-
through funds to other agencies or organizations, do not benefit the 
program, nor does their elimination adversely affect the program. The 
Partners program also included a streamlining reduction of $48,000 as 
part of a Service-wide initiative to reduce redundant and inefficient 
work. These reductions amount to $6,038,000. The program reductions are 
offset by an increase of $520,000 for uncontrollable salary costs, 
resulting in a net reduction of $5,518,000 from 2001 and about the same 
funding level as 2000.
    The 2002 request will allow the Partners for Fish and Wildlife 
Program to continue to work one-on-one with private landowners, on a 
voluntary basis, to restore wetlands, streams, native grasses, forests, 
and other habitats on private lands. FWS would provide landowners with 
restoration designs, implementation assistance, and cost-sharing. The 
Program works in concert with agricultural and silvicultural producers 
to create a mosaic of working lands and habitats for fish, wildlife, 
and people. The 2002 budget also includes a new $50 million landowner 
incentive program that will provide matching grants to States for 
assisting private landowners in protecting and managing habitat for 
imperiled species.

            LAKE CHAMPLAIN FISH AND WILDLIFE RESOURCE OFFICE
    Question. Considerable pressure is growing in Vermont to speed up 
the timeline for restoration of Lake Champlain. In particular, the 
sportfishing community is pushing to prioritize the recovery of lake 
sturgeon and ``landlocked'' salmon. Fisheries Resource Office funding 
is greatly needed as this facility has had a consistently declining 
budget since 1993. Level, or increased, funding is needed in fiscal 
year 2002. When we passed the Lake Champlain Special Designation Act of 
1992, one of the most important issues was restoration of native fish 
and wildlife habitat, and the Fish and Wildlife Service made a 
commitment to be a lead federal partner in the Lake Champlain Basin 
Program.
    Please explain how the Fish and Wildlife Service intends to fully 
meet its commitment to the Lake Champlain Basin Program in fiscal year 
2002 and in years ahead.
    Answer. At the 2002 President's request level, FWS expects to 
provide funding to support the FWS Lake Champlain Fisheries and 
Resource Office at about the 2001 enacted level. While the Lake 
Champlain Fish and Wildlife Resources Office base fisheries' budget had 
declined from 1993 to 2000, it was increased in 2001 to 1993 levels. 
Additionally, the Service has increased the Office's Partners for Fish 
and Wildlife Program (habitat restoration) budget from $5,000 in 1993 
to $165,000 in 2001.
    When Congress passed the Lake Champlain Special Designation Act in 
1992, FWS committed to becoming the lead federal agency in the 
restoration of native fish and wildlife species and their habitats 
within the Lake Champlain Basin. As part of FWS's commitment to 
participate on high priority action items identified in the Lake 
Champlain Management Plan (LCMP), the Lake Champlain Fish and Wildlife 
Resources Office works with numerous federal agencies, States, tribes, 
and locally-led conservation groups on a variety of initiatives 
directed at restoring Lake Champlain.
    Specifically, FWS will meet its commitments by focusing efforts on 
restoring landlocked Atlantic salmon and controlling sea lamprey. 
Preliminary results of an experimental sea lamprey control program 
confirmed that fish populations can be improved. FWS found dramatic 
reductions in larval and adult sea lamprey numbers and significant 
reductions in lamprey wounding and scarring rates on landlocked 
Atlantic salmon and lake trout. FWS will continue work to restore 
imperiled species such as lake sturgeon, considered endangered and 
threatened by the States of Vermont and New York, respectively. FWS 
will also cooperate with the Vermont Department of Fish and Wildlife to 
assess sturgeon population status and habitat needs in Vermont's 
portion of Lake Champlain. FWS will continue to evaluate this program 
against other priorities in the development of future budgets.

           MARSH-BILLINGS-ROCKEFELLER NATIONAL HISTORIC PARK
    Question. During its first summer of operation, the Marsh Billings 
Rockefeller National Historical Park received almost 30,000 visitors. 
This is the only national park in Vermont and is not only extremely 
popular, but has also become a unique education and outreach center for 
sustainable forestry practices at the National Park Service 
Conservation Study Institute. Current resources are stretched thin to 
meet both the increasing visitation to the park and to maintain the now 
nationally recognized Conservation Study Institute for sustainable 
forestry.
    I would like to know how the National Park Service will support and 
encourage this type of community educational partnership as it 
continues to grow in popularity?
    Answer. Marsh-Billings-Rockefeller National Historical Park opened 
to the public in June 1998 and in August 1999 the park opened the newly 
rehabilitated 10,000 sq. ft. Carriage Barn Visitor Center that includes 
exhibits on conservation history and stewardship, conferencing and 
educational spaces, and museum storage. There were 46,289 visitors in 
2000 (a two year increase of over 100 percent). In 2000, the park 
produced and distributed its unigrid brochure. In 2001 the park will 
expand its presence on the Internet.
    The Conservation Study Institute, based at the park, was 
established by the National Park Service to develop model conservation 
education programs and to provide technical assistance on best 
practices for resource stewardship and environmental leadership. These 
programs fill a critical need for maintaining and enhancing effective 
stewardship of national parks that relies upon leadership, an informed 
public, and collaboration through partnerships. The institute works in 
partnership with the park, the University of Vermont, Shelburne Farms, 
and others to develop conservation educational curricula focused on 
natural resources, cultural heritage, and sustainable practices, with 
an emphasis on forest stewardship.
    Nonprofit organizations, State and local agencies, and academic 
institutions are approaching the park and the Conservation Study 
Institute indicating a desire to partner in new public programs and 
services. To date, programs developed and conducted by the park and the 
institute have been very successful and the Park Service will continue 
to encourage and support these efforts. The fiscal year 2002 budget 
proposes $1,598,000 to fund the Park and support these efforts, an 
increase of $22,000 over the fiscal year 2001 level.

                    SILVIO O. CONTE EDUCATION CENTER
    Question. Last year, the Nationally-recognized Montshire Museum of 
Science in Norwich, Vermont developed a unique cooperative agreement 
with the Fish and Wildlife Service to construct a new wing dedicated to 
public education about the Silvio O. Conte Refuge land of the entire 
Connecticut River watershed. With $2.9 million in federal funds 
allocated to this project over the past three years, the private-public 
partnership was forged, the architectural design for the site was 
completed, and ground was officially broken for immediate construction. 
Since the first estimate of costs three years ago, the Fish and 
Wildlife Service has learned that the final estimate leaves the new 
educational wing short of building and exhibits funding by 
approximately $750,000.
    Will your agency agree to finish construction at the Vermont Conte 
Education Center as initially intended by Congress, thereby finishing a 
world-class public facility that will share long-term costs with its 
private partner?
    Answer. This project is not included in the Fish and Wildlife 
Service's 2002 Construction Appropriation request or FWS' five-year 
construction plan. All appropriated funds to date have been passed 
through FWS to the private-public partnership which is fully 
responsible for overseeing the design and construction of this 
facility. This project is a 10,000 square foot addition, named for the 
late Leonard Rieser, former Montshire Board Chair, to the existing 
Montshire Museum of Science, Inc., a non-profit corporation that is 
designated a Conte Education Center, as defined by the Silvio O. Conte 
National Fish and Wildlife Refuge Act. The Leonard M. Rieser learning 
Center will help provide new opportunities to expand the natural 
history public education role the Montshire Museum has played in 
Vermont for 25 years. The 2001 Interior Conference Report directed that 
the amount provided in 2001 of $1,512,000 would complete the FWS 
commitment to the project, and additional funding should be 
accommodated with non-DOI funding. At that time, it was estimated that 
there was a $526,000 shortfall in the project.
                                 ______
                                 

               Questions Submitted by Senator Harry Reid

                       FISH AND WILDLIFE SERVICE
    Question. Do you agree that efforts to prevent the decline of 
species pay dividends in the long run?
    Answer. Yes. When conservation is initiated early for a species, 
simpler, more cost- effective conservation options are more likely to 
still be available; conservation is more likely to be successful; 
potential land use or resource conflicts that may be caused by listing 
may be avoided; and flexibility for landowners can be maintained. The 
Candidate Conservation Program funds federal efforts to achieve these 
benefits by working collaboratively with States, territories, federal 
agencies, and the private sector to conserve candidate species and 
other species at risk. The costs of implementing the Candidate 
Conservation program are far outweighed by the savings realized in the 
Listing, Consultation, and Recovery programs.
    The President's budget for 2002 also provides additional funding to 
increase the capability of States and landowners to participate in 
early conservation efforts. Under the Land and Water Conservation Fund, 
the President's budget proposes a new $50 million Landowner Incentive 
Program Grants to States. These funds will be used by the states 
through a matching grants program to provide technical and financial 
assistance to private landowners to help them protect and manage 
habitat for the benefit of federally listed, proposed, candidate, or 
other imperiled species. Also under the Land and Water Conservation 
Fund, the President's budget proposes a $10 million Private Stewardship 
Grants Program to provide grants and other assistance to individuals 
and groups engaged in private conservation efforts that benefit 
federally listed, proposed, or candidate species, or other at-risk 
species.
    Question. Do you believe that federal agencies have a 
responsibility to help recover endangered species--particularly in 
states like Nevada that have lots of federal land?
    Answer. Yes. Sections 2 and 7 of the Endangered Species Act 
provides a clear mandate for federal agencies to seek to conserve 
endangered and threatened species and the ecosystems upon which they 
depend, and to utilize their authorities in furtherance of the purposes 
of the ESA. Federal participation in endangered species conservation is 
particularly critical in areas of our country where one or more federal 
agencies are the principal landowners, such as Nevada.
    Question. Are you familiar with the Nevada Biodiversity Initiative 
and the ongoing efforts to recover the Lahontan cutthroat trout in 
northern Nevada?
    Answer. Yes. The purpose of the National Biodiversity Initiative 
(NBI) is to provide the framework for cooperation and participation 
among signatory agencies to conserve biological resources and maintain 
ecosystem integrity throughout the State of Nevada. This effort is 
designed to prevent future listings under the Endangered Species Act of 
species at risk in Nevada and to assist in recovery of species that 
have already been listed.
    The Fish and Wildlife Service, in partnership with tribes, other 
federal and State agencies, researchers, and interested stakeholders, 
has formed two Recovery Implementation Teams (RIT) for the Lahontan 
cutthroat trout. These teams are focused on the Walker River and the 
Truckee River Basins. These basins drain into two unique terminal 
saline lake systems, Pyramid and Walker Lakes where record size 
Lahontan cutthroat trout once thrived. There are only five such 
ecosystems found in the world. The RITs are using cutting edge science 
to develop phased recovery implementation actions that have been 
identified in ecosystem-based plans. These actions, and the monitoring 
efforts that follow, will assist management agencies with refinement of 
recovery strategies through adaptive management techniques, and ensure 
that activities identified are expediting recovery of the species.
    FWS has also formed a Lahontan cutthroat trout Management Oversight 
Group, composed of federal, State and tribal leaders, to support trout 
recovery efforts. The Group meets regularly to discuss the Lahontan 
Cutthroat Trout Recovery Plan Draft Revision. The revised plan uses 
current biological information to update recovery goals for the Walker 
and Truckee River basins and fluvial networked populations. The Group 
provides the forum for the various management agencies and tribes to 
work together to resolve differences regarding recovery of Lahontan 
cutthroat trout. Through this collaborative effort recovery of the 
species will be focused and coordinated to better direct limited 
resources toward achievable recovery activities.
    Question. Do you share my view that the Nevada Biodiversity 
Initiative and Lahontan cutthroat trout restoration efforts represent 
important and cost-effective ways to conserve our natural resources as 
required by law?
    Answer. The Nevada Biodiversity Initiative and Lahontan cutthroat 
trout restoration efforts are indeed important conservation actions. 
These initiatives have fostered cooperation and partnerships among 
federal agencies, State and tribal governments, and other interested 
groups. These partnerships have helped to provide cost-effective and 
timely ways to conserve natural resources, and have limited duplication 
of effort by the many land management agencies in Nevada.
    Question. Will you work with me to ensure that this important work 
continues to receive the funding it deserves?
    Answer. The Administration will work to ensure that critical 
natural resources in Nevada, particularly Lahontan cutthroat trout, are 
conserved and restored. Partnership conservation efforts will achieve 
this goal and the FWS will continue to work diligently with the State, 
other federal agencies, tribal governments, organizations and 
individuals to achieve conservation goals in Nevada.
    Question. The President's budget substantially cuts the ESA section 
6 account, which is the account that provides funding to states 
specifically earmarked for species conservation. To compensate for 
these cuts, the budget proposes authorizing state-side Land and Water 
Conservation Fund monies for species conservation and a wide variety of 
other purposes. Each state would choose whether to fund species 
conservation or spend the money elsewhere.
    Can you tell me what will happen if some states chose not to fund 
species conservation initiatives even though they have major Endangered 
Species Act challenges?
    Answer. States have expansive needs for both recreational planning 
and wildlife and endangered species conservation as evidenced by the 
overwhelming number of requests that the Department receives for 
funding under existing programs. States care about protecting unique 
and special resources, and the Department needs to fully take advantage 
of the expertise States have in determining the most effective way to 
spend conservation dollars. While the 2002 budget proposal does not 
mandate that States allocate specific proportions of funding to enhance 
recreation, conserve wildlife habitat and endangered species, and 
protect wetlands, the Department is confident that States are capable 
of determining an appropriate balance between these competing needs 
that will provide appropriate levels for supporting species 
conservation.
    Question. What is your backup plan for ensuring that the important 
federal purpose of recovering threatened and endangered species will 
somehow be implemented?
    Answer. The President's Budget includes a balanced program that 
provides resources to support Federal, State and private conservation 
efforts. All of these entities must work to achieve threatened and 
endangered species conservation; the Federal government, working alone, 
will not be successful. The President's 2002 budget provides States 
with guaranteed amounts through formulas under the National Park 
Service's Land and Water Conservation Fund State Assistance program to 
enhance recreation, conserve wildlife habitat and endangered species, 
and protect wetlands. The budget for the Fish and Wildlife Service's 
Cooperative Endangered Species Conservation Fund is proposed at $54.7 
million, more than double the 2000 enacted level. By maintaining this 
program at a significant amount over historic funding levels, federal 
priorities for endangered and threatened species conservation will be 
addressed. The budget also proposes a new $50 million landowner 
incentive program that will provide competitive, matching grants to 
States to establish or supplement landowner incentive programs that 
provide technical and financial assistance to private landowners for 
the protection and management of habitat; and a new $10 million Private 
Stewardship Grants program to provide grants and other assistance to 
individuals and groups engaged in private conservation. Both of these 
programs will support efforts that benefit federally listed, proposed, 
candidate or other at-risk species. Grants will be awarded on a 
competitive basis; this will help ensure Federal priorities are 
addressed.
    Question. Doesn't this proposal place the Department in even 
greater jeopardy of failing to fulfill its endangered species mandate, 
particularly with regard to recovery planning?
    Answer. No. As noted above, the 2002 budget provides a balanced 
endangered species program, providing resources for not only federal 
efforts, but State and private efforts as well. Participation by all 
these groups is critical to the success of the endangered species 
conservation efforts. Additionally, this proposal will not affect FWS's 
recovery planning capability since recovery planning activities are 
funded out of its general recovery program. In fact, by expanding the 
States' capabilities to participate in implementation of recovery 
actions for listed species, the budget encourages States to increase 
their involvement in recovery planning. FWS believes it is fulfilling 
its endangered species mandate with regard to recovery planning; 
currently, 88 percent of species listed 2\1/2\ years or more have final 
recovery plans, and FWS's goal is to increase this to 98 percent by 
2005.
    Question. In the budget, you propose to effectively prohibit 
citizens from suing to force Interior to put new species on the 
endangered species list or to sue to force Interior to designate 
critical habitat for species. I understand that the argument for this 
rider is that Interior faces a backlog of work in these areas--to the 
extent that your predecessor estimated that the total cost of doing 
this work amounts to $80 to $120 million.
    Wouldn't another and better way of dealing with this be to 
substantially increase funding for listings and critical habitat?
    Answer. The President's budget does increase funding for listings 
and critical habitat. The President's budget attempts to balance 
limited resources with the needs of the Nation. It strengthens and 
reforms education; preserves and protects Medicare and Social Security; 
strengthens and modernizes the military; improves heath care; and 
protects our environment. In this context, the 2002 listing budget is 
increased by 34 percent over 2001, for a total of $8.5 million. In 
conjunction with proposed appropriations language, the Administration 
believes that the proposed funding level is appropriate to meet court-
ordered and court-approved settlement agreements for listing actions, 
as well as additional listing actions determined through a rational 
priority system. The previous Administration requested more modest 
increases between 1999 and 2001, none of which were approved by 
Congress. The 2002 budget includes a balanced ESA program that provides 
increased funding for ESA listing, as well as other FWS programs, that 
will assist in recovery of imperiled species, and conserve other 
species before they become imperiled, such as the new $50 million 
landowner incentive program and the new $10 million private stewardship 
grant program.
    Question. Can you tell me how many controversial species were 
listed and how many controversial critical habitat designations were 
undertaken solely as the result of Interior Department's own 
initiative, rather than being driven by citizen suits or the threat of 
one?
    Answer. Regretfully, it is not possible to answer this question. 
Nevertheless, FWS has some data on the status of litigation at the time 
of species listing, and in the past has listed species through means 
other than citizen suits. For example, in fiscal year 1999, 12 of the 
45 species listed were under litigation at the time FWS published the 
final listing. In fiscal year 2000, 27 of 38 species listed were under 
litigation at the time published the final listing.
    On the other hand, deadline-based citizen suits have largely driven 
critical habitat designations. However, the controversy associated with 
critical habitat designations was not the reason they were not 
initiated. Rather, it was their high costs in relation to the 
relatively low benefits associated with a designation. Given the 
limited funding available for the listing program, and the large number 
of species in need of listing action, FWS had sought to focus efforts 
on other listing actions that provide greater conservation benefits, 
for example, listing a species so that it can be afforded protection 
under the Act.
    Question. Would you agree that oftentimes when we delay listing 
species we end up making it more difficult to save them because 
conservation options are foreclosed during the delay as species further 
decline?
    Answer. Yes. In some cases listing delays do affect species' 
recovery. This is particularly the case when listing under the Act is 
the principal means to initiate action to address threats to the 
species survival. Without the additional resources requested in the 
President's Budget, and the ability to hold to a biologically based 
priority system in 2002, final listing decisions will likely be delayed 
for the 39 species that are currently proposed for listing. Similarly, 
FWS will be further delayed in proposing to list candidate species as 
threatened or endangered species (there are currently 235 candidate 
species nationwide). As a result of existing court orders and 
settlement agreements, the resources required to complete critical 
habitat designations has substantially reduced the number of species 
that will be listed or proposed in 2001. In 1998, 90 species were 
listed; in 1999, 67 species were listed; and in 2000, 57 species were 
listed.
    Question. Would you agree that citizen enforcement of our 
environmental laws is a critical principle designed to ensure that 
administrative agencies are forced to implement the law in politically 
difficult situations?
    Answer. Yes, citizen suit provisions are an important component of 
environmental statutes, and citizen enforcement plays an important role 
in preserving the Nation's natural resources. In addition, ESA provides 
an important tool through the petition process that allows citizens the 
opportunity to identify species that need to be listed through an 
administrative process. Nearly all of the 2001 listing program is 
directed by litigation. The Department does not believe the listing 
program should be fully implemented through litigation. Species that do 
not have a plaintiff advancing their cause through litigation may not 
receive the attention or protection they desperately need. Citizen 
suits are best used as a last resort rather than first resort or as the 
only means by which actions may be undertaken.
    The Administration's proposed budget language would not restrict 
the ability of citizens to advocate for and secure the listing of 
imperiled species under the ESA. The objective of the proposed 
appropriations language included in the 2002 budget is to move towards 
a system that would allow FWS to spend its ESA listing appropriation in 
accordance with biological priorities.
    Petitions are the primary tool available to the public to identify 
species that need to be listed. Anyone can petition FWS to list a 
species as threatened or endangered. FWS is required, within 90 days if 
practicable, to evaluate the petition to see if it contains substantive 
information indicating that listing may be necessary. If the petition 
does include substantial information, FWS is required to determine, 
within 12 months of the date the petition is received, whether the 
petitioned listing action is warranted. If listing is warranted, FWS 
may immediately issue a proposed rule to list the species, or, when 
faced with higher priority listing actions, find that listing is 
warranted but precluded. FWS reviews each warranted-but-precluded 
finding every year.
    Unfortunately, FWS has been largely unable to process citizens' 
petitions during 2001. Instead, FWS has been forced to dedicate almost 
all available funds from its listing budget to designate critical 
habitat under court orders. This effectively prohibits FWS from 
addressing species that have greater biological needs, including 
species identified in citizen petitions. The proposed language, if 
adopted, would help ensure that FWS could work through the substantial 
workload resulting from current court orders and settlements, and 
establish a priority system for 2002 that will prevent remaining 2002 
funding from being subsumed by additional court orders. This should 
allow FWS some latitude to respond to and act upon citizens' petitions.
    With regard to citizen suit provisions in ESA, the budget proposal 
does not change the substantive provisions. Citizens would still be 
entitled to sue FWS regarding any deadline FWS misses. A court could 
rule and impose a remedy. The proposed language would merely limit the 
remedy by precluding the court from ordering FWS to spend 2002 listing 
funds on lower priority actions. That is, the language would prohibit 
courts from redirecting FWS's listing budget from higher priorities to 
lower priorities.
    In addition, citizens would retain the right to legally challenge 
FWS if they believe that FWS is not spending 2002 funds as provided 
through its appropriation. Citizens could challenge the listing 
priority system as somehow being in violation of the ESA, or as being 
arbitrary and capricious. Finally, citizens could also challenge the 
implementation of the priority system, if FWS does not fund an action 
that the priority system indicates should be funded.

                       bureau of land management
    Question. The Bureau of Land Management (BLM) is responsible for 
administering the right-of-way access for the Department of Energy's 
site characterization work at Yucca Mountain. The Department of Energy 
recently applied for a seven-year extension for two right-of-way 
reservations (N-48602 and N-47748), which expired in January 2001. It 
is my understanding that the BLM granted the extensions for both 
applications. How much additional time did the BLM grant the DOE right-
of-way access to the relevant areas?
    Answer. DOE requested a seven-year renewal for both right-of-way 
reservations N-48602 and N-47748. Two right-of-ways (ROWs) exist for 
one application because the original DOE application, submitted on 
January 24, 1987, distinguished between lands withdrawn for Nellis Air 
Force Base and lands that were not withdrawn. N-48602 required Air 
Force concurrence prior to renewal because part of the ROW lands is 
withdrawn to the Air Force. The Air Force recommended a three-year 
right-of-way because such time would be adequate to complete the study. 
Therefore, N-48602 is issued for a period of three additional years and 
is subject to concurrence terms from the Air Force. BLM granted N-
48602's ROW for the withdrawn lands on October 10, 1989; the ROW 
expired on May 1, 2001. N-47748 was granted on June 1, 1988 and also 
expired on May 1, 2001. BLM granted DOE three-year right-of-way 
renewals for both reservations.
    Question. If BLM granted a multi-year extension to the DOE, what 
activities will the DOE be allowed to undertake?
    Answer. The DOE submitted a Plan of Development with the renewal 
application that was reissued. The Plan of Development is consistent 
with the prior Plan of Development and the Environmental Assessment 
completed for the project, which will allow DOE to continue to conduct 
characterization studies.
    Question. Did the BLM place any restrictions on the access to the 
site in the event that the DOE completes its site characterization 
study?
    Answer. Restrictions are placed on the use of these two rights-of-
way. They are renewed for the purpose of conducting characterization 
studies of Yucca Mountain consistent with the use originally proposed.

                      WILD HORSE AND BURRO PROGRAM
    Question. The wild horse and burro program received a $9 million 
increase in fiscal year 2001. I am deeply concerned that this money may 
once again be wasted by the BLM in Washington and at the Eastern States 
Office. What percentage of America's wild horses and burros live in 
Nevada?
    Answer. Approximately fifty two percent.
    Question. What percentage of the overall wild horse and burro 
program appropriation will be spent in Nevada?
    Answer. Nevada BLM will directly spend approximately thirteen 
percent of the total Bureau wild horse and burro allocation. Palomino 
Valley Corrals, located in Reno, Nevada, funded by the BLM Washington 
Office organization, will spend approximately an additional six percent 
of the total. Funds for wild horses and burros gathered in Nevada and 
adopted in other States, such as the Eastern States office, are not 
included in these percentages.
    Question. What percentage of the overall wild horse and burro 
program appropriation will be spent on Nevada horses?
    Answer. Approximately 38 percent of the total Bureau wild horse and 
burro appropriation is spent to benefit animals originating from 
Nevada. It is important to note that Nevada's program is heavily 
focused towards on-the-ground management of herd management areas, and 
the necessary removal of excess animals. The Nevada organization plays 
a very small role in the preparation, care, and adoption of removed 
animals. In contrast, other States prepare, care for and adopt the 
majority of animals removed from their areas of jurisdiction. The 
reason for this is that Nevada's potential adoption market is very 
small. The preparation and care of Nevada animals occurs primarily at 
national program facilities, and to a lessor degree, at the facilities 
of other States. The BLM's Eastern States Office is responsible for 
adopting the majority of animals removed from Nevada, with the other 
western States adopting the balance. All cost associated with the long-
term care of animals, regardless of the State in which they originate, 
is charged to the National Program. To date, no attempt has been made 
to break this cost out by those benefiting states.
    When considering fiscal allocations it is important to note that 
Nevada's wild horse gathers are generally of a very large scale 
relative to the other States, making the gathers ideal for completion 
by contractors. For example, two of Nevada's fiscal year 2001 gathers 
are slated to capture 2,505 and 2,200 animals each. Individually these 
gathers are greater than the yearly total for any other State. A 
significant economy of scale is realized on Nevada gathers. The cost of 
removing an animal from the range in Nevada is significantly lower than 
that of a majority of the other States. Although Nevada is home to 
approximately fifty-two percent of all animals nationally, over the 
last four years (1998--2001) Nevada's share of animals removed from the 
range has averaged 60 percent, with the remaining States collectively 
averaging 40 percent.
    Question. What percentage of the increased wild horse and burro 
appropriation will be spent in Nevada?
    Answer. Nevada BLM will directly spend thirteen percent of the 
additional $9 million increase appropriated to the BLM. Palomino Valley 
Corrals, located in Reno, Nevada, funded by the BLM Washington Office 
organization, will spend approximately an additional six percent of the 
total. (See answer to Question 7.)
    Question. What percentage of the increased wild horse and burro 
appropriation will be spent on Nevada horses?
    Answer. Forty-four percent of the budget increase for the wild 
horse and burro program will be spent on Nevada wild horses and burros.
    Question. How does per horse management cost vary between states?
    Answer. Unit costs vary widely from state to state, across all 
aspects of wild horse and burro work. The variables that affect costs 
are numerous and range from local policy direction to physical 
characteristics of the habitat, to scale of effort, to the cost of hay. 
For example, costs that affect capture include whether the animals can 
be water trapped, like burros in the southwestern states, the density 
of tree cover, the severity of topographic relief, access, etc. Fiscal 
year 2000 capture costs varied from $184 per animal to as mush as $965 
per animal. Preparation and care costs varied from $280 per animal to 
$1,350 per animal. Adoption costs varied from $346 per animal to $1,500 
per animal. The same variability is seen in the other aspects of wild 
horse and burro work, including: AML establishment, compliance checks, 
census, and monitoring. No State was consistently the highest or lowest 
across the various types of work.
    Question. I understand that it is less expensive to achieve herd 
management levels in Nevada on a per horse basis than in any other 
state. Do you share this understanding with me?
    Answer. It is true, that because of economy of scale, the cost to 
remove an animal in Nevada is significantly less than the majority of 
other states. But because of the large size of the herds in Nevada, it 
does not necessarily follow that it is less expensive to reach AML on 
an HMA in Nevada.
    Question. Given that we have limited resources to care for wild 
horses and burros, do you agree that we should target our monies where 
they do the most good?
    Answer. Yes. We believe that the current strategy goes along way in 
this regard. Under the current strategy all herd management areas 
(HMAs) are gathered on a four year cycle. Under this strategy, states 
ensure that the highest priority HMAs are gathered to appropriate 
management levels (AML) first.
    Question. Would you be willing to examine how we can get ahead of 
the wild horse and burro population curve so we can reduce our long-
term expenditures on this program and further the recovery and 
protection of the rangeland upon which these and many other animals 
depend?
    Answer. Yes. The Department and the Bureau stand ready to work with 
all partners for the betterment of wild horse and burro management. The 
current strategy, if fully funded, will achieve AML on all HMAs by 
year-end 2005. The BLM is confident that it has a strategy in place 
that will provide for healthy rangelands and viable wild horse and 
burro populations in a timely fashion.

                           GEOTHERMAL ENERGY
    Question. Nevada has tremendous geothermal energy resources. We 
already have more than 200 megawatts of geothermal electricity 
production in the Silver State and the potential for 10 times that 
amount. Does the President's budget include funding adequate to address 
the backlog of geothermal energy applications in Nevada.
    Answer. Currently BLM doesn't have a backlog of geothermal energy 
applications in Nevada, however, interest in geothermal resources in 
Nevada is growing and additional applications are expected. The 
President's budget does include funding to process expected lease 
applications. An additional $50,000 is requested in the 2002 budget to 
help address this growing interest. Since the beginning of 2001, Nevada 
BLM has received 44 noncompetitive lease applications totaling 
approximately 100,000 acres. The geothermal industry has also requested 
BLM Nevada conduct a competitive lease sale this summer. Within the 
availability of 2001 funds, Nevada will prioritize workload, reassign 
staff, and centralize functions to address the increasing workload.

                   NATIONAL PARK SERVICE--SNOWMOBILES
    Question. This weekend the Administration announced that it will 
move forward with phase out of snowmobiles at Yellowstone National 
Park. I applaud your decision on this issue. Protecting the air and 
water quality and wildlife at Yellowstone National Park is a critical 
mission of the Park Service, and I am encouraged that you intend to 
keep this rule in effect.
    As you know, the Park Service held 22 public hearings and gathered 
65,000 public comments from Americans nationwide. They received 48,000 
comments on the draft environmental impact statement, a majority of 
which favored phasing out snowmobiles at Yellowstone national Park. 
They received 11,000 comments on the final environmental impact 
statement, roughly two-thirds of which favored the phasing out of 
snowmobiles at Yellowstone National Park. And, they received 5,000 
comments on the final rule, 80 percent of which favored phasing out 
snowmobiles at Yellowstone National Park.
    Do you agree with me that the American public had ample opportunity 
to comment on the Yellowstone National Park snowmobile rule and support 
the rule by a wide margin?
    Answer. By any standard, the number of comments received from the 
public on this issue indicates there was ample opportunity for the 
public to participate in this fashion. The issue clearly was networked 
through channels that are maintained by all the interested advocacy 
groups, both pro and con. The range of comments was broad, as 
documented in a 370 page appendix to the Final Environmental Impact 
Statement (FEIS) describing the comments and responding to them. 
Support for banning snowmobiles specifically, based on comments from 
the Draft Environmental Impact Statement (DEIS), exceeds support for 
retaining snowmobiles by 5 percentage points (49 to 44 percent). From 
comments on the FEIS, support for the ban was indicated by 54 percent 
of the respondents compared to 46 percent for those against the ban. As 
indicated, the preponderance of comments on the rule supported the ban.
    Considering the history of the issue and the number of comments 
received throughout the process described above, the NPS believes there 
was ample time for commenting on the rule. Also, considering that few 
new issues of any substance were raised in the 5000 comments on the 
rule--that most were repetitive of previous comments--illustrates the 
sufficiency of the opportunity in light of the entire decision process.

                          SUBCOMMITTEE RECESS

    Senator Burns. Thank you very much, that concludes the 
hearing. The subcommittee will stand in recess until 10 a.m., 
Tuesday, May 1, when we will meet in room SD-138 to hear from 
Dale Bosworth, Chief, U.S. Forest Service, Department of 
Agriculture.
    [Whereupon, at 11:40 a.m., Tuesday, April 24, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
May 1.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2002

                              ----------                              


                          TUESDAY, MAY 1, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Bennett, and Byrd.
    Also present: Senator Craig.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF DALE N. BOSWORTH, CHIEF
ACCOMPANIED BY:
        RANDLE PHILLIPS, DEPUTY CHIEF, PROGRAMS AND LEGISLATION
        HANK KASHDAN, DIRECTOR, PROGRAM AND BUDGET ANALYSIS
        MICHAEL T. RAINS, DEPUTY CHIEF, STATE AND PRIVATE FORESTRY
        CHUCK MYERS, FOREST SUPERVISOR, MONONGAHELA NATIONAL FOREST, 
            WEST VIRGINIA

               OPENING STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. We will call the subcommittee to order, the 
Subcommittee on Appropriations on Interior. This morning we 
will be visiting with the brand new Chief of the Forest 
Service, Mr. Dale N. Bosworth. We want to welcome you this 
morning. Mr. Bosworth and I have had a relationship a long 
time. He comes from Region One of the Forest Service in 
Missoula, Montana. I will tell the folks here, if you do not 
think that this is a sacrifice, you need to see his home down 
on the Bitterroot River. He has made a sacrifice to be here.
    On a personal note, though, I am very serious when I say 
congratulations on being appointed the new Chief.
    The Forest Service budget for fiscal year 2001 represented 
a dramatic increase over the Agency's budget in previous years. 
This is mostly due to the devastating fire season of last 
summer. The Congress appropriated almost $2 billion for the 
Agency's fire program, an increase of a billion dollars in that 
program alone.
    President Bush's budget proposes modest growth for most of 
the Agency's programs, while retaining the bulk of the funds 
that were included last year to improve the Agency's 
firefighting capability. I am very pleased that the budget 
maintains the majority of funding added to the fire program 
last year. Addressing the severe fire hazards we have had in 
our forests is going to take a sustained effort over the long 
term or we will have more devastating fires. We still have a 
lot of work to do in the areas that were devastated a year ago.
    This year seems to be shaping up to be another bad fire 
season because of the lack of precipitation in many areas of 
the West. I know in my own home State of Montana our snow pack 
is only about 45 or 50 percent of normal and our moisture this 
spring has been minimal at best. Therefore, it is critical that 
we maintain adequate resources to protect our communities and 
forests from fire.
    There are some areas of the budget request that do concern 
me, however. For example, most of the funding for long-term 
restoration of burned-over lands was eliminated. I think that 
is shortsightedness because I still think we have some work to 
do there. Restoring some of the lands that burned will take a 
number of years, and if it is not done properly we may lose 
these lands to the sexiest issue that you want to talk about in 
Washington, D.C., and that is weeds, invasive weeds.
    I am also concerned about the budget for the timber program 
this year. The Agency has asked for a $6 million increase in 
its program. Yet the total planned offer level is only 2.1 
billion board-feet. This is 1.5 billion board-feet below what 
the Congress directed the Agency to offer and what the Agency 
said it could deliver for 1 year. I think many of us want to 
know why the timber program continues to fail in meeting its 
accomplished levels or set levels by Congress and what the 
Agency can do to fix that problem.
    Finally, I hope the Forest Service can get its books in 
order. The Agency has yet to obtain a clear audit opinion and 
remains on the GAO's list of agencies at high risk of waste, 
fraud, and abuse. The Forest Service has been making progress 
on the issue in recent years, but I encourage you to keep this 
top priority so that we can assure the public that the funds 
provided to the Agency are spent appropriately.

                           PREPARED STATEMENT

    Thank you for joining us today, Dale. We appreciate that. 
We are looking forward to a long relationship and working with 
you on the many challenges that we face on our forest lands.
    [The statement follows:]
               Prepared Statement of Senator Conrad Burns
    I am very pleased to welcome the new Forest Service Chief, Dale 
Bosworth, before the Interior subcommittee today. Dale was previously 
the Regional Forester for Region 1 in Missoula, so Dale and I have 
worked together on a number of Forest Service issues in Montana.
    I believe that Dale will be an excellent Chief and I look forward 
to hearing your testimony today in support of the Agency's fiscal year 
2002 budget. On a personal note, I know that Dale is very serious about 
becoming Chief because he's giving up a beautiful home on the 
Bitterroot River in order to come to Washington.
    The Forest Service budget for fiscal year 2001 represented a 
dramatic increase over the Agency's budget in previous years. This was 
mostly due to the devastating fires of last summer. The Congress 
appropriated almost $2 billion for the Agency's fire program--an 
increase of $1 billion for this program alone.
    President Bush's budget proposes modest growth for most of the 
Agency's programs, while retaining the bulk of the funds that were 
included last year to improve the Agency's firefighting capability.
    I am very pleased that the budget maintains the majority of the 
funding added for the fire program last year. Addressing the severe 
fire hazards we have in many of our forests is going to take a 
sustained effort over the long term or we will have more devastating 
fires.
    This year seems to be shaping up to be another bad fire season 
because of the lack of precipitation we've had in many areas in the 
West. Therefore, it is critical that we maintain adequate resources to 
protect our communities and forests from fire.
    There are some areas in the budget request that do concern me. For 
example, most of the funding for long term restoration of burned over 
lands was eliminated. Restoring some of the lands that burned will take 
a number of years and if it's not done properly we may lose them to 
invasive weeds.
    I am also concerned about the budget for the timber program this 
year. The Agency has asked for a $6 million increase for this program 
yet the total planned offer level is only 2.1 billion board feet. This 
is 1.5 billion board feet below what the Congress directed the Agency 
to offer, and what the Agency said it could deliver, for this year. I 
think many of us want to know why the timber program continues to fail 
in meeting accomplishment levels set by Congress and what the Agency 
can do to fix the problem.
    Finally, I hope that the Forest Service can get its books in order 
this year. The Agency has yet to obtain a clean audit opinion and 
remains on the GAO's list of Agency's at high risk of waste, fraud and 
abuse. The Forest Service has been making progress on this issue in 
recent years but I encourage you to keep this a top priority so that we 
can assure the public that funds provided to the Agency are spent 
appropriately.
    Thank you for joining us today Dale. I look forward to working with 
you in your new role as Chief. I believe that my fellow Committee 
members will come to enjoy working with you as much as I have during 
these past years.

    Senator Burns. Now, a great deal of pleasure to recognize 
at this time our ranking member and sort of my mentor, Senator 
Byrd.

              OPENING STATEMENT OF SENATOR ROBERT C. BYRD

    Senator Byrd. Mr. Chairman, I thank you for your kind 
words. Let me assure you that I enjoy working with you and I 
know that it is going to be a fine team here as we demonstrate 
that key word, bipartisanship, which we hear being bandied 
around a good bit.
    Chief Bosworth, let me join in welcoming you here this 
morning. We appreciate your being here. Your presence today is 
especially notable, given the fact that this is only your 
second week on the job. I commend the Forest Service for 
proposing to maintain base funding for its operations in West 
Virginia and for adding a liaison position at the Wood 
Education Resource Center in Princeton. That is Princeton, West 
Virginia, of course.
    The fiscal year 2002 budget request provides a strong level 
of funding for Forest Service recreation and research 
activities in my State. Last year I dedicated the new visitors 
center at Seneca Rocks, which joins with Cranberry Mountain 
Nature Center to form the basis for the Monongahela Institute. 
These centers in the Monongahela National Forest enjoy great 
popularity with the public, but the forest still needs master 
plans to guide future recreational services for the centers.
    Additionally, the Monongahela National Forest, like 
national forests throughout the country, has serious 
maintenance problems that you will need to take care of as the 
new Chief of the Forest Service. Much research needs to be done 
to identify new uses for hardwoods, especially from small 
diameter and low value hardwoods.
    West Virginia is home to a system of forest research 
facilities that are ideally suited to lead these efforts, 
including laboratories in Princeton, or Gardner to be more 
correct, Morgantown, and Parsons. The Wood Education Resource 
Center in Princeton and the Wood in Transportation Center in 
Morgantown are leaders in expanding the uses of hardwoods.
    There are, as there have been in the past, contentious 
issues facing the Forest Service today: the level of timber 
harvests, the amount of grazing on Forest Service lands, the 
litigation concerning roadless areas, and the staggering 
maintenance backlog. All of these are matters you will be 
forced to address in the near term.
    In addition, you have inherited an Agency struggling to 
regain control of its financial management systems. I am deeply 
concerned with the less than acceptable performance in that 
area. Let me say again, you have inherited an Agency struggling 
to regain control of its financial management systems. I do not 
know of any Agency that has appeared before any Appropriations 
subcommittee that I have sat on in the last few years that has 
done such a poor job in its financial management systems.
    When the Forest Service Chief and his associates were up 
during the past few years, they were poorly informed. I was 
critical of them here, and they did not seem to get any better 
as time went on. So the Forest Service has justifiably received 
pretty low marks in my judgment, and I am a friend of the 
Forest Service. I am encouraged to believe that you are going 
to bring about some improvements and that over the next few 
years you are going to have this Agency in the front row, and 
you are going to correct the things that have been wrong.
    I will certainly be watching and I will certainly want to 
be helpful. I want to be cooperative. This is a very important 
Agency to West Virginia.
    The members of this committee and the American taxpayers 
expect nothing less than full accountability when it comes to 
the spending of tax dollars. This subcommittee will encourage 
your efforts for reform.
    Mr. Chairman, I will reserve my specific questions until 
after the witness has had an opportunity to offer his 
testimony.
    Senator Burns. Thank you, Senator Byrd. I appreciate that 
very much.
    Senator Bennett.

             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Mr. Chairman. May I welcome you 
to the chairman's chair. I was distressed that Slade Gorton had 
to leave the committee, as I think we all were. But you will 
prove a worthy replacement and we are delighted to see you 
there.
    I want to welcome and congratulate the Chief of the Forest 
Service, Dale Bosworth. We consider him a Utahn. He was Forest 
Service supervisor for the Wasatch-Cache National Forest, 
headquartered in Salt Lake, and then as the regional forester 
for the Inter-Mountain region was headquartered in Ogden before 
he left to region one. So we feel we have a friend and a Utah 
native in this position. Chief, we think it is refreshing to 
have a man of your experience and skill, and I congratulate you 
on your appointment.
    There is a great deal of work ahead of you. Not only do the 
forests need tending, but, frankly, so does your Agency. I 
spend time out in Utah talking to Forest Service employees and 
there are some of them who feel professionally diminished by 
their experience in the last few years. They feel that their 
ability to make intelligent decisions has been taken away from 
them, pulled to Washington, and made by administrative judges 
who have been empowered by what was originally called the 29-
cent appeal, and now I guess is the 34 or 35-cent appeal, where 
someone writes a letter and brings to a halt the intelligent 
management of the Forest Service by the folks on the ground 
while the appeals process goes through.
    Now, you cannot change the appeals process, but you can 
empower the field employees to make decisions. I believe many 
of us here would be supportive of a limited Washington role and 
more support for the folks on the ground.
    As I said, the forests need tending. One of Utah's national 
forests is in bad shape. I say that after a very frank and open 
discussion with the forester on the ground, and I have nothing 
but respect for her and her ability to make the intelligent 
decisions for the Dixie Forest. But the Dixie Forest, a good 
portion of it has been consumed by bark beetles, and what 
started as a limited infestation has spread rapidly, wiped out 
hundreds of thousands of acres of forests, and treatment has 
been complicated by the former administration's attitude, 
particularly with respect to the roadless initiative.
    The forester on the ground has been hampered by what I 
consider to be political decisions aimed at the national media, 
rather than intelligent management decisions done by the people 
on the ground. I know that you are as concerned about the 
health of the Dixie as I am, but this is an example where in 
the name of headlines and publicity in the national media sound 
forest decisions on the ground have been compromised.
    Unfortunately, the situation in the Dixie I am led to 
believe is not unusual or unique. It is the situation in many 
national forests.
    So, Chief Bosworth, we welcome you. I think you are going 
to open a new chapter of intelligent management in our national 
forests, and I look forward to working with you. I appreciate 
the good relationship my office had with you when you were in 
Utah and assure you that we will do everything we can to see to 
it that my office is as responsive as we can be to helping you 
with your problems now that you are in this position.
    Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Bennett.
    Senator Craig.

              OPENING STATEMENT OF SENATOR LARRY E. CRAIG

    Senator Craig. Mr. Chairman, thank you very much.
    Dale, welcome to the U.S. Senate.
    Mr. Bosworth. Thank you.
    Senator Craig. Mr. Chairman, because I have had the 
privilege of working with this gentleman for a good number of 
years out in the field, first in Ogden and then in Missoula, as 
he was the caretaker of the forest of south and southwestern, 
southeastern Idaho, and then became the caretaker of the 
forests in northern Idaho. He also happens to be a graduate of 
the University of Idaho School of Forestry, which is pleasing 
to me because that is a fine institution with an excellent 
reputation.
    Senator Burns. We are scrutinizing that.
    Senator Craig. And we will. And we will, Dale. That alone 
will not get you through this committee.
    I have had the opportunity of working with the gentlemen to 
your right and now I look forward to the opportunity of working 
with you. I am not going to repeat what my colleague from Utah 
has said because I agree with it.
    As you know, I chair the Forestry and Public Lands 
Subcommittee of the Energy and Natural Resources Committee, and 
I have spent the last decade reviewing the Forest Service. I am 
now told that I have held more hearings on it than Hubert 
Humphrey held prior to the crafting of the National Forest 
Management Act of the seventies.
    But the reason I did that, Chief, was because not only of 
the importance of the Forest Service and its responsibilities 
to millions and millions of acres of natural resources in our 
country, but because it has had and still today has a profound 
impact on my State and many States and communities of people 
across the Nation.
    About a decade ago, assembled in Sun Valley, Idaho, were 
foresters from around the Nation to review the health of the 
forests. They concluded that the forests of the Great Basin in 
most instances were sick, dead, and dying, and said that 
without an active management scheme to relieve that condition 
of forest health that we could expect massive forest fires to 
sweep the countryside.
    That was a decade ago. Last year, because of a near decade 
of inactive management, fires swept the countryside. It was the 
worst fire season in our Nation's history. The chairman lost 
over 800,000 acres in his State. I lost nearly a million in my 
State, most of it forested land. A severe impact on the 
economy, the watersheds, the wildlife habitat, and the 
communities directly associated with those forests.
    Not all of that could have been avoided, but a forest 
health program, an active stewardship program, an active 
concept of management, could have helped a great deal. I 
believe we are on the threshold of that opportunity. No longer 
can some of our critics simply say the best way to manage a 
resource is to lock it up and walk away. We now know that some 
58 million acres that are in question at this moment will 
probably not be locked up, because of the failure of a process 
or the damaging of a process that attempted to do so, and that 
is all good. Because I think it is time we review our forests 
on a forest by forest or watershed by watershed basis and 
determine what role of active management we ought to play and 
what we ought not play, get on with the business of our forest 
plans, and deal with stewardship in a way that it demands we 
deal with it.
    I have got a new fire policy to implement that can be a 
part and parcel of all of that. There is a great many other 
things that have to be done out there. I think we stand ready, 
Mr. Chairman, to do a lot of that with you in cooperation.
    Your presence before the committee today is a profound 
statement in my opinion, because what it says to me is that we 
will not follow the last 8 years of practice, and that is to 
politicize the Forest Service from the top and to disallow its 
management decisions to work their way up from the bottom.
    About a month ago, Mr. Chairman, I spoke to a group of 
foresters in the Capital Chapter of the American Association of 
Foresters. The first question asked after I had made comments 
on what we believe this new President would do was a very 
simple one. It came from a forester. He said: If I make 
decisions at the field level that are based on good science and 
the law, will they be allowed to stand? In other words, what he 
was saying: Or will they be overruled like in so many instances 
they have been over the last 8 years?
    My answer to him was: The law and science should stand, 
effectively reviewed by his peers; and of course, if there is 
an appeal, to work the process up through the system, but not 
to reach out from the top and to make the kinds of decisions 
that follow the political edicts of the day. That cannot stand. 
It will destroy the remaining forests of our country and it 
will not revitalize them in the health we need.
    Your job is substantial. So is ours, to make sure you have 
the resources to do what is necessary to be done across the 
forests and forest preserves of our Nation. I look forward to 
working with you, Chief, and with your colleagues.
    Thank you.
    Senator Burns. Thank you, Senator Craig.
    On your first appearance, everybody wants to claim a piece 
of you, Dale. It goes back to the old story of Buffalo Bill. 
They said, you know, Nebraska spawned him, Wyoming claimed him, 
Colorado got him. So that is kind of the situation we are in 
right here.
    Welcome to the committee. We look forward to your 
testimony.

                 Summary Statement of Dale N. Bosworth

    Mr. Bosworth. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Byrd, members of the subcommittee: It is a great privilege to 
be here today to talk about the President's budget for the 
Forest Service for fiscal year 2002. I would also like to say 
that, as Chief of the Forest Service for now 8 days, I am 
really deeply honored to have this opportunity.
    I have with me today Randy Phillips, who is our Deputy 
Chief for Programs and Legislation; and also Hank Kashdan, who 
is the Director of Budget for the Forest Service. They will 
help me out with some questions that I may have a little 
difficulty answering.
    I would also like to express my gratitude to Secretary Anne 
Veneman for the confidence that she has shown in me in 
selecting me for this position. I really want to thank the 
thousands of employees in the Forest Service, outstanding 
employees in my judgment, that have expressed encouragement and 
support for me. I really appreciate that.
    I would also like to express my appreciation to this 
subcommittee for working with the Forest Service through this 
transition.

                               Priorities

    Today the things I want to talk about are the priorities 
that I am looking at for the transition period, at least the 
next 6 or 8 months, the first year, and talk about the National 
Fire Plan, protecting communities, and getting the broader 
focus of managing the Nation's forests and rangelands. And I 
want to talk about accountability, that several of you brought 
up. I recall Ralph Regula saying that accountability is more 
than simply good accounting, and I really agree. I think it is 
also delivering on our performance commitments, and we have to 
reestablish that capability and that reputation.

                           On the Ground Work

    Talking about the priorities, first I am going to talk 
about on the ground work. It is extremely important that the 
Forest Service get work done on the ground. I recognize the 
fact that taxpayers do not want to see their dollars going into 
paperwork and not end up with results on the ground. I think 
that getting work done on the ground has been the foundation 
for our credibility in the past, and we need to regain that.
    We also need to re-establish the connection between the 
headquarters, our Washington office, and the field. I feel like 
there has been some disconnect in the last few years and it is 
going to take some work, but I believe that we can re-establish 
that connection between the ranger district and the Washington 
headquarters and, that will help.
    We also need to make sure that the initiatives and the 
policies that we set here in Washington really do not hinder 
the work getting done on the ground, but rather help find ways 
to facilitate getting that work done. I believe that we need to 
empower line officers. The Forest Service's greatest strength 
is the ability of our line officers to make and implement 
decisions that take local needs into account, that work with 
local people. I am concerned that that ability has become 
limited some in the last few years.
    Each field unit has different needs, and we have got to be 
very careful that when we look at the whole 192 million acres 
of national forests and grasslands across this country that we 
do not come up with one single management philosophy and expect 
that to work on every single case. So we have to clearly 
understand what the differences are across the country, and 
that is why we need to make sure that those local line officers 
have as much decision space as possible.

                               Leadership

    I think we need to take a hard look at our leadership, at 
the structure that we are using in the Forest Service right now 
in terms of our organization. We need to ensure access for the 
field folks to our people in Washington, to make sure that when 
the people in the field get to Washington they have an 
opportunity to have access to the deputy chiefs, to the 
associate chiefs, and to me.

                               Oversight

    I think we need to place a higher priority on oversight. I 
feel like in the past few years that we have dropped the ball 
in terms of our responsibility at the national headquarters to 
make sure that things are working well on the ground and doing 
the management reviews and expecting at the regional offices 
that they do management reviews of the forests and so on. It is 
much better to have broad direction from here and follow up 
with reviews to see whether or not it is working.

                          Off the Top Funding

    I want to take a hard look at the off the top funding. We 
need to assess our strategic goals and our objectives, but we 
need to make sure that the funds that are held in headquarters 
are essential to accomplishing the mission of the Agency. We 
have begun a process of assessing the off-the-top dollars. That 
is probably the biggest effort that has been made along those 
lines in quite a few years, and we have more work to do and I 
want to assure you that I will be personally involved in that 
assessment.

                            Aging Workforce

    Another area of concern is the greying of the work force. 
Over the next 5 years, about 32 percent of the Forest Service 
employees will be eligible for retirement. We will lose a lot 
of experience and a lot of knowledge when those folks retire. 
Fortunately, we are going to be recruiting some fairly large 
numbers of new employees, and I think that gives us an 
unprecedented opportunity to get the skills and the talents 
that we are going to need to manage and lead, and it will allow 
us to balance permanent employment with providing jobs in local 
communities through contracting.
    My fear is that as these folks go out that we will not have 
had an opportunity for them to mentor some of these new people. 
So I am going to be trying to convince some of these older 
folks that have been around for a long time to stick around and 
help mentor some of these new employees.

                           National Fire Plan

    I want to talk about the National Fire Plan. The 
restoration work that is necessary in the areas of burn-over in 
the huge fires that we had last year is a big job. We have, 
through your help, gotten significant investments that we can 
put into that, but it is a big job and we are moving forward in 
all these places where the fire burned and trying to restore 
those ecosystems.
    We need to continue to respond to the increasing presence 
of people in the wildland-urban interface. As you know, the 
more people that move into those areas, the more problems that 
we have in terms of trying to help them protect their homes 
from fire. We need to work with people through education, we 
need to work with people through figuring out how they can 
manage their land, as well as how we manage the national forest 
lands, so that fire will not impact the communities and people 
in the wildland-urban interface as much.
    The President's budget calls for about $1.3 billion for the 
national fire plan. That is going to allow some continued 
investments to reduce the threat and the severity of wildland 
fire. It seems expensive, but I assure you that it will not 
approach the future cost if the current practices continue, the 
future costs of suppressing wildfires and protecting 
communities.
    Implementation of the long-term strategy can provide 
healthy forests that provide a sustainable flow of products and 
services. I believe that. The National Fire Plan I think is a 
really good example of what can be achieved when Congress and 
the administration cooperate. It provides an opportunity for us 
to balance forest restoration and community protection. It 
integrates community employment and expands the economic 
capability with the generation of forest and range land 
products to accomplish restoration activities. I am looking 
forward to working with you to extend that kind of balanced 
policy in other areas aside besides fire.

                             Accountability

    A little bit about accountability. As you know, 
accountability has been a significant emphasis for us for the 
past 3 years. I believe that my predecessor, Chief Mike 
Dombeck, did a good job of building a framework, but we have a 
long ways to go to regain the financial credibility that we 
need to have. We are going to continue on that path. We are 
going to work toward obtaining a clean audit opinion.
    We need to be accountable, as I said earlier, for more than 
just financially accountable. We need to have some performance 
accountability in the Forest Service. We need to do what we say 
we are going to do. We need to deliver on our program 
commitments.
    We are presenting our budget based on our capability to 
perform and the budget is displayed in terms of activity and 
output measures that directly correlate to performance 
outcomes. We started that last year and we are continuing on 
with that this year. Starting in 2003, we will have the basis, 
I believe, for a field-based budgeting process that will be 
more effective. It will ensure consistency throughout the 
budget formulation, presentation, and accounting process.

                            Forest Products

    We are going to emphasize performance as an integral part 
of these budget requests. Now, I know you have a concern about 
forest products, an area of concern about forest products and 
our ability to perform there. I know that there is an 
appearance of reduction in the target. But it is very important 
to me that part of the accountability process to be realistic. 
I want to be very, very honest with you about what I believe 
our capacity, our capability, is to perform and then I expect 
to perform.
    Partly because of past policy and limitations, our 
capability to deliver Forest Products has been reduced. In 
fiscal years 2000-2001, we were expected to offer 3.6 billion 
board-feet each year. 1.7 billion board-feet is what we 
produced in fiscal year 2000. We expect to offer similar levels 
this year, and in fiscal year 2002 we have closely assessed our 
capacity based on a variety of factors, and we estimate that 
that level is going to be around the 2001 level.
    We are going to assess our programs and try to determine 
what kind of opportunities we have in the future to increase 
production, especially in concert with restoration and 
protection. It may take several years to build up that 
capability and be able to increase it, and I do not think, nor 
do I believe, that we should attempt to reach the levels of 
forest products and revenues that we had in the late 1980's. 
But I do believe that we can do a lot better than what we are 
doing right now.
    I also believe that that will lead to healthier, more 
productive forests. We need to recognize that Forest health and 
production is interwoven and it is compatible and we can do it 
in an environmentally sensitive way.

                         Stewardship Contracts

    Through your help, Mr. Chairman, we have got the 
opportunity to experiment with stewardship contracts. Those are 
sort of outcome, end results projects. In the northern region, 
the Forest Service had now I think 18 of those projects. I 
think it is a model approach to how we can collaborate up 
front, how we can look at the end results, how we can bundle 
all the projects into one contract, and then achieve the end 
results that we would all like to see on the ground. It is an 
opportunity to accomplish integrated resource management 
objectives and to work with the public and to get more work 
done on the ground that is dearly needed. We will find out how 
those work as the work continues to get done on the ground.

                        Cooperative Stewardship

    Accountability for production also has to take into account 
the non-industrial private lands, and through our State and 
Private Forestry program we are going to continue to emphasize 
cooperation to enhance stewardship.

                            Range Allotments

    I am concerned that we have fallen behind in the 
environmental analysis of our range allotments. We are going to 
focus on the factors to that shortfall and we will develop 
actions to improve that situation, or we will develop more 
realistic schedules.

                               Recreation

    Recreation is another place where we need to be accountable 
for the quality of the recreation opportunities that we 
provide. Over 70 percent of the U.S. population lives near a 
national forest or a national grassland. We need to erase the 
maintenance backlog that we have, and it is going to require 
more than just increased appropriations. We would like to work 
with this subcommittee on developing innovative solutions.
    The President's budget proposes, for example, a 4-year 
reauthorization of the recreation fee demonstration project. 
That project has been successful in my judgment, although we 
have had a few places where we have had some difficulties. It 
has been fairly successful.

                               Conclusion

    So in conclusion, Secretary Veneman has stated very clearly 
that she would like the Forest Service to be a world class 
provider of goods and services. I believe that the Forest 
Service has the capability to do that. I am going to be 
personally devoting attention to achieving that goal through 
emphasizing the reconnection between the headquarters and the 
field units, by integrating the National Fire Plan with the 
management of the natural resources, and through improved 
accountability.

                           PREPARED STATEMENT

    Again, I am deeply honored to be here. I look forward to 
working with you and I would be happy to answer any questions.
    [The statement follows:]
                 Prepared Statement of Dale N. Bosworth
    Mr. Chairman, Mr. Byrd, and members of the Subcommittee, it is a 
great privilege to be here today to talk about the President's budget 
for the Forest Service in fiscal year 2002. Let me also say, as Chief 
of the Forest Service for only eight days, I am deeply honored to have 
this opportunity.
    First, I want to express my gratitude to Secretary Veneman for her 
confidence in me, and to say thank you to the dedicated, hard working 
employees of the Forest Service for their support and encouragement. 
Let me also express my appreciation in advance to you Mr. Chairman, to 
you Mr. Byrd, and members of the Subcommittee for working with the 
Forest Service and me during this transition. Chairman Burns, you and I 
worked together for quite a few years while I served as the Regional 
Forester in Region One. I look forward to continuing that excellent 
relationship.
    I would like to start my testimony by saying a few words about 
myself and my long-time commitment to the Forest Service. I have worked 
in the Forest Service for 35 years. I am what in the Agency is often 
called a ``Forest Service brat,'' a title I inherited because my father 
was also a leader in the Agency. It is fair to say I have a lifetime of 
being part of the Forest Service culture, traditions, and debates about 
management of America's forests and rangelands. Coming from this 
background, I am truly humbled by the duties entrusted in me as Chief 
and I am eager to lead this Agency through challenging times.
    In my testimony today, I will talk about three areas of emphasis. 
First, I will discuss my priorities in the short term as the Agency 
transitions its leadership. Second, I will discuss the National Fire 
Plan and how its strong focus on protecting communities from the 
dangers of catastrophic fire represents a broader focus on how, in 
general, we need to manage the Nation's forests and rangelands to 
protect communities and natural resources, and provide services and 
products on a sustainable basis. Third, I will discuss Agency 
accountability. I recall about two years ago, then House Subcommittee 
Chairman Ralph Regula saying, ``Accountability is more than simply good 
accounting.'' I couldn't agree more. I will talk about accountability 
not only in the implementation of financial reforms, but also from the 
standpoint of delivering on Agency performance commitments. In doing 
so, I will need to be perfectly candid about the immediate capability 
of the Forest Service to meet expectations of performance in two key 
programs.

                         SHORT-TERM PRIORITIES
    Mr. Chairman, as a Regional Forester in two regions over the past 7 
years, and in many other positions in the Forest Service, I have 
developed an appreciation for how the job being performed ``on-the-
ground'' by our employees is the foundation of our credibility with the 
public. This applies to researchers, employees on the National Forests, 
and employees who provide support to State, local, Tribal and 
international stakeholders. It is the responsibility of employees in 
the national headquarters and at the regional offices to ensure the 
best possible support is given to that ``on-the-ground'' job. Over the 
next several months, I want to emphasize what I think is essential in 
establishing a ``reconnection'' between the headquarters and the field. 
I want to make sure that ongoing initiatives to improve financial 
compliance and track natural resource information do not 
unintentionally hinder employees from performing the ``on-the-ground'' 
work. This assessment of ongoing initiatives does not alter the 
Agency's commitment to moving forward our commitment to financial 
accountability.
    One of the greatest strengths of the Forest Service is the ability 
of line officers at the forest and ranger district levels to make and 
implement decisions that take local community needs into account. I am 
concerned that in recent years this ability has been limited by an 
over-reliance on top-down initiatives that have dis-empowered local 
decision making, and have prevented the greatest possible funding from 
reaching the field unit level. I firmly believe that each field unit 
has different needs. A single management philosophy cannot produce 
healthy forests and rangelands that provide opportunities to deliver 
goods and services across the wide array of environments in which our 
National Forests and Rangelands exist.
    In the immediate future, I want to work closely with Secretary 
Veneman to assess recent initiatives to make sure the ability to manage 
and protect our diverse resources is not adversely affected. We will 
assess the Agency's strategic goals and objectives to ensure full 
compatibility with local forest plans and priorities. To get the 
Agency's work done ``on-the-ground'', it is critical to ensure funds 
held at the headquarters and regional levels are only those funds that 
are essential to accomplishing our mission. In recent years the amount 
of funds taken ``off the top'' has grown to unprecedented levels. While 
the majority of this funding ultimately goes to the field, too much 
does not. Too much of this money does not go to projects that directly 
support ``on-the-ground'' accomplishments. Only just recently the 
Forest Service, with help from field line officers, began the most 
intensive screening of this ``off the top'' funding in years. I will 
personally make the final decision on funds held at the headquarters 
level.
    I also intend to take a close look at the organizational leadership 
structure of the Forest Service. I want to make sure our line officers 
are empowered to make and implement natural resource management 
decisions at the field level, in the best tradition of our 
decentralized organization, while assuring that systems used in the 
field meet best business practices and are consistent and comply with 
national laws, regulations, and policies. I have already taken steps to 
realign the reporting structure of our Regional Foresters and Station 
Directors, so they have the best possible access to me, as Chief, and I 
assure you I will place priority emphasis on providing the best 
oversight possible for administration of the Agency.
    An issue that concerns me greatly is often called ``graying of the 
workforce.'' In the next 5 years 32 percent of the workforce will be 
eligible for retirement. Only 9 years ago, the Forest Service had 643 
permanent employees less than 25 years of age. At the end of calendar 
year 2000, we had only 137 employees under 25. At the same time, the 
number of employees over 50 has climbed from 7,814 in 1992 to 10,232 
today. My fellow employees and I consider working for the Forest 
Service to be a privilege and an honor. I want this Agency to be an 
employer of choice. Primarily as a result of implementing the National 
Fire Plan, for the first time in a long time, the Forest Service will 
be recruiting large numbers of new employees who will become leaders in 
the Forest Service by the end of this decade. We have an unprecedented 
opportunity to emphasize recruitment of a workforce that reflects 
America's broad diversity and provides the appropriate mix of skills 
and talents needed by the Agency. Having described the value of new 
hires, let me also emphasize the importance of an appropriate balance 
of staff to other resources. This includes hiring full-time and 
temporary Forest Service employees to replace the large number of 
employees expected to retire in the near future. It also includes 
partnering with businesses, corporations, and other groups to 
accomplish important on-the-ground work and to increase the Agency's 
ability to respond to local needs through increased local employment 
and community involvement. I intend to personally review and monitor 
how we balance the recruitment of our workforce and future leaders, and 
the use of local businesses and the private sector. Only through 
building an effective organization can we rise to meet the challenges 
of the future.

                           NATIONAL FIRE PLAN
    As a Regional Forester, I personally witnessed the catastrophic 
wildland fire that occurred in the Bitterroot Mountains of Montana last 
year. The cost to restore the lands in the Bitterroot, and other lands 
blackened by wildfire throughout the country, to a healthy and 
productive condition will require significant investments over many 
years. Further, there will continue to be a need to respond to the 
ever-increasing presence of people in the wildland-urban interface. We 
must continually assess how we invest to protect communities and 
resources, how we ensure our readiness to suppress wildland fire where 
necessary and manage fire where it benefits the land, and how we enable 
effective cooperative fire suppression and management among Federal, 
State, Tribal, and local organizations.
    Last year, the Forest Service spent $1.1 billion for fire 
suppression. The President's budget in fiscal year 2002 provides $1.3 
billion in support of the National Fire Plan. This will allow the 
Forest Service to continue investments to reduce the threat and 
severity of wildland fire over the long term. Investing in firefighting 
and hazardous fuel reduction capability will lead to healthy, restored, 
fire-adapted ecosystems. While these investments may appear to be 
expensive, the annual cost of hazardous fuel reduction won't approach 
anywhere near the costs of catastrophic wildland fire suppression, the 
subsequent restoration of damaged lands, and the costs to the people 
living in or adjacent to our forests who could lose their homes, 
livelihoods, or even a loved one. The good news is that with a cohesive 
investment, costs can be reduced in the long term. Beginning with the 
programs implemented by the National Fire Plan we can develop a long-
term strategy to provide healthy forests resistant to wildland fire, 
insects, diseases, and noxious weeds that provide a sustainable flow of 
products and services.
    The National Fire Plan is a good example of what can be achieved 
when Congress and the Administration work together. The Plan allows the 
Forest Service to improve the health of our Nation's forests by 
providing the resources needed to protect communities and natural 
resources from wildland fires and invasive species. Additionally, 
through our outstanding Research and State and Private Forestry 
programs, the Fire Plan provides funding to develop technologies that 
will increase the use of forest products by communities and industry. 
These programs have the potential to make it economically beneficial 
for the Forest Service and private industry to restore the health of 
the land by increasing the value and use of traditionally non-or low 
valued forest products. The balancing process of restoring forests and 
protecting communities will integrate local community employment and 
expanding local economic capacity with the generation of forest and 
range products to accomplish restoration objectives. The President's 
budget in fiscal year 2002 provides the emphasis and funding needed to 
integrate the National Fire Plan with the full array of Agency 
programs. I look forward to working with you to extend this type of 
balanced policy to all aspects of Forest Service natural resource 
management.

                             ACCOUNTABILITY
    Protecting communities and restoring forests and rangelands under 
the National Fire Plan will require that the Forest Service be held 
accountable for program accomplishment. Accountability has been a 
significant emphasis of the Agency for the past three years. Former 
Chief Mike Dombeck did a great job of building the framework to restore 
the financial integrity of the Agency. Under the direction of Secretary 
Veneman, we will continue on the path of bringing our financial 
management and accounting of Agency assets into full compliance with 
the best business management standards. We will continue our progress 
towards obtaining a clean audit opinion.
    However, as I mentioned earlier, being accountable is much more 
than having good financial accountability. It is delivering on program 
commitments. The President's budget for fiscal year 2002 continues what 
we began in fiscal year 2001. We are presenting our budget based on our 
capability to perform. Our budget is displayed in terms of activity and 
output measures that directly correlate to performance outcomes. These 
measures will, for the first time, be the basis for a field-based 
budget, which we are implementing in fiscal year 2003 as this 
Subcommittee has directed. These measures will form the core structure 
of our accounting system and will ensure consistency throughout the 
Agency's budget formulation, presentation and accounting process. This 
structure will allow us to emphasize performance as an integral part of 
budget requests.
    Let me focus on areas of performance accountability that I know 
concern many members of this Subcommittee. The President's budget for 
fiscal year 2002 proposes what may appear to be a significant reduction 
in the ``target'' for forest product accomplishment. To be accountable 
for performance, we must first be realistic about our capability. Mr. 
Chairman, in the area of forest products, because of policy emphasis 
over the past eight years, the Forest Service's capability has been 
reduced. Unfortunately, this has not been adequately reflected in past 
communication to Congress. For example, in fiscal years 2000 and 2001 
the Agency was expected to offer 3.6 billion board feet (bbf) of timber 
volume. In reality the Agency offered only 1.7 bbf in fiscal year 2000 
and expects, at best, to offer a similar level in fiscal year 2001. For 
fiscal year 2002 we have closely assessed our capability based on a 
variety of factors, including; the costs and time to navigate the 
complex appeals and litigation processes, the need for additional work 
directly attributable to legal decisions, the virtual elimination of a 
forest product pipeline, and the past inability of the Agency to view 
forest product production as an integral aspect of protecting and 
improving forest health. Mr. Chairman, we estimate that in fiscal year 
2002 the forest product offer level will be somewhere in the 
neighborhood of the fiscal year 2001 level.
    This lower forest products estimate is not good for forest 
communities and it is not good for the environment. The lower levels 
may stress the already struggling natural resource dependent economies 
of many of our nation's forest communities. It also is not adequate to 
reduce the extraordinary amount of woody material contained in many 
parts of the National Forests to traditional historic conditions. 
Active vegetative management actions, including timber harvesting can 
restore forest ecosystem health, reduce invasive species, and reduce 
the risks of catastrophic fires.
    With this in mind, I believe being completely honest about 
capability issues such as this is an essential element of being 
accountable. In this fiscal year we will assess our programs to 
determine future opportunities as to how we can target programs and 
resources to increase the production of forest products, especially in 
areas as a means of restoring and protecting forest health. It may take 
several years to reach an increased level. Let me also make clear that 
such increases may not approach the levels or produce the revenue 
experienced in the late 1980's. However the end result will be 
healthier, more productive forests.
    Increases in forest products from the National Forests will require 
full recognition that land health and the production of goods and 
services are interwoven and entirely compatible. Consistent with these 
combined goals, we must develop new methods for compatible use of 
renewable resources. We will closely assess the lessons learned from 
the end-results stewardship contract demonstration projects that 
Congress authorized with your help, Mr. Chairman. I believe this 
authority offers numerous opportunities with potential as an excellent 
tool to accomplish integrated resource management objectives.
    I am also concerned that we have fallen behind in the environmental 
analysis of many of the range allotments on National Forest lands. 
Despite a schedule that targeted completed analysis on 4,174 allotments 
by the end of fiscal year 2001, we currently expect to complete 3,398 
in this timeframe. We will focus close attention on the factors that 
have contributed to this shortfall, and develop actions to improve the 
situation within the available funding or develop a more realistic 
schedule.
    I believe that Agency accountability for the production of forest 
and range products must take into account the capability of non-
industrial private lands to also provide a sustainable flow of 
products. Forest Service programs strongly support this objective. The 
fiscal year 2002 President's budget provides funding for our State and 
Private Forestry program to continue emphasizing cooperation with 
State, Tribal and local authorities in enhancing sustainable 
stewardship of the rural and urban forest. This strong relationship 
with our partners will be an integral part of our programs in the years 
to come.
    The Forest Service is also accountable for the services it provides 
to the Nation for recreation. We are in many ways, America's backyard. 
Over 70 percent of the population of the United States lives within an 
easy day's drive of National Forests or National Grasslands. We are 
emphasizing performance accountability in how we meet the recreation 
demands of America. The attention of this Subcommittee to the condition 
of facilities used by the public has been greatly appreciated. We need 
to face the fact that a status quo approach to managing facilities will 
not halt the decline of our infrastructure. We would like to work with 
you to develop innovative solutions to this problem.
    An additional element to support the demand for quality recreation 
is the Recreation Fee Demonstration program. This program has been a 
success. The President's budget proposes a four-year reauthorization of 
this program.
    I believe accountability centers on the ability of the Forest 
Service to clearly state its performance objectives at specific budget 
levels and then, based on final appropriations provided by Congress, 
deliver on the accomplishment of those objectives. I am committed to 
providing the Agency's line officers with the resources to perform 
``on-the-ground'' work, and systems that allow them to report how well 
they are performing. To accomplish this we must emphasize performance 
accountability as strongly as we emphasize financial accountability.
                               conclusion
    Mr. Chairman, Secretary Veneman has clearly stated to me that she 
wants the Forest Service to be a world-class provider of goods and 
services for America. I know the Agency has that capability. To that 
end, I intend to personally devote my attention to achieving this goal 
through emphasis on an organizational reconnection between headquarters 
and field units, integration of the National Fire Plan with the active 
management of our natural resources, and continued aggressive adherence 
to improved performance accountability. Let me again say that I am 
deeply honored to be the Chief of the Forest Service. I look forward to 
working with you and thank you for your support. I will be happy to 
answer any questions.

                            Fire Management

    Senator Burns. Thank you. Thank you, Chief.
    It seems as though there has been a swirl of articles about 
some mismanagement of the fire season last year. One of them 
showed up in a New York Times article, and I think you read 
that article. I think the author of that article in some areas 
could be a little amiss and maybe really does not fully 
understand the situation.
    As you know, we went through a terrible fire season last 
year and there is no doubt about it, there were places where we 
were caught kind of flat-footed, and did not always have fire 
bosses and qualified personnel to lead at times in a very 
serious fire season. Last year was a wakeup call, and everybody 
that I have talked to in the Forest Service are saying we 
learned a lot last year and we are not going to let that happen 
again.
    That is the reason that the Congress chose to fund the fire 
plan that gives you the resources to take care of some areas 
where we were very shortsighted.
    I would ask, how do you respond to these articles that we 
see in the New York Times, the one specifically, regarding the 
way firefighters were handled last year?
    Mr. Bosworth. That particular article talks about the 
waste, a lot of people sitting around without a whole lot to 
do, eating really good meals, a number of similar kinds of 
things; it would appear that there is a fair amount of waste 
going on. Now, I think any time that you bring a whole bunch of 
people together in 24, 48 hours, there is obviously going to be 
some slowdown time.
    When I think about the Bitterroot Valley as an example--and 
you were up there and saw what was going on--the fire camp was 
the second largest town in Ravalli County. That was put 
together in a very short period of time and I think, was done 
amazingly well.
    There are lots of reasons why people might not be out 
building fire lines. In some cases, we will have people that 
are spiked in a spike camp when we know there is a red flag 
warning, for example, where we are going to get new lightning 
strikes and we want to have crews that are ready to go to 
suppress new strikes. We did not want to have any new fires 
start. So that could be one situation where we have people that 
appear to be sitting there without actively working.
    In some cases, just getting all the equipment together, the 
buses to get the crews up to the fire line, the other buses to 
get the crews back, sometimes leads to a little bit of lost 
time in terms of having the crews on the fire.
    I think we do a fairly good job in terms of keeping our eye 
on how much these, these fires are costing. I know that with 
the fires, at least in the northern region--I am sure it was 
done in the other regions as well--where we had large projects, 
we brought in a comptroller with the green eyeshades to keep 
their eye on what we were spending and what we were doing.
    Another issue in that article is that sometimes we are 
putting fires out, suppressing fires that we should not have 
been, that we were wasting dollars suppressing some of those 
fires. What we were doing this past year was, again we did not 
want new starts. We were strapped to the very end and so we 
wanted to make sure that we did not have new starts that burned 
in new project fires that we had to put numbers of new people 
on.
    So I guess my summary is that there probably are some 
things, we can always improve upon and we can do better. I 
think that article is the view of a person at a certain part of 
the endeavor, the effort. I have a different view from looking 
at it from a different place. But I assure you that we are 
going to continue to make sure that the dollars that get spent 
on suppressing fires are spent well, that we are accountable 
for those dollars.
    Senator Burns. Well, those of us what have spent some time 
on a fire line understand some of those things. I know that we 
had a breakdown as far as getting our equipment in place, and 
we talked about that in the upper regions of northern Montana, 
and getting our red card people in place and getting them 
qualified to do the work if we have a bad fire season.

                               Oversight

    You mentioned a thing called oversight. I happen to believe 
that oversight can be a very positive thing. It brings things 
out on the table in a manner in which Congress and the Agency 
and the public understand it. We also get into some of those 
problems and get them squared away. I know that every time you 
mention an oversight hearing in a specific State, I do not care 
of it is West Virginia or Montana, it seems like there is 
always a negative pall that is thrown over that, that there is 
something wrong or there is something going on. I think 
oversight sometimes is very, very good. It enlightens and 
brings to the surface some things that we should be doing.
    I for one, am going to look into the idea of some oversight 
hearings even this summer before we get into the depth of the 
fire season, to make sure that we know where we are, where we 
are going, and what has to be done. I will be hoping to work 
with you and the people on the ground. You are exactly right, 
that is where the rubber hits the road and accountability there 
is very, very important.

                            Forest Products

    This year's budget request for timber is $6 million more 
than it was a year ago, Chief. You only proposed 2.1 billion 
board-feet in production. This is a billion feet board-feet 
less than a year ago. A comparison of your budget submission 
from last year to this year shows that your unit cost per 
thousand board-feet has gone from $120 per thousand to $180 per 
thousand.
    Now, we know that right now we have some depressed prices 
in the forest products industry. I think that may have bottomed 
out and it might be hitting another, but will begin working its 
way up. But can you explain why this large increase?
    Mr. Bosworth. Well, first you have to look at what I would 
call comparing apples with apples. If you look at the last 
fiscal year, the previous fiscal year, we were given a certain 
amount of dollars, but we did not produce the 3 billion board-
feet, or the 3.3, whatever the number was. What we really 
produced was something less, and the actual dollars per 
thousand were more like $190 or $195 per thousand. What we are 
proposing for this year would be about $180 per thousand.
    So while the planned sale, if you compare it against the 
planned sale program, it would have been $130. But if you 
compare it against the actual accomplished sale program, it was 
more like $190 or $195. So I think we are fairly similar in our 
request this year from what we actually produced in the last 2 
years.
    Senator Burns. Chief, is there any way that you know that 
we can put this in a perspective? Okay, you offered--last year 
we said you had to offer 3.1 billion board-feet. How much did 
we actually cut? Do you know, have any idea, last year?
    Mr. Bosworth. Well, let us see if these guys have the 
actual numbers for me. But we get confused, I think, between 
the offer, the sold, and then the actual harvest. We will offer 
timber for sale and then sometimes it sells and sometimes it 
doesn't, for a variety of reasons, especially when you have a 
market, a timber market like it is right now.
    Then we have the figure that we actually sold. Then we have 
the figure of harvested, which may be timber harvested from 
sales that were sold last year, the year before last, or this 
current year. We have got the figures for all of those.
    What was actually harvested last year was 2.5 billion.
    Senator Burns. You think the prospects are as good this 
year?
    Mr. Bosworth. I think the prospects are, the number should 
be around 2.2 billion is probably what we would harvest. That 
is what we are estimating for this year.
    Senator Burns. I have some more questions along that line.
    Senator Byrd. Complete your line of questioning.
    Senator Burns. Well, an the effect of this timber program, 
will the Agency have any more success in meeting the lower 
proposed offered level this next year? That was one of the 
questions. You have already answered that one.

            Impact of National Fire Plan on Forest Products

    Let us talk about the effect of the fire plan on that. How 
does that affect your willingness and your ability to get out 
these cuts mandated by the Congress?
    Mr. Bosworth. Well, the National Fire Plan obviously is a 
very high priority for us. I also think that there are 
opportunities to be compatible through the National Fire Plan 
through fuels reduction projects, restoration of the burned 
areas, looking at what we need on land. Then that provides us 
the opportunity to remove what is not needed through fuel 
reduction projects and what-not, and it also contributes to 
providing products for the timber industry.
    So I think those are compatible. One of the difficulties we 
have, frankly, is working our way through the myriad of 
processes that we have to get through the environmental impact 
statements, through the consultation, all the different kinds 
of paperwork and red tape that we need to get through to 
actually come out with something in the end. That is part of 
the reason that we tend to fall behind, because of the long 
time period that it takes. Then other factors pop in during 
that period that set us back.
    Those are some of the issues that we need to look at to see 
how we can streamline those processes so that we are able to be 
more efficient and meet our obligations.

                          Hartwood Court Case

    Senator Burns. Categorical exclusion and forest health and 
stewardship. We were told by the previous Chief that they were 
going to deal with these issues and write the rules and 
regulations so that they could deal with the court order. It 
was never done. Will you--are you going to pursue writing the 
rules and regulations so that we can get away from that and get 
out from underneath that court order?
    Mr. Bosworth. Yes, I need to get a better understanding 
specifically of what the problem was with the Hartwood case and 
why it was--why the ruling was the way it was. But I do believe 
that there is a place for categorical exclusions on timber 
sales. Maybe the approach needs to be more focused on the kind 
of environmental effects of a project as opposed to the volume, 
which is what, the volume number, is what we had in there 
before.
    It seems to me that there is an opportunity to take care of 
that. Now, I do not think it necessarily has to be through 
rule-writing, but again I just have not had a chance yet to get 
that sorted through. But the answer is yes. I want to, one way 
or another, have a categorical exclusion process that makes 
sense, that we can withstand in the courts, that the folks in 
the field can use for certain kinds of projects.
    Senator Burns. Thank you very much.
    Senator Byrd. Thank you, Mr. Chairman.

                      Monongahela National Forest

    I call attention to the presence in the room of Chuck 
Myers, who is the Forest Supervisor for the Monongahela 
National Forest. Now, Chuck, stand up. I want the Chief to 
really know you.
    Chief, I know you are going to be very, very busy. You are 
just getting started and you have got a big job to do, because 
that big job was not done so well during the recent years. It 
makes your job even more difficult. But I hope you will have an 
opportunity to visit some of the Forest Service facilities in 
West Virginia. We would love to have you down there. I would 
love to visit them myself again, hopefully this year, after a 
long period of years.
    I hope when I go to them they will say: Well, the Chief of 
the Forest Service got here before you did. He was here some 
time ago. That will give us a shot in the arm and it will be 
good for our people. It will acquaint you with a very beautiful 
State and with the opportunities for growth in our Forest 
Service facilities. I hope you will have an opportunity to go 
down there.

                   Maintenance Backlog on Monongahela

    The Monongahela National Forest features recreation areas, 
campgrounds, and 700 miles of hiking trails, but much work 
needs to be done to bring the forest up to its full potential. 
The Monongahela, like many other national forests, has a 
backlog of maintenance work that needs to be addressed. 
Visitors to the Stuart Recreation Area and the YMCA camp at 
Horseshoe Run are subjected to health and safety risks because 
of their inadequate sewage systems. Now, I hope we can make new 
sewage systems for these popular sites a priority in the 2002 
budget, and I hope I can count on your support in building safe 
and accessible sanitation facilities in the Monongahela 
National Forest.
    If you want to do something other than just nod your head, 
you may do so. We like to have it on the record.
    Mr. Bosworth. I would like to say a couple of things. The 
first is I want to go back to your introduction of Chuck Myers 
and I want to say that I intend to know every forest supervisor 
in the Forest Service personally and spend time with every 
forest supervisor, so that I understand clearly the issues and 
the problems that those folks are dealing with. I am looking 
forward very much to doing that.
    I agree with you that the backlog is serious and I have 
been to the Monongahela National Forest. I took a tour there in 
1991. But I have not spent a lot of time there, and I am 
looking forward to getting back to that part of the country and 
seeing more of that national forest. It really appeared to me 
to be one of the really beautiful national forests.
    I also visited some of the visitors centers when I was 
there. I cannot remember the names of all of them. One of them, 
Cranberry something----
    Senator Byrd. Seneca Rocks and Cranberry Mountain.
    Mr. Bosworth. It looked to me like some of those facilities 
back then were in need of some improvements. I do know that we 
have a serious backlog.
    Senator Byrd. Thank you.

              Road Stabilization and Watershed Restoration

    The Monongahela National Forest has been working for many 
years to assess the damage caused by sedimentation in streams 
and rivers. Stream sedimentation is largely the result of 
previous forest activities, such as logging and road-building 
in streambeds. Several roads in the forest have been identified 
as high priorities for stabilization or reconstruction to 
protect nearby streams. One is in the May-Little River 
watershed. Another is in the Williams River area. The third 
provides access to the Highland Scenic Highway.
    Do you think the Forest Service budget request will 
accommodate $920,000 in 2002 for road stabilization and 
watershed restoration in the Monongahela National Forest, or do 
we need more money?
    Mr. Bosworth. Well, we always need more money. You know 
that.
    Senator Byrd. That was a leading question.
    Mr. Bosworth. It is just one of the inherent things about 
the Forest Service.
    The figures, in terms of the total amount for those 
specific places, $2.8 million is the figure for now. But I want 
to say that the backlog--and I am not sure that I clearly 
understand the specific areas. But I do know that, for example, 
the backlog in the Monongahela is $23 million just for roads, 
and another $466,000 for other facilities. I am not familiar 
enough to be able to split those out among each individual 
area.
    Senator Byrd. Well, yes, I can appreciate that. Just review 
these questions later and give whatever attention you can give 
us for these matters. That is all I could ask you for now.

                     Wood Education Resource Center

    Let me call attention to the Wood Education Resource Center 
in Princeton, West Virginia. I spoke with you about that 
recently when you were kind enough to visit my office. There 
had been a serious management and financial problem several 
years ago and I asked the Forest Service to rectify the 
situation, and it did.
    I especially want to call attention to the good work done 
by Michael Rains. You may or may not know Michael yet, but he 
is a good man to know. Is he in the audience today?
    Mr. Bosworth. Yes, he is.
    Senator Byrd. Oh, in the front seat, in the front now. That 
is where he belongs. He is a good man.
    Now, I would like to know the status of the management 
reforms at that center. Can we hear about that?
    Mr. Bosworth. I will let Michael help a little bit on this, 
but my familiarity with the project is that there is a fair 
amount of work that is being done there to be able to use and 
figure out how to use wood products in highways, bridges, 
signs, places where we can develop barriers to sound, some of 
those kinds of things.
    I think there are some great opportunities to pass that 
technology along, to help inform people. I know that those 
folks are working hard on that. I know Michael has a lot more 
specifics that he could supply.
    Senator Byrd. That research center has been there over 40 
years, and it is the result of an effort that I made when I 
first came to the Senate, going on 43 years ago. I took Dr. 
Ralph Marquis--he is now deceased--from the office in 
Pennsylvania. Would that have been Philadelphia?
    Mr. Rains. It was Upper Darby.
    Senator Byrd. Upper Darby, that is right. We went down 
there at that time and took a tour of several counties. I 
believe I spoke to you about that when you were in my office. 
As a result of our visit, Dr. Marquis recommended that a 
laboratory be established there. I asked him how much money he 
needed. I believe he requested $400,000. That is the figure 
that sticks in my mind.
    In any event, the laboratory was established there and has 
been doing great work. In conjunction with that laboratory, 
came the Wood Education Resource Center. Mr. Rains has done 
yeoman's work there. I personally want to thank you publicly 
here this morning.
    If you would not mind, I would like to ask again, what is 
the status of the management reforms at that center?
    Mr. Rains. Thank you, Senator. As you recall, a couple 
years ago it was a private enterprise, the Wood Education 
Center, and through your leadership we were able to move that 
over to a Forest Service facility. Actually, it is doing really 
quite well right now. Our proposed budget has a level of 
funding for the maintenance of the program.
    The focus of the center, as you know, is on training. It is 
really, the overall objective is to be a center, a national 
center of excellence for hardwood utilization through training, 
technology transfer, applied research, and also to make sure 
that the research stations in West Virginia and across the 
country are linked well with the applications.
    The people that were there at the center before are now 
Forest Service employees. Our next step is to take the 
management of the center and actually have a private group come 
in and begin to manage the day to day operations. We think that 
will probably take place late summer, maybe early fall. That 
will really be the capstone of, I think, the efficient running 
of that center.
    Senator Byrd. Very well. I do not want to belabor the point 
here. We are being pushed for time. We have a roll call vote 
coming around 11:00.
    Let me ask, Mr. Chairman, if you will, just two other brief 
questions. Thank you, Mr. Rains.

                Small Diameter and Lower Value research

    A research project that is of special interest to me 
utilizes wood products from small diameter and lower value 
trees to filter water runoff. West Virginia has a bountiful 
supply of small diameter wood, and an extensive system of 
rivers and streams and a superb forest products laboratory, 
which we have just been talking about, at Gardner, which is 
near Princeton in Mercer County, where I first started school 
in 1923 in a little two-room schoolhouse. When you go down to 
Princeton and visit that fine lab there, just remember that I 
told you I started school there in 1923.
    Mr. Bosworth. I will remember that.
    Senator Burns. Is the school still there?
    Senator Byrd. The school is not there, and no other two-
room schools are there, I am sorry to say. I wish we had more 
two-room schools and one-room schools, where teachers could 
really get to know the students and the students could get to 
really love the teachers. Each could teach and learn, 
respectively, without all the problems of discipline that they 
have in many of the schools today.
    Well, I should not get off on that. I could speak the rest 
of the day. So West Virginia has a superb laboratory there, and 
I think it would be well suited to test and further develop 
this promising approach to cleaning runoff water before it 
enters municipal water supplies.
    Do you see this as an effective and affordable technology 
that might be extended to new test areas, especially in West 
Virginia?
    Mr. Bosworth. Yes, I do. In fact, I have an example of the 
storm water filtration mat that I think you are talking about. 
It is made from small diameter wood fibers, and it was 
developed at the Forest Products Laboratory in Madison, 
Wisconsin. I think we have an opportunity to work with the 
Princeton lab to see if we can establish some kind of test site 
at least and then apply it, see how that would apply in West 
Virginia.
    I think that there may be some very interesting 
opportunities from this wood product.
    Senator Byrd. You also have an ongoing project that uses 
trees to clean contaminated groundwater. I would be especially 
interested to know if that approach would be a cost effective 
way to improve the water quality in West Virginia.
    Mr. Bosworth. Well, from what I can gather there is a high 
potential for that. It has been fairly effective, the tests 
have been effective, in removing contaminants from water. There 
has been some study to see what further applications there 
could be outside of urban areas in rural areas and in the 
forest as well. I do not think that the research has been 
completed in terms of finding out exactly how it is from a cost 
effective standpoint.
    But like many things, as you study it more and learn more 
about it does become more cost effective. So I think it does 
have a high potential of being a cost effective way of removing 
contaminants.
    Senator Byrd. I am glad to hear you say that.

                  Drug Problem in the National Forests

    Finally, I am concerned about the continuing drug problem 
in America, particularly among our young people. The Forest 
Service has done a commendable job of finding and eradicating 
cannabis, marijuana plants, in the national forests. The Forest 
Service reports that it eradicates over 700,000 plants year 
after year. This would indicate that we are not making much, if 
any, headway in preventing the use of national forests by 
marijuana growers.
    Your budget request asks for $76 million for law 
enforcement operations and for only 460 uniformed officers to 
cover 192 million acres of forest and rangeland. That is an 
average of 417,000 acres per law enforcement officer. One agent 
cannot possibly cover that much territory. The Service's law 
enforcement plan for 2002 is for a law enforcement capability 
of only 30 percent. That does not sound like a very ambitious 
goal, and the administration does not propose any program 
increases for law enforcement operations.
    By comparison, the Congress appropriated $1.3 billion last 
year for emergency drug eradication in Colombia, which is 17 
times more than we spend to control drug production in our own 
national forests. I do not think that is a very good message to 
be sending to the world when we cannot control drug production 
in our own national forests.
    This final question is, naturally, what does the Forest 
Service need to get this under control?

                            Law Enforcement

    Mr. Bosworth. Well, first let me say that I would like to 
go back to the 30 percent figure that you talked about. For 30 
percent of the incidents that occur, we have an agent who can 
respond to that incident. That seems maybe--that is low in my 
view. I think it ought to be higher, up near 50 percent. Some 
people may think that is low.
    But I think the important thing is, are we responding to 
the high priority incidents? Some of those may be things like a 
bullet hole in a sign or some of those kind of things that we 
may not be able to respond to, where others, there are people 
that are threatened and what-not, so we respond to those. So it 
kind of depends if we are doing a good job of prioritizing how 
we respond. That is the important thing.
    I think there is a lot we can do in terms of working with 
other law enforcement agencies, trying to make sure we leverage 
the capacity on the national forests. But there is no question 
that the drug problem on our national forests, the growing of 
drugs on national forests, is an important issue. It is my 
understanding something like 50 percent of the marijuana that 
is grown comes off of public land, not just national forests. 
That is a huge amount.
    There is a problem with methamphetamine labs on national 
forests. They are increasing significantly. It is also 
important to note that the Forest Service has seized more 
marijuana, at least to my understanding, than both Customs and 
the Border Patrol did along the Southwestern border. So we are 
focusing our efforts in some of the right places.
    I do not know that I can really give you a specific answer 
at this point about how much specific dollars, but we do need 
to cost out the additional needs to be able to respond to the 
problems that we are having on the national forests and 
grasslands with drugs. We need to have, I think, a little bit 
better strategy on how we are going to--what we are going to 
get from the additional funding levels.
    Senator Byrd. Well, Chief, thank you for your testimony and 
for that of your associates. You are off to a good start and I 
wish you well and I want to be as helpful, as I can.
    Mr. Bosworth. Thank you very much.
    Senator Byrd. Mr. Chairman, Senator Reid was unable to be 
here this morning. I request that his statement and questions 
be made part of the record, and I have some additional 
questions for the record likewise. Thank you.
    Senator Burns. Without objection, that will be made part of 
the record. Thank you very much, Senator Byrd.
    [The statement follows:]

                Prepared Statement of Senator Harry Reid

    Welcome Chief Bosworth, I am pleased to see you today and look 
forward to discussing the budget request made by the Administration for 
fiscal year 2002 for the Forest Service.
    I am particularly interested in the Forest Service's role in the 
restoration and stewardship of Lake Tahoe.
    Due to decades of damage caused by many different activities, Lake 
Tahoe is in grave danger of losing its famed clarity--forever.
    In response to this danger, last year Congress passed the Lake 
Tahoe Restoration Act, which authorizes $300 million for a cooperative 
effort to ``keep Tahoe blue.''
    The Lake Tahoe Restoration Act represents the accomplishment of 
many years of local level cooperation involving environmental, 
business, and governmental interests throughout the Lake Tahoe basin.
    The money we authorized will be directed primarily to the Forest 
Service so that the Agency can partner with the Tahoe Regional Planning 
Agency and local communities as we work to save this national treasure.
    Those of us who developed the Lake Tahoe Restoration Act and worked 
to pass it recognize that the only way to rescue this national treasure 
is through bold action.
    This bold endeavor already enjoys strong support from the States of 
California and Nevada, as well as local governments and private 
stakeholders.
    I am very interested in your vision for how the Department of 
Agriculture will implement the Lake Tahoe Restoration Act from both 
programmatic and budget perspectives.
    I would also hope that you will join with me and Senator Ensign and 
the rest of the Congressional delegation at a Lake Tahoe Forum later 
this summer to develop a work plan so that we can achieve the goals of 
the Lake Tahoe Restoration Act.
    I think you will probably agree with me that as the largest 
landowner in the basin, the Federal government must do its share to 
save and protect Lake Tahoe.
    This Federal commitment will require great dedication on your part 
and by your Forest Service employees in the field.

                             Salvage Timber

    Senator Burns. We are coming up on the first year after 
those fires. Salvage is still a question. On State lands in 
Montana we are just about completed in our salvage, we have 
completed the salvage operations on what we could salvage and 
sent the lumber to our mills. However, we have got more mills 
that really need the wood off of Federal lands in the State of 
Montana.
    The longer it goes untouched, the less value that salvage 
wood laying on the ground holds. Have you got plans to expedite 
or to look at ways we can speed up this salvage business?
    Mr. Bosworth. Well, yes. First let me say that I know 
personally that the folks on the Kootenaiy National Forest, the 
Bitterroot National Forest, the Lolo National Forest, the 
Helena, the Custer, where they had the major fires last year, 
are working very hard to get salvage out. Again, they are 
looking at it from a landscape standpoint, trying to figure out 
what needs to be left and then what could be removed.

                             NEPA Analysis

    There are just some huge processes that they need to go 
through: as I said earlier, the NEPA process; the consultation 
process. It takes an awful lot of time. Frankly, the State of 
Montana does not have the same level of I analysis that they 
need to go through.
    There are some things that I believe we can do to speed 
that up. We need to be looking at the NEPA process to see, and 
in fact we are looking at it from both a national as well as 
regional and forests levels that we can implement that would 
streamline some of those NEPA processes. There are some places 
where we have the opportunity to have an exemption from stay if 
we can demonstrate a good reason within the requirements. We 
need to look at what those requirements are and see whether or 
not those are still valid.

                         Consultation analysis

    There are some things that we are doing with the Fish and 
Wildlife Service to look at developing screens where the folks 
in the forest know that if they apply these screens then the 
consultation process will be sped up. There is also--I think 
there are some other things such as the way we organize at the 
forest and district level, to be able to get things done a 
little bit quicker.
    I think we offered 40 million board-feet in 2000. 150 
million could be offered in fiscal year 2001, and we think that 
we are going to be pretty close to 150 million. But again, your 
point, I agree with your point, and that is that when it takes 
a year to do the salvage you have lost a lot of the value. Then 
you end up having to invest dollars in order to remove some of 
that material that needs to be removed from a fire fuel 
standpoint.
    So if we can speed up our process, still involve the 
public, still do all the right things to make sure that we have 
environmentally sound decisions, I think we would all benefit 
from being able to do it quicker and do it in a way that gets 
the value when we are going to remove it, the full value.
    Senator Burns. Let us also talk about--and we are voting 
now and I think we can round this hearing up. There will be 
some written questions to you and if you can respond to the 
committee and to the individual Senator, do that.

                           Washington Office

    I just want to point up that, on your Washington 
initiatives, we have seen an explosion of personnel in 
Washington, D.C. I for one, I like to spend the money on the 
ground, out in the field, rather than here in this 17 square 
miles of logic-free environment, because it gets swirled around 
and it does not always produce what we think it should--it does 
not contribute a lot to our forests, or forest health.
    Senator Byrd. How many square miles?
    Senator Burns. 17 square miles. That is about right. There 
might be more, I do not know.
    Senator Byrd. Well, more square miles than that of logic-
free environment.
    Senator Burns. Well, yes, but it tends to drop off as it 
moves out.
    Senator Byrd. You see, the Constitution provides for more 
than 17.
    Senator Burns. Do you have any suggestions on how you are 
going to handle that and to sort of trim this explosion we have 
seen in Washington, D.C., and move some money into the field?
    Mr. Bosworth. Well, there are a couple of things I want to 
say. First I would like to say that from my observation, folks 
that we have working in our Washington headquarters are 
intelligent, bright, hard-working people who are doing a job 
that they have been asked to do. The thing where I think we 
have made a mistake is that we have not looked at priorities 
very well.
    You know, it is sometimes easy to add 2 or 3 people or 10 
or 15 people here and not look at what tradeoff that has for 
some on the ground field work. Maybe we cannot keep the camp 
ground open, and we are going to have people here. There is 
work that cannot be done out there, and we need to do a better 
job of figuring out what the tradeoffs are if we are going to 
add or remove a person here at the national headquarters.
    That is one thing that I think is important, because I want 
to make sure that people understand that I believe that the 
folks that are here working are working hard, doing good work. 
A lot of them came from the field. A lot of them did not, but 
they have lots of good ideas and lots of energy.

                          OFF THE TOP FUNDING

    I think we need to be really strict about the funds that we 
are holding here that have strings attached to them. A lot of 
these dollars that are held in Washington get sent back out to 
the field, but they get sent back out with strings attached. I 
am more inclined to believe that we ought to get the dollars 
out with as much flexibility as we can possibly get and hold 
the regions and the forests accountable for meeting the 
performance that we had agreed too.
    We are taking a hard look at all these off the top dollars 
I mentioned earlier to make sure on almost a project by project 
basis, to decide which ones are okay and which ones we are just 
going to have to forego.
    So again, there are a lot of good things that are being 
done, but some of the good things that are being done in here 
we cannot afford to do. We have got to get the dollars to the 
ground.

                    Senator Burns Concluding remarks

    Senator Burns. Well, I will have some more questions and we 
will get them to you in writing. I just want to say here in 
Washington, D.C.--I just finished a little book that is a very 
easy read and it is very light, but I think it has some very, 
very interesting things in it. It was written by Mo Udall, 
``Too Funny To Be President.'' It went through his trials and 
tribulations of running for President. He said he ran into a 
guy down in Oklahoma that was sort of a Will Rogers type.
    He said: You live in Washington, D.C, do you? And the guy, 
Mr. Udall, said: Yes, I do.
    He said: You got some awful smart fellows there.
    Yes, we have got some of the smartest people that there is 
in the world there.
    He says: And you have got some that ain't so smart.
    He said: Yes, we have got some of them, too.
    He says: Pretty hard to tell the difference, is it not?
    I think we have to sort through those things whenever we 
start initiatives and try to formulate policy. But again, we 
want to congratulate you for your appointment. We want to work 
with you. I think after you are here a year, you will have a 
better idea on what needs to be done and what can be done. I 
think next year's appearance before this committee will be a 
little bit different, and we look forward to that one also.

                     ADDITIONAL COMMITTEE QUESTIONS

    So thank you for coming this morning. We have got a vote on 
right now. We have got about 7 minutes to make it. I call these 
hearings to a close, and we will send you some questions and 
then some other Senators have some questions. If you could 
respond, that would be great. We look forward to working with 
you.
    Mr. Bosworth. Thank you, Mr. Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]

              Questions Submitted by Senator Conrad Burns

                      FIRE PROGRAM--BUDGET ISSUES
    Question. The proposed budget request for fire does not continue 
much of the funding for rehabilitation and restoration work. In fact, 
it is reduced from $142 million to $3.6 million. What will be the 
impact of this reduction?
    Answer. Rehabilitation and restoration of the burned areas will be 
completed with funding provided in fiscal year 2001 over a period of 
several years. There is no needs assessment that would indicate greater 
funding is required. There are opportunities for the Agency to work 
with other kinds of funds to achieve multiple benefits and complete 
some of the restoration work planned in the National Fire Plan.
    Question. Will the Agency be able to fully restore all the areas 
that were burned under the proposed level of funding?
    Answer. A total of 602 restoration and rehabilitation projects were 
identified from the fiscal year 2000 wildland fires. Fiscal year 2001 
funds ($142 million) are being used to implement 437 of these projects. 
Funds have been used for vegetative management, heritage projects, 
recreation, etc. We will fund the priority projects. To the extent that 
any additional projects are considered valuable, we will fund these 
through other sources.
    Question. If we have another serious fire year, will this amount of 
money be sufficient to address new areas that are burned and require 
restoration?
    Answer. Yes and no. Funds will be available to complete the 
emergency rehabilitation of burned areas. Burned area restoration is 
viewed as an emergency (immediately after the fire). Restoration 
activities are more long-term (1 to 2 years). Funds for restoration 
included in the fiscal year 2001 appropriation to provide long-term 
treatments for the 2000 fires will not be available for long-term 
treatments needed for subsequent fires. The NFS appropriation would 
fund these treatments.
    Question. The Committee is also concerned about the funding 
renovating and construction of fire facilities. The budget request 
reduced the additional money we provided last year by $23 million. Does 
the current state of Forest Service fire facilities place any of our 
firefighters at risk?
    Answer. No, they do not. The FS will not place any employee in a 
facility considered unsafe. Original direction that went out in the 
development of the fiscal year 2001 facility list was to identify 
projects with deferred maintenance needs and/or to address health and 
safety requirements that have changed since original construction as a 
result of new legislation. None of these facilities are considered 
unsafe for use but many are currently substandard and inefficient for 
increased workload of the National Fire Plan. The proper condition of 
USDA Forest Service fire management facilities is critical to 
protecting lives, property, and natural resources. This fact has been 
identified in the National Fire Plan.
    Question. Won't the increased number of firefighters require more 
facilities?
    Answer. Yes, more facilities are required and the construction 
requests reflect the need and are in concert with the increased 
workforce being hired under the National Fire Plan. The greatest need 
is for crew housing, fire engine facilities, and helicopter facilities 
as well as for additional renovation of airtanker facilities.
    Question. How many facilities do we need to renovate or construct?
    Answer. Due to a long-term backlog of deferred maintenance coupled 
with an increased workforce, we estimate that over the long-term (10 
years) approximately 1,500 facilities will need to be renovated or 
constructed.
    Question. How long will it take to do this work at the levels 
proposed in the budget?
    Answer. Current levels of funding to maintain facilities are 
inadequate to meet needs for scheduled annual maintenance. When 
maintenance is not performed on schedule it becomes deferred 
maintenance. Without addressing this, there will be additional annual 
maintenance which is deferred every year, which will in turn increase 
the deferred maintenance backlog. As a result of reduced resource 
levels, bringing facilities up to standard may never be completely 
realized. With the current level of funding we would not be able to 
meet deferred maintenance needs as well as new construction needs.

                SUBURBAN-WILDLAND INTERFACE COMMUNITIES
    Question. Last year's bill required the Forest Service and the 
Department of the Interior to report to the Congress on May 1, with an 
inventory of communities at risk that need fuels reduction treatments 
and any additional authorities needed to increase the number of fuels 
reduction projects in the urban wildland interface. Briefly, what are 
the findings of the report?
    Answer. The list of communities has been completed and includes 
both communities in the ``vicinity'' of public lands and other 
communities in harm's way. The list is expected to be published in the 
Federal Register shortly.
    The report is being finalized and will be provided to the Committee 
when completed.
    Question. How many communities are at high risk and require fuels 
reduction projects?
    Answer. There are a total of about 22,000 communities listed--9,000 
in the ``vicinity'' of public lands and 13,000 other communities in 
harm's way. Most will require some level of land treatment or fire 
prevention efforts.
    Question. How long will it take to do fuels treatments in areas at 
highest risk at current budget levels?
    Answer. Currently, the exact delineation of fuels projects needed 
is being finalized and determination on fuel treatments needed will be 
made at that time.
    Question. Does the Forest Service need any additional statutory 
authority to increase the number of fuels reductions projects in the 
urban wildland interface?
    Answer. No. The Agency is currently reviewing whether additional 
legislation is needed.

                        STEWARDSHIP CONTRACTING
    Question. In the fiscal year 2001 Interior bill Congress expanded 
the Forest Service's authority to enter into stewardship contracts. 
These contracts allow the Agency to exchange forest products for forest 
health work to be performed by private contractors. What role could 
these contracts have in reducing fuel loads, particularly around urban-
wildland interface communities?
    Answer. Many of the projects being implemented under the Forest 
Service's current stewardship pilot authorities, both Section 338 and 
Section 347, are being used to address fuels related issues and, in 
some instances, in wildland-urban interface areas. Two of the 
procedures being tested in connection with the pilots, the exchange of 
goods for services and the retention of receipts, effectively increase 
the total number of acres that can be treated within a project as 
compared to either by Forest Service crews or standard contracting 
methods.
    Question. Should the authority to enter into stewardship contracts 
be expanded?
    Answer. The Forest Service supports aspects of stewardship 
contracting authority, which may provide flexibility in accomplishing 
resource management activities to improve forest health and reduce fire 
risks while providing jobs and products for people. Adding additional 
projects under the pilot authority granted in Section 347 of Title III 
of Section 101(e) of Division A of Public Law 105-277 poses some 
complications. Section 347 requires all project contracts to be awarded 
before September 30, 2002. This does not leave sufficient time to 
initiate, design and complete NEPA for additional pilots. In addition, 
the benefit of conducting more projects to test the new authorities 
adds little to the information being derived from the current projects.
    The Agency will continue to monitor, evaluate, and report on the 
implementation of the existing 56 pilot projects. The results of the 
monitoring will provide the basis for making adjustments to the new 
authorities or requesting additional authorities. The Pinchot Institute 
of Conservation is under contract to carry out monitoring and 
evaluation of the existing pilots in collaboration with a variety of 
interest groups.

                        LONG-TERM FIRE STRATEGY
    Question. The fiscal year 2001 Interior bill required the Forest 
Service and the Department of the Interior to work with the governors 
on drafting a long term strategy for wildland fire management and 
hazardous fuels reduction. What is the current status of this strategy?
    Answer. The long-term strategy entitled, ``A Collaborative Approach 
for Reducing Wildfire Risks to Communities and Fire-Prone Ecosystems,'' 
is in the process of being finalized by the agencies involved.
    Question. When will it be finalized?
    Answer. The goal is to have the strategy approved by the summer of 
2001.
    Question. Has there been general agreement among the stakeholders 
on what needs to be done?
    Answer. Yes. The following are the nine goals that have been 
discussed:
  --Increase public and firefighter safety;
  --Reduce the risk and consequence of catastrophic wildfire;
  --Improve conditions of fire-prone ecosystems (e.g., through the 
        reduction of hazardous fuels) to make them more resilient;
  --Coordinate fire prevention messages to targeted audiences at the 
        local, state and federal level;
  --Promote local action by increasing public awareness and providing 
        tools to enhance local responsibility;
  --Maintain and enhance community health and economic well-being;
  --Increase resource protection capabilities;
  --Provide for the restoration and rehabilitation of fire-damaged 
        lands; and,
  --Enhance collaboration and coordination among all levels of 
        government, tribes, private landowners, and other stakeholders 
        for joint planning, decision-making, implementation, monitoring 
        and learning.

                                SALVAGE
    Question. There are a lot of dead trees on the landscape that could 
be salvaged and used to supply local mills, but if these trees are not 
removed soon they can degrade so much that they lose their commercial 
value. In Montana, the state has had very good success in conducting 
salvage sales on state lands but the Forest Service has not done much 
at all. What progress is the Forest Service making on conducting 
salvage sales in areas that were burned last summer?
    Answer. To date, the Forest Service has offered nine timber sales 
in areas burned in 2000, with a total offer volume of 39.9 MMBF. In 
2001, the Agency plans to offer a total of between 124 to 139.5 MMBF in 
28 sales.
    Question. Why is it taking so long for the Forest Service to 
conduct salvage sales?
    Answer. There are certain minimum timeframes associated with the 
National Environmental Policy Act (NEPA), the Endangered Species Act 
(ESA), and the Forest Service's administrative appeal process (a 
process mandated by the Appeal Reform Act). These requirements are well 
defined and have been refined by court decisions. Salvage sales may be 
administratively appealed, and these same sales may be challenged in 
court if an appeal is not successful.
    Environmental analysis to meet legal requirements of NEPA, ESA, the 
National Historic Preservation Act (NHPA), the Clean Water Act (CWA), 
and other laws can typically take three to six months to complete. In 
order to make informed decisions, field surveys must be completed, 
mitigation measures developed and analyzed, and public scoping of 
issues completed. All of these actions take time, but the result is a 
legally defensible and scientifically credible resource decision.
    Additionally, environmental analyses often include consultation 
procedures with the Fish and Wildlife Service (F&WS) and the National 
Marine Fisheries Service (NMFS), and must be integrated to properly 
evaluate environmental effects. This process sometimes involves 
extended time periods because of limited resources of F&WS and NMFS. 
Further surveys needed for both plants and animals are often time 
sensitive and require a specific time of year to produce an adequate 
survey.
    Question. What, if anything, can the Agency do to expedite this 
process?
    Answer. The Forest Service has some limited opportunities to 
expedite this process. Streamlining and additional efficiencies are 
possible with the NEPA process that could facilitate improved 
performance, including allowing categorical exclusions for certain 
public safety, forest health, and vegetative treatments, more 
standardization in analysis documentation, and increasing contracting 
with outside sources.
    Question. The Forest Service budget indicates that you will only 
offer an additional 150 million board feet above last year's salvage 
levels. Shouldn't there be a much larger increase given last year's 
fires?
    Answer. The increase is consistent with our ability to offer 
salvage sales in fiscal year 2001. Some additional sales may be sold in 
fiscal year 2002, provided the wood has not been significantly affected 
by insects and rot.
    Question. In the previous Administration the Forest Service did not 
request expedited NEPA procedures for the purpose of salvage logging in 
burned areas. Is this a decision that should be reconsidered?
    Answer. The current Agency planning and environmental analysis 
procedures enable thorough and quality decision-making. When and where 
we need expedited procedures, the NEPA and Forest Service policy allow 
for such exceptions. We have used such procedures in the past and will 
use these procedures in the future where appropriate.

                             TIMBER PROGRAM
    Question. This year's budget request for timber is $6 million more 
than last year but only proposes to offer 2.1 billion board feet. This 
is more than 1 billion board feet below what the Agency said it could 
offer in its budget request from last year. A comparison of your budget 
submission from last year to this year's request shows that your unit 
cost per thousand board feet has gone from $120 per thousand to $180 
per thousand.
    Answer. No answer required.
    Question. What explains this large increase?
    Answer. Appeals and litigation on timber sales have consistently 
delayed our ability to achieve our planned offer of timber sales. In 
many cases, litigation has resulted in further delay as sales are 
reworked to incorporate new standards and direction. In some cases 
timber sales have had to be withdrawn or reworked such that the planned 
timber sale volume cannot be accomplished. All of this work has 
contributed to additional costs with no increase in offer volume.
    Question. Does this explain why the Agency has been missing the 
congressionally directed timber offer level of 3.6 billion board feet 
by almost one-half for the past few years?
    Answer. Yes, in part the reasons contributing to increased costs 
provide some explanation. Higher priority work, such as responding to 
last summer's wildfires and implementing the National Fire Plan, use 
the same field personnel as those involved in the timber program, and 
the Agency does not have the flexibility to complete all of this work. 
Finally, the Agency no longer can effectively maintain a timber sale 
pipeline to be used to replace those sales that are delayed.
    Question. What specific things can the Agency do to improve 
performance in the timber program?
    Answer. The Agency needs to provide a more realistic estimate of 
costs and capability to offer sales. The program estimate should allow 
for commonplace rework required due to appeals and litigation and 
sufficient field personnel to rebuild essential skills that have been 
lost. Streamlining and additional efficiencies are possible with the 
NEPA process that could facilitate improved performance, including 
allowing categorical exclusions for certain public safety, forest 
health, and vegetative treatments, more standardization in analysis 
documentation, and increasing contracting with outside sources.
    Question. Will the Agency have any more success in meeting the 
lower proposed offer level, or will the Agency miss this target by 50 
percent as it has in the last few years?
    Answer. The timber sale offer volumes planned in each of the past 
four years could only have been accomplished had there been no serious 
problems experienced during those years. However, appeals and 
litigation on timber sales have consistently delayed our ability to 
achieve our planned offer of timber sales. All of these difficulties 
will continue to contribute to shortfalls in achieving the planned 
timber sale offer volume. However, for fiscal year 2002, we have 
attempted to determine and provide more realistic timber offer numbers 
that reflect the uncertainties the timber sales program continues to 
face.

                   EFFECTS OF FIRE ON OTHER PROGRAMS
    Question. I know that many are concerned that in a bad fire year 
personnel are diverted from their primary activity to work on fires. 
What was the impact of last year's major fire season on the 
accomplishments of the timber sales program and other Agency programs? 
Should this be less of an issue for the timber program as well as other 
programs since we have given the Agency additional funds for fire 
personnel?
    Answer. The Agency has not collected specific information about the 
impacts to the timber sales and other programs resulting from the shift 
in personnel to respond to last year's fires. However, last year's fire 
emergency did affect the accomplishment of other work. With specific 
regard to effects on the timber sales program, Regions 1 and 4 both 
indicated that responding to the wildfires and/or burned area recovery 
work following the fires did reduce the amount of timber sales planning 
and preparation work that was planned last year, and was also a reason 
for the Regions' timber sales offer shortfall.
    The additional funding to implement the ``most efficient level'' 
fire preparedness organization will help reduce the effects of fire 
response on other programs of work during a normal fire season. 
However, it will take some time to accomplish that staffing level and 
also achieve the level of training required so that these new hires can 
replace seasoned personnel from other functions who currently perform 
these duties in response to fire outbreaks. In the case of a severe 
fire season, such as last year, impacts will be significant given it 
will require the commitment of all of our fire resources, both new and 
old.
    Question. Has the Agency identified the number of positions it 
needs to fill to complete work that supports firefighting, as well as 
rehabilitation and restoration efforts, such as biologists, NEPA 
coordinators, and the like?
    Answer. The Agency has tentatively identified approximately 4,000 
positions needed to complete work identified in the National Fire Plan, 
including firefighting, rehabilitation and restoration work, technology 
development, fire facilities reconstruction and construction, 
assistance to States, and community protection and assistance.
    Question. How will the Agency ensure that it does not significantly 
hamper accomplishment by pulling personnel from performing their core 
functions to perform National Fire Plan-related work?
    Answer. At the requested fiscal year 2002 Wildland Fire Management 
funding level, the Forest Service will be able to continue to ensure 
its workforce is the appropriate size, and contains the appropriate 
skills mix to effectively reduce hazardous fuel, undertake 
rehabilitation and restoration work, provide community assistance, and 
handle needed firefighting capability. Requested funding levels in 
other program areas are adequate to complete planned on-the-ground 
resource objectives.

                         CATEGORICAL EXCLUSION
    Question. One tool that the Agency has had in the past was the 
Categorical Exclusion from NEPA for small timber sales. This allowed 
the Forest Service to expedite the NEPA process for small sales. In the 
fall of 1999, a judge in Illinois prohibited the Forest Service to 
continue using the Exclusion. The last Administration promised to fix 
the problem by initiating a new rule-making but this never happened. 
Does this Administration plan to do a rule-making so that this 
Categorical Exclusion can be used again?
    Answer. The Forest Service is collecting information on the scope 
and environmental effects associated with small timber sales, fuel 
reductions, and forest health. After this information is compiled, the 
Agency will determine if a need exists for a categorical exclusion for 
small timber sales. If a Categorical Exclusion is needed, the Agency 
will begin a public process to amend our NEPA procedures. The Agency 
currently has other categorical exclusions that are used for thinning, 
hazard tree removal and other forest vegetation improvements.
    Question. How long will it take to go through the rule-making 
process?
    Answer. A rule-making process takes about 18 months. The process of 
amending our NEPA procedures could take as long as a year. We are still 
evaluating the processes that re needed.

                  FIRE--TRAINING AND HIRING OF LOCALS
    Question. SPF SASI-32. Last summer in Montana, a lot of local 
people wanted to help on the fires but they didn't have the required 
training and certification. Many of these people also had equipment but 
it was not certified by the federal agencies for use on fires. Has the 
Agency done anything to address the issue of training people in local 
communities to work on fires?
    Answer. Workforce training programs instituted in fiscal year 2001 
will enable local residents to develop more competitive skills specific 
to the projected work and government contracting processes.
    Question. Are funds appropriated for the National Fire Plan being 
used to address the problem?
    Answer. Yes, for example on the Bitterroot National Forest the 
Agency plans to expend about $6,000 in fiscal year 2001 to provide 
local training opportunities.
    Question. Can the Committee be assured that similar problems will 
not occur this fire season?
    Answer. In an effort to prevent similar problems from occurring 
this fire season, the Forest Service has implemented partnerships to 
facilitate local workforce hiring. Partners include U.S. Department of 
Labor, State Job Services, AFL-CIO, Local Resource Conservation and 
Development Organizations, and other sister agencies such as the Bureau 
of Land Management.

                     WASHINGTON OFFICE INITIATIVES
    Question. Agency personnel and the public are frustrated with the 
lack of money that makes it to the field for on-the-ground work. In 
recent years, it seems that the Washington Office headquarters has 
grown and takes more and more money ``off the top'' for overhead or 
dubious ``national initiatives.'' What is your opinion about what 
appears to be excessive ``off the top'' charges?
    Answer. In fiscal year 2000, as a result of mid-year review, 
Washington Office (WO) funding--off the top--was reduced to $350 
million. This amount includes funding not only for the WO, but includes 
resources to support for detached units such as the National 
Interagency Fire Center (NIFC) and funding for nationwide costs paid 
centrally which support such things as costs for the National Finance 
Center, financial management systems, telecommunications. In addition 
this amount includes resources for priority projects where funding is 
shown as ``off the top'' but goes out to the field as a specific 
earmark. The Agency is committed to sustaining this reduced level, 
absorbing all uncontrollable costs in fiscal year 2001 and aggressively 
moving towards reducing this level in fiscal year 2002. In order to 
establish the level of funding for the WO for fiscal year 2002 and 
reduce the number of off-the-top projects, we are in the process of 
evaluating projects by a team of WO and field personnel. We expect this 
process to be completed and finalized by mid-June.
    Question. What can the Agency do to become more efficient and get 
more money to the field for projects?
    Answer. The Agency has begun an intensive review of ``off the top'' 
funding with the objective of maximizing funds to the ground. We are 
currently in the final stages of this review. While every effort is 
being made to keep the headquarters office lean, it is also clear that 
new ways of doing business must be found for many ``off the top'' 
activities which support field operations. Some examples include 
possible changes in how detached units are funded and managed, how 
nationally significant field based projects can be accomplished without 
the holding of funds in headquarters, and how transfers are managed for 
departmental assessments.
    Question. Do we need fewer people in the Washington Office and more 
people at the Regional or Forest level?
    Answer. Employees in the Washington office perform a valuable 
function for the Agency. Critical jobs that support Agency 
accountability, communication, and program leadership reside in the 
Washington Office. It is not sufficient to simply say the Washington 
Office has too many people. A thorough review of how headquarters 
operations are funded is necessary. Additional reviews of the efficient 
placement of people performing work in support of the field, and the 
processes and systems associated with headquarters support must be 
examined. We expect these evaluations will be an integral part of 
Agency and departmental streamlining initiatives.

                       CONTROVERSIAL RULEMAKINGS
    Question. In the final days of the last Administration, a number of 
controversial rulemakings like the Roadless rule were promulgated. Some 
of these are being litigated and the Agency may be limited in what it 
can say about them. Which of the major rulemakings of the Clinton 
Administration are being reviewed by the current Administration?
    Answer. The Department of Agriculture is reviewing two major Rules 
concerning the management of National Forest System lands that were 
promulgated during the final days of the Clinton Administration: the 
Roadless Area Conservation Rule and the National Forest Management Act 
(NFMA) Planning Rule.
    Question. What is the timeframe for decisions to be made about 
whether to modify or maintain these rules in their current form?
    Answer. Roadless Rule: On May 4, 2001, Agriculture Secretary Ann M. 
Veneman announced that the Forest Service would implement the Roadless 
Area Conservation Rule, effective May 12, 2001. The U.S. District Court 
for the District of Idaho on May 10, 2001, preliminarily enjoined the 
Department from implementing the Rule. However, the decision does not 
preclude the Department from taking steps to address the concerns 
raised about the Rule by interested parties, local communities, tribes, 
and states impacted by the Rule.
    Planning Rule: Many Forest Service employees, retirees, elected 
officials, and representatives of external organizations interested in 
National Forest System management have expressed serious concerns to 
the Administration regarding the Agency's ability to implement some of 
the provisions of the November 9, 2000, planning rule. A modification 
extending for one year the date by which all plan amendments and 
revisions must comply with the new planning rule was prepared and 
published in the Federal Register on May 17, 2001. The Department has 
made the decision to review certain provisions of the planning rule 
carefully and identify and propose any adjustments that may be 
necessary in a future rulemaking effort.
    Question. What, if any, budgetary impacts might there be if these 
rulemakings require modification?
    Answer. The costs associated with modifying the Planning Rule will 
be covered by the Agency out of funds appropriated by the Congress in 
fiscal year 2001 for land management planning purposes. Funds set aside 
for implementing the new Planning Rule will now be used to modify and 
implement it. No reductions in field allocations will be made as a 
result of this decision.

                        FINANCIAL ACCOUNTABILITY
    Question. The latest report from the GAO continues to list the 
Forest Service as an Agency at high risk for waste, fraud, and abuse. 
When will the Forest Service be able to obtain a clean audit opinion so 
that it can be removed from this list?
    Answer. The GAO added the Forest Service to the high risk list in 
its January 1999 report, identifying ``pervasive and long-standing'' 
weaknesses in the financial accountability area. The Forest Service 
replied to the GAO, outlining its corrective action plans for this 
area. When GAO issued the January 2001 high risk list, the same issues 
were not addressed, but were replaced by two new areas: need to improve 
its organizational alignment and control by linking its budget and 
organizational structures as well as its budget allocation criteria, 
forest plans, and performance measures to its strategic goals, 
objectives, and strategies; and lacking financial accountability within 
its existing field structure.
    The Forest Service has prepared and is implementing corrective 
action plans for each of these areas. The Forest Service anticipates 
obtaining an unqualified audit opinion on a significant portion of 
fiscal year 2001 financial statements, i.e., the Agency's balance 
sheet. The Forest Service anticipates obtaining an unqualified audit 
opinion on all of the Agency's fiscal year 2003 financial statements. 
GAO requires the receipt of unqualified audit opinions for two 
consecutive years before removing an Agency from the high risk list. 
Therefore, the Forest Service anticipates to be removed from the high 
risk list two years after receipt of an unqualified audit opinion.
    Question. What are the key problems that the Agency faces in 
getting a clean audit?
    Answer. Based on the U.S. Department of Agriculture Office of 
Inspector General (OIG) Audit Report of Forest Service fiscal year 2000 
Financial Statements, the following key problems have been identified 
as hindering the Agency from obtaining an unqualified audit opinion in 
fiscal year 2000:
  --The Forest Service converted from the legacy Central Accounting 
        System to the new Foundation Financial Information System 
        (FFIS) during fiscal year 2000. Due to the complexity of FFIS, 
        Forest Service and OIG unfamiliarity with extracting data from 
        FFIS, and difficulties in extracting data listing all Unpaid 
        Obligations, Accounts Receivable, and Accounts Payable as of 
        yearend and data for Revenues and Expenses, there was a 
        substantial delay in OIG statistical sampling and field-testing 
        until mid-January, 2001. OIG audit fieldwork was further 
        hindered because the Forest Service was unable to trace many of 
        the sample transactions related to automated processes for 
        indirect cost distribution and automated processes used to 
        compensate for problems in interfacing other accounting systems 
        with FFIS.
  --The OIG was unable to determine the accuracy of total fund balances 
        with the U.S. Treasury in the Forest Service balance sheet as 
        of September 30, 2000. However, the Forest Service has made a 
        significant improvement in this area. Last year, fiscal year 
        1999, the OIG reported that the fund out-of-balance condition 
        between Treasury records and the Forest Service general ledger 
        totaled about $674 million. For the fiscal year ended September 
        30, 2000, the absolute value of the out-of-balance amount 
        totaled about $180 million. The Forest Service is continuing 
        its reconciliation efforts in cooperation with USDA and the 
        OIG.
  --The OIG was unable to determine the reliability of individual real 
        property assets that comprised $1.8 billion, i.e. 38 percent, 
        of the Agency's book value of General Property, Plant, and 
        Equipment. However, during fiscal year 2000, the Forest Service 
        successfully implemented a road costing methodology that 
        provided an auditable value of $2.57 billion for the Agency's 
        381,000 miles of roads. The Forest Service is aggressively 
        continuing corrective actions through fiscal year 2001 to 
        provide auditable values for real property.
  --The OIG was unable to determine the reliability of the Statement of 
        Budgetary Resources because significant adjustments were made 
        to the FFIS general ledger trial balances for various Treasury 
        symbols to equal amounts shown in treasury records. The 
        Statement of Budgetary Resources was incorporated into the 
        Federal financial statements in 1998 and was created as an aid 
        in controlling the use of budget authority, consistent with 
        requirement of fiscal laws such as the Anti-deficiency Act. 
        Because the Statement of Financing is used to reconcile the 
        differences from accrual-based measures in the Statement of Net 
        Cost with the obligation-based measures used in the Statement 
        of Budgetary Resources, the scope limitations relating to the 
        Statements of Net Cost and Budgetary Resources also affected 
        the Statement of Financing.
    Due to the extent of the limitations noted above, the OIG was not 
able to express an opinion on the financial statements.
    Question. This has been a problem for years. Why is it taking so 
long to fix it?
    Answer. Until fiscal year 2000, the Forest Service did not have an 
integrated accounting system. While the Forest Service is still using 
some antiquated subsidiary (``feeder'') systems, the Agency's Federal 
Financial Managers Integrity Act (FFMIA) remedial action plan includes 
corrective actions to enhance the performance of some of these systems 
and to integrate other activities into FFIS. Major efforts have been 
focused on improving system availability, data credibility and system 
reports, eliminating ``feeder'' systems, aligning financial management 
processes, and linking financial and program data.

                            FIRE DEFICIENCY
    Question. The Forest Service fiscal system had a major backlog at 
the end of the fiscal year which resulted in a large number of fire-
related transactions being posted on the last day of the fiscal year, 
and before additional funds could be advanced to cover these expenses. 
This resulted in the Forest Service being in technical violation of the 
Anti Deficiency Act. What exactly occurred?
    Answer. The Washington Office staff closely monitored obligations 
the closing weeks of the fiscal year. At the end of the day on Friday, 
September 29th, it appeared that the approved apportionment of an 
additional $76 million from KV would provide sufficient resources to 
close the books for the fiscal year in a state of solvency. The 
Wildland Fire Management appropriation had $1.3 billion available for 
Wildland Fire Management activities. At the end of September, with fire 
suppression obligations around $800 million and total obligations of 
just over $1.2 billion, it appeared that sufficient funds were 
available.
    However, additional transactions input on the evening of September 
29th, weekend processing of payroll and upload from feeder systems, as 
well as missed obligations reported as part of the year end close 
process revealed that total obligations for fire suppression activities 
topped $1 billion, and total appropriation spending was close to $1.5 
billion.
    Over $200 million was obligated the last day of the year, which 
prompted an in-depth review. In addition to only 50 percent system 
availability the month of September, and a slow system due to a severe 
overload of activity from the worst ever fire season, this review 
revealed:
  --Obligations for payments to states should have been entered 
        earlier.
  --Timely estimates were not received from state firefighting 
        organizations.
  --Many of the large contracts for catering and aircraft were not 
        obligated until the last few days of the year.
  --Many obligations had to be entered the first few days of the new 
        year against the prior year because the system was not 
        operating smoothly.
    Question. What steps are being taken to prevent this from happening 
again?
    Answer. As a first step, the Forest Service conducted an in-depth 
review which identified a number of improvements to prevent a future 
anti-deficiency. In working with the USDA Project Office, the Forest 
Service has taken many steps to reduce the time needed to run the 
nightly cycle, which has resulted in a stable system and full 
availability during the day.
    A team was formed to look at both improved methods of payment and 
more timely obligations. Direction will be issued to the field units in 
early June with alternative payment methods to be implemented when 
overloads occur at any location. This will overcome many of the delays 
that took place last year. Additional detailed direction will be issued 
regarding obligations, ensuring that all obligations will be entered 
into FFIS on a more current basis. The Washington Office will have a 
better understanding of obligations being incurred throughout the year, 
and increased emphasis placed on compliance with due dates the last 
month of the fiscal year. Special emphasis is being placed on the big 
ticket items, such as contracts and the agreements with the states.
    Question. Why is the Forest Service still having such a difficult 
time getting its fiscal and accounting systems in order?
    Answer. The implementation of FFIS has been a challenge for the 
Forest Service. However, the vast majority of problems recently being 
experienced are related to the old feeder systems still in use. These 
feeder systems were built 20 or more years ago to facilitate the 
processing of payments and intra-governmental transactions. Many of 
these old technologies still require intensive manual input and the 
interfaces to submit the transactions from these feeder systems to FFIS 
are complex. The manual input is prone to human error. These interfaces 
need to connect the old technologies to the more modern technology of 
FFIS. Often the old technologies were designed to work in ways that are 
not compatible with FFIS processing and, likewise, FFIS works in ways 
not compatible with the feeder system processing. Minor, seemingly 
inconsequential, mistakes can lead to significant problems in payment 
and billing processing. Edits needed to successfully process 
transactions in FFIS are too complex to be incorporated in the feeder 
systems or the interfaces with the feeder systems. This means 
transactions can still fail to be recorded in FFIS even though they are 
successfully recorded in the feeder system, thus delaying payment until 
the problem in FFIS is corrected.
    The feeder system processes are often transparent to the user. 
Users often consider FFIS as the problem when, in fact, a feeder system 
has created the problem. It's also common for any payment-related 
problems to be characterized as ``FFIS problems'' because payments are 
closely associated with the accounting system. The new financial 
environment of tighter controls and more stringent standards coincided 
with the implementation of FFIS. The resultant policies from this 
stricter environment were not always readily acceptable by all users or 
otherwise created more work for them. Displeasure from this stricter 
environment was often blamed on FFIS since FFIS is the new accounting 
system.
    The complexity of FFIS has also created training issues. Some 
processes are, unfortunately, necessarily complex and any error in the 
process of establishing or recording a transaction will cause the 
transaction to fail. Often these processes are performed only on an 
occasional basis, so user familiarity with the process is diminished 
making errors more likely to occur.
    The Forest Service has initiated a new training program to 
explicitly address the training issues. New training courses are being 
developed with a focus not just on how FFIS works, but also on how to 
specifically perform Forest Service business processes using FFIS.
    The USDA Associate Chief Financial Officer (ACFO) for Financial 
Systems is working cooperatively with the Forest Service to resolve the 
feeder system issues. Processes and solutions to existing problems have 
been and continue to be pursued. A Memorandum of Understanding (MOU) 
was established to allow the Forest Service, the National Finance 
Center (NFC), and the ACFO to work cooperatively and provide a formal 
tool to address issues and operations. Summit Teams with members from 
the Forest Service, the NFC, and ACFO office were created in October 
2000 to specifically address and resolve the significant issues. Many 
of the issues addressed by the Summit Teams have been resolved and the 
teams continue to work on remaining issues. An issue tracking system 
was established to record issues and monitor progress on the resolution 
of issues. The ACFO conducted a formal study to specifically address 
the feeder systems with recommendations on replacement, integration, or 
enhancement of them.
    The Forest Service created a special team tasked to resolve data 
quality issues that resulted from the problems experienced from feeder 
systems and implementation. This team is called the Financial 
Accountability and Stabilization Team (FAST). FAST has already resolved 
most of the original issues it was chartered to fix and it continues to 
evolve to address additional issues as they arise.
    The Forest Service conducted a Post Implementation Assessment (PIA) 
of the FFIS implementation. The PIA identified both the strengths and 
weaknesses of the implementation effort. The PIA provided the Forest 
Service with a roadmap to improve upon the FFIS implementation to help 
assure success with continued FFIS operations.
    While problems and issues are still present, significant progress 
has been made towards resolving them. To fully resolve all the problems 
with the feeder systems will take several years as resolution may 
require the complete replacement of most feeders. However, short-term 
solutions to problems will continue to be sought and implemented.

                            TIMBER QUESTIONS
    Question. The Chief has stated recently that one factor limiting 
the Forest Service's capability to offer timber is attrition of 
employees with special skills in timber sales preparation and 
administration. What steps is the Agency taking to address its need for 
employees with special skills in timber sale preparation and 
administration?
    Answer. The Agency is making a concerted effort to identify key 
skill deficiencies and fill vacant positions, as needed.
    Question. The Chief has also commented that the timber pipeline has 
been virturally eliminated. Would additional funds for the Forest 
Service timber program to add pipeline volume help address this 
problem, or is this the amount requested the total amount the Agency 
could expend in fiscal year 2002?
    Answer. Additional funding could be dedicated to preparing pipeline 
volume in advance that could hopefully be offered two to four years 
later, however only if the current issues surrounding the timber sale 
program can be resolved would we be successful in increasing the timber 
sale program. This is because the nature of the issues is such that 
they not only affect the sales offered and under contract, but also the 
sales in the pipeline. We cannot guarantee that additional sale 
pipeline work could be offered as planned if future issues about the 
timber sale program continue to be raised.
    Question. What specific actions could Congress take that would help 
the Agency increase timber pipeline?
    Answer. The Administration is evaluating its administrative 
authorities, which is an appropriate first step to take.
    Question. What administrative actions can the Agency take that help 
increase timber pipeline?
    Answer. We can allocate sufficient resources within our budget 
request to increasing the timber sale pipeline by maintaining a cadre 
of dedicated field personnel. However, as we stated in answer above, 
unless the nature of the issues surrounding the timber sale program 
change, these issues are likely to affect the timber pipeline as well, 
resulting in no appreciable increase in timber sale offer in future 
years.
    Question. Currently, there is litigation in the South, the Pacific 
Northwest, and Alaska that has caused enormous problems for the timber 
program in those areas? What is the status of litigation in these 
areas?
    Answer. It is correct that litigation has caused an enormous impact 
on the programs of almost every Region. This impact has resulted in 
longer timelines and increased cost to the program, in addition to the 
delays or cancellation of proposed sales. None of the cases noted above 
are on a timeframe to suggest an early resolution partly because there 
has been a history of appeals after decisions have been made. 
Generally, it will take 2-3 years to resolve a case. Afterwards, most 
of the projects involved need to go through an evaluation of new 
information and changed circumstances that can lead to reinitiation of 
the NEPA process. This can add considerable time to get a project under 
contract.
    Question. What amount of volume is currently being held up because 
of litigation in these areas?
    Answer. The best estimate we can provide at this time is that 40-50 
percent of these regions' programs is being held up by the present 
litigation. We do not have a specific figure because we do not track 
litigation delays separately.
    Question. When does the Agency expect that the most significant 
lawsuits in these areas can be resolved?
    Answer. There is no way to definitively say when these lawsuits 
will be resolved. Although there are ongoing settlement discussions in 
the South, we have found that additional lawsuits by other parties 
continue the delay. And, as noted, there are often additional appeals 
to the decision and/or motions to amend complaints that make this an 
impossible process to predict.
    Question. The Committee is concerned about reports that the Salvage 
sale fund is seriously depleted due to rising preparation costs and 
litigation. What is the current amount in the Fund?
    Answer. At the start of fiscal year 2001, the regions reported 
total funds available of over $129 million.
    Question. Is this sufficient to conduct all proposed salvage sales 
for fiscal year 2002?
    Answer. As a permanent appropriated fund, our policy requires that 
each unit manage its respective Salvage Sale Fund (SSF) and plan its 
salvage sale program to ensure SSF is available to meet the timely 
salvage of insect-infested, dead, damaged, or downed timber, and 
associated trees for stand improvement. National direction expects each 
unit to maintain its salvage sale fund at one and one-half times its 
three-year average salvage sale program needs. The $129 million 
available to start the fiscal year 2001 program is at least $45 million 
less than this level. Since the preparation and submission of the 
President's fiscal year 2002 Budget, it has become apparent that the 
balance within some regions' salvage sale accounts will not be 
sufficient to conduct all proposed salvage sales in fiscal year 2002, 
without deleting reserves. This is due to low values for the salvage 
being sold, and therefore low collections into the salvage sale fund. 
Additionally, large-scale, catastrophic events similar to those that 
occurred last year could quickly exhaust the available SSF.
    Question. If not, how much additional funding is needed?
    Answer. The Regions have the opportunity to use appropriated funds 
to carry out their salvage sale program if they do not have adequate 
funds in their salvage sale account. The use of appropriated funds in 
this manner may affect the total amount of timber offered by the Agency 
because appropriated funds are limited. We continue to work with the 
field units to ensure that they are maximizing the opportunity for 
placing collections into the salvage sale fund.

                                PLANNING
    Question. The Agency anticipates that 18 forest plans will be 
completed, 9 forest plan revisions will be initiated, and 16 forest 
plan revisions will continue during fiscal year 2002. Is it possible to 
take these actions on forest plans given the Acting Deputy Under 
Secretary's report to the Forest Service concerning problems with the 
recently issued planning rules? How will the Agency's review of the 
planning rule affect the budget request for fiscal year 2002 Land 
Management Planning funds?
    Answer. Work on all on-going Forest Plan revision efforts, 
including those initiated this year, will continue even though the 2000 
Planning Rule will be reviewed and possibly adjusted. The Agency 
prepared and published a modification extending the transition language 
in the 2000 Planning Rule that allows these revision efforts to be 
completed either under the 1982 Rule or the 2000 Rule. The Agency 
expects most of these efforts will continue and be completed under the 
1982 Rule.
    Question. How will the Agency's review of the planning rule affect 
the fiscal year 2002 budget request for Inventory and Monitoring funds?
    Answer. The Agency's review of the of the 2000 Planning Rule will 
not affect the fiscal year 2002 budget request for Inventory and 
Monitoring funds. The workload and accomplishment during the year may 
shift somewhat to reflect a greater emphasis on conducting inventories, 
watershed assessments and monitoring instead of the up-front broadscale 
assessment work required under the new Rule.
    Question. How would the Agency's unit costs for planning and 
inventory and monitoring be affected if the new planning rules were 
fully implemented in the planning process for fiscal year 2001 and 
fiscal year 2002?
    Answer. The 2000 Planning Rule has some new and different 
requirements regarding collaboration, the integration of science into 
planning, and conducting assessments and analyses related to 
sustainability and species viability. A Forest Service review team 
recently concluded that problems identified as a result of these 
changed requirements raise questions as to the Agency's ability to 
implement the final Rule. Implementing these requirements could 
increase the unit cost for conducting a Plan revision. However, the new 
Rule also provides more flexibility for Agency line officers in 
determining how many of these and other requirements are implemented in 
any given revision effort. As a result, the cost of conducting a Forest 
Plan revision could vary significantly and may be less than under the 
1982 rule. The Agency is currently reviewing the new Rule to determine 
if any adjustments are needed and will also be developing guidance for 
implementing the Rule. Until this implementation guidance is developed, 
the effect of the new Rule on the cost of conducting Plan revisions 
will not be possible to estimate; however, it is our intent to reduce 
costs wherever possible.
    Question. What, if anything, is the Agency doing to reduce unit 
costs for forest planning activities?
    Answer. The Agency is trying to ensure that Plan revisions are 
conducted in the most efficient and effective manner possible. Unit 
costs are being reduced by combining specific revision activities 
within and among Forests. In some cases, Administrative Units with 
multiple Plans are conducting simultaneous revision efforts or 
combining the revision of two Plans into a single Plan. Similarly, the 
Agency is scheduling joint revision efforts on adjacent Forests with 
similar issues and land conditions to increase efficiency and be more 
responsive to local publics. The Agency is also trying to ensure that 
Forest Supervisors have as much flexibility as possible in determining 
the scope of individual revision efforts and don't have to conduct 
unnecessary analyses or go through other irrelevant planning steps.

                             SURVEY/MANAGE
    Question. Due to a provision in the Northwest Forest Plan that the 
Agency did not comply with related to the counting of individual 
members of various species like fungi and mollusks, a majority of the 
timber sales under the plan were enjoined or held up administratively 
for fear that they would violate the Court's injunction. What is the 
current status of the Agency's efforts to address this problem?
    Answer. A Northwest Forest Plan amendment, known as the Survey & 
Manage Record of Decision and Standards and Guidelines (ROD), was 
signed by the Secretaries of the Interior and Agriculture in January 
2001. With implementation of this ROD in February 2001, the problem 
described above was fully addressed and resolved. As a result of this 
ROD, timber sales are no longer enjoined, as the injunction, as well as 
a consequent court settlement, has ended.
    In this ROD, species (such as some fungi and mollusks) that were 
too difficult and inappropriate (i.e., not practical) to survey prior 
to projects such as timber sales, require broader and more suitable 
survey efforts called strategic surveys. Thus, only those species that 
can be adequately located and identified in a reasonable timeframe 
(i.e. practical, pre-disturbance surveys) are surveyed prior to timber 
sale plan completion. Throughout Washington, Oregon and California, 67 
species are currently considered practical to survey prior to timber 
sale plan completion.
    Additionally, in this ROD, some species were removed from the 
Survey & Manage lists.
    Question. What level of timber will the Agency offer in fiscal year 
2001 and fiscal year 2002 in areas covered by the Northwest Forest 
Plan?
    Answer. The Agency can offer up to 421,000 CCF (Hundred Cubic Feet) 
equivalent to about 211,000 MBF (Thousand Board Feet) in fiscal year 
2001, and 310,000 CCF (about 158 MBF) in fiscal year 2002. If the 
current lawsuits affecting the Northwest Forest Plan Forests can be 
resolved before year-end, substantially more volume could be offered. 
These numbers include regular program, salvage, and anticipated fiscal 
year 2000 carryover sales.
    Question. How much is it going to cost for the Agency to comply 
with the onerous survey requirements of the Northwest Forest Plan in 
fiscal year 2001 and in fiscal year 2002?
    Answer. To meet survey requirements of the Northwest Forest Plan, 
the funds received and distributed to Regions 5 & 6 for the fiscal year 
2001 Survey & Manage species surveys within planned timber sale areas 
was $10 million ($3 million to R5 and $7 million to R6). These surveys 
are called pre-disturbance surveys. These timber sale survey funds were 
divided into several parts: pre-disturbance surveys (required before 
sales can be awarded) and re-work on awarded, enjoined sales; pre-
disturbance surveys and rework for replacement volume sales; pre- 
disturbance surveys of timber sales not awarded, but delayed; and 
surveys of new timber sales.
    To meet survey requirements of the Northwest Forest Plan in fiscal 
year 2002, we project up to a 20 percent reduction from the fiscal year 
2001 funding level to implement pre-disturbance surveys on timber 
sales. Besides meeting fiscal year 2002 timber sale work, the Agency 
would conduct initial surveys for future timber sales.
    Another type of survey effort, called a strategic survey, is used 
for all species, and especially for species that are not practical to 
survey for. In fiscal year 2001, $10 million was received and 
distributed in Regions 5 and 6 for strategic surveys. Several 
activities are funded in the strategic survey efforts including: 
information/data management; management recommendations that provide 
guidelines for species site management; strategic surveys (e.g., 
habitat modeling, random plot surveys, known site re-visits); and 
survey protocol development. For fiscal year 2002, $9.5 million is 
needed to meet strategic survey needs of the Northwest Forest Plan.
    Question. What line items will be assessed to pay for these costs?
    Answer. Pre-disturbance surveys within planned timber sale areas 
are funded by the Forest Products budget line item. Strategic surveys 
were funded out of the Inventory and Monitoring budget line item in 
fiscal year 2001.
      interior columbia basin ecosytem management project (icbemp)
    Question. After years of work, a final Record of Decision has not 
been issued with respect to the Interior Columbia Basin Ecosystem 
Management Project. When does the Forest Service and BLM anticipate 
issuing a final ROD? What obstacles remain before this ROD can be 
finalized?
    Answer. A Final Environmental Impact Statement (EIS) and Proposed 
Record of Decision (ROD) were released on December 15, 2000. Forest 
Service and Bureau of Land Management (BLM) Regional Executives asked 
their staffs to develop options to address how to proceed with ICBEMP. 
An initial set of options was identified. Additional staff work is 
being done on a subset of these options that will include the 
identification of any major implementation obstacles. The Regional 
Executives will forward one or two recommended options on how to 
proceed to the Chief and Acting BLM Director, most likely in July 2001. 
These recommendations will then be discussed with the Secretaries of 
Agriculture and Interior. If the decision is made to finalize a ROD, 
the Agency will develop an implementation plan that will address any 
identified obstacles.
    Question. What options are agencies considering for implementation? 
(All the ones stated in the EIS, or potentially other ones that would 
require additional NEPA documentation.)
    Answer. As the agencies implement the ICBEMP (with or without a 
ROD), they currently plan to do so in general conformance with one of, 
or a combination of, the options identified in the EIS.

                                RESEARCH
    Question. The Agricultural Research, Extension, and Education 
Reform Act of 1998 mandated major enhancements in the FIA program. One 
of these was that the Forest Service needed to move to an annualized 
inventory of forest lands in all states. The FIA program provides the 
only continuous inventory that quantifies the status of forest 
ecosystems, including timber and non-timber information across all 
landownerships in the United States. This information is very important 
to industry and state foresters, among others. What is the cost to 
perform inventories on an annualized basis?
    Answer. We estimate that it will cost $6.5 million in 2003, the 
anticipated first year of full implementation, to deliver a basic level 
of FIA service to all customers.
    Question. Given the importance of the program, why hasn't research 
increased funding for it for fiscal year 2002?
    Answer. The President's Budget is prioritized and balanced to focus 
resources on the programs and outcomes that are most vital to achieving 
the objectives and goals of the Agency. The fiscal year 2002 funding 
level for FIA reflects the Agency's capability to complete priority 
work activities within the framework of the total Research budget.
    Question. Last year, the Forest Service has entered into an 
Memorandum Of Understanding (MOU) with the National Association of 
State Foresters which states that if Congress does not provide certain 
levels of funding for this program as set out in the MOU, the Agency 
will redirect other program funds to make up the difference. What 
amount of funding is stated in the MOU for fiscal year 2002?
    Answer. $56,700,000 was the funding level specified in the MOU.
    Question. From what other sources does the Agency plan to redirect 
funds if sufficient money is not appropriated to meet the levels in the 
MOU?
    Answer. The Agency is currently reviewing the applicability of the 
non-binding MOU and alternatives to achieving the level of funding 
suggested.
    Question. Will the Agency submit this ``redirection'' for a 
reprogramming?
    Answer. The Forest Service will comply with the applicable laws and 
guidelines regarding reprogramming.
    Question. If money is redirected within research, from what program 
areas would it come?
    Answer. If the redirection involves reprogramming of appropriated 
funds across appropriation ``mainheads'', then the Agency will submit 
this request. However, all three Forest Service resource Deputy Areas--
Research, State and Private Forestry, and National Forest Systems--have 
existing Congressional authorizations to spend appropriated funds on 
forest inventory and monitoring as a normal part of their work.
    Question. Currently funds are appropriated for FIA in the Research, 
State and Private Forestry, and National Forest System appropriations. 
What, if any difficulties, does this cause in administering the 
program?
    Answer. Dispersion of funding results in two challenges. Because 
FIA is jointly administered by six Regional Research units, there is a 
need to negotiate and transfer the four different sources of funding to 
their management destinations in the FIA units in Research stations. 
Secondly, cost-sharing of S&PF funds in future years will be a 
challenge. Western states may be less-willing to cost-share an 
inventory program that takes place primarily on federal lands and does 
not qualify for cost-share matches.
    Question. What has been the position of program stakeholders like 
the state foresters and industry with respect to the current funding 
mix?
    Answer. Most program stakeholders are not aware of or exposed to 
the challenges caused by the funding mix; as long as the program is 
delivered, they are satisfied. The National Association of State 
Foresters (NASF) is aware of the issue due to its unique role as 
program partner as well as customer.
    Question. For example, would it be more useful to have more money 
in S&PF versus Research or vice versa?
    Answer. There are some difficulties that arise, however the Forest 
Service is reviewing methods for better coordination among the staffs 
and possible consolidation of resources in one line item.
    Question. The Forest Service is proposing in the fiscal year 2002 
budget to reduce funding for the Joint Fire Science Program from $8 
million to $4 million. The Department of the Interior has maintained 
the funding at $8 million. Why has the Forest Service proposed reducing 
this program, particularly given the severe fire risk in our nation's 
forests?
    Answer. Based on competing priorities for Wildland Fire Management 
and other program funds to implement the range of wildland fire 
preparedness, fire operations, and other critical activities in fiscal 
year 2002, the $4 million level is the amount available for the Joint 
Fire Sciences Program in fiscal year 2002.
    Question. What, if any, problems will be caused by the proposed 
discrepancy in funding between DOI and the Forest Service?
    Answer. The Joint Fire Sciences Program (JFSI) was designed to 
operate with equal contributions from each of the two departments. 
Unequal representation could be an impetus for having to change the 
representation on the Governing Board and in the newly established 
Stakeholder Advisory Group.

                             MISCELLANIOUS
    Question. What is the current status of the Agency's efforts to 
complete the inventorying of its real property assets through the INFRA 
database system?
    Answer. The Forest Service is currently tracking the vast majority 
of its real property assets within the Agency's Infrastructure (INFRA) 
asset management system. Within INFRA modules, the Forest Service is 
tracking buildings, dams, roads and road bridges, trails, 
administrative sites, campgrounds and other Recreation developed sites, 
and other assets that are used as part of the management of the Agency. 
However, INFRA modules for assets used for fish and wildlife habitat, 
geology and minerals, and parts of the Agency's watershed programs have 
not yet been developed. Because there are fewer of these assets and 
they generally have a lower value, the development of other asset 
modules took precedence. The mining site module is currently under 
development and Forest Service will develop modules for the remaining 
assets in the future.
    Question. Has agreement been worked out with the Inspector General 
regarding threshold values that Question trigger requirement to 
inventory, and sample size for roads?
    Answer. The Forest Service and USDA regulations require an 
inventory of all real property assets every two years, regardless of 
value. The current capitalization threshold for all USDA agencies is 
$5,000. The Forest Service and the OIG have discussed threshold values 
which would in turn trigger an inventory or the development of a 
sampling methodology for inventorying all real property. The USDA 
Office of the Chief Financial Officer is in the process of 
recommending/negotiating a Departmental policy which would increase the 
current capitalization threshold. While the amount of the new 
capitalization threshold is unknown at this time, it is anticipated to 
be agreed upon by July 31, 2001.
    Question. How is the effort to interface the INFRA database with 
the Agency's new FFIS accounting software progressing? Have any 
compatibility problems arisen? If so, what is the Agency doing to 
resolve these problems?
    Answer. The Forest Service is aggressively pursuing efforts to 
interface the INFRA database with FFIS. Toward this end, the Agency 
routinely incorporates necessary attributes within the development of 
INFRA modules to assure compatibility between INFRA and FFIS.
    Question. Last year, a major budget restructuring was approved by 
the Committee. Has this reduced the number of accounting transactions 
that were overloading the accounting system? If so, how much have they 
been reduced.
    Answer. FFIS is a financial management system that is in compliance 
with the implementation of the U.S. Government standard general ledger 
(SGL) at the transaction level. Implementation of the SGL at the 
transaction level assures that the reporting and accounting comes from 
the accounts and the journal entries. The impacts of the budget 
restructuring did not result in a reduction of full time equivalents 
(FTE's), closing campgrounds or offices, or reducing the number of 
contracts and/or agreements that the Forest Service has with 
cooperators, government agencies, or commercial vendors for the 
delivery of goods and/or services. Thus, a reduction was not realized, 
and there was no significant impact on the number of initial 
transactions processed from the various feeder systems, such as, 
purchase orders, payment of telephone and utilities, or payroll. 
However, the budget restructuring significantly improved the overall 
time required to execute offline processing jobs supporting FFIS.
    The monthly cycle, as the name suggests, occurs once a month. The 
purpose of the monthly cycle is to close that month (accounting period) 
for internal and external reporting purposes. The Forest Service runs a 
series of jobs during the monthly cycle to support the payment and 
billings processes, as well as perform general ledger updates. Cost 
allocation, which is a major part of the monthly cycle, is the process 
of distributing costs or revenues from a pool to one or more bases. For 
the Forest Service, this equates to distributing from a pool budget 
line item to prospective budget line items. This process distributes 
actual indirect costs associated with providing services that are not 
directly identifiable with a specific accounting entity.
    The budget restructuring process, along with a few other changes, 
significantly enhanced the efficiency of the job processing time. From 
October through March of fiscal year 2000 compared to fiscal year 2001, 
we have reduced the number of general journal records produced as a 
result of the cost allocation process from 152,264,388 to 99,488,178, 
which is a reduction of 52,776,210 records. Reducing the number of 
journal records also improved the efficiency and processing time of 
other jobs that run in the monthly cycle, such as, maintenance 
(performing backups of tables and journals), and the process to copy 
and store records in the Financial Data Warehouse. Also, by default the 
number of records stored in the Financial Data Warehouse has been 
reduced. With improved performance in the monthly cycle FFIS is 
available to the users two days earlier (i.e. currently down only one 
day at the end of the month as opposed to three days in fiscal year 
2000).
    Question. Have any unanticipated problems occurred because of 
budget restructuring?
    Answer. The Agency is very satisfied with the new budget structure. 
There is some concern that on a stand-alone basis the information 
collected through accounting and formulation operations using only this 
structure may not be sufficient. The Agency has developed over 50 
activity/output measures that tier directly to the new budget 
structure. Incorporation of these measures into the full cycle of 
formulation, presentation, and accounting will assure a greater quality 
of information is provided in support of this new structure. Such 
integration will be fully implemented in fiscal year 2003.
    Question. In accordance with recommendations from the National 
Academy of Public Administration, the Agency has plans to adopt a 
field-based budget formulation system. When does the Agency plan to 
have this budget system implemented?
    Answer. The budget system is being implemented to support 
formulation of the fiscal year 2003 budget request. Field units 
including the National Forests, Regions, Research Stations, and 
Northeastern Area used this new system to develop field-based requests 
for fiscal year 2003.
    Question. What will the cost be for this system?
    Answer. The software costs were about $1.2 million. An additional 
$650,000 was spent for contractors to help reengineer the budget 
process, develop a change-management plan, and develop training for the 
field on how to use the new system.
    Question. What has the Agency done to ensure that the system is 
easy to operate and meets the needs of end-users?
    Answer. The Forest Service purchased an off-the-shelf system with a 
reputation of being easy to use. Furthermore, end users participated in 
the development phase and offered many suggestions for improving the 
system. The Forest Service also plans on conducting a post-
implementation review to concentrate on ways to streamline the process 
and improve the system for fiscal year 2004. This review will rely 
heavily on input from the field to make the system more user friendly 
and effective for the fiscal year 2004 process.
                                 ______
                                 

               Questions Submitted by Senator Ted Stevens

                        SIERRA NEVADA FRAMEWORK
    Question. Chief, I have a question about a large planning effort 
that the Agency is working on called the Sierra Nevada Framework. I 
understand that this planning effort is focused primarily on the 
habitat needs of the California spotted owl. The reason that I ask this 
question is that I have close friends who operate a boys' camp in a 
forest that will be affected by this plan. We are very concerned that 
the Sierra Nevada Framework plan may put restrictions on the camp that 
may force this camp for disadvantaged boys to close down. What kinds of 
restrictions will this plan impose on current users of the forests?
    Answer. The Sierra Nevada Framework decision provides new 
protections for old forests, wildlife, meadows, streams and lakes, and 
calls for aggressive treatment of fuels to reduce severe wildfires that 
threaten ecosystems and communities. Implementation of this strategy is 
expected to affect grazing and other vegetation disturbing activities 
on the National Forests covered by the Plan. The strategy does not, 
however, place any restrictions on use by humans using the forests.
    Question. Will the new Administration be reviewing the impacts of 
this plan on operations like this camp?
    Answer. The Forest Service will evaluate the impacts of this plan 
on specific forest operations on an as-needed case-by-case basis.
    Question. When do you expect a final decision on the plan?
    Answer. The Record of Decision (ROD) amending Forest Plans on 11 
National Forests in the Sierra Nevada of California was signed in 
January 2001.

                       SOUTHEAST ALASKA INTERTIE
    Question. As you know the Alaska delegation is very concerned with 
the impacts of the March 30th injunction issued by the District Court 
in Sierra Club v. Lyons will have on SE Alaskan communities. What 
specific steps is the Agency taking to address this problem in regard 
to the SE intertie?
    Answer. Judge Singleton stayed the injunction on May 24, 2001 in 
response to Forest Service motions. Timber sale contractors have been 
permitted to resume work on open contracts. The judge will hold an 
evidentiary hearing in mid-July where one of the outcomes could be 
another comprehensive stay, a more focused stay or no stay on 
activities.
    While the Agency cannot predict the outcome, the Forest Service is 
working on the permit for the project.

           CRIMINAL CHARGES AGAINST YAKUTAT MAN (TONGASS NF)
    Question. I am also concerned with actions occurring in Yakutat 
with the former District Ranger, who filed six criminal charges against 
Ken Fanning over a failure to report his use of the Situk River on 6 
occasions with fees totaling less than $15. Mr. Fanning may also loss 
his Special Use Permit. Prosecuting technical permit violations that do 
not raise security or resource issues and involve the collection of 
less than $15 in user fees does not seem to be a cost effective use of 
valuable Federal resources. Please file for the Record an explanation 
of the Forest Services actions pertaining to Mr. Fanning's case and 
inform the Committee when these charges are resolved.
    Answer. During the summer of 2000, Alaska Airport Properties Inc., 
dba Yakutat Lodge, repeatedly violated the terms of its Special Use 
Permit issued by the USDA Forest Service for commercial use of the 
Situk River in Yakutat, Alaska. After Yakutat Lodge failed to respond 
to several requests that it comply with its permit obligations, the 
Forest Service referred the matter to the United States Attorney's 
Office. This action was taken for the protection and management of the 
Situk River and to uphold the integrity of the Special Use Permit 
system. This case was not referred for criminal enforcement to recover 
user fees.

                               BACKGROUND
    The Situk River runs through the Tongass National Forest from Situk 
Lake to the Gulf of Alaska. It is a relatively small river but produces 
a world-class fishery, including steelhead and all five species of 
Pacific salmon. As a result, the Situk is heavily used each year. In 
fact, 22 percent of the freshwater fishing on the Tongass occurs on the 
Situk.
    As a result of over-crowding on the river, and in order to protect 
and manage the resource for the future, a program of permits was 
instituted to regulate the commercial outfitter/guide operations on the 
Situk. This program was the result of an extensive management planning 
effort undertaken by the Forest Service in conjunction with the Alaska 
Department of Fish and Game, City and Borough of Yakutat, and the 
Environmental Protection Agency.
    Over 80 percent of the boat use on the Situk is outfitted or 
guided. Ten outfitting/guiding operations currently hold permits to use 
the river. The Special Use Permit system allocates a limited number of 
``boat days'' (boats per day on the river) to each outfitter/guide, 
limiting the total number of boats they can guide or outfit each 
season.
    In 1999, the Forest Service instituted a system whereby outfitters/
guides are required to turn in a reporting card for each boat that they 
outfit or guide each day. The reporting cards gather valuable 
information about how many boats are on the river each day and what 
species of fish are caught. The daily reporting system was designed 
both to assist with permit administration and to gather additional data 
for future planning and management of the river.

                             YAKUTAT LODGE
    Mr. Ken Fanning, owner of Alaskan Airport Properties in Yakutat, is 
the holder of a special-use authorization for outfitting and guiding on 
the Yakutat Ranger District. His advertised activities, associated with 
the Yakutat Lodge, include sport fishing, boat rentals, sight seeing, 
beach combing, photography, and kayaking
    During the summer of 2000, Yakutat Lodge, despite requests to 
comply, repeatedly violated the terms of the Special Use Permit by not 
reporting boats that they outfitted on the Situk River.
    This matter is now the subject of a pending criminal investigation 
and prosecution. Any inquiries about the factual details should be 
addressed to the Unites States Attorney's Office for the District of 
Alaska.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

                              ROADLESS BAN
    Question. The judge in the Idaho lawsuit, he noted, ruled on April 
5th that federal law had been violated because the rulemaking process 
had a ``pre-determined outcome.'' The roadless rule was originally 
scheduled to go into effect March 13th, but the Bush Administration has 
delayed the implementation until at least May 12th. The judge in the 
Idaho lawsuit has given the federal government until May 4th to issue a 
response in the case. Mr. Bosworth, I know that you are just getting 
settled in to your new position as the Chief Forester and the roadless 
issue is in litigation. What are your thoughts or comments on the 
approach that was conducted under the past administration?
    Answer. The Forest Service will move forward with a responsible and 
balanced approach that fairly addresses concerns raised by interested 
parties, local communities, tribes, and states impacted by the Rule 
based on the following five principles:
  --Informed decision-making.--USDA will examine more reliable 
        information and accurate mapping, including drawing on local 
        expertise and experience through the local forest planning 
        process;
  --Working together.--USDA will work with states, tribes, local 
        communities and the public through a process that is fair, 
        open, and responsive to local input and information;
  --Protecting forests.--USDA will protect roadless areas from the 
        negative effects of severe wildlfire, insect, and disease 
        activity;
  --Protecting communities, homes, and property.--USDA will work to 
        protect communities, homes, and property from the risk of 
        severe wildfires and other risks that might exist onadjacent 
        federal lands; and
  --Protecting access to property.--USDA will ensure that states, 
        tribes, and private citizens who own property within roadless 
        areas have access to their property as required by existing 
        law.

                            FIRE ASSISTANCE
    Question. Forest Fires usually occur in rural areas and other out 
of the way places that are only served by volunteer fire departments. A 
vast majority of the fire departments in Colorado are staffed by 
volunteers, and fires such as the ones we had last year can quickly 
drain a small fire department's budget. I am pleased to note that there 
is a small increase in the budget foe State and Volunteer Fire 
Assistance, where many of Colorado's volunteer fire departments obtain 
much of their financial assistance. Are there any plans by the Forest 
Service to further aid volunteer fire departments in the annual battle 
against forest and wildfires?
    Answer. In addition to the requested regular State and Private 
Forestry program funding of $5,053,000 for Cooperative Fire--Volunteer 
Fire Assistance there is also $8,262,000 of National Fire Plan funding 
in the Wildland Fire Appropriation. At this funding level there are 
plans to assist a total of 6,660 rural community volunteer fire 
organizations in fiscal year 2002.
    Question. If so, when might these plans be implemented?
    Answer. When final appropriations are received the Forest Service 
will work cooperatively with the States to deliver assistance to the 
volunteer fire organizations. The funding is supplied to the 
communities/volunteer fire organizations on a 50/50 match basis.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                         WOOD IN TRANSPORTATION
    Question. West Virginia is home to the Wood in Transportation 
Center in Morgantown. This Center designs and produces the finest 
timber bridges in the world. What are the Forest Service plans for the 
Center in the fiscal year 2002 budget?
    Answer. The fiscal year 2002 Wood In Transportation budget of 
$3,000,000 will be used by the National Wood in Transportation 
Information Center in Morgantown, W.V. with $1,000,000 focused on 
commercialization projects associated with the National Fire Plan.

                           NATIONAL FIRE PLAN
    Question. The Congress appropriated almost $1.9 billion to the 
Forest Service for Wildland Fire Management in 2001. Your 2002 request 
is for nearly $1.3 billion, which is still much higher than the 2000 
appropriation. The budget justification does not mention firefighting 
funds for the Monongahela National Forest. Does this mean the 
Monongahela is not in danger of fires or that there are no wildland 
urban interface communities in need of hazardous fuels removal in West 
Virginia?
    Answer. The State Forester or the State Natural Resource Agency 
provides identification of communities at risk in their state and this 
list is provided to the Forest Service and the Department of Interior 
(DOI) for consideration in development of the national program. 
Information from West Virginia was not received in time to include in 
the first list of communities at risk. However, 167 West Virginia 
communities are on the list currently being prepared, of which 127 were 
in the vicinity of Department of Interior or U.S. Forest Service lands, 
with the other 40 shown as being in the vicinity of other federal 
lands.
    Question. The National Fire Plan requests funding in several 
different Forest Service accounts. Please provide for the record a 
table that shows fiscal year 2001 and 2002 funds broken out by account 
and program.
    Answer.

      NATIONAL FIRE PLAN FUNDING FISCAL YEAR 2001-FISCAL YEAR 2002
------------------------------------------------------------------------
                 ACCOUNT                       2001            2002
------------------------------------------------------------------------
WILDLAND FIRE MANAGEMENT:
    PREPAREDNESS........................        $611,143        $622,618
    OPERATIONS:
        Suppression--Title II...........         140,718         325,321
        Suppression--Title IV...........         178,606  ..............
        Hazardous Fuels--Title II.......          85,422         209,010
        Hazardous Fuels--Title IV.......         119,736  ..............
        Forest Health (Transfer to S&PF--         11,974          11,974
         FHM)...........................
        State Fire (Transfer to S&PF--            50,383          50,383
         Coop Fire).....................
        Volunteer Fire (Transfer to                8,262           8,262
         S&PF--Coop Fire)...............
         EAP (Transfer to S&PF--Coop              12,472          12,472
         Forestry)......................
        Fire Facilities (Transfer to              43,903          20,376
         CI&M)..........................
        Rehab and Restore (Transfer to           141,688           3,668
         NFS)...........................
        R&D (Transfer to F&RR)..........          15,965          16,265
        Com & Private Land Fire                   34,923               0
         Assistance (Transfer to S&PF)..
                                         -------------------------------
          Subtotal--Operations..........         844,052         657,731
    EMERGENCY FIRE CONTINGENCY..........         425,063  ..............
                                         ===============================
      Total, WFM........................       1,880,258       1,280,349
STATE AND PRIVATE FORESTRY:
    COOPERATIVE FIRE PROTECTION:
        State Fire Assistance...........          24,945          25,310
        Volunteer Fire Assistance.......           4,989           5,053
                                         ===============================
          Total, S&PF...................          29,934          30,363
                                         -------------------------------
          GRAND TOTAL, NATIONAL FIRE           1,910,192       1,310,712
           PLAN.........................
------------------------------------------------------------------------

               FOREST SERVICE OVERALL MAINTENANCE BACKLOG
    Question. The President's budget request is very generous with 
respect to National Park maintenance but I am quite concerned that the 
President may be giving short shrift to the maintenance needs of the 
Forest Service. This budget requests $440 million toward the backlog of 
national park facility infrastructure needs. Only $50 million is 
proposed to address the $6 billion deferred maintenance backlog for the 
Forest Service. In fact, the entire request for the Forest Service 
Capital Improvement and Maintenance budget does not even keep pace with 
the Service's annual maintenance requirement. How much would the Forest 
Service need just to hold the maintenance backlog steady in 2002?
    Answer. The total annual maintenance funding needed for all Forest 
Service Programs is approximately $873.6 million. Direct costs of 
managing maintenance programs and Agency indirect costs are not 
included. Most unmet annual maintenance becomes deferred maintenance, 
but some does not. Of the $873.6 million needed for maintenance, 
approximately $800 million in fiscal year 2002 for roads and facilities 
would prevent growth of the maintenance backlog.

                              TIMBER SALES
    Question. The Forest Service sometimes conducts timber sales that 
actually result in losses to the government. I am sure there must be 
some good reasons for below cost sales. Why does the Service sell 
timber below the cost?
    Answer. We attribute the resultant below cost sales to 
implementation of a new accounting standards for road prisms, less 
volume being sold affecting our economies of scale, and the sale of 
more salvage and smaller trees of lesser value as we shift our program 
to respond to forest health needs rather than focusing on the 
production of wood as a commodity. In addition, expenditures have 
significantly increased to meet more stringent environmental protection 
standards. The National Forests are not managed like a for-profit 
business, and our mandate is to charge fair market value, not to 
recover all related costs. Timber sales are still commonly the least 
net cost way to achieve important vegetative management objectives, and 
timber sales provide many public benefits beyond that of the revenues 
collected. These include direct benefits to the National Forests 
resulting from the improved vegetative management applied, the indirect 
benefits from expenditure of Knutson-Vandenburg (K-V) and Brush 
Disposal (BD) funds collected from timber purchasers, and the jobs 
maintained and the resulting personal income and tax effects.

                     ANTI-DEFICIENCY ACT VIOLATION
    Question. The Forest Service Wildland Fire Management account was 
found to be in violation of the Anti-Deficiency Act in fiscal year 
2000. Will you please explain the reasons for the violation and what 
you are doing to rectify the situation?
    Answer. Refer to attached report: USDA Forest Service Review of 
fiscal year 2000 Spending in the Wildland Fire Management Appropriation 
(April 2001).
                                 ______
                                 

               Questions Submitted by Senator Harry Reid

    Question. To what extent does the Administration's budget for 
fiscal year 2002 reflect the mandate of the Lake Tahoe Restoration Act?
    Answer. The table below indicates a preliminary projection of what 
types of work will be accomplished in fiscal year 2002. The Act calls 
for an annual $30 million from the Federal Government. At this time, 
the final program of work decisions for fiscal year 2002 have not been 
made.

------------------------------------------------------------------------
                                            Lake Tahoe/     President's
                Activity                    Restoration    Budget Fiscal
                                                Act          Year 2002
------------------------------------------------------------------------
Adaptive Management: Monitoring,              $1,000,000        $200,000
 research, evaluation...................
Vegetation management: Mechanical              2,900,000       1,400,000
 treatments and fuels reduction.........
Wetland/riparian restoration: Streamside       3,000,000       1,750,000
 habitat improvement stabilization and
 planning...............................
Recreation development and                     2,000,000         150,000
 transportation: Replace aging
 infrastructure and increase
 interpretative programs................
Road/Trail improvements and                    3,000,000       2,200,000
 decommissioning: To meet water quality
 Best Management Practices and convert
 unneeded roads or closed roads to
 trails.................................
Land Acquisition (includes staffing and        6,600,000       4,250,000
 processing): Purchase of
 environmentally sensitive lands........
Urban Lot Management: Management of over       1,500,000         400,000
 3,500 parcels--fuels reduction,
 thinning of overstocked stads, trespass
 reduction, boundary location, and
 watershed restoration..................
Erosion Control Grants: Grants to local       10,000,000               0
 governments for planning and
 construction of water quality
 improvements...........................
                                         -------------------------------
      Totals............................      30,000,000      10,350,000
------------------------------------------------------------------------

    Question. Does this represent full funding as authorized by the 
Lake Tahoe Restoration Act?
    Answer. No, this does not represent full funding as authorized by 
the Lake Tahoe Restoration Act.
                      lake tahoe land acquisitions
    Question. The second issue I would like to address is the role the 
federal government plays in acquiring and managing environmentally-
sensitive urban lots in the Lake Tahoe basin.
    This work is critically important to the efforts to Save Lake 
Tahoe. It is one of the most important contributions the Forest Service 
can and should be making.
    The federal land acquisition is the heart of the conservation and 
mitigation program established a number of years ago and this effort 
continues to serve as a model for other cooperative restoration 
programs around the country.
    The land acquisition program is the bedrock foundation of the 
partnership between the local communities, the States, and the various 
federal agencies at Lake Tahoe.
    Abandoning this program would undermine the efforts to save Lake 
Tahoe and the intent of the Lake Tahoe Restoration Act.
    What is your view of this program and will you maintain the Forest 
Service's commitment to these restoration efforts?
    Answer. The Forest Service has prepared a Report on Legislative 
Options To Transfer the Lake Tahoe Urban Lots Program to State or Local 
Governments. House and Senate Conferees for the Committees on 
Appropriations requested this report in the Conference Report 
accompanying the fiscal year 2001 Appropriation Act. The Forest Service 
is also following specific congressional directives for Lake Tahoe 
stating, ``None of the funding provided for Federal land acquisition 
shall be used to acquire additional lots. Acquisition of larger 
resource lands adjacent to National Forest System land to protect 
watershed values and provide recreation opportunities should be the 
focus of the Forest Service land acquisition program at Lake Tahoe.''
    The Forest Service commitment at Lake Tahoe remains strong. We will 
work in a cooperative manner with the states, local communities, and 
the Congress to maintain clear expectations on the future role that the 
Forest Service will retain in the continuing acquisition and management 
of urban lots.
                                 ______
                                 

             Questions Submitted by Senator Byron L. Dorgan

    Question. In the Forest service budget justification, $4.2 million 
is identified for projects to commemorate the Lewis and Clark 
Bicentennial--primarily in Montana and Idaho. As you know, part of the 
Lewis and Clark National Historic trail in North Dakota lays adjacent 
to the Little Missouri National Grasslands, which is the National 
Forest System. Do the planned projects for fiscal year 2002--identified 
in your budget justification as interpretive sign plans, supplemental 
law enforcement staffing, and funding for managing invasive weeds--
include this area in North Dakota?
    Answer. Yes, the Forest Service's budget request for the Lewis and 
Clark Bicentennial includes projects in the state of North Dakota on 
the Dakota Prairie National Grasslands unit. Bicentennial planning by 
the Dakota Prairies National Grasslands includes enhanced Lewis and 
Clark interpretation as well as interpretive development of other 
recreation sites, which may be of interest or provide recreation 
services for tourists following the designated Lewis and Clark highway 
routes in the State of North Dakota.
    The Little Missouri National Grassland borders the Missouri River 
in the vicinity of the April 18, 1805 campsite in an area called 
Tobacco Gardens. This area overlooks the place where Meriwether Lewis 
was accidentally shot while hunting. The Dakota Prairie National 
Grasslands unit is planning for the development of an interpretive site 
at Tobacco Gardens that includes an overlook, parking area, and 
interpretive trail. Funding for interpretive planning and survey and 
design of this site is included in fiscal year 2002 budget request.
    Other cultural sites where improved heritage interpretation is 
being planned and/or implemented includes sites associated with the 
Custer Campaign, the Maa-Daah-Hey Trail, and Buffalo Gap Campground.
    Additional programs in the fiscal year 2002 budget request include 
funding for enhanced traveler information at Forest Service offices, 
which on the Dakota Prairie is at Watford City, Medora, Lisbon, and 
Bismark ND, and partnerships and coordination with the Tribes (Three 
Affiliated Tribes at Ft. Berthold).
    The extent to which these Bicentennial projects are funded will 
depend on the total final fiscal year 2002 allocations to the Regions.
    Question. I noted that the President's budget includes an increase 
of $495,000 for advanced technology in housing at the Forest service 
Products lab in Madison, WI. It is my understanding that this housing 
research will, among other things, improve housing durability and 
energy efficiency. Given the extreme weather and persistent flooding in 
my state, this seems like a wise investment of federal research 
dollars. Do you foresee a sizable increase for this research in this 
area in the future at the forest products lab? It is my understanding 
that the chemistry department at the University of North Dakota has 
expertise in the area of housing research. Would the Forest Products 
lab in Madison reach out to institutions like UND with the increase in 
funding requested in the President's budget?
    Answer. The $495,000 increase in the President's budget for the 
Advanced Housing Research Center at the Forest Products Laboratory 
reflects the high priority we place on this program within the stated 
budget constraints. We feel that this is an important research area 
that will have significant benefit to the American public.
    We have had a working relationship with the chemistry department at 
the University of North Dakota for over 3 years and they have been a 
key partner with us in developing the portion of our housing research 
program that addresses disaster-related issues such as flooding. 
Currently, a member from the University of North Dakota has been 
appointed as co-chair of an academic/industry consortium which will 
provide research recommendations to our Advanced Housing Research 
Center. Implementation of our multi-year research program would include 
work with the University of North Dakota to examine several issues 
related to wood-frame housing in floods, if funding becomes available.
                                 ______
                                 

              Questions Submitted by Senator Richard Lugar

           hardwood tree improvement and regeneration center
    Question. Please describe the construction and renovation needs for 
the Hardwood Tree Improvement and Regeneration Center (HTIRC) at Purdue 
University. What funds are needed to meet those needs? Are those funds 
included in the Forest Service budget request for 2002?
    Answer. Currently, the FS has employees from the North Central 
Research Station, Northeastern Area State and Private Forestry and NFS 
Region 8 Cooperative Forestry stationed at the HTIRC. Initially, the FS 
only planned to have 6 employees, but the strategic needs of the region 
have required the program to expand to over 22 staff, with expected 
growth to over 30. Purdue University has supported the program with 
space and facilities, but labs are crowded and the university is unable 
to house the current program. Purdue University has proposed 
construction of new offices, research and field laboratories to meet 
the Center's program requirements. The Purdue is seeking a partnership 
with the FS in this construction project and has requested that the FS 
provide $7 million, of which $300,000 was already appropriated in the 
fiscal year 2001 FS budget. The balance, $6.7 million, is not in the 
fiscal year 2002 President's budget.
    Question. Are there opportunities to share the costs with Purdue 
University, or other private and public institutions?
    Answer. The total cost of the project is $25 million. Purdue 
University has $18 million in gifts to fund the project.
    Question.: Who are the recipients of the research provided by the 
facility? Who are the research partners involved with the HTIRC?
    Answer. HTIRC is a regional (11 state) partnership that is seeking 
to meet the hardwood tree improvement and non-industrial private forest 
land management needs in the Midwest. The region is experiencing an 
annual production shortfall of 50 million hardwood seedlings that is 
increasing by 20 percent annually.
    HTIRC has partnered with the Indiana Department of Natural 
Resources Division of Forestry, American Chestnut Foundation, Indiana 
Hardwood Lumbermen's Association (IHLA), National Hardwood Lumber 
Association (NHLA), Walnut Council, Fred M. van Eck Forest Foundation 
and Indiana Forestry and Woodland Owners Association (IFWOA). IFWOA 
represents over 30,000 forest landowners in Indiana, and IHLA and NHLA 
represent the majority of the hardwood producers and manufacturers in 
the Eastern United States.

                          SUBCOMMITTEE RECESS

    Senator Burns. Thank you very much, that concludes the 
hearing. The subcommittee will stand in recess until 10 a.m., 
Tuesday, May 8, when we will meet in room SD-124 to hear from 
Secretay, Department of Engergy, Spencer Abraham.
    [Whereupon, at 11:08 a.m., Tuesday, May 1, the subcommittee 
was recessed, to reconvene at 10 a.m., Tuesday, May 8.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2002

                              ----------                              


                          TUESDAY, MAY 8, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Campbell, Byrd, and Dorgan.

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

STATEMENT OF HON. SPENCER ABRAHAM, SECRETARY OF ENERGY

               OPENING STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. The hearing will come to order. We have a 
vote coming up scheduled at 10:15, and I chose rather than to 
start the hearing after the two stacked votes to begin now. 
Sometimes in this body when they schedule a vote it always 
happens about an hour later, so we can control the time of the 
hearing and we may have to get up and go vote. There may be a 
break in this, Mr. Secretary. We appreciate you coming this 
morning, and I want to welcome our colleague back to the U.S. 
Senate, Spencer Abraham, to testify this morning on the 
Department of Energy's fiscal year 2002 budget request. We are 
glad to have you with us today.
    The Department's budget request for fiscal year 2002 
arrives at a difficult time for our Nation's energy sector. 
While the national press has extensively covered the rolling 
blackouts and fiscal crisis that has plagued California this 
year, the problems in our energy sector are far more widespread 
than California alone. Energy shortages and soaring energy 
prices are, without question, contributing to the economic 
slowdown of this country.
    I do not think there was anybody, at the front end of this 
crisis that has happened in California, that had any idea the 
effect it would have, or the ripple effect it would have across 
this country, but with an economy as large as California's we 
were all bound to be affected. In my own State of Montana, 
thousands of jobs have already been lost, with mining 
operations, aluminum smelters, and other industries being idled 
by the cost of power.
    Some of these operations will recover if energy prices 
return to more typical levels, but some will not. For some, the 
cost associated with closing down and restarting are simply too 
great for those operations to remain competitive. It is ironic, 
Mr. Secretary, it is also tragic that such a thing can happen 
to a State like Montana. A State that has an immense wealth of 
coal and gas resources, and a State that is part of one of the 
world's greatest hydroelectric systems. Throughout this town, 
there are many discussions taking place about how we got into 
this mess, and what policy changes are necessary to get us out 
of it. Have individual States enacted flawed deregulation 
statutes? If Federal legislation is necessary at this time, has 
the uncertainty of deregulation itself stifled investment in 
new generation capacity? Are environmental restrictions on new 
plant construction too stringent, and have we been vigorous 
enough in our pursuit of energy conservation?
    While I imagine we may get into some of these broad policy 
issues today, I hope that our limited time can focus a bit on 
those things that are under this subcommittee's direct control, 
particularly the Federal funding of fossil fuel R&D, energy 
efficiency R&D, the strategic petroleum reserve, and the Energy 
Information Administration.
    The administration's 2001 budget makes good on two of 
President Bush's campaign promises, to nearly double the 
funding of the weatherization assistance program, and to invest 
in new resources and demonstrations of clean coal technologies. 
Both of these initiatives will be well-received by most of the 
members of this subcommittee.
    Regrettably, these proposed increases come at the expense 
of ongoing R&D efforts on fossil fuels and energy conservation. 
While I have little doubt that some reordering of R&D 
priorities are appropriate, the magnitude of the 
administration's proposals causes me grave concern, given our 
current energy situation. Taken as a whole, these cuts are 
unacceptable. I think many of my colleagues on this committee 
will feel the same way.
    That said, Mr. Secretary, I hope you will help us today to 
better understand this budget request and the considerations 
that are factored into its development. While I fully expect 
your support for the President's budget request, I hope you 
will also be candid with us. We need to hear your thoughts on 
which programs are working and why.
    Were certain programs reduced in the President's request 
because they are not effective, or were they reduced simply 
because of the fiscal restraints under which we had to operate? 
Can increases for clean coal technologies and weatherization be 
spent effectively in the coming fiscal year, and will the 
budget request be adequate to support the energy policy 
recommendations that we are expecting from the Vice President 
later on this month?
    Before I let you answer some of these questions that we 
will have, I will turn to my Ranking Member on the committee 
for his opening statement, Senator Byrd.

              Opening statement of Senator Robert C. Byrd

    Senator Byrd. Mr. Chairman, you are a man after my own 
kidney, as Shakespeare would have it. I could almost stop right 
here, but I will not quite stop.
    Welcome to the Interior and Related Agency Subcommittee, 
Mr. Secretary, and welcome back home, which is a better place. 
Because you and I have previously discussed the Energy 
Department's budget request for fiscal year 2002, specifically 
as it relates to the Office of Fossil Energy, it will come as 
no surprise to you when I say that I am dumbfounded by what the 
administration has proposed.
    The President often speaks of our need to increase domestic 
energy supplies. I know the Vice President has said that the 
supply problems we face throughout this Nation are largely the 
result of short-sighted policies. I am aware, Mr. Secretary, 
that you have told the people at the National Energy Technology 
Laboratory that the research and development work that they 
oversee is important to our Nation's energy security.
    Unfortunately, what I heard with my ears is not the same as 
what I am now seeing with my eyes, and I am at a loss as to how 
to reconcile the verbal pronouncements with what the 
administration has actually proposed in its budget. Your 
prepared statement says that the Energy Department's fiscal 
year 2002 budget submission is a, quote, prudent transition, 
close quote, between the past and present administrations. I 
disagree.
    When I consider the request for the Office of Fossil 
Energy, for example, and to which the distinguished chairman 
has already referred, I see budget cuts of 40 percent, 50 
percent, and in the case of some programs, even 100 percent. I 
do not see the prudent transition that your statement speaks 
of. Rather, what I see is a Department that is effectively 
telling its research and development team to hang a sign on the 
door that says, going out of business.
    It is simply wrong for this administration to think that we 
can increase domestic energy supplies without also making a 
concerted effort at developing the kind of technology that will 
make that possible. The oil and gas which everyone seems to 
want to get their hands on is not going to rise from the ground 
in an environmentally sound manner all by itself, nor can we 
find new uses for coal, our most abundant energy supply, 
without a strong commitment to basic scientific research.
    Mr. Secretary, I can assure you that I intend to work with 
the distinguished chairman of this subcommittee to rectify what 
I believe is a gross error in judgment. I hope that the 
administration will reevaluate its policies and reconsider its 
position with respect to this budget, because as I see it today 
I do not believe that this request is capable of being enacted 
into law.
    Mr. Chairman, as always I appreciate your courtesy, and I 
will reserve my specific questions until after the Secretary 
has submitted his statement and, of course, as you have 
indicated we have some votes coming up, but I do look forward 
to returning after those votes, if they really occur, and I 
look forward to the hearing, and I again thank you, Mr. 
Secretary.
    Senator Burns. Thank you, Senator Byrd. Senator Campbell.

          Opening statement of Senator Ben Nighthorse Campbell

    Senator Campbell. Thanks, Mr. Chairman, to our colleague, 
Spence Abraham. It is nice to see you here. I am sorry they did 
not let you into the building as easy as you got in when you 
were a Senator, but that is what happens when you leave, I 
guess. Thanks for being here.
    I am somewhat concerned, too, about the President's budget 
dealing with energy, Mr. Chairman. I know that we had kind of a 
bumper year last year, but it looks to me like the President's 
policy in dealing with a long-term solution to the problems we 
find ourselves in in energy is focused primarily on oil, and as 
I look at some of the others, I think there needs to have more 
resources in terms of money like coal, methane, and coal in 
itself and oil shale, a lot of other things as alternatives to 
just oil. I think they are really going lacking in this budget.
    There is one in particular I wanted to mention. We have the 
National Renewable Energy Lab, as you know, Secretary Abraham, 
in Golden, Colorado, and under the President's budget there is 
basically a huge cut in this, and frankly I do not know how you 
can have a complete budget policy, or a complete energy policy, 
excuse me, without including the importance of renewable 
energy, and I would hope you would take a look at that, because 
it is something I think could be devastating. Something like 
one-third to one-half of the whole workforce under this budget 
will have to be let go. It really severely limits our Nation's 
research into renewable energy technologies.
    I would also hope that, as former Secretaries in your 
position have, that you would find time to visit Rocky Flats in 
my home State of Colorado. The cleanup is destined to be done 
by 2006, and we hope it is, and it seems to be going alone 
pretty well now, but it is a commitment we have made, literally 
every administration has for the last 15 years, on getting that 
area cleaned up, so I would hope you would find the time to 
come out and visit us when you can.
    Thank you, Mr. Chairman.
    Senator Burns. Senator Dorgan.

              Opening statement of Senator Byron L. Dorgan

    Senator Dorgan. Mr. Chairman, thank you, and Mr. Secretary, 
thank you for being here. Let me just associate myself with the 
remarks of the chairman, and Senator Byrd and Senator Campbell. 
I think we all feel that this is a complicated set of issues. 
There is not necessarily one simple solution to it, and we feel 
that we ought to do a lot of things and do them well in order 
to respond to these issues.
    But you know, the cuts in fossil fuels, the cuts in 
renewable energy, the cuts in natural gas research, natural gas 
exploration research--some of them 50 percent cuts--this just 
does not make sense, given where we are and what we need to do.
    Because I have the opportunity and I may not later, let me 
also go afield just for a moment from the appropriations side 
and say that we have had a lot of hearings in the Energy 
Committee. You know, the California circumstance of going from 
$7 billion to $70 billion in 2 years, the cost of electricity, 
you know, you would call that grand theft in any other 
circumstance. The sale of natural gas from an unregulated 
entity outside of the State to a regulated entity inside the 
State, you cannot track the transparency of the pricing.
    All of these issues with pricing, natural gas, oil, 
electricity not just on the West Coast and not just in 
California, raise a lot of important questions. I frankly think 
we ought to have a joint House-Senate investigative committee 
to take a look at a wide range of energy pricing.
    We seem to be willing to investigate almost anything at the 
drop of a hat in recent years. It seems to me it might be 
useful to put a spotlight on energy pricing with a joint 
investigating committee that represents the time-honored 
tradition of the Senate. We legislate, and we also investigate 
in Congress, and have done so with some success. I think it may 
well be time to do that now.
    FERC has done its best imitation of potted plants for the 
last several years, where they sit around and watch all this 
develop around them. I think we have to be very active on these 
issues of energy prices and policy.
    Getting back to the appropriations, we are going to have to 
change the recommendations of this administration dealing with 
fossil fuels and research and renewable technologies and so on, 
because that has to be a part of the solution to this energy 
problem.
    Mr. Secretary, you are good to come. I look forward to 
hearing your testimony.
    Senator Burns. Thank you, Senator Dorgan. I think when you 
take a look through this, and I will wait for the testimony of 
the Secretary this morning, I think there is general agreement 
on what we have to do as far as the development of energy and 
an energy policy.
    Maybe our priorities are not the same as the 
administration, but through, I think, constructive talks and 
negotiations, and I look forward to those and working with 
Senator Byrd and with the administration on identifying those 
priorities and coming with an appropriations bill that I think 
will serve it.

               Summary Statement of Hon. Spencer Abraham

    I think right now what we have, looking just as a note of 
introducing the Secretary, that we are waiting for the report 
from the Vice President and his energy, and how that fits, how 
the policies we will talk about today, in the funding today, 
how that fits with his priorities also in this energy mix.
    We do know this, though, the insatiable demand for energy 
in this country has not gone away, and one law that we did not 
write, that works very well, and that is the law of supply and 
demand, and that happens to be working very well at the present 
time.
    Mr. Secretary, thank you for coming this morning. We look 
forward to your testimony.
    Secretary Abraham. Well, thank you all, and it is obviously 
for me a pleasure to be back with my former colleagues, and I 
appreciate the gracious welcome I have received here, and to 
confess that I certainly miss the chance to serve alongside 
each of you and our other colleagues, my former colleagues.
    I would like to perhaps depart a little bit from the 
prepared testimony, and if we could submit the full statement 
for the record----
    Senator Burns. The full statement will be made part of the 
record.
    Secretary Abraham. Let me just try to, at least as a 
threshold matter, address some of the issues that have been 
already raised, and which I am sure in our question and answer 
period we can get into in more detail, to try to at least give 
a sense of priority to what we have done, as well as to try to 
put this year's budget, at least for this subcommittee and the 
full Department of Energy, into perspective.

                           DOE BUDGET REQUEST

    First, let me just say that our Department's budget for the 
2002 fiscal year, as proposed and submitted, is $19.2 billion. 
That is actually a $275 million increase over the submission 
that was made a year ago, so it is at approximately the same 
level, but it is $456 million below the fiscal year 2001 final 
appropriations level.
    I would note for the record, though, that if one removes 
from the final fiscal year 2001 appropriated level certain one-
time-only expenses, such as the funds which were provided for 
the Cerro Grande fire emergency, and one-time projects directed 
by Congress, this year's submission is $13 million less than 
the final appropriated level of last year, minus those one-time 
expenditures, which are add-ons for the most part during the 
course of the year.
    With respect to the specific budget of this subcommittee, 
the programs within your jurisdiction which we propose are 
approximately $1.6 billion. This request is about .7 percent, 
or $11 million below 2001 appropriation levels. However, it is 
$284 million above the fiscal year 2001 request, and $384 
million above the fiscal year 2000 appropriations.

                             BUDGET CHOICES

    Now, a question was raised as to why some of the choices 
were made as they were, and what I would like to do is just to 
give you a quick sense of some of the priorities that we have 
set.
    First of all, when one enters into a new administration, 
well into the budget process, the guidance for our Department 
was somewhat limited. It was limited to those positions and 
platform statements that had been made during the campaign by 
the President. Where there was clear direction for establishing 
priorities, we used that direction.
    You already mentioned, Mr. Chairman, the investments in 
clean coal technology, which the President had enunciated 
during his campaign, and even after the election. You also 
mentioned the commitment to increasing substantially our 
weatherization program. Those are reflected in the budget.
    However, we are still waiting, as you indicated, for the 
guidance, the much more broad, sweeping guidance in terms of 
energy policy and subsequent budget, that will come about as a 
result of the work that is being directed by Vice President 
Cheney, our Energy Policy Task Force efforts, the results of 
which will be announced on May 17.
    We did not feel it appropriate to make preliminary 
judgments as to what the results of that effort would yield, so 
this budget has not tied to prejudge policy changes as might be 
reflected in budget emphasis from that task force effort, but I 
can assure the committee that once we receive that guidance, 
whether in the context of the discussions that will ensue this 
year, as we move to the final budget work, or certainly in 2003 
and subsequent year budgets, that once we have that much more 
comprehensive policy guidance, we will reflect it in terms of 
the emphasis both within this subcommittee as well as the 
Energy and Water Subcommittee.
    We did, however, have to make some choices in putting this 
together, and as we increase, for example, our commitment to 
weatherization programs based on the President's establishment 
of that priority, we made some decisions as to what the 
priorities within the fossil energy and the energy efficiency 
programs ought to be addressed.

                   WEATHERIZATION ASSISTANCE PROGRAM

    For example, we concluded that it made sense, given the 
energy costs that less-advantaged Americans are confronting 
right now, to go forward with that presidential priority of 
virtually doubling the weatherization program. We sought, in 
order to fund that, some shifts, and the shifts that took place 
were from programs which the Department engages in, research 
programs and others, which for the most part provide benefits 
to a variety of industries in this country, industries which we 
feel can bear a greater share of the research and technology 
and other responsibilities than they currently do, in light of 
the success that those very industries have been enjoying.
    We believe that the success they have enjoyed, in fact, 
will incentivize them to engage in a vast amount of additional 
activity in the areas that we have diminished, and so as a 
consequence we felt that the choice was between funding 
research and development activity in support of industries of 
the future, and in that context some of the most successful and 
prosperous industries in America, or providing weatherization 
assistance to less-affluent Americans, that the shift to 
support for the weatherization programs made sense.

              PARTNERSHIP FOR A NEW GENERATION OF VEHICLES

    The other thing which we tried to do in the brief period of 
time we had in putting together this year's submission was to 
analyze to the extent we could some of the existing programs to 
determine whether or not the current funding levels were 
rational and made sense for the future. One area, for example, 
in the area of efficiency, that we have changed, is the level 
of commitment to the Partnership for a New Generation of 
Vehicles.
    To use it as an illustration, because it is not only an 
area where we have made some major changes, but it is one with 
which I am pretty familiar--in fact, its inclusion in the 
category of programs that were reduced I think indicates that 
there are no sacred cows. PNGV programs, when I was a Senator, 
I was one of the strongest advocates for. The benefits of this 
program accrue in no small measure to the companies in my home 
State of Michigan, the automobile makers, who entered into 
partnership with the Federal Government that many in this 
committee were involved with at its inception to try to design 
vehicles which were more fuel-efficient. I think that is a very 
important commitment for us to make.
    But what we concluded, after sitting down with the auto 
companies and analyzing the program in light of the program as 
it was now versus how it was envisioned in the year 1993, was 
that a substantial part of the program's mission had been 
changed, and that in fact some of the research and technology 
investments which we were continuing to make were with respect 
to the development of components for vehicles that would never 
be manufactured, and so in a very cooperative effort with the 
auto makers, we concluded that those parts of the program that 
just were on track towards development of a mid-size sedan just 
did not make sense for the Federal Government and the 
taxpayer's money to be continued.
    The program remains intact, at approximately a $100 million 
level, but about $40 million has been reduced because we have 
concluded that that research really is not going to translate 
into a real-world application.
    So some of the changes that you see are based on a shift 
from support for industries who we believe can bear a greater 
share of the burden, to less affluent Americans, others, as in 
the case of PNGV, represents an analysis that we have already 
made that we concluded did not wisely invest the taxpayer's 
money.
    So that is the basis that was used to try to put this 
budget together. I recognize I talked to several members of the 
subcommittee, and obviously to House side members as well, that 
there remain areas where we not only need to have further 
discussions, but where, obviously, questions exist, and I look 
forward to addressing them, but I did want to give the 
subcommittee just a threshold, a sense of the way we attacked 
the process, how we tried to analyze it, the priorities which 
we had guidance to set, and those which remain in no small 
measure areas in which further guidance will be forthcoming 
where the Vice President's task force is completed.
    But in conclusion, Mr. Chairman, I just look forward very 
much to having an opportunity to address more specific 
inquiries, talk further about this, and, of course, to continue 
the process into the remainder of the appropriations work that 
we will do this year.
    [The statement follows:]
               Prepared Statement of Hon. Spencer Abraham

                              INTRODUCTION
    Mr. Chairman and members of the Subcommittee, it is a pleasure to 
appear before you for the first time to discuss the Department of 
Energy's fiscal year 2002 budget request. The Department's total budget 
request for all appropriations is $19.2 billion. This amount is $456.4 
million, or 2.3 percent, below the fiscal year 2001 level and $1.4 
billion above the fiscal year 2000 level. Of the total budget, $1.6 
billion is for programs within the jurisdiction of this Subcommittee.
    This budget is a prudent transition between what was left to us by 
the previous Administration and our policy priorities in the budgets 
for 2003 and beyond. In the limited time given us to formulate this 
budget, we turned its focus as much as we could toward our ultimate 
goal of major DOE reform. We also initiated a broad range of strategic 
and policy reviews that will fully shape future budgets. As a result, 
this budget begins reform in some important program areas. Make no 
mistake, more change is coming. Some may fault this approach, saying it 
changes too much or too little. But I believe this is the right budget 
for this year; it's a responsible start to change the course of 
business at the Department.
  principles guiding the fiscal year 2002 department of energy budget
    This budget is a principled and responsible effort, one that keeps 
President Bush's commitment to control the growth in discretionary 
spending, while meeting critical requirements in national security, 
energy, science, and environmental quality. This budget adjusts program 
requests to reflect reviews underway to reevaluate and refine the 
Department's missions, and to implement management strategies that meet 
the challenges of the future. Based on this request, the Department 
will:
  --Enhance complex-wide safeguards and security efforts
  --Eliminate programs that have completed their mission, are 
        redundant, ineffective, or obsolete
  --Review all private-sector subsidies and maximize cost-sharing 
        opportunities
  --Finish promising R&D projects where investment installments are 
        nearly complete
  --Establish baselines and improve accountability for project and 
        capital asset management
  --Arrest deterioration of infrastructure through stronger management 
        of maintenance
  --Utilize computer information systems to improve management and 
        promote efficient use of resources
  --Eliminate unnecessary layers of management, and direct personnel to 
        high-priority missions
  --Achieve savings in management expenses through comprehensive, 
        creative management reform
  --Recognize and respect Congressional policy determinations for 
        operating the DOE complex.
    This budget also maintains the Administration's flexibility to 
respond to government-wide policy reviews now underway. Vice-President 
Cheney's National Energy Policy Development Group, figures heavily in 
the Department's current budget and its future year planning. Pending 
future decisions, the budget preserves program options by maintaining 
core requirements in areas under review, unless a change was dictated 
by a Presidential commitment. We stand ready to work with you and the 
other Members of this Subcommittee as recommendations are made.

       INTERIOR AND RELATED AGENCIES APPROPRIATION BUDGET REQUEST
    Approximately eight percent of the total Department of Energy 
budget, or $1.6 billion, is for programs funded in the Interior and 
Related Agencies Appropriation under the jurisdiction of this 
Subcommittee.
    The $1.6 billion is $10.7 million, or 0.7 percent, below the fiscal 
year 2001 level and $384.3 million above the fiscal year 2000 level. 
Programs include Fossil Energy Research and Development, $449.0 
million; the Strategic Petroleum Reserve, $169.0 million; Naval 
Petroleum and Oil Shale Reserves, $17.4 million; Energy Conservation 
Research and Development, $795.0 million; Elk Hills School Lands Fund, 
$36.0 million; Energy Information Administration, $75.5 million; and 
Economic Regulation, $2.0 million. The programs funded by this 
Subcommittee play a critical role in the nation's energy future.
    The dominant energy issue confronting the Department over the next 
20 years is the growing disparity between energy supply and demand. 
Current events in California serve as a warning to the rest of the 
nation of the importance of--or lack of--a thoughtful, effective energy 
policy.
    Energy demand is rising across the board, and in particular for 
natural gas and electricity. At the same time, supplies are 
increasingly limited by an antiquated regulatory structure that, in 
many respects, has failed to keep pace with technological advances and 
societal needs. Our current energy infrastructure is woefully out-of-
date and inadequate. This must change.
    President Bush committed this Administration to develop and 
implement a new long-term national energy policy. Vice President Cheney 
is working with us at the Department to develop clear strategies to 
allow environmentally responsible exploration and recovery of our 
domestic resources, enhance conservation and energy efficiency, and 
encourage new technology investment in renewable energy sources.
    Our future budgets will be shaped by the conclusions of this Task 
Force. We are currently maintaining core competencies, but expect 
changes. For those who might argue that we should spend more money on 
existing energy programs, continuing and expanding programs that have 
been in place as we drifted to the brink of an energy crisis would not 
appear a wise course to follow. We need a better measure of success 
than ``dollars spent.''
    Critics have long claimed that DOE programs have produced few 
results. Wholesale dismissal would be unfair. Many of our energy 
programs are effective and should be continued. On the other hand, the 
taxpayers sent us here to weed out the waste and to address growing 
problems of energy supply. The weeding begins in this budget. But make 
no mistake, we won't just be downsizing. We intend to rebuild our 
energy resources programs so they are productive, so taxpayers receive 
a better value, and the programs deliver results measured against 
rigorous standards.

                        FOSSIL ENERGY PRIORITIES
    The fiscal year 2002 budget for the Fossil Energy program contains 
two of the three DOE Presidential Initiatives. They are the Clean Coal 
Power Initiative and the Northeast Home Heating Oil Reserve.
Clean Coal Power Initiative
    The fiscal year 2002 budget includes $150.0 million for the Clean 
Coal Power Initiative, a high priority effort that reflects the 
President's commitment to clean coal technology. Coal supplies 54 
percent of the nation's current power demands. Virtually every credible 
energy forecast shows that coal will continue to supply around half of 
the nation's power through at least 2020 and probably beyond.
    The Bush Administration is proposing a new vision for research in 
clean coal technology. In setting the direction for new, competitively 
awarded clean coal research, development and demonstration efforts, 
greater emphasis will be placed on seeking the advice of industry in 
shaping the program. We intend to investigate the use of consortia of 
companies, an industry board, or other mechanisms that can enhance the 
private sector's participation in planning this initiative.
    New clean coal technology efforts will target the power industry's 
top priorities in solving problems generic to the way coal is used to 
generate electric power. Industry will be required to share the costs 
of projects, with the level of private sector financing ranging from 20 
percent for the earliest stages of research to at least 50 percent for 
larger scale demonstrations.
    The program will also solicit participation by universities as well 
as government laboratories in a broad-based effort to apply the best 
minds and institutions to eliminate barriers to enhanced coal use. 
Successfully implemented elsewhere in DOE, industry-guided research 
will choose the most important projects based on industry-defined 
merit.
Northeast Home Heating Oil Reserve
    The Reserve provides an important 2-million-barrel ``safety 
cushion'' for the millions of families in the Northeast that depend on 
affordable heating oil to stay warm in the winter. Currently, one 
million barrels are stored in New York Harbor and one million barrels 
are stored in New Haven, Connecticut. Three companies--Amerada Hess 
Corp., Morgan Stanley Capital Group, and Equiva Trading Company--store 
the oil at their terminals, rotate the oil to maintain DOE 
specifications, and manage the delivery of the heating oil in the event 
of an approved use of the reserve.
    On March 6, 2001, I signed letters notifying Congress of the 
Administration's intent to establish the heating oil reserve on a 
permanent basis. DOE intends to exercise the optional 1-year extension 
clause in its current contracts for storage of the emergency heating 
oil.
    The fiscal year 2002 budget continues operation of the Reserve with 
support for leasing commercial storage space, quality assurance, 
auditing, oil sampling and inspections.

         OVERALL FOSSIL ENERGY RESEARCH AND DEVELOPMENT BUDGET
    Our budget request for Fossil Energy R&D is $449.0 million. Fossil 
fuels--coal, oil and natural gas--supply 85 percent of the nation's 
total energy, nearly three-fourths of its electricity, and almost 100 
percent of its transportation fuels. The President's energy policy task 
force is examining a wide range of options to achieve the full 
potential of these fuels while safeguarding our environment. 
Recognizing this, our fiscal year 2002 budget strikes a balance by 
focusing primarily on those areas where federal involvement is most 
critical.
     Fuels and Power R&D.--Within the $159.8 million budget request, we 
have concentrated our efforts on research that will:
  --directly support the Clean Coal Power Initiative, both immediately 
        and over the 10-year life of the President's clean coal 
        commitment,
  --provide new, more reliable power systems for the joint Fossil 
        Energy/Energy Efficiency effort to develop distributed energy 
        resource technologies (for the localized generation and use of 
        power), and
  --expand the menu of options for managing carbon gases by developing 
        affordable carbon sequestration technologies.
     Emission Controls for Existing Plants.--America has made 
remarkable progress in cleaning its air due largely to new technology. 
Coal use, for example, has doubled since the early 1970's but emissions 
of sulfur and nitrogen pollutants are down 70 percent and 45 percent, 
respectively. Yet, further challenges remain, especially in addressing 
emissions concerns and microscopic airborne particles. There may be 
opportunity for innovative, low cost technologies that address two or 
more pollutants simultaneously.
    The Fossil Energy program is developing technologies that are 
intended to achieve future emission limits at costs far below what 
industry would pass on to consumers using today's technology. This is 
particularly important as support grows for an integrated emission 
reduction strategy that would sharply reduce key pollutants in exchange 
for long-term regulatory certainty.
    Our fiscal year 2002 budget contains $18.0 million for these 
efforts. This is a slight decrease from the fiscal year 2001 level of 
$20.1 million reflecting the elimination of a program aimed at 
optimizing performance of coal-fired power plants in other countries.
     Vision 21.--Vision 21 is the core of our long-range power research 
program. It draws from several budget areas, including: gasification 
combined cycle, pressurized fluidized bed combustion, fuel cells, and 
advanced research (the latter involving new materials research and 
advancements in supercomputing modeling and simulation).
    Through this program, we believe it is possible to develop a new 
type of power facility that will virtually eliminate environmental 
concerns over the future use of fossil fuels.
    A Vision 21 plant would be fueled by coal, or natural gas, or 
perhaps biomass or municipal waste. It would emit virtually none of 
today's air pollutants and produce no harmful solid or liquid wastes. 
This extraordinary achievement could ensure that America--and other 
countries--benefit from the full potential of their available energy 
resources without compromising environmental goals. A complete Vision 
21 prototype is 10 to 15 years into the future, but many of the 
critical technology modules are already taking shape, and some are 
likely to be adopted by industry in the next few years.
    In fiscal year 2002, we propose to fund Vision 21-related efforts 
at $37.5 million. The request is about $14.0 million below the fiscal 
year 2001 budget due primarily to completion of advanced turbine 
systems research and the redirection of funds from the indirectly-fired 
cycle program (this combustion technology is being refocused toward 
developing combustion/gasification hybrid systems under the Integrated 
Gasification Combined Cycle budget).
     Carbon Sequestration.--The Administration recognizes the 
importance of continuing to develop lower cost options for reducing the 
buildup of greenhouse gases. Voluntary emission reductions, for 
example, could become much more attractive if low-cost carbon 
management options result in commercial benefits--for example, 
injecting carbon dioxide from power plants into oil fields or coal 
seams to produce marketable crude oil or natural gas. If more emission 
reductions are needed in the future, research must be conducted now so 
that lower cost sequestration options are available. In fiscal year 
2002, we propose to increase funding for carbon sequestration research 
to $20.7 million, a 10 percent increase that will enable the first 
limited field tests for the most promising approaches.
     Fuel Cells.--Our research into fuel cells focuses on lower-cost, 
high performance units that can provide localized power supplies for 
factories, hospitals, military installations, and other distributed 
power applications. (The complementary program underway in the Office 
of Energy Efficiency is developing fuel cells for vehicular and home 
use.) At modular scales of 5-kilowatts to 1-megawatt or more, the 
advanced fuel cells we are developing could be in growing demand as 
businesses and factories look for more reliable ways to generate 
premium-quality electric power onsite.
    A high priority in this program will be to begin completing efforts 
that represent more than 20 years of development and are within 1 to 2 
years of achieving their objectives. We will also allocate a smaller 
portion of the budget to the much longer-range future of fuel cells. 
The focus will be to co-fund competitively selected industrial teams 
that will develop new types of all-solid-state fuel cells that can 
break through the cost barrier currently limiting widespread market 
acceptance.
    The fiscal year 2002 budget request for fuel cells is $45.1 
million, a decrease of $7.5 million from the fiscal year 2001 level 
that reflects a shift from generic research to the development of a low 
cost five-kilowatt solid state fuel cell.
     Fuels R&D.--In fiscal year 2002, the $7.0 million budget request 
will support research to reduce the cost and broaden the range of 
feedstocks that can be processed into clean transportation fuels 
suitable for tomorrow's high-fuel-efficiency vehicles. Funding is 
requested for the continued development of improved ceramic membranes 
for producing synthesis gas that can be chemically recombined into a 
variety of clean liquid fuels. A small portion of this budget will also 
be used to support a university-industry consortium that is developing 
ways to use coal to produce high-value carbon products.
    The Department does not propose to continue funding for developing 
new fuel processing approaches for producing ultra low-sulfur diesel 
and gasoline. The President has decided not to relax the requirements 
for cleaner automotive fuels. Industry now understands the need to meet 
the new standards, and this will create an incentive for private sector 
research into cleaner fuels.
    Petroleum and Natural Gas R&D.--The United States has experienced a 
decline in its domestic oil production for most of the past 30 years, 
yet huge quantities of crude oil remain. In fact, nearly two-thirds of 
all the oil found in the history of the United States remains 
unproduced, and much of it is beyond the capabilities of today's 
petroleum industry. There is the need for access to better technology 
and for validating that improved technologies will perform as expected.
    These smaller companies now account for 40 percent of the oil 
produced in the United States and almost two-thirds of the natural gas. 
They account for 85 percent of new domestic drilling. The Department 
will continue to fund efforts that will encourage these smaller 
domestic producers to adopt optimum technologies that can find and 
produce oil and natural gas that might otherwise be left in the ground.
    The overall funding for Petroleum & Natural Gas R&D reflects a 
significant decline compared to the current level of effort. This will 
require the program to be reoriented toward three primary objectives:
  --A concentrated effort to transfer improved technologies and ``best 
        practices'' to the nation's smaller independent firms in the 
        very near-term--the next 1 to 5 years--and to lower the cost of 
        environmental protection through a combination of risk 
        assessments, technology development, regulatory streamlining, 
        impact analysis, and improved federal-state-local coordination;
  --Much longer-term research--10 or 15 years into the future--to 
        develop technologies that could locate and produce oil and gas 
        that are beyond the reach of current technologies or those that 
        industry is developing; and
  --Efforts to enhance the reliability and deliverability of the 
        Nation's natural gas pipelines and gas storage facilities.
    The fiscal year 2002 request for Petroleum and Natural Gas R&D is 
$51.5 million.
    Other Fossil Energy R&D.--Among the other Fossil Energy research 
and development efforts in the fiscal year 2002 budget are (1) $5.2 
million to continue advanced metallurgical activities at the Albany 
(OR) Research Center, including efforts that are helping to develop 
better materials for the Vision 21 concept, and to study new carbon 
sequestration approaches; (2) $9.5 million for corrective actions at 
Fossil Energy R&D facilities to meet environmental, health and safety 
requirements and for other locations where environmental remediation is 
necessary; and (3) $1.0 million for regulatory activities involving 
natural gas imports and exports, exports of electricity, and 
authorizing Presidential permit applications from the private sector 
for constructing and operating electric transmission lines that cross 
U.S. borders with Mexico and Canada.

                           PETROLEUM RESERVES
    Strategic Petroleum Reserve.--The Strategic Petroleum Reserve 
provides the United States with strategic and economic protection 
against disruptions in oil supplies. The fiscal year 2002 budget 
request of $169.0 million will maintain the Reserve's readiness to 
respond to a Presidential directive in the event of an energy 
emergency. During fiscal year 2001, the inventory of 561 million 
barrels will provide 53 days of net import protection. By fiscal year 
2002, with the receipt of crude oil returned in the 2000 exchange 
initiative and all royalty-in-kind oil, the Reserve inventory is 
projected to grow to more than 591 million, its historical highest 
level. Even with the increase in inventory, the days of import 
protection are projected to increase only slightly, to 55 days, because 
of the continuing rise in oil imports.
    Recently, the Energy Department renegotiated the delivery dates for 
23.8 million of the 30 million barrels of crude oil released in last 
year's exchange initiative. Under the original agreements, companies 
would return 31.35 million barrels later this year--the additional 1.35 
million representing a premium in returning for obtaining crude oil 
when inventories were tight last year. Now, under the renegotiated 
contracts, which defer deliveries until December 2001 through January 
2003, the Strategic Reserve will be replenished with 33.54 million 
barrels--2.4 million more than originally anticipated. It may also be 
possible that delivery dates will be renegotiated for at least some of 
the oil currently scheduled to be returned this year, further adding to 
the emergency crude oil inventory at no additional cost to the 
taxpayer.
    In fiscal year 2002, $3.0 million is included in the budget request 
to begin dealing with a recurrence of gas buildup in the Reserve's 
crude oil.
    Naval Petroleum Reserves.--The $17.4 million budget request will 
permit continued operations of the NPR-3 (Teapot Dome) stripper well 
field in Wyoming and activities associated with the co-located Rocky 
Mountain Oilfield Testing Center.
    Elk Hills School Lands Fund.--The National Defense Authorization 
Act for fiscal year 1996, Public Law 104-106, authorized the settlement 
of longstanding ``school lands'' claims to certain Elk Hills lands by 
the State of California. The Settlement Agreement between the 
Department and the State, dated October 11, 1996, provides for payment 
of nine percent of the net sales proceeds generated from the divestment 
of the government's interest in Elk Hills, subject to the appropriation 
of funds. Under the terms of the Act, a contingency fund containing 
nine percent of the net proceeds of sale has been established in the 
U.S. Treasury and is reserved for payment to the State, subject to the 
appropriation of funds.
    The first installment payment was appropriated in fiscal year 1999. 
No appropriation was provided in fiscal year 2000, and the fiscal year 
2000 Interior and Related Agencies Appropriations Act provided an 
advance appropriation of $36.0 million to become available in fiscal 
year 2001.
    The fiscal year 2001 Interior and Related Agencies Appropriations 
Act provided an advance appropriation of $36 million to become 
available in fiscal year 2002 that, consistent with the budgetary 
treatment of other advance appropriations in the budget, would not be 
counted as discretionary funding for fiscal year 2002 but would still 
be available next year. The fiscal year 2002 budget requests $36.0 
million in additional new budget authority for fiscal year 2002. Thus, 
the budget proposes that a total of $72.0 million be available for this 
purpose in fiscal year 2002.

                     ENERGY CONSERVATION PRIORITIES
    The fiscal year 2002 budget for the Office of Energy Efficiency and 
Renewable Energy (EERE) incorporates: concern for our low-income 
citizens--we have doubled our Weatherization Assistance Program; 
improved energy security--we are refocusing our transportation 
programs, particularly the Partnership for a New Generation of Vehicle; 
and energy reliability--ensuring grid reliability and advancing small-
scale, on-site power generation through Distributed Energy Resource 
programs. This budget redirects our energy efficiency resources to 
benefit consumers, with emphasis on those least able to afford the high 
cost of energy. To do this, cuts are made to programs where industry 
and others can step in--sharing costs or pursuing research 
independently.
Weatherization Grants
    Household energy needs consume a disproportionate share of expenses 
in low-income households. The Department's Weatherization Assistance 
Program reduces the heating and cooling costs for low-income families--
particularly households that include the elderly, persons with 
disabilities, and children. To help correct the heavy energy burden 
faced by low-income Americans, the Administration proposes to increase 
the Weatherization Assistance Program in fiscal year 2002 to $273.0 
million, an increase of $120.3 million above current levels.
    The funding level of $273.0 million will weatherize approximately 
123,000 low-income homes plus 108,000 additional homes with other 
leveraged Federal resources, such as Low Income Home Energy Assistant 
Program funds, and State and Utility funds, saving $2.10 in energy 
costs for every dollar invested over the life of the energy efficiency 
measures. In order to ensure the necessary expansion of the 
Weatherization network's production capacity, enabling it to deliver 
services to many more low-income households over the ten-year period 
beginning in fiscal year 2002, the program will work with the 
stakeholders to ensure investment in such essential elements as 
equipment and training for additional crews, and to test improved 
implementation approaches for the Weatherization Program. This year's 
budget marks the beginning of a 10-year commitment to increase funding 
for the Weatherization Assistance Program by $1.4 billion.
Transportation Programs
    The Partnership for a New Generation of Vehicles (PNGV) program 
involves companies in my native State of Michigan, and I supported it 
when I was a Senator. While developing the fiscal year 2002 budget, 
together with our automotive partners, we reviewed PNGV and agreed the 
program needed to be redesigned toward solving today's problems.
    The current popularity of the sports utility vehicle raised 
questions about one of the basic premises under which the PNGV program 
was initiated. When PNGV began in 1993, it was directed at building 
only one type of automobile--the mid-sized sedan. Today, we believe 
greater benefit could be achieved by developing energy-efficient 
components that can be adapted for use in several models throughout our 
fleet of vehicles. That is principally why in the fiscal year 2002 
budget we are reformulating and streamlining the PNGV program--to make 
it more flexible for automakers, of greater benefit to the taxpayer, 
and more realistic in the face of today's diverse challenges.
    A new PNGV approach can help Detroit with promising, longer-term 
technologies that will produce a range of cleaner, more efficient 
vehicles. The Administration will offer a budget amendment to support 
this new PNGV program at $100 million.
    The 21st Century Truck Program is a relatively new multi-agency 
partnership with sixteen companies from the truck manufacturing and 
supplier industries and is aimed at developing technologies needed to 
produce trucks and buses with higher fuel economy, reduced emissions, 
and improved safety. The Department of Energy has been a leader in 
planning and research related to this effort. The partnership is 
proceeding well, with over 65 scientists and engineers from industry 
and government having completed an extensive technical plan that will 
guide the development and implementation of this program. Our fiscal 
year 2002 budget contains $70.6 million for this program.
Distributed Energy Resources
    Over the next two decades, industrial, commercial, institutional 
and residential customers will be able to choose from a diverse array 
of ultra-high efficiency, ultra-low emission, fuel flexible, and cost-
competitive distributed energy resource products and services. These 
will be interconnected into the nation's infrastructure for 
electricity, natural gas, and renewable energy resources. Distributed 
Energy Resources--the localized generation and use of power--can 
greatly enhance reliability and power quality and provide a strategic 
alternative to new transmission lines as we replace the aging 
electricity and natural gas infrastructure in the United States. This 
is critical to new industry growth, including the high technology e-
commerce needs for up to 100 times the power density and 10,000 times 
the power quality and reliability requirements of standard buildings. 
The Distributed Energy Resources program, which is shared with the 
Office of Fossil Energy, supports research and development on thermal, 
electrical, and mechanical power technologies and provides crosscutting 
assistance to the commercial, residential (rural and urban), utility, 
and industrial sectors.
    The programs called for in this budget address many challenges that 
today inhibit the widespread adoption of distributed energy resources. 
System related barriers include limitations in efficiency, emissions 
and cost problems, and systems that are not flexible for remote 
control, smart control, and system optimization. Near-term market and 
institutional barriers include a lack of interconnection standards, 
lack of new technology building and fire codes, and a need for 
consistent siting and permitting rules. Energy Efficiency program 
funding for this activity remains constant at $47.3 million.

                OVERALL ENERGY EFFICIENCY BUDGET REQUEST
    The Energy Efficiency programs funded by this Subcommittee work to 
reduce energy use in buildings, in the industrial sector, by vehicles, 
in power generation, and in federal facilities--all while increasing 
long-term economic growth. The fiscal year 2002 budget requests $795.0 
million for the Department's Energy Conservation programs. Shortly, a 
budget amendment will be forwarded by the Administration to reflect 
proposed changes in the Partnership for a New Generation Vehicle 
(PNGV).
    Building Efficiency Improvements.--In the U.S., buildings account 
for more than one-third of the annual energy consumption and use two-
thirds of all electricity generated. Americans spend approximately 
$240.0 billion per year to heat, cool, light, and run equipment and 
appliances in residential and commercial buildings. The Office of 
Building Technology, State, and Community Programs, in partnership with 
industry, develops, promotes, and integrates energy technologies and 
practices to make buildings more efficient and affordable. Our fiscal 
year 2002 budget request is $367.1 million and contains funds for 
Buildings Research and Standards, $30.6 million; Building Technology 
Assistance, $321.5 million, including the Weatherization Assistance 
Program at $273.0 million and the State Energy Program at $38.0 
million; the Community Energy Program, $8.5 million; and the Energy 
Star Program, $2.0 million.
     Improving Our Transportation Efficiency.--Transportation today 
accounts for 67 percent of the nation's oil use, and our vehicles 
remain 95 percent dependent on a single fuel--petroleum. 
Transportation's need for oil has brought our country to the point that 
it uses 4.7 million more barrels of oil per day--just for cars and 
trucks--than it produces. Imports, which account for more than 52 
percent of our consumption, are at an all-time high and currently add 
an estimated $100 million per year to our balance of payments deficit. 
Working with partners in industry, research organizations, State 
governments, and other Federal agencies, the Department's Office of 
Transportation Technologies programs support research, development, and 
deployment programs which will reduce oil consumption by achieving: (1) 
significant improvements in vehicle fuel economy; and (2) displacement 
of oil by other fuels which are domestic, clean, and cost-competitive. 
For our transportation programs, we are requesting $239.4 million in 
fiscal year 2002. Programs include Vehicle Technologies R&D, $154.1 
million; Fuels Utilization R&D, $23.5 million; Materials Technologies, 
$41.3 million; and Technology Deployment, $10.2 million.
     Industrial Technologies.--Industry today accounts for 38 percent 
of all U.S. energy use. Moreover, just nine industries B agriculture, 
aluminum, chemicals, forest products, glass, metal casting, mining, and 
steel B account for 27 percent of all U.S. energy use. These industries 
ship $1 trillion in products annually, employ over 3 million people, 
and generate four additional jobs in the economy for each manufacturing 
job. The Office of Industrial Technologies partners with key energy-
intensive industries to develop and apply advanced technologies and 
practices that reduce energy consumption, maintain and create jobs, 
boost productivity, and significantly improve the competitiveness of 
the United States. In fiscal year 2002, we are requesting $46.4 million 
for Industries of the Future (specific); $31.9 million for Industries 
of the Future (crosscutting); and $9.4 million for management and 
planning. The fiscal year 2002 request for Industry programs reflects a 
shift to areas with greater potential for industry participation.
     Federal Energy Management (FEMP).--As the nation's largest energy 
consumer, the Federal government can lead the nation in becoming a 
cleaner, more efficient energy consumer. In 1999, the Federal 
government spent almost $8 billion to provide energy to its buildings, 
vehicles, and operations. Over 40 percent of the government's energy 
bill is spent on heating, cooling, and powering its 500,000 buildings. 
The Office of Federal Energy Management Programs reduces Federal energy 
costs by advancing energy efficiency and water conservation, promoting 
the use of renewable energy, and managing utility costs in Federal 
facilities and operations, including those of the Department of Energy. 
The FEMP program facilitates alternative financing, bringing private 
resources to bear on the up-front investment needed to make efficiency 
and conservation improvements at federal facilities. The program also 
provides technical assistance to help federal facility managers better 
address their energy needs. In fiscal year 2002, we are requesting 
$13.3 million for FEMP.

                   ENERGY INFORMATION ADMINISTRATION
    For the Energy Information Administration (EIA), we are requesting 
$75.5 million for ongoing data and analysis activities and critical 
data quality enhancements. EIA's base program includes the maintenance 
of a comprehensive energy database; the dissemination of energy data 
and analyses to a wide variety of customers in the public and private 
sectors; the maintenance of the National Energy Modeling System for 
mid-term energy markets analysis and forecasting; and the maintenance 
of the Short-Term Integrated Forecasting System for near-term energy 
market analysis and forecasting
    In fiscal year 2002, EIA will focus on three multi-year 
initiatives. They are: (1) redesigning the 20-year old energy 
consumption surveys to update the survey frames, sampling design, and 
data systems, and realign them with the information on residential and 
commercial buildings populations resulting from the 2000 census; (2) 
revising EIA's natural gas and electricity surveys and data systems to 
reflect changes in these restructured energy industries; and (3) 
addressing critical petroleum and natural gas data quality issues to 
facilitate EIA's ability to collect and disseminate reliable and 
accurate energy data needed to assist the Administration and Congress 
in making informed energy policy decisions.

                          ECONOMIC REGULATION
    The fiscal year 2002 budget request of $2.0 million is for refund 
application processing and for related activities arising from the 
regulatory program initiated under the Emergency Petroleum Allocation 
Act of 1973. Excess funds from refund processing are transferred to the 
Treasury.

                               CONCLUSION
    Mr. Chairman, and members of the Subcommittee, that concludes my 
prepared statement. I will be glad to answer any questions you may have 
at this time.

    Senator Burns. Thank you, Mr. Secretary, and we have about 
7 minutes remaining on this vote. You can rest now----
    Secretary Abraham. All right.
    Senator Burns [continuing]. And we have two votes, two 
stacked votes. We will all go vote, and I will just recess this 
committee and take care of those two votes, then we will be 
right back and get into the question and answer session. Thank 
you very much. We appreciate your consideration.
    We will call the committee back to order.
    Mr. Secretary, I must apologize that the Senate is not any 
more well-behaved than it was when you were a Member of it.
    Secretary Abraham. So blaming me all those years----
    Senator Burns. I am sorry it takes 35 minutes on a 15-
minute vote and 16 minutes on a 10-minute vote, so I must 
apologize for that.

                                EARMARKS

    Last year, Mr. Secretary--and the ranking member will be 
along momentarily, because I know you have got other things to 
do and so do we. Last year, Senator Gorton and Senator Stevens 
and Senator Byrd and I sharply criticized your predecessor for 
withholding the allocation of funds appropriated by this 
committee for specific purposes and specific projects. Can I 
have your commitment that once the President has signed this 
appropriations bill, that you will move as swiftly as possible 
to allocate and obligate the funds provided for the purposes 
laid out in this bill and our committee reports.
    Secretary Abraham. We will do that. We actually, as you 
know, I have directed the Department to move forward with 
respect to previous congressionally directed appropriations, 
and I believe we have acted with respect to 1999 and 2000 
approps, and are moving to do the same with respect to those in 
this fiscal year, although obviously there are some time 
considerations this year that we are part-way through, but we 
will work with the committee.
    Senator Burns. I think what frustrates a lot of us up here 
on the Hill is that we get an agreement with the 
administration, and then those agreements kind of go by the 
wayside after the President finally signs the bill.
    Under the last administration, it seems EPA regulations 
were often not consistent with the goals of R&D programs 
supported by the Department of Energy and their funds. I was 
heartened by the meetings we have had with Ann Veneman, the 
Secretary of Agriculture, and the Director at EPA, because the 
two of them have sat down and are talking, because we have 
certain things going on in agriculture that has a lot to do 
with the EPA.
    I would like to hear from you if you are willing to sit 
down with other Departments such as the Director of EPA, Ms. 
Whitman, and to iron out some of your differences in policy 
direction. I think you understand the demands of energy for 
this country, and the environmental rules that may impede 
development. Hopefully we can then get more cooperation between 
the EPA and your Department.
    Secretary Abraham. Senator, we actually have been trying to 
proceed along that very approach since we took office. One of 
the arguments that supported the President's decision to create 
an Energy Policy Development Task Force, made up of a variety 
of members of the Cabinet, was the need to have an 
interdepartmental look at these issues, because we recognize 
that while the Department of Energy would have a lot of 
priorities with respect to generating new sources, that the 
Environmental Protection Agency or the Department of Interior 
had ultimate authority with regard to either regulations or the 
availability and use of public lands or whatever issue might 
come up.
    So we have already begun that, and that is what this Energy 
Policy Task Force has been created for, and I would just 
indicate, Governor Whitman and I have worked together on a 
variety of different issues over the years in her previous 
role, and in addition to the work we do on the task force 
together have been working together on other matters where the 
Department of Energy and the Environmental Protection Agency 
policies converge.
    Senator Burns. Well, right now I think the most important 
thing that you have got on your plate is the dialogue between 
Secretary Norton and Director Whitman and yourself in these 
agencies on how we can coordinate and move this country 
forward. I would also point out there was a report recently 
released by the Coal Council saying that over 40,000 megawatts 
of power can be available in retrofitting or upgrading existing 
coal powered generation plants.
    They do not do it because of the EPA's rules on new source 
review. I think this is an example where you have got to 
develop a dialogue with the EPA. If we have a shortage of 
power, but we still have a credibility problem with the people 
who generate it, then I think we should investigate ways that 
we can increase the output or the efficiency of existing coal-
powered plants.
    I am a big proponent of coal, because we have a lot of it 
in Montana, much of it compliant coal, that we could use to get 
our electricity rates back into an acceptable range. We are 
going to have to use this resource, because that is where over 
50 percent of our production is, from coal-powered generation.
    Now, the Energy Policy Task Force, being led by Vice 
President Cheney, will soon announce its recommendations within 
the next few weeks. These recommendations will play an 
important role in shaping the energy-related legislation moving 
through Congress, including this appropriations bill. Are you 
confident that right now you are on the same track as the 
recommendations that will be forthcoming from this task force?
    Secretary Abraham. Do you mean with respect to our budget?
    Senator Burns. Yes.
    Secretary Abraham. I am, and the point that was made in the 
questions, and the earlier statements that were made, was a 
comment on the text of my written submission here today that we 
felt this was a prudent transition budget, and the point I 
attempted to make in using that expression was simply this. 
When we took office, the budget process was well-advanced, and 
the timetable for preparing a budget was very constrained.
    We attempted, as best we could, recognizing that the Cheney 
task force recommendations could conceivably drive new 
priorities, or adjust existing ones, we tried to put together a 
budget that gave us as much flexibility as we felt we needed to 
address priorities that emerged from the task force while still 
moving ahead with what we thought were the core competencies of 
the different programs within the Department and, to the extent 
we already knew them, the President's priorities.
    We knew he had placed the priority on clean coal 
technology, it is reflected in the budget, that he had a 
priority for introducing weatherization support, it is in the 
budget, and what we tried to do in the other areas is to not 
anticipate the results of the Cheney task force, but to try to 
maintain the core competencies of the various areas subject to 
the recommendations, that might therefore result in changes in 
terms of budget emphasis.

                        FOSSIL ENERGY R&D BUDGET

    Senator Burns. In terms of the priorities, Mr. Secretary, 
the current administration request for fossil energy research 
and development total was $448.8 million. Last year, we 
provided a total of $545.2 million in the same programs. These 
programs include research and development to increase turbine 
efficiency of our power plants, reduce admissions, and recover 
natural gas and oil in an environmentally sensitive manner.
    Considering the situation that we are in, of extreme 
supply-demand pressures on fossil fuels and transportation, 
electricity generation, how can you justify this severe 
reduction in the types of research that will allow us to 
address our Nation's growing energy needs in a responsible 
manner?
    Secretary Abraham. Mr. Chairman, the submission for this 
year, as I indicated earlier, is actually larger than the 
submission that was made to this committee by the previous 
administration for last year in this area. Some things changed 
subsequent to that submission that caused the final 
appropriation level to be higher to the amount that you 
indicated, approximately $545 million.
    One of the factors that differentiates our situation from 
that of a year ago is that I believe we were somewhere in the 
vicinity of $132 million of rescission dollars that were 
available to be used in this budget. That is money that was 
available from the previous year, that I do not have the 
benefit of being able to apply in this budget that we have 
submitted here.
    I would also point out that with regard to one of the line 
items that is included in the 2001 appropriation, that is, the 
power plant initiative, which is I think at about $95 million, 
that there is, in fact, a triggering mechanism whereby the 
actual release of those moneys and their expenditure for the 
most part is actually going to occur in the year 2002 fiscal 
year. As a consequence--not that that is not money that is in 
the 2001 budget, but it is largely going to be money that is 
going to be spent in 2002--I do not consider our appropriation 
request to be deficient, for those two reasons.
    However, I would return to the point that I made earlier. 
We did make some decisions with regard to priorities. One of 
them was the priority of the clean coal technology investment 
that the President recommended during his campaign, and which 
is reflected here in terms of an initial $150 million down 
payment towards a $2 billion 10-year commitment.
    To accommodate that, we have moved some resources within 
the finite amount that we had available from some of the 
research and development programs, those that relate to oil and 
gas, and some of the others as well, the power and fuels area. 
We believe that the industries that benefit from these 
technologies are in a much stronger position today than they 
have been in a long time, to be greater participants in funding 
this sort of research, and I would say that with due respect to 
the industries, but in areas like natural gas and areas like 
power systems and so on, we are talking about an era in which 
profits are up, in which prices are up, in which we believe 
that the cost-share that the industry participates at should be 
greater, and we intend to try to examine that issue.
    Now, some would say without Government, none of this 
research will go on. I question that in some of these areas, 
because I think the interests of the industries themselves are 
so great, and their position financially is strong enough now 
to make up those differences, and that is something we will 
have time to explore.
    Senator Burns. Well, I was looking here at some numbers 
that were not matching up. Of course if the $95 million's to be 
spent in 2002, as you said, you are still requesting another 
$150 million on top of that. Can we assume that that will be 
spent in the year of 2002 also?
    Secretary Abraham. Well, that is our plan. We have just 
begun the process of seeking bids, if you would, for the 
expenditure of the first $95 million. That process has begun. 
We have been quite gratified by the amount of response we have 
received. In fact, there will be no trouble finding partners to 
share in the research that the $95 million will trigger. In 
fact, we have already received well over $95 million, more than 
enough, should we choose to fund all the projects that have 
come in, so not just spend that initial power plant initiative 
$95 million, but also the $150 million that we propose could be 
added on.

                          FUEL CELL TECHNOLOGY

    Senator Burns. Let us talk about an area where there was a 
significant cutback, and an area also that I think has 
significant support in this committee and in this Senate, fuel 
cell technology. I happen to believe that we have great 
opportunities there, because I have worked very hard in the 
last 4, 5, 6 years--well, maybe going all the way back to 1991, 
in the development of fuel cells, and watched their development 
both in this country and abroad.
    As a result, Montana has received funding for multiple DOE 
projects propelling fuel cell research forward, and we live in 
a State where we have all of the elements to work with when we 
talk about fuel cell development. I happen to think that from 
an environmental standpoint, and in areas where we know that we 
have distribution problems, fuel cells will be the answer of 
the future.
    Despite the proposed cuts in the fuel cell program, I am 
sure you understand the potential of this technology, and what 
it holds. I need your assurance that you are as dedicated to 
fuel cell technology and R&D work as this Congress is.
    Secretary Abraham. Mr. Chairman, we are, and I would just 
note that the cumulative commitment with respect to fuel cell 
technology is approximately $92 million in the total budget, if 
you add those which fall into the category of energy efficiency 
programs in transportation sector and so on, along with those 
that fall within the fossil energy share, the distributed 
generation system share of the budget, and the fact is that 
that is a number, as you acknowledge, that is lower in the 
fossil side by about $7 million from last year.
    It is my understanding that this is largely a reflection of 
the fact that we completed the demonstration of the 250-
kilowatt molten carbonate fuel cell power plant system program, 
which as I understand it, the completion of which is the reason 
that there is a slightly lower amount. In fact, in that 
category the reduction that that brought about was about $19 
million, so in fact we overall are committed in our judgment at 
least as much as before.
    But if I could just expand briefly, not only do I share the 
views that I do recognize are widely held by the Members of the 
Senate and Congress, but we view the investments in this area, 
in the areas that relate to the distributed generation systems 
and distributed energy investments in hydrogen research, to be 
ones that have a tremendous amount of promise in terms of 
alternative energy approaches, and so it is a commitment that 
is reflected if you look at the renewable side of the 
Department budget, and it is a commitment that is reflected 
here. We really see that as the future.
    We believe that a lot of the research has matured in some 
of the other areas which we focused on in the areas like wind 
and solar and others, that these are areas that need more 
commitment, and we intend to provide it.
    Senator Burns. Well, we are very interested in it in 
Montana, but I would say that we get the feeling every now and 
then that maybe some of the research has kind of run its 
course, and maybe we ought to take off in another direction, 
but we do not believe that is the case in fuel cell research.
    Secretary Abraham. We do not, either.

                             POWER SYSTEMS

    Senator Burns. So we think that is a very important 
situation.
    However, over in fossil energy, in power systems, in the 
power systems where you have had severe cutbacks this time, is 
it your feeling that most of those programs have been completed 
and need to be phased out?
    Secretary Abraham. Well, you know, we have analyzed them on 
a program by program basis, obviously, and I will give one 
example in the fuel and power system area. As I said, there are 
sort of two thoughts that have governed this process. One is 
the question of whether we believe that the private sector 
participation level could be increased, and I happen to think 
that--you know, one of the issues that we raised during opening 
statements here, and is in the ongoing discussions of energy, 
is the question of, or the concerns--people say, well, the 
companies involved are doing very well, and somehow we need to 
investigate.
    Maybe we should, maybe we should not, but we do know that 
energy companies are in a position right now, I think, to make 
some of these investments at a greater participation level than 
they have, and we are going to explore that, but there is 
also--we tried to analyze some of the programs more 
specifically. One area where in the power systems there is a 
zeroing out is the turbines.
    Senator Burns. We noticed that.

                                TURBINES

    Secretary Abraham. And what I will tell you is this. We 
worked in the Department on major R&D commitments over a period 
of time on a $400-megawatt utility scale turbines, big 
turbines, those that provide major, major energy production, 
but that work is finished. The product, or the science and the 
research program ended, and so right off the bat we would not 
continue something that was now a completed project.
    The question became whether or not to launch a new 
initiative with respect to research and development in terms of 
turbines technology in the area of mid-size turbines. These 
would be smaller turbines. They can move round and about. These 
would be in the 40-megawatt kind of area of generation, up to 
100, or even some would say 200.
    What I found interesting in considering this line of items 
is an experience I had right after I became named--actually 
became Secretary. I heard from General Electric Company that 
they had a demand that has a 5-year backlog in terms of the 
production of these very types of turbines.
    What they contacted me to inquire about is whether or not 
there was any way that perhaps some of these that are coming 
off the production line soon could be made available for 
California's energy shortages this summer. Not that we could 
just order that, obviously people had already paid for those, 
but to perhaps let California know that such turbines were out 
there, perhaps see if some of the people in line ahead of 
California would consider changing places.
    But the thing that became clear to me is that this is 
technology that is already out there, that the expenditure of a 
large amount of taxpayer money at this point, before I could 
analyze further that there needed to be additional 
investigation and research and development in this area, was 
not really justified.
    To put $30 million more dollars in, to be able to say well, 
we are keeping it steady, when it would seem that the product 
of that work might already be available, and where there was 
such a large market for it that they have 5-year backlog, and I 
guess Westinghouse has a similar kind of a system available, 
that it sounded like plenty of incentives already existed to 
generate and bring to market these kinds of generation, these 
sources of generation, and probably a lot of incentive to 
improve them and make them more efficient simply because of the 
backlog.
    So that is the kind of decisionmaking we did.
    Senator Burns. The same would be true of oil and gas and 
coal fuels, because you have got an 83-percent cut there.
    Secretary Abraham. Well, again, you know, some of these are 
questions with respect to markets.
    Senator Burns. Most of that is transportation fuels, you 
know.
    Secretary Abraham. Right, and again, obviously, I make no 
statement here that suggests that there cannot be differences 
of opinion as to what the emphasis should be. In the fossil 
energy program we have increased, with $150 million, our 
commitment to clean coal technology. Some worry about the fact 
that to make that kind of increase we have moved resources from 
other areas.
    We actually felt that the incentives for technology 
advances in the area of oil and natural gas right now in the 
private sector were greater than they had been in a long time, 
and that the rationale for Government stepping in and taking as 
big a role as it had previously taken to fund that sort of 
research had diminished.
    You know, I say this against the backdrop of being 
inundated by calls from Governors, Members of Congress and 
others concerned about the high gas prices, high natural gas 
prices, high prices at the gasoline stations people are paying, 
and the so-called record profits companies are making. I am not 
suggesting--I believe the companies are, you know, in a 
position to basically do a little more in terms of this 
research because we are now in a different period.
    A few years ago, the price, as you know, of oil, the price 
was much lower, natural gas was much lower. The incentives to 
engage in this kind of technology in our opinion were far 
greater, and that is why Congress made the kinds of investments 
it did, but I question whether we need to keep funding at that 
level, given the incentives that I think are available in the 
private sector, given the profit margins and the prices today.
    That is the choice we made, and again I can understand that 
people would have a different perspective on it, but we thought 
that moving more into clean coal technology right now, in light 
of the, as you indicated earlier the situation that exists with 
respect to the potential reserves there, the questions that we 
confront with regard to the ability of maintaining, producing 
the coal in a sufficiently clean way to be able to take 
advantage of the 250-year reserve, warranted that kind of 
priority.

                   NORTH AMERICAN ENERGY COOPERATION

    Senator Burns. I just think that we have--I am going to ask 
one question, and then I am going to--and I have taken up way 
too much of your time already, but President Bush recently held 
meetings with two North American leaders, Vincente Fox of 
Mexico and Jean Chretien of Canada, to discuss energy 
development in cooperation between our two countries. Did you 
go to Quebec City, Mr. Secretary?
    Secretary Abraham. I did not participate.
    Senator Burns. Do you believe that the oil and gas 
exploration and the shipments from outside nations will serve 
as a viable solution to some of our energy problems we are 
experiencing here?
    Secretary Abraham. I believe, and I think the President has 
taken very positive steps, and I believe that we can expand our 
hemispheric energy cooperation activities. I recently had the 
chance to represent our country at the Hemispheric Energy 
Ministers Conference that took place in March in Mexico City, 
and we had I thought a very positive set of meetings there on a 
variety of fronts, and if you will give me a minute or two, I 
would just like to highlight a couple of the positive 
developments.
    On the one hand, within our North American energy 
community, my counterparts, the energy ministers of Mexico and 
Canada and I met on a trilateral basis and have agreed to 
launch a North American energy initiative, or framework, to 
work together to see how we can, in a cooperative sense, 
maximize opportunities in our North American subcontinent.
    There are a lot of options, and we are looking at them 
through a working group that will be meeting in Washington in 
June, but the kinds of things we are looking at is where 
greater interconnectivity could provide for more export and 
import potential.
    For example, California's energy problem in electricity is 
aggravated by an infrastructure limitation right now that 
prohibits California from importing more than a small amount of 
electricity from Mexico.
    When I was in Mexico I met with both the electricity and 
the energy minister in Mexico and ask if they could increase 
their supply to California from their Baja California power 
facilities, and they indicated they could increase by about 50 
to 100 megawatts by the summer, and then by maybe as many as 
500 or more megawatts by the fall. The problem is that on our 
side of the border, we can only at total move 408 megawatts 
from the border to San Diego.
    So working on those kinds of shared problems is one thing 
that came out of that conference, and another is that there is 
considerable interest in Mexico and other countries in South 
America to promote a much higher level of private investment in 
terms of the development of potential reserves, natural gas in 
particular, which was one full day of our conference was 
devoted to how to bring more private investment into countries 
where that has not always been culturally or even legally the 
tradition.
    So I see a great opportunity to answer your question, and 
we intend to work closely with our neighbors in the hemisphere.
    Senator Burns. Well, I think it is very important, and when 
we consider that 95 percent of the power generation that is on 
the drawing board right now is powered by natural gas, I think 
we are going to have to have our gas lines and what we use out 
of Canada and Mexico in natural gas is going to be very, very 
important.
    We do have a difference in our priorities, and as we move 
through this thing we will be in discussions with you and your 
staff, Mr. Secretary, to iron out those differences. Now I 
would move to my good friend from West Virginia, Senator Byrd.
    Senator Byrd. Mr. Secretary, I want to beg the chair's 
pardon and yours for being tardy, but I voted twice on this 
last vote. I voted, and then I came back over here and was told 
that my vote had not been recorded, so I had to go back and 
cast that vote. That makes 15,959 votes that I have cast in the 
43 years I have been in the Senate, a roll call attendance 
record of 98.7 percent.
    Senator Burns. Have all of them been good?
    Senator Byrd. No. There are a few I have regretted.
    As I examine your budget request, Mr. Secretary, and try to 
square it with the rhetoric that I hear coming from the 
administration, frankly, I am more than just a little bit 
perplexed. Last week, the Vice President was in Toronto to 
preview your energy policy, and the Vice President said, and I 
quote, the technologies are proving that we can save energy 
without sacrificing our standard of living, and we are going to 
encourage it in every way possible. That is a very good sound 
bite, but the budget figures do not mesh with the Vice 
President's statement.
    I do applaud the administration's support, as I said 
earlier, for clean coal technologies. I started that program in 
1985 with a $750 million authorization, and since then, through 
my Appropriations Committee, we have appropriated $2.4 billion 
for that program, so I am a supporter of it without any 
question, but a national energy plan must have fuel diversity 
at its core. Your administration is proposing a 53-percent cut 
in natural gas reserves.
    Let me have this chart over here. Put it over here.
    Now, for coal and power systems, that is not including 
clean coal technology. Can you see it over there? The chart 
shows that in fiscal year 2001 there were $229,234,000 
appropriated. In fiscal year 2002, there is being proposed 
$159,801,000. That is a reduction of $69,433,000, or 30 
percent. That is coal and power systems. That excludes clean 
coal technology.
    For natural gas technologies, fiscal year 2001, we enacted 
$45,029,000. For next year it is proposed $21 million, a 
reduction of $24,029,000, or 53 percent.
    Oil technologies, fiscal year 2001, $66,874,000, fiscal 
year 2002, $30,499,000, a reduction of $36,375,000, or 54 
percent.
    Salaries and expenses, down 13 percent, other R&D, $29.2 
million in fiscal year 2001, 2002, $17.7 million, a reduction 
of $151,463,000 total, R&D 40 percent reduction, and total, for 
all these categories, total reduction, 34 percent.
    Now, let us look at clean coal technology, $95 million in 
fiscal year 2001, $150 million in 2002--we will all applaud 
that. That is an increase of $55 million, 58 percent, but note 
that for fiscal year 2002, clean coal technology is going to be 
$150 million. We are losing $150 million up here, so we are 
picking up $55 million in clean coal technology in 2002, if 
what has been requested is enacted, picking up $55 million 
more, while we are cutting back $151,463,000.
    So in this budget request I do not see the Bush 
administration encouraging energy technologies in every way 
possible. On the contrary, I see a budget that discourages 
research into new, more efficient, more environmentally sound 
technologies. I see a budget with artificially set numbers that 
were designed to fit in a predetermined mold.
    I do not think that this budget request is defensible in 
light of all the rhetoric coming from the other end of the 
avenue about new technologies and cleaner-burning fuel. Mr. 
Secretary, can we expect that the administration will soon 
submit a revised budget plan for the Department that more 
accurately reflects the costs associated with an overall 
national energy policy?
    Secretary Abraham. Senator, as you know, we are on the 
verge, probably within the next 10 days, of having the final 
results of the President's national energy plan presented to 
the country, to the Congress and the American people. All of 
the areas you have mentioned are areas which have been under 
serious scrutiny as part of the development of that plan, and 
it was our view that to begin, in areas where we did not feel 
we had a clear guidance, as I said in my opening comments, from 
the President in his campaign platform or in his initial 
comments after the Inaugural, where we did not have clear 
guidance, we have tried to retain the flexibility to move in 
the directions recommended by the policies that are advocated 
as part of the national energy plan, because I believe, and I 
know you do, that budgets should be driven by policy 
priorities, and I expect that next week we will get a lot of 
clear guidance in terms of the policies that this 
administration seeks to establish as our energy priorities, and 
that, in turn, translates into, I suspect, significant budget 
ramifications.
    What I cannot tell you today is whether or not that would 
take the form of any changes with regard to this year's budget 
in terms of any kind of resubmission, whether there might be a 
supplemental, whether there might be negotiations that would 
take place as just part of the normal appropriation process.
    I can indicate to the committee, for certain that it will 
be reflected in our 2003 submission, because then we will have 
the full budget process in place, but as to how we might take 
those new priorities and shape them into any kinds of 
alteration of the budget submission here, which of the possible 
courses--I am not sure that it is ultimately a decision I would 
make, it is one OMB and the White House would make, but----
    Senator Byrd. Well, I wish it were a decision you would 
make.
    I do not go to lunch in the Senators' dining room, very 
seldom, once or twice a year. We have a special place there for 
Senators, a little room in which they eat. I never go there. I 
bring a sandwich. Sometimes it is a baloney sandwich. It may be 
peanut butter. I especially like peanut butter sandwiches, and 
above all I like crunchy peanut butter.
    Now, you, in your position, are in a position of that 
sandwich. You have got the administration biting at you on one 
side, and you have got Senators like Robert Byrd on the other 
side, and you are going to get eaten if you are not careful. 
You are going to be cannibalized.
    Let me ask specifically----
    Secretary Abraham. Well, I have noted a slight change in 
responsibility from being on that side of the table.
    I cannot say that all the changes have been ones that are 
preferable.
    Senator Byrd. Well, with so much focus placed on increasing 
the supply of fossil energy sources, I find it rather curious 
that the Bush administration wants to cut the Energy 
Department's research and development funds, as I have 
indicated, outside clean coal, by 34 percent from the fiscal 
year 2001 levels. To me, that is a shortsighted budget that 
fails to meet our Nation's long-term energy needs. How do you 
explain that?
    We are beefing up clean coal technology, but we are 
cutting--we are helping to pay for that by taking money from 
fossil fuels energy research.
    Secretary Abraham. Well, let me talk about it on three 
levels, if I could, and just take a little extra time in this 
answer.
    Senator Byrd. Not too much. Not too much.
    Senator Burns. He will miss his sandwich.
    Secretary Abraham. There are three issues I would note. The 
first one I have already indicated, which is that it is 
entirely possible that the budgets of the future certainly 
would reflect changes in terms of priorities that come about 
after the results of the task force are released.
    Second, I would point out that we do have some constraints 
this year that did not exist last year, or at least that I have 
been constrained by. One of them, as I mentioned a few minutes 
ago before you were here, in answer to Senator Burns, is that 
last year we had, I think, about $132 to $136 million of 
rescissions that were available to be used in the fossil energy 
budget that I have not--there may be some additional dollars 
available this year, but they were not available to me in terms 
of preparing this submission. That constrained the latitude 
that we had in terms of program considerations.
    But also, I do want to go back to a point I made before. 
There were some areas here where we made some decisions that 
continuing programs as they had been before was just not a 
warranted use of taxpayer money, and I mentioned before you 
arrived one area, the turbines area, where the work was 
completed on the large turbine program, and the question was, 
do we now enter into a major commitment--last year that 
commitment level was almost $31 million--with respect to mid-
sized turbines.
    Senator Byrd. Would you focus on clean coal technology----
    Secretary Abraham. Sure.
    Senator Byrd [continuing]. What I asked the question about?
    Secretary Abraham. Well, I am sorry. I guess my 
understanding was that you wanted a sense of how we were 
committing to more fossil research and other research and yet 
cutting down the amount.
    Is your question with regard to clean coal, then, how we 
arrived at this amount?
    Senator Byrd. My question is, how do you square all this 
great rhetoric about where we are going in energy--and heaven 
knows, we have got a job to do with regard to energy, but I 
find that the clean coal technology program has increased, in 
keeping with the President's campaign promises while he was in 
West Virginia. If West Virginia had not gone for this 
President, if West Virginia had gone for Mr. Gore, Mr. Gore 
would be President today, and his Secretary of Energy would be 
sitting there.
    Now, that is all well and good, and I talked with Mr. Bush 
about this on the plane. He had the courtesy and had the 
goodwill to invite me--me, a poor boy from down the sticks of 
west Virginia. I used to slop pigs, you know, gather up the 
scraps and feed the pigs, and I did not have any running water 
in the house. We did not have any bathroom in the house. We 
went outside to the toilet. You know, things have changed. It 
used to be that people ate on the inside of the house and went 
outside to the toilet. Now they eat on the outside and go 
inside to the toilet. Think about that.
    Well, I am a--you people do not know anything about that. I 
lived in the Depression, you see, and when I married, 64 years 
ago, 3 weeks from today, I was making $75 a month. Can anybody 
in the office beat that, anybody in the audience beat that? If 
you can, raise your hand.
    What I am saying is, the President was kind enough to 
invite me. I did not have anything when I was a boy. My dad was 
a coal miner. My wife's father was a coal miner. He invited me 
to go to West Virginia with him on a plane.
    So you can see why I have got the big head, and on that 
trip I said to Mr. Bush, I said, Mr. President, you know I 
support your idea of increasing moneys for clean coal 
technology, but do not take it away from fossil fuels research. 
I hear that that may be where the money is going to come from, 
part of it, and I wrote him a letter, handed him a letter 
saying that, do not take it from fossil fuels research, and lo 
and behold, that is exactly where a lot of it is coming from, 
fossil fuels research.
    My question is to you, this is a short-sighted budget. 
Explain why you want to cut fossil fuels research in view of 
the energy problem that faces this country. Clean coal 
technology is fine. You are looking at the daddy of that 
program, the daddy, but fossil fuels research is also 
important. Why are we cutting that?

                         FOSSIL FUELS RESEARCH

    Secretary Abraham. Well, first of all, the President in the 
campaign and subsequently in conversations with you, as well as 
in conversations you and I had, has launched, as you know, a 
10-year commitment, a $2 billion commitment to clean coal 
technology, and that was a commitment that was publicly made by 
the President, which you are supportive of, I know, and we will 
fulfill that commitment.
    The question of how we will fund that commitment over 10 
years is one that we will work at after the task force 
completes its work, in conjunction with other energy 
priorities, within this budget.
    To answer your question as to reducing fossil research in 
other areas, here is the rationale. Again, within the finite 
dollars that we had to work with, we made some choices of 
priorities and we felt clean coal was a priority.
    I felt turbines research, as I indicated earlier, was not a 
priority because we had completed work on the $31 million 
program that finished in the fiscal year 2001 year, and the 
next generation of that research in our judgment was 
unnecessary, because programs in that area of mid-sized 
turbines already were in the marketplace and moving forward.
    With respect to some of the other areas, we made a 
decision, and believed that in light of the strength of the 
industries involved, particularly in the areas of oil and 
natural gas, that the share of research that can be borne by 
those industries at this time can be greater than what it has 
been, and should therefore be increased, and that is the 
direction in which this budget will move.
    Senator Byrd. Now, Mr. Secretary----
    Secretary Abraham. There is certainly a debate on that, I 
understand, but we believe that that potential certainly 
exists.
    Senator Byrd. Mr. Secretary, what you are saying is that 
the administration is shifting funding away from programs where 
the private sector could make and is expected to make a bigger 
contribution. That is what you are saying, is it not?
    Secretary Abraham. Yes, exactly.
    Senator Byrd. Let me tell you the problem with that. The 
problem with that is that you are betting on the fact that 
corporate CEO's will take up the slack and invest hundreds of 
millions, or even billions of dollars, corporate dollars, in 
technologies that may not pay off--may not pay off in 3 years, 
or 5 years or 10 years, or more. These are the same people who 
in many cases cannot see beyond the next quarterly report, and 
how the companies stock price will affect their pay check. Now, 
that is the problem. We cannot depend upon private industry 
here.
    Private industry responded in a great way on clean coal 
technology, and has supplied, as a matter of fact, two-thirds 
of the money, instead of the required 50 percent. We cannot bet 
on it in this--long-term, we cannot bet on private industries 
picking up that slack.
    I have got some more questions, Mr. Chairman.
    Senator Burns. You keep on going, because I took about 35 
minutes, you know, right in front of you.
    Senator Byrd. Thank you very much.
    Senator Burns. I took advantage of your absence.
    Senator Byrd. Thank you, Mr. Chairman.
    Secretary Abraham. Can I make just a comment, though, 
Senator?
    Senator Byrd. Yes, certainly.

                      PRIVATE INDUSTRY INCENTIVES

    Secretary Abraham. Because obviously we believe that the 
incentives for private industry to engage in this technology 
are quite substantial right now. That is our look at it, 
particularly in the area of oil and natural gas. Prices in 
these areas are at very--significantly higher levels than they 
have been in recent years, therefore the return on these 
investments we believe is now much more attractive for the 
companies, who maybe a few years ago, when prices were low, 
would not have picked up that responsibility to the extent we 
project.
    I guess, you know, I think at this point that we should 
look to those industries, as we have looked to the coal 
industry with regard to clean coal technology to increase their 
share, and frankly I think the idea that the taxpayer should 
pick up the $60 million that we propose in these areas be 
reduced at a time when we are seeing record profits in these 
industries, it was hard for me to justify that kind of 
priority-setting.
    Senator Byrd. Mr. Secretary, I am sorry you are saying it 
was hard for you to justify it. I thought this was the other 
crowd that was making these decisions, and you were on the side 
of really doing something about these brownouts, rolling 
blackouts and all of that.
    The record does not show--look at the record. The record 
does not show that private industry is picking up these huge 
amounts like this on fossil energy. How did we ever get started 
in this? We got started because there was a need for the 
Federal Government to do something about this.
    I am not for the Federal Government doing everything, but 
there are some areas in which the Federal Government has to do 
it, and at least has to lead the way, and so I think that the 
budget would play havoc with the Nation's preeminent fossil 
energy research program, and we are going to do whatever we 
can, Mr. Secretary, to put you and the Vice President and the 
President on the right track.

                 NATIONAL ENERGY TECHNOLOGY LABORATORY

    Let us talk for a moment about the National Energy 
Technology Laboratory. What do you expect would be the 
repercussions of your budget request on the staffing levels at 
that facility?
    Secretary Abraham. We have not been able to make a final 
decision on that, and I would be happy to keep you informed as 
we reach that. I think obviously, as you are aware, there is a 
reduction in our salaries and expenses line item, and so 
obviously that leads to the potential for a reduced employment 
level. We think that there is----
    Senator Byrd. I am listening.
    Secretary Abraham. But what we have not assessed is to what 
extent attrition will be a factor between now and when these 
changes would come into place, but I would acknowledge that 
there will be a decease in the amount of dollars available, and 
that therefore we would expect the total employment level would 
be lower.
    Senator Byrd. As I understand it, it will be about 58 at 
the lab.
    Secretary Abraham. 58 is one number, the highest number I 
have heard, but we are not sure whether or not that takes into 
account either attrition or some changes that we are still 
examining here.
    Senator Byrd. Certainly we will be losing many critical 
energy technology scientists and experts. Do you think this is 
being short-sighted?
    Secretary Abraham. Well, in my judgment we have a 
tremendous complex both there and across the labs, all of the 
labs that we have. We have tried in this budget to take an 
approach towards the support of the sciences and the research 
programs in a way that will minimize the effect of it, and I 
think we have done that.
    Senator Byrd. Well, obviously we have a chasm here that is 
going to be hard to bridge, but we will bridge it, and I will 
still have your friendship, and you will still have mine.
    Secretary Abraham. I am sure of that, sir.
    Senator Byrd. But this is one Senator that is just not 
going to go along. This is flim-flam that we are getting from 
the administration.
    Let us see what that task force comes up with. Maybe I will 
be shown to be wrong, but I want to see what the task force 
says, but we have got to talk about these figures as we see 
them presented now. Why not follow the example set by Secretary 
Rumsfeld, who is waiting to submit his budget until he has 
completed his review of the Nation's defense policy?
    Secretary Abraham. Well, we----
    Senator Byrd. I have another question. That was a 
rhetorical question.
    Secretary Abraham. Oh, okay.
    I did not have that answer here, either, so I am glad it 
was rhetorical.
    Senator Byrd. Maybe you had a good answer on that one.
    Well, industry--we have been talking about industry--has 
been an important partner in the clean coal technology effort. 
The successes that we have seen to date would not have been 
possible without such a public-private partnership.
    At the same time, I do not think that it is plausible to 
believe that industry will pick up a 34-percent cut in the 
Department's overall nonclean coal research and development 
program. The President has stated that his energy plan will be 
a long-run solution to the energy problems we now face. If the 
President thinks we face problems now, those problems will only 
be compounded by a short-sighted budget that sacrifices the 
Federal commitment to energy research and development.
    Now, just to be right to the point, the basic reason why we 
are seeing these reductions, and it is not just in this budget, 
and redirecting program moneys from one program to another, 
which is robbing Peter to pay Paul, the basic reason is to pay 
for this huge tax cut.
    Now, you are kind of in that sandwich again, and I can 
understand. I do try to feel for you on these things, but that 
is the basic reason why we are being underfunded, but that will 
have to be settled another day and elsewhere.
    But Mr. Secretary, thank you for appearing here. Thank you 
for your responses, but just be ready, because we are going to 
change those figures on this committee, and bless your heart, I 
think you are going to like it better, because I think you will 
have more money and more people and more research, and a better 
program.
    Secretary Abraham. Senator, thank you, and I look forward 
to continuing both our meetings as well as hearings as we work 
together on this.
    Senator Burns. Thank you Senator Byrd, and before you got 
here, my first question was--and you probably are not aware of 
it. I remember last year when Senator Gorton and I and you and 
Senator Stevens were sharply critical of the Secretary moving 
some money around and not expending it on those line items, if 
you will remember. The Secretary very graciously said today 
that whatever comes down, that is where it will be spent, and 
it will not be moved unless he has consultation with this 
committee. I was very happy to hear him say that, and I think 
it is one of your concerns also.
    Senator Byrd. And hopefully not rescinded. I had to fight 
those rescissions in the last administration, so I am not 
picking on you, or your administration by itself. I have been a 
critic of the previous administration trying to rescind clean 
coal technology money, and I fought them at every curve, and so 
we have got some problems you are not accountable for.
    Senator Burns. I have but just a couple of questions, and I 
think there are some questions that Senator Campbell indicated 
that he had, and Mr. Secretary, we will submit those to you in 
writing, and if you would respond to the individual Senator and 
to the committee, why, that would be good.
    I appreciate your patience today.
    Secretary Abraham. No problem.
    Senator Burns. I apologize for the Senate. The behavior of 
the Senate has not changed a lot since he was a Member, so we 
appreciate your patience in this regard. We will submit written 
questions, and Mr. Secretary, we look forward to working with 
you and working out our difficulties and our priorities. I 
think it is a question of priorities more than anything else. 
It is not a question of money.
    The money is there, but we have to put some emphasis on 
where I think, and where Senator Byrd and the committee thinks, 
is the direction we are going. That being the case, I think we 
can work it out, but there will be a lot of consultation 
between the entities before we have got a final appropriations.
    Secretary Abraham. There will be. I just thank both of you 
and the other members of the committee. Obviously, just on a 
personal level it is enjoyable to work with our friends on 
things, and I really regard, obviously, my former colleagues as 
good friends that help us to work together more effectively, 
and I look forward to doing that with both of you and the other 
members of the subcommittee.

                     Additional committee questions

    Senator Burns. Thank you very much. There will be some 
additional questions which will be submitted for your response 
in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Conrad Burns

               WEATHERIZATION VS. RESEARCH & DEVELOPMENT
    Question. The President's request for Energy Conservation increases 
funding for the Weatherization grant program by $120 million, but 
reduces funding for Energy Conservation R&D by an even greater amount. 
Instead of grants making up about a quarter of the Energy Conservation 
budget as they currently do, grants would be nearly 40 percent of the 
total. Do you think this is an appropriate balance between Grants and 
investments in R&D?
    Answer. The Administration has proposed a $120 million increase in 
funding for the Weatherization Program in fiscal year 2002 as part of a 
10-year commitment to increase funding by $1.4 billion. The President 
has made this commitment because he understands that the Weatherization 
Assistance Program provides home energy efficiency retrofits to 
materially reduce energy bills for low-income American families. Energy 
cost burden for low-income American families is four times greater, as 
a proportion of their income, than for other households, and who are 
least able to afford the cost of energy or the cost of improvements to 
make their homes more energy efficient.
    Weatherization and R&D do very different things and have very 
different purposes. As President Bush has noted, we have a long-term 
energy crisis on our hands that will take considerable effort and time 
to overcome. In the meantime there will be a considerable and growing 
need to help less fortunate Americans to deal with high and volatile 
energy prices. The Weatherization Assistance Program has demonstrated 
that it can cost-effectively meet that need for many of our nation's 
poor.
    Question. Are you confident that the increase requested for 
Weatherization can be effectively spent by the states in fiscal year 
2002?
    Answer. The proposed $120 million increase in DOE funding for the 
Weatherization Program in fiscal year 2002 will enable States to 
weatherize 123,000 low-income homes. This represents an increase of 
48,000 homes weatherized compared to fiscal year 2001. Many States will 
need to expand capacity to deliver these services and invest the 
increased funding. To meet the production goals defined by DOE, States 
will need to begin planning now for the proposed increase, in order to 
be prepared to deliver expanded weatherization services as soon as 
their Program Year 2002 begins. DOE will assist States in their ramp-up 
activities by providing planning tools, flexible program guidance, and 
the option to receive advance funds from their fiscal year 2002 grant 
amount as soon as appropriations are allocated. Based on our 
experience, we are confident that this increase can be absorbed and the 
increased number of weatherized homes can be achieved.
    Question. According to the budget request, DOE's Buildings R&D 
programs will result in energy savings of 2 quads (quadrillion BTUs) by 
2010. The Weatherization program is projected to result in energy 
savings of only \1/10\ of a quad by 2010. In light of these numbers, 
how do you justify nearly doubling the Weatherization program while 
cutting Buildings R&D in half?
    Answer. The Administration's position on this question is 
straightforward. The purpose of the Weatherization Assistance Program 
is not to save quads of energy for their own sake, but to use energy 
efficiency to reduce low-income household energy bills to affordable 
levels and to improve the health and safety of the vulnerable elderly 
and young among us. We justify the Weatherization Budget by noting that 
the Administration's plan, in conjunction with leveraged state and 
local resources, will weatherize 2.3 million low-income households over 
the next ten years, saving an average of more than $300 per year on 
each of those household's energy bills. The cumulative savings on low-
income energy bills will be nearly $4 billion. This is not to say that 
high energy savings in other buildings programs is not a worthy 
objective; it most certainly is. But it is no more appropriate to 
measure the impact of Weatherization based simply on quads of energy 
saved than it would be to assess the impact of a commercial roofing 
program, for example, based on how much that program might reduce the 
percentage of income that low-income households spend on energy. Each 
has its own merits and should be judged on those merits. It is also 
important to note that Weatherization has proven itself to be a cost 
effective program, with a positive benefit/cost ratio of 2.1 to 1.
    The Administration recently released its National Energy Plan which 
makes two specific recommendations with respect to the DOE 
Weatherization Assistance Program. (1) Recommends that the President 
increase funding for the Weatherization Assistance Program by $1.4 
billion over 10 years. Consistent with that commitment, the fiscal year 
2002 Budget includes a $120 million increase over 2001. The Department 
will have the option of using a portion of those funds to test improved 
implementation approaches for the Weatherization Program. (2) 
Recommends that the President support legislation to allow funds 
dedicated for the Weatherization and State Energy Programs to be 
transferred to LIHEAP if the Department of Energy deems it appropriate.

                   ENERGY INFORMATION ADMINISTRATION
    Question. The budget request for the Energy Information 
Administration is at roughly the fiscal year 2001 level ($75.5 
million), but within the amount requested EIA would have to absorb 
roughly $4 million in fixed costs for pay increases, etc. In light of 
the current crisis in our energy sector and the increasing demand being 
placed on EIA's services, is the budget request adequate?
    Answer. The demand for EIA data, analyses, forecasts, special 
reports, and briefings, and the call on EIA to provide timely analyses 
and reports, especially during recent volatility in energy prices, has 
grown significantly. EIA's priority, as reflected in the fiscal year 
2002 budget, is to maintain energy data programs and forecasting 
systems needed to provide timely information during this period and in 
future periods of high interest in energy. This includes continuing 
improvements in EIA's electricity, natural gas, petroleum and energy 
consumption surveys, and selected area where the quality of energy data 
needs improvement.
    EIA is able to fund the fiscal year 2002 fixed cost increases, 
which includes the Federal personnel pay raise, with minimal impact to 
programmatic activities by taking the following actions:
    Reduce printed publications. In keeping with EIA's Strategic Plan 
to reduce printed publication and make greater use of EIA's web site, 
EIA plans to discontinue the publication of the State Energy Price and 
Expenditure Report, the State Energy Data Report, the Renewable Issues 
& Trends, the Electric Power Annual Volume I, and produce the Changing 
Structure of the Electric Power Industry every two years instead of 
annually.
    Complete in fiscal year 2001 the Interruptible Natural Gas Contract 
Study.
    Defer maintenance on lower priority energy data surveys and 
processing systems.
    Downsize plans for the integration of current information 
processing technology, and continue dependence on aging data systems 
and infrastructure.
    Complete the development of the 15 regional models on greenhouse 
emissions, but defer plans to integrate the models into one 
international model.
    These actions are in-line with EIA's Strategic Plan to reduce 
printed publication by making more energy data available on EIA's web-
site, and to maintain EIA's core energy data quality and analysis 
capabilities.
    Question. Will EIA be able to provide the Administration, Congress 
and other users the information they need to assess energy markets and 
policies?
    Answer. EIA's mission is to gather and analyze a broad array of 
energy data, disseminate energy information, and prepare reports and 
forecasts to assist energy policy makers in making informed decisions. 
EIA will continue to provide the energy data, analyses and forecasts 
needed by energy policy makers.
    Question. In fiscal year 2001 Congress provided EIA with additional 
funds for a number of specific projects. Will these projects be 
completed prior to fiscal year 2002? If not, can they be continued or 
completed in fiscal year 2002 if EIA is provided the amount requested 
in the budget?
    Answer. EIA is progressing on each of the activities earmarked by 
Congress in our fiscal year 2001 appropriation. In summary: (1) 
Establish an outlet level sampling frame for gasoline and diesel 
fuels--For fiscal year 2002 the new frame design will be completed and 
implemented. (2) Expand weekly publication of gasoline prices to 
include key States and cities--Prior to Memorial Day weekend 2001, the 
weekly survey will be expanded to include prices for 6 cities and 5 
States. For fiscal year 2002 EIA will integrate a new sample, and 
additional cities and States. (3) Improve reliability and accuracy of 
weekly petroleum data--With the primary focus is on the accuracy of 
imports and refinery production data, to date EIA has determined that 
several large companies were misreporting and several importers were 
not reporting at all. By the end of fiscal year 2001 these problems 
will be corrected. (4) Institute heating season biweekly survey of 
companies' interruptible natural gas contracts--EIA has developed and 
implemented a survey. In July 2001, the database for the months January 
through March 2001 will be completed. By September 2001, EIA will 
prepare a report to summarize: (a) the basic measures provided by the 
data, (b) an analysis of industry and market behavior, and (c) an 
assessment of data quality issues with recommendations for further 
work.

                   BUDGET AMENDMENT AND PNGV PROGRAM
    Question. The President's budget request maintains level funding 
for the Partnership for a New Generation of Vehicles (PNGV) program. As 
you note in your testimony, however, a budget amendment will soon be 
submitted to move roughly $40 million out of the PNGV program and into 
renewables programs funded in the Energy and Water bill (primarily 
superconductivity and hydrogen research). Can you tell as a little more 
about what is driving this budget amendment?
    Answer. Together with our automotive partners we have reviewed the 
PNGV program and agreed that it was time to revisit its goals. We will 
streamline and refocus our joint automotive R&D efforts to provide 
greater emphasis on those long-term technologies that offer major 
societal benefits, while affording the broadest flexibility in 
application. As detailed in the amendment, we seek to maintain 
significant efforts in fuel cells, power electronics, advanced 
batteries and carbon-based materials. Relatively more mature 
technologies such as spark ignited engines, will receive less federal 
emphasis; we expect that our private sector partners will assume the 
major burden of further development of the most promising of the mature 
technologies. We understand that our private sector partners would 
welcome the increased flexibility that a revision to PNGV goals could 
provide, seeing opportunities to better align their efforts with market 
sectors where the best business cases could be made.
    Question. What have you learned in the last month that leads you to 
believe the PNGV program is no longer worth maintaining at current 
levels, and can be cut by more than a third?
    Answer. Over the past two months, senior members of my staff have 
been engaged in discussions with representatives of our Partnership for 
a New Generation of Vehicles (PNGV) industry partners regarding the 
future of the partnership. The current program provides support for a 
portfolio comprised of high risk research projects which have the 
potential for benefits within the near-, mid-, and long-term. In 
agreement with our industry partners, and in coordination with the 
upcoming National Energy Plan, greater emphasis will be placed on the 
long-term portion of the research portfolio, that is aimed at 
overcoming fundamental obstacles to vehicle technologies offering the 
highest potential for significant public benefits. This will enable us 
to get the program's projected benefits at a lower cost for the 
taxpayers.
    Question. Will this amendment have an impact on the speed with 
which DOE and its industry partners will reach PNGV program goals and 
what will that impact be?
    Answer. The PNGV program goals are set jointly by industry and the 
Federal partners. We expect the current program goals can be met 
through a different combination of resources and activities between 
government and industry. We anticipate that changes in the research 
targets and milestones will be reflected in revision of partnership 
goals. Since fuel cell research is proposed at the 2001 level, we do 
not anticipate that research targets and milestones in that important 
area will be impacted. In other research topics, especially those 
associated with mature relatively near-term technologies such as 
combustion engines, we expect that the possible near term delays from 
reduced federal funding will be resolved by our private sector partners 
assuming the major burden of further development toward our long term 
goals and their near term adaptation of those technologies for their 
nearer term vehicles. Since approximately 54 percent of our PNGV 
funding supports research at the national laboratories, and these 
efforts are also the ones that can most easily be refocused, we expect 
that the major impacts of reduced DOE funding will be felt by the 
national laboratories as the development and investment shifts from the 
labs to the industry.
    Question. The broad goal of the PNGV program was to produce a 
vastly more fuel efficient four passenger sedan. You have indicated 
that one of the reasons for shifting funds out of the PNGV program is 
to place a greater emphasis on fuel efficiency in SUVs, which now 
command a substantial share of the automobile market. Isn't much of the 
work being done on SUVs supported by funding in the Advanced Combustion 
Engine R&D and Materials Technologies activities that would be reduced 
by your budget amendment?
    Answer. Clearly the majority of work in Advanced Combustion Engine 
R&D and Materials Technologies can be applied to light-duty trucks 
(SUVs), as well as passenger sedans. In deciding with our industry 
partners to emphasize longer-term research opportunities in our joint 
efforts, reductions will be taken in the Federal contribution to 
relatively more mature technology areas. These technologies include 
spark ignited internal combustion engines and lightweight metals such 
as aluminum and advanced steels. We expect that our private sector 
partners will assume the major burden of further development of the 
most promising of the mature technologies.

                   FEDERAL ENERGY MANAGEMENT PROGRAM
    Question. The Federal Energy Management Program supports efforts 
throughout the Federal government to reduce Federal energy use. The 
budget reduces funding for the FEMP program to almost half the current 
year level. The budget justification also notes that the value of Super 
ESPC (Energy Savings Performance Contracts) delivery orders placed will 
drop from $120 million to $30 million. Is the reduction in Super-ESPC 
orders directly linked to the proposed reduction in FEMP's budget, or 
is it a result of other limiting factors?
    Answer. The estimated reduction in Super-ESPC orders is linked to 
the proposed reduction in FEMP's budget. FEMP uses experts in the 
national laboratory system and other organizations to provide direct 
project support and technical assistance to Federal facilities. The 
level of delivery order support facilitated by FEMP is correlated to 
the funding obligated to the laboratories and other experts who carry 
out these services. The President's recent directive and the National 
Energy Policy Development Group recommendations may result in more ESPC 
orders than anticipated in the budget justification. The reduction in 
Super ESPC funding is larger than the 48 percent FEMP budget cut 
because we needed to maintain funding for Congressionally mandated 
activities and to support other high priority initiatives (such as Peak 
Load Management.)
    Question. What will be the overall impact of the reduction in FEMP 
on energy savings government-wide?
    Answer. The impact will depend on the extent to which Federal 
agencies are successful in leveraging private funds and paying for 
their own energy management. FEMP's service vehicles--project 
financing, technical and design assistance, and outreach--provide 
expertise and experience that assist agencies with the implementation 
of energy efficiency retrofit projects, incorporation of energy 
efficient design into new construction projects, efficient operation 
and maintenance, and the procurement of energy efficient products. FEMP 
will continue to assist Federal agencies and assess Federal Agency 
performance as defined in the Executive Orders.
    Question. Is it your expectation that other agencies will be able 
to implement cost-effective energy conservation measures using their 
own resources, rather than relying as heavily on FEMP expertise?
    Answer. FEMP experience and expertise has assisted many federal 
agencies to create a core of competency in energy efficiency. Agencies 
will still be able to use their own resources to implement cost-
effective energy conservation measures.
    Question. On Thursday of last week, President Bush called on 
Federal agencies to take immediate steps to reduce energy at Federal 
facilities. Is the budget request for FEMP consistent with the spirit 
of the President's directive?
    Answer. The directive indicated that the work be accomplished 
within current budget authority. The directive requires heads of 
executive departments and agencies to take appropriate actions to 
conserve energy use at their facilities, especially to conserve 
electricity during peak periods in regions where electricity shortages 
are possible. The National Energy Plan includes similar language. 
Agencies should also review their existing operating and administrative 
processes and conservation programs and identify and implement ways to 
reduce such use. Near-term activities, including reporting on actions 
taken within 30 days, will be covered with existing fiscal year 2001 
funding. FEMP assists Federal agencies in reducing their energy demand 
and in assessing Federal Agency energy performance and, as such, is 
well positioned to help agencies meet their obligations under this 
directive.
    Question. Does the FEMP request reflect a policy decision that the 
goals for reductions in energy use established in Executive Orders 
12902 (Bush I) and 13123 (Clinton) are no longer appropriate, or does 
the Administration simply feel these goals can be attained within the 
budget proposed for fiscal year 2002?
    Answer. The administration believes these goals may be accomplished 
through increased use of private financing resources and by funding 
FEMP activity through cost sharing from agencies benefiting from energy 
reductions. FEMP is committed to the important goals set by these 
energy efficiency Executive Orders.

                 GOVERNMENT PERFORMANCE AND RESULTS ACT
    Question. The Government Performance and Results Act (GPRA) 
requires the Department to establish performance goals for itself. 
Given that the budget proposes significant shifts in funding 
priorities, has the Department proposed any commensurate changes in its 
GPRA goals?
    Answer. Yes. The Department prepared an Annual Performance Plan 
with the budget and ensured the performance goals were consistent with 
the Administration's funding priorities. The published plan contains 
the resulting performance measures for fiscal year 2002 and shows where 
changes were made to measures for fiscal year 2001 resulting from new 
direction and priorities.
    Question. If so, can you provide a few examples? If not, why not?
    Answer. The fiscal year 2002 budget request embodies changes in 
Departmental and program priorities that are also reflected in changes 
to performance measures for fiscal year 2002. Changes in energy-
efficiency priorities are reflected in proposed performance targets, 
such as the increased funding for the Department's weatherizing homes 
of low-incoming families. The performance targets for fiscal year 1999, 
2000, and 2001 were and are 67,845 homes, 68,000 homes, and 75,350 
homes respectively. For fiscal year 2002, the proposed target is 
123,000 homes consistent with the increased funding. Another visible 
example of a new priority is the intent to eliminate unnecessary layers 
of management which is included in the Department's performance 
measures concerning human capital management. Other changes in 
priorities reflect the elimination of programs that have completed 
their mission, are redundant, ineffective, or obsolete.
    Question. Does the Department feel it can still attain the most 
recently stated GPRA goals under the budget proposal for fiscal year 
2002?
    Answer. Yes. The performance goals contained in the Department's 
Annual Performance Plan for fiscal year 2002 are consistent with the 
proposed budget for fiscal year 2002 and are attainable at the funding 
requested.

                   INDUSTRIES OF THE FUTURE--GENERAL
    Question. The budget requests for the various sector-specific 
programs with in the Industries of the Future Program are reduced by 
varying amounts. What methodology was applied in determining where 
these reductions would be taken?
    Answer. The budget request for the Industries of the Future program 
is part of the integrated budget request for the Office of Energy 
Efficiency and Renewable Energy (EERE). Within the overall budget 
request for EERE, priorities were given to maintaining core 
competencies and certain high priority activities such as the biomass 
R&D efforts. Since the Agriculture and Forest Products Industry of the 
Future programs are part of the bioenergy programs, the budget requests 
for these programs were maintained at the fiscal year 2001 
appropriation level. Adjustments were made for activities that appeared 
to be ready for industry to adoption or private sector research. In 
addition, emphasis was placed on meeting commitments to ongoing multi-
year projects rather than initiating new projects as we undertake the 
project reviews provided for in the National Energy Plan. With the 
funds remaining for these programs, proportional reductions were made 
to protect the core competencies of these programs. No funds were 
requested for the Petroleum Industry of the Future program, where 
research projects are not yet underway. Also, since Supporting 
Industries was a new start in fiscal year 2001, we decided to not to 
make any present commitments that could not be met with fiscal year 
2001 funding.
    Question. Are the reductions based on completion of individual 
projects currently underway, an across-the-board proportionate 
reduction, or a mixture of both?
    Answer. Emphasis was placed on meeting commitments on existing 
multi-year projects. For many programs, where the budget request levels 
were less than the previous fiscal year, a proportional reduction was 
often used, recognizing that within each industry projects underway 
range include items nearing completion.

          INDUSTRIES OF THE FUTURE--BLACK LIQUOR GASIFICATION
    Question. The budget request includes $6.6 million within the 
Industries of the Future program for Industrial Gasification, a 
decrease from $12.7 million in fiscal year 2001. This amount will allow 
for one black liquor gasification demonstration project rather than 
three originally planned. What are the impacts of supporting only one 
demonstration as opposed to three?
    Answer. In the forest products industry, there are three major 
process waste streams that would yield significant energy savings if 
gasified. Each waste stream has different components and unique 
technical challenges for gasification. Each of the three planned 
demonstration projects focuses on a different waste stream. The costs 
of the design and engineering phases for these demonstration projects 
are modest compared to the costs of the equipment purchase and 
construction phases. In keeping with the administration's commitment to 
moderate discretionary spending, we have planned to proceed from the 
engineering phase to the equipment and construction phases for one 
project. This allows us to maintain core work and positions us to make 
a decision on proceeding on the other two projects, after an assessment 
of the performance of energy efficiency research and development 
programs is made consistent with the recommendations of the National 
Energy Policy.
    Question. Does the Department envision supporting additional 
demonstrations in the future, or does it feel one demonstration is 
sufficient to allow industry to commercialize the technology without 
Federal support?
    Answer. The merits of proceeding past the design and engineering 
phases with the other two demonstration projects will be considered in 
an assessment of the performance of energy efficiency research and 
development programs, which is a recommendation of the National Energy 
Policy. The issue of respective Federal and industry roles will be 
addressed as part of this assessment.

                         CARAT & GATE PROGRAMS
    Question. My recollection is that the fiscal year 2001 Interior and 
Related Appropriations Act included no funds for the GATE program, and 
$1.5 million for the CARAT program. However, the fiscal year 2002 
budget justification indicates that $500,000 was allocated for GATE in 
fiscal year 2001. Setting aside the merits of the GATE program, how 
does the Department explain allocation of funds to this program in 
light of the Committee's reprogramming procedures?
    Answer. The fiscal year 2001 Interior and Related Agencies 
Appropriations Act provided $1,500,000 for ``cooperative automotive 
research for advanced technologies'' (CARAT), which is a discrete 
budget key activity in the Transportation Sector. CARAT and GATE 
(Graduate Automotive Technology Education) are also the titles of sub-
key activities within the overall CARAT line item. CARAT and GATE are 
integral and complementary parts of the CARAT line item, which was 
established to assure that the creative capabilities of the 
universities could be fully utilized in the Partnership for a New 
Generation of Vehicles (PNGV) effort. The appropriations language did 
not specify zero funding for GATE. Additionally, reprogramming 
procedures are not required when the programs in question are within 
the same control level.

                         DISTRIBUTED GENERATION
    Question. The Department has reorganized some of its R&D programs 
to focus on distributed energy resources. Some proponents of DER 
systems have complained that although many DER technologies are cost-
competitive, their deployment is frequently blocked by State commission 
rules, State legislation and local utility practices. Is this a 
complaint that has been brought to the Department's attention?
    Answer. The Department is aware of problems associated with the 
deployment of Distributed Energy Resources (DER) systems due to state 
rules and legislation, local utility practices, and siting and 
permitting. The Office of Distributed Energy Resources has a number of 
efforts completed and underway to address these problems. In May 2000 
the DER Office published ``Making Connections, Case Studies of 
Interconnection Barriers and their Impact on Distributed Power 
Projects.'' The report documents the difficulties experienced by DER 
projects related to interconnection and is the first step to removing 
these barriers. The DER Office is currently working on a similar report 
to document Environmental Barriers to DER, which is expected to be 
published later this year. In addition, the DER office is working with 
the EPA to ensure that siting and permitting rules are not biased 
against DER and Combined Heat and Power (CHP) systems. The DER office 
is also working with a number of key states (states that could be used 
as examples of the advantages and benefits of DER) to address state 
barriers to DER system installations. The office published a report 
with the state of California analyzing the impact that distributed 
generation technologies would have on air emissions in the state. The 
DER office is initiating a similar study with the Texas Public Utility 
Commission and the Texas Natural Resource Conservation Commission to 
analysis and identify the impacts of different distributed generation 
emissions limits for Dallas and Houston, develop market penetration 
scenarios for DG in Texas, and estimate how various DG emissions limits 
will affect the costs of DG technologies. Additional efforts with the 
states will be undertaken as interest and resources allow.
    Question. Is the Department involved in efforts to reduce barriers 
to the deployment of DER technologies, in addition to helping develop 
the technologies themselves?
    Answer. The first step in reducing and removing barriers to the 
deployment of DER technologies is to identify precisely what those 
barriers are. The Office of Distributed Energy Resources has been 
engaged in a substantial effort to identify various barriers to 
distributed generation. Work is continuing with the appropriate 
organizations to remove identified barriers. Examples would include 
creating and implementing interconnect standards through the IEEE, 
working with the Environmental Protection Agency (EPA) to address 
output based emissions standards and other siting issues, and working 
with several prominent states to ensure that regulations do not 
discriminate against distributed generation. Research and development 
work on distributed generation technologies will also expedite the 
implementation of DER because technologies will be more efficient, 
cleaner, and more cost competitive.

                       FOSSIL ENERGY--FUEL CELLS
    Question. Mr. Secretary, I believe fuel cell technology may offer 
us a great opportunity. Because of this I have worked very hard to 
ensure that the progress in the fuel cell sector does not pass without 
Montana being involved. As a result, Montana has received funding for 
multiple DOE projects propelling fuel cell research forward. Despite 
the proposed cuts in the fuel cell program, I am sure you understand 
the potential this technology holds. Can I have your assurance that the 
ongoing fuel cell initiatives in Montana will receive your full 
support?
    Answer. Fuel cells indeed offer us a great opportunity as a clean, 
efficient source of electricity and energy. The ongoing fuel cell 
project in Montana is currently being conducted under the Department's 
Energy and Efficiency Office's Hydrogen Program.

                  FOSSIL ENERGY--COOPERATIVE RESEARCH
    Question. Mr. Secretary, your budget zeroes out cooperative 
research from $8.1 million in fiscal year 2001. This program supports 
research facilities in the West, including WRI in Wyoming that works 
closely with Montana's natural resource producers. These programs focus 
in increasing efficiency and reducing environmental impacts to promote 
domestic production. At the same time, they leverage private 
investment. Can you provide for this Subcommittee an estimate of the 
amount of private matching funds that will be lost with the elimination 
of this program?
    Answer. When these institutes were privatized in the early 1990's, 
they pledged to be independent of federal funding within a few years. 
Both organizations are eligible to compete for Fossil Energy R&D 
funding through the normal solicitation process, one that generally 
gives added consideration to projects with high levels of non-federal 
cost-sharing. The reduction in federal funding is not intended to 
reduce the amount of private funding; rather the opposite is the case. 
Based on Energy Environment Research Center's (EERC) and Western 
Research Institute's (WRI) success in attracting matching funding over 
the last several years, these institutes are in a strong position to 
receive DOE competitive awards and leverage private funds in the 
process.
    Question. How much will be lost in matching funds if we allow your 
proposed budget cuts to stand?
    Answer. At EERC, the $2.2 million in fiscal year 2001 federal funds 
is matched with $3.3 million in private matching funds. At WRI, the 
$2.6 million in fiscal year 2001 federal funds is matched with $3.3 
million. However, to assume that these funds would be lost requires 
that one assume that private funders will no longer find merit in the 
programs and that they could not successfully compete in DOE's normal 
solicitation process.
    Question. Finally, how many jobs in North Dakota and Wyoming will 
be placed at risk with this cut in the Cooperative Research budget?
    Answer. Funding received by EERC and WRI through Fossil Energy's 
Cooperative R&D program supports approximately 50 percent of EERC's 
total staffing, and 60 percent of WRI's. Based on current staffing 
level and the portion of EERC's budget this funding represents, it is 
estimated elimination of this funding would result in at least 75 full-
time jobs being put at risk at EERC, and 40 full-time jobs at WRI. 
However, to assume that these funds would be lost requires that one 
assume that they could not successfully compete in DOE's normal 
solicitation process or that private funders will not find sufficient 
merit in the programs to make up for federal funding.

                  FOSSIL ENERGY--IMPORT/EXPORT PROGRAM
    Question. Mr. Secretary, your budget drastically cuts the import/
export program that is responsible for processing applications to 
import fossil fuels, and is a partner with FERC and other agencies on 
NEPA compliance issues. Having spent numerous years on the Energy and 
Natural Resources Committee, I can assure you that these activities are 
vital to meeting America's energy needs, and by all indications it 
appears the Vice President's recommendations to address the nation's 
energy needs will focus on most of these issues. Considering this 
budget is responsible for allowing for the import of fossil fuels, 
including natural gas, and that our reliance on these imports is 
increasing, how can you justify cutting the program?
    Answer. The import of fossil fuels, especially natural gas, will 
indeed be a part of the broad mix of energy supply options that will 
provide for a diverse supply of energy for the United States. Also, in 
several regions of the country, imports of electric energy represent 10 
percent or more of total electricity requirements. However, as part of 
the Administration's efforts to streamline permitting and to reduce the 
burden on the taxpayer, we are considering a number of options that 
would reduce the need to use federal funds for these programs. Among 
the possibilities to be considered will be fees on those requesting 
permits, similar to EERC, a possible transfer of jurisdiction to EERC, 
as well as repeal of those portions of the Fuel Use Act and other 
requirements that have become obsolete. In the meanwhile, we will 
carefully marshal our resources so that the current energy problems in 
these regions will not be exacerbated. Fossil Energy will seek a 
reprogramming of funds sufficient to meet statutory requirements, if 
necessary.
    Question. Considering that the administration is calling for 
increased transmission improvements, new power plants, and a NEPA 
process that proceeds at an efficient pace, why would you slash the 
DOE's budget to help move these activities forward?
    Answer. The construction of new transmission lines and electric 
powerplants will indeed be a part of the future energy supply options 
for the United States. The funding level requested for DOE's electric 
power regulatory program is austere but adequate. As part of the 
Administration's efforts to streamline permitting and to reduce the 
burden on the taxpayer, we are considering a number of options that 
would reduce the need to use federal funds for these programs. Among 
the possibilities to be considered will be fees on those requesting 
permits, similar to EERC, a possible transfer of jurisdiction to EERC, 
as well as repeal of those portions of the Fuel Use Act and other 
requirements that have become obsolete. In the meanwhile, we will 
carefully marshal our resources so that the current energy problems in 
these regions will not be exacerbated. Fossil Energy will seek a 
reprogramming of funds sufficient to meet statutory requirements, if 
necessary.
    Question. President Bush recently held meetings with two North 
American leaders (Vicente Fox of Mexico and Jean Chretien of Canada) to 
discuss energy development and cooperation between our countries. Do 
you believe that oil and gas exploration in, and shipments from, allied 
nations will serve as a viable solution to the looming energy crisis?
    Answer. Natural resource development and free trade in energy 
resources with our North American trading partners can serve as a part 
of the solution to our current energy crisis. We have begun trilateral 
meetings of the heads of energy for the United States, Canada, and 
Mexico. Our three countries have formed a North American Energy Working 
Group to begin developing a joint comprehensive energy strategy. In 
addition, we have formed an Electricity Working Group that will focus 
on enhanced cross-border electricity trade between the United States 
and Mexico.
    Our energy policy will look beyond our borders and recognize the 
global nature of energy needs. While we value the longstanding 
relationships we have built around the world, we will place at least as 
much emphasis on our relations with our neighbors in the Western 
Hemisphere as elsewhere on the planet. Our approach will be 
hemispheric, and our goal will be to build relationships among our 
neighbors that will contribute to our shared energy security and to 
adequate, reliable, environmentally sound, and affordable access to 
energy.
    Question. Also, would it be consistent with Administration policy 
if Congress were to take steps in its annual authorization and 
appropriations duties to encourage fossil fuels research and 
development activities in other U.S. allied countries?
    Answer. The Administration is supportive of carrying out 
cooperative research and development (R&D) with allied countries, which 
is the most common way the Department encourages R&D in these 
countries. For example, the May 2001 National Energy Policy includes a 
National Energy Policy Development Group recommendation ``that the 
President direct the Secretaries Commerce, State, and Energy to explore 
collaborative international basic research and development in energy 
alternative and energy-efficient technologies . . . ''. The extent to 
which this recommendation might affect future budget requests has not 
been determined yet, but Congress has traditionally funded the 
Department to carry out a low level of international cooperative R&D.
    Question. Is the import/export authorization account the proper 
avenue to explore this option?
    Answer. The import/export authorization account includes management 
of the regulatory review of natural gas imports and exports, exports of 
electricity, and the construction and operation of electric 
transmission lines which cross U.S. international borders. These are 
very different kinds of activities than research and development, so we 
do not believe that this would be the best account for funding to 
``encourage fossil fuels research and development activities in other 
U.S. allied countries.'' If the activities envisioned are not program-
specific, one possibility would be to expand the scope of existing 
activities under an existing line item such as International Program 
Support, which is under our Advanced Research Program. If the 
activities are program-specific, then we would prefer the funding be 
included with the program.

                   POWER PLANT IMPROVEMENT INITIATIVE
    Question. Congress last year initiated the Power Plant Improvement 
Initiative by transferring $95 million in unobligated balances from the 
Clean Coal Technology program. The Initiative is designed to support 
demonstrations of advanced, clean coal technologies. I understand the 
Department has recently received responses to the Power Plant 
Improvement Initiative solicitation. Have you had the opportunity to 
review the proposals? If so, what are your impressions?
    Answer. The Department did recently receive proposals in response 
to the Power Plant Improvement Initiative solicitation aimed at 
improving the reliability of the U.S. coal-based electric power system. 
Although we are in the early stages of the review process that will 
continue over the next few months, summary abstracts of the proposals 
were also submitted. Based on our reading of the abstracts, it appears 
that there is a range of potentially good ideas for projects being 
proposed over a broad range of project locations.
    Question. How many proposals did you receive?
    Answer. The Department received a total of twenty-four proposals.
    Question. Do you feel there are enough high quality proposals to 
fulfill the purposes of the initiative?
    Answer. Based on our perusal of the abstracts, it appears that 
there are sufficient high quality proposals to more than fulfill the 
purposes of this solicitation. The value of the proposed projects 
represent almost $535 million, $251 million of which is being requested 
from the Federal Government, which is more than two and one half times 
the available funding for this solicitation ($95 million). Upon 
completion of the review process, we will know more details of the 
individual proposals. Based on previous experience in the Clean Coal 
Technology program, some proposals will not be accepted, some will be 
abandoned by their sponsors or fail to receive the necessary private 
backing, and some will proceed to successful completion. The Department 
will carefully review all proposals and attempt to selected those with 
the greatest potential benefit to the industry.

       VICE PRESIDENT'S NATIONAL ENERGY POLICY DEVELOPMENT GROUP
    Question. The energy policy task force being led by Vice President 
Cheney is soon to announce its recommendations within the next few 
weeks. These recommendations will play an important role in shaping any 
energy-related legislation moving through this Congress, including this 
appropriation bill. Are you confident that the fiscal year 2002 budget 
request for the Department of Energy is adequate to support the 
recommendations that the Vice President's task force will make?
    Answer. The fiscal year 2002 budget request is sufficient to meet 
the needs of the Department for the next fiscal year. The Task Force 
recommendations may impact future budget requests.
    Question. Do you expect to submit a formal budget amendment to 
reconcile the two documents?
    Answer. No budget amendment is planned for submission to the 
Committee regarding the recommendations from the National Energy Task 
Force.
    Question. If not, will you work with us informally to make certain 
we understand how the recommendations of the task force match up with 
the Department's ongoing programs?
    Answer. The Department is more than willing to work with the 
Committee to implement the elements of the National Energy Policy, 
including assisting in the understanding of how the recommendations and 
implementation match up with Department of Energy's programs.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

                      CLEAN COAL POWER INITIATIVE
    Question. Lignite coal is an abundant resource in North Dakota 
which provides a low-cost, reliable energy resource for more than 2 
million people in the upper Midwest. On several occasions, I have 
written you requesting that lignite coal projects would be funded 
through the Power Plant Improvement Initiative that this Subcommittee 
included in the fiscal year 2001 Interior Appropriations bill. I 
contacted you on these occasions because I wanted you to know of my 
interest in making sure that low Btu coal projects are given fair 
consideration in any new demonstration projects at DOE.
    In the new Clean Coal Power Initiative proposed by the 
Administration, I am interested in the making sure that this project 
encourages the development of clean coal projects using North Dakota 
lignite. The Mid-Continent Area Power Pool (MAAP)--which includes 
Minnesota, the two Dakotas and the eastern half of Montana--estimates 
it will be short 5,000 Mws by 2006. I think it would be prudent for DOE 
to give detailed attention to projects such as the Lignite 21 Vision 
Project in North Dakota, which has already gotten a commitment of funds 
from the state.
    Although I haven't seen many details of the Clean Coal Power 
Initiative, I know that later this year the Office of Fossil Energy 
will convene a workshop with utilities, equipments manufacturers, fuel 
suppliers, universities and others to work out some of these details 
that will guide the initiative. What is the Office of Fossil Energy 
doing to ensure that lignite interests are included in this meeting?
    Answer. First I want to thank you for your keen interest in the 
very important Clean Coal Power Initiative proposed by the 
Administration. I also want to assure you that each and every proposal, 
including the proposed Lignite project, will receive a fair and 
thorough review based on the merits evaluated against the criteria in 
the competitive solicitations that will be issued under the Initiative. 
The Clean Coal Power Initiative will be carried out cooperatively with 
industry. The nation's power generators, equipment manufacturers, coal 
producers and others will help identify the most critical barriers to 
coal's use in the power sector. Industry also will be required to share 
the costs of the initiative, with the private participants' share 
rising to 50 percent or more by the time new technologies are ready for 
testing at market-entry scales.
    To obtain industry's views on the content, coordination and scope 
of the Clean Coal Power Initiative, the Department of Energy's Office 
of Fossil Energy will convene a workshop later this year with 
utilities, equipment manufacturers, fuel suppliers, universities and 
others. Among the discussion topics will be the feasibility of 
establishing a more formal consortium of private organizations that 
would help coordinate and guide the initiative. We will be sure that 
all interested stakeholders, including those representing the lignite 
interests, will be afforded the opportunity to participate in the 
workshop.

                          COOPERATIVE RESEARCH
    Question. In North Dakota, the Energy and Environmental Research 
Center (EERC) at the University of North Dakota has expertise in the 
area of fossil fuel research and development. In fact, over the last 
several years, co-funded research under a cooperative agreement between 
the EERC and DOE has invested more than $56 million in 126 projects. 
More than half of the funds for this research have come from non-
federal sources, so the EERC has done a fantastic job leveraging 
federal dollars for fossil fuel research.
    Given that the Department will need to rely on the research done by 
universities and others to guide the new Clean Coal Power Initiative, I 
was very disappointed that the Administration's budget eliminated 
funding for the cooperative agreement that the DOE has had with the 
EERC for the last several years. By cutting these kinds of existing 
fossil fuel R&D programs to pay for the $150 million clean coal 
initiative, the Administration gains no ground in developing new fossil 
fuel technologies. Can you explain why the Administration zeroed out 
cooperative research fossil fuel projects?
    Answer. The Administration's policy is to have funding allocated on 
a competitive basis. Since the Cooperative Research and Development 
portion of the Fossil Energy budget provides directed funding to two 
institutions without competition, it is one of the lower priorities in 
limited budgets.
    EERC has developed an excellent program of cooperative research 
which combines industry talents and capabilities from an effective 
State and Federal program. Indeed, this capability is best illustrated 
by the growing involvement of industry and their continued willingness 
to invest their resources in this program. The Department believes that 
EERC and WRI are capable of competing for Fossil Energy funds under 
various competitive solicitations, including the Clean Coal Power 
Initiative.
    Question. Senator Byrd spoke on the Senate floor last week about 
the need for a sound energy policy and the need for commitments to 
reduce global greenhouse gas emissions, including efforts on the parts 
of developing nations. Please explain the ongoing voluntary research 
and development programs and other initiatives that have been developed 
over the last several years to address our critical climate change and 
energy needs.
    Answer. The Department's energy mission is to provide appropriate 
assistance to help providers ensure adequate supplies of energy at 
reasonable prices, with appropriate environmental protection. As part 
of this mission, DOE supplements private investment in energy R&D when 
market failures cause the private contribution to fall below the 
optimum levels for public benefits. Our climate program is a subset of 
this larger mission and is focused on improving our understanding of 
the dynamics of global climate change, and on the developing and 
deploying technologies that reduce net emissions of greenhouse gas 
emissions.
    Existing programs that directly or indirectly contribute to climate 
change science or emissions limitations are described below. Our fiscal 
year 2002 budget request and the recommendations contained in the 
recently released National Energy Policy call for a reevaluation and 
redirection of some of these efforts. In addition, the Cabinet-level 
review of climate policy that is now underway is also likely to have 
ramifications for these DOE programs.
    DOE's Industries of the Future Program focuses on generic pre-
competitive, cooperative research with nine of the major process and 
extraction industries in the private sector. These industries include 
aluminum, steel, metal casting, forest products, glass, chemicals, 
mining, agriculture, and petroleum. These activities seek to improve 
the energy efficiency of industrial processes in these most energy-
intensive industries, which account for 75 percent of industrial energy 
use. This includes collaborative road-mapping of technology needs with 
each industry, and cost-shared R&D to meet those needs that provide 
significant public benefits that the private sector would not invest in 
on it own. Cross-cutting technologies applicable to many industries, 
such as advanced materials, sensors and controls, are also supported, 
where appropriate..
    This program has had notable success. For example, the Oxy-fuel 
firing process for glass melting furnaces is now used in 20 percent of 
glass furnaces, reducing fuel use by 48 percent. Cathode research for 
the aluminum industry has achieved an 8 percent energy savings.
    The DOE Transportation Program supports the development of more 
efficient cars and light and heavy trucks. The majority of the R&D 
effort supports the Partnership for a New Generation of Vehicles (PNGV) 
and 21st Century Truck initiative. The goals of these programs include 
tripling the fuel economy of today's mid-size cars (e.g., 80 miles per 
gallon) and delivery vans and doubling the fuel economy of heavy 
trucks. Activities supported by DOE include pre-commercial development 
of efficient vehicle components, such as low-emissions diesel and 
gasoline engines, hybrid powerplants, fuel cells, power electronics, 
high power batteries, and lightweight materials, as well as 
improvements in aerodynamics for trucks and buses. Many of the 
technologies developed in the DOE program are beginning to be 
incorporated in industry concept cars exhibited at auto shows and some 
are being used in production vehicles. In 2000, the three PNGV partner 
companies produced concept vehicles that reached the 80 mpg target, 
although the incremental vehicle cost is still too high to allow market 
introduction today.
    The DOE Buildings Programs seeks to improve the energy efficiency 
of building in the residential and commercial sectors. Included are 
more efficient building equipment and materials such as furnaces, air 
conditioners, lighting systems, materials for roofs and walls, and 
windows. Improvements are sought in whole building design (systems 
integration) and construction techniques. An important part of the 
overall program is establishing federal minimum energy use standards 
for appliances, and collaborating with industry and States to develop 
new building energy codes.
    The Weatherization Program, which is not an S&T activity, provides 
grant funding for energy efficiency improvements to low income houses. 
These efficiency improvements reduce heating, cooling, and hot water 
energy use. Five million homes have been weatherized to date.
    The State Energy Program and the Community Program work with state 
and local governments to identify local opportunities for using energy 
more efficiently, and for incorporating alterative fuels and renewable 
energy into local energy markets. These federal, state, and local 
partnerships provide a on-going means of helping consumers and 
businesses improve their energy efficiency. Energy Smart Schools, 
Energy Star, and Rebuild America are examples of efforts undertaken 
through these programs.
    DOE's Fossil Energy Program supports the development of cleaner, 
ultra-high efficiency technologies for electricity generation. This 
includes coal-fueled technologies with a goal of 60 percent efficiency 
(versus the middle 30's for a new plant today), and natural gas-fueled 
options with efficiencies above 70 percent (versus the mid-50's for a 
new plant today). Technologies include integrated coal gasification 
combined cycle (IGCC) for central station applications, and advanced 
fuel cells and fuel cell/turbine hybrids for distributed power 
generation. Products are incorporated from the advanced research 
program, including advanced materials for heat exchangers and 
innovative membranes for separation of hydrogen and carbon dioxide from 
other gases. While these systems have not achieved widespread 
deployment, the IGCC technology is being successfully demonstrated and 
finding its way into niche applications. Advanced fuels cells and 
turbines are being demonstrated and commercialized, and are expected to 
achieve significant deployment in distributed and hybrid applications 
in the next decade. In particular, the General Electric 7H series 
turbines have just been deployed, achieving 60 percent efficiency and 
substantial reductions in NO<INF>X</INF> emission with no additional 
post-combustion control technology.
    The Climate Challenge Program is a joint partnership between DOE 
and the electric utility industry that has been very successful. To 
date, more than 600 electric utilities have pledged to limit their net 
emissions by more than 170 million metric tons of carbon dioxide 
equivalent in the year 2000. Electric utilities represent about 85 
percent of voluntary actions to reduce, avoid or sequester greenhouse 
gases, as reported by the Energy Information Administration under 
Section 1605 (b) of the Energy Policy Act. Results include: (1) Major 
reductions in the potential cost of reducing greenhouse gas emissions; 
(2) Increased participation by the electric utility industry compared 
to other reduction approaches, resulting in additional emission 
reductions.
    DOE's supports research to improve the efficiency of electricity 
transmission and major electrical devices through activities such as 
the Superconductivity Partnership Initiative and the Second Generation 
Wire Initiative. These initiatives are aggressively pursuing the 
development of high temperature, superconductivity electric equipment. 
Important advances have been made this area, including development of 
breakthrough methods for making superconducting wires with over 10 
times the current-carrying capability of wires made with older methods, 
and development and successful testing of the world's first 
superconducting motor.
    DOE supports the development of a range of electric generating 
options that can be located near the point of consumption 
(``Distributed Generation''). These technologies can reduce overall GHG 
emissions through improved efficiencies, use of waste heat, and reduced 
transmission losses. Distributed generation technologies can be based 
on fossil or renewable energy sources.
    DOE supports the development of a wide range of non-fuels solar and 
renewable energy technology, seeking to improve their reliability, 
expand their applicability, and reduce their costs. This includes solar 
electric and thermal energy, wind, hydropower, and geothermal energy.
    These activities have been very successful in bringing down 
technology costs. For example, the cost of producing photovoltaic 
modules has been cut in half since 1991, and the cost of wind power has 
decreased 85 percent since 1980. Both of these technologies have been 
commercially successful in certain applications.
    The Biofuels Program develops technology to enable and support the 
expansion of an indigenous, integrated biomass-based industry that will 
reduce reliance on imported fuels and provide for productive 
utilization of agricultural residues and municipal solid wastes. 
Included are the development of superior biofuel feedstocks and 
processes for converting feedstocks to electricity (both directly and 
by co-firing with coal), as well as to biodiesel, ethanol, and hydrogen 
for clean transportation fuels applications. This is supported by the 
Biobased Products and Bioenergy Initiative, which is an interagency 
initiative aimed at tripling the use of biobased products and bioenergy 
in the U.S. by 2010 (compared with 2000.)
    The Clean Cities Program assists in the demonstration and adoption 
of alternative fuel vehicles, variously capable of operating on 
biofuels (such as ethanol), natural gas, or electricity. This increased 
fuel flexibility in the transportation sector can provide a basis for 
reducing GHG emissions associated with automobiles.
    The Hydrogen Program is pursuing the use of hydrogen as a source of 
energy for transportation, electricity, and heat that has lower or no 
net GHG emissions (depending upon how the hydrogen is produced). 
Hydrogen can be separated from fossil sources or from water utilizing 
renewable energy. Today, hydrogen is primarily produced from methane, 
and a by-product of its production is CO<INF>2</INF>. Thus, alternative 
sources of hydrogen production is a key focus of this program. Hydrogen 
can be used to operate fuel cells in vehicles and buildings. Success 
will require reducing the cost of producing, storing, and using 
hydrogen, especially from renewable feedstocks (e.g., bioenergy) and 
resources (e.g., solar energy).
    The Federal Energy Management Program (FEMP) is helping Federal 
agencies make cost-effective investments in energy efficient and 
renewable energy technologies and resources.
    DOE's Sequestration R&D Program focuses strictly on greenhouse gas 
reduction. Along with improved efficiency and lower carbon fuels, 
carbon sequestration provides an important third pathway for greenhouse 
gas reduction. Since it is completely compatible with the existing 
energy infrastructure, its deployment would not lead to costly early 
replacement of capital investments. The program is pursuing a suite of 
technologies to capture and store greenhouse gases. Near-term research 
focuses on technologies that provide multiple benefits in addition to 
climate mitigation, such as soil conservation, or production of high 
value energy products (enhanced oil recovery or production of coal bed 
methane) to offset sequestration costs. Longer term efforts are focused 
on a range of technologies capable of permanently storing carbon 
dioxide in geologic formations or other storage media.
    DOE and its predecessor agencies have actively supported the 
development and demonstration of civilian nuclear power technologies. 
Each year nuclear power plants in this country, which generate 20 
percent of domestic electricity, avoid about 180 million tons of carbon 
emissions that would have come from burning coal, gas, and oil. The 
Nuclear Energy Research Initiative (NERI) invests in researcher-
initiated ideas that seek to reduce the impediments to further 
deployment of nuclear power. NERI funds research in areas related to 
economic competitiveness, safety, and non-proliferation. It also funds 
research into fundamental engineering and scientific principles that 
have broad power generation applications, such as the innovative use of 
nuclear power to make hydrogen fuels for the future U.S. economy.
    The Nuclear Energy Plant Optimization Program (NEPO) invests in 
technologies and ideas aimed at improving the reliability, safety, and 
capacity of operating nuclear power plants. Nuclear power has enjoyed 
steady gains in capacity and availability over the past ten years, the 
NEPO program is intended to help maintain this trend.
    The Nuclear Energy Technologies Program is developing a Generation 
IV Technology Roadmap to identify and establish R&D leading to the 
deployment of improved reactor technologies in the coming decades. The 
Roadmap will be completed in fiscal year 2002. This program also funds 
a study of the potential for deployment of a special class of Small 
Modular Reactors to locations ill served by the infrastructure required 
for coal, oil, or gas fueled power plants. Finally, this program funds 
studies of the potential commercialization of the plutonium burning 
modular helium reactor and of the deployment of advanced light water 
reactors.
    Within the Office of Science, the Biological and Environmental 
Research (BER) program has a long-standing, comprehensive Global Change 
Research Program (GCRP) that contributes to the interagency U.S. Global 
Change Research Program (USGCRP). Since 1978, the Office of Science 
began funding basic research needed to understand, model and assess the 
effects of energy production on atmospheric carbon dioxide and climate.
    The BER activities seek to establish the detailed scientific 
understanding necessary to predict the effects of increasing greenhouse 
gases on the Earth's climate and the potential consequences of human-
induced climate change. An important focus of the research is on the 
effects of atmospheric properties and processes on the Earth's radiant 
energy balance, including the role of clouds. This is the key 
uncertainty in global climate change science.
    The research also seeks to elucidate the processes affecting the 
atmospheric chemistry, transport, and fate of energy-related emissions. 
This includes improving scientific understanding needed to predict and 
assessing the both effects of energy-related emissions on air quality 
and atmospheric composition and the quantities of carbon removed from 
or released to the atmosphere naturally by terrestrial and oceanic 
ecosystems. It also includes research to develop methods or approaches 
to purposefully enhance carbon sequestration in land and in the ocean 
and to understand the potential environmental implications of enhanced 
sequestration. BER also funds research to characterize and sequence the 
genome of microbes that could be used for producing alternative energy 
sources (e.g., methane or hydrogen producing microbes, energy from 
biomass) and for carbon sequestration.

                       CLIMATE CHANGE MITIGATION
    Question. Mr. Secretary, Congress required a report of the 
Administration's activities last year, and that was supposed to be 
submitted with the fiscal year 2002 Budget. Please explain the status 
of the report, and whether, and when, we can expect to see the report. 
This report is critical for Congress' efforts to develop our funding 
needs for climate- and energy-related programs.
    Answer. Climate change mitigation technology research by the U.S. 
Government is conducted at a number of agencies, including the 
Department of Energy. In order to include all research activities, the 
Office of Management and Budget prepares the report. The report is now 
under preparation at the Office of Management and Budget, and we will 
ensure you receive a copy as soon as it is completed.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell

                    ENVIRONMENTAL MANAGEMENT PROGRAM
    Question. From what I understand, the Department is contemplating a 
decrease in the Environmental Management Program to meet budget 
constraints. Can you confirm what, if any, reduction the Environmental 
Management Program will receive in fiscal year 2002?
    Answer. The fiscal year 2002 budget is a principled and responsible 
effort, one that fulfills President Bush's commitment to moderate 
discretionary spending while meeting critical requirements in national 
security, energy, science, and environmental quality. The budget 
request for Environmental Management activities is $5.9 billion. This 
request is approximately $354 million less than the comparable fiscal 
year 2001 appropriation, but essentially the same level as fiscal year 
2000.
    Cleanup of the Department's sites is an important and a very 
complicated endeavor. I am concerned, however, that the estimated 
length of time to complete the work is too long, and the costs to the 
taxpayer too high. As with other DOE programs, the budget request 
reflects my challenge to the Environmental Management program to become 
more efficient. I also have initiated a sweeping Environmental 
Management Mission Assessment to identify efficiencies and ensure that 
our principal focus is on accelerating the cleanup of those sites with 
significant environmental, health, and safety risks. We need to find 
ways to continue progress and meet our commitments more efficiently and 
at a lower cost.
    Question. Can you explain how you will allocate these cuts, both 
between headquarters and among the field offices?
    Answer. The fiscal year 2002 budget was allocated between 
headquarters and among the sites by using the program's priorities. 
Highest priority was given to protecting worker health and safety, then 
addressing higher-risk problems such as high-level waste, spent nuclear 
fuel and special nuclear materials. Priority was also given to making 
progress towards closure at our major closure sites, i.e. Rocky Flats 
and Fernald. Priority was also given to increasing shipments of 
transuranic waste to the Waste Isolation Pilot Plant and for developing 
and deploying innovative technologies.

                              ROCKY FLATS
    Question. As you are aware, Congress established a dedicated 
Closure Fund within the Environmental Management Program for DOE sites 
that could close on an accelerated schedule. Congress did this to 
encourage DOE to focus resources and management attention to get a few 
sites closed quickly, to reduce risks and to free up funds for other 
projects. Presently, only the Rocky Flats site in my state of Colorado 
and a few sites in Ohio are funded from this account. Do you agree with 
the basic strategy of the closure fund--to close a few sites on an 
accelerated basis to reduce mortgage costs and to reduce risks?
    Answer. Yes, the Department believes it is very important to 
continue accelerated cleanup at its closure sites. Completion of work 
at closure sites demonstrates to Congress and other stakeholders that 
the DOE can successfully close and remediate major contaminated sites 
in the near-term. Progress towards site closure requires dedicated 
resources to fully define and implement the plans for accelerated 
closure. Upon completion of these closure projects, the annual funding 
used for their closure will be available to support other priority 
cleanup projects across the country.
    This targeted commitment to site closure is evidenced in the Rocky 
Flats closure contract awarded to Kaiser-Hill. This contract is 
significantly different from the previous management and integration 
contracts the Department has entered into. It is a cost-plus-incentive-
fee contract that defines a target cost ($4 billion) and schedule 
(December 2006) for the project. It also includes significant 
incentives for the contractor to achieve, and even exceed, the 
contractual goals.
    This contracting approach is innovative, and is a model for other 
closure efforts within the DOE complex. It is not necessarily 
applicable for all cleanup efforts, but comparable, innovative 
techniques are being pursued for other contracts to reduce the planned 
cleanup baseline costs.
    Question. What is your policy regarding how budget cuts for DOE 
will be allocated to the closure fund and to the sites funded out of 
the closure fund?
    Answer. The fiscal year 2002 budget was prepared based on the 
program's priorities. At all sites, whether funded from the closure 
account or one of the other accounts, priority was given to protecting 
worker health and safety. Also, at each site we are requesting adequate 
funds to address higher potential risks, i.e. high-level waste, spent 
nuclear fuel, and special nuclear materials. After these priorities 
were met, the budget does give priority to the closure of our large 
closure sites, Rocky Flats and Fernald.

                       GAO REPORT ON ROCKY FLATS
    Question. The General Accounting Office (GAO) recently released a 
report indicating that, not surprisingly, completing the cleanup of 
Rocky Flats by 2006 would be a monumental achievement. One of GAO's 
observations is the need for DOE to more comprehensively address the 
issue of complex-wide integration of activities. Successfully closing 
Rocky Flats requires the coordination of many different DOE sites and 
many diverse DOE activities. GAO also observed that closing Rocky Flats 
requires not only full funding for Rocky Flats at previously committed 
levels--$657 million a year through 2006--but also funding for other 
sites around the complex. This funding is not listed in budget 
documents, but GAO estimated it at $130 million for fiscal year 2002 
alone. Does DOE agree with the analysis and recommendations of the GAO 
that Rocky Flats can only close with enormous cross-complex 
coordination and with focused leadership from the highest levels of the 
Department?
    Answer. The Department is fully aware that the closure of Rocky 
Flats requires the support of numerous other DOE sites and 
organizations. Many of these inter-site activities are actually 
specified in the Rocky Flats Closure Contract as government-furnished 
services and items--particularly those related to providing receiver 
sites for Rocky Flats special nuclear materials and waste material. The 
Office of Environmental Management has been working to develop detailed 
project baselines for these inter-site activities. These schedules are 
being developed in cooperation with the DOE supporting organizations 
and will be integrated with the contractors' baseline; together they 
will comprise the Rocky Flats Integrated Closure Project Baseline. This 
Integrated Closure Project Baseline was reviewed by the GAO and has 
widely been recognized as a key tool for the management of the Rocky 
Flats Closure Project and execution of the Rocky Flats Closure 
Contract.
    We would like to clarify that the $130 million referenced in the 
GAO report is the estimated cost incurred by other DOE sites and 
organizations in support of Rocky Flats closure from fiscal year 1996 
through closure. The costs include container certification and 
procurement expenses, transportation of special nuclear material and 
wastes, receiver site facility modifications, and Federal personnel 
costs at DOE Headquarters for their support to the Rocky Flats closure, 
as well as other support costs.
    Question. Does DOE agree with the GAO that funding activities at 
other sites is critical to meeting the Rocky Flats schedule?
    Answer. Yes, the Department agrees with the GAO report that funding 
activities at other sites is critical to maintaining the Rocky Flats 
closure schedule.
    Question. What steps is the Department taking to ensure that the 
necessary coordination takes place to enable Rocky Flats to close on 
schedule? How do you plan to address the issues among different 
departmental elements--Defense Program, Health and Safety, 
Nonproliferation--that must be resolved, according to the GAO, in order 
to close Rocky Flats on schedule?
    Answer. The development of the Rocky Flats Integrated Closure 
Project Baseline is the key step towards ensuring the necessary 
coordination among the various Departmental sites and organizations. 
With the support of the Rocky Flats Field Office and other DOE sites 
and programs, EM has made significant strides towards implementing a 
process to identify and address issues related to the provision of the 
necessary Departmental resources required to support the closure of 
Rocky Flats.
    The establishment of the Integrated Baseline included the 
development of detailed schedules for those activities by the 
Department contractually required to support Rocky Flats closure. The 
effort also included the development of a draft project implementation 
and management plan that will specifically delineate the 
responsibilities, authorities and control processes that will be 
implemented. A process of monthly project status briefings to the 
Assistant Secretary for Environmental Management has been initiated. 
During these briefings, the status of the detailed schedules and 
delivery of contractually required activities is presented in detail, 
and any issues related to these schedules and activities are identified 
and discussed. On a quarterly basis, management representatives from 
the other Departmental sites and programs needed to support the closure 
of Rocky Flats are invited to participate. In the interim, the 
Assistant Secretaries work directly with one another to address and 
resolve any resource issues. To date, these interactions have proven 
productive. However, in the event that an issue cannot be resolved 
within 30 days of its identification, the issue will be elevated for 
resolution.
    Question. What steps is DOE taking to ensure all sites that support 
Rocky Flats closure receive the funding they need to enable a 2006 
closure, especially in light of the proposed cuts in the overall DOE 
program?
    Answer. Efforts are underway to enter the resource needs into the 
Rocky Flats Integrated Closure Project Baseline. This will provide a 
comprehensive picture of the funds required throughout the DOE complex 
to support the closure of Rocky Flats. The cost of the activities at 
other sites have been identified to the extent possible, and were 
included in the fiscal year 2002 Congressional Budget.

       RENEWABLES AND NATIONAL RENEWABLE ENERGY LABORATORY (NREL)
    Question. Mr. Secretary, I have an overall concern that the energy 
efficiency and renewable energy budgets are being reduced at a time 
when our energy demand has exceeded our energy supply and we should be 
investing in every available means of producing and saving energy. I 
have two specific questions about the budget, especially since this 
affects part of my home state of Colorado.
    You may be aware that the National Renewable Energy Laboratory is 
located in my state. The budget reduction for renewable energy research 
and development will directly impact the core scientific competency at 
this laboratory. For example, both the highly-successful wind and 
photovoltaic programs are cut 50 percent, resulting in potential 50 
percent staff reductions in those programs at the laboratory. In the 
last 20 years, the price of wind energy has dropped from 30 cents/kWh 
to between 4-6 cents/kWh. Photovoltaic modules have lowered their cost 
by nearly a factor of ten; the cost of solar systems has been reduced 
by 50 percent in the last decade. Reducing these programs so 
dramatically at a time when energy resources R&D is so critical 
concerns me. Can I get your views on how to bring those budgets back up 
to more stable funding levels.
    Answer. The just released National Energy Policy (NEP) provides a 
blueprint for how the Administration will increase energy supplies, 
including renewable energy, and reduce energy demand. The NEP 
recommends that the President direct the Secretary of Energy to conduct 
a review of current funding and historic performance of renewable and 
alternative energy, as well as energy efficiency, research and 
development programs in light of the recommendations of this report. 
Based on this review, the Secretary of Energy is then directed to 
propose appropriate funding of those research and development programs 
that are performance-based and are modeled as public-private 
partnerships. The Secretary has announced the start of the strategic 
reviews, which will involve public input. July 10 is the deadline for 
the initial phase of the review.
    It should be noted that much of the reduction in the requests for 
renewable R&D reflects proposed cancellation of low priority earmarks 
that have been funded year after year. Moreover, the budget proposes 
significantly expanded tax credit programs to promote renewable energy.

                   FEDERAL ENERGY MANAGEMENT PROGRAM
    Question. Another important area that has been cut is in Federal 
Energy Management Program (FEMP) funded out of Interior Appropriations. 
The federal government consumes more energy than any other single 
entity--2 percent of our nation's energy. The FEMP program has been 
working successfully to reduce spending by the federal government on 
energy so that our tax dollars can be put back into the Treasury. For 
example, the Federal building energy bill is down $2.23 billion from 
1985 levels; about $900 million of this is due to Federal energy 
management. These projects leverage $4 in net savings for every $1 
invested. Yet, this program has been cut by 50 percent in your budget 
proposal. Since this program can help taxpayers in the same way a tax 
cut to the American people can help, can I get your views on how to 
increase that funding level?
    Answer. FEMP services and programs have significantly contributed 
to the amount of energy used in federal facilities. However, FEMP, like 
other programs, can and should do more with less. By using their 
contractors more effectively and by relying more heavily on private 
sector funding, FEMP can still help the federal government meet the 
goals of the energy efficiency Executive Orders.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                         CLEAN COAL INITIATIVE
    Question. I compliment the Administration on creating a new $150 
million Clean Coal Power Initiative. I firmly believe that we should 
capitalize on our two greatest strengths in electricity supply, coal 
and nuclear. In both cases, we should address risk areas. This new 
Initiative should be a good start for coal. I'd like to ensure that the 
Initiative will address issues associated with mining as well as the 
subsequent combustion processes. For example, a small New Mexico 
company in Raton has worked with Russian institutes, through the 
Department's Initiatives for Proliferation Prevention program, to 
develop instruments that allow remarkable refinement in how coal is 
mined. This instrument, which actually mounts on the drill head, 
enables the drill to automatically leave the last few inches at the top 
and bottom of a coal seam. The majority of the serious heavy metal 
contaminants in the seam are concentrated at the edges of the seam; 
thus this new tool allows dramatically cleaner coal to be mined. When 
burned, that coal then burns much cleaner. Will the Clean Coal Power 
Initiative include opportunities for advanced exciting new technologies 
like this, no matter what part of the overall coal utilization cycle 
they impact?
    Answer. The Clean Coal Power Initiative has, as its primary aim, 
the use of advanced clean coal technology to improve the Nation's 
electricity supply and availability. To the extent that any proposed 
project using advanced coal technology can be shown to have a potential 
significant impact, it will receive due consideration in the review 
process when competed against other proposed ideas.

                          OIL AND GAS RESEARCH
    Question. I'm very disappointed to note that gas and oil research 
and development funds were sharply cut in the Administration's budget, 
by over 50 per cent. These two energy sources play major roles in the 
current national energy supplies. In New Mexico, I've noted how 
improved extraction technologies, which depend on continued research 
and development, have helped to boost production of old wells. I hope 
that these cuts can be revisited as part of the Vice President's review 
of energy supply issues. One example of excellent research and 
development in petroleum production involves the Petroleum Recovery 
Research Center at New Mexico Institute of Mining and Technology in 
Socorro. With the reduced budget, will you plan to continue the ongoing 
strong programs, such as this one at New Mexico Tech?
    Answer. While complying with the President's spending priorities 
and overall budgetary restraint, many of the existing oil and gas 
technology research and development projects will be continued in the 
areas of exploration and production. We will continue to provide 
funding for better technologies that can help producers--especially the 
smaller, independent companies--produce more oil and gas in the shorter 
term, the next 1 to 5 years. We also have included money for new 
drilling and production technologies that would be ready in the much 
longer-term, 10 years or more into the future. For example, projects 
with New Mexico Tech could be funded in the President's budget include: 
Optimization of Infill Drilling in Naturally Fractured Tight-gas 
Reservoirs and Risk-Based Decision Making Tools.

                               FUEL CELLS
    Question. Fuel cells are generally viewed as one of the most 
promising technologies for generation of distributed power in the 
future. They accept a range of fuels and their operation is 
environmentally friendly. They may represent one of the best ways to 
move away from our heavy reliance on petroleum products for 
transportation. The Department's ``Budget Highlights'' book notes that 
fuel cells ``continue to hold much promise as an on-site generator of 
electricity, meeting requirements for high efficiency, premium-quality 
power, and environmental protection.'' It seems to me that this could 
be an area that will help to address our energy supply issues in the 
future. Given the enthusiasm for fuel cells, I'm puzzled by plans to 
cut the funding for fuel cells by about 14 percent next year. As one 
example of the excitement and promise of fuel cells, researchers at Los 
Alamos are proposing a new Center devoted to fuel cells studies. This 
Center would integrate a number of separate specialities to more 
efficiently develop commercially-ready systems. What level of funding 
for fuel cells could be effectively utilized to advance this exciting 
technology as rapidly as possible?
    Answer. Fuel cells, as you indicate, are one of the most promising 
technologies for distributed generation technology. Although the fuel 
cell funding request in fiscal year 2002 is less than that in fiscal 
year 2001, it does reflect a balanced funding approach. We are nearing 
completion of the fuel cells effort focused on the near-term market 
entry over the next 2 years. We are now turning our attention to an 
exciting new program that holds much promise in dramatically reducing 
fuel cells to less than $400 per kilowatt. Fuel cells, at this cost, 
could capture much broader market applications in addition to 
distributed generation. As such, given the stage of program 
development, the need for fiscal restraint and competing program 
priorities, we believe that the fuel cell budget request is at an 
appropriate level.
                                 ______
                                 
           Questions Submitted by Senator Ernest F. Hollings

                       SAVANNAH RIVER SITE (SRS)
    I apologize for bringing the Department of Energy's fiscal year 
1902 budget up in this hearing, but the Secretary is not testifying in 
front of the Energy and Water Appropriations Subcommittee, so this may 
be my only time to discuss this issue with him. After reviewing the 
fiscal year 2002 budget for the Department of Energy's Savannah River 
Site (SRS), I have noticed that the fiscal year 1902 budget is $159 
million less than the amount appropriated for the current fiscal year--
a year when many important activities were deferred. I am extremely 
concerned about the unrealistically low level of Environmental 
Management (EM) funding proposed for the many priority waste management 
and environmental remediation programs needed at SRS.
    I feel that your budget request for the Department of Energy is not 
adequate for your agency to meet its responsibility to safely store, 
treat, remediate, and dispose of wastes currently at SRS. Specific 
examples include:
    The removal and vitrification of high-level liquid wastes from 
underground storage tanks is significantly impacted. These wastes are 
the greatest threat at SRS to offsite population and the environment. 
The budget reduction in this area represents a serious violation of 
previous commitments made by DOE.
    DOE activities to develop and test a new capability to process 
radioactive salt wastes are not adequately funded even though it has 
been more than three years since the cancellation of the In-Tank 
Precipitation process (ITP). This capability is necessary to address 
the space problems at the Tank Farms.
    In light of today's historic shipment of Transurantic Waste from 
SRS to the Waste Isolation Pilot Program in Caralsbad, NM, in your 
budget funds will no longer be available for shipment of solid wastes 
to offsite permanent repositories.
    Many Federal Facility Agreement commitments for environmental 
restoration will not be met.
    Some commitments associated with the Defense Nuclear Safety Board 
recommendation 2000-1 will not be met.
    Funds for construction of the plutonium storage facility have been 
deleted.
    Programs to receive, store and treat offsite research reactor spent 
nuclear fuels have been significantly reduced.
    Approximately 18 months ago, DOE made the decision to locate all 
three parts of the plutonium disposition program at SRS. With the 
importation plan for the plutonium, there was also a clear exit 
strategy. But, your budget eliminates one of these parts (Plutonium 
Immobilization) and reduces another (Pit Disassembly and Conversion). 
Other commitments for environmental restoration involving high-level 
wastes as well as other on-site wastes were also made. When compared to 
the total EM reduction of six percent, a cut of 14 percent for SRS is 
unreasonable and inequitable treatment for South Carolina. With SRS 
housing 60 percent of the Department's inventory of stored high-level 
wastes, DOE's responsibility for environmental remediation and waste 
management are as great or greater at SRS than any other DOE site, yet 
your budget priorities are not consistent with this fact.
    While I know this is not the proper committee for these questions 
to be raised, I do hope that you will work with the Energy and Water 
Appropriations Subcommittee to restore proper funding to these areas.
    I also would like you to please respond to the address the 
following questions:
    Question. Mr. Secretary, last week you testified to the House 
Appropriations on Energy and Water that the Department of Energy Budget 
for 2002 was sufficient. How are you able to make such a representation 
when the President's fiscal year 2002 budget will not result in 
compliance with RCRA and CERCLA requirements at SRS?
    Answer. Maintaining compliance at the Savannah River site is a 
priority. However, we face significant challenges in meeting some of 
our lower-risk environmental restoration commitments in fiscal year 
2002.
    The schedule calls for the remaining cleanup to take some 70 years 
and cost some $200-$300 billion. We believe that is not good enough. 
Consequently, the Department will undergo a top-to-bottom assessment to 
focus on what has prevented us from narrowing the cost and efficiency 
gap and whether our current strategies are appropriate. We are 
concerned that DOE's own policies and procedures may well cause some of 
the inefficiency in the program. If the assessment concludes that the 
Department's own policies are attributable to the lack of efficient 
progress, the policies and procedures will be changed.
    In addition, the Department has asked the Governor in each state in 
which a major DOE site is located, and the Administrator of EPA, to 
work with us in this assessment. The Department looks forward to 
working with the members of Congress, the States and regulatory 
community to ensure that DOE's environmental management program 
executes its mission effectively, safely, and in a timely manner.
    The Department's goal is for the cleanup program to proceed as fast 
as possible, and with the minimum necessary commitment of federal 
resources. Given the pressing needs of the nation in many other areas 
that affect citizens' well-being, health, and safety, it is DOE's 
responsibility to ensure that funds are spent wisely and results are 
maximized. Until our assessment is complete, it is unclear whether any 
work will need to be deferred.
    Question. With the proposed fiscal year 2002 budget reductions at 
SRS, will the DOE be able to perform all obligations required by the 
Federal Facilities Compliance Agreement (FFA)?
    Answer. The Environmental Management budget continues to place the 
highest priority on protecting the health and safety of workers and the 
public at all DOE sites, and continuing work to mitigate higher 
potential risks. We will ensure that nuclear materials are properly 
managed and safeguarded. Priority is placed on a number of key projects 
that reduce potential high risks, provide significant mortgage 
reduction, or are key to completing activities at other sites. For 
Savannah River, these projects include producing at least 150 canisters 
of vitrified high level waste, shipping up to 600 cubic meters of 
transuranic waste to the Waste Isolation Pilot Plant, completing 
construction of the melt and dilute technology demonstration facility, 
beginning construction of the Salt Processing pilot plant and 
initiating conceptual design of the full-scale plant, and completing 
all currently planned F-Canyon dissolution campaigns.
    Maintaining compliance at the Savannah River site is a priority. 
However, we face significant challenges in meeting our lower-risk 
environmental restoration commitments in fiscal year 2002. The 
Secretary has directed a top to bottom reassessment of the 
Environmental Management program to examine opportunities for program 
efficiencies and review existing cleanup strategies. Until this review 
is completed, it is unclear whether any work will need to be deferred.
    Question. With the proposed fiscal year 2002 budget reductions at 
SRS, will the DOE be able to maintain High Level Waste Vitrification 
operations and investments needed for continuity of operations to meet 
the SRS Site Treatment Plan?
    Answer. The Department has produced 1,106 canisters of high-level 
waste glass as of May 15, 2001, which is ahead of our planned 
production rate. We will continue to meet, or surpass, our goal in 
fiscal year 2002 with the production of a minimum of an additional 150 
canisters of high-level waste glass. Throughout fiscal year 2002, we 
will maintain the waste removal activities supporting the delivery of 
feed to the Defense Waste Processing Facility, while optimizing the 
ratio of sludge and salt to minimize the total number of canisters 
required to be produced during the life of the project.
    Question. With the proposed fiscal year 2002 budget reductions at 
SRS, will the DOE be able to meet commitments for shipments of 
Transuranic Waste to the Waste Isolation Pilot Plant?
    Answer. The fiscal year 2002 request continues funding for 
deployment of a ``mobile'' facility that will characterize and prepare 
transuranic waste for shipment to the Waste Isolation Pilot Plant 
(WIPP). We expect approximately 600 cubic meters of transuranic waste 
to be shipped to WIPP during fiscal year 2002. This will allow us to 
meet our transuranic waste shipment commitments for fiscal year 2002.
    Question. With the proposed fiscal year 2002 budget reductions at 
SRS, will the DOE be able to meet the stabilization of nuclear 
materials commitments to the Defense Nuclear Facility Safety Board?
    Answer. The fiscal year 2002 request supports the operation of F-
Canyon and FB-Line for stabilization of plutonium residues and Rocky 
Flats plutonium scrub alloy, and for material characterization, re-
packaging and vault operations. The requested funding also provides for 
startup and operation of HB-Line Phase II for stabilization of 
plutonium solutions, and operation of H-Canyon for processing of some 
spent nuclear fuel. These activities support the Defense Nuclear 
Facilities Safety Board (DNFSB) recommendations 94-1/2000-1.
    However, performing some stabilization and packaging activities 
associated with the DNFSB recommendations will be a challenge. We are 
exploring options for meeting these commitments at a lower cost. 
Regardless, we will continue to store all nuclear materials in a safe 
and secure configuration.
    Question. If Congress restores funding to the DOE EM budget for 
fiscal year 2002, will you, in turn, restore nearly $160 million to the 
SRS EM budget to assure regulatory compliance?
    Answer. Maintaining compliance is a priority for the Environmental 
Management Program. However, until Congress passes a final 
appropriations bill and the Department has had an opportunity to 
evaluate the direction provided by Congress and to consider all program 
priorities, it would be premature to say how much funding would be 
provided to any individual site.
    Question. Also, it is my understanding that you have suspended the 
Plutonium Immobilization project at SRS. This project would have taken 
the plutonium from Rocky Flats that will shortly be received at SRS and 
converted it to a glass form that would be sent out of South Carolina 
to Yucca Mountain. Now that you have suspended the PIP project, what 
are your plans to deal with the Rocky Flats material being received at 
SRS?
    Answer. The National Nuclear Security Administration (NNSA) remains 
committed to having a pathway out of South Carolina for the surplus 
plutonium that will come to the Savannah River Site for disposition. 
Our present intent is to pursue the irradiation of mixed oxide (MOX) 
fuel in domestic reactors and immobilization for the disposition of 
surplus U.S. weapon-grade plutonium. While work on immobilization is 
currently suspended, we plan to resume work on this technology at a 
future date.
    Question. If your plans included using the aging canyon facility 
for another 20 or more years, doesn't that appear to be a significant 
risk?
    Answer. The National Nuclear Security Administration (NNSA) is 
evaluating the potential to dispose of surplus plutonium using existing 
facilities located at the Savannah River Site. Part of this evaluation 
will address the risk of using the Savannah River Site canyons.
    Question. Instead, why don't you consider building a new chemical 
processing capability to substitute for both the immobilization plant 
and the pit disassembly and conversion plant to supply plutonium to the 
MOX facility? It would appear that this would be a much less expensive 
route than using the aging canyon facility.
    Answer. The evaluation study previously referred to will also 
explore the option of building new capabilities and facilities, such as 
you suggest, to substitute for the Pit Disassembly and Conversion 
Facility and the Plutonium Immobilization Plant.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                              NATURAL GAS
    Question. Over the last several years, federal government energy 
and environmental policy have had the effect of driving more and more 
electric power generators into constructing (or converting facilities 
into) natural gas-fired, rather than coal fired, plants. Mississippi 
has more than two dozen peaking plants in planning and construction 
phases along our state's numerous gas pipelines, all intended to wheel 
wholesale power to other parts of the country. Other plants that have 
been constructed for intrastate power usage have been gas fired. The 
one notable exception is the TVA Red Hills power generation project in 
Ackerman, Mississippi, which utilizes Mississippi lignite coal.
    Natural gas does possess certain environmental and energy 
efficiency advantage, and its uses extend far beyond energy generation 
and into areas of pharmaceutical and fertilizer production. However, 
Mississippi natural gas prices were unaffordable for residential and 
commercial customers this year, and we are told that the worst may come 
three years from now when all the new power plants go on line and start 
to draw from available gas supplies. What projections has the 
Department made with respect to future demand for natural gas over the 
next few years?
    Answer. Natural gas demand increased by 1 trillion cubic feet from 
1999 to 2000, reaching a record high of 22.7 trillion cubic feet. In 
the May 2001 Short-term Energy Outlook forecast, natural gas 
consumption is expected to continue this record growth, increasing 
between 2000 and 2001 by over 1 trillion cubic feet to 24.0 trillion 
cubic feet. It is expected that the growth will slow to a rate closer 
to the average annual rate of growth of 2.3 percent per year that is 
forecast over the longer-term in the Annual Energy Outlook 2001, 
reaching 24.6 trillion cubic feet in 2002 and 25.2 trillion cubic feet 
in 2003.
    Question. Will the prices for natural gas this year pale by 
comparison to three years from now?
    Answer. We do not expect that to be the case. Natural gas prices 
have been high in 2000 and 2001 due to higher than expected demand and 
to tight supplies, resulting from reduced drilling in reaction to low 
prices in 1998 and 1999. Although EIA's May 2001 Short-Term Energy 
Outlook (STEO) anticipates that natural gas prices will be considerably 
higher in 2001 than in 2000 (2000 and 2001 STEO wellhead prices in 
nominal dollars are $3.62 and $5.27, respectively), prices are expected 
to subsequently decline to $4.86 in 2002 as increased drilling leads us 
into a transition period during which natural gas stocks can be 
replenished. It is not expected that prices will fall to 2000 levels by 
2003, but prices around $4.00 are not inconceivable. In the longer-
term, technological improvements in natural gas exploration and 
production and relatively abundant resources are expected to cause 
prices to continue to decline and slow eventual price increases.

                       GAS HYDRATE STABILITY ZONE
    Question. Deepwater offshore oil and gas development depends on 
state of the art drilling technology, if we are to tap the once 
unattainable supplies particularly in the Gulf of Mexico. Mississippi 
has been a center of this new era of development, and our state looks 
forward to your Department's focus and encouragement in bringing the 
new fields on line.
    However, many of these deep water resources lie in sections of the 
Gulf within the gas hydrate stability zone. These frozen methane 
hydrates may appear to be stable sea floor, but without adequate 
detection and planning, can destabilize and represent a serious geo-
hazard, particularly for any drilling or production rig or pipeline 
mounted to a section of the sea floor. The methane hydrates also 
represent a tremendous energy source, which may be important with 
adequate development to supplying future energy needs. Last year, 
Congress appropriated $10 million to this problem. The Mississippi 
Minerals Resource Institute has been an international leader in methane 
hydrate research, through its marine program known as the Center for 
Marine Resources and Environmental Technology. Is the Department of 
Energy committed to continuing this level of research and development 
in this gas hydrate stability zone?
    Answer. The Department of Energy plans to continue its program of 
methane hydrate research and development in fiscal year fiscal year 
2002, at a level of $4.7 million. The program aims to develop the 
knowledge and technologies necessary for commercial production of 
methane from hydrates by 2015 while protecting the environment. The 
work focuses on resource characterization, production, sea floor 
stability and global carbon cycle implications of methane hydrates.
    The methane hydrate program's significant expansion in fiscal year 
2001, from $3 million to $10 million, allowed almost $5 million to be 
committed to funding multi-year, competitively selected projects in the 
Gulf of Mexico and Alaska. These projects will be started in late 
fiscal year 2001. In fiscal year 2002, the department will continue its 
core research with other government agencies and universities. In 
addition, joint-industry projects selected from the fiscal year 2001 
competitive solicitation will continue.

                         CONCLUSION OF HEARINGS

    Senator Burns. Thank you very much. The subcommittee will 
stand in recess subject to the call of the Chair.
    [Whereupon, at 12:25 p.m., Tuesday, May 8, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2002

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses, the statements and 
letters of those submitting written testimony are as follows:]
                       DEPARTMENT OF THE INTERIOR
     Prepared Statement of the Coalition of Northeastern Governors
    The Coalition of Northeastern Governors (CONEG) is pleased to 
provide this testimony for the record to the Senate Appropriations 
Subcommittee on Interior and Related Agencies as it considers fiscal 
year 2002 appropriations for the Energy Conservation programs of the 
U.S. Department of Energy. Within this appropriation, the CONEG 
Governors request that funding for the Weatherization Assistance 
Program be increased to $306 million and that funding for the State 
Energy Program be increased to $75 million in fiscal year 2002.
    Recent increases in the price of energy, coupled with the strain on 
energy infrastructure created by the rapid growth in energy demand, 
place a new emphasis on making the most efficient use of the nation's 
energy resources. Energy efficiency is a vital component to a balanced 
energy policy that yields multiple economic, environmental and national 
security benefits. Efficient use of energy helps reduce the nation's 
energy costs and contributes to improved economic productivity.
    The Department of Energy's Weatherization Assistance Program and 
State Energy Program provide valuable opportunities for the states, 
industry, national labs and the U.S. Department of Energy to 
collaborate in moving energy efficiency and renewable energy research, 
technologies, practices and information into households, businesses, 
schools, hospitals and farms across the nation. Administered by the 50 
states, District of Columbia and territories, these programs are an 
efficient way to achieve national energy goals, as they tailor energy 
projects to specific community needs, economic and climate conditions.
    The Weatherization Assistance Program (WAP) helps low income 
households better manage their ongoing energy use, thereby reducing the 
heating and cooling bills of the nation's most vulnerable citizens. 
According to the U.S. Department of Energy, low-income households spend 
14 percent of their annual income on energy, compared to 3.5 percent 
for other households. The Weatherization Assistance Program strives to 
reduce the energy burden of low-income residents through such energy 
saving measures as the installation of insulation and energy-efficient 
lighting, and heating and cooling system tune-ups. These measures can 
result in energy savings as high as 30 percent.
    The State Energy Program (SEP) helps move energy efficiency and 
renewable energy technology into the marketplace and ensure that states 
and communities are prepared for and respond to energy emergencies. 
Through the SEP, states assist schools, municipalities, businesses, 
residential customers and others in both the private and public sectors 
to incorporate the practices and technologies which help them manage 
their energy use wisely. The modest federal funds provided to the SEP 
are also an efficient federal investment, as they are leveraged by non-
federal public and private sources.
    We request that the Subcommittee increase funding for both the 
Weatherization Assistance Program and the State Energy Programs. These 
programs have demonstrated their effectiveness in contributing to the 
nation's goal of environmentally sound energy management and improved 
economic productivity.
    We thank the subcommittee for this opportunity to share the views 
of the Coalition of Northeastern Governors, and we stand ready to 
provide you with any additional information on the importance of the 
Weatherization Assistance Program and the State Energy Program to the 
Northeast.
                                 ______
                                 
 Prepared Statement of the Lower Colorado River Basin States (Arizona, 
                        California, and Nevada)

                              INTRODUCTION
    It has long been said that the Colorado River is the lifeblood of 
the West. Today, the Colorado River supplies vital water and power 
resources for more than 20 million people in Arizona, California and 
Nevada.
    Concerns have been raised about the reliability of these water and 
power resources following the U.S. Fish and Wildlife Service's 1994 
designation of critical habitat for four endangered fish species in the 
Colorado River Basin.
    In response, representatives of the U.S. Department of the 
Interior, Arizona, California, Nevada and Native American tribes, along 
with various stakeholders and water and power agencies along the Lower 
Colorado River, have formed a regional partnership, which is developing 
a first-of-its kind Multi-Species Conservation Program (MSCP) aimed at 
protecting sensitive, threatened and endangered species of fish, 
wildlife and their habitat.
    The partnership formed a 35-member steering committee, which has 
been designated by the U.S. Fish and Wildlife Service as an Ecosystem 
Conservation Recovery Implementation Team (ECRIT) under the federal 
Endangered Species Act. The steering committee has retained the 
services of professional facilitator and technical consultant teams to 
help develop a plan for the MSCP. The MSCP is scheduled for completion 
in Fall 2002.

                          PROGRAM DESCRIPTION
    The MSCP will work toward the recovery of listed species through 
habitat restoration and species conservation, and reduce the likelihood 
of additional species listings under the federal and California 
Endangered Species Act.
    The MSCP planning area includes the historic floodplain of the 
Lower Colorado River and reservoir full-pool elevations from Lake Mead 
to the Southerly International Boundary with Mexico. MSCP habitat 
restoration and preservation activities are intended to address the 
following habitat types: aquatic, wetland/marsh, riparian and upland 
desert fringe. It is the intent of the MSCP to re-vegetate native 
cottonwood-willow and mesquite trees in the floodplain, and remove the 
non-native salt cedar, or tamarisk, that has become established.
    The MSCP will be implemented over a 50-year period. The long-term 
program is also intended to accommodate current water diversions and 
power production and optimize opportunities for future water and power 
development. This comprehensive program will provide long-term 
environmental compliance for participating federal agencies, pursuant 
to Section 7 of the federal Endangered Species Act, and non-federal 
agencies under Section 10. California Agencies will also pursue 
programs and actions to achieve compliance with California 
Environmental Quality and Endangered Species Acts.
    Over the past four years, interim conservation measures (ICMs) have 
been developed and implemented to address the immediate critical needs 
for certain endangered species. ICMs benefiting the endangered 
Razorback Sucker, Bonytail and Southwestern Willow Flycatcher were 
initiated.

                        PROGRAM DEVELOPMENT COST
    Current program development costs are projected at about $6.7 
million over five years for planning needs and implementation of ICMs. 
A federal/non-federal cost-sharing agreement is in place for 
development of the program and implementation of interim conservation 
measures. The federal and non-federal participants shared program 
development costs on a ``50/50'' basis. Among the non-federal 
participants, the shares were distributed as follows: 50 percent of the 
non-federal share was borne by California, 30 percent by Arizona, and 
the remaining 20 percent by Nevada.

                         PROGRAM IMPLEMENTATION
    The MSCP will be implemented over the fifty-year period beginning 
in late-2002. However, MSCP proponents are desirous of implementing a 
series of ``pilot projects'' in order to begin evaluating potential 
habitat restoration and species conservation technologies within the 
planning area. Additionally, the pilot projects would be supplemented 
with species and habitat monitoring and research programs, providing 
the basis for a comprehensive adaptive management approach.
      proposed planning & implementation pilot project description
    In order to complete the Lower Colorado River MSCP by Fall 2002, 
and support Reclamation's continued compliance with the 1997 biological 
opinion, the MSCP Steering Committee has identified several critically 
needed planning projects which, if developed, ensure overall 
comprehensiveness of the MSCP. These planning projects are necessary to 
accomplish the following:
  --Provide additional or lacking species and habitat data, evaluations 
        and analyses ($200,000);
  --Provide critically needed groundwater and soils data ($200,000);
  --Provide for the development of conservation opportunity area site 
        suitability assessments ($500,000);
  --Develop conceptual habitat restoration site designs for 
        approximately six sites within the MSCP planning area 
        ($500,000);
  --Develop digital elevation mapping (1-2 foot contour intervals) 
        within the MSCP planning area ($200,000);
  --Develop updated detailed vegetation mapping within the MSCP 
        planning area ($200,000);
  --Provide funds for completion of conservation planning on the 
        Colorado River Indian Reservation ($500,000);
  --Provide funds to the California Department of Fish and Game, 
        through the U.S. Fish and Wildlife Service, in support of the 
        Natural Communities Conservation Planning Act requirements and 
        requisite Scientific Review Panel ($200,000); and,
  --Provide funds for completion of the development of the LCR MSCP 
        ($500,000).

                         PILOT PROJECT FUNDING
    It is respectfully requested that this suite of proposed LCR MSCP 
habitat conservation planning and data acquisition projects should be 
funded with an additional appropriation of $3.0 million to the U.S. 
Fish and Wildlife Service's Habitat Conservation Planning budget line 
item.
                                 ______
                                 
            Prepared Statement of the Choctaw Indian Nation
    On behalf of the Choctaw Indian Nation of Oklahoma, I would like to 
present the following statement representing our funding requests, for 
your consideration in the fiscal year 2002 Bureau of Indian Affairs 
(BIA) and Indian Health Service (IHS) budgets. In addition, we have 
also identified several national concerns and recommendations for your 
consideration.
                tribal-specific appropriation priorities
    1. $40 million added to the Indian Health Services Division of 
Facilities & Environmental Engineering (DFEE) to rebuild two tribally-
owned clinics on the Choctaw Reservation which will expand the Tribe's 
health service delivery capability.
           self-governance and other national considerations
    1. Restore $256,000 for the Self-Governance Communication and 
Education Project;
    2. Provide increase for IHS and BIA to fully fund Contract Support 
Cost (CSC) to address documented Tribal needs;
    3. Provide a minimum of $25,000,000 in BIA Tribal Priority 
Allocation (TA) General Increase for inflationary adjustment;
    4. Provide $325,000,000 increase for IHS unfunded mandatory, 
medical inflation, pay costs and population growth needed to maintain 
existing health care services;
    5. +$5 million in the IHS Division of Clinical and Preventive 
Services to support Oral Health Initiative;
    6. Provide increases to allow for Improved Data Quality in the IHS 
Division of Information Resources;
    7. Increase of $100,000 in the Self-Governance Office in DOI for 
the Tribal Leaders Self-Governance Advisor Committee; and,
    8. Support all requests and recommendations of the National 
Congress of American Indians.

                 TRIBAL SPECIFIC APPROPRIATION REQUEST
    $40 million added to the Indian Health Services Division of 
Facilities & Environmental Engineering (DFEE) to rebuild two tribally-
owned clinics on the Choctaw Reservation which will expand the Tribe's 
health service delivery capability to an under-served population in 
southeastern Oklahoma.
    The Choctaw Nation Health Care Center in Talihina, Oklahoma opened 
its doors in June 26, 1999. We were the first tribe anywhere in the 
United States to build and open our own hospital which is comprised of 
147,000 square feet and is built in five main sections. This new Health 
Care Center features a huge array of services, such as respiratory 
therapy, outpatient surgery and a women's health clinic. Additional and 
improved services at the new facility will greatly decrease the need 
for contract health referrals.
    Even with the new health center, we are still unable to provide 
ample health services to an under-served population of members 
throughout the southeastern Oklahoma corridor which comprises the 
Choctaw Nation. The health service needs of the Choctaw people, exceeds 
its capability and capacity to fulfill these needs because of the 
remoteness of the reservation.
    We are therefore requesting funds to rebuild two deteriorated 
clinics, which currently have limited capacity, on the Choctaw 
Reservation. Both the McAlester and the Broken Bow clinics are more 
than thirty-year old facilities. Our patient load requires additional 
service capability, even with the Health Care Center in TalihinaI. If 
these facilities were rebuilt and equipped with state-of-the-art 
technology, we could expand the capability of the Health Care Center 
with these satellite facilities which would allow much better access to 
health services by our people.
    Our service delivery area is comprised of 10\1/2\ counties in the 
southeastern part of Oklahoma. Our need is as great as any comparable 
service area in a metropolitan city. Yet, due to the lack of 
accessibility such services by our people, there are medical needs 
which can not be addressed because there are not enough accessible 
facilities to take the needed health services to the people.
    We ask the Committee to consider our request of $40 million to 
rebuild these two clinics on the Choctaw Reservation.

                 NATIONAL AND SELF-GOVERNANCE REQUESTS
    Restore $256,000 to Self-Governance Office in order to fund the on-
going Self-Governance Communication and Education Project (SGCEP).--We 
are concerned that the Administration's proposal seeks to eliminate 
critical funding for these Self-Governance activities. Over the past 10 
years, the SGCEP has provided technical assistance and factual 
information about Self-Governance. There are now over 266 Tribes 
implementing Self-Governance and the request for information regarding 
this initiative continues to increase. The SGCEP is vital to ensure 
that Self-Governance and its purposes are clearly understood and 
consistently developed by participating Tribal governments, federal 
agency officials and non-participating Tribes. The funding for this 
Project has never been increased and is now inadequate to keep up with 
information request. We respectfully request that this funding not only 
be restored, but increased to meet the real cost of providing these 
communication services.
    Increase BIA and IHS Contract Support Cost (CSC) Funds to address 
documented need.--CSC funds are required for Tribes to successfully 
manage their own programs. While the Administration's budget request 
for fiscal year 2002 includes a modest increase for CSC--(1) an 
additional $65 million is needed in IHS (excluding the $40 million that 
has been estimated, but negotiated for the new Navajo Nation contract 
proposal); and (2) an additional $25 million is needed in BIA to fully 
fund CSC (excluding direct contract support costs). This shortfall 
continues to penalize Tribes which elect to operate BIA and IHS 
programs under the self-determination policy. Additional CSC 
appropriations are needed to implement the self-determination and self-
governance policy as supported by Congress. We urge the Subcommittee to 
fully fund CSC for Tribes equal to how other contractors are funded 
within the federal government.
    Provide a minimum of $25,000,000 in BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary adjustments.--Although the 
Administration's budget request for fiscal year 2002 includes a $17.5 
million increase over fiscal year 2001, this is the third year in a row 
that the request contains no general increase for TA. This activity 
includes the majority of the funds used to support on-going services at 
the local Tribal level including such programs as housing, education, 
natural resource management and Tribal government services. A recent 
Congressional Research Service (CRS) Report on Indian-related federal 
spending trends for fiscal years 1975-2000 states increases in the 
combined BIA/Office of Special Trustee ``current'' dollars averaged $46 
million per year. But as ``constant'' dollars (adjusted for inflation), 
there has actually been a decline of approximately $6 million per year. 
Over this 25-year period, the total is $150 million! At a minimum, the 
requested amount will provide for a modest 3.5 percent inflation 
adjustment for existing Tribal programs and services. We further 
recommend that TA be revised and possibly re-named ``Tribal Family & 
Community Services'' to better reflect the true nature and intent of 
these programs. We believe that this title will help the Congress 
better understand the use of these resources.
    Provide $325 million for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services.--In 
fiscal year 2000, IHS and Tribal programs had to absorb over 50 percent 
of mandatory and inflationary cost increases; in fiscal year 1999, 50 
percent was absorbed; and, in fiscal year 1998, 70 percent was 
absorbed. This has been the pattern for the past 8 years. These costs 
are unavoidable and include medical and general inflation, pay costs 
and staff for recently constructed facilities. Mandatories should be 
the first consideration in budget formulation. If unfunded, these cost 
increases will result in further health service reductions in our 
Tribal communities.
    Provide funding of $5 million in the IHS Division of Clinical and 
Preventive Services to support the Tribal Leaders Oral Health 
Initiative.--This initiative seeks to improve oral health status and 
increase access to oral health services for Indian people. Indian 
people experience dental disease at rates 2 to 10 times the national 
average and Tribes currently have great difficulty recruiting dental 
staff with 25 percent of dentist positions currently vacant. The $5 
million will permit the tribes to increase their recruitment 
activities, improve availability of community water fluoridation, and 
collaborate more effectively with the IHS and other partners to curb 
the epidemic of oral disease that confronts Indian people.
    Provide increases to allow for Improved Data Quality in the IHS 
Division of Information Resources.--Tribes are not equipped or 
financially able to respond to the information gathering and reporting 
requirements as identified in the Governance Performance and Reporting 
Act without additional funding to update their reporting capability at 
the reservation level. Unlike States, they do not receive the 
assistance from the Federal government to maintain data collection 
practices and technology. We therefore, request that the Committee 
seriously considers increasing funds for this effort. Otherwise, the 
expectations that the remotest of remote populations in this country 
[Tribal communities] can participate in or keep pace with the 
economical benefits associated with or resulting from data collection 
and reporting is truly an unfair expectation.
    Increase of $100,000 in the Self-Governance Office in DOI for the 
continuance of the Tribal Leaders Self-Governance Advisory Committee.--
This Committee provides advice and guidance to the Assistant Secretary 
for Indian Affairs on key policy issues that impact Self-Governance 
Tribes and has proven to be an effective forum for Tribal leaders to 
debate and discuss these issues.
    Support all request and recommendations of the National Congress of 
American Indians.
    Thank for your allowing me provide this statement.
                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission
    The Colorado River Basin Salinity Control Forum, of which I am a 
member, is comprised of representatives of the seven Colorado River 
Basin States appointed by the respective Governors of the States. The 
Forum has examined all of the features needed to control the salinity 
of the Colorado River. Those features include, in addition to BLM, 
activities by the States, the Bureau of Reclamation and the Department 
of Agriculture. Because of the budgeting process utilized by BLM, I can 
only presume that there are adequate dollars in BLM's proposed budget 
to proceed with water quality protection programs needed in the 
Colorado River Basin to ensure that excess amounts of salts are not 
contributed to the river system. The President's budget is unknown at 
this time.
    BLM is the largest land owner in the Colorado River Basin and much 
of the lands that are managed by the BLM are heavily laden with salt. 
When salt-laden soils erode, the salts are dissolved and remain in the 
river system affecting the quality of water used from the Colorado 
River by the Lower Basin States and Mexico. BLM needs to target the 
expenditure of funds in the amount of $5,200,000 in fiscal year 2002 
for activities that benefit salinity control in the Colorado River 
Basin. It is particularly of concern that the line item titled 
Management of Lands and Renewable Resources is adequately funded. In 
addition, BLM needs to target the expenditure of $800,000 of the 
$5,200,000 specifically for salinity control projects. Experience in 
past years has shown that BLM projects are among the most cost-
effective of the projects undertaken to control salinity in the 
Colorado River Basin.
    The water quality standards adopted by the Colorado River Basin 
States include a plan of implementation that has a goal of 38,000 tons 
of salt per year to be removed or controlled by BLM from reaching the 
Colorado River to prevent exceedance of the standards and unnecessary 
damages in the United States. Recent studies show that every increase 
of 30 milligrams per liter of salinity in the waters of the Colorado 
River can cause an incremental increase in damages of $100,000,000 in 
the United States. Control of salinity is necessary for the Colorado 
River Basin States, including New Mexico, to continue to develop their 
compact-apportioned waters of the Colorado River.
    The salinity control program has been adopted by the seven Colorado 
River Basin States and approved by the EPA as a part of each state's 
water quality standards. Water delivered to Mexico in the Colorado 
River is subject to Minute 242 of the United States treaty with Mexico 
that sets limits on the salinity of the water.
    I believe that the Federal Government has a major and important 
responsibility with respect to controlling salt discharge from public 
lands. Congress has charged the Federal agencies to proceed with 
programs to control the salinity of the Colorado River basin with a 
strong mandate to seek out the most cost-effective solutions. It has 
been determined that BLM's rangeland improvement programs can lead to 
some of the most cost-effective salinity control measures available. In 
addition, these programs are environmentally acceptable and will 
control erosion, increase grazing opportunities, produce dependable 
stream run-off and enhance wildlife habitat.
    I request the appropriation of $5.2 million in fiscal year 2002 for 
BLM for Colorado River salinity control activities of BLM in its budget 
line item Management of Lands and Renewable Resources. Also, I request 
that $800,000 of that amount be marked specifically for the Colorado 
River Basin Salinity Control Program. I would very much appreciate any 
favorable consideration that you may be able to give to these requests. 
I fully support the statement of the Colorado River Basin Salinity 
Control Forum submitted by Jack Barnett, the Forum's Executive 
Director, in request of appropriations for BLM for Colorado River 
salinity control activities.
    BLM has not had a history of adequately reporting its efforts, the 
associated expenditures and its accomplishments with respect to 
Colorado River salinity control. Legislation passed last year (Public 
Law 106-459) requires BLM to report its program for salinity control to 
the Congress. I fully support this requirement. It is commendable that 
BLM's budget focuses on ecosystems and watershed management, but it is 
essential that funds be targeted on specific subactivities and the 
results of those expenditures reported. This is necessary for 
accountability and for the effectiveness of the use of the funds. I 
request that the Committee require accounting by BLM that reports the 
results of salinity control activities in connection with activities 
that benefit salinity control.
                                 ______
                                 
        Prepared Statement of Crownpoint Institute of Technology
    This testimony addresses appropriations to U.S. Department of 
Interior, Bureau of Indian Affairs. Activity: Special Programs and 
Pooled Overhead: Subactivity: Community Development.
    The Crownpoint Institute of Technology (CIT) requests $1.8 Million 
appropriated through the authorizing authority of Public Law 84-959, 
``The Adult Vocational Training Act.'' This Act enables appropriations 
for tribally controlled vocational/technical colleges, which are not 
eligible to participate under Public Law 95-471, ``The Tribally 
Controlled Community Colleges and Universities Assistance Act.'' There 
are only two such tribal colleges in the nation: Crownpoint Institute 
of Technology and United Tribes Technical College in Bismarck, North 
Dakota.
    On behalf of the hundreds of primarily New Mexico and Arizona 
citizens whose lives are greatly improved through the vocational 
educational offerings of CIT, I thank you Mr. Chairman and Members of 
this Subcommittee for your fair and generous assistance in fiscal year 
2001 in the amount of $897,000. This funding has been critical in 
keeping our institution in operation.
    We believe that the Subcommittee is already aware that the CIT is a 
postsecondary vocational/technical educational Institution. CIT is 
chartered by the Navajo Nation, licensed by the State of New Mexico, 
and fully accredited as a postsecondary educational institution by the 
North Central Association of Colleges and Schools. In academic year 
2000-2001, CIT enrolls 492 students (headcount), or 423 Indian Student 
Count/Full Time Equivalency (FTE). Most students reside on the CIT 
campus. CIT exists entirely as a postsecondary educational institution, 
campus based on reservation with dormitory student housing.
    The Administration's fiscal year 2002 Budget Request to the 
Congress proposed a decrease of $897,000, essentially an elimination of 
CIT's entire BIA funding. The appropriation has been utilized to 
support the operations of our educational institution. The Interior 
funding has enabled CIT to remain in operation. This proposal to 
eliminate our educational institutions funding is particularly 
perplexing in that ``Education'' is a stated top priority of President 
Bush's Administration. Eliminating this funding would close down the 
only vocational/technical college on the Navajo Nation. In fact, the 
proposal to eliminate CIT's funding would be the only tribal college in 
the nation so affected. No other tribal college is target for 
elimination in the Administration's proposal. In view of this, it seems 
possible that the Administration proposal to single out one tribal 
college and close it down by eliminating its funding may be based on 
some misunderstanding about what kind of an entity CIT is.
    The Crownpoint Institute of Technology, located on the Navajo 
Reservation, is a tribal college according to every definition of a 
tribal college. CIT's is a vocational/technical college with emphasis 
on vocational/technical education. It is our understanding that CIT is 
funded under an authorizing statute, Public Law 84-959, ``The Adult 
Vocational Training Act,'' and is therefore not a line-item or earmark. 
Providing appropriations to CIT does not give CIT favored treatment, 
but rather is equitable because there is no tribal college in existence 
that does not receive Interior appropriations. There are only two 
tribally controlled vocational/technical colleges in the nation, and 
they are referenced by name in the appropriations report. All other 
tribally controlled colleges in the nation are funded under the 
``Tribally Controlled Community Colleges and Universities Assistance 
Act,'' Public Law 95-471. However, CIT is not eligible to receive 
Interior funding under this Act due to a technical restriction in the 
law, not because there is any question that CIT meets the institutional 
definition requirements as a Tribal College. The technical restriction 
in the Tribal Colleges Act that precludes CIT and UTTC is a provision 
that limits each tribe to one college. Except for this provision of one 
college per tribe, CIT is fully eligible to be funded as a tribally 
controlled college because CIT is a tribally controlled college.
    On it's surface, the one college per tribe limitation may seem 
reasonable. However, under closer examination, the limitation is 
reasonable only if all tribes draw from tribal enrollments that can be 
reasonably served by one college. That is, that all tribes have 
approximately equal populations. In nearly all instances, one college 
can more than adequately serve one tribe's population. The population 
of most tribes having one tribal college funded by Interior 
appropriations ranges from 3,000 to 10,000 members. However, the 
population of the Navajo Nation is approximately 200,000. The three 
States of Montana, North Dakota and South Dakota have a combined Native 
American population of approximately 78,000: yet, these sixteen tribes 
each have a tribal college. Sixteen tribal colleges serve a tribal 
population that combined is only 39 percent the size of the Navajo 
population. In the case of North Dakota, each tribe charters one tribal 
college and in addition charters a second, the United Tribes Technical 
College. The Native American population for the entire State of North 
Dakota including urban and off-reservation areas is only 30,108 (2000 
U.S. Census), or 15 percent of the population of the Navajo tribe. Yet, 
North Dakota has five tribal colleges funded by Interior 
appropriations.
    The size of the reservation served by a tribal college is an 
additional factor in determining the need for a second tribal college. 
A significant factor in the founding of all tribal colleges was the 
geographic absence of higher education access for tribal members. The 
Navajo Reservation is 26,897 square miles, extending over three State 
borders (New Mexico, Arizona and Utah). This one tribe's reservation is 
slightly smaller than the combined five New England States of New 
Hampshire, Vermont, Massachusetts, Connecticut and Rhode Island: and 
slightly larger than the entire State of West Virginia. The driving 
time across the Navajo Reservation is nine hours. In the situation of 
the Navajo Nation, the factors of distance and population combine to 
justify the need for a second tribal college.
    The Navajo Nation is not the only tribe having a second tribal 
college funded by Interior appropriations. The four tribes of North 
Dakota, which charter the United Tribes Technical College (UTTC) in 
Bismarck, North Dakota, each already have one tribal college funded by 
Interior under the Tribal Colleges Act: (1) Turtle Mountain (2) Ft. 
Berthold (3) Little Hoop and (4) Sitting Bull, in addition to UTTC 
which is the fifth college.
    In fact, the Tribal College Act restriction of one college per 
tribe has not prevented the advent of seven Sioux tribal colleges, 
three Assinoboine tribal colleges and two Chippewa tribal colleges. 
Ostensibly, different ``bands'' among a tribe such as the Sioux or 
Chippewa, creates a loophole in the tribal college law that enables 
multiple colleges to one tribe. However, the different ``clans'' of the 
Navajo tribe are essentially the same as the bands among other tribes.
    Additional justifications CIT has been provided as to why some 
tribes should have a second tribal college funded under Interior 
appropriations while Navajo Nation should not include the assertion 
that tribal colleges which recruit from a national, multi-tribal 
population require additional funding. There are three colleges in the 
nation which were chartered to serve a national, multi-tribal 
enrollment, (1) Haskell, (2) Southwest Indian Polytechnic Institute and 
(3) Institute of American Indian Arts. These colleges are not tribally 
controlled colleges, but are either currently or formerly owned and 
operated by the Bureau of Indian Affairs and were originally founded to 
serve multiple tribes. Unlike tribally chartered colleges, a particular 
tribe did not found these colleges. The fact is that most tribal 
colleges, founded by one tribe, do indeed enroll students from other 
tribes. This evolution is primarily a result of tribal members 
relocating to other reservations and/or inter-tribal marriages over 
generations. This situation does not alter a tribal college's charter 
or mission, nor does it alter a tribal college's operational funding 
need. Tribes founded colleges because the population in the immediate 
area lacked accessible higher educational opportunities. Tribes have 
not traditionally founded colleges in order to secure federal funding 
to establish national, multi-tribal college-recruiting students from a 
national population. This situation would be the antipathy of the 
reasons for creating tribal colleges in the first place. CIT is open to 
and welcomes applicants of all tribal affiliations as well as non-
Indian citizens. As just one example, CIT has re-trained displaced non-
Indian uranium workers from neighboring towns. The fact remains that 
CIT was founded on the Navajo Reservation because there was a 
significant unmet need for accessible higher education opportunities 
among the citizens of the immediate geographic area. This significant 
tribal population had a dire unmet need due to the absence of 
accessible postsecondary vocational/technical educational opportunity. 
Each year, CIT must turn away approximately 200 otherwise qualified 
applicants from the outlying reservation area due to the insufficiency 
if campus facilities. CIT is a dormitory-based college including single 
and married student housing as well as commuters. The town of 
Crownpoint, New Mexico is a reservation activity center including an 
Indian Health Clinic. Nonetheless, rental housing for commuting 
students is exceedingly scarce. CIT's operational costs as a campus-
based, vocational/technical college enrolling students from primarily 
one tribe spread over one 26,897 square mile reservation are 
essentially similar to a tribal college recruiting students from 
multiple tribes. The number of tribes from which enrollment is 
recruited seems extraneous to determining funding need. The number of 
students regardless of how many tribes they came from seems to be the 
most significant factor for determining the appropriations need for a 
tribal college.
    The U.S. Congress has developed a long-standing policy over the 
past three decades to provide federal assistance through BIA to 
tribally owned and operated on-reservation educational institutions. 
This Indian Self-Determination policy resulted in equalizing the 
inequity of K-12 funding for Bureau and tribal-contract schools (Public 
Law 95-561), for tribally controlled colleges (Public Law 95-471) and 
for tribally controlled Postsecondary Vocational Technical colleges 
(Public Law 84-959). If CIT is excluded from Interior appropriations, 
it will be the only tribally controlled educational institution in the 
nation that is eliminated. As a result, CIT will assuredly be forced to 
close its doors.
    CIT offers thirteen certificate and seven Associate of Applied 
Science degree programs in high employment demand fields of study. CIT 
is in process of developing two additional programs of Dental Assistant 
and Health Technician to respond to the employment demand in these 
fields as well. CIT has an outstanding student retention rate averaging 
85 percent over eight years, and an outstanding job placement rate 
averaging over 80 percent for that same time. The BIA has even cited 
CIT's outstanding placement rate in past budget submission to the 
Congress. CIT's student body is comprised of 51 percent men and 49 
percent women. The average student age is 26, although the actual range 
is 18 to 64. CIT offers day care of single parent families and 
parenting skills courses are required for participation. CIT graduates 
earn an average entry-level salary of $15,000 and of that contribute an 
average of over $2,000 annually to federal taxes. Over 10,000 students 
graduate from high school on the reservation each year. Only 6 percent 
of these young men and women are bound for off-reservation colleges. 
CIT enables these young men and women to gain meaningful vocational 
skills and acquire life-long employment opportunities.
    Like nearly all the nation's other tribal colleges, CIT has relied 
on multiple sources of funding for its existence. CIT's Congressional 
Delegation has encouraged and lauded our efforts. For the past twelve 
years, CIT has relied on Labor, HHS, Education Appropriations to the 
U.S. Department of Education for Carl D. Perkins Vocational Education 
Act, Section 117 funding for a significant portion of support for its 
base operations. This funding has been distributed to United Tribes 
Technical College and Crownpoint Institute of Technology. The statute 
calls for funding allocation based on Indian Student Count, however 
actual allocations have been made otherwise. Over the past three years, 
USDE has significantly decreased CIT's funding under this section every 
year even though our Indian student count has been increasing. On March 
23, 2001, USDE published its intent to eliminate this funding and award 
it by competition. CIT will lose either $700,000 or all of its funding 
under this radical redirection. USDE invoked this change without a 
public comment period or proposed rulemaking notification. CIT was 
completely unprepared for this loss of USDE funding, which has been our 
only other source of stable operational funding. The competition will 
be open to all tribal colleges, which already have their own 
competitive set-aside under Section 116 Indian program which is an 
amount more than double that of Section 117. The net effect of this 
situation for the Crownpoint Institute of Technology is that CIT now 
has no stable source of federal funding which it can rely on to keep 
our doors open. We urge this Subcommittee to provide CIT a stable base 
of operational funding as it does for all the nation's tribal colleges 
and as it also does for the only other tribal vocational college, UTTC. 
We deeply appreciate this Subcommittee's consideration of our urgent 
request for equity in appropriations that will enable the continuation 
of CIT.
                                 ______
                                 
             Prepared Statement of the Oglala Sioux Nation
    The Oglala Sioux Tribal Department of Public Safety submits this 
statement in support of increased funding for the Department of Public 
Safety in the fiscal year 2002 appropriation for the Bureau of Indian 
Affairs. The Department of Public Safety supports the Administration's 
request for an increase of $5 million for tribal detention programs 
nationwide. The Department of Public Safety specifically requests an 
increase of $7.49 million for the operation, maintenance and 
improvement of our law enforcement system on the Pine Ridge Indian 
Reservation. The increase includes $2.199 million for the transfer of 
74 current law enforcement officers to the Department's 638 contract 
from a Department of Justice grant and $5.295 million to provide for 
needed law enforcement officers, detention officers, criminal 
investigators, traffic officers, and telecommunications officers, as 
well as additional training, insurance, and equipment.

                               BACKGROUND
    The Department of Public Safety is the Tribe's law enforcement 
program and was granted a charter by the Oglala Sioux Tribal Council 
(the ``Tribe'') and now operates under an Indian Self-Determination and 
Education Assistance Act Contract (``638'' contract). The Department of 
Public Safety's 638 contract is with the Bureau of Indian Affairs 
(``BIA'') in the United States Department of the Interior. The 
Department of Public Safety has operated the Tribe's law enforcement 
program since 1976. The Tribe's reservation, the Pine Ridge Reservation 
of South Dakota, encompasses approximately 2.8 million acres (the third 
largest in the United States) and has an on-reservation tribal 
membership of 35,000 and a service population of 50,000. The Department 
of Public Safety patrols the roads (paved, gravel and dirt) on the Pine 
Ridge Reservation which extend for 1,074 miles.
    The Tribe is very proud of its law enforcement program and the 
strides it has made in the past 25 years. Unfortunately, a large 
population increase combined with some of the highest rates of poverty 
and other social ills on the reservation have led to an increase in 
crime rates. Crime incidences are up generally 7.5 percent in the past 
five years.
    The work is dangerous and the Tribe is very grateful for the men 
and women who put their lives at risk each day. We have attached two 
short news articles that stress the danger and the need for more 
funding.
    The Tribe's current 638 contract with the BIA provides for $3.013 
million in direct funding and approximately $1.2 million in indirect 
costs (a total of $4.213 million). The Department of Public Safety also 
currently receives $2.199 million from the Department of Justice's 
Comprehensive Indian Resources for Community and Law Enforcement 
(CIRCLE) and the Community Oriented Policing (COPS) programs which 
provides for 64 law enforcement officers, 6 traffic services officers 
and 4 school resources officers.
    The Department of Public Safety currently employs 101 officers, 27 
from the BIA 638 contract and 74 from the CIRCLE and COPS program 
grants.

                                 NEEDS
    The Department's force is still severely undermanned and is far 
below the national statistical average of 3 officers to every 1,000 
citizens. Based on that ratio, and the fact that there are 50,000 Pine 
Ridge Reservation residents, the Department of Public Safety should 
have approximately 150 officers on its force. In other words, the 
Department should add 50 additional officers on patrol from its current 
patrol size.
    The Reservation has high incidences of alcohol and drug abuse, 
domestic violence, assaults, alcohol-related traffic offenses, 
trafficking in drugs and alcohol, child abuse, child neglect and other 
crimes which require investigation and action. In 2000 there were 181 
major offenses, 3,851 traffic offenses, and 22,309 misdemeanors and 
minor offenses including 22 assaults with a deadly weapon, 838 public 
intoxication, 86 assault and batteries, 129 thefts, 388 disorderly 
conducts, and 684 instances of leaving a juvenile in need of care, as 
well as 139 executions of federal warrants on the Reservation. 
Unemployment on the Reservation ranges from 80 to 90 percent yearly.
    The Department of Public Safety' current BIA 638 contract amount of 
$3.013 million in direct costs is not enough to fully run its program, 
and the Tribe is exceptionally worried about the potential layoff of 75 
percent of its force when the COPS and CIRCLE program grants run out at 
the end of fiscal year 2002. Thus, the Tribe must plan on finding 
funding for the 74 officers they are going to lose, as well as an 
additional 50 officers needed to police the Reservation.

                                REQUEST
     Officers.--The Department of Public Safety has historically not 
received adequate funding from the BIA under its 638 contract. With a 
service population of 50,000, the Department would need 150 officers to 
meet the national standards mentioned above. In fact, the Department 
would need about 112 officers just to meet the BIA average level of law 
enforcement services, based on its service area and population. But the 
Department has never been able to hire anywhere near this many 
officers.
    In fact, without the grants from the Department of Justice, the 
number of officers on the Reservation would total just 18 percent of 
the actual number of needed officers.
    The training the law enforcement officer have received through the 
CIRCLE and COPS grants has been invaluable. Officers are being trained 
to do community policing throughout the Reservation utilizing a 
cultural approach that emphasizes a traditional ``Akicita'' (warrior) 
society approach to policing.
    The Department is seeking an increase in funding from the Bureau of 
Indian Affairs to its 638 contract in the amount of $7.49 million 
dollars in direct and indirect costs to fully fund its current 
operations and transfer the 74 officers paid from the CIRCLE/COPS grant 
to the Department's 638 contract. The funding would also allow the 
Department to hire an additional 17 juvenile detention officers for the 
new detention center, and 18 new adult detention officers for the Pine 
Ridge and Medicine Root detention centers..
    The $7.49 million increase would also fund the addition of badly-
needed 12 criminal investigators, and 1 new telecommunications 
supervisor.
    Training, equipment, insurance, and vehicles.--The $6.8 million 
increase includes $2.059 million for the direct cost of operations 
which includes training for the new officers, investigators, and 
traffice services officers. The $2.059 million would also provide for 
training in domestic violence response, child abuse investigations, and 
drug traffiking.
    Our officers and criminal investigators do not have all of the 
equipment they need to perform their jobs. We have been working to 
correct the situation, but we cannot remedy the problem without 
increased funding. For instance, the Department's communications system 
needs to be computerized and enhanced. With the increase in incidences 
on the Reservation, the need for an upgrade has increased. Thus, $2.059 
million request for direct operations costs also includes funding for 
the lease of new vans and cruisers to replace the outdated fleet, as 
well as safety equiment for the new officers, additional insurance, 
computer upgrades, and a modified police communications system which we 
have been requesting for several years.
    Juvenile and Adult Detention Centers.--The Department is also 
requesting $231,500 for the operation costs of the new Juvenile 
Detention Center that is being built. This funding would pay for 
training, equipment, phones, inmate care and food, maintenance and 
training. As previously mentioned, the Department is seeking funding 
for 17 new juvenile detention officers.
    Furthermore, the Department's request includes $247,500 for the 
direct operations costs of operating the two existing adult detention 
facilities. The new money would allow the Department to pay for inmate 
food ($100,000 a year) as well as inmate hygiene products and care, 
supplies and equipment.

                               CONCLUSION
    In furtherance of its recognition and support for law enforcement 
generally, and for the safety and welfare of the Indian people, the 
Department resspectfully requests that Congress fund an increase of 
$7.49 million earmarked for the Department of Public Safety's law 
enforcement program.

         BIA COPS: LITTLE FUNDING FOR BIG PROBLEMS, MAY 2, 2001
    Kelmar One Feather was alone when he was called to duty on the Pine 
Ridge Reservation in South Dakota, responding to a report of two men 
driving while drunk.
    A 18-year veteran of the Oglala Lakota police force, Officer One 
Feather responded like any officer would and picked the two men up. But 
before he could reach the reservation's detention facility, he lost 
control of his vehicle and it overturned.
    No one can say with certainty what happened on July 1, 2000. One of 
his men died in the accident. The other survived, yet was too 
intoxicated to recall what happened, falling in and out of sleep during 
the ride.
    But the accident could have been prevented, say fellow law 
enforcement authorities. As is often the case throughout Indian 
Country, One Feather didn't transport the men in a standard police car 
but in a sports utility vehicle with no security screen, no security 
features, and no assurances that his detainees didn't interfere with 
the father of three and cause the tragic accident.
    Officer One Feather died.
    One Feather tomorrow joins an ever-growing list of Bureau of Indian 
Affairs and tribal police officers who have died while on duty. At a 
special ceremony in New Mexico, One Feather's name will be added to the 
Indian Country Law Enforcement Officer's Memorial, a tribute to the 78 
cops whose deaths are largely the result of underfunded, understaffed, 
and overworked Indian police forces throughout the country.
    Men like White Mountain Apache Officer Tenny Gatewood, Jr., killed 
in 1999 while responding to a burglary call on a remote part of the 
Arizona reservation. Women like Officer Esther Todacheene, who died in 
1998 while on duty serving the Navajo Nation.
    Despite numerous Department of Justice reports pointing out the 
dire crime, violence, and jail problems that exist in Indian Country, 
funding for law enforcement remains low. In 2001, just $157 million was 
allocated for all of the Bureau of Indian Affairs' police programs 
while officials say at least $500 million is needed.
    And while there are only about 2,600 officer serving tribes, there 
should be, at minimum, 4,300 men and women on the job, say officials. 
The rural and isolate characteristics of many large reservations pose 
special requirements on police forces yet most don't have the funding 
to fulfill the need. Advances made during the Clinton years have helped 
Indian Country efforts. In 1998, the President directed then Attorney 
General Janet Reno and then Secretary of Interior Bruce Babbitt to 
study Indian law enforcement conditions.
    The immediate result was an increase in funding. After more than 20 
years of no significant movement, the BIA's law enforcement budget has 
been increased by $49 million since the study's release.
    Other improvements aimed at tribes include the Community Oriented 
Police Services program (COPS). The program, however, is in danger of 
being cut by the Bush administration just as American Indian men and 
women are the victims of crime at more than twice the rate of the rest 
of the country.
    In spite of all the dangers, young men and women are seeking to 
join BIA and tribal police forces. But they also continue to die. So 
far this year, Indian Country has seen the death of 22-year-old Officer 
Creighton Spencer. Working on average 55 hours a week, Spencer on March 
25 lost control of his vehicle while responding to a call in eastern 
Nevada, where he serves Indian communities as many as 400 miles apart.
    Spencer's name will be added to the memorial next year.

         NORTON LISTENS TO TRIBAL POLICE TRAGEDIES, MAY 3, 2001
    Secretary of Interior Gale Norton on Wednesday heard some of the 
most compelling voices in Indian Country as caller after caller to a 
nationally broadcast radio program told stories of underfunded, 
understaffed, overworked, and overstressed tribal police officers who 
put their lives on the line every time they go to work.
    ``Law enforcement is pretty scary on the reservation here in New 
Mexico,'' said an anonymous officer serving a Pueblo in the northern 
part of the state. Most of the time, he said, ``you'll be the only one 
patrolling'' an entire reservation. ``I'm a tribal police officer for 
Standing Rock [reservation in North and South Dakota] and I've heard a 
lot of talk about reservations being short handed,'' said Leigh. 
``That's what ours is right now.''
    But perhaps the most convincing words came from family members of 
two recently deceased police officers. The sister-in-law of Officer 
Tenny Gatewood, Jr. said the White Mountain Apache Tribe suffered 
greatly when he was killed in 1999 while responding to a burglary call 
on a remote part of the Arizona reservation.
    ``When this happened--because it was the first time--it hit the 
community tremendously,'' said Dorene. ``It affected everybody.'' A 
cousin of Kelmar One Feather, an Oglala Lakota officer killed last year 
while transporting two detainees on the Pine Ridge Reservation in South 
Dakota, said his death ``has really really affected all of us.''
    ``It is a very severe problem here on the Pine Ridge Reservation: 
law enforcement are not funded to their full potential, police officers 
are overworked over stressed, they're patrolling alone at night,'' said 
Filomene, adding that Kelmar's death was ``absolutely unnecessary.''
    Norton, considered the first Interior Secretary to ever appear on 
Native America Calling, responded to the stories with sympathy. ``Its 
very saddening to hear the situation the prior caller was talking 
about,'' said Norton of Gatewood's death.
    She said that the stories like those of Officer Creighton Spencer, 
who died in March, were a ``real tribute to the kind of people who are 
just at the core of law enforcement.'' Working an average of 55 hours a 
week serving Eastern Nevada, Spencer was killed when his car 
overturned.
    ``It was a very, very tragic situation,'' said Norton, who 
personally telephoned Spencer's widow. Spencer's father, Jack Spencer, 
died in 1998 under the same conditions while serving Western Nevada.
    While Norton recognized the problems facing Indian Country police 
forces, she said her priority at this point in time is education of 
Indian youth. But she said keeping communities safe has always been one 
of her top priorities since her days as Colorado's Attorney General.
    Norton's fiscal year 2002 budget proposes about $160 million for 
law enforcement funding at the Bureau of Indian Affairs. However, 
acting director of the BIA Law Enforcement Program Walt Lamar pointed 
out that Indian Country needs at least $500 million to meet acceptable 
minimum standards. In addition, at least 4,300 officers are needed 
while there are just about 2,600 now, he said.
    Callers emotionally added their pleas for extra funding.
    ``The federal government passed the Major Crimes Act because they 
felt . . . justice couldn't be left to the Indians because of their 
primitive ways,'' said Gatewood's sister-in-law. ``Yet now its the 
federal government that keeps us primitive because they're not giving 
us the funding that we need . . . and [by] putting the lives of Indian 
people . . . at risk every single day.''
    Kelmar One Feather's name today will be added to the Indian Country 
Law Enforcement Officer's Memorial, a tribute an ever-growing list of 
tribal police officers who have died on the job. Family members, a 
Lakota drum group, and a Lakota spiritual elder will be on hand for One 
Feather's ceremony.
    The memorial is located in Artesia, New Mexico, the home of the 
Federal Law Enforcement Training Center and the Indian Police Academy.
    Ed. Note: Callers' names are spelled here phonetically.
                                 ______
                                 
    Prepared Statement of the National American Indian Court Judges 
                              Association
    On behalf of the National American Indian Court Judges Association 
(NAICJA), I am pleased to submit this written testimony on the fiscal 
year 2002 Appropriations for Interior Department funding of the Indian 
Tribal Justice Act (Public Law 103-176) and Tribal Courts (under the 
Tribal Priority Allocations).
    The NAICJA is a voluntary national representative membership 
association (non-profit organization incorporated in 1969) of current 
and former tribal court judges throughout the United States. NAICJA, 
which represents more than 350 tribal justice systems nationwide, has a 
thirty-year track record of providing quality training and technical 
assistance services for tribal justice systems.

                      INTERIOR DEPARTMENT FUNDING
Indian Tribal Justice Act and Tribal Court Funding
    (1) +$58.4 million. Full Funding for Indian Tribal Justice Act.--
NAICJA strongly supports full funding ($58.4 million) for the Indian 
Tribal Justice Act (Public Law 103-176). On December 21, 2000, the 
106th Congress re-affirmed the Congressional commitment to provide this 
increased funding for tribal justice systems when it re-authorized the 
Indian Tribal Justice Act for seven more years of funding at a level of 
$58.4 million per year (see Public Law 106-559, section 202). NAICJA 
strongly supports FULL FUNDING of the Indian Tribal Justice Act as 
promised in 1993. NAICJA supports funding at a much higher rate since 
the number of tribal courts and their needs have substantially 
increased since the Act was made law in 1993--more than eight years 
ago.
    (2) Tribal Courts--at least $15 million (under the Tribal Priority 
Allocations Account).--NAICJA strongly supports increased funding for 
Tribal Courts to a level of at least $15 million under the Tribal 
Priority Allocations (TPA). This minimal increase represents only a 
minimal first step towards meeting the vital needs of tribal justice 
systems. It is important to note that funding has steadily decreased 
since the passage of the Indian Tribal Justice Act. The needs (as 
recognized by Congress in the enactment of Public Law 103-176 and re-
affirmed with the enactment of Public Law 106-559), however, have only 
been compounded with the passage of time, the increase in tribal 
courts, the increase of caseloads, population growth, and rise in crime 
rate in Indian country.
    Native American tribal courts must deal with a wide range of 
difficult criminal and civil justice problems on a daily basis, 
including the following:
  --While the crime rate, especially the violent crime rate, has been 
        declining nationally, it has increased substantially in Indian 
        Country. Tribal court systems are grossly under-funded to deal 
        with these criminal justice problems.
  --Number/complexity of tribal civil caseloads have also been rapidly 
        expanding.
  --Congress recognized this need when it enacted the Indian Tribal 
        Justice Act--specifically finding that ``tribal justice systems 
        are an essential part of tribal governments and serve as 
        important forums for ensuring public health and safety and the 
        political integrity of tribal governments'' and ``tribal 
        justice systems are inadequately funded, and the lack of 
        adequate funding impairs their operation.''
  --While the Indian Tribal Justice Act promised $58.4 million per year 
        in additional funding for tribal court systems starting in 
        fiscal year 1994, tribal courts have yet to see ANY funding 
        under this Act.
  --Since Congress enacted the Indian Tribal Justice Act, the needs of 
        tribal court systems have continued to increase, but there has 
        been no corresponding increase in funding for tribal court 
        systems. In fact, the Bureau of Indian Affairs funding for 
        tribal courts has actually decreased substantially since the 
        Indian Tribal Justice Act was enacted in 1993.
  --The 106th Congress re-affirmed the Congressional commitment to 
        provide this increased funding for tribal justice systems when 
        it re-authorized the Indian Tribal Justice Act in December 2000 
        for seven more years of funding at a level of $58.4 million per 
        year (see Public Law 106-559, section 202).
    As Attorney General Janet Reno stated in testimony before the 
Senate Indian Affairs Committee on, it is vital to ``better enable 
Indian tribal courts, historically under-funded and under-staffed, to 
meet the demands of burgeoning case loads.'' The Attorney General 
indicated that the ``lack of a system of graduated sanctions through 
tribal court, that stems from severely inadequate tribal justice 
support, directly contributes to the escalation of adult and juvenile 
criminal activity.''
    The vast majority of the approximately 350 tribal court systems 
function in isolated rural communities. These tribal justice systems 
face many of the same difficulties faced by other isolated rural 
communities, but these problems are greatly magnified by the many other 
complex problems that are unique to Indian country. In addition to the 
previously mentioned problems, tribal justice systems are faced with a 
lack of jurisdiction over non-Indians, complex jurisdictional 
relationships with federal and state criminal justice systems, 
inadequate law enforcement, great distance from the few existing 
resources, lack of detention staff and facilities, lack of sentencing 
or disposition alternatives, lack of access to advanced technology, 
lack of substance abuse testing and treatment options, etc. It should 
also be noted that in most tribal justice systems, 80-90 percent of the 
cases are criminal case and 90 percent of these cases involve the 
difficult problems of alcohol and/or substance abuse.

                      IMPORTANCE OF TRIBAL COURTS
    ``Tribal courts constitute the frontline tribal institutions that 
most often confront issues of self-determination and sovereignty, while 
at the same time they are charged with providing reliable and equitable 
adjudication in the many and increasingly diverse matters that come 
before them. In addition, they constitute a key tribal entity for 
advancing and protecting the rights of self-government . . . Tribal 
courts are of growing significance in Indian Country.'' (Frank 
Pommersheim, Braid of Feathers: American Indian Law and Contemporary 
Tribal Law 57 (1995)). Tribal justice systems are the primary and most 
appropriate institutions for maintaining order in tribal communities. 
Attorney General Reno acknowledged that, ``With adequate resources and 
training, they are most capable of crime prevention and peacekeeping'' 
(A Federal Commitment to Tribal Justice Systems, 79 Judicature No. 7, 
November/December 1995, p. 114). It is her view that ``fulfilling the 
federal government's trust responsibility to Indian nations means not 
only adequate federal law enforcement in Indian Country, but 
enhancement of tribal justice systems as well.'' Id.
    Tribal courts agonize over the very same issues state and federal 
courts confront in the criminal context, such as, child sexual abuse, 
alcohol and substance abuse, gang violence and violence against women. 
These courts, however, while striving to address these complex issues 
with far fewer financial resources than their federal and state 
counterparts must also ``strive to respond competently and creatively 
to federal and state pressures coming from the outside, and to cultural 
values and imperatives from within.'' (Pommersheim, ``Tribal Courts: 
Providers of Justice and Protectors of Sovereignty,'' 79 Judicature No. 
7, November/December 1995, p. 111). Judicial training that addresses 
the present imperatives posed by the public safety crisis in Indian 
Country, while also being culturally sensitive, is essential for tribal 
courts to be effective in deterring crime in their communities.
    There is no federally supported institution to provide on-going, 
accessible tribal judicial training or to develop court resource 
materials and management tools, similar the Federal Judicial Center, 
the National Judicial College or the National Center for State Courts. 
Even though the NAICJA annually sponsors the National Tribal Judicial 
Conference, the three-day conference cannot provide the in-depth 
extensive judicial training necessary to make tribal justice systems 
strong and effective arms of tribal government.

              INADEQUATE FUNDING OF TRIBAL JUSTICE SYSTEMS
    There is no question that tribal justice systems are, and 
historically have been, underfunded. The 1991 United States Civil 
Rights Commission found that ``the failure of the United States 
Government to provide proper funding for the operation of tribal 
judicial systems . . . has continued for more than 20 years.'' The 
Indian Civil Rights Act: A Report of the United States Civil Rights 
Commission, June 1991, p. 71. The Commission also noted that 
``[f]unding for tribal judicial systems may be further hampered in some 
instances by the pressures of competing priorities within a tribe.'' 
Moreover, they opined that ``If the United States Government is to live 
up to its trust obligations, it must assist tribal governments in their 
development . . .'' Almost ten years ago, the Commission ``strongly 
support[ed] the pending and proposed congressional initiatives to 
authorize funding of tribal courts in an amount equal to that of an 
equivalent State court'' and was ``hopeful that this increased funding 
[would] allow for much needed increases in salaries for judges, the 
retention of law clerks for tribal judges, the funding of public 
defenders/defense counsel, and increased access to legal authorities.''
    As indicated by the Civil Rights Commission, the critical financial 
need of tribal courts has been well documented and ultimately led to 
the passage of the Indian Tribal Justice Act, 25 U.S.C. Sec. 3601 et 
seq. (the ``Act''). Congress found that ``[T]ribal justice systems are 
an essential part of tribal governments and serve as important forums 
for ensuring public health, safety and the political integrity of 
tribal governments.'' 25 U.S.C. Sec. 3601(5). Affirming the findings of 
the Civil Rights Commission, Congress further found that ``tribal 
justice systems are inadequately funded, and the lack of adequate 
funding impairs their operation.'' 25 U.S.C. Sec. 3601(8). In order to 
remedy this lack of funding, the Act authorized appropriation base 
funding support for tribal justice systems in the amount of $50,000,000 
for each of the fiscal years 1994 through 2000. 25 U.S.C. Sec. 3621(b). 
An additional $500,000 for each of the same fiscal years was authorized 
to be appropriated for the administration of Tribal Judicial 
Conferences for the ``development, enhancement and continuing operation 
of tribal justice systems . . .'' 25 U.S.C. Sec. 3614.
    Eight years after the Act was enacted, how much funding has been 
appropriated? None. Not a single dollar was even requested under the 
Act for fiscal years 1994, 1995, 1997, 1998 or 1999. Only minimal funds 
were requested for fiscal year 1996 and 2000. Yet, even these minimal 
funds were deleted. Even more appalling than the lack of appropriations 
under the Act is the fact that BIA funding for tribal courts has 
actually substantially decreased following the enactment of the Indian 
Tribal Justice Act in 1993. In December 2000, Congress re-affirmed its 
commitment to funding of the Indian Tribal Justice Act by re-
authorizing the Act for seven more years of funding (see Public Law 
106-559, section 202). Now is the time to follow through on this long 
promised funding and provide actual funding under the Indian Tribal 
Justice Act!

                               CONCLUSION
    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in tribal communities. They are the 
keystone to tribal economic development and self-sufficiency. Any 
serious attempt to fulfill the federal government's trust 
responsibility to Indian Nations must include increased funding and 
enhancement of tribal justice systems.
    We welcome the opportunity to comment on the Interior Department's 
Budget Request for the Indian Tribal Justice Act and Tribal Courts 
(under the Tribal Priority Allocations). Thank you very much.
                                 ______
                                 
  Prepared Statement of the Greasewood Springs Community School, Inc.
    Mr. Chairman and Members of the Committee: The Greasewood Springs 
Community School, located on the Navajo reservation, serves the 
educational needs of 349 students from kindergarten through grade 
eight. Since July 1, 1996, our school has been operated by a local 
Board of Directors through a Grant from the Bureau of Indian Affairs 
pursuant to the Tribally Controlled Schools Act, Public Law 100-297. I 
would like to take this opportunity to commend the Administration for 
its proposed increases for Indian programs within the fiscal year 2001 
budget. However, in the area of Indian education, a great deal more 
needs to be done simply to address widely acknowledged shortfalls in 
the areas of Administrative Cost Grants, Facilities Operations and 
Maintenance, Student Transportation, and Indian School Equalization 
Program funding. Specifically, we request the following funding levels 
within the BIA Office of Indian Education Policy:
  --$57.9 million for Administrative Cost Grants;
  --$352.2 million for the ISEP Formula program;
  --$42.2 million for Student Transportation;
  --$57.9 million for Facilities Operations and $57 million for 
        Facilities Maintenance, as well as an exploration of the 
        reasons for shifting maintenance funds out of the school 
        operations budget and language to protect these funds from BIA 
        skimming.

                       ADMINISTRATIVE COST GRANTS
    AC Grants provide funds to tribes or tribal organizations for 
school operations in lieu of contract support. They are designed to 
enable tribes and tribal organizations to operate contract or grant 
schools without reducing direct program services to students. Tribes 
are provided funds for related administrative overhead services and 
operations which are necessary to meet the requirements of law and 
prudent management. When 100 percent of our costs are not funded, we 
are forced to use critically-needed dollars which should be used to 
provide classroom instruction to students.
    For SY 2001-2002, the BIA projects that 133 schools will be 
operated under contract or grant status. However, the requested 
increase from the Administration would only cover 80 percent of the 
need for Administrative Cost Grants. This is an unconscionable 
violation of federal law.
    In this year's budget request, a great deal of emphasis is placed 
on alleviating the shortfalls for Contract Support within BIA and IHS, 
but there is hardly a mention of the need for increased funding for 
Administrative Cost Grants. AC Grant funding has been frozen at $42.16 
million for three years, despite the fact that dozens of additional 
tribes have contracted to take on school operations. The requested 
increase of approximately $4 million does not even cover the increase 
in schools requiring these funds, let alone begin to address the 
chronic acknowledged shortfall from the need identified by formula for 
Administrative Cost Grants.
    Furthermore, the budget retains the current appropriations language 
which places a ``cap'' on the amount of BIA funds that can be spent on 
AC Grants to the amount appropriated. This language is designed to 
overturn the Interior Department's legal obligation to pay AC Grants to 
contract and grant schools at 100 percent of the amount determined 
through a statutory formula. We strongly urge that the Subcommittee 
reject this language.

                 FACILITIES OPERATIONS AND MAINTENANCE
    Facilities Maintenance Line Item.--The Facilities Operations and 
Maintenance account was separated into two line items in the fiscal 
year 2000 budget, a decision that the BIA says was based on a February 
1998 Interior Department report on facilities maintenance issues. But 
in the BIA proposed budget for fiscal year 2001, the newly separated 
line item for Facilities Maintenance has been shifted into the budget 
for Facilities Improvement and Repair (FI&R). FI&R funds are 
distributed on a project-by-project, one-time basis rather than by 
formula as O&M funds are currently distributed. We hope that before 
accepting this shift your Committee will make an inquiry into BIA's 
reasons for shifting this account, and will make a critical accounting 
of what if any beneficial results will be obtained by this move. If 
this move will in any way change the formula for distributing these 
funds to schools or will reduce the desperately needed funds which 
schools receive under the current formula, we ask that you reject it. 
Any reduction in the already inadequate formula distributions for the 
accounts that used to comprise facilities operations and maintenance 
would be devastating for contract and grant schools.
    Operations and Maintenance Funding.--At present, the formula 
distributions for O&M are grossly inadequate, often insufficient to 
cover even basic utilities, let alone basic maintenance. We ask that 
funding for Facilities Operations and Facilities Maintenance be 
increased to $57.9 million and $57 million, respectively, in order to 
provide sufficient funding for BIA-funded schools to properly maintain 
the federal facilities we operate. Adequate formula funding for 
everyday upkeep of schools is a critical element in assuring that 
schools will last longer and remain safe for students. There are an 
absurd number of BIA-funded schools in desperate need of new school 
construction at present, partially as a direct result of chronic under-
funding of basic maintenance at existing school facilities. Congress 
can save a great deal of money in the long run by investing sensibly in 
basic maintenance today.
    OIEP ``Skimming.''--A number of Bureau-funded schools have begun to 
receive communications from the BIA's Education Line Officers in their 
area instructing that a percentage of their Program Administration 
funds will be kept by the BIA for purposes of oversight and technical 
assistance. This runs counter to the entire principle of self-
governance and deals a devastating blow to schools that are already 
struggling to stretch inadequate O&M dollars to meet their basic needs. 
The BIA already reserves funds for these purposes, and it is 
indefensible that the OIEP has authorized ELOs to skim further funds 
from the bare-bones funding that BIA-funded schools receive for 
operations and maintenance expenses. We ask that the committee include 
language in the fiscal year 2001 budget to disallow such ``skimming'' 
of scarce school resources.

                   INDIAN SCHOOL EQUALIZATION PROGRAM
    The ISEP program, which provides basic instructional funding for 
students in BIA-funded schools, remains under-funded in the proposed 
fiscal year 2001 budget. Under the proposal, ISEP would be funded at 
$333.3 million, resulting in a Weighted Student Unit (WSU) of 
approximately $3,685. As you know, this level is far below similar 
expenditures for students in every other school system in the U.S. 
Unless additional ISEP funding is provided, our educational program 
will suffer and our students will remain at an inexcusable 
disadvantage.
    Our students need to know that they are just as important as other 
kids in the United States, and that their education is just as 
important to Congress as the education of students in other school 
systems. We ask that you take advantage of the focus on education 
within the BIA budget to finally do something about this terrible 
short-shifting of Indian students. We support the National Indian 
Education Association (NIEA) recommendation of at least $352.2 million 
for the ISEP Formula program in fiscal year 2001, which would yield a 
WSU of approximately $4,000 per unit.

                         STUDENT TRANSPORTATION
    The BIA's budget justification estimates that, given a likely 
increase of approximately 600,000 in school bus mileage in SY 2001-
2002, the $38.2 million requested by the Administration for school 
transportation will allow a payment rate to schools of $2.30 per mile. 
This is still far below the national average of $2.92 reported for 
public schools for school year 1993-1994, a figure which is likely much 
higher today. The discrepancy between funding for student 
transportation and the actual cost to schools widens every year, 
forcing many to dip into their education funds to cover unavoidable 
transportation costs.
    Our reservation has primitive road conditions, with our buses 
covering 253 unpaved and 289 paved miles every day. We are in dire need 
of four-wheel-drive buses to enable us to get students to school and 
back home safely. We are perpetually short of adequate bus drivers 
under the current level of transportation funding, which leads to 
transportation problems for many students.
    Our transportation budget is hit especially hard during the winter 
months, when bad road conditions cause our buses to break down on a 
regular basis. We lack a garage or repair facility to deal with these 
breakdowns, causing small repairs to require time-consuming and 
expensive maintenance trips. For example, every single tire repair must 
be taken to Holbrook, more than 50 miles away. In addition, the lack of 
a diesel fuel pump at the school forces us to pay extremely high prices 
for fuel at the Greasewood Trading Post, the closest fuel outlet.

                               CONCLUSION
    Mr. Chairman and Members of the Committee, thank you for 
considering these requests and for your attention to the welfare of 
Indian children at the Greasewood Community School. We have appreciated 
your support over the years, particularly in the fiscal year 1998 
fulfillment a promise made by the BIA over a decade ago for 
construction of a new gymnasium at our school. We are nearing 
completion in construction of the new gym, and our students look 
forward to putting it to good use. The administration, school board, 
teachers, and students of Greasewood Springs Community School thank you 
for your assistance.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California

                              INTRODUCTION
    It has long been said that the Colorado River is the lifeblood of 
the West. Today, the Colorado River supplies vital water and power 
resources for more than 20 million people in Arizona, California and 
Nevada.
    Concerns have been raised about the reliability of these water and 
power resources following the U.S. Fish and Wildlife Service's 1994 
designation of critical habitat for four endangered fish species in the 
Colorado River Basin.
    In response, representatives of the U.S. Department of the 
Interior, Arizona, California, and Nevada, Native American tribes, 
along with various stakeholders and water and power agencies along the 
lower Colorado, have formed a regional partnership, which is developing 
a first-of-its kind multi-species conservation program aimed at 
protecting sensitive, threatened and endangered species of fish, 
wildlife and their habitat.
    The partnership formed a 35-member steering committee, which has 
been designated by the U.S. Fish and Wildlife Service as an Ecosystem 
Conservation and Recovery Implementation Team (ECRIT) under the federal 
Endangered Species Act. The steering committee has retained the 
services of professional facilitator and technical consultant teams to 
help develop a plan for the conservation program. The conservation plan 
is scheduled for completion in Fall 2002.

                          PROGRAM DESCRIPTION
    The multi-species conservation program will work toward the 
recovery of listed species through habitat restoration and species 
conservation, and reduce the likelihood of additional species listings 
under the federal and California Endangered Species Act.
    The MSCP planning area includes the historic floodplain of the 
lower Colorado River and reservoir full-pool elevations from Lake Mead 
to the Southerly International Boundary with Mexico. MSCP habitat 
restoration and preservation activities are intended to address the 
following habitat types: aquatic, wetland/marsh, riparian and upland 
desert fringe. It is the intent of the MSCP to conserve, protect, and 
re-vegetate native cottonwood-willow and mesquite trees in the 
floodplain, and remove the non-native salt cedar, or tamarisk, that has 
become established.
    The MSCP will be implemented over a 50-year period. The long-term 
program is also intended to accommodate current water diversions and 
power production and optimize opportunities for future water and power 
development. This comprehensive program will provide long-term 
environmental compliance for participating federal agencies, pursuant 
to Section 7 of the federal Endangered Species Act, and non-federal 
agencies under Section 10. California Agencies will also pursue 
programs and actions to achieve compliance with California 
Environmental Quality and Endangered Species Acts.
    Over the past four years, interim conservation measures (ICMs) have 
been developed and implemented to address the immediate critical needs 
for certain endangered species. ICMs benefiting the endangered 
razorback sucker, bonytail, and southwestern willow flycatcher were 
initiated.

                        PROGRAM DEVELOPMENT COST
    The cost to develop the long-term conservation plan is projected to 
be approximately $6.7 million over five years for planning needs and 
implementation of ICMs. A federal/non-federal cost-sharing agreement is 
in place for development of the program and implementation of interim 
conservation measures. The federal and non-federal participants shared 
program development costs on a ``50/50'' basis. Among the non-federal 
participants, the shares were distributed as follows: 50 percent of the 
non-federal share was borne by California, 30 percent by Arizona, and 
the remaining 20 percent by the State of Nevada.

                         PROGRAM IMPLEMENTATION
    The MSCP will be implemented over the fifty-year period beginning 
in late 2002. However, MSCP proponents are desirous of implementing a 
series of ``pilot projects'' in order to begin evaluating potential 
habitat restoration and species conservation technologies within the 
planning area. Additionally, the pilot projects would be supplemented 
with species and habitat monitoring and research programs, providing 
the basis for a comprehensive adaptive management approach.

                 VIRGIN RIVER PILOT PROJECT DESCRIPTION
    Located in the northeastern corner of Clark County, Nevada, the 
Virgin River Pilot Project is approximately 60 miles northeast of the 
City of Las Vegas. This project area is to the south of Interstate 15, 
and it extends from the City of Mesquite southwest nearly 35 miles to 
the Lake Mead National Recreation Area. Encompassed within this project 
area is a mosaic of Federal, State and privately held lands totaling 
sum 31,300 acres.
    The Virgin River Pilot Project provides numerous opportunities for 
LCR MSCP covered species conservation, and it has a high potential of 
creating synergies between the LCR MSCP and a number of other regional 
planning and environmental programs. Over 300 wildlife species occur 
along lower Virgin River corridor. Of these, at least 23 have been 
proposed for coverage by the LCR MSCP. Anticipated actions for this 
pilot project include acquisition/conservation of privately held lands, 
enhancement of riparian and wetland habitats, and collaboration with 
ongoing Federal, State, and local agency planning and environmental 
efforts.

                        PROJECT AREA DESCRIPTION
    The Virgin River is a natural flowing perennial stream, which 
originates in the mountains of southern Utah and terminates at the 
Overton Arm of Lake Mead, Nevada. Within the project area, the 
floodplain is broad (over a mile in several places) and the stream is 
braided during most of the year. Soils are predominately sands, and the 
riparian vegetation is dominated by the nonnative shrub Tamarix. 
Relatively small clusters of native riparian and wetland vegetation are 
scattered throughout the floodplain. These clusters of native 
vegetation provide valuable habitat for many native and several 
federally listed threatened and endangered species.
    The lower Virgin River corridor is biologically rich as it supports 
over 300 wildlife species. During the spring and fall, migrating flocks 
of ducks, geese, white pelicans and many other birds forage and take 
refuge along the river corridor as they migrate through the region. 
Other bird species like the western yellow-billed cuckoo and the 
Federally endangered southwestern willow flycatcher use the area for 
breeding and raising young. Presently, the Colorado River Basin's 
second largest breeding population of southwestern willow flycatcher is 
located in this area. Other federally listed endangered species that 
are known to occur within the project area include the following:
  --Yuma clapper rail;
  --Woundfin;
  --Virgin River Chub; and,
  --Desert Tortoise.
    Human land use activities within the project area include urban 
development within and around the City of Mesquite, agriculture, and 
motorized recreation. All three of these activities are potential 
threats to the Virgin River ecosystem and could potentially be 
mitigated with this project.

                            PROJECT ACTIONS
    In keeping with the intent of the LCR MSCP, acquisition and/or 
conservation of privately held lands in the Virgin River floodplain is 
a primary component of this project. There are over 9,000 acres of 
private lands within the project area, and approximately 1,000 acres 
are proposed to be acquired and/or conserved as part of this project. 
There are currently parcels available for purchase, but values vary in 
price to a large extent.
    Restoration of riparian and wetland habitats on acquired/conserved 
private lands and on existing public lands will be an important 
component of this project. As stated above, the nonnative shrub Tamarix 
dominates the riparian community, and relatively small clusters of 
native riparian and wetland vegetation provide substantial benefits to 
the native vertebrate species. An aggressive program of Tamarix 
eradication and native species revegetation in the project area will 
provide significant benefits to those species of interest to the LCR 
MSCP.
    In addition, implementation of this pilot project will potentially 
enhance ongoing regional planning and environmental programs that 
intersect at the Virgin River corridor. These programs range from 
endangered species recovery implementation to public lands disposal. 
Following is a partial list of these programs:
  --Bureau of Reclamation Southwestern Willow Flycatcher Habitat 
        Acquisition;
  --Clark County Multi-Species Habitat Conservation Plan;
  --Lincoln County Land Act of 2000;
  --Southern Nevada Riparian Restoration Initiative;
  --Southern Nevada Public Land Management Act of 1998;
  --Virgin River Fishes Recovery Implementation Team;
  --Virgin River Resource Management and Recovery Program; and,
  --Virgin River Tamarix Workgroup.
                       potential project benefits
    Potential benefits of this pilot project include:
  --Habitat conservation and restoration for several Federally listed 
        and sensitive species that are proposed covered by the LCR MSCP 
        (most importantly southwestern willow flycatcher, Yuma clapper 
        rail and yellow-billed cuckoo);
  --Consolidation of land use types in an area troubled by checkerboard 
        land use;
  --Opportunities for collaboration among several regional planning and 
        environmental programs; and,
  --Potential to provide a portion of Nevada's overall commitment to 
        long-term implementation of the LCR MSCP.

                                FUNDING
    It is proposed that the acquisition, preservation, and restoration 
of lands along the Lower Virgin River, on behalf of the LCR MSCP, be 
funded through the Land and Water Conservation Fund, for which the 
federal, tribal, and state MSCP participants shall receive credit as 
part of their conservation commitments. Currently, it is estimated that 
approximately $7,000,000 will be required toward this effort. Once 
acquired, title to these parcels would be transferred to adjacent 
federal or state land managers.
                                 ______
                                 
          Prepared Statement of the Sauk-Suiattle Indian Tribe
    The Sauk-Suiattle Indian Tribe, in Washington State, has 240 
members and is signatory to the 1855 Point Elliott Treaty. An historic 
land survey was conducted to establish a reservation base for our Tribe 
but it was never finalized due to the untimely death of the surveyor. 
We were a landless tribe prior to 1980, when we purchased 23 acres of 
land near our original homelands in the foot hills of the Cascade 
Mountains. As a small tribe, our needs are magnified, as the basic 
tribal government support resources just aren't available. All the 
operations costs are funded under grants and contracts, as there are no 
tribal funds, meaning shortfalls and the Tribe can not cover 
reductions. These requests for increases are to be added to the base 
budgets in the fiscal year 2002 on the following priority. Tribe's 
total request is $7.746 Million.

                 TRIBAL LEVEL APPROPRIATIONS PRIORITIES
    1.+$250,000 to Tribal Budget Base for Government operations, in the 
BIA TPA Tribal Government Account to strengthen core administrative 
staff & update equipment. Request 100 percent Contract Support (not 75 
percent);
    2. +$3.5 Mil. for planning and acquisition studies to address the 
threat to the reservation property, homes, and infrastructure, 
impending from the Migration of the Sauk River. The Sauk River is 
regulated by the Federal Wild and Scenic River Act. Current planning by 
the Corps of Engineers is underway to protect the reservation but only 
guaranteed for the short term;
    3. +$600,000. For community water and sewer systems improvements. 
This includes a number of projects described in the IHS engineering 
report;
    4. +$1.626 Mil. to restore the Mountain Goat herds depleting in the 
North Cascades and for a 5 yr. study. The mountain goat is integral to 
the cultural heritage of the Sauk-Suiattle. The last hunt was 6 yrs. 
ago;
    5. +$100,000 to Education in the BIA Education Program Account.
    Other requests.--+$100,000 to do a Comprehensive Needs Assessment, 
a one-time non-recurring cost to TPA, BIA. 1989 is the last and only 
study; +$750,000 for Cultural Research funding for anthropological and 
archaeological studies specific to Sauk-Suiattle. No research studies, 
published or unpublished, exist on the Sauk-Suiattle. Needed for Land 
Acquisition, to preserve tribal history, and to restore language. To be 
added to the BIA Office of Trust Responsibility Account for the Tribe; 
+$575,000 to develop economic enterprises, added to BIA Tribal 
Government Account; +$95,000 to Tribal Base for Indian Child Welfare 
for additional staff, program enhancements, program resources, and the 
development of a much needed short term emergency placement home for 
foster children, add in the BIA, TPA for Human Services, ICWA Account; 
+$100,000 to BIA Law Enforcement, addition for program operation, 
salary increases, equipment, training, and jail contract funds. To be 
added to the BIA TPA, Public Safety and Justice, Law Enforcement Tribal 
Agency Account; +$50,000 to Tribal Housing Base Budget for HIP and 
administrative management; Request U.S. Goverment to streamline the 
Fee-to-Trust process and make it less complicated. Place acquired 9.98 
acres land, adjacent to the Tribe's Administrative Office, into trust 
status. This land will not to be used for gaming. Also, the Caskey Lake 
50.8 acres land, 3 miles from the reservation, into trust land status; 
Request U.S. Government to place Indian allotments under `638 
Management and for title ownership of the Tenas Creek and Suiattle 
Cemetery lands, plus two additional 50 acres surrounding the two 
cemetery parcels. Need to clear up the question of ownership resulting 
from the multiple jurisdiction and joint responsibilities that now 
exists. It will clear up the U.S. Forest Service, BIA, or Sauk-Suiattle 
ownership. (Mitigating settlement has not yet been achieved from 
damages caused by the U.S. Navy's use of the Suiattle Cemetery for 
training maneuvers in 1997).

                   REGIONAL APPROPRIATIONS PRIORITIES
    Support the following regional requests listed: Northwest 
Intertribal Court System, Skagit System Cooperative, Northwest Portland 
Area Indian Health Board, Northwest Indian Fisheries Commission, 
Western Washington Indian Employment and Training Programs, Affiliated 
Tribes of Northwest Indians, and the Small Tribes of Western Washington 
organization.

                   NATIONAL APPROPRIATIONS PRIORITIES
    Support the national issues and requests advanced: National Indian 
Health Board, National Indian Education Association, and the National 
Congress of American Indians.

                      PRIORITY REQUESTS--NARRATIVE
    Increase in Core Tribal Government Staff.--The Tribe requests a 
$250,000 appropriation increase above the $160,000 minimum appropriated 
to the BIA Tribal Priority Allocations, Tribal Government, Other Aid to 
Tribal Government Budget Base to strengthen its position to maintain 
key staff and to update its office equipment. The Tribe seeks to employ 
a planner/grants writer, a business development planner, and management 
assistant to advance and strengthen its government. To include 100 
percent contract support costs, not just 75 percent as fiscal year 
1999.
    Channel Migration of the Sauk River.--The Sauk River threatens to 
change channel directly impacting the protection of reservation housing 
and infrastructures. Army Corp of Engineers is currently working with 
the Tribe and willing to guarantee protection for the short term. 
Current reservation lands now have severely limited development 
potential due to the rivers migration. Funding is necessary to find 
lands that can reasonably support Tribal needs. Funding is requested 
for new land purchase and infrastructure development.
    Community water and sewer system improvements.--This includes a 
number of projects described in the IHS Engineers Report. Improvements 
will correct sanitary and environmental deficiencies, and extend the 
useful life of these systems and provide for more efficient operations. 
Projects range from repairing failing septic drain fields to replacing 
the current leaking tribal water tank and making it capable of 
delivering sufficient head pressure to fight fires.
    Mountain Goat Herd Restoration.--For the restoration of the 
mountain goat herds which has depleted in the North Cascades. The 
mountain goat is integral to the cultural heritage of the Tribe. It is 
a Tribal resource providing for the unique mountain heritage of the 
Tribe's culture. It is a source for food, cultural objects, and a basis 
for a cultural belief system. The last hunt by Tribal members was 6 
years ago due to lack of sufficient number of goats. The $1.626 Mil. 
requested would provide funds to restore the goats in the North 
Cascades range, and conduct a five-year study to develop preservation 
and protection plans of this tribal resource.
    Increase in Educational Program.--The Tribe's current 638 contract 
with BIA only provides funds for 20 percent of the Tribal members 
seeking further education. The Tribe requests that BIA Education 
funding be increased by $100,000 to provide educational opportunities 
to Sauk-Suiattle Tribal members to attain their education. Our base 
budget includes less than $4,000 for college costs, even with almost 
half of the population of college age.
    Needs Assessment.--For a Comprehensive Needs Assessment of the 
Tribal community population to determine social, economic, education, 
housing, environmental and cultural preservation needs. The Assessment 
will provide information for short and long term Tribal planning to 
enhance the delivery of coordinated services to Tribal community 
members. This request of $100,000 is for a one-time, non-recurring 
cost.
    Cultural Research Funding & Special Appropriation for Land 
Acquisition Study.--The Sauk-Suiattle Tribe has 240 members, 20 houses, 
one community building and no vacant suitable land for the creation of 
a Tribal economy. The Tribe's unemployment rate is more than 65 
percent. Over 80 percent of employed tribal members make less than 
$7,000 a year. The Tribe could provide employment, generate Tribal 
revenue, decrease dependence on federal funds, and enable Tribal 
members to return to their ancestral homelands with the increased land 
base. The Tribe requests a special appropriation of $750,000 to the BIA 
for the Tribe to purchase land and conduct formal archaeological 
studies on identified sites, including the recording of tribal history 
and culture through an anthropological study, a recording of our unique 
language, and restoration of the language. The Tribe's intellectual 
cultural properties are protected in the design of this research 
project concept. No formal studies exist on the Sauk-Suiattle Indian 
Tribe to form a constructive base to advance its issues, although the 
Tribe is identifying potential sites, identifying and recording 
cultural resources, and responding to ``tribal cultural property'' 
concerns.
    Increase Economic Development Enterprise.--The Sauk-Suiattle Indian 
Tribe is focused on developing economic self-sufficiency. Since these 
efforts require dedicated time to expedite results, the Tribe requires 
stable ``economic incubation'' funding for a period of 3 years in order 
to: (1) Hire a business manager/planner to focus on the effort, (2) 
Develop business plans, (3) Developing business codes, and (4) Initiate 
a viable financial enterprises. The tribe has calculated a three-year 
cost of $575,000 for this project.
    Also, with the Tribal Economic Enterprises, members of the outside 
community may benefit with employment, due to the economic downturn in 
forest product work. The local community is designated a depressed 
timber area.
    Increase in BIA Indian Child Welfare.--Requests that $95,000 in 
appropriation be added to the Tribe's base budget of $50,000 through 
the BIA Tribal Priority Allocations, Human Services, Indian Child 
Welfare Act account for ICW program development or enhancements. The 
increased funds will go towards: (1) A proposed ``Emergency-Crisis 
Placement Home,'' (2) To develop a training program for the non-Native 
foster families serving the Tribe to better understand the Tribe's 
culture; and (3) A ``Family Reunification program that will provide 
resources and training for families 19at risk' or ready to reassume 
their roles as parents. There are 80 member children under the age of 
eighteen.
    Increase in BIA Law Enforcement.--The Tribe has only two police 
officers, one with the COPS grant. Jail facilities are hours away. The 
Tribe requests a $100,000 increase, to be added to the BIA Tribal 
Priority Allocation, Public Safety and Justice, Law Enforcement Tribal/
Agency Budget Base. The Tribe can then raise the salary to a comparable 
level to the surrounding area, provide jail contracts for detention, 
training academy of both officers, uniform and equipment for the 
officers, equip a mobile mounted camera on the police vehicle, install 
a computer in the car, purchase the software used by the state police, 
and improve operation costs.
    Housing.--Addition to the Housing Improvement Program (HIP) to 
repair and improve current houses of the Tribal members. Plus, provide 
for administrative costs to manage the housing program. The $50,000 
requested would provide the funds to cover these costs.
    Fee to Trust.--The Tribe request that the Fee-To-Trust process be 
streamlined and made less complicated. There are two parcels of land 
that the Tribe wishes to be put in trust status. First, the 9.98 acres 
located adjacent to the current reservation. Second, the 50.8 acre 
Caskey Lake, located approximately 3 miles from the reservation. The 
Tribe has No intention, nor is it feasible, due to location of these 
properties, to use these parcels for Gaming. It may be utilized for 
other enterprise development to create jobs that will benefit the Tribe 
and the local non-Indian community. The Tribe submitted requests in 
July 1998 to have the Secretary, DOI, to transfer the lands from fee to 
trust status.
    Allotments.--There are also several thousand acres of unresolved 
Tribal allotments that should be factored into study. These lands 
(5,000 +acres) were allotted to Tribal members and then taken without 
compensation in 1897 when the Mt. Baker-Snoqualmie National Forest was 
created. Tribal cemeteries are located within the area of the allotted 
lands. The cemetery sites are sacred sites and need protection. We need 
documents of the U.S. Forest Service that show they're ``holding in 
trust'' these sites. This proposal is to initiate the 19638 management 
of these sites by the Tribe under the BIA trust status. This will clear 
up the ownership issue. (Mitigating settlement has not yet been 
achieved from damages caused by the U.S. Navy's use of the Suiattle 
Cemetery for training maneuvers in 1997).
    We urge the Congress to remember our small tribal government, our 
management problems and needs, and provide support with sufficient 
appropriations. We urge that funding for tribes, their programs and 
their developments be given the highest priority. Thank You.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College
    For thirty two years, United Tribes Technical College (UTTC) has 
been providing postsecondary vocational education, job training and 
family services to Indian students from the Great Plains and throughout 
the nation. The request of the United Tribes Technical College Board 
for the fiscal year 2002 Bureau of Indian Affairs budget is:
  --$4 million in BIA funds for UTTC, which is $1.6 million over the 
        fiscal year 2001 enacted level.
  --Contract support costs to be funded at 100 percent of the 
        negotiated rate. We annually absorb approximately $100,000 in 
        contract support costs and have unrecovered costs over the past 
        10 years of $1.4 million.
  --Requirement that the BIA place more emphasis on job training and 
        vocational/technical education. The Adult Vocational Training 
        program, funded at $8.8 million in fiscal year 2001 is but a 
        shadow of its former self. There is no BIA Leadership or 
        advocacy for job training or vocational/technical education at 
        the central or area levels. UTTC, whose budget is located in 
        the ``Special Programs and Pooled Overhead/Community 
        Development'' portion of the BIA budget suffers from, at best, 
        a lack of interest from the persons who work with that portion 
        of the budget who primarily work on BIA administered accounts. 
        Other tribally based colleges are in the ``Other Recurring/
        Education'' portion of the budget.
     United Tribes Technical College: Unique Inter-tribal Educational 
Organization.--Incorporated in 1969, United Tribes Technical College is 
the only inter-tribally controlled, campus-based, postsecondary 
vocational institution for Indian people. We are chartered by the five 
tribes in North Dakota and operate under an Indian Self-Determination 
contract with the BIA. We currently enroll 371 students from 32 tribes 
and 14 states. In addition, we serve 155 children in our pre-school 
programs and 175 children in our elementary school, bringing the 
population for whom we provide direct services to 701. In some years 
our students come from as many as 45 tribes.
    Occasionally people assume that UTTC is funded under the 
authorization for the other tribally controlled postsecondary 
institutions the Tribally Controlled Community Colleges Act. We do not 
receive funding through the TCC Act. We have much in common with the 
other tribally controlled colleges and are part of the American Indian 
Higher Education Consortium. What distinguishes us from the other 
tribally controlled colleges is that we are chartered and controlled 
jointly by multiple numbers of tribes and our primary focus is 
postsecondary vocational education. Additionally, our campus-based 
family housing is unique.
     UTTC Course Offerings/Partnerships with Other Educational 
Institutions.--UTTC offers 9 Certificate and 14 Associate of Applied 
Science degree programs. We are very excited about the recent additions 
to our course offerings, and the particular relevance they hold for 
Indian communities. These new programs are:
  --Injury Prevention
  --Distance Learning
  --Food & Nutrition
  --Computer Support Technician
  --Tribal management, including gaming management
     Injury Prevention.--Through our Injury Prevention Program we are 
addressing the injury death rate among Indians, which is 2.8 times that 
of the total U.S. population (Source: IHS fiscal year 1999 Budget 
Justification). We received assistance through the IHS to establish the 
only degree granting Injury Prevention program in the nation.
    Distance Learning.--We are bridging the ``digital divide'' by 
providing web-based education and Interactive Video Network courses 
from our North Dakota campus to American Indians residing at other 
remote sites, including the Denver Indian community. Training is 
currently provided in the areas of Early Childhood Education and 
Computer Literacy. By the year 2005, students will be able to access 
full degree programs in Computer Technology, Injury Prevention, Health 
Information Technology, Early Childhood Education, and Office 
Technology, and others from these remote sites.
    Food and Nutrition/Diabetes.--UTTC will meet the challenge of 
fighting diabetes through education. As this Subcommittee knows, the 
rate of diabetes is very high in Indian country, with some tribal areas 
experiencing the highest incidence of diabetes in the world. About half 
of Indian adults have diabetes (Diabetes in American Indians and Alaska 
Natives, NIH Publication 99-4567, October, 1999)
    The College currently offers a Food and Nutrition Associate of 
Applied Science degree to increase the number of American Indians with 
expertise in human nutrition and dietetics. Currently, there are only a 
handful of Indian professionals in the country with training in these 
areas. Future improvement plans include offering a Nutrition and 
Dietary Management degree with a strong emphasis on diabetes education 
and traditional food preparation.
    We have also established the United Tribes Diabetes Education 
Center to assist local Tribal communities and UTTC students and staff 
in decreasing the prevalence of diabetes by providing diabetes 
educational programs, materials, and training.
     Computer Support Technician.--High demand exists for computer 
technicians. In the first year of implementation, the program is at 
maximum student capacity. In order to keep up with student demand, UTTC 
will need more classroom space, computers and associated equipment, and 
instructors. Our program includes all of the Microsoft Systems 
certifications which translates into high income potential.
     Job Training and Economic Development.--UTTC is a designated 
Minority Business Center serving Montana, South Dakota and North 
Dakota. We also administer a Workforce Investment Act program and an 
internship program with private employers. And, thanks to a Kellogg 
Foundation grant, we are assisting tribes and tribal members in the 
Aberdeen Area with rebuilding buffalo herds.
     Coordination with State Welfare-to-Work Efforts.--UTTC is working 
in cooperation with the state of North Dakota and Tribal JOBS programs 
on addressing the effects of welfare reform. The campus Child 
Development Center provides early childhood services for 91 families. 
This includes an Extended Care program so that students are able to 
complete TANF work requirements, complete Cooperative Education 
internships with private employers, and complete other work activities.
    In North Dakota, only 33 percent of state TANF recipients are 
allowed schooling as a work activity. The 12-month statutory limit on 
length of time a TANF recipient can be enrolled in a vocational 
education course of study presents additional barriers for single 
parent families. This limits TANF recipients to taking one-year 
certificate courses at UTTC. Our experience shows that the students who 
graduate from a two-year, rather than a one-year, course of study have 
significantly higher earning power. Many of our students come to UTTC 
planning to take a one-year course, and then, finding themselves in a 
supportive environment and seeing the economic benefit of the longer 
course, decide to work for the two-year degree.
     New Study Documents our Facility/Housing Needs.--The 1998 Perkins 
Act required the Department of Education to study the facilities, 
housing and training needs of our institution. That report, conducted 
for the Department of Education by the American Institutes for 
Research, was published in November 2000 (``Assessment of Training and 
Housing needs within Tribally Controlled Postsecondary Vocational 
Institutions, November 2000, American Institute of Research'') The 
report identified the need for $16,575,300 for the renovation of 
existing housing and instructional buildings ($8 million if some 
existing facilities are converted to student housing) and $30,475,000 
for the construction of housing and instructional facilities.
    UTTC continues to identify housing as its greatest need. UTTC has a 
huge waiting list of students some wait from one to three years for 
arrival. New housing must be built to accommodate those on the waiting 
list as well as to increase enrollment. Existing housing must be 
renovated to meet local, state, and federal safety codes. In the very 
near future, some homes will have to be condemned which will mean lower 
enrollments and fewer opportunities for those seeking a quality 
education. Single student housing must also be built and expanded to 
meet the College's needs.
     Classrooms & Offices.--This type of space is at a premium. The 
College has literally run out of space. This means that the UTTC cannot 
expand its course offerings to keep up with job market demands. Most 
offices and classrooms that are being used are quite old and are not 
adequate for student learning and success.

                          OTHER AREAS OF NEED
     Devastating Utility Increases.--Utility costs have skyrocketed due 
to increases in natural gas. UTTC's utility costs have increased by 65 
percent. This has put a major added burden on the school and is causing 
a funding dilemma, since we do not have the option of relying on state 
appropriated resources or other fixed cost revenues.
    Inadequate Salaries.--We were able to provide a cost-of-living 
increase for our employees last year. However, our faculty and staff 
still receive salaries that are lower than any state college system in 
the 50 states. (Source: Integrated Postsecondary Education Data Systems 
Report of the U.S. Bureau of the Census and the Department of Education 
Office of Education Statistics.)
    Course Offerings/Student Services.--We hope to change some of our 
courses to better meet new market demands, e.g. training to increase 
the number of students in the allied health professions, updating of 
technology. We also need to expand our diagnostic capabilities in 
tribal-specific areas and in the areas of literacy and math-science 
background. And, we want to make improvements in our student follow up, 
career development, and job market research efforts.
    UTTC Seeks Non-Department of Interior Funds.--UTTC is aggressive in 
seeking non Interior funding for special needs, e.g., the College 
recently received funding from the American Indian College Fund to 
purchase 132 acres of land. The additional acreage has given the 
College the ability to strengthen its infrastructure and increase its 
capacity. UTTC has midterm plans to serve 1,000 Indian students from 
throughout the nation.
    Our elementary school received a Department of Education grant for 
computer technology, and was one of five BIA system schools to receive 
this funding. We also received a Kellogg Foundation grant to develop 
buffalo management skills for the tribes and their members throughout 
the Aberdeen Area, as they attempt to rebuild herds of buffalo 
decimated more than 100 years ago. And last year we received a major 
two year grant from Department of Labor, Employment and Training 
Administration to develop curriculum for the Associates of Applied 
Science degree in Tribal Tourism, which will be the first in the 
nation. Additionally, our Injury Prevention Program has been assisted 
through a grant from the Indian Health Service.
    The above mentioned grants are highly competitive, restrictive, 
one-time grants, and they cannot provide for day-to-day operations. We 
cannot survive without the basic operating funds which come through the 
BIA.
    Thank you for your consideration of our request.
                                 ______
                                 
           Prepared Statement of the Jicarilla Apache Nation
    Mr. Chairman and distinguished members of the Committee, I would 
like to thank the Committee for the opportunity to submit testimony on 
behalf of the Jicarilla Apache Nation. The Jicarilla Apache Nation 
believes that obtaining funding through the congressional 
appropriations process is a core part of the United States Government 
fulfilling its trust responsibility and obligations to the Indian 
Nations. Therefore, we call upon the you and the Committee to uphold 
the trust responsibility which forms the basis of the government to 
government relationship between the Jicarilla Apache Nation and the 
United States Government. The Jicarilla Apache Nation requests $5 
million in earmark funding in fiscal year 2002 for the rehabilitation 
of the federally owned water delivery and wastewater systems in the 
community of Dulce on the Jicarilla Apache Reservation. Furthermore, 
the Jicarilla Apache Nation believes that the President's fiscal year 
2002 budget request for Indian programs does not meet the current needs 
of the tribes. The following testimony discusses the specific needs of 
the Jicarilla Apache Nation and some of the broad areas of the proposed 
fiscal year 2002 budget for the Bureau of Indian Affairs (``BIA'') and 
the Indian Health Service (``IHS'').

               BACKGROUND OF THE JICARILLA APACHE NATION
    The Jicarilla Apache Nation (``Nation'') is a federally recognized 
Indian Nation organized under the Indian Reorganization Act and 
governed by the Jicarilla Apache Legislative Council (``Council''), an 
8-member elected body. A President, Vice President, and four Council 
Members are elected every four years, with the four remaining council 
seats elected two years in between the general election. The tribal 
constitution also provides for a separate judicial body. The Jicarilla 
Apache Reservation (``Reservation'') is located in northwest New 
Mexico, along U.S. Highway 64, approximately 5 miles south of the 
Colorado-New Mexico state line, and consists of approximately 1 million 
acres, virtually all held in Federal trust status. The town of Dulce 
serves as the center of the community and the headquarters for the 
tribal government. The current population in Dulce is about 3,100 
people and the current tribal membership is about 3,400 people. The 
tribal government is the largest employer in the region employing about 
750 people in the areas of government administration, education, 
health, fire and police protection, tribal courts, and natural 
resources management such as oil and gas development, hunting and 
fishing and timber resources development and protection. The Nation 
exercises sovereign governance over our territory and members, in 
conjunction with the U.S. Government.

  MUNICIPAL WATER DELIVERY AND WASTEWATER SYSTEM IN DULCE, NEW MEXICO
    The water delivery and wastewater systems that serve the 
Reservation are currently owned and operated by the Bureau of Indian 
Affairs, and are outdated, inadequate and not in compliance with 
federal safe drinking water and water disposal standards. The 
wastewater disposal lagoons are 100 percent over capacity at peak flows 
and discharges untreated wastewater directly into a nearby stream. The 
BIA has been operating the lagoons under an expired National Pollutant 
Discharge Elimination System permit since 1995 in violation of federal 
standards, which subjects the BIA to fines of up to $25,000 a day. 
There is standing sewage in the certain yards of housing areas where 
children have come into contact. Health problems associated with the 
water supply have been documented and homes have been lost to fire as a 
result of failures of the water supply system. These systems pose a 
significant health and safety risk to the residents of Dulce and the 
surrounding area, and have caused economic development barriers on the 
Reservation.
    There has been no meaningful funding in BIA's budget to address 
this urgent health problem. Evidently, the Dulce water system is one of 
two systems that is comprehensively owned and operated by the BIA. The 
Jicarilla Apache Agency Superintendent has been carving out portions of 
her budget for basic operational needs. There have been no capital 
improvements for decades and thus, the system has fallen into total 
disrepair. In 1998, the system completely failed leaving the community 
of Dulce with no water for six days. To date, the Nation has expended 
and dedicated over $8 million to rehabilitate this system. On July 10, 
2000, Public Law 106-243 was enacted into law directing the Bureau of 
Reclamation to work with the Nation in completing a feasibility study 
to determine the best method to repair and rehabilitate the municipal 
water system. The study will be completed this summer and is expected 
to report a project amount of $25 million over a three year period. In 
fiscal year 2002, the Nation is seeking first phase funding in fiscal 
year 2002.

                        DULCE HEALTH CARE CLINIC
    The current IHS Health Care Clinic in Dulce is not only inadequate 
to serve the existing needs of the community, but is also located in a 
condemned building! There has been an alarmingly high rate of cancer 
and internal diseases on the Reservation, leading to a number of 
deaths, including many among our youth. In March of 2001, the IHS 
informed the Nation that the Dulce Clinic was selected for replacement 
under the Joint Venture provisions of the Indian Health Care 
Improvement Act, which provide authorization for the IHS to staff and 
equip a health care facility for the benefit of a tribe, if the tribe 
finances the construction of the facility and demonstrates 
administrative capability to operate the facility. The Nation and the 
IHS are in the process of negotiating the planning, design, and 
construction approval documents. We anticipate the cost of the facility 
to cost approximately $10 million. To complete the project, it will be 
imperative for the Committee and Congress to appropriate funding for 
the Joint Venture provisions in the IHS budget.

                   TRIBAL PRIORITY ALLOCATIONS (TPA)
    The TPA is the principal means for tribal governments to fund 
essential governmental services to our people, including law 
enforcement, justice, fire protection, education, social services, and 
resource management. We have struggled hard to maintain these services, 
especially since the crippling, nearly $100 million cut in the TPA in 
fiscal year 1996. The undeniable fact is the funding for TPA has not 
kept pace with inflation, and today is less than it was 10 years ago.
    The President's fiscal year 2002 request for the TPA is $750.5 
million, an increase of $17.5 million (2.38 percent) over fiscal year 
2001. The net increase for tribes after removing Indian Self-
Determination funds for new contracts, uncontrollable costs, and 
internal transfers is only a targeted $7 million--less than 1 percent. 
This is unacceptable. The TPA is the most important component of the 
BIA's budget, both in terms of size (42 percent) and what it does. The 
President has stated that a 4 percent budget increase is 
``compassionate.'' This makes his request for the most important BIA 
program ``heartless.'' At the very least, we recommend a flat increase 
of the 10 percent to address unmet needs and inflation. We also urge 
you to increase the President's request for contract support to 100 
percent of total need as authorized under the Indian Self-Determination 
and Education Assistance Act, rather than the 88 percent requested.

                            HEALTH SERVICES
    The President's fiscal year 2002 IHS request of $3.3 billion is an 
increase of $107 million over fiscal year 2001. Of this amount, $50 
million is for the Navajo Health Services transition to tribal 
operation and control. The net increase for all other tribes is an 
unacceptable 1 percent. As you know, there is a crisis in Indian health 
care, resulting in part from a lack of funding for mandatory increases 
like inflation, pay costs, staff for new facilities, and population 
growth. IHS funded programs must absorb these costs, resulting in a net 
decrease in health care to Indian people of $2 billion in the last 8 
years. Health care expenditures for Indian people are well below 50 
percent of the per capita health care expenditure for mainstream 
America, and, as you know, our gloomy health statistics reflect this.
    The problem with the President's budget is that it includes an 
estimated $499 million in health insurance reimbursements, and with the 
Navajo transition of $50 million, results in an adjusted request of 
only $2.75 billion. In fact, the National Indian Health Board, the 
Tribal Self-Governance Advisory Committee, and the National Council on 
Urban Indian Health concluded that the fiscal year 2002 IHS budget 
should be $18 billion, but no less than $3.2 billion in appropriations 
to begin to address the health care needs of Indian people on a basis 
comparable to the rest of America. The President's fiscal year 2002 
budget also includes a $40 million increase in contract support, all 
for the Navajo transition. This leaves an estimated need of $175 
million, which tribes must absorb, further reducing health care 
services. We ask the Committee to fully fund contract support costs in 
fiscal year 2002. Because Indian health care funding is a life or death 
issue for our people, the Jicarilla Apache Nation supports the 
``Daschle Amendment'' accepted by the Budget Committee to increase 
funding for Indian Health Care to $4.2 billion in fiscal year 2002.
    Finally, the President's fiscal year 2002 budget provides $100 
million for diabetes funding, the same as level of funding as last 
year. These funds are a good investment in the welfare of our people, 
and will result in future program savings by improving the health and 
livelihood of our people. We request that Congress extend diabetes 
funding for the full 10 year authority allowed by the Balanced Budget 
Act of 1997.

                              OTHER ISSUES
    We are pleased to see that the President included in his fiscal 
year 2002 budget a new $10 million initiative for tribes in his 
Flexible Land and Water Conservation Fund Program. The Jicarilla Apache 
Nation and other Indian Nations across the country support equitable 
access to the Conservation and Reinvestment Act (CARA). As you know, 
CARA was not enacted last year, but was diluted into a ``CARA-Lite'' 
that funded fewer activities with fewer dollars over less time. No 
stakeholder was more adversely affected by this dilution than Indian 
Nations, who lost every single provision that had benefited them in the 
original legislation. Therefore, it is critical that the $10 million 
tribal portion be retained, along with the flexibility specified by the 
President for this program. We support the inclusion of language 
directing that a federal/tribal team be composed to develop the tribal 
competitive grant program to distribute these funds, which should 
include tribes, the BIA, and the National Park Service.
    In closing, I want to thank you for allowing the Jicarilla Apache 
Nation to present, for the record, our views and priorities on the 
Interior fiscal year 2002 budget. If you need any additional 
information, please contact me in Dulce at (505) 759-3242.
                                 ______
                                 
      Prepared Statement of the Save San Francisco Bay Association
    On behalf of the thousands of members of Save The Bay, I urge you 
to include significant funding for acquisition of salt ponds owned by 
Cargill, Inc. in the fiscal year 2002 appropriations bill. The willing 
seller has entered into negotiations with the U.S. Fish and Wildlife 
Service, which has been pursuing restoration of natural tidal wetlands 
and related habitats to improve the health of San Francisco Bay and the 
wildlife that depend upon it.
    Our staff and scientists have compiled an extensive picture of the 
opportunities and challenges to restoration of the South Bay salt ponds 
currently operated by Cargill. All 26,000 acres of the South Bay salt 
pond complex is potentially restorable to a mix of tidal marsh and open 
water habitats that would provide tremendous ecological benefits to Bay 
fish, wildlife and water quality, including for endangered and 
threatened species.
    This acquisition and restoration is of the highest priority for the 
Bay, as validated by a wide-ranging study of scientists in 1999 in the 
Baylands Ecosystem Habitat Goals Report. The project has received 
strong backing from a wide range of community organizations, public 
agencies, business groups and agricultural interests.
    Because the State of California would provide half of the funding 
for this acquisition, it provides a unique attempt to leverage federal 
funds for estuary protection. Last year the U.S. Congress committed $8 
million and the California State Legislature committed $25 million 
toward the expected final purchase price of approximately $300 million.
    Please include the additional funds necessary to provide the 
federal share for this acquisition, and seize this special opportunity 
to restore the San Francisco Bay's health.
    Thank you very much for your consideration.
                                 ______
                                 
       Prepared Statement of the San Francisco Bay Joint Venture

                            REQUESTED ACTION
    The San Francisco Bay Joint Venture strongly urges you to support 
Senator Feinstein's request of $75 million in appropriations fiscal 
year 2002 for the public acquisition of at least 18,900 acres of 
Cargill's Bay Area salt ponds, including 4,451 acres of operating 
rights and the remainder in fee title. This project represents a unique 
public-private partnership and one between the federal and state 
government; it must be consummated this year if we do not wish to lose 
this historic opportunity.
    The San Francisco Bay Joint Venture (SFBJV) is a part of the North 
American (NA) Waterfowl Management Plan and NA Bird Conservation 
Initiative. We are an active partnership of twenty-seven public 
agencies, environmental organizations, business groups and agricultural 
interests that are working cooperatively to protect, restore, increase 
and enhance wetlands, riparian habitat, and associated uplands 
throughout the San Francisco Bay region. This urgent request is made by 
unanimous consent of the Non-Governmental Organizations (NGOs) on the 
SFBJV Management Board, with the exception of those public agency 
members that are unable to take positions on legislative issues. The 14 
NGOs of the SFBJV's Board are shown on the left hand side of the table 
below.

            SAN FRANCISCO BAY JOINT VENTURE MANAGEMENT BOARD
------------------------------------------------------------------------
  Non profit and private organizations           Public agencies
------------------------------------------------------------------------
Adopt a Watershed                        Bay Conservation and
Bay Area Audubon Council                  Development Commission
Bay Area Open Space Council              California Coastal Conservancy
Bay Planning Coalition                   California Department of Fish
Citizens Committee to Complete the        and Game
 Refuge                                  Coastal Region, Mosquito and
Ducks Unlimited                           Vector Control Districts
National Audubon Society                 National Fish and Wildlife
PG&E Corporation                          Foundation
Point Reyes Bird Observatory             National Marine Fisheries
Save San Francisco Bay Association        Service
Sierra Club                              Natural Resources Conservation
The Bay Institute                         Service
The Conservation Fund                    SF Bay Regional Water Quality
Urban Creeks Council                      Control Board
                                         San Francisco Estuary Project
                                         U.S. Army Corps of Engineers
                                         U.S. Environmental Protection
                                          Agency
                                         U.S. Fish and Wildlife Service
                                         Wildlife Conservation Board
------------------------------------------------------------------------

    The San Francisco Estuary is the nation's second largest estuary on 
the Pacific Coast. It is a globally unique, yet threatened resource. 
The wetlands and streams that rim the Bay Estuary are essential to the 
health of the region's resident fish, wildlife, and human populations. 
A century ago, the Bay Area contained almost 200,000 acres of tidal 
marshes and close to 100,000 acres of seasonal wetlands, vernal pools, 
and creeks and streams. Today, over 80 percent of the Bay's original 
wetlands have been either degraded or lost due to diking and filling 
for farming, grazing, salt extracting, building and other development.
    The salt pond acquisition project represents a unique opportunity 
to fulfill a key portion of the SFBJV's habitat goals to preserve, 
enhance and restore the San Francisco Bay Estuary, as set forth in the 
Joint Venture's recently-approved Board-approved Implementation 
Strategy. That Implementation Strategy calls for the acquisition and 
restoration of Cargill's salt ponds.
    Member organizations of the SFBJV have been working in partnership 
to literally turn the tide to restore saltwater wetlands for the past 
decade. Since 1993, our partner organizations and agencies have 
acquired and enhanced or restored over 27,000 acres of wetlands 
throughout the SF Bay Area. This set of accomplishments is indicative 
of the commitment that our region has made to the renewal of the Bay's 
wetlands and streams from many levels: business, government, and grass-
roots. The SFBJV affirms the great importance of investing in our 
region's wetland resources, as they help to ensure the long-term 
sustainability of the SF Bay Estuary's ecosystem and its many dependent 
species. Because of its scale and the rationale for it presented below, 
this project is of statewide and national importance. In addition, 
among the 166 partnership-based wetlands and creeks habitat projects 
around the San Francisco Bay Estuary, this is the SFBJV's current 
priority.
    The fact that Cargill is a willing and cooperative seller is one of 
the hallmarks of this project; several non-profit, as well as the U.S. 
Fish and Wildlife have been working with Cargill to identify the 
elements of an interim restoration strategy, consistent with current 
science and the ``San Francisco Baylands Ecosystem Goals Report 
(1999).'' We believe that implementation will occur in a timely manner 
following acquisition.
    We urge you to exert your leadership to realize this once-in-a-
lifetime opportunity to protect and restore our wetland ecosystem 
through a public-private partnership. Federal and state agencies and 
legislators have demonstrated extraordinary collaboration in completing 
the appraisal process and foresight in identifying early funding. We 
ask that you give favorable consideration to Senator Feinstein's 
requested $75 million appropriation, as a priority in this year's 
Interior Department budget. We regard this project as a national model 
for the kind of public-private partnerships in conservation that makes 
the best use of available resources for the greatest benefit of all 
interests involved.

                          RATIONAL FOR SUPPORT
    Presence of a willing and cooperative seller, Cargill Inc.
    Unanimous support of the environmental community and business 
community (Bay Planning Coalition) around San Francisco Bay for this 
acquisition.
    Acquisition of the salt ponds is critical to restoration of 
wetlands in South San Francisco Bay, as determined in the ``Baylands s 
Ecosystem Habitat Goals,'' a regional blueprint for restoration of the 
San Francisco Bay prepared by over 100 scientists.
    The South Bay is the key wintering habitat for Shorebirds along the 
Pacific Flyway.
    Federal and state resources agencies are working cooperatively with 
the owner and one another in pursuing a joint purchase of the property.
    Cargill Salt will continue to produce salt on about 12,000 acres 
centered around its plant site in Newark on the East Bay, and no 
existing jobs will be lost as a result of this acquisition.
    Large portions of the property could be restored to tidal action 
almost immediately. The U.S. Fish and Wildlife Service, Cargill, and 
Save The Bay have been cooperatively examining restoration strategies.
    Restoration of this property would increase the Bay's tidal marsh 
habitat by nearly 50 percent. Re-creating thousands of acres of native 
marsh could help restore populations of birds and other species that 
currently are considered threatened or endangered and provide 
additional sheltered nurseries for a vast array of marine life.
    Increasing bayside wetlands could help improve the water quality of 
the bay by trapping pollutants and sediments from urban runoff. It also 
promises to reduce the impact of freshwater discharges into the Bay 
from adjacent cities and provide additional flexibility for flood 
control.
    This acquisition would nearly complete the Don Edwards San 
Francisco Bay National Wildlife Refuge, the largest urban refuge in the 
country, and create additional opportunities for public access and 
environmental research and education.
                                 ______
                                 
      Prepared Statement of the Lukachukai Community School, Inc.
    Mr. Chairman and Members of the Subcommittee: The Lukachukai 
Community School Board of Education, Inc. (LCBE, Inc.) oversees a BIA-
funded school serving 400 students from grades K through 8 in a remote 
area of the Navajo Reservation. On behalf of the Lukachukai Community 
Board of Education, I thank you for this opportunity to offer comments 
regarding the fiscal year 2002 budget. We wish to highlight several 
aspects of the budget which we hope will see funding increases in 
fiscal year 2002: Administrative Cost Grants ($55 million), Student 
Transportation ($44 million), ISEP Formula Funds ($362 million), and 
Replacement School Construction (funding to construct the 13 schools on 
the current priority list).

              FACILITIES CONSTRUCTION NEEDS AT LUKACHUKAI
    We commend Congress for funding construction of the first six 
schools included on the BIA's new school construction priority list in 
the fiscal year 2001 budget. In fiscal year 2002, we hope that Congress 
and the Administration will work together to fund the remainder of the 
top priority list for this year, an additional 13 schools. Such 
aggressive action is crucial at this time, as beyond this top tier list 
wait dozens of additional schools in desperate need of construction-our 
school, for example, is currently ranked 59th in line among the schools 
yet to be funded.
    If our facility constitutes the 59th-greatest need for replacement 
school construction in the BIA system, Congress has a severe crisis on 
its hands. The structures and utility systems of the existing school 
facilities are failing. While most educational facilities are built to 
last for only thirty years, the newest of our facilities are nearly 
forty years old, and are not in compliance with accessibility codes. 
Additionally, the electrical systems need to be upgraded to accommodate 
technology and automation, a 21st century educational requirement. We 
also face severe overcrowding in our classrooms. Recently, we had to 
move sixteen students from overcrowded kindergarten classrooms into a 
dormitory, and the gifted education class was moved into a three-
bedroom staff housing structure.
    Our 86 employees must compete for the 18-space parking lot that 
also lacks lighting of any kind, as well as limited housing units (47). 
The housing units all contain asbestos in the floor tile and mastic and 
are in dire need of renovation in order to meet the minimum safety 
requirements. Our limited space forces us to load and unload students 
into school buses on the main road. The school's fire alarm system is 
outdated and rings in only one section of the building. The existing 
waterlines have never been changed and are about to rust out. At times 
when the water becomes red and murky, the safety of the water for 
consumption becomes an issue. Two years ago severe winds blew off the 
kitchen, residential hall, and gymnasium roofs, resulting in two weeks 
of school closure. High-density archaeological and burial sites on the 
existing school grounds make construction to update or expand existing 
facilities extremely difficult and unwise to undertake.
    Research has demonstrated that poor facilities such as ours 
distract significantly from the educational program of a school, and we 
believe that our students deserve better in their formative years. To 
address the health, safety, and educational risks posed by these 
deteriorating facilities as well as the school's projected expansion 
needs, we have proposed and obtained land for a new school facility to 
serve 450 youths from kindergarten through eighth grade from the 
Lukachukai, Round Rock and Tsaile/Wheatfields communities. The proposed 
new grant school at Lukachukai is project ready. But given our current 
ranking and the rate at which new schools are being funded, it could 
easily be decades before our desperate construction needs are 
addressed.
    We cannot wait until the current generation of students are parents 
themselves before addressing the terrible condition of Indian Country's 
schools. We believe there is no room for years of delay when the health 
and safety of young people is at stake. Please fund the full current 
priority list of 13 schools in fiscal year 2002.

                       ADMINISTRATIVE COST GRANTS
    Tribally-operated BIA schools are facing a crisis in their 
administrative budgets, operating at less than 80 percent of the 
funding necessary for prudent management of a school. These schools 
receive their administrative funding through Administrative Cost 
Grants, a formula-based method created by Congress to calculate the 
amount of funds that should be provided for the administrative and 
indirect cost expenses incurred in the operation of BIA school 
programs-similar to ``contract support'' costs provided to non-school 
contractors. The Administrative Cost Grant formula was designed as a 
compromise, a minimum calculation of the administrative costs necessary 
for prudent management of tribally operated schools. When 100 percent 
of these costs are not funded, our schools are set up for failure.
    We were pleased that Congress increased Administrative Cost Grant 
funding by $1 million in fiscal year 2001 after funding had been frozen 
at the same level ($42.1 million) for three consecutive years. Yet 
after so many years of underfunding, the shortfall has become quite 
significant, and additional schools have converted to tribal operation, 
causing the available appropriation to be divided between a larger 
number of schools. The percentage of the formula met declined from 89.5 
percent (SY 1998-99) to 79.68 percent (SY 2000-01) in the three budget 
years where funding remained level.\1\
---------------------------------------------------------------------------
    \1\ BIA education program funding is ``forward funded'', as are 
most federal aid to education programs. Thus, for example, the fiscal 
year 2000 budget funded the current school year, SY 2000-2001.
---------------------------------------------------------------------------
    The impacts of these shortfalls are far from abstract. Tribally-
operated schools have been forced to make reductions-in-force that cost 
them vital, well-trained administrative staff. Remaining staff struggle 
under the stress of being overloaded with the work of multiple people. 
Some schools have had to convert their administrative staff to a 10-
month employment year, leaving them ill-prepared to close out the 
administrative work of the previous school year and to prepare for the 
coming school year and annual audit. Reduced funding jeopardizes our 
ability to comply with the internal controls needed for prudent fiscal 
management. Due to the shortage of funding we did not hire an 
Administrative Service Director or Procurement Officer. Although we had 
saved funds by not hiring the direly needed administrative positions, 
we on the other hand overburdened our technicians to carry out the 
workload, which at times they did not have the expertise to carry out. 
In the end, we had to bring in consultants to monitor and reconcile our 
books to ensure that compliance and internal controls were not 
compromised.
    The National Congress of American Indians and the National Indian 
Education Association both passed resolutions this year calling for 
full funding of Administrative Cost Grants. We implore Congress to join 
these bodies in recognizing that tribal schools' needs for 
administrative costs are just as great as those of other tribally-
operated BIA and IHS programs. Please provide funding for the full need 
generated by the Administrative Cost Grant formula, which we estimate 
will require approximately $55 million in fiscal year 2002.
    We also ask that the rider included in recent Interior 
Appropriations measures capping Administrative Cost Grant funding be 
excluded from future Interior Appropriations measures. This language is 
intended to overturn a 1997 decision by the Interior Board of Contract 
Appeals that said that the BIA violated the law by failing to pay the 
Alamo Navajo School Board and the Miccosukee Tribal School the full 
amount of AC grant that was required by federal law. We ask that you 
delete any proposal to extend the current cap for another year and 
fully fund AC grants at 100 percent of need, as required under the 
authorizing statute.

                         STUDENT TRANSPORTATION
    Lukachukai is located in the foothills of the Chuska Mountains, at 
an elevation of 7,000 ft, with students spread among three Navajo 
chapters over a radius of 20 miles. Access to our community is 
primarily via dirt roads. During the winter months, these roads become 
extremely muddy and icy, forming deep ruts that stay frozen for months. 
These treacherous conditions place a great deal of wear and tear on our 
school buses and other school vehicles, most of which are old and in 
poor condition. The closest bus maintenance and service location is a 
250-mile round trip.
    In the current school year, the Bureau-funded transportation rate 
is $2.30 per mile, far short of the nationwide average of $2.92 that 
was reported for public schools over six years ago. Yet the fiscal year 
2001 budget included less than a $200,000 increase in funding for 
Student Transportation. Sharp increases in fuel costs over the past 
year have made increased funding for Student Transportation absolutely 
necessary. With wear and tear and repair costs well above average due 
to our location and GSA rental and mileage rates escalating at a rapid 
rate, our student transportation costs have gone 33 percent beyond what 
our Student Transportation Program generates. Our Student 
Transportation Program generated $154,000 this current school year but 
our actual expenditure for the program was $221,000. If BIA 
transportation reimbursement rates continue to lag behind actual costs 
for student transportation in fiscal year 2002, we will be forced to 
continue to use a distressing percentage of our academic funds to 
supplement our inflexible transportation costs. This shortchanges our 
students and forces us to stretch our extremely limited education 
dollars even further. We ask that you increase the BIA budget for 
student transportation to a level that can at least support a 
reimbursement rate of $3 per mile, which we estimate would require at 
least $44 million.

               INDIAN SCHOOL EQUALIZATION PROGRAM (ISEP)
    The ISEP program, which provides basic instructional funding for 
students in BIA-funded schools, has been consistently underfunded. In 
fiscal year 2001, Congress took a step in the right direction, agreeing 
to a desperately needed $14 million increase in funding for ISEP 
formula funds that resulted in a final funding level of $330.8 million. 
But even with this increase, we estimate based on BIA projections, that 
the resulting Weighted Student Unit (WSU) will be approximately $3,650 
for School Year 2001-02. This level of basic educational funding is 
still woefully inadequate when compared with similar expenditures for 
students in any other school system in the U.S. Unless additional ISEP 
funding is provided, we will continue to face a large turnover of 
qualified and experienced teachers, decreased instruction hours, 
teacher layoffs, and teacher salary freezes.
    This sadly has been the real story, a ``Catch 22'' situation that 
impacts our Native American children everyday of their lives. They 
continue to get the least attention from their government. They 
continue to receive education in school buildings that the majority of 
states would not even allow their prisoners to live in! And yes, they 
seldom get good teachers because good salaries in other counties and 
states attract good teachers and we cannot compete with them. Limited 
resources and unsafe facilities that are not conducive to a good 
learning environment are the two main reasons as to why Native American 
children continue to score well below the national norm on standardized 
achievement tests across this nation. We recommend that Congress 
appropriate at least $362 million for the ISEP Formula program in 
fiscal year 2002, which we estimate would yield a WSU of approximately 
$4,000 per weighted student unit. By funding ISEP at this level, 
Congress could come closer to offering educational opportunities to 
Indian students that are more comparable to those enjoyed by other 
children in this country.

                               CONCLUSION
    We thank you for your support for Indian Education programs and the 
Lukachukai Community Board of Education. We hope that this testimony 
will prove useful to your efforts to craft a fair and reasonable budget 
for BIA education programs. We would be pleased to provide you with any 
additional information about our school, our priorities and concerns, 
and we look forward to working with you over the coming years to assure 
that every Indian child gets the education they need and deserve. Thank 
you.
                                 ______
                                 
         Prepared Statement of the Black Mesa Community School
    Mr. Chairman and Members of the Committee: Thank you for this 
opportunity to submit testimony regarding the fiscal year 2002 budget 
for Bureau of Indian Affairs (BIA) programs relating to school 
operations. Black Mesa Community School is a remotely located grant 
school, serving students from kindergarten through eighth grade in 
Kitsillie, a mountainous area of the Navajo Nation in Northern Arizona. 
We are pleased with the focus on education in general and Indian 
education in particular which Congress and the new Administration have 
demonstrated in recent months. We hope that you will consider taking 
advantage of this unique opportunity to address several areas of 
longstanding need within the BIA education budget:
  --$55 million for Administrative Cost Grants,
  --$44 million for student transportation, and
  --$802 million to support the Administration's promise to eliminate 
        the backlog of Facilities Improvement and Repair needs in BIA-
        funded schools, including needed funding to construct a 
        maintenance facility at Black Mesa.

                       ADMINISTRATIVE COST GRANTS
    Tribally-operated BIA schools are facing a crisis in their 
administrative budgets, operating at less than 80 percent of the 
funding necessary for prudent management of a school. These schools 
receive their administrative funding through Administrative Cost 
Grants, a formula-based method created by Congress to calculate the 
amount of funds that should be provided for the administrative and 
indirect cost expenses incurred in the operation of BIA school 
programs--similar to ``contract support'' costs provided to non-school 
contractors. The Administrative Cost Grant formula was designed as a 
compromise, a minimum calculation of the administrative costs necessary 
for prudent management of tribally operated schools. When 100 percent 
of these costs are not funded, our schools are set up for failure.
    We were pleased that Congress increased Administrative Cost Grant 
funding by $1 million in fiscal year 2001 after funding had been frozen 
at the same level ($42.1 million) for three consecutive years. Yet 
after so many years of underfunding, the shortfall has become quite 
significant, and additional schools have converted to tribal operation, 
causing the available appropriation to be divided between a larger 
number of schools. The percentage of the formula met declined from 89.5 
percent (SY 1998-99) to 79.68 percent (SY 2000-01) in the three budget 
years where funding remained level.\1\
---------------------------------------------------------------------------
    \1\ BIA education program funding is ``forward funded'', as are 
most federal aid to education programs. Thus, for example, the fiscal 
year 2000 budget funded the current school year, SY 2000-2001.
---------------------------------------------------------------------------
    The impacts of these shortfalls are devastating to tribes' ability 
to successfully operate BIA-funded schools. Tribally-operated schools 
have been forced to make reductions-in-force that cost them vital, 
well-trained administrative staff. Remaining staff struggle under the 
stress of being overloaded with the work of multiple people. Some 
schools have had to convert their administrative staff to a 10-month 
employment year, leaving them ill-prepared to close out the 
administrative work of the previous school year and to prepare for the 
coming school year and annual audit. Reduced funding jeopardizes our 
ability to comply with the internal controls needed for prudent fiscal 
management.
    The National Congress of American Indians and the National Indian 
Education Association both passed resolutions this year calling for 
full funding of Administrative Cost Grants. We implore Congress to join 
these bodies in recognizing that tribal schools' needs for 
administrative costs are just as great as those of other tribally-
operated BIA and IHS programs.
    Please provide funding for the full need generated by the 
Administrative Cost Grant formula, which we estimate will require 
approximately $55 million in fiscal year 2002.
    We also ask that the rider included in recent Interior 
Appropriations measures capping Administrative Cost Grant funding be 
excluded from future Interior Appropriations measures. This language is 
intended to overturn a 1997 decision by the Interior Board of Contract 
Appeals that said that the BIA violated the law by failing to pay the 
Alamo Navajo School Board and the Miccosukee Tribal School the full 
amount of AC grant that was required by federal law. We ask that you 
delete any proposal to extend the current cap for another year and 
fully fund AC grants at 100 percent of need, as required under the 
authorizing statute.

                         STUDENT TRANSPORTATION
    The daily bus service we provide for our students comes at an 
increasingly high premium. Fuel costs have increased at an alarming 
rate. GSA continues to raise their annual rates for leased buses and 
mileage. Many of the roads traveled by our buses are dirt roads, 
resulting in a much higher than average rate of wear and tear on our 
buses. But regardless of the costs we incur in transporting students, 
we have to get them to class--so when transportation costs are 
underfunded, we have no choice but to dip into funds that should be 
used--and are desperately needed for--classroom instruction. This is 
not a viable choice.
    Despite this crisis, in the current school year the Bureau-funded 
transportation rate is $2.31 per mile, far short of the nationwide 
average of $2.92 that was reported for public schools over six years 
ago. The fiscal year 2001 budget included less than a $200,000 increase 
in funding for Student Transportation. Sharp increases in fuel costs 
over the past year have compounded the already significant gap that 
existed between the funding we receive and the actual costs of 
providing student transportation.
    Please provide at least $44 million for Student Transportation in 
order to support a per-mile rate of $3.00, at a minimum.
      facilities improvement and repair needs at black mesa school
    Black Mesa is in immediate need of a small, safe facility for 
schoolbus and building maintenance. In 1984, the Bureau of Indian 
Affairs constructed a school building to replace the used trailers that 
had served as our sole facilities for nearly ten years. The original 
building plans for the 1984 construction also included planning for 
housing facilities, a transportation building, athletic fields, and 
site improvements. We were deeply appreciative of your committee's 1999 
approval of our request to utilize surplus savings to construct 
employee housing. In 1999 we were also granted three 2-room modular 
buildings from the BIA to address our need for additional classroom 
space. But our dire need for transportation and maintenance facilities 
remains.
    Due to our remote location, we must conduct a wide range of plant 
management and school bus maintenance onsite. At present, we conduct 
all plant management activities out of a small, locally constructed 
shed. This facility contains asbestos, has no plumbing or heat, is 
electricity deficient, and is generally ill-equipped and unsafe. In the 
winter, harsh weather forces the maintenance personnel to conduct their 
work in a small janitor's closet inside the school. We have no 
protected facilities for bus maintenance.
    We ask the committee to follow through on the 1984 building plan by 
securing the needed funds through FI& R or direct appropriations to 
construct a small multi-purpose facility to serve as an operations and 
maintenance shop, emergency generator room, transportation maintenance 
area, fire bay station, and storage area. The BIA's 1984 estimate for 
this facility was $219,200, and we estimate that such a facility would 
cost approximately $250,000 to construct today.
    Please work with the Administration to ensure that they fulfill 
their campaign promise of providing full funding of at least $802 
million for the maintenance backlog in BIA-funded schools, including 
our pressing needs at Black Mesa.

                 FACILITIES OPERATIONS AND MAINTENANCE
    We hope to get many years of use from our school facilities, which 
will require consistent maintenance over the life of the buildings. As 
such we are concerned with shortfalls in funding for facilities 
maintenance, which, while significantly improved this year, remain more 
than 20 percent short of the calculated need under the Congressionally 
mandated ``FACCOM'' formula used to distribute facilities O&M funds to 
the 185 schools in the system.
    The 185 BIA-funded schools rely on Facilities Operations and 
Maintenance funding to support their routine operational needs (such as 
the cost of utilities and janitors) and on-going maintenance needs (for 
boilers and building systems, water and sewer systems, etc.) for an 
enormous inventory of federally-owned buildings.
    We ask that the fiscal year 2002 BIA budget provide sufficient 
funding to eliminate the current 21 percent shortfall so that BIA-
funded schools can properly maintain the federal facilities we operate.

                               CONCLUSION
    All of us at Black Mesa thank you for your attention to these basic 
requests. While they represent a drop in the federal budget bucket, 
these dollars will have a dramatic effect on the day-to-day function of 
our school and the education of future generations in our community. We 
thank you for your ongoing work in support of Indian education, and 
look forward to working with you in the years to come to assure that 
our students have a learning environment that will empower them in 
achieving their highest aspirations.
    Thank you very much for your support.
                                 ______
                                 
           Prepared Statement of the Rock Point School Board
    Mr. Chairman and Members of the Committee: On behalf of the Rock 
Point Community School Board, we wish to express our appreciation for 
the work of this committee and for this opportunity to share our 
concerns regarding the education of Native American children. Our 
testimony highlights several areas in which the federal government has 
asked us to provide 100 percent of services on its behalf, while 
consistently providing far less than the funding that all agree is 
necessary to implement these services. In order to begin to reverse 
this catch-22, we request the following funding in the fiscal year 2002 
BIA budget: (1) ISEP Formula Funds--$362 million; (2) Administrative 
Cost Grants--$55 million; (3) Student Transportation--$44 million; and 
(4) Facilities Operations/Maintenance--funding to end the current 21 
percent shortfall as well as the backlog of over $800 million in 
Facilities Improvement and Repair.
    Congress and the new Administration have committed to working 
together to improve the federal aspects of education programs and 
funding nationwide. We hope that this commitment will start with the 
school systems that are entirely federally funded, of which the BIA-
funded school system is one of two. We at Rock Point know first hand 
that there is a great deal to be done to turn around this long-
neglected school system. We lack adequate funds to train and retain 
qualified teachers and staff. Our administrative budgets have shrunk to 
the point where it is nearly impossible to maintain prudent fiscal 
controls and oversight. Our elementary facilities suffer from neglect 
as routine major maintenance cannot be performed due to funding 
shortage. Student transportation costs have ballooned to a point where 
we have no choice but to dip into our scant educational dollars just to 
get our students to school. This is no way to run a school, and no way 
to demonstrate to Native American children that they matter to this 
nation.

               INDIAN SCHOOL EQUALIZATION PROGRAM (ISEP)
    Recently, representatives from the Office of Indian Education 
Programs (OIEP), Bureau of Indian Affairs, in discussion with school 
representatives and others, forged the following goals for all BIA-
funded schools:
  --All children read independently by the third grade
  --70 percent of students are proficient/advanced in reading, language 
        arts and math
  --Reduce student drop-out rate
  --Students demonstrate knowledge of their language and culture
  --Increased enrollment, retention, placement and graduation rates for 
        post-secondary students.
    These are reasonable, important goals--but given the severe 
underfunding we face under the current budget, we have no means by 
which to get there from here.
    Rock Point Community School is far removed from the nearest major 
town-we must travel 2 hours to procure basic supplies. Quality teachers 
willing to work in our remote location can be hard to come by--
especially when we cannot afford to match salaries for less remote 
areas and are unable to provide adequate annual salary increases. We 
are hard-pressed to provide even the most basic classroom instructional 
materials, let alone the updated classroom supplies, textbooks, library 
books, computers, and relevant educational software that our students 
deserve.
    President Bush has assigned education as his top priority. His 
theme for education is ``No Child will be left behind''. We ask that 
our Indian children not be left behind by appropriating enough funding 
to meet their academic needs.

                             RECOMMENDATION
    In order to address these shortfalls so that BIA-funded schools can 
move forward toward the goals of student achievement laid out by the 
OIEP, we ask that the fiscal year 2002 BIA budget include $362 million 
for ISEP Formula funding in order to raise the Weighted Student Unit to 
$4,000.

                       ADMINISTRATIVE COST GRANTS
    Like many other tribally-operated schools, we have begun to suffer 
the impacts of years of shortfalls in the funding provided for 
Administrative Cost Grants. These funds, which are based on a formula 
created by Congress to determine the minimum funding necessary for 
prudent management to operate our school, are critical to smooth 
operation of our school programs. Yet this year, tribally-operated 
schools are receiving less than 80 percent of the funding that Congress 
determined to be necessary to cover basic administrative costs and 
ensure prudent management.
    As a result, we have had no choice but to curtail important 
services, let go of administrative staff that oversee fiscal, and 
policy-making management at the school, and cut back on other aspects 
of our administration that are critical to sound management. We are not 
alone in these struggles--we understand that many other schools have 
been forced to make staff cut-backs and cut corners in administration, 
and have been hard-pressed to meet the oversight standards required by 
law. At this rate, the impacts of Administrative Cost Grant shortfalls 
stand to completely undermine tribal operation of BIA schools if they 
continue uncorrected.
                             RECOMMENDATION
    We ask that Congress meet its commitment to fund the full need 
generated by the Administrative Cost Grant formula, which we estimate 
at approximately $55 million for fiscal year 2002. In addition, we 
request elimination of the language included in recent Interior 
Appropriations measures that caps Administrative Cost Grants.

                         SCHOOL TRANSPORTATION
    The daily bus service we provide for our students comes at an 
increasingly high premium. Fuel costs have increased to an average of 
$1.65 a gallon locally. GSA continues to raise their annual rates for 
leased buses and mileage. Many of the roads traveled by our buses are 
dirt roads, resulting in a much higher than average rate of wear and 
tear on our buses. The nearest maintenance facility is two hours from 
our school, adding a considerable expense every time repairs must be 
done--which is quite often. While buses are generally supposed to be 
replaced after 80,000 miles, many of our buses have logged over 100,000 
miles, and we have more than half elderly buses in desperate need of 
replacement. Nonetheless, we join many, many schools who wait in line 
for GSA buses.
    But regardless of the costs we incur in transporting students, we 
have to get them to class--so when transportation costs are 
underfunded, we have no choice but to dip into funds that should be 
used--and are desperately needed for--classroom instruction. This is a 
terrible situation that cannot continue.

                             RECOMMENDATION
    Please provide at least $44 million for Student Transportation in 
order to support a per-mile rate of $3.00, at a minimum.
 facilities operations and maintenance and facilities improvement and 
                                 repair
    As the majority of the school facilities at Rock Point have aged 
well past the 30-year life expectancy of most school buildings, we 
require constant maintenance to assure the health, safety, and comfort 
of our students. But given the significant budget constraints we face 
year after year in our Facilities Operations and Maintenance funding, 
we cannot afford to undertake all of the needed maintenance in any 
given year. At times we struggle with leaking roofs, settlement 
problems, and an array of other recurring concerns that become larger 
year after year when we are unable to afford preventive maintenance. 
Often such problems become larger scale Facilities Improvement and 
Repair problems when left unaddressed.
    Facilities Operations and Maintenance funds were recently divided 
into two accounts, and Facilities Maintenance funding has been blended 
into the overall line item for Facilities Improvement and Repair under 
the Education Construction budget. As a result, it has become difficult 
to discern what funding will be available for Facilities Operations and 
Maintenance under the FACCOM formula until we receive distributions 
from the BIA. In the current school year, we face a constraint or 
shortfall of 25-30 percent. While this is an improvement over the 33 
percent constraint we faced in previous years, we still do not get the 
funds necessary for adequate upkeep of the buildings we maintain on the 
federal government's behalf.

                             RECOMMENDATION
    We recommend that the combined funding for Facilities Operations 
and Facilities Maintenance be increased by at least 30 percent to 
eliminate the current constraint. We also ask that Congress work with 
the Administration to ensure that President Bush can fulfill his 
campaign promise to eliminate the repair backlog of over $800 million 
in Facilities Improvement and Repair projects.
    We thank you for your ongoing efforts on behalf of BIA-funded 
schools.
                                 ______
                                 
       Prepared Statement of the Alamo-Navajo School Board, Inc.
    Mr. Chairman and Members of the Committee: The Alamo-Navajo School 
Board is a multi-faceted organization which is responsible for 
operation of nearly all federal programs that serve the 2,000 Navajo 
people who live on the Alamo Reservation. Our 10-square mile 
reservation is isolated in south-central New Mexico, 250 miles from the 
Big Navajo Reservation. Because of our remote location, the Navajo 
Nation and its political subdivision, the Alamo Chapter, authorize the 
School Board to administer the education, health care, road 
maintenance, job training, Head Start and other community programs that 
serve our residents. On an annual basis, we operate over $9 million of 
federal and state supported programs.
    The President's Commitment.--President Bush has assigned his 
highest priority to assure that ``No Child Is Left Behind''. He is 
committed to working with Congress to make this goal a reality. We 
heartily concur--and hope that he and this Subcommittee will assure 
that our children are included in this effort so that No Indian Child 
is Left Behind either!
    The BIA school system is the sole responsibility of the Federal 
Government; it is not part of any State public school system. Thus, 
Congress and the President have a special responsibility to assure that 
sufficient resources are available to provide quality teachers, a 
challenging educational program and a safe environment conducive to the 
educational progress of the 50,000 Indian children in this Federal 
school system.
    Requests:
  --Full funding for Administrative Cost Grants--$55 million
  --Increase Indian School Equalization Formula to provide at least 
        $4,000 per Weighted Student Unit
  --Provide at least $3.00 per mile for Student Transportation to 
        combat skyrocketing fuel costs
  --Supply at least 20 percent additional funding for education 
        facilities operation and maintenance
  --Earmark $150,000 for a replacement fire truck for the Alamo 
        Reservation

                         BIA SCHOOL OPERATIONS
Administrative Cost Grants
    The shortfall in this account is reaching crisis proportions. 
Tribes and tribal school boards have taken on the responsibility for 
direct operation of two-thirds of the 185 BIA-funded schools, but we 
are not supplied with the funding required to run our fiscal and 
management affairs in a prudent manner. We learned in late February 
that for this school year (which began in August, 2000), BIA will 
supply less than 80 percent of the amount needed for our administrative 
costs. Under the law, we are supposed to receive an Administrative Cost 
Grant to cover the added expenses incurred in direct tribal operation 
of schools. Yet only once in the past 12 years has Congress fully 
funded the formula for AC Grants established by Federal law.
    The chronic shortfalls in AC Grants severely compromise our ability 
to maintain proper internal management controls, to prepare for and pay 
for annual audits, and to discharge the numerous policy-making, 
supervision, program planning and management activities for which 
tribal school boards are responsible. No educational institution can 
stay afloat--let alone succeed--if it is required to do more with less 
year after year.
    We are grateful that Congress provided an additional $1 million for 
AC Grants in the fiscal year 2001 budget, but we will not see these 
additional dollars until next school year. And, frankly, this small 
increase will not rectify the shortages suffered in eleven of the last 
twelve years, nor will it bring us even close to 100 percent AC Grant 
funding in SY 2001-02.
    In recent years, this Subcommittee has recognized and taken steps 
to rectify the troublesome shortfalls in ``contract support cost'' 
funding for tribes who operate non-education programs of BIA and IHS. 
Perhaps because the Administrative Cost Grant account is a far smaller 
and less visible part of the BIA budget, schools' needs have not 
received the same level of attention. We hope you will cure this 
oversight in the fiscal year 2002 budget.
    We implore Congress to keep its promise to support tribal operation 
of schools for Indian children, and to recognize that tribal schools' 
needs for administrative cost funding are just as great as those of 
other tribally-operated BIA and IHS programs. Please provide full 
funding for AC Grants at the level required by the statutory formula. 
We conservatively estimate the need to be at least $55 million for 
fiscal year 2002.
    We also ask you to discontinue the appropriations rider that has 
``capped'' the amount of BIA funds that can be used for AC Grants. This 
rider is intended to overturn a 1997 decision by the Interior Board of 
Contract Appeals that said the BIA violated the law by failing to pay 
100 percent of the Administrative Costs of the Alamo Navajo School 
Board and the Miccosukee Tribal School. We initiated this suit because 
the BIA underpaid our AC grant by more than $386,000 over a four-year 
period.
    Congress breaks faith with us when on the one hand it encourages 
tribes to take over school operations and establishes a formula for 
calculating the added resources we need to do so, but on the other hand 
reneges on the commitment to provide us with resources at the level 
Congress itself enacted into law.
Indian School Equalization Formula
    Indian Country has always experienced difficulty in attracting 
experienced teachers to work in isolated reservation schools, and our 
problems are multiplied by the nationwide teacher shortage. At Alamo, 
we expect to lose up to ten of our current teachers, many of whom are 
leaving for better-paying jobs. This presents us with a daunting 
challenge. How can we recruit and retain qualified teachers to work at 
comparatively low wages in a remote Indian community that is 150 miles 
from the closest city (Albuquerque)?
    If we are to have any chance of competing for the teachers we need, 
we must be able to offer more than the excitement and challenge of 
working at a small but vibrant school in a traditional Indian 
community--we must also offer competitive wages. The ISEF is our only 
source of funding for teacher salaries, but the amount we receive is 
insufficient to enable us to attract and retain the staff we require. 
Alamo's situation is repeated at all BIA-funded schools.
    We, therefore, ask the Subcommittee to generously increase funding 
for the ISEF, at least to the level where schools will receive $4,000 
per weighted student unit (WSU), to help us combat teacher attrition 
and fill vacant positions that are vital to the success of our 
educational mission.
Student Transportation
    Fuel costs have skyrocketed in the past year. Please consider the 
impact this has on our school bus operations that were woefully 
underfunded to begin with. Last school year, we received $2.26/mile for 
our student transportation needs. This school year--with fuel costs 
increasing by leaps and bounds--we are receiving merely 5 cents per 
mile more. By contrast, the average rate per-mile spent on student 
transportation by public school systems throughout the country was 
nearly $3.00/mile--six years ago.
    How can Indian schools continue to pay certified bus drivers, 
maintain safe buses, negotiate poor, unimproved bus routes, and pay top 
dollar for fuel when our funding is 25 percent less than the 6-year-old 
public school average?
    We ask the Subcommittee to provide emergency funding to help us 
with shortfalls this school year, and to fund student transportation at 
least at $3.00 per mile in the fiscal year 2002 budget. Without 
rational student transportation funding, many Indian children will be 
left behind--at the bus stop.
Facilities Operations and Maintenance Funding
    Facilities maintenance is another area where the Federal Government 
expects us to do a 100 percent job but provides us with far less than 
100 percent of the resources we need to do it. Our school buildings are 
all owned by the Federal Government, yet last year the owner supplied 
about 33 percent less than the amount required to maintain its multi-
million dollar investments.
    The situation has slightly improved for School Year 2000-01, as our 
facilities operation and maintenance funding is now only about 21 
percent below the level of need. But even at this rate, many 
maintenance activities will be sacrificed and even our newest buildings 
will deteriorate at an accelerated rate. We find this unacceptable 
because of the adverse impact this has on our ability to conduct a 
quality educational program. The Federal Government--the owner of those 
buildings--should also find this unacceptable, if only because your 
investment is not being properly protected.
    Please assure that funding for facilities operation and facilities 
maintenance (which were split into two accounts at the BIA's request) 
is increased by an aggregate of at least 20 percent so we can undertake 
delayed maintenance work, pay our utility costs, and provide a decent 
educational environment for our Indian children.
School Facilities Improvement & Repair
    We heartily thank the Congress for the generous increase in 
education Facilities Improvement & Repair funding supplied in fiscal 
year 2001. Even with the approximately $30 million transferred to this 
account from ``facilities maintenance'', the net increase of some $100 
million is indeed laudable. This funding is helping to reduce the 
backlog that BIA estimated at $802 million in January, 2000.
    During the campaign, candidate Bush pledged to ``immediately 
eliminate the entire $802 million backlog of school repairs'' for the 
BIA school system. We are hopeful that President Bush will follow 
through on this pledge in his fiscal year 2002 budget request, and that 
you will endorse such a request.
    At Alamo alone, our backlog of identified FI&R projects exceeds 
$1.5 million, and our school is less than 20 years old. Some of the 
work we need done includes replacement of the school HVAC system, 
replacement of water heating units and roof repairs. If BIA provides us 
with the needed funds, we can accomplish these projects more quickly 
and efficiently with our own staff and through contracts with suppliers 
than if the BIA undertook the work itself. We urge you to continue 
generous funding for this account.

                              FIRE SAFETY
    For the past several years, we have asked the Subcommittee to help 
us cure an alarming fire safety deficiency. We have ONE fire truck to 
serve the entire Alamo Reservation which geographically is the size of 
the District of Columbia. This vehicle is nearly 30 years old and 
carries only 500 gallons of water. It might be laughable were it not 
the sole means of fire protection for $25 million in federal facilities 
and 1,000 family homes.
    So far, the Subcommittee has not granted our request. Nonetheless, 
we repeat here our appeal for decent fire safety equipment and hope it 
will be granted in fiscal year 2002.
    In past years, BIA has estimated the cost of new fire trucks at 
between $160,000-$170,000. If the Subcommittee would provide Alamo with 
just $150,000, we are confident we could obtain the necessary equipment 
to fill our critical need for a decent, higher capacity fire truck to 
protect lives and property on our reservation.
    Thank you for your continuing support for Indian self-determination 
and for Indian education.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California
    Dear Chairman Burns: Support for fiscal year 2002 Federal Funding 
of $5.2 Million for the Department of the Interior--Bureau of Land 
Management to assist in the Colorado River Basin Salinity Control 
Program, with $800,000 to be designated specifically to salinity 
control efforts.
    Your support and leadership are needed in securing adequate fiscal 
year 2002 funding for the Department of the Interior--Bureau of Land 
Management with respect to the federal/state Colorado River Basin 
Salinity Control Program. This program is carried out as a part of 
ecosystem and watershed management pursuant to the Colorado River Basin 
Salinity Control Act and the Clean Water Act.
    As you are aware, the Bureau of Land Management (BLM) is the 
largest landowner in the Colorado River Basin. Due to geological 
conditions, much of the lands that are controlled and managed by the 
BLM are heavily laden with salt. Past management practices have led to 
man-induced and accelerated erosional processes from which soil and 
rocks, heavily laden with salt have been deposited in various stream 
beds or flood plains. As a result of this disposition, salt is 
dissolved into the River System causing water quality problems 
downstream.
    Congress has charged federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity measures available. In keeping with the 
Congressional mandate to maximize the cost-effectiveness of the 
salinity control program, the Colorado River Board is requesting that 
Congress appropriate and the administration allocate adequate funds to 
support BLM's portion of the Colorado River Basin Salinity Control 
Program.
    The Colorado River Board of California, the state agency charged 
with protecting California's interests and rights in the water and 
power resources of the Colorado River System, requests that Congress 
appropriate $5,200,000 of these funds in fiscal year 2002, to 
accomplish activities that BLM either has underway or should initiate 
in order to further control the concentrations of salinity of the 
Colorado River. It is particularly important that the BLM's line item 
for Management of Lands and Renewal Resources be adequately funded. The 
Colorado River Board urges the Subcommittee to specifically mark, 
$800,000 from this line-item for the Colorado River Basin Salinity 
Control Program as has been the direction to BLM from the Subcommittee 
in past years.
    Soon your Subcommittee will receive testimony from the Colorado 
River Basin Salinity Control Forum (Forum) on behalf of the seven 
Colorado River Basin states. The Colorado River Board concurs in the 
fiscal year 2002 funding request and justification statements for BLM 
as set forth in the Forum's testimony.
    California's Colorado River water users are presently suffering 
economic damages in the hundreds of million of dollars per year due to 
the river's salinity. In addition, the federal government has made 
significant commitments to the Republic of Mexico and to the seven 
Colorado River Basin states with regard to the delivery of quality 
water to Mexico. In order for those commitments to be honored, it is 
essential that in fiscal year 2002 and in future fiscal years, that 
Congress provide funds to the Bureau of Land Management for its 
activities.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 17 million residents of southern California. 
Preservation of its quality through an effective Salinity Control 
Program will avoid the additional economic damages to river users in 
California.
    The Board greatly appreciates your support of the Colorado River 
Basin Salinity Control Program and asks for your assistance and 
leadership in securing adequate funding for this vital program.
                                 ______
                                 
 Prepared Statement of the California Industry and Government Coalition
    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Coalition for the Kern County Valley 
Floor Habitat Conservation Plan (KCVFHCP), we are pleased to submit 
this statement for the record in support of our funding request for the 
Interior Appropriations Bill for fiscal year 2002.
    First, the Coalition supports the fiscal year 2001 level of funding 
for the Department of Interior's budget request for the Cooperative 
Endangered Species Conservation Fund--especially funding for HCP land 
acquisition.
    Second, the Coalition urges the Subcommittee to appropriate 
additional funding for land acquisition above the funding requested by 
the President.
    Third, the Coalition requests that the Appropriations Subcommittee 
earmark $1 million to the Kern County program to be used for purposes 
of acquiring and maintaining habitat preserves.
    The Coalition's request is supported by the timely need to 
implement the KCVFHCP, which is in the final stages of development and 
expected to be completed by the beginning of calendar year 2002. In 
1997 the U.S. Fish and Wildlife Service allocated $500,000 of federal 
Endangered Species Act Section 6 funds to assist in program 
implementation. The California State Government has authorized $1 
million to augment the federal funds. In order to secure the $3 million 
total necessary for full implementation of the plan, we will require $1 
million for fiscal year 2002 and $500,000 for fiscal year 2003.
    The Coalition requests that the Subcommittee appropriate the 
maximum possible amount for this program, so that the funding pool can 
accommodate our request and need. We are confident that the plan's 
merits and urgency support this request.
    Kern County's program is unique from other regions in the nation in 
that it contains some of the highest concentrations of plant and animal 
species protected by the Endangered Species Act (ESA) within the 
continental United States. The region is occupied by 13 wildlife 
species and 14 plant species listed as threatened or endangered under 
federal law. The potential for conflict with the federal ESA is great 
in Kern County because of the extensive oil and gas production 
activities and the urbanization that is occurring. Since Kern County is 
the top oil producing county in the nation and experiencing rapid urban 
growth, potential conflicts with the ESA and their resolution through a 
proactive conservation program has significant national importance.
    In recognition of the conflicts posed to economic growth by federal 
and state endangered species laws, a joint agency Memorandum of 
Understanding was entered into by the U.S. Fish and Wildlife Service, 
Bureau of Land Management, California Energy Commission, California 
Division of Oil and Gas and Geothermal Resources, California Department 
of Fish and Game and Kern County. The participating agencies agreed to 
develop a unified conservation strategy with the goal of providing a 
streamlined and consistent process of complying with State and federal 
endangered species laws, yet at the same time allow important industry 
activities such as oil and gas, water conveyance and other industry 
activities to continue.
    Preparation of the KCVFHCP began in 1989 and involved a number of 
federal, State and local government agencies, as well as the oil and 
gas industry, agricultural, utilities and environmental groups.
    Kern County's Valley Floor Habitat Conservation Plan is one of the 
largest and most diverse endangered species conservation programs under 
development in the nation encompassing over 3,110 square miles. The 
program represents a departure from traditional endangered species 
conservation programs which utilize prohibitory controls to assure 
conservation of species habitat. Instead, it is based on an incentive-
based system of selling or trading habitat credits in an open market. 
This innovative approach, for the first time, provides landowners with 
real incentives and more importantly, the ability to choose how best to 
manage their own private property. The KCVFHCP is in the final stages 
of development and is scheduled to be completed in 2001. The HCP 
document and an Environmental Impact Statement will shortly be 
released, and the Implementing Agreement with the wildlife agencies is 
being developed.
    Numerous agencies, in concert with the State of California and 
local government entities, as well as the private oil and gas industry 
have contributed funding, time and other resources toward developing 
the KCVFHCP. The KCVFHCP program will be completed in late 2001, 
provided there is the necessary federal funding for the acquisition of 
habitat to mitigate for oil and gas operations and development. 
Additional funding is critical to completing the HCP. This is one of 
the final steps necessary to implement the conservation strategy. 
Because of the extensive private, local and state government financial 
support that went into the development of this program, federal 
participation in program implementation will demonstrate that the 
burden of ESA compliance is not being placed exclusively on private 
property owners. Program funding will also contribute to eventual 
species recovery.

                         PROGRAM FUNDING NEEDS
    In order for the KCVFHCP to be implemented, the program requires 
funding in the amount of $1.5 million (augments the $1.5 million in 
state and federal funding received in 1997) that could be funded in 
increments over the first two years of the program. The purpose of this 
funding is described as follows:
Oil Development Issue
    A mitigation strategy has been devised that is intended to 
acknowledge existing oil field activities within Kern County. The 
strategy proposes to acquire 3,000 acres of endangered species habitat 
to mitigate for species loss resulting from oil field development 
outside of established oil field production areas, but within proximity 
of those areas. This is to allow for reasonable expansion of oil field 
activities over the life of the HCP program. The program strategy 
allocates $3.0 million for acquisition and perpetual maintenance of 
species reserve areas. With this type of strategy, oil field expansion 
activities would be provided for in the program. This strategy would be 
of great benefit to the small independent oil and gas companies within 
the program area.
Urban Development/County Infrastructure Issue
    The conservation program includes an Urban Development/County 
Infrastructure mitigation strategy that mitigates for species habitat 
loss through the use of an incentive-based system of selling or trading 
habitat credits in an open market. This innovative program will add 
market value to land that is needed by project proponents to comply 
with endangered species laws. Protected species of plants and animals 
will benefit from a program that promotes private property owners to 
conserve permanent habitat preserves consistent with the objectives of 
the ESA.
Federal Funding Support will Augment Local Government and Private 
        Industry Efforts to Comply with the Endangered Species Act
    The $1.5 million required for the oil field strategy would help 
contribute to satisfying the program's endangered species conservation 
goals, while also providing for continued economic growth of Kern 
County's oil and urban development activities. Protected species would 
benefit from a comprehensive long-term program that promotes the 
creation of permanent habitat preserves.
    Numerous private businesses, in concert with the State of 
California and local government entities, are attempting to do their 
part, and we come to the appropriations process to request assistance 
in obtaining a fair federal share of financial support for this 
important effort. This unique cooperative partnership involving state 
and local government, as well as private industry, has contributed 
substantial funds to date, to assist in the development of this 
program.
    The California Industry and Government Coalition appreciates the 
Subcommittee's consideration of this request for a fiscal year 2001 
appropriation to support implementation of this significant program.
                                 ______
                                 
             Prepared Statement of the Knik Tribal Council
    Thank you, Mr. Chairman, I am Paul B. Theodore, Chief of the Knik 
Tribe and Knik Tribal Council. I am pleased to appear before you today 
to discuss the plight of my People.

                              INTRODUCTION
    The Knik Tribal Council represents descendants of the aboriginal 
people of the Knik and Upper Cook Inlet areas, with a common bond of 
residence and/or association with the Native community of Knik. Knik 
Tribal Council promotes the Tribe's social economic, and cultural 
progress for all its members. The Knik Tribe is the oldest in the area 
and its people occupied the land before the Russian immigration.
    The Knik Tribal Council, the recognized tribal entity, in this 
area, has emerged as one of the Tribal leaders in organizing to provide 
needed services and advocacy for the Alaska Native/American Indian 
population in the Mat-Su Valley. The Alaska Native/American Indian 
population in the Mat-Su Valley is approximately 3,300 of the total 
population of 60,000.
    The Alaska Native/American Indian population in the Mat-Su Valley 
increased from 688 in 1980 to 3,300 in 1998, making the Mat-Su Valley 
the fastest growing Alaska Native/American Indian population in the 
entire state. The rapid growth within the Mat-Su Valley is felt in lack 
of employment opportunities, inadequate access to a limited amount of 
services, tight housing market and limited transportation access.

        CLEANUP OF THE FUDS LOCATION NIKE/GOOSE BAY MISSILE SITE
    The Knik Tribal Council is currently in the beginnings of a 
relationship with the United States Army Corps of Engineers to cleanup 
and restore the location formerly known as the Nike/Goose Bay Missile 
Site in Knik, Alaska. This site is known to contain harmful 
contaminants and poses a definite threat to human life. Area teenagers 
and hunters are known to frequent this land and thereby take the 
contamination home on their shoes and clothing.
    We wish to receive help to allow us to operate at our full 
capacity. The DOD is only providing funding for this one project, but 
the Tribe wishes to fully restore our Native lands to their former 
uses.

               RESTORATION OF SUBSISTENCE LANDS AND FOODS
    Mr. Chairman, my people no longer have a viable source of 
subsistence foods and are quickly losing their lifestyle. The Beluga 
whales and other marine mammals have dwindled to a point where all the 
Tribes in the area have to compete with illegal hunters and sports 
fisherman. We need funding to restore this population with fisheries 
and protected breeding grounds. The contaminants from the afore 
mentioned site are seeping into the Cook Inlet and the ground water, 
poisoning my people. Our subsistence foods are the mainstay of our 
culture.
    I wish to perform studies to determine the wide impact the 
contaminants have had on my People and surveys of what my people need 
in order to survive. Mr. Chairman, these studies are long range and 
costly. My resources are few and we have to use them to operate our 
current programs, which include a food bank, dental, and optometry 
services and a library. We also have a Tribal youth program which 
serves to prevent juvenile delinquency and substance abuse. This brings 
me to another subject which is impacting my people.

                             MEDICAL CLINIC
    We are located an hour from the nearest major city and this is 
problematic for my people when they need serious care. Our pregnant 
women have to travel a great distance, which, if you are a woman who 
has ever been in labor, you know to be traumatic. We no longer have 
medicine people in our Tribe capable of the healing arts. We are 
looking for funding for a medical complex, which we will build in the 
town of Wasilla and will serve low--income families. This will also 
require staffing and equipment. We are unable to keep our people from 
becoming ill by the contaminants at this time, but we wish to help them 
alleviate their pain.

                               CONCLUSION
    In conclusion, I wish to once again express my concern for the 
welfare of my People and I hope I have been able to expand your 
knowledge today of their plight. Mr. Chairman, this completes my 
statement. I am prepared to answer your questions as well as those of 
other members of the Committee.
                                 ______
                                 
            Prepared Statement of the Coquille Indian Tribe
    Mr. Chairman, I am Ed Metcalf, Chairman of the Coquille Indian 
Tribe, on the behalf of which I hereby submit this testimony with the 
following requests for the fiscal year 2002 Bureau of Indian Affairs 
appropriation:
    (1) Increase the Coquille Tribe's base funding in Tribal Priority 
Allocations by $300,000 to provide basic trust management of the 
Coquille Forest,
    (2) Designate $80,000 in BIA Law Enforcement for the Coquille 
Tribe, and
    (3) Increase the Coquille Tribe's base funding in Tribal Priority 
Allocations by $50,000 to help establish our Tribal Court.
    Details and justification of our above requests are discussed 
below.
    (1) Increase the Coquille Tribe's base funding in Tribal Priority 
Allocations by $300,000 to provide basic trust management of the 
Coquille Forest.--We request that $300,000 be added to the Coquille 
Tribe's on-going base funding in the B.I.A.'s Tribal Priority 
Allocations appropriations item to establish a permanent funding base 
for management of the Coquille Forest.
    Nearly five years after Congress restored homelands to the Coquille 
Tribe with the establishment of the Coquille Forest (Public Law 104-
208), no on-going base funding has been provided for the management and 
operation of these trust lands. Since the establishment of the Coquille 
Forest, the BIA has repeatedly declined to include any funding in its 
annual budget request to Congress for these productive trust 
timberlands. We have calculated that a minimal annual budget to manage 
these lands, which are required to comply with environmental standards 
for surrounding B.L.M. lands, to be $300,000.
    In recent years, at our urging, B.I.A. has patched together some 
funds for intermittent management projects on our 5,400 acre Forest. 
But our first timber sale is now out to bid, and we plan another sale 
this summer that will have harvest scheduled across the next four 
years. Our need for stable, on-going management funding from our 
trustee is now critical. We urge that the $300,000 be added to our 
Tribe's budget in the B.I.A. Tribal Priority Allocation appropriation, 
which provides on-going base funds for tribes.
    In the event a $300,000 addition is not feasible, we ask that 
$200,000 for our Forest be directed into our T.P.A. account from the 
B.I.A.'s $1.5 million Northwest tribal timber harvest initiative 
appropriation. The Northwest tribal timber harvest initiative is 
appropriated as part of the B.I.A. Forestry program in the Non-
Recurring Programs activity. In the past few years, B.I.A. has used 
funds from this program as part of its temporary funding for the 
Coquille Forest. The purpose of the harvest initiative has been to 
accelerate harvest from tribal timber backlogs to help offset the 
reduction in timber from federal lands in the Northwest. Dedicating a 
small portion of those funds for management of the new Coquille Forest 
is consistent with those objectives, and a $200,000 transfer to the 
Coquille T.P.A. program will not significantly disrupt other 
participants in the program. Moving forward with the timber sale 
program and other management activities on Coquille Forest land is 
crucial for meeting the Tribe's revenue needs and will provide timber 
industry jobs and economic benefits to communities in this economically 
depressed area of the Oregon coast.
     (2) and (3) Designate $80,000 in BIA Law Enforcement for the 
Coquille Tribe and add $50,000 for tribal courts to Coquille base 
funding.--We request that $80,000 be designated within the B.I.A. Law 
Enforcement budget for the Coquille Tribe, and that $50,000 for our 
Tribal Court be added to the Coquille Tribe's on-going base funding in 
the B.I.A.'s Tribal Priority Allocation budget.
    The Coquille Tribal Police and Public Safety Department was 
established in 1994 to address the specific needs of law enforcement 
and public safety within our Homelands community. Our Homelands include 
tribal housing, our Health Center/Clinic, our Cranberry Farm, the 
Equipment Maintenance Shop, and our Community Center Head Start 
building. Our Homelands are the very center of our Tribal community, 
and is on reservation land. Our Homelands are in an area where the 
crime rate is the highest in Coos County, and the provision of 
sufficient law enforcement is essential. The Bureau of Indian Affairs 
has responsibility for provision of public safety on Indian reservation 
lands, but despite several years of funding increases for a law 
enforcement improvement initiative, has repeatedly rejected our 
requests for law enforcement assistance. To provide a desperately 
needed supplement for our own law enforcement spending, we ask that 
$80,000 be designated for our Tribe in the B.I.A. Law Enforcement 
Initiative budget.
    We also request that $50,000 for our Tribal Court be added to the 
Coquille Tribe's budget in the B.I.A. Tribal Priority Allocation 
activity. The Coquille Tribal Constitution, Congressionally approved in 
1991, mandates that the Tribe establish a Tribal Court system. 
Following the development of our Tribal Police and Public Safety 
Department, we established our Coquille Tribal Court in 1999. The 
B.I.A. has not provided any funding assistance, and the Tribe's having 
to bear this requirement is causing considerable hardship.
    Although the Tribe took the initiative and assumed responsibility 
for developing and implementing these ``new'' programs, this action has 
placed the Tribe in the difficult position of having to carve funding 
from other programs and services.
    For budget reasons in recent years, the B.I.A. has taken the 
position of not providing specific funding for ``new'' programs. For 
our Tribe, which was restored to federal recognition in June of 1989, 
this is directly affecting our legitimate participation in the full 
range of Bureau programs for tribes. Since restoration, all of our 
programs could be classified as ``new,'' even though our development of 
various programs is a function of our evolving restoration process. The 
development of our Homelands, then the development of a needed Public 
Safety Department, and then the development of our Tribal Court are all 
examples of this process. Although B.I.A. appropriated $11 million for 
tribal courts in fiscal year 2001 and $141 million for law enforcement, 
our Tribe has not participated in either. The B.I.A.'s present policy 
of excluding new programs from funding for necessary public services 
puts a disproportionate burden upon new tribes. The rationale of not 
providing funding because it has not been provided in the past seems 
arbitrary at best. The Coquille Tribe's program needs are legitimate, 
regardless of their history.
    We hope that the Subcommittee will be able to favorably consider 
these requests. If there are any questions regarding the Forestry 
request, please contact George Smith in our office. For public safety 
and courts questions, please contact Kathy Henry.
    Thank you for your consideration.
                                 ______
                                 
   Prepared Statement of the Wide Ruins Community School Board, Inc.
    The Wide Ruins Community School is a tribally controlled grant 
school located within the Navajo Reservation near Chambers, Arizona. 
Since 1998, the School has been tribally operated under the direction 
of the Wide Ruins Community School Board, Inc. We currently serve 
approximately 216 students from kindergarten through sixth grade. 
Because there are no paved roads in our area and many of our students' 
homes are in extremely remote locations, Wide Ruins Community School 
offers both day and residential programs. To address our school's 
urgent need for school construction and administrative funding, we ask 
that the fiscal year 2002 BIA budget include construction funding for 
the next ten schools on the new school construction priority list, as 
well as full funding for Administrative Cost Grants at $54 million.

                       SCHOOL CONSTRUCTION NEEDS
    The extremely poor condition of our school facility poses an 
immediate and serious threat to the health and safety of our students. 
The BIA recognized this pressing need by placing Wide Ruins Community 
School on the top tier of the priority list for school construction. 
With six schools from the list funded for construction under the fiscal 
year 2001 budget, we are now eighth in line for appropriations to fund 
construction.
    We commend Congress for funding construction of six new school 
facilities in fiscal year 2001. In fiscal year 2002, given the length 
of the list of schools in need and the pressing safety concerns that 
Wide Ruins and so many other schools face, we strongly urge you to fund 
construction of at least ten additional schools on the BIA Education 
Facilities Replacement List.
    The deficiencies in our facilities distract significantly from the 
educational program of our school and pose health, safety, and 
educational risks to children for whom we are charged with providing a 
safe and healthily leaning environment. There were 100 serious health 
and safety hazards (S-1 deficiencies) reported on our school's BIA 
FACCOM report as of June 2, 1999, an increase of 89 percent from the 
previous year and 355 percent over the previous two years. Our 
kindergarten and first grade classes are held in an antiquated 
dormitory that a BIA safety officer has declared unsafe. Our shortage 
of classroom space has also forced us to add seven portable buildings. 
We cannot accommodate the student demand for dormitory space, and our 
dormitory facilities are not set up to serve more than 80 students. 
Currently we have 25 students on a waiting list for dormitory space.
    These conditions are entirely unacceptable. There is no room for 
years of delay in facilities construction when the health and safety of 
young people is at stake. We are encouraged by the new Administration's 
comments with regard to the importance of funding the backlog of school 
construction needs in the BIA school system. We hope that the 
increasing awareness of the extreme neglect that these facilities have 
suffered will empower Congress and the Administration to work together 
to fund the replacement of at least ten schools in fiscal year 2002.
Administrative Cost Grants
    As you may know, the Administrative Cost Grant is a formula-based 
method created by Congress to calculate the amount of funds that should 
be provided to a tribe or tribal school board for the administrative 
and indirect cost expenses incurred in the operation of BIA school 
programs. Administrative Cost Grants serve the same purpose as 
``contract support costs'' provided to Indian tribes who operate non-
school programs under Indian Self-Determination Act contracts with BIA 
and the Indian health Service.
    We were pleased to note that Congress increased Administrative Cost 
Grant funding by $1 million in fiscal year 2001 after funding had been 
frozen at the same level ($42.1 million) for three consecutive years 
(fiscal year 1998, fiscal year 1999 and fiscal year 2000). Yet during 
those years, additional schools converted to tribal operation, which 
means that the available appropriation must be divided between a larger 
number of schools. The percentage of the formula met has declined from 
89.5 percent (fiscal year 1998) to 81 percent (estimate for fiscal year 
2000) in those budget years.\1\ During those years, schools' costs have 
continued to increase.
---------------------------------------------------------------------------
    \1\ BIA education program funding is ``forward funded'', as are 
most federal aid to education programs. Thus, for example, the fiscal 
year 1999 budget funded the current school year, SY 1999-2000, and the 
fiscal year 2000 budget will fund SY 2000-01.
---------------------------------------------------------------------------
    The Administrative Cost Grant formula was designed as a compromise, 
a minimum calculation of the administrative costs necessary for prudent 
management of tribally operated schools. When 100 percent of these 
costs are not funded, our schools are set up for failure. Many tribally 
operated schools have been forced to make reductions-in-force that cost 
them vital, well-trained administrative staff. Remaining staff struggle 
under the stress of being overloaded with the work of multiple people. 
Some schools have had to convert their administrative staff to a 10-
month employment year, leaving them ill-prepared to close out the 
administrative work of the previous school year and to prepare for the 
coming school year and annual audit. Reduced funding also forces 
curtailed staff training in new education developments, curriculum 
ideas, and technology information.
    The situation has become so pressing that the National Congress of 
American Indians and the National Indian Education Association both 
passed resolutions this year calling for full funding of Administrative 
Cost Grants. We implore Congress to join these bodies in recognizing 
that tribal schools' needs for administrative costs are just as great 
as those of other tribally operated BIA and I.H.S. programs. Please 
provide funding for the full need generated by the Administrative Cost 
Grant formula, which we estimate will require approximately $54 million 
in fiscal year 2002.
    We also ask that the appropriations rider included in recent 
Interior Appropriations measures capping Administrative cost Grant 
funding be removed from future budgets. This language is intended to 
overturn a 1997 decision by the Interior Board of Contract Appeals that 
said that the BIA violated the law by failing to pay the Alamo Navajo 
School Board and the Miccosukee Tribal School the full amount of AC 
grant that was required by federal law. We ask that you delete any 
proposal to extend the current cap for another year and fully fund AC 
grants at 100 percent of need, as required under the authorizing 
statute.
    Thank for your considering our concerns as you move forward in 
preparing the fiscal year 2002 Budget. We look forward to working with 
you to ensure that the BIA-funded school system, one of only two 
federally funded school systems, becomes a hallmark of what is possible 
when everyone works together for the benefit of children.
                                 ______
                                 
  Prepared Statement of the Upper Mississippi River Basin Association
    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created 20 years ago by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five states' river-related programs and policies and for 
collaborating with federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budget for both the U.S. Fish 
and Wildlife Service and the U.S. Geological Survey.

                     U.S. FISH AND WILDLIFE SERVICE
    The U.S. Fish and Wildlife Service has important responsibilities 
in the Upper Mississippi River Basin, including management of federal 
refuge lands and coordination with other federal, state, and local 
agencies on river-related ecological issues. Yet Region 3 continues to 
struggle to meet the needs in the region. The UMRBA strongly supports 
additional funding to enable the Fish and Wildlife Service to fulfill 
its responsibilities in the Upper Mississippi River Basin.
     Refuges and Wildlife.--The U.S. Fish and Wildlife Service 
administers over 250,000 acres of land and water scattered along the 
Mississippi and Illinois Rivers from the most northerly unit near 
Wabasha, Minnesota to the most southerly unit near Grafton, Illinois. 
This includes the Upper Mississippi River National Wildlife and Fish 
Refuge (NWFR), Mark Twain NWR, and Illinois River NWFR. The existence 
of this extensive national refuge system is, in part, the reason that, 
in 1986, Congress designated the Upper Mississippi River System as a 
``nationally significant ecosystem and a nationally significant 
commercial navigation system.''
    The UMRBA strongly supports the proposed increase of nearly $15 
million for Refuge Operations and Maintenance in the President's fiscal 
year 2002 budget. In fiscal year 2001, funding for the three refuges 
along the Upper Mississippi and Illinois Rivers totaled approximately 
$5.5 million, yet there continues to be a significant maintenance 
backlog. Of particular concern to the UMRBA is the fact that the 
refuges on the Upper Mississippi and Illinois Rivers have 
responsibility for the operation and maintenance (O&M) of projects that 
the Corps of Engineers constructs under the authority of the 
Environmental Management Program (EMP). The current annual O&M costs of 
these projects is about $330,000. If the refuge operations budget is 
not increased to accommodate EMP habitat projects, the future of the 
EMP, which Congress recently reauthorized, will be in jeopardy. In 
addition, there is a critical need for additional personnel to address 
law enforcement, biological needs, floodplain forest management, 
environmental education, and other refuge management needs.
     Ecological Services.--Funding from the Ecological Services account 
supports the field offices in Rock Island (IL), the Twin Cities (MN), 
and Marion (IL) that provide most of the ecological services work on 
the Upper Mississippi River (UMR) and tributaries, including work on 
threatened and endangered species, environmental contaminants, and 
habitat conservation. In fiscal year 2001, work being done by these 
Ecological Services field offices related to the Upper Mississippi 
River is estimated to be $375,000.
    The UMRBA supports this base funding for Ecological Services 
offices on the UMR and urges Congress to provide additional funding for 
the following specific UMR efforts: $650,000 to support the Habitat 
Needs Assessment in cooperation with the U.S. Army Corps of Engineers; 
$300,000 to support water quality efforts, including nutrient studies, 
biocriteria for water quality standards, superfund investigations, and 
consultation on state water quality standards; $700,000 for habitat 
restoration in UMR watersheds; $400,000 to support mitigation 
activities associated with federal navigation and flood control 
projects; $600,000 for needs related to the Endangered Species Act, 
including work on freshwater mussels and large river fishes; and 
$100,000 for administrative support of the Upper Mississippi River 
Conservation Committee.
     Fisheries.--Most of the Service's fish management on the Upper 
Mississippi River is conducted out of the La Crosse (WI), Columbia 
(MO), and Carterville (IL) Fisheries Resource Offices. Fish stocking is 
done from the National Fish Hatchery in Genoa, Wisconsin and fish 
health concerns are addressed by the Fish Health Center in Onalaska, 
Wisconsin.
    The UMRBA supports the important work done by these offices and 
thus supports the funding proposed in the President's budget for the 
Fisheries account in fiscal year 2002. Approximately $600,000 is being 
provided for fisheries work on the Upper Mississippi River in fiscal 
year 2001. However, needs are continuing to increase. Fish passage at 
Mississippi River locks and dams for interjurisdictional species such 
as paddlefish and sturgeon is a growing concern. In addition, the 
Fisheries Operational Needs System (FONS) has a backlog of 35 projects 
totaling $3.1 million. Unfunded projects include habitat restoration, 
assessment of main channel fishes, fish use of floodplain connected 
habitats on refuge lands, and production of fish for recreational use 
on refuge lands.

                         U.S. GEOLOGICAL SURVEY
    The USGS budget for fiscal year 2002 is proposed to be cut by over 
$69 million, a reduction of nearly 8 percent. Particularly alarming is 
the 22 percent cut for the USGS Water Resources Division. Such a 
substantial cutback would have debilitating effects on this country's 
water data and science programs. This cut is based on the premise that 
the USGS must focus on meeting the science needs of the Department of 
the Interior's land and resource management bureaus, while seeking 
reimbursement for the services that it claims primarily benefit other 
federal agencies, states, and local governments. This view of the USGS 
role is inconsistent with its history, current role, and the vision for 
its future put forth in the recent report of the National Research 
Council. As this nation's premier natural science agency, USGS must 
certainly continue to serve as the science arm of the Department of the 
Interior. But as the NRC recognizes, ``USGS also has significant 
responsibilities in support of other government agencies, states and 
local governments, tribes, industry, academic institutions, and the 
public.''
    The states of the Upper Mississippi River basin are deeply troubled 
that the fiscal year 2002 budget cuts proposed for USGS will compromise 
its ability to provide timely and unbiased scientific information about 
complex natural systems. There are several specific research and 
monitoring programs in the Water Resources Division (WRD) and 
Biological Resources Division (BRD) that are of particular interest to 
the UMRBA.
    Water Resources.--The USGS Water Resources Assessments and Research 
budget is proposed to be cut by 31 percent, entirely eliminating the 
Toxic Substances Hydrology program in fiscal year 2002. The Toxics 
Program, which conducts research on the behavior of toxic substances in 
the nation's hydrologic environments, is particularly important to the 
states of the Upper Midwest. Under this program, USGS has been studying 
the occurrence, transport, and fate of agricultural chemicals in a 12-
state area in the Upper Midwest. This research effort, called the 
``Midcontinent Herbicide Project,'' is helping to identify factors that 
affect dispersal of agricultural chemicals in surface and ground waters 
from point of application and evaluating the resulting effects in small 
streams and large rivers. The goal is to provide the general scientific 
basis needed to develop agricultural management practices that protect 
the quality of this region's water resources. Through its Toxics 
Program, USGS is also studying questions associated with hypoxia in the 
Gulf of Mexico, including the loads and sources of nutrients from the 
Mississippi River basin. Given the important work underway in the USGS 
Toxic Substances Hydrology Program, UMRBA urges Congress to restore the 
$10 million proposed cut.
    The UMRBA continues to support funding for the National Water 
Quality Assessment (NAWQA). NAWQA is designed to answer basic questions 
about the status and trends in the quality of our nation's ground and 
surface waters. By assessing 59 study units across the nation on a 
rotating basis, NAWQA is providing the data needed for broad scale 
assessments and comparative analyses. Local, state, and federal water 
managers are also using the data to address more local concerns. Under 
the President's fiscal year 2002 budget, NAWQA funding would be reduced 
by $20 million, suspending the work on 14 Cycle II study units for one 
year to ``aggressively pursue cost-sharing from the program's 
stakeholders.'' While none of the 14 units to be suspended are within 
the five UMRBA states, the states of this basin are concerned about the 
long-term viability of the NAWQA program. The Upper Mississippi River 
Basin includes four NAWQA study units (Upper Mississippi, Eastern Iowa, 
Lower Illinois, and Upper Illinois), three of which are scheduled for 
reactivation in fiscal year 2004.
    The UMRBA is also deeply concerned about the proposed 26 percent 
reduction in funding for Water Data Collection. Of particular concern 
is the $5 million funding cut for stream gages. This would be a 
devastating setback to recent efforts by USGS and its many federal, 
state, and local partners to bolster our nation's network of gages. The 
stream gaging network is essential to protecting public health and 
safety by forecasting floods and droughts, managing the nation's 
navigation system, and monitoring water quality. There are currently 
319 stream gages operated by USGS in the five UMRBA states. Over recent 
years, 80 gages have become inactive in the five states, many as a 
result of funding cutbacks. The loss of gages means the loss of the 
historical record that is needed for managing our nation's water 
resources. Rather than cutting the gaging program further, we should be 
moving toward implementing the network enhancements proposed in the 
USGS plan for the National Streamflow Information Program. Congress 
began this process by providing increases for stream gaging funding of 
$2 million in fiscal year 2000 and $3.1 million in fiscal year 2001. 
UMRBA recommends that this enhanced funding strategy continue in fiscal 
year 2002.
    Finally, the UMRBA supports the modest, but important, $1.577 
million increase proposed for the Federal/State Cooperative Water 
Program. The Coop Program is an essential tool in meeting state and 
local science needs. Cooperators generally match every $1.00 in federal 
funds with $1.50, demonstrating the value they place on the program.
    Biological Resources.--The President's fiscal year 2002 budget 
proposes a 7 percent reduction for USGS' Biological Resources Division. 
Among the cuts of particular concern to the UMRBA are those for fire 
ecology research, the GAP program, and the National Biological 
Information Infrastructure program. Given that the Upper Midwest 
Environmental Sciences Center (UMESC) would be affected either directly 
or indirectly by all of these reductions, the UMRBA urges that these 
funds be restored.
    The USGS fire ecology research, which is proposed to be funded in 
fiscal year 2002 under the Department's Wildland Fire Management 
account, would be cut by $2.8 million. As part of this reduction, UMESC 
funding would be cut by $159,000, terminating its studies of critical 
water meadow habitats for declining grassland birds in the Upper 
Midwest. Fire is one of the techniques that are presently employed and 
is included in the study as an approach for eradicating exotic plants. 
The study also is designed to provide land managers with new approaches 
to reestablish native vegetation in support of this declining bird 
group.
    Funding for the Gap Analysis Program (GAP) is slated for a decrease 
of $499,000 in addition to eliminating the $2.993 million provided for 
GAP in fiscal year 2001 under the Land Conservation, Preservation and 
Infrastructure Program. These cuts will mean a reduction of $360,000 at 
UMESC. GAP analysis is a scientific method for identifying the degree 
to which native species and natural communities are represented in 
currently protected and undisturbed habitat areas. This allows land 
managers, planners, and biologists to identify species for which there 
are conservation ``gaps.'' UMESC directs the Upper Midwest GAP 
partnership with the states of Wisconsin, Minnesota, Illinois, Indiana, 
and Michigan. In addition, UMESC is developing an Aquatic GAP program 
prototype for large river systems, with the Upper Mississippi River as 
a pilot system. If the proposed fiscal year 2002 funding cuts are not 
restored, UMESC will terminate the Aquatic Gap pilot on the Upper 
Mississippi River, an effort designed to identify critical habitats on 
the river system. Such information is expected to greatly enhance 
science-based decision about habitat projects undertaken as part of the 
Upper Mississippi River Environmental Management Program (EMP) and 
management of the National Wildlife Refuges on the river.
    The discontinuation of funding for the National Biological 
Information Infrastructure (NBII) program, which helps maintain 
biological information web sites, will also have an impact on UMESC, as 
well as other federal, state, local, and private partners who share 
biological information via this program. NBII helps provide access to 
biological databases and information that are important to natural 
resource managers and scientists throughout the country. UMRBA thus 
urges that funding for NBII be restored.
                                 ______
                                 
            Prepared Statement of the City of Fairfield, CA
    Mr. Chairman and members of the Senate Interior Appropriations 
Subcommittee, I would like to thank you for this opportunity to testify 
before you. My name is George Pettygrove and I am the mayor of the City 
of Fairfield, California. On behalf of the citizens of Fairfield, I 
request your support for one of the City's highest priorities for the 
fiscal year 2002.
    The City of Fairfield, California requests a $5 million earmark in 
the fiscal year 2002 Interior Appropriations for land acquisition 
associated with the Fairfield-Vacaville Greenbelt Project.
    In 1989, the City of Fairfield and the City of Vacaville initiated 
a planning process to create an open space greenbelt buffer between the 
two cities. In addition to ensuring separation between the two cities, 
the Fairfield-Vacaville Greenbelt Project will ensure the preservation 
of rapidly disappearing open space and viable agricultural lands in the 
region.
    A joint powers agreement between the two cities in 1994 outlined 
project goals, including: preserve and conserve viable agricultural and 
open space land; provide permanent separation between the two urban 
areas; provide for a range of land uses compatible with open space 
values; provide trail linkages; and provide for an urban limit line 
buffer.
    In 1996, the cities identified the location of the proposed 
greenbelt and analyzed land acquisition and other associated costs. 
Federal participation is essential to the success of this project, and 
federal funding will be used to leverage non-federal funding 
opportunities for this project.
    Thank you again for this opportunity to testify before this 
committee.
                                 ______
                                 
              Prepared Statement of the City of Folsom, CA
    Mr. Chairman and members of the Senate Interior Appropriations 
Subcommittee, I would like to thank you for this opportunity to testify 
before you. My name is Steve Miklos and I am the mayor of the City of 
Folsom, California. On behalf of the citizens of Folsom, I request your 
support for one of the City's highest priorities for the fiscal year 
2002.
    The City of Folsom requests your support of a $2 million earmark in 
the fiscal year 2002 Interior Appropriations Bill for planning and land 
acquisition to assist the City in preserving open space and 
historically significant areas within the City of Folsom.
    Less than two decades ago, the City of Folsom was a small foothill 
community with significant open space pastureland acreage within the 
city limits. Since then, Folsom has become one of California's fastest 
growing communities, with residential and commercial land uses quickly 
eliminating open space.
    The City has a strong interest in protecting open space within the 
City limits. An example of open space projects is the Broder Ranch 
Project. Broder Ranch provides one of the last opportunities to acquire 
and preserve open space representative of Folsom's history. The ranch 
is under significant and immediate development pressure and is likely 
to be converted to urbanized uses unless it is acquired and set aside 
as open space. The City is interested in making Broder Ranch an 
interpretive working ranch, which would be very educational regarding 
ranch life, water supply, cattle industry, the railroads, and Folsom's 
heritage of the most western terminus of the railroad. All of these 
past influences could be studied, practiced, and lived on this piece of 
land.
    Thank you again for this opportunity to testify before this 
committee.
                                 ______
                                 
             Prepared Statement of the County of Marion, OR
    Mr. Chairman and members of the Senate Interior Appropriations 
Subcommittee, I would like to thank you for this opportunity to testify 
before you. My name is Randy Franke and I am the Chairman of the Board 
of Commissioners for the County of Marion, Oregon. On behalf of the 
citizens of Marion County, I request your support for one of the 
County's highest priorities for the fiscal year 2002.
    The Marion County Parks Department requests your support of a $1 
million earmark in the fiscal year 2002 Interior Appropriations bill, 
under the Land & Water Conservation Fund, to assist the County in 
acquiring critical wetlands in the Historic Lake Labish Basin.
    The Lake Labish Wetland is identified in the Marion County Natural 
Heritage Parks Master Plan. Environmental scientists and biologists 
with the Army Corp of Engineers, Oregon Department of Fish and 
Wildlife, U.S. Fish and Wildlife Service, and other conservation and 
environmental organizations identify Lake Labish as a key ecological 
restoration site.
    The project involves approximately 200 acres of exceptional 
wetlands and uplands in the Labish Basin. Its rare peat bog soils and 
plant communities represent a tremendous ecological restoration 
opportunity for Marion County and the State of Oregon. This project 
will be part of a 300-acre wetland complex near the Keizer UGB. Both 
during and after restoration, the property offers high-value 
educational opportunities to area schools and will also serve as a 
high-value recreation resource. These wetlands at Lake Labish will also 
provide important flood abatement potential in an area with historic 
flooding problems. Restoration of the site will also improve area water 
quality, wildlife habitat, biodiversity, and aesthetics.
    Thank you again for this opportunity to testify before this 
committee.
                                 ______
                                 
            Prepared Statement of the City of Roseville, CA
    Mr. Chairman and members of the Senate Interior Appropriations 
Subcommittee, I would like to thank you for this opportunity to testify 
before you. My name is Claudia Gamar and I am the mayor of the City of 
Roseville, California. On behalf of the citizens of Roseville, I 
request your support for one of the City's highest priorities for the 
fiscal year 2002.
    The City of Roseville requests your support of a $1.5 million 
earmark in the fiscal year 2002 Interior Appropriations bill to 
construct a permanent 7,200 square foot Maidu Interpretive Center 
building located within the 152 acre Maidu Regional Park.
    The Maidu Interpretive Center building will be located on an 
archeologically significant historic site in the northeast corner of 
Maidu Regional Park in Roseville. The site was occupied by ancient 
cultures, and later by the Nisenan (southern Maidu) Indian culture. 
There are over 300 bedrock mortar holes and many petroglyphs on the 
site dating from 21,000-5,000 years ago, indicating a significant 
village site.
    The City of Roseville acquired the site in 1973. Through the City's 
efforts, the site was officially designated as a historical site by the 
State of California and placed on the National Register of Historic 
Sites. The City has taken steps to preserve the site through fencing, 
and public access is provided through docent tours.
    The Maidu Interpretive Center is a top priority for the City of 
Roseville. The Center will provide a focal point for visitors to view 
Maidu artifacts, learn about the Maidu culture, local plants and 
animals, and experience the Maidu way of life. The site currently hosts 
over 6,500 school children annually from the greater Sacramento region, 
and the new Maidu Interpretive Center will significantly enhance the 
educational experience for students and other visitors.
    The City of Roseville, the Auburn Maidu Rancheria, the Cultural 
Arts Commission, and numerous volunteers, have been working for over 10 
years to construct the Maidu Interpretive Center. Through these efforts 
the volunteer lead docent tours were established; an interpretive trail 
through the historical site was constructed; $1.2 million in grants and 
City funds have been assembled to pay for the first phase of 
development of the Maidu Interpretive Center, including temporary 
building and site improvements; and all formal approvals and 
environmental documents have been completed.
    The estimated cost for completing the permanent Maidu Interpretive 
Center is $1.5 million. The City of Roseville is constantly pursuing 
various grants and fundraising opportunities to finance the permanent 
building, but federal assistance is needed for project success.
    Thank you again for this opportunity to testify before this 
committee.
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers

                                REQUEST
    The National Conference of State Historic Preservation Officers 
asks Congress to withdraw $150,000,000 from the Historic Preservation 
Fund (16 U.S.C. 470h) in fiscal year 2002 for State Historic 
Preservation Offices and Indian tribes. Preservation of America's 
heritage of historic buildings and sites made possible by the Historic 
Preservation Fund is an ongoing promise made by the Congress to the 
people of the United States.

                           WHY $150,000,000?
    $150,000,000 is the amount Congress has repeatedly determined to be 
the appropriate funding level for historic preservation. In 2000, after 
two years of full consideration, Congress reauthorized the Historic 
Preservation Fund (Public Law 106-208) at $150,000,000. With this 
authorized amount, States can carry on the mandated nationwide historic 
preservation program and can rescue the most significant threatened 
historic places--if Congress keeps the promise of $150,000,000.

         HISTORIC PRESERVATION FUND SHOULD ADVANCE, NOT RETREAT
    The Administration budget, while raising the Interior budget 4 
percent, cut the Historic Preservation Fund by $57 million from the $94 
million level of 2001 to $37 million. The grants to the States were cut 
35 percent. The fiscal year 2001 appropriation represents the first 
time that Congress had provided an increase after two decades of bare 
bones funding. Congress must build on the foundation laid in 2001 for 
Historic Preservation Fund in creases to States and tribes to preserve 
our heritage, our legacy to our children.

   HISTORIC PRESERVATION FUND FINANCES STATES TO CARRY OUT A FEDERAL 
                                MANDATE
    When State Historic Preservation Offices and their National 
Conference come to Congress for Historic Preservation Fund 
appropriations, they are asking Congress to support a federal mandate. 
The National Historic Preservation Act (16 U.S.C. 470) created a 
partnership between the Department of the Interior and all of the 
states. Instead of creating a large federal bureaucracy in historic 
preservation, the Historic Preservation Fund enables each state to 
carry out historic preservation activities on behalf of the federal 
government.
    The historic preservation program is an excellent example of 
federalism. Our national heritage rests in the historic buildings, 
sites, and neighborhoods of cities, towns, and rural areas located in 
each of the States. States volunteer to work with the federal 
government to maintain and enhance these assets. The Historic 
Preservation Fund pays only half the cost of the federally created 
national historic preservation program. States match the federal 
dollars, and State Historic Preservation Offices do the actual work of 
the program. The Secretary of the Interior and the National Park 
Service establish standards and guidelines, while governors oversee the 
effective operation of the program in their state.

      USING THE HISTORIC PRESERVATION FUND STATES DO FEDERAL WORK
    Some examples of State Historic Preservation Office work, made 
possible by the HPF, include the following.
  --State Historic Preservation Offices assist private developers to 
        invest in historic buildings. The expenses of historic 
        rehabilitation are partially offset by a federal income tax 
        credit. Last year State Historic Preservation Offices 
        facilitated the completion of 1,065 projects representing an 
        investment of $2.6 billion. These investments created more than 
        41,000 jobs and renovated more than 17,000 housing units, often 
        in distressed urban areas. If State Historic Preservation 
        Offices lack adequate resources from the Historic Preservation 
        Fund to provide assistance and technical reviews, it will be 
        difficult for these development projects to be completed.
      The New York Times often chronicles the successes of the Historic 
        Preservation Fund investment in the Real Estate Section. The 
        April 29, 2001, article by Maureen Milford talked about 
        reviving an abandoned, National Register warehouse on the 
        Schuylkill River in Philadelphia for housing. A representative 
        from the local development organization said: ``This has really 
        given a kick, kind of like a high-energy drink, to the whole 
        redevelopment of the waterfront.''
      Without the Historic Preservation Fund investment in the 
        Pennsylvania State Historic Preservation Office for the 
        National Register nomination and the review of the plans for 
        the redevelopment, this $58 million investment and success 
        story would not have happened.
  --State Historic Preservation Offices assist federal agencies and 
        applicants for federal assistance to avoid damaging historic 
        buildings and sites. When federal actions harm historic places, 
        State Historic Preservation Offices provide a resource to take 
        the consequences of those actions into account. State Historic 
        Preservation Offices maintain information about the location 
        and historical significance of properties that is vital for 
        federal project planning. The more complete the historic 
        property information, the easier project review becomes. The 
        Historic Preservation Fund investment in the information and 
        the professional expertise to guide federal agencies expedites 
        project review which usually results in final approval. 
        Further, consultation at the State level keeps decision-making 
        close to home. If State Historic Preservation Offices are not 
        given adequate funding to participate fully in the planning and 
        review of federally assisted programs, delivery of needed 
        services to agencies and citizens will be delayed and historic 
        resources will be subjected to harm that could have been 
        avoided.
  --State Historic Preservation Offices administer grants to restore 
        important historic buildings and sites when funds are 
        available. States and individual communities know the most 
        important and most threatened historic places; they provide 
        funds to match federal grant dollars. Unfortunately the low 
        level of federal appropriations from the Historic Preservation 
        Fund to States has meant that most were not able to offer 
        restoration grants. The $12 million increase from the Historic 
        Preservation Fund for 2001 has reversed that trend. If Congress 
        provides State Historic Preservation Offices with full funding, 
        restoration grants will save the historic buildings and sites 
        that are most important to local communities and embody the 
        nation's heritage.
  --State Historic Preservation Offices conduct studies to locate and 
        research historic resources. When research shows a property to 
        be significant, State Historic Preservation Offices, working 
        closely with property owners, nominate buildings, 
        archaeological sites, and historic districts for listing on the 
        National Register of Historic Places. National Register of 
        Historic Places listing is a threshold requirement for tax 
        incentives, protection, or grants. About one million properties 
        have been listed on the National Register, but in many 
        communities surveys to identify and document historic resources 
        still have not been conducted. If State Historic Preservation 
        Offices are not given adequate funding from the Historic 
        Preservation Fund to conduct these studies, the benefits of the 
        national historic preservation program will not be available 
        and significant parts of the nation's heritage will be 
        unrepresented.

                               CONCLUSION
    Historic preservation in America has an enormous ``ripple effect'' 
in every section of the country. In older downtowns and on traditional 
Main Streets, rehabilitation of historic business buildings is an 
important economic development stimulus. In residential neighbor hoods 
of urban areas or rural towns, renovation of older houses offers good 
affordable homes for families and preserves the special character of 
hometowns. In industrial mill villages of New England and in rural 
areas nationwide, adaptive reuse of old mills or old barns 
reinvigorates the local economy while retaining vestiges of the 
community's heritage. In every state, tourism has become a major sector 
of the economy, and historic sites are universally recognized as a 
critical part of the travel industry.
    Everywhere in the United States historic buildings and sites are 
valued for various reasons: economic development, housing, rebuilding 
urban areas, preserving the character of a special neighborhood or 
small town, helping to teach rising generations about their nation's 
past. In every state citizens recognize that the historic places close 
to home are also part of the heritage of the nation as a whole. That is 
the promise Congress originally offered in the National Historic 
Preservation Act. State Historic Preservation Offices in each state are 
fulfilling their part of the promise by carrying out the national 
historic preservation program and by raising the money to match federal 
funding. We ask that the Congress fulfill its part of the promise by 
appropriating for States and tribes the full authorized funding of the 
Historic Preservation Fund: $150,000,000.
                                 ______
                                 
               Prepared Statement of the Nez Perce Tribe
    The Nez Perce Tribe requests the following funding amounts for 
fiscal year 2002, which are specific to the Nez Perce Tribe:
  --$933,500 through the Bureau of Indian Affairs Indian Rights 
        Protection account for Water Rights Negotiation and Litigation 
        to enable the Tribe to continue its participation in the Snake 
        River Basin Adjudication, the largest water rights adjudication 
        in the country.
  --$150,000 through the United States Fish and Wildlife Service for 
        Wildlife and Rare Species Evaluation/Coordination to gather 
        data to aid in species recovery efforts to prevent Federal 
        oversight.
  --$400,000 through the BIA, Fish and Wildlife Program for fisheries 
        conservation and restoration efforts in response to the 2000 
        Federal Columbia River Power System Biological Opinion
  --$5,000,000 through the BIA for the Nez Perce Tribe Interpretative 
        Center.
  --$2,402,000 through the Indian Health Service for an upgrade of the 
        City of Lapwai Water and Sewer System.
  --$3,000,000 through the Indian Health Service for the Lapwai 
        Ambulatory Health Center.
    The Tribe urges support for the full and adequate funding of Tribal 
programs through the Department of the Interior fiscal year 2002 
budget, with the specific requests discussed below.

   SNAKE RIVER BASIN ADJUDICATION NEGOTIATIONS FUNDING: BIA $933,500
    The Nez Perce Tribe has been involved in the Snake River Basin 
Adjudication (SRBA), the largest water rights adjudication in the 
country, since that proceeding was statutorily mandated by the Idaho 
Legislature in 1987. The SRBA is a general stream adjudication in which 
all the water rights in the Snake River basin (approximately 185,00 
claims) will be determined. The basin encompasses approximately two-
thirds of the geographic area of the State of Idaho, and much of the 
basin lies within the aboriginal territory of the Nez Perce Tribe. We 
are represented in this proceeding by our own in-house counsel and by 
the Native American Rights Fund (NARF) in Boulder, Colorado.
    In December 1998, the SRBA Court ordered the parties to the Nez 
Perce claims into mediation. The mediator jointly selected by the 
parties was Francis McGovern, a law professor whose mediation skills 
are internationally recognized.
    For fiscal year 2002, the Nez Perce Tribe requests that Congress 
earmark $933,500 in the BIA's Indian Rights Protection Account for 
Water Rights Negotiation and Litigation for the Tribe, enabling us to 
continue our participation in the SRBA. These funds are vital to ensure 
the important, on-going work by fisheries, economic, historical, and 
engineering experts, as well as necessary attorney costs.
 wildlife rare species evaluations/coordination funding: bia, $150,000
    The Nez Perce Tribe has been actively engaged in Wildlife 
Management since 1984. The program has grown in direct intervals in 
response to actions by Congress and has not seen a funding increase on 
more than five years.
    In the last few years, numerous species of wildlife and plants have 
been added to the Idaho Species of Special Concern list and the United 
States Fish and Wildlife Service list of Candidate, Threatened, or 
Endangered species. In the area within and adjacent to the Nez Perce 
Reservation, several of these recently added species are known to 
exist, but little or no information has been gathered regarding these 
and other species which face extinction.
    For fiscal year 2002, the Nez Perce Tribe requests that Congress 
designate $150,000 from the Bureau of Indian Affairs to fund a project 
that will enable the Tribe to know more about the species of wildlife 
and plants in our region to be more effective in preventing the need 
for adding species to the Federal or State lists by identifying species 
at special risk and managing their recovery without listing. By 
gathering the requisite data, the Tribe will document the existence of 
these species and their habitat use patterns to assist in developing 
recovery plans before populations reach a level where Federal oversight 
is necessary to recover the species.

      NEZ PERCE TRIBE FISHERIES MANAGEMENT FUNDING: BIA, $400,000
    The Nez Perce Tribe's Fisheries Program entails production, 
research, resident fisheries, habitat, and conservation enforcement. 
Currently under construction is the Nez Perce Tribal Hatchery which 
uses innovative ``nature's'' techniques to implement a salmon 
supplementation program in the Clearwater River Basin.
    The recently released Federal Columbia River Power System 
Biological Opinion requires intense coordination and monitoring to 
reach the recovery goals delineated in the Opinion. The Tribe must 
elevate its fisheries capacity to complete the necessary work. In 
particular, the Tribe requires increased funding to ensure recovery 
through: coordinating and planning in-season management of hydro-system 
flow; harvest monitoring and conservation enforcement; extensive 
coordination and consultation with Federal agencies; and creating a 
partnership with local landowners to develop habitat plans to aid in 
fish recovery by providing technical assistance and replenishing 
populations on private land.
    The Nez Perce Tribe requests that Congress designate $400,000 in 
fiscal year 2002 BIA Funding to ensure continued Tribal involvement and 
activities relating to the recovery of endangered and threatened salmon 
and steelhead in the Northwest.

     NEZ PERCE TRIBE INTERPRETATIVE CENTER FUNDING: BIA, $5,000,000
    The Nez Perce Tribe Department of Natural Resources will work 
cooperatively with state, Federal, and private organizations to provide 
and increase resource, recreation, and tourism opportunities for 
northern Idaho. The Tribe will work cooperatively with the Lewis Clark 
Bicentennial Committee and other local bicentennial organizations to 
provide tourists with detailed accounts of Nez Perce history and the 
story of the Tribe's involvement with Lewis and Clark. This multi-
functional facility would exhibit and showcase Nez Perce living 
history, customs, values, arts and regalia. The expected 14-28 million 
visitors to the region would greatly benefit from this facility.
    The Nez Perce Tribe has much to offer in history, but with no 
interpretative center it is literally impossible to inform and educate 
the general public about Nez Perce history and the role of the Tribe in 
the Lewis and Clark Expedition. The Tribe has been identified as an 
integral part of the Bicentennial celebration by the State of Idaho, 
U.S. Forest Service, National Park Service, and the National Lewis and 
Cark Council.
    The Nez Perce Tribe requests that Congress designate $5,000,000 in 
the fiscal year 2002 Interior appropriations bill through the BIA to 
ensure that the Tribe is able to play an active role in the economic 
growth of northern Idaho and provide tourists with a fascinating and 
informative look into the history of the Nez Perce people.

    CITY OF LAPWAI WATER AND SEWER PROJECT FUNDING: IHS, $2,402,000
    The City of Lapwai Water and Sewer system is in dire need of an 
upgrade to protect the health and safety of the Reservation community. 
Under the current system, no new homes or businesses, including a 
proposed Boy's and Girl's Club, can be constructed. The current system 
is in poor condition with debris, cracked pipes, and outdated 
equipment. The well system is outdated and the lagoon system for 
wastewater is at or very near capacity.
    To date, the Indian Health Service has recognized the need for 
improvements in the system and has provided engineering services to 
upgrade the water and sewer system to help meet the needs of the 
community. A block grant has already been obtained though the 
Department of Housing and Urban Development to facilitate the project. 
A Utility Code has been developed which clearly outlines the operating 
responsibilities between the Nez Perce Tribe, BIA, and the City of 
Lapwai in preparation of the transfer of ownership of the system to the 
Nez Perce Tribe from the Bureau of Indian Affairs.
    The Nez Perce Tribe requests that Congress designate $2,402,000 in 
fiscal year 2002 Indian Health Service appropriations to complete the 
chosen alternative to upgrade the water and sewer system. An adequate 
system would relieve the dire health threat created by the antiquated 
system of pipes and wells.

        LAPWAI AMBULATORY HEALTH CENTER FUNDING: IHS, $3,000,000
    The Nez Perce Tribe has an eligible health care population of over 
3,800 which must be cared for in a facility constructed in 1971 by the 
Indian Health Service as a health station and for office space. The 
current care facility is grossly undersized to meet the health cares 
needs of the community. This problem is exacerbated by a 67 percent 
increase in patient visits over the past three years.
    The current undersized health care facility has one quarter of the 
requisite space that is needed to ensure adequate access to health care 
services. Health care delivery systems are impeded by the limited space 
for staff, patients, equipment, and supplies and the existing design is 
does not allow for expansion for outpatient health care services. The 
current facility cannot comply with the Americans for Disabilities Act, 
contains traces of radon in the basement, and does not meet 
accreditation standards. As a result, health care programs operated by 
the Tribe are housed in various remote facilities throughout the 
Reservation further limiting access to health care. Considering that 
Native Americans suffer from significantly poorer health than other 
citizens, this disparity is only heightened by the Tribe's current 
inability to fully meet the health care needs of the community.
    The Nez Perce Tribe requests that Congress earmark $3,000,000 in 
fiscal year 2002 Indian Health Service appropriations for the 
construction of a the Lapwai Ambulatory Health Center which will 
provide the desperately needed in-patient and out-patient care in one 
location to provide access to quality health care for members of the 
community.
  support for full funding of the interior budget for fiscal year 2002
    The Nez Perce Tribe is deeply concerned that the fiscal year 2002 
Department of the Interior Budget request proposes a four percent 
decrease in funding from fiscal year 2001, especially since the 
Department is seeing five percent annual growth.
    While the Tribe is encouraged by statements from the Secretary of 
the Interior and the Bush Administration that Native American programs 
under the Bureau of Indian Affairs will continue to receive full and 
adequate funding, the primary goals of the Department must remain 
fulfilling the Federal government's trust responsibility to the Tribes.
    In addition, we strongly support the Bush Administration's 
designation of $292 million for Indian school improvements, but more 
must be done to financially ensure the education of our children.
    Thank you for your consideration of the Nez Perce Tribe's 
appropriation requests for fiscal year 2002.
                                 ______
                                 
  Prepared Statement of the Chippewa Cree Tribe of Rocky Boy's Indian 
                              Reservation

                              INTRODUCTION
    Chairman Burns and distinguished members of the Subcommittee. Thank 
you for your review and consideration of this testimony regarding the 
President's Budget Request for the fiscal year 2002 for the Bureau of 
Indian Affairs and Indian Health Service. I am quite concerned how this 
proposed budget addresses the needs of the Chippewa Cree Tribe. My name 
is Alvin Windy Boy, and I am Chairman of the Chippewa Cree Tribe of 
Rocky Boy's Indian Reservation of Montana and Chairman of the Chippewa 
Cree Health Board. We are one of the seven federally recognized tribes 
from the Rocky Mountain Regional Office, formerly the Billings Area 
Office, which includes the states of Montana and Wyoming.

                              HEALTH CARE
    The burden of disparity between health care needs and funding 
available is significant especially for remote and rural tribes such as 
ours. I respectfully request that the Subcommittee and the Congress 
recognize the federal court decision in White v. Califano, 437 F.Supp. 
543 (DPF 1977), aff'd 581 F2d 697 (1978) stating that ``health care for 
Indian people is not a racial issue, nor is it a financial issue; it is 
a legal and historical obligation based on treaty, law, and the trust 
responsibility which the federal government forcibly assumed over 
Indian nations . . .'' Moreover, this disparity between health status 
and funding for health care is well documented. The Health Care 
Financing Administration (HCFA), DHHS, and the Indian Health Service 
have substantiated a huge inequity in per capita expenditures in health 
care for Indian people, particularly when compared with other groups 
for whom the United States has commitments. This incongruity is 
graphically demonstrated over the past eight years, with the Indian 
Health Service receiving less than $1,500 per capita, while Medicaid 
and the Bureau of Prisons received over $3,000 per capita, and the 
Veteran's Administration (VA) received over $5,000 per capita. It is no 
wonder that Indian people are at the bottom of every health scale.
    During a historical meeting of Tribal Leaders and President 
Clinton, tribes were encouraged to submit demonstration projects 
addressing the disparities that exist in Indian Country. The Chippewa 
Cree Tribe responded to this challenge and requests your support to 
fund a demonstration project that would allow the Tribe to achieve 
parity in funding and close the gap of disparity in heath care status. 
Offered by Senator Conard Burns, as part of the fiscal year 2000 Senate 
Labor, HHS and Education Appropriations Bill, the Rocky Boy's Disparity 
Project did not receive appropriations, but did receive strong support 
from numerous members of the House, Senate, and the Administration. 
This project will demonstrate the goal for all Indian nations to 
achieve and validate that there is a strong linkage in heath status and 
parity in funding. Your support for inclusion of this demonstration 
project as a valuable demonstrative effort will most certainly effect a 
decrease in years of productive lives lost for tribal members and 
provide for healthier communities. As we struggle to provide adequate 
health care, the appropriation for contract health services remains 
flat. We struggle to improve and enhance community health nursing 
knowing that the funding and services we provide only meet 50 percent 
of the need, much of the increase in funds is ``earmarked'' elsewhere 
and tribes must compete against each other to address the monumental 
needs that arise throughout the year. As we struggle to address the 
unmet dental needs, the increases appropriated from Congress again 
become ``earmarked'' and tribes must compete rather than receiving a 
formula funded increase. This list goes on to include pharmacy, public 
health nursing, and injury prevention.
    The alarming incidence and prevalence of diabetes in Indian Country 
prompted the Administration and the Congress to allow for direct 
service for diabetes prevention for all tribes nationwide, a first for 
our tribe. However, more and more funding is seemingly directed toward 
research, technical assistance, and training and no funds are available 
for direct services. Such is the case for diabetes, but this 
Presidential Initiative is limited to 5 years and will end in September 
of 2004. Your continued support is needed to assure that a continuum of 
care for diabetes and diabetes prevention continues.

                      TRIBAL PRIORITY ALLOCATIONS
    As the Nation is enjoying prosperity and an unemployment rate of 5 
percent, the Chippewa Cree Tribe's unemployment rate remains at an 
alarming rate of 75 percent. It is evident that Indian Country is being 
bypassed by this economic boom. In fact, many of our families 
(approximately 400) must depend on General Assistance, Low Income 
Energy programs, and food distribution programs to survive. The basic 
needs of the Chippewa Cree people cannot be addressed without a 
substantial increase to the Tribal Priority Allocation (TPA) within the 
Bureau of Indian Affairs and the levels in the President's proposed 
budget are wholly inadequate from that perspective. As the only Self-
Governance tribe in the Rocky Mountain Regional Office, our experience 
has been that TPA is the only dependable recurring federal resource 
within the BIA budget available to my tribe for program re-design and 
for which funds can be allocated to try to address local tribal needs. 
These dollars are the core of the Tribal Self Determination policy, 
because they allow our tribal government to set our own priorities for 
spending on programs and services.
    An analysis of our programs has shown that there remains a 
tremendous level of unmet need for essential tribal governmental and 
programmatic services for the Chippewa Cree. For an example, the BIA 
Budget for law enforcement last year, the compacting and contracting 
tribes only received \1/2\ FTE for patrolmen with the remaining 
allocated to BIA programs. The BIA's response was that the tribes were 
eligible for Department of Justice programs without factoring in that 
tribes must retain any new officer funded under the Community Oriented 
Policing Services Officers (COPS) for one funding cycle with our own 
funds. This has challenged tribes to fulfill our obligations to the 
Department of Justice and not let other programs suffer the 
consequences of funding shortfalls. We support any increase in funding 
for law enforcement, however the Presidents fiscal year 2002 Budget 
increases law enforcement funding by only $12,000 from fiscal year 
2001. The tribe would like to see the restoration of law enforcement 
within the TPA base. Removing programs from the TPA is inconsistent 
with the federal policy of self-determination and self-government and 
tribal government authority in determining funding priorities. We would 
also like to request TPA funds be exempt from internal transfers, that 
the BIA refers to as ``uncontrollable changes,'' and which they take 
away from us, instead of requesting of the Congress. These requests 
further dilute the funding that is badly needed at the tribal level. 
The total unmet needs for the Chippewa Cree Tribe for TPA programs is 
$15 million dollars.

                            WATER SETTLEMENT
    On December 9, 1990, the Rocky Boy's water rights settlement bill 
was signed into law by the President on December 9, 1999, and become 
Public Law No. 106-163. The Act is the culmination of 17 years of work 
by the Chippewa Cree Tribe seeking a fair settlement of the Tribe's 
water rights claims in Montana.
    The Native American Rights Fund (NARF) has represented the Tribe in 
the settlement of its water rights claims since 1987. NARF will 
continue to represent the Tribe in obtaining a state water court decree 
approving the settlement and dismissing the Tribe's claims. This 
process is expected to take about two years from February 15, 2000, 
when the motion requesting a final decree was filed with the state 
water court. This process will include such activities as preparation 
of responses to any objections that may be filed to the settlement, and 
the drafting of the various documents required to obtain a final 
decree. Under the act ratifying the settlement, until the state water 
court issues a final decree, the tribe can invest settlement 
appropriations but not expend them. The tribe will require some 
technical and legal assistance in the effort to obtain a final decree 
from the water court. The United States and the Tribe must also file a 
motion dismissing the Tribe's water claims which are now stayed in 
federal court.
    The Tribe anticipates the need for the following amounts to assist 
the Tribes in these efforts: $51,750 for the Native American Rights 
Fund for legal oversight; $100,000 for the Tribe for the engineering 
consultants; and $110,000 for the Tribe for administration of efforts 
to finalize the water rights settlement pursuant to Public Law 106-163.
    In addition, Public Law 106-163 authorizes an fiscal year 2002 
appropriation of $8 million to the BIA for the Tribe for future water 
supply facilities. This is contained in the Administration's request.
    In summary, the Chippewa Cree Tribe requests Congress to 
appropriate the total amount of $8,261,750 to enable the Tribe to 
continue the work necessary to finalize its water rights settlement, 
and to fulfill the commitments of the United States embodied in Public 
Law 106-163--the Act ratifying the Tribe's water rights settlement.

                            CONTRACT SUPPORT
    Of the overall TPA request, $130.2 million goes to contract 
support, which falls 12 percent short of the total identified need. 
Because the Chippewa Cree tribe is a self-governance tribe, we have 
compacted through our self-governance compact all of the federal 
functions which were previously administered by the BIA on our 
reservation. This means we have administrative costs associated 
carrying out these compacted functions which the United States would 
otherwise be required to provide directly. Typically in a given year 
the tribe is funded around 60-80 percent of the total need for contract 
support funds, meaning that the tribe is paying from 20-40 percent of 
the contract support costs from other program funds or from our tribal 
general fund. The tribe cannot afford to keep paying for the contract 
support costs associated with our self-governance compact federal 
functions and other grants and contracts administered by the tribe. No 
other contractor with the United States is treated this way. The tribe 
is requesting 100 percent funding for contract support and/or indirect 
costs, the same as all other contractors. This is only right since we 
are providing the administrative services associated with carrying out 
the federal functions on the reservation.

           EDUCATIONAL OPPORTUNITIES CONSTRUCTION AND REPAIR
    The Chippewa Cree tribally chartered Stone Child College is in a 
state of disrepair. There are leaks in the roof, natural springs under 
the main office and general maintenance problems arising daily. There 
is a shortage of classrooms and offices. Our students are presently 
staying in homes with at least three families living together, 
resulting in overcrowded homes and sickness due to overcrowding.. We 
need to have housing on campus. This would eliminate the absenteeism 
that our college is currently experiencing. We have secured $1 million 
but we have an additional need of $5,250,000.
    Our elders have asked for an archive for the storage and display of 
important cultural papers, objects, etc. At the present there is no 
archival facility on the reservation. If we don't take care of these 
materials, they will be lost forever, as has already happened to many 
important medicinal and sacred items. We estimate startup costs for 
these efforts at $250,000.

   EMPOWERING COMMUNITIES, EXPANDING NEW MARKETS AND DIGITAL DIVIDE 
                               INITIATIVE
    Our Housing Improvement Program (HIP) received approximately 115 
requests for funding from applicants for fiscal year 2001, and will be 
getting an influx this year of over 255 older homes made during the 
1970s. All of these homes have health hazards such as substandard 
plumbing which is lead based, substandard wiring, and furnaces that 
have run their cycle and need new parts or replacement. These older 
homes will put an extreme burden on the HIP programs annual funding 
base, which is why the program is requesting an additional $260,000 to 
meet this demand.
    Mr. Chairman, thank you for the opportunity to present my views on 
the budget of the Bureau of Indian Affairs and Indian Health Service 
and the needs of the Chippewa Cree Tribe of the Rocky Boy's 
Reservation.
                                 ______
                                 
      Prepared Statement of the Red Lake Band of Chippewa Indians
    Mr. Chairman, I thank you and the other distinguished members of 
the Committee for this opportunity to provide testimony on behalf of 
the Red Lake Band of Chippewa Indians. On behalf of the people of Red 
Lake, who reside on our reservation in northern Minnesota, we 
respectfully submit that the budget appropriation process represents 
for us the major avenue through which the United States government 
fulfills its trust responsibility and honors its obligations to Indian 
tribes. We must depend on you to uphold the trust responsibility which 
forms the basis of the government to government relationship between 
our tribe and the federal government. The Red Lake Band of Chippewa 
Indians requests $10.4 million in additional fiscal year 2002 funding 
for Red Lake's programs.
    Red Lake is a relatively large tribe with 9,300 members. Our 
840,000 acre reservation is held in trust for the tribe by the United 
States. While it has been diminished in size, our reservation has never 
been broken apart or allotted to individuals. Nor has our reservation 
been subjected to the criminal or civil jurisdiction of the State of 
Minnesota. Consequently, we have a large land area over which we 
exercise full governmental authority and control, in conjunction with 
the United States.
    At the same time, due in part to our location far from centers of 
population and commerce, we have few jobs available on our reservation. 
While the unemployment rate in Minnesota is only 3 percent, ours 
remains at an outrageously high level of 60 percent. The lack of good 
roads, communications, and other necessary infrastructure continues to 
hold back economic development and job opportunities.
    The President's fiscal year 2002 budget request for Indian programs 
falls far short of what tribes need. The following testimony highlights 
the most critical needs of the Red Lake Band of Chippewa Indians in 
fiscal year 2002.

                   TRIBAL PRIORITY ALLOCATIONS (TPA)
    The TPA is the principal means for us to provide vital governmental 
services to our people, including law enforcement, justice, fire 
protection, education, social services, and resource management. We 
have struggled hard to maintain these services, especially since the 
crippling, nearly $100 million cut in the TPA in fiscal year 1996. The 
sad fact is the TPA has not kept pace with inflation, and today is less 
than it was 10 years ago.
    The President's fiscal year 2002 request for the TPA is $750.5 
million, an increase of $17.5 million (2.38 percent) over fiscal year 
2001. The net increase for tribes after removing Indian Self-
Determination funds for new contracts, uncontrollable costs, and 
internal transfers is only a targeted $7 million--less than 1 percent. 
This is unacceptable. The TPA is the most important component of the 
BIA's budget, both in terms of size (42 percent) and what it does. The 
President has opined that a 4 percent budget increase is 
``compassionate''. This makes his request for the most important BIA 
program ``heartless''.
    Red Lake's present unmet TPA need is $8.8 million, larger than the 
entire net increase requested by the President for all tribes. Of that 
amount, $3.9 million is needed to provide just the most critical core 
functions, such as law enforcement, fire protection, courts, social 
services, education, housing improvement, and roads maintenance. This 
need will be documented in our 2000 annual report to the Office of 
Self-Governance (OSG), which will be made available to the Congress. 
Because the need to provide these basic services is so critical, I ask 
the Committee for a specific earmark of $3.9 million for Red Lake in 
fiscal year 2002. I also urge you to increase the President's request 
for contract support to 100 percent of total need as authorized under 
the Indian Self-Determination and Education Assistance Act, rather than 
the 88 percent requested. Tribes like Red Lake, with an indirect cost 
rate of 14.3 percent (far below the national average), need these funds 
to operate their programs.

                      LAW ENFORCEMENT AND JUSTICE
    As stated in my testimony to you last year, Red Lake's top priority 
is to acquire funding to complete the new Red Lake Criminal Justice 
Complex. When completed, this complex will be home to our law 
enforcement, courts, adult and juvenile detention, and juvenile 
residential components.
    Last year we received an $8.8 million grant from the Department of 
Justice (DOJ) to construct the detention facilities portion of the 
project. Construction is about to begin and is targeted for completion 
during fiscal year 2002. Rules governing our DOJ grant do not allow 
these funds to be used for construction of the law enforcement and 
courts portion. As a result, the detention portions of our criminal 
justice system stand to be located 1.5 miles away from the law 
enforcement and court components. This will create operational problems 
from the start, and will result in significantly higher costs to staff 
and maintain two separate facilities. To solve this dilemma, our 
congressional representatives have requested $3 million under the 
Economic Development Initiative (EDI) account of the 2002 VA-HUD 
appropriations bill. Although the President has slated this program for 
elimination in fiscal year 2002, we will continue to pursue this avenue 
of funding as the budget process unfolds. Because of the urgent need to 
complete this facility and the apparent jeopardy of the VA-HUD EDI 
account, I ask the Committee to consider a specific earmark to Red Lake 
in the amount of $3 million. This will allow us to complete all 
components of the criminal justice complex and avoid the significantly 
higher costs required to adequately staff and maintain two separate 
facilities.
    I am very pleased to see the President's fiscal year 2002 BIA 
budget includes $5 million for detention operations associated with new 
facilities recently funded by DOJ. Red Lake has determined its need for 
new detention facility operations to be $3.19 million in fiscal year 
2002, which will be documented in our 2000 annual report to the OSG. 
Because our new facility is expected to begin operation during fiscal 
year 2002, I ask the Committee to target $1.6 million of the 
President's requested $5 million to Red Lake. This is necessary to 
ensure uninterrupted operation of the tribe's law enforcement services.
                ECONOMIC DEVELOPMENT AND WELFARE REFORM
    The lack of economic development at Red Lake has set the stage for 
a head-on collision with welfare reform. We are working feverishly with 
federal, state, and local agencies in the welfare to work initiative. 
Promoting economic growth at Red Lake has been difficult. We, like 
other tribes across the country, have been hindered by factors such as: 
remote location; high poverty rates and low health status; 
discrimination in non-tribal education and workplace settings; and, 
lack of support for infrastructure development. States have had 
federal-supported welfare administrative systems and programs for 
decades, and have been able to develop the infrastructure necessary to 
cope with the effects of welfare reform. We cannot be expected to 
succeed without similar assistance.
    Cuts to BIA's GA program in fiscal year 1996 hindered our ability 
to provide critical child welfare services and general and elderly 
assistance. These services are essential to our ability to implement 
welfare reform. As I speak, there are about 400 single, employable 
adults at Red Lake who cannot find work and receive no assistance due 
to reduced BIA funding. The number of cases is increasing, as our 
members who live in places like Minneapolis return to the reservation 
as a safety net.
    The President's fiscal year 2002 request of $89.9 million 
represents yet another major decrease in this critical program. I ask 
the Committee to increase this amount by at least $25 million, so that 
we will not have to sharply increase the number of denials for 
assistance.

                            HEALTH SERVICES
    The President's fiscal year 2002 IHS request of $3.3 billion is an 
increase of $107 million over fiscal year 2001. Of this amount, $50 
million is for the Navajo Health Services transition to tribal control. 
The net increase for all other tribes is an unacceptable 1 percent. As 
you know, there is a crisis in Indian health care, resulting in part 
from a lack of funding for mandatory increases like inflation, pay 
costs, staff for new facilities, and population growth. IHS funded 
programs must absorb these costs, resulting in a net decrease in health 
care to Indian people of $2 billion in the last 8 years. Health care 
expenditures for Indian people are well below 50 percent of the per 
capita health care expenditure for mainstream America, and, as you 
know, our gloomy health statistics reflect this.
    Throughout 2000 the IHS worked with tribes in developing its fiscal 
year 2002 budget. As a result, it was determined by the National Indian 
Health Board, the Tribal Self-Governance Advisory Committee, and the 
National Council on Urban Indian Health that the fiscal year 2002 IHS 
budget should be $18 billion, but no less than $3.2 billion in 
appropriations to begin to address the health care needs of Indian 
people on a basis comparable to the rest of America. The problem with 
the President's budget is that it includes an estimated $499 million in 
health insurance reimbursements, and with the Navajo transition of $50 
million, results in an adjusted request of only $2.75 billion. With the 
very lives of our people at stake, a real increase of $3.2 billion is 
the minimum amount needed to begin addressing the shortage in Indian 
health care, and I ask the Committee to provide an additional $550 
million above the President's request in order to accomplish this.
    The President's fiscal year 2002 budget includes a $40 million 
increase in contract support, all for the Navajo transition. This 
leaves an estimated need of $175 million, which tribes must absorb, 
further reducing health care services. I ask the Committee to fully 
fund contract support costs in fiscal year 2002.
    The President's fiscal year 2002 budget provides $100 million for 
diabetes funding, the same as last year. These funds are a good 
investment, and will result in future program savings by increasing the 
health of our people. I also ask Congress to extend diabetes funding 
for the full 10 year authority allowed by the Balanced Budget Act of 
1997.

                              OTHER ISSUES
    The Red Lake Band asks that you eliminate or substantially amend 25 
U.S.C. 450e-2, a permanent provision enacted as Section 310 of the 
Fiscal Year 1998 Interior Appropriations Act (Public Law 105-83, Nov. 
14, 1997). Section 310 has been used against tribes like Red Lake to 
undermine our efforts to cut costs and finish BIA-funded construction 
projects under budget. The BIA has used the broad language of Section 
310 to threaten to take away from our reservation and apply elsewhere 
all savings that we accrue from our careful and efficient management of 
our construction projects. We want our tribal construction staff to 
seek ways to get the most bang from each buck, and if savings result 
from our internal efficiencies, then we want those savings applied to 
unmet construction needs on our reservation without any obstacles posed 
by paternalistic BIA bureaucrats. The BIA's use of Section 310 
discourages us from seeking out cost savings procedures, because we 
will lose the money saved and with it the jobs that are so critical to 
the people on our reservation with its unemployment rate of 60 percent. 
For example, if Red Lake receives $100,000 for a 10 mile road extension 
project, and due to our efficient tribal construction staff, are able 
to do the 10 miles for $90,000, we want to be able to construct an 
extra mile with the remaining $10,000 in savings. Our communities get a 
good road a little closer to their homes. Our tribal construction 
workers earn a couple more paychecks. And our tribe takes an extra chip 
out of our huge unmet need. We believe Section 310 was mostly borne out 
of congressional frustration with the huge backlog of need reflected in 
the school facility construction priority list in the mid-1990s. 
Perhaps its application to school construction remains appropriate, 
because once a tribe has constructed its school, it can be argued that 
all remaining funds should go to the next school site on the priority 
wait list. But with respect to all other construction activity funded 
through the BIA, and particularly with respect to roads construction 
projects, each reservation typically has multiple (smaller) projects 
awaiting funding, or their projects, like the length of the road in our 
example, are constrained by limited funds and would benefit greatly 
from our ability to apply cost savings to enlarge or extend the project 
within the overall original purpose. For years, Red Lake has assumed 
all program operations associated with our reservation road 
construction activity, from initial design to building of the road. We 
try hard to get the most out of each scarce federal dollar, striving to 
find efficiencies that will bring our projects in under budget so that 
we can devote those ``savings'' to grading or paving more roads, 
building more sidewalks, and implementing more safety measures. BIA's 
interpretation of Section 310 is punishing our tribe for being 
efficient. We ask that you either remove it or add language to 25 
U.S.C. 450e-2, which would limit its application to funds associated 
with the school facility construction priority list maintained by BIA.
    Although sufficient detail is not yet available on the President's 
fiscal year 2002 budget for the Housing Improvement Program (HIP), it 
appears there will actually be a decrease over fiscal year 2001. 
Housing is one of the most basic needs of every American. Past funding 
for HIP has been terribly inadequate. For example, Red Lake recently 
submitted its 2000 Work Plan Report to the BIA documenting 10 
substandard housing units, for which the BIA is responsible to fund at 
a level of 90 percent. This report also documented a need for 226 new 
housing units, for which the BIA is responsible to fund at a level of 
10 percent. The total need documented for just BIA's share of housing 
repair and new housing at Red Lake is $1.9 million. I ask the Committee 
for a specific earmark for this amount in fiscal year 2002.
    I was pleased to see the President include the new $10 million 
initiative for tribes in his Flexible Land and Water Conservation Fund 
Program for fiscal year 2002. Red Lake and tribes across the country 
expended immense effort last year to obtain equitable access to the 
Conservation and Reinvestment Act (CARA). As you know, CARA was not 
enacted last year, but was diluted into a ``CARA-Lite'' that funded 
fewer activities with fewer dollars over less time. No stakeholder was 
more adversely affected by this dilution than Indian tribes, who lost 
every single provision that had benefited them in the original 
legislation. It is critical therefore, that the $10 million tribal 
portion be retained, along with the flexibility specified by the 
President for this program. I also ask that you include language 
directing a federal/tribal team be composed to develop the tribal 
competitive grant program to distribute these funds, which should 
include tribes, the BIA, and the National Park Service.
    Thank you for allowing me to present, for the record, some of the 
most immediate needs of the Red Lake Band of Chippewa Indians in fiscal 
year 2002, and for your consideration of these needs. At your request, 
I would be pleased to provide additional information regarding these 
needs.
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe
    On behalf of the Squaxin Island Tribe, I submit this written 
statement of appropriations requests on the fiscal year 2002 Bureau of 
Indian Affairs (BIA) and Indian Health Service (IHS) budgets. The 
following concerns and recommendations of the Squaxin Island Tribe are 
common, not only to us, but to Tribes both in our region and throughout 
the Nation.

                        TRIBAL SPECIFIC REQUEST
    Support for $97,500 for the Squaxin Island Shellfish Management.

                           REGIONAL REQUESTS
    Support for the $6.8 million western Washington tribal shellfish 
management, and enforcement funding request to implement tribal treaty 
rights through the further establishment of tribal shellfish programs;
    Continued support of the existing $3.0 million Bureau of Indian 
Affairs, Forest Development, Woodland Management, Northwest Forest 
Plan, ``Jobs in the Woods'' Initiative line item and from this amount a 
continued earmarking of $400,000 for the Wild Stock Restoration 
Initiative;
    Support the base funding level of $3.048 million for the Timber-
Fish-Wildlife Agreement, and increase this amount by $1.0 million to 
implement tribal obligations under new state and private forest 
practices, rules and regulations pertaining to ESA obligations;
    Support, at a minimum, existing funding levels within the Bureau 
for Trust;
    Responsibility, Tribal Priority Allocation, and Self Governance 
that pertain to Fisheries Management and U.S.-Canada Pacific Salmon 
Treaty at fiscal year 2001 levels;
    Provision of Contract Support Funding at 100 percent levels 
necessary for existing and emerging programs $300,000 for the Point no 
Point Wildlife Program; and,
    Support all requests and recommendations of the Affiliated Tribes 
of Northwest Indians, Northwest Portland Area Indian Health Board, and 
the Northwest Indian Fisheries Commission.

              SELF-GOVERNANCE AND OTHER NATIONAL REQUESTS
    Restore $256,000 and request for a $100,000 increase to the DOI 
Office of Self-Governance for the Self-Governance Communication and 
Education Project and the Tribal Self-Governance Advisory Committee;
    Provide increase for BIA and IHS to fully fund Contract Support 
Cost (CSC) to address documented Tribal needs;
    Provide a minimum of $25,000,000 in BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary adjustment;
    Provide $325,000,000 increase for IHS unfunded mandatory, medical 
inflation, pay costs and population growth needed to maintain existing 
health care services;
    +$5 million in the IHS Division of Clinical and Preventive Services 
to support Oral Health Initiative; and
    Support all requests and recommendations of the National Congress 
of American Indians.

                     NARRATIVE SUMMARY OF REQUESTS
Tribal specific
    Support $97,500 for the Squaxin Island Shellfish Management. The 
Squaxin Island Tribe was a plaintiff in the court case which reaffirmed 
the Treaty rights of the Tribes in Washington State to harvest 50 
percent of the shellfish product, and to act as co-managers of the 
shellfish resources. This involves management of both inter-tidal and 
sub-tidal species of shellfish.
    Over the past few years, we have been expanding our management of 
this very important resource to the Squaxin Island Tribe. Currently we 
manage the resource for about 150 Tribal harvesters who harvest 
shellfish for subsistence and commerce as has been the case since the 
Treaty was signed in 1854. To date our expanded enhancement and 
management efforts have been directly funded by Tribal dollars.
    Once again, the appellate court has upheld the District Court's 
decision, and strengthened the tribal claims. Our experience has shown 
that in order to be an effective co-manager of this resource, we need 
to be able to participate in management, enhancement, and enforcement 
activities. As managers of this resource, we will need to continue to 
expand our management capacity. This will involve specialized training 
and equipment for our harvesters, our management staff, and our 
enforcement staff.
Regional
    $6.8 million for Tribal Shellfish Management, Enhancement and 
Enforcement funding to implement Tribal treaty rights through the 
establishment of base shellfish operations.--Additional funding to 
tribal programs are necessary to address these needs. Western 
Washington tribes request an additional $1,950,000 be added to tribal 
fisheries management contracts as permanent base funding. This would 
cover only the basic level of management and enforcement needs.
    $3.0 million BIA, Forest Development, Woodland Management, 
Northwest Forest Plan, ``Jobs in the Woods'' initiative and from this 
amount a designation of $400,000 for the Wild Stock Restoration 
initiative.--We support the BIA request of $3 million for the Northwest 
Forest Development Plan, ``Jobs in the Woods'' Initiative and the 
designation of $400,000 for the Tribal-State of Washington Wild Stock 
Restoration Initiative (WSRI). WSRI is essential to developing a 
habitat inventory base from which restorations projects can begin. This 
work will extend the effectiveness of the limited funds for restoration 
by providing an effective tool for prioritization and design of 
projects.
    $3.048 million for the Timber-Fish-Wildlife Agreement to implement 
tribal obligations under new state and private forest practices rules 
and regulations pertaining to ESA obligations.--This amount is needed 
to allow tribes to effectively participate in monitoring and adaptive 
management processes that are integral to the TFW process.
    Support the development of a displaced fishers ``Jobs-in-the-
Woods'' program and a gear and vessel subsidized payment account.--Such 
a program would provide meaningful work and a liveable wage for tribal 
members who are adversely impacted due to low fish populations. Such a 
program coupled with a program which provides support to fishers for 
gear and vessel payments during low fish harvests will prevent 
disastrous foreclosures and economic conditions for tribal fishers and 
related businesses.

               SELF-GOVERNANCE AND OTHER NATIONAL ISSUES
    Restore $256,000 and Provide $100,000 Increase to Self-Governance 
Office in order to fund the on-going Self-Governance Communication and 
Education Project (SGCEP) and for the continuance of the Tribal Leaders 
Self-Governance Advisory Committee. There are now over 200 Tribes 
implementing Self-Governance and the request for information regarding 
this initiative continues to increase. The SGCEP is vital to ensure 
that Self-Governance and its purposes are clearly understood and 
consistently developed by participating Tribal governments, federal 
agency officials and non-participating Tribes. The funding for this 
Project has never been increased and is now inadequate to keep up with 
information request. We respectfully request that this funding not only 
be restored, but increased to meet the real cost of providing these 
communication services. In addition, funding must also be restored for 
the Tribal Leaders Self-Governance Advisory Committee. This Committee 
provides advice and guidance to the Assistant Secretary Indian Affairs 
on key policy issues that impact Self-Governance Tribes and has proven 
to be a effective forum for Tribal leaders to debate and discuss these 
issues.
    Increase BIA and IHS Contract Support Cost (CSC) Funds to address 
documented need. CSC funds are required for Tribes to successfully 
manage their own programs. While the Administration's budget request 
for fiscal year 2002 includes a modest increase for CSC--(1) an 
additional $65 million is needed in IHS (excluding the $40 million that 
has been estimated, but negotiated for the new Navajo Nation contract 
proposal); and (2) an additional $25 million is needed in BIA to fully 
fund CSC (excluding direct contract support costs). This shortfall 
continues to penalize Tribes which elect to operate BIA and IHS 
programs under the self-determination policy. Additional CSC 
appropriations are needed to implement the self-determination and self-
governance policy as supported by Congress. We urge the Subcommittee to 
fully fund CSC for Tribes equal to how other contractors are funded 
within the federal government.
    Provide a minimum of $25,000,000 in BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary adjustments. Although the 
Administration's budget request for fiscal year 2002 includes a $17.5 
million increase over fiscal year 2001, this is the third year in a row 
that the request contains no general increase for TPA. This activity 
includes the majority of the funds used to support on-going services at 
the local Tribal level including such programs as housing, education, 
natural resource management and Tribal government services. A recent 
Congressional Research Service (CRS) Report on Indian-related federal 
spending trends for fiscal years 1975-2000 states increases in the 
combined BIA/Office of Special Trustee ``current'' dollars averaged $46 
million per year. But as ``constant'' dollars (adjusted for inflation), 
there has actually been a decline of approximately $6 million per year. 
Over this 25-year period, the total is $150 million! At a minimum, the 
requested amount will provide for a modest 3.5 percent inflation 
adjustment for existing Tribal programs and services. We further 
recommend that TPA be revised and possibly re-named ``Tribal Family & 
Community Services'' to better reflect the true nature and intent of 
these programs. We believe that this title will help the Congress 
better understand the use of these resources.
    Provide $325 million for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services. In 
fiscal year 2000, IHS and Tribal programs had to absorb over 50 percent 
of mandatory and inflationary cost increases; in fiscal year 1999, 50 
percent was absorbed; and, in fiscal year 1998, 70 percent was 
absorbed. This has been the pattern for the past 8 years. These costs 
are unavoidable and include medical and general inflation, pay costs 
and staff for recently constructed facilities. Mandatories should be 
the first consideration in budget formulation. If unfunded, these cost 
increases will result in further health service reductions in our 
Tribal communities.
    +$5 million in the IHS Division of Clinical and Preventive Services 
to support the Tribal Leaders Oral Health Initiative. This initiative 
seeks to improve oral health status and increase access to oral health 
services for Indian people. Indian people experience dental disease at 
rates 2 to 10 times the national average and Tribes currently have 
great difficulty recruiting dental staff with 25 percent of dentist 
positions currently vacant. $5 million will permit the tribes to 
increase their recruitment activities, improve availability of 
community water fluoridation, and collaborate more effectively with the 
IHS and other partners to curb the epidemic of oral disease that 
confronts Indian people.
    The Committee's support for our requests is much appreciated and on 
behalf of the Squaxin Island people, I thank you for your continued 
efforts.
                                 ______
                                 
          Prepared Statement of the Jamestown S'Klallam Tribe
    This testimony is submitted by the Jamestown S'Klallam regarding 
our concerns and requests on the fiscal year 2002 Bureau of Indian 
Affairs (BIA) and Indian Health Service (IHS) budgets. The following 
document presents the Jamestown S'Klallam Tribe's funding priorities, 
as well as other regional and national concerns and recommendations for 
your consideration.

                         OVERALL RECOMMENDATION
    The Jamestown S'Klallam Tribe strongly recommends that the 
Subcommittee not consider any provisions or legislative riders which 
undermine Tribal sovereignty and our ability to advance our 
governmental capacity based on long-standing Federal/Tribal relations 
and Federal Indian law and policy. We further recommend that you not 
consider any provisions which limit Tribal governmental discretion to 
re-design programs and reallocate funding to meet local priorities and 
needs as authorized under the Indian Self-Determination and Education 
Assistance Act, as amended. This is consistent with the Bush 
Administration and Congress' devolution philosophies providing more 
authority to local units of government.

                TRIBAL-SPECIFIC APPROPRIATION PRIORITIES
    1. $534,000 one-time funding for construction of a dental clinic to 
serve our Tribal community;
    2. $750,000 one-time funding for the purchase of two parcels of 
land, one adjacent to our existing reservation and one near our 
reservation; and
    3. $35,000 increase in BIA Tribal base funding for unfunded 
Operations & Maintenance programs.

              LOCAL/REGIONAL REQUESTS AND RECOMMENDATIONS
    1. $300,000 for the Point No Point Treaty Council Wildlife Program; 
and
    2. Support all requests and recommendations of the Affiliated 
Tribes of Northwest Indians, Northwest Portland Area Indian Health 
Board, and the Northwest Indian Fisheries Commission.

           SELF-GOVERNANCE AND OTHER NATIONAL CONSIDERATIONS
    1. Restore $256,000 and request for a $100,000 increase to the DOI 
Office of Self-Governance for the Self-Governance Communication and 
Education Project and the Tribal Self-Governance Advisory Committee;
    2. Provide increase for BIA and IHS to fully fund Contract Support 
Cost (CSC) to address documented Tribal needs;
    3. Provide a minimum of $25,000,000 in BIA Tribal Priority 
Allocation (TPA) General Increase for inflationary adjustment;
    4. Provide $325,000,000 increase for IHS unfunded mandatory, 
medical inflation, pay costs and population growth needed to maintain 
existing health care services;
    5. +$5 million in the IHS Division of Clinical and Preventive 
Services to support Oral Health Initiative; and
    6. Support all requests and recommendations of the National 
Congress of American Indians.

                TRIBAL-SPECIFIC APPROPRIATION PRIORITIES
Construction of a Community Dental Clinic--+$534,000
    The Tribe has recognized a need to locally provide dental services 
to Tribal members. In this isolated rural community, dentists are 
unwilling to provide services to Medicaid patients because of the low 
rate of reimbursement for those services. Clallam County in general, 
and our Tribal community in particular, has a large percentage of 
people on Medicaid. We could serve these people at our own facilities. 
If we continue to rely on private dental service providers, we will not 
have any way to acquire services for our Medicaid-eligible Tribal 
members. The Tribe is proposing to construct a 3,300 square foot dental 
clinic with 4 chairs, offices, and laboratory facilities at our Tribal 
complex. Costs include specialized equipment and furnishings, parking 
and all construction costs and fees.
Establishment of Tribal Land Base--+$750,000
    For the past 10 years, the Tribe has requested the Subcommittee's 
assistance in securing additional land to add to our existing 
reservation. This request remains unfunded and we again appeal to the 
Subcommittee for your consideration of funding for this land 
acquisition. In the 1870's, Tribal members rejected a relocation policy 
(urged on by white settlers) to move them from their historical lands 
to another Tribe's reservation. In 1981, the Jamestown S'Klallam Tribe 
achieved federal recognition. Since that time, we have been attempting 
to undo the effects of this injustice, which had devastating social, 
economic, and cultural impacts on the Tribe. We strongly believe the 
United States government has an obligation to assist the Tribe in 
correcting these negative impacts. One way this situation can be 
addressed is for the Congress to assist us in adding to our meager 
reservation land base; a base that would have been substantially larger 
had it not been for the 100-year wait for our recognition.
    A contiguous four acre waterfront property site, on Sequim Bay (as 
is the Tribe's reservation) still remains available for purchase at 
approximately $450,000. In addition, there is a 15-acre site, near the 
reservation which is available to the Tribe at approximately $300,000. 
These land acquisitions would allow us to expand our Tribal government 
facilities to meet the steadily increasing demand for services by our 
Tribal members. Our Tribe is now at a critical juncture in this rapidly 
evolving situation. We need Congressional assistance to purchase the 
adjacent property which is essential for logical and efficient growth 
management of the Tribal operations. If the Tribe does not acquire the 
contiguous 4 acre tract and a third party purchases and develops it, we 
will obviously be blocked from any further practical expansion of our 
reservation base due to the geographic conditions of this area. In 
addition, the likelihood of a price escalation for this acreage 
continues to exist. The 10 acre site would be an excellent location 
for, among other things, a Tribal health and wellness clinic. It would 
also be a good site for the placement of future additions to the 
Tribe's water and wastewater infrastructure.
Increase in BIA Tribal Base Funding For Operations & Maintenance--
        +$35,000
    Federal programs with jurisdiction over water and wastewater 
facilities and/or funding (EPA, IHS, HUD) require that a formal 
operations and maintenance program be adopted and implemented. These 
facilities require a certified operator employed by the tribe, ongoing 
monitoring and maintenance, and equipment reserves at an estimated 
annual cost of $35,000.
    Operations and Maintenance programs are not funded by the agencies 
requiring them, nor are they eligible for funding under any program; 
thus, they are an unfunded mandate. If we are to meet the requirements 
for successful operation of our facilities, we must request an 
additional $35,000 annually.

              LOCAL/REGIONAL REQUESTS AND RECOMMENDATIONS
    The Wildlife Program has been funded since 1993 by a combination of 
grants. However, this source of funding is extremely precarious, and it 
is impossible to conduct long-term planning without a permanent source 
of program funding. We support funding for this crucial program in the 
amount of $300,000.
    The Jamestown S'Klallam Tribe is a direct beneficiary of the 
collective Tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.

            SELF-GOVERNANCE AND OTHER NATIONAL CONSIDERATION
    Restore $256,000 and Provide $100,000 Increase to Self-Governance 
Office in order to fund the on- going Self-Governance Communication and 
Education Project (SGCEP) and for the continuance of the Tribal Leaders 
Self-Governance Advisory Committee. We are greatly alarmed over the 
Administration's proposal to eliminate critical funding for these Self-
Governance activities. Over the past 10 years, the SGCEP has provided 
technical assistance and factual information about Self- Governance. 
There are now over 200 Tribes implementing Self-Governance and the 
request for information regarding this initiative continues to 
increase. The SGCEP is vital to ensure that Self-Governance and its 
purposes are clearly understood and consistently developed by 
participating Tribal governments, federal agency officials and non-
participating Tribes. The funding for this Project has never been 
increased and is now inadequate to keep up with information request. We 
respectfully request that this funding not only be restored, but 
increased to meet the real cost of providing these communication 
services. Further, funding must also be restored for the Tribal Leaders 
Self-Governance Advisory Committee. This Committee provides advice and 
guidance to the Assistant Secretary Indian Affairs on key policy issues 
that impact Self-Governance Tribes and has proven to be a effective 
forum for Tribal leaders to debate and discuss these issues.
    Increase BIA and IHS Contract Support Cost (CSC) Funds to address 
documented need. CSC funds are required for Tribes to successfully 
manage their own programs. While the Administration's budget request 
for fiscal year 2002 includes a modest increase for CSC--(1) an 
additional $65 million is needed in IHS (excluding the $40 million that 
has been estimated, but negotiated for the new Navajo Nation contract 
proposal); and (2) an additional $25 million is needed in BIA to fully 
fund CSC (excluding direct contract support costs). This shortfall 
continues to penalize Tribes which elect to operate BIA and IHS 
programs under the self-determination policy. Additional CSC 
appropriations are needed to implement the self-determination and self-
governance policy as supported by Congress. We urge the Subcommittee to 
fully fund CSC for Tribes equal to how other contractors are funded 
within the federal government.
    Provide a minimum of $25,000,000 in BIA Tribal Priority Allocation 
(TPA) General Increase for inflationary adjustments. Although the 
Administration's budget request for fiscal year 2002 includes a $17.5 
million increase over fiscal year 2001, this is the third year in a row 
that the request contains no general increase for TPA. This activity 
includes the majority of the funds used to support on-going services at 
the local Tribal level including such programs as housing, education, 
natural resource management and Tribal government services. A recent 
Congressional Research Service (CRS) Report on Indian-related federal 
spending trends for fiscal years 1975-2000 states increases in the 
combined BIA/Office of Special Trustee ``current'' dollars averaged $46 
million per year. But as ``constant'' dollars (adjusted for inflation), 
there has actually been a decline of approximately $6 million per year. 
Over this 25-year period, the total is $150 million! At a minimum, the 
requested amount will provide for a modest 3.5 percent inflation 
adjustment for existing Tribal programs and services. We further 
recommend that TPA be revised and possibly re-named ``Tribal Family & 
Community Services'' to better reflect the true nature and intent of 
these programs. We believe that this title will help the Congress 
better understand the use of these resources.
    Provide $325 million for IHS mandatory, inflation and population 
growth increase needed to maintain existing health care services. In 
fiscal year 2000, IHS and Tribal programs had to absorb over 50 percent 
of mandatory and inflationary cost increases; in fiscal year 1999, 50 
percent was absorbed; and, in fiscal year 1998, 70 percent was 
absorbed. This has been the pattern for the past 8 years. These costs 
are unavoidable and include medical and general inflation, pay costs 
and staff for recently constructed facilities. Mandatories should be 
the first consideration in budget formulation. If unfunded, these cost 
increases will result in further health service reductions in our 
Tribal communities.
    +$5 million in the IHS Division of Clinical and Preventive Services 
to support the Tribal Leaders Oral Health Initiative. This initiative 
seeks to improve oral health status and increase access to oral health 
services for Indian people. Indian people experience dental disease at 
rates 2 to 10 times the national average and Tribes currently have 
great difficulty recruiting dental staff with 25 percent of dentist 
positions currently vacant. $5 million will permit the tribes to 
increase their recruitment activities, improve availability of 
community water fluoridation, and collaborate more effectively with the 
IHS and other partners to curb the epidemic of oral disease that 
confronts Indian people.
    In conclusion, we strongly recommend increased funding levels 
within the BIA and IHS budgets for critically-needed existing programs. 
This funding is an obligation stemming from solemn commitments of the 
U.S. to Indian people to provide basic health, safety, education and 
economic security. We appreciate this Subcommittee's continued support 
and urge that Tribal government operations be afforded the highest 
priority in your appropriation decisions.
    Thank You.
                                 ______
                                 
                 Prepared Statement of American Rivers
    Many individual programs funded by the Interior Appropriations 
Subcommittee have substantial impacts on America's rivers. We urge that 
you bear these impacts in mind in determining levels of funding for 
these important government programs. We would like to highlight several 
funding needs that are of greatest interest in fiscal year 2002.

                         WILD AND SCENIC RIVERS
    Wild and scenic rivers have been designated by Congress in 
recognition of the value of free-flowing rivers with scenic, 
recreational, geologic, fish and wildlife, historic, cultural, or other 
similar values. Proper stewardship of the 163 designated wild and 
scenic rivers requires funding for the four federal agencies 
responsible for administering the Wild and Scenic River System: the 
Bureau of Land Management, U.S. Forest Service, National Park Service, 
and U.S. Fish and Wildlife Service. In fiscal year 2002, we urge the 
Subcommittee to provide $27 million for wild and scenic river 
management and to ensure that where appropriate, additional rivers can 
be added to the System.
    Within the overall System, the National Park Service manages 34 
wild and scenic rivers and is responsible for studying rivers in 
national parks and on non-public lands. We urge the subcommittee to 
support $9.1 million for the National Park Service Wild and Scenic 
Rivers Program. Of this total, $7.6 million is needed for wild and 
scenic rivers managed as units of the National Park System, and $1 
million is needed for wild and scenic river studies authorized by 
Congress.
    In addition, we would like to especially highlight the need for 
$1.5 million for management of seven partnership wild and scenic 
rivers. Partnership wild and scenic rivers are national resources that 
benefit from incredibly committed local conservation partners working 
to protect, manage, and enhance river resources. The number of 
partnership rivers that share a small amount of federal funding has 
grown from five to seven since last fiscal year, and the mileage has 
more than doubled. Federal funding not only ensures management plans 
are carried out with care and foresight, it also helps to leverage 
funding from state, local, and private sources. For example, on the 
Maurice River in New Jersey, federal funding of just $25,000 has been 
met by state and municipal sources of $1,626,500.
    The Bureau of Land Management is responsible for managing 34 wild 
and scenic rivers and by law must complete studies on roughly 400 river 
segments for potential designation. The Bureau has shown commitment to 
protecting wild and scenic rivers and other conservation areas by 
creating a new program to protect these areas, which together make up 
the BLM's Landscape Conservation System. In fiscal year 2002, the BLM 
needs $3.5 million for wild and scenic river management, and $2.0 
million for wild and scenic river studies on BLM lands.
    The Forest Service manages the largest number of wild and scenic 
rivers--96 in all. Currently, the Forest Service budget does not 
include a line item for wild and scenic river management. In December 
of 2000, however, the Forest Service created a new staff unit dedicated 
to stewardship of wild and scenic rivers and other congressionally 
designated areas. To better protect these special areas, we urge the 
Subcommittee to support an appropriation of $8,640,000 for wild and 
scenic river management and $3.0 million to complete missing management 
plans for wild and scenic rivers, and to undertake wild and scenic 
river studies.
    The Fish and Wildlife Service manages nine wild and scenic rivers 
and must study rivers on refuges for potential designation. We ask for 
$500,000 in appropriations for wild and scenic river studies that must 
be conducted on National Wildlife Refuges in fiscal year 2002.

           RIVERS AND TRAILS CONSERVATION ASSISTANCE PROGRAM
    The National Park Service's Rivers and Trails Conservation 
Assistance Program yields enormous conservation benefits nationwide by 
building partnerships between federal and local interests to revitalize 
communities and improve quality of life. Assistance from RTCA 
professionals is only given at the express request of a local 
community. RTCA not only builds local-federal partnerships, it also 
attracts substantial local funding. In one typical region, RTCA 
assistance in some 50 projects in the year 2000 attracted a total of 
$9.1 million dollars from other public and private sources. That means 
for every dollar spent on RTCA, $7 dollars were invested in projects 
from other sources, making this program a great value for the American 
taxpayer. We urge the Subcommittee to support an appropriation of $12 
million for RTCA to fill the growing number of community requests for 
assistance.
    In 2000, RTCA's field based program participated in over 200 
projects around the country, helping to develop more than 2,200 miles 
of trails, protect over 1,000 river miles and to preserve more than 
270,000 acres of open space. However, America's cities and towns face 
difficult conservation challenges daily and more and more local 
communities are requesting technical assistance from the Park Service. 
As the Federal government seeks to enable communities to take their 
future into their own hands, it must enlarge those Federal programs 
that coach communities in much needed technical and institutional 
skills. By continuing to increase the base funding for Rivers and 
Trails to $12 million, the Subcommittee will ensure that RTCA serves 
every community that wishes to manage their recreational and natural 
resources.

           IRRIGATION MITIGATION AND RESTORATION PARTNERSHIP
    We urge you to appropriate $25 million for the Irrigation 
Mitigation and Restoration Partnership Program through the Department 
of Interior. Under this program, farmers and irrigation districts can 
obtain federal financial assistance to install fish screens and fish 
passage devices at irrigation diversions. This program is an important 
aspect of federal plans to recover salmon, steelhead, and other 
endangered fish throughout the Pacific Northwest. As you know, such 
recovery measures are necessary to ensure continued operations of the 
Federal Columbia River Power System without more stringent Endangered 
Species Act constraints.

            HYDROPOWER LICENSING UNDER THE FEDERAL POWER ACT
    We further urge the Subcommittee to appropriate adequate resources 
for the U.S. Forest Service and the Department of the Interior to 
address the increasing number of hydropower dams seeking renewal of 
their operating licenses from the Federal Energy Regulatory Commission. 
These agencies have core responsibilities under the Federal Power Act 
to make recommendations and set license conditions that will ensure 
conservation of natural resources upon issuance of hydropower licenses. 
With a large number of projects moving into beginning the relicensing 
cycle over the next few years and new commitments by the agencies to 
streamline their participation, but also provide new public review of 
agency conditions, these agencies have been stretched past the breaking 
point. Doubling their limited appropriations would help ensure a more 
efficient licensing process, benefiting the hydropower industry and 
furthering efforts to protect and restore environmental, recreational, 
and cultural resources.

    SALT RIVER LAND ACQUISITION--MARK TWAIN NATIONAL WILDLIFE REFUGE
    We strongly urge the Subcommittee to provide $4.5 million from the 
Land and Water Conservation Fund to acquire a major parcel, totaling 
1,848 acres, for addition to the Mark Twain National Wildlife Refuge. 
The Mark Twain National Wildlife Refuge spans 343 river miles of 
Mississippi River bottoms between Muscatine, Iowa, and Gorham, 
Illinois. The refuge was established in 1958 to provide food, water, 
and protection for migrating and wintering waterfowl and other 
migratory birds.
    The proposed acquisition--the Pike Grain tract--is located along 
the Salt River, approximately 1.5 miles above its confluence with the 
Mississippi River in Pike County, Missouri near the town of Louisiana. 
Located within the historic floodplain of the Mississippi River, it is 
the largest of several parcels identified as a proposed Salt River 
Division of the Annada District of the Mark Twain NWR.
    In response to the record flood of 1993, conservation agencies 
(including the USFWS) have emphasized acquisition and restoration of 
floodplain habitat. The willingness of the Pike Grain tract landowner 
to sell these 1,848 acres to the USFWS provides a critical opportunity 
to restore a large tract of floodplain land that would significantly 
increase habitat diversity, improve water quality and restore 
floodplain hydrologic function. The acquisition area lies in the heart 
of the Mississippi Flyway along the Mississippi River, one of the most 
important migration corridors on the continent. Additionally, the reach 
of Mississippi River between Rock Island, Illinois and the confluence 
of the Ohio River is the most impacted and degraded portion of the 
Upper Mississippi River. Acquisition of the Salt River parcels has been 
identified as a top priority for acquisition by the U.S. Fish and 
Wildlife Service in Region 3 for fiscal year 2002. The Mark Twain 
Refuge ranked third in the nation on this year's Land Acquisition 
Priorities System (LAPS) list.
    The Salt River (Pike Grain) tract would provide resource managers 
with a unique opportunity to reconnect the Mississippi to its 
floodplain With a restored connection between the Mississippi River and 
its historic floodplain, resource managers will restore floodplain land 
currently used for agriculture to healthy and functional fish and 
wildlife habitats, including 350-450 acres of moist-soil and emergent 
managed wetlands, 2100 acres of bottomland forest, including pin oak, 
swamp white oak, sycamore, maple and cottonwood trees, and 400-500 
acres of grassland/wet prairie. These areas will offer habitat for 
several bird species of concern, including the American Bittern, Least 
Bittern, Bald Eagle, American Woodcock, Black tern, Sedge Wren, and 
several waterfowl species, potentially assisting the 40 percent of 
North American migratory birds that utilize the Mississippi River 
Flyway.
    Taking floodplain lands out of agricultural production will have 
significant benefits to water quality in the Salt River as well as 
downstream to the Mississippi. Restored wetland vegetation would be a 
more effective filter of sediments from floodwaters, contributing to a 
reduction of sediment buildup in the Mississippi River main channel, 
side channels and backwaters downstream. Wetland vegetation more 
effectively and naturally recycles nutrients, reducing nutrient inputs 
to the Mississippi River and the Gulf of Mexico. Wetland complexes also 
provide natural storage of floodwaters, reducing the impacts of 
flooding downstream.
    Protection of the Pike Grain tract would be a first major step in 
the development of a new division of the Mark Twain NWR. If successful, 
it would set the stage for further protection of critical floodplain 
lands in the proposed Salt River division. This project lies 
immediately adjacent to the Missouri Department of Conservation's 6600-
acre Ted Shanks Conservation Area. Protection of this tract would 
enhance public access to natural areas and raise the profile of 
important restoration activities in the Mississippi River floodplain. 
Its location adjacent to State Highway 79, which is the Missouri 
portion of the Great River Road, indicates that pull-off of kiosks and 
interpretive panels would receive heavy use.
    Funding must be obtained in fiscal year 2002 to purchase the Pike 
Grain tract. This parcel represents 56 percent of the proposed Salt 
River division, for which approval by the Land Protection Review 
Committee is anticipated prior to fiscal year 2002. The Pike Grain 
landowner has been patiently waiting for acquisition funding to be 
approved so that USFWS may purchase the land, but continues to receive 
pressure from other interests to sell the property. Unnecessary delay 
in making USFWS acquisition funds available may turn a potential 
windfall into an opportunity lost. We strongly urge the Subcommittee to 
provide $4.5 million from the Land and Water Conservation Fund to 
acquire a major parcel, totaling 1,848 acres, for addition to the Mark 
Twain National Wildlife Refuge.
                                 ______
                                 
  Prepared Statement of the Central Council Tlingit and Haida Indian 
                            Tribes of Alaska
    On behalf of the Central Council of Tlingit and Haida Indian Tribes 
of Alaska (Central Council) I am pleased to submit this testimony on 
the fiscal year 2002 budget for the Interior Department's funding for 
the Indian Tribal Justice Act (Public Law 103-176) and Tribal Courts 
(under the Tribal Priority Allocations).
    The Central Council is a federally recognized tribal government 
representing over 23,000 Tlingit and Haida members worldwide. The 
Central Council is a sovereign entity and has a government-to-
government relationship with the United States. Its headquarters is 
located in Juneau, Alaska, but the Central Council's commitment to 
serving the Tlingit and Haida people extends throughout the United 
States.
    Traditional Tlingit and Haida law has existed since time 
immemorial. The people of each of these distinct nations have always 
governed themselves in a sophisticated matriarchal cast system that 
contributed greatly to the preservation of the Tlingit and Haida 
culture. Although contact with other societies and the adoption of 
contemporary, ``non-Indian'' governing instruments have changed the way 
Tlingit and Haida people interact with one another, traditional 
aboriginal law has seen little change.
    The Tlingit and Haida people follow the ancient laws of our people 
that are the foundation of our tribal sovereignty. Since time 
immemorial, our inherent sovereignty pervades our traditional villages 
and communities enhanced by our spiritual relationship to all the land 
and waters of Southeast Alaska. Our traditional ceremonies validate our 
identify and culture. We have specific protocols, including potlatches, 
in celebrating a birth, a marriage, giving a name, sharing of wealth, 
raising totems, commemorating special events and honoring a leader or 
the departed.
    In addition, the Central Council has enacted an Administrative Code 
[Title 06, Chapter 01] that provides authority for its tribal court and 
its Council of Elders. The Code sets out a model legal system 
reflecting traditional authority and laws of the Tlingit and Haida 
communities. While the Central Council Tribal Court currently has three 
appointed tribal court judges, the Court has remained inactive because 
of the lack of funding.
    Tribal courts are essential because they protect the health and 
welfare of our children and heal our families. A tribe's ability to 
care for its members in this way is a way for it to reclaim its 
traditional laws, values, and customs. It is also a means for the Tribe 
to maintain its unique identity and culture.
    In order to provide a basis for tribal actions on behalf of tribal 
children in the Central Council Tribal Court, the Central Council 
enacted separate statutes under its Administrative Code regarding the 
federal Indian Child Welfare Act (ICWA) (25 U.S.C. sec. 1901 et seq.) 
and its use in proceedings in the Tribal Court.

   INTERIOR DEPARTMENT FUNDING, INDIAN TRIBAL JUSTICE ACT AND TRIBAL 
                                 COURTS
     Full Funding for Indian Tribal Justice Act.--The Central Council 
strongly supports full funding for the Indian Tribal Justice Act 
(Public Law 103-176). This would amount to $58 million as determined as 
the amount needed by tribes in 1993 to be minimally operational.
     Tribal Courts under the Tribal Priority Allocations.--The Central 
Council strongly supports increased funding for Tribal Courts under the 
Tribal Priority Allocations (TPA). While we support the Interior 
Department's fiscal year 2001 budget request of $12,585,000 (an 
increase of $1,537,000 over fiscal year 2000 level), this increase 
represents only a minimal first step towards meeting the vital needs of 
tribal justice systems.
    The vast majority of tribal justice systems function in isolated 
rural communities. For example, in Southeast Alaska villages served by 
the Central Council are faced with the lack of or inadequate State law 
enforcement, the lack of an active tribal court system, great distance 
from existing resources, lack of detention staff and facilities, lack 
of access to advanced technology and lack of substance abuse testing 
and treatment facilities.
    Tribal justice systems are the primary and most appropriate 
institution for the preservation of tribal families and communities. A 
tribe's own tribal court is often the best tool that can be used to 
protect tribal children and families and to preserve the integrity of 
the Indian tribe.
    The most precious resource of a tribe is its children. Tribes are 
better equipped to handle child protection cases involving their tribal 
children because they know and understand the family or families 
involved, their strengths and weaknesses, and the family dynamics 
involved. As a result, tribes are better able to create culturally 
appropriate and creative case plans for families. Tribes also 
understand the situations that Native families face in villages and in 
urban areas and are more apt to work hard with a tribal family to come 
up with solutions and resources in order to keep the tribal family 
together.
    Unfortunately, because the Central Council has been unable to 
secure funding for its tribal court, it has never been able to accept 
jurisdiction of ICWA cases from other states regarding its tribal 
children. Instead, the Central Council is forced on an ongoing basis to 
tell other states it is unable to take jurisdiction of these important 
cases involving its children. In addition, the Central Council is 
unable to initiate jurisdiction of an ICWA case because its tribal 
court is not active. As a result, the Central Council is currently 
intervened in approximately 400 state court ICWA proceedings in Alaska 
and out-of-state regarding its tribal children. Many of these cases are 
headed speedily toward parental termination proceedings, and could have 
been more appropriately resolved in the Central Council's own tribal 
court.
    Tribal courts and tribal justice systems are the key to tribal 
self-sufficiency and to the preservation of tribal customary practices, 
families, and communities. The United States adopted the Native 
American Graves Protection and Repatriation Act (NAGPRA) that provide a 
great opportunity for tribes to repatriate tribal (and clan) art and 
artifacts back from national museums to the original owners. Unclear or 
missing records on the art or artifacts create conflict among 
individuals and the clans as to who the legal owner of the item is. A 
Tribal Court Of Elders will hear from conflicting parties and decide on 
the owner based on their understanding of traditional tribal property 
laws.
    We welcome the opportunity to provide these written comments for 
the fiscal year 2002 budget for the Interior Department's funding for 
the Indian Tribal Justice Act and Tribal Courts. Thank you very much.
                                 ______
                                 
               Prepared Statement of Georgia Forestwatch
    Georgia Forestwatch is an environmental advocacy organization 
focused on protection of public lands in north and central Georgia. 
Among our highest priorities is the conservation of the remaining 
pristine watersheds in these two areas. Toward this end, we work 
closely with a diverse set of ally organizations, including the 
Chattowah Open Land Trust, Mountain Conservation Trust, Soque River 
Watershed Association, and the Upper Chattahoochee River Keeper. On 
behalf of Georgia Forestwatch, I offer the following testimony in 
support of funding the Forest Legacy Program of the U.S. Forest Service 
at a minimum level of $100M, as well as full funding of the state and 
federal sides of the Land and Water Conservation Fund. As outlined 
below, these programs are essential to the conservation of forestland 
and other special areas in our state.
    The forests of north Georgia are some of the most magnificent 
forests in the entire state. They also contain some of the highest 
biodiversity watersheds in the United States, and indeed the world. The 
Conasauga river, for example, contains ninety two species of fish, over 
forty species of mussels, and supplies water to Dalton, GA, the carpet 
capitol of the world. It has been estimated that over half the world's 
carpet is produced with water from the Conasauga. The Chattahoochee 
River, which like the Conasauga originates on National Forest land, 
provides drinking water for over four million people. These rivers and 
forests not only supply drinking water but also supply recreation for a 
rapidly expanding Atlanta population. Last year, the Chattahoochee 
National Forest received over ten million recreational visits, a number 
which rivals the twelve million received by the Great Smoky Mountains 
National Park, the most visited National Park in the United States.

              THE NEED FOR INCREASED CONSERVATION FUNDING
    While ample conservation opportunities still exist here, north 
Georgia is under unprecedented development pressure due to rapid 
population growth. Georgia is now the 10th most populated state in the 
country with nearly 6.5 million people. The south (broadly defined from 
Maryland around to Texas) grew by an impressive 17 percent during the 
1990's,\1\ adding some 15M people to reach a total population of 100M. 
This gain in population was greater than any other region of the 
country over the past decade. At the heart of this Southern growth are 
several of our southeastern states, some of which grew at phenomenal 
rates: Georgia by 26 percent and North Carolina by 21 percent, for 
example.
---------------------------------------------------------------------------
    \1\ Perry, Marc J. and Paul J. Mackun. ``Population Change and 
Distribution: 1990 to 2000''. U.S. Department of Commerce, U.S. Census 
Bureau. April 2001.
---------------------------------------------------------------------------
    This population growth, coupled with our sprawling land use 
patterns, means that the Southeast is now experiencing a rapid 
conversion of undeveloped land to urban and suburban uses. In a recent 
study of land conversion nationwide, Georgia, North Carolina, 
Tennessee, and South Carolina all ranked in the top ten states with 
respect to the most land converted to developed uses in recent 
years.\2\ Between 1989 and 1997, north Georgia lost over 90,000 acres 
of forest and agricultural land to development. These figures on 
population growth and rural land loss indicate that Georgia has an 
urgent need for conservation dollars. If we cannot seize the current 
opportunities to conserve undeveloped lands in our region in the 
immediate future, that opportunity may well be lost forever.
---------------------------------------------------------------------------
    \2\ USDA Natural Resources Conservation Service. ``Summary Report: 
1997 National Resources Inventory (Revised December 2000)''. Table 2. p 
21. 2000.
---------------------------------------------------------------------------
    The conservation of these undeveloped areas has great significance 
for the quality of life, economic health, and natural heritage of our 
region. In north Georgia, the tourism and recreation industry ranks 
with the very top tier of industrial sectors in economic importance. 
The viability of this part of our economy is largely dependent on the 
maintenance of scenic beauty and open space, as well as wildlife and 
aquatic habitat for hunting and fishing. For example, in 1995 the 
Chattahoochee National Forest in north Georgia indirectly provided 
employment for 5,500 people and income of $119 million for local 
communities, and federal income taxes of $18 million. Hunting alone 
generated over $41 million dollars in revenue from our national forest 
land.
    Investing in land conservation in this region is also extremely 
important to the ecological diversity of our nation. The Southeast is 
one of the two regions with the highest ecological community diversity 
in the United States. Within the Southeast, the Atlantic and Gulf 
coastal plains and the Appalachian highlands are the hotspots of 
ecological diversity. These are also two of the areas most threatened 
by current trends. For example, the recently completed North Carolina 
Chip Mill Study \3\ found that 80 percent of bird species of 
conservation concern, 95 percent of reptile species of conservation 
concern and all amphibians of conservation concern on the North 
Carolina coastal plain are projected to be negatively impacted by 
forest trends over the next 20 years. Protection of our region's 
natural forest ecosystems such as longleaf pine, forested wetlands and 
mature hardwoods is crucial to maintaining the outstanding ecological 
diversity in the Southeast.
---------------------------------------------------------------------------
    \3\ Cubbage, F., D. Richter, R. Schaberg and P.B. Aruna. Economic 
and Ecologica Impacts Associated with Wood Chip Production in North 
Carolina. Southern Center for Sustainable Forests. 31 July 2000.
---------------------------------------------------------------------------
  protect special places through the land and water conservation fund
    Critical to conservation efforts in north Georgia is the full 
funding of the Land and Water Conservation Fund. After an unfortunate 
hiatus in needed support, last year's federal appropriation began to 
revitalize this popular program. It should be fully funded in this and 
coming years in order to take full advantage of important land 
conservation opportunities in the Southeast and across the country. A 
variety of projects have been identified in our north Georgia region 
and these projects enjoy support from diverse constituencies, ranging 
from urban recreation users to backcountry hunters and fishers.
    While LWCF enables the states and multiple federal agencies to 
complete many different kinds of projects, several proposed additions 
to our public lands in Georgia are especially noteworthy. While Georgia 
is home to two of our National Forests in the East, these lands tend to 
be highly fragmented and are under intense pressure from urban sprawl. 
For example, the Chattahoochee National Forest in north Georgia is one 
of only two national forests in the east officially designated by the 
Forest Service as an ``Urban'' National Forest. This designation was 
derived from the fact that the Chattahoochee NF is within an hours 
drive for over four million people. Accordingly, their recreational, 
scenic and ecological values can be significantly enhanced by 
acquisition of nearby parcels from willing sellers. A few of the 
projects in need of immediate LWCF funding in our state, all of which 
have been rated as priorities by the Forest Service, are provided here:
  --Chattahoochee River (GA)--$2.7M.--This 160 mile long buffer along 
        the river would protect forests and provide open space to 
        communities.
  --Chattooga Wild & Scenic River/Watershed (GA/NC/TN)--$4.3M.--This 
        river corridor traversing three states has been a long-term 
        national priority for watershed-based conservation efforts.
    Plus, an additional $1.3 M for the following tracts:
  --The Jacks River (GA).--These tracts are on the main tributary of 
        the Conasauga River, the most biologically diverse river in the 
        U.S., and home to 92 species of fish--species which rely on 
        unfragmented ownership to decrease ever-threatening non-point 
        source pollution.
  --Mt. Yonah (GA).--One of Atlanta's favorite mountain playgrounds, 
        the purchase of this tract will expand the areas recreational 
        capacity and reduce impact to rare and fragile botanical areas.
  --Etowah River (GA).--This tract will increase the buffer on one of 
        Georgia's most imperiled rivers and will enhance safety for 
        it's many beautiful fishes including the endangered Etowah 
        darter. It is currently threatened by urban sprawl and second 
        home development.
    Finally, we are also asking for $500,000 so that the Forest Service 
might begin acquisitions on the Ocmulgee River in the Oconee National 
Forest. The Forest Service has informed me that they did request 
through their agency funding for acquisitions on the Oconee. It did not 
make the President's budget, but we feel it is imperative to begin an 
acquisitions process for the Oconee that is in the Piedmont portion of 
Georgia. These are some of the most heavily impacted rivers and 
bottomlands in Georgia and public ownership is critical if we are to 
protect them.
         protect forest land through the forest legacy program
    Georgia Forestwatch supports full funding of the Forest Legacy 
program in Georgia. The majority of Georgia's forest lands are in 
private ownership, but these landowners are under intense pressure to 
convert their forest land to other uses. Private landowners currently 
own approximately 70 percent of Georgia's forest land and trends 
indicate that by the year 2010 over 95 percent of Georgia's forest land 
could be in parcels smaller than 100 acres. The main reason for this is 
that estate settlements are creating smaller parcels for heirs. It is 
also becoming harder for minority and poor landowners to hold on to 
their land, and many landowners over the age of 50 are selling their 
land to support retirement and/or pay taxes. Large industrial 
landowners are also selling off land as it becomes more valuable for 
development.
    Georgia's draft Assessment of Need (AON) for Forest Legacy funding 
resulted in the identification of six areas in Georgia that could 
possibly benefit. These areas contain Georgia's most significant 
watersheds and unbroken forested lands. The full funding of Forest 
Legacy could result in as much as $500,000 this first year to purchase 
Conservation Easements from willing sellers.
    In closing, Mr. Chairman, Georgia Forestwatch strongly supports 
both full funding for LWCF and greatly increased appropriations for the 
Forest Legacy Program. We appreciate this opportunity to acquaint you 
with the significant conservation opportunities that exist in our state 
at present, as well as the urgent need for federal support to move 
forward with protection of forestland and other special areas in the 
Southeast.
                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians
    Mr. Chairman, my name is Herman Dillon, Sr., Puyallup Tribal 
Chairman. We thank the Committee for past support of many tribal issues 
and in your interest today. We share our concerns and request 
assistance in reaching objectives of significance to the Congress, the 
Tribe, and to 32,000+ Indians (constituents) in our Urban Service Area.
tribal administration building & nurses quarters--asbestos abatement & 
                         removal appropriations
    Context.--The Puyallup Tribe's five story brick ``administrative 
building'', is a former U.S. Public Health Service Indian Hospital, 
commonly known as Cushman Hospital. It is also known as the Tacoma 
Indian Hospital and Cascadia Diagnostic Center. The building 
temporarily houses our government services, many social services and 
Tribal Court that host clients, including children. However, since the 
Nisqually Earthquake (6.8 magnitude) of February 28, 2001 all 
governmental services and staff have been vacated from the building and 
located in temporary makeshift offices. This same building was 
``condemned'' in 1988 by the U.S. Department of Interior--Bureau of 
Indian Affairs (BIA) as functionally and structurally dangerous and 
subject to collapse from earthquake tremors and high winds that can 
topple the parapet and perimeter walls. The nearby three story Nurses 
Quarters has been unoccupied for many years due to asbestos, and lead 
contamination and disrepair. Both buildings are surrounded by cyclone 
fencing to protect the public from falling debris. These buildings are 
connected by an underground system of steam heat and utility corridors 
(utilidoors) that are contaminated and deteriorated to the point of 
collapse.
    Bureau stewardship.--The Bureau of Indian Affairs accepted 
``custody and accountability'' of these facilities and accepted title 
in Trust for the Tribe on April 22, 1980 from GSA Region X. The 
Department of Interior, Office of Construction Management (OCM) 
retained Chen-Northern, Inc., and Cooper Consultants, Inc., to identify 
the cost of asbestos removal and replacement and structural repairs to 
upgrade the Administrative Building for life safety. Based on the 
consultant reports, BIA concluded that the buildings were hazardous and 
that it would be more costly to renovate the buildings to an acceptable 
level of safety standards, than to demolish the structures. The same 
situation holds today for the Administration Building.
    Proposed congressional funding.--The Puyallup Tribe and the Bureau 
of Indian Affairs jointly funded a $51,300 study by AustinCina 
Architects entitled ``Feasibility Study for Remodel or Demolition of 
Administration Building, Nurses Quarters and Tunnels'' which was 
completed in 1999. The study demonstrates that demolition of the 
Cushman Complex confirms a Cost: Benefit Ratio (CBR) of 1:7 over 
remodeling ($2.8M:$16.6M). It is important to note that the remodeling 
costs will exceed $16.6M if interior reconfiguring costs are needed. 
Another study is currently underway to refine and confirm the cost of 
demolition. This study is being undertaken by a firm contracted with 
the Tribe and will determine demolition costs based on 2002 dollars.
    The Puyallup Tribe and BIA are undertaking compliance activities to 
determine what to do about this issue. Although preliminary evaluation 
by the Tribe and BIA would lead one to conclude that demolition is the 
most cost effective option, Federal compliance activities are 
necessary. The BIA and Tribe have put together a funding resource of 
over $250,000 to conduct National Environmental Policy Act (NEPA) and 
National Historic Preservation Act (NHPA) Section 106 compliance 
efforts. The Puyallup Tribe will be co-Lead Agency for the NEPA 
compliance and the BIA will be Lead Agency for NHPA Section 106 
compliance. The Puyallup tribe has created a Tribal Historic 
Preservation Office and initiated coordination with the Washington 
State Historic Preservation Office and the Tacoma Historical Society. A 
public meeting will be held in the near future with the entire Tribal 
community to receive questions and comments. A contractor will then be 
selected to perform the Section 106 compliance. NEPA compliance will 
also be commencing this quarter with a public meeting of the Tribal 
community and scoping meetings with affected Federal, state and local 
agencies. A contractor will be hired to prepare the environmental 
assessment. It is anticipated that the NHPA Section 106 compliance will 
be a longer process than the NEPA compliance effort but that both 
should be concluded by the end of fiscal year 2001.
  --The Puyallup Tribe requests a congressional appropriation of 
        $2,800,000 for the removal of the asbestos contamination and 
        demolition of the facilities through line item funding to the 
        U.S. Department of Interior--Bureau of Indian Affairs budget 
        for fiscal year 2002.
                      community health, and safety
    While Indians continue to lag behind in a number of health status 
measurements, real progress is being achieved. As Congress implements 
measures to control spending in this era of historic federal surplus, 
it should not cut programs which are models the federal government can 
accomplish. Since 1976, the Puyallup Tribe has been exercising its 
control over their health care programs through Public Law 93-638, 
Indian Self Determination Act, to ensure that federal funds get to the 
community level by providing the necessary health care in the face of 
increasing medical costs. The Puyallup Tribal Health Authority (PTHA) 
is a model of what the federal government should fund and support for a 
successful program.
    The fiscal year 2002 IHS budget increase of $107,700,000 over the 
fiscal year 2001 level for a total of $3.3 billion for overall IHS 
services and construction is an indication of the continued need for 
increased IHS funding. Unfortunately, despite the recommended increase, 
the fiscal year 2002 budget still falls short of preserving the 
existing IHS programs. The Puyallup Tribe is focused on preserving the 
basic health care program funded by the IHS budget. Preserving the 
purchasing power of the base program should be IHS' first priority. How 
can the tremendous unmet needs ever be addressed if the existing 
program is not maintained. Therefore, we urge Congress to:
  --Continue to fund medical and general inflation costs.--These are 
        legitimate increases that, if not funded, result in the loss of 
        purchasing power at the expense of patient care.
  --Fund the increased expenses due to population growth.--The more 
        patients that are enrolled at the Takopid Health Center, the 
        more diluted the services become for all eligible recipients.
  --President's request of $446,000,000 in contract care.--Contract 
        care is most vulnerable to inflation and population growth. The 
        average number of new registered patients at PTHA is 
        approximately 75 per month. CHS increases should be based on 
        population growth alone. At a minimum, CHS should receive 
        medical inflation adjustments equal to the Medicaid program 
        estimated at 7.4 percent.
                            law enforcement
    Our 18,061+ acre Reservation is located in the urbanized Seattle-
Tacoma area of Washington State and contains 83,000+ residents. This 
urban area contains 10,000+ Native Americans from over 200 Tribes and 
Alaskan Villages. The Reservation overlies a portion of the City of 
Tacoma which has experienced increases in criminal acts since 1990: 45 
percent increase in Violent Crime, 64 percent in Thefts, 19 percent in 
Burglary, 29 percent in Rape, 46 percent in Assaults & 126 percent in 
Drug Related Crimes (PSCOG). Gangs are a threat to law enforcement 
integrity. Current staffing levels do not provide the minimum level of 
community Law Enforcement services. The Tribe has formalized Mutual Aid 
Intergovernmental Agreements including cross-deputization. Local 
governments stress a need for Tribal Enforcement emphasis on community 
patrols. We seek support and endorsement in:
  --We currently receive contract funding from BIA to conduct law 
        enforcement services. The amount has not increased to assist in 
        our need for expanded gang related services. A Base Budget Add-
        On of $200,000 for additional Officers & related equipment and 
        patrol vehicles are needed to insure the public safety of the 
        Puyallup Tribe and its community.
  --The Law Enforcement Headquarters, which houses the Police 
        Department, also serves as a minimum-security jail facility. 
        The Puyallup Tribe has the only ``Tribal Jail'' facility in 
        Western-Washington and currently contracts with more than Eight 
        (8) other Western-Washington tribes to house tribal offenders 
        in our facility. The facility sustained substantial structural 
        damage in the February 28th earthquake and is in need of 
        replacement or major repairs/expansion in order to meet the 
        increased demand for retention services. We request Committee 
        support of the proposed $5,000,000.00 increase for basic 
        detention services.
                fisheries & natural resources management
    The Puyallup Tribe, as steward for land and marine waters in the 
Usual and Accustomed fish and shellfish areas, has treaty and 
Governmental obligations and responsibilities to manage natural 
resources for uses beneficial to the regional community. Despite our 
diligent program efforts, the fisheries resource is degrading and 
economic losses are incurred by Indian and Non-Indian fisherman, and 
surrounding communities. Our Resource Management responsibilities cover 
thousands of square miles in the Puget Sound region of the State of 
Washington with an obligation to manage production of anadromous, non-
anadromous fish and shellfish resources. Existing levels of support are 
inadequate to reverse the trend of resource/habitat degradation. 
Resource management is constrained due to funding shortfalls. We seek 
support and endorsement in the following areas:
  --Bureau of Indian Affairs Public Law 93-638 Contract.--Tribal 
        Fisheries Resource Management, Hatchery Operation and 
        Maintenance funding via Public Law 93-638 contracts have not 
        increased substantially since establishment of base budgets in 
        1984. The demand on Puyallup Tribal Fisheries Program has grown 
        exponential since the eighties and is currently faced by 
        Endangered Species Act listings on Bull Trout and Chinook 
        Salmon which is in a highly urbanized setting more so than any 
        other Pacific Northwest Tribe. We request Committee support to 
        increase base contract funding in the amount of $150,000.00 for 
        additional fisheries staff.
  --Endangered Species Act.--Full ESA recovery is a goal for the 
        Puyallup Tribe. However, lack of contract funds makes it 
        impossible to efficiently operate ESA programs. Funds need to 
        be continued in order to implement fisheries restoration, 
        monitoring and evaluation of programs in Commencement Bay, 
        Puyallup River System and numerous streams in the Puyallup U & 
        A. We request Committee support for base funding level of 
        $1,029,000 to the Endangered Species Act fiscal year 2002 
        budget.
  --Western Washington Timber-Fish-Wildlife Program.--The TFW Program 
        has allowed for the expansion of tribal participation in the 
        state forest practice rules and regulations that have an effect 
        on listed salmon populations. In fiscal year 2000 Congress 
        added to the TFW base funding for the Bureau of Indian Affairs. 
        However, this base funding increase is being proposed to be 
        discontinued in the fiscal year 2002 budget. Continued funding 
        in this area is essential to facilitate tribal participation in 
        monitoring, research, data analysis and adaptive management 
        processes, which the cornerstone to the TFW process. We request 
        Committee support for base funding level of $3,041,000 to the 
        TFW fiscal year 2002 budget.
          tribal priority allocation & contract support costs
    The President's fiscal year 2002 budget calls for $2.2 billion to 
be allocated to the Bureau of Indian Affairs, which is an increase of 
$65,900,000 over the fiscal year 2001 enacted level. This request 
includes $750,500,000 for Tribal Priority Allocations (TPA), a 
$17,500,000 increase over the fiscal year 2001 enacted level. Although 
the increases are a positive commitment by the Administration, they 
still fall short of providing adequate funding for critically needed 
tribal programs supported by TPA funding. TPA budget activity includes 
the majority of funding used to support ongoing services at the local 
tribal level, including; law enforcement, natural resource management 
(fisheries), child welfare, housing, tribal courts and other tribal 
governmental services. TPA has not received adequate funding to allow 
tribes the resources to fully exercise self-determination and self-
governance. Further, the small increases TPA has received over the past 
few years has not been adequate to keep pace with inflation. At a 
minimum, we request your support and endorsement in the following;
  --Support by Congress of the President's fiscal year 2002 request for 
        TPA increase of $17,500,000, for a total request of 
        $750,500,000 for fiscal year 2002 TPA funding.
    Another concern the Puyallup Tribe has with the fiscal year 2002 
budget request is the ongoing issue of contract support costs. The 
President's fiscal year 2002 budget request includes an increase of 
$11,000,000 to address the Bureau of Indian Affairs continuing contract 
support costs shortfall and $3,000,000 for the Indian Self-
Determination Fund to address the needs of tribes taking on new Bureau 
of Indian Affairs programs. At a minimum, we request your support and 
endorsement in the following;
  --Support by Congress of the President's fiscal year 2002 request for 
        an increase in contract support cost funding of $130,200,000, 
        including $3,000,000 requested for the Indian Self-
        Determination Fund for new Bureau of Indian Affairs programs 
        contracted by tribes. Full funding of Contract Support is a 
        mandate toward the full realization of Self-determination and 
        Self-governance.
                                 ______
                                 
  Prepared Statement of the Yukon River Drainage Fisheries Association
                                abstract
    The Yukon River Drainage Fisheries Association (YRDFA) requests a 
reauthorization of an appropriation to operate a public information and 
education campaign concerning the recently signed U.S./Canada Yukon 
River Salmon Agreement and the operations of the Yukon River Panel. 
YRDFA seeks a reauthorization of $100,000 in base level funding. Funds 
would be transferred from the U.S. Fish & Wildlife Service to the YRDFA 
through a Cooperative Agreement entered into under the authority of the 
Fish and Wildlife Coordination Act [16 USC 661-667 (e) (1970)].
                              introduction
    Since 1985 the United States and Canada have engaged in annual 
negotiations to conclude a long-term treaty for the management of 
chinook and fall chum that spawn in Canada. During the 1990s there were 
informal agreements on harvest targets and spawning escapements and 
from February 1995 through March 1998, a formal Interim Agreement was 
in place between the two countries. No agreement was in place from 1998 
until early 2001 due to disagreements over harvest shares and other 
issues.
    However, on March 29, 2001 after two rounds of negotiations in the 
past year United States and Canadian negotiators reached consensus on a 
framework Agreement for the Management of Yukon River chinook and fall 
chum stocks originating in Canada. Key elements of the agreement are as 
follows:
  --United States border passage obligations: the United States agrees 
        to deliver over the border the required number of salmon to 
        meet the annual spawning escapement objective plus allow for a 
        Canadian harvest at the midpoint of their guideline range.
  --Canadian management obligations: Canada agrees to manage its 
        fisheries to meet the annual spawning escapement objective.
  --Both countries also agree to undertake efforts to reduce marine 
        bycatches of Yukon River salmon and maintain the productivity 
        of salmon spawning and rearing habitat in both countries.
  --Establishes a joint Yukon River Panel to recommend annual spawning 
        escapement objectives, meet inseason to develop recommendations 
        in light of an extremely poor or strong return of salmon and 
        manage the Restoration & Enhancement (R&E) Fund.
  --The R & E Fund will be supported by a US contribution of $1,200,000 
        annually and be used for: (a) programs, projects and associated 
        research and management activities on either side of the 
        Alaska-Yukon border directed at the restoration, conservation 
        and enhancement of Canadian origin salmon stocks; (b) programs 
        and projects that are directed at developing stewardship of 
        salmon habitat and resources and maintaining viable salmon 
        fisheries in the Yukon River in Canada.
    In light of this Agreement there is a serious need to continue to 
disseminate public information and education to the 15,000 rural 
residents living in the 42 different Yukon villages in Alaska. All of 
these villages are extremely isolated, accessible only by small plane 
or riverboat. There are no daily newspapers, limited and poor TV 
reception and only a few scattered public radio stations.
    It is these rural villagers who are the most affected by the 
Agreement with Canada. Salmon, including Canadian-origin chinook and 
fall chum stocks, are the backbone of both their traditional 
subsistence fishery and their small commercial fishery. Decisions 
concerning Canadian-origin stocks have major impacts on how many salmon 
each family may harvest and how much fishing income a commercial 
fisherman might earn. These fishermen must not only be fully informed 
about the Agreement but must be able to communicate with and provide 
feedback to the Panel as well as personnel of the U.S. Fish & Wildlife 
Service and the Alaska Department of Fish & Game.
    Unless the residents and fishermen of the Yukon River understand 
the costs and benefits of the Agreement and the importance of the 
Canadian-origin stocks it will be very difficult for the Agreement to 
be successfully implemented. Without adequate public information and 
communication management and research measures will lose their 
effectiveness.
     u.s./canada yukon river salmon information & education program
    In the fiscal year 2000 and fiscal year 2001 budgets Congress 
authorized annual appropriations of $100,000 to YRDFA to assist the 
agencies in educating the public about the negotiations with Canada. 
Funds have been utilized for village fishermen's meetings and for 
informational newsletters distributed to nearly 3,000 recipients. We 
have worked closely with the USFWS in planning these newsletters and 
meetings.
    We again request a $100,000 appropriation for fiscal year 2002 to 
make certain that the different rural salmon users are fully aware of 
the elements of the Agreement and of the activities of the Panel.
    Newsletters and other materials would be distributed to:
  --1,500 subsistence salmon fishing households
  --950 commercial salmon fishing permit holders
  --100 contacts in state and federal agencies
  --42 ANCSA village corporations
  --42 IRA/Traditional village councils
  --12 salmon processing/smoking operations
  --8 media outlets
    YRDFA would also host and organize at least three village meetings. 
Through maintaining this program the fishermen and women of the Yukon 
will be fully informed and involved in working with the Yukon River 
Panel and the various agencies in helping to implement the Yukon River 
Salmon Agreement.

Budget request cost breakdown

YRDFA staff support...........................................   $40,000
Fishermen's Meetings (travel & per diem)......................    40,000
Newsletters (production & distribution).......................    20,000
The Yukon River Drainage Fisheries Association (YRDFA)
    The Yukon River Drainage Fisheries Association was formed in 1990 
to unite lower river and upper river commercial and subsistence 
fishermen of the Yukon River and its tributaries within Alaska. As such 
it represents Yup'ik Eskimo, Athabaskan Indians and white homesteaders. 
It is governed by a 16-member Board of Directors with seats apportioned 
according to the six (6) commercial fishing management districts of the 
Yukon, the coastal villages, the Koyukuk River tributary and the Yukon 
Flats. A primary goal of the YRDFA is to seek consensus solutions to 
the various management, conservation and allocation issues on this vast 
and complex river system.
    The YRDFA hosts a 4-day Annual Meeting in a different village each 
year and publishes an occasional newsletter. The Association also 
sponsors ad hoc village meetings concerning local and subregional 
issues. It works on a regular basis with biologists of the Alaska 
Department of Fish & Game and the United States Fish & Wildlife Service 
to craft management plans that help to assure sustained yield of 
various stocks while meeting subsistence harvest needs and providing 
for commercial harvests. YRDFA then presents these consensus plans for 
formal regulatory approval by the Alaska State Board of Fisheries.
    The YRDFA is the only organization that unites all the diverse 
fishermen on the river. It knows the best ways to communicate with and 
foster the participation of these fishermen.
    Thank you for this opportunity to submit written testimony.
                                 ______
                                 
 Prepared Statement of the Confederated Tribes and Bands of the Yakama 
                                 Nation
    I am Lonnie Selam, Sr., Chairman of the Yakama Nation. I am 
submitting written testimony seeking appropriations for fiscal year 
2002 to address the following natural resource needs:
    (1) $2,314,359 for forest management activities associated with the 
epidemic level outbreak of the Western Spruce Budworm;
    (2) $675,000 for monitoring of forest practices on state and 
private lands within our ceded area for their ability to maintain, 
protect and restore the cultural resources of the Yakama Nation; and
    (3) $200,000 for fish and wildlife activities associated with our 
timber program, and fisheries management related to salmon recovery in 
the Columbia River basin.
                    spruce budworm timber management
    The Spruce Budworm is systematically killing more than 650,000 
acres of Tribal, Federal, State and private lands along the Eastern 
slopes of the Cascade Mountains in Washington State. More than 200,000 
acres of those infected lands are within the Yakama Indian Reservation. 
This request is broken down into four budworm-driven programs--Forest 
Development, Small Wood Utilization, Stand Level Data Collection, and 
Sale Development and Monitoring. The needs for fiscal year 2002 for 
these four programs total $2,314,359.
    The Yakama Reservation is located in south central Washington on 
the east slope of the Cascade Mountain range. The reservation is 
approximately 1.3 million acres, of which 613,200 acres are forested. 
Prior to 1900, the forested landscape was dominated by open, park-like 
ponderosa pine savannahs. These tribal forestry lands are managed by 
the Bureau of Indian Affairs (BIA). Past management practices such as 
fire exclusion, grazing, and early logging activity have converted the 
forest into a dense, contiguous landscape dominated by Douglas-fir and 
Grand fir. These two species are ideal hosts of the western spruce 
budworm. Due to the forest conversion, an epidemic outbreak of the 
budworm has been occurring for the past 16 years and has been largely 
ignored by the BIA. More recently, the land managers have begun to 
address the problem through several Bt biological control agent spray 
projects jointly funded and implemented by the Yakama Nation and Bureau 
of Indian Affairs. They have been conducted to lessen the impacts 
caused by budworm defoliation. In addition to spraying, there has been 
an increase in harvest activity, precommercial thinning, replanting of 
budworm non-host species, mechanical site preparation, and prescribed 
burns to assist in the suppression of the budworm epidemic.
    The severity of the budworm outbreak has unleashed the potential 
for both economic and natural habitat disasters. Economic loss can 
range from product value loss to ecosystem loss due to catastrophic 
fire, both of which directly impact the vital habitat of endangered 
species. The budworm has been negatively impacting the Yakama Nation 
forest since 1985. Acres defoliated have significantly increased from 
1985 with 5,624 acres defoliated to 214,772 acres in 2000.
    The budworm has substantially increased over many not previously 
defoliated areas. It has moved north and west into many reserved 
management areas. Currently, these areas are highly sensitive, and 
provide many values to the Yakama people. Because of the severity of 
the outbreak, many of these areas are at risk to other insect outbreaks 
(bark beetles), large-scale mortality, and catastrophic fire events. As 
a result of the scale, it is impossible to treat these acres in a 
timely manner at the current capacity. At risk is a value of $128 
million dollars to timber resources. Not only is timber resource at 
risk, but other resources and values are threatened.
Activities to be Funded by Appropriations
    1. Forest Development $1,500,000.--Forest development can be 
defined as activities performed within the forest designed to improve 
forest health while enhancing the productivity of the forest. Forest 
development projects consist of silvicultural treatments designed to 
establish, promote, enhance and maintain timber stand growth and health 
in order to produce perpetual yields of desired forest products. Forest 
development projects include precommercial thinning, planting, and site 
preparation projects including mechanical site preparation and 
prescribed burning. Forest development projects are critical elements 
in maintaining a sustainable forest resource. The expense of these 
projects can be viewed as a financial investment to ensure for a viable 
commercial timber base.
    Forest development activities will bring the spruce budworm 
impacted lands back into the desired state. The forest development 
needs on the Yakama Reservation in response to the budworm have been 
identified as 134,675 acres. Treatment of these areas will occur over a 
10-year time frame resulting in the treatment of 13,470 acres annually. 
Current funding levels are annually approximately $1.5 million short of 
the need.
    Forest development projects are currently accomplished by a 
combination of direct hiring of personnel and contractors, all of which 
are enrolled Yakama Tribal members or descendants. The continued 
funding of forest development projects would result in the direct 
employment of approximately 100 tribal members.
    2. Small Wood Utilization $67,979.--Thinning overstocked stands can 
greatly aid in reducing susceptibility to spruce budworm as well as 
reducing the risk for catastrophic fires. Small wood utilization will 
address the problem common to most of the budworm areas, that of 
overstocking of small diameter trees. This will require assessment of 
market opportunities for this resource and the development of projects 
to utilize the small diameter trees.
    3. Stand Level Data Collection $474,380.--Data collection is 
critical to the development of short and long term plans for the 
management of the timber resource. The objective of the data collection 
will be to create a stand level database to drive middle and long-term 
decisions and delineate timber stands on the Yakama reservation. We 
wish to collect data on 8 plots per stand on 30 percent of the area of 
the managed forest (380,000 acres) over the course of 5 years.
    4. Sale Development and Monitoring $272,000.--The current timber 
sale staff and resource specialists are inadequate to address the 
extent of the budworm infestation. In order to increase management of 
the timber resource, professional staff will be needed to include 
additional silviculturalists and resource specialists.

                   TIMBER, FISH AND WILDLIFE PROGRAM
    The Yakama Indian Nation's TFW area of responsibility includes the 
forested land base along the entire east slopes of the Cascade Mountain 
Range and much of the Columbia River Gorge. This area extends from the 
Canadian border down to the Oregon border and includes 12 major 
watersheds to the Columbia River. Within this large landscape, the 
Yakama Nation's TFW Program is responsible for review, monitoring and 
compliance of forest practices on State and private lands as its base 
function. Forest practices are evaluated for their ability to maintain, 
protect and restore the cultural resources of the Yakama Nation 
including fish, water quality, wildlife, food and medicine plants, and 
other cultural and archaeological areas. This base programmatic 
function requires a minimum of $375,000 to continue at the current 
level of involvement. Along with the continuing year-to-year function, 
special projects have been undertaken by the Program to provide the 
Yakama Nation with improved management tools for assessment of forest 
practices. During the upcoming fiscal year, these projects will require 
additional funding of $300,000. These projects include:
  --Fisheries baseline data collection for habitat and water quality 
        conditions will be continued and expanded for spawning gravel 
        conditions, habitat assessment, forest stand conditions, stream 
        temperatures and factors affecting them, and fish distribution 
        (began in 1985 to present). Development, evaluation and 
        improvement of models to predict these conditions.
  --Watershed Analysis participation and involvement (1992 to present, 
        and consistent with Washington State Forest Practices Act). 
        Improvement of Watershed Analysis for aquatic resources and 
        development of new modules for other cultural resources 
        (wildlife, archaeology, others).
  --Evaluation of the Forests and Fish Report (2000 to present) to 
        protect and maintain water quality, fish, wildlife and other 
        cultural resources important to the Yakama Nation. 
        Participation on TFW Committees involved with this process.
  --Cultural and Archaeological site data recording and modeling (1992 
        to present, and consistent with implementation of the 
        Washington State Forest Practices Act). Further development and 
        evaluation of predictive models to improve early identification 
        of archaeological and other cultural sites.
  --Wildlife Habitat Assessment continued development (1993 to present, 
        and consistent with improving the Landscape Approach designated 
        by the State Legislature).
    In summary, the base program for the Yakama Nation will require a 
minimum of $375,000 to continue at its current level of involvement. 
Special projects will require an additional $300,000 for this coming 
fiscal year. Total funding needs for the TFW Program are $675,000 for 
fiscal year 2002.

                       FISH AND WILDLIFE PROGRAM
    The Yakama Nation is requesting an additional $200,000 for fiscal 
year 2002 for: (1) implementation of actions to outplant salmon into 
rivers in the mid-Columbia, and; (2) the collection of fisheries and 
wildlife data essential for ongoing logging activities on the Yakama 
Reservation. We request that the $200,000 be added to our base of 
$575,000 and be placed in the ``other recurring programs wildlife and 
parks'' portion of the BIA fiscal year 2002 budget.
    Fish and Wildlife resources continue to be a vital necessity in the 
maintenance of the cultural and traditional values of the Yakama 
People. However, these resources are diminishing at an alarming rate. 
The salmon runs, which once numbered 12-15 million per year now total 
less than 1 million fish. This critical juncture in the protection of 
these fishery resources has forced the Yakama Nation into a very pro-
active role with our other co-managers: the State of Washington, the 
National Marine Fisheries Service, and the United States Fish and 
Wildlife Service. The Yakama Nation's involvement with these entities 
includes the management of over 1,500 miles of river habitat throughout 
eastern Washington and the Yakama Reservation. (1.3 million acres).
    The Yakama Nation's role as a co-manager has increased 
substantially as federal and state agencies have focused on ESA listed 
salmon and steelhead stocks. The recent Biological Opinion (BO) on 
hydro operations has reaffirmed the need for clean productive habitat 
in our rivers. In addition, the BO supports the use of hatcheries for 
outplanting salmon and steelhead stocks into the natural habitat.
    Both of these actions, protecting fisheries habitat and developing 
strategies to outplant hatchery stocks, require the development of 
subbasin plans in the ten tributaries to the Columbia which we have co-
management responsibilities. The Yakama Nation will play a major role 
in the writing of subbasin plans as well as their implementation. We 
have collected salmonid life history information in each of the ten 
subbasins and have worked closely with local land managers to protect 
key fish habitat. Subbasin planning will build on the knowledge we 
currently possess of these watersheds and will take several years to 
complete under guidance and funding of the Northwest Power Planning 
Council. Plans will include development of goals and objectives that 
direct future fisheries restoration programs including habitat 
protecting actions and hatchery outplanting projects.
    However, several actions will be needed concurrently with planning 
efforts to utilize spring chinook and coho that return prior to 
completion of the plans. For instance, in the year 2002, acclimation 
sites need to be developed to utilize spring chinook that are in excess 
of hatchery needs in the Methow River Basin. Without new funding, state 
and federal hatchery managers will kill (``club'') adult spring chinook 
and waste a valuable resource that could be used to rebuild adult 
returns to the habitat. We are requesting an additional $100,000 of 
Bureau of Indian Affairs 638 funds for this task in fiscal year 2002.
    Tribal fish and wildlife personnel also conduct essential resource 
activities on the Yakama Reservation. By ensuring compliance with NEPA 
and ESA, tribal fish and wildlife programs play a key role in keeping 
the BIA's timber sale program running. In 1999, the annual Spotted Owl 
Inventory and Monitoring Grant combined with Forest Management 
Deduction funds allotted to the Wildlife Program helped enable the 
harvest of 225 million board feet of timber. Additional funds allowed 
us to conduct some monitoring of impacts of timber harvesting on big 
game populations.
    However, the Forest Management Deduction funds are derived from 
timber sale profits, and extremely low market prices have slashed the 
Wildlife Program share to $67,000 in fiscal year 2001 (with further 
cuts possible by the end of fiscal year 2001). The timber sale schedule 
has accelerated to deal with ongoing spruce budworm outbreak, and at 
least two biologists are needed to get these sales through the NEPA 
process. The current funds are not sufficient to support one biologist, 
when office and fieldwork costs are factored. Also, the purchasing 
power of the big game funds has decreased substantially since 
originally allocated in 1988. In order to continue reviewing and 
approving timber sales and monitoring their impacts on the Yakama 
Nation's treaty-protected resources, we are requesting an additional 
$100,000 of BIA 638 funds for this task in fiscal year 2002.
    I appreciate the opportunity to present our needs to you, Mr. 
Chairman, and the Yakama Nation hopefully awaits the work of your 
Subcommittee.
                                 ______
                                 
                 Prepared Statement of the Sierra Club
    The Sierra Club greatly appreciates the opportunity to submit this 
testimony as part of the official record regarding the Interior 
Appropriations bill for fiscal year 2002. The Sierra Club is the 
country's oldest and largest grassroots environmental organization, 
representing more than 600,000 members in more than 65 chapters and 450 
groups across the nation. Protecting our nation's public lands and 
wildlife has long been one of Sierra Club's top priorities.
    We strongly urge you to reject the cuts to Interior Department 
funding recommended in President Bush's budget proposal, and provide 
increased funding for Interior Department programs aimed at protecting 
America's valuable and threatened lands and wildlife. In addition, we 
urge you to keep the bill clean of any anti-environmental riders.

         FULLY FUND THE LWCF AND THE NEW LAND CONSERVATION FUND
    The Land and Water Conservation Fund.--Last year, support for the 
Land and Water Conservation Fund reached unprecedented levels, as 
evidenced by the overwhelming support in Congress for CARA, a bill to 
provide full and permanent funding for LWCF and other crucial 
conservation programs. Obtaining full funding for the LWCF is a top 
priority for the Sierra Club, and we urge the Committee to provide $900 
million for the LWCF in fiscal year 2002.
    Moreover, it is crucial that an appropriation for the LWCF maintain 
the $450 million made available in fiscal year 2001 for the federal 
portion of that program. Despite severe shortfalls in LWCF funding over 
the years, federal land management agencies have made great strides in 
protecting our natural treasures through the use of LWCF money. But 
significantly more funding is needed to meet increasing federal land 
acquisition needs.
    Despite a campaign pledge by President Bush to fully fund the LWCF, 
the Administration's budget request calls for only $390 million for 
traditional federal LWCF activities--$60 million below last year's 
enacted level, and significantly less than is needed to meet the 
federal land acquisition backlog. Under the President's request, the 
rest of the $900 million would go to the states for an array of uses, 
with little federal oversight as to how the money will be spent. In 
addition, to make up the total for an ``increase'' in state-side LWCF, 
the Administration would divert funding from a number of other popular 
programs included in the new conservation funding budget category 
created in last year's Interior Appropriations bill.
    We urge you to provide $900 million for the LWCF, including $450 
million for traditional federal agency activities. In addition, please 
see the attached list of specific federal LWCF projects for which the 
Sierra Club supports funding.
    The Conservation Budget Category.--Last year, a bipartisan 
agreement to provide $12 billion in dedicated funding over six years 
for a host of land and wildlife protection programs was represented in 
the Interior Appropriations bill for fiscal year 2001. The 
Administration's fiscal year 2002 budget request would fail to deliver 
on this historic agreement, shortchanging the new ``Land Conservation, 
Preservation and Infrastructure Improvement Program'' (LCPIIP) for this 
year by $250 million. In addition, the President's proposal would steal 
funding from popular--but historically underfunded--programs that 
provide money to states for wildlife habitat protection, endangered 
species protection, and wetlands restoration, and instead gives states 
``flexibility'' to use state LWCF money for these uses only if they so 
choose.
    We urge the Committee to fully fund the Land Conservation, 
Preservation and Infrastructure Improvement Fund, and to maintain at 
least the baseline funding for each of the programs within the Fund as 
established in last year's budget deal.

                      PROTECTING OUR PUBLIC LANDS
    Overall, the Interior Department budget request would dramatically 
increase funding for energy and mineral development on our public lands 
and in the federal outer continental shelf, as well as for other 
resource extraction activities, while slashing funding for important 
conservation programs.
    Bureau of Land Management.--While the Interior Department budget 
request for the BLM includes a $7 million increase over the fiscal year 
2001 level for land use planning, we are concerned about the 
Administration's emphasis on land use plans related to energy and 
mineral development. Moreover, the Administration's request would 
increase the budget for energy and minerals exploration by $15 million, 
while making a corresponding cut to programs needed to protect 
threatened and sensitive public lands.
    In addition, the Administration's budget request would provide $5 
million for ``planning and associated environmental studies'' in the 
Arctic National Wildlife Refuge in order to meet a lease sale goal of 
2004. This despite the fact that both the House and Senate rejected 
Administration recommendations for assuming revenues from drilling in 
the Arctic Refuge. Approval from Congress is needed before any oil or 
gas development can go forward. Given the opposition in Congress to 
drilling in the Refuge, dedicating money to this purpose, when it could 
otherwise be used to protect America's valuable wildlands, is 
impractical and irresponsible.
    We urge the Committee to reduce funding for energy and minerals 
development, including rejecting the $5 million requested by the 
Administration for energy exploration in the Arctic Refuge, and provide 
adequate funding to programs within the Bureau of Land Management to 
protect land and wildlife.
     Forest Service.--Forest Service managed lands serve as the 
headwaters for many major river systems and aquifers that are essential 
for the nation's water supply, and contain valuable riparian, wetland, 
and coastal areas. Funding for the management of the National Forests 
in the Administration's budget proposal requests $261 million for the 
commodity and salvage timber programs. These programs consistently 
result in money losing timber sales that damage valuable forest 
resources such as clean water, recreation and fish and wildlife 
habitat. Sierra Club urges the Committee to instead invest this funding 
into a comprehensive forest restoration program intended to 
decommission eroding and unneeded logging roads, restore fisheries and 
wildlife habitat and provide restoration jobs and economic benefits for 
communities.
    Forest roads can have serious adverse impacts on watersheds, 
especially if poorly maintained. Few marks on the land are more lasting 
than roads. The Roadless Area Conservation Rule was developed after the 
completion of a three-year process which included substantial 
scientific study and the largest public comment process in the history 
of the federal government. The Forest Service conducted 600 public 
hearings around the nation and collected over 1.6 million comments. Of 
these comments, approximately 95 percent were in favor of complete and 
permanent protection for the last remaining roadless areas on the 
National Forests. Sierra Club urges the Committee to recognize the 
overwhelming public interest and support for protection of roadless 
areas and to avoid funding any new permanent or temporary road 
construction in roadless areas. Further, the Committee should ensure 
implementation of the Roadless Area Conservation Rule and the Road 
Management Rule by providing all necessary funds required for these 
programs.
    Recreation Fee Demonstration Program.--We urge you to oppose the 
Recreation Fee Demonstration Program, which allows land management 
agencies to charge new fees for access to our public lands. It does not 
make economic or environmental sense to charge fees for low-impact 
recreational activities while subsidizing extractive industries like 
mining and logging. The American people already own these lands, and 
should have free and open access to them. We ask for your assistance in 
ending this socially and environmentally unsound program.

                       ENDANGERED SPECIES FUNDING
    The Fish and Wildlife Service Endangered Species program has been 
chronically and significantly underfunded. As a result, the FWS 
currently has no funding to list threatened and endangered species 
except for those under court order. Now, the more than 300 species that 
are candidates or proposed for protection under the ESA face the 
continued threat of extinction.
    Despite the fact that Interior Secretary Gale Norton pledged in 
nomination hearings to enforce the ESA, the Administration's budget 
request for the FWS would severely cut ESA programs, in the FWS, and 
other federal land management agencies. The overall level for 
endangered species work in the Interior Department would represent a 25 
percent reduction from fiscal year 2001. The nearly $6 million cut in 
the FWS recovery program means that even species that are listed could 
face increasing threats, if not extinction. While the $2 million 
increase in the FWS listing program is welcome, it is not nearly enough 
to address the substantial backlog.
    We strongly urge the committee to significantly increase funding 
for the FWS endangered species program, and to reject cuts recommended 
in the Administration's budget proposal.
    In addition, we strongly oppose the recommendation in the Interior 
Department's budget request to essentially eliminate the effectiveness 
of citizen suits under the ESA, and to give the Secretary of Interior 
absolute discretion over whether and when a species is listed. Citizen 
petitions to list endangered species have been a critical tool in 
adding species to the endangered species list and placing them on the 
road to recovery. Courts have ordered the Interior Department to 
protect a number of endangered animals and their habitat, including the 
jaguar, the coho salmon in the Pacific Northwest, and the California 
red-legged frog, which gained fame in Mark Twain's ``The Celebrated 
Jumping Frog of Calaveras County.'' The recommended rider to the 
Interior Appropriations bill could gut the ESA, and is completely 
inconsistent with Secretary Norton's promise to enforce the ESA.

 SIERRA CLUB FISCAL YEAR 2002 LAND AND WATER CONSERVATION FUND PRIORITY
                                PROJECTS
------------------------------------------------------------------------
                                           Need for 2002  Admin. request
------------------------------------------------------------------------
National Park Service:
    Big Thicket National Preserve (TX)..     $20,000,000  ..............
    Kahuku Ranch--Hawaii Volcanoes            40,000,000      $4,000,000
     National Park (HI).................
Bureau of Land Management:
    Lewis and Clark National Historic          2,100,000       1,000,000
     Trail (ID).........................
    Lower Salmon River Area of Critical        3,000,000       2,000,000
     Environmental Concern (ID).........
    South Fork Eel River (CA)...........       1,500,000  ..............
Fish and Wildlife Service:
    Grand Kankakee Marsh National             30,000,000  ..............
     Wildlife Refuge (IN/IL)............
    James Campbell National Wildife           40,000,000  ..............
     Refuge (HI)........................
    Little Darby River--National               5,000,000  ..............
     Wildlife Refuge proposed (OH)......
    Okefenokee National Wildlife Refuge.      75,000,000  ..............
    Ozark Plateau National Wildlife              520,000  ..............
     Refuge (OK)........................
    San Bernard National Wildlife Refuge       2,000,000       1,000,000
     (Columbia Bottomlands) (TX)........
    Trinity River National Wildlife            2,000,000  ..............
     Refuge (TX)........................
Forest Service:
    Admiralty Island/Favorite Bay--              925,000         925,000
     Tongass National Forest (AK).......
    Sequoia National Monument (CA)......       5,000,000  ..............
    Carbon River--Mt Baker-Snoqualmie          5,000,000  ..............
     and Wenatchee National Forests (WA)
    Coleman Rim--Fremont National Forest         750,000  ..............
     (OR)...............................
    Columbia River Gorge National Scenic       6,120,000       6,000,000
     Area (OR/WA).......................
    Condrey Mountain--Rogue River              3,000,000  ..............
     National Forest (OR/CA)............
    I-90 Option Lands (WA)..............      16,760,000       2,000,000
    Klamath National Forest (CA)........       6,000,000  ..............
    North Fork American Wild River (CA).       1,700,000       1,700,000
    Pinhook Swamp--Osceola National            4,500,000       4,500,000
     Forest (FL)........................
    Sam Houston National Forest (TX)....       2,300,000  ..............
    Sawmill Creek--Mt Baker-Snoqualmie         4,000,000  ..............
     and Wenatchee National Forests (WA)
    Sawtooth National Recreation Area          5,000,000       5,000,000
     (ID)...............................
    Squirrel Meadows--Targhee National         3,600,000  ..............
     Forest.............................
    Tieton River--Mt Baker-Snoqualmie          7,000,000  ..............
     and Wenatchee National Forests (WA)
------------------------------------------------------------------------

                                 ______
                                 
             Prepared Statement of the Lummi Indian Nation
    My name is William E. Jones, Sr., Chairman of the Lummi Indian 
Nation. The Lummi Indian Nation, located on the northern coastline of 
Washington State, is the third largest tribe in Washington State 
serving a population of over 5,200. On behalf of the Lummi Indian 
Nation I want to thank you and the members of the Committee for the 
opportunity to express our concerns and requests regarding the fiscal 
year 2002 BIA, IHS, and Natural Resources appropriations.
    Tribal Specific 2002 Appropriation Priorities:
    1. +$3,500,000 Semiahmoo Reinterment and Recovery Effort.--Provide 
the Lummi Nation with funding to ensure the sensitive recovery, 
handling, and preservation of ancestral human remains disturbed by 
contractors for the City of Blaine at a known traditional tribal 
cemetery site,--entitled--Si'ke;
    2. +$750,000 Water & Sewer Infrastructure Planning.--Provide the 
IHS Sanitation Facilities Construction Program with funds to support 
planning for a tribal water and sewage system infrastructure 
development project;
    3. +$1,300,000 Water Negotiations.--Provide the Tribal Government 
Services and Water Resources Account with funds to support ongoing 
water rights negotiations $300,000 for attorney fees, $400,000 for on-
Reservation technical studies, and $600,000 for Nooksack River Basin 
technical studies;
    4. +$700,000 Increase to Lummi Nation Shellfish Hatchery 
Operation.--Provide support to the ongoing operation of the tribal 
shellfish hatchery consistent with the expansion of the Boldt decision 
to shellfish;
    5. +$740,000 Support Realty.--Provide the Lummi Nation with funding 
to ensure that the major elements such as land consolidation, land 
records management, tribal probate, and training are available to 
effectively operate and manage tribal realty resources and services;
    6. +$500 Lummi Youth Safe House.--Provide allocation through the 
IHS Facilities Construction Program to design and construct a youth 
``safe house'' for the provision of emergency ``holistic'' care, 
shelter and/or wrap-around social and health services for local youth 
living in the Lummi community;
    Regional priorities:
    7. Support all requests and recommendations of the Affiliated 
Tribes of Northwest Indians, Northwest Area Indian Health Board, and 
the Northwest Indian Fisheries Commission.
    National & self-governance priorities:
    8. Restore $256,000 and $100,000 increase to the DOI Office of 
Self-Governance for the Self-Governance Communication and Education 
Project and the Tribal Self-Governance Advisory Committee;
    9. Fully fund Contract Support Cost (CSC) at 100 percent within the 
IHS and BIA to address documented Tribal needs;
    10. +$5 million in the IHS Division of Clinical and Preventive 
Services to support a Tribal Leaders Oral Health Initiative for Native 
Americans and Alaskan Natives
    11. +$325 million to IHS mandatory, inflation and population growth 
increase needed to maintain existing health care to American Indians 
and Alaskan Natives
    12. +$25 million in BIA TPA General Increase for Inflationary 
Adjustments
    13. Support all requests and recommendations of the National 
Congress of American Indians

                       TRIBAL SPECIFIC PRIORITIES
Semiahmoo Reinterment and Recovery Project--+$3,500,000
    The Lummi Nation is requesting $3,500,000 to ensure the sensitive 
recovery and reinterment of over 100 disturbed burials that were 
removed from a traditional cemetery during the construction of a sewage 
plant in Blaine, Washington. Under an MOA between the Departments of 
Interior and Agriculture and the city of Blaine, ancestral remains were 
insensitively disturbed and eventually transported out of state. The 
expansion of the plant was financed with federal funds and permitted by 
the state-of course the disaster was not foreseen but it happened and 
the Lummi Nation needs financial assistance to implement a Semiahmoo 
Reinterment and Recovery Plan.
    The Sewage waste construction project involved the removal and 
transporting by dump trucks of soil, which possessed human remains, and 
artifacts to a site that currently comprises over 10,000 cubic meters 
of cultural deposits covering a 3.5-acre landfill. The Semiahmoo 
Reinterment and Recovery Plan is a multi-year project which will entail 
archeological excavation and sensitive techniques to map, gather, 
identify, transport, catalog and the Reinterment of ancestral remains 
and cultural artifacts.
Water & Sewer Infrastructure Planning--+$750,000
    The Lummi Reservation supports a population of nearly 5,200 
persons, which has strained water and sewer system capacities to their 
limits. Additional capacity must be obtained now to support the 
existing population. The Nation is quickly approaching a critical level 
of need under what was once determined to be the short-term band-aid 
approach. The long-term solution must include additional treatment 
capacity and water source location and development. Public Works 
infrastructure development and investments like these require 
substantial planning. The Lummi Nation is not able to undertake this 
level of planning without the assistance requested herein. Lummi Nation 
recommends the IHS Sanitation Facilities Construction Program account 
receive funds to support tribal planning of a water delivery and sewage 
treatment system infrastructure for the existing and projected 
population of the Lummi Indian Reservation.
Water Negotiations--+$1,300,000
    The Lummi Nation signed an Agreement in Principle with the Federal 
Government and the State of Washington on January 27, 1998. This 
agreement is a stepping-stone toward a final settlement of the on-
reservation water rights conflicts, which has been and still is 
attributable to the non-Indians disregard for treaty-reserved water and 
fishing rights in the Nooksack River Watershed. Many difficult issues 
remain to be resolved which will require significant technical studies 
and legal consultation before a final agreement can be signed. To 
complete this work the Lummi Nation is requesting $1.3 million during 
fiscal year 2002 to support: $300,000 for legal consultation costs, 
$400,000 for on-reservation technical studies, and $600,000 for 
technical studies in the Nooksack River Basin. The Lummi Nation 
recommends that the BIA receive funds to support the increase for the 
Water Rights Negotiation/Litigation, Attorney fees and technical 
studies.
Lummi Nation Shellfish Hatchery Operation--+$700,000
    The thirty-year old hatchery supplies oyster and clam seeds to a 
majority of the Northwest Washington Indian tribes and growers. The 
recent Supreme Court decision to uphold the shellfish ruling supports 
the need to provide both the treaty and non-treaty growers for oyster 
seed, clam seed, and enhancement projects with seedlings to aid in the 
production of this resource. These dollars benefit both the tribal 
government and Washington State. The Lummi Nation recommends that 
$350,000 be provided to support this effort through the BIA Hatchery 
Operational program.
Support Realty--+$740,000
    The Lummi Nation has a multi-year plan to address the realty 
tribulations. Its major elements include land consolidation, land 
records management, tribal probate process, and revision of realty 
procedures, backlog elimination, and training. Land consolidation 
requires untangling the heirship disarray by conducting research to 
land titles, appraisals, surveys, subdivision and other technical work. 
Land records management requires the development of a tribal land 
database with an electronic connection to the BIA databases. The tribal 
probates process is both time consuming and a contributing factor why 
land in Indian Country is so fractionated. Development of an on-site 
process using the Lummi Tribal Court would reduce the time requirements 
and make for a more effective process.
Lummi Youth Safe House--+$500,000
    Provide the Lummi Nation with a Family-Centered Youth Facility to 
provide a continuum of care to ``At-Risk'', Homeless and/or Runaway 
Adolescents. The primary components of this continuum are screening, 
intervention, substance prevention, respite, and after-care services 
consistent to youth needs. Participating youth are supported through 
center-based continuum and ``wrap around social/health services'' to 
overcome barriers to achieve their goals. Lummi youth entering and/or 
completing treatment successfully make the transition to return to 
daily life through a traditional ``holistic'' approach towards recovery 
involving family members and dependency counselors.

                 REGIONAL REQUESTS AND RECOMMENDATIONS
    The Lummi Indian Nation is a member of the regional organizations, 
which advocate on behalf of Tribes in Washington State. These consortia 
efforts include the Affiliated Tribes of Northwest Indians, the 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission. We support the collective requests of these 
organizations in the fiscal year 2002 budgets for the BIA and IHS.

           SELF-GOVERNANCE AND OTHER NATIONAL CONSIDERATIONS
    Restore $256,000 for the Self-Governance Communication and 
Education Project.--As one of the original first tier Tribes 
participating in Self-Governance, we are concerned that the 
Administration has recommended that funding for the DOI Office of Self-
Governance be decreased by $256,000. This funding cut will eliminate 
the Self-Governance Communication and Education Project, which over the 
past ten years has provided timely and invaluable information, not only 
to the more than 200 Tribes participating in self-governance, but also 
to the Administration, Congress and other entities expressing interest 
in self-governance. The Nation not only ask that you restore these 
funds, but increase the funding to cover the actual Self-Governance 
Communication and Education Project cost, for providing communication 
outreach services.
    Restore +$1 million. To support the Tribal Leaders Self-Governance 
Advisory Committee in its role to provide advice and guidance to the 
Assistant secretary for Indian Affairs on policy issues that impact the 
Self-Governance principles. This Advisory Committee provides a critical 
role in policy negotiations on a government-to-government level when 
tribes and the United States seek to enter into compacts of agreement.
    Increase BIA and IHS Contract Support Cost (CSC) Funds to address 
documented need.--CSC funds are required for Tribes to successfully 
manage their own programs. While the Administration's budget request 
for fiscal year 2002 includes a modest increase for CSC--(1) an 
additional $65 million is needed in IHS, and (2) an additional $25 
million is needed in BIA to fully fund CSC (excluding direct contract 
support costs). This shortfall continues to penalize Tribes which elect 
to operate BIA and IHS programs under the self-determination policy.
    +$5 million.--To support the Tribal Leaders Oral Health Initiative 
in the IHS Division of Clinical and Preventive Services. This 
initiative seeks to improve oral health status and increase access to 
oral health services for Indian people. Indian people experience dental 
disease at rates 2 to 10 times the national average and Tribes 
currently have great difficulty recruiting dental staff with 25 percent 
of dentist positions currently vacant. $5 million will permit the 
tribes to increase their recruitment activities, improve availability 
of community water fluoridation, and collaborate more effectively with 
the IHS and other partners to curb the epidemic of oral disease that 
confronts Indian people.
    +$325 million to IHS mandatory, inflation and population growth 
increase needed to maintain existing health care to American Indians 
and Alaskan Natives.--These costs are unavoidable and include medical 
and general inflation, as well as costs associated with newly 
constructed facilities. If unfunded, these costs increases will result 
in further health service reductions in tribal communities.
    +$25 million.--In the BIA TPA for general increases for inflation 
adjustments. This activity represents the majority of the funds used to 
support on-going services at the local Tribal level including such 
programs as housing, education, natural resource management and Tribal 
government services. This request will provide for a modest 3.5 percent 
inflation adjustment for existing Tribal programs and services.
Support all requests and recommendations of the National Congress of 
        American Indians
    This written testimony identifies the Lummi Indian Nation's funding 
priorities, as well as regional and national concerns and 
recommendations for your consideration. Further, the Lummi Indian 
Nation strongly opposes any bill, language or legislative riders that 
will undermine tribal sovereignty. The Lummi Nation desires to have 
direct consultation and formal hearings with respect to our long-
standing government-to-government relationship.
    I appreciate your consideration of the fiscal year 2002 requests 
and recommendations of appropriations for the BIA, IHS, and Natural 
Resources on behalf of the Lummi Nation. Thank you.
                                 ______
                                 
         Prepared Statement of the Port Gamble S'Klallam Tribe
    This testimony is submitted on behalf of the Port Gamble S'Klallam 
Tribe in Washington State, regarding the President's fiscal year 2002 
budget request for tribal programs in the BIA and IHS. This statement 
is presented on behalf of the elected members of the Tribal Council and 
on behalf of the Port Gamble S'Klallam people.
    Our testimony addresses five particular program areas which the 
Tribe urges that Congress fund in fiscal year 2002:
  -- Point No Point Treaty Council Wildlife Program.--Provide $300,000 
        in recurring funding to enable long-term wildlife management on 
        the Olympic Peninsula, guaranteed by the Point No Point Treaty 
        of 1855.
  -- Protection of Reservation Land and Water from Landfill 
        Contamination.--Provide $100,000 in additional resources to 
        assist the Tribe to assess the hazards to tribal members' 
        health and to evaluate the impacts on reservation groundwater 
        and soils resulting from Kitsap County's Hansville Landfill.
  -- Higher Education Assistance.--Provide an additional $125,000 in 
        basic college tuition support to partner with the Tribe to 
        assist the 24 tribal members currently enrolled in higher 
        education and the 50 who are prepared to enroll.
  -- Tribal Court Funding.--Support funding through BIA for Tribal 
        Courts, as authorized under the Indian Tribal Justice Act of 
        1993.
  -- Tribal Detention Personnel.--Support the $5 million requested 
        within BIA Law Enforcement for tribal detention personnel.

             POINT NO POINT TREATY COUNCIL WILDLIFE PROGRAM
    The work of the Point No Point Treaty Council Wildlife Program and 
its coordination with Washington State has saved the elk population of 
the eastern Olympic Mountains from the brink of extinction. The Tribes 
have put their wildlife efforts into co-management rather than costly 
litigation. This work cannot continue to be effective without a minimum 
level of base funding.
    The Wildlife Program has been funded since 1993 by a combination of 
grants. However, this source of funding has dwindled precipitously, and 
it is impossible to effectively co-manage with our partner, the State 
of Washington, without a permanent source of program funding. We 
support funding for this crucial program in the amount of $300,000.
    Subsistence hunting of wild game provides an essential food source 
for our tribal people. The Tribes are committed to responsible wildlife 
management based on biology. Our program has conducted extensive 
surveys and shared all our data with Washington State and other Olympic 
Peninsula tribes. As a result of our surveys, elk are for the first 
time being managed by both the State and Tribes from hard biological 
data.
    Elk in the east Olympics had declined to such low levels that all 
hunting had to be eliminated for several years. It was only through a 
remarkable cooperative effort between our tribal Wildlife Program and 
Washington State that we were able to rebuild the herds, through a 
combination of relocating elk, habitat enhancement and habitat 
protection. Finally in 1997 we were able to reopen a limited hunt for 
both state hunters and our people.
    The Wildlife Program, serving the four Point No Point Treaty Tribes 
(Skokomish, Lower Elwha S'Klallam, Jamestown S'Klallam and Port Gamble 
S'Klallam), has become the premiere tribal wildlife program in western 
Washington, and has been critical in achieving cooperation between our 
Tribes and the State. It has provided the needed biological data, and 
coordination and facilitation to resolve state-tribal and inter-tribal 
disputes over wildlife management on the Olympic Peninsula.

  PROTECTION OF RESERVATION LAND AND WATER FROM LANDFILL CONTAMINATION
    Kitsap County sited the 60-acre Hansville Landfill uphill from the 
Port Gamble S'Klallam Reservation in 1962. Three separate disposal 
areas were formerly operated within the Landfill property: a municipal 
solid waste disposal area, a demolition disposal which accepted 
construction, demolition, and land clearing wastes; and a septage 
lagoon which accepted residential septic tank human waste. The 
Hansville Landfill was closed in 1990.
    For nearly 40 years, virtually all of the leachate from the 
Landfill, which contains hazardous chemicals, has flowed directly into 
the Reservation groundwater and soils, potentially impacting the 
Tribe's drinking water, as well as our shellfish and the salmon reared 
in the reservation hatchery, both of which are crucial to the tribal 
diet and economy.
    In fiscal year 2001, we were fortunate to receive $94,000 from the 
BIA's Office of Trust Responsibilities to assist with our initial 
efforts to monitor the groundwater.
    In fiscal year 2002, $100,000 funding is needed to continue 
activities related to assessment and cleanup of the landfill site, 
including the following:
  --Coordination of the project between tribal staff, technical 
        consultants, analytical laboratories, and the various agencies 
        involved with the Landfill.
  --Technical review of the Remedial Investigation/Feasibility Study 
        (RI/FS) to strengthen the Tribe's ability to protect the 
        reservation land and drinking water supply. Washington State 
        Department of Ecology is directing this work which will be 
        conducted by Kitsap County.
  --Investigation of impacts to ground water, surface water, sediments, 
        wetlands, shellfish, and other tribal natural resources that 
        were not incorporated or insufficiently addressed in the RI/FS 
        for the Landfill. A report will be developed with the results 
        of sample collection, laboratory analysis of contaminants, and 
        comparison to cleanup standards.
  --Development of alternatives for remediation based on the results of 
        the above investigations.
  --Assessment of potential risks to tribal members from contaminant 
        releases associated with the landfill, in coordination with the 
        Environmental Protection Agency. EPA will assist in conducting 
        a risk assessment for the Tribe, including an evaluation of the 
        risks from arsenic exposure.
  --Preparation of an issue paper for tribal discussion to evaluate and 
        make recommendations for future monitoring and maintenance.

                      HIGHER EDUCATION ASSISTANCE
    Prior to self-governance, we are aware of only 3 Port Gamble 
S'Klallam members who graduated from college. BIA funding for higher 
education is so meager that the Tribe must rely on its own limited 
resources to fund the 24 students enrolled in college each year. The 
Tribe receives only $28,733 per year in TPA funding to provide college 
tuition assistance to its membership (less than $1,200 for each 
student). Since 1993, the Tribe has assisted 11 members to receive 
their Bachelor of Arts degrees, including two who received their 
teaching certificates and are teaching in our local school district. We 
are currently unable to fund requests by tribal members to attend 
graduate school.
    The Tribe requests an additional $125,000 in basic college tuition 
support to partner with the Tribe to assist the 24 tribal members 
currently enrolled in higher education and the 50 who are prepared to 
enroll.

                         TRIBAL COURT FUNDING.
    The Port Gamble S'Klallam Tribe operates a tribal court, which 
hears and decides cases in a full range of criminal and civil subject 
matters. Our judicial system works in concert with federal, state and 
tribal law enforcement to address the inter-jurisdictional problems 
associated with enforcement of child abuse, drug crimes, and child 
support on the Reservation. Congress funds these activities for $37,000 
per year. This level of funding for a full service court is 
unacceptable.
    We urge this Subcommittee to provide fiscal year 2002 funding 
pursuant to the Indian Tribal Justice Act of 1993 (Public Law 103-176) 
to provide a reasonable level of basic funding for tribal judicial 
systems. The Act was reauthorized by the 106th Congress through fiscal 
year 2007. No funding has ever been appropriated to provide financial 
and technical assistance for the development and enhancement of tribal 
judicial systems.
    We are pleased that the fiscal year 2002 budget request includes 
$1.5 million within the Tribal Priority Allocations account for tribal 
courts, as initial funding pursuant to the Indian Tribal Justice Act. 
We urge this Subcommittee's favorable consideration of funding to BIA 
for Tribal Courts under the Act, even if at this modest proposed level.

                       TRIBAL DETENTION PERSONNEL
    Within the BIA's Special Programs and Pooled Overhead account, the 
fiscal year 2002 budget request includes $5 million within Law 
Enforcement for the hiring of additional personnel to staff new tribal 
detention programs. The Port Gamble S'Klallam Tribe strongly supports 
this requested increase, and urges this Subcommittee's support for 
these needed dollars. We are also aware that in fiscal year 2001, 
Congress directed to Bureau of Indian Affairs to prepare an assessment 
of the need to construct a juvenile detention facility for Indian youth 
in the Pacific Northwest. We have been exploring the idea of an adult 
detention facility which would serve six area tribes, and support the 
consideration of a regional, Northwest juvenile facility.
    Our Law Enforcement personnel must make a nine-hour drive to book 
offenders into the nearest tribal juvenile detention facility, and it 
is three hours roundtrip to the nearest tribal adult detention 
facility. This severely taxes our law enforcement resources, which are 
already stretched in order to provide adequate patrol coverage to the 
reservation.
    Thank you for this opportunity to submit this testimony on fiscal 
year 2002 funding for tribal programs in the BIA and IHS. We appreciate 
this Subcommittee's consideration of these requests of the Port Gamble 
S'Klallam Tribe.
                                 ______
                                 
       Prepared Statement of the Hoopa Valley Tribe of California
    On behalf of the Hoopa Valley Tribe of California, I appreciate the 
opportunity to present testimony regarding the fiscal year 2002 budgets 
for the Bureau of Indian Affairs, Indian Health Service and the U.S. 
Fish and Wildlife Service. A summary of my testimony is as follows:
    Tribal specific priorities:
    1. Provide an additional $1,328,000 in the BIA Forestry budget for 
the Tribe.
    2. Provide an additional $487,000 in the Tribe's BIA Road 
Maintenance budget.
    3. Provide an additional $120,000 in the BIA Real Estate Services 
for Tribal activities.
    4. Provide an additional $150,000 in the BIA Environmental Services 
budget for the Tribe.
    5. Provide $35,000 in the BIA Aid To Tribal Government budget for 
Tribal Radio Station.
    6. Provide $400,000 in the BIA Endangered Species budget for 
implementation purposes.
    7. Provide $4.5 million in the USFWS budget for Klamath and Trinity 
River activities.
    Self-governance and national priorities:
    1. Restore $256,000 and request for a $100,000 increase to the DOI 
Office of Self-Governance for the Self-Governance Communication and 
Education Project and the Tribal Self-Governance Advisory Committee;
    2. Provide increase for BIA and IHS to fully fund Contract Support 
Cost (CSC) to address documented Tribal needs;
    3. Provide a minimum of $25,000,000 in BIA Tribal Priority 
Allocation (TPA) General Increase for inflationary adjustment;
    4. Provide $325,000,000 increase for IHS unfunded mandatory, 
medical inflation, pay costs and population growth needed to maintain 
existing health care services;
    5. +$5 million in the IHS Division of Clinical and Preventive 
Services to support Oral Health Initiative; and,
    6. Support all requests and recommendations of the National 
Congress of American Indians.
Tribal specific priorities: BIA Forestry budget request--$1,328,000
    As a demonstration of the Tribe's belief that prudent sustainable 
forest management goes hand and hand with timber production, beginning 
in 1994, we developed a forest management plan that has since been 
certified by SmartWood, a third party certification organization that 
is dedicated to managing the forest for sustainability. Today, we are 
the only landowner in the nation that manages a large tract of old-
growth forest that is certified by SmartWood. Additionally, we are the 
only Tribe in the United States to have an approved programmatic 
consultation in place with the U.S. Fish and Wildlife Service for 
endangered species act (ESA) compliance with Section 7 consultations. A 
major part of our effort has been to rehabilitate the damaged portions 
of our forests that were previously managed by the BIA, such as fixing 
poorly constructed and failing roads, properly stocking large clearcut 
plantations, and repairing degraded fisheries habitat.
    A BIA report completed a few years ago identified the Hoopa BIA 
forestry budget as the lowest funded in the nation. Since assuming this 
program in 1990, we have identified a need for funding increases in the 
following BIA programs at Hoopa:
  --$319,000 annually for forest development work--a 36 percent 
        increase over the present to improve degraded conifer 
        plantations.
  --$228,000 annually for forest program management--a 41 percent 
        increase over the present.
  --$194,000 annually for forest inventories and plans--not currently 
        funded to pay for federal mandates such as NEPA compliance.
  --$125,000 annually for research analysis of the forest management 
        plan on the effectiveness implementation monitoring.
  --$556,000 for ESA compliance, and Recovery and Prevention for 
        Terrestrial Species--a 37 percent increase over the present.
  --$125,000 annually for vegetation treatment for fire prevention and 
        habitat maintenance on lower elevation forests.
  --$65,000 appropriation for control of Bears that are destroying 
        conifer plantations, which the Tribe has invested large amounts 
        of money into improving forest health and wildlife habitat.
    The Indian Forest Management Assessment Team (IFMAT) report, 
developed in 1994 by a third party assessment team of professionals, 
also substantiates many of the above requests for the BIA's programs. 
We request that $1,328,000 be provided in the BIA Forestry Budget.
Tribal Roads Maintenance program--$487,000
    The Hoopa Valley Tribe contracted for the Bureau of Indian Affairs' 
Road Maintenance program in 1990. Under the Self-Governance program the 
Hoopa Valley Tribal Roads Department is responsible for BIA road 
maintenance on approximately 108 miles of former Bureau system roads. 
Additionally, the Tribe maintains approximately 356 miles of Tribal 
roads within the Hoopa Reservation.
    The Roads Program currently receives approximately 30 percent of 
the identified need. Based on the past expenditures, it is estimated 
that approximately $600,000.00 is currently needed annually to meet the 
BIA requirements for maintenance needs on BIA roads within the Hoopa 
Reservation. Since assuming the maintenance program in 1990, the Hoopa 
Tribe has supplemented the BIA's Roads program by adding approximately 
$1.5 million dollars of our own Tribal funds to carry our these 
responsibilities.
    Since 1994, the Tribe has been successful in receiving road 
construction and/or reconstruction dollars through the Department of 
Transportation, Federal Highway Department (ISTEA). Although the road 
construction/reconstruction dollars provide much needed improvement to 
the Hoopa Reservation, it also acts as a double-bladed sword since, due 
to the lack of both maintenance dollars and pavement maintenance 
equipment, these newly constructed roads are destined to deteriorate as 
well.
    Since the Tribe assumed the road maintenance program, there are two 
major concerns affecting this program; namely, lack of adequate funding 
to support even minimal maintenance requirements and the total lack of 
funding to acquire and provide upkeep on road maintenance equipment. 
The current BIA funding level allows maintenance on only 25 miles, 
which we have dedicate to maintaining school bus routes. It has become 
quite evident that many miles of Bureau system roads will need to be 
reconstructed at a higher cost in the future due to the fact that they 
are not presently being properly maintained.
    The need for road maintenance equipment cannot be overemphasized. 
To consistently and safely maintain Bureau system roads, road 
maintenance type equipment is critically needed. The Tribe is using 
their equipment where appropriate, but still fails to meet today's 
demands. The Hoopa Tribe has supported this program both with funding 
and equipment which severely limits the Tribe's ability to utilize 
their own equipment for other Tribal needs or opportunities. Also, 
major capitalization of equipment needs to be addressed as older BIA 
equipment becomes unserviceable and needs to be replaced. The last 
equipment acquisition by the BIA was in 1977, and this was limited to 
three pieces. Therefore, we are requesting that $487,000 be added to 
the BIA Road Maintenance Program budget for the Tribe to help fulfill 
this federal obligation.
Real estate services--$120,000
    The BIA's budget for handling trust land transactions in the 
Sacramento Area Office is woefully under the needed funding levels. The 
processing of land leases, fee-to-trust conveyances and other key 
realty functions is handled statewide by two realty officers in the 
Area Office. As a consequence, the Area Office has a backlog in nearly 
every realty category for which the BIA is responsible. For example, 
there are presently backlogs of over 500 probates, approximately 200 
fee-to-trust transactions, and virtually no lease compliance activities 
being carried out at all. We requests that the Subcommittee provide 
$120,000 in the BIA Real Estate Services budget for the Tribe's program 
and that a general increase be provided to the BIA Real Estate Services 
budget.
Environmental services--$150,000
    The BIA's national budget in fiscal year 1998 was $11 million 
dollars for Environmental Services. This level of funding is extremely 
inadequate given the number of BIA contaminated sites nation-wide. For 
example, in Navajo alone over 400 landfills require closure under the 
Indian Lands Open Dump Cleanup Act. The Bureau is responsible for over 
sixty-six Resource Conservation and Recovery Act (RCRA) facilities in 
California. These facilities range from underground storage tanks to 
storage facilities that contained pesticides and other RCRA regulated 
facilities. Nation-wide, the BIA has environmental cleanup liability 
that would cost over $100,000,000 ranging from lead abatement in 
buildings to sites listed under Superfund. We request that the 
Subcommittee provide an additional $150,000 for the Tribe's 
Environmental Services program to help address these problems on our 
Reservation.
Aid to tribal government--$35,000
    Hoopa Tribal Radio, KIDE-FM is the only FCC licensed community 
radio station in California. We operate at 195 watts of effective 
radiate power. Our signal strength is limited because of the 
surrounding mountains. Our broadcast tower, located on the valley floor 
is 1,550 below the height of the average terrain. If we relocated the 
tower to a nearby mountain we could boost our power output, expand our 
broadcast coverage range and provide the Eastern Humboldt County a 
broadcast tower location suitable for cellular telephone and other 
emergency broadcast relay services. The cost of relocating the tower 
and purchasing the additional broadcast equipment is $35,000.
BIA Endangered Species Act activities--$400,000
    The Hoopa Valley Tribe is requesting an increase of its base for 
the Fisheries and Water Management Program to meet two contemporary 
challenges to the protection of Tribal Trust resources. First, On the 
Trinity River, the Tribe concurred and was signatory to the Secretary's 
Record of Decision (Public Law 102-575, Section 3406(b)(23)). The ROD 
has been challenged in federal court; Westlands v. U.S. Department of 
the Interior et al. The Tribe has intervened in the case and is 
supporting the government's case in the matter. It is expected that the 
case will result in a substantial cost to the Tribe. Additionally, 
regulatory burdens with regard to Endangered Species Act have increased 
in recent years due to listing of coho salmon in Klamath Basin (May 
1997 listing of SONCC ESU), which has resulted in increased activity by 
the Fishery Program to meet legal requirements. Therefore, the Tribe is 
requesting $400,000 for fiscal year 2002.
U.S. Fish and Wildlife Service--Klamath and Trinity Rivers--$4.5 
        MILLION
    The Hoopa Valley Tribe supports the Agency's request for full 
funding for completion of the Klamath River Flow Evaluation. This five-
year evaluation is fundamental to balancing competing demands for water 
within the Klamath River of southern Oregon and northern California. 
This study is expected to cost $22M over five years.
    The 2001 water year has been declared the driest year on record in 
the Klamath Basin. For this year, the interim water operations plan 
being implemented by DOI has prioritized protection for two federal ESA 
listed species in the Basin; coho salmon and endemic sucker fish. In 
nearly every year, these listed species have been compromised, 
primarily because there has not been consistent operating plan for 
Klamath Project. Completion of this flow evaluation will provide the 
necessary scientific guidance for the development of a long-range water 
operations plan.
    On the Trinity River, the Tribe concurred and was signatory to the 
Secretary's Record of Decision (Public Law 102-575, Section 
3406(b)(23)). The ROD incorporates flow and active main-stem channel 
restoration administered by an Adaptive Management Program. These 
requested funds are necessary to supplement additional appropriation 
requests within the Energy and Water Appropriations Bill. Several 
activities must be completed in 2002, the second year of ROD 
implementation. These activities include fisheries and habitat 
monitoring and mainstream restoration targeting completion of 50 
percent of the site work identified in the ROD.
    We request that $6.5 million be provided in the USFWS budget for 
the Klamath and Trinity Rivers.
    In closing, I appreciate the opportunity to provide this written 
statement on behalf of my Tribe. Please contact me at 530-625-4211, if 
you have questions. Thank You.
                                 ______
                                 
    Prepared Statement of Partnership for the National Trails System
    Chairman Burns and members of the subcommittee: The Partnership for 
the National Trails System appreciates your support over the past 
several years, through operations funding and earmarked Challenge Cost 
Share funds, for the national scenic and historic trails administered 
by the National Park Service. We are very thankful for the $975,000 
increase in funding you provided for nine of these trails in fiscal 
year 2001. We also appreciate your increased allocation of funds to 
support the trails administered and managed by the Forest Service. To 
continue the progress that you have fostered, the Partnership requests 
that you provide annual operations funding for each of the 22 national 
scenic and historic trails for fiscal year 2002 through these 
appropriations:
  --National Park Service.--$8.373 million for the administration of 17 
        trails and for coordination of the long-distance trails program 
        by the Washington Park Service office.
  --USDA Forest Service.--$2.875 million to administer four trails and 
        $650,000 for portions of 13 trails managed through agreements 
        with the Park Service and Bureau of Land Management; $1.5 
        million for Continental Divide Trail construction and $500,000 
        for Florida Trail construction.
  --Bureau of Land Management.--$270,000 to administer the Iditarod 
        National Historic Trail, $600,000 to administer the new Camino 
        Real de Tierra Adentro National Historic Trail, and $4.79 
        million for the portions of 9 trails managed through agreements 
        with the Park Service and Forest Service; $385,000 for the 
        Iditarod Trail interpretive center feasibility study.
  --We ask that you appropriate $5 million for the National Park 
        Service Challenge Cost Share Program and continue to earmark $3 
        million for Lewis & Clark Bicentennial projects and one-third 
        of the remaining $2 million (approximately $650,000) for the 
        other 16 national scenic and historic trails it administers.
  --We ask that you appropriate $2 million to the National Park Service 
        National Center for Recreation and Conservation to support an 
        interagency pilot project to develop a consistent system-wide 
        Geographic Information System (GIS) for the National Trails 
        System.
  --We ask that you appropriate from the Land and Water Conservation 
        Fund $5 million for acquisition of lands by the United States 
        Forest Service to protect the scenic quality and continuity of 
        the Pacific Crest National Scenic Trail, $4 million for 
        acquisition of land for the Florida National Scenic Trail, $4 
        million for acquisition of land for the Appalachian National 
        Scenic Trail in Tennessee, $1 million for acquisition of lands 
        by the Bureau of Land Management to protect the scenic quality 
        of the Pacific Crest National Scenic Trail, and to the National 
        Park Service, $2.5 million to acquire land for the authorized 
        interpretive site for the Ice Age National Scenic Trail and 
        $1.5 million to acquire land in Utah for the California and 
        Pony Express Trails.
  --We ask that you appropriate from the Land and Water Conservation 
        Fund $4.5 million to the State of Wisconsin to match state 
        funds for acquisition of land for the Ice Age National Scenic 
        Trail.
    The $2 million we request will fund the first year of a 5 year 
interagency effort to develop a consistent GIS for all 22 national 
scenic and historic trails. This pilot project will build upon work 
already underway on the Ice Age, Appalachian, Florida, Oregon, 
California, Mormon Pioneer and Pony Express Trails to develop 
consistent information and procedures that can be applied across the 
National Trails System. The consistency of the system will allow trail 
managers and users to share reliable information across the country.
    Of the $8.373 million we request for the National Park Service, 
$2.097 million will continue the progress and new initiatives made 
possible by the $975,000 funding increase provided for nine of the 
trails in fiscal year 2001. $125,000 of our requested increase will 
finally provide significant operational support for the Natchez Trace 
Trail, which currently receives only $26,000 in annual operations 
funding. Another $250,000 will enable the Park Service to begin 
managing the two new national historic trails--Ala Kahakai and El 
Camino Real de Tierra Adentro--authorized by the 106th Congress, the 
latter administered jointly with the Bureau of Land Management. These 
funds will provide full-time management and support projects for each 
of these trails.
    The additional funds provided in fiscal year 2001 will enable the 
Park Service to provide a full-time administrator for the Overmountain 
Victory Trail and the Overmountain Victory Trail Association to begin 
the first comprehensive survey of historically significant sites along 
the trail and plan for their preservation. The new funds have 
strengthened Park Service efforts to protect cultural landscapes and 
provide additional interpretive exhibits along the Santa Fe Trail and 
have helped support 17 local initiatives along the Potomac Heritage 
Trail, including an interpretive prospectus and a study of the trail 
corridor in Washington, D.C. We request an increase of $288,000 for 
fiscal year 2002 to continue and expand upon the new initiatives for 
these three trails. We also request an increase of $113,000 to expand 
cooperative interpretation with schools and Latino communities along 
the Juan Bautista de Anza Trail and an increase of $101,000 for the 
Trail of Tears to enable the Park Service to better support cooperative 
work with the Trail of Tears Association to protect critical historical 
and cultural heritage sites along the Trail.
    The $660,000 increase we request for the interagency Salt Lake City 
Trails office will enable the Park Service to better support 
collaborative management with the Bureau of Land Management and the 
Forest Service of four national historic trails that stretch 11,000 
miles and extend across 11 states. With these funds the three agencies, 
working closely with citizen organizations, will revise the feasibility 
studies for the Oregon and California Trails, produce trail map 
brochures for the California and Pony Express Trails, and expand the 
GIS for all four trails. Another collaborative project, involving state 
departments of transportation, will continue to mark the auto tour 
routes for all four trails across 11 states.
    All of these trails are complicated undertakings, none more so than 
the 4,000 mile North Country Trail. With more than 600 miles of Trail 
across 7 national forests in 5 states there is good reason for close 
collaboration between the Park Service and Forest Service to ensure 
consistent management that provides high quality experiences for 
hikers. Limited budgets for both agencies have severely hampered their 
ability to practice this effective management procedure. The $718,000 
we request will give them that ability for the first time while also 
providing greater support for the trail building led by the North 
Country Trail Association, hastening the day when our nation's longest 
national scenic trail will be fully opened for use.
    The Ice Age Park & Trail Foundation has pioneered in using a 
Geographic Information System (GIS) to map and record the many natural 
and cultural resources comprising the 1200 mile Ice Age Trail. This 
work has been supported by private and Park Service funding and 
equipment and office space provided by the Wisconsin Department of 
Natural Resources. The $761,000 we request will enable the Park Service 
to expand this GIS capability to more efficiently plan resource 
protection, trail construction and maintenance to correct unsafe 
conditions and better mark the Trail for users. The funds will also 
provide assistance to the Foundation to better equip, train and support 
the volunteers who build and maintain the Ice Age Trail and manage its 
resources.
    It is equally important that the national scenic and historic 
trails administered or managed by the United States Forest Service and 
the Bureau of Land Management receive budgetary recognition as 
America's Congressionally designated premier trails. Annual operations 
funding for these trails distinct from the general recreation program 
appropriations for these two agencies is essential to insure that they 
receive appropriate priority in annual work plans. The six trails 
administered by the Forest Service and Bureau of Land Management should 
be treated as distinct units within those agencies' land management 
systems and receive appropriate supervision. We ask that you provide 
the funding and direction to do so.
    As you have done for several years, we ask that you provide 
additional operations funding to the Forest Service for administering 
three national scenic trails and one national historic trail, and 
managing parts of 13 other trails. We ask you to appropriate $2.875 
million as a separate budgetary item specifically for the Continental 
Divide, Florida and Pacific Crest National Scenic Trails and the Nez 
Perce National Historic Trail. Recognizing the on-the-ground management 
responsibility the Forest Service has for 838 miles of the Appalachian 
Trail, more than 600 miles of the North Country Trail, and sections of 
the Ice Age, Anza, Lewis & Clark, California, Iditarod, Mormon Pioneer, 
Oregon, Overmountain Victory, Pony Express, Trail of Tears and Santa Fe 
Trails, we ask you to appropriate $650,000 specifically for these 
trails.
    Work is underway, supported by funds you provided for the past 
three years, to close several major gaps in the Florida National Scenic 
Trail. The Florida Trail Association is now building Trail across Eglin 
Air Force Base in the Ocala National Forest and along the Suwannee 
River, adding about 100 miles to the completed Florida Trail. The 
Partnership requests that you provide the Forest Service with an 
additional $500,000 for fiscal year 2002 for trail construction on 
these and other segments of the Florida Trail and an additional 
$500,000 to support a land acquisition team to begin purchasing land to 
close gaps in the Trail.
    The Continental Divide Trail Alliance, with Forest Service 
assistance and funding from the outdoor recreation industry, surveyed 
the entire 3,200 mile route of the Continental Divide Trail documenting 
$10.3 million of construction projects needed to complete the Trail. To 
continue new trail construction, begun with fiscal year 1998 funding, 
we ask that you appropriate $750,000 to plan 211 miles of new trail and 
$1.5 million to build or reconstruct 200 miles of the Continental 
Divide Trail in fiscal year 2002.
    Funds that you provided for fiscal year 2001 are supporting the 
first full-time cross-regional Forest Service Trail Administrator to 
manage the 2,650 mile Pacific Crest Trail in a consistent manner across 
and near 24 national forests, six national parks, four Bureau of Land 
Management resource areas and several state and county parks. With 
funding provided the past two years, a Forest Service lands team is 
working with the Pacific Crest Trail Association and the Park Service 
National Trail Land Resources Program Center to map and acquire better 
routes for the 300 miles of the PCT located on 227 narrow easements 
across private land or on the edge of dangerous highways. We request 
$920,000 for fiscal year 2002 for the Forest Service to continue these 
improvements in the Pacific Crest Trail in collaboration with the 
Pacific Crest Trail Association.
    While the Bureau of Land Management has administrative authority 
only for the Iditarod and El Camino Real de Tierra Adentro National 
Historic Trails, it has on-the-ground management responsibility for 641 
miles of two scenic trails and 3,115 miles of seven historic trails 
administered by the National Park Service and U.S. Forest Service. With 
recognition of the significance of these trails as part of the National 
Landscape Conservation System, the Bureau of Land Management budget now 
includes funding specifically for these trails. We ask that you 
appropriate for fiscal year 2002 earmarked as a separate budgetary item 
$270,000 for the Iditarod National Historic Trail, $600,000 for El 
Camino Real de Tierra Adentro National Historic Trail and $4,792,000 
for management of the portions of the nine other trails under the care 
of the Bureau of Land Management.
    The essential funding requests to support the trails are detailed 
in Attachment 2.
    The Partnership requests that you appropriate from the Land and 
Water Conservation Fund $5 million for acquisition of lands by the 
United States Forest Service to protect the scenic quality and 
continuity of the Pacific Crest National Scenic Trail, $4 million to 
connect sections of the Florida National Scenic Trail on the national 
forests in Florida and St. Marks Wildlife Refuge, and $4 million to 
acquire part of the Rocky Point Tract in Tennessee for the Appalachian 
National Scenic Trail. We also request $1 million for the Bureau of 
Land Management to acquire lands to protect the scenic quality of the 
Pacific Crest National Scenic Trail in California, and for the National 
Park Service $2.5 million to acquire land for the authorized 
interpretive site for the Ice Age National Scenic Trail, and $1.5 
million to preserve the Dixie Hollow Pony Express Station site and 
California National Historic Trail emigrant camp site in Utah.
    The National Trails System Act encourages states to assist in the 
conservation of the resources and development of the national scenic 
and historic trails. Florida and Wisconsin have committed millions of 
dollars to help conserve the resources of the Florida and Ice Age 
National Scenic Trails, respectively. The Partnership asks that you 
provide a grant of $4.5 Million from the Land and Water Conservation 
Fund to assist and encourage Wisconsin in acquiring land for the Ice 
Age Trail.
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide a way to 
enlist private financial support for public projects, usually resulting 
in a greater than equal match of funds.
    The commitment of the private trail organizations toward the 
success of these partnerships as the means for making these trails 
grows even as Congress' support for the trails has grown. In 2000 the 
trail organizations channeled 593,392 hours of documented volunteer 
labor valued at $8,799,993 to help sustain the national scenic and 
historic trails. This is a 9 percent increase over the volunteer labor 
reported for 1999. The organizations also directly applied private 
sector contributions of $6,638,313 to benefit the trails, an increase 
of $857,973 over the money contributed in 1999. These contributions are 
documented in Attachment 1.
    The earmarked Challenge Cost Share funds have significantly 
increased the activity along the trails administered by the National 
Park Service. For fiscal year 1999 14 of the 15 trails have reported 
using $640,790 provided by Congress to fund 72 projects with a total 
value of $1,810,670. The $1,169,880 provided by trail organizations and 
state and local government agencies to support these projects 
represents a 1.8:1 match to the Federal investment.
    The Challenge Cost Share approach is one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. The 
Partnership requests that you appropriate $5 million in Challenge Cost 
Share funding for fiscal year 2002 as a wise investment of public money 
that will generate public benefits many times greater than the 
appropriation made. We ask that you continue to direct a portion of 
those funds specifically toward the national scenic and historic trails 
to continue the steady progress underway to make these trails fully 
available for public enjoyment. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 Prepared Statement of NFFE Local 1957
    NFFE Local 1957 represents 121 employees in the Minerals 
Information Team (MIT) Bargaining Unit of the U.S. Geological Survey 
(USGS). We are concerned that according to the proposed Administration 
budget for 2002, the $2 million reduction in the MIT budget will 
eliminate the core International Information function and harm members 
of the Minerals Information Team Bargaining Unit, as well as the Nation 
as a whole. The proposed cut, which represents 12.5 percent of the 
entire MIT budget, would compromise the mission of the MIT and would 
eliminate positions, most filled by experienced employees with unique 
expertise. We request that this letter be entered into the written 
record of the Subcommittee on Interior and Related Agencies, Committee 
on Appropriations.
    MIT was transferred to the USGS under a Joint House-Senate 
Conference Amendment that provided for the minerals information 
activities formerly conducted by the U.S. Bureau of Mines (USBM) to be 
continued within the USGS at a prescribed $16 million level of funding. 
We have received no increases in funding in five years under this 
prescription and cannot understand how there can be decreases when 
Congress stated that this function should continue at this designated 
level of funding.
    The Minerals Information Team's core mission is to collect, 
analyze, and disseminate information on the domestic and international 
supply and domestic consumption of minerals and materials that are 
essential to the U.S. economy and national security. MIT provides the 
information and analyses that are required to ensure that our Nation 
can have an adequate and dependable supply of minerals and materials to 
meet its defense and economic needs at acceptable environmental, 
energy, and economic costs. The USGS mineral commodity information is 
needed by the public and private sector to (1) better understand 
materials resource use and ultimate disposition to the economy; and (2) 
to develop public and private sector policies and practices that better 
utilize our material resources, including losses and disposals.
    Under the Defense Production Act of 1950, as amended, the Secretary 
of the Interior has significant authority relating to the assurance of 
an adequate supply of mineral materials necessary for the national 
defense. The Act, as amended in 1980 (Oct. 21, 1980, Public Law 96-479) 
and 1992 (May 18, 1992, Public Law 102-285), specifically charges the 
Bureau of Mines with responsibility for economic and statistical 
analyses of international mineral supplies. The international 
information activities of the Minerals Information team transferred 
from the Bureau of Mines are essential to meeting this obligation. In a 
global economy, where the U.S. import dependence for most of our 
strategic and critical materials exceeds 50 percent, knowledge of 
international production capabilities and world demand patterns are 
essential to analyzing the adequacy of the domestic supply of materials 
for both strategic and commercial applications. Any national defense 
related increased mineral supply needs or disruptions necessitating 
supply expansions would require utilizing deposits in foreign countries 
for a significant number of strategic mineral commodities. In 
accordance with these responsibilities, MIT periodically provides the 
Institute for Defense Analysis, which is charged with determining 
defense stockpile needs, a country by country assessment of the global 
mineral supply and demand outlook for a number of strategic materials. 
Such knowledge is also essential to analyses of environmental 
regulation and domestic, economic, foreign, and trade policies relating 
to the minerals industries.
    The ability to gather the requisite information to meet these needs 
would be severely compromised without the support of the International 
Minerals Section. Without the International Information section, there 
would be a critical gap in information regarding the supply of 75 
percent of the non fuel mineral commodities consumed in the United 
States. For example, the United States is 100 percent import dependant 
for metallurgical-grade Bauxite, the raw material used to make 
aluminum, the backbone of our aerospace industry; and for primary 
tungsten, the material used to make cemented carbide cutting tools, 
electric filaments, and armor piercing munitions. China and Russia 
account for two-thirds of the U.S. supply of primary tungsten.
    The International Information section of the USGS MIT provides 
information that is essential to understanding the minerals and fuel 
status of the United States in reference to other countries or regions. 
The objectives for the international information function are to 
collect, analyze, and disseminate data on more than 100 mineral 
commodities, including mineral fuels, in more than 180 different 
countries. To complement coverage of mineral production, information is 
also collected, analyzed, and disseminated on individual country 
mining, environmental, investment, trade and other laws that affect 
their minerals industry and trade with the United States. As a major 
economic world power, it is essential for the United States to have a 
comprehensive understanding of world wide mineral commodity markets. 
The Department of Defense, the CIA, and the Department of State have 
relied increasingly on the USGS country specialists for global mineral-
related policy analysis. Domestic agencies including the Bureau of Land 
Management, the U.S. Forest Service, the Department of Commerce, and 
the Federal Reserve Board, have relied on our supply analyses in making 
policy decisions.
    While the $2 million budget line item has been specifically used to 
fund our international specialists and their activities, international 
activities is not a stand alone program, but one that is fully 
integrated into meeting MIT mission objectives. The international 
specialists serve a strong supportive role in the work performed by our 
Commodity Specialists who are responsible for analysis of the domestic 
supply and demand patterns. The International Specialists provide 
liaison to companies, organizations, international bodies, and U.S. 
Missions that supply data used for commodity analyses. The 
international specialists generate tabulations of world production and 
trade, as well as industry reconnaissance, that are directly 
incorporated into the work products of the commodity specialists. Their 
foreign language skills and insight into international economic and 
geopolitcal events are crucial in completing commodity specific supply 
demand analyes.
    The ability of the MIT to meet its mission objectives has already 
been severely constrained by a limited budget. At the time of MIT's 
transfer to the USGS (fiscal year 1996), Congress designated that $16 
million be transferred from the USBM's budget for MIT. In an 
interpretation of Congressional intent, the USGS has maintained that 
level of funding, except for a directed $400,000 increase in 1997, in 
each of 5 subsequent years. Increases proportional to USGS 
appropriations over the same period would have resulted in a MIT budget 
of more than $18 million. Although salary loads, rent, and other 
assessments have increased, corresponding increases have not been 
allocated to MIT. The impact has been a significant effective reduction 
of budget resources available for program development, contracting, 
and/or capital investment. These constraints have led to lower staffing 
levels and strained MIT's capabilities to complete even its core 
publication mission, let alone initiate new projects. Without the 
International Information function there would be a critical gap in the 
information concerning the supply of 75 percent of the mineral 
commodities consumed within the United States.
    In conclusion, I offer that any attempt to further constrain the 
MIT budget, or to eliminate any portion of its core program, would have 
severe consequences and significantly reduce the ability of the 
Minerals Information Team in its prescribed mission to provide for the 
collection, dissemination, and analysis of mineral commodity related 
data, as it impacts the U.S. strategic and economic needs. We urge 
Congress, at a minimum, to restore the $2 million for International 
Information activities and to appropriate adequate funds to sustain the 
mission of the Minerals Information Team.
    Thank you for your consideration.
                                 ______
                                 
            Prepred Statement of the Timbisha Shosone Tribe
    My name is Pauline Esteves and I am the Chairwoman of the Timbisha 
Shoshone Tribe. The Timbisha Shoshone Tribe is a small Tribe 
principally located at Furnace Creek, Death Valley, California. The 
Tribe was federally recognized in 1983 but was not given a land base. 
Most of the Tribe's ancestral lands include the Death Valley National 
Park and land surrounding the Park. In 1994 the Secretary of the 
Department of the Interior was mandated under the California Desert 
Protection Act to conduct a study, in consultation with the Tribe, to 
determine what lands, both within and outside of the Park boundaries, 
would be suitable as a reservation for the Tribe. The study process was 
lengthy but finally concluded in 1999 with a joint study issued by the 
Department and the Tribe setting forth a recommendation that over 7,000 
acres of federal land be transferred to the Tribe in trust. The 
recommendations submitted in the joint study were ultimately embodied 
in the Timbisha Soshone Homeland Act which was enacted by Congress and 
signed into law in the last Congress. (Act of November 1, 2000; Public 
Law 106-423).
    This legislation was supported by the Tribe, the U.S. Park Service, 
the Bureau of Land Management, and the Bureau of Indian Affairs of the 
Department of the Interior. One critical piece of the Homeland Act was 
the Congressional authorization for the Secretary of the Interior to 
purchase a private ranch in western Nevada commonly known as the Lida 
Ranch. The land that comprises the Ranch is part of the Tribe's 
ancestral lands and holds significant cultural, spiritual and 
historical importance to the Tribe. The owners of the Ranch are ready 
and willing sellers and have expressed a desire to sell to the Tribe.
    The Ranch has been out of cattle production for the last few years 
due to the Ranch owners loss of the Ranch's Bureau of Land Management 
(BLM) grazing permit(s). The Ranch has been seriously over grazed and 
the Tribe has no interest in operating a cattle ranch. Because of the 
Tribe's desire to see the Ranch returned to its natural environment and 
restore depleted resources, the Trust for Public Lands (TPL) has 
partnered with the Tribe in its effort to secure the Ranch. TPL is 
working with the Tribe to obtain an option on the Ranch while an 
appropriation from Congress can be obtained.
    On September 13, 2000, the Tribe and TPL met with officials from 
the Bureau of Indian Affairs to discuss a strategy on how to request 
and secure an appropriation for purchasing the Ranch. Current BIA staff 
who were present at the meeting are Terry Virden, Chief of the Trust 
Responsibilities Office, and Mike Smith, Director of Tribal Services.
    BIA made a commitment at the September meeting that a request to 
purchase the Ranch would be made in the BIA's fiscal year 2002 needs-
base submission to the Office of Management and Budget (OMB). This 
request would then be available to OMB in developing the President's 
fiscal year 2002 Interior budget request. The appropriation BIA was 
requesting for the purchase of the Ranch was $14 million. This amount 
is based on an appraisal conducted by the Ranch owners several years 
ago. While the BIA, TPL and the Tribe agree that the appraisal presents 
an inflated fair market value for the Ranch, it was understood that the 
$14 million would be the amount requested until such time as the Tribe 
and TPL could engage an appraiser that would provide an appraisal in 
accordance with federal appraisal standards.
    We understand that the President's budget request for the Bureau of 
Indian Affairs for fiscal year 2002 does not include any funding for 
acquisition of the Lida Ranch. We do not believe it appears anywhere 
else in the Interior Department's budget request. The Timbisha Shoshone 
Tribe is requesting that Congress appropriate $15 million to secure the 
purchase of the Lida Ranch to fulfill the commitment of Public Law 106-
423 enacted just six months ago.
                                 ______
                                 
 Letter From R. Dean Tice, Executive Director, National Recreation and 
                            Park Association
                                                       May 4, 2001.
Hon. Conrad Burns, Chairman,
Hon. Robert Byrd, Ranking Minority,
Subcommittee on Interior and Related Agencies,
Committee on Appropriations, U.S. Senate, Washington DC.

    Dear Senators Burns and Byrd: This letter is to share with the 
Subcommittee our views on fiscal year 2002 appropriations for selected 
programs administered by the U.S. Department of the Interior, 
principally the National Park Service. We appreciate the opportunity to 
comment.
    We recommend the following:
  --$900,000,000 from the Land and Water Conservation Fund, divided 
        equally between the state assistance program and eligible 
        federal recreation resource agencies. Funds should be allocated 
        to the states as authorized by current law.
  --Sufficient funds to address the most distressed recreation resource 
        conditions and deficiencies identified through the Urban Park 
        and Recreation Recovery Program.
  --Sufficient funds to enable the National Park Service to effectively 
        collaborate with other federal agencies and state and local 
        agencies on such matters as excess and surplus federal real 
        property, conservation of the nation's cultural heritage and 
        rivers and trails, and U.S. Geological Survey activities that 
        support local and state planning.
    We commend the President's early commitment and budget initiative 
to ``fully fund'' the Land and Water Conservation Fund. This proposal 
recognizes the national imperative to address the recreation needs of 
the American people, and through recreation, a broader national agenda 
that embraces public health and wellness and other issues. We are 
disappointed, however, that no funds are requested for the Urban Park 
and Recreation Recovery program.
    We especially commend the President for emphasizing the importance 
and potential of LWCF state assistance. It is time, we believe, to 
recognize the significant contributions of the program to national 
recreation, conservation and other goals. The program should not be 
viewed as simply a fiscal distraction to appropriations for federal 
land systems.
    The value of state and local recreation and park resources are 
fundamentally essential to quality recreation experiences for all 
people. Until all people have appropriate access to recreation services 
and resources our collective public mission will remain unfinished.
    State and local recreation resources address several national 
concerns.--Consider the following:
    Public Health.--The relationship between recreation and wellness 
receives widespread attention. Annual national health care expenditures 
now exceed $1 trillion. Chronic diseases, including heart disease, 
stroke, cancer and diabetes, account for some 70 percent of all deaths 
and 70 percent of health care expenditures. More than 90 million 
Americans live with the most preventable of chronic illnesses. Physical 
activity, a critical building block of health promotion and disease 
prevention, is central to many forms of recreation. Active recreation 
can lower the risk of obesity, hypertension, heart disease, stroke and 
diabetes, and breast, colon and other cancers. Appropriately sited 
recreation centers, trails and parks influence the amount and type of 
personal physical activity.
    Nutrition.--Local recreation and park systems are a central part of 
national efforts to deliver food to children, youth and families. Last 
July, an average of 2,080,005 children and youth received federally-
aided food services each day, hundreds of thousands of them at local 
park sites. Tacoma, Washington's Metropolitan Park District, for 
example, feeds a daily average of 150 people at each of 17 sites--
neighborhood-based playgrounds and centers, two of which also serve as 
``safe havens.'' The Baltimore, Maryland Department of Parks and 
Recreation feeds 20,000 kids daily. Recreation agencies in Sacramento, 
California, Longview, Texas, and Kansas City, Missouri and Pittsburgh, 
Philadelphia are all service providers.
    Learning Environments.--The Congress in fiscal year 2001 provided 
$846 million to local school systems through the Department of 
Education's 21st Century Community Learning Centers program to create 
after-school environments conducive to fun, extended learning, and 
security. Local recreation agencies collaborated in over 80 percent of 
the local school settings. The President has proposed to continue this 
program, linked to the Safe and Drug-Free Schools.
    Public Partnerships.--Future actions to provide recreation access 
and to conserve resources will further embrace the concept of shared 
responsibility to meet mutual goals. One outcome will be immediate and 
long-term federal savings. Scores of existing non-federal public 
parks--Mt. Katahdin (Baxter State Park) and the Allagash Wilderness 
Waterway in Maine are nationally significant. So, too, are the Anza 
Borrego Desert State Park, California, the Adirondack Park, New York, 
Long Beach Island State Park, New Jersey--all administered with state 
funds.
    Two other parks--Assateague State Park, Maryland and Indian Dunes 
State Park, Indiana--illustrate the principle of shared conservation 
and recreation goals and savings. Assateague state park and the 
northern unit of Assateague National Seashore host about one-half 
million visits annually, with 350 state developed campsites (compared 
to about 200 in the national seashore). It annually pays the salaries 
of some 10 year-round state employees--and some 40 more seasonal 
workers. Recent capital investments by the state exceeded $2 million. 
Indiana Dunes disperses user impacts and costs that would otherwise be 
borne by the federal government. Visitation is about 800,000, the 
highest of all Indiana state parks, and over 40 percent are out-of-
state visitors. Many of the activities available at the state park are 
also available at the neighboring national lakeshore.
    Livable Communities.--Over 100 senators and representatives are 
members of congressional ``livability'' groups. Public recreation and 
parks contribute importantly to their group objectives.
    Recreation Access, Resource Conservation Needs.--The proposed 
funding for LWCF state assistance and our urban parks recommendation 
are, in context, modest. Our 1999-2000 nationwide survey of local 
public recreation and park systems revealed an estimated $55 billion in 
capital investments for fiscal years 2000-2004. The majority of funds 
that do become available--typically less than one half of projected 
needs--will come principally from local and state sources, but national 
resources will have a direct impact and will leverage other funds. 
Increasing user capacity through new recreation facilities and parks, 
restoring existing infrastructure, conserving specific natural 
landscape features and containing sprawl are top local priorities.
    Future investments from the Land and Water Conservation Fund will 
likely reflect previous state and local decisions. Bozeman, Montana, 
for example, is completing acquisition and development of Sundance 
Springs Park, a project ``borne of community involvement,'' according 
to a state grant official. A $50,000 LWCF grant contributed importantly 
to the $295,000 project, enabling acquisition of 10.25 acres and 
enhanced access to Bozeman's urban ``Main Street to the Mountains'' 
trail. Champion, Franklin, and Silversteen parks in Transylvania 
County, N.C. enhanced the livability of this western North Carolina 
area through land conservation and additional recreational sports 
fields and courts, picnic sites and aquatic facilities.
    In Wheeling, West Virginia, LWCF matching grants helped develop the 
Good Zoo, which interprets the habitat needs of indigenous wildlife, 
and to acquire 300 acres for the Burton Wildlife Preserve. In 
Huntington, LWCF aided the nationally recognized Ritter Park 
playground, the most heavily used in the West Virginia, and the Park's 
Rose Garden, also of state significance.
    The City of Blue Springs, Missouri, a suburb of Kansas City, has 
grown from 7,000 people in 1970 to about 50,000 today. The city has 
benefited from several LWCF grants, but is ``still far behind where it 
should be,'' said its director of Parks, Recreation, Buildings and 
Grounds Roscoe Righter, ``But without the LWCF we would not be even 
close to meeting our needs.'' The conservation and use of Heritage Park 
in Westerville, Ohio was aided by a timely LWCF grant. This 10.5-acre 
property includes the historic Everal homesite and barn (c.1870), both 
on the National Register of Historic Places since 1975. Restoration and 
land conservation along the Cincinnati Riverfront, Maumee State Park in 
the Toledo metro area, and reclamation and development of a former 
dumpsite in the rural community of Fort Jennings are other Ohio/LWCF 
projects.
    ``In fifteen years there will be 210,000 people in Pierce County, 
adding more people than currently living in the City of Tacoma. Where 
will we all play?'' That question is a critical element of a Tacoma, 
Washington region-wide strategy of Forever Green, a project of the 
public-private Forward Together coalition. A predictable, well financed 
Land and Water Conservation Fund will be a part of the solution. 
Implementation of the Sitka Trail Plan, a project of Sitka Trail Works, 
Inc. collaborative of Sitka city/borough, Alaska State Parks, USDA 
Forest Service and National Park Service Rivers and Trails consultants 
could depend on LWCF assistance. The draft plan presents 26 potential 
projects that will provide high quality recreation experiences and aid 
development of a recreation-based economy.
    Distribution of LWCF Appropriations.--Appropriations from the Land 
and Water Conservation Fund should be made available as authorized by 
current law, with governors retaining flexibility to meet public 
recreation demand as determined by public processes. The legislative 
history of the act underscores the concern for providing necessary 
recreation resources ``to strengthen the health and vitality of the 
citizens of the United States.'' In addressing the distribution of 
funds, the then Senate Interior and Insular Affairs Committee report on 
the initial legislation stated that, ``in providing outdoor recreation 
resources and facilities for the American people, the greatest emphasis 
should be given to those areas with the largest concentration of 
people.'' The National Park Service's on-line quick history of LWCF 
notes that 75 percent of the (37,500) projects funded by LWCF for state 
and local governments ``have gone to locally sponsored projects to 
provide close-to-home recreation opportunities readily accessible to 
America's youth, adults, senior citizens and the physically or mentally 
challenged.''
    The President's budget could dramatically shift the focus of LWCF 
state grants away from the provision of recreation opportunities for 
the American people to actions more consistent with the stated purposes 
of the Endangered Species Act, the North American Wetlands Conservation 
Act and the Wildlife Conservation and Restoration Program--all 
critically important statutes--where recreation is secondary and 
necessarily subservient to the stated objectives of wildlife and 
wetland conservation.
    Rather than investing in ``high risk'' environments where children 
are in need of increased recreation the budget speaks to ``at-risk 
species.'' While the proposal contends that ``[t]he paramount purpose 
of the [LWCF] program would remain outdoor recreation, the primary 
focus would no longer be on acquiring and developing land to 
``strengthen the health and vitality of the citizens of the United 
States.'' On the contrary, the proposed budget would redefine ``public 
outdoor recreation purposes'' to include ``development and 
implementation of programs for the benefit of wildlife and their 
associated habitat, including species that are not hunted or fished; 
for the conservation of endangered or threatened species; and for the 
protection, enhancement, restoration and management of wetland 
ecosystems and other habitats for migratory birds and other fish and 
wildlife.'' Each of these activities (with the exception of 
``management'' functions) are currently authorized LWCF purposes and 
objectives.
    Further, proposed revisions to the authorized state-by-state 
allocation formula could result in serious distortion of LWCF purposes 
and investments. The President's ``full funding'' proposal and formula 
change (incorporating relative land area) would impact many states with 
large, often urbanized, populations that drive impart on resources and 
thus land use. California's LWCF share, for example, would drop from 
$40.6 million to $29.2 million; New Jersey from $12.6 million to $8.8 
million, Pennsylvania from $16 million to $12.2 million; Massachusetts 
from $10.1 million to $7.5 million; and Florida from $20 million to $15 
million. Conversely, many low population--large land area states would 
increase, many significantly. Future resource conservation and 
recreation demand will likely be met by an allocation formula that is 
weighted more, not less, toward population factors. Legislation to 
address state allocation and federal programmatic relationships should 
be considered by authorizing committees.
    We share the subcommittee's concern for the health and welfare of 
the American people.
            Sincerely,
                                              R. Dean Tice,
                                                Executive Director.
                                 ______
                                 
              Prepared Statement of the City of Newark, NJ
    Chairman Skeen and members of the Subcommittee, thank you for 
giving me the opportunity to submit testimony about a project under 
your jurisdiction which is very important to the people of Newark, New 
Jersey and the surrounding region. The implementation of our proposal 
for a Regional Hydroelectric Power Generation demonstration project 
will help the City of Newark to become more energy efficient and self-
reliant, through the generation of power at an existing water treatment 
facility. This investment of $12 million from the Department of Energy 
to Newark's future will help us to improve the economic status of our 
city, while also providing environmental benefits for northern New 
Jersey.
    As the nation's third oldest major city, Newark possesses the 
unique duty of maintaining an aging infrastructure while attempting to 
meet the demands of the 21st century. We are charged with the 
responsibility of continuing to manage a very precious water resource 
while faced with the challenge of providing an adequate and reliable 
water supply of uncompromising quality. The City of Newark owns and 
operates the largest publicly operated water and sewer system in the 
State, and is dedicated to upgrading its aging facilities. The system 
delivers, on average, more than 90 million gallons per day for purposes 
of domestic consumption, commercial and industrial use, and fire 
protection. Currently, with a 1995 USEPA grant of $44.5 million, we are 
rehabilitating our century-old brick sewer system, combined sewer 
overflow system, and stormwater drainage channels. In addition, we have 
recently utilized low interest loans to complete the rehabilitation of 
a high hazard dam and the cleaning and cement mortar lining of 13,000 
feet of a 42-inch diameter aqueduct. These projects will help to extend 
the useful life of the overall system well into this new century, but 
we see untapped potential in our water distribution infrastructure.
    The project presented for your consideration concerns the 
generation of power through the City of Newark's own water system. 
Although not yet faced with the severe challenges faced in other parts 
of the country, Newark is seeking to proactively address the need for 
alternative energy sources. The City of Newark is also confronted with 
a series of challenges to its water and power supply resources.
    Accordingly, the City is seeking to develop the ability for the 
generation of hydroelectric power through the addition of in-line 
turbines at existing water transmission facilities. Newark has an 
extensive water collection and treatment system, spread over a large 
area in northern New Jersey. It feeds approximately 100 MGD to the City 
and it's out of town customers. The City maintains and operates five 
storage reservoirs, nine dams, six outlet structures and 64 square 
miles of woodland. It operates 80 miles of transmission aqueducts, 
structures, right-of-way and pump stations, interconnected with other 
major water purveyors. Distribution reservoirs are operated, along with 
their inlet and outlet gates, a rechlorination plant, and a water 
testing laboratory. Newark's extensive local water system includes 500 
miles of distribution mains and pipelines, 5,000 hydrants, and 10,000 
control valves. Although viewed primarily as a water supply system, the 
potential for power generation is present, and the time is right to 
begin its utilization.
    The City's Pequannock Water Treatment facilities and aqueduct 
downstream of the Charlotteburg Dam and Reservoir present a unique 
opportunity to recover energy that is currently dissipated in the 
diversion of water through various dam gatehouse and intake structures, 
pipeline, and downstream screen chambers. Further, the potential 
hydroelectric power and energy represented in the conveyance could, 
most of the time, offset the existing power and energy requirements of 
the water treatment facilities themselves, including the loads present 
at dams and treatment facilities.
    With this potential in mind, the City performed an evaluation of 
the power production and energy generation potential of its system. An 
extensive technical study of the power generation potential of Newark's 
entire collection, treatment and transmission facilities has been 
prepared, showing the possibilities of surplus energy generation, and 
is available for review. It explores the potential generation and 
disposition of power from several of Newark's operations. As a pilot 
project, the least complex element of the system can stand alone, and 
is submitted and described herein.
    This project proposes to construct a Water Turbine Hydroelectric 
Facility at the City's Cedar Grove balancing reservoir. This facility 
includes inlet and outlet gates, dam structures, and grounds. Utilizing 
the existing infrastructure, this proposed facility would take 
advantage of the hydrostatic head on the transmission aqueduct between 
the West Milford Treatment plant (elev. 700') and the Cedar Grove 
Reservoir (elev. 380'). The proposed site lies alongside a power 
company easement, which would make connection to the grid quite simple. 
The fairly static flow provided by the interceptor makes this a logical 
location for a turbine regulator set up. This method of energy recovery 
would be the least invasive as it could be implemented without 
significant disruption of our present system. It represents the clean 
and renewable production and use of energy ``on-site'', which is 
currently wasted. The project may also alleviate the relatively 
frequent interruptions and curtailments of power delivery that are 
currently experienced at the Pequannock Water Treatment facilities.
    This proposed facility would be capable of offsetting the City's 
electrical operating expenses in addition to the needs of its Water & 
Sewer Utility. It could also potentially offset the cost to construct 
concrete storage tanks at the Cedar Grove site in order to meet Federal 
compliance for the elimination of open potable drinking water 
reservoirs. It provides Newark with a unique energy recovery and use 
opportunity.
    An appropriation of a total of $12 million is sought, with $2 
million for planning and design, and $10 million for construction of 
the project. It is anticipated that the energy generated through the 
facility would offset this initial investment within the current 
decade. Your support for innovative hydroelectric energy generation 
will enable the City of Newark to impact on its own environmental and 
economic concerns.
    In closing, I would like to extend my thanks to the entire New 
Jersey delegation for its ongoing support. The time and attention of 
this subcommittee are deeply appreciated.
                                 ______
                                 
            Prepared Statement of the Quinault Indian Nation
    Mr. Chairman and members of the Committee: As President of the 
Quinault Indian Nation, it is my pleasure to submit testimony to this 
with respect to the fiscal year 2002 Department of the Interior and 
Related Agencies appropriations requests. Our testimony embraces more 
than the Bureau of Indian Affairs and the Indian Health Service, 
although these agencies continue to be the primary agencies that 
provide funds to our government.
    Over the past several months all of the people of the Pacific 
Northwest have been forced to face the question of conservation. 
Everyone from the corner market to the Governor's Office speaks of 
conservation of water because of the drought, and conservation of 
electricity to avoid California-like power disruptions this summer. We, 
the leadership of the Quinault Nation are also concerned with 
conservation; but our thoughts are of conservation in a wider sense. 
Our concern is the conservation of our most important resources: our 
people and our land. To that end, my focus today is on the need for 
programs and facilities that protect the people of the Quinault Nation 
and protect and preserve our lands.
Quinault Indian Nation requests:
    Implementation of North Boundary Settlement Agreement--U.S. Fish 
and Wildlife Service, Bureau of Indian Affairs, U.S. Forest Service
    Members of the Washington State delegation have been fully briefed 
on the status of the negotiations and the general principals of the 
settlement over the use of the North Boundary Area of the Quinault 
Indian Reservation as embodied in a Memorandum of Agreement signed by 
the Department of the Interior, the Quinault Indian Nation and the 
Trust for Public Lands. The Agreement calls for implementation through 
Phase One funding in fiscal year 2002 of approximately $13 million in 
federal and private funds. The federal appropriated line items that 
have been identified as potential sources of funding during fiscal year 
2002 include: (a) the U.S. Fish and Wildlife Landowner's Incentives 
Fund, the Cooperative Endangered Species Fund and Habitat Conservation 
Plan land acquisition; (b) the Bureau of Indian Affairs' Land and Water 
Claim Settlement account; and (c) the U.S. Forest Service Forest Legacy 
Program. We request funding from all or a combination of the accounts 
during fiscal year 2002.
    Meaningful funding of the federal portion of the settlement is 
critical to stay a lawsuit against the United States. More importantly 
from the Quinault Nation's perspective, funding of the settlement 
agreement is necessary for the Nation to achieve fiscal solvency over 
the next several years. The Nation's Land Consolidation program has 
been placed on hold because of the dispute with the United States as 
has the entire economic development program of the Quinault Indian 
Nation.
Quinault Indian Nation requests:
    Tribal Priorities--Bureau of Indian Affairs/Indian Health Service
    As I have testified for the past several years, our priorities 
continue to be centered around the need for facilities construction and 
infrastructure development. It is vital to our tribe and many others 
across the country that attention be paid to how the federal government 
can assist tribes in paying for these important developments. There are 
very few sources of funding for new facilities in Indian Country. Only 
the CDBG programs have been available directly to tribes. Other sources 
for funding facilities, such as IHS and BIA are dedicated to the 
construction of federal--not tribal--facilities.
    Within Indian Country, only a few tribes have unencumbered funds 
they can use to leverage private sector funds to build new facilities. 
Without a tax base, tribes cannot access funds commonly used by state 
and local governments. There are alternative approaches to financing 
tribal facilities, however, such as co-financing, joint ventures, loan 
guarantees and bonding authorities that could create opportunities for 
many tribes. We urge the Committee to help us develop these options to 
supplement direct federal appropriations.
            IHS--Health Facilities Construction--Increase $5,500,000
    The first priority of the Quinault Nation for the fiscal year 2002 
is the construction of a new tribal health clinic. For more than ten 
(10) years now, the Nation has been working toward the construction of 
a new health clinic on the reservation. The Roger Saux Health Clinic is 
now the oldest reservation health facility in the Pacific Northwest. As 
valuable as the clinic has been to all Indian people in the service 
area, it is no longer able to meet the demands of the patient 
population. The clinic now serves more than 27,000 patients a year, 
from several reservations and surrounding communities. Funding is 
needed to construct a clinic that will meet the needs of our people.
            Assisted Living Center--Increase $300,000
    The General Council of the Quinault Nation has identified an 
assisted living facility for tribal elders on the reservation as a 
priority. As with all tribes, we value our Quinault elders and desire 
to provide a reservation-based facility to care for those elders in 
need of care. Because of the remote location of our reservation 
villages, at present, there is no such resource available. Quinault 
elders in need of assisted living services must leave their homeland 
and move 50 miles away to the nearest facility--if there is an opening. 
Therefore, we urge the Committee to continue to support increased 
appropriations for IHS Facilities Construction to fund the $1 billion 
identified backlog. With respect to the Quinault Nation, we again 
request that $300,000 be identified within the IHS budget for the first 
phase of an Elders Assisted Living Facility on the Quinault 
Reservation. Finally, we continue to support alternative approaches to 
financing tribal health facilities such as co-financing, joint 
ventures, loan guarantees and bonding; and we urge the Committee to 
assist us in developing these options as a substitute for dependence on 
Congressional appropriations.
            Queets Fish Buying Station--Increase $500,000
    The Village of Queets is located on the northern boundary of the 
Quinault Reservation and is the second largest concentration of people 
on the reservation. The Queets Fish House is an important part of the 
village economy and must continue to operate to support many people in 
the village. The present structure is dilapidated and has, in fact, 
been condemned as unsafe. Until this past year, the structure continued 
to be used simply because there was no alternative. The flooring 
finally gave way last fall and the building cannot be used. The Nation 
has been seeking funding to construct a replacement for this building 
for several years. Replacement costs have been estimated at $500,000. 
We request that this amount be identified in the fiscal year 2002 
appropriations specifically for this purpose.
            Tribal Court--$750,000
    The Quinault Nation supports the Administration's proposed increase 
of $1.5 million for Tribal Courts within the Tribal Priority Allocation 
line item. In addition, the Nation supports and urges the Congress to 
support the continuation of funding for the Law Enforcement Initiative. 
However even these increases will not address the needs that the 
Quinault Nation has identified as priorities for the next several 
years.
    Our request for funds to construct a tribal court was included as 
part of my request in last years budget, and continues to be an 
important unmet need on our reservation. The Tribal Court for the 
Quinault Nation is housed in a trailer owned by the BIA. The Tribal 
Court is expected to deal with an expanding array of cases in a 
facility that is in a state of practical ruin. The structure itself 
leaks and has an unstable floor. The Nation stresses the need for a new 
courthouse and a need for a second tribal judge and additional hours 
for the Tribal Prosecutor to keep pace with increased caseloads.
    An ongoing need for additional court staff is the need for a 
Process Server. Presently court summons and subpoenas are delivered by 
tribal police officers. Since process service is not priority for on-
duty officers, this sometimes means a considerable delay in delivering 
documents. This illustrates the link between law enforcement and 
judicial services. It also points to the desperate need for additional 
funding for all aspects of reservation law enforcement.
    The Quinault Nation must provide all forms of law enforcement on 
the reservation. In addition to general duties in the two villages and 
on the roads and highways of the reservation, tribal police are 
responsible for enforcing tribal hunting, fishing and gathering 
activities on the reservation (including 26 miles of coastal shoreline 
and more than 200,000 acres); and in ``usual and accustomed places'' 
off the reservation. In addition, the department has the responsibility 
of enforcing tribal jurisdiction on the Pacific Ocean out to the 
territorial limits. In fact, the Nation is presently discussing the 
possibility of working with the National Marine Fisheries Service to 
provide enforcement services in coastal waters under the Lacy Act. 
Prosecutions from each of these enforcement activities must be 
adjudicated in Tribal Court.
    In April the Quinault Nation began operating its own tribal TANF 
program. As a consequence of that commitment, the Nation must seriously 
examine the possibility of additional burdens on the Tribal Court to 
hear cases related to TANF activities. This would include reviews of 
TANF decisions brought on administrative appeal and, most likely, child 
support enforcement matters. Before the Tribal Court can begin hearing 
such cases, it is important that the Court have the proper staff, 
training and facilities.
            Fractionated Heirship Pilot Project--Increase $2 million
    Finally, the Quinault Nation supports the Administration's proposed 
increase for the Indian Land Consolidation Pilot Project of $2 million. 
The Nation is negotiating with the Department to become one of the 
Pilot Projects. As of the date of this testimony, we have identified 
over $10 million worth of less than 2 percent fractionated interests 
owned by willing sellers on the Quinault Reservation. One of the main 
goals of the Quinault Nation for the past 4 decades has been to repair 
the damage to our Nation caused by the Allotment Act. Increased funding 
for this Pilot Project could help the Nation achieve this goal.
    I would like to thank the members of the Committee for considering 
the testimony of the Quinault Nation.
                                 ______
                                 
                Prepared Statement of Alachua County, FL
    Mr. Chairman: Thank you for allowing the Alachua County Board of 
County Commissioners to submit this written testimony before your 
Subcommittee concerning the County's Emerald Necklace Land Conservation 
Initiative. As described below, this initiative will serve as a model 
land conservation program, while demonstrating the benefits of a 
successful local, state and federal environmental partnership.

 EMERALD NECKLACE LAND CONSERVATION INITIATIVE ($10 MILLION IN FUNDING 
                               REQUESTED)
    On November 7, 2000, a large turnout of Alachua County voters 
overwhelmingly endorsed passage of a local land acquisition bond 
referendum that provides up to $29 million in local funds to acquire 
and preserve environmentally significant lands. This local initiative 
received broad public support, with endorsements from diverse community 
interests including business, environmental and community 
organizations.
    Alachua County is seeking state and federal matching funds to 
leverage this substantial local commitment to land conservation. 
Property acquisitions are proposed to link existing conservation lands 
to provide for connected areas of protected water quality and wildlife 
habitat, as well as resource-based recreational opportunities. Federal 
matching funds will be critical to the success of this project. Alachua 
County is committed to responsible land use practices and conservation 
policies that encourage future growth to occur in areas of lesser 
environmental sensitivity with adequate infrastructure.
    Alachua County has five large scale land acquisition projects 
(5,000+ acres) on Florida's Conservation and Recreation Lands (CARL) 
acquisition list.
  --Paynes Prairie Additions (a large freshwater wetland and watershed, 
        managed as a state preserve)
  --San Felasco Hammock Additions (a mature hammock and sandhill 
        forest, with ravines and unique sinkhole drainage features)
  --Watermelon Pond (an upland sandhill and scrub forest community with 
        important ephemeral wetlands surrounding a relatively pristine 
        lake)
  --Newnans Lake (a diverse flatwoods forest surrounding a major 
        community fishing lake with declining water quality)
  --Lochloosa Forest (a pine flatwoods forest, largely in commercial 
        timber production surrounding two large fishing lakes)
    These tracts are under substantial land development pressures that, 
if left unchecked, will further fragment and diminish their 
environmental, water resource, and recreational values.
    A major portion of the larger tracts proposed for acquisition are 
currently timber lands. Timber production, where conducted in 
conformance with best management practices to avoid soil erosion and 
water quality degradation, is a land use considered to be generally 
compatible with Alachua County's land conservation goals. In these 
areas, the purchase of development rights and conservation easements, 
as opposed to fee simple acquisition, are proposed as key components of 
the Emerald Necklace acquisition strategy. These conservation 
alternatives, which stretch the available acquisition dollars, allow 
the properties to continue to be used for lower impact, more compatible 
land use activities while remaining under private ownership and 
management.
    In addition to these five larger tracts, acquisitions are proposed 
for smaller, but environmentally significant properties that will 
preserve vital connections between the larger tracts, creating the 
``Emerald Necklace.'' These smaller, linking parcels, often overlooked 
by state and federal land acquisition programs, are easier to manage by 
a local land conservation program such as that established by Alachua 
County.
    Although most of the properties proposed to be included in this 
project are relatively undisturbed, an important objective of the 
Emerald Necklace initiative is to accomplish several critical 
restoration projects. Alachua County in consultation with the City of 
Gainesville have identified four priority restoration areas.
  --Newnans Lake, a large lake in a relatively natural setting with 
        spectacular recreational, scenic, and wildlife resources that 
        is being adversely affected by water quality degradation and 
        sedimentation. Specific projects requiring federal assistance 
        include: investigations to determine the source of water 
        quality problems and appropriate remedies, mechanical removal 
        of muck and sedimentation, land acquisition for surrounding 
        properties, a multi-use trail system circling the lake and 
        connecting two existing rail-trails, and the designation and 
        enhancement of a canoe trail connecting Newnans and Orange Lake 
        via Prairie Creek and the River Styx. The St. Johns River Water 
        Management District is another willing partner for this 
        restoration project, having made substantial commitments in the 
        past and demonstrating an interest to expand land conservation 
        and water resources protection in the area while enhancing 
        public access.
  --Sweetwater Branch watershed restoration to improve water quality, 
        reduce sedimentation, and to prevent adverse impacts on Paynes 
        Prairie State Preserve (a designated National Natural Landmark) 
        and the underlying Floridan Aquifer, the region's primary 
        source of drinking water. Prior to draining into the drinking 
        water aquifer via Alachua Sink on Paynes Prairie, this urban 
        creek in eastern Gainesville is severely impacted by untreated 
        stormwater runoff and further eroded by a major discharge of 
        treated municipal wastewater.
  --Tumblin Creek watershed restoration to improve water quality, 
        reduce sedimentation and toxicity to fish, and to prevent 
        adverse impacts to Paynes Prairie State Preserve and the 
        Floridan Aquifer. This severely degraded urban creek flows 
        through a minority neighborhood and a public school campus 
        prior to transporting untreated stormwater and potentially 
        toxic sediments into Bivens Arm Lake. This lake, a state-
        designated wildlife sanctuary, provides an increasingly rare 
        opportunity for subsistence and recreational bank fishing for 
        low income and unemployed residents
  --The restoration of Hogtown Creek, which drains the largest 
        watershed in Gainesville. The City of Gainesville has acquired 
        $3.0 million in properties to establish the Hogtown Creek 
        Greenway. Federal funding assistance is needed for the 
        development of recreational trails and for water quality 
        improvements.

                          CONCLUDING COMMENTS
    Alachua County proposes an intergovernmental land conservation 
initiative to establish the ``Emerald Necklace,'' a publicly 
accessible, connected and protected network of trails, greenways, open 
spaces and waterfronts surrounding the Gainesville urban area. This 
initiative will directly provide for multiple public uses and benefits, 
including passive recreation opportunities, protection of drinking 
water sources, watershed restoration, and the preservation of 
diminishing fish and wildlife habitats. Therefore, we hope that the 
Subcommittee will find this critically important project worthy of your 
support. Thank you for your consideration.
                                 ______
                                 
             Prepared Statement of Florida State University
    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for the opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University (FSU).
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research and top quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities and have a 
strong commitment to public service. Among the faculty are numerous 
recipients of national and international honors, including Nobel 
laureates, Pulitzer Prize winners as well as several members of the 
National Academy of Sciences. Our scientists and engineers do excellent 
research, have strong interdisciplinary interests, and often work 
closely with industrial partners in the commercialization of the 
results of their research. Having been designated as a Carnegie 
Research I University several years ago, Florida State University 
currently is approaching $125 million per year in research awards.
    FSU will soon initiate a new medical school, the first in the 
United States in over two decades. Our emphasis will be on training 
students to become primary care physicians, with a particular focus on 
geriatric medicine--consistent with the demographics of our state.
    Florida State attracts students from every county in Florida, every 
state in the nation, and more than 100 foreign countries. The 
University is committed to high admission standards that ensure quality 
in its student body, which currently includes some 192 National Merit 
and National Achievement scholars, as well as students with superior 
creative talent. We consistently rank in the top 25 among U.S. colleges 
and universities in attracting National Merit Scholars to our campus.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the nation's top public 
universities.
    Mr. Chairman, let me tell you about a project we are pursuing this 
year involving a new institute to address Florida Coastal Marine 
issues. A Memorandum of Agreement has been signed between the Minerals 
Management Service (MMS), the Florida Department of Environmental 
Protection (DEP), and Florida State University to create the Florida 
Coastal Marine Institute, contingent upon the appropriation of funds. 
The goals of this Institute are to support high-quality research and 
training activities in coastal areas with particular emphasis on sand 
and gravel resources in the coastal and marine waters adjacent to 
Florida. The FSU Coastal Marine Institute will augment the pool of 
researchers capable of addressing current and future marine science 
information needs of the MMS and the State of Florida, by supporting 
the training of graduate students and post-doctoral students. Support 
will also be utilized to provide a data information repository at FSU 
for such data. We are asking for $500,00 in fiscal year 2002 to fund 
this activity through the Department of Interior's Minerals Management 
Service. Matching funds from state or private sources will match the 
MMS funding on a dollar-for-dollar basis.
    Mr. Chairman, this is a very worthwhile effort that will yield 
great rewards and is just one of the many ways that Florida State 
University is making important contributions to solving some key 
problems and concerns our nation faces today. Your support for this MMS 
activity would be appreciated, and, again, thank you for an opportunity 
to present these views for your consideration.
                                 ______
                                 
Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                           Indian Reservation
    As Chairman of the Assiniboine and Sioux Tribes of the Fort Peck 
Reservation, I am pleased to submit this testimony on the BIA and IHS 
fiscal year 2002 budget
                        BUREAU OF INDIAN AFFAIRS
Education
    We support the Administration's emphasis on education. In 
particular, we support the $1 million increase requested for tribal 
colleges and university. This is vital to our tribal members, who want 
and need a higher education but do not want to leave their home to 
receive this education. We also support the President's initiative to 
increase funding to meet the construction needs of public schools with 
a high number of Indian students. All of the schools on the Fort Peck 
Reservation are public schools and are in dire need of facilities 
monies.
    We are concerned that the President has not requested any increases 
for the higher education scholarship program within the BIA. The 
current level of funding is inadequate. At Fort Peck alone, we have had 
to turn a way more than 200 students, who needed assistance to continue 
their higher education. We are also concerned that the Johnson O'Malley 
program has not received an increase in more than ten years. In fact, 
it has been cut by more than two million dollars in the last two years. 
On the Fort Peck Reservation, there is a shortfall of more than 
$900,000 in this important program.
Phase I North of Sprole Irrigation Project ($3,778,070)
    The Fort Peck Tribes in conjunction with the Bureau of Indian 
Affairs, the Montana Department of Agriculture, and the Roosevelt 
County Conservation District, have been working together to develop the 
North of Sprole Irrigation Project (NOSI). The Project is part of an 
economic development program to stimulate the local economy by 
providing jobs and income to the area.
    The economic analysis report estimates that up to 150 new jobs 
would be created within the Fort Peck Indian Reservation with a 
projected increase in annual income to Roosevelt County of $1-3 million 
annually. In the end the Project will result in an increase in the 
number of irrigable lands by more than 14,000 acres. Thus, there can be 
no doubt that the project will greatly improve the quality of life of 
the people of the region.
    Moreover, in 1997 Roosevelt County economy had a deficit trade 
balance $58 million, because the region no longer has any significant 
``value added'' industry that results in the export of the region's raw 
good. With the development of the NOSI Project the Fort Peck Tribes is 
taking the first step in developing value-added business activity in 
Roosevelt County and the development of a crop production/food 
processing marketing channel. Thus, not only will this project improve 
the quality of life for the people of the region, it will improve the 
overall economy of the region and the State. Working with the other 
Project proponents, the Tribes have already hired an Irrigation 
Development Specialist to develop alternative cropping systems and a 
nutrient and pest management plan for all irrigable lands throughout 
the Reservation.
    The Tribes request $3,778,070 for Phase I of this Project, which 
has a total cost of $25,360,200. Phase I funding will enable the Tribes 
to build the three necessary pumping stations for this important 
project.
Road Maintenance ($70 million increase)
    Nationally, the BIA and tribes are responsible for more than 24,000 
roads and 770 bridges. Within the Rocky Mountain Region of the Bureau 
of Indian Affairs there is a total of 2,445 miles of roads, of which 
279 miles are on the Fort Peck Reservation. Yet, the entire budget for 
BIA road maintenance is only $27 million.
    This amounts to approximately $708 per mile for road maintenance. 
States and the federal government spend on average $4,000-$5,000 per 
mile on road maintenance. The BIA estimates that $100 million is needed 
to maintain BIA/tribal roads. Increased funding for IRR road 
maintenance is not only the fair thing to do. It is the smart thing to 
do. We all recognize that spending millions of dollars to build roads 
and bridges only to see them fall into disrepair and lose years of 
useful life due to a lack of adequate maintenance is both unwise and 
unsafe. We urge the Subcommittee to increase Road Maintenance funding 
to meet the needs.
                         INDIAN HEALTH SERVICE
    We are very disappointed that the Administration did not request 
any programmatic increases in funding for Indian Health Service 
Programs. As we all know, at the current funding levels the Indian 
Health Service is funded at only 50 percent of need. We strongly 
support the Senate Budget Resolution, which would provide $4.2 billion 
to fully fund the Indian Health Service.
    The Fort Peck Service unit alone needs an increase of $14,665,000 
to update the Unit's present health care system to provide adequate 
health care to our people. Access to quality health care for our people 
is complicated and compromised by the lack of space, lacks of health 
care professionals, harsh weather, remote physical location, and the 
increasing cost of pharmaceuticals. The Fort Peck Service Unit has 
developed a number of initiatives to address these challenges, which 
the Tribes are asking for the Subcommittee's support.
    Below we provide a detailed discussion of these initiatives.
Fetal Alcohol Syndrome Program ($65,000)
    As the Committee knows, Fetal Alcohol Syndrome/Effect is the number 
one preventable birth defect in America. The rate of FAS/FAE in Indian 
communities is far higher than other communities. The impact of this 
preventable defect is forever on a child's life and on our communities. 
More must be done to prevent this terrible epidemic. At Fort Peck we 
have developed a FAS/FAE program to provide training to the communities 
and educational information to the women of our communities. The cost 
of this program is $65,000.
Community Health Outreach ($446,000)
    The Fort Peck Reservation is over 100 miles long and 50 miles wide. 
Many of our people cannot afford to buy gasoline or own a vehicle to 
get to our clinics. The Tribes are proposing two new initiatives to 
address this critical access to care crisis on the Reservation.
    To address the issue of access to care, the Tribes are proposing to 
implement a mobile health care clinic. This would enable trained health 
care providers to reach those who are likely the most in need. This 
clinic would be critical in providing well woman and well-child care, 
as well as treatment of simple complaints. The Tribes propose staffing 
the mobile clinic unit with a Nurse Practitioner. The cost for a mobile 
unit and its staff would be $414,000.
    A part of this community outreach program, the Tribes propose an 
``Ask a Nurse'' initiative. Under this proposed initiative, a nurse 
would be on call from her home on weekends and after hours. The cost of 
this initiative for a one year contract with a nurse is $32,000.
Asthma Program ($60,000)
    The Fort Peck community has an unusually high number of asthmatics. 
The Fort Peck Tribes propose developing an aggressive treatment and 
education program to reach those suffering with asthma, in particular 
our youth. As part of this program, we are proposing to develop a 
``kids'' asthma camp to provide safe environment for our children to 
engage in important physical activity and to learn about asthma. The 
cost of this initiative is $60,000.
Cardiac Rehabilitation Program ($215,000)
    We are very proud of our innovative Cardiac Rehab Program. It is 
the first of its kind in the entire IHS system and has proven to be 
extremely successful. The program is a holistic recovery program, 
focusing on our cardiac patients' diet, exercise, and behavior. This 
ensures that our patients enjoy full recovery from their surgery and a 
quality of life that is better in most instances than what they had 
before surgery. The total cost for this innovative program is $215,000 
annually.
Dental Clinic ($84,700)
    Our present dental care system is painfully inadequate. We have 
more than 1200 children who are in urgent need of the most basic dental 
care. Our elderly population also lacks the most basic dental care, 
including the need for dentures, crowns and bridgework. Studies have 
shown that we could keep 6-8 dentists busy. We request funding for two 
new efforts. The first is for $52,000, which would provide orthodontist 
care to our children. The second is for $32,700 to develop a new 
program to focus on elders' dental health.
Obesity Clinic ($146,000)
    Obesity is a major contributor to diabetes, which is at epidemic 
levels in our community. We propose a new Obesity Clinic, staffed with 
a nurse and a dietician to develop a community wide obesity program to 
combat this problem. We request $146,000 for this new program.
    In conclusion, the Fort Peck IHS Service Unit is trying to make 
access to medical care a very high priority. Through a campaign of 
community education and patient outreach, the quality of care and 
service to the community is being expanded. Funding these initiatives 
is a fiscally responsible method of addressing the health care needs of 
our people.
    We thank the Subcommittee for this opportunity to testify.
                                 ______
                                 
    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians
    As Chairman of the Lac du Flambeau Band of Lake Superior Chippewa 
Indians, located in Wisconsin, I am pleased to submit this written 
testimony which reflects the needs, concerns and issues of the Tribal 
membership arising from the President's fiscal year 2002 Budget.

                            INDIAN EDUCATION
    As we continue our journey into the 21st Century, the education of 
our children and future leaders is very important to the Band. We are 
glad to hear that President Bush is also making education one of his 
top priorities.
    The Band's specific concern is the funding levels associated with 
Higher Education and Johnson O'Malley programs. There has not been an 
increase in the BIA's higher education funding for five years. In the 
last two years, the Band had 115 tribal members, who were not able to 
receive funding for college due to funding shortfalls. To fully support 
our qualified college students, an additional $225,000.00 of funding is 
required.

                       LAW ENFORCEMENT AND COURTS
    The Band is pleased that the Administration has chosen to maintain 
funding for tribal law enforcement programs with the Bureau of Indian 
Affairs. This is a basic need that is currently unmet in most Indian 
communities.
    At Lac du Flambeau we are fortunate to have a police department 
that is able ensure a safe community for our members. For instance in 
2000, the Lac du Flambeau Tribal Police Department logged 28,800 man-
hours answering 4,143 complaints. The 10, member Police Department 
consists of 9 full time officers and 1 administrator responding to 
calls ranging from domestic violence to juvenile cases including 
runaways, burglary, fraud, battery and vandalism. The Lac du Flambeau 
Tribal Police not only responds to tribal complaints but also provides 
services to the non-Indian community as well.
    Currently, we cannot compete with the State of Wisconsin's 
retirement plan. The Band approached the State about having our 
officers participate in their plan, but the State said we could not. 
The problem has escalated to a point where we cannot retain our 
officers even though our hourly wage is on the average of $2.00/hour 
more than the surrounding police departments. The Band requests an 
increase of $263,125.00. Increased funding is needed to ensure that we 
can retain our officers.
    We are pleased that the budget requests an increase for tribal 
courts. Our Lac du Flambeau Tribal Court System includes a Chief Judge, 
2 Associated Judges, Tribal Attorney/Prosecutor, Clerk of Courts, 
Deputy Clerk and 2 Peace Keepers. In fiscal year 2000, our Court System 
had 1,268 cases filed and conducted 1,716 hearings. Cases would range 
from Children and Family cases to on and off reservation conservation/
natural resource violations. Throughout Indian country, tribal courts 
are severally underfunded and yet continue to fulfill a critical role 
in bringing justice to our communities. It is vital that these courts 
start to receive the funding that they need. Thus, the Band 
respectfully requests Congress to increase funding for the BIA Tribal 
Courts Programs.

                           NATURAL RESOURCES
    In past testimony, the Band has emphasized that the natural 
resources of the Lac du Flambeau Band are our most valuable and 
significant asset--apart from our children and Elders. Our natural 
resources provide the people with cultural, spiritual, subsistence, 
social and economic opportunities. The Reservation is located in the 
heart of Wisconsin's tourism and sport-fishing region. Tourism and 
related industries provide livelihoods for Indians and non-Indians 
alike. The land, the water, the air and all the animals and plants that 
live along with us on this land, help make us what we are as a people. 
We need funding to assure that we can fulfill our responsibilities to 
keep these resources clean and available for the generations to come.
Wildlife and Parks
    The Band has a comprehensive Natural Resource Department and 
dedicated staff with considerable expertise in natural resource and 
land management. Our activities include raising fish for stocking, 
conservation law enforcement, collecting data on water and air quality, 
developing well head protection plans, conducting wildlife surveys, and 
administering timber stand improvement projects on the 86,000 acre 
reservation. We urge this Committee to increase the Wildlife and Parks 
budget by $10 million and set aside $200,000 for Lac du Flambeau 
($100,000 for Tribal Fish Hatchery Operations and $100,000 for Tribal 
Management and Development). The Wildlife and Parks budget has not 
increased since 1990. An increase will ensure we can maintain our 
current staff and critical natural resource programs.
Circle of Flight
    The Circle of Flight Program (also known as the Wetlands and 
Waterfowl Management Program) has been dedicated in preserving and 
rehabilitating our Nation's wetlands and waterfowl populations. 
Wetlands are important in providing flood control, clean water and 
recreation. Waterfowl are a very important source of food for tribal 
members and also support hunting opportunities for many up and down the 
Mississippi Flyway. Twenty-three reservations, the Great Lakes Indian 
Fish and Wildlife Commission, 1854 Authority and Fond du Lac Ceded 
Territory, with reservation and ceded territory land base of more than 
61 million acres, have identified $1,009,000.00 in funding needs for 
fiscal year 2002.
Forestry
    Within the 86,000-acre reservation, we have 45,000 acres of 
forested land that supports hunting and gathering opportunities for 
tribal members as well as logging. Proper management of the forest is 
essential to sustain our subsistence lifestyle, but also to provide 
economic growth for the Band. The Forestry Program, consisting of 2 
foresters and 2 technicians, undertakes a broad range of management 
activities including tree planting, prescribed burning, timber road 
design and maintenance, timber sale administration and wildlife 
management. The Forestry Program is funded through Tribal Priority 
Allocation (TPA) within the Bureau of Indian Affairs budget, which has 
been historically under funded. It is difficult for the Forestry 
Program to compete for TPA funds when child welfare, education and HIP 
programs are also competing for the same funds. Basic human needs must 
be met first. To avoid this conflict, we request this Committee to 
earmark $188,000 for the Lac du Flambeau Forestry Program, which has 
not received any new funding since fiscal year 1991.
Tribal Historic Preservation
    The Band is strongly opposed to the proposed $15 million cut in the 
NPS Historical Preservation Fund. A reduction to the fiscal year 2000 
level would mean significant cuts in tribal historic preservation 
programs nationally. Since 2000, 10 more Tribal Historic Preservation 
Offices (THPOS) have been certified. THPOS are already severally 
underfunded. A $15 million cut would be devastating. We urge the 
Subcommittee to provide the full $52.1 million for this program.

                    TRIBAL PRIORITY ALLOCATION (TPA)
    In Lac du Flambeau, for example, many programs such as child 
welfare, courts, education, roads, forestry, land management, HIP and 
etc. are key programs included within TPA. TPA allows the Band to move 
funds from one TPA program to another, in line with the priorities set 
by the Tribe. The TPA program has been insufficiently funded across the 
board, and has not met the needs in Indian country. The President 
requested $750.4 million for Tribal Priority Allocation. The Band 
supports the $17 million increase, but urges the Subcommittee to 
consider additional increases for these vital programs. The Band 
requests an earmark of $75,000 for the Band's Tribal Land Management 
Department. This Department has a vast array of responsibilities 
associated with the administration and management of trust properties 
under the jurisdiction of the Band. We also urge the Subcommittee to 
restore the President's proposed $2 million cut in the BIA's General 
Assistance Program.
    The President's TPA budget also includes $130.2 million for Contact 
Support, which is an increase of $11 million over last year's level. We 
feel this a start but it falls well short of the need since the BIA 
claims that this will only meet up to 88 percent of the total BIA 
contract support needs in Indian Country. We would hope that Congress 
would fully support total funding for Indirect Cost.
            great lakes indian fish and wildlife commission
    The Band supports the Great Lakes Indian Fish and Wildlife 
Commission request of $3.9 million. The Band is a member of the 
Commission, which assists the Band in protecting and implementing its 
treaty-guaranteed hunting, fishing and gathering rights.

                   INDIAN LAND CONSOLIDATION PROJECT
    The Band supports the Land Consolidation Project. In order to 
improve upon the implementation of this Project, we suggest that 
Congress allow tribes to administer the project through a Public Law 
93-638 contract or some other cooperative agreement.

                         INDIAN HEALTH SERVICE
    The Band is very disappointed that the Administration has failed to 
provide any programmatic increases for the Indian Health Service. In 
this regard, the Band strongly supports the Senate version of the 
Budget Resolution which would allocate $4.2 billion to the Indian 
Health Service. This would ensure that the IHS has the resources to 
provide the basic, essential health coverage that is required to meet 
the needs of Indian people. In fiscal year 2000, the Indian Health 
Service only provided 52 percent of the cost required for health care 
for our membership. Again this is unacceptable and we believe this is a 
breach in the federal government's trust responsibility to our people. 
The Lac du Flambeau Band strongly urges Congress to rectify this 
funding shortfall, by adding an increase of $3 million for the Peter 
Christiansen Health Center.
    We are also very concerned with the level of funding provided for 
contract health care. While there continues to be an enormous shortfall 
in the contract health care system, the Administration did not request 
an increase for this key program. Currently, funding for contract 
health care meets less than half of our needs. We are forced to 
undertake a terrible rationing of health care--addressing only 
emergencies. If a child requires an MRI or CT scan, we cannot provide 
these services--unless a life is in imminent danger. At the same time, 
according to IHS, the Administration's Budget will result in more than 
16,000 fewer contract health care outpatient visits than last year. We 
urge the Committee to increase the contract health care budget 
significantly.
                                 ______
                                 
Prepared Statement of the Great Lakes Indian Fish & Wildlife Commission

            GLIFWC'S FISCAL YEAR 2002 APPROPRIATIONS REQUEST
    $3,956,000 Base Funding Level (fiscal year 2001 enacted plus an 
increase of $285,000).--GLIFWC requests an adequate funding base so 
that it can restore and maintain its core biological, enforcement, 
tribal court and public education programs.
    Rationale.--Since 1995, both the Administration and Congress have 
provided a constant funding base. However, the net effect has been a de 
facto funding decrease. Based upon the Consumer Price Index, GLIFWC 
would need nearly $300,000 more today to equal the buying power it had 
in 1995. GLIFWC already has taken a number of steps to cut staff and 
expenditures, but further reductions are not possible without 
significant cuts into its programs.
    Full Funding of Contract Support Costs.--GLIFWC requests that the 
BIA be directed to fully fund its contract support costs.
    Rationale.--Only once since 1995 has the BIA fully funded GLIFWC's 
contract support costs for shortfall of nearly $196,000. For example, 
in fiscal year 2000, GLIFWC had an $86,000 shortfall because the BIA 
provided only 80 percent of contract support funding. This shortfall 
causes enough hardship as it is. Yet, its effect is compounded by the 
lack of certainty throughout the year as to what the final funding 
level will be. Like any organization or business, GLIFWC needs timely 
information to make day-to-day management decisions and to implement 
improvements that increase management efficiency and cut operational 
costs. GLIFWC has worked hard to maintain a low overhead, and 
historically its indirect cost rate has been under 15.25 percent (e.g. 
11.99 percent in fiscal year 2000). This is becoming more difficult 
because GLIFWC does not know what its actual contract support funding 
will be until the fiscal year is nearly, if not already, over.
    Ceded Territory Treaty Rights and GLIFWC's Role.--GLIFWC was 
established in 1984 to assist its eleven Minnesota, Michigan, and 
Wisconsin Chippewa tribal governments in:
  --securing treaty guaranteed rights to hunt, fish, and gather in 
        Chippewa treaty ceded territories; and
  --cooperatively managing and protecting ceded territory natural 
        resources and their habitats.
    GLIFWC implements federal court orders and various 
interjurisdictional agreements related to these rights. It serves as a 
cost efficient mechanism to conserve natural resources, to effectively 
regulate harvests of natural resources shared among treaty signatory 
Tribes, and to develop cooperative partnerships with other government 
agencies, educational institutions, and non-governmental organizations.
    Why GLIFWC's Funding Base Needs to be Increased.--A number of 
factors have eroded GLIFWC's funding base and threaten its programmatic 
capabilities:
    ``Flatline'' Base Funding Appropriations.--As discussed above, 
GLIFWC's BIA base funding has remained constant since 1995, and the 
effect has been a de facto funding decrease.
    Rapidly Increasing Fringe Benefit Rates.--Fringe benefit costs have 
increased nearly $102,000 since 1995. Health insurance costs alone 
increased 27 percent last year and are expected to increase at about 
the same rate for next year.
    Increasing Staff Seniority.--Once the ``new kid on the block,'' 
GLIFWC is now a mature agency. Much of its staff, including all of its 
division heads and lead biologists, have been with GLIFWC for more than 
10 years, some for over 15 years. Consequently, GLIFWC faces about 
$40,000 each year in salary ``seniority step'' increases and associated 
fringe costs. This is in addition to general COLA increases that GLIFWC 
provides only if the BIA's appropriation provides COLA funding.
    Budget Reduction, Funding Diversification, and Other Cost-Saving 
Options Have Been Exhausted.--GLIFWC already has taken a number of 
steps to address its de facto funding decrease. It has: (i) cut staff; 
(ii) reduced the number of fall fish recruitment surveys; (iii) reduced 
funding to tribal courts and registration stations; (iv) postponed 
vehicle and equipment replacement; (v) obtained separate contract 
support funding from the BIA; and (vi) pursued ``soft'' funding from 
non-BIA sources to prevent additional staff cuts and to undertake 
special projects. Further reductions or realignments are not possible 
without significant cuts into core biological, enforcement, and public 
education programs.
    How Increased Base Funding Would Be Used.--The fiscal year 2002 
funding increase would:
    Restore Funds to Programs that Have Been Cut.--$145,000 would be 
used to restore:
  --Fall juvenile walleye recruitment surveys to previous levels.--
        $100,000 to offset the nearly 50 percent reduction in lakes 
        that were surveyed in 1991 (152 lakes) to those that current 
        funding will allow to be surveyed in 2001 (about 80 lakes).
  --Tribal court and registration station funding.--Nearly $30,000 was 
        cut from tribal courts and tribal registration stations in 
        fiscal year 2001.
  --Lake Superior lamprey control and whitefish assessment programs.--
        $10,500 has been cut from these programs over the last 5 years.
  --Predator study and cooperative wild rice enhancement projects.--
        $4,500 has been cut for cooperative projects with state and 
        federal agencies, as well as with non-profit conservation 
        organizations and other partners.
    Establish a Revolving Capital Fund to Replace Ageing Vehicles and 
Field Equipment.--$100,000 would be used to establish a capital fund 
that would be used each year to replace old vehicles and equipment. For 
example, the Biologists' truck fleet consists of one 1979, one 1990, 
one 1991, five 1994, and two 1995 models. Also, GLIFWC's wardens patrol 
with five 1985 model boats, four 1988 model All Terrain Vehicles, and 
eight 1990-91 model snowmobiles. These vehicles and equipment are 
becoming increasingly more costly to maintain and simply are wearing 
out.
    Meet Increased Seniority ``Step'' Salary and Fringe Costs.--$40,000 
would be used to meet the average annual non-COLA ``seniority step'' 
salary increases and associated increased fringe costs.
    Benefits From Increased Base Funding.--The increased funding base 
will enable GLIFWC to restore and maintain its programs, with the 
benefits of:
    Remaining a constructive, stabilizing natural resource management 
and public safety institution.--Over the years, GLIFWC has become a 
recognized and valued partner in natural resource management, in 
emergency services networks, and in providing accurate information to 
the public. Because of its institutional experience and staff 
expertise, GLIFWC provides continuity and stability in interagency 
relationships and among its member tribes, and contributes to social 
stability in the ceded territory in the context of treaty rights 
issues.
    Retaining an Experienced Professional Staff.--Since the early days 
of the treaty rights issues, GLIFWC has retained a solid core of 
biologists, biological services field staff, enforcement officers, and 
public information specialists. In many instances, GLIFWC staff 
experience matches or exceeds that of their counterparts in other 
agencies when it comes to treaty rights issues and to ceded territory 
natural resource management and enforcement issues.
    Maintaining cooperative, cost-effective partnerships.--GLIFWC has 
built partnerships with:
  --Other government agencies, such as state Departments of Natural 
        Resources, U.S. Fish and Wildlife Service, USDA-Forest Service, 
        USDA-Natural Resource Conservation Service, Great Lakes Fish 
        Commission, U.S. Coast Guard, Environmental Protection Agency, 
        Agency for Toxic Substances and Diseases Registry, Canadian 
        federal and provincial governments, and local county and 
        municipal governments;
  --Schools and Universities, such as the University of Wisconsin-
        Madison, University of Wisconsin-Superior, Northland College, 
        University of Minnesota, and Lac Courte Oreilles Ojibwe 
        Community College; and
  --Non-Governmental organizations and community groups, such as Ducks 
        Unlimited, the Sharp-Tail Grouse Society, the Natural Resources 
        Foundation, the Nature Conservancy, and local lake 
        associations.
    Through these partnerships, the parties have:
  --Identified mutual natural resource concerns, and implemented 
        conservation and enhancement projects (e.g. wild rice 
        restoration, exotic species control projects, and the 
        development and implementation of the Strategic Great Lakes 
        Fishery Management Plan and its related lake trout restoration 
        and sea lamprey control projects);
  --Provided accurate information/data to counter social misconceptions 
        about tribal treaty harvests and the status of ceded territory 
        natural resource populations (e.g. joint fishery assessment 
        activities and jointly prepared reports);
  --Maximized each partner's financial resources and avoided 
        duplication of effort and costs (e.g. coordinating annual 
        fishery assessment schedules, and sharing personnel and 
        equipment to conduct fishery assessments);
  --Achieved public benefits that no one partner could have achieved 
        alone (e.g. waterfowl habitat restoration and improvement 
        projects);
  --Contributed scientific research and data regarding natural 
        resources and public health (e.g. furbearer/predator research, 
        and fish consumption/human health studies and other fish 
        contaminant research, such as that regarding mercury in fish); 
        and
  --Engendered cooperation rather than competition (e.g. cooperative 
        law enforcement and emergency response activities, such as 
        joint training sessions, mutual aid emergency services 
        arrangements, and cross-credential agreements).
                                 ______
                                 
    Prepared Statement of the Paucatuck Eastern Pequot Tribal Nation
    This statement is submitted on behalf of the Paucatuck Eastern 
Pequot Tribal Nation, North Stonington, CT, with respect to fiscal year 
2002 appropriations for the Bureau of Indian Affairs. Specifically, we 
wish to urge the Subcommittee's favorable consideration of increased 
funding in fiscal year 2002 for the Branch of Acknowledgment and 
Research (BAR). We ask that funding be increased from $900,000 in 
fiscal year 2001 to a level sufficient to provide BAR with at least 
three full research teams.
    The 150-member Paucatuck Eastern Pequot Tribe has a 254-acre 
reservation in North Stonington, CT, which was established in 1683 and 
is known as the Lantern Hill Reservation. Historically, however, the 
Tribe occupied and controlled a much broader land area in southeastern 
Connecticut. The Tribe and our reservation have been continuously 
administered by either the Colony or the State of Connecticut. While we 
are a state-recognized Tribe, and have been recognized by Connecticut 
since it became state, we are not yet federally recognized. We have 
been known by a number of names: Stonington Pequots, North Stonington 
Pequots, and Paucatuck Pequot, as well as the name we currently use, 
Paucatuck Eastern Pequot Tribe. We have had a series of leaders who 
have been recognized as our chiefs by the State of Connecticut and 
other New England tribes. All of the current members of the Paucatuck 
Eastern Pequot Tribe descend from three individuals who were identified 
as Indians on the North Stonington Reservation in the 19th century.
    As this Subcommittee knows, in 1978, an administrative process for 
groups to petition the federal government to be acknowledged as an 
Indian tribe was established within the Department of the Interior. 
Members of our Tribe have been working to achieve federal recognition 
since the 1970s, gathering information and documentation about our 
Tribe in order to present our case. As is required under the 
regulations, the Paucatuck Eastern Pequot Tribe sent a letter of intent 
to submit a petition to the Branch of Acknowledgment and Research (BAR) 
in 1989. We submitted an extensively documented petition in 1994 and 
submitted additional supplemental documentation in 1996. All of the 
documentation we submitted presents evidence to prove to the BAR's 
satisfaction that our Tribe meets each of seven mandatory criteria 
required to be met in order to be recognized. This material includes 
historical, anthropological and genealogical data; newspaper and other 
articles written over decades which talk about the Paucatuck Eastern 
Pequot; oral histories of tribal members; information about the 
Paucatuck Eastern Pequot's tribal council meetings and membership 
criteria; descriptions of tribal activities and events, and issues in 
which Paucatuck tribal leaders have been active both historically and 
in this century; and other material.
    On April 2, 1998, the petition of the Paucatuck Eastern Pequot 
Tribe was placed on ``active consideration.'' On March 24 of last year, 
the Assistant Secretary for Indian Affairs signed a positive Proposed 
Finding, recommending that the United States affirm that a government-
to-government relationship exists between the federal government and 
our Tribe. We are currently in a comment period, during which we as 
well as interested parties may comment on the BAR's analysis of our 
case as set forth in the Proposed Finding. While our initial positive 
Proposed Finding was a hugely significant event for the Tribe, we know 
that the process is not yet over, and may continue for several more 
years until we finally achieve federal recognition.
    Going through the administrative process for federal recognition is 
both extremely expensive and lengthy for petitioning groups. We do 
recognize the seriousness of this government-to-government relationship 
and its accompanying rights, benefits and responsibilities. However, 
from our experience and that of others, it is also clear that the BAR 
staff--which must review and analyze literally tens of thousands of 
pages of documentation about each petitioner in fulfilling the 
acknowledgment functions of that office, not to mention additional 
research responsibilities assigned to the office by and for the 
Department--is trying to conduct a challenging task with inadequate 
staff and resources. BAR and the Department have been criticized for 
the fact that over the past several years, the BAR has issued about one 
Proposed Finding or Final Determination on a petitioning group per 
year. Add to this slow pace the fact that the BAR office is faced with 
an overwhelming backlog of pending petitions. As of last November, BAR 
had 14 petitions under ``active consideration,'' or on which BAR staff 
is actively working. Further along in the process were 10 Proposed 
Findings, and several Final Determinations to which the staff were 
required to respond. Eleven petitioners have submitted all the required 
documentation, and are waiting for BAR staff teams (historian, 
anthropologist and genealogist) to become available to review them 
under ``active consideration.'' On top of this, there are more than 50 
more petitioning groups which have submitted some documentation to the 
BAR and are in the process of submitting additional information, and 
more than 100 other groups who have expressed interest in submitting 
the necessary documentation to prove they meet the criteria for 
recognition, but have not yet done so.
    One of this Tribe's great frustrations in the acknowledgment 
process, even under ``active consideration,'' when we knew the BAR 
staff was reviewing our documentation, drafting their technical reports 
and conducting peer reviews on their recommendations, was that there 
was no or minimal communication from the BAR. There is little or no 
opportunity for dialogue between the petitioner and the BAR, even to 
get a status report on where BAR is in the process of their review, or 
when certain materials which, in our case, we had requested under the 
Freedom of Information Act, might be made available to us. When we have 
raised this concern with the BAR, staff have told us they are too 
shorthanded to respond to petitioner inquiries. We learned that when 
the BAR receives requests for documents under FOIA and similar 
inquiries, staff must stop the research they are conducting in order to 
stand at the Xerox machine or review and redact documents before they 
can be copied.
    For the Paucatuck Eastern Pequot Tribe, this issue has come 
dramatically to a head in the last few weeks with recent developments 
concerning our petition.
    In mid-January of this year, the State of Connecticut and the Towns 
of North Stonington, Ledyard and Preston, CT, filed suit in the federal 
district court for Connecticut against the Department of the Interior 
(Connecticut v. Interior). Among other things, the plaintiffs are 
seeking the unprecedented remedy of having the Bureau of Indian Affairs 
set aside our Proposed Finding, and of forcing the Paucatuck Eastern 
Pequots back to the start of the acknowledgment process.
    We sought to intervene in the litigation. On March 27, U.S. 
District Court for the District of Connecticut Chief Judge Covello 
issued an order acknowledging the right of the Paucatuck Eastern Pequot 
Tribe and the Eastern Pequot Tribe to intervene as a matter of right 
based on the implications of the case for the rights of the tribe.
    Then on March 30, Judge Covello entered a scheduling order in the 
case, which sets out a schedule for the BAR, as well as for us as a 
petitioner. The scheduling order calls on the BIA to respond fully to 
all remaining document requests of the parties to the litigation no 
later than May 4. The State and the Towns must comply with all FOIA 
requests filed by the Tribes under State law on that date as well. By 
August 4, all interested parties and the petitioners must submit to the 
BIA their comments on the March 24, 2000, Proposed Findings. By 
September 4, the petitioners must submit their responses to the BIA. By 
October 4, the BIA must commence consideration of all of the evidence 
before it on the petitions, and by December 4 it must publish its Final 
Determinations in the Federal Register. Judge Covello has retained 
jurisdiction over the processing of the petitions, and will do so until 
the process has been completed.
    In addition to Judge Covello's order, it is our understanding that 
the federal courts have directed that BAR comply with a schedule for 
the processing of one other petition, and that a schedule is being 
negotiated for a fourth petitioner. It is unfortunate that when the 
process takes such a long time, the courts must get involved to provide 
a time frame and, ultimately, a decision about a petitioner's tribal 
status. Given that BAR has basically issued one decision per year, we 
are not sure how BAR could comply with court directives in several 
recognition cases without a significant increase in staff and 
resources.
    We are aware that last year, several members of Congress urged that 
additional resources be made available to the BIA for BAR in order to 
facilitate the processing of recognition determinations. While funding 
for additional staff will not make the recognition process less 
controversial or be a ``magical solution,'' it will surely aid in the 
processing of petitions within the timelines set by the regulations.
    On behalf of the Paucatuck Eastern Pequot Tribal Nation, thank you 
for this opportunity to submit this statement on fiscal year 2002 
appropriations for the Branch of Acknowledgment and Research.
                                 ______
                                 
   Prepared Statement of the Mohegan Tribe of Indians of Connecticut
    Mr. Chairman, my name is Mark Brown and on behalf of my tribe, the 
Mohegan Tribe of Indians, I thank you for this opportunity to provide 
written comment on the President's budget request for the Indian Health 
Service (``IHS'') and the Bureau of Indian Affairs (``BIA''). In 
particular, I wish to comment briefly on one matter that surfaced 
several months ago that may have had a negative impact on public 
opinion of our Tribe.

                               BACKGROUND
    In the early 1600's, the Mohegan Tribe held a large portion of what 
is now eastern Connecticut. The size of our territory plummeted as a 
result of wars with some European settlers and some neighboring tribes 
and the abject failure of the State of Connecticut and the United 
States to enforce the Federal Trade and Intercourse Act of 1790. 
Despite the powerful forces arrayed against us over the next several 
centuries, the Mohegan Tribe was able to hold on to a small tract of 
tribal land around Mohegan Hill in Uncasville, Connecticut. It is on 
this site that the Mohegan Church, still standing today, was first 
built in 1831. Also in 1831, Mohegans opened a museum which today 
continues to operate as the oldest tribally-run Indian museum in 
America.
    In 1994, after more than 16 years of tireless efforts to persuade 
the United States that our Tribe had an historical and continuous 
presence as a tribal community in eastern Connecticut, we obtained 
Federal recognition and a formal declaration by the United States that 
it has a government-to-government relationship with the Mohegan Tribe.
    Today, the Mohegan Tribe provides governmental services through 
programs or departments in the following areas: comprehensive social 
services, fire fighting, emergency medical services, law enforcement, 
health and building inspections, civil regulatory authority, housing, 
planning and economic development, council of resources, youth 
services, education, environmental health, finance, cultural resources, 
human resources and community outreach.
    In 1996, our Tribe opened the Mohegan Sun Resort, our tribally-
managed casino in rural southeastern Connecticut.
    Since the day we opened the Mohegan Sun and began to generate 
tribal revenue, we have voluntarily returned substantial grant funds to 
Federal agencies. Our Tribe, like other tribes, has a valid claim to 
receive these funds due to our relationship with the United States and 
agreements involving our loss of land. But we have begun to return 
Federal funds because the governmental revenues we are deriving from 
gaming promise to soon enable our Tribe to be self-sufficient, meeting 
the needs that were addressed in the past only by Federal grants.
    The Mohegan Tribe has been concerned that our own action to return 
funds would be misunderstood to be an abandonment of our special 
relationship with the United States, or that it would be misused to 
pressure other tribes to follow our path. Accordingly, we have stated 
repeatedly, in our return of funds agreements with BIA and IHS, that 
any decision to return funds is one that should be made only by a 
tribal government for itself, in its own time and in its own way. It 
would violate fundamental principles of sovereignty for such a decision 
to be imposed upon a tribal government by another government.
    Tribal gaming has opened a new future to us. The Mohegan Tribe now 
has, for the first time in generations, the revenue to operate as a 
full-fledged government. It is perhaps axiomatic that a government that 
does not use its power tends to lose it. It is equally true that 
without sufficient revenue, a government has little ability to use its 
power.
    Our Tribe has in the last five years devoted considerable sums to 
creating the social and physical infrastructure that for so long was 
denied our people and our land. For example, we have spent $35 million 
for road improvements.

                            RETURN OF FUNDS
    The Mohegan Tribe has exercised its right to return funds to both 
the BIA and the IHS, as well as to several other Federal agencies. 
Thanks to the language inserted by this Subcommittee in the annual 
appropriations act for the past two years, it is made expressly clear 
that our return of BIA funds in no way may be seen as jeopardizing or 
diminishing our government to government relationship with the United 
States, nor the trust obligations of the United States towards the 
Mohegan Tribe. The Subcommittee may wish to consider broadening the 
language to cover funds returned to the IHS or any other Federal 
agency.
    The Mohegan Tribe has insisted that the funds we return to BIA and 
IHS be reallocated directly to other tribes in the eastern United 
States for their use. We have specifically placed this as a condition 
upon our return of funds, because the lessons of history have taught us 
that, without such restrictions, the Federal bureaucracy may divert the 
money to matters of questionable, and at best, only indirect benefit to 
Native Americans.
    Given all this, we were alarmed two months ago to read accounts in 
several national newspapers alleging that the Mohegan Tribe had 
returned its Federal appropriations to the BIA in order to pay the 
costs of moving a BIA office from northern Virginia to Nashville. 
Nothing could be further from the truth If the BIA were to use our 
returned funds in this manner, it would be a patent violation by the 
BIA of our agreement. Our Tribal Council approved the return of these 
funds only on the condition that the funds would be sent directly to 
other federally-recognized tribes in the eastern United States and 
devoted to services for needy Indians.
    The Mohegan Tribe would highly value any assistance the 
Subcommittee might give us in correcting the misunderstandings caused 
by these erroneous news accounts. We also seek your continuing 
vigilance in assuring that our return of BIA and IHS funds appropriated 
for our benefit in no way jeopardizes or diminishes the trust 
responsibility owed to us by the United States nor the special 
government-to-government relationship we share.
    Finally, we urge you to work with the Administration and your 
colleagues on Capitol Hill to dramatically expand the amount of federal 
funding devoted to tribal programs.
    On behalf of the Mohegan Tribe of Indians, I thank you for this 
opportunity to provide testimony relating to the fiscal year 2002 
budget request.
                                 ______
                                 
  Prepared Statement of the Ute Indian Tribe of the Uintah and Ouray 
                              Reservation

                              INTRODUCTION
    My name is O. Roland McCook, Sr. I am Chairman of the Tribal 
Business Committee of the Ute Indian Tribe of the Uintah and Ouray 
Reservation in Utah. I am providing this written testimony in support 
of the Department of the Interior's proposed appropriation toward 
settlement of water right claims held by the Ute Indian Tribe. The 
appropriation of $24.728 million is included within the Bureau of 
Indian Affairs' proposed budget for ``Indian Land and Water Claim 
Settlements.'' It is in partial fulfillment of the obligations and 
promises made by the United States to the Ute Tribe in 1965, and 
reconfirmed by Congress in 1992. Those obligations and promises are set 
forth in the Ute Indian Rights Settlement, Title V, Public Law 102-575, 
106 Stat. 4600, 4650 (Oct. 30, 1992). The purpose of the Settlement is, 
in part, to settle long-outstanding claims held by the Tribe relating 
to the failure to construct features of the Central Utah Project 
(``CUP'') contemplated in the September 20, 1965 Agreement between the 
Tribe, the United States and the Central Utah Water Conservancy 
District (``CUWCD'').
    The Ute Indian Tribe is pleased with the opportunity to present its 
views to this distinguished Subcommittee. The Tribe looks forward to 
working with the members to assure passage of the proposed 
appropriation, which will provide a critical step in completing the 
funding of the Tribe's Settlement; funding that is vital to the 
economic development of the Tribe, its members and the surrounding 
community.

                          THE UTE INDIAN TRIBE
    The Ute Indian Tribe is made-up of three bands, the Uintah, 
Whiteriver and Uncompahgre. The Reservation is made up of two separate 
reservations: the Uintah Valley Reserve established in 1861; and the 
Uncompahgre Reserve established in 1882. Together they encompass nearly 
4.5 million acres of Indian trust, fee and federal land. Approximately 
1.4 million acres of Reservation land are held in trust for the Tribe.
    Approximately 3,300 tribal members live on the Reservation. They 
suffer from the highest unemployment rate in the entire Uintah Basin. 
While the Reservation is blessed with oil and gas resources, employment 
opportunities are limited. Other employment opportunities are 
proscribed by the lack of additional economic development. The Tribe 
and a few tribal members do engage in agricultural enterprises that 
provide limited economic returns. Fish and wildlife resources are 
extremely important to the Tribe and could, if properly developed and 
managed, offer greater economic opportunities.
    As I previously noted, in 1965 the Tribe, United States and CUWCD 
entered into what is commonly referred to as the Deferral Agreement. In 
that Agreement, the Tribe deferred the development of over 15,000 acres 
of tribal land, thereby making available up to 60,000 acre-feet of 
water annually to assure a sufficient water supply for the Bonneville 
Unit of the CUP. That Unit is the principal component of Utah's water 
supply future. It is one of the most complex and expensive 
transmountain diversion projects ever built by the Bureau of 
Reclamation. The project diverts water, including the 60,000 acre-feet 
made available by the Tribe, from the streams in the Uinta Basin and 
transports the water westward to Salt Lake and Utah counties. In 
exchange for its substantial and essential contribution, the Tribe was 
to receive a substitute water supply from projects proposed as the 
final stages of the CUP. Those projects were never built and the 
replacement water never delivered. If the Settlement is fully funded no 
later that January 1, 2005, the Bonneville Unit will be able to 
continue to divert a full water supply to the greater Salt Lake City 
area. If not, the Tribe can proceed with the development of its land 
and exercise its water rights.

                    THE UTE INDIAN RIGHTS SETTLEMENT
    The Settlement was enacted in October, 1992. The facts surrounding 
this Settlement make it distinct from other Indian water settlements. 
In 1965, the United States entered the Deferral Agreement, a 
contractual obligation with the Tribe which it failed to fulfill. The 
Settlement represents substitute consideration for the substitute water 
supply promised in 1965, not enticement to enter a settlement of the 
Tribe's water right claims. Below is a brief summary of the status of 
the appropriations previously made by Congress as authorized in the 
Settlement, and the development the Tribe has undertaken with those 
funds.
    Section 504--Farm Assistance Programs.--Congress has fully funded 
the Tribe's farming programs, found in section 504 of the Settlement. 
The Tribe has utilized those funds to: (a) construct a tribal feedlot, 
which has been completed and is now in full operation; (b) provide 
assistance to over 100 small farm and ranch operations owned and 
operated by tribal members; (c) improve the water delivery system in 
the Uintah Indian Irrigation Project by piping open ditches and 
installing sprinklers; and, (d) establish a tribal farming co-op which 
provides equipment and on-farm labor to small tribal farmers. The 
Tribe's agricultural operation employs full-time tribal members.
    Section 505--Stream Habitat, Environmental and Recreational 
Improvements.--Section 505, which provides funds for various stream and 
habitat improvement projects, has been partially funded. The Tribe has 
used a portion of these funds to establish an Aquatics Department that 
has actively undertaken stream and fishery habitat improvements and has 
developed extensive in-house data collection and technical review 
capabilities. The Tribe also has implemented several big game programs 
designed to enhance and properly manage the Tribe's wildlife resources. 
The Fish and Wildlife Department, including the Aquatics Department, 
employs approximately 35 full or part-time tribal members in activities 
directly related to programs funded under section 505. The remaining 
amounts approved under Section 505 are not included in the proposed 
fiscal year 2002 appropriation.
    Section 506--Economic Development Programs.--Appropriations for the 
``Tribal Development Fund'', the largest and most important component 
of the Settlement, began in fiscal year 1997 and have continued through 
fiscal year 2001 in annual amounts of $24-$25 million. The entire 
$24.728 million proposed for the Tribe's fiscal year 2002 appropriation 
is for the Tribal Development Fund. The purpose of the Fund and 
economic projects undertaken by the Tribe are described more fully 
below.

                      THE TRIBAL DEVELOPMENT FUND
    Section 506 of the Settlement establishes a Tribal Development Fund 
``to be appropriated [in] a total amount of $125,000, 000 to be paid in 
three annual and equal installments. . . .'' (Due to inflation factors 
statutorily applied to the 1992 authorization, the authorized amount 
has increased over the past six years to approximately $145 million.) 
In fiscal years 1997-2001 appropriations for the Development Fund did 
not meet the statutory requirement of equal one-third installments. 
Instead, Congress reduced the appropriations and adjusted future 
appropriations in accordance with section 506 (b). Subsection (b) 
provides that an adjustment will be made by the Secretary to represent 
the interest income ``that would have been earned on any unpaid 
amounts'' if Congress failed to fully fund the Development Fund in 
three annual and equal installments. As a result, the fiscal year 1998-
2001 appropriations included approximately $13.685 million in 
penalties. The fiscal year 2002 includes a $2.763 million penalty.
    The Settlement limits the Tribe to spending only the interest 
derived from the Section 506 Development Fund on its economic projects. 
The principal amounts appropriated by Congress are invested by the 
Tribe through the Department of the Interior's Office of Trust Fund 
Management. Following receipt of the fiscal year 1998 appropriation, 
the Tribe retained two independent financial consultants and began a 
broad review and analysis of potential on-Reservation economic 
development programs. As a result of that process, the Tribe has 
completed the construction of a much needed full service grocery store, 
centrally located on the Reservation, and two truck stops/mini marts. 
All three are now in successful operation and employ approximately 
tribal members. The Tribe has completed the environmental review 
process and is no constructing a water bottling facility which should 
be online by May, 2001. A rural business and re-lending company, Ute 
Finance Company, is operating and offering loans and financial 
assistance to local entrepreneurs. Just this month, the Tribe opened 
Uintah River Technology, a data entry and processing business that 
already has six contracts in place. The Tribe invested $2.3 million in 
the business in partnership with Oracle Corporation and Affiliated 
Computer Services. At present, URT employs more than 30 people and 
could train and employ up to 300 people, most tribal members, within a 
year.
    As these projects demonstrate, the Tribe has been extraordinarily 
successful during the first four years of its economic development 
program in establishing much needed on-Reservation services on the 
Reservation as well as obtaining a much needed position in the 
technology industry. There are many other economic opportunities 
available on and off the Reservation which will allow the Tribe to 
fulfill its comprehensive, long-term economic development plan. The 
Sec. 506 Economic Development Fund is the cornerstone of that 
development, and the fiscal year 2002 appropriation must be fully 
funded to ensure that those opportunities are realized.

              THE PROPOSED FISCAL YEAR 2002 APPROPRIATION
    Congress clearly recognized and understood in 1992, that the 
Development Fund is the critical component of the Tribe's efforts to 
secure economic self-sufficiency in the future. That process cannot be 
fully implemented until funding is complete. The proposed appropriation 
of $24.728 million is a reduction from prior years and cannot be 
reduced any further. Any further reduction would seriously threaten 
Congress' ability to meet the January 1, 2005 deadline (fiscal year 
2004) for full funding of this Settlement.
    There are fiscally related reasons for supporting the full $24.728 
million appropriation recommended in the budget. The United States is 
required to pay an annual penalty for its failure to fully fund the 
Development Fund in three equal annual installments and the inflation 
factor further increases the amounts owed to the Tribe until the 
Settlement is fully funded. It makes good long-term (and short term) 
sense to make the full recommended appropriation because failing to do 
so costs the United States additional money. The fiscal year 1997-2001 
funding levels were less than required under the Settlement. As a 
result, those appropriations have included $13.685 million in penalty 
payments to the Tribe. Any greater reduction than is already proposed 
in the fiscal year 2002 appropriation results in a increased penalty in 
that and subsequent years. Finally, funding at any amount less than the 
proposed fiscal year 2002 appropriation level may well assure that the 
January 1, 2005, deadline established in the Tribe's Settlement will 
not be met. That failure potentially carries with it severe financial 
repercussions as well as the potential loss of substantial quantities 
of water to the greater Salt Lake City area.
    The proposed $24.728 million appropriation falls well short of what 
was clearly anticipated and promised by Congress in 1992. It does not 
amount to a full one-third of the overall authorization and it does not 
replace the shortfalls from previous years. At the proposed rate, the 
Tribe's Settlement will not be fully funded until fiscal year 2004, 12 
years after its enactment. Until then, the Tribe can initiate only 
limited economic development programs that do not come close to that 
envisioned by Congress and that are essential to the future of the 
Tribe, its members and the surrounding community. Despite its 
shortcomings, the proposed fiscal year 2002 appropriation will provide 
the Tribe with another essential piece in completing its economic 
development plan and the Tribe fully supports any requests this 
Subcommittee's support of the proposed appropriation of $24.728 
million.

                               CONCLUSION
    On behalf of the Tribal Business Committee of the Ute Indian Tribe, 
I would like to express my gratitude to the Subcommittee for this 
opportunity to present the Tribe's statement in support of the proposed 
appropriation of $24.728 million for the Tribe's Settlement. The Tribe 
and the United States have worked together for many years to realize 
the economic benefits promised when the Tribe provided access to water 
and assured the completion of one of the West's grandest water 
development projects--the Central Utah Project. We are very close to 
completing what has been a long and tumultuous process. The proposed 
appropriation for fiscal year 2002, is a critical step in bringing this 
matter to a close, and fulfilling the obligations undertaken by the 
United States in 1965, and reaffirmed by Congress in 1992.
    Thank you.
                                 ______
                                 
      Prepared Statement of the National Indian Gaming Commission
    Mr. Chairman, Mr. Vice-Chairman and members of the Committee, thank 
you for the opportunity to present testimony on the National Indian 
Gaming Commission's (NIGC) fiscal year 2002 appropriations request. I 
believe that we are entering a new era in the area of tribal 
governmental gaming and the regulation of the industry. As the industry 
expands, it is critical that the NIGC have the resources to provide 
proper oversight of the $10 billion and growing Indian gaming industry.
    The Commission seeks an appropriation of $2 million as authorized 
by the Indian Gaming Regulatory Act of 1988, 25 U.S.C. 2718.
    The NIGC is an independent federal regulatory agency of the United 
States established pursuant to the Indian Gaming Regulatory Act of 
1988, 25 U.S.C. 2701 et seq., to provide regulatory oversight of gaming 
activities conducted on Indian lands. It is associated with the U.S. 
Department of the Interior for administrative purposes. The Commission 
is comprised of a chairman and two commissioners, each of whom serve 
three-year terms.
    The Commission's mission is to regulate gaming activities on Indian 
lands for the purpose of shielding Indian tribes from organized crime 
and other corrupting influences; ensuring that Indian tribes are the 
primary beneficiaries of gaming revenues; and assuring that gaming is 
conducted fairly and honestly by both operators and players. To effect 
these goals, the Commission is authorized to conduct investigations; 
undertake enforcement actions, including the issuance of notices of 
violation, assessment of civil fines, and/or issuance of closure 
orders; conduct background investigations; conduct audits; review and 
approve tribal gaming ordinances and management contracts; and issue 
such regulations as are necessary to meet its responsibilities under 
the Act.
    The Commission became operational in 1993, operating on a $3 
million start-up budget until 1998, when Congress increased its 
authority to assess fees on gaming operations up to a limit of $8 
million. Currently, the Commission is funded entirely through fees 
assessed on gross revenues of tribal gaming operations.
    The additional resources did not become available for use by the 
Commission, however, until 1999, due to litigation. Once available, the 
Commission initiated a systematic expansion of its operations. Since 
then, the Commission has established five regional offices: Portland, 
Oregon; Sacramento, California; Phoenix, Arizona; St. Paul, Minnesota; 
and Tulsa, Oklahoma and increased its staff to 72 FTE. It also 
established an Audits Division and an Office of Self-Regulation.

             RAPID TRANSFORMATION OF THE REGULATED INDUSTRY
    Since passage of IGRA, the Indian gaming industry has undergone a 
rapid transformation. In 1988, the industry was comprised of a handful 
of small operations producing approximately $500 million in annual 
revenues. Since that time, it has expanded to more than 300 operations 
producing more than $10 billion in 2000. With the passage of 
Proposition 1A in California in March 2000, another dramatic surge in 
the growth of the industry is underway.
    Of the 109 federally recognized tribes in California, 62 have 
signed compacts and 74 have approved gaming ordinances. The California 
compact allows each compacting tribe to operate up to 2 facilities. The 
potential number of operations totals 148. The maximum level would be 
218 or more than half of the total number of operations currently 
operating nationwide. The following table provides a snapshot of gaming 
in California and a conservative estimate of what the Commission 
anticipates in the near couple of years:
  --2000--39 gaming operations
  --2001--40 open; 8 under construction and due to open
  --2002--48 open; 14 under construction
  --2003--62 open
    Industry experts project that by 2005, California Indian gaming 
revenues alone will exceed $6 billion, more than half of the $10 
billion in revenues produced today nationwide.
        increased demands on commission operations due to growth
    The Commission has increasingly come to realize that the unexpected 
growth of the California Indian gaming industry is of such magnitude 
that it is straining the Commission's resources. Moreover, the 
California gaming compact has strict timeframes in place, creating an 
urgency that the Commission cannot accommodate on its current budget.
    Gaming start-ups are the most resource intensive phase of activity 
for the Commission because all operational components are affected. The 
California expansion involves a substantial number of start-ups as well 
as tribal expansion into Class III gaming activities. Accordingly, 
numerous tribes must enact or amend their gaming ordinances; execute 
management contracts; and comply with the National Environmental Policy 
Act; all of which must be reviewed and acted upon by the Commission. 
The Commission is also responsible for conducting criminal and 
financial background investigations, making suitability determinations, 
and processing fingerprints for gaming operation employees. Moreover, 
the Commission's Office of General Counsel is responsible for 
determining the land status of each proposed gaming operation. We have 
also invested significant time and effort in training tribal regulators 
who will share regulatory responsibilities over these new operations.
    Given this spike in the workload, the Commission requires 
additional resources to prevent backlogs and to process actions 
requested on tribal ordinances, management contracts, and background 
and criminal history checks in fiscal year 2002.
    The Commission is also aware that even though the start-up workload 
will diminish over the next couple of years, the increased size of 
industry is permanent. The Commission must take steps now to strengthen 
its organizational capacity in order to ensure the adequacy of its 
regulatory oversight. It is particularly important at this stage for 
the Commission to strengthen its Audit Division given the explosive 
growth of the industry. Audits are very time and resource intensive, 
but the use of compliance and investigative audits is the most 
important and effective means for ensuring the integrity of the 
industry.

             PLAN TO ADEQUATELY RESPOND TO INDUSTRY GROWTH
    Based on independent studies of cash intensive industries, the 
Commission believes that it should be validating the internal control 
systems of 20 percent of Tier C (over $10 million) gaming operations on 
an annual basis and, in conjunction therewith, validate at least 10 
percent of gross gaming revenue conducted by this group. In regards to 
Tier A and B (less than $3 million & $3-10 million respectively) 
properties, the objective would be to examine 10 percent of those 
gaming operations and 5 percent of their gross gaming revenue. 
Considering the impending growth over the next few years, satisfaction 
of these objectives would involve the conduct of about forty compliance 
audits annually or about four times what the Commission is now able to 
accomplish.
    To shore up this aspect of its operation, the Commission needs the 
authorized $2 million appropriation to modestly increase the staffing 
of its Audit Division and to otherwise alleviate the strain on the 
Commission's resources. The appropriation would NOT allow for any 
significant expansion of the Commission, rather, it would keep the 
Commission operational at its current level of staffing and would allow 
for possibly 3 additional FTE.
    With 20 new operations opening within such a short amount of time 
and more expected over the next several years, the Commission's 
Sacramento office is stretched very thin, and will find it increasingly 
difficult to meet its oversight goals as soon as next year. Again, 
start-up demands are particularly intense, requiring a high level of 
technical assistance and on-site activity. Maintaining the capacity to 
provide advice and technical assistance at this stage of gaming is key 
to minimizing future non-compliance problems. Higher levels of 
voluntary compliance reduce the need for costly enforcement actions, 
which in turn reduces the litigation potential.
    Another area of critical concern is the environmental compliance. 
Until recently, NEPA compliance was a relatively minor aspect of the 
process. On the average, the Commission handled about 5 NEPA reviews 
per year, and almost always as cooperating rather than lead agency. 
Currently, the Commission is handling twenty-one NEPA submissions, 
twelve of which are from California. Of the total, the Commission is 
the lead agency on twelve. The following chart illustrates the 
Commission's NEPA workload for fiscal year 2001 and 2002:

                                                                   Chart
Management Contracts, with a NEPA Component, Currently under 
  Review:
    NIGC Lead Agency..............................................    12
                        =================================================================
                        ________________________________________________
    NIGC Cooperating Agency.......................................     9
    Projects Located in CA........................................    12
                                                                  ______
      Total Number of Current Projects............................    21
                        =================================================================
                        ________________________________________________
Anticipated Submissions of Management Contracts with a NEPA 
  Component, in 2002:
    NIGC Lead Agency..............................................     7
                        =================================================================
                        ________________________________________________
    NIGC Cooperating Agency.......................................     3
    Projects Located in CA........................................     7
                                                                  ______
      Total New Projects..........................................    10
    Carryover work from 2001......................................    11
                                                                  ______
      Total workload 2002.........................................    21

    At present, the Commission lacks the internal capacity to 
handle all requisite aspects of NEPA compliance or sufficient 
resources to secure the needed expertise outside the agency. 
Inadequate capacity in this area will increase the Commission's 
vulnerability to litigation that will cause additional 
depletion of the Commission's limited resources.
    Over the past two years, the Commission has worked very 
hard to improve its institutional infrastructure. As part of 
its planning for the 2000 expansion, the Commission undertook a 
management review process in 1999. Several areas needed 
immediate attention and several more were to be completed in 
phases. A new Y2K compliant central computer network with 
sufficient capacity to support the computing needs of the 
entire organization has been installed. Antiquated desktop 
computers have been replaced with reliable new hardware 
equipped with up-to-date software programs and the obsolete 
database has been replaced. The next step is to upgrade the 
central records and document management systems, and install a 
new financial management system to ensure continuing 
accountability. These important final phases are in jeopardy 
given the present resource limitations.
    The Commission's request for a $2 million appropriation 
will allow the agency to function for another year at its 
current size and capacity. This will also provide the 
Commission with the time to assess the industry and accurately 
project the Commission's future resource needs.
    I urge your support for the National Indian Gaming 
Commission's request, and I look forward to working with you to 
strengthen the National Indian Gaming Commission's ability to 
oversee this growing industry. Thank you.
                                ------                                

  Prepared Statement of Dibe Yazhi Habitiin Olta, Inc.--Borrego Pass 
                                 School
    The Dibe Yazhi Habitiin Olta, Inc., also known as Borrego Pass 
School is a Public Law 100-297 Tribally Controlled Grant School to 
provide educational services in grades Kindergarten to eight from 
Littlewater, Casamero Lake and neighboring communities. The Governing 
Board wish to highlight several critical areas of the nation's budget 
which we hope will receive favorable increased funding in fiscal year 
2002: Administrative Cost Grants, Student Transportation, Indian 
Student Equalization Program Formula Funds, Educational Programs 
(Special Education, Gifted Education, Bilingual Education), Replacement 
School Construction, and Facility Management.
    There is a specific promise and obligation on the part of the 
Federal Government to provide education to the Navajo people in the 
Treaty of 1868. Though the language of that treaty provision is 
considerably out of date, the obligation continues through a series of 
laws enacted by the United States Government. During the last half of 
the 20th Century, the Navajo attitude toward education underwent 
significant changes. Navajo people gradually began seeing education as 
the path to the future instead of the method of the dominant culture to 
steal the souls of the Navajo children. While the Navajo people do not 
wish to lose their culture as a people in the process, the dominate 
society's educational process is now viewed as having a value and has 
long been a top priority of the Navajo people.
    The Fiscal Year 2001 Budget Request for BIA Education.--The 
Governing Board of Borrego Pass School strongly supports the 
President's Budget Request with certain exceptions as noted. The 
testimony statement will identify certain programs and line items which 
Borrego Pass School views as particularly beneficial as well as some 
areas where the amounts requested appear inadequate thereby increase 
levels are noted.

                       ADMINISTRATIVE COST GRANTS
    Tribally controlled Grant and Contract schools are facing critical 
shortfalls in their administrative budgets, they are operating at less 
than 80 percent of the funding necessary for quality management and 
maintenance of a school. These schools receive their administration 
funds through Administrative Cost Grants (ACG), a formula-based method 
created by Congress to calculate the amount of funds that should be 
provided for the administrative and indirect cost expenses incurred in 
the operation of the Grant and Contract schools programs--similar to 
``contract support'' costs provided to non-Grant and Contract school 
contractors. The ACG formula was designed as a compromise, a minimum 
calculation of the administrative cost necessary for quality management 
of tribally controlled schools. When 100 percent of these costs are not 
funded, these schools are set-up for failure.
    The impacts of these shortfalls are far from abstract. Tribally 
controlled schools have been forced to make reduction-in-force that 
cost them vital, well-trained administrative staff. The remaining staff 
struggles under the stress of being overloaded with the work of 
multiple tasks and responsibilities. Some schools have had to convert 
their administrative staff to a 10-month employment status for the 
school year, leaving them ill-prepared to close out the administrative 
work of previous school year and to prepare for the coming school year 
and annual audit. Reduced funding jeopardizes the ability of schools to 
comply with the internal controls needed for quality fiscal and 
personnel management. For example due to the shortage of funding, 
Borrego Pass School (BPS) has been unable to hire a Human Resource 
Personnel, or Compensatory Program Coordinator.
    The BPS, Governing Board supports the increased funding requested 
by the President; however since this line item is forward funded and it 
will be inadequate to fully fund the Administrative Cost Grant formula 
at the 100 percent level. Grant and Contract schools that are receiving 
only 80 percent will receive an even lower percentage of what the 
formula generates. This, the Board feels undermines the Federal 
initiative to encourage self-determination. While this formula is not 
technically a needs based formula, the amount calculated becomes an 
amount the schools budget for and count on when planning their school 
budgets. The Governing Board estimates that 100 percent funding for 
this line item would be at least $55 million.
    In the recent months the current tribally controlled schools have 
being informed that the Bureau has viewed the administrative cost 
grant, based on the issue concerning the conversion of additional BIA 
schools to Grants and Contract schools. In order to accomplish the 
bureau has set aside resource funds for these conversions out of the 
ACG funds. This would consequently reduce the ACG allocation 
drastically, if the schools were funded at 80 percent.
    Therefore, the Borrego Pass School, Governing Board ask that 
schools be awarded 100 percent at $55 Million, not pro rated amounts, 
set aside funds separately for conversion schools, and exclude the 
recent Interior Appropriation measure for capping Administrative Cost 
Grant funding.

                         STUDENT TRANSPORTATION
    Borrego Pass School is located at the base of a 7,500 feet mountain 
pass near the crest of the Continental Divide in the mid western part 
of New Mexico. The school is a small rural K-8 educational institution 
with students spread out among five Navajo Chapter Communities. The 
students travel an average of 43 miles to school on dirt/unimproved 
roads, compounding the problem during inclement weather. These 
treacherous conditions place a great deal of wear and tear on our 
school buses and other school vehicles. The closest bus maintenance and 
service location is a 130 mile round trip for minor services, while it 
requires 175 miles for major repair services.
    The level of funding requested will ensure that the program will 
not be able to operate without subsides from other parts of the school 
budget. The level of funding for this program has been very 
disappointing over the past several years. A minor increase will not 
handle the extra costs associated with maintenance and repair, 
including the increase of fuel costs.
    The New Mexico State Student Transportation mileage rates are 
higher than the BIA generated mileage rates. In the current school 
year, the Bureau funded transportation rate is $2.30 per mile, far 
short of the nationwide average of $2.92 that was reported to public 
schools. The fiscal year 2001 budget included less than a $200,000 
increase in funding for student transportation. The sharp increases in 
fuel costs over the past year have made increased funding for student 
transportation absolutely necessity. With wear and tear, including 
repair cost well above average due to our remote isolation and GSA 
rental and mileage rates escalating, our student transportation costs 
have gone beyond what the program generates.
    The BPS Governing Board does not agree with the current mileage 
rate used to generate transportations funds to transport students to 
and from home to receive their education. If BIA transportation 
reimbursement rates continue to lag behind actual costs for student 
transportation in fiscal year 2002, the school will be forced to 
continue to use a distressing percentage of our academic funds to 
supplement our inflexible transportation costs. This shortchanges our 
students and forces the school to stretch our extremely limited 
education dollars even further.
    Therefore, the Borrego Pass School Governing Board ask that 
Congress increase the BIA budget for student transportation to a level 
that can at least support a reimbursement rate of $3.00 per mile, which 
is estimated would require approximately $44 million.

               INDIAN STUDENT EQUALIZATION PROGRAM (ISEP)
    The President is requesting an increase in this line item, which 
pays for the basic school program. This should cover the salary cost 
increases and the increase in the number of students, which is expected 
by SY 2002; however, it will do little toward enhancing the school 
educational programs. While a great deal is being done within the 
budget, this amount of increase for the basic school program is still 
disappointing to those who must oversee and operate schools at this 
level of funding. These funds are sometimes used to supplement under 
funded programs such as Student Transportation and Facility Management. 
A level of $4,000 per Weighted Student Unit (WSU) would result if an 
appropriation of $362 million and would greatly enhance the basic 
school programs.
    In fiscal year 2002, Congress took a step in the right direction, 
agreeing to a desperately needed $14 million increase in funding for 
ISEP formula funds, that resulted in a final funding level of $330.8 
million. But even with this increase, the Board estimates based on BIA 
projections that the resulting WSU would be approximately $3,650 for 
school year 2001-02. This level of basic educational funding is still 
woefully inadequate when compared with similar expenditures for 
students in any other school system in the U.S. Unless additional ISEP 
funding is provided, the school will continue to face a large turnover 
of qualified and experienced teachers, decreased instruction hours, 
teacher layoffs, and teacher salary freezes, including incomplete 
staffing.
    The Department of Defense (DOD) teachers pay was increased as an 
incentive for DOD schools to recruit and retain quality teachers at 
isolated, remote locations, and continues to increase approximately 
three percent per year. However, the salaries for Grant and Contract 
schools are still well below what is generated by DOD schools.
    Therefore, the Borrego Pass School Governing Board ask that 
Congress appropriate at least $360 million for the ISEP Formula program 
in fiscal year 2002, which the Board estimates would yield a WSU of 
approximately $4,000 per weighted student unit. By funding ISEP at this 
level Congress could come closer to offering educational opportunities 
to Native American students that are more comparable to those enjoyed 
by other children in this country.

                          EDUCATIONAL PROGRAMS
    The Borrego Pass School Governing Board praises the President for 
requesting additional funding for Educational programs needed to 
provide for: (1) ISEP, (2) Family and Child Education (FACE) and (3) 
Therapeutic Residential Model sites. However, additional resources are 
needed to assure the Bureau attains its mission goal of providing 
quality educational opportunities from early childhood through life in 
accordance with the Tribal needs for cultural and economic well being 
in keeping with the wide diversity of Tribes and Alaska Native villages 
as distinct cultural and governmental entities. The President's long-
term goal is to improve the succession students to each educational 
level from early childhood to job placement by the end of School Year 
2004-2005.
    Since 1988, Bureau funded schools have made significant progress in 
reaching accreditation. When school operation funding does not meet the 
enrollment increase, accreditation rates decrease and the quality of 
education programs decline. Other performance indicators, such as 
retention rates and dropout rates are directly related to the quality 
of education being provided. Some additional factors that contribute to 
the increased costs of providing quality educational services include 
the following:
    (1) Bilingual Education: the education needs of Indian youth are 
greater given the poverty level on Indian reservations as well as the 
tribal cultural and linguistic diversity.
    (2) Technology: with schools located in geographically dispersed 
and predominantly in remote rural areas. The needs for technology are 
far higher than those of their urban counterparts to maximize learning 
opportunity and to ensure the general well being of Indian children.
    (3) Gifted Education: with the schools geographical disparity the 
educational needs for the gifted Indian youth is greater due to the 
fact of limited educational resources and opportunities.
    (4) Special Education services: funding for special education and 
related services needs to be funded and an adequate level to provide 
specialized student transportation, occupational/physical therapy, 
counseling services, audiology and psychological services.
    (5) Grade Level Expansion: the Navajo Nation student population is 
young and is growing according to the 2000 census. Bureau funded 
schools annually feel the impact of this population trend and increase. 
However, Congress has continued to keep costs down in Bureau school 
system by imposing a moratorium on all new and expansion of grade 
structure in current Bureau funded school.
    Therefore, the Borrego Pass School Governing Board ask that 
Congress appropriate adequate funding for these Educational Programs in 
fiscal year 2002, which would allow schools to provide quality 
educational opportunities for students. The funding for these programs 
Congress could come closer to offering educational opportunities to 
Native American students that are more comparable to those enjoyed by 
other children in this country.

                    FACILITIES/QUARTERS CONSTRUCTION
    The BPS Governing Board commend Congress for funding construction 
of the first six schools included on the BIA's school construction 
priority list in the fiscal year 2001 budget. In fiscal year 2002 the 
Board hopes that Congress and the Administration will work together to 
fund the remainder of the top priority list for this year, and 
additional 13 schools. This budget request finally proposed funding 
which is commensurate with the enormous backlog, which exists. For 
years the Governing Boards have attempted to bring the extreme problems 
related to school facilities to the attention of the Administration and 
the Congress, and we are thankful for the funding level given in fiscal 
year 2001.
    Even with this increase schools such as BPS will still need 
additional funding to address the student population increase for grade 
level expansion (Early Childhood and 9-12 grades), and additional 
professional staff is needed to provide quality instructional services 
and adequate housing needs. Because of the isolation factor, housing 
accommodations is a priority, therefore, becomes a major issues in 
maintaining and retaining full-time staff on a yearly basis. 
Inclusively our school is located in a remote area in which many for 
our staff have to frequently travel some distances to purchase and care 
for their personal needs. The school currently needs an additional 12 
units to accommodate our current staffing pattern.
    Therefore, the Borrego Pass School Governing Board ask that 
Congress continue appropriation at a level adequate to meet the 
construction need of all Bureau funded schools. Facilities Operation 
and Maintenance funding at 100 percent and to eliminate the current 
constraint of 25 percent. The President's request of $802 Million to 
fund Facilities Improvement and Repair for the backlog of FI & R 
projects is fully supported by the BPS Governing Board.

                               CONCLUSION
    The Dibe Yazhi Habitiin Olta, Inc. Governing Board thanks you for 
your support for Indian Education programs. It is hoped that this 
testimony will prove useful to your efforts to craft a fair and 
reasonable budget for BIA education programs. The Board would be 
pleased to provide you with additional information about our school and 
our priorities and concerns, and looks forward to working with you over 
the coming years to assure the every Native American Indian child 
receives the education they deserve.
                                 ______
                                 
        Prepared Statement of the Center for Marine Conservation
    The Center for Marine Conservation (CMC) is pleased to share its 
views regarding the programs in the Department of the Interior's budget 
that affect marine resources and requests that this statement be 
included in the hearing record for the fiscal year 2002 Interior and 
Related Agencies appropriations bill.
    Through science-based advocacy, research, and public education, CMC 
informs, inspires, and empowers people to protect ocean ecosystems and 
conserve the global abundance and diversity of marine wildlife. CMC is 
the largest and oldest nonprofit conservation organization dedicated 
solely to protecting the marine environment. Headquartered in 
Washington DC, CMC has regional offices in Alaska, California, Florida, 
and Maine.

                       FISH AND WILDLIFE SERVICE
Endangered species listings
    CMC supports the Administration's request of $8.476 million for ESA 
listings, an increase of $2.135 million over fiscal year 2001 and 
respectfully requests the subcommittee specifically identify funds to 
list the Northern sea otter under the Endangered Species Act. Over the 
last eight years, the Northern sea otter has declined seventy percent. 
As few as 6,000 sea otters remain in the entire Aleutian chain in 
Alaska, down from 50,000 to 100,000 in the 1980s. Consequently, on 
November 9, 2000, U.S. Fish and Wildlife Service designated the 
Northern sea otter as a candidate species for listing under the 
Endangered Species Act, prompting candidate conservation measures to 
alleviate threats to this species. Despite the significant population 
decline, no funding is currently directed to the listing or the 
recovery of the Northern sea otter.
Endangered species consultation
    CMC respectfully requests that the committee reject the 
Administration's proposed $849,000 cut in Section 7 consultations. 
Funding for this program, which is already chronically under funded, is 
vital for the timely completion of these consultations, as required by 
law. Applicants for federal permits, as well as federal agencies, must 
have a Section 7 consultation completed before moving forward with 
projects that may affect listed species. We respectfully request $50 
million, at a minimum, in fiscal year 2002 ($7.25 million above the 
fiscal year 2001) to prevent needless delays in consulation caused by 
lack of Fish and Wildlife Service funds, which result in higher costs 
to private citizens, the federal government, and ultimately the 
taxpayer.
Endangered Species Recovery
    CMC is extremely concerned about the nearly 10 percent proposed cut 
in the ESA recovery line itme by the Administration. Only through 
recovery can the purpose of the ESA be achieved, resulting in not only 
in environmental, but also economic, benefits through fewer restrictive 
regulations. We urge the committee to reject this cut and to restore 
funding for ESA recovery activities to at least at the fiscal year 2001 
level of $59.835 million. In addition, CMC respectfully requests the 
committee provide adequate resources for the recovery of sea turtles 
and the southern sea otter.
            Sea Turtles
    All species of sea turtle species found in U.S. waters, including 
the Pacific Leatherback, Hawksbill, Kemp's Ridley, and Pacific Green 
are listed as endangered or threatened under the Endangered Species 
Act. Adequate funding for their survival is critical. In order to help 
bring these species back from the brink of extinction, their habitat 
must be protected, including coral reefs, fragile beaches, and other 
coastal ecosystems. The U.S. is an international leader in efforts to 
protect sea turtles which last year took another major step forward 
with the Senate ratification of the Inter-American Convention for the 
Protection and Conservation of Sea Turtles.
    While we greatly appreciate this committee's support in past years 
for sea turtle conservation, additional funds are critical in fiscal 
year 2002, especially for international efforts by Fish and Wildlife 
Service. We recommend $486,000 in fiscal year 2002 for domestic sea 
turtle conservation, the same amount appropriated in fiscal year 2001, 
and respectfully request an additional $486,000 for international sea 
turtle conservation, up from $275,000 in fiscal year 2001, so that much 
needed international efforts can, at a minimum, match domestic efforts.
            Southern Sea Otters
    The southern sea otter was exploited to near extinction and listed 
as threatened under the Endangered Species Act in 1977. Although the 
population increased from the mid-1980's to mid-1990's, it has 
experienced a net decline in recent years. The primary known threats to 
the southern sea otter include habitat degradation, entanglement in 
fishing gear, disease, and shooting. Because of its low numbers and 
limited range, this population is especially vulnerable to oil spills 
along the central California coast. A single spill could cause 
catastrophic declines posing the risk of extinction.
    To save the southern sea otter, its numbers and range must 
increase. Funds are needed to continue population surveys and to 
conduct investigations of food web interactions and effects of possible 
food limitations. Funds are also needed to assess the health of the 
population, particularly the causes and effects of disease, as well as 
to research the sources and levels of contaminants in sea otters and 
their habitat and how these might be contributing to the decline. 
Finally, it is important to provide sufficient resources to implement 
management and contingency/response plans to reduce the risk to these 
otters from oil spills. CMC respectfully requests that the committee 
approve $11 million in fiscal year 2002 to finalize and implement the 
recently-revised southern sea otter recovery plan, including $3 million 
of dedicated funding for the implementation of the priority activities 
in the revised recovery plan.
National Wildlife Refuges
    While CMC supports the Administration's proposed increase for 
National Wildlife Refuges in fiscal year 2002, we urge the committee to 
reject the proposed $2 million cut in Land and Water Conservation Funds 
for continued acquisition of vital sea turtle nesting habitat in east 
central Florida for the Archie Carr National Wildlife Refuge.
    The Carr Refuge is the most significant nesting area for endangered 
green turtles in North America and one of the world's most important 
nesting sites for threatened loggerheads, with 4,000-6,000 turtles 
nesting in the Refuge each year. Sea turtles face an uphill battle, but 
the continued survival of these ancient marine animals depends on safe, 
undisturbed habitat. These lands also provide habitat for other 
imperiled species and those of special concern, such as the Roseate 
spoonbill, Florida scrub jay and the butterfly orchid. Finally, 
acquisition of undeveloped beaches has economic and social values for 
the public.
    During the last decade, local and state governments have 
contributed over $80 million for land acquisition in the Refuge. In 
comparison, the total federal contribution has been $13 million. 
Furthermore, less than half the lands targeted for acquisition have 
been acquired. If Congress defers acquisition, we are concerned that 
critical parcels will soon be forever lost due to coastal development. 
We urge you to continuing supporting this important initiative by 
appropriating, at a minimum, $2 million in fiscal year 2002, consistent 
with fiscal year 2001.
Law Enforcement
    CMC also urges the Appropriations Committee to renew funding of $1 
million for manatee law enforcement in fiscal year 2002 in the 
Department of the Interior budget. Heightened law enforcement efforts 
are necessary to protected the endangered Florida manatees and curtail 
motor-boat caused mortalities. Watercraft mortalities represent the 
single largest identifiable cause of death for Florida manatees each 
year.
    The last three years have generated the highest numbers of 
motorboat-related deaths on record. Early in 2000, manatee deaths were 
on a pace to surpass the previous year's record. Thanks in part to 
stepped up enforcement of manatee protection speed zones and law 
officer presence, manatee boating deaths plateaued and finished 2000 
below the 1999 record-setting boat-related mortality.
    We greatly appreciate the $1 million provided by this committee in 
fiscal year 2001 for Manatee Law Enforcement and respectfully request a 
renewed commitment of $1 million for this activity in fiscal year 2002.

                        U.S. GEOLOGICAL SERVICE
National Water Quality Assessment Program
    Over the past 50 years, nitrogen and phosphorus inputs into U.S. 
waters from human activities on land have increased up to 20 times 
their previous levels, and the rate of increase is accelerating. This 
has had a number of adverse impacts on our coastal water quality. Algae 
blooms are depleting oxygen levels, killing fish and other aquatic 
organisms. Dead zones are increasing in size and quantity. The 
overgrowth of algae from excess nutrients is also killing coral reefs 
and seagrass beds, and is leading to increased outbreaks of red tides 
and Pfiesteria piscicida. These harmful blooms produce powerful 
neurotoxins that cause severe health effects on humans, kill marine 
wildlife, and have a wide range of damaging economic effects on the 
fishing and tourist industries, increase health care costs, and lower 
property values.
    At the present time we cannot effectively assess the extent of our 
water quality problems or the effectiveness of our programs to address 
these problems because only 32 percent of our estuaries and 5 percent 
of our ocean waters are monitored. We need more, not less, water 
quality monitoring and assessment, such as the watershed approach 
adopted in the USGS National Water Quality Assessment Program (NWQAP). 
The NWQAP assesses conditions, determines trends, and investigates 
human and natural influences on water quality and watersheds in more 
than 50 major river, stream and ground-water systems. It provides an 
integrated system for assessing watersheds by focusing on chemical 
concentrations of pollutants, the physical conditions of water bodies, 
and the biological status of aquatic ecosystems. Data from the NWQAP is 
absolutely essential if we are to make progress in reducing the impacts 
of excess nutrients in the marine environment. We urge the committee to 
reject this crippling 31 percent cut proposed by the Administration and 
at least fund the program at current levels ($94.8 million) in fiscal 
year 2002.
Coral Reefs
    Coral reefs are rightly known as ``the rainforests of the sea,'' 
and are among the most complex and diverse ecosystems on earth. Coral 
reefs provide habitat to almost one third of marine fish species, serve 
as barriers to protect coastal areas, and are important to the tourist 
industries of many States and territories. Coral reefs are also 
extremely fragile and are facing serious threats from overutilizaiton 
and pollution around the world, making the work of the Coral Reef Task 
Force and the Department of the Interior extremely important and worthy 
of the Administration's funding requests.
    We respectfully request the Committee to provide the Department of 
the Interior with $10 million for its coral reef activities. 
Specifically we support: the $2.7 million requested for the Fish and 
Wildlife Service to increase protection, monitoring and site 
acquisitions; the $3.6 million requested for the National Park Service 
(same as fiscal year 2001 levels) to improve management of special reef 
areas; the $3.2 million requested by the U.S. Geological Survey for 
research and mapping of coral reefs; and the $500,000 requested by the 
Office of Insular Affairs (same as fiscal year 2001 levels) to support 
territory coral reef initiatives.
    In addition, we respectfully request adequate resources for the 
National Park Service and the U.S. Fish and Wildlife Service to 
implement their additional responsibilities in the new coral reef 
monuments in the U.S. Virgin Islands, and refuges in the Pacific, 
including the Palmayra and Kingman National Wildlife Refuges.
Everglades Restoration
    With the passage of the Water Resources Development Act of 2000, 
Congress authorized the implementation of the Comprehensive Everglades 
Restoration Plan (CERP). In addition to authorizing specific 
restoration projects, WRDA 2000 approved the CERP as the overall 
blueprint for the 30-year restoration process. It is essential that 
annual appropriations be sufficient to ensure that the restoration 
process moves forward on a schedule that is consistent with the 
timeframes set forth in the CERP. In addition, it is critical that 
previously authorized restoration efforts that are important to the 
success of CERP be adequately funded, and that the Department of 
Interior have the resources to participate appropriately in all 
restoration efforts. Upon review of the proposed CERP budget for the 
Department of Interior, and after comparing the proposed budget to the 
original CERP implementation schedule and schedules set out for other 
restoration efforts, we respecfully request that the subcommittee 
consider the following:
  --CERP land acquisition funding should be increased by approximately 
        $57 million.
  --The budget must continue adequate funding for previously authorized 
        programs whose performance assumptions have been included in 
        the CERP.
    --It is crucial to the successful and timely implementation of CERP 
            that all components of the Modified Water Deliveries 
            project be adequately funded and completed on schedule in 
            2003.
    --It is essential that the preferred alternative, as indicated in 
            the Record of Decision for the 8.5 Square Mile Area, 6D, be 
            implemented expeditiously.
  --The President's proposed budget would cut the overall Park Service 
        Everglades science budget by more than a third (from $6,194,000 
        in fiscal year 2001 to $4,000,000 in fiscal year 2002). In 
        order for the Park Service is to contribute appropriately to 
        the critical scientific and research aspects of Everglades 
        restoration, CMC recommends that the science budget be funded 
        at the fiscal year 2001 level.
    Thank you for considering the funding needs of these programs. They 
are of the utmost importance to the stewardship of the nation's living 
marine resources. We greatly appreciate your support for these programs 
in the past and look forward to continued, responsible funding for 
these programs in fiscal year 2002.
                                 ______
                                 
         Prepared Statement of the Alaska Inter-Tribal Council
    On behalf of the Alaska Inter-Tribal Council (AITC), I am pleased 
to submit this written testimony on the fiscal year 2002 Appropriations 
for Interior Department funding of the Indian Tribal Justice Act 
(Public Law 103-176) and Tribal Courts (under the Tribal Priority 
Allocations).
    The AITC is a statewide organization comprised of 176 federally 
recognized member Tribes dedicated to promoting, supporting and 
advocating for the powers and rights of Alaska Tribal governments 
including the development and perpetuation of tribal justice systems, 
the exercise of judicial authority and the administration of justice.

                      INTERIOR DEPARTMENT FUNDING
Indian Tribal Justice Act and Tribal Court Funding
    (1) +$58.4 million. Full Funding for Indian Tribal Justice Act.--
AITC strongly supports full funding ($58.4 million) for the Indian 
Tribal Justice Act (Public Law 103-176). On December 21, 2000, the 
106th Congress re-affirmed the Congressional commitment to provide this 
increased funding for tribal justice systems when it re-authorized the 
Indian Tribal Justice Act for seven more years of funding at a level of 
$58.4 million per year (see Public Law 106-559, section 202). AITC 
strongly supports FULL FUNDING of the Indian Tribal Justice Act as 
promised in 1993. AITC supports funding at a much higher rate since the 
number of tribal courts and their needs have substantially increased 
since the Act was made law in 1993--more than eight years ago.
    (2) Tribal Courts--at least $15 million (under the Tribal Priority 
Allocations Account).--AITC strongly supports increased funding for 
Tribal Courts to a level of at least $15 million under the Tribal 
Priority Allocations (TPA). This minimal increase represents only a 
minimal first step towards meeting the vital needs of tribal justice 
systems. It is important to note that funding has steadily decreased 
since the passage of the Indian Tribal Justice Act. Moreover, Alaska 
Native Tribes have historically never accessed BIA funds for tribal 
courts or law enforcement. The needs (as recognized by Congress in the 
enactment of Public Law 103-176 and re-affirmed with the enactment of 
Public Law 106-559), however, have only been compounded with the 
passage of time, the increase in tribal courts, the increase of 
caseloads, population growth, and the rise in rates of domestic and 
criminal disputes in Alaska Native and Native American communities.
    Alaska Native and Native American tribal courts must deal with a 
wide range of difficult criminal and civil justice problems on a daily 
basis, including the following:
  --While the crime rate, especially the violent crime rate, has been 
        declining nationally, it has increased substantially in tribal 
        communities nationwide. Tribal court systems are grossly under-
        funded to deal with these criminal justice problems.
  --Number/complexity of tribal civil caseloads have also been rapidly 
        expanding.
  --Congress recognized this need when it enacted the Indian Tribal 
        Justice Act--specifically finding that ``tribal justice systems 
        are an essential part of tribal governments and serve as 
        important forums for ensuring public health and safety and the 
        political integrity of tribal governments'' and ``tribal 
        justice systems are inadequately funded, and the lack of 
        adequate funding impairs their operation.''
  --While the Indian Tribal Justice Act promised $58.4 million per year 
        in additional funding for tribal court systems starting in 
        fiscal year 1994, tribal courts have yet to see ANY funding 
        under this Act.
  --Since Congress enacted the Indian Tribal Justice Act, the needs of 
        tribal court systems have continued to increase, but there has 
        been no corresponding increase in funding for tribal court 
        systems. In fact, the Bureau of Indian Affairs funding for 
        tribal courts has actually decreased substantially since the 
        Indian Tribal Justice Act was enacted in 1993. Moreover, Alaska 
        Native Tribes have historically never had access to BIA funds 
        for tribal courts or law enforcement.
  --The 106th Congress re-affirmed the Congressional commitment to 
        provide this increased funding for tribal justice systems when 
        it re-authorized the Indian Tribal Justice Act in December 2000 
        for seven more years of funding at a level of $58.4 million per 
        year (see Public Law 106-559, section 202).
    As Attorney General Janet Reno stated in testimony before the 
Senate Indian Affairs Committee on, it is vital to ``better enable 
Indian tribal courts, historically under-funded and under-staffed, to 
meet the demands of burgeoning case loads.'' The Attorney General 
indicated that the ``lack of a system of graduated sanctions through 
tribal court, that stems from severely inadequate tribal justice 
support, directly contributes to the escalation of adult and juvenile 
criminal activity.''
    Since time immemorial Alaska Native Tribes have maintained peace, 
law and order in their communities through the exercise of indigenous 
juridical, social and political authority. Today, Alaska Natives 
continue to administer justice through their modern day Tribal 
governments, councils and courts. Over 100 of the 229 federally 
recognized Tribes located in Alaska are actively establishing or 
operating single tribal courts systems, inter-tribal/regional and/or 
appellate courts. This constitutes a significant amount of tribal court 
activity nationwide since almost half (229) of the Tribes in the U.S. 
are located in Alaska. The vast majority of the approximately 100 
tribal court systems in Alaska function in isolated rural communities. 
Moreover, most Alaska Tribal courts are intervening in domestic 
relations and civil/family law matters involving child protection, 
adoptions, child custody and juvenile delinquency.
    These tribal justice systems face many of the same difficulties 
faced by other tribes in the lower 48 states and other isolated rural 
communities. These problems are greatly magnified by the many other 
complex problems that are unique to Tribes. For instance, tribal 
justice systems are faced with complex jurisdictional relationships 
with federal and state criminal justice systems, inadequate law 
enforcement, great distance from the few existing resources, lack of 
detention staff and facilities, lack of sentencing or disposition 
alternatives, lack of access to advanced technology, lack of substance 
abuse testing and treatment options, etc. It should also be noted that 
in most tribal justice systems, 80-90 percent of the cases are criminal 
cases and 90 percent of these cases involve the difficult problems of 
alcohol and/or substance abuse.

                      IMPORTANCE OF TRIBAL COURTS
    ``Tribal courts constitute the frontline tribal institutions that 
most often confront issues of self-determination and sovereignty, while 
at the same time they are charged with providing reliable and equitable 
adjudication in the many and increasingly diverse matters that come 
before them. In addition, they constitute a key tribal entity for 
advancing and protecting the rights of self-government. . . . Tribal 
courts are of growing significance in Indian Country.'' (Frank 
Pommersheim, Braid of Feathers: American Indian Law and Contemporary 
Tribal Law 57 (1995). Tribal justice systems are the primary and most 
appropriate institutions for maintaining order in tribal communities. 
Attorney General Reno acknowledged that, ``With adequate resources and 
training, they are most capable of crime prevention and peacekeeping'' 
(A Federal Commitment to Tribal Justice Systems, 79 Judicature No. 7, 
November/December 1995, p. 114). These courts, however, while striving 
to address these complex issues with far fewer financial resources than 
their federal and state counterparts must also ``strive to respond 
competently and creatively to federal and state pressures coming from 
the outside, and to cultural values and imperatives from within.'' 
(Pommersheim, ``Tribal Courts: Providers of Justice and Protectors of 
Sovereignty,'' 79 Judicature No. 7, November/December 1995, p. 111).

              INADEQUATE FUNDING OF TRIBAL JUSTICE SYSTEMS
    There is no question that tribal justice systems are, and 
historically have been, underfunded. The 1991 United States Civil 
Rights Commission found that ``the failure of the United States 
Government to provide proper funding for the operation of tribal 
judicial systems . . . has continued for more than 20 years.'' The 
Indian Civil Rights Act: A Report of the United States Civil Rights 
Commission, June 1991, p. 71. The Commission also noted that 
``[f]unding for tribal judicial systems may be further hampered in some 
instances by the pressures of competing priorities within a tribe.'' 
Moreover, they opined that ``If the United States Government is to live 
up to its trust obligations, it must assist tribal governments in their 
development . . .'' Almost ten years ago, the Commission ``strongly 
support[ed] the pending and proposed congressional initiatives to 
authorize funding of tribal courts in an amount equal to that of an 
equivalent State court'' and was ``hopeful that this increased funding 
[would] allow for much needed increases in salaries for judges, the 
retention of law clerks for tribal judges, the funding of public 
defenders/defense counsel, and increased access to legal authorities.''
    As indicated by the Civil Rights Commission, the critical financial 
need of tribal courts has been well documented and ultimately led to 
the passage of the Indian Tribal Justice Act, 25 U.S.C. Sec. 3601 et 
seq. (the ``Act''). Congress found that ``[T]ribal justice systems are 
an essential part of tribal governments and serve as important forums 
for ensuring public health, safety and the political integrity of 
tribal governments.'' 25 U.S.C. Sec. 3601(5). Affirming the findings of 
the Civil Rights Commission, Congress further found that ``tribal 
justice systems are inadequately funded, and the lack of adequate 
funding impairs their operation.'' 25 U.S.C. Sec. 3601(8). In order to 
remedy this lack of funding, the Act authorized appropriation base 
funding support for tribal justice systems in the amount of $50,000,000 
for each of the fiscal years 1994 through 2000. 25 U.S.C. Sec. 3621(b). 
An additional $500,000 for each of the same fiscal years was authorized 
to be appropriated for the administration of Tribal Judicial 
Conferences for the ``development, enhancement and continuing operation 
of tribal justice systems . . .'' 25 U.S.C. Sec. 3614.
    Eight years after the Act was enacted, how much funding has been 
appropriated? None. Not a single dollar was even requested under the 
Act for fiscal years 1994, 1995, 1997, 1998 or 1999. Only minimal funds 
were requested for fiscal year 1996 and 2000. Yet, even these minimal 
funds were deleted. Even more appalling than the lack of appropriations 
under the Act is the fact that BIA funding for tribal courts has 
actually substantially decreased following the enactment of the Indian 
Tribal Justice Act in 1993. In December 2000, Congress re-affirmed its 
commitment to funding of the Indian Tribal Justice Act by re-
authorizing the Act for seven more years of funding (see Public Law 
106-559, section 202). Now is the time to follow through on this long 
promised funding and provide actual funding under the Indian Tribal 
Justice Act!

                               CONCLUSION
    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in tribal communities. They are the 
keystone to tribal economic development and self-sufficiency. Any 
serious attempt to fulfill the federal government's trust 
responsibility to Indian Nations must include increased funding and 
enhancement of tribal justice systems.
    We welcome the opportunity to comment on the Interior Department's 
Budget Request for the Indian Tribal Justice Act and Tribal Courts 
(under the Tribal Priority Allocations). Thank you very much.
                                 ______
                                 
           Prepared Statement of the American Hiking Society
    Mr. Chairman and members of the subcommittee, I represent American 
Hiking Society's more than 10,000 members and the 500,000 members of 
our 150 affiliated organizations. American Hiking Society is a non-
profit recreation-based conservation organization dedicated to 
establishing, protecting, and maintaining footpaths in America. We urge 
you to support funding increases that will protect trails and 
recreation resources for the benefit of the nation.
    Our testimony focuses on two points. First, federal land managers 
are struggling to keep up with the dramatic increase in trail use in 
America. The solution is not to merely appropriate more money to the 
National Park Service (NPS), Bureau of Land Management (BLM) and USDA 
Forest Service, but to couple targeted increased funding with increased 
on-the-ground trails coordinators and volunteer coordinators.
    Second, American Hiking urges you not to permanently authorize the 
Recreational Fee Demonstration Program (Fee Demo). Last year, AHS' 
Board of Directors unanimously approved a policy supporting the fee 
demonstration program in concept but vigorously opposed making Fee Demo 
permanent unless and until the agencies redress the problems our 
members raise with the program. Our concerns with Fee Demo include 
inconsistent implementation, agency accountability, and equity issues. 
Moreover, the heavy reliance and dependence the agencies place on Fee 
Demo indicate that fee program revenues are starting to supplant, not 
supplement, appropriations. This counters the original intent of the 
program.

                     TRAILS AND RECREATION FUNDING
    According to the 2000 National Survey on Recreation and the 
Environment, hiking and backpacking are among the nation's fastest 
growing forms of recreation. In 2000, 73 million Americans hiked (196 
percent growth since 1982) and 23 million backpacked. Human powered 
recreation represents an important and increasing use of our public 
lands, yet federal funding for recreation has not kept pace with demand 
and continues to fall far short of needs.
    For the second year in a row, American Hiking Society is an active 
participant in a consortium of non-motorized recreation organizations 
working to increase appropriations for recreation and trails programs 
in the land management agencies. We make the following recreation and 
conservation funding recommendations for fiscal year 2002:
USDA Forest Service
    Recreation Management, Heritage and Wilderness--$330 million
         Recreation Management--$265 million
         Wilderness Management--$50 million
    Capital Improvement and Maintenance--Trails--$100 million
National Park Service
    Rivers, Trails and Conservation Assistance program--$12 million
    National Trails System--$8.25 million
    Geographic Information System Network for National Trails--$2 
million
    Challenge Cost Share Program--One-third of total to National Trails 
System
Bureau of Land Management
    Recreation Management--$59 million increase
    National Monument and National Conservation Areas--$27 million 
increase
Land and Water Conservation Fund--$900 million
    Florida National Scenic Trail, USDA Forest Service--$4 million
    Ice Age National Scenic Trail, National Park Service--$3 million
    Pacific Crest National Scenic Trail, Bureau of Land Management--$1 
million
    Pacific Crest National Scenic Trail, USDA Forest Service--$5 
million
    The 16 national scenic and historic trails administered by the 
National Park Service require a minimum of $8.25 million for natural 
and cultural resource management and protection, improving visitor 
services, and strengthening volunteer partnerships. For most of the 
national scenic and historic trails, barely one-half of their 
congressionally authorized length and resources are protected and 
available for public use. Most trail offices are understaffed, 
hindering the agencies' ability to properly administer and manage these 
trails and work effectively with volunteer-based organizations. In 
2000, national trail volunteer organizations contributed $6.6 million 
in financial resources and over 593,000 volunteer hours with an 
estimated labor value of $8.8 million. American Hiking thanks the 
subcommittee for its support of the National Trails System and urges 
you to increase funding to help complete and protect these national 
treasures. American Hiking Society endorses the specific figures 
submitted by the Partnership for the National Trails System.
    In addition, NPS requires $2 million to continue work on a 
Geographic Information System network for the national scenic and 
historic trails. This program, costing approximately $8.4 million over 
five years, will provide accurate information to assist the public, 
trail managers, maintainers, and other stakeholders in trail 
protection, development, maintenance, interpretation, and resource 
management. The project marks a significant step in the evolution of 
these trails and applies state-of-the-art technology and techniques to 
better administer, manage, and protect trail resources and landscapes.
    The National Park Service's Rivers, Trails and Conservation 
Assistance program requires $12 million to help communities manage and 
protect their recreational and natural resources. This excellent 
federal technical assistance program has experienced a dramatic 
increase in requests for assistance, but due to limited resources, it 
is only able to assist half of all applicants. With a budget of less 
than one-half of one percent of NPS total funding, RTCA is 
exceptionally cost effective and gets results. In fiscal year 2000 
alone, RTCA helped develop 2,200 trail miles, protected 1000 river 
miles, and secured 270,000 acres of open space. Assistance from RTCA 
professionals is only given at the expressed request of a local 
community. As the Federal government seeks to enable communities to 
take their future into their own hands, it must enlarge those Federal 
programs that build capacity in much needed technical and institutional 
skills.
    We strongly support an increased level of funding for two primary 
Forest Service programs--Recreation Management and Capital Improvement 
and Maintenance for trails. The agency is the largest recreation 
provider in the United States, managing 133,000 miles of trails. The 
current investment in Forest Service lands does not match the role 
recreation plays in the agency. Many facilities are poorly maintained 
and deteriorating and recreation staff shortages are severe.
    Last year, the Forest Service released its Recreation Agenda, 
setting much-needed new goals and benchmarks for recreation in the 
agency. The Forest Service requires increased funding to carry out the 
measures outlined in the Recreation Agenda, including resource 
protection, reducing the maintenance backlog, and augmenting recreation 
staff, particularly on the ground.
    Despite the increased emphasis the agency is placing on recreation 
through the Natural Resource Agenda, we are concerned that this 
conversation at the top is not translating to the ground. Very few 
national forests have even one full-time trails coordinator. And 
despite the number of hiking and other recreation organizations that 
wish to volunteer to build and maintain trails in national forests, 
very few forests have a volunteer coordinator. American Hiking Society 
and some of our member clubs, such as the Continental Divide Trail 
Alliance, have had volunteer trail crews turned away because of the 
agency's inability to provide even minimal supervision or support. In 
the Recreation Agenda, the Forest Service highlights staffing and 
acknowledges the need to place trail coordinators, volunteer 
coordinators and/or recreation planners at each national forest and for 
each nationally designated area or trail. The agency must follow-
through with this commitment by increasing funding for recreation staff 
on the ground.
    Trail maintenance is a basic component of a safe, quality 
recreation experience. As of fiscal year 1999, the Forest Service trail 
maintenance backlog totaled over $148 million. Increasing the trails 
budget is crucial to enable the agency to begin to address this 
tremendous recreational infrastructure need.
    We support funding increases for the Bureau of Land Management. 
Last year, BLM implemented the National Landscape Conservation System 
(NLCS), a new program to focus management, attention, and resources on 
National Monuments, Wilderness, Wild & Scenic Rivers, and National 
Historic and Scenic Trails--all important for human-powered recreation 
pursuits. The agency requires increased funding to manage the rapidly 
expanding recreational use of BLM lands and protect the wealth of 
natural and cultural resources under its jurisdiction, including the 
special areas now managed under the NLCS. Outdoor recreation is an 
important public use of these lands and management of outdoor 
recreation resources, facilities, and visitor use are significant 
components of the BLM's multiple use mission, yet the agency remains 
severely underfunded and understaffed.
    American Hiking Society strongly supports Land and Water 
Conservation Fund (LWCF) appropriations for the Florida, Ice Age, and 
Pacific Crest National Scenic Trails. Now that the acquisition program 
for the Appalachian Trail is complete, we urge you to turn your support 
toward the remaining national scenic and historic trails and label them 
as high priority projects under the LWCF. LWCF monies for land 
purchases must also be accompanied by adequate funding for the agencies 
to effectively manage the acquisitions process and disburse the 
appropriations.

                  RECREATION FEE DEMONSTRATION PROGRAM
    American Hiking Society supports the concept of the Recreational 
Fee Demonstration Program as it allows the agencies to fully evaluate 
the benefits and pitfalls of recreation fees on federal lands. Because 
the agencies have not completed that evaluation and because of 
uncertainties and concerns regarding implementation, accountability, 
and equity issues, American Hiking Society opposes the establishment of 
a permanent recreation fee program on federal lands at this time. 
Although entrance and user fees provide much needed revenue to agencies 
with severe budget shortages, numerous unanswered questions and 
concerns remain that must be addressed before Fee Demo receives 
permanent authorization.
    The agencies manage and implement Fee Demo inconsistently, 
resulting in limited interagency coordination, confusing fee policies 
and multiple fees, and minimal innovation by the National Park Service. 
Equity concerns persist, as the federal agencies often fail to 
correlate fees to the cost or level of service provided or type of 
recreation. The agencies also fail to adequately address the effects of 
fees on low-income populations and non-commercial/non-consumptive users 
versus commercial users of public lands.
    Despite the requirement that fee revenues supplement, not supplant, 
appropriations there is little to stop revenue considerations from 
becoming a driving force in management decisions. The agencies admit to 
reliance on the program for an increasingly significant portion of 
recreation funding. The Administration's intent to eliminate the 
National Park Service's nearly $5 billion deferred maintenance backlog 
within five years, in part by directing a greater percentage of 
existing user fees to address the backlog, is troubling as it distorts 
the intent of the program. Fee Demo revenue expenditures to date unduly 
emphasize program administration and infrastructure maintenance over 
resource management needs, indicating a trend toward attracting 
visitors rather than protecting resources and preserving the natural 
elements of the recreation experience.
    We urge the Interior Appropriations Subcommittee to oppose any 
appropriations offsets with fee revenues and continue your vigilance 
both within your own ranks and within the federal agencies. However, 
until the program runs its course through the current end date of 
fiscal year 2002, Congress should not hastily authorize permanent Fee 
Demo status.

                               CONCLUSION
    On June 2, 2001, American Hiking Society will coordinate its ninth 
``National Trails Day,'' to raise public awareness and appreciation for 
trails. Participants gather at more than 2,000 National Trails Day 
events nationwide. By increasing the focus and funding of the 
recreational programs outlined in this testimony, Congress will help 
ensure the viability of America's unique natural heritage and protect 
the outstanding recreation opportunities on our public lands.
    Thank you for considering our request. American Hiking Society's 
members and outdoorspeople nationwide appreciate the subcommittee's 
support in the past and look forward to continued strong support.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    Mr. Chairman, on behalf of the Columbia River Inter-Tribal Fish 
Commission (CRITFC), thank you for the opportunity to present the 
CRITFC's views on the Interior Department budget. First, in order to 
ensure the implementation of a comprehensive and integrated approach 
for natural resources management, the CRITFC endorses the four tribes' 
programs and testimony. Specifically, $400,000 should be provided to 
the Nez Perce Tribe to support their fisheries conservation and 
restoration efforts in response to the Biological Opinion issued for 
the Federal Columbia River Power System. For fiscal year 2002, the 
CRITFC has identified funding needs totaling of $4,360,000 for Columbia 
River fisheries management programs, an increase of $1,634,000 over the 
fiscal year 2001 appropriated level of $2,726,000. We would note that 
the President's budget includes an increase of $400,000 for Columbia 
River Fisheries Management to address implementation and coordination 
under the Biological Opinion issued for the Federal Columbia River 
Power System. Of the proposed increase, $900,000 is required for base 
programs dealing with salmon listings under the Endangered Species Act. 
The tribes are also requesting that a one-time cost reimbursement of 
$734,000 be added to Columbia River fisheries management for past 
indirect contract support cost shortfalls and past pay-cost adjustment 
shortfalls. New base funding of $1,822,500 is required for Conservation 
Officers, either as a new program category to be included under 
Wildlife and Parks or as a base increase to the Columbia River 
fisheries management line item. Finally, the tribes endorse the 
recommendations the U.S. Section of the Pacific Salmon Commission to 
provide the 25 Pacific Coastal tribes (Western Washington and Columbia 
River treaty tribes, as well as the Metlakatla Indian Community) with 
$4,191,000, plus pay cost adjustments, for fiscal year 2002 for the 
U.S./Canada Salmon Treaty program.

                           MISSION STATEMENT
    Formed by resolution of the Nez Perce, Umatilla, Warm Springs and 
Yakama Tribes, the CRITFC provides coordination and technical 
assistance to ensure that the resolution of outstanding treaty fishing 
rights issues guarantees the continuation and restoration of our tribal 
fisheries into perpetuity. Since 1979, CRITFC has contracted with the 
BIA under the Indian Self-Determination Act (Public Law 93-638) to 
provide this technical support. The tribes' technical experts have 
identified where federal and state resource managers have fallen short 
in protecting and restoring the habitat and production of all salmon 
stocks. Wy-Kan-Ush-Mi Wa-Kish-Wit, the tribes' restoration plan, 
acknowledged by Will Stelle, the National Marine Fisheries Service's 
Regional Director, as the only salmon restoration plan in the region, 
identifies threats to salmon, proposes hypotheses based upon adaptive 
management principles to address those threats, and provides specific 
recommendations and practices that must be adopted by natural resource 
managers to meet treaty obligations. Wy-Kan-Ush-Mi Wa-Kish-Wit can be 
viewed at
    In 1855, the United States entered into treaties with the four 
tribes \1\ to ensure the mutual peace and security of our peoples. For 
the four tribes' cession of millions of acres, the United States 
promised to protect and honor the rights and resources the tribes 
reserved to themselves under those treaties. Those resources, among 
them our most treasured resource, the salmon, are being destroyed by 
process and delay under the Endangered Species Act. Our rights and our 
religious beliefs that are tied to the salmon are being trampled upon 
by more process and delay. We have a plan designed to restore salmon to 
healthy sustainable levels. On behalf of the salmon and the future 
generations of our peoples, please help us to implement that plan.
---------------------------------------------------------------------------
    \1\  Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------

            DIRECTION TO THE BONNEVILLE POWER ADMINISTRATION
    Most of the program needs identified in this testimony could and 
should be funded by the Bonneville Power Administration (BPA), 
utilizing unexpended funds committed to salmon restoration under the 
Memorandum of Agreement (MOA) signed in 1996. Under that MOA, BPA was 
granted a cap of $435 million per year, a combination of both real 
expenditures and estimates of lost power generation revenues, on salmon 
restoration costs through 2001. Of this commitment, we estimate that a 
cumulative total of over $200 million will remain unexpended by BPA at 
the end of the MOA period. The Congress should direct the BPA to place 
a substantial portion of this money in a trust fund to be used by the 
tribes to fund the Watershed Restoration Program.

                       WY-KAN-USH-MI WA-KISH-WIT
    Funding is needed to implement the tribes' watershed-based 
restoration plan over the next five years. Under Wy-Kan-Ush-Mi Wa-Kish-
Wit, the tribes are implementing watershed restoration and protection 
projects and programs throughout the Columbia Basin. The tribes can 
point to several successes in watershed-based restoration of salmon. 
Notably, the tribes have restored coho, spring and fall chinook, and 
steelhead to the Umatilla River after an absence of 70 years. They have 
reintroduced coho into the Clearwater River in Idaho, have taken the 
lead in restoring fall chinook and spring chinook to the Yakama River 
and fall chinook to the Snake River. The tribes seek to duplicate this 
success in other watersheds, measure and document the effectiveness of 
their programs and methods, and publicize the success of their 
watershed approach through public outreach, education and technology 
transfer.
Watershed assessments
    Watershed assessments will identify factors limiting the production 
and productivity of salmon stocks within each basin. These 
comprehensive and multi-disciplinary reviews are integral to the 
effective and efficient implementation of any restoration plan and 
provide the baseline for monitoring and evaluation of project 
activities.
Water quality
    Clean water is essential to the successful implementation any 
restoration plan; many subbasins, as well as segments of the mainstem 
Columbia River, do not currently meet water quality standards and 
criteria as required under the Clean Water Act. This part of the 
tribes' efforts is geared to the development of tribal water quality 
standards, coordination with regional programs, and monitoring and 
evaluation of management activities designed to bring subbasins into 
compliance with the Clean Water Act.
Habitat projects
    The tribes have identified a list of habitat projects that can be 
implemented immediately so as to improve salmon production and 
productivity. These projects address specific habitat improvements that 
will improve salmon spawning and rearing conditions for salmon. These 
projects represent the core of our proposal and will provide tangible 
benefits for the Pacific Northwest and Alaska.

            COLUMBIA RIVER ENDANGERED SPECIES PROGRAM NEEDS
    A total of at least $1,200,000 is required by the tribes to deal 
with salmon listings under the Endangered Species Act. In 1991, at the 
BIA's request, we submitted an assessment of our needs regarding 
outstanding hunting and fishing rights. At that time, we requested 
$1,000,000 for determining the allocation of the conservation burden 
among all sources of salmon mortality and for implementing hatchery 
production reform. Since then, with the additional listing of many more 
salmon populations, the reform of hatchery production programs has been 
recognized as an integral part of salmon restoration and the tribes are 
the principal lead in restoration efforts that utilize tools such as 
supplementation. This mandate carries responsibilities to monitor and 
evaluate the results of management actions taken to reform production. 
To meet regional obligations and high standards, the tribes must 
develop the capacity to analyze a broad base of genetic data essential 
for conservation and restoration of salmon populations, without 
impacting remaining wild stocks, at a base funding cost of $200,000. 
Only $300,000 has been provided for these ongoing needs, leaving an 
unmet need of $900,000.

                         CONSERVATION OFFICERS
    We request new base funding of $1,822,500 for fiscal year 2002 for 
a new program category under Wildlife and Parks for Conservation 
Officers, or as a base funding increase to the Columbia River fisheries 
management line item, to fund increased fisheries enforcement, for 
patrols at ``in-lieu'' and fishing access sites, and for cultural 
resource protection. Existing fish, wildlife, and habitat regulations 
must be enforced to ensure compliance and to protect fish stocks, 
wildlife, and their critical habitats. The Northwest Power Planning 
Council acknowledged this need in its 1994 ``Strategy for Salmon,'' 
calling for ``an expanded enforcement program to provide additional 
protection to Columbia River salmon and steelhead.'' The program has 
been successful in both reducing violations and educating tribal and 
non-tribal fishers. The NPPC has eliminated regional funding for this 
program, recommending that Congress fund this program.

      SHORTFALL IN PAY COST ADJUSTMENTS AND CONTRACT SUPPORT COSTS
    We request a one time base budget adjustment of an additional 
$104,000 be added in fiscal year 2002 to the Columbia River fisheries 
management line item to cover past shortfalls in legally mandated pay 
cost adjustments. While the BIA provided pay cost adjustments for 
fiscal year 1997 through fiscal year 2000, it only provided a partial 
adjustment for fiscal years 1992, 1993, 1994, 1995, and 1996 in the 
fiscal year 2000 budget. BIA had previously calculated the full amount 
to cover past shortfalls to be about $103,903.
    BIA's inability to fully fund contract support is undermining our 
programs. For the last several years, indirect cost reimbursement to 
CRITFC has been below legislated levels. Support services funded by 
indirect funds must be minimized or cut, due to the effects of the 
indirect shortfall. This means that fewer staff and less supplies are 
available. To make matters worse, any indirect cost funding shortfall 
must be recovered from the direct program. From 1994 through 1999, 
CRITFC did not receive $630,500 of legally mandated contract support 
funds. This reduced direct program funds by a like amount for salaries 
and operating expenses, undermining CRITFC's efforts to fulfill its 
mission. We request a one-time payment of $630,500 to cover these past 
shortfalls.

                               IN SUMMARY
    Through a governing body of leaders from four tribes working 
together to protect their treaty fishing rights, with a staff of 
biologists, hydrologists, law enforcement personnel, and other experts 
advising tribal policy-makers, the tribes have demonstrated they can 
take the lead on natural resource issues, provided that adequate 
resources are available. We ask for your continued support of our 
efforts and we are prepared to provide any additional information you 
may require on the Department of the Interior budget.
                                 ______
                                 
  Prepared Statement of the Northwest Tribal Court Judges Association
    On behalf of the Northwest Tribal Court Judges Association 
(NWTCJA), I am pleased to submit this written testimony on the fiscal 
year 2002 Appropriations for Justice Department funding of the Indian 
Country Law Enforcement Initiative and the Indian Tribal Justice 
Technical and Legal Assistance Act of 2000 (Public Law 106-559).
    The NWTCJA is a voluntary regional representative membership 
association (non-profit association organized in 1981), whose active 
members include any duly appointed or elected judge for any Indian 
tribe located in the states of Washington, Oregon, Idaho, and Alaska. 
NWTCJA represents more than 37 tribal justice systems in the Northwest, 
has a twenty-year track record of providing quality training and 
technical assistance services to tribal justice systems. The mission of 
the NWTCJA is ``to provide a forum for communication and cooperation 
among and between tribal court judges and other entities to enhance the 
training and skills of court personnel and to secure resources to 
accomplish these ends in the interest of better serving tribal people, 
communities, and our sovereign nations.'' We provide training for court 
personnel and need money to accomplish these purposes.

                       JUSTICE DEPARTMENT FUNDING
Indian Country Law Enforcement Initiative and Indian Tribal Justice 
        Technical and Legal Assistance Act of 2000 (Public Law 106-559)
    Full Funding for Indian Country Law Enforcement Initiative.--NWTCJA 
strongly supports full funding for the Indian Country Law Enforcement 
Initiative ($173,300,000 in Justice Department funding as requested in 
the Justice Department's fiscal year 2001 budget). NWTCJA would like to 
specifically emphasize our support for the funding of the Indian Tribal 
Court Fund at a level of at least $15,000,000 (Please note that this 
fund was formally authorized by the 106th Congress--see Public Law 106-
559, Section 201). Through the increased funding for law enforcement 
under the Indian Country Law Enforcement Initiative, more police 
officers have been added throughout Indian Country without the 
accompanying funds to support tribal courts that will be impacted by 
the increased caseloads generated by this increased law enforcement.
    At least $15,000,000 in funding for the Indian Tribal Justice 
Technical and Legal Assistance Act of 2000 (Public Law 106-559).--When 
the 106th Congress enacted Public Law 106-559 in December 2000, it 
recognized the vital legal and technical assistance needs of tribal 
justice systems--finding in part that ``there are both inadequate 
funding and inadequate coordinating mechanisms to meet the technical 
and legal assistance needs of tribal justice systems and this lack of 
adequate technical and legal assistance funding impairs their 
operation'' and promised three grant programs to address these 
Congressional recognized needs. It is vital that Congress provide 
adequate funding for Public Law 106-559 (see the Act itself for more 
specific information). NWTCJA strongly supports funding of Public Law 
106-559 at the level of at least $15,000,000. Failure to provide this 
funding level will make the Indian Tribal Justice Technical and Legal 
Assistance Act of 2000 (Public Law 106-559) a hollow recognition of 
tribal justice systems needs without providing needed resources. Native 
American tribal courts must deal with a wide range of difficult 
criminal and civil justice problems on a daily basis, including the 
following:
  --The violent crime rate has been declining nationally but increasing 
        substantially in Indian Country. Tribal court systems are 
        grossly under-funded to deal with these criminal justice 
        problems.
  --The case number and complexity of tribal civil caseloads have also 
        been rapidly expanding.
  --Congress recognized this need when it enacted the Indian Tribal 
        Justice Act -specifically finding that ``tribal justice systems 
        are an essential part of tribal governments and serve as 
        important forums for ensuring public health and safety and the 
        political integrity of tribal governments'' and ``tribal 
        justice systems are inadequately funded, and the lack of 
        adequate funding impairs their operation.''
  --While the Indian Tribal Justice Act promised $58,400,000 per year 
        in additional funding for tribal court systems starting in 
        fiscal year1994, THERE HAS BEEN NO FUNDING provided tribal 
        courts under this Act.
  --Since enactment of the Indian Tribal Justice Act, the needs of 
        tribal court systems have continued to increase, with no 
        corresponding increase in funding. In fact, the Bureau of 
        Indian Affairs' funding for tribal courts has actually 
        decreased substantially since the Indian Tribal Justice Act was 
        enacted in 1993.
  --The 106th Congress re-affirmed the Congressional commitment to 
        provide this increased funding for tribal justice systems when 
        it re-authorized the Indian Tribal Justice Act in December 2000 
        for seven more years of funding at a level of $58,400,000 per 
        year (see Public Law 106-559, section 202).
    As the former Attorney General, Janet Reno, stated in testimony 
before the Senate Indian Affairs Committee, it is vital to ``better 
enable Indian tribal courts, historically under-funded and under-
staffed, to meet the demands of burgeoning caseloads.'' The Attorney 
General indicated that the ``lack of a system of graduated sanctions 
through tribal court, that stems from severely inadequate tribal 
justice support, directly contributes to the escalation of adult and 
juvenile criminal activity.''
    The majority of the existing tribal justice systems in the 
Northwest and the more than 100 developing tribal court systems in 
Alaska, function in isolated rural communities. These tribal justice 
systems face many of the same difficulties faced by other isolated 
rural communities, but these problems are greatly magnified by the many 
other complex problems that are unique to Indian country. In addition 
to the previously-mentioned problems, tribal justice systems are faced 
with a lack of jurisdiction over non-Indians, complex jurisdictional 
relationships with federal and state criminal justice systems, 
inadequate law enforcement, great distance from the few existing 
resources, lack of detention staff and facilities, lack of sentencing 
or disposition alternatives, lack of access to advanced technology, 
lack of substance abuse testing and treatment options, and lack of 
resources to hold people accountable, i.e. no monies for probation. It 
should also be noted that in most tribal justice systems, 80-90 percent 
of the cases filed are criminal cases, and 90 percent of these cases 
involve the difficult problems of alcohol and/or substance abuse. While 
a few tribal courts are just beginning the planning and implementation 
of Drug Courts with monies from the DCPO, these monies are provided for 
only a few years, are limited in amounts, and provide a temporary 
panacea to the ever increasing problem of drug addiction in our young 
people.

                      IMPORTANCE OF TRIBAL COURTS
    ``Tribal courts constitute the frontline tribal institutions that 
most often confront issues of self-determination and sovereignty, while 
at the same time they are charged with providing reliable and equitable 
adjudication in the many and increasingly diverse matters that come 
before them. In addition, they constitute a key tribal entity for 
advancing and protecting the rights of self-government. . . . Tribal 
courts are of growing significance in Indian Country.'' (Frank 
Pommersheim, Braid of Feathers: American Indian Law and Contemporary 
Tribal Law 57 (1995)). Tribal justice systems are the primary and most 
appropriate institutions for maintaining order in tribal communities. 
Former Attorney General Reno acknowledged that, ``With adequate 
resources and training, they are most capable of crime prevention and 
peacekeeping'' (A Federal Commitment to Tribal Justice Systems, 79 
Judicature No. 7, November/December 1995, p. 114). It is her view that 
``fulfilling the federal government's trust responsibility to Indian 
nations means not only adequate federal law enforcement in Indian 
Country, but enhancement of tribal justice systems as well.'' Id.
    Tribal courts agonize over the very same issues state and federal 
courts confront in the criminal context, such as child sexual abuse, 
alcohol and substance abuse, gang violence and violence against women. 
These courts, however, while striving to address these complex issues 
with far fewer financial resources than their federal and state 
counterparts must also ``strive to respond competently and creatively 
to federal and state pressures coming from the outside, and to cultural 
values and imperatives from within.'' (Pommersheim, ``Tribal Courts: 
Providers of Justice and Protectors of Sovereignty,'' 79 Judicature No. 
7, November/December 1995, p. 111). Judicial training that addresses 
the present imperatives posed by the public safety crisis in Indian 
Country, while also being culturally sensitive, is essential for tribal 
courts to be effective in deterring crime in their communities.
    There is no federally-supported institution to provide on-going, 
accessible tribal judicial training or to develop court resource 
materials and management tools, similar to the Federal Judicial Center, 
the National Judicial College or the National Center for State Courts. 
Even though the NWTCJA provides local training, the three or four 
meetings each year with one day of training at each meeting, cannot 
provide the in-depth extensive judicial training necessary to make 
tribal justice systems strong and effective arms of tribal government. 
Furthermore, in these difficult economic times, many tribes cannot 
afford to send judges to the trainings that are offered.

              INADEQUATE FUNDING OF TRIBAL JUSTICE SYSTEMS
    There is no question that tribal justice systems are, and 
historically have been, underfunded. The 1991 United States Civil 
Rights Commission found that ``the failure of the United States 
Government to provide proper funding for the operation of tribal 
judicial systems . . . has continued for more than 20 years.'' The 
Indian Civil Rights Act: A Report of the United States Civil Rights 
Commission, June 1991, p. 71. The Commission also noted that 
``[f]unding for tribal judicial systems may be further hampered in some 
instances by the pressures of competing priorities within a tribe.'' 
Moreover, they opined that ``If the United States Government is to live 
up to its trust obligations, it must assist tribal governments in their 
development . . .'' Almost ten years ago, the Commission ``strongly 
support[ed] the pending and proposed congressional initiatives to 
authorize funding of tribal courts in an amount equal to that of an 
equivalent State court'' and was ``hopeful that this increased funding 
[would] allow for much needed increases in salaries for judges, the 
retention of law clerks for tribal judges, the funding of public 
defenders/defense counsel, and increased access to legal authorities.''
    As indicated by the Civil Rights Commission, the critical financial 
need of tribal courts has been well-documented and ultimately led to 
the passage of the Indian Tribal Justice Act, 25 U.S.C. Sec. 3601 et 
seq. (the ``Act''). Congress found that ``[T]ribal justice systems are 
an essential part of tribal governments and serve as important forums 
for ensuring public health, safety and the political integrity of 
tribal governments.'' 25 U.S.C. Sec. 3601(5). Affirming the findings of 
the Civil Rights Commission, Congress further found that ``tribal 
justice systems are inadequately funded, and the lack of adequate 
funding impairs their operation.'' 25 U.S.C. Sec. 3601(8). In order to 
remedy this lack of funding, the Act authorized appropriation base 
funding support for tribal justice systems in the amount of $50,000,000 
for each of the fiscal years 1994 through 2000. 25 U.S.C. Sec. 3621(b). 
An additional $500,000 for each of the same fiscal years was authorized 
to be appropriated for the administration of Tribal Judicial 
Conferences for the ``development, enhancement and continuing operation 
of tribal justice systems . . .'' 25 U.S.C. Sec. 3614.
    Eight (8) years after the Act was enacted, how much funding has 
been appropriated? Not one single dollar was even requested under the 
Act for fiscal years 1994, 1995, 1997, 1998 or 1999. Only minimal funds 
were requested for fiscal year 1996 and 2000. Yet, even these minimal 
funds were deleted. Even more appalling than the lack of appropriations 
under the Act is the fact that BIA funding for tribal courts has 
actually substantially decreased following the enactment of the Indian 
Tribal Justice Act in 1993 in anticipation of Congress making the 
appropriations Indian Country believed it would. In December 2000, 
Congress re-affirmed its commitment to funding of the Indian Tribal 
Justice Act by re-authorizing the Act for seven more years of funding 
(see Public Law 106-559, Section 202) but it did so without 
appropriating any monies for that purpose. Now is the time to follow 
through on this long promised funding and provide actual funding under 
the Indian Tribal Justice Act!

                               CONCLUSION
    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in tribal communities. They are the 
keystone to tribal economic development and self-sufficiency. Any 
serious attempt to fulfill the federal government's trust 
responsibility to Indian Nations must include increased funding and 
enhancement of tribal justice systems. The Northwest Tribal Court 
Judges Association welcomes the opportunity to comment on the Justice 
Department's Budget Request for the fiscal year 2002 funding of the 
Indian Country Law Enforcement Initiative and the Indian Tribal Justice 
Technical and Legal Assistance Act of 2000. Thank you very much.
                                 ______
                                 
          Prepared Statement of the Seminole Tribe of Florida
    The Seminole Tribe of Florida is pleased to submit this statement 
regarding the Tribe's fiscal year 2001 request for funding from 
programs in the Department of the Interior (DOI). The Tribe requests 
that Congress provide:
  --$764,500 from the Bureau of Indian Affairs for water quality 
        studies and other ecosystem restoration studies, as a part of 
        the Tribe's Everglades restoration efforts; and
  --$12 million for the Critical Ecosystem Studies Initiative (CESI) 
        account in the National Park Service budget. The Tribe also 
        seeks language in the Interior Department's appropriation 
        bill's report specifying that, in lieu of a designated level of 
        funding for Seminole water studies, the Tribe will receive a 
        special consideration in competition for funding from the for 
        activities related to the Tribe's Everglades Restoration 
        Initiative on the Big Cypress Reservation.
    The Tribe's Everglades Restoration Initiative is a comprehensive 
water conservation system designed to improve the water quality and 
natural hydropatterns in the Big Cypress Basin. The Initiative is 
designed to mitigate the degradation the Everglades has suffered 
through decades of flood control projects and urban and agricultural 
use and ultimately to restore the nation's largest wetlands to a 
healthy state. This Initiative will contribute to the overall success 
of both the federal and the state governments' multi-agency effort to 
preserve and restore the delicate ecosystem of the South Florida 
ecosystem.
    This project will enable the Tribe to meet proposed numeric target 
for low phosphorus concentrations that is being used for design 
purposes by state and federal authorities. It will also provide an 
important public benefit: a new system to convey excess water from the 
western basins to the Big Cypress National Preserve, where water is 
vitally needed for rehydration and restoration of lands within the 
Preserve.
    Department of Interior funding has helped the Tribe develop 
restoration programs and projects and ultimately define its role in the 
overall South Florida Ecosystem effort. The Seminole Tribe continues to 
make significant contributions to the restoration effort and looks 
forward to a continued partnership with DOI toward achieving our common 
goals.
    The Seminole Tribe reviewed many federal programs in search of 
funding opportunities for the design, engineering, and construction of 
the projects that compose the Everglades Restoration Initiative. U.S. 
Army Corps of Engineers (COE) and the USDA Natural Resources 
Conservation Service (NRCS) programs have been identified as 
appropriate matches for the Tribe's Everglades Restoration Initiative. 
The Tribe and the COE initiated an agreement for design and 
construction of the western portion of the Big Cypress Reservation, 
along with a canal that transverses the Reservation, as a Critical 
Project under the authority of the Water Resources Development Act of 
1999. The NRCS has identified a number of Farm Bill programs and the 
Small Watersheds Program as suitable for funding the design, planning, 
and construction of the project on the eastern portion of the 
Reservation.
    The funds provided by the DOI have made it possible for the Tribe 
to do the research necessary to allow the COE and NRCS to complete 
final project designs. The Tribe continues to spend Tribal funds to 
advance the research and design and is prepared to provide the required 
cost share payments as required by the different federal programs. In 
addition, the results of studies the Tribe helps pay for with both the 
CESI funds from NPS and the BIA funds will be applicable to other 
entities supporting Everglades restoration.

                        BUREAU OF INDIAN AFFAIRS
    The DOI, through the Bureau of Indian Affairs (BIA), has provided 
the Tribe with $199,500 in each of the fiscal years 1994 through 2001. 
The Tribe has used this BIA funding to complete studies and water 
quality and quantity monitoring that has proven critical to the Tribe's 
leading role in Everglades restoration. Continued funding at an 
increased level is necessary for the Tribe to complete a number of 
studies that will support the design, construction, and operation of 
the Big Cypress water conservation project. Funding through the BIA 
budget is also necessary because the source of supplemental funding in 
prior fiscal years (CESI, see below) has become so low as to not 
support the studies originally funded with the CESI funds.
    Specific studies that would be supported through the increased 
level of BIA funding include the following:
  --Forested Wetland Nutrient Uptake Research designed to address how 
        to restore and maintain wetland communities of plants and 
        animals weakened by the adverse impact of poor water quality 
        and desiccation by re-establishing natural hydrology and water 
        quality;
  --Assimilative Capacity for Phosphorus of C & SF Canals on the Big 
        Cypress Reservation designed to determine how to restore damage 
        to wetlands caused by elevated levels of pollutants in water 
        conveyed by canals;
  --Seminole Tribe Data Collection and Monitoring designed to access 
        ecosystem damage and explore methods to restore and enhance 
        natural habitats; and
  --Early Detection and Management of the Invasion of the Big Cypress 
        Reservation by the Exotic Climbing Fern designed to prevent 
        this invasive species from negating the restoration and 
        preservation of native wetland communities.

                         NATIONAL PARK SERVICE
    Through the NPS's CESI program, Interior provided the Tribe with 
$390,000 in fiscal year 1997, $920,000 in fiscal year 1998, and 
$684,125 in fiscal year 1999. A $460,000 appropriation was provided to 
both the Seminole and Miccosukee Tribes in the fiscal year 2000 
appropriation cycle; the tribes shared the funding equally. In fiscal 
year 2001, it appears as if the Tribe will receive an even lower level 
of funding. The Seminole Tribe uses these funds to monitor and analyze 
the quality and quantity of water coming onto and leaving the 
Reservation and to conduct scientific studies to determine nutrient 
impacts. For example, the Tribe plans to study the assimilative 
capacity of the C&SF canals for nutrients, phosphorus in particular. 
The results of such monitoring and studies will be available to others 
studying ecosystem degradation and developing plans to arrest the harm.
    In addition to this specific request for the Tribe's programs, we 
request that Congress fund the CESI account at the same level it has 
been funded in fiscal years 1998 and 1999, which is $12 million. In the 
last two fiscal years, the Administration cut the CESI account by one-
third to $8 million, despite the important research that it funds; such 
research helps support critical Everglades ecosystem restoration. The 
recently released budget request for fiscal year 2002 cuts the CESI 
funding even further. The Tribe requests that Congress the restore the 
cuts to the CESI account and fund the research at the $12 million 
level.
    At the $12 million funding level, DOI allocated $1 million to the 
Seminole and Miccosukee Tribes to share. Prior to fiscal year 2000, the 
Miccosukees did not participate in this program, so the Seminoles 
research was adequately funded at the $1 million level. When CESI's 
funding level was cut to $8 million, the Tribal allocation was cut to 
$460,000, a disproportional reduction. Also, the Miccosukees started 
participating in the program after the funding was cut. The effective 
reduction, due to reduced funding and the Miccosukees rightful 
participation, has prevented the Seminole Tribe from pursuing and 
completing scientific research necessary for ecosystem restoration.
    To address the reduced level of funding, the Park Service proposed 
that the Tribe no longer receive a dedicated portion of the CESI funds, 
but that the Tribe compete through the funding decision process with 
the provision of a preference as a Tribe, and where applicable to 
specific projects, a preference for existing, previously CESI-funded 
projects. The Tribe requests that the Committee include in its report a 
notation of this selection process including the preferences for the 
Tribes and for previously funded projects.

                               CONCLUSION
    Improving the water quality of the basins feeding into the Big 
Cypress National Preserve and the Everglades National Park is vital to 
restoring the Everglades for future generations. By granting this 
appropriation request, the federal government will be taking a 
substantive step towards improving the quality of the surface water 
that flows over the Big Cypress Reservation and on into the delicate 
Everglades ecosystem. Such responsible action with regard to the Big 
Cypress Reservation, which is federal land held in trust for the Tribe, 
will send a clear message that the federal government is committed to 
Everglades restoration.
    The Seminole Tribe is working hard to realize the environmental 
benefits the Reservation and the surrounding ecosystem need. The Tribe 
is making substantial commitments, including the dedication of over 
9,000 acres of land for water management improvements. However, as the 
Tribe moves forward with its contribution to the restoration of the 
South Florida ecosystem, a substantially higher level of federal 
financial assistance is needed as well.
    The Tribe has demonstrated its economic commitment to the 
Everglades Restoration effort; the Tribe is asking the federal 
government to also participate in that effort. This effort benefits not 
just the Seminole Tribe, but all Floridians who depend on a reliable 
supply of clean, fresh water flowing out of the Everglades, and all 
Americans whose lives are enriched by this unique national treasure.
    Thank you for the opportunity to present the request of the 
Seminole Tribe of Florida. The Tribe will provide additional 
information upon request.
                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources
    Mr. Chairman: I am Ken Reckhow, President of the National 
Institutes for Water Resources and Director of the North Carolina Water 
Resources Research Institute at North Carolina State University. My 
testimony requests the Subcommittee to provide $7,354,000 to the U.S. 
Geological Survey for the state water resources research institutes 
program.
    I would like to thank you and this Subcommittee for the strong 
support you have given to the state water resources research institutes 
program in the past. As you know, last year Congress unanimously passed 
Public Law 106-374 which reauthorizes appropriations for this program 
through fiscal year 2005. This action reflects Congressional 
recognition that the state water resources research institutes are 
meeting their mission objectives as outlined in the Water Resources 
Research Act.

                                REQUEST
    The National Institutes for Water Resources respectfully request 
the addition of $7,354,000 in the U.S. Geological Survey's fiscal year 
2002 budget for the state water resources research institutes program. 
This recommendation is based on the following components:
  --$5,600,000 in base grants for the water resources research 
        institutes as authorized by Section 104(b) of the Water 
        Resources Research Act,
  --$1,500,000 to support activities authorized by section 104(g) of 
        the Act, and
  --$254,000 for program administration.
    This recommendation would provide a $100,000 base grant to support 
the institutions which are located at land-grant universities in each 
of the states, plus territories. Currently, this base grant is 
approximately $75,000. In addition, it would provide for a modest 
increase in the highly popular competitive grants program. On behalf of 
the National Institutes for Water Resources and the water resources 
research institutes across the nation I wish to strongly support the 
need for a reasonable, yet vigorous water resources budget for the USGS 
for fiscal year 20002. The reductions recommended by the Administration 
are ill advised, particularly the reduction of support for the critical 
streamgaging network and water quality investigations.

                             JUSTIFICATION
    Setting total maximum daily loads (TMDLs) for polluted streams, 
establishing a standard for arsenic in drinking water, cleaning up MTBE 
contamination of groundwater, controlling sewer overflows and urban 
stormwater, managing animal waste in environmentally sound ways--these 
are all highly complex public policy issues elected officials and 
administrators in virtually all of the states face. To resolve these 
issues, everyone looks to ``sound science'' for guidance or answers. 
The President wants sound science, Congress wants sound science, state 
and local governments want sound science, business and industry want 
sound science, and even environmental groups want sound science.
    Where do we look for sound science in the water resources arena? 
Poll after poll has shown that when citizens look for impartial 
science, they look to university scientists. When Congress is not 
satisfied with the science behind regulations, it turns to the National 
Academy of Sciences, which then turns to university scientists. When 
businesses want sound science with the perception of impartiality, they 
turn to university scientists, as the nation's largest swine producer 
recently did for evaluation of waste management alternatives in North 
Carolina.
    For more than 35 years the 54 state water resources research 
institutes have served to link university scientists working in the 
water quality and water quantity arenas with governments, business and 
industry, and citizens in efforts to produce sound science to resolve 
water issues at the local and state levels.
    State water resources research institutes take the relatively 
modest amount of federal funding appropriated by this Subcommittee, 
leverage it with state matching funds and funding from other sources, 
including local governments, and use it to put university scientists to 
work finding solutions to the most pressing local and state water 
problems. In fiscal year 2000, the institutes generated about $14.50 in 
support for each federal dollar appropriated to them through this 
program and put three-quarters of every dollar they received into 
research projects. The remainder supports information transfer, 
training activities, etc. This program does not provide any indirect 
costs to universities, unlike most federal research programs. All of 
the funding does to support the goals set forth in the Water Resources 
Research Act.
    Federal funding for the water resources research institute program 
is therefore the catalyst that moves states to invest in university-
based research to address their own water management issues. The added 
benefit is that often research to address state and local problems also 
helps solve problems at the regional and national level as well.
    How do water resources research institutes know they're working on 
the most pressing water issues? Each institute brings together a local 
advisory panel typically consisting of local, state, and federal agency 
officials, representatives of business and industry, and representative 
of non-governmental organizations. These panels identify the most 
important water problems facing their states and establish priorities 
for research.
    The work of the water resources research institutes doesn't stop 
with identifying needs and arranging for research to address the needs. 
Once research is completed, institutes also see that the results are 
transferred to the people in federal, state, and local agencies who 
will put it to work. In fiscal year 2000, institutes spent about 6 
percent of their budgets on technology transfer activities, which 
includes publication of reports; presentation of seminars, workshops 
and conferences; maintenance of Internet sites, and one-on-one contact 
with agency personnel.
    Institutes also help educate future water scientists. Quite often a 
significant portion of a research grant goes to pay part of the salary 
of a master's or PhD student studying in such critical fields as 
watershed hydrology, hydrogeology, aquatic ecology, toxicology, 
sanitary engineering, and water resources engineering. In fiscal year 
2000, institutes provided research support for more than 1,380 
students. As you know, our scientific workforce is aging and a mass 
exodus through retirements is expected in government, academia and 
industry over the next decade. Supporting the education of new 
scientists is a critical role of institutes that should be expanded.
    In fiscal year 2000, water resources research institutes across the 
nation funded 847 research projects from their base grants, but we 
could have funded many more important investigations. Typically, 
institutes can fund only one of every four or five proposals they 
receive in response to solicitations based on their established 
priorities. Each year in North Carolina, our Advisory Committee selects 
from a long list of research needs, its top ten research priorities. We 
are never able to address all priority problems and may only be able to 
fund two or three new projects. It is clear to me that there are many 
critical research needs going unmet. For instance, last year our 
Advisory Committee identified as its number three research priority an 
investigation of the watershed-level impacts on water quality of 
hydrologic changes caused by urbanization. This information is critical 
for designing urban stormwater control programs that actually make a 
difference for water quality and aquatic habitat. However, such an 
investigation would require substantial funding over several years, and 
our funds are insufficient to support such a project.
    If base grants, which we refer to as Section 104(b) grants, to 
institutes were increased by only $25,000, at the current rate at which 
institutes leverage federal funds, an additional $19 million in non-
federal dollars could be invested in sound science to address priority 
research areas that are not being investigated.
    The same is true for the regional competitive grants (or Section 
104(g) grants) program administered by USGS in collaboration with the 
National Institutes for Water Resources. Priorities for this research 
program are set jointly by USGS and the institutes to address regional 
or interstate water problems. In fiscal year 2000 more than one hundred 
proposals were submitted for this competition, but with only $1 million 
in funding, fewer than one in twelve projects could be funded. Here 
again, regional and interstate research needs are not being met. For 
instance, in much of the Southeast we are suffering from a 3-year 
drought that some are now predicting to stretch out another 7 years. 
There are many unanswered questions about the effects of this drought 
not only on regional water supplies but also on water quality and 
habitat. We should already be planning how to respond to the potential 
for long-term drought, but there are many gaps in the information base. 
An increase in the competitive grants funding could catalyze additional 
research on regional problems such as effects of drought in the same 
way that an increase in base grants would catalyze research on local 
and state water resources problems.
    Mr. Chairman, we are hearing a lot now about the need to assure an 
adequate supply of energy to support the nation's economic and social 
health. Energy is important, but water is more important to our 
economic and social well-being. Before too long, this country is going 
to face the unfamiliar problem of water scarcity. The Census Bureau 
estimates that we could add another 120 million people to our 
population over the next 50 years, but our supply of freshwater is 
static. We are not going to discover new sources of water. What we must 
do to assure an adequate supply of water for the future is to learn to 
stretch the water supply we now have by conserving, protecting, and 
restoring what we have been given.
    To protect our limited water resources we must know much more than 
we do now about the ecology and resiliency of aquatic systems and about 
the relationships between land uses and water quality. To gain this 
knowledge we need a dedication to long-term monitoring and research. 
Much of our surface water and significant areas of groundwater are 
impaired by pollution. We must find efficient ways to clean up these 
waters so they can be used for irrigation, industry and water supply. 
To find efficient methods to restore impaired waters we need research. 
Because surface water is a small part of our total freshwater supply 
and because the era of dam building is past, we must learn to utilize 
our groundwater more fully and more wisely. This means knowing a great 
deal more than we do now about groundwater distribution and recharge 
rates. It also means discovering how to use treated wastewater to 
recharge groundwater for future withdrawal in an environmentally safe 
way. We need research to produce knowledge about our groundwater 
resources and about sound methods to manage groundwater. Because our 
water supply is limited we need to learn to make use of a fuller range 
of waters, such as treated wastewater, brackish waters and seawater. 
Current water reuse and desalination technologies are promising but 
need further research development to be useful.
    There are many pressing needs for new knowledge in the water 
resources area. For 35 years, the Water Resources Research Institute 
program has been linking university scientists to government, business 
and citizens to provide new knowledge and help solve problems. This is 
a productive, useful, and valuable partnership that should be continued 
and expanded.
    This brings me to the final points I want to make--these on behalf 
of the USGS budget. In times of extreme hydrologic conditions, such as 
droughts and hurricanes--which are predicted to increase as a result of 
climate change--information from the USGS streamgaging network is our 
lifeblood. When storms drive streams out of their banks, it is 
information from USGS stream gages that the National Weather Service 
uses to issue flood warnings. When drought decreases streamflow, it is 
information from USGS stream gages that state and local governments 
rely on as indicators of future reservoir supply. Beyond these critical 
uses, stage and flow data from USGS stream gages support dozens of 
water quality, power generation and navigational programs, as well as a 
range of recreational activities. Increased support for the USGS stream 
gaging network is crucial for public safety and environmental 
management. Moreover, the USGS collects important water quality data 
that support state management programs and university research. USGS 
also conducts water resources investigations that often provide the 
only resource information available to local governments. USGS and the 
water resources research institutes are collaborative programs drawing 
upon each others capabilities and expertise to help state and local 
governments wisely manage their water resources.
    Mr. Chairman, basing water quality and water quantity management on 
sound science is worthy goal. But, we have to invest to produce sound 
science. Congress must invest to catalyze states and states must invest 
to address their own issues. You can rest assured that if you do your 
part, the water resources research institutes will carry the challenge 
to state and local governments, business and industry, foundations and 
environmental groups to invest in sound science for water resources 
management. The National Institutes for Water Resources respectfully 
recommend this Subcommittee provide $7,354,000 to the USGS for the 
state water resources research institutes program authorized by the 
Water Resources Research Act. Thank you.
                                 ______
                                 
     Prepared Statement of the American Society of Civil Engineers
    Chairman Burns and Members of the Subcommittee: The American 
Society of Civil Engineers (ASCE) is pleased to offer this testimony on 
the proposed budgets for the United States Geological Survey (USGS) and 
for certain programs under the jurisdiction of the U.S. Department of 
Energy (DOE) for fiscal year 2002.
    ASCE was founded in 1852 and is the country's oldest national civil 
engineering organization. It represents more than 125,000 civil 
engineers in private practice, government, industry and academia who 
are dedicated to the advancement of the science and profession of civil 
engineering. ASCE is a 501(c)(3) non-profit educational and 
professional society.

                 UNITED STATES GEOLOGICAL SURVEY (USGS)
    The USGS is the nation's primary source of sound, credible, 
impartial earth-science data that are essential to the planning, 
design, construction and operation of numerous public and private 
facilities. These earth-science data are necessary to protect human 
health, safety and the environment through the development of 
facilities that both provide needed resources and prevent or mitigate 
the effects of natural hazards. One area of the fiscal year 2002 budget 
for the USGS that is of most concern to ASCE is water, as a resource 
and a natural hazard.
Water resources
    ASCE has long supported the basic water-data-collection activities 
of the USGS. Reliable and accurate water data are of paramount 
importance to civil engineers who rely on this information every day to 
make critical decisions that impact public health and safety. Basic 
water data currently collected by the USGS are vitally important to 
water resource planning and the design, construction and operation of 
many projects.
    Water, in the form of floods, is a major natural hazard to our 
people, our property and our environment. As our population increases, 
there is a growing need to develop programs and, in some cases, 
facilities to mitigate the effects of annual floods.
    ASCE therefore is deeply distressed by the proposed funding cuts of 
$43 million (21 percent) in the water resources investigations budget 
for the USGS from the appropriated level of $202 million in fiscal year 
2001. The proposed funding level of $159 million in fiscal year 2002 
simply is not adequate to maintain the vitally necessary programs under 
this budget category.
    Among the proposed cuts are $20 million from the National Water 
Quality Assessment (NAWQA) program and $10 million from the Toxic 
Substances Hydrology program. NAWQA studies have made significant 
contributions to the understanding of the sources and effects of 
contaminants in water resources. The Toxic Substances Hydrology Program 
has generated critical information about the sources, fate, and 
persistence of toxic substances in ground and surface water.
    According to the Department of the Interior budget justification, 
``the Department will actively consult with the programs' stakeholders 
in 2001 to develop a more collaborative partnership based on 
reimbursable funding for the Toxics program and cost-sharing for the 
NAWQA . . . studies.''
    In a federal budget notable primarily for dramatic reductions in a 
number of vital environmental programs, we are skeptical that other 
federal agencies will be able to bring the same technical and financial 
commitment to the maintenance of the USGS programs. Similarly, state 
and local governments may not be able to put aside more parochial 
concerns to enable them to contribute significantly to what have 
largely been programs managed and funded through the USGS.
    Moreover, another $5 million has been stripped from the 
streamgaging program. Streamgaging is one of the most important water 
resources programs at USGS. The streamgaging network collects 
information about the nation's water resources. It is a multipurpose 
network funded by the USGS and many other federal, state and local 
agencies. Individual streamgaging stations are supported for specific 
purposes such as water allocation, reservoir operations, or regulating 
permit requirements, but the data are used by others for many purposes. 
Collectively, the USGS streamgaging network produces valuable data that 
are used for current forecasting and operational decisions as well as 
long-term resource planning, infrastructure design, and flood-hazard 
mitigation. More than 6,000 stations are in operation today.
    A small budget increase in fiscal year 2000 ($2 million) for 
streamgaging, plus the increases in fiscal year 2001 ($8.1 million 
total), provided a modest but significant beginning to meeting the 
goals of NSIP. The increases were used to add 37 new gages, reactivate 
73 previously discontinued gages, upgrade equipment on 127 gages, and 
``harden'' 15 gages as protection against flood damage. The delivery of 
streamflow information to the many users also was improved.
    In conclusion, the USGS faces increasing demands for information as 
the infrastructure to supply the information is declining. Under the 
President's budget request for fiscal year 2002, the modest progress 
made in moving NSIP forward over the past two years will not continue.
  --We respectfully urge the Subcommittee to bolster the USGS budget 
        for water resources in fiscal year 2002. We recommend that the 
        budget be increased by four percent over the fiscal year 2001 
        enacted level to a total appropriation of approximately $210 
        million.

                          DEPARTMENT OF ENERGY
    Within the Subcommittee's jurisdiction are Department of Energy 
programs on fossil energy research and development, clean-coal 
technology, energy conservation, alternative fuels production and other 
subjects of great concern in light of the current energy emergency.
    In our ``2001 Report Card for America's Infrastructure'' released 
in March, ASCE found that, although growth in electricity demand 
through 2020 is expected to be slower than in the past, 393 gigawatts 
of new generating capacity (excluding cogenerators) is expected to be 
needed by 2020 to meet growing demand and to replace retiring units. By 
2020, 26 gigawatts (27 percent) of current nuclear capacity and 43 
gigawatts (eight percent) of current fossil-fueled capacity are 
expected to be retired.
    More than 10,000 megawatts (MW) of capacity nationally will have to 
be added each year between now and 2008 to keep up with the projected 
1.8-percent annual growth rate. Since 1990, however, actual annual 
capacity additions have been averaging only about 7,000 MW, an annual 
shortfall of 30 percent.
    Of the 162 gigawatts of new capacity expected after 2010, 16 
percent will replace retired nuclear capacity. About 1,300 new power 
plants could be needed by 2020, according to the Energy Information 
Administration.
    Additionally, the demand for natural gas is growing sharply. Annual 
U.S. gas consumption could increase by 60 percent over the next 20 
years. The current estimate of the natural gas resource base in the 48 
states, based on current technology and economics, is equivalent to at 
least 65 to 70 years of supply at the current level of consumption, 
according to the American Gas Association (AGA).
    Coal-fired power plants are expected to remain the key source of 
electricity through 2020. In 1999, coal accounted for 1,880 billion 
kilowatt-hours or 51 percent of total generation. Although coal-fired 
generation is projected to increase to 2,350 billion kilowatt-hours in 
2020, increasing gas-fired generation is expected to reduce coal's 
share to 44 percent. Concerns about the environmental impacts of coal 
plants, their relatively long construction lead times, and the 
availability of economical natural gas make it unlikely that many new 
coal plants will be built prior to 2005.
    But slow growth in other generating capacity, the huge investment 
in existing plants, and increasing utilization of those plants are 
expected to keep coal in its dominant position. By 2020, it is 
projected that 11 gigawatts of coal-fired capacity will be retrofitted 
with scrubbers to meet the requirements of the Clean Air Act Amendments 
of 1990.
    For all of these reasons ASCE believes that it is shortsighted to 
propose, as the President has done, to reduce total federal spending on 
such energy supply programs as renewable energy resources (36 percent), 
fossil energy research (17 percent), nuclear energy (nine percent) and 
energy conservation (two percent).
    The only energy-supply program of importance to see an increase is 
the clean-coal technology program, which is slated to receive a boost 
from $9 million to $82 million in fiscal year 2002. We applaud this 
sensible step.
    We need continued economical, reliable and environmentally 
responsible energy development and production in the United States. 
This is critical to industrial and commercial expansion, economic 
growth and stability, and minimizes dependence on foreign energy 
sources. Thus we support prudent management of our national energy 
resources and the timely development of new energy technologies.
  --We urge the subcommittee to restore funding for those critical 
        programs facing a reduction to their fiscal year 2001 enacted 
        levels and to approve the President's proposed increase in 
        clean-coal technology program funding.
                                 ______
                                 
  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa
    Mr. Chairman, Members of the Committee, the Fond du Lac Band of 
Lake Superior Chippewa would like to thank you for this opportunity to 
present written testimony on fiscal year 2002 appropriations for the 
Department of Interior and Related Agencies.
    The Fond du Lac Reservation was established by Treaty with the 
United States on September 30, 1854 and encompasses 100,000 acres of 
land in northeastern Minnesota. There is a population of 6,500 Indian 
people that live within the service area of the Reservation with the 
Band providing employment or services to most of them.
    We are asking that you increase the bands funding by $8.5 million 
for fiscal year 2002 to develop the infrastructure necessary to 
continue to serve and protect the resources of the band.
    We strongly support the Administration's request of additional 
funding under the Indian Country Law Enforcement Initiative. In 1997 
the Minnesota Supreme Court held that certain traffic regulations 
including speeding, driving without a license, and driving with no 
insurance were ``civil-regulatory'' in nature and under Public Law 280 
are unenforceable by state police officers on the Reservation. The 
ruling known as the Stone decision, left a jurisdictional void with 
regard to law enforcement on the roads within Indian Reservations in 
the State. In order to fill this void, the Band has undertaken the 
establishment of its own Tribal police force through the Community 
Oriented Policing Services, Bureau of Indian Affairs and Tribal funds. 
In addition, the Band has worked with all local law enforcement 
agencies to establish a cross deputization agreement that ensures 
maximum law enforcement protection for the Reservation and it's 
citizens by allowing all law enforcement agencies within the 
Reservation boundaries to enforce each others laws. However, because of 
the short-term, limited financial resources available, there is 
significant unmet needs in this area. At Fond du Lac, we need long term 
monies to pay for staff and equipment to adequately ensure the safety 
of the Reservation population. In light of the Stone decision, we ask 
this committee to support the Administration's request for investment 
in strengthening Indian Country's Law Enforcement and Criminal Justice 
System and ask that this committee consider placing these initiatives 
into the BIA's permanent base budget. The Band currently employs seven 
police officers, six conservation officers, one records clerk, one 
prosecuting attorney, one clerk of court, one part time court recorder, 
and one part time judge. All of these staff positions are located 
within the Resource Management division. Along with this staff are 
thirty other permanent full time staff and fifteen full time seasonal 
staff housed in a building that was designed to house twenty. With the 
increased responsibility assumed by the Band there is an ever 
increasing need to expand the staff and it's capabilities. With this in 
mind we request a one time allocation of $6 million to the Band for 
expansion of the office space for the Resource Management division. We 
are also requesting that $1.5 million be added to our base budget to 
continue to implement and staff the court and enforcement systems for 
the Band.
    Under Treaties with the United States made in 1837 and 1854 the 
Fond du Lac Band reserved the right to hunt, fish and gather on the 
lands ceded, a large portion of central and northeastern Minnesota, to 
the United States. The Band's rights under these treaties have been 
recognized and upheld by the federal courts--most recently the United 
States Supreme Court. On March 24, 1999 the Supreme Court issued a 
decision expressly re-affirming the Band's hunting and fishing rights 
in the 1837 Ceded Territory. Under established Band conservation law, 
the exercise of these off-reservation treaty rights require that the 
Band take the steps necessary to ensure proper use and management of 
the natural resources. This means the Band is responsible for member's 
hunting, fishing and gathering activities over approximately 8,000,000 
acres of land. The Band has adopted, along with the federal courts, a 
code and a resource management plan that protects the exercise of 
treaty reserved rights and the resources. It is very essential that the 
Band continues to manage it's on-reservation resources in order to meet 
the demands of an increasing population. Established by the Treaty of 
1854 with the United States, the home of the Band is 110,000 acres in 
northeastern Minnesota. The waters, wildlife, wild rice and the forest 
resources of the reservation are vitally important to it's members as 
these resources provide the foundation for our culture, subsistence, 
employment and recreation. The Fond du Lac Reservation includes some 
3,200 acres of lakes, 1,900 acres of wild rice lakes and associated 
wetlands, 66 miles of cool water streams, and 17,500 acres of forest 
with the remaining acres being used by individual land owner for 
housing and development. The increasing resident population and 
development are placing all resources under great stress. The loss of 
wild rice acres, wildlife habitat, and the decline of our forest are of 
great concern to the Band. Therefore, we are seeking an additional $1 
million be added to the Band's base budget for it's natural resource 
programs that will enable us to address the challenge to protect these 
resources for the future generations on Fond du Lac.
    We ask that the House Appropriations Committee support the Fond du 
Lac Band in behalf of the Fond du Lac Ojibwe Schools to support 
Cooperative Agreements entered into by the Band and Public Schools. 
Such agreements are authorized under 25 U.S.C. Sec. 2010 (f)., and 
expressly authorize the Secretary to use funds allotted to Bureau 
Schools to implement cooperative agreements with local public school 
districts, and expressly defers to the Band, its school board, and the 
public school district in determining the content of such agreements.
    The congressional intent underlying the cooperative agreement 
provision, as with Title IX of the Improving America's Schools Act 
generally, is to encourage the development of tribal education programs 
which are responsive to the particular educational needs of the tribal 
community.
    Fond du Lac and the Cloquet Public Schools are currently in their 
third year of an historic cooperative agreement that has been widely 
applauded for its innovativeness and effectiveness in providing 
culturally appropriate remedial education to American Indian students 
who are enrolled in a public school. The Commissioner of the State of 
Minnesota Department of Children, Families and Learning congratulated 
both the public school and the tribal school for their ``. . . 
innovative efforts in creating new agreements and structures to better 
serve students. . . .''
    Fond du Lac is in full support of Acting Assistant Secretary James 
McDivitt's fiscal year 2002 budget request of $2.2 billion. Within this 
budget New School Construction is a high priority in order to make 
schools safe and adequately equipped to meet the diverse needs of all 
American Indian students. We strongly support the Bureau's budget 
request of $292.5 million, an increase of $162,000 over the fiscal year 
2001 enacted level, to replace older, unsafe, and dilapidated schools 
on reservations.
    In addition, we also support the Bureau's budget request of $122.8 
million for replacement facilities for six schools: Polacca Day School, 
Polacca, Arizona; Holbrook Dormitory, Holbrook, Arizona; Wingate 
Elementary School Dormitory, Fort Wingate, New Mexico; Sante Fe Indian 
School, Sante Fe, New Mexico; Ojibwa Indian School, Belcourt, North 
Dakota; and Paschal Sherman Indian School, Omak, Washington. The 
request also provides $5.0 million for advanced planning and design of 
future replacement schools.
    The fiscal year 2002 budget request includes $161.6 million to 
address critical health and safety concerns existing at many Bureau 
schools throughout the country. The requested increase of $13.6 million 
over fiscal year 2001, will fund much needed maintenance and repair 
projects to reduce the backlog of needed repairs to BIA school 
buildings.
    Fond du Lac strongly supports the Bureau's fiscal year 2002 budget 
request of $543.1 million for Indian Education, an increase of $16.6 
million over the fiscal year 2001 amounts. The increase will ensure 
that BIA schools maintain accreditation and have access to technology 
(computers) and other critical learning tools. In addition, the request 
provides a $1.0 million increase for operating grants to 25 tribally 
controlled community colleges.
    Fond du Lac received fiscal year 2000 construction funds to build a 
New School (pre-k through grade 12), and is currently involved in a new 
school construction project. Construction is scheduled for completion 
for the Fall of 2001. We express a sincere Miigwech for the support, 
confidence, and assistance received from the Bureau of Indian Affairs, 
Senators, Congressman, and all Committee staff who continue to invest 
in our Education program.
    We would especially thank Senator Paul Wellstone; Congressman 
Martin Sabo, and Congressman James Oberstar. Your continued support has 
provided the Fond du Lac Reservation with an historic opportunity to 
provide its community with an education facility that will dramatically 
increase educational opportunities for the entire Fond du Lac 
Reservation community.
    In conclusion, the needs at Fond du Lac and throughout Indian 
Country remain massive. Your support to preserve the current BIA 
funding request is critical to maintain current program levels. Your 
consideration for our additional funding requests will enable us to 
improve the delivery of services to Band members and help ensure that 
we enter the 21st Century with a renewed sense of hope.
    Miigwech. Thank you.

                 FOND DU LAC LAW ENFORCEMENT DEPARTMENT
Project goal
    The establishment of a full time police force for the protection of 
all residents within the boundaries of the Fond du Lac reservation 
through increased staff and patrol capabilities.
Project objectives
    1. To provide 24 hour, 7 day a week patrol.
    2. To provide an adequate court system for the Reservation.
    3. To staff and equip the department to provide adequate 
enforcement for the Reservation.
Problem statement
    In 1997, the Minnesota Supreme Court held that certain traffic 
regulations including speeding, driving without a license, and driving 
with no insurance are ``civil-regulatory'' in nature, and under Public 
Law 280 are unenforceable by state police officers on the Reservation.
Justification
    The ruling left a jurisdictional void with regard to law 
enforcement on the roads within Indian Reservations in the State. In 
order to fill this void, the Band has undertaken the establishment of 
its own Tribal police force. In addition, the Band has worked with all 
local law enforcement agencies to establish a cross deputization 
agreement that ensures maximum law enforcement protection for the 
Reservation and its citizens by allowing all law enforcement agencies 
within the Reservation boundaries to enforce each others' laws. The 
Band currently employs four police officers, one records clerk, one 
part time prosecuting attorney, one part time clerk of court, one part 
time court recorder, and one part time judge. With current staffing 
patterns and the increased responsibility assumed by the Band there is 
an increased need to expand the staff and its capabilities. Additional 
funding in the Band's base budget would allow these efforts to bring 
about the enforcement capabilities for the Law Enforcement Department.
Fiscal year 2001 request.--$1,500,000

                 FOND DU LAC RESOURCE MANAGEMENT CENTER
Project goal
    To provide adequate space for the Resource Management staff to 
allow for increased capabilities.
Project Objectives
    1. To allow for needed expansion of staff.
    2. To keep staff centrally located for better coordination and 
communication.
Problem Statement
    The Resource Management Staff of the Band has increased to 45, with 
expansion to 50+ in the next year, and are currently housed in office 
space designed for 20.
Justification
    The Band is assuming more responsibility in the management of its 
treaty reserved resources, its on reservation resources, and its civil 
regulatory authority. In doing so, the staff has had to increase in 
numbers and capabilities. With the increase in responsibility and staff 
has come a need for an increase in the space available for housing 
these programs. The current building does not allow for expansion as it 
is constructed in a manner that would not support further expansion. A 
new facility would allow the Band to meet all current needs and serve 
the Band with future development.
Fiscal year 2001 request.--$6,000,000

                 FOND DU LAC CEDED TERRITORIES PROGRAM
Project goal
    To implement the Fond du Lac Integrated Resource Management Plan 
(FDLIRMP) to protect, manage and enhance the natural resources of the 
Ceded Territories of the Band with increased staff capabilities.
Project objectives
    1. To implement the FDLIRMP.
    2. To staff and equip program to complete identified projects.
    3. To maintain and enhance the Band's exercise of Treaty reserved 
rights
Problem statement
    The population of the reservation is on the increase and the 
competition for fish, wildlife, and plant resources has reached an all 
time high. The Band must turn to the Ceded Territories to relive some 
of the pressure on the reservation resources.
Justification
    Over the past 20 years the Band has experienced a population 
migration back to the Reservation. The standard of living has increased 
with the availability of housing and jobs has enticed many band members 
to return and take part in the development of the Reservation. This 
development has taken it's toll on the Reservation resources through a 
decrease in available habitat and an increase in pressure from an 
increasing population To provide these opportunities the band has 
turned to the Ceded Territories. The Band has taken an active role in 
the exercise of Treaty reserved rights and management of the natural 
resources used by band members by hiring 2 biologists and 4 enforcement 
staff. This staff was not adequate but, were able to manage the 1854 
area now, with the addition of the 1837 area, staff is stretched thin 
and management efforts are suffering. To meet the increase in demand 
from a larger population the Band is seeking additional funds be added 
to its base budget.
Fiscal year 2001 request.--$600,000

                 FOND DU LAC NATURAL RESOURCES PROGRAM
Project goal
    To implement the Fond du Lac Integrated Resource Management Plan 
(FDLIRMP) to protect, manage and enhance the natural resources within 
the boundaries of the Fond du Lac reservation with increased staff and 
project capabilities.
Project objectives
    1. To implement the FDLIRMP.
    2. To implement the highest priority projects on Reservation.
    3. To staff and equip the program to complete identified projects.
Problem statement
    The responsibility of the Band has expanded tremendously over the 
past ten years without any increase in its base budget.
Justification
    The land base of the Band is undergoing changes from a variety of 
directions. An increase in the population has placed greater demand for 
development of housing and industrial use which in turn are competing 
with the demands for cultural and traditional uses. The protection of 
these resources are dependent upon a balanced approach to ecosystem 
management which would include implementing the Band's IRMP. An 
increase in funding of the Band's base budget would allow the program 
to integrate the changes in population and the demands on the natural 
resources in a manner that will bring back balance to the reservation's 
ecosystem.
Fiscal year 2001 request.--$400,000
                                 ______
                                 
   Prepared Statement of the National Trust for Historic Preservation
    I appreciate the opportunity to submit this testimony to the 
Subcommittee on Interior in support of fiscal year 2002 funding for 
historic preservation. For fiscal year 2002, the National Trust urges 
the subcommittee to provide full funding from the Historic Preservation 
Fund (HPF) at $150 million. Within this level of funding for the HPF, 
we ask you to provide significant increases in funding to the State 
Historic Preservation Offices (SHPOs), Tribal and Native Hawaiian 
preservation programs and at least $35 million for the Save America's 
Treasures program. The National Trust also supports the request of 
$3.31 million for the Advisory Council on Historic Preservation.
    The National Trust for Historic Preservation appreciates the 
Subcommittee's past support for historic preservation, and the promise 
of increasing support in the future made in last year's Land 
Conservation and Infrastructure program. Not only was funding from the 
HPF set at an all-time high level of $94.347 million, but a 
Congressional commitment was made to protect that level of funding in 
the future and to give preservation the opportunity to compete for a 
share of an additional $120 million this year. In future years, those 
additional competitive funds were to increase to $600 million. It would 
not seem unreasonable for champions of historic preservation across the 
country, who have seen no increase in funding for decades, to expect 
funding in fiscal year 2002 to begin to close in on the authorized 
level of $150 million.
    Unfortunately, the Administration's budget request for the HPF in 
2002 is only $37.055 million, a drastic decrease in funding. No funding 
was requested for the Save Americas Treasures program, funding for 
Historically Black Colleges and Universities was eliminated and deep 
cuts were made in funding for the SHPOs. Cutbacks of this magnitude 
would be a serious mistake.
    Our nation's historic resources are at risk. In the decades since 
World War II, in tragic counterpoint to the growth of the sprawling new 
suburbs, we have witnessed the progressive erosion and loss of older 
neighborhoods and communities all across the country. The erosion of 
these neighborhoods destroys our quality of life, drives middle-income 
families out of our cities, promotes sprawl and limits areas where we 
can raise our children.
    Historic preservation stabilizes and rejuvenates core urban and 
small town business districts and neighborhoods. We have seen the 
successes of historic preservation across the country--in Virginia 
City, Montana millions of dollars have been appropriated on both the 
state and federal level to acquire and preserve 200 buildings and 
artifacts to turn the city into a museum on the history and development 
of the Rocky Mountain Mining Frontier. Members of Congress can see 
examples of the impact of historic preservation in neighborhoods like 
the Capitol Hill, Logan Circle and U Street NW historic districts in 
Washington, D.C. Historic communities by their very appearance and 
design create a sense of community and act as engines for 
redevelopment.
    Funding from the Historic Preservation Fund gives the states and 
tribes important resources to help protect and revitalize historic 
communities. The state and tribal historic preservation offices are the 
link between the federal historic preservation program, for which they 
have a principal implementing responsibility, and local communities 
seeking to preserve their historic resources. The SHPOs match their 
federal funds at a rate of 50 percent, making this one of the most 
leveraged and highly economical programs funded by the federal 
government. The state historic preservation offices utilize their HPF 
allocations to perform myriad services; to help local governments and 
citizens revitalize and preserve their communities; provide funding to 
meet state and local preservation goals; encourage economic development 
through heritage tourism; educate and work with federal agencies to 
minimize harm to historic places, and myriad other activities too 
numerous to mention. Many American Indian Tribes and Native Hawaiian 
organizations perform similar functions in their communities across the 
country.
    Since the early 1980s, when their federal funding was cut 
significantly, the states and tribes have seen a steady and significant 
rise in their responsibilities while their funding has remained 
essentially level and, in real dollars, actually declined. The 
increases in SHPO responsibilities are in several areas including: 
implementing new policies requiring Federal agencies to first 
considering locations in historic structures in down towns; 
administering the Historic Rehabilitation Tax Credit program; and 
administering a competitive grant program for local governments. These 
funds are necessary for them to fulfill their responsibilities under 
the National Historic Preservation Act and to respond to the needs of 
the citizens and elected officials of their states. Last year, Congress 
finally provided a significant increase in funding for the SHPOs, 
bringing them back to the level where they should be just to have kept 
up with inflation over the last twenty years.
    The Save America's Treasures program preserves historic structures 
and sites, intellectual expressions, and cultural artifacts that are 
significant to the history and culture of our nation and are at risk. 
It is engaging more Americans in the preservation of their heritage 
than any event since the 1976 Bicentennial and the funds provided are 
matched, dollar for dollar, from private sources. In fiscal year 2000, 
$30 million was distributed for the restoration and preservation of 71 
projects in more than two dozen states and the District of Columbia. 
Preservation projects of immense importance have been funded including 
the Manhattan Project Site in Los Alamos, New Mexico; Weston State 
Hospital in Charleston, West Virginia; an online historical 
investigation project at the Butte-Silver Bow Public Archives in Butte, 
Montanta; the Sitka Pioneers Home in Sitka, Alaska; and Babe Ruth's 
scrapbooks. However, the demand for Save America's Treasures funds have 
greatly exceeded the $95 million appropriated over the last three 
years. More than 700 official SAT projects have been designated, but 
only a small portion of them have received any federal funding. More 
than $3 billion in needed funding has been detailed by these SAT 
projects. It does not make sense for the federal government to 
eliminate this program now and walk away from this tremendous, 
demonstrated need.
    At the request of the Administration, the National Trust has served 
as the White House's lead private partner in this program, with primary 
responsibility for public education and resource development. Beginning 
with Polo Ralph Lauren's extraordinary $13 million contribution to 
restore and preserve the Star Spangled Banner, the private ``Save 
America's Treasures'' initiative has succeeded beyond our most 
optimistic expectations. We have raised over $52 million in private 
support for preservation projects in communities across the country. 
Despite this success, we have only scratched the surface. For example, 
a $1 million SAT grant fund created by the Getty Foundation at the 
National Trust attracted over 200 applications. With a maximum award of 
$50,000, we were able to make a total of 37 grants in 29 states.
    To date, almost $150 million in public and private funds has been 
raised to save our nation's treasures. Together, the new public and 
private commitments and the greater public awareness of the nation's 
needs will result in the largest increase in preservation activity in 
over 30 years. Whether composed of stone, wood, parchment, or cotton 
canvas, these fragile American treasures have survived decades, 
centuries, and even millennia to be entrusted to our hands. Save 
America's Treasures seeks to ensure that they will continue to 
illuminate and inspire countless generations to come. I hope that the 
subcommittee will agree to provide another year of funding for the Save 
America's Treasures program. No less than the memory of our country is 
at stake.
    The message that I would like to leave with you today is that our 
nation's heritage is deserving of continuing federal government support 
at the highest possible levels. Many years ago a commitment was made to 
provide $150 million a year for historic preservation, but that level 
has never been reached. The 106th Congress finally made significant 
strides toward that goal, and the retrenchment proposed by the 
Administration to the 107th Congress is not justified. I urge the 
Subcommittee to live up to that commitment to preserving our heritage 
by fully funding the historic preservation program.
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association
    The National Parks Conservation Association (NPCA) is pleased to 
share its views regarding the programs in the Department of Interior's 
budget that affect national park resources and requests that this 
statement be included in the hearing record for the fiscal year 2002 
Interior and Related Agencies appropriations bill. NPCA is requesting 
an increase of $120 million over the current spending levels, for a 
total of $1.5 billion in fiscal year 2002 for the operation of the 
National Park System (ONPS). This represents an increase of $41 million 
over the Bush Administration's requested fiscal year 2002 increase for 
the ONPS. Further detail on this request follows.
    NPCA is the only national nonprofit conservation organization that 
advocates exclusively for the National Parks. Through public education, 
advocacy, and citizen outreach, NPCA works to protect, preserve, and 
enhance America's National Park System for present and future 
generations.
    NPCA appreciates the opportunity to share with you our priorities 
for funding and we respectfully request the Committee consider these 
views as you shape the fiscal year 2002 budget for the Department of 
Interior and Related Agencies.
    The National Park System faces many challenges. For decades, the 
National Park Service (NPS) has lacked the funds needed to manage 
adequately the wildlife, landscapes, and historic and cultural 
artifacts protected within the NPS. The Park Service's own research has 
shown that not a single park has completed inventory of its plants, 
animals and historic artifacts; the Park Service cannot control 
invasive species on 93 percent of its lands that suffer from exotics; 
63 percent of the threatened and endangered species in the national 
parks are expected to decline in the next five years; and 67 percent of 
the cultural artifacts in the Park System are in poor condition.
    During the past three years, a series of detailed park budget 
studies by NPCA and the NPS have revealed just how deeply decades of 
funding shortfalls have eroded the Park Service's capacity to protect 
our nation's parks. Called the Business Plan Initiative (BPI), these 
studies team graduate students from the nation's top business and 
government management schools with park managers to analyze park 
administrative and financial needs. Studies and business plans have 
been completed for two dozen national parks. BPI has identified two 
fundamental problems: (1) park operations suffer an annual funding 
shortfall of at least 35 percent, or about $600 million annually; and 
(2) the money the Park Service does receive is not used as 
strategically as it could be, emphasizing short-term visitor needs over 
long-term park protection.
    Upon examination of President Bush's submitted budget proposal for 
fiscal year 2002, NPCA finds that it fails to balance legitimate needs 
for reducing the infrastructure and maintenance related backlog with 
longstanding shortfalls in the daily operations needs of the parks, 
especially in the areas of resource protection and visitor education.
    A strong financial commitment by both Congress and the Bush 
Administration is desperately needed to protect and enhance our 
national parks, not just for the roads and buildings that serve the 
visitor experience, but for the natural and cultural treasures that are 
the raison d'etre of the parks' designation. To this end, NPCA 
recommends the following budget priorities and associated funding 
levels for the National Parks Service in fiscal year 2002:

                 OPERATION OF THE NATIONAL PARK SYSTEM
    NPCA is pleased the Administration has increased the budget request 
for the operation of the National Park System in it's fiscal year 2002 
request. However, the increase of $79 million is far from sufficient to 
meet the growing demands and needs of the increasingly stressed 
national park units. Furthermore, $46 million of this increase 
represents fixed cost increases for employee salaries (covering 
approximately 75 percent of the real cost impact of grade changes and 
cost of living adjustments) and $20 million is dedicated to the Natural 
Resource Challenge. This leaves only $13 million in new spending for 
the operation of our national park system.
    NPCA requests significant increases to the operation of the 
National Park System to be introduced over time, with an additional 
$600 million in operations by fiscal year 2006, a figure in line with 
the conclusions from the two dozen business plans completed to date. 
For fiscal year 2002, NPCA proposes an increase of $120 million over 
the enacted fiscal year 2001 budget ($41 million over the 
Administration's fiscal year 2002 request), for a total of $1.5 billion 
in fiscal year 2002 for operation of the ONPS. Of this amount, at least 
55 percent should be used to protect park plants, animals, and historic 
and cultural artifacts and to improve park interpretation. Remaining 
funds can be allocated to reducing maintenance backlog.
    NPCA recommends the following breakdown for the additional $120 
million in fiscal year 2002 for system-wide resource protection needs:

                        [In millions of dollars]

Base budget increase for 24 parks with needs identified in 
    existing business plans.......................................    50
Natural Resource Challenge........................................    20
Other high priority natural and cultural resource projects 
    identified by 
    NPS...........................................................    50

                      Natural Resources Challenge

    NPCA strongly supports the Administration's continued 
commitment to fund the Natural Resources Challenge--a multi-
year program to strengthen natural resources management in the 
National Park Service. This program calls for expanded natural 
resources inventory programs to give the Park Service 
critically needed information for resource management within 
the parks. NPCA supports the Administration's request of an 
increased $20 million for a total of $49.5 million in fiscal 
year 2002 to continue funding this important program.

                      Construction and Maintenance

    The Bush Administration's has proposed $440 million in 
fiscal year 2002 for construction and maintenance to address 
the National Park Service maintenance backlog. However, on 
close inspection of the budget request, it appears that $100 
million of this amount is derived from Recreation Fees and is 
not new funding. The $61 million in additional funding for 
fiscal year 2002 represents a real increase of just over one 
percent of the $4.9 billion backlog that the President has 
promised to eliminate over the next five years.
    Finally, Congress and the Administration should adopt a 
framework for increasing NPS budgets that holds the Service 
accountable to targets for improved resource protection. This 
includes increasing the financial expertise of park staff and 
generating business plans for all parks.
    Thank you for your consideration of our views. NPCA greatly 
appreciates the Committee's past support for our national parks 
and we look forward to continuing to work with you to protect 
America's parks as the fiscal year 2002 budget process moves 
forward.
                                ------                                

            Prepared Statement of the Tohono O'odham Nation

                            WESTSIDE CLINIC
    Villages in the western portion of the Tohono O'odham Nation 
(``Nation'') are considered remote in terms of access to health care. 
Village residents must travel up to 90 miles over poorly maintained and 
often unpaved roads to the nearest health care facility; some villages 
are entirely isolated during heavy rains. Furthermore, data provided 
through the Level of Need Funding acknowledges that healthcare for the 
Tohono O'odham is funded at 49 percent of the medical funding required 
when compared to other federally recognized tribes. The Tohono O'odham 
Legislative Council has authorized tribal funding for construction of a 
28,000 square foot healthcare facility and dental clinic to serve the 
Nation's western districts. The Public Health Service/Indian Health 
Service (PHS/IHS) has notified the Nation of its selection to 
participate in the fiscal year 2001 Joint Venture Construction Program 
(JVCP). The notification letter stipulates that this funding is 
allocated for medical equipment only and is considered nonrecurring. 
Recurring funding for staffing is a critical element that is not 
addressed in the fiscal year 2001 appropriation and is essential to 
successfully operate the facility the Nation has chosen to fund. Based 
on the current unmet need for staffing, the Nation is requesting $2.7 
million to hire approximately 57 staff members to work in the various 
departments once the facility is completed. Improved access to quality 
health care is an essential need of the Tohono O'odham people and 
staffing the JVCP facility will accommodate this need.
    Contact Person: Silvia Parra, Director of Human Services, P.O. Box 
815, Sells, AZ 85634. Telephone: (520) 383-6100.

                  VETERANS MEMORIAL MONUMENT AND PARK
    The Tohono O'odham Nation consists of 25,000 tribal members living 
in 11 districts and 85 villages in an area approximately the size of 
Connecticut. Despite the fact that Native Americas have served in the 
United States Armed Forces at a higher rate than any other group, the 
Nation does not yet have a Veterans Memorial Park or Monument to honor 
Tohono O'odham men and women who have so served. Such a Monument and 
Park are needed to honor all who have made the supreme sacrifice as 
well as for veterans and families that are still healing. The Air Force 
has agreed to help clean and prepare an existing site donated by the 
Nation for the Memorial Park. Funds have not been allocated for the Air 
Force or the Tohono O'odham Veterans Affairs Office to make purchases 
for the Veterans Memorial Park on the Tohono O'odham Nation. $150,000 
is requested to build the Memorial Monument and Park.
    Contact Person: Julius Anguiano, Director of Veteran Affairs 
Office, Executive Department, P.O. Box 837, Sells, AZ 85634. Telephone: 
(520) 383-2028.

    BUREAU OF INDIAN AFFAIRS (BIA), PAPAGO AGENCY, BRANCH OF ROADS 
                              MAINTENANCE
    Introduction.--The Branch of Roads (``Roads'') is responsible for 
providing a safe transportation system for the Tohono O'odham Nation 
and the traveling public. This is accomplished by involving and 
assisting the Nation in transportation system development, maintenance, 
and construction, thus ensuring the health, safety, and economical use 
of the road system. The Nation's growing population, increased public 
transportation, through traffic to the Republic of Mexico, and the 
extreme desert conditions found on the Nation create a high demand for 
efficient roads.
    Functional Statement.--Roads is responsible pursuant to 23 U.S.C. 
116; 24 U.S.C. 318(a); and 25 CFR 170.6 for maintaining 440 miles of 
earth, 110 miles of gravel, and 333 miles of paved surfaces, for a 
total of 883 BIA roadway system miles over a 2.8 million-acre land 
area. The program currently maintains only approximately 55 percent or 
486 miles of roadways due to lack of funds to hire additional personnel 
and purchase much needed equipment. The current staff consists of 1 
Supervisory Civil Engineer Technician, 1 Secretary, 1 Mechanic, 3 
Engineering Equipment Operators, and 1 Laborer. Older roads, new roads 
and bridges need maintenance to prevent deterioration. Without 
additional funds it will take five years or more before the newer roads 
and bridges can be properly maintained. In fiscal year 2002 Roads 
requires a minimal operating budget of $500,000. This money will be 
used for equipment maintenance, operating costs, supplies for signing, 
crack sealing, training, and salaries.
    Maintenance Equipment.--New equipment to be purchased: 1 Front End 
Loader @ $125,000, 3 Dump Trucks with Plows @ $150,000, 3 Belly Dump 
Trailers @ $150,000, 2 Tractor Mowers @ $80,000, 2 Water Trucks @ 
$80,000, 1 Steel Wheel Roller @ $150,000, 2 Motor Graders @ $650,000, 2 
Rubber Tired Rollers @ $80,000, and 2 Truck Tractors @ $200,000, a 
total approximate estimate cost = $1,665,000.
    Contact Person: George Martinez, Supervisory Civil Engineer 
Technician, Bureau of Indian Affairs, Papago Agency, P.O. Box 578, 
Sells, AZ 85634. Telephone: (520) 383-3336

         ADULT AND JUVENILE CORRECTIONS CENTER: PROJECT SUMMARY
    Since 1995, the Average Daily Population (ADP) at the Tohono 
O'odham Adult Jail Facility--which was originally built to house 34 
inmates--has increased by 107 percent, from 50.8 in 1995 to 105.1 in 
1999. Between 1990 and 1999, the ADP in the Juvenile Facility has 
increased 188 percent, from 5.8 in 1990 to 14.9 in 1999.
    These populations have risen consistently since 1990, and do not 
include the undocumented aliens crossing into the United States from 
Republic of Mexico and processed at the Nation's jail facility. During 
the year 2000, for example, the Tohono O'odham Police processed 450 
undocumented aliens through the jail facility; this includes men, women 
and children. These increasing numbers justify the immediate need for 
this facility.
    The proposed facility will comprise two components: Adult Detention 
and Juvenile Detention. The facility will house 220 adults and 72 
juveniles with the ability to expand, if necessary. The estimated cost 
for the architectural design and engineering of this facility is 
$2,000,000. The total cost for both components, including furnishing, 
contingency fees and taxes is $41,990,490. A major emphasis in this 
project is on programming, which includes remedial classes, GED 
classes, vocational education, and counseling (e.g., parenting skills, 
life skills, and psychological counseling). The lack of this type of 
programming within a correctional facility has been identified as a 
possible reason for inmate population increase. We believe that 
including a series of comprehensive programs for inmates will reduce 
the recidivism.
    Contact Persons: Lawrence F. Seligman, Chief of Police, Tohono 
O'odham Police Department, P.O. Box 189, Sells, AZ 85634. Telephone: 
(520) 383-6436; Max A. Chavez, Court Administrator, Tohono O'odham 
Nation Justice Center, P.O. Box 761, Sells, Arizona 85634. Telephone: 
(520) 383-6300.

                 EMPLOYMENT ASSISTANCE PROGRAM SUMMARY
    The Employment Assistance Program assists eligible individuals 
through Direct Employment Funding and Adult Vocational Training. 
Information is provided to individuals with employable skills for 
suitable jobs on and off the Tohono O'odham Nation. One-time financial 
assistance is also provided until the first payroll check is received. 
To ensure this assistance, an applicant must apply immediately upon 
acquiring employment as there is limited time within which a request is 
approved.
    In addition to financial aid, other services include Adult 
Vocational Training (AVT), which assists potential clients in acquiring 
job skills necessary to obtain employment. Vocational counseling or 
guidance assists participants in making career choices. Information 
related to training options and employment availability on and off the 
Tohono O'odham Nation is also provided.
    Uncertainties in the fiscal year 2002 final budget allocation 
prevent the program from making long range plans or commitments to 
financially assist a greater number of individuals. Balancing daily 
duties and scheduled presentations is difficult with a one-person 
program. Students are enrolled in an ongoing process. The Education 
Assistant Specialist is required to meet with clients on a daily basis 
to provide training information and review files with both the client 
and institution to assess completeness. $350,810.33 is need to employ 
additional staff who will contact and otherwise support clients as well 
as follow-up with institutions and employers.
    Contact person: Louis Lopez, Educational Assistant Specialist, 
Employment Assistance Program, P.O. Box 837, Sells, Arizona 85634. Toll 
Free Number: 1-888-966-3426; Fax: (520) 383-2668.

   HIGHER EDUCATION SERVICES FISCAL YEAR 2002 APPROPRIATIONS SUMMARY
    The Higher Education Services is a program designed to assist 
tribal members in obtaining higher education through a traditional 
four-year college, community college, or a technical school. The main 
component of Higher Education Services is to provide quality training 
and education for tribal members through available funds. The Education 
Assistance Specialist (EAS) works closely with high school counselors 
in providing information and materials for students interested in post 
secondary education. All high schools the program visits have students 
who are potential clients.
    In the past two years Higher Education has funded 98 students 
pursuing various degrees. Six students graduated in 1999 with six more 
graduating in 2000. This year the program expects to graduate at least 
12 students. The program expects to fund at least 150 clients in the 
next two years and anticipates 25 clients graduating.
    The uncertainties of the fiscal year 2002 final budget allocation 
make providing funding to students requesting assistance difficult and 
prevent the program from implementing long-range plans or financially 
assisting a greater number of individuals. In addition, the lack of 
funding for staff makes it difficult to provide services year-round and 
to avoid interrupting services during the new fiscal time period. 
$541,343.94 is needed to fully fund this program.
    Contact person: Annamarie Stevens, Education Assistant Specialist, 
Tohono O'odham Higher Education Services, P.O. Box 837, Sells, Arizona 
85634. Telephone: (520) 383-6571 or 1-888-966-3426. Fax: (520) 383-
2668.

        NEEDS FOR BIA SCHOOLS SERVING THE TOHONO O'ODHAM NATION
    The four Bureau of Indian Affairs schools on the Tohono O'odham 
Nation have identified needs which cannot be met at the present level 
of funding. These needs include additional staff members, improved 
instructional materials, and safe playground equipment for lower 
elementary grades. $2,345,200 in additional funding through the Bureau 
of Indian Affairs Indian School Equalization Program will be used to 
purchase instructional materials to align school curricula with state 
standards, improve playground equipment at two elementary schools, and 
to fully fund forty-six positions for nurses, school counselors, 
librarians, reading teachers, language and culture teachers and aides, 
and support positions.
    Routine preventive maintenance has been seriously limited by past 
funding restrictions. Adequately funding maintenance will allow schools 
to properly maintain buildings and equipment. $13,775,000 in additional 
funding from BIA Facilities Management and Construction Program will be 
used at four schools to correct identified health and safety 
deficiencies, upgrade fire systems, to complete overdue facility 
improvements and repair projects related to simple aging of the 
buildings. Specific projects include replacing roofs and old air 
conditioning units at two schools and replacing inadequate evaporative 
coolers with air conditioning equipment at three of the schools.
    The BIA schools also request assistance in having quarters funding 
generated by rental units at three school locations distributed to the 
BIA Papago Agency, OIEP, Education Line Officer rather than to the BIA 
Agency Office of Indian Programs. This will allow more immediate access 
to funds available for quarters maintenance.
    Contact Person: Karen Dawson, Acting Superintendent, Bureau of 
Indian Affairs, Office of Indian Education Programs, HCO1 Box 8600, 
Sells, AZ 85634. Telephone: (520) 383-3501.
                                 ______
                                 
              Prepared Statement of Defenders of Wildlife
    Defenders of Wildlife's five top priorities for fiscal year 2002 
funding are: (1) the Fish and Wildlife Service (FWS) endangered species 
program; (2) the new Land Conservation, Preservation and Infrastructure 
Improvement Fund, especially FWS State Wildlife Grants; (3) National 
Wildlife Refuge System Operations and Maintenance; (4) U.S. Geological 
Survey, especially the Biological Research Division; and (5) Bureau of 
Land Management National Monuments. We have grave concerns about the 
President's budget request in these areas, as discussed below.

          FISH AND WILDLIFE SERVICE ENDANGERED SPECIES FUNDING
    The Administration has requested a rider that would significantly 
restrict, and in many cases eliminate altogether, the ability of 
citizens and conservation groups to secure protection for endangered 
and threatened species under the Endangered Species Act (ESA). We are 
adamantly opposed to this rider and to all other anti-environmental 
riders.
    The ESA includes three critical checks and balances to ensure that 
political and economic influences do not undermine protection of 
endangered and threatened species: the authority for citizens or groups 
to petition FWS to list a species; mandatory deadlines for FWS once a 
petition is filed; and the right for citizens to sue FWS for failure to 
meet these deadlines.
    The proposed rider would effectively eliminate citizen oversight 
and enforcement of the listing process by waiving the ESA's statutory 
listing deadlines and prevent court orders directing FWS to expend any 
money to comply with a missed listing deadline. Instead, FWS would only 
be obligated to list: (1) those species covered by court orders and 
settlement agreements in place when the Interior appropriations bill is 
enacted later this year--which may have the perverse result of creating 
an immediate rush to the courthouse, precisely the result FWS claims it 
is trying to avoid; and (2) other species solely at the discretion of 
Administration.
    This rider could have a devastating impact on many critically-
imperiled species. For example, but for citizen listing petitions and 
enforcement, species like the Canada lynx, Atlantic salmon and cactus 
ferruginous pygmy-owl would likely not be currently protected under the 
ESA. Indeed, it is not an overstatement to say that most species in 
recent years have been listed as the result of listing petitions and 
citizen enforcement. This is certainly the case for controversial 
listings like Canada lynx and Atlantic salmon. For example, an analysis 
by the Center for Biological Diversity determined that over the last 9 
years, 92 percent of all ESA listings in California--where about 22 
percent of all listed species exist--were the result of either a 
listing petition or citizen lawsuit, and most often both.
    The real solution is more money. The ESA is one of our nation's 
most important environmental laws, standing as a bulwark against the 
loss of our rich and unparalleled biological heritage. Despite its 
critical role, it has never been funded at the level needed to carry 
out its purposes. The President's $111.8 M request for the four main 
FWS ESA accounts (Candidate Conservation, Listing, Consultation, and 
Recovery) and $54.7 M for the Cooperative Endangered Species Fund falls 
far short and cuts more than 25 percent from the total fiscal year 2001 
funding level.
    Our highest priority for ESA funding is listing. The listing 
program is in crisis at this point due to lack of funds: more than 300 
species await listing and another 249 await critical habitat 
designation. The Fish and Wildlife Service (FWS) has announced that at 
current funding levels it can no longer list any species except those 
under court order, settlement agreements or as emergencies, but 
emergencies already exist--the situation for many of these species is 
so dire that some may go extinct while awaiting ESA protection. These 
include species such as the beautiful cerulean warbler, a migratory 
songbird whose U.S. population has declined by 70 percent and the 
Mississippi gopher frog, once abundant in southern bayous, now found in 
only one Mississippi pond threatened by a proposed housing development 
200 meters away. The Administration's proposed increase of $1.9 M for 
listing is welcome but not nearly enough to meet the need; FWS 
estimates that $80-120 M is needed to address the backlog of listing 
activities. We urge a yearly appropriation of $16-24 M for listing over 
the next five years.
    Increases are also needed for the recovery program.--The 
Administration proposes a $6.3 M cut for recovery. But this program was 
already woefully underfunded at its current level of $59.8 M. Many 
species listed are not receiving needed recovery efforts, and could go 
extinct while theoretically protected under the Act. The long list of 
species includes the Rio Grande silvery minnow, Attwater's greater 
prairie chicken, the Little Mariana fruit bat, and Moloka'i thrush. 
Miller et al. in the ``Endangered Species Act: Dollars and Sense?'' 
(Bioscience, in press) found that $650 M per year is needed for 
effective recovery activities. We urge the Subcommittee to start 
phasing in these needed increments by adding $120 M to the recovery 
budget each year for the next five years, beginning in fiscal year 
2002.

      LAND, CONSERVATION, INFRASTRUCTURE IMPROVEMENT FUND (LCPII)
    The establishment of the landmark LCPII fund in last year's 
Interior appropriations conference report was one of the great 
bipartisan achievements of the 106th Congress and was strongly 
supported by Defenders and numerous other environmental groups. We 
applaud the subcommittee for this historic accomplishment. The 
President's request reneges on this momentous deal by requesting $94 M 
less than the $1.32 B fiscal year 2002 level dedicated for programs 
covered under the Interior appropriations bill and by playing a shell 
game--siphoning funding from other important state grant programs 
included under LCPII, such as FWS State Wildlife grants and the 
Cooperative Endangered Species Fund, to make up the total of $450 M for 
the state portion of the Land and Water Conservation Fund (LWCF). 
Further, the President proposes statutory language to authorize 
``flexibility'' for state LWCF funds to be used for these very same 
programs, but with no guarantee of a specific funding level for any of 
these critical needs. Moreover, the budget diverts $60 M from federal 
LWCF for two new grant programs that provide incentives to private 
landowners for habitat conservation, programs we support in concept, 
but not at the expense of federal LWCF or other important conservation 
programs. Statutory language is proposed to authorize this change as 
well. In fact the only amount guaranteed for traditional LWCF under the 
request is $390 M for the federal program. We adamantly oppose this 
violation of last year's deal and strongly urge the subcommittee to 
reject the statutory language, fully endow the fund at the fiscal year 
2002 $1.32 B level, and allocate the available funding among covered 
programs in the same balanced distribution as last year with no less 
than $450 M directed to federal LWCF.
    Of particular importance to Defenders is the new FWS State Wildlife 
grants program established in last year's deal to provide critically 
needed funding to states to protect species of greatest conservation 
need. This funding is desperately needed to help states conserve and 
restore declining native species before listing under the ESA is 
required. Currently, the Nature Conservancy and its partners in the 
state-based Natural Heritage programs have identified more than 6,900 
U.S. species as either critically imperiled, imperiled, or vulnerable, 
representing 1 in 3 of our native vertebrate, flowering plant and 
selected invertebrate species. Until now, little funding has been 
available to help address this crucial and growing need to stem further 
listings under the ESA by conserving habitat now. FWS moved quickly in 
developing guidance to get this program off the ground; moreover, as 
was directed in the fiscal year 2001 conference report, language in the 
FWS guidance (50 Fed. Reg. p. 7657 ``Jan. 24, 2001'') supports use of 
funds for the creation of statewide map-based conservation strategies 
that can save millions of dollars in litigation and conflicts over the 
environment. Unfortunately, FWS has since put the program on hold. 
Defenders is working directly with numerous states that are very eager 
to apply for the funding, but are concerned that the money may never 
materialize. We ask the subcommittee's help in assuring that FWS moves 
forward with this important program for fiscal year 2001. Further, as 
this is one of the programs the budget request would zero out, we urge 
the subcommittee to reject this proposal and instead provide $120 M for 
the fiscal year 2002 state wildlife program, $20 M more from the 
increase slated to come into LCPII than was provided in fiscal year 
2001.

   NATIONAL WILDLIFE REFUGE SYSTEM (NWRS) OPERATIONS AND MAINTENANCE
    The 94 million acre NWRS is the only federal public lands system 
dedicated primarily to the conservation of fish and wildlife; it is 
crucial to protection of migratory birds, endangered species, and other 
wildlife. The Refuge System will pass its most significant milestone 
yet when it celebrates its 100th anniversary in 2003. Yet despite its 
importance to the conservation of wildlife and wildlife habitat, 
chronic and severe funding shortfalls for operations and maintenance 
(O&M) have threatened the Refuge System's ability to achieve its 
mission for years.
    Since 1998, Congress has begun to respond to the problem by 
providing important increases; unfortunately, due to the magnitude and 
duration of the O&M funding deficit, continued increases will be needed 
to address the $1.1 B in documented operations needs--which includes a 
need for more than 1,350 new staff positions--and the more than $800 M 
maintenance backlog. These funding needs are consistent with provisions 
to improve management and stewardship of the Refuge System included in 
the National Wildlife Refuge System Improvement Act of 1997 and the 
National Wildlife Refuge System Centennial Act of 2000. Since 1995, 
Defenders has been a leader in the Cooperative Alliance for Refuge 
Enhancement (CARE), a unique coalition of 20 environmental, hunting, 
fishing and recreation groups that has developed a plan to increase 
Refuge funding substantially by its anniversary. While we appreciate 
the $14.9 M increase for refuges in the President's budget request, we 
are extremely concerned that most would be directed at maintenance 
needs. Since 1997, funding for maintenance has seen a five-fold 
increase; but operations funding has increased by only one-half of its 
1997 level. CARE recommends a total $150 M increase for Refuge O&M for 
fiscal year 2002. The most critical part of this increase is $119.8 M 
for operations activities such as surveys, inventory and monitoring; 
habitat restoration; and development of Comprehensive Conservation 
Plans.

   U.S. GEOLOGICAL SURVEY (USGS)/BIOLOGICAL RESOURCES DIVISION (BRD)
    Scientists at USGS provide critical information about fish, 
wildlife and plants and their habitats, and they detect trends in our 
environment over time. This research is vital to detecting and 
responding to environmental problems, yet the President's budget 
request proposes a 7.7 percent cut to the budget of USGS, the inter-
disciplinary science arm of the Department of the Interior. We strongly 
oppose these cuts. We are particularly concerned about cuts to the 
Water Resources Investigations ($44 M) and Biological Resources 
Divisions ($11.3 M). Cuts to Water Resources would eviscerate critical 
programs, such as National Water Quality Assessment and Toxic 
Substances Hydrology, that provide information on the health of our 
water resources and impacts of dangerous contaminants to ground and 
surface water. Cuts to BRD will cripple its ability to do badly needed 
research for the land management agencies. These cuts also eliminate 
the National Biological Information Infrastructure, a program designed 
to allow researchers to find existing ecological information easily 
through a centralized internet-based system. Additional cuts will 
further damage BRD's ability to deliver information to land management 
agencies. Finally, the cuts will freeze progress for the Gap Analysis 
Program, a collaborative effort involving states and more than 500 
business, non-profit, state, local, and Federal agency organizations, 
which has mapped the biological resources of 79 percent of the states 
in the U.S. The fiscal year 2002 request for BRD is $149.2 M, $11.3 M 
below the fiscal year 2001 level and about $60 M below even the fiscal 
year 1994 inflation adjusted level of $220 M. We urge at least $170 M 
for BRD for fiscal year 2002, a $10 M increase over fiscal year 2001.

    BUREAU OF LAND MANAGEMENT (BLM): NATIONAL MONUMENTS AND ENERGY 
                              DEVELOPMENT
    Defenders of Wildlife strongly supports the recent national 
monument designations. These new monuments encompass unique and fragile 
ecosystems, an extraordinary array of archaeological and historical 
resources, and wild and scenic landscapes. The monuments also provide 
important habitat for numerous threatened and endangered species. A 
high priority for Defenders is implementation of the Sonoran Desert 
National Monument and the Ironwood Forest National Monument, both of 
which are located in Arizona and are to be administered by the BLM. 
Critical implementation measures for the new monuments will include, 
among other things: a planning process, increased on-the-ground 
management, and improved law enforcement. The historical, cultural, 
biological, and scientific qualities of these areas warrant their 
protection as national monuments, including the specific management 
provisions under which new mining, mineral leasing, and certain grazing 
activities will be prohibited. The budget must allocate sufficient 
resources through the National Landscape Conservation System for BLM to 
properly administer these important national treasures. Rather than the 
$9 M requested by the President's budget, $50 M is needed for fiscal 
year 2002.
    While the President's budget decreases funding for important 
conservation programs, it would increase funds by about $30 M for 
energy and mineral development in the Gulf of Mexico and on our public 
lands, including planning for energy development in the pristine Arctic 
National Wildlife Refuge. We oppose these increases and urge the 
subcommittee to direct these funds instead to the NLCS.

                           SPECIFIC PROJECTS
    Defenders wishes to highlight three specific funding needs for 
efforts that contribute to endangered species protection.
    First, a broad group of interests, including environmental groups, 
sea otter researchers, agencies, fisheries group representatives, 
legislative staff, aquarium staff, and public stakeholders has 
determined that $1.675 million in research is needed each of the next 
five years to support recovery of the threatened sea otter whose 
population has suffered declines in 4 out of the last 5 years. Funding 
should be earmarked either to FWS or USGS BRD.
    Second, $850,000 is needed through FWS Section 7 Consultation to 
continue with the crucial third year of development of the Sonoran 
Desert Conservation Plan, a model land-use plan for communities around 
the country. The SDCP is the largest habitat conservation planning 
process now underway, and is incorporating an unprecedented number of 
elements related to land use planning, including cultural conservation, 
ranch conservation and riparian area restoration. The budget request 
eliminates this funding.
    Third, endangered species protection is becoming more of a priority 
on tribal lands. To address this need, we request the following: $1.625 
M for FWS Tribal Technical Assistance office in Region 6; $1.035 M for 
the newly created InterTribal Prairie Restoration Council, a coalition 
of tribes from the Northern Plains states focusing on prairie wildlife 
issues through Bureau of Indian Affairs (BIA); $290,000 for the 
Montana/Wyoming Tribal Fish and Wildlife Commission to better 
coordinate conservation activities among the tribes; and $493,000 for 
BIA for tribal wildlife projects in the northern Rockies.
                                 ______
                                 
   Prepared Statement of the Confederated Tribes of the Warm Springs 
                         Reservation of Oregon
    Mr. Chairman, I, Olney Patt, Jr., Chairman of the Confederated 
Tribes of the Warm Springs Reservation of Oregon, hereby submit the 
following fiscal year 2002 appropriations requests for the Bureau of 
Indian Affairs and the Indian Health Service:
    (1) Designate a portion of BIA School Construction funding to 
assist reservation-based public schools serving Indian students, and 
earmark $10 million of such funds for construction of a new elementary 
school at Warm Springs.
    (2) Maintain the BIA Law Enforcement initiative, provide half its 
funding for tribally-hired personnel, designate $1 million within Law 
Enforcement for Warm Springs, and add funds for design and construction 
of a new detention facility at Warm Springs.
    (3) Add $2 million for Warm Springs Forest Management in BIA TPA 
funding.
    (4) Add $500,000 for Warm Springs in BIA funding for Water 
Management, Planning and Pre-Development.
    (5) Add $1 million in BIA FERC Relicensing funding for the costs of 
Warm Springs Tribal participation in the Pelton Hydroelectric Project's 
relicensing.
    (6) Increase BIA and IHS Contract Support funding to provide 100 
percent coverage of tribal Self-Determination Act contracting and 
compacting.
    (7) Increase IHS Hospitals and Clinics funding by $1.75 million to 
provide full direct services for Warm Springs pursuant to the Joint 
Venture Agreement between the Tribe, the I.H.S. and the Congress.
    Please understand that these requests may lack detail, because of 
the delayed development and presentation of the detailed fiscal year 
2002 Administration budget request.
    We also wish to inform the Subcommittee of the revenue shortfalls 
and resulting fiscal challenges we are facing in the foreseeable 
future. To meet those challenges, we are ``down-sizing'' our Tribal 
government, resulting in the loss of programs, local services and jobs. 
Further, low lumber markets have caused our Tribally-owned and operated 
mill to reduce operations to 1 shift and permanently lay off 60 
employees. These reductions have been particularly painful in our 
community where employment alternatives are scarce, so we are hopeful 
that, in these times of federal budget surplus, you can respond 
positively to our requests. Request details follow.
(1) Designate a portion of BIA School Construction funding to assist 
        reservation-based public schools serving Indian students, and 
        earmark $10 million of such fund for construction of a new 
        elementary school at Warm Springs
    We note in the fiscal year 2002 budget ``Blue Print'' that 
substantial funding--perhaps as much as $1 billion--will be provided in 
the Bureau of Indian Affairs budget to improve BIA schools. We ask that 
some component of those funds be dedicated to assisting the 
construction of public schools serving Native American children. About 
one third of the entire BIA budget is dedicated to the education of 
only 10 percent of Native American children in the BIA schools. Only a 
pittance of the BIA's budget goes to the great majority of Native 
American children in public schools, despite the Bureau's trust and 
treaty obligations to the children of all Indian tribes. And of that 
very modest funding, none is available to assist with construction. We 
ask that this be corrected and full BIA funding be provided for the new 
K-5 school at Warm Springs.
    Since 1961, the Warm Springs Tribe and the local public school 
district have contributed the lion's share of the economic support 
necessary to educate Warm Springs youth, and the BIA was allowed to 
reallocate the funds previously earmarked to educate our youth 
elsewhere. The construction of a new elementary school has been a high 
priority for our Tribe for many years. Despite that, the Madras Public 
School District, which operates the current outdated and undersized 
elementary facility at Warm Springs, has declined to seek funding for a 
needed new facility on the reservation through their scheduled bond 
offering in 2001.
    Accordingly, the BIA must now honor its obligations to our Tribe, 
and so we now ask the Subcommittee to take the actions necessary to 
provide funding from the BIA School Construction budget to build a new 
25,000 square foot, 600 student K-5 elementary facility at Warm 
Springs. We request that the needed $10 million be earmarked, and if 
that is not possible, we request $5 million for partial funding to seek 
a collaborative effort with the District.
    We recognize that public schools serving Native American children 
otherwise receive assistance through federal Impact Aid funding. We 
point out those funds go to the public school district, not the tribe, 
and that in recent years the program has not provided any realistically 
useful funding for construction. While the Education fiscal year 2002 
Blue Print shows $61 million for Impact Aid construction, that amount 
falls woefully short of even beginning to address the need.
(2) Maintain the BIA Law Enforcement initiative, provide half its 
        funding for tribally-hired personnel, designate $1 million 
        within Law Enforcement for Warm Springs, and add funds for 
        design and construction of a legally compliant detention 
        facility at Warm Springs
    Several years ago, rising crime threatened to completely overwhelm 
the capabilities of the Warm Springs Tribal Police, which, relying 
principally on Tribal funding, could only afford two personnel on 
patrol at any one time to cover our 1,000 sq. mile Reservation. More 
recently, however, the tribal COPS program in the Justice Department 
has enabled us to hire several more officers, and to strengthen our 
patrol and enforcement presence. Unfortunately, COPS funds are only for 
a limited time. Accordingly, we ask that BIA law enforcement initiative 
funding be at least maintained, and that one-half of those funds be 
expressly made available to support tribally operated police 
departments. Most of the Bureau's funds go to reservations where the 
Bureau itself operates the law enforcement program. On reservations 
such as Warm Springs where the BIA has essentially forsaken its law 
enforcement role, tribes must have the authority to seek renewed Bureau 
participation in law enforcement responsibilities, particularly by 
supporting patrol personnel, and especially those whose COPS support is 
withdrawn. We request an additional $1,000,000 in BIA law enforcement 
funds be designated for Warm Springs, prioritized for patrol services, 
investigations, detention, and rehabilitation programs and services.
    Further, we request that funds be added and earmarked through BIA 
to design, construct, equip and operate a new legally compliant 
detention facility at Warm Springs for adults and juveniles. We 
currently operate a BIA-owned detention facility for adults and 
juveniles that is grossly deficient, most notably in overcrowding and 
sight and sound separation of juveniles and adults. In addition, 
resources for juveniles--whether at-risk, status offenders, those 
requiring supervision, counseling, detention, or incarceration--are 
scarce or altogether lacking.
    We note that our need for a new juvenile facility at Warm Springs 
could be met, in part and in cooperation among other regional tribes, 
with a regional juvenile justice facility.
    We also support full funding for the Indian Tribal Justice Act and 
a $15 million increase for Tribal Courts in TPA. Insufficient tribal 
courts hamper not only law enforcement, but the overall economic and 
societal development of our communities.
(3) Add $2 million for Warm Springs Forest Management in BIA TPA 
        funding
    We request the addition of $2 million to the BIA Tribal Priority 
Allocation budget for the BIA Forestry program at Warm Springs. For 
many years, the BIA and the Warm Springs Tribe have worked together to 
develop and fund a strong combined Forestry program. Tribal funding, 
often at more than $2.5 million a year, has funded positions and 
activities relied upon by the Bureau to fulfill its trust asset 
management obligations. However, the Tribe's current financial outlook 
will not allow us to continue funding Forestry at the same level. 
Reduced Tribal revenues require sharp reductions in many Tribal 
programs, including our contribution to Forestry. That means the BIA 
must now fund the trust activities previously paid for by the Tribe. 
And at the same time, the forest management requirements the BIA must 
meet have been increasing, including increased environmental 
certification and the withdrawal of land for alternative uses. Further, 
in recent years, the Tribes have successfully argued a federal claim 
against the BIA for its failure to adequately fulfill its trust 
responsibility for the management of Tribal timber. To meet these 
modern mandates, to replace no longer affordable Tribal subsidies and 
to properly fund its trust responsibilities for timber management, we 
estimate BIA Forestry at Warm Springs needs $2 million more a year on a 
continuing basis. Bill language directing that addition to the Warm 
Springs Forestry program in the Bureau's Tribal Priority Allocation 
budget would be the surest, most straightforward way of securing this 
necessary adjustment.
(4) Add $500,000 for Warm Springs in BIA Water Management, Planning and 
        Pre-Development
    We request that $500,000 be added for the Warm Springs Tribes to 
the BIA Non-Recurring Programs budget for Water Management, Planning, 
and Pre-Development to enable us to realize the benefits from our 1997 
water settlement with the United States and the State of Oregon. Our 
water settlement, the first accomplished between the United States and 
a tribe in 8 years, left most of the Tribe's water in the Metolius and 
Deschutes Rivers. The expensive water project development legislation 
that normally accompanies tribal water settlements was not needed in 
our case. But the Warm Springs Tribe, now that our water rights are 
quantified and settled, needs financial support to plan for and manage 
this vital resource. The $500,000 would cover work on a Comprehensive 
Water Development Plan, studies relating to Pelton relicensing, water 
quality modeling for the Deschutes River Basin, and studies relating to 
siting and operating a combined cycle gas electric generator on the 
Reservation using Deschutes River water.
(5) Add $1 million in BIA FERC Relicensing funding for Warm Springs 
        Tribal participation in the Pelton Hydroelectric Project's 
        relicensing
    About one third of the Pelton Hydroelectric Project occupies Warm 
Springs trust land, and the Tribe has rights and interests in the water 
used by the Project. A new Federal Energy Regulatory Commission license 
will be necessary for the Project starting January 1, 2002. Warm 
Springs is participating in the relicensing both as a government with 
affected regulatory powers and, because the Tribe is acquiring a 
portion of the Project from Portland General Electric, as a licensee. 
These are enormously expensive undertakings, and while the BIA, as 
trustee, has secured funding for Bureau participation in Pelton's 
relicensing, it has not provided any assistance for the Tribe itself. 
To help us fulfill these responsibilities, we ask that $1 million be 
provided for Warm Springs in the Bureau's FERC project licensing 
budget, half of which would be applied to the Tribe's Natural Resources 
Department for its regulatory role, and one half to help defray the 
Tribe's costs in seeking the license.
(6) Increase BIA and IHS Contract Support funding to provide 100 
        percent coverage of tribal Self-Determination Act contracting 
        and compacting
    Public Law 93-638 contract and compact indirect contract support is 
negotiated with the Inspector General and represents the full agreed 
upon amount for such costs. Unfortunately, the actual funding levels 
requested by BIA and IHS for contract support regularly fall short of 
the amounts needed to meet the agreed upon indirect costs. Because 
indirect costs are generally unavoidable, the shortfall in contract 
support must be made up by deductions from the directly contracted or 
compacted program dollars. The result is tribes having to pay a 
substantial penalty--in the form of reduced funding and diminished 
services--for assuming the responsibility of administering BIA and IHS 
programs for the tribes' own benefit. To eliminate this penalty and 
enable tribes to administer services on a par with those provided by 
the BIA and IHS, we ask that you support full funding for the BIA and 
IHS's contract support obligations.
(7) Increase IHS Hospitals and Clinics funding by $1.75 million to 
        provide full direct services for Warm Springs pursuant to our 
        Joint Venture Agreement with I.H.S.
    In 1987, our Tribe developed and proposed to the IHS the idea of a 
Joint Venture, whereby the Tribe would build a new facility to IHS 
specifications and then turn it over at basically no cost to the IHS. 
In exchange, the IHS would fully staff, equip, and maintain the clinic 
as if it were its own new facility. The Joint Venture was authorized in 
the 1991 Interior Appropriations Act. The Tribe spent $5 million to 
build the new clinic, which the IHS staffed in August, 1993, at the 
designated level for such a new facility. Since that time however, IHS 
staff funding for the Warm Springs clinic has not been sufficient to 
maintain all the positions initially placed there. I.H.S. estimates now 
show Warm Springs is now funded at only 80 percent of need. To 
partially make up the difference, the clinic has been drawing ever-
increasing amounts from third party collections. Those funds have 
always been intended for new equipment, staff training, and eventual 
facility expansion. With those funds diverted to maintain existing 
staff, the clinic is unable to address those needs, and the quality of 
clinic's health care is eroding. The alternative is to lay off staff. 
While we have kept our obligation under the Joint Venture, the I.H.S. 
must be directed to keep its side of the agreement, and $1.75 million 
for Warm Springs must be added to IHS Hospitals and Clinics to restore 
our funding.
    Additionally, all I.H.S. mandatory costs, including medical 
inflation, mandatory payroll increases and population growth (including 
new tribes) must be funded. Warm Springs and other Pacific Northwest 
tribal health programs must purchase all inpatient and specialty care 
from private, professional medical providers, whose cost increases must 
be met within Contract Health Services budget just to maintain the 
program's service level.
    This concludes the Warm Springs testimony. If you have any 
questions, please call our Secretary-Treasurer Charles V. Jackson or me 
at 541-553-1161. Thank you.
                                 ______
                                 
          Prepared Statement of the Intertribal Timber Council

                                SUMMARY
    Mr. Chairman, I am Fred Matt, President of the Intertribal Timber 
Council. I hereby submit this testimony with the following requests for 
Bureau of Indian Affairs, U.S. Forest Service, and Bureau of Land 
Management fiscal year 2002 appropriations:
    (1) Add $250,000 to BIA Central Office Natural Resources General to 
conclude the second national Indian forest assessment.
    (2) Add $1 million to the U.S. Forest Service to initiate the 
recommendations of the USFS Tribal Relations Task Force Report.
    (3) Add $8.7 million to address BIA Forestry deficiencies:
          (A) +$2 million for BIA Forestry staff and management,
          (B) +$3 million for a new BIA IRMP line item,
          (C) +$1.7 million to TPA Forestry for acreage increases, and
          (D) +$2 million to Forest Development in Non-Recurring 
        Forestry.
    (4) Designate $10 million in Office of the Special Trustee for 
Cadastral Survey location of trust land boundaries.
    (5) Within BLM, maintain wildland fire funding at the increased 
levels initiated in fiscal year 2001.

                 INTERTRIBAL TIMBER COUNCIL BACKGROUND
    The Intertribal Timber Council (ITC) is a twenty five year old 
organization of seventy forest owning tribes and Alaska Native 
organizations that collectively possess more than 90 percent of the 7.6 
million timberland acres and a significant portion of the 9.5 million 
woodland acres that are under B.I.A. trust management. These lands are 
vitally important to their tribes. They provide habitat, cultural and 
spiritual sites, recreation and subsistence uses, and through 
commercial forestry, income for the tribes and jobs for their members. 
In Alaska, the forests of Native corporations and thousands of 
individual allotments are equally important to their owners. To all our 
membership, our forests and woodlands are essential to our physical, 
cultural, and economic well-being, and assuring their proper management 
is our foremost concern.
(1) Add $250,000 to BIA Central Office Natural Resources General to 
        conclude the second national report of the Indian Forest 
        Management Assessment Team
    The National Indian Forest Resources Management Act (Public Law 
101-630, Title III) requires that an independent assessment of Indian 
trust forests and forest management be conducted every ten years. The 
first assessment (completed by the group of nationally-recognized 
experts that comprised the Independent Forest Management Assessment 
Team, IFMAT) was delivered to tribes, the Administration, and Congress 
in November of 1993. This report, funded with $300,000 from Congress in 
each of fiscal years 1992 and 1993 and an ANA grant, found that Indian 
forest management was grossly underfunded and that tribes were not 
receiving the full benefit from their forests due to serious 
deficiencies in management and planning.
    Last year, the ITC attempted to secure $1.5 million in funding from 
the Administration and Congress over a two year period to complete the 
second assessment, but unfortunately our efforts were not successful. 
That is disappointing. At a time when Congress is having to spend tens 
of millions of dollars to try to address lax management of trust funds, 
it seems shortsighted to decline a statutorily required evaluation of 
the corpus of the timber trust, which is the underlying renewable 
source of much tribal and Indian trust money.
    During the past year, the ITC has now secured the assistance of two 
foundations interested in management of Indian forests and obtained a 
commitment from the BIA to initiate the second assessment. Now, we 
believe that the assessment can be completed if Congress appropriates 
$250,000 for this purpose to BIA Forestry.
    We strongly urge Congress to add the $250,000. As we explained in 
our testimony last year, this is a vitally necessary, statutorily 
mandated responsibility of the federal government. Congress 
substantially assisted with the first IFMAT, and with that report's 
benchmark established, the second report is particularly important. The 
ITC has done all that it can to advance the second report through 
unique partnerships, and now we ask Congress to provide the funding 
required to complete the assessment of the BIA's trust management of 
Indian forests as required by Public Law 101-630.
(2) Add $1 million to the U.S. Forest Service to initiate the 

        RECOMMENDATIONS OF THE USFS TRIBAL RELATIONS TASK FORCE REPORT
    Mr. Chairman, Indian tribes have been longtime neighbors with the 
U.S. Forest Service. But despite that long history, despite our very 
extensive common boarders, our similar and shared landscapes and 
resources, and our trust and treaty rights on Forest Service lands, we 
have remained too often distant. There is a need to improve cross-
boundary cooperation, consultation, and equitable tribal participation 
in the Service's public programs.
    We were very pleased when the Chief of the Forest Service 
established a national Tribal Relations Task Force in October, 1999 to 
begin to address these concerns. The Task Force, with tribal 
participation, has completed its report, which is available on line and 
now being printed. Today, a Forest Service Implementation Team is 
moving forward to effectuate the recommendations of the Task Force.
    The true test of how these efforts are eventually realized in the 
field still remains an open question. We are off to a good, encouraging 
start, but there are many institutionalized barriers on both sides 
which must be breached. As a first step, we ask that the Subcommittee 
add $1 million at an appropriate location in the Service's budget to 
foster the Implementation Team's efforts so as to improve tribal 
consultation and coordination with the Service. By enabling the tribes 
to work cooperatively with the Service, the Task Force's broader 
recommendations have an improved chance of taking root, along with the 
prospects of better overall relations and improved resource management 
across the forest landscape.
(3) Add $8.7 million to address BIA Forestry deficiencies
    Over the past two years, the ITC has repeatedly urged necessary 
funding increases to correct growing deficiencies in the BIA Forestry 
program. Below are summaries of our four principal recommendations. 
Please refer to ITC fiscal year 2000 and 2001 testimony to the 
Subcommittee for details.
            (A) +$2 million for BIA Forestry management staffing
    The BIA's forest management planning capability is weak and not 
improving. Only about one quarter of the BIA's 17.1 million forest 
acres (both forestland and woodland) have current management plans. 
Only 59 percent of commercial forestland has current plans. Reasons for 
this include insufficient Forestry staff in Regional Offices, where 
much management planning is done for tribes with smaller forests, the 
understaffed Branch of Forest Resources Planning responsible for the 
forest inventory analyses, and insufficient Forest Management Inventory 
and Planning funds for the special projects involved in plan renewals. 
Finally, more planning is needed for Woodlands, where intensive but 
unplanned use is degrading the resource. Because of the failure of the 
BIA to fulfill its trust responsibility to provide approved forest 
management plans, current BIA policy would prevent tribes from managing 
their forests to benefit their communities. Accordingly, the I.T.C. 
requests that--
  --$350,000 be added to Regional Office Forestry for four additional 
        professional foresters,
  --$150,000 be added to Central Office Natural Resources General for 
        two additional professional personnel for the Branch of Forest 
        Resources Planning,
  --$1 million be added to Forest Management Inventory and Planning, 
        and
  --$500,000 be added to Non-Recurring Forestry for Woodlands 
        Management.
            (B) +$3 million for an integrated resources management 
                    planning line item
    In fiscal year 1999, the BIA added Integrated Resources Management 
Planning to the programs operated under Non-Recurring Forestry. But no 
funding has been added for this new ``program,'' and BIA has only one 
professional staff member charged with the development of IRMPs. Faced 
with hundreds of resource dependent tribes, that person is doing all he 
can offering a few small grants and guidance and advice. Otherwise, the 
BIA has no IRMP program. There is no longer any question that IRMP is 
essential in this era of complex natural resources management. So, once 
again, the ITC requests that Congress appropriate a minimum of $3 
million to establish a separate IRMP budget item under Non-Recurring 
Forestry.
            (C) +$1.7 million to Tribal Priority Allocation Forestry 
                    for acreage increases
    Since fiscal year 1992, Indian forestland under trust management 
has increased from 15.9 million acres to 17.1 million acres today, a 
7.5 percent increase. T.P.A Forestry funding, including Self-
Governance, has only increased from $26.8 million in fiscal year 1992 
to $27.1 million for fiscal year 2001. To reflect the management costs 
of these increased acres at the Agency level, the ITC requests that 
fiscal year 2002 Forestry in TPA be increased to $28.8 million, a 7.5 
percent increase from fiscal year 1992. This added funding should be 
distributed according to acreage increases.
            (D) +2 million to Forest Development in Non-Recurring 
                    Forestry
    This program received $10.3 million in fiscal year 1991. Today, 
although combined with other forestry programs in Non-Recurring 
Forestry, it is probably receiving slightly less than that amount. A $2 
million increase is necessary to meet current forest development costs.
(4) Designate $10 million in the Office of the Special Trustee for 
        Cadastral Survey to locate trust land boundaries
    Property boundaries on most reservations and allotments must be 
established in accordance with modern standards. Since their 
establishment 80 to 150 years ago according to crude standards, many 
property corners have been lost or obliterated. Nation-wide, the 
failure to accurately establish ownership boundaries presents large 
potential for trespass and associated liability, and further hampers 
Bureau efforts to straighten out realty records and ensure that 
proceeds from trust resources are credited to their proper accounts. To 
begin addressing this problem, the ITC requests earmarking $10 million 
in the Office of the Special Trustee to begin systematically 
establishing or re-establishing corners and property lines for Indian 
trust properties, in accordance with recognized needs.
(5) Within BLM, maintain wildland fire funding at the increased levels 
        initiated in fiscal year 2001
    Mr. Chairman, the ITC strongly supports continuation of the 
National Wildland Fire initiative commenced in fiscal year 2001 and 
funded for all Interior agencies, including the BIA, through the Bureau 
of Land Management. The BIA Wildland Fire program has responsibility 
for more than 50 million trust acres, about one third of which is 
forest or woodland.
    Managing fire within our reservation landscapes is especially 
important to tribes. Our reservations are our permanent homelands. Our 
reservations' renewable natural resources provide employment for 
thousands of our people, vitally needed revenues for tribal 
governmental operations, habitat, subsistence, recreation, and cultural 
and religious sites. If our reservations burn, moving away is not much 
of an option. Three hundred thirty tribal communities have an urban/
wildland interface and face risk from wildland fire. Many of these 
communities are so small they do not have fire protection readily at 
hand, and so must particularly rely on treatment of the urban/wildland 
interface for their safety.
    Indian Country has all of the issues and concerns that, on a 
national scale, drove fiscal year 2001's initiation of the strengthened 
wildland fire program. As noted above, there are 36,600 acres of urban/
wildland interface, and the need to train and strengthen rural fire 
departments in Indian Country. There are 140,000 other acres in need of 
treatment, particularly for fuels. And there is a great need for 
preparedness. Close to one quarter of all fire fighting personnel in 
the United States are Native American, and the great majority of these 
crews are funded through the BIA fire program. Sufficient preparedness 
funding will enable these critical personnel to be appropriately 
trained and equipped, and will address the low pay, intermittent 
employment, and lack of benefits that actively drive skilled personnel 
away from fire jobs.
    Accordingly, we urge the Congress to support continuation of the 
long overdue national wildland fire initiative.
    Please refer any requests for further information regarding this 
testimony to the I.T.C. office in Portland or our Washington, D.C. 
representative, Mark Phillips, at (202)546-1516.
    Thank you.
                                 ______
                                 
  Prepared Statement of the Enewetak/Ujelang Local Government Council
    Mr. Chairman and distinguished members of this Subcommittee: Thank 
you for providing this opportunity to the people of Enewetak to 
describe issues that relate to our ability to live on Enewetak Atoll. 
These issues are: Funding of the just compensation award issued by the 
Nuclear Claims Tribunal; continued and increased funding of the 
Enewetak Food and Agriculture Program; resettlement of the Enjebi 
people on their home island of Enjebi; monitoring of the Enewetak 
people for radiation exposure; continued monitoring of the environment 
to determine current radiation levels; monitoring of the Runit dome; 
and, improvement of the health care program.
    We would first like to address the continuing challenges that life 
on Enewetak presents. These challenges are the result of the severe 
damage inflicted on our atoll by the U.S. Nuclear Testing Program. This 
committee has helped us meet some of these challenges by funding the 
Enewetak Food and Agriculture Program.

          FUNDING OF THE ENEWETAK FOOD AND AGRICULTURE PROGRAM
    This program is necessary because over one-half of our land remains 
contaminated by radiation. The remaining fifty percent of our land was 
turned into a desert-like wasteland in the course of the nuclear 
testing program. As a result of such activities, there is insufficient 
food and other resources on our atoll to support our people.
    The United States Congress recognized our predicament and in 
Section 103(h) of the Compact of Free Association Act of 1985, Public 
Law 99-239, authorized funding for the Enewetak Food and Agriculture 
Program. Pursuant to such authorization, this committee has funded the 
program. Such funding provides imported food for our population and an 
agriculture rehabilitation program. Much progress has occurred over the 
past several years with regard to the agriculture rehabilitation 
effort. In addition, our people have become more and more involved with 
soil rehabilitation and the planting and maintenance of food bearing 
plants. In fact, the additional $410,000 for equipment and manpower 
provided by the Congress for fiscal year 1999 has created a momentum 
that we would like to maintain. Unfortunately, the funding level of 
$1.191 million in the Administration's fiscal year 2001 budget would 
not have permitted the continuance of such momentum. The Enewetak 
people described this situation to the Congress and an additional sum 
of $200,000 for a total of $1.391 million was provided for fiscal year 
2001. The Administration, in its fiscal year 2002 budget, has 
maintained the funding for the program at the $1.391 million level. 
That amount helps but the increasing population, much improved 
agriculture rehabilitation techniques, and transportation expenses have 
increased the costs to the program. These costs are the costs of the 
necessary food imports; transportation costs for food imports; 
transportation costs of equipment, material, supplies, and fuel for the 
agriculture rehabilitation program; and labor costs for the accelerated 
agriculture effort. To meet these increased costs, the program needs to 
be increased to the sum of $1.7 million in fiscal year 2002. The $1.7 
million is broken down as follows: Food and cooking fuel costs, 
$550,000; agriculture costs (labor, equipment, material, supplies, 
fuel, operations and maintenance), $850,000; transportation costs 
(labor, fuel, operations and maintenance), $300,000. Included in the 
three foregoing categories is the cost of administration of the 
program. Due to the foregoing, we respectfully request that this 
committee increase the amount requested by the Administration for this 
program for fiscal year 2001 by the amount of $309,00, for a total of 
$1.7 million.
    We would now like to describe the historic award of $386 million 
made to us by the Marshall Islands Nuclear Claims Tribunal for damages 
we suffered as a result of the U.S. Nuclear Testing Program. We will 
briefly describe this development and then describe the necessity of 
resettling the Enjebi island members of our community on their home 
island, radiation monitoring of our people and the environment, and the 
background of the food and agriculture program and its components.
   the just compensation award issued by the nuclear claims tribunal
    We suffered greatly as a result of use of our atoll for 43 nuclear 
explosions. We suffered spiritually, physically and emotionally due to 
our forced removal from Enewetak and relocation to the much smaller, 
resource poor and isolated atoll of Ujelang. We suffered famine, lack 
of health care, lack of education, and isolation during our 33 year 
exile on Ujelang. Upon our return to Enewetak, we suffered and continue 
to suffer the severe damage to our ancestral land. This severe damage 
has not only made the land unproductive for food production purposes, 
but has also deprived us of the natural resources required to live a 
customary and traditional life.
    The suffering we endured and the damage to our atoll is too lengthy 
of a discussion for inclusion in this statement. However, evidence of 
such suffering and damage was presented to the Nuclear Claims Tribunal 
at a historic hearing which occurred in April of 1999. We presented 
evidence from radiation scientists, engineers, anthropologists, an 
atoll agriculture specialist, and members of our community. On the 
basis of such evidence, the Nuclear Claims Tribunal on April 13, 2000 
awarded us the sum of $386 million for the loss of use of our land, for 
the cost to restore the land to a condition of full and unrestricted 
use, and for the hardships we endured during our 33 year exile to the 
small, resource-poor, remote and isolated atoll of Ujelang.
    It is important to remember that in 1947, prior to our removal from 
Enewetak, the United States promised us that we would have all 
constitutional rights accruing to U.S. citizens, that we would be taken 
care of during our exile to Ujelang, and that we would not be exposed 
to any greater danger than the people of the United States. The 
constitutional rights to which we are entitled include the right to be 
justly compensated for the damages we suffered as a result of the U.S. 
nuclear testing program. In addition to the well documented promises to 
us, the U.S. in the Compact of Free Association (1) accepted 
responsibility for the just compensation owing for loss or damage 
resulting from its nuclear testing program and (2) agreed that the 
Marshall Islands Nuclear Claims Tribunal make a final determination of 
the amount that would satisfy the constitutional requirement of just 
compensation. The Nuclear Claims Tribunal, following well established 
U.S. constitutional, legal, and regulatory principles, determined that 
the just compensation to be provided to us was an amount of $386 
million in addition to what has already been received or will be 
received under the Compact. The funding of this amount by the U.S. 
would satisfy its constitutional obligation to us. This funding would 
permit us to rid our land of radiological contamination, rehabilitate 
the soil, revegetate the land, resettle the Enjebi people on their home 
island, and provide the means by which we could establish a local 
economy in the fishing and tourism sectors. The foregoing would permit 
us to once again become self-reliant and self-sufficient. Until this 
funding materializes, we require continued and increased funding of the 
Enewetak Food and Agriculture Program.

    RESETTLEMENT OF THE ENJEBI PEOPLE ON THEIR HOME ISLAND OF ENJEBI
    The Enewetak people consist of two groups: The people of the 
southern part of the atoll, the Enewetak group; and, the people of the 
northern part of the atoll, the Enjebi group. The people of Enjebi have 
not been able to resettle their home island because it remains 
contaminated. As a result, the Enjebi people need to share the limited 
land and resources with the other Enewetak people on the islands of 
Enewetak, Medren and Japtan. As the populations grow, this is becoming 
an increasingly difficult situation. Yet Enjebi cannot be resettled in 
the near term because insufficient funding exists for the cleanup and 
resettlement. The situation at Enjebi is difficult since Enjebi island 
was ground zero for a number of tests. In addition, it underwent 
bulldozing, scrapping and soil removal during the 1977-1980 partial 
cleanup activities. In order to make the island habitable again, 
funding for radiological remediation, soil and plant rehabilitation, 
and housing and other infrastructure costs is required. The funding of 
the $386 million award would permit the necessary work and resettlement 
to occur.
radiation monitoring of the people, the environment, and the runit dome
    Because of the residual radiation contamination at Enewetak Atoll, 
we and our environment need to be monitored. The DOE is working with us 
to initiate an appropriate whole body counting and plutonium detection 
regime. The DOE responsibilities under such a regime need to continue 
until Enewetak is radiologically remediated. In addition, the Runit 
Dome (Cactus Crater Containment Site) contains over 110,000 cubic yards 
of radioactive soil and debris including plutonium and other 
radioactive elements. This site needs to be monitored to assure the 
integrity of the structure and to assure that no health risks from the 
radioactive waste site are suffered by the Enewetak people.

                 IMPROVEMENT OF THE HEALTH CARE PROGRAM
    As described in other portions of this statement, over half of the 
land at Enewetak remains contaminated. In addition, the sufferings of 
the people during their 33 year exile to Ujelang have arguably caused 
health problems that continue to manifest themselves in an aging 
population. These health problems are not adequately addressed by the 
current health care program. The program funds need to be increased and 
the funds need to be allocated in an equal amount to each of the four 
atolls. The increase would only solve part of the problem. The 
allocation of an equal amount to each of the four atolls would solve 
the other part of the problem by allowing each community to best 
determine how its health care funds be spent.
    We would now like to describe the food and agriculture program and 
its components, and the efforts we have made to make this program as 
effective as possible.

                 ENEWETAK FOOD AND AGRICULTURE PROGRAM
    The Enewetak Food and Agriculture Program enables us to live on 
Enewetak. It provides funding for imported food, continued agriculture 
rehabilitation, operation of a motor vessel which brings us the 
imported food, a nutrition education program, and an operation and 
maintenance component conducted out of a facility on Enewetak known as 
the field station.
    1. Efforts made to increase food production.--The most significant 
aspects of the agriculture rehabilitation program are the infusion of 
nutrients into the soil and the planting of buffer plants along the 
island's shore to protect the interior plants from salt spray. The 
infusion of nutrients into the soil is accomplished by digging trenches 
and placing organic material in the trenches along with a compost 
mixture of copra cake and chicken manure. This activity is extremely 
labor intensive and required the importation of copra cake and chicken 
manure. Although the work is progressing, additional funding is 
required to provide greater manpower and the necessary equipment, 
materials and supplies.
    2. Importation of food.--Imported food is required because of the 
poor soil condition of the land available to us and the radiation 
contamination of other lands. Imported food is now approximately 
$500,000 of the program budget and is expected to increase because of 
the increase in food costs and because of our growing population. These 
issues further illustrate the need to increase the program to $1.7 
million.
    3. Nutrition education program.--Since our people cannot rely on 
traditional foods we must import food, the nutritional value of which 
is unfamiliar to us. Several years ago we became aware that some of our 
people, particularly our children, suffered from malnutrition. 
Accordingly, we instituted a nutrition education program. We are 
pleased to report that we have been apprised by physicians that 
malnutrition among our children has been greatly reduced.
    4. Vessel.--In 1999, we purchased, repaired, and refitted a 104-
foot motor-vessel as a replacement vessel for our 54-foot motor-sailer, 
which sank. This replacement vessel, named the KAWEWA, has greater 
capacity for cargo and passengers than the previous vessel. The KAWEWA 
permits us to transport machinery, equipment, supplies and other 
necessary cargo. It also provides transportation to members of our 
community. Both the transport of cargo and people have become extremely 
difficult in the Marshall Islands because of the lack of transport 
vessels and aircraft. The KAWEWA provides the necessary lifeline for 
goods, materials, and transportation for our community.
    5. Field Station.--Operation and maintenance of the entire program 
is conducted out of a facility referred to as the Field Station. The 
machinery and equipment required by the agriculture, food and 
transportation components of the program are kept at the Field Station. 
Field Station personnel provide all the required agricultural work; 
maintain, service, and operate the equipment required by the various 
components of the program; make payments and maintain books of 
accounts; and coordinate the procurement of food, material and 
equipment. The overall manager of the program is Johnson Hernest. Other 
management personnel include Samson Yoshitaro and Mathan David. The 
program employs over 50 members of our community.

                               CONCLUSION
    In closing, we thank the Congress for its past funding of the 
Enewetak Food and Agriculture Program and request that it provide 
funding for fiscal year 2002 in the amount of $1.7 million to address 
the increased costs incurred by the program. In addition, we look 
forward to discussing with the Congress the funding of the $386 million 
Nuclear Claims Tribunal award to finally complete the remediation, 
rehabilitation, resettlement of Enewetak and to provide us the just and 
full compensation to which we are entitled for the damages we sustained 
as a result of the United States Nuclear Testing Program.
                                 ______
                                 
     Prepared Statement of the Weston Observatory of Boston College
    Mr. Chairman and members of the Subcommittee, I am a Professor of 
Geophysics at Boston College and the Director of Boston College's 
Weston Observatory, which specializes in the study of earthquakes and 
earthquake hazards in the northeastern United States. I thank you for 
this opportunity to submit testimony in support of the National 
Earthquake Hazard Reduction Program (NEHRP) and specifically of the 
Advanced National Seismic System (ANSS) that was recently initiated by 
Congress. One very strong research program at Boston College is the 
study earthquakes, earthquake hazards, and earthquake hazard 
mitigation, carried out by Weston Observatory. The Weston Observatory 
research program has led to new understandings of the earthquake 
activity as well as increasing mitigation efforts in the northeastern 
United States.
    Last year, a special NEHRP authorization for the ANSS was passed by 
Congress and signed by the president to improve earthquake monitoring 
throughout the United States. in support of earthquake hazard 
mitigation efforts. For fiscal year 2002 funding for the ANSS was 
authorized at $33.5M. I strongly believe that the fiscal year 2002 ANSS 
authorization should be fully appropriated in addition to full funding 
for the rest of the fiscal year 2002 NEHRP efforts within the U.S. 
Geological Survey. This is necessary if we are to meet our goals of 
mitigating the losses in future earthquakes throughout the country. As 
the M6.7 Seattle earthquake demonstrated earlier this year, strong 
earthquakes can strike well populated and economically important parts 
of the country at any time. We only stand to increases our potential 
losses if we do not fully fund these important programs.
    In this testimony, I describe how current earthquake monitoring has 
led to new understandings of the potential for earthquakes in the 
northeastern United States. I explain why the increased NEHRP spending 
for the ANSS program is vital for further earthquake hazard mitigation 
efforts. Finally, I point out some important ancillary benefits of 
increased NEHRP funding for the ANSS in the areas of environmental 
protection and oil exploration. Current levels of NEHRP funding for 
earthquake monitoring in the northeastern United States are 
insufficient to meet the modern demands of emergency managers, 
government officials, the insurance and financial industries, and 
building construction professionals for immediate, comprehensive 
earthquake information. The ANSS program within the NEHRP is designed 
specifically to meet the needs of those important stakeholders in the 
northeastern United States and throughout the entire country.

      EARTHQUAKE HAZARD AND RISK IN THE NORTHEASTERN UNITED STATES
    It may be a surprise to some people, but earthquakes occur year-in 
and year-out throughout the northeastern United States. For example, 
since January 2000 there has been at least one felt earthquake centered 
in each of the six New England states as well as in New York and New 
Jersey. All of these earthquakes were small (magnitude less than 3.5) 
and none caused any damage. Nevertheless, they serve to remind the 
residents that earthquakes are a potential threat. While not the 
largest, probably the most significant seismic event during this period 
was the January 17, 2001 magnitude 2.4 earthquake centered under 
Manhattan Island in New York City. While not damaging, the earthquake 
was felt by many in Manhattan and Queens. Emergency service agencies 
were inundated with telephone calls from citizens. Media interest in 
this earthquake was very high, first as they tried to determine whether 
an earthquake or explosion had occurred and later when they wanted to 
get an exact location and magnitude. The Lamont Doherty Earth 
Observatory of Columbia University, which does earthquake monitoring 
for this part of the region, was deluged with telephone calls looking 
for information. Even Weston Observatory near Boston received phone 
calls looking for information about this earthquake.
    Aside from the curiosity factor, this small New York City 
earthquake highlighted to many citizens and officials that earthquakes 
are a threat to New York City. The business and financial centers in 
the area were made aware that earthquakes can affect their headquarters 
and operations. Obviously, if a damaging earthquake were to affect the 
New York City area, the economic consequences would reverberate 
nationally and even internationally. My colleagues at Lamont-Doherty 
Earth Observatory are studying this earthquake and its one very small 
after shock to attempt to learn more about the possibilities of 
damaging earthquakes in the New York City area.
    In a different study, a recent new analysis by Prof. Alan Kafka of 
Weston Observatory and myself has shed new light on the predictability 
of earthquakes in the New England region. Rather than focusing on a 
single earthquake, Kafka and I analyzed pattern of occurrences of small 
earthquakes in the region over the past 25 years. We discovered that 
the pattern of small earthquakes is more temporally clustered than 
would be expected from random earthquake activity. In layman's terms, 
this means that whenever there is a small, felt earthquake in New 
England, there is an increased chance of another felt earthquake 
somewhere in the New England region during the next week or so. We 
don't yet know why this is happening, but the implications are quite 
important. For example, it could be possible that strong, potentially 
damaging earthquakes in our region take place during times of increased 
numbers of small earthquakes. This would mean that continuous 
monitoring of the small earthquakes could give insight into times when 
strong earthquakes would be most prone to strike. This research is 
still in its early stages, but it does suggest that there may well be 
patterns in the occurrences of small earthquakes that may eventually 
make some level of earthquake forecasting possible.
    The two studies reported here emphasize the importance of 
continuous, routine monitoring of the small earthquake activity in the 
northeastern United States. The small earthquakes help us better define 
the earthquake hazard and threat to the major cities of the region. 
Furthermore, patterns in the occurrences of the small earthquakes may 
someday give important clues about the imminence of strong earthquakes 
in our region. Continued funding of the NEHRP program and expansion of 
regional earthquake monitoring for small as well as large earthquakes 
through full funding of the ANSS initiative is needed to maintain and 
expand our ability understand and forecast the earthquake hazard in the 
northeastern United States.

   ANSS AND EARTHQUAKE HAZARD MITIGATION IN THE NORTHEASTERN UNITED 
                                STATES.
    I believe that we are at an important juncture in earthquake 
monitoring in the northeastern United States. On the one hand, those 
who are concerned with coping with earthquakes when they happen or with 
promoting and enforcing earthquake hazard mitigation measures are 
demanding ever more rapid and comprehensive information about 
earthquakes in the region. On the other hand, a slow erosion in federal 
funding for such activities over the past decade has severely limited 
the capabilities of local scientists to meet this growing demand. To 
make matters worse, funding limitations have significantly reduced the 
number of seismic experts actively working to monitor and study the 
earthquake activity in the northeast region, making it ever more 
difficult to meet the demands of those in the public and private 
sectors who are sincerely interested in reducing the losses in future 
earthquakes.
    Those who were engaged in the planning efforts for the ANSS several 
years ago recognized that the above problem exists not only in the 
northeastern United States but also throughout the country as a whole. 
The framework for the ANSS, outlined in U.S. Geological Survey Circular 
1188, was designed not only to upgrade earthquake monitoring hardware 
throughout the country but also to provide the necessary manpower and 
infrastructure to maintain such a system. It was urged in Circular 1188 
that earthquake monitoring be coordinated and administered on a 
regional basis with oversight by an advisory group of stakeholders in 
the region to ensure that the data and research results from regional 
earthquake monitoring would have the greatest impact in earthquake 
hazard mitigation measures.
    In March 2001 I chaired (with Dr. Art Lerner-Lam of Lamont-Doherty 
Earth Observatory) a workshop to begin organizing the ANSS in the 
northeast region. Attendees at the workshop included representatives 
from various state emergency management agencies, state geological 
surveys, fire and police departments, university geoscience and 
engineering departments, the Army Corps of Engineers, FEMA, and the 
Small Business Administration. Several needs, not being met by current 
earthquake monitoring capabilities, were identified by the participants 
as important products and services of the ANSS in the northeast region. 
The first of these is the availability and dissemination of rapid and 
accurate information about an earthquake as soon as possible after it 
happens, ideally within minutes of the event. For example, officials 
from New York City indicated that for the January earthquake they 
needed to know immediately that the event was an earthquake and not a 
terrorist bombing or an underground explosion in a utility conduit or 
subway station. This information was critical for their response to the 
event. The current earthquake monitoring system in the region is 
incapable of providing such near real-time information, nor can it be 
made so at current funding levels. The workshop enthusiastically 
recommended that the ANSS system in the region be designed and built to 
provide accurate earthquake information within minutes of the 
occurrence of a seismic event.
    Another necessary capability for the northeast ANSS system 
identified at the workshop is the rapid assessment of earthquake 
shaking maps and maps of potential damage immediate following an 
earthquake. The emergency management specialists at the workshop were 
especially vocal about this requirement. Such a capability cannot be 
done at present with the current earthquake monitoring equipment and 
funding. Finally, the workshop participants argued strongly for 
dedicated local expertise to study local earthquakes and to explain 
what happened after an earthquake has occurred. There are typically 
questions about aftershocks, active faults, and the potential for other 
earthquakes immediately following the occurrence of a felt or damaging 
earthquake. The news media and the public at large look to local 
experts for information, advice and interpretation. This need is one of 
the important elements in the implementation of the ANSS not only in 
the northeast but also throughout rest of the country as well.
    The workshop participants strongly endorsed the need for the ANSS 
in the northeastern United States. Some expressed frustration with the 
current poor state of earthquake monitoring in the region, and many 
argued that a new system was necessary to meet their needs. All agreed 
that implementation of the ANSS would have a positive impact on 
earthquake hazard mitigation measures in the northeast.

                    ANSS AND EARTH SCIENCE EDUCATION
    One important side benefit of the funding that NEHRP provides to 
universities is that some of that external funding goes to support the 
training of students in earthquake research. Some of these students 
graduate to work professionally in one capacity or another in the 
earthquake field, but many others use their geoscience training to go 
to other jobs. For example, at Boston College, many of our students 
have graduated to jobs in oil exploration, environmental cleanup and 
monitoring, engineering, teaching, and high technology applications. 
The work of these students to help with earthquake monitoring in New 
England helped support their education, with an obvious benefit to the 
earthquake monitoring program.
    A few weeks ago I attended a conference, sponsored by the American 
Geological Institute, that discussed the training of students in 
geology and geophysics at the undergraduate and graduate levels. 
Representatives from the oil and engineering industries made 
presentations about their expected hiring of geoscientists in the next 
several years. Given the current energy crisis and the need for 
continued oil and gas exploration, the companies expressed concern that 
the number of university students majoring in the geosciences is 
currently declining, even as hiring is expected to increase in the 
future. In a few years the universities will not produce enough trained 
geoscientists to fill industry's needs. Increased funding to the 
universities for projects like NEHRP and the ANSS strongly encourages 
students to enter and train in the geosciences. Conversely, funding 
cutbacks in programs like these lead to reduced numbers of geoscience 
students in university programs. One benefit of full ANSS funding in 
fiscal year 2002 and beyond would be a larger future pool of trained 
geoscience students who could help fill the coming manpower shortfall 
in the oil and gas exploration industries.
    In summary, continued funding for the NEHRP and full $33.5M funding 
of the fiscal year 2002 authorization for the ANSS is necessary for 
earthquake hazard mitigation in the northeastern United States. In 
particular, the full ANSS funding is needed for the northeastern region 
to meet the increasing demands of emergency planners, structural 
engineers, and natural hazard specialists for prompt and accurate 
information about earthquakes in the region. Furthermore, full funding 
for the ANSS will provide the important side benefit of encouraging 
students to study the geosciences, something that is necessary to fully 
meet the manpower needs in the oil and gas exploration industries in 
the coming years.
                                 ______
                                 
                 Prepared Statement of the Yurok Tribe
    Since time immemorial, the Yurok people have lived in the lower 
Klamath River basin and high country in northwestern California. The 
current Yurok Reservation was created by a 1853 federal statute, 
executive orders and a 1988 federal statute. In 1891 Prsident Harrison 
merged the Hoopa Valley Reservation and the Klamath River Reservation 
into one Reservation known as the Hoopa Valley Reservation. Both the 
Yurok people and the Hoopa people resided on this merged or communal 
Reservation. Neither tribe was formally organized. In the 1950's the 
Bureau of Indian Affairs effected the formal organization of the Hoopa 
Valley Tribe; the Yurok Tribe remained unorganized. The Hoopa Tribe 
entered into timber leases and began to receive timber revenues. 
Individual Yuroks and other Indians sued and won a series of cases 
known as the Short decisions (See e.g., Jessie Short v. United States 
486 F.2d 561 (Cl.Ct 1973). These cases essentially held that neither 
tribe had more rights than the other in the Reservation and that the 
United States could not provide timber revenues to only one group. 
(Individual plaintiffs waited some 40 years before they received 
monetary damages.)
    In 1988 the Hoopa-Yurok Settlement Act (HYSA) was enacted. The HYSA 
divided the former Reservation unequally. Although Yuroks made up over 
70 percent of the communal Reservation, the Yurok Tribe received 
approximately 6000 tribal and individual trust acres in a 56,000 acre 
Yurok Reservation where the remaining lands are held in fee simple 
title by a major timber company. The Hoopa Tribe, in contrast, received 
87,000 trust acres, most of which are commercial timber lands. Since 
the Yurok Tribe was not organized, did not have funding, and had no 
legal counsel, it did not participate in the HYSA process. 
Additionally, the United States did not survey communal Reservation 
residents to determine their desires before enacting the HYSA.
    After the Yurok Tribe formally organized, it challenged the 
constitutionality of the HYSA. On March 28, 2001, the U.S. Supreme 
Court declined to review a sharply divided decision by the circuit 
court, upholding a determination that the courts of the United States 
would not explore the Yurok Tribe's claim of a fifth amendment taking 
without fair compensation. The Court would not reach these issues 
because it held that the 1851 Act did not technically vest permanent 
title in either tribe.
    The Yurok Tribe, from its aboriginal territories, is now left with 
a small Reservation along forty five miles of a river system designated 
as a ``wild and scenic river''; a system whose once abundant fisheries 
resource is in significant decline. The HYSA identified this fishery 
resource as the primary economic resource of the Tribe. This resource 
has declined 90 percent from its historic averages. Nonetheless, the 
Tribe has a federally recognized fishing right and a priority water 
right. These issues have been litigated to the U.S. Supreme Court 
level. The Tribe has as its goal fishery restoration through fish 
harvest management and a significant regulatory program.
    The ``Wild and Scenic'' designation does not completely capture the 
Reservation's situation. The upper end of the Reservation is not 
electrified, has no telephone service and has minimal roads. All of 
these conditions combine to present serious emergency service, fire, 
law enforcement, medical delivery issues, as well as housing and 
education problems. 42 percent of the tribal population is unemployed 
and only 29 percent have a moderate income level or higher. 46 percent 
are at the poverty level. A sufficient land base, real economic 
development and necessary infrastructure are basic tribal needs.
    In spite of the inequity of the HYSA, since the Act the Yurok Tribe 
has, among other accomplishments, organized under its inherent 
sovereignty, adopted a tribal constitution recognized by the Department 
of the Interior; has become a self-governance tribe; has developed a 
significant biological staff, law enforcement staff and court for 
fisheries development and regulation; and has secured significant court 
victories recognizing its fishing and water rights. Its current 
membership is approximately 4,300 Yuroks.
    Our requests for fiscal year 2002 are in order of priority:
    1. $4,600,000 (Add-on Self-Governance-Tribal Priority 
Allocation).--The Yurok received New Tribes Funding calculated on the 
BIA base roll developed under the HYSA. Yuroks objected to the HYSA 
criteria as too limited and secured a technical amendment that allowed 
a small number of Yurok children to be added to the Roll. The Yurok 
Constitution adopted different criteria and the base roll is now 4,300 
persons in 2001, almost double the BIA base roll. It is a severe 
handicap to provide services based on an erroneous count. While BIA 
officials have been sympathetic, they have been unable to 
administratively correct this problem. It requires a specific add-on 
with instructions to transfer the funds to the Yurok Tribe's base as 
part of its B.I.A. self-governance funding agreement.
    2. $2,000,000 (Add-on Construction).--As noted, the lack of 
telephone services on the Reservation is a serious problem and requires 
significant resources because of the extremely rural and gorge 
characteristics of the Reservation. These requested funds would be used 
to extend modern telephone service to two public schools, two tribal 
government offices, and one hundred-eighty tribal households. The Tribe 
will use optical fiber and copper facilities as well as microwave radio 
links and modern electronics to extend services from off-Reservation 
providers to the schools, government offices, and households. A three 
year budget is required to complete this project. The annual funding 
requirements are:
        First year--$2,000,000.
        Second year--$2,500,000.
        Third Year--$2,500,000.
    3. $2,500,000 (Add-on Miscellaneous Payments to Indians).--The HYSA 
authorizes not less than $5,000,000 for land purchases by the United 
states for the benefit of the tribe. The Committees have previously 
appropriated $2,500,000, which needs to be made available to the Tribe. 
As noted above, tribal land needs are significant. The trust land base 
within the Reservation is insufficient to provide for housing and 
economic development of the members. In order to facilitate land 
purchases, an addition add-on of $665,000 (Real Estate Services) is 
necessary to provide adequate resources to process real estate 
transactions, including NEPA compliance, preparation of FONSI, title 
reports, preparation of inter-agency coordination with county and local 
governments, surveys, probates, and maintaining records for trust 
responsibility purposes. Also under the Miscellaneous Payments to 
Indians account should be a restoration of the $300,000 previously 
provided to implement the HYSA; implementation is far from over.
    4. $1,500,000 (Add-on Tribal Priorities Allocation, Human Services/
Housing Improvement Program).--As noted above, significant portions of 
the Reservation do not have electrical services. These funds are sought 
in order to correct fire and life safety deficiencies and provide safe 
electrical connections in approximately one hundred and eighty 
households on the upper Reservation. This will allow these households 
to connect to tribal solar, hydro, hybrid community serving alternative 
energy systems. In order to connect to community serving energy 
systems, each household must have internal wiring, electric meters and 
service panels that comply with the National Electric Code.
    5. $870,000 (Add-on to B.I.A.--Wildlife and Parks, U.S. Fish and 
Wildlife (FW) Resource Management, and BOR--Native American Affairs 
Program and Trinity River Restoration).--One of the Tribe's highest 
priorities is to protect and preserve the resources of Klamath and 
Trinity Rivers, and in particular, to restore the anadromous fish runs 
to levels that would once again sustain the Yurok people. Long term 
this goal will require a system wide solution that reduces the demand 
for water, and restores the river system's habitat. This year we are 
seeking funds for some of the research and assessments required as 
necessary stepping stones. These include: $150,000 to conduct 
biological and habitat assessments within the Klamath River Estuary 
(BIA Wildlife & Parks add-on); $70,000 to monitor tribal fisheries for 
sensitive species (''threatened'' Coho Salmon & ``candidate'' species 
Seelhead Salmon) FW; $100,000 for Klamath Basin Fall chinook salmon 
escapement estimation and age determination; and $300,000 for mainstem 
Klamath River biological monitoring to continue the Tribe's co-
management, $100, 000 for water quality monitoring of the mainstem 
Klamath River, and $150,000 for data management needed for the Klamath 
River Flow Study.
                                 ______
                                 
Prepared Statement of John L. Burton, President Pro Tempore, California 
                                 Senate
    Dear Chairman Burns and Committee Members: As you are determining 
funding priorities for the fiscal year 2002 Interior Appropriations 
Bill, I respectfully request that you include funding for acquisition 
from a willing seller of nearly 19,000 acres of restorable wetlands in 
the San Francisco Bay. If the acquisition can be completed, it will set 
the stage for the largest, most promising coastal wetland restoration 
project ever undertaken on the U.S. Pacific Coast. Without a 
substantial federal commitment to the acquisition this year, we will 
likely lose this opportunity forever.
    San Francisco Bay is one of the great estuaries of the world, 
providing habitat to a rich complex of fish and wildlife including over 
twenty species currently threatened with extinction. Three quarters of 
all shorebirds and over half of all diving ducks that annually migrate 
along the great Pacific Flyway rest, feed, or breed at San Francisco 
Bay. The Bay also serves as the lifeblood for shipping, fishing, 
farming, recreation and commerce in the nation's fourth largest 
metropolitan region.
    A century ago, the Bay Estuary contained almost 200,000 acres of 
tidal marshes and close to 100,000 acres of seasonal wetlands, creeks, 
and streams. Today, nearly 80 percent of the San Francisco Bay's 
original wetlands have been diked and filled for farming, grazing, salt 
extraction, building and other development. The Bay's wetlands are its 
kidneys, filtering toxic pollution and excess nutrient runoff that 
would otherwise destroy this fragile ecosystem. Restoring these lands 
will lead to the recovery of endangered fish and wildlife, improved 
water quality and increased flood protection.
    Bay wetlands restoration planning began in 1993 when California 
governor Pete Wilson and the Administrator of the U.S. Environmental 
Protection Agency (EPA) signed a Comprehensive Conservation and 
Management Plan (CCMP) for the San Francisco Bay Estuary. The CCMP 
identified the protection and restoration of wetlands as one of the 
highest priorities for the San Francisco Bay estuary, and recommended 
that wetlands habitat goals be developed as part of a focused regional 
wetlands planning effort.
    In 1995, over 100 scientists and resource managers from local, 
state, and federal agencies, private consulting firms, and universities 
convened to develop the wetlands goals called for in the CCMP. 
Development of the Baylands Ecosystem Habitat Goals Report (Goals 
Report) was co-sponsored by nine state and federal agencies, including 
the San Francisco Bay Conservation and Development Commission, San 
Francisco Bay Regional Water Quality Control Board, State Coastal 
Conservancy, State Department of Fish and Game, State Department of 
Water Resources, State Resources Agency, National Marine Fisheries 
Service, U.S. EPA, and the U.S. Fish and Wildlife Service. Following 
four years of intensive scientific review and extensive public comment, 
the Goals Report was published in early 1999. The document embodies the 
consensus of the scientific community regarding restoration of the San 
Francisco Bay Estuary's wetlands and associated habitats.
    The Goals Report calls for the restoration of 100,000 acres of 
wetlands throughout the region over the course of many decades. The 
Goals Report identifies and sets restoration goals for 124 sites around 
the Bay. These goals emphasize restoring tidal marsh along the Bay edge 
and providing adequate buffer zones to protect restored habitats from 
disturbance.
    Right now we have an historic opportunity to acquire and restore 
18,800 acres of diked historic Bay wetlands owned by Cargill Salt at 
the edge of San Francisco Bay. Cargill is a willing seller, and 
Congress has already authorized this property for addition to the Don 
Edwards San Francisco Bay National Wildlife Refuge. These lands are a 
critical component of overall Bay restoration efforts. Restoration of 
the property will increase the Bay's existing tidal wetlands by nearly 
50 percent, dramatically expanding the size and diversity of wildlife 
habitat along the Bay. Acquisition and restoration of the property has 
been identified by the U.S. Fish and Wildlife Service (USFWS) as 
crucial to the recovery of no less than four federally listed 
endangered species. The Goals Report specifically states that 
restoration of the southern section of the Bay ecosystem depends upon 
acquisition and restoration of the Cargill salt ponds. Restored 
wetlands on the property would also improve water quality and create 
public access to thousands of acres of open space in the heart of the 
nation's fourth largest metropolitan region.
    As you may know, California and federal resource management 
agencies have been negotiating with Cargill for the sale of this 
property since 1998. Cargill currently is engaged in a formal appraisal 
process with the USFWS. The final appraisal should be completed later 
this month. Although the appraised value of the property is expected to 
exceed $300 million, based on the results of preliminary appraisals, 
the landowner has agreed to cap its asking price at $300 million. The 
funding is expected to come primarily from state and federal sources, 
with some private support as well. Last year, the State of California 
appropriated $25 million for the acquisition while the federal 
government appropriated $8 million. These contributions were positive 
first steps; however, more substantial commitments must be made soon 
since Cargill has indicated that it will seek other buyers if a deal 
cannot be finalized this year. Therefore, this appropriations cycle 
represents the best opportunity we have to make this unique 
acquisition.
    I urge you to appropriate the funds necessary to meet the federal 
share for acquisition of these 18,800 acres so we can capitalize on 
this extraordinary opportunity to enhance and restore San Francisco 
Bay's wetland ecosystem. We look forward to continuing to partner with 
you on this unique and exciting wetland acquisition and restoration 
project.
    Thank you for your consideration of this request, and for this 
opportunity to include written testimony in your Committee's official 
hearing record.
                                 ______
                                 
         Prepared Statement of the Golden Gate Audubon Society
    Dear Chairman Burns and Committee Members: The Golden Gate Audubon 
Society strongly supports the request from Senator Dianne Feinstein to 
this Subcommittee for $75,000,000 for the acquisition of approximately 
18,000 acres of salt ponds in San Francisco Bay. The purchase would be 
made from the Cargill Salt Company, a willing seller. No more important 
acquisition can be made for the improvement of an entire ecosystem than 
that of the Cargill Salt Ponds in San Francisco Bay.
    San Francisco Bay has lost more than 85 percent of its historic 
tidal wetlands through diking and filling. As a result of this loss of 
tidal wetlands, San Francisco Bay now has an inordinately large number 
of tidal-wetland related species listed as Threatened or Endangered 
under the federal and state Endangered Species Acts.
    The five-year long San Francisco Bay Estuary Program, a component 
of the National Estuary Program, concluded in its Comprehensive 
Conservation Management Plan that significant wetland restoration was 
essential for the health of San Francisco Bay and recommended the 
creation of a Regional Wetland Plan.
    Such a plan has been developed by a multi-agency effort that 
resulted in the creation of the San Francisco Baylands Ecosystem 
Habitat Goals project. This project brought together over 100 
scientists who looked at the 125 wetland-related species and from this 
perspective produced a wetlands restoration plan that would recover 
endangered and threatened species and provide sufficient wetlands for 
the long-term survival of all of those 125 species. Their conclusion 
was that the Bay needed to see significant wetland restoration take 
place if the aquatic ecosystem was to survive.
    The restoration of approximately 18,000 acres of South San 
Francisco Bay salt ponds back to tidal marsh is a significant component 
of the San Francisco Baylands Ecosystem Habitat Goals.
    San Francisco Bay has long been recognized as an estuary of global 
significance. It also is recognized as the nation's estuary most 
heavily impacted by man. Here is a chance, with a willing seller, to 
turn the tide and return to health this wonderfully important natural 
resource.
    We urge you to support Senator Feinstein's request for funding for 
the acquisition of the Cargill Salt Ponds.
    We thank you for your consideration of our views.
                                 ______
                                 
  Prepared Statement of the Acid Drainage Technology Initiative Metal 
                             Mining Sector
    Thank you for agreeing to consider this request for funding of the 
Acid Drainage Technology Initiative (ADTI) through the federal multi-
agency mechanism. The Geological Survey (USGS) is being requested to 
provide annual funding of up to $200K, to match the standard set by the 
Office of Surface Mining (OSM). OSM funding is going primarily to the 
Coal Mining Sector of ADTI and a predictable base of funding is also 
needed for the Metal Mining Sector activities, in order to identify the 
best science for controlling acid and metal drainage from metal mines 
and related materials.
    The ADTI is a nationwide technology development program with a 
guiding principle of building a consensus among Federal and State 
regulatory agencies, universities and consulting firms to predict and 
find remedies for acid drainage from active and inactive metal and coal 
mines. It is not a regulatory or policy development program. The Acid 
Drainage Technology Initiative Metal Mining Sector (ADTI-MMS) is an 
organization of volunteers committed to the development of the best 
science and technology-based solutions to mine water quality issues at 
metal mines. The Review Committee is responsible for developing and 
implementing the consensus review process for documents, editorial 
services, international networking and membership coordination. The 
consensus review process is developed by this Committee is available on 
the world wide web at: http://www.bucknam.com/chb/consensu.txt and 
several draft documents are also being reviewed on the ADTI-MMS web 
site at: http://www.mackay.unr.edu/adti.
    As you may be aware, it has been estimated that correcting the mine 
drainage and abandoned mined land problems will cost up to $70 billion. 
As this figure suggests, it will be necessary to lead off on this 
effort with an adequate foundation of current technology-based 
solutions. Our organization is in the process of preparing and 
maintaining handbooks to provide that foundation and is prepared to 
launch the necessary research programs to develop the best science and 
technologies.
    ADTI-MMS is backed through participation from members of numerous 
mining companies, environmental consulting firms, federal and state 
research, land management and regulatory agencies, academic researchers 
committed to the ADTI mission, and the Western Governors Association. 
The Western University Consortium, consisting of University of Nevada--
Reno, New Mexico Institute of Mining and Technology, University of 
Idaho, University of Utah and University of Alaska, Fairbanks and other 
members of the ADTI-MMS University Network (Colorado School of Mines, 
Montana Tech at the University of Montana, South Dakota School of Mines 
and Technology, University of Colorado, Berkeley, Northern Arizona 
University, Montana State University-Bozeman, and the University of New 
Mexico) provide part of our research foundation under direction of the 
Mining Life Cycle Center at the University of Nevada, Reno. In 
addition, the US Army Corps of Engineers (USACE) Restoration of 
Abandoned Mined Sites (RAMS) program and the headquarter-based Research 
Programs are actively pursuing research coupled with on ground 
cleanups. Coordination with sister organizations in other countries, 
including Mine Environment Neutral Drainage (MEND)--Canada, Mitigation 
of Environmental Impact From Mining Waste (MiMi)--Sweden, (other), 
signifies our position in the international realm.
    We are seeking funding for technical-professional review and 
illustrations for ADTI-MMS Workbooks on prediction, sampling and 
monitoring, modeling, mitigation and pit lakes. We feel that minimal 
funding (10 percent of ADTI-MMS annual budget) can provide needed 
training documentation for what proves to be an expensive multi-decade 
effort.
    The NMA, the Interstate Mining Compact Commission and several 
Federal agencies [OSM, Bureau of Land Management (BLM), Department of 
Energy (DOE), and USGS] have actively participated in the Acid Drainage 
Technology Initiative (ADTI) since 1995. This collaborative effort 
receives funding and other support from industry and several Federal 
agencies for specific projects. For example, the Office of Surface 
Mining has provided the ADTI $200,000 for the last three fiscal years 
which has been a consistent source of funding for activities related to 
acid mine drainage from coal mining and has been instrumental in 
accomplishing the ADTI's short-term goals. In addition, the EPA has 
provided $10,000 for travel and administration, and is currently 
providing funding for prediction workbook preparation. If each of the 
Federal agencies, OSM, BLM, DOE, USGS, and other agencies as 
appropriate [i.e. Bureau of Reclamation (BOR) and U.S. Forest Service 
(USFS), were provided funds to commit $200,000 toward ADTI, 
approximately $1 million would be available to support the work of this 
vital initiative.
    In fiscal year 1999, House Report No. 105-581 acknowledged that 
acid mine drainage is a serious environmental problem and that the U.S. 
Army Corps of Engineers possessed the experience and capability to 
assist in the ADTI's efforts. Further, the subcommittee directed the 
Corps to participate in this initiative with available funds. Since 
that time, the Corps participated in several workshops with members of 
the ADTI to exchange information on mining and related environmental 
issues and to explore the nature and extent of the Corps' involvement. 
In order to participate along with the Corps, we respectfully request 
that the USGS be provided funds to commit $200,000 annually (with other 
Federal agencies involved, such as [OSM, DOE, USACE, Environmental 
Protection Agency (EPA), BLM, BOR, NPS and USFS] to further the Corp's 
goals of ecosystem restoration.
    Thank you for your time and interest in this vital area. Your 
continued funding of this Committee's activities will significantly 
improve our ability to develop the best science for addressing drainage 
issues with an organized and predictable schedule.
                                 ______
                                 
     Prepared Statement of the Humane Society of the United States
    Thank you for the opportunity to offer testimony to the Interior 
and Related Agencies Subcommittee on several funding items of great 
importance to The Humane Society of the United States (HSUS) and its 
7.7 million supporters nationwide. As the largest animal protection 
organization in the country, The HSUS urges the Committee to address 
these priority issues in the fiscal year 2002 budget.

                 TRAPPING ON NATIONAL WILDLIFE REFUGES
    National Wildlife Refuges should not permit commercial and 
recreational trapping with inhumane traps. Refuges are the only 
category of lands specifically set aside for the protection and benefit 
of wildlife. If we can't protect wildlife from commercial exploitation 
by cruel means on National Wildlife Refuges, where can we provide 
protection for these creatures?
    According to a June 1997 report to the Congress, ``Mammal Trapping 
within the National Wildlife Refuge System: 1992-1996,'' the Fish and 
Wildlife Service administered 487 trapping programs on 281 refuges; 
thus, more than half of the nation's 520 refuges permit some trapping. 
According to the report, ``[e]ighty-five percent of the mammal trapping 
programs on refuges were conducted primarily for wildlife and 
facilities management reasons. The remaining 15 percent occurred 
primarily to provide recreational, commercial, or subsistence 
opportunities to the public.''
    The American Veterinary Medical Association, the American Animal 
Hospital Association, and the World Veterinary Organization have all 
declared leghold traps to be ``inhumane.'' These traps are designed to 
slam closed and grip tightly an animal's leg or other body part. 
Lacerations, broken bones, joint dislocations and gangrene can result. 
Additional injuries result as the animal struggles to free itself, 
sometimes chewing off a leg or breaking teeth from biting the metal 
trap. Animals caught in leghold traps sometimes die from dehydration, 
starvation, exposure to the elements, or predators. An animal may 
suffer misery for several days before a trapper returns to check a 
trap.
    These traps are as indiscriminate as they are inhumane. Any animal 
unlucky enough to stumble across a trap will be victimized by it. In 
addition to catching ``target'' animals, traps catch non-target, or 
``trash,'' animals, such as family pets, eagles, and other protected 
species. A number of studies conducted by professionals from management 
agencies reveal that for every target animal caught in a steel-jawed 
leghold trap, there are from one to ten non-target animals caught. This 
is an unacceptable level of by-catch.
    Voters in Arizona, California, Colorado, Massachusetts, and 
Washington have approved ballot measures to ban leghold traps. New 
Jersey and Florida have also banned the use of these traps, and many 
other states have severe restrictions on their use, including 
Connecticut and Rhode Island. A May 1999 national poll conducted by 
Peter Hart Research Associates, Inc., revealed that 84 percent of 
respondents oppose the use of steel-jawed leghold traps on National 
Wildlife Refuges. There are dozens of wildlife refuges in Arizona, 
California, Colorado, Massachusetts, New Jersey, Washington, and 
Florida. There have been no adverse impacts on those refuges from the 
statewide bans.
    In 1999, the House approved an amendment to bar the use of tax 
dollars to administer or promote the use of steel-jawed leghold traps 
or neck snares for commerce or recreation on units of the National 
Wildlife Refuge System. The amendment allowed the use of these traps 
for the purposes of research, subsistence, conservation, or facilities 
protection. The House approved this measure by a bipartisan vote of 
259-166, with a majority of the members of the Subcommittee on Interior 
Appropriations favoring the amendment. Unfortunately, the Senate 
rejected an identical amendment offered by Senator Robert Torricelli, 
and the Conferees chose not to include any restrictions on trapping in 
the fiscal year 2000 Interior Appropriations Act.
    We urge the Committee to incorporate the language of the Torricelli 
amendment in the fiscal year 2002 Interior Appropriations Act. It is a 
sensible, humane, and narrowly crafted provision. The amendment would 
not bar trapping on refuges. Other traps, including foot snares, 
Conibears, and box and cage traps, could be used for any purpose 
consistent with law and regulation on the refuges. The Torricelli 
amendment would not forbid the use of steel traps or neck snares. It 
would ban those two devices just for commercial and recreational 
purposes. We urge your favorable consideration of this language.

       LAW ENFORCEMENT DIVISION OF THE FISH AND WILDLIFE SERVICE
    After illegal drugs and arms, trade in wildlife parts is the third 
most lucrative smuggling enterprise in this country. New technology and 
a full complement of Special Agents are essential if law enforcement is 
to have any hope of effectively enforcing the nation's endangered 
species trade laws. The HSUS strongly supports an increase of $10 
million over the Administration's request for U.S. Fish and Wildlife 
Service Law Enforcement Operations and Maintenance.
    The Law Enforcement Division is currently undergoing a three-year 
rebuilding effort designed to bring the number of Special Agents to 
253. These Special Agents investigate domestic and international 
wildlife crime and monitor wildlife trade. In addition to field agents, 
the Division of Law Enforcement is charged with the responsibility of 
inspecting shipments at ports of entry. Wildlife inspectors play an 
invaluable role in stopping wildlife smuggling by inspecting wildlife 
shipments to ensure compliance with laws and treaties.
    Investigating sophisticated wildlife smuggling operations requires 
the latest in law enforcement technology. The Clark R. Bavin Wildlife 
Forensics Laboratory is capable of providing assistance in the 
prosecution of wildlife crimes by analyzing claws, teeth, feathers, 
tissue, blood, and other wildlife samples. The Clark R. Bavin Wildlife 
Forensics Laboratory is indispensable in the vigorous enforcement of 
the nation's wildlife trade laws. The HSUS urges the Committee to 
appropriate an additional $500,000 over the Administration's request. 
This increase will allow the lab to expand its staff and physical 
location.

                   ADDITIONAL PROTECTION FOR MANATEES
    We urge your subcommittee to appropriate an additional $1 million 
over the President's budget for manatee protection and enforcement of 
speed zones in manatee sensitive areas throughout the State of Florida.
    Recognizing the problem of increased manatee deaths and injuries 
from collisions with boats, the U.S. Fish & Wildlife Service (FWS) has 
deployed on-water enforcement teams to patrol areas where manatees are 
frequently seen and the risk of watercraft collisions is high. 
Unfortunately, a lack of resources makes it difficult for the Service 
to keep up a consistent presence on the water. It is imperative that 
these patrols not only continue, but increase in frequency. Thanks to 
the Committee's leadership, $1 million was appropriated in fiscal year 
2001 for this enforcement. While we are grateful for that good start, 
the mortality numbers so far this year indicate the need for a further 
increase for this crucial enforcement. The additional enforcement 
efforts made by FWS have begun to make a difference. With the 
additional resources, FWS can go a long way towards reducing the number 
of human-caused manatee mortalities.

                MULTINATIONAL SPECIES CONSERVATION FUND
    The HSUS joins a broad based coalition of organizations in 
requesting an increase over the Administration's request for the 
Multinational Species Conservation Fund (MNSCF). The MNSCF is a fund 
established by Congress to benefit African and Asian elephants, rhinos 
and tigers, great apes, and neotropical migratory birds. Congress has 
authorized a combined total of $30 million dollars for the five 
programs that constitute the MNSCF. Unfortunately, only $3.25 million 
was appropriated for the fund in fiscal year 2001 and the same amount 
was requested by the Administration in fiscal year 2002. We believe 
that a minimum of $7.5 million, or $1.5 million for each of the five 
programs, is needed.
    Although there are severe threats to the long-term survival of 
African and Asian elephants, rhinos, tigers, great apes, and 
neotropical migratory birds, there have been improvements attributable 
to funds made available through the MNSCF. Grants made from the MNSCF 
provide a stable funding source that has leveraged over four times as 
much in additional contributions from range states, non-governmental 
organizations, and others.
    While The HSUS wholeheartedly supports increased funding for the 
MNSCF, we are very concerned about previous incidents and future 
opportunities for funds from these conservation programs to be 
allocated to promote trophy hunting, trade in animal parts, and other 
consumptive uses--including live capture for trade, captive breeding, 
and entertainment to meet the demand of the public display industry--
under the guise of conservation for these endangered animals. We 
respectfully request Committee Report language directing this program 
to limit grants to projects that are consistent with the spirit of the 
law.

        WILD HORSE AND BURRO PROGRAM/FERTILITY CONTROL RESEARCH
    Wild horses and burros are a public trust greatly beloved by the 
American people. Consequently, we strongly believe that the Bureau of 
Land Management (BLM) should be given the direction and resources it 
needs to assure the health and prosperity of wild horse and burro herds 
and the public lands they inhabit.
    During fiscal year 2001, the Bureau of Land Management's Wild Horse 
and Burro Program received a substantial increase to its annual 
operating budget. This increase is to be used to implement BLM's four 
year strategic plan by which appropriate management levels will be 
achieved in all herd management areas through the use of increased 
round-ups of wild horses and burros. Yet BLM has never completed a 
thorough and complete evaluation to determine whether an over-
population actually exists. The Agency has consistently refused 
requests to complete a programmatic environmental impact statement (or 
evaluation) to analyze the impact of the current wild horse and burro 
population and ascertain the combined effects of the existing wild 
horse and burro populations and the livestock grazing in those areas on 
the land's sustainability. The HSUS did not believe then, and does not 
believe now, that increased round-ups are consistent with the spirit or 
intent of the law or justified while BLM refuses to base its need to 
round-up on empirical data, but continues to rely on anecdotal 
conjecture.
    In addition to the more traditional threats faced by wild horses 
and burros, which include habitat destruction, wildfires, and cattle 
ranching encroachment, wild horses are coming under pressure from the 
increasing demand for horsemeat as a result of ``mad cow'' disease 
threat in Europe. The BLM documented that in 1999 hundreds of wild 
horses were sold into slaughter despite the Congressionally mandated 
prohibition on such action.
    In light of the current pressure on wild horses and burros from 
decreasing habitat and mad cow disease, we urge this committee to once 
again include the following standard language in the fiscal year 2002 
Interior Appropriations bill: ``The appropriations made herein shall 
not be available for the destruction of healthy, unadopted, wild horses 
and burros in the care of the Bureau of Land Management or its 
contractors.''

            ANIMAL CONTROL INITIATIVE ON NATIVE RESERVATIONS
    The HSUS urges the Committee to designate $750,000 of the Bureau of 
Indian Affairs' Law Enforcement Initiative (or some other account the 
Committee deems appropriate) for a project to improve animal control 
services on several Native American reservations where public health 
and safety are currently jeopardized by the lack of such services. Over 
the last decade, some Native American Nations have developed animal 
control programs and ordinances, but their struggling programs are 
severely under funded. Other Native American Nations have no animal 
control programs at all. Poor and non-existent animal control programs 
pose not only serious problems for the animals on reservations, but 
also immediate public health and safety threats to the human residents.
    Dog bites have become a serious hazard, particularly for children. 
Dogs bite more than 4.7 million individuals each year in the United 
States, leading to injuries and transmission of rabies and other 
diseases. The problem is particularly acute in Native American Nations. 
A 1996 report by Navajo Nation Animal Control stated that, ``in 1990, 
the Indian Health Service announced that approximately 2,000 
individuals were treated for dog bites'' on that reservation. A 
fatality associated with a dog attack occurred last year on the 
Blackfeet Reservation, and dog attacks on other reservations have led 
to severe injuries and death for children and adults over the past 
several years.
    Recognizing this problem, The HSUS places a priority on animal 
control problems on Native American Reservations. In an effort to 
assist tribal leaders in developing their own programs for animal 
control and to prevent pet overpopulation, our Northern Rockies 
Regional Office and West Coast Regional Office have provided hands-on 
help. The Northern Rockies office performed forty-seven days of spay/
neuter, vaccination, and educational clinics on fourteen reservations, 
seeing to the needs of thousands of animals. Our West Coast Regional 
Office worked with 852 animals on the Quinault, Walm Springs, Round 
Valley, and Hoopa reservations. Clinics were held in rural areas where 
there have been few options for preventing pet overpopulation and 
health concerns associated with roaming animals. Humane education 
materials, collars and leashes, and pet carriers were provided to pet 
owners.
    However, to address the full range of public health issues 
associated with free-roaming, proliferating, and unvaccinated canine 
populations on Native lands, and to do so in a way that will achieve 
long-term results rather than just providing stopgap aid, federal 
assistance is needed. The funding requested would help several Native 
Nations begin to establish their own effective animal control programs. 
The proposed initiative would include training (workshops for animal 
control personnel about safe animal capture, handling, and 
vaccinations); animal sterilization and other veterinary services; 
humane education (instruction on how to deal with roaming animals, 
proper animal care, and responsible pet ownership); grants to Native 
Nation animal control agencies for facilities improvement or 
construction; and, if appropriate, legislation (helping communities 
develop effective local animal control laws). The HSUS will continue to 
work to address this issue and welcomes the interest and assistance of 
the Committee.
                                 ______
                                 
           Prepared Statement of the Frontera Audubon Society
    Frontera Audubon Society requests appropriation of $5 million from 
the Land and Water Conservation Fund (LWCF) in fiscal year 2002 for 
purchase of lands by the U.S. Fish and Wildlife Service for inclusion 
in the Lower Rio Grande Valley National Wildlife Refuge in Texas.
    The Lower Rio Grande Valley contains the Nation's most valuable 
lands for protecting biological diversity. The cost of purchasing land 
remains low. Now is the time to commit substantial funds to completing 
the ``wildlife corridor'' intended to protect this biological 
treasurehouse.
    Data for a study \1\ that appeared in Biological Conservation last 
year show that the Valley is a ``hot spot of vulnerability'' for 
biodiversity because of the combination of biological uniqueness and 
heavy development pressures. A study of 94 counties along the Nation's 
southern fringe found that Hidalgo County ranks highest for the number 
of bird and butterfly species with restricted ranges; Cameron is the 
second county in the hierarchy, and Starr County is sixth.
---------------------------------------------------------------------------
    \1\ Robbyn J.F. Abbitt, J. M. Scott, D.S. Wilcove. The geography of 
vulnerability: incorporating species geography and human development 
patterns into conservation planning. Biological Conservation 96 (2000) 
169-175.
---------------------------------------------------------------------------
    The scientists also assessed these biologically rich counties' 
vulnerability to human population growth and resulting habitat loss. 
Again, Cameron and Hidalgo counties were among the highest-ranking 
counties. This is not surprising as the McAllen-Edinburg-Mission and 
Brownsville-Harlingen-San Benito metropolitan areas have been among the 
ten fastest-growing areas nation-wide for the past several years.
    The biological richness of the Lower Rio Grande Valley was 
recognized in 1979 with establishment of the Lower Rio Grande Valley 
National Wildlife Refuge. The Valley is home to more species of animals 
and plants than any other similar-sized area of the country. These 
include 465 bird species--half of all bird species found in the United 
States. Sixty of the bird species live in no other part of the country. 
In addition, there are more than 200 species of mammals, reptiles, 
amphibians, and fish; 300 species of butterflies; and 1,200 species of 
plants.
    The threats to this biological treasurehouse are also well 
documented. Twenty-one species in the region are listed under the U.S. 
Endangered Species Act. An additional 35 are considered to be 
imperilled in Texas. More than 100 of the bird species are listed by 
the Texas Partners in Flight program as ``species of special 
interest''.
    As a consequence of the combined biological values and rising 
threats to them, the Lower Rio Grande Valley National Wildlife Refuge 
has consistently ranked among the Fish and Wildlife Service' highest 
priorities for land acquisition.
    The Lower Rio Grande Valley National Wildlife Refuge will protect 
nearly half of a planned 285,000 acre wildlife protection network--the 
``Wildlife Corridor.'' Other lands and waters in the corridor are 
managed by state, county, and private conservation organizations as 
well as the Laguna Atascosa NWR. The entire planned complex will 
protect a modest 10 percent of the area of the four counties involved: 
Cameron, Hidalgo, Starr, and Willacy.
    Lands acquired for the refuge all come from willing sellers. 
Currently, approximately 30 landowners are interested in selling their 
lands to the Refuge. Appraisals on 19 parcels should be completed in 
June; these lands are expected to have a total value of $7 million. 
However, the Refuge has only $5.1 million--not enough to complete these 
purchases.
    Appropriation of $5 million for fiscal year 2002 would allow 
purchase of approximately 10,000 acres over this year and next. This 
funding is critically important to protecting the highest priority 
wildlife habitats in the Nation.
    The Lower Rio Grande Valley National Wildlife Refuge protects 
valuable remnants of eleven biotic communities. The Refuge has achieved 
its protection goals for several of these biotic communities: Barretal, 
loma/tidal flats, mid-delta thorn forest, upland thorn scrub, mid-
Valley riparian woodland, and woodland potholes and basins. However, 
the Refuge has acquired 20 percent or less of its goals for five other 
unique habitat types: upper Valley flood forest, Chihuahuan thorn 
forest, and ramaderos--all in Starr County; Sabal palm forest--in 
Cameron County near the river's mouth; and coastal brushland and 
potholes, found in Willacy County. Eight of the 19 parcels now being 
appraised are in the under-represented habitat types of Starr County.
    In recent years, purchases have been stalled by problems at the 
Regional Office in completing appraisals. We believe these difficulties 
are now on the verge of solutions. First, there has been turnover among 
the appraisal staff at the regional office of the Fish and Wildlife 
Service (Region 2, Albuquerque), and the new staff has taken some time 
to get ``up to speed''. One result has been that the Refuge staff has 
waited 11 months or longer for completed appraisals. A second problem 
has been how to value land sold separately from the water rights 
(landowners can sell their water rights to development interests for 
higher prices). The price offered by the Fish and Wildlife Service for 
land separate from water rights is so low that landowners often 
decline. The Department of Justice has suggested a new appraisal 
approach that would result in higher bids--but the FWS appraisers have 
not yet decided to adopt the new methodology. Frontera Audubon is 
encouraged, however, that the Deputy regional Director has instructed 
his staff to solve these problems and speed up land acquisitions.
    The investment in land acquisition at the Lower Rio Grande Valley 
NWR is quickly recouped by the increased economic activity stimulated 
by just one group of recreationists--birders.
    Tourism is the third largest industry in Texas. In the early 1990s, 
tourism brought $25.4 billion and 446,000 jobs to Texas. Nature tourism 
is the fastest-growing segment of the industry, and Texas is the number 
one birding destination in the United States. The Lower Rio Grande 
Valley, in turn, is one of three ``birding hotspots'' in Texas.
    In 1999, the Texas Parks & Wildlife Department issued a 
``sustainable ecotourism strategy'' \2\ for the Lower Rio Grande Valley 
that was developed in partnership with local communities. The strategy 
notes the region's status as the most biologically diverse region in 
the country, its rapid population growth, and its persistent poverty 
(all four counties rank in the lowest 3 percent of counties nation-wide 
on per capita income). While developing the strategy, the Department 
determined that nature tourists stay longer in the Valley and spend 
more money each day than do other visitors to the region.
---------------------------------------------------------------------------
    \2\ David R. Heil, T.L.Eubanks, M. Lindsay. World Birding Center. A 
Sustainable Ecotourism Strategy for Lower Rio Grande Valley of Texas. 
July 1, 1999. Economic Development Administration Grant #08-29-03147.
---------------------------------------------------------------------------
    Under the strategy, visitors would be attracted to a multi-site 
World Birding Center. The Center would consist of three main 
interpretation sites--at Mission, Brownsville, and Weslaco; and another 
seven satellite sites placed in municipalities across the four counties 
from South Padre Island to Roma (in Starr County).
    According to the study, the Lower Rio Grande Valley now receives 
3.6 million visitors annually. Preliminary research indicates that 77 
percent of these tourists--and numerous residents--would visit one or 
more units of the World Birding Center. The estimated 100,000 visitors 
to the World Birding Center would generate $56 million in local 
expenditures, $1.7 million in local tax revenues, and over 930 new 
jobs. Another benefit would be distributing the economic gains more 
widely among towns in the Valley.
    Completion of the Lower Rio Grande Valley NWR is critical to 
providing the public bird viewing opportunities on which the ecotourism 
strategy is premised.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California

                              INTRODUCTION
    It has long been said that the Colorado River is the lifeblood of 
the West. Today, the Colorado River supplies vital water and power 
resources for more than 20 million people in Arizona, California and 
Nevada.
    Concerns have been raised about the reliability of these water and 
power resources following the U.S. Fish and Wildlife Service's 1994 
designation of critical habitat for four endangered fish species in the 
Colorado River Basin.
    In response, representatives of the U.S. Department of the 
Interior, Arizona, California, and Nevada, Native American tribes, 
along with various stakeholders and water and power agencies along the 
lower Colorado, have formed a regional partnership, which is developing 
a first-of-its kind multi-species conservation program aimed at 
protecting sensitive, threatened and endangered species of fish, 
wildlife and their habitat.
    The partnership formed a 35-member steering committee, which has 
been designated by the U.S. Fish and Wildlife Service as an Ecosystem 
Conservation and Recovery Implementation Team (ECRIT) under the federal 
Endangered Species Act. The steering committee has retained the 
services of professional facilitator and technical consultant teams to 
help develop a plan for the conservation program. The conservation plan 
is scheduled for completion in Fall 2002.

                          PROGRAM DESCRIPTION
    The multi-species conservation program will work toward the 
recovery of listed species through habitat restoration and species 
conservation, and reduce the likelihood of additional species listings 
under the federal and California Endangered Species Act.
    The MSCP planning area includes the historic floodplain of the 
lower Colorado River and reservoir full-pool elevations from Lake Mead 
to the Southerly International Boundary with Mexico. MSCP habitat 
restoration and preservation activities are intended to address the 
following habitat types: aquatic, wetland/marsh, riparian and upland 
desert fringe. It is the intent of the MSCP to conserve, protect, and 
re-vegetate native cottonwood-willow and mesquite trees in the 
floodplain, and remove the non-native salt cedar, or tamarisk, that has 
become established.
    The MSCP will be implemented over a 50-year period. The long-term 
program is also intended to accommodate current water diversions and 
power production and optimize opportunities for future water and power 
development. This comprehensive program will provide long-term 
environmental compliance for participating federal agencies, pursuant 
to Section 7 of the federal Endangered Species Act, and non-federal 
agencies under Section 10. California Agencies will also pursue 
programs and actions to achieve compliance with California 
Environmental Quality and Endangered Species Acts.
    Over the past four years, interim conservation measures (ICMs) have 
been developed and implemented to address the immediate critical needs 
for certain endangered species. ICMs benefiting the endangered 
razorback sucker, bonytail, and southwestern willow flycatcher were 
initiated.

                        PROGRAM DEVELOPMENT COST
    The cost to develop the long-term conservation plan is projected to 
be approximately $6.7 million over five years for planning needs and 
implementation fICMs. A federal/non-federal cost-sharing agreement is 
in place for development of the program and implementation of interim 
conservation measures. The federal and non-federal participants shared 
program development costs on a ``50/50'' basis. Among the non-federal 
participants, the shares were distributed as follows: 50 percent of the 
non-federal share was borne by California, 30 percent by Arizona, and 
the remaining 20 percent by the State of Nevada.

                         PROGRAM IMPLEMENTATION
    The MSCP will be implemented over the fifty-year period beginning 
in late 2002. However, MSCP proponents are desirous of implementing a 
series of ``pilot projects'' in order to begin evaluating potential 
habitat restoration and species conservation technologies within the 
planning area. Additionally, the pilot projects would be supplemented 
with species and habitat monitoring and research programs, providing 
the basis for a comprehensive adaptive management approach.

      PROPOSED PLANNING & IMPLEMENTATION PILOT PROJECT DESCRIPTION
    In order to complete the Lower Colorado River Multi-Species 
Conservation Program (MSCP) by Fall 2002, and support Reclamation's 
continued compliance with the 1997 biological opinion, the MSCP 
Steering Committee has identified several critically needed planning 
projects which, if developed, ensure overall comprehensiveness of the 
MSCP. These planning projects are necessary to accomplish the 
following:
  --Provide additional or lacking species and habitat data, evaluations 
        and analyses ($200,000);
  --Provide critically needed groundwater and soils data ($200,000);
  --Provide for the development of conservation opportunity area site 
        suitability assessments ($500,000);
  --Develop conceptual habitat restoration site designs for 
        approximately six sites within the MSCP planning area 
        ($500,000);
  --Develop digital elevation mapping (1-2 foot contour intervals) 
        within the MSCP planning area ($200,000);
  --Develop updated detailed vegetation mapping within the MSCP 
        planning area ($200,000);
  --Provide funds for completion of conservation planning on the 
        Colorado River Indian Reservation ($500,000);
  --Provide funds to the California Department of Fish and Game, 
        through the U.S. Fish and Wildlife Service, in support of the 
        Natural Communities Conservation Planning Act requirements and 
        requisite Scientific Review Panel ($200,000); and
  --Provide funds for completion of the development of the Lower 
        Colorado River Multi-Species Conservation Program ($500,000).

                         PILOT PROJECT FUNDING
    It is respectfully requested that this suite of proposed LCR MSCP 
habitat conservation planning and data acquisition projects should be 
funded with an additional appropriation of $3.0 million to the U.S. 
Fish and Wildlife Service's Habitat Conservation Planning budget line 
item, for which the federal, tribal, and state MSCP participants shall 
receive credit as part of their long-term conservation commitments.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
    Dear Chairman Burns and Members of the Subcommittee: Mr. Chairman, 
members of the Subcommittee, I am Beverly Bridgewater, President of the 
Oregon Water Resources Congress (OWRC). The OWRC represents irrigation, 
water control, drainage and water improvement districts, private ditch 
and irrigation corporations, cities and counties, individual farmers 
and ranchers statewide as well as having agribusiness associates as 
members.
    I am writing to urge your support for $25 million for fiscal year 
2002 for the U.S. Fish and Wildlife Service to implement Public Law 
106-502, the Fisheries Restoration and Irrigation Mitigation Act of 
2000.

                               BACKGROUND
    Public Law 106-502, (H.R.1444) the Fisheries Restoration and 
Irrigation Mitigation Act of 2000, established a new program within the 
U.S. Fish and Wildlife Service to plan, design, and construct fish 
screens, fish passage devices, and related features to mitigate impacts 
on fisheries associated with irrigation system water diversions by 
local governmental entities in the Pacific Ocean drainage of the States 
of Oregon, Washington, Montana, and Idaho.
    The goals of the program are to decrease fish mortality associated 
with the withdrawal of the water for irrigation and other purposes 
without impairing the continued withdrawal for water for those purposes 
and to decrease the incidence of juvenile and adult fish entering water 
supply systems. Nonfederal participation in the program is voluntary.
    Projects to be undertaken by the program will be evaluated and 
prioritized on the basis of: benefits to fish species native to the 
project area, particularly to species that are listed as being, or 
considered by Federal and State authorities to be, endangered, 
threatened, or sensitive; the size and type of water diversion; the 
availability of other funding sources; cost effectiveness; and 
additional opportunities for biological or water delivery system 
benefits.
    The legislation authorized $25,000,000 a year to be allocated 
within the four states, starting in fiscal year 2001. Because the 
legislation was not signed into law until November of 2000, the 
opportunity for funding the program in the Interior Appropriations bill 
was not available. The Congressional Budget Office had estimated 
outlays for the program at $8 million in fiscal year 2001, $15 million 
in fiscal year 2002, $22 million in fiscal year 2003 and $25 million in 
fiscal year 2004. Because Congress was not able to act on 
appropriations for fiscal year 2001, we are requesting the full $25 
million for fiscal year 2002. The Act stipulates that not more than 25 
percent of the total funds may be used for one or more projects in any 
single state. The act also caps the amount of Federal administrative 
expenses of carrying out the program to not more that 6 percent. The 
Act would require nonfederal participants in the funded projects to pay 
35 percent of development and implementation costs and all operating 
and maintenance costs on nonfederal projects.

                             PRESENT STATUS
    In order to move forward there is a need for the inventory phase to 
occur. The OWRC would have liked to have had the inventory phase of 
this Act funded out of the fiscal year 2001 Budget so that construction 
on projects could begin in fiscal year 2002. At this time that does not 
appear to be possible. In order for this to have occurred, funding 
would have had to been provided out of the U.S. Fish and Wildlife 
Service Budget. The ``Deferred Allocation Budget'' that was established 
by former Director Jamie Clark could have provided limited funding for 
high priority issues arising subsequent to budget approval. We believe 
the fishscreens program fit that definition. We recognize there may be 
other priorities for the use of this money from within Region 1 of the 
Service, and for that matter, the other regions. However, from a water 
user standpoint, where the right to the use of our water is at stake, 
and our very livelihood and economic stability of our communities 
endangered, we believe there to be a strong need to recognize our 
willingness to address the issue as a major factor in seeking this 
money. We would still like to see this possibility explored.
    As one of the four water user associations for the four Pacific 
Northwest States that would benefit and be the major users of the 
program, and who are currently under Federal mandates from the U.S. 
Fish and Wildlife Service and the National Marine Fisheries Services to 
correct the problems associated with our diversions, there is a 
responsibility on the part of the Service to partner with us to move 
forward towards a solution. The water users were at the forefront in 
advocating passage of this legislation. We recognized and welcomed the 
support from the states, the environmental community and the Native 
American community for passage of this important piece of legislation. 
It is only through these types of partnerships that our region can move 
forward with solving the structural and financial issues associated 
with salmon and other fisheries related issues.
    Thank you for considering our request for full funding in fiscal 
year 2002, and we look forward to whatever help you might extend with 
respect to fiscal year 2001 funding for this important program.
                                 ______
                                 
 Prepared Statement of the Lower Colorado River Basin States--Arizona, 
                         California, and Nevada

                              INTRODUCTION
    It has long been said that the Colorado River is the lifeblood of 
the West. Today, the Colorado River supplies vital water and power 
resources for more than 20 million people in Arizona, California and 
Nevada.
    Concerns have been raised about the reliability of these water and 
power resources following the U.S. Fish and Wildlife Service's 1994 
designation of critical habitat for four endangered fish species in the 
Colorado River Basin.
    In response, representatives of the U.S. Department of the 
Interior, Arizona, California, Nevada and Native American tribes, along 
with various stakeholders and water and power agencies along the Lower 
Colorado River, have formed a regional partnership, which is developing 
a first-of-its kind Multi-Species Conservation Program (MSCP) aimed at 
protecting sensitive, threatened and endangered species of fish, 
wildlife and their habitat.
    The partnership formed a 35-member steering committee, which has 
been designated by the U.S. Fish and Wildlife Service as an Ecosystem 
Conservation Recovery Implementation Team (ECRIT) under the federal 
Endangered Species Act. The steering committee has retained the 
services of professional facilitator and technical consultant teams to 
help develop a plan for the MSCP. The conservation plan is scheduled 
for completion in Fall 2002.

                          PROGRAM DESCRIPTION
    The MSCP will work toward the recovery of listed species through 
habitat restoration and species conservation, and reduce the likelihood 
of additional species listings under the federal and California 
Endangered Species Act.
    The MSCP planning area includes the historic floodplain of the 
Lower Colorado River and reservoir full-pool elevations from Lake Mead 
to the Southerly International Boundary with Mexico. MSCP habitat 
restoration and preservation activities are intended to address the 
following habitat types: aquatic, wetland/marsh, riparian and upland 
desert fringe. It is the intent of the MSCP to re-vegetate native 
cottonwood-willow and mesquite trees in the floodplain, and remove the 
non-native salt cedar, or tamarisk, that has become established.
    The MSCP will be implemented over a 50-year period. The long-term 
program is also intended to accommodate current water diversions and 
power production and optimize opportunities for future water and power 
development. This comprehensive program will provide long-term 
environmental compliance for participating federal agencies, pursuant 
to Section 7 of the federal Endangered Species Act, and non-federal 
agencies under Section 10. California agencies will also pursue 
programs and actions to achieve compliance with California 
Environmental Quality and Endangered Species Acts.
    Over the past four years, interim conservation measures (ICMs) have 
been developed and implemented to address the immediate critical needs 
for certain endangered species. ICMs benefiting the endangered 
Razorback Sucker, Bonytail and Southwestern Willow Flycatcher were 
initiated.

                        PROGRAM DEVELOPMENT COST
    Current program development costs are projected at about $6.7 
million over five years for planning needs and implementation of ICMs. 
A federal/non-federal cost-sharing agreement is in place for 
development of the program and implementation of interim conservation 
measures. The federal and non-federal participants shared program 
development costs on a ``50/50'' basis. Among the non-federal 
participants, the shares were distributed as follows: 50 percent of the 
non-federal share was borne by California, 30 percent by Arizona and 
the remaining 20 percent by Nevada.

                         PROGRAM IMPLEMENTATION
    The MSCP will be implemented over the fifty-year period beginning 
in late 2002. However, MSCP proponents are desirous of implementing a 
series of ``pilot projects'' in order to begin evaluating potential 
habitat restoration and species conservation technologies within the 
planning area. Additionally, the pilot projects would be supplemented 
with species and habitat monitoring and research programs, providing 
the basis for a comprehensive adaptive management approach.

                 VIRGIN RIVER PILOT PROJECT DESCRIPTION
    Located in the northeastern corner of Clark County, Nevada, the 
Virgin River Pilot Project is approximately 60 miles northeast of the 
City of Las Vegas. This project area is to the south of Interstate 15, 
and it extends from the City of Mesquite southwest nearly 35 miles to 
the Lake Mead National Recreation Area. Encompassed within this project 
area is a mosaic of federal, state and privately held lands totaling 
sum 31,300 acres.
    The Virgin River Pilot Project provides numerous opportunities for 
LCR MSCP covered species conservation, and it has a high potential of 
creating synergies between the LCR MSCP and a number of other regional 
planning and environmental programs. Over 300 wildlife species occur 
along the lower Virgin River corridor. Of these, at least 23 have been 
proposed for coverage by the LCR MSCP. Anticipated actions for this 
pilot project include acquisition/conservation of privately held lands, 
enhancement of riparian and wetland habitats and collaboration with 
ongoing federal, state and local agency planning and environmental 
efforts.

                        PROJECT AREA DESCRIPTION
    The Virgin River is a natural flowing perennial stream, which 
originates in the mountains of southern Utah and terminates at the 
Overton Arm of Lake Mead, Nevada. Within the project area, the 
floodplain is broad (over a mile in several places) and the stream is 
braided during most of the year. Soils are predominately sands and the 
riparian vegetation is dominated by the nonnative shrub Tamarix. 
Relatively small clusters of native riparian and wetland vegetation are 
scattered throughout the floodplain. These clusters of native 
vegetation provide valuable habitat for many native and several 
federally listed threatened and endangered species.
    The lower Virgin River corridor is biologically rich as it supports 
over 300 wildlife species. During the spring and fall, migrating flocks 
of song birds, geese, white pelicans and many other birds forage and 
take refuge along the River corridor as they migrate through the 
region. Other bird species like the Western Yellow-Billed Cuckoo and 
the federally endangered Southwestern Willow Flycatcher use the area 
for breeding and raising young. Presently, the Colorado River Basin's 
second largest breeding population of Southwestern Willow Flycatcher is 
located in this area. Other federally listed endangered species that 
are known to occur within the project area include the following:
  --Yuma Clapper Rail;
  --Woundfin;
  --Virgin River Chub; and,
  --Desert Tortoise.
    Human land use activities within the project area include urban 
development within and around the City of Mesquite, agriculture and 
motorized recreation. All three of these activities are potential 
threats to the Virgin River ecosystem and could potentially be 
mitigated with this project.

                            PROJECT ACTIONS
    In keeping with the intent of the LCR MSCP, acquisition and/or 
conservation of privately held lands in the Virgin River floodplain is 
a primary component of this project. There are over 9,000 acres of 
private lands within the project area, and approximately 1,000 acres 
are proposed to be acquired and/or conserved as part of this project. 
There are currently parcels available for purchase, but values vary in 
price to a large extent.
    Restoration of riparian and wetland habitats on acquired/conserved 
private lands and on existing public lands will be an important 
component of this project. As stated above, the nonnative shrub Tamarix 
dominates the riparian community, and relatively small clusters of 
native riparian and wetland vegetation provide substantial benefits to 
the native vertebrate species. An aggressive program of Tamarix 
eradication and native species revegetation in the project area will 
provide significant benefits to those species of interest to the LCR 
MSCP.
    In addition, implementation of this pilot project will potentially 
enhance ongoing regional planning and environmental programs that 
intersect at the Virgin River corridor. These programs range from 
endangered species recovery implementation to public lands disposal. 
Following is a partial list of these programs:
  --Bureau of Reclamation Southwestern Willow Flycatcher Habitat 
        Acquisition
  --Clark County Multi-Species Habitat Conservation Plan
  --Lincoln County Land Act of 2000
  --Southern Nevada Riparian Restoration Initiative
  --Southern Nevada Public Land Management Act of 1998
  --Virgin River Fishes Recovery Implementation Team
  --Virgin River Resource Management and Recovery Program
  --Virgin River Tamarix Workgroup

                       POTENTIAL PROJECT BENEFITS
    Potential benefits of this pilot project include:
  --Habitat conservation and restoration for several federally listed 
        and sensitive species that are proposed covered by the LCR MSCP 
        (most importantly the Southwestern Willow Flycatcher, Yuma 
        Clapper Rail and Yellow-Billed Cuckoo);
  --Consolidation of land use types in an area troubled by checkerboard 
        land use;
  --Opportunities for collaboration among several regional planning and 
        environmental programs; and,
  --Potential to provide a portion of Nevada's overall commitment to 
        long-term implementation of the LCR MSCP.

                                FUNDING
    It is proposed that the acquisition, preservation and restoration 
of lands along the lower Virgin River, on behalf of the LCR MSCP, be 
funded through the Land and Water Conservation Fund. Currently, it is 
estimated that approximately $7,000,000 will be required toward this 
effort. Once acquired, title to these parcels would be transferred to 
adjacent federal or state land managers.
                                 ______
                                 
       Prepared Statement of the Tribal Law and Policy Institute
    On behalf of the Tribal Law and Policy Institute, I am pleased to 
submit this written testimony on the fiscal year 2002 Appropriations 
for Interior Department funding of the Indian Tribal Justice Act 
(Public Law 103-176) and Tribal Courts (under the Tribal Priority 
Allocations Account).
    The Tribal Law and Policy Institute is a Native American owned and 
operated non-profit corporation organized to design and deliver 
education, research, training, and technical assistance programs which 
promote the enhancement of justice in Indian country and the health, 
well-being, and culture of Native peoples.

                      INTERIOR DEPARTMENT FUNDING
Indian Tribal Justice Act and Tribal Court Funding
    +$58.4 million. Full Funding for Indian Tribal Justice Act.--The 
Tribal Law and Policy Institute strongly supports full funding ($58.4 
million) for the Indian Tribal Justice Act (Public Law 103-176). On 
December 21, 2000, the 106th Congress re-affirmed the Congressional 
commitment to provide this increased funding for tribal justice systems 
when it re-authorized the Indian Tribal Justice Act for seven more 
years of funding at a level of $58.4 million per year (see Public Law 
106-559, section 202). The Tribal Law and Policy Institute strongly 
supports FULL FUNDING of the Indian Tribal Justice Act as promised in 
1993. The Tribal Law and Policy Institute supports funding at a much 
higher rate since the number of tribal courts and their needs have 
substantially increased since the Act was made law in 1993--more than 
eight years ago.
    Tribal Courts--at least $15 million (under the Tribal Priority 
Allocations Account).--The Tribal Law and Policy Institute strongly 
supports increased funding for Tribal Courts to a level of at least $15 
million under the Tribal Priority Allocations (TPA). This minimal 
increase represents only a minimal first step towards meeting the vital 
needs of tribal justice systems. It is important to note that funding 
has steadily decreased since the passage of the Indian Tribal Justice 
Act. The needs (as recognized by Congress in the enactment of Public 
Law 103-176 and re-affirmed with the enactment of Public Law 106-559), 
however, have only been compounded with the passage of time, the 
increase in tribal courts, the increase of caseloads, population 
growth, and rise in crime rate in Indian country. Native American 
tribal courts must deal with a wide range of difficult criminal and 
civil justice problems on a daily basis, including the following:
  --While the crime rate, especially the violent crime rate, has been 
        declining nationally, it has increased substantially in Indian 
        Country. Tribal court systems are grossly under-funded to deal 
        with these criminal justice problems.
  --Number/complexity of tribal civil caseloads have also been rapidly 
        expanding.
  --Congress recognized this need when it enacted the Indian Tribal 
        Justice Act--specifically finding that ``tribal justice systems 
        are an essential part of tribal governments and serve as 
        important forums for ensuring public health and safety and the 
        political integrity of tribal governments'' and ``tribal 
        justice systems are inadequately funded, and the lack of 
        adequate funding impairs their operation.''
  --While the Indian Tribal Justice Act promised $58.4 million per year 
        in additional funding for tribal court systems starting in 
        fiscal year 1994, tribal courts have yet to see ANY funding 
        under this Act.
  --Since Congress enacted the Indian Tribal Justice Act, the needs of 
        tribal court systems have continued to increase, but there has 
        been no corresponding increase in funding for tribal court 
        systems. In fact, the Bureau of Indian Affairs funding for 
        tribal courts has actually decreased substantially since the 
        Indian Tribal Justice Act was enacted in 1993.
  --The 106th Congress re-affirmed the Congressional commitment to 
        provide this increased funding for tribal justice systems when 
        it re-authorized the Indian Tribal Justice Act in December 2000 
        for seven more years of funding at a level of $58.4 million per 
        year (see Public Law 106-559, section 202).
    As Attorney General Janet Reno stated in testimony before the 
Senate Indian Affairs Committee on, it is vital to ``better enable 
Indian tribal courts, historically under-funded and under-staffed, to 
meet the demands of burgeoning case loads.'' The Attorney General 
indicated that the ``lack of a system of graduated sanctions through 
tribal court, that stems from severely inadequate tribal justice 
support, directly contributes to the escalation of adult and juvenile 
criminal activity.''
    The vast majority of the approximately 350 tribal court systems 
function in isolated rural communities. These tribal justice systems 
face many of the same difficulties faced by other isolated rural 
communities, but these problems are greatly magnified by the many other 
complex problems that are unique to Indian country. In addition to the 
previously mentioned problems, tribal justice systems are faced with a 
lack of jurisdiction over non-Indians, complex jurisdictional 
relationships with federal and state criminal justice systems, 
inadequate law enforcement, great distance from the few existing 
resources, lack of detention staff and facilities, lack of sentencing 
or disposition alternatives, lack of access to advanced technology, 
lack of substance abuse testing and treatment options, etc. It should 
also be noted that in most tribal justice systems, 80-90 percent of the 
cases are criminal case and 90 percent of these cases involve the 
difficult problems of alcohol and/or substance abuse.

                      IMPORTANCE OF TRIBAL COURTS
    ``Tribal courts constitute the frontline tribal institutions that 
most often confront issues of self-determination and sovereignty, while 
at the same time they are charged with providing reliable and equitable 
adjudication in the many and increasingly diverse matters that come 
before them. In addition, they constitute a key tribal entity for 
advancing and protecting the rights of self-government. . . . Tribal 
courts are of growing significance in Indian Country.'' (Frank 
Pommersheim, Braid of Feathers: American Indian Law and Contemporary 
Tribal Law 57 (1995)). Tribal justice systems are the primary and most 
appropriate institutions for maintaining order in tribal communities. 
Attorney General Reno acknowledged that, ``With adequate resources and 
training, they are most capable of crime prevention and peacekeeping'' 
(A Federal Commitment to Tribal Justice Systems, 79 Judicature No. 7, 
November/December 1995, p. 114). It is her view that ``fulfilling the 
federal government's trust responsibility to Indian nations means not 
only adequate federal law enforcement in Indian Country, but 
enhancement of tribal justice systems as well.'' Id.
    Tribal courts agonize over the very same issues state and federal 
courts confront in the criminal context, such as, child sexual abuse, 
alcohol and substance abuse, gang violence and violence against women. 
These courts, however, while striving to address these complex issues 
with far fewer financial resources than their federal and state 
counterparts must also ``strive to respond competently and creatively 
to federal and state pressures coming from the outside, and to cultural 
values and imperatives from within.'' (Pommersheim, ``Tribal Courts: 
Providers of Justice and Protectors of Sovereignty,'' 79 Judicature No. 
7, November/December 1995, p. 111). Judicial training that addresses 
the present imperatives posed by the public safety crisis in Indian 
Country, while also being culturally sensitive, is essential for tribal 
courts to be effective in deterring crime in their communities.
    There is no federally supported institution to provide on-going, 
accessible tribal judicial training or to develop court resource 
materials and management tools, similar the Federal Judicial Center, 
the National Judicial College or the National Center for State Courts. 
Even though the NAICJA annually sponsors the National Tribal Judicial 
Conference, the three-day conference cannot provide the in-depth 
extensive judicial training necessary to make tribal justice systems 
strong and effective arms of tribal government.

              INADEQUATE FUNDING OF TRIBAL JUSTICE SYSTEMS
    There is no question that tribal justice systems are, and 
historically have been, underfunded. The 1991 United States Civil 
Rights Commission found that ``the failure of the United States 
Government to provide proper funding for the operation of tribal 
judicial systems . . . has continued for more than 20 years.'' The 
Indian Civil Rights Act: A Report of the United States Civil Rights 
Commission, June 1991, p. 71. The Commission also noted that 
``[f]unding for tribal judicial systems may be further hampered in some 
instances by the pressures of competing priorities within a tribe.'' 
Moreover, they opined that ``If the United States Government is to live 
up to its trust obligations, it must assist tribal governments in their 
development . . .'' Almost ten years ago, the Commission ``strongly 
support[ed] the pending and proposed congressional initiatives to 
authorize funding of tribal courts in an amount equal to that of an 
equivalent State court'' and was ``hopeful that this increased funding 
[would] allow for much needed increases in salaries for judges, the 
retention of law clerks for tribal judges, the funding of public 
defenders/defense counsel, and increased access to legal authorities.''
    As indicated by the Civil Rights Commission, the critical financial 
need of tribal courts has been well documented and ultimately led to 
the passage of the Indian Tribal Justice Act, 25 U.S.C. Sec. 3601 et 
seq. (the ``Act''). Congress found that ``[T]ribal justice systems are 
an essential part of tribal governments and serve as important forums 
for ensuring public health, safety and the political integrity of 
tribal governments.'' 25 U.S.C. Sec. 3601(5). Affirming the findings of 
the Civil Rights Commission, Congress further found that ``tribal 
justice systems are inadequately funded, and the lack of adequate 
funding impairs their operation.'' 25 U.S.C. Sec. 3601(8). In order to 
remedy this lack of funding, the Act authorized appropriation base 
funding support for tribal justice systems in the amount of $50,000,000 
for each of the fiscal years 1994 through 2000. 25 U.S.C. Sec. 3621(b). 
An additional $500,000 for each of the same fiscal years was authorized 
to be appropriated for the administration of Tribal Judicial 
Conferences for the ``development, enhancement and continuing operation 
of tribal justice systems . . .'' 25 U.S.C. Sec. 3614.
    Eight (8) years after the Act was enacted, how much funding has 
been appropriated? None. Not a single dollar was even requested under 
the Act for fiscal years 1994, 1995, 1997, 1998 or 1999. Only minimal 
funds were requested for fiscal year 1996 and 2000. Yet, even these 
minimal funds were deleted. Even more appalling than the lack of 
appropriations under the Act is the fact that BIA funding for tribal 
courts has actually substantially decreased following the enactment of 
the Indian Tribal Justice Act in 1993. In December 2000, Congress re-
affirmed its commitment to funding of the Indian Tribal Justice Act by 
re-authorizing the Act for seven more years of funding (see Public Law 
106-559, section 202). Now is the time to follow through on this long 
promised funding and provide actual funding under the Indian Tribal 
Justice Act!

                               CONCLUSION
    Tribal justice systems are the primary and most appropriate 
institutions for maintaining order in tribal communities. They are the 
keystone to tribal economic development and self-sufficiency. Any 
serious attempt to fulfill the federal government's trust 
responsibility to Indian Nations must include increased funding and 
enhancement of tribal justice systems.
    We welcome the opportunity to comment on the Interior Department's 
Budget Request for the Indian Tribal Justice Act and Tribal Courts 
(under the Tribal Priority Allocations Acount). Thank you very much.
                                 ______
                                 
         Prepared Statement of the Navajo Mountain School Board
    Mr. Chairman and Members of the Subcommittee: On behalf of the 
Navajo Mountain Community Board of Education, I thank you for this 
opportunity to offer comments regarding the fiscal year 2002 budget. We 
wish to highlight several aspects of the budget which we hope will see 
increased funding in fiscal year 2002: Administrative Cost Grants ($55 
million), Student Transportation ($44 million), ISEP Formula Funds 
($400 million), and Facilities Operations and Maintenance funding 
(eliminate the current 21 percent constraint).
    Now is the time to take bold action to eliminate the chronic 
funding shortfalls that have too long been considered a given for BIA-
funded schools. The new Administration has placed education among its 
highest priorities, and has pledged that the ``federal government will 
meet its responsibilities to Native American children''. The 
Administration has voiced support for local control and flexibility 
over education programs, a philosophy that should translate to 
enthusiastic support for tribally-operated schools, which currently 
constitute nearly two-thirds of all Bureau-funded schools. Budget 
surplus estimates demonstrate that there is room in the federal budget 
to prudently choose increased appropriations in areas where funding is 
most needed--and the need of the BIA-funded school system is certainly 
such an area. We look forward to working with your subcommittee to 
ensure that this unique opportunity is fully capitalized upon to 
improve the lives of Native American youth throughout the BIA system.

                       ADMINISTRATIVE COST GRANTS
    Like many tribally-operated BIA schools, we are facing a crisis in 
our administrative budget, operating at less than 80 percent of the 
funding necessary for prudent management of a school. We receive our 
administrative funding through Administrative Cost Grants, a formula-
based method created by Congress to calculate the amount of funds that 
should be provided for the administrative and indirect cost expenses 
incurred in the operation of BIA school programs--similar to ``contract 
support'' costs provided to non-school contractors. The Administrative 
Cost Grant formula was designed as a compromise, a minimum calculation 
of the administrative costs necessary for prudent management of 
tribally operated schools. When 100 percent of these costs are not 
funded, our schools are set up for failure.
    We were pleased that Congress finally increased Administrative Cost 
Grant funding by $1 million in fiscal year 2001 after funding had been 
frozen at the same level ($42.1 million) for three consecutive years. 
But this small increase does not yet address the depth of the current 
shortfall, as appropriations have not increased at all in recent years 
to accommodate rising costs or the strain of additional schools 
converting to tribal operation and further stretching the already 
limited pot of funding. The percentage of the formula met declined from 
89.5 percent (SY 1998-99) to 79.68 percent (SY 2000-01) in the three 
budget years where funding remained level.\1\
---------------------------------------------------------------------------
    \1\ BIA education program funding is ``forward funded'', as are 
most federal aid to education programs. Thus, for example, the fiscal 
year 2000 budget funded the current school year, SY 2000-2001.
---------------------------------------------------------------------------
    The impacts of these shortfalls are far from abstract. Tribally-
operated schools have been forced to make reductions-in-force that cost 
them vital, well-trained administrative staff. Remaining staff struggle 
under the stress of being overloaded with the work of multiple people. 
Some schools have had to convert their administrative staff to a 10-
month employment year, leaving them ill-prepared to close out the 
administrative work of the previous school year and to prepare for the 
coming school year and annual audit. Reduced funding jeopardizes our 
ability to comply with the internal controls needed for prudent fiscal 
management.
    Please end this mounting crisis by providing funding for the full 
need generated by the Administrative Cost Grant formula, which we 
estimate will require approximately $55 million in fiscal year 2002. We 
also ask that the rider included in recent Interior Appropriations 
measures capping Administrative Cost Grant funding be excluded in 
future.

                         STUDENT TRANSPORTATION
    Like many tribally-operated schools, we are located in a remote 
area where poor road infrastructure and harsh weather make student 
transportation a significant challenge. Many of the roads our buses 
travel are unpaved, and are prone to becoming extremely muddy and icy 
during the winter months. These treacherous conditions place a great 
deal of wear and tear on our school buses and other school vehicles, 
most of which are old and in poor condition.
    In the current school year, the Bureau-funded transportation rate 
is $2.31 per mile, far short of the nationwide average of $2.92 that 
was reported for public schools over six years ago. Yet the fiscal year 
2001 budget included less than a $200,000 increase in funding for 
Student Transportation. Sharp increases in fuel costs over the past 
year have made increased funding for Student Transportation an absolute 
necessity. With wear and tear and repair costs well above average and 
GSA rental and mileage rates escalating at a rapid rate, our student 
transportation have far outstepped the budgeted rate.
    If BIA transportation reimbursement rates continue to lag behind 
actual costs for student transportation in fiscal year 2002, we will 
still have to find a way to get their students to class. What choice 
will we have but to dip into funds that should be used--and are 
desperately needed for--classroom instruction? This is not an 
acceptable trade-off. We ask that you increase the BIA budget for 
student transportation to a level that can at least support a rate of 
$3 per mile, which we estimate would require an appropriation of at 
least $44 million, and ensure that maintenance and extracurricular 
miles are included for funding. We also hope that Congress will 
consider securing immediate emergency supplemental funding to address 
the crisis of rising fuel costs that we face.
Indian Student Equalization Program (ISEP)
    The ISEP program, which provides basic instructional funding for 
students in BIA-funded schools, has been consistently underfunded. In 
fiscal year 2001, Congress took a step in the right direction, agreeing 
to a desperately needed $14 million increase in funding for ISEP 
formula funds, which resulted in a final funding level of $330.8 
million. But even with this increase, we estimate based on BIA 
projections that the resulting Weighted Student Unit (WSU) will be 
approximately $3,650 for School Year 2001-02.
    Recently, representatives from the Office of Indian Education 
Policy, in discussion with school representatives and others, forged 
the following goals for all BIA-funded schools:
  --All children read independently by the third grade
  --70 percent of students are proficient/advanced in reading and math
  --Individual student attendance rate at 90 percent or better
  --Students demonstrate knowledge of their language and culture
  --Increased enrollment, retention, placement and graduation rates for 
        post-secondary students.
    These are reasonable, important goals--but given the severe 
underfunding that we face under the current budget, we truly have no 
means by which to effect these much needed changes. Our basic 
educational funding is still woefully inadequate when compared with 
similar expenditures for students in any other school system in the 
U.S. Unless additional ISEP funding is provided, we will continue to 
face a large turnover of qualified and experienced teachers, decreased 
instruction hours, teacher layoffs, and teacher salary freezes. This 
will make it all but impossible to progress toward the educational 
goals set by the Office of Indian Education Policy.
    We recommend that Congress appropriate at least $400 million for 
the ISEP Formula program in fiscal year 2002. By funding ISEP at this 
level, Congress could come closer to offering educational opportunities 
to Indian students that are more comparable to those enjoyed by other 
children in this country.
Facilities Maintenance And Operations
    While the shortfall in the formula distributions for Facilities 
Operations and Maintenance improved somewhat this year, our 
distributions remain inadequate, often proving insufficient to cover 
even basic utilities, let alone basic maintenance. Adequate formula 
funding for everyday upkeep of schools is a critical element in 
assuring that schools will last longer and remain safe for students. 
With Facilities Operations and Maintenance funds recently divided into 
two accounts, and Facilities Maintenance blended into the overall line 
item for Facilities Improvement and Repair under the Education 
Construction budget, it has become difficult to discern what funding 
will be available for Facilities Operations and Maintenance under the 
FACCOM formula. The BIA has notified us that the constraint or 
shortfall for this year is 21.18 percent. We ask that you work with the 
Administration to ensure that adequate funding is appropriated to 
eliminate this shortfall.

                               CONCLUSION
    Mr. Chairman and Members of the Committee, thank you for 
considering these matters that are so critical to the welfare of Indian 
children at the Navajo Mountain School. . We hope that this testimony 
will prove useful to your efforts to craft a fair and reasonable budget 
for BIA education programs. We have appreciated your support over the 
years, and look forward to working with you for many years to come in 
our mutual effort to assure the best possible education for young 
people attending BIA-funded schools. Our administration, school board, 
teachers, parents, and students thank you for your assistance.
                                 ______
                                 
       Prepared Statement of the Ramah Navajo School Board, Inc.

                              INTRODUCTION
    The Ramah Navajo School Board, Inc. (RNSB) expresses its 
appreciation for the opportunity to submit its views on American Indian 
education matters coming before the 107th Congress. RNSB requests that 
Congress appropriate funds or enact policies in the fiscal year 2002 
budget as follows: (A) Fund Administrative Cost Grants at 100 percent, 
but at a minimum fund the full need generated by the Administrative 
Cost Grant formula estimated at $55 million for fiscal year 2002, and 
exclude language in recent Interior Appropriations measures capping AC 
Grant funding. (B) Amend Title III of ESEA to include a set aside for 
Education Technology for recurring funding to be distributed to BIA-
funded schools. (C) Appropriate adequate funding to enable the BIA to 
provide Direct Contract Support costs to tribal education contractors 
and modify the Indirect Cost rate according to the court ruling in 
Ramah Navajo Chapter v. Lujan. (D) Appropriate at least $362 million 
for the Indian School Equalization Program in fiscal year 2002. (E) 
Appropriate $44 million for Transportation in fiscal year 2002. (F) 
Facilities Maintenance: RNSB opposes the recent change in Facility 
Improvement and Repair funding and we ask that Congress appropriate 
sufficient funding to eliminate shortfalls in the BIA's Facilities 
Maintenance appropriations. (G) Appropriate $4.45 million for new Pine 
Hill Dorm Replacement and not the inadequate $2.95 we understand is to 
be requested by the BIA. (H) Appropriate $1.4 million for the 
construction of an additional Elementary Classroom for the Pine Hill 
School.
Administrative Cost Grants
    The Federal government supplies administrative funding to tribally-
operated schools through Administrative Cost Grants (AC Grants), which 
are based on a formula created by Congress to cover the administrative 
and indirect cost expenses incurred in the operation of BIA-funded 
school programs. The AC Grant formula was a compromise to provide the 
minimum funding necessary for prudent management of tribally-operated 
schools. When 100 percent of these costs are not funded, our schools 
are set up for failure. Yet this year, tribally-operated schools are 
receiving less than 80 percent of the funding that Congress determined 
to be necessary to cover basic administrative costs and to ensure 
prudent management. We were pleased that Congress increased AC Grant 
funding by $1 million in fiscal year 2001 after funding had been frozen 
at the same level ($42.1 million) for three consecutive years. In those 
years, additional schools converted to tribal operation, causing the 
percentage decline from 89.5 percent (SY 1998-99) to 79.68 percent (SY 
2000-01) in the three budget years when funding remained at the same 
level. BIA education programs are forward funded, as are most Federal 
education programs (i.e., the fiscal year 2000 budget funded the 
current 2000-01 School Year). It is now time for Congress to address 
the backlog created in the years it failed to increase funding and to 
raise appropriations to fully fund the costs it committed to cover when 
tribes operate these schools on behalf of the Federal government. The 
impact of AC Grant shortfalls will continue to undermine and cripple 
tribal operation of BIA-funded schools if under funding continues 
unchecked. Schools, such as our Pine Hill School, are struggling to 
afford the annual audits required by law; many are forced to cut 
administrative staff below levels required for prudent fiscal 
management; others are unable to hire staff willing to work in remote 
locations at the salaries the schools afford given the shortfalls; and 
some have converted administrative staff to ten-month employment 
leaving the schools unprepared to close out the previous school year 
and prepare for the coming year and annual audit. If this trend 
continues, we will begin to see a sharp increase in fiscal failure 
among these schools, with many having no choice but to revert back to 
Federal control and give up local tribal control over the education of 
their own children--a right enjoyed by other Americans through their 
local school boards. Both the National Congress of American Indians and 
the National Indian Education Association passed resolutions calling 
for full funding of AC Grants. We urge Congress to join these bodies 
and tribes in recognizing that the needs of tribal schools for 
administrative costs are just as great as those of other tribally-
operated BIA and IHS programs. We ask that Congress fund the full need 
generated by the Administrative Cost Grant formula, which we estimate 
at $55 million for fiscal year 2002. In addition, we request that 
language included in recent Interior Appropriations measures capping AC 
Grant funding be excluded from the fiscal year 2002 measure.
    Separate ``Pot'' of Funding for New Contract/Grant Conversions.--We 
also ask Congress to amend Public Law 95-561 by adding authorizing 
language to create a separate AC Grant ``pot'' for new contract and 
grant conversions to alleviate the shortfalls caused by additional 
schools converting to tribal operation and drawing from the already 
under-funded pot without new funds to support the conversions. Congress 
should automatically fund a set aside for an amount estimated by the 
BIA.
    Authority to Negotiate and Collect Direct Contract Support.--The AC 
Grant provision should be amended to enable tribally-operated schools 
to negotiate for direct contract support funds, which includes 
administrative and overhead expenses directly attributable to a 
particular program, such as: phones, postage, training, fringe 
benefits, etc. Section 106 of the Indian Self-Determination Act (ISDA) 
calls for BIA and IHS to provide direct contract support to tribal 
contractors. (Tribally-operated schools are not covered by Sec. 106 
since Congress created the AC Grant mechanism for schools.) As a matter 
of policy, BIA has not paid direct contract support to ISDA 
contractors, such as RNSB. BIA only provides ``regular'' contract 
support funds based on negotiated indirect cost rates because it 
asserts it does not get enough funding to pay direct contract support. 
By contrast, IHS does provide funding for direct contract support. 
Congress will also need to amend Public Law 95-561.
    Remove the Discretionary Nature of Administrative Cost Grant 
Funding.--Congress has been able to consistently under fund AC Grants 
because language in the statute makes the formula ``subject to 
appropriations.'' This has resulted in schools receiving less than 100 
percent of their AC Grant amount since Congress does not provide enough 
money to fund at 100 percent. For SY 1999-2000, only 82 percent of the 
AC Grant formula was funded. We recommend that the ``subject to 
appropriations'' language be removed from the authorizing legislation 
to enable schools to obtain 100 percent of the AC Grant amount. This 
would only be the first step in achieving full funding since we also 
ask that Congress remove the ``cap'' on AC Grants that has appeared in 
the last several Appropriations Acts.
Recurring Funding for Education Technology
    Amend Title III (Education Technology) of the ESEA to provide a 
set-aside for recurring funding for education technology for the 
schools in the BIA system. Current law gives the BIA status as a 
``state'' to apply for these funds, but BIA does not currently 
distribute those funds to all schools in the system, which could 
benefit from recurring funding to upgrade school computer systems and 
Internet access for students.
Direct and Indirect Contract Support
    RNSB is requesting that appropriations for Direct and Indirect 
Contract Support continue to increase in order to meet the funding 
needs of tribes to administer Federal grants and contracts. Currently, 
the BIA does not recognize Direct Contract Support Costs as identified 
in the Indian Self-Determination and Education Assistance Act. 
Appropriations must be made for Direct Contract Support for the BIA so 
these funds can be provided to tribes. In addition to funding, RNSB 
requests that modifications be made to the Indirect Costs rate 
calculations currently utilized by the Office of Inspector General for 
tribal Indirect cost agreements. We request that these calculations be 
modified to reflect the May 8, 1997 decision in the Ramah case (Ramah 
Navajo Chapter vs. Lujan, 112 F.3d 1455 (10th CIR. 1997)). The Office 
of Inspector General has ignored this decision and continues to 
calculate tribal indirect cost rates inappropriately.
Indian School Equalization Program
    ISEP Formula Funding, which provides basic instructional funding 
for students in BIA-funded schools, remains far short of equivalent 
funding per student provided to Department of Defense schools and 
average funding received by public schools. This lower level of funding 
should not be accepted. In fiscal year 2001, Congress agreed to a 
desperately needed $14 million increase for a final funding level of 
$330.8 million. But even with this increase, we estimate that (based on 
BIA projections) the resulting Weighted Student Unit (WSU) will be 
approximately $3,650 for School Year 2001-02. This remains woefully 
inadequate, especially when compared with similar expenditures for 
students in other school systems in the U.S. Unless additional ISEP 
funding is provided, we will continue to lose our best teachers to 
salary freezes, teacher layoffs, better paying jobs, and our students 
will suffer decreased instruction hours and inadequate instructional 
materials. To seriously address this shortfall, we recommend that 
Congress appropriate at least $362 million for the ISEP Formula program 
in fiscal year 2002. Based on BIA projections, this will result in a 
WSU of approximately $4,000 per student. By funding ISEP at this level, 
Congress will come closer to offering educational opportunities to 
Indian students that are comparable to those enjoyed by all other 
children in this country.
Transportation
    The BIA transportation rate is $2.31 per mile for the 2000-01 SY, 
far short of the national average of $2.92 reported for public schools 
six years ago. Yet the fiscal year 2001 budget included less than a 
$200,000 increase for transportation costs which have constantly 
exceeded the budgeted rate because of: (1) Sharp increases in fuel 
costs. (2) Above average repair costs for school buses which are used 
mainly in rural areas with unpaved and unmaintained roads. (3) 
Escalating GSA rental and mileage rates. Our school has been forced to 
use $100,000-to-$150,000 of its ISEP funds to cover the shortfalls in 
the transportation funding we received; a tradeoff we should not be 
forced to make. We ask Congress to increase student transportation to a 
level that can at least support a $3 per mile rate, which we estimate 
would require an appropriation of at least $44 million.
Facilities Maintenance and Operations
    The formula distributions for Facilities Operations and Maintenance 
remain inadequate, often proving insufficient to cover even basic 
utilities, let alone basic maintenance. Adequate formula funding for 
everyday upkeep of schools is a critical element in assuring that 
schools will last longer and remain safe for students. With Facilities 
Operations and Maintenance funds recently divided into two accounts, 
and Facilities Maintenance blended into the overall line item for 
Facilities Improvement and Repair (FI & R) under the Education 
Construction budget, it has become difficult to discern what funding 
will be available for Facilities Operations and Maintenance under the 
FACCOM formula. Currently we face a constraint or shortfall of 21.18 
percent. RNSB asks that Congress work with the Administration to ensure 
that adequate funding is appropriated to eliminate this shortfall. In 
the fiscal year 2000 budget, the BIA requested Congress to split the 
Facilities Operations and Maintenance line item into two line items. 
Schools objected to this change, but Congress approved the BIA's 
request. In fiscal year 2000, Facilities Operations was funded at $54 
million and Facility Maintenance was funded at $27 million. The 
Facility Operations funding request for the fiscal year 2001 budget is 
only $55.6 million. For fiscal year 2001, the Facility Maintenance 
funding request is being combined with the Facility Improvement and 
Repair line item in the Education Construction portion of the budget. 
The Facility Maintenance funding has been distributed based on a 
formula driven methodology and the Facility Improvement and Repair 
funding is distributed based on a project-by-project and on a one-time 
basis. If this change results in the Facility Maintenance funding no 
longer being distributed by the formula funding methodology, then the 
impact would be devastating to the already under funded daily 
operations and maintenance needs. RNSB requests that funding levels for 
the Facility Maintenance portion be distributed as in previous years. 
If Facility Maintenance funding levels are to be distributed in the 
same manner as the Facility Improvement and Repair funding, RNSB 
opposes this change. These funds are imperative to the operations of 
the Pine Hill School and RNSB's Indian Self-Determination operations.
Pine Hill Dorm Replacement
    RNSB appreciates the planning & design money received in the fiscal 
year 2001 budget for new dormitory facilities, and we urge approval of 
funds for actual construction in the fiscal year 2002 budget. Our dorm 
accommodates the critical housing needs of many Ramah Navajo students. 
However, information provided by the BIA reflects a funding level of 
only $2.95 million for this project. Similar size dormitories on the 
Navajo Reservation have been projected at 100 students <greek-e> 330 
Sq. Ft. Per Student <greek-e> $135 = $4.45 million. Therefore, RNSB is 
in need of approximately $1.50 million more to complete this planned 
project. The BIA's request omits a cafeteria and reduces the dorm rooms 
from 100 to 80, which does not reflect RNSB's original need.
Education Facilities Construction
    RNSB requests $1,400,000 to construct an Elementary School 
classroom building for Pine Hill School needed because of continued 
increases in enrollment for the past eight years. The Pine Hill School 
has experienced a 50 percent increase in enrollment since the 1992-1993 
SY (371 to 558 enrolled students), and the average increase per year is 
approximately 8 percent. There is also a serious concern associated 
with the unsafe issues of overcrowding in the Pine Hill School K-12 
programs. Gross square footage of the proposed facility is 8,643. The 
total square footage includes six classrooms at 871 square feet; girls 
and boys restrooms at 297 square feet each; and a teachers workroom at 
349 square feet. The building will be built with steel structure, metal 
roof and a brick veneer exterior. Each classroom will be wired for 
computers and connected to the local network system. The architect and 
engineering costs are projected at $85,000. Waste treatment and site 
utilities are projected at $145,000. Construction cost is estimated at 
$135 a square foot for a actual construction amount of $1,170,000. The 
total cost of the project is $1,400,000.
                                 ______
                                 
     Prepared Statement of the Colorado River Commission of Nevada

                              INTRODUCTION
    It has long been said that the Colorado River is the lifeblood of 
the West. Today, the Colorado River supplies vital water and power 
resources for more than 20 million people in Arizona, California and 
Nevada.
    Concerns have been raised about the reliability of these water and 
power resources following the U.S. Fish and Wildlife Service's 1994 
designation of critical habitat for four endangered fish species in the 
Colorado River Basin.
    In response, representatives of the U.S. Department of the 
Interior, Arizona, California, and Nevada, Native American tribes, 
along with various stakeholders and water and power agencies along the 
lower Colorado, have formed a regional partnership, which is developing 
a first-of-its kind multi-species conservation program aimed at 
protecting sensitive, threatened and endangered species of fish, 
wildlife and their habitat.
    The partnership formed a 35-member steering committee, which has 
been designated by the U.S. Fish and Wildlife Service as an Ecosystem 
Conservation and Recovery Implementation Team (ECRIT) under the federal 
Endangered Species Act. The steering committee has retained the 
services of professional facilitator and technical consultant teams to 
help develop a plan for the conservation program. The conservation plan 
is scheduled for completion in Fall 2002.

                          PROGRAM DESCRIPTION
    The multi-species conservation program will work toward the 
recovery of listed species through habitat restoration and species 
conservation, and reduce the likelihood of additional species listings 
under the federal and California Endangered Species Act.
    The MSCP planning area includes the historic floodplain of the 
lower Colorado River and reservoir full-pool elevations from Lake Mead 
to the Southerly International Boundary with Mexico. MSCP habitat 
restoration and preservation activities are intended to address the 
following habitat types: aquatic, wetland/marsh, riparian and upland 
desert fringe. It is the intent of the MSCP to re-vegetate native 
cottonwood-willow and mesquite trees in the floodplain, and remove the 
non-native salt cedar, or tamarisk, that has become established.
    The MSCP will be implemented over a 50-year period. The long-term 
program is also intended to accommodate current water diversions and 
power production and optimize opportunities for future water and power 
development. This comprehensive program will provide long-term 
environmental compliance for participating federal agencies, pursuant 
to Section 7 of the federal Endangered Species Act, and non-federal 
agencies under Section 10. California Agencies will also pursue 
programs and actions to achieve compliance with California 
Environmental Quality and Endangered Species Acts.
    Over the past four years, interim conservation measures (ICMs) have 
been developed and implemented to address the immediate critical needs 
for certain endangered species. ICMs benefiting the endangered 
razorback sucker, bonytail, and southwestern willow flycatcher were 
initiated.

                        PROGRAM DEVELOPMENT COST
    Current, program development costs are projected at about $6.7 
million over five years for planning needs and implementation of ICMs. 
A federal/non-federal cost-sharing agreement is in place for 
development of the program and implementation of interim conservation 
measures. The federal and non-federal participants shared program 
development costs on a ``50/50'' basis. Among the non-federal 
participants, the shares were distributed as follows: 50 percent of the 
non-federal share was borne by California, 30 percent by Arizona, and 
the remaining 20 percent by the State of Nevada.

                         PROGRAM IMPLEMENTATION
    The MSCP will be implemented over the fifty-year period beginning 
in late 2002. However, MSCP proponents are desirous of implementing a 
series of ``pilot projects'' in order to begin evaluating potential 
habitat restoration and species conservation technologies within the 
planning area. Additionally, the pilot projects would be supplemented 
with species and habitat monitoring and research programs, providing 
the basis for a comprehensive adaptive management approach.
      proposed planning & implementation pilot project description
    In order to complete the Lower Colorado River Multi-Species 
Conservation Program (MSCP) by Fall 2002, and support Reclamation's 
continued compliance with the 1997 biological opinion, the MSCP 
Steering Committee has identified several critically needed planning 
projects which, if developed, ensure overall comprehensiveness of the 
MSCP. These planning projects are necessary to accomplish the 
following:
  --Provide additional or lacking species and habitat data, evaluations 
        and analyses ($200,000);
  --Provide critically needed groundwater and soils data ($200,000);
  --Provide for the development of conservation opportunity area site 
        suitability assessments ($500,000);
  --Develop conceptual habitat restoration site designs for 
        approximately six sites within the MSCP planning area 
        ($500,000);
  --Develop digital elevation mapping (1-2 foot contour intervals) 
        within the MSCP planning area ($200,000);
  --Develop updated detailed vegetation mapping within the MSCP 
        planning area ($200,000);
  --Provide funds for completion of conservation planning on the 
        Colorado River Indian Reservation ($500,000);
  --Provide funds to the California Department of Fish and Game, 
        through the U.S. Fish and Wildlife Service, in support of the 
        Natural Communities Conservation Planning Act requirements and 
        requisite Scientific Review Panel ($200,000); and
  --Provide funds for completion of the development of the Lower 
        Colorado River Multi-Species Conservation Program ($500,000).
                         pilot project funding
    It is respectfully requested that this suite of proposed LCR MSCP 
habitat conservation planning and data acquisition projects should be 
funded with an additional appropriation of $3.0 million to the U.S. 
Fish and Wildlife Service's Habitat Conservation Planning budget line 
item.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    This testimony is in support of funding for the Bureau of Land 
Management (BLM) for activities that assist the Colorado River Basin 
Salinity Control Program. The BLM budget, as will be proposed by the 
Administration, will support ecosystems. and watershed management. The 
activities needed to control salts being contributed from the BLM lands 
are a part of ecosystem and watershed management. Because the budgeting 
process lumps all activities together, we can only presume that there 
will be adequate dollars in the President's budget to move ahead with 
the water quality enhancement and protection programs needed in the 
Colorado River drainage to ensure that salts from public lands 
administered by the BLM are not, in excess amounts, contributing to the 
river system. Our analysis indicates that the BLM needs to specifically 
target the expenditure of funds in the amount of $5,200,000 for 
activities that help control salt contributions from BLM managed lands 
in the Colorado River Basin in fiscal year 2002.
    Although the Forum has not been able to determine from limited 
budget documents how appropriated funds will be spent, we are 
encouraged by recent efforts by the BLM. A salinity coordinator for the 
basinwide program has been selected. Salinity coordinators in each of 
the state offices have been identified. There has been a meeting to 
help coordinate a basinwide effort that involved the basinwide salinity 
coordinator and the state representatives. This year the BLM has been 
charged by the Congress to prepare a special report as to how the 
Bureau is moving ahead with salinity control activities. It has been 
difficult in the past to determine how much funds and efforts were 
being expended by the BLM in the water quality program and they have 
been very general in their accounting for their accomplishments. The 
Forum hopes that when the BLM reports to the Congress as is required 
under S. 1211 (Public Law 106-459), which was signed into law November 
7, 2000, that a better understanding of the BLM's efforts can be 
obtained. The success of the BLM in controlling erosion and, hence, 
salt contributions to the Colorado River and its tributaries is 
essential to the success of the Colorado River Basin Salinity Control 
Program and the adherence to water quality standards that have been 
adopted by the seven Colorado River Basin states and approved by the 
Environmental Protection Agency. Inadequate BLM control efforts will 
result in very significant additional economic damages to water users 
downstream. The Forum submits this testimony in support of adequate 
funding so that the BLM programs can move ahead at a pace that is 
needed to meet these water quality standards.

                                OVERVIEW
    The Colorado River Basin Salinity Control Program was authorized by 
Congress in 1974. The Title I portion of the Colorado River Basin 
Salinity Control Act responded to commitments that the United States 
made, through a minute of the International Boundary and Water 
Commission, to Mexico with respect to the quality of water being 
delivered to Mexico below Imperial Dam. Title II of the Act established 
a program to respond to salinity control needs of Colorado River water 
users in the United States and to comply with the mandates of the then 
newly legislated Clean Water Act. Initially, the Secretary of the 
Interior and the Bureau of Reclamation were given the lead federal role 
by the Congress. This testimony is in support of funding for a portion 
of the Title II program.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. Congress revised the Act in 1984. That revision, while keeping 
the Secretary of the Interior as lead coordinator for Colorado River 
Basin salinity control efforts, also gave new salinity control 
responsibilities to the Department of Agriculture and to the Bureau of 
Land Management. Congress has charged the Administration with 
implementing the most cost-effective program practicable (measured in 
dollars per ton of salt removed). The Basin states are strongly 
supportive of that concept, in addition to proceeding to implement 
their own salinity control efforts in the Colorado River Basin.
    Since the Congressional mandates of nearly two decades ago, much 
has been learned about the impact of salts in the Colorado River 
system. Reclamation recognizes that the damages to United States' water 
users alone is about $.5 billion per year.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of Gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum has become the seven-state 
coordinating body for interfacing with federal agencies and Congress to 
support the implementation of the program necessary to control the 
salinity of the river system. In close cooperation with the 
Environmental Protection Agency (EPA) and under requirements of the 
Clean Water Act, every three years the Forum prepares a formal report 
analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program necessary to keep the salinities at or below 
the levels measured in the river system in 1972.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations measured at Imperial, and below Parker, and 
Hoover Dams in 1972 have been identified as the numeric criteria. The 
plan necessary for controlling salinity has been captioned the ``plan 
of implementation.'' The 1999 Review of water quality standards 
includes an updated plan of implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed to plan. If 
adequate funds are not appropriated, state and federal agencies 
involved are in agreement that the damage from the high salt levels in 
the water will be even more widespread in the United States and Mexico.

                             JUSTIFICATION
    The BLM is, by far and away, the largest land manager in the 
Colorado River Basin. Much of the land that is controlled and managed 
by the Bureau of Land Management is heavily laden with salt. Past 
management practices, which include the use of lands for recreation; 
for road building and transportation; and for oil, gas, and mineral 
exploration have led to man-induced and accelerated erosional 
processes. When soil and rocks heavily laden with salt erode, the silt 
is carried along for some distance and ultimately settles in the 
streambed or flood plain. The salts, however, are dissolved and remain 
in the river system causing water quality problems downstream.
    The Forum believes that the federal government has a major and 
important responsibility with respect to controlling pick-up of salt 
from public lands. Congress charged federal agencies, including the 
BLM, to proceed with measures to control the salinity of the Colorado 
River, with a strong mandate to seek out the most cost-effective 
options. It has been determined that BLM's rangeland improvement 
programs can lead to some of the most cost-effective salinity control 
measures available. These salinity control measures may be more cost-
effective than some now being considered for implementation by the 
Bureau of Reclamation and by the Department of Agriculture. They are 
very environmentally acceptable, as they will prevent erosion, increase 
grazing opportunities, increase dependable stream runoffs, and enhance 
wildlife habitats.
    Through studying hundreds of watersheds in the States of Utah, 
Colorado, and Wyoming, consortiums of federal and state agencies, 
including the BLM, have selected several watersheds where very cost-
effective salinity control efforts could be implemented immediately. In 
keeping with the Congressional mandate to maximize the cost-
effectiveness of salinity control, the Forum is requesting that the 
Congress appropriate and the administration allocate adequate funds to 
support the Bureau of Land Management's portion of the Colorado River 
salinity control program as set forth in the adopted plan of 
implementation.
    BLM has not had a history of adequately reporting its efforts, the 
associated expenditures and its accomplishments with respect to 
Colorado River salinity control. Legislation passed last year, S. 1211, 
will require the BLM to report its program for salinity control to the 
Congress. The Forum supports this requirement.

             DETAILS CONCERNING THE REQUESTED APPROPRIATION
    After conferring with BLM officials, the Forum believes there needs 
to be spent in fiscal year 2002, by the Bureau of Land Management, 
$5,200,000 for salinity control. We are particularly concerned that the 
appropriation titled Management of Lands and Renewable Resources is 
adequately funded. The Forum also requests that a specific amount, 
$800,000, be marked for the Colorado River Basin Salinity Control 
Program as has been the direction from the Subcommittee in the past.
    The Forum believes that although it is commendable for the 
administration to formulate a budget that focuses on ecosystems and 
watershed management, it is essential that funds be targeted on 
specific subactivities and the results of those expenditures be 
reported; this is necessary for accountability and for the 
effectiveness of the use of the funds. The Forum requests that the 
Subcommittee require meaningful accounting by the Bureau of Land 
Management in such a way that the results of their salinity control 
activities in connection with the expenditures of funds can be reviewed 
and measured.
                                 ______
                                 
    Prepared Statement of the American Association of Museums, the 
   Association of American Universities, the Society for Historical 
   Archaeology, the Society for American Archaeology, and the Native 
                          American Rights Fund
    Mr. Chairman and members of the Subcommittee: I am Jason Hall, 
Director of Government and Public Affairs for the American Association 
of Museums, presenting written testimony on behalf of a consortium 
consisting of the American Association of Museums, the Association of 
American Universities, the Native American Rights Fund, the Society for 
American Archaeology, and the Society for Historical Archaeology.
    As you know, Section 10 of the Native American Graves Protection 
and Repatriation Act (Public Law 101-601--``NAGPRA'') authorizes the 
Secretary of the Interior to ``make grants to Indian tribes and native 
Hawaiian organizations for the purpose of assisting such tribes and 
organizations in the repatriation of native American cultural items'' 
and to ``make grants to museums for the purpose of assisting the 
museums in conducting the inventories and identification required under 
sections 5 and 6.'' While we appreciate the Congress and the President 
agreed in the Interior bill to provide funding of $2.472 million for 
fiscal year 2001 to allow the statutorily-mandated repatriation process 
to proceed, we respectfully urge Congress to increase the appropriation 
to $5 million for fiscal year 2002. We present the following reasons in 
support of this request.
    As you are aware, NAGPRA is remedial legislation. Congress enacted 
the law in 1990 in large part to assure that Native American remains 
and funerary and other objects retained by the federal government and 
museum community are returned under the law to appropriate tribes and 
organizations for reburial or other appropriate treatment. As remedial 
legislation, NAGPRA will not remedy the problem Congress sought to 
resolve unless adequate dollars are appropriated so that tribes and 
museums can complete the repatriation process--which is now under way 
but which necessarily proceeds slowly in many cases because of 
essential museum-tribe consultation and other factors. Repatriation is 
a high priority of the museum and tribal communities, which do not have 
adequate funds to do the necessary work required by NAGPRA.
    Since repatriation is the subject of federal legislation as well as 
regulations and administrative guidelines, the U.S. Government has a 
trust responsibility to Indian tribes and their members in the area of 
repatriation. This trust responsibility imposes strict, binding 
fiduciary standards on the conduct of executive agencies, here the 
National Park Service and the Department of the Interior, in its 
treatment of tribes in repatriation matters. Adequate funding for 
tribes, museums and universities in necessary to carry out the 
statutory mandates of Congress.
    At the same time, it is clear that the communities and sovereign 
Indian tribes represented by the consortium have been called upon to 
take a much increased role in implementing Public Law 101-601 in the 
past several years, as the mandated summaries and inventories of museum 
holdings were largely completed by museums and sent to the tribes in 
mid-November, 1993, and mid-November, 1995, respectively. Activity has 
intensified immensely in recent years and will continue to do so as the 
number of actual repatriations continues to increase. The consortium's 
testimony provides information on how the requirements of the law are 
creating significant costs for our communities and seeks your support 
for funding for the grant program authorized in the law, so that we can 
continue to comply with it in a timely and responsible way. Let me 
start by addressing in generic terms the needs of the museum community. 
In order to comply with Public Law 101-601, museums have to engage in 
activities falling into four categories: (1) preparation of 
inventories, in the case of human remains and associated funerary 
object, and written summaries, in the case of unassociated funerary 
objects, sacred objects and cultural patrimony; (2) notification and 
consultation with Native American groups and visitation by those groups 
to museum collections; (3) research to identify cultural affiliation of 
human remains and objects; and (4) repatriation.
    To prepare the inventories of human remains and funerary objects 
which were due by November 16, 1995, museums have needed to: physically 
locate every item within the museum's storerooms; locate and review 
existing records to compile information necessary to determine whether 
a funerary object is ``associated'' or not, and to determine the 
cultural affiliation of the objects; catalog any remains ad objects 
that are not catalogued; document (e.g., measure and photograph) and 
analyze the human remains and funerary objects; and compile an 
inventory of human remains and funerary objects containing the 
information required under Public Law 101-601, including cultural 
affiliation. The delay in promulgation of the final regulations, and 
the late start and low level of grant funding for repatriation grants 
to the tribes and museums, have slowed the process such that a 
significant number of museums were not able to prepare inventories by 
the November 16, 1995 deadline, despite timely and continuing good 
faith efforts, and had to appeal for extensions.
    With respect to unassociated funerary objects, sacred objects and 
cultural patrimony, museums were required to and did, prepare a written 
summary by November 16, 1993 rather than an itemized inventory of their 
collections. Nevertheless, many museums needed to undertake many tasks 
similar to those noted above in order to collect the required 
information. Throughout all of this, museums have needed to consult 
with native American tribes which might have an interest in the 
objects. The time and funds spent on consultation with Native American 
peoples varies according to the physical proximity of the museum to the 
particular group.
    Once the inventory and written summary are complete, the museum 
must identify the tribal representatives authorized to accept 
repatriable objects and formally notify those representatives. Tribal 
representatives must travel to the museums to examine the objects and 
consult with the museum. Remains and artifacts must be packed and 
shipped to the appropriate Native American group. During this process, 
disagreements may arise as to the disposition of items covered by 
Public Law 101-601, and these issues must be resolved.
    Let me turn to some specific cases. On December 6, 1995, the Senate 
Committee on Indian Affairs held an oversight hearing on the 
implementation of NAGPRA. Final NAGPRA regulations, with some sections 
still incomplete, were published two days prior to the hearing. Two 
years later, the Interior Department published an interim rule on one 
of those incomplete sections, the civil penalties section. But as of 
April 2001, there have been no final regulations issued on the three 
remaining sections (future applicability, culturally unidentifiable 
remains, and unclaimed items from Federal or tribal lands.)
    Representatives from the National Park Service, the NAGPRA Review 
Committee, three affected tribes, and a witness representing both the 
American Association of Museums and an affected museum, testified about 
compliance with the law. NPS witness Katherine Stevenson noted that the 
NPS had made 83 NAGPRA grant awards totaling $4.37 million since the 
beginning of the program, but that over that time, they had received 
337 grant proposal requests totaling nearly $30 million, and she 
conceded that the Interior Department's $2.3 million request for fiscal 
year 1996 did not meet the valid needs demonstrated in the grant 
applications from museums and the tribes. Since that 1995 testimony, 
the situation has remained much the same in terms of funding needs. As 
of April 2001, the NPS has been able to make 311 NAGPRA grant awards 
totaling $19.05 million since the beginning of the program, but during 
that time, it has received well over 700 grant proposals totaling more 
than $47.69 million, and funding has essentially been flat at $2.3 
million, and more recently $2.5 million annually. The $2.5 million 
appropriation continues to fall short of valid needs.
    The witness representing museums in 1995, William Moynihan, 
President of the Milwaukee Public Museum, testified about the effort of 
his museum to comply with the law. He noted that the ``Milwaukee Public 
Museum will have committed well in excess of half a million dollars by 
1997 to deal with the legislation. Existing staff in our Anthropology/
History Section have been reallocated from their normal duties to 
NAGPRA-related activities, a large team of volunteers assembled, and 
trained student interns and work-study students hired.'' He noted that 
the Museum has been collecting anthropological and archaeological 
materials for over 100 years, that included in the holdings are the 
remains of 1,500 individuals, and that the collections are not 
computerized. Despite these difficulties, the museum had completed a 
physical inventory of over 22,000 Native American ethnographic objects, 
and a preliminary inventory of 50,000 archaeological objects; sent 
summaries to 572 tribes and native Alaskan and Hawaiian groups; 
followed up with hundreds of calls to tribes; and taken a variety of 
other actions to comply with the law.
    On a broader scale, we have results from the American Association 
of Museums' 1994 repatriation survey of 500 of its member institutions, 
including all of its natural history museums and a selected sample of 
its art and history museums. The survey response rate was 43.6 percent. 
Of those responding, 76 percent of the natural history museums, 43 
percent of the history museums and 23 percent of the art museums had 
Native American objects. Those respondents--a little more than 200--
alone had almost 3.5 million objects which fell into NAGPRA categories, 
and that does not include 15 responding natural history museums, 
including 3 large institutions, which could not give an estimate of 
their NAGPRA-related holdings. An overwhelming number of these 
institutions noted how lack of final regulations and of NAGPRA grant 
funding had hindered or prevented their repatriation efforts.
    Estimating aggregate costs is not possible from the survey data, 
given the great disparities in how institutions calculated their own 
costs. It is clear, however, that thousands of institutions across the 
country are affected to some degree by NAGPRA costs.
    The Native American community is also incurring major expenses in 
attempting to comply with the requirements and deadlines of NAGPRA. As 
you know, the repatriation process involves sacred items and, most 
importantly, human remains, not just artifacts. In this light we must 
approach the funding issues related to the Act. A 1994 repatriation 
survey done by the National Congress of American Indians indicated that 
some tribes had received hundreds of NAGPRA summaries from museums, and 
that the need for outside funding to hire experts to help them analyze 
these materials and subsequent NAGPRA inventory materials is virtually 
universal. From the dozens of responses to the survey, it is apparent 
that most tribes do not have the capacity to comply with the Act. For 
example, the Shingle Springs Rancheria/Miwok/Maidu tribe reported, 
``Our tribe has been well versed in the purpose and intent of NAGPRA. 
The response from museums (the sending out of surveys to the tribes at 
the November 1993 deadline) has been astounding. We have received over 
100 notices. However, we cannot respond or take advantage because of 
lack of funds.'' This tribe estimated its financial needs at 
approximately $35,830. And at the December 1995 Senate oversight 
hearing, Cecil Antone of the Gila River Indian Community noted that the 
Community had received over 150 letters from various museums and 
federal agencies about the disposition of NAGPRA-related collections. 
The needs of the tribes vary depending on the number of responses they 
have received, their present and future ability to comply with the Act, 
and what, if any, experience their tribe has had with projects of this 
sort. In fact, tribal responses estimating funding needs ranged from 
``unknown'' to ``very much'' to ``$2 million.''
    In October 1990, the Congressional Budget Office estimated NAGPRA 
implementation costs to museums of $40 million and to tribes and native 
Hawaiian organizations of $5-10 million over 5 years, assuming that 
museums and federal agencies hold between 100,000 and 200,000 Native 
American remains and that the cost to inventory and review each remain 
would be $50-150. Those estimates now appear to be very low in light of 
our experience since that time. As a result, viable tribal and museum 
request for grants continue to exceed available funds by a large 
margin. In addition, museums cannot repatriate to the tribes until 
appropriate notices go into the Federal Register, and there is 
currently a backlog of about 150 such notices at the NPS, about a 
year's worth, due to lack of staff to process them.
    In closing, let me add that while the museums and tribes must have 
this grant program funded simply to comply with the requirements of 
NAGPRA, it is also true that the grant program will accomplish far more 
than compliance. Museums and tribes have discovered that the exchange 
of data required under NAGPRA is yielding new information that helps us 
all. In the process of identifying sensitive cultural items, museums 
are learning much more about their entire collections. Delegations of 
elders and religious leaders have supplied valuable new insights about 
many objects in the repositories they have visited, and in turn they 
are discovering items of immense interest to their own tribes, the 
existence of which had been unknown in recent generations. Few items in 
these categories are being sought for repatriation; it is simply that 
access to the collections has led to much better mutual understanding 
and exchange of knowledge. While the repatriation process will 
eventually end as the transfer of materials is completed, the long-term 
relationship created between museums and tribes will continue.
    Thus, this funding will not just support expenses mandated by law. 
It is also an excellent investment that serves the public interest 
now--and will continue to pay dividends in the future--through more 
accurate and respectful exhibits and education programs that are the 
fruits of long-term collaborations.
    Finally, we respectfully urge you to keep in mind that we are 
talking in large part about the reburial of the remains of human 
beings, and that under a reasonable and dignified standard, such 
repatriation and reburial should occur with all due haste. Certainly 
the United States government has acted urgently with due regard to 
repatriation of remains of American soldiers killed in foreign wars or 
missing in action. Native American repatriation and reburial should be 
treated with the same priority and dignity.
    The consortium appreciates this opportunity to testify on this 
issue.
                                 ______
                                 
               Prepared Statement of Preservation Action
    Preservation Action respectfully submits this testimony in support 
of full funding for the Historic Preservation Fund at $150 million as 
part of the fiscal year 2002 Department of Interior Appropriations 
Bill.
    America's historic resources are as diverse as its citizenry. Rural 
settlements and their attendant agricultural structures dot the 
landscape of the far west. Lighthouses stand sentinel on our 
shorelines, while county courthouses tower above the plain. Small town 
main streets tell of an earlier era. Dense urban districts and large 
industrial complexes offer the historic face of our larger cities. The 
scenic byway and the ubiquitous train station, the tiny house and the 
multi-story apartment building, all have a story to tell. And now, the 
relics of a more recent past--cold war military installations, the 
centers of pioneering air and space development, and the mid-century 
suburb--are achieving significance as well.
    Through the National Historic Preservation Act of 1966, the Federal 
government has made a commitment to preserve and maintain this 
patrimony, in all its diversity, for generations to come. But, historic 
preservation is more than a celebration of the past, it is an economic 
engine for the future. Historic preservation activities rebuild and 
reuse existing infrastructure, revitalize main streets, restore the tax 
base and generate tourism. Preservation has transformed abandoned 
warehouse districts into multi-use residential and entertainment 
centers, struggling commercial strips into retail destinations, and 
abandoned houses into thriving neighborhoods. In an age of rapid 
development it is a way to harness economic energy and put it to work 
for existing communities. It is the answer to growth's unintended 
consequences.
    Acknowledging the important role that preservation plays in the 
health and welfare of our communities, Congress has asked each state, 
through its State Historic Preservation Officer and many Tribes through 
their Tribal Preservation Officers, to work in partnership to achieve 
the goals of the Historic Preservation Act. Indeed, it created the 
Historic Preservation Fund (HPF), endowed it with Outer Continental 
Shelf Oil Lease proceeds, and authorized it at $150 million annually. 
This funding, matched by the States and Tribes, is to carry out the 
mandates of the Act including 106 Review of federal actions and their 
consequences for historic resources; certification of rehabilitation 
activities eligible for receipt of the Historic Rehabilitation Tax 
Credit; survey and documentation of historic resources; and technical 
assistance (architectural, planning, archeological, etc.) to local 
communities, state and federal agencies and individuals.
    Unfortunately, until last year, the Historic Preservation Fund had 
rarely received even half of its authorized amount. Indeed, when 
adjusted for inflation and cost-of- living considerations, the Historic 
Preservation Fund appropriation had declined markedly. Further, of the 
amount appropriated, less than half went to the partners, the States 
and Tribes. This meant that year after year the States and Tribes could 
do little more than meet their base obligations; they made no big 
plans.
    In 2001, Congress appropriated $94 million to the HPF--$52 million 
to States and tribes--a level that for the first time in decades, gave 
States and Tribes the money they needed to do the job they have been 
asked to do by Congress. Preservation Action considers this $94 million 
a long-awaited and much-deserved course correction that brings the HPF 
closer to its appropriate funding level. We ask you to build on this 
foundation and in 2002 appropriate the HPF's full authorized amount of 
$150 million.
    From our perspective, there is no component of the program that 
better illustrates the power of the federal-State partnership than the 
Historic Rehabilitation Tax Credit. This tax incentive program 
leveraged more than $2.6 billion in private investment for historic 
resources in 2000. Tax Act projects rehabilitated or created 17,270 
housing units. It created 41,535 jobs. On the ground these numbers 
translate into comfortable high-quality places for people of average 
means to live. They mean that boarded up and vacant buildings are 
restored and re-opened as viable business enterprises and are put back 
on the tax rolls for the benefit of the entire community. They mean 
that the federal government, working with its partners, quadrupled its 
investment, put people to work, and repaired the fabric of our 
neighborhoods. The tax act program carries out the spirit of the 
National Historic Preservation Act in concrete ways.
    However, the tax act program, indeed preservation activities of all 
kinds, can not work without the technical support, administrative 
commitment, time and effort of the State and Tribal Historic 
Preservation Offices. We are a nation experiencing tremendous growth 
but facing the challenge of creating a thriving future that does not 
wholly compromise our natural and historic resources. If we are to be 
successful, we must make preservation an integral part of how we do 
business in all our communities. We ask that you fulfill the federal 
commitment to historic preservation by fully funding the Historic 
Preservation Fund in 2002 at $150 million.
                                 ______
                                 
  Prepared Statement of the Society for Animal Protective Legislation
    The Society for Animal Protective Legislation urges the Senate 
Committee on Appropriations' Subcommittee on Interior and Related 
Agencies to appropriate an additional increase of $10 million for the 
United States Fish and Wildlife Service Division of Law Enforcement, an 
additional $8.5 million for the Clark R. Bavin National Fish and 
Wildlife Forensics Laboratory, $10 million for the Multinational 
Species Conservation Fund, an additional $1 million for manatee 
protection, and appropriate protection for wild horses, in fiscal year 
2002.

       U.S. FISH AND WILDLIFE SERVICE DIVISION OF LAW ENFORCEMENT
    The Society for Animal Protective Legislation urges significant 
increased funding to enable the Law Enforcement Division of the U.S. 
Fish and Wildlife Service to undertake its important, expanding work. 
We urge this distinguished Subcommittee to recognize the critical need 
for a full complement of Special Agents to contend with the major 
criminal efforts of organized poachers, smugglers and dealers who are 
greedily exerting pressure on wildlife, which ultimately will drive 
many species to extinction. Therefore, we respectfully request an 
additional $10 million for wildlife law enforcement.
    The amount proposed in the President's budget would not adequately 
meet the basic needs of the Division, which is currently undergoing a 
three-year rebuilding effort in order to get back to the number of 
Special Agents it needs--253. The Service is currently at 197 Special 
Agents, under 80 percent of its full, necessary staff level.
    Further, the Service's Division of Law Enforcement must ensure 
adequate inspections at all appropriate ports of entry in the United 
States. Port inspectors play an invaluable role in catching wildlife 
profiteers who try to smuggle wildlife into and out of the country. As 
the wildlife trade becomes more complex scientifically, as in the well-
known caviar cases, dedicated, well-trained inspectors must be 
employed. In fiscal year 2000, over 87,000 shipments were inspected in 
the United States. Congress should ensure an appropriation that 
prevents the number of port inspectors from ever falling below 94, and 
that supports port inspectors with a full, operational budget.

   THE CLARK R. BAVIN NATIONAL FISH AND WILDLIFE FORENSICS LABORATORY
    The Service's forensics lab is uniquely capable of providing 
assistance in the prosecution of wildlife crimes. The lab analyzes 
teeth, claws, hairs, feathers, tissues, blood, and other wildlife 
samples to determine species of origin and connect wildlife and 
suspects to the scene of the crime. This lab has always been on the 
cutting edge of wildlife prosecutions and must be funded adequately to 
fulfill its vital roles.
    The laboratory operated on a budget of $2.8 million in fiscal year 
2001. We urge the Committee to increase that lab appropriation to $3.3 
million for fiscal year 2002 to cover personnel costs and operating 
expenses. Without necessary funding the lab will be hampered in its 
ability to function properly and to its fullest capability.
    Additionally, the laboratory has begun a rehabilitation and 
expansion project to acquire the necessary additional lab space and 
staff. The estimated total expansion project cost is over $24 million 
spaced over the next six years, if the project takes that long to 
complete. We respectfully urge the Committee to appropriate $8 million 
in fiscal year 2002 toward this rebuilding project. Appropriating these 
funds earlier on in the life of the project will reduce the overall 
projects costs. Of equal importance, wildlife criminals will not wait 
until 2003 or 2005 to engage in their illegal profiteering--the Clark 
R. Bavin National Fish and Wildlife Forensics Laboratory must be able 
to address the breadth of wildlife crimes without delay.

                MULTINATIONAL SPECIES CONSERVATION FUND
    Since 1988, the United States has shown its steadfast commitment to 
global conservation efforts by legislatively creating a series of funds 
to assist in wildlife protection in all regions of the globe. The 
African Elephant Conservation Act, the Asian Elephant Conservation Act, 
the Rhinoceros and Tiger Conservation Act, and, most recently, the 
Great Ape Conservation Act, are vital tools to prevent these species 
from declining further and, in some cases, going extinct. The 
Administration Budget for fiscal year 2002 provides for total funding 
of $3,243,000 for implementation of these funds. The Society for Animal 
Protective Legislation respectfully requests that this amount be 
increased to a total of $10 million.
    The African Elephant Conservation Act has provided important 
funding for elephant conservation projects across Africa. For decades, 
poachers and smugglers exploiting the global ivory trade have targeted 
African elephants. Increasingly, elephants are at great risk not only 
for ivory, but also for their meat, which is consumed as ``bushmeat,'' 
and are increasingly involved in human--elephant conflicts. Vital 
conservation projects that have received funding under this Act 
include: immunocontraception research as a means of non-lethal 
population control, anti-poaching assistance, acoustic monitoring of 
forest elephants, and programs exploring the interrelationships of 
humans, people, and the protection of their crops. As the human 
population in Africa continues to expand, and elephants remain under 
constant threat for a renewed worldwide ivory trade, additional funding 
is sorely needed.
    The Asian Elephant Conservation Act has funded similar projects in 
Asia where the highly endangered Asian elephants barely cling to 
existence. Already this year, elephants have been poached in India's 
Corbett Tiger Reserve for their ivory. The Asian elephant Conservation 
Act has recently provided valuable grants to the Forest Department of 
Assam for construction of anti-poaching camps, to the Wildlife 
Protection Society of India for investigative work into the poaching of 
elephants in India and the illegal ivory trade, and to the Wildlife 
Trust of India to provide elephant reserve field staff with anti-
poaching equipment.
    The Rhinoceros and Tiger Conservation Act provides essential 
financial assistance to protect the world's remaining five rhino 
species and tiger subspecies. Rhinos have been historically poached for 
their horns, which are used in traditional Asian medicines, while 
tigers have been exploited for their valuable skins, bones and other 
body parts. In the last century, it is estimated that the total number 
of all wild tigers scattered across their range has plummeted to 5,000 
animals. Funding under this Act recently has contributed to the 
equipping and operating of anti-poaching patrols, studies of population 
dynamics using DNA technology, establishing conservation education 
programs in rhino and tiger range states to increase awareness about 
these species, rhino translocations, and studies of the illegal trade 
in tiger parts. Without these projects and others in the future, these 
species will likely disappear within our lifetimes.
    The Great Ape Conservation Act appropriately recognizes the growing 
threat of the trade in bushmeat and the habitat decimation perpetrated 
on great apes by timber companies and other extractive industries. 
Chimpanzee, bonobo, gorilla, orangutan and gibbon populations have 
declined substantially and there is a serious threat to their long-term 
survival. Grants from this fund enable conservation and anti-poaching 
projects to be established and effectively implemented to the benefit 
of these highly endangered ape species. Additionally, grant money could 
help establish collaborative projects to assist people in the range 
states of these animals to find alternative sources of protein and 
address other issues of land competition between wildlife and people.
    Together the money appropriated under the Multinational Species 
Conservation Fund may establish or finance the operations of programs 
that directly and indirectly contribute to the survival of entire 
species. The Congress should increase funding for these programs 
accordingly.

                           MANATEE PROTECTION
    Increased funding is badly needed for on-water law enforcement 
officers in order to protect manatees. We urge this Subcommittee to 
appropriate an additional $1 million over the President's budget for 
manatee protection and enforcement of speed zones in manatee sensitive 
areas throughout the State of Florida.
    The U.S. Fish and Wildlife Service has recognized the problem of 
increased manatee deaths and injuries from collisions with boats and 
has deployed on-water enforcement teams to patrol areas where manatees 
are frequently seen and the risk of watercraft collisions is high. 
Unfortunately, a lack of resources makes it difficult for the Service 
to keep up a consistent presence on the water. It is imperative that 
these patrols not only continue but increase in frequency. The 
mortality numbers for 2001indicate an urgent need for a further 
increase of enforcement efforts by the Fish and Wildlife Service. 
Additional resources will enable the Fish and Wildlife Service to 
continue working to reduce the number of human-caused manatee 
mortalities.

                      THE WILD HORSE AND BURRO ACT
    In 1971, Congress charged the Bureau of Land Management (Bureau) 
with preserving America's wild horses. The Wild Horse and Burro Act 
states that ``wild free-roaming horses and burros are living symbols of 
the historic and pioneer spirit of the West . . . [and] shall be 
protected from capture, branding, harassment or death.''
    During fiscal year 2001, the Bureau of Land Management's Wild Horse 
and Burro Program received a substantial increase to its annual 
operating budget. This increase was to be used to implement BLM's four-
year strategic plan to achieve appropriate management levels in all 
herd management areas through increased round-ups of wild horses and 
burros. Increased round-ups of wild horses and burros are not 
justified, especially given BLM's refusal to do a complete programmatic 
evaluation to determine if an overpopulation problem exists. However, 
we do wish to ensure that the wild horses and burros that have been 
captured are well cared for and adopted into good homes.
    In addition to the more traditional threats faced by wild horses 
and burros, which include habitat destruction, wildfires, and cattle 
ranching encroachment; wild horses are coming under pressure from the 
increasing demand for their meat as a result of the ``mad cow'' disease 
in Europe. The BLM documented that in 1999 hundreds of wild horses were 
sold into slaughter despite the congressionally mandated prohibition on 
such action.
    It is because of the current pressure on wild horses and burros 
from decreasing habitat and mad cow disease that we urge this committee 
to include once again the following standard language in the fiscal 
year 2002 Interior Appropriations bill: ``The appropriations made 
herein shall not be available for the destruction of healthy, 
unadopted, wild horses and burros in the care of the Bureau of Land 
Management or its contractors.''
                                 ______
                                 
    Prepared Statement of the National Indian Education Association
    On behalf of the National Indian Education Association (NIEA) 
President, Carole Anne Heart (Lakota), and Board of Directors, I would 
like to thank Chairman Burns and Vice Chairman Byrd for the opportunity 
to submit testimony today on the President's fiscal year 2002 budget 
request. NIEA is the oldest and largest national organization 
representing the education concerns of over 3,000 American Indian/
Alaska Native and Native Hawaiian educators, tribal leaders, school 
administrators, teachers, parents, and students.
    Funding for Bureau of Indian Affairs (BIA) schools and Department 
of Defense schools is the sole responsibility of the Federal Government 
while public education is a combination of state and federal resources. 
Local Education Agencies (LEAs) and their surrounding communities have 
the ability to pass bonds in order to build or repair local school 
buildings. Tribal and BIA schools, on the other hand, must rely on the 
federal government to ensure their academic and construction needs are 
met. The extent to which the federal government has assumed this 
responsibility can be exemplified in the backlog of construction and 
repair/renovation needs now exceeding $800 million. The budget request 
this year, however, maintains a positive move to finally clear up the 
persistent backlog in Indian school construction and renovation needs 
in the Bureau of Indian Affairs education system.

                         DEPARTMENT OF INTERIOR
Bureau of Indian Affairs (BIA)
    Within BIA's overall departmental framework are six categorical 
areas that contain education-related programs serving federally-
recognized Indian tribes. These include: Tribal Priority Allocations; 
School Operations; Tribally Controlled Community Colleges; Special 
Programs and Pooled Overhead; and Education Construction. The following 
are the fiscal year 2002 President's budget request for each category 
(education programs only).

----------------------------------------------------------------------------------------------------------------
                                                                            Fiscal year
                          BIA category                           --------------------------------   Difference
                                                                   2001 enacted    2002 request
----------------------------------------------------------------------------------------------------------------
Tribal Priority Allocation......................................     $49,685,000     $50,036,000       +$351,000
School Operations...............................................     488,418,000     504,015,000     +15,597,000
Tribally Controlled Community Colleges..........................      38,118,000      39,118,000      +1,000,000
Special Programs/Pooled Overhead................................      15,598,000      16,039,000        +441,000
Education Construction..........................................     292,341,000     292,503,000        +162,000
                                                                 -----------------------------------------------
      BIA Education total.......................................     884,160,000     901,711,000     +17,551,000
----------------------------------------------------------------------------------------------------------------

    Department of Interior, Bureau of Indian Affairs.--(+$273.4 
million--Education programs only with increases shown over fiscal year 
2001 enacted levels)
    Tribal Priority Allocation (TPA).--(+ $18.7 million)
  --Adult Education.--Increase from $2.5 million to $5 million. Adult 
        Education continues to be one of the most underfunded areas 
        despite the fact that these programs can greatly improve the 
        economic situations of Indian adults who want to obtain their 
        General Educational Development (GED) degrees. The BIA 
        estimates that approximately 20,000 Indian adults participate 
        in the program.
  --Johnson-O'Malley (JOM) Program.--Increase from $17 million to $25 
        million. The JOM program provides supplemental educational 
        services for 272,000 American Indian students in 23 states. 
        NIEA recommends lifting the current moratorium that caps the 
        number of participants.
  --Scholarships.--Increase from $27.8 million to $35 million. This 
        program provides undergraduate scholarships for American 
        Indians. The needs of Indian students pursuing postsecondary 
        education are often neglected, especially when critically-
        needed programs are cut or eliminated such as the Department of 
        Education's Office of Indian Education Fellowship Program.
  --Tribally Controlled Community Colleges Supplements to Grants.--
        Increase from $1.1 million to $2 million. These funds provide 
        supplemental operations for tribal colleges such as policy 
        development, curriculum additions, and general program 
        operations.
  --Other Education Design.--Increase from 1.4 million to $1.5 million
    Other Programs.--School Operations (+ $130.8 million)
  --Indian School Equalization Program (ISEP) Formula.--Increase from 
        $331 million to $400 million. The ISEP program provides 
        formula-based funding for 185 federally-operated and contracted 
        schools serving 50,000 students. There are several types of 
        schools funded with ISEP funds including BIA-operated, grant, 
        and contract elementary and secondary schools.
  --ISEP Program Adjustments at $667,000
  --Family and Child Education (FACE) Program.--Increase from $12 
        million to $20 million. Currently there are 22 FACE sites 
        serving 1,800 children and 1,800 adults from a total of 1,700 
        families in two settings which include home and school. The 
        program serves an additional 3,200 children in grades K-3 by 
        supporting teacher training in the High/Scope active learning 
        curriculum which is implemented in the FACE Program and 
        included in the School's Consolidated School Reform Plan.
  --Student Transportation.--Increase from $36.3 million to $43 
        million. In SY1999-2000 the BIA-funded transportation cost is 
        estimated to be $2.26 per mile with 14,363 miles (School Year 
        1999-2000) driven for day and boarding schools. According to 
        the latest School Bus Fleet information, the national average 
        for student transportation costs in school year 1993-94 was 
        $2.94 per mile for public schools. Therefore, the BIA-funded 
        schools, which are located primarily in rural, isolated areas, 
        are at least $.78 below the national per mile average.
  --Institutional Disabled.--Increase from $3.8 million to $5 million
  --Administrative Cost Grants.--Increase from $43 million to $50 
        million. For SY 1999-2000, the Bureau projects there will be 
        127 contract/grant schools and 58 Bureau-operated schools. 
        During fiscal year 1999, 5 schools converted to contract or 
        grant status. The Bureau projects 6 schools will convert to 
        contract or grant status in School Year 2000-2001 for a total 
        of 127 contract/grant schools. An accurate level of need will 
        not be known until the BIA releases its fiscal year 2002 budget 
        request.
  --Area/Agency T.S.--Increase from $7.4 million to $8 million.
  --Education Facilities Operations.--Increase from $54.5 million to 
        $90 million. In fiscal year 2001, this budget item transfers 
        the maintenance portion to Facilities Improvement and Repair 
        (FIR). In fiscal year 2000, the Bureau will provide funds for 
        essential services for educational facilities consisting of 
        2,390 buildings (excluding quarters), containing approximately 
        17.9 million square feet.
  --Tribal Departments of Education.--Fund at $3 million. This program 
        is currently not funded. Sufficient funding should be provided 
        to assist tribes in planning and developing their own 
        centralized tribal administrative programs. This would be 
        appropriate given the recent trend to convert more schools from 
        BIA to Tribal control.
  --School Statistics.--Increase from $700,000 to $800,000
  --Emergency Operations.--Increase from $0 to $200,000
    Tribally Controlled Community Colleges.--(+ $6.4 million)
  --Tribal Colleges.--Increase from $38.2 million to $44.6 million. The 
        proposed budget includes $43.5 million for Operating Grants, 
        $114,000 for Technical Assistance Grants, and $977,000 for 
        Endowment Grants.
    Special Programs and Pooled Overhead.--(+ $7.4 million).
  --Graduate Scholarships.--Increase from $1.3 million to $5 million. 
        This program is the primary funding source for American and 
        Alaska Native graduate students and is totally inadequate to 
        help these individuals meet the costs of an advanced degree. 
        For school year 1997-98, the actual unmet need was $5.7 
        million. During the 1996-97 school year, the program funded an 
        estimated 378 students with an average award of $3,955. Because 
        of reduced funding, scholarship awards are being drastically 
        reduced while the demand for these limited scholarships 
        increase. This program funds students in 27 states with 128 
        tribes represented. No other federal graduate level scholarship 
        program, specifically for American Indian students, currently 
        exists.
  --Postsecondary Schools.--Increase from $14.3 million to $18 million. 
        This includes Haskell Indian Nations University at $11 million 
        and Southwest Indian Polytechnic Institute (SIPI) at $7 
        million.
    Education Construction.--(+ $112.1 million)
  --Replacement School Construction.--Increase from $141.2 million to 
        $200 million. Full funding of replacement school construction 
        would reflect President Bush's pledge to eliminate the 
        construction backlog. Bush envisions eliminating the $923 
        million backlog in six years. NIEA recommends four. The 
        replacement school construction program funds replacement of 
        older, unsafe, and dilapidated schools on reservations. School 
        replacement priorities are based on a new priority list of 13 
        schools, which is comprised of the last three uncompleted 
        school schools from the old priority list published in 1993 and 
        10 new schools.
  --Education Facilities Improvement and Repair (FI&R).--Increase from 
        $148.3 million to $171.2 million. The dollars moved from 
        Operations and Maintenance are now included in the $171.2 
        million. This funding will be used to fund critical health and 
        safety concerns at existing education facilities.
  --Indian School Construction Bonding.--Fund at $30,000,000.
  --Employee Housing.--Increase from $3.1 million to $3.5 million.
    Institute of American Indian Arts.--(+ $2 million)
  --Increase from $4.25 million to $6.25 million.--NIEA is concerned 
        that proposed funding for the Institute of American Indian Arts 
        (IAIA) is being terminated with the last year for 
        appropriations in fiscal year 2001.This institution has been in 
        existence for 35 years and is the only facility solely 
        dedicated to the arts for American Indians and Alaska Natives. 
        Their progress in becoming a four-year institution should not 
        be impeded as they struggle to become a major cultural and 
        educational institution for Indian people.

                             HUMAN SERVICES

  --Substance Abuse/Alcohol Education.--Increase from $0 to $500,000

                               CONCLUSION
    NIEA supports full funding for all Indian Education programs in the 
President's fiscal year 2002 budget request. Programs for American 
Indian and Alaska Native students have been underfunded for years with 
the results evident in low achievement scores, substandard facilities, 
and high dropout rates. As mentioned earlier, the federal government is 
responsible for only two school systems in the United States--those 
operated by the Department of Defense and those operated by the Bureau 
of Indian Affairs. Ideally, these two systems should be the ``state of 
the art'' when it comes to federal education policy and practice. The 
lack of a high quality federal commitment further exaggerates the 
already poor conditions that Indian students face in trying to obtain 
an education. With new programs likely to focus on accountability, 
Indian schools and communities will be hard pressed to meet the ever-
increasing standards being proposed by the Bush Administration.
                                 ______
                                 
       Prepared Statement of the Southern Nevada Water Authority

                              INTRODUCTION
    It has long been said that the Colorado River is the lifeblood of 
the West. Today, the Colorado River supplies vital water and power 
resources for more than 20 million people in Arizona, California and 
Nevada.
    Concerns have been raised about the reliability of these water and 
power resources following the U.S. Fish and Wildlife Service's 1994 
designation of critical habitat for four endangered fish species in the 
Colorado River Basin.
    In response, representatives of the U.S. Department of the 
Interior, Arizona, California, and Nevada, Native American tribes, 
along with various stakeholders and water and power agencies along the 
lower Colorado, have formed a regional partnership, which is developing 
a first-of-its-kind multi-species conservation program aimed at 
protecting sensitive, threatened and endangered species of fish, 
wildlife and their habitat.
    The partnership formed a 35-member steering committee, which has 
been designated by the U.S. Fish and Wildlife Service as an Ecosystem 
Conservation and Recovery Implementation Team (ECRIT) under the federal 
Endangered Species Act. The steering committee has retained the 
services of professional facilitator and technical consultant teams to 
help develop a plan for the conservation program. The conservation plan 
is scheduled for completion in Fall 2002.

                          PROGRAM DESCRIPTION
    The multi-species conservation program will work toward the 
recovery of listed species through habitat restoration and species 
conservation, and reduce the likelihood of additional species listings 
under the federal and California Endangered Species Act.
    The MSCP planning area includes the historic floodplain of the 
lower Colorado River and reservoir full-pool elevations from Lake Mead 
to the Southerly International Boundary with Mexico. MSCP habitat 
restoration and preservation activities are intended to address the 
following habitat types: aquatic, wetland/marsh, riparian and upland 
desert fringe. It is the intent of the MSCP to re-vegetate native 
cottonwood-willow and mesquite trees in the floodplain, and remove the 
non-native salt cedar, or tamarisk, that has become established.
    The MSCP will be implemented over a 50-year period. The long-term 
program is also intended to accommodate current water diversions and 
power production and optimize opportunities for future water and power 
development. This comprehensive program will provide long-term 
environmental compliance for participating federal agencies, pursuant 
to Section 7 of the federal Endangered Species Act, and non-federal 
agencies under Section 10. California Agencies will also pursue 
programs and actions to achieve compliance with California 
Environmental Quality and Endangered Species Acts.
    Over the past four years, interim conservation measures (ICMs) have 
been developed and implemented to address the immediate critical needs 
for certain endangered species. ICMs benefiting the endangered 
razorback sucker, bonytail, and southwestern willow flycatcher were 
initiated.

                        PROGRAM DEVELOPMENT COST
    Current, program development costs are projected at about $6.7 
million over five years for planning needs and implementation of ICMs. 
A federal/non-federal cost-sharing agreement is in place for 
development of the program and implementation of interim conservation 
measures. The federal and non-federal participants shared program 
development costs on a ``50/50'' basis. Among the non-federal 
participants, the shares were distributed as follows: 50 percent of the 
non-federal share was borne by California, 30 percent by Arizona, and 
the remaining 20 percent by the State of Nevada.

                         PROGRAM IMPLEMENTATION
    The MSCP will be implemented over the fifty-year period beginning 
in late-2002. However, MSCP proponents are desirous of implementing a 
series of ``pilot projects'' in order to begin evaluating potential 
habitat restoration and species conservation technologies within the 
planning area. Additionally, the pilot projects would be supplemented 
with species and habitat monitoring and research programs, providing 
the basis for a comprehensive adaptive management approach.

      PROPOSED PLANNING & IMPLEMENTATION PILOT PROJECT DESCRIPTION
    In order to complete the Lower Colorado River Multi-Species 
Conservation Program (MSCP) by Fall 2002, and support Reclamation's 
continued compliance with the 1997 biological opinion, the MSCP 
Steering Committee has identified several critically needed planning 
projects which, if developed, ensure overall comprehensiveness of the 
MSCP. These planning projects are necessary to accomplish the 
following:
  --Provide additional or lacking species and habitat data, evaluations 
        and analyses ($200,000);
  --Provide critically needed groundwater and soils data ($200,000);
  --Provide for the development of conservation opportunity area site 
        suitability assessments ($500,000);
  --Develop conceptual habitat restoration site designs for 
        approximately six sites within the MSCP planning area 
        ($500,000);
  --Develop digital elevation mapping (1-2 foot contour intervals) 
        within the MSCP planning area ($200,000);
  --Develop updated detailed vegetation mapping within the MSCP 
        planning area ($200,000);
  --Provide funds for completion of conservation planning on the 
        Colorado River Indian Reservation ($500,000);
  --Provide funds to the California Department of Fish and Game, 
        through the U.S. Fish and Wildlife Service, in support of the 
        Natural Communities Conservation Planning Act requirements and 
        requisite Scientific Review Panel ($200,000); and
  --Provide funds for completion of the development of the Lower 
        Colorado River Multi-Species Conservation Program ($500,000).

                         PILOT PROJECT FUNDING
    It is respectfully requested that this suite of proposed LCR MSCP 
habitat conservation planning and data acquisition projects should be 
funded with an additional appropriation of $3.0 million to the U.S. 
Fish and Wildlife Service's Habitat Conservation Planning budget line 
item.
                                 ______
                                 
       Prepared Statement of the Wyoming State Engineer's Office
    Dear Chairman Burns and Ranking Minority Member Byrd: This 
statement is sent in support of fiscal year 2002 funding for the Bureau 
of Land Management (BLM) for activities that assist the Colorado River 
Salinity Control Program. The BLM budget will, we believe, support 
ecosystems and watershed management. The activities needed to control 
salts reaching the Colorado River system from lands managed by the BLM 
are a part of ecosystem and watershed management. Due to the BLM's 
budgetary process ``lumping'' all activities together, this request 
supports efforts in those ecosystem and watershed management that will 
enhance Colorado River water quality and accomplish salt loading 
reduction in the Basin.
    The State of Wyoming is a member state of the seven-state Colorado 
River Basin Salinity Control Forum, established in 1973 to coordinate 
with the Federal Government on the maintenance of the basin-wide Water 
Quality Standards for Salinity. Based on analyses conducted by the 
Forum, our testimony specifically requests that BLM be directed to 
target the expenditure of $5,200,000 for activities to reduce salt 
loading from BLM-managed lands in the Colorado River Basin in fiscal 
year 2002.
    The Forum is composed of gubernatorial representatives and serves 
as a liaison between the seven States and the Secretaries of the 
Interior and Agriculture and the Administrator of the Environmental 
Protection Agency (EPA). The Forum advises the Federal agencies on the 
progress of efforts to control the salinity of the Colorado River and 
annually makes funding recommendations, including the amount believed 
necessary to be expended by the USDA for its on-farm CRSC Program. 
Overall, the combined efforts of the Basin States, the Bureau of 
Reclamation, the Bureau of Land Management and the Department of 
Agriculture have resulted in one of the nation's most successful non-
point source control programs.
    The basin-wide water quality standards for salinity consists of 
numeric water quality criteria set for three Lower Colorado River 
stations and a Plan of Implementation that describes the overall 
Program and the specific salinity control projects that are being and 
will be implemented to remove sufficient salt from the River system so 
the salinity concentrations of the River's waters arriving at the three 
stations do not exceed the numeric criteria values. Under the 
provisions of the Clean Water Act, the water quality standards for 
salinity are reviewed at least once each three years and the Plan of 
Implementations is jointly adjusted and revised by the States and 
involved Federal agencies, including representatives of the Bureau of 
Land Management, to ensure continuing compliance with the numeric 
criteria for salinity.
    The success of the BLM in controlling erosion and the resultant 
salt contributions to the Colorado River system is essential to the 
success of the Colorado River Basin Salinity Control Program and 
compliance with the water quality standards adopted by each of the 
seven Colorado River Basin States and approved by the Environmental 
Protection Agency. Inadequate BLM control efforts will result in 
significant additional economic damages to water users downstream.
    Congress has recently highlighted its interest in the efforts of 
the Bureau of Land Management in controlling salt loading from lands 
the agency manages within the Colorado River Basin. Section 2 of Public 
Law 106-459, enacted into law on November 7, 2000, states the 
following:

    ``The Secretary of the Interior shall prepare a report on the 
status of implementation of the comprehensive program for minimizing 
salt contributions to the Colorado River from lands administered by the 
Bureau of Land Management directed by section 203(b)(3) of the Colorado 
River Basin Salinity Control Act (43 U.S.C. 1593). The report shall 
provide specific information on individual projects and funding 
allocation. The report shall be transmitted to the Committee on Energy 
and Natural Resources of the Senate and the Committee on Resources of 
the House of Representatives no later than June 30, 2000.''

    The Basin States, like the Congress, are looking forward to the 
required report in anticipation of gaining a better understanding of 
how funding provided to the BLM has been used to assist this important 
basin-wide water quality program. We are hopeful that the preparation 
of this report will lead the BLM to conclude that it can provide a 
better accounting to its federal agency and state partners engaged in 
reducing salt concentrations in the waters of the Colorado River 
system.
    At its recent October 2000 meeting, the Forum, in consultation with 
BLM officials, recommended that the U.S. Bureau of Land Management 
should expend $5,200,000 in fiscal year 2002 for salinity control. It 
is the Forum, and the State of Wyoming's request that the Management of 
Lands and Renewable Resources line-item be adequately funded. Further, 
we request that $800,000 of the amount appropriated to the Management 
of Lands and Renewable Resources line-item be marked for the Colorado 
River Basin Salinity Control Program. We gratefully acknowledge the 
support of this Subcommittee in making this mark in past years and make 
the same request again for the fiscal year 2002 amount.
    This funding level is appropriate to reduce a growing ``backlog'' 
in meeting the pace of salt loading reductions necessary to avoid 
exceedance of the numeric salinity concentration criteria contained 
within the water quality standards for the Colorado River. Failure in 
maintaining the basin-wide standards could result in the imposition of 
state-line water quality standards and impair the Colorado River Basin 
States' ability to develop their Compact-apportioned water supplies. 
``Catch-up'' funding in the future will require expending greater sums 
of money, increase the likelihood that the numeric salinity criteria 
are exceeded, and create undue burdens and difficulties for one of the 
most successful Federal/State cooperative non-point source pollution 
control programs in the United States.
    The State of Wyoming greatly appreciates the Subcommittee's support 
of the Colorado River Salinity Control Program in past years. We 
continue to believe this important basin-wide water quality improvement 
program merits funding and support by your Subcommittee.
                                 ______
                                 
   Prepared Statement of the Native American Fish & Wildlife Society
    Mr. Chairman and Distinguished Committee Members: My name is Ken 
Poynter, and I'm the Executive Director of the Native American Fish & 
Wildlife Society (Society) and an enrolled member of the Passamaquoddy 
Tribe of Maine. I would like to thank you, on behalf of the Society, 
for the opportunity to provide testimony to the Appropriations 
Subcommittee on the Interior and Related Agencies. I will be requesting 
appropriations from the Department of the Interior, Bureau of Indian 
Affairs (BIA), Wildlife & Parks budget (under Other Recurring Programs) 
for continued funding at the organization's fiscal year 2000 level of 
$491,000 for fiscal year 2002.
    The Society is a national non-profit organization dedicated to the 
sound management and prudent use of tribal fish and wildlife resources. 
The organization serves as a network among tribes throughout the 
country, including Alaska, and provides training and technical 
assistance to tribes in natural resource enhancement, planning, 
research and management.
    At this time, the Society includes a membership of 220 tribes 
(which consists of 64 Alaskan Native villages and non-profit 
corporations), over 2,000 individual members, numerous regional 
commissions, as well as other Native organizations. All of these 
various constituents are supportive of tribal fish and wildlife 
development and of the various programs and services provided by the 
Native American Fish & Wildlife Society.
    The concept of the Society is based on the need for an organization 
to assume a leadership role to maintain the technical proficiency of 
tribal fish, wildlife and natural resource programs. Because of its 
organizational structure, the Society is able to efficiently respond to 
specific requests from tribes for technical assistance regarding the 
development, enhancement and wise use of their natural resources.
    The Native American Fish & Wildlife Society represents a wealth of 
experience and information regarding management of fish and wildlife 
resources on Indian lands. Society members embody a diverse group of 
lay people, fishery biologists, wildlife biologists, foresters, 
conservation law enforcement officers, and land use managers and 
planners who currently manage tribal land bases throughout the country. 
Due to its structure and its proven track record the Society has 
evolved into one of the leading national Native organizations working 
in the area of tribal natural resource management.
    Society members are involved in technical initiatives sponsored by 
the Society, the development of tribal fisheries, as well as wildlife 
and recreation management initiatives critical to the preservation and 
protection of tribal resources. In addition, the Society continues to 
respond to the needs of its members in the area of technical 
assistance, training and program support.
    Through its evolution, the Society has focused and fine-tuned its 
ability to provide the necessary training seminars and individual 
tribal technical assistance at a cost-effective manner.
    This claim is evidenced and supported by having had received three 
consecutive years (fiscal year 1997, fiscal year 1998 and fiscal year 
1999) of clean, exception free audits. An accomplishment the 
organization is proud of and feels demonstrates its ability to maximize 
the benefit of the federal appropriation it receives in a pro-active 
and professional manner.
    The Society's Technical Services office is responsible for 
responding to inquiries, along with the assessment, coordination and 
delivery of requested technical assistance (TA). The Technical Services 
Director has developed an informative and extensive national network of 
professionals who further enhance his ability to assist with requests 
received by his office. Due to his professional expertise, as well as 
the availability of an extensive in-house, natural resource library at 
his disposal, the organization has gained a reputation for its ability 
to provide timely and accurate information. In addition to direct 
tribal support, this department has assisted many federal, state and 
non-governmental agencies in their capacity to initiate and/or enhance 
their work with tribal governments.
    In order to facilitate the transfer of information and provide 
essential forums that address important resource management issues, the 
Society coordinates and sponsors seven annual regional conferences, as 
well as one annual national meeting. Regional conferences generally 
address issues pertaining to the region, where as the national meeting 
brings the regions together providing an opportunity for participants 
to focus on pertinent national issues.
    Recognizing the importance of education to build and enhance tribal 
resource management capacity, the Society has made a major commitment 
to filling this otherwise un-met need. Specifically, emphasis has been 
placed on providing periodic training to professionals working in the 
various disciplines related to tribal natural resource management. The 
Society continually provides support for periodic training seminars in 
each of its seven geographical regions.
    These training sessions, as previously noted, have become a 
mainstay of the organization and are a good example of our effort to 
assist tribes in the area of natural resource management and 
protection. These funded education sessions provide Native resource 
managers, as well as others, opportunities to learn new management 
skills and techniques or refresh old ones and continue to represent, in 
most cases, the only occasion available to foster their knowledge.
    Training sessions are identified and scheduled regionally by 
Society members. This method of identifying and scheduling trainings 
allows members to conduct sessions that they feel are most pertinent to 
their needs and that are held at the most convenient time and location. 
As a result of utilizing this form of training identification, sessions 
are generally regionally specific and collectively diverse.
    In order to maximize financial resources and member benefits, the 
Society continues to identify and work with other entities as co-
sponsors of these important training workshops. For example, in fiscal 
year 2000 over 24 separate training and/or educational sessions were 
conducted with a collective participation of over 1,600 individuals. 
This impressive accomplishment was made possible by working in 
conjunction with over 18 different partners. Although too numerous to 
list individually, the group included the U.S. Fish & Wildlife Service, 
U.S. Forest Service, Department of Agriculture, the University of 
Alabama, Colorado State University, individual volunteers and numerous 
tribes.
    The following list contains the titles of some of the common 
seminars that have been conducted by the Society in the past: Hazardous 
Materials (Haz Mat) Awareness Level Training, Haz Mat Incident Command 
Training, Field Identification of Contaminants, Conservation Officer 
Hazardous Materials Recognition & First Responder, Wildlife 
Conservation on Indian Lands, Wildlife Diseases, Conservation Officer 
In-Service Training, Habitat Conservation Restoration and Management, 
Black Tailed Prairie Dog Management, Game Fish & Non-Game Management, 
Fish and Wildlife Management and Integrated Resource Management 
Planning.
    To augment information disbursement and exchange, the Society 
publishes and distributes four quarterly newsletters, a comprehensive 
annual report, promotional publications, informational management 
brochures and other management reports, and publications to members and 
other interested parties. The aforementioned partnerships also provided 
opportunities to further maximize the federally appropriated funds 
received by the organization by covering a portion of the printing 
costs of some of these publications.
    Recognizing that Native youth will someday become the Stewards of 
their tribal lands, the Society has developed a national award-winning 
summer program for Native Youth to help ensure that there will be 
educated, professional Native people available in the future to protect 
and manage tribal lands. This annual program, entitled the Native 
American Environmental Awareness Summer Youth Practicum (Youth 
Practicum) is designed to instill in its participants a respect for the 
natural environment, as well as to nurture their interest in pursuing 
natural resource management careers. Regions of the Society have taken 
the lead from the national program and have been sponsoring their own 
Summer Youth Practicums which brings higher levels of interest and 
attention for managing Natural Resources by Tribal members.
    This unique national program was acknowledged and honored by the 
Department of the Interior in 1999 for its outstanding contributions in 
developing Native American youth as the natural resource managers of 
tomorrow. The Society's Youth Practicum Programs received the 
distinguished Conservation Service Award from the Department of the 
Interior.
    The Youth Practicum brings thirty-five Native American youth 
together for two weeks of in-class instruction and hands-on field 
experience in virtually every aspect of natural resource management 
(NRM). Five students are selected from each region and brought to 
Colorado from all parts of the country. The Program's instructors and 
counselors are active Society members and volunteer their time to the 
program. Being Native themselves, as well as working professionals in 
some discipline of natural resource management, these volunteers serve 
as both instructors and role models.
    The Society is proud to share data obtained from a 1998 survey of 
former Youth Practicum students, which clearly attests to the success 
of this renowned annual program. To date, over 270 students have 
received instruction in the fundamentals of natural resource management 
and environmental science. The survey, as well as personal contacts 
with former students, revealed that at least six former students have 
already graduated with degrees in some aspect of natural resource 
management. The survey had a 37 percent return and further revealed 
that at least 25 former students have earned post-secondary degrees, 
with one currently attending law school and specializing in 
environmental law. In addition, over 60 percent have completed some 
college work or are currently in college.
    The information provided by the survey is strong evidence of the 
importance and positive impact this critical program has had on Native 
youth. It is also clear evidence that the program is successful and 
working as it was designed. To me, the most important and special event 
indicating its success occurred last year when one of the program's 
first students (having earned a degree in natural resource management 
and hired into a new position with the Bureau of Land Management) 
returned as a volunteer instructor and a second-generation role model. 
The Youth Practicum is one of the organization's most important and 
successful programs and will continue to receive priority allocation of 
budget funds from the organization's annual federal appropriation.
    Once again, as in past years, the Society's intent is not to ask 
for additional funds to meet the increasing cost of the programs it has 
developed, but rather to again express our appreciation to the 
Subcommittee and our supporters for the faith they continue to show in 
our ability to accomplish our stated goals. Mindful of having to 
compete with tribes and other noteworthy Native organizations for 
limited federal funding, the Society identified the need for and 
established a permanent endowment.
    The Society's goal is to raise sufficient funds to not only sustain 
the organization on an annual basis but also enable it to create a 
small tribal natural resource management grants program. To help 
expedite the realization of this important endeavor, the Society formed 
the Native American Fish & Wildlife Foundation (Foundation) to serve as 
the fund-raising arm of the organization. The Foundation continues to 
focus entirely on raising endowment funds, allowing the Society to 
concentrate on delivery of its programs and services.
    The Society is currently the only national Native organization that 
provides technical assistance to tribes, federal, state and local 
governments, as well as others working in the area of tribal resource 
management. It is also the only national Native organization providing 
valuable training for, and in-direct support of, tribal natural 
resource management professionals. Society programs and services 
clearly provide a direct benefit to tribes and the lands they manage.
    In light of the fact that there is a shortfall of federal funding 
available for tribal natural resource management activities, the 
Society considers itself a valuable resource positioned to support and 
assist tribes. The continued funding at the $491,000.00 level received 
last year would ensure that the Society is able to continue providing 
its beneficial services and assistance to tribes.
    To reiterate our request to the Senate Appropriations Subcommittee 
on the Interior and Related Agencies, Society is requesting a Total of 
$491,000.00 for fiscal year 2002.
                                 ______
                                 
         Prepared Statement of the Metlakatla Indian Community
    The Metlakatla Indian Community is honored to provide this 
statement on the fiscal year 2002 budget for the Bureau of Indian 
Affairs and the Indian Health Service. A summary of our requests is:
  --$16.4 million for the Metlakatla Indian Community health clinic and 
        quarters
  --Continued and increased funding for BIA law enforcement
  --Authorize use of Law Enforcement funds for marine patrol equipment
  --Eliminate the BIA and IHS contract support costs shortfalls
    The Metlakatla Indian Community (Community is located on the 
Annette Islands Reserve in southeast Alaska, a land base of 87,000 
acres. The Annette Island is accessible only by small floatplanes, but 
such access is often restricted by the weather conditions-particularly 
in the winter months. Providing essential services to a population of 
over 1,500 is severely impacted not only by our location but also the 
economic devastation of the Community. Due to the recent closure of our 
timber processing facilities and the marked drop in the fishing 
industry, the Community's unemployment rate has skyrocketed to the 85 
percent range. Although the Community is aggressively pursuing 
alternative businesses, it will be several years before such ventures 
could conceivably bring about an economic vitality that would address 
the immediate needs we present below.

                               IHS BUDGET
    Clinic and Quarters Construction.--For many years, the Metlakatla 
Community has sought funding to replace the Annette Islands Service 
Unit Health Center, which for some time has been inadequate to meet the 
service needs of our people. It has also become a safety risk to 
patients and employees. Because of the conditions of our buildings, we 
have not been able to meet the Joint Commission on Accreditation of 
Health Care Organizations standards. Since the health center is the 
sole source of health care on the Annette Islands Reserve, we have done 
our best to keep the buildings patched together enough to keep the 
doors open.
    As you may know, we received fiscal year 2001 HHS funds through the 
Denali Commission for planning and design of our clinic. We are pleased 
to report that the design work for our 31,722 square foot clinic and 8 
staff quarters is expected to be completed by the end of this calendar 
year and we will be ready to begin construction in fiscal year 2002.
    You may recall that our Program Justification Document for the 
clinic and quarters was completed by the IHS in April 1995, but the 
project has been languishing since being identified on the list of 
approved projects in the IHS budget requests to the Congress since that 
date. Originally, the PJD construction schedule estimated the target 
date for completion of the project as April 2000. Realistically, if our 
project receives construction funds of $16,354,000 in fiscal year 2002, 
we could have a new clinic and quarters by the end of fiscal year 2003.
    Recommendation.--We respectfully request the Committee recommend 
$16.4 million fiscal year 2002 IHS Construction funds for Metlakatla's 
clinic construction needs.

                               BIA BUDGET
    Law Enforcement.--The Community's law enforcement program is 
comprised of a small police force and a one-person fisheries 
enforcement patrol. In addition to the inherent difficulties associated 
with Indian reservation law enforcement (inadequate funding, poor 
equipment, insufficient detention facilities to name a few), there is 
no resident state or federal law enforcement presence on the Island. 
Thus, except for fisheries enforcement, under federal law the non-
Indian residents and visitors are not subject to tribal criminal 
authority so that absent a crime taken seriously by state authorities, 
non-Indian criminal conduct is virtually free from enforcement. The 
following address some of the Community's law enforcement needs:
    Marine Patrol.--The Fisheries Enforcement component is responsible 
for the offshore law enforcement within our maritime boundary that 
extends 3,000 feet offshore over the entire circumference of the 
islands, which is approximately 60 miles. There is no ``down time'' for 
fisheries enforcement since the various fisheries and dive fisheries-
herring, salmon, halibut, sea urchin, geoduck, and sea cucumber-go 
year-round. Since we have not been able to fund more than a single, 
low-speed vessel and one officer to patrol the entire area, the 
principal beneficiaries resulting from the absence of fisheries 
enforcement are the non-resident charter fleet who profit from 
Metlakatla's resources but ignore our laws.
    The Community is disappointed that in spite of the increased 
funding for BIA law enforcement, many of our unmet or underfunded law 
enforcement needs continue to remain unaddressed due to the allocation 
priorities established by the Bureau. For example, from the increases 
provided in fiscal year 1999 and fiscal year 2000, a portion was 
identified for replacement of police vehicles. However, the Bureau 
limited use of those funds to replacement of police sedans and SUV's 
with 100,000 miles or more, with no consideration for other types of 
vehicle needs tribes might have-such as our need for a patrol boat. We 
had to instead rely upon a DOJ COPs grant to purchase a smaller skiff, 
which has been inadequate for our needs but was all we could afford.
    Personnel.--Another of our primary concerns is recruiting and 
retaining an adequate number of officers to properly staff Metlakatla's 
police force and marine patrol. We have not been able to meet the 
salary expectations of trained law enforcement personnel. There are 
also the additional factors of isolation, inadequate housing and high 
living costs for the Community to overcome when hiring. Unfortunately, 
the increases for BIA law enforcement have not significantly impacted 
our funding. As you may know, in fiscal year 1999, the Bureau dedicated 
$4 million of that year's increase for BIA Law Enforcement to hire 
uniform police officers-but only BIA-operated programs were eligible 
for these funds. In fiscal year 2000 we received an $85,000 increase to 
our base funding for our law enforcement but this amount did not do 
much more than address existing pay cost increases.
    Recommendation.--The Metlakatla Indian Community strongly urges the 
Subcommittee to support an increase for the BIA Law Enforcement 
program. Within these funds, we respectfully request the Subcommittee 
to provide at least $300,000 to the Community so that we may adequately 
patrol the shores and protect the resources of the Community. These 
funds would be used to purchase the much needed larger vessel ($75,000-
$100,000), hire additional manpower, and provide a support budget for 
the Fisheries Enhancement component.

                         CONTRACT SUPPORT COSTS
    The Community hopes that the new Administration's budget request 
will include, and the Congress will provide, increases for BIA and IHS 
contract support cost funds. We also urge the continued funding of the 
BIA Indian Self-Determination Fund. We understand that the current 
estimated shortfalls in contract support costs are $25 million for BIA 
programs and $45 million for IHS. Therefore, we urge that Congress fund 
at least the amounts identified in the IHS and BIA budget requests for 
the Contract Support Cost Funds.
    On behalf of the Metlakatla Indian Community, we appreciate the 
opportunity to provide our views to the Subcommittee regarding the 
Bureau of Indian Affairs and IHS budgets for fiscal year 2002.
                                 ______
                                 
          Prepared Statement of Kayenta Community School, Inc.
    Ladies & Gentlemen: Kayenta Community School, Inc. is a Bureau 
funded school that was converted to a grant school under Public Law 
100-297 in 1996.
    The school has had student population between 175 and 500 in the 
past 10 years. The student enrollment would be higher except for 
inadequate school facilities that is outdated and in poor conditions.
    A 7-member board that is elected under Navajo Nation election laws 
governs the school. The school is currently on the Federal Register and 
ranked as No. 13 and is on the BIA facility replacement plan for 2003.
    We are requesting Congress to fund our school as follows:
  --Administration--100 percent of administrative cost of $54 million.
  --ISEP--$386 million.
  Special Education--$3.7 million.
  IRG (residential)--$2.9 million.
  --Maintenance--21.18 percent increase for shortfalls.
  --Facility--$802 million.
  --Others--transportation--$44 million (4,000 per weighted student 
        unit).
    We welcome President Bush's proposal to fund FI&R to replace 
outdated facilities and $802 million for Facility Improvement and 
Repair backlog. We fully endorse President Bush's plans for local 
control and flexibility in school curriculum, innovative programs, 
etc., as well as accountability and high standards to ensure student 
success. We believe that parents should be fully involved in the 
education of their children so that no child is left behind.

                  INDIAN STUDENT EQUALIZATION PROGRAM
    It has been difficult for Kayenta Community School to attract 
experienced teachers to work in the remote and isolated area. Teachers 
are subjected to lower salaries, poor housing, and poor educational 
facilities. As a result the school as with other schools on the Navajo 
reservation face turnover and recruiting problems. The ISEP program 
provides the basic instructional funding for BIA funded schools.
    Limited resources and unsafe facilities due to under-funded 
programs have not been conducive to a positive learning environment. In 
fiscal year 2001, Congress agreed to increase ISEP funding by $14 
million, which results in the funding level at $330.8 million.
    We are recommending that Congress appropriate at least $362 million 
for ISEP programs in fiscal year 2002, which would put the student 
weight at approximately $4,000.00.

                         STUDENT TRANSPORTATION
    The cost of transportation has increased considerably in the past 
two years. The cost of GSA vehicle rentals, fuel, maintenance and 
repairs have been costly due to the poor road conditions, distances 
traveled as well as being required to use leased vehicles, and 
certified bus drivers. The schools don't receive funding for extra-
curricular activities, such as sports programs, field trips and 
transporting students for medical purposes.
    We ask Congress to provide emergency funding to help us with 
shortfalls this school year, and fund student transportation at $3.00 
per mile in fiscal year 2002. Also the formula needs to implement the 
cost of educational field trips, extra-curricular activities between 
schools, and the transportation of students with medical needs.

                       ADMINISTRATIVE COST GRANTS
    Administrative Cost Grant is a formula based method created by 
Congress to calculate the amount of funds that should be provided a 
grant school board for administrative and indirect cost expenses 
incurred in the operation of BIA funded school programs. The amount of 
funding has decreased as new schools convert to tribal grant schools.
    We ask congress to provide funding for the full 100 percent 
administrative Cost Grant formula, which we estimate at $54 million in 
fiscal year 2002.

           FACILITY CONSTRUCTION AT KAYENTA COMMUNITY SCHOOL
    Kayenta Community School is presently ranked number 13 in the 
Federal Register and is scheduled to begin replacement in 2003. We ask 
the Congress and the Administration to work together to fund the 
remainder schools on the priority list. The School has also asked for 
the Quarters to be replaced due to the unsafe conditions. These are 
needed for teachers who are non-Navajo and the remoteness. Quality 
housing would be an asset in teacher recruitment and retainment, which 
will assist in the improvement of student achievement.
    In conclusion, we thank you for your attention in addressing these 
critical requests. We appreciate your support to our staff, community 
and Navajo Nation in providing quality educational programs for our 
children. We applaud your concern and your commitment to Indian 
Education as well as national education issues.
                                 ______
                                 

    Prepared Statement of the Northwest Indian Fisheries Commission

    On behalf of the Northwest Indian Fisheries Commission member 
tribes, I want to thank the Subcommittee for the opportunity to present 
this written testimony on our fiscal year 2002 fisheries and habitat 
management needs that fall within the Bureau of Indian Affairs budget.

           SUMMARY OF FISCAL YEAR 2002 APPROPRIATIONS REQUEST
    The NWIFC generally supports the enacted fiscal year 2001 
appropriation levels. However, without a firm budget request to review, 
we are uncertain of exact funding levels. We request funding and 
direction which will achieve the following for fiscal year 2002:
  --Support for the $6.8 million western Washington tribal shellfish 
        management, and enforcement funding request to implement tribal 
        treaty rights through the further establishment of tribal 
        shellfish programs;
  --Continued support of the existing $3.0 million Bureau of Indian 
        Affairs, Forest Development, Woodland Management, Northwest 
        Forest Plan, ``Jobs in the Woods'' Initiative line item and 
        from this amount a continued earmarking of $400,000 for the 
        Wild Stock Restoration Initiative;
  --Support the base funding level of $3.048 million for the Timber-
        Fish-Wildlife Agreement, and increase this amount by $1.0 
        million to implement tribal obligations under new state and 
        private forest practices, rules and regulations pertaining to 
        ESA obligations;
  --Support, at a minimum, existing funding levels within the Bureau 
        for Trust Responsibility, Tribal Priority Allocation, and Self 
        Governance that pertain to Fisheries Management and U.S.-Canada 
        Pacific Salmon Treaty at fiscal year 2001 levels;
  --Provision of Contract Support Funding at 100 percent levels 
        necessary for existing and emerging programs

                              INTRODUCTION
    Twenty-seven years ago, the U.S. v. Washington case was decided by 
the federal court system. In 1999, tribal rights were once again upheld 
when the U.S. Supreme Court denied cert. on our decade long shellfish 
litigation. These decisions, respecting the treaty rights of our member 
tribes, have propelled major changes, not only in fisheries management 
in the Pacific Northwest, but they have also fostered a nationwide 
quest for tribal self-determination and self-governance led in part by 
the Northwest tribal leadership.
    We are at a turning point in natural resource management in the 
Pacific Northwest. We have developed great professional capabilities 
and policy respect, and we are efficient and effective. There are new 
and highly difficult complexities abound, many precipitated by the 
demands of the Endangered Species Act (ESA) and the Clean Water Act 
(CWA). Treaty rights to harvest shellfish are often thwarted due to 
pollution in marine waters. To meet this challenge, we will need all of 
our existing funding and additional new resources.
    It is true that over the past decade, tribes have been able to 
secure new monies for additional responsibilities. However, over the 
same period of time, tribes have seen monies for other duties diminish, 
through inflation or through the elimination of programs and support 
funding. And in this process, Indian natural resource management 
capacity has been unfairly affected. Therefore, we strongly urge the 
Subcommittee to guard against any diminishment of the tribal program 
funding base, and do all it can to strengthen and enhance the Bureau's 
Trust, Tribal Priority Allocation and Self-Governance Program funding. 
We also ask that the Subcommittee ensure that the Western Washington-
Boldt implementation and the Pacific Salmon Treaty base budgets be 
fully funded as was included in last year's budget.

                    SHELLFISH MANAGEMENT INITIATIVE
    For centuries, members of Puget Sound and Coastal Treaty Tribes 
have harvested shellfish for their commercial, ceremonial and 
subsistence needs. Hard shell clams and oysters were collected from 
shoreline areas. Other shellfish species, such as crab and shrimp, were 
also gathered for subsistence and commercial uses. Shellfish harvesting 
was as important to tribal traditional life and commerce, as was 
fishing for salmon and steelhead.
    Tribes signed treaties with the United States in the mid-1850's, 
that included guaranteed tribal rights to gather shellfish. However, 
over the course of the past century and a half, conflicts arose, and 
the tribal right to harvest these resources was diminished. As a 
result, tribes were forced to seek a reaffirmation of their rights 
through the federal courts system. In 1999, the Supreme Court denied 
cert. and let stand the favorable decision of the 9th Circuit Court. 
Tribes have steadily moved forward during this time in implementing 
their treaty rights to harvest their share of the resource. However, 
Tribes need monies to fully implement this right, in much the same way 
as they did after the original U.S. v. Washington case was decided. 
Several dozen regional shellfish management plans have been 
successfully negotiated with tribal and state agencies, and tribes have 
redirected efforts to conduct the minimum management needed for their 
fisheries. Agreements and processes to access private tidelands have 
also been proceeding peacefully. Without new resources this success 
will be short-lived.
    For instance, very little data and technical information exists for 
many of the fisheries which are now being jointly managed by state and 
tribal managers, which will make it difficult to assess treaty/non-
treaty sharing arrangements. Additionally, intertidal assessment 
methodologies differ between state and tribal programs, and can lead to 
conflicts in management planning.
    During the course of the court case, tribal and state attorneys 
were able to negotiate a consent decree which establishes shellfish 
sanitation programs designed to protect the public health. The 
implementation of the decree has revealed that the presence of 
biotoxins in shellfish is dangerously unacceptable, and threatens the 
viability of both the state and tribal fisheries. Additional research 
and monitoring of this biotoxin is necessary to prevent illness and 
death that may result from consuming toxic shellfish. The significant 
value of deep-water shellfish fisheries has increased illegal 
harvesting and enforcement is inadequate. Tribes and state enforcement 
agencies are addressing problems by coordinating patrols, but 
additional monitoring of these harvest is needed.
    It is clear that more needs to be done to adequately address 
resource concerns for the benefit of all fisheries, Indian and non-
Indian alike. The Western Washington tribes request the Subcommittee to 
add an additional $6.8 million to tribal fishery management contracts 
as part of the permanent base. This request is supported by a wide 
range of individuals, organizations, and governments.

  WILDSTOCK RESTORATION INITIATIVE, WATERSHED RESTORATION, NORTHWEST 
         FOREST PLAN, AND ENDANGERED SPECIES ACT IMPLEMENTATION
    In 1999, a number of species of Pacific Salmon were listed by the 
National Marine Fisheries Service as threatened under the terms of the 
Endangered Species Act (ESA). Last year, the Bull Trout was listed as 
threatened by the U.S. Fish and Wildlife Service. This ESA listing 
process is triggering a cascading chain of events, and will culminate 
in significant changes to harvest, hatchery and habitat practices for 
the region and its inhabitants.
    Tribes are affected by this federal process. As fishermen, the 
listing raises serious questions about the status of the stocks and 
poses a threat to the individual's opportunity to continue to harvest 
this salmon, a treaty-secured resource. As governments, the ESA process 
places inordinate demands upon the tribes as co-managers of the 
resource. Biological Reviews, Listing Decisions, Assessments, Opinions, 
Consultation, and Recovery Planning are just a few of the processes 
tribes will now be forced to participate in just to ensure their treaty 
protected fisheries. The tribes harvest opportunity and management are 
placed in severe jeopardy by these actions without additional funds to 
manage the risks imposed by this federal mandate. It is partly for 
these reasons that the tribes have worked very hard over the years to 
bring about positive and effective change in resource management. 
Unfortunately, the process has overtaken tribal efforts, and new 
obligations are upon us.
    We are requesting that the Subcommittee continue to provide 
$400,000 for the Wild Stock Restoration Initiative from the $3.0 
million Bureau of Indian Affairs, Forest Development, Woodland 
Management and the Northwest Forest Plan ``Jobs in the Woods'' 
Initiative line item. The WSRI is essential to developing a habitat 
inventory base from which restoration efforts can begin. The remaining 
$2.6 million from this initiative will allow tribes throughout the 
Pacific Northwest to continue to conduct watershed analysis and 
watershed restoration within their Usual and Accustomed Areas. This 
approach is identical to last year's request, which the Subcommittee 
supported.

                TIMBER-FISH-WILDLIFE AGREEMENT EXPANSION
    We are supporting additional funding to tribes for expansion of our 
Timber-Fish-Wildlife (TFW) program that cooperatively and 
collaboratively allows tribes to actively participate in state forest 
practice rules and regulations that have an affect on listed salmon 
populations. Tribes, as a result of their co-management status, are 
deeply involved in this management forum. Tribes bring to the table a 
very high level of skills and technical capabilities that if 
appropriately funded, would greatly facilitate a successful outcome. 
The negotiations leading up to the development of the TFW Forest and 
Fish Report were exceedingly contentious. Most all of the tribes were 
extremely concerned about one or more of the key provisions in the 
report. However, most all agreed the only way to actually resolve these 
issues is for a strong monitoring and adaptive monitoring process be 
put in place, which will require additional funding.
    Tribes are now using the funds provided last year by the Committee 
in a very organized fashion. Tribes have a strong central and regional 
coordination component and are focusing implementation efforts at their 
local watersheds. The strategy calls for two tracks. One is aimed at 
supporting the development of the Habitat Conservation Plan (HCP) 
development process at TFW. A second track supports tribal 
participation in TFW in a continuing effort to shape and steer forest 
management practices toward greater fish protection.
    For fiscal year 2002, we are requesting $3.048 million, plus an 
additional $1.0 million to further develop tribal participation in the 
TFW Forest and Fish effort.

        CONTRACT SUPPORT FUNDING IS ESSENTIAL TO TRIBAL PROGRAMS
    We continue to have concerns that the Bureau of Indian Affairs has 
failed to fully request Contract Support Funds for tribal programs. We 
are also concerned that Congress has not fully appropriated the 
necessary funds. An artificial cap upon the funding pool for indirect 
cost reimbursements places a huge burden on tribal fisheries programs. 
We have been, and will be forced to continue to reduce our programs to 
cover these costs as mandated by law. Such a burden cannot be borne by 
tribal programs again this year or into the future without onerous 
results.

                               CONCLUSION
    We appreciate the Subcommittee's continued support for the tribes 
and the NWIFC as we implement co-management responsibilities. It takes 
funding resources to make our management system work, but the returns 
to our efforts are many. The challenges are great, and we must continue 
our effort with renewed vigor. We thank you for your attention to our 
needs. We have provided the subcommittee staff with additional 
supporting documentation for our requests. We are available to meet 
with you and your staff at your leisure.
    Thank you.
                                 ______
                                 

                           CULTURAL AGENCIES

Prepared Statement of the Association of American Universities and the 
     American Council on Education, National Association of State 
                  Universities and Land-Grant Colleges
    The Association of American Universities, on behalf of the American 
Council on Education and the National Association of State Universities 
and Land-Grant Colleges, appreciates this opportunity to submit for the 
record testimony in support of the National Endowment for the 
Humanities (NEH). Through our combined memberships, our associations 
represent all of the public and private research universities in the 
country-institutions that educate large numbers of the nation's 
undergraduate and graduate students and conduct the bulk of the 
country's basic research and scholarship. We respectfully request that 
the Subcommittee provide $150 million for NEH in fiscal year 2002.
    The United States possesses a culture of worldwide significance. 
NEH helps preserve this heritage by promoting lifelong learning, 
strengthening communities, and making the humanities available to all 
Americans. The humanities include language and literature, philosophy 
and history. They encompass a world of stories, an ongoing dialogue 
about meaning and value. They provide a framework for clear thinking, 
help produce good citizens, and instill in them a respect for history. 
The humanities represent the endless human attempt to understand our 
world and our place in it. More than any other set of disciplines, they 
can be thought of as our cultural capital, and they are no less 
important than other forms of capital upon which our society relies.
    Two characteristics of NEH are particularly noteworthy. First, NEH 
sustains long-term projects that are of national significance but that 
are unlikely to be funded by any single state or institution. Many of 
these endeavors can only be achieved with help and encouragement from 
the federal government. Second, NEH grants leverage state, local, and 
private philanthropic investment and increase public engagement with 
the humanities. The imprimatur of NEH funding, awarded on the basis of 
merit as determined by rigorous peer review, has a multiplier effect, 
increasing public participation in humanistic endeavors and attracting 
additional funds.
    Research universities, small private institutions, state colleges, 
and community colleges use NEH grants to conserve and nurture our 
American heritage, bring the humanities to the community, expand 
knowledge, and educate the next generation of Americans. NEH-supported 
summer seminars and institutes provide an opportunity for high school 
and college teachers to spend six to eight weeks learning from and 
working with leading scholars in the humanities. Summer seminars and 
institutes provide an exhilarating boost to the participants, 
regenerate their enthusiasm, and facilitate the transfer of new 
knowledge. Last year, approximately 1,000 teachers attended 50 summer 
seminars. These teachers, in turn, reached 147,500 students
    At the University of Oregon, an NEH-funded summer seminar provided 
secondary school Spanish teachers with an opportunity to study the 
history and literature of Mexico under a team of scholars and bilingual 
specialists. The seminar included methodology training with emphasis on 
integrating the teaching of language, culture, and literature at the 
high school level. In addition, the seminar included instruction on the 
use of technology in the instructional process.
    Faculty and students both benefit from NEH-funded research 
projects. Such projects become part of the learning environment, 
contributing not only to our knowledge base, but also to the education 
of new generations of scholars. For example, the University of Michigan 
has initiated ``The Arts of Citizenship Program'' which explores the 
role of university arts, humanities, and design in public life. A 
component of the project, Students On Site, brings together university 
faculty and students with teachers and students from Ann Arbor schools 
to explore the city's rich history and landscape. University of 
Michigan faculty and students have worked with schools and the 
community on a local history field trip for third graders, the redesign 
a neglected park, and the relationship between poetry and everyday 
life.
    NEH investments also make a crucial difference in the support of 
long-term projects. It is important to realize that in the humanities, 
NEH is often the only source of national support. Only an agency like 
NEH, with its federal funds and broad vision can support such projects, 
which include bibliographies, encyclopedias, and the preservation of 
papers of great leaders, such as George Washington, Frederick Douglass, 
and Mark Twain.
    At Rutgers University, NEH grants have helped support the Thomas A. 
Edison Papers project. This project involves collection, selection, 
editing, and publication of the correspondence, laboratory notes and 
related technical and business records of the nation's most prolific 
inventor. By making Edison's most significant records widely available 
for the first time, the project has fostered scholarship concerned with 
historical and contemporary issues of interest to a wide range of 
students and scholars, including historians, philosophers, social 
scientists, engineers, natural scientists, and policy makers. 
Shepherding and nurturing endeavors of this scale and magnitude-in 
essence, preserving our heritage-is the government's trust and must 
remain at the federal level.
    Preservation activities, in particular, are an area unlikely to be 
funded by any individual state but of substantial benefit to the entire 
nation. With NEH support, Cornell University is coordinating the 
identification and preservation of 8,075 aging volumes on American 
agricultural history and rural life published between 1820 and 1945 and 
held by land grant universities in California, Florida, Nebraska, 
Texas, Arizona, Arkansas, Hawaii, Iowa, Minnesota, Montana, and New 
York. The preservation of brittle books and newspapers assist scholars 
in producing source material accessible to all Americans, from legal 
scholars to political scientists to school children.
    The fiscal year 1996 budget cut disproportionately affected many 
NEH national programs, including preservation activities. Approximately 
20,000 fewer brittle books, as well as more than 230,000 fewer pages of 
U.S. newspapers are now being preserved on microfilm each year, thus 
slowing the NEH's efforts to preserve and increase access to these 
important intellectual resources. An increase is needed to allow NEH to 
recover some of the lost ground and to support the digitization of 
historically significant collections held by museums, libraries, 
historical organizations, and archives, as well as undertake the 
preservation of recorded sound collections. New digital technology can 
play a crucial role in helping us preserve our country's heritage.
    While the state humanities councils have the primary responsibility 
for state-based humanities programs, colleges and universities also use 
NEH support to bring humanities to their communities. For example, the 
University of Illinois has engaged in several NEH-funded projects that 
enabled 4,000 people to participate in symposia, exhibitions, and 
lectures focused on Jane Addams' Hull House. Similarly, the University 
of Mississippi used an NEH grant to develop a ``Memories of 
Mississippi'' exhibit that recorded the recollections of the Depression 
Era from northern Mississippi citizens. A ``traveling trunk'' toured 
the region, visiting seniors' groups, nursing homes, and schools. The 
trunk included printed essays, prerecorded and blank audiotapes, a tape 
recorder, photographs and memorabilia of the Depression Era.
    The NEH has enjoyed bipartisan support throughout its 36-year 
history and has been the single most important source of support for 
humanistic endeavors in the United States. In calling for the creation 
of the National Endowment for the Humanities, Lyndon Johnson said, ``A 
great nation, and a great civilization, feeds upon the depth of its 
scholarship, as well as the breadth of its education opportunity.'' 
Nearly 20 years later, Ronald Reagan observed, ``Our cultural 
institutions are an essential national resource; they must be kept 
strong.'' Again, we urge the Subcommittee to provide $150 million for 
NEH in fiscal year 2002.
                                 ______
                                 
       Prepared Statement of the American Association of Museums
    Chairman Burns, Senator Byrd and distinguished members of the 
Subcommittee, thank you for the opportunity to present testimony in 
support of the fiscal year 2002 budget of the Institute of Museum and 
Library Services. My name is Edward H. Able, Jr., and I am President 
and CEO of the American Association of Museums (AAM), the national 
service organization helping museums serve their communities. AAM 
assesses museum operations and accredits museums, provides education 
and training for museum professionals, operates international museum 
programs, and advocates for museums. Since its founding in 1906, AAM 
has grown to include more than 16,400 members, including more than 
11,400 museum professionals, 3,000 museums, and 1,900 corporate members 
in every State of the Union. On behalf of the museum community, I 
respectfully ask the Committee to increase funding for The Office of 
Museum Services (OMS) at the Institute of Museums and Library Services 
(IMLS) by approximately $3 million to $28 million, at the very least, 
for the coming fiscal year. We firmly support the President's proposed 
increase of $120,000 for administrative expenses but we would ask the 
Committee to provide a corresponding and substantial increase for 
programmatic expenses as well. We believe an increase to $28 million 
would be both reasonable and fiscally responsible, and provide the 
agency desperately needed funding to address the growing needs of the 
museum community. The main reason for establishing the OMS in the first 
place--``to ease the financial burden borne by museums as a result of 
their increasing use by the public'' (Public Law 94-462, Title II, 
Museum Services Act)--has never been more true than today.
    Museums are witnessing a huge increase in attendance. According to 
conservative AAM estimates, museums welcome 865 million visits per year 
compared with around 600 million only a decade ago. That's an 
impressive 2.3 million visits to American museums per day. Museums are 
also consistently listed in the top three of family vacation 
destinations by the travel and tourism industry. And in a recent 
nation-wide survey, one-third of Americans said they have visited an 
art museum, a history museum, an aquarium, zoo, botanical gardens, or 
science and technology center within the past six months. Almost one 
quarter of Americans have visited within the past year. The evidence is 
overwhelming; more people visit museums today then in any time in 
history, and this trend shows no sign of slowing down.
    In addition, people are expecting more from their local museums. In 
the last few weeks it has been nearly impossible to pick up a newspaper 
or magazine without reading a story about how the latest census figures 
show that America has become a more diverse society. Changes in where 
people choose to live, how they work, and how they spend their leisure 
time, as well as the increasing ethnic diversity, leave no doubt that 
America of the 21st Century will be technologically, socially, 
culturally, racially and ethnically very different from America of the 
20th Century. Museums have a role to play in meeting some of the most 
critical challenges in community life they are increasingly called upon 
to play greater roles in:
  --Education and lifelong learning
  --Supporting families and family involvement in education
  --Community engagement
  --Economic development
  --Access for all, whether at the museum itself or through technology
  --Preservation of our heritage (scientific, social, cultural, natural 
        and artistic)
    Museums have become what the Washington Post once dubbed ``The New 
Town Square,'' offering everything from jazz concerts to education 
forums. At the same time they remain places of learning for our 
children, families and adults; of scholarly research; and of quiet 
contemplation of beauty, our cultural heritage, and civilizations past 
and present. Perhaps Steven Holl, a New York architect said it best 
when he talked about the success of his new Bellevue, Washington art 
museum in a recent Newsweek article. He said, ``There was no 
institution in town that brought people together, this is really a 
social condenser.''
    These new expectations place tremendous demands upon a museum's 
infrastructure. To be successful museums need to invest tremendous 
resources to ensure that their exhibits are both intellectually 
understandable and meet real community needs. Unfortunately, nine-
tenths of museums believe that ``funding to meet basic commitments'' is 
a critical need for the coming years, with 70 percent ranking this 
issue first among their needs. But only 8 percent of the museum 
community unfortunately, believe they have the resources to cope with 
critical issues in the near future.
    While need has substantially increased, the museum side of IMLS' 
budget has shrunk, dropping dramatically from a high of $28.7 million 
in fiscal year 1995 to today's level of $24.9 million, a slight 
recovery from the $22 million budget of fiscal year 1997. This recent 
period of shrinking or relatively static budget has meant that the 
General Operating Support program, the core of the museum half of IMLS, 
was only able to fund 19 percent of applications in fiscal year 2000, 
down from 20 percent in fiscal year 1998, and 26 percent in fiscal year 
1995. Yet according to outside peer reviewers 59 percent of the grants 
are worthy of funding. Given that the program is highly competitive and 
receiving an award is a mark of great achievement, and recognized by 
the field as such, that 59 percent figure is truly remarkable.
    The $28 million we are requesting is a relatively modest but 
worthwhile investment that would significantly increase the ability of 
IMLS to help more museums, especially small and rural museums. And 
while most of those additional awards would be small grants, they would 
have a strong multiplier effect on private and state funds for the 
recipient museums, funds that will clearly help museums further 
increase and enhance their services to local school systems and other 
community organizations. A budget of $28 million would also represent 
an 11.5 percent increase over the current baseline budget of $24.9 
million, be consistent with the Administration's proposed increase for 
other educational programs, and send a strong message from Congress 
that museums are a valuable educational resource.
    Museums are first and foremost educational. In fact, education has 
always been a cornerstone of museum service. But, it has taken on even 
more significance and prominence. For example, in 1992, AAM issued a 
landmark policy report, entitled Excellence and Equity: Education and 
the Public Dimension of Museums reaffirming museums' role in the 
education enterprise. To quote the report itself: ``Museums have a 
vital place in a broad educational system that includes formal 
institutions such as universities, schools and professional training 
institutes and informal agents of socialization such as family, 
workplace and community. Museums have the capacity to contribute to 
formal and informal learning at every stage of life, from education of 
children in preschool through secondary school to the continuing 
education of adults. They add a tangible dimension to learning that 
occurs in formal settings.'' In 1997, IMLS raised the bar and helped 
reinforce the importance of museum education when it published ``True 
Needs, True Partners,'' an 80-page book that profiled 15 museums-school 
partnerships and the results of a museum survey designed to collect 
specific information about the full range of educational activities 
that museums offer to our nation's schools. Prior to the issuance of 
Excellence and Equity and True Needs, True Partners, the idea that 
museums make a major contribution to education was broadly understood. 
The results of nationwide research conducted for AAM showed that 93 
percent of those surveyed believed the statement ``Museums are active 
participants in education, providing hands-on learning experiences for 
children and tours for school field trips. Museum often form 
partnerships with public schools providing unique classroom 
opportunities, after-school programs and professional development for 
teachers.'' True Needs, True Partners, for the first time, provided 
museum and educational professionals with strong statistical 
information that confirmed museums and schools are working together to 
better educate students at all grade levels. The survey found that:
  --88 percent of America's museums provide K-12 programming, spending 
        roughly $193 million annually on K-12 educational programming.
  --70 percent of museums responding to the survey reported an increase 
        in the number of schools, teachers and students served in the 
        previous five years.
  --Museums report the substantial use of school curriculum standards 
        in shaping educational programming for a given subject. Ninety 
        two percent of math related educational programs use curriculum 
        standards, 87 percent of science offerings, 76 percent of art 
        programs and 72 percent of history educational programs use 
        curriculum standards.
  --The typical museum now provides between 100 and 223 instructional 
        hours to student each year, with a low estimate of 3.9 million 
        hours collectively for all museums.
    In May, AAM will release the results of a recent national survey 
that reveals that Americans view museums as ``one of the most important 
resources for educating our children and as one of the most trustworthy 
sources of objective information.'' A museum's ability to fulfill its 
educational mission, however, whether through in-person involvement or 
through the World Wide Web, stems directly from the health of its most 
basic operations. I cannot stress this point enough. We would all 
agree, I think, that the vast wealth of cultural, scientific, 
technological, historic and artistic treasures preserved, protected and 
researched by America's museums should be as accessible as possible as 
a learning resource. Our country's museums house an enormous wealth of 
information though--more than 700 million, objects, specimens and 
associated documentation of our cultural, scientific and artistic 
heritage. And a museum at any one time has only five to ten percent of 
its collection on exhibition, with access to objects in storage 
necessarily restricted. Before the advent of the Internet, museums were 
only able to share their collections with the public in teaspoon 
amounts to on-site visitors. Now, however, museums are developing 
interactive exhibits, and regional electronic networks, and they are 
digitizing their collections to increase accessibility through the 
World Wide Web. Digitizing a three dimensional object is simply not as 
easy or straightforward as running the pages of a book through an 
electronic scanner, and digitization is a critical step toward 
providing compelling ``virtual visits'' and greater access to school 
programming via distance education technology. Private funding for 
complex and costly digitization projects is scarce. It costs art 
museums, for example, an average of $38 per visitor to just keep the 
doors open and the lights and heat turned on. The average admission 
charge per visitor is $1.46. That means on average, art museums lose 
$36.54 every time someone walks into the building. Museums simply do 
not have the resources to handle these types of projects on their own.
    That is why an increase for IMLS's core programs like National 
Leadership Grants for Technology Advancement for Museums, and 
particularly General Operating Support (GOS), are so critical. I cannot 
emphasize enough what an enormous difference Federal financial support 
through programs like IMLS' GOS program can make, especially for small 
or rural museums. To quote William Ebie, Executive Director of the 
Millicent Rogers Museum of Northern New Mexico, GOS funds ``Pretty much 
help us keep the door open.''
    While it is true that museums can use GOS money where they 
determine it is most needed to improve public service, by and large we 
are not talking about giving museums money to pay the light bills. We 
are talking about an investment that insures America continues to have 
a strong, viable and relevant museum community fully capable of 
fulfilling its educational mission and potential. And research 
conducted by IMLS has shown that 94 percent of museums use their GOS 
funds to do just that by improving their educational programs, services 
and materials.
    For example, the Santa Fe Children's Museum used a GOS grant to 
partner with the local Social Service Department to provide vouchers 
for under-served members of the community to visit the museum free of 
charge. The Heath Adventure Museum in Asheville, North Carolina used a 
GOS grant to expand the availability of its programs and services for 
local schools, increase the activities of its education staff, and 
greatly expand its summer science program. And the Museum of Art at 
Washington State University in Pullman, Washington used a GOS grant to 
promote the use of museum exhibitions in local schools and to fund free 
art workshops for schoolchildren. The list goes on and on.
    The Office of Museum Services at the Institute of Museum and 
Library Services is a valuable agency with a valuable role to play in 
the museum community. It supports the needs of the museum field as a 
whole, in the absence of a coherent state mechanism for museum support 
(like the state arts and humanities councils and the state library 
agencies); it helps leverage financial support from private sector, 
state and local governments; it assists in building alliances of 
national impact between museums and other sectors (e.g. education); it 
initiates partnerships with other federal agencies; it conducts 
research; and it provides national leadership for new initiatives. All 
of this comes at a relatively minor cost to the American taxpayers.
    I would also encourage the Committee to provide significant 
increases for the National Endowment for the Arts and the National 
Endowment for the Humanities. Working singularly and in partnership 
with IMLS, the NEH and NEA have provided critical support for America's 
museums since their inception 35 years ago, and we support increases 
for these valuable agencies so they can continue their good work.
    In closing, I would just reiterate that IMLS is a valuable Agency 
that has had a tremendous positive impact. There is no doubt in my mind 
that it can continue to have a strong positive impact for years to come 
if adequately funded. Therefore, I strongly urge the committee to 
provide at least $28 million for the Office of Museum Service at the 
Institute of Museum and Library Service for fiscal year 2002.
                                 ______
                                 
           Prepared Statement of the City of Miami Beach, FL
    On behalf of the City of Miami Beach, Florida, I appreciate the 
opportunity to submit this written testimony to you today on two 
extremely important initiatives, currently underway within our city. We 
respectfully request your consideration of these projects for funding 
from your fiscal year 2002 appropriations legislation.
  --Miami Beach Cultural Arts Initiative: The City of Miami Beach is 
        requesting assistance in the amount of $1.5 million from the 
        NEA, NEH or IMLS programs to continue the City's efforts to 
        support programming and training opportunities for performing 
        and visual arts organizations in Miami Beach, and to support 
        local museum and educational initiatives.
  --Atlantic Corridor Greenway Network: An important project which 
        brings together urban revitalization and economic redevelopment 
        in a linear park or greenway setting. The City is seeking a 
        $3.2 million appropriation from the Urban Park Restoration and 
        Recovery program to continue construction of this linear park 
        which will stretch the entire length of the City.
                  miami beach cultural arts initiative
    During the past decade, the City of Miami Beach has fast become a 
world-class center for the creation and consumption of culture. The 
entire City has been designated as an arts district, and the City is 
currently developing a Cultural Campus in Collins Park that is home to 
the Miami City Ballet, an $8 million expansion of the Bass Museum, and 
the future home of the Miami Beach Regional Library.
    There are currently 82 large and small dance, music and theater 
companies, visual and performing arts organizations, museums, and 
galleries. Among these groups are, the Miami City Ballet, the New World 
Symphony (America's Orchestral Academy), the ArtCenter South Florida, 
the Wolfsonian-FIU Museum, the Bass Museum, and the Jewish Museum of 
Florida. The City houses several venues that play a key role in the 
region, including the Jackie Gleason Theater of Performing Arts, the 
Lincoln Theater, and the Colony Theater, which was recognized by 
Congress last year as one of America's Treasures. Additionally, the 
``Superbowl'' of art shows, Art Basel, based in Switzerland, has chosen 
Miami Beach as the location for its first annual show outside of its 
home base, beginning in December 2001.
    The Miami Beach Cultural Arts Council was created in 1997 to 
develop, coordinate, and promote the performing and visual arts groups. 
It accomplishes this mission by serving as arts advocates before 
governmental bodies, by coordinating marketing programs, by funding 
not-for-profit arts organizations, by promoting international cultural 
tourism to the city, and more. Since 1997, the Miami Beach Cultural 
Arts Council has awarded over $2 million to 76 arts groups, and joined 
economic forces with the Miami Beach Visitor and Convention Authority 
(VCA) and the Miami-Dade Department of Cultural Affairs to award grants 
for Beach-based cultural events and to help promising local arts groups 
develop. The Council is comprised of nine spirited and knowledgeable 
Beach residents who express their commitment to the community through 
their involvement with the Council. The Mayor and City Commission 
appoint members to the Council for three-year terms with limits of six 
consecutive years.
    Secured annual funding is about $1 million, with strong 
administrative and political support to augment this level. Due to a 
special $200,000 allocation, funding for fiscal year 2000/01 is $1.74 
million. Cultural arts grants are awarded to eligible organizations, 
i.e., local, not-for-profit corporations producing or presenting visual 
or performing arts in the City of Miami Beach. Since its inception, the 
Miami Beach Cultural Arts Council has awarded the following grants:

1998-1999--awarded to 55 groups...............................  $509,000
1999-2000--awarded to 56 groups...............................   585,000
2000-2001--awarded to 58 groups...............................   958,000

    The Council has also succeeded in securing outreach opportunities, 
including 2 PBS documentaries on Miami Beach culture, with an estimated 
6-year worldwide audience of 550 million viewers.
    Another key component of the Miami Beach cultural scene is the 
Miami Beach Arts Trust, a not-for-profit corporation created by the 
City of Miami Beach Cultural Arts Council in 1999. The Arts Trust 
supports the work of the Cultural Art Council by working to build a 
financial endowment for the arts in Miami Beach. The City has also 
entered into a contract to purchase an old movie theater in the North 
Beach area of town for a $7 million renovation project that will 
transform it into a cultural center.
    In 2000, the Cultural Arts Council began a monthly Miami Beach Arts 
Night called ``Second Thursdays''. This is a free celebration of the 
arts on the second Thursday of every month from 6 to 9 pm in many 
different locations throughout Miami Beach, and including performances 
by the majority of the City's arts groups. After only seven months, 
this series has generated extensive local coverage and has also had 
national and international reach, including the Sunday New York Times.
    Educational institutions are also an important part of the City's 
cultural scene, as illustrated by Florida International University's 
partnership with the Wolfsonian Museum. The City of Miami Beach has 
placed high priority on development of the arts through educational 
institutions, not only at the university level, but in primary and 
secondary education as well.
    The cultural arts played a key role in the development of Miami 
Beach's South Beach area into an international economic phenomenon. The 
creative atmosphere the arts established in the City made Miami Beach 
the ideal location for multi-national entertainment companies when they 
looked to expand their operations into the America's. The City is now 
houses over 135 entertainment industry firms, including the Latin 
American headquarters of companies such as Sony, MCA, MTV, Nickelodeon, 
Elite Models, ASCAP, and LARAS, the Latin American operations of the 
NARAS, the National Academy of Recording Arts and Sciences. Along with 
the renourishment of the City's beaches and the redevelopment of the 
Art Deco Historic District, the development of the arts was one of the 
most important ingredients that led to South Beach's re-emergence as 
one of the nation's most important international tourist destinations.
    A recent study conducted by the Economics Department of Florida 
International University established that the Performing Arts provide 
Miami Beach with the highest economic impact multiplier of all sectors 
studied, meaning that more money is funneled through the local economy 
per dollar invested into Performing Arts than any other sector. The 
challenge for cities such as Miami Beach, is providing a large enough 
investment from which the City can receive the biggest ``bang for the 
buck.''
    Miami Beach is a leader in the continued role that the State of 
Florida plays to insure that the United States remains competitive in 
the international economy, not only in the arts and tourism, but in all 
sectors, especially as South Florida, with Miami Beach at its 
epicenter, emerges as the Capital of the Americas. In order to help 
maintain Miami Beach's role in the 21st Century, the continued 
investment in quality cultural activities is necessary. To this end, 
the City of Miami Beach is requesting a federal $1.5 million commitment 
to the City's efforts to support programming and training opportunities 
for performing and visual arts organizations in Miami Beach, and to 
support local museum and educational initiatives.

                   ATLANTIC CORRIDOR GREENWAY NETWORK
    The City of Miami Beach exists as an eight mile long chain of 
barrier islands that is separated from the mainland of Miami-Dade 
County by the Biscayne Bay Marine Estuary. The historic and scenic 
Indian Creek Waterway system snakes its way through the chain of 
islands. Miami Beach was settled in the late 1800's as a farming 
community. Just after the turn of the century, entrepreneurs recognized 
the area's potential and launched the development of a resort 
community. The result was a development boom which reached its peak in 
the 1930's & 40's and established Miami Beach as the number one beach 
tourism destination in the world.
    The post-war prosperity of the 1950's brought on a vast expansion 
in the development of single family homes and lower density multifamily 
residential facilities to Miami Beach. By the time changes in world 
economic conditions brought new development in Miami Beach to a halt in 
the 1960's, the City of Miami Beach was a completely developed 
metropolitan area. The area remained in economic doldrums until the 
mid-1980's when Art Deco revival and a resurgence in beach tourism 
ignited a wave of redevelopment that has eclipsed any previous period 
of development in Miami Beach history. This resurgence in development 
has also brought on major changes in both Miami Beach's population 
demographics and traffic patterns. Since 1980, the median age of Miami 
Beach residents has dropped from 65 to 44 years old. During that time, 
approximately 25 percent of the City's hotel and apartment facilities 
that historically catered to the City's retiree and seasonal visitor 
populations, were converted to condominiums occupied by permanent 
residents. Unfortunately, with this explosion of year-round residents, 
the creation of parkland within the City for these individuals was 
vastly overlooked.
    Through the development of the Atlantic Corridor Greenway Network, 
the City of Miami Beach is creating a regional system of parkland which 
will interconnect key intermodal centers, area business districts, 
cultural/tourism centers, residential neighborhoods, parking 
facilities, schools and the beaches. The Network will be comprised of a 
citywide system of bicycle/pedestrian accessways, enhanced public 
transit facilities, expanded Electrowave electric shuttle service and 
innovative regional parking improvement programs.
    The system of bicycle/pedestrian trails will be created to provide 
continuous, multi-purpose public access corridors throughout the City. 
The access corridors will be developed as Greenways or linear parks 
which will snake their way along the City's beaches, waterways and 
natural ecosystems with connections to residential areas, resort areas, 
business districts, civic centers, transit sites and parking 
facilities. Rest areas, vista areas, waterway access facilities, and 
interpretive signage will be interspersed throughout the greenways to 
provide enhanced heritage and ecotourism amenities and recreational 
opportunities for park and trail users.
    By connecting the Greenway trails with improved transit sites in 
strategic residential areas, employment centers and regional parking 
facilities, the Network will encourage greater utilization of public 
and alternative modes of transportation for daily commuting. 
Furthermore, these new park lands will encourage new economic 
development in Miami Beach by reducing the concurrency restrictions 
currently limiting new development and by increasing local business 
utilization by residents and visitors.
    Local government has already made a substantial investment in the 
development of the Atlantic Corridor. To date, the City has obtained 
more than $12,000,000 in project funding, completed the design and 
permitting of more than 3.5 miles of the Network's trails, and will 
complete the construction of the first 2.5 miles of trail in fiscal 
year 2001/2002. If approved, this $3,200,000 appropriation request will 
allow the City to complete the development of a series of residential 
parkways, which will directly link the City's key residential areas 
with regional employment centers, transit facilities and the Citywide 
trail network.
                                 ______
                                 
      Prepared Statement of the American Museum of Natural History

              ABOUT THE AMERICAN MUSEUM OF NATURAL HISTORY
    The American Museum of Natural History [AMNH] is one of the 
nation's preeminent institutions for scientific research and public 
education. Since its founding in 1869, the Museum has pursued its 
mission to ``discover, interpret, and disseminate--through scientific 
research and education--knowledge about human cultures, the natural 
world, and the universe.'' It is renowned for its exhibitions and 
collections of more than 32 million specimens and cultural artifacts. 
With nearly five million annual visitors--approximately half of them 
children--its audience is one of the largest, fastest growing, and most 
diverse of any museum in the country. More than 200 Museum scientists 
conduct groundbreaking research in fields ranging from all branches of 
zoology and paleontology to earth, space, and environmental sciences 
and anthropology. Their work forms the basis for all the Museum's 
activities that seek to explain complex issues and help people to 
understand the events and processes that created and continue to shape 
the Earth, life and civilization on this planet, and the universe 
beyond.
    Today more than 200 active Museum scientists with internationally 
recognized expertise, led by 47 curators, conduct laboratory and 
collections-based research programs as well as field work and training. 
Scientists in five divisions (Anthropology; Earth, Planetary, and Space 
Sciences; Invertebrate Zoology; Paleontology; and Vertebrate Zoology) 
are sequencing DNA and creating new computational tools to retrace the 
evolutionary tree, documenting changes in the environment, making new 
discoveries in the fossil record, and describing human culture in all 
its variety. The Museum also conducts graduate training programs in 
conjunction with a host of distinguished universities, supports 
doctoral and postdoctoral scientists with highly competitive research 
fellowships, and offers talented undergraduates an opportunity to work 
with Museum scientists.
    In its exhibition halls AMNH scientific knowledge and discovery are 
translated into three dimensions. One of the most exciting chapters in 
the Museum's history culminated just over one year ago with the opening 
of the Rose Center for Earth and Space in February 2000. Greeted with 
critical and popular acclaim and record-setting attendance surpassing 
all projections, the Rose Center includes a rebuilt Hayden Planetarium, 
Hall of the Universe, and Hall of Planet Earth. It leads to the Hall of 
Biodiversity, which reveals the variety of Earth's living things and 
expands the Museum's efforts to alert the public to the critical role 
biodiversity plays in sustaining life as we know it. Together, the new 
planetarium and halls provide visitors a seamless educational journey 
from the universe's beginnings to the formation and processes of Earth 
to the extraordinary diversity of life on our planet.
    The Education Department builds on the Museum's unique research, 
collections, and exhibition resources to offer rich programming 
dedicated to increasing scientific literacy, to encouraging students to 
pursue science and museum careers, and to providing a forum for 
exploring the world's cultures. Each year hundreds of thousands of 
students, teachers, and schools participate in workshops, courses for 
college credit, and Museum visits; more than 500,000 students and 
teachers visit on school trips, prepared and supported by curriculum 
resources and workshops. The Museum is also reaching beyond its walls: 
through its National Center for Science Literacy, Education, and 
Technology, launched in 1997 in partnership with NASA, it is exploiting 
new technologies to bring learning and discovery, materials, and 
programs into homes, schools, museums, and community organizations 
around the nation.

        SUPPORT FOR THE INSTITUTE OF MUSEUM AND LIBRARY SERVICES
    The American Museum of Natural History supports the goals and 
accomplishments of the Institute of Museum and Library Services [IMLS]. 
The Museum's own collections of more than 32 million artifacts and 
specimens are considered to be the largest non-federal museum 
collection in America, and one of the largest and most significant 
biological collections in the world. Its Library houses one of the 
world's preeminent collections of natural history and anthropology 
materials. It shares IMLS commitments to increasing technological 
access to the nation's museum and library resources and to building 
partnerships to address community needs; and it urges increased 
investment in IMLS so as to advance public access to these vital 
educational institutions.
Scientific and Cultural Collections
    The cumulative result of 130 years of exploration, collecting, and 
research, the AMNH collections are a major scientific resource 
providing the foundation for the Museum's interrelated research, 
education, and exhibition missions. They often include endangered and 
extinct species as well as many of the only known ``type specimens,'' 
or examples of species by which all other finds are compared. Within 
the collections are many spectacular individual collections, including 
the world's most comprehensive collections of dinosaurs, fossil 
mammals, Northwest Coast and Siberian cultural artifacts, North 
American butterflies, spiders, Australian and Chinese amphibians, 
reptiles, fishes outside of their home countries, and one of the most 
important bird collections. Collections such as these are historical 
libraries of expertly identified examples of species and artifacts, 
associated with data about when and where they were collected. Such 
collections provide vital data for Museum scientists as well as more 
than 250 national and international visiting scientists each year. The 
collections are all located on-site to provide scientists with ready 
access.
    The Museum's halls of vertebrate evolution provide an excellent 
example of the relationship among science, collections, education, and 
exhibition. In these halls, visitors walk directly along a phylogenetic 
tree indicated by a pathway on the floor. At each branch in the tree, a 
visitor can stop and view fossils that exemplify sets of anatomical 
features which inform scientists about natural groups of organisms. The 
collections are also the source of the extraordinary ``Spectrum of 
Life'' exhibit in the Hall of Biodiversity. This exhibit features more 
than 1,000 expertly mounted specimens from 28 scientific 
classifications; it is perhaps the world's most comprehensive display 
of the diversity and evolution of life. It includes interactive 
computer kiosks that visitors use to identify and interrelate organisms 
on evolutionary trees. The confluence of collections, evolutionary 
research, and beautiful exhibition makes these halls among the Museum's 
most compelling educational features.
Natural History Library
    The American Museum is also home to the largest unified natural 
history library in the Western Hemisphere. In addition to supporting 
the work of the Museum's scientific staff, the Library serves the 
world's scientific and scholarly communities as well as students from 
colleges and universities in the tri-state area and interested members 
of the public. Each year thousands of users visit the Library, and its 
staff answer more than 26,000 reference questions.
    The Library contains over 485,000 volumes, including pamphlets, 
reprints, books, field journals, photos and drawings, several hundred 
films, and rare books dating to the fifteenth century. It also houses 
the Museum's astronomy collections, including the Perkins Library of 
more than 35,000 volumes and the Bliss Collection of rare and ancient 
scientific instruments. The archives contain more than 1,900 linear 
feet of materials and 250 reels of microfilm. Additionally, the Library 
maintains approximately 1,000,000 photographic images documenting 
specimens and scientific work, 3,000 documentary films, and over 2,700 
art objects and memorabilia.
    Other highlights of the Library collection include over 300 
manuscript collections of notable naturalists and scientists; a unique 
collection of 13,000 rare books that spans over 500 years of scientific 
and expedition literature; and diaries and logs, including Captain 
James Cook's account of Australia (1783) and Charles Darwin's zoology 
of the voyage of ``H.M.S. Beagle'' (1839-43).
Preservation and Access
    By assuming stewardship of these irreplaceable collections and 
holdings, the Museum serves as custodian of one of the most important 
records of life on earth. As steward and custodian, it places the 
highest possible priority on preservation and access, so that the 
collections will be protected and available for research, exhibit, and 
education for generations to come. New technologies now allow the 
collections' reach and power to be increased exponentially. Digital 
imaging, electronic cataloging, and databasing can make it possible for 
the first time for researchers, no matter where they may physically be 
located, to access and study AMNH holdings.
    The Museum has a demonstrated record of success in leading 
preservation and access practices. The Anthropology Department, for 
example, is nearing completion of a 25-year collection storage upgrade. 
Scheduled for completion in 2002, this upgrade will ensure that the 
artifacts are protected and stored for study by generations to come. 
The Department is also completing an initiative in which a database of 
digital images of objects in all of the Anthropology collections will 
be linked to catalog and accessions information. Supported by the 
National Endowment for the Humanities, this project will give scholars 
everywhere greater access to the Museum's unique cultural collections.
    The Library is engaged in an ambitious pilot effort, with private 
foundation support, to digitize its holdings and link them to the 
scientific collections. This model project, illustrative of the 
digitization initiatives the IMLS supports, will help to pave the way 
in transforming access to and ways to use the Museum's resources. An 
expansion of the digitization project would dramatically increase 
access to these resources for researchers, students, teachers, and the 
general public.
    The Museum has also undertaken major efforts to improve storage, 
preservation, and access of its vast collections. Museum departments 
have recently moved into a new nine-story Natural Science Building. 
This facility significantly increases exhibition and collections 
storage space, with 30,000 sq. ft. of climate-controlled compact 
storage facilities for portions of the scientific collections, along 
with a digital imaging laboratory.

     BIOLOGICAL COLLECTION STORAGE UPGRADE AND DIGITIZATION PROJECT
    With the successful Anthropology project nearly complete and to 
guarantee the entire collections' preservation and access, the Museum 
must turn its focus to critical upgrading of other storage facilities 
and to digitizing its biological collections. The IMLS has a 
distinguished history of supporting cutting edge collection and 
technological practices.
Collection Storage Facilities
    Collections preservation and access are top Museum priorities. The 
Museum's collections are the core of our scientific research, permanent 
and temporary exhibitions, and education programs. Access to the 
collections allows undergraduate, graduate, post-graduate, and even 
high school students to conduct real research projects in intensive 
learning programs. As the collections grow, questions about how to 
curate them, including how to use limited physical storage space, 
arise. While many similar institutions house their collections 
separately from their faculty, the Museum is committed to keeping its 
scientists, educators and collections together by expanding on site. 
The new Natural Sciences Building, for example, can accommodate a 
substantial amount of new compact storage, including a unique super-
cold storage facility to preserve tissue samples for future DNA study. 
We seek support in fiscal year 2002 to continue to improve our specimen 
and library collection storage facilities so that we may preserve and 
protect the integrity of our specimens and artifacts for years to come.
Technological Innovation for Greater Public Access
    Biological science at the Museum centers on expert documentation of 
species and investigation of their evolutionary and ecological 
relationships. The collections therefore provide essential baseline 
data for scientific inquiry. They provide enormous amounts of object-
associated information, such as locality, age, conditions under which 
objects were collected, etc. This information then becomes the raw data 
in whole new fields like Geographical Information Systems and distance 
learning. Indeed, if properly digitized and databased, this object-
associated data allow more sophisticated questions to be asked of the 
collections, more flexible use of specimen data and images in remote 
learning, and more access and accessibility worldwide; such data also 
provide for more efficient and critical care of these important 
international resources. The Museum therefore would like to expand its 
digitizing and databasing efforts into a comprehensive database, with a 
web front end for worldwide general audience access, to allow digitized 
specimens and field data to be searched across many fields. 
Comprehensive digital imaging and electronic cataloging of collections 
will allow the Museum readily to share our resources with a national 
and international audience. Detailed digital renderings would also 
provide ready and safe access to often fragile archival material and 
allow off-site researchers and users to peruse the collection and 
strategically plan Museum visits. We seek support in fiscal year 2002 
to develop and expand, in partnership with IMLS, our leading 
digitization initiatives.
    As these endeavors demonstrate, the American Museum of Natural 
History supports the important goals of IMLS to preserve and expand 
access to library and museum resources and to reach out to broad 
audiences and diverse communities. IMLS has a distinguished history of 
supporting cutting edge collection practices and technology 
applications. The American Museum of Natural History [AMNH] seeks 
$1,000,000 in fiscal year 2002 to partner with IMLS to provide 
leadership in collection practices and to serve as a national model in 
improving public access to museum and library resources through 
technology.
                                 ______
                                 

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

           Prepared Statement of the Northern Forest Alliance
    The Northern Forest Alliance is a coalition of more than 40 state, 
regional and national organizations dedicated to the protection and 
stewardship of the 26 million acre Northern Forest which spans northern 
New York, Vermont, New Hampshire and Maine. Together we represent the 
interests of more than one million people. On behalf of the Alliance, I 
am submitting testimony in strong support of a significant increase in 
funding for the Forest Legacy Program to at least $100 million, and for 
full funding of the state and federal components of the Land and Water 
Conservation Fund (LWCF), consistent with the pledge made by President 
Bush.
    The Northern Forest is the largest remaining continuous wild forest 
East of the Mississippi. Its 26 million acres blanket Maine, New 
Hampshire, Vermont and New York and hold the headwaters of all of the 
Northeast's greatest rivers and the mountains, lakes and forests that 
define the northeastern region of the country. It provides economic and 
environmental benefits that go well beyond state lines.
    A decade of important conservation achievements have set the stage 
for addressing the challenges that threaten the landscape, culture and 
communities of the Northern Forest. This vast forest is facing a time 
of extraordinary transition: over the past year more than five million 
acres of mountains, rivers, lakes, ponds and woodlands have changed 
hands including more than 20 percent of the entire state of Maine and 
vast tracts in Vermont and the Adirondacks. Land sales of this scale 
speak to deep forces for economic and social change that will have a 
defining impact on the future of the region. Unless we act now to 
conserve the vast unfragmented forests that underpin our economy and 
way of life, the region and country will lose an irreplaceable resource 
of national significance--the last and largest wild forest in the East. 
Given the scale of these projects, it is clear that federal assistance 
to the states, through robust programs such as Forest Legacy and a 
fully funded Land and Water Conservation Program, will be essential to 
realizing the opportunity before us.

  THE CASE FOR SIGNIFICANTLY INCREASED FUNDING FOR THE FOREST LEGACY 
                                PROGRAM
    In recent years the number of compelling projects in need of 
funding under the Forest Legacy Program, along with its popularity, has 
grown exponentially. A major reason for the success of the program is 
that the conservation mechanisms available under the program are well 
suited to private land conservation needs of the 21st century, with the 
flexibility to utilize easements or full fee acquisition as 
appropriate. The program enables landowners to retain ownership of 
their land and continue to earn income from it; conserves open space, 
scenic lands, wildlife habitat, and clean water; and ensures continued 
opportunities for outdoor recreational activities such as hunting, 
fishing, and hiking. In addition, with its minimum requirement of 25 
percent non-federal matching funds, the program leverages state and 
private dollars to complement federal money, creating partnerships that 
have lasting value.
    Authorized by Congress in 1990, the Forest Legacy Program helps 
preserve threatened forestlands and protect critical resources. As our 
population grows and land values rise, many private forests are in 
danger of overcutting and conversion to housing subdivisions or second-
home development. The United States loses more than half a million 
acres of privately-owned timberland to development each year. These 
changes are impacting the economic integrity of our forest-based 
communities, and they are also limiting the amount of recreational open 
space and critical wildlife habitat we all enjoy. The Forest Legacy 
Program, administered by the U.S. Forest Service through grants to 
states, provides a mechanism and a small pot of federal funds for 
protecting forestland and the multiple benefits these lands provide. It 
is increasingly apparent, however, that the modest funds historically 
provided for this program, despite the significant increase in fiscal 
year 2001, is inadequate to meet the enormous current and future 
projected demand.
    The Forest Legacy Program must be funded at a minimum of $100 
million annually on a dependable basis to meet the nation's need for 
conserving large tracts of forest with a variety of tools, including 
easements and acquisition. Legacy is an essential tool in land 
conservation because it enables a public/private partnership for 
protecting the many public benefits of large tracts of forest land.

              FOREST LEGACY FUNDING IN THE NORTHERN FOREST
    It is clear that Forest Legacy will play a central role in 
completing the emerging conservation projects in the Northern Forest. 
Several of these projects are largely completed, and speak to the 
unqualified success of Forest Legacy when adequate funds are available. 
These projects include:
  --Nicatous Lake, Maine.--A 22,000 acre project surrounding Nicatous 
        and West Lakes, with easement terms that prevent harvesting 
        along the 36-mile shoreline but allow it on the forested 
        backland. The landowner, the Robbins Lumber Company--a family-
        owned, fifth-generation sawmill company--continues to harvest 
        the white pine for its sawmill, while Champion International 
        has the rights to harvest the remaining hardwoods.
  --Pond of Safety, New Hampshire.--A 1,200 acre project sandwiched 
        between the northern and southern segments of the White 
        Mountain National Forest. Here a Forest Legacy easement 
        prevented the necessity of expanding the National Forest 
        boundary. The landowner, Hancock Timber Resources, opted to 
        sell the property outright. The fee portion was sold to the 
        town of Randolph while a Forest Legacy easement was granted to 
        the State of New Hampshire. Randolph will harvest the timber to 
        generate local revenues, while the easement to the state will 
        ensure that this unique tract remains undeveloped--thereby 
        maintaining the historic recreation and scenic attributes that 
        distinguish the White Mountains. The net result is that the 
        effort will keep the local economy strong in two ways: first 
        through direct timber revenues and second by providing 
        continued recreational access to the White Mountains.
    Yet a great deal remains to be accomplished. Below is a small 
sampling:
  --West Branch Project, Maine.--An ambitious and unprecedented project 
        to conserve 656,000 acres along the West Branch of the 
        Penobscot River in the heart of Maine's North Woods, this 
        public-private undertaking will prohibit development, preserve 
        traditional public access, and allow continued commercial 
        forest management, while protecting precious ecological, 
        recreational and scenic resources. The Forest Legacy Program 
        was instrumental in securing phase I of this project in fiscal 
        year 2001, but the all important Phase II will safeguard such 
        remarkable features as the headwaters of the St. John River, 
        the West, South and North Branches of the Penobscot River and 
        other shore, mountain and ecologically significant areas.
  --The International Paper Lakes.--Bordering the Whitney/Lake Lila 
        Wilderness Area, in the Oswegatchie Wildland, are miles of 
        forested tracts containing numerous lakes and historic canoe 
        routes, long closed to the public. 26,500 acres, still owned by 
        International Paper, are an excellent candidate for state 
        acquisition of the Forest Preserve or a sustainable forestry 
        easement.
  --West Mountain, Vermont.--The 22,000 acres of the West Mountain 
        Wildlife Management Area comprise a truly wild place of rare 
        plants and tranquility, deep within Nulhegan Basin. It provides 
        critical habitat for bear, moose, and bobcat, loons and bald 
        eagles, and is a great draw for outdoor enthusiasts. Protecting 
        remaining inholdings in this special place through the Forest 
        Legacy program is the key to building a strong future for 
        nearby Northeast Kingdom communities such as Island Pond, Burke 
        and Bloomfield.

                         BUILDING PARTNERSHIPS
    The Forest Legacy Program offers the opportunity for the federal 
government to work in partnership with states, local communities and 
private landowners to ensure that the multiple benefits found on forest 
lands--economic sustainability, wildlife habitat protection, and 
recreational opportunities--are secured for future generations. Since 
its inception, the program has proven extremely popular but unable to 
meet the demand across the nation. In fiscal year 2001, 22 states 
submitted funding requests for almost $120 million in Forest Legacy 
funding to help protect almost 1 million acres of private forestlands 
valued at almost $245 million. Yet only half of the $120 million was 
appropriated. In addition, several other states are planning to enroll 
in the program in the near future, increasing the demand for funding.
    States currently enrolled in the Forest Legacy Program are: 
California, Connecticut, Delaware, Hawaii, Illinois, Indiana, Maine, 
Maryland, Massachusetts, Minnesota, Montana, New Hampshire, New Jersey, 
New York, North Carolina, Rhode Island, South Carolina, Tennessee, 
Utah, Vermont, Virginia, Washington, Wisconsin and the Commonwealth of 
Puerto Rico. Several other states are currently developing plans for 
enrollment in the program or considering beginning the planning 
process.
    Congressional support for the program has grown at the same rate, 
with funding levels increasing from $7 million in fiscal year 1999 to 
$30 million in fiscal year 2000 to the current level of $60 million in 
fiscal year 2001. Even at this level, however, several properties being 
offered for protection by willing landowners and states through the 
Forest Legacy Program could not be fully funded and will have to be 
carried over to the following year. The Northeast in particular has an 
abundance of worthwhile projects and documented needs for Forest Legacy 
funding which will go unmet unless Forest Legacy is significantly 
increased or other sources of funding are identified.
    Given this documented and growing need, the Forest Legacy Program 
must be funded at a minimum of $100 million annually on a dependable 
basis to meet the nation's need for conserving large tracts of forest 
with easements. Legacy is an essential tool in land conservation 
because it enables a public/private partnership for protecting the many 
public benefits of large tracts of forest land. It is clear that Forest 
Legacy will play a central role in completing the emerging conservation 
projects in the Northern Forest.

            FULLY FUND THE LAND AND WATER CONSERVATION FUND
    We strongly urge Congress and the Administration to fulfill the 
promise made to the American people 35 years ago and fully fund the 
Land and Water Conservation Fund.
    Last year more than 5,000 organizations representing a wide 
spectrum of American interests, including all 50 Governors, signed 
letters and petitions to Congress to approve the Conservation and 
Reinvestment Act, which provided full funding for the LWCF. Sixty-seven 
senators sent a letter to the Senate Majority Leader asking him to 
bring CARA to the floor for a vote, and the House of Representatives 
approved CARA overwhelmingly. A fully funded and revitalized LWCF would 
serve the people and communities of the Northern Forest and the country 
well. This well-tested, but often neglected program has an impressive 
legacy and has been responsible for the acquisition of nearly seven 
million acres of open space and the development of more than 37,000 
parks and recreation projects.
    People and policy makers across the Northern Forest and surrounding 
states have spoken clearly to the urgent need to take action to protect 
threatened forests. As land sales change the ownership landscape across 
the Northern Forest, residents, elected officials, community leaders 
and conservationists are coming together to identify the next wave of 
opportunity for conservation. Rather than be blind-sided by mega sales 
and unwanted development, people across the region are assessing what 
is most important to them, their communities, and their way of life.
    In response, the states have delved into their limited financial 
resources to provide funds for critical conservation: Maine voters 
recently approved a $50-million bond for land conservation, which must 
be matched by another $25 million investment; New York has allocated 
hundreds of millions of dollars for conservation through its 
Environmental Protection Fund and its Clean Water, Clean Air bond; 
Vermont provides a continuous stream of funding through its Housing and 
Conservation Trust Fund; and New Hampshire is on the verge of creating 
a new state program for protecting threatened lands.
    Without a new partnership with the federal government, however, 
even these landmark state funding programs cannot meet the conservation 
challenges in the Northern Forest. Millions of acres of forest, clean 
rivers, and pristine lakes need to be protected in this most densely 
populated part of our country. We are poised now on the cusp of an 
historic opportunity to protect the cherished landscape of the Northern 
Forest, a mainstay of the economy, ecology and culture of the 
Northeast. Full funding for the Land and Water Conservation Fund is a 
critical component in assuring the success of the decade long struggle 
to achieve a sustainable future for the Northern Forest.
    We challenge Congress to fully fund the Land & Water Conservation 
Fund at $900 million annually; to meet documented conservation need now 
and in the future.
    Mr. Chairman, as we begin the 21st Century we are faced with an 
historic opportunity to conserve places of extraordinary natural and 
public value. The work of protecting and caring for these special 
places must be a partnership that engages government, businesses and 
non-profit organizations. But federal funds, leadership and expertise 
are a critical element of this partnership. We urge the continued 
commitment of Congress to work with the people of Maine, Vermont, New 
Hampshire and New York to protect these irreplaceable resources. Thank 
you for considering our request.
                                 ______
                                 
    Prepared Statement of the National Association of Conservation 
                               Districts
    The National Association of Conservation Districts (NACD) is the 
nonprofit, nongovernment organization that represents the nation's 
3,000 conservation districts and more than 16,000 men and women who 
serve on their governing boards. Established under state law, 
conservation districts are local units of state government charged with 
carrying out programs for the protection and management of natural 
resources at the local level. They work with nearly two-and-half 
million cooperating landowners and operators--many of them forestland 
owners--to provide technical and other assistance to help them manage 
and protect private forestlands in the United States. In achieving 
their mission to coordinate and carry out all levels of conservation 
programs, districts work closely with USDA's Forest Service (FS) and 
state forestry agency programs to provide the technical and other help 
landowners need to plan and apply complex conservation treatments.
    On behalf of America's conservation districts, I am pleased to 
provide our recommendation on selected conservation programs carried 
out through the U.S. Department of the Interior and through the U.S. 
Department of Agriculture's U.S. Forest Service. Conservation districts 
are actively involved in many states in the Forest Service's State and 
Private Forestry (S&PF) programs and consider those to be top 
priorities for private lands conservation. To that end, we are asking 
for increases in some of the S&PF budget items. Our request includes 
funding for our Private Forest Lands Fire Protection Initiative 
(PFLFPI), an effort to have the National Fire Plan draw more 
effectively on the capabilities and resources of conservation 
districts. Our specific recommendations include:
  --$35 million increase in fiscal year 2002 for the Community and 
        Private Lands Fire Assistance Program in the National Fire Plan 
        to fund the PFLFPI to be allocated as described below;
  --a $21 million increase over fiscal year 1901 in the Forest 
        Stewardship Program;
  --a $15 million increase over fiscal year 1901 in Urban and Community 
        Forestry; and
  --an $18 million increase over fiscal year 1901 in the Stewardship 
        Incentives Program.

            USDA FOREST SERVICE--STATE AND PRIVATE FORESTRY
    The National Fire Plan is a program in which conservation districts 
can be key players in the delivery of this federal initiative and its 
companion state efforts. We believe that the plan would benefit greatly 
if it took advantage of the local, on-the-ground experience of 
districts and their access to landowners and communities. A quick 
survey of the Western states and others across the country has shown 
that conservation districts are ready and willing to be involved in the 
National Fire Plan. We are calling our national effort the ``Private 
Forest Lands Fire Protection Initiative.''
    NACD is concerned that the overall funds made available in the 
National Fire Plan currently are not benefiting from the local, on-the-
ground access to landowners and communities. Current efforts are not 
gaining from districts' knowledge of local landowners, community 
resources and conservation needs. The nation's conservation districts, 
as partners with the key state agencies working on this effort, have an 
enormously important contribution to make. For this reason, we urge the 
subcommittee to include the following in report language accompanying 
its fiscal year 2002 appropriations bill supporting the National Fire 
Plan:

    ``The Committee expects the USDA Forest Service to work closely 
with the nation's conservation districts to help implement a wide range 
of actions in the National Fire Plan, including fuels reduction, market 
development and community assistance.''

    In addition, we recommend that the subcommittee provide $35 million 
for the Community and Private Lands Fire Assistance Program as part of 
the National Fire Plan. We request that these funds be allocated as 
follows: (1) $15 million for hazardous fuels reduction; (2) $9 million 
for community planning for long-term fire protection of these 
resources; (3) $11 million for multi-resource stewardship planning to 
ensure that hazardous fuels reduction is accomplished according to 
sound conservation principles.
    State, local and tribal governments, and private individuals own 
nearly two-thirds of the forested land in the United States. Since 
these lands are managed by millions of individuals with diverse goals 
and objectives, the Forest Service's Cooperative Forestry Programs are 
critical in helping to maintain the health and ability of our nation's 
forests to produce the values and products desired by the American 
people.
    The Forest Stewardship Program (FSP) provides the technical 
assistance for the development of Forest Stewardship Plans on non-
industrial private forestlands. It is intended to help the nearly 10 
million nonindustrial private forestland (NIPF) owners--who own 44 
percent of the nation's forestland--better manage and use their forest 
resources. Cost-shared with the states, the FSP provides high quality 
technical and stewardship planning assistance that enable landowners to 
manage their lands for multiple use, while maintaining a robust forest 
ecosystem. A recent survey of the Forest Stewardship Program found that 
more than 80 percent of the landowners with plans are implementing them 
and that 94 percent of the respondents would recommend the FSP to 
others.
    The number of landowners requesting assistance constantly outstrips 
the ability to provide assistance. To expand assistance to the ever-
growing number of private, nonindustrial forestland owners, 
conservation districts recommend funding the Forest Stewardship Program 
at $50 million in fiscal year 2002. This roughly $21 million increase 
over fiscal year 2001 levels is needed to reach out to more than the 
six percent of landowners currently receiving these services.
    Trees and forests are a vital component of healthy urban and 
suburban ecosystems. The Urban and Community Forestry Program (UCFP) 
provides leadership, in cooperation with states, for improving and 
expanding urban forest ecosystems in the nation's 45,000 towns and 
cities where 80 percent of our population resides. The UCFP provides 
technical support urban issues such as sprawl, fragmentation, wild land 
and urban interface. It also provides leadership for state of the art 
technology and grants to urban areas to improve quality of life through 
tree planting and urban health initiatives. More than 8,000 communities 
and 7,000 volunteer organizations participate in the program with 
requests exceeding these numbers by a factor of eight.
    Nearly one quarter--24 percent--of the conservation districts that 
responding to an NACD forestry survey indicated that urban sprawl is a 
key forestry issue and 21 percent said forest fragmentation needs to be 
addressed. Further, recent satellite photography has shown a 
significant loss of tree cover in several large urban areas such as 
Atlanta and Washington, DC. To address these issues, conservation 
districts recommend funding for Urban and Community Forestry at $50 
million in fiscal year 2002--an increase of roughly $15 million over 
current levels.
    Overall, federal funding to assist nonindustrial, private 
forestland owners in implementing sustainable forestry practices is 
currently inadequate. The key Forest Service program to provide such 
assistance, the Stewardship Incentives Program (SIP), has received no 
funding in the last several years. Although the Environmental Quality 
Incentives Program (EQIP) does provide some forestry cost-share 
assistance, less than five percent of its funds are used to address 
forestry issues.
    Responses to the survey mentioned above indicate that 63 percent of 
forestland owners who received cost-share assistance in the past would 
not have accomplished their management objectives without the cost-
share. To include more forestland owners and increase the range of 
benefits from well managed private forestlands, conservation districts 
recommend funding SIP at $18 million in fiscal year 2002. The enclosed 
table shows funding recommendations for other Forest Service programs 
in which conservation districts are involved.

                    LAND AND WATER CONSERVATION FUND
    The President's fiscal year 2002 budget proposes $450 million for 
Land and Water Conservation Fund (LWCF) state grants and expands the 
program to provide a new comprehensive approach to funding a wider 
array of state recreation and conservation needs. The proposal gives 
states flexibility to go beyond traditional recreational land 
acquisition and development projects. Conservation districts support 
fully funding the LWCF state grants and expanding eligible activities 
to include protecting fish and wildlife habitat, conserving threatened 
and endangered species, enhancing and restoring wetland ecosystems and 
other conservation activities as determined in State Action Agendas 
developed under the program.

                       FISH AND WILDLIFE SERVICE
    The Partners for Fish and Wildlife Program offers technical and 
financial assistance to private landowners to voluntarily restore 
wetlands and other fish and wildlife habitats on their land. The 
program emphasizes the reestablishment of native vegetation and 
ecological communities for the benefit of fish and wildlife while 
meeting the needs and desires of private landowners. Conservation 
Districts have been major partners in the program, raising matching 
funds and sponsoring more than 900 wetland restoration projects.
    Since 1987, the Partners for Fish and Wildlife Program (PFWP) has 
worked with more than more than 20,000 landowners to restore nearly a 
million acres of wetlands, native prairie, grassland and other upland 
habitats nearly 3,000 miles of riparian and in-stream aquatic habitat.
    More than 2,000 landowners are on waiting lists for assistance 
under the PFWP. Conservation districts recommend raising the funding 
level for the program to $37 million in fiscal year 2002 to meet the 
needs of landowners and fish and wildlife on nonfederal lands.
    The National Wildlife Refuge Fund was created to fully fund 
``payments in lieu of taxes'' (PILT). These payments were designed to 
offset revenue lost by localities when refuge acquisition results in 
land being removed from tax rolls. A funding level of $20 million is 
needed to fund agreed-to levels of PILT.

                         BUREAU OF RECLAMATION
    The U.S. Bureau of Reclamation (Reclamation) is the lead federal 
agency for supplying water to agricultural producers in the seventeen 
Western states. Reclamation initiated a Water Conservation Field 
Services Program (WCFSP) in 1997 to encourage the efficient use of 
water on federal projects, assist water districts develop and implement 
effective water conservation plans, and complement and support other 
federal, state, and local conservation program efforts. WCFSP is 
designed to provide technical and financial assistance in conservation 
planning, education, demonstration of innovative conservation 
technologies and implementation of effective conservation measures.
    In 1998, Reclamation, NACD, the National Association of State 
Conservation Agencies and the Natural Resources Conservation Service 
initiated a ``Bridging-the-Headgate'' conservation partnership to 
promote collaboration through the WCFSP, and create new opportunities 
for working together between traditional ``on-farm'' and ``off-farm'' 
conservation assistance programs throughout the seventeen Western 
states. The initiative's purpose, in short, is to find ways to work 
together on the common goal of efficient water management. Conservation 
districts recommend funding the WCFSP at $20 million in fiscal year 
2002.

                       BUREAU OF LAND MANAGEMENT
    The Bureau of Land Management (BLML) manages more than 264 million 
acres of land--about one-eighth of the U.S. land mass. The wealth of 
natural resources on these lands will continue to face challenges and 
expanded use as populations continue to grow in the Western United 
States.
    Two years ago, at the urging of NACD and others, the Interior and 
Related Agencies Appropriations Act expanded the use of the Forest 
Ecosystem Health and Recovery Fund (FEHRF) within the Bureau of Land 
Management (BLM) to include additional forestry activities to maintain 
and enhance fish and wildlife habitat, support species diversity and 
produce other multiple forest benefits.
    In spite of the availability of funding under FEHRF for projects, 
BLM lacks the personnel necessary to plan and administer authorized. 
Conservation districts have witnessed a steady 65 percent decline in 
the BLM forestry management budget since 1981. Adjusted for inflation 
over the same period, the entire Management of Lands and Resources 
Budget has declined 10 percent. Conservation districts believe that BLM 
needs to increase its forest management expertise to take advantage of 
FEHRF. Conservation districts recommend earmarking $1.6 million in 
fiscal year 1902 to support the equivalent of 24 forestry positions to 
plan and administer forest health improvement activities under FEHRF.

                 LOCAL AND PRIVATE CONSERVATION GRANTS
    The President's budget proposal includes funding for two new 
programs that provide landowner incentives to expand private lands 
stewardship. The proposal provides $50 million for competitively 
awarded cost-shared landowner incentive grants and $10 million for 
private stewardship grants to support local, private and voluntary land 
and wildlife conservation. While conservation districts strongly 
support the voluntary, incentives-based concept underlying these 
proposals, sufficient details are not yet available to allow us to make 
specific recommendations.

                         OTHER RELATED AGENCIES
    The Rural Abandoned Mine Program (RAMP), administered by USDA's 
Natural Resources Conservation Service (NRCS), addresses health, safety 
and environmental hazards by partnering with state and local 
governments to reclaim abandoned mine lands. However, over the past 20 
years, only about 40 percent of the country's abandoned mine lands have 
been reclaimed.
    RAMP has a proven track record in cleaning up hazards and pollution 
from abandoned mine lands. It also improves rural economies by 
stimulating job creation. A portion of the funds from the Abandoned 
Mine Reclamation Fund (AMRF) are intended to be transferred to NRCS to 
help defray the costs associated with mined land reclamation 
activities. Although the portion of the AMRF targeted for RAMP stands 
at $250 million, very little of those funds have been transferred in 
the past four years.
    Conservation districts strongly support appropriating fully 100 
percent of the fees collected from current mining activities for mine 
land reclamation programs. We recommend funding RAMP at a minimum level 
of $25 million in fiscal 2002.
    On behalf of the nation's 3,000 conservation districts, we 
appreciate the opportunity to provide our views on fiscal year 2002 
funding recommendations for select USDI and related conservation 
programs. We look forward to working with you over the next few months 
in finalizing your proposals.
                                 ______
                                 
Prepared Statement of the National Association of Professional Forestry 
                          Schools and Colleges
    The National Association of Professional Forestry Schools and 
Colleges (NAPFSC) is comprised of the 67 universities that conduct the 
Nation's research, teaching, and extension programs in forestry and 
related areas of environmental and natural resource management. Many 
NAPFSC schools work in close partnership with the USDA Forest Service 
research program through extramural contracts and cooperative 
agreements.
    NAPFSC's testimony will focus on a couple of issues. First, we 
would like to make some specific comments about the research planning 
and priority setting process within Forest Service research. Second, I 
want to reiterate NAPFSC's strong support for an increased focus within 
the Forest Service research agenda on non-federal forest land issues 
and the establishment of a competitive grants component within the 
Forest Service research program.
    forest service research, outreach planning and priority setting
    The Forest Service should be commended for driving much of the 
decision making about research priorities to the individual research 
station level. The scientists and administrators at this level are much 
closer to the ground and the needs of managers in the various federal 
and nonfederal forests in the nation. This is important since there is 
great variety in the forest and range lands of this country and since 
many of the research needs vary from region to region-specific insect 
problems in one region, different social and cultural patterns in 
another region, wildlife needs that vary from one region to the next, 
and so forth.
    In an effort to improve Forest Service priority setting for 
outreach and cooperative programs, NAPFSC encourages the Interior 
Appropriations Subcommittee to urge the Forest Service to improve the 
functioning of the State and Private Forestry (S&PF) operations by 
including the following language within the fiscal year 2002 Interior 
Appropriations bill.

    ``The Committee directs the Forest Service to develop a plan within 
90 days of the enactment of this bill to establish a S&PF Area Office 
to deliver cooperative programs in the Western U.S. Further, the Area 
Office should be co-located with a Forest Service regional office, 
research station, or university forestry school. In addition, managers 
direct the Forest Service to reestablish the Southeastern Area office 
situated in Atlanta, Georgia.''

    By including this provision within the subcommittee report, Members 
will be establishing a western office based upon the model of the 
Northeastern Area office. S&PF functions very efficiently and 
effectively with the Northeastern Area office, but functions much less 
efficiently in the Southeast and the Western regions. The language 
would create similar direction, implementation, coordination, and 
reporting in each region. Specific benefits would be:
  --Recognition of the unique mission area of S&PF;
  --An increase in the ability of stakeholders to participate in the 
        development of priorities and implementation of programs;
  --Bring programs closer to stakeholders, and;
  --Improvement in program efficiency, visibility, and communication in 
        each region.
    One major concern NAPFSC has with the current process of priority 
setting is that university research programs are often left out as the 
Forest Service identifies and formulates research priorities, even 
though in recent years between 8-15 percent of the research funds of 
the Forest Service have been directly spent through university research 
programs. Based upon our information, NAPFSC believes the percentage of 
collaborative research between the Forest Service and universities has 
been flat or may actually have declined in recent years, even though 
Congress has urged that more Forest Service research dollars be spent 
through extramural programs. NAPFSC commends the House Subcommittee for 
the language included under Forest and Rangeland Research in the fiscal 
year 2001 Interior Appropriations report calling for additional 
collaboration: ``The Committee stresses the need for collaborative 
research with land managing agencies, private and public forest 
managers, and especially, universities.''--(pg. 74, H. Rept. 106-646)
    We often find that the Forest Service research program is not 
nearly as coordinated as it might be with university research 
initiatives, possibly leading to sub-optimal allocation of resources. 
At times, it seems the Forest Service is reluctant to bring university 
partners into their planning early in the process, yet for the forestry 
research enterprise to be effective and efficient, collaboration in 
planning is absolutely necessary among these two major players in 
forestry research. This is especially true where the Forest Service 
needs the universities to carry out some of the research they have 
planned. Two immediate benefits of such increased collaboration would 
be greater emphasis on major research activities (providing more bang 
for the same buck) and the building of larger research teams, thus 
providing more scientists to attack specific problems from multiple 
perspectives.
    Greater inclusion of university scientists and administrators in 
the Forest Service research priority setting process would also allow 
universities to be more supportive of the proposals that come through 
the Administration's budget. It has often been the case that we only 
learn about new Forest Service initiatives after the budget proposal is 
released. At this point it is past time to really influence priorities 
and too late to build support for those where support is warranted. It 
often is too late to consider a collaborative and more cost-effective 
approach to the purely internal research program being proposed. It 
also is too late for the Forest Service to gain the insight it could 
use to develop an effective and efficient program of research that 
builds on the total natural resource research capacity of the Nation.
    We believe that the Forest Service can maximize the benefits of its 
research dollars by increasing the share of its budget committed to 
cooperative agreements with our nation's universities. We believe a 
goal for these cooperative agreements of 15-20 percent of the Forest 
Service research budget is achievable and would increase the overall 
return on the research dollars appropriated to the Forest Service. We 
urge the Committee to direct the Forest Service to ensure that such a 
goal for collaborative efforts is met. We would suggest language such 
as:

    ``The Committee is aware that reduced timber harvesting from public 
forests has greatly increased the demands on the nation's private 
forest lands as a source of wood and fiber. These same non-federal 
lands are also under increasing pressures for recreation, wildlife, and 
environmental quality. The Committee urges the Forest Service to 
increase its research focus on private land issues, including forest 
productivity, water quality, and sustained management, and to expand 
its collaborative research efforts with the nation's forestry schools. 
The Committee urges the Forest Service to ensure that at least 15 
percent of its overall research budget is committed to such 
collaborative research activities.''
      the case for enhanced forestry research and outreach funding
    The Bush Administration fiscal year 2002 budget calls for level 
funding for Forest Service's Forest and Rangeland Research at $235 
million, but cuts more than $33 million from the fiscal year 2001 
funding level of $271 million for Forest Service State and Private 
Forestry. NAPFSC urges the committee to at least provide level funding 
for both of these important Forest Service research and outreach 
programs.
    The past, present, and future success of forestry research and 
extension activities arising from the NAPFSC member institutions 
results from a unique partnership involving federal, state, and private 
cooperators. Federal agencies have concentrated on large-scale national 
issues while state funding has emphasized applied problems and state-
specific opportunities. University research in contrast, with the 
assistance of federal, state and private support, has been able to 
address a broad array of applied problems related to technology 
development and fundamental biophysical and socioeconomic issues and 
problems that cross ownership, state, region, and national boundaries.
    The 1998 Farm Bill and various subsequent reports and conference 
proceedings have identified the need for greater attention on the 
emerging issues confronting non-federal forest landowners. NAPFSC is 
pleased to be one of the cofounders of the National Coalition for 
Sustaining America's Nonfederal Forests. The founding of the Coalition 
and its subsequent report emerged from a Forestry Summit held in 1999 
that brought together key forestry leaders and landowners from across 
the nation. The outcome of the Summit confirmed the need for increases 
in forestry research funding focused on non-federal lands and for an 
increase in collaborative efforts between university-based research and 
the federal agencies. We urge the Subcommittee to see that these 
congressional goals are achieved in future Forest Service research 
agenda.
    Tremendous strains are being placed upon the nation's private 
forest lands by the combination of increasing demands for forest 
products coupled with dramatic changes in timber policies concerning 
our National Forests. Because of the changes in federal forest policy, 
private forest lands in the United States are now being harvested at 
rates not seen since the beginning of the 20th century. To meet this 
challenge, research priorities must be adjusted to better address the 
needs of private landowners, and to specifically enhance the 
productivity of such lands through economically efficient and 
environmentally sound means.
    NAPFSC urges the creation of a new program entitled ``Technology 
Transfer and Applied Research'' to forestry schools under the 
Cooperative Forestry Program in the State and Private Forestry (S&PF) 
budget. NAPFSC recommends the following language be included in the 
Interior Appropriations fiscal year 2002 Subcommittee report:

    ``The Committee directs the Forest Service to create a Technology 
Transfer and Applied Research (TTAR) line under the Cooperative 
Forestry Programs in the S&PF budget and direct the S&PF staff to 
establish criteria for a challenge cost share program by consulting 
with forestry schools eligible to receive funds under the McIntire-
Stennis Cooperative Forestry Research Act. Criteria may include cost 
sharing, duration of funding, linkage to state forestry agency efforts, 
linkage to basic and applied research conducted by the subject schools 
or the USDA Forest Service Research and Development, addressing 
critical state needs, and multi-school or multi-state cooperation. 
General themes for this new line may be forest productivity, critical 
forest management information and analysis, and forest fire, or they 
may vary in consultation with the regions (Northeast, Southeast, and 
West). Funds would be equally allocated between the three regions. This 
Technology Transfer and Applied Research (TTAR) program is funded in 
fiscal year 2002 at $5 million.''

    While some of the funds from the various programs within the 
Cooperative Forestry Programs find their way to forestry schools, 
typically via state forestry agencies, there is no program that 
specifically links S&PF with university forestry schools and the 
considerable forestry school based research and technology transfer 
capabilities and networks in those states and institutions. This new 
program would establish such a link and would greatly strengthen 
cooperation among S&PF, state forestry agencies, forestry schools, 
industry, and non industrial forest landowners (via the numerous 
university connections with these entities in states). The partnership 
would provide an effective vehicle for technology transfer of research 
results from USFS Forest Service Research and Development units. Also, 
such a partnership and funding would greatly strengthen the targeting, 
timeliness, and effectiveness of technology transfer and applied 
research focused on state needs relating to stewardship, critical 
information development and analysis, etc. This funding and link would 
be a significant step in addressing the nonfederal forest land research 
and information needs expressed in the recent report ``A National 
Investment in Sustainable Forestry'' prepared by the National Coalition 
for Sustaining America's Nonfederal Forests in June 2000.
    Lastly, NAPFSC believes it is very important that this be funded 
with additional funds to the Cooperative Forestry Programs. This new 
line item should complement rather than compete with the existing set 
of programs.

                               CONCLUSION
    The needed investment for these programs is substantial, but the 
potential returns are enormous and crucial to our society's future. 
Disciplined and rigorous implementation of research on forestry issues 
will contribute greatly to attaining our vision for America's 
nonfederal forests for the future. NAPFSC urges cooperation at federal, 
state, and University's levels to make this research and the vision it 
will support a reality.
                                 ______
                                 
      Prepared Statement of the Southern Environmental Law Center
    The Southern Environmental Law Center is an environmental advocacy 
organization focused on protection of the natural resources of the 
southeastern United States. Among our highest priorities is the 
conservation of healthy forest ecosystems within our region. Toward 
this end, we work closely with a diverse set of ally organizations, 
including the North Chickamauga Creek Conservancy, the Tennessee River 
Gorge Trust, the Lula Lake Land Trust, Georgia Forest Watch, the South 
Carolina Coastal Conservation League, and the Southern Appalachian 
Forest Coalition (a regional coalition of 18 forest conservation 
organizations in this mountain region). On behalf of SELC and these 
partner organizations, I offer the following testimony in support of 
funding the Forest Legacy Program of the U.S. Forest Service at a 
minimum level of $100M, as well as full funding of the state and 
federal sides of the Land and Water Conservation Fund. As outlined 
below, these programs are essential to the conservation of forestland 
and other special areas in our region.
    The above-mentioned conservation groups are active in the 
southeastern states of Tennessee, Virginia, North Carolina, South 
Carolina, Georgia, and Alabama, a region with extensive, relatively 
undisturbed forest lands and other natural areas. The magnificent mixed 
hardwoods of the Southern Appalachian forests provide a focal point for 
shared cultural, recreational, and natural heritage values from 
Virginia to Alabama. Equally impressive is the extensive coastal plain, 
which partially encircles our region from eastern Virginia through the 
two Carolinas and across the southern stretches of Georgia and Alabama. 
This coastal subregion also boasts its own cultural uniqueness and 
special natural heritage, including extensive forested wetlands. 
Linking the mountains and the coastal plain are the great river systems 
of the Southeast, flowing down from the ancient mountains across the 
intervening piedmont to the Atlantic, the Gulf and the Mississippi 
River. Within each of these subregions, critical needs exist for 
conservation efforts, which can only occur with significant federal 
funding.

              THE NEED FOR INCREASED CONSERVATION FUNDING
    While ample conservation opportunities still exist here, the South 
is under unprecedented development pressure due to rapid population 
growth. The South (broadly defined from Maryland around to Texas) grew 
by an impressive 17 percent during the 1990's,\1\ adding some 15M 
people to reach a total population of 100M. This gain in population was 
greater than any other region of the country over the past decade. At 
the heart of this Southern growth are several of our southeastern 
states, some of which grew at phenomenal rates: Georgia by 26 percent 
and North Carolina by 21 percent, for example.
---------------------------------------------------------------------------
    \1\ Perry, Marc J. and Paul J. Mackun. ``Population Change and 
Distribution: 1990 to 2000.'' U.S. Department of Commerce, U.S. Census 
Bureau. April 2001.
---------------------------------------------------------------------------
    This population growth, coupled with our sprawling land use 
patterns, means that the Southeast is now experiencing a rapid 
conversion of undeveloped land to urban and suburban uses. In a recent 
study of land conversion nationwide, Georgia, North Carolina, 
Tennessee, and South Carolina all ranked in the top ten states with 
respect to the most land converted to developed uses in recent 
years.\2\ Between 1992 and 1997, North Carolina lost 101,000 acres of 
undeveloped land annually, Tennessee another 80,000 acres annually, and 
South Carolina 72,000 acres annually. Many of the lost acres were 
forestland, which is discussed below, in connection with the Forest 
Legacy Program. These figures on population growth and rural land loss 
indicate that the Southeast has an urgent need for conservation 
dollars. If we cannot seize the current opportunities to conserve 
undeveloped lands in our region in the immediate future, that 
opportunity may well be lost forever.
---------------------------------------------------------------------------
    \2\ USDA Natural Resources Conservation Service. ``Summary Report: 
1997 National Resources Inventory (Revised December 2000)''. Table 2. p 
21. 2000.
---------------------------------------------------------------------------
    The conservation of these undeveloped areas has great significance 
for the quality of life, economic health, and natural heritage of our 
region. In several states, the tourism and recreation industry ranks 
with the very top tier of industrial sectors in economic importance. 
The viability of this part of our economy is largely dependent on the 
maintenance of scenic beauty and open space, as well as wildlife and 
aquatic habitat for hunting and fishing.
    Investing in land conservation in this region is also extremely 
important to the ecological diversity of our nation. The Southeast is 
one of the two regions with the highest ecological community diversity 
in the United States. Within the Southeast, the Atlantic and Gulf 
coastal plains and the Appalachian highlands are the hotspots of 
ecological diversity. These are also two of the areas most threatened 
by current trends. For example, the recently completed North Carolina 
Chip Mill Study \3\ found that 80 percent of bird species of 
conservation concern, 95 percent of reptile species of conservation 
concern and all amphibians of conservation concern on the North 
Carolina coastal plain are projected to be negatively impacted by 
forest trends over the next 20 years. Protection of our region's 
natural forest ecosystems such as longleaf pine, forested wetlands and 
mature hardwoods is crucial to maintaining the outstanding ecological 
diversity in the Southeast.
---------------------------------------------------------------------------
    \3\ Cubbage, F., D. Richter, R. Schaberg and P.B. Aruna. Economic 
and Ecological Impacts Associated with Wood Chip Production in North 
Carolina. Southern Center for Sustainable Forests. 31 July 2000.
---------------------------------------------------------------------------
         protect forest land through the forest legacy program
    Forestland in the Southeast is, however, now at significant risk 
due to the population growth and economic development of recent 
decades. From 1992 to 1997, forests were the land use type most 
commonly converted to developed uses.\4\ North Carolina is, perhaps, 
being most adversely affected in terms of absolute numbers of acres 
lost. This state lost 53,000 acres of forestland annually during the 
most recent reporting period (1992-97) and 79,000 acres annually during 
the previous reporting period (1987-1992). The rate of forest land 
loss, however, is a particular concern in Tennessee where the number of 
acres lost has recently (1992-97) jumped 13-fold from previous years 
(1987-1992).
---------------------------------------------------------------------------
    \4\ USDA. ``1997 National Resources Inventory.''
---------------------------------------------------------------------------
    Faced with these alarming trends, several southeastern states have 
enrolled in the Forest Legacy Program, which has the statutorily 
mandated purpose of conserving ``environmentally important forest 
areas.'' 16 U.S.C. Sec.  2103c(a). Tennessee and the two Carolinas were 
the earliest participating states from our region, with Virginia and 
now Georgia joining the effort.
    The initial projects in the Southeast testify to the importance of 
the Forest Legacy Program in our region. Previously appropriated Forest 
Legacy dollars have enabled several successful conservation projects. 
For example, South Carolina wisely used its fiscal year 2000 
appropriation of $1M for the purchase in fee simple of 571 acres 
adjoining the spectacular Jocassee Lands, part of the Blue Ridge 
Escarpment which stretches from the Chattooga River to the Mountain 
Bridge Wilderness. In Tennessee, federal funding of $2.3M in fiscal 
year 2001 is enabling the North Chickamauga Creek Watershed project to 
move forward with acquisition of conservation easements on some 5,000 
acres. These tracts are part of a 39,000 acres watershed in the fast 
growing Chattanooga metropolitan area containing numerous endangered, 
threatened and rare species as well as unique scenic and cultural 
values.
    In addition to these already initiated projects, significant 
additional Forest Legacy opportunities exist throughout our region. 
Some of these are truly ``once in a lifetime'' opportunities which are 
related to the extensive disposition of forest industry lands which is 
currently underway. The most recent Tennessee Forest Inventory and 
Analysis indicates, for example, that the forest industry owned 
approximately 10 percent of the forest land in that state, or some 1.4M 
acres. According to a report by the Tennessee Forest Commission, this 
ownership pattern is changing dramatically, with almost half a million 
of those acres recently sold or currently up for sale.\5\ Similar 
restructuring by the forest industry in other states is creating 
additional, truly historic opportunities for public land acquisition 
throughout the Southeast.
---------------------------------------------------------------------------
    \5\ Tennessee Forestry Commission. ``Tennessee Forest Industry 
Lands.'' January 30, 2001.
---------------------------------------------------------------------------
    Specific examples of worthy projects in need of immediate funding 
through the Forest Legacy Program include the following:
  --South Carolina.--Coastal Forest Ecosystem Restoration Initiative, 
        Phase II--$10 million for the acquisition of conservation 
        easements and fee simple rights on 22,000 acres along the Pee 
        Dee river, protecting black and red river swamps, near the 
        Waccamaw National Wildlife Refuge. This project is particularly 
        significant given the alarming rate of loss of forested 
        wetlands in the Southeast in recent decades.
  --Tennessee.--Tennessee River Gorge and North Chickamauga Creek 
        Watershed projects, including the Aetna Mountain and Gwynn 
        tracts, respectively--The first-mentioned tract is a 2,400 acre 
        area, partially abutting already protected lands, comprised of 
        mature upland forest dissected by deep gorges with mature cove 
        hardwoods. Acquisition of a conservation easement on the 3,400 
        acre Gwynn tract, adjoining the 26,000 acre Prentice Cooper 
        State Forest near Chattanooga, would provide conservation 
        linkage between these two ongoing land protection initiatives 
        in the North Chickamauga Creek and Tennessee River Gorge Forest 
        Legacy Areas. (Tennessee is requesting a total of $10.7M for 12 
        projects covering 8,735 acres in fiscal year 2002.)
  --North Carolina--Shocco Creek.--$2.9 million for the fee simple 
        acquisition of 1283 acres of floodplain surrounding the only 
        stream known to contain two specific federally endangered 
        mussels. This is only 1 of 6 preliminarily identified projects, 
        totaling some $8.5M in Forest Legacy requests.

  PROTECT SPECIAL PLACES THROUGH THE LAND AND WATER CONSERVATION FUND
    Also critical to conservation efforts in the Southeast is the full 
funding of the Land and Water Conservation Fund. After an unfortunate 
hiatus in needed support, last year's federal appropriation began to 
revitalize this popular program. It should be fully funded in this and 
coming years in order to take full advantage of important land 
conservation opportunities in the Southeast and across the country. A 
wide variety of projects (urban and rural, large and small) have been 
identified through our six state region and enjoy support from diverse 
constituencies, ranging from urban recreation users to backcountry 
hunters and fishers.
    While LWCF enables the states and multiple federal agencies to 
complete many different kinds of projects, several proposed additions 
to our public lands in the Southeast are especially noteworthy. While 
our region is home to several of the most extensive National Forests in 
the East, these lands tend to be highly fragmented. Accordingly, their 
recreational, scenic and ecological values can be significantly 
enhanced by acquisition of nearby parcels from willing sellers. A few 
of the projects in need of immediate LWCF funding in our region, all of 
which have been rated as national priorities by the Forest Service, are 
provided here:
  --Chattahoochee River (GA).--$2.7M--This 160 mile long buffer along 
        the river would protect forests and provide open space to 
        communities.
  --Chattooga Wild & Scenic River/Watershed (GA/NC/TN).--$4.3M. This 
        river corridor traversing three states has been a long-term 
        national priority for watershed-based conservation efforts.
  --Francis-Marion Forests & Wetlands (SC).--$7.0M. Additions to this 
        national forest on the coastal plain of South Carolina would 
        help complete a public land base generally known both for its 
        longleaf pine and low-lying wetland forests.
  -- Lake James (NC).--$5.0M. These parcels on the fragmented, eastern 
        edge of the Pisgah National Forest enjoy strong local support 
        for public acquisition due to encroaching development.
    In closing, Mr. Chairman, the above-listed conservation 
organizations from the Southeast strongly support both full funding for 
LWCF and greatly increased appropriations for the Forest Legacy 
Program. We appreciate this opportunity to acquaint you with the 
significant conservation opportunities that exist in our region at 
present as well as the urgent need for federal support to move forward 
with protection of forestland and other special areas in the Southeast.
                                 ______
                                 
    Prepared Statement of the Southern Appalachian Forest Coalition
    It is our pleasure to submit this testimony on behalf of the 
Southern Appalachian Forest Coalition (SAFC), a collaborative alliance 
of 18 conservation organizations working to protect the native forests 
of the southern mountains from Virginia to Alabama. Our comments focus 
on funding for the national forests of the Southern Appalachians, with 
an eye toward conserving these biologically rich and much-loved public 
lands. To accomplish that overarching goal, we ask that the following 
steps be taken in the appropriations process for fiscal year 2002:
        reduce timber sale subsidies for the u.s. forest service
    Budget priorities and incentives that favor timber production over 
other uses perpetuate management problems on the National Forests. Over 
$1,200,000,000, or one third of the agency's budget request for fiscal 
year 2001, is allocated for logging including outlays for timber sale 
planning, timber management, road expenditures, and reforestation 
activities. To put the timber budget in perspective, appropriations for 
watershed, wildlife, and recreation programs combined comprise only 11 
percent of the agency's budget.
    Logging continues to damage forest ecosystems at great cost to the 
American taxpayer. In 1998 alone, the Forest Service documented that 
the timber program cost $125,900,000 more than the revenue it 
generated. This is an underestimate, as the Forest Service's accounting 
methods do not include all the costs associated with the timber 
program. For instance, the annual Timber Sales Program Information 
Reporting System (TSPIRS) excludes the payments the Forest Service 
makes to counties based on timber sales on federal lands.
    Even the U.S. Congress has acknowledged the problem of the money-
losing timber program. The Congressional Budget Office has produced a 
report addressing this problem which can be viewed at ftp://
ftp.cbo.gov/27xx/doc2731/300.pdf. The report estimates the funds that 
would be conserved in the federal budget if money-timber sales were 
eliminated. Total savings over the period 2002-2011 would be an 
astonishing $1,600,000,000 (relative to current appropriations, and 
adjusted for inflation). The report notes the drawbacks of below-cost 
timber sales: ``They may lead to reductions in the federal surplus, 
excessive depletion of federal timber resources, and the destruction of 
roadless forests that may have recreational value'' (page 2). 
Meanwhile, Forest Service RPA data (1995) show that the economic 
benefits of forests left intact for recreation are thirty times greater 
than the economic value of forests harvested for their timber.

       INCREASE FUNDING FOR LEGITIMATE RESTORATION SUCH AS ROAD 
    DECOMMISSIONING AND OBLITERATION, INVASIVE SPECIES, STREAMSIDE 
   REHABILITATION, SPECIES REINTRODUCTION, AND SIMILAR CONSERVATION 
                               OBJECTIVES
    While the timber program never lacks sufficient appropriations from 
Congress, nontimber-related programs suffer for lack of adequate 
funding. Funding for road maintenance and obliteration is an important 
example. Over 433,000 miles of road criss-cross the National Forests. 
The Forest Service estimates that 82 percent of these roads are not 
maintained to modern public safety and environmental standards. The 
agency estimates that there is an $8,000,000,000 backlog in 
reconstruction and maintenance on these roads. Funding for road 
maintenance, decommissioning, and obliteration are investments in 
future dividends--in the form of improved wildlife habitat for species 
that avoid roads (such as black bears)--and also are insurance against 
degradation of water quality and fish habitat, since roads in poor 
condition are a major source of sediment runoff into streams.
    Wildlife and fisheries programs are also considerably under-funded. 
A significant portion of the funds allocated to wildlife and fisheries 
programs are devoted to assessing the impacts of extractive activities 
on terrestrial and aquatic species. Because agency ecologists, 
biologists, and hydrologists spend so much time predicting impacts from 
extractive pursuits such as logging and mining, they often cannot work 
proactively to improve and protect habitat. The Forest Service manages 
more acres of freshwater fish habitat than any other agency. In 
addition, almost 65 percent of all listed aquatic species in the U.S 
occupy habitat on public lands. In order to accomplish true multiple-
use objectives we need to increase funding for activities that will 
restore and enhance existing fish and wildlife habitat.

               FULLY FUND THE FOREST SERVICE ROADS POLICY
    The Road Management Strategy Rule and Policy was published in the 
Federal Register on January 12, 2001. The overall emphasis of the new 
strategy is to ``balance scientific information, public needs, safety 
and environmental protection, and funding levels.'' The Strategy 
proposes an important shift in emphasis from ``transportation 
development'' to ``managing access within the capability of the land.'' 
It provides programmatic guidance for future management of the Forest 
Service's road network; it does not make on-the-ground land management 
decisions. Such decisions--e.g., how many miles of roads will be 
decommissioned, and what road density standards or limits to road 
construction should be observed in sensitive areas--will be developed 
through the Roads Analysis Process, a key component of the new strategy 
which will occur with input at the local forest level. This public 
process will require adequate funding to be successful; please provide 
full support for this important effort.

PROHIBIT FUNDING TO BUILD ROADS OR LOG IN ROADLESS AREAS, OR TO LOG OLD 
                             GROWTH FORESTS
    The Roadless Area Conservation Rule, established in January of this 
year, enjoyed the greatest degree of public support in U.S. rulemaking 
history. Over 1,500,000 Americans submitted comments favoring this 
federal rule, which is awaiting implementation even as the President 
urges the Justice Department to find ways to overturn it. The effort to 
protect roadless areas goes back to 1926, when then-Chief William 
Greeley directed the Forest Service to conduct the first inventory of 
roadless areas. Please work to uphold the public's long-standing desire 
to protect these last intact national forest areas from road building 
and development.
    The nation's last remaining old growth forests deserve similar 
protection. According to a 1995 study by the US Department of 
Interior's National Biological Service, less than 5 percent of the 
lower 48 states' original old growth forests remain. In the Southern 
Appalachians, that figure is smaller still. Even so, SAFC has supported 
field inventories of remaining old growth forest in North Carolina that 
are now accepted by our national forest planners. Old growth is 
recognized as having great ecological and economic importance. These 
forests act as repositories for genetic diversity, harbor medicinal 
plants and potential new treatments for disease, provide critical 
habitat for a great variety of wildlife, and are sources of drinking 
water for downstream communities. What is more, economists understand 
that preserving these incredibly beautiful forests contributes to the 
high quality of life which draws new businesses--from recreation to 
high technology--to rural communities, helping to diversify the local 
economic base. If leading corporations including The Home Depot can 
pledge to end use of old growth wood, isn't it time for federal 
policies to bring an end to the destruction the last of the oldest, 
tallest living things on earth?

  EARMARK FUNDING FOR MAPPING AND INVENTORYING OLD GROWTH FORESTS ON 
                         NATIONAL FOREST LANDS
    Former Chief Michael Dombeck announced in January that the agency 
is to complete old growth mapping and inventories as soon as possible. 
His announcement validated a de facto old growth mapping effort that 
has been ongoing on some of our region's national forests (the North 
Carolina National Forests, and the George Washington and Jefferson 
National Forests). The remaining Southern Appalachian national forests 
need to join in. Adequate funding and direction from Congress to 
complete this important work is critical now.

 INCREASE FUNDING FOR LISTING ENDANGERED SPECIES AND CRITICAL HABITAT 
                                (USFWS)
    Each year Congress allocates some $200,000,000 on endangered 
species conservation for over 1,100 listed species. Recent history 
shows that the Endangered Species Program is grossly under-funded. A 
1990 Department of Interior Inspector General's report emphasized this 
funding shortfall, noting: ``It is obvious that the Service's [ESA] 
mission cannot be fully accomplished at present funding levels.'' Last 
year, the Service placed a moratorium on any new species listings, 
citing a backlog in critical habitat designation and other required 
functions for already-listed species.
    In the last 10 years ESA funding needs have increased tremendously: 
the number of listed species has doubled, increasing the need for 
recovery planning, implementation, consultations, and monitoring. Yet 
in that time, the funding for the program has shrunk. Under-funding the 
program is a mistake that ultimately will have far-reaching effects. A 
recent article in U.S. News and World Report found that nature provides 
us with an estimated $33 trillion in services each year, including: (a) 
crop pollination from insects, bats, and birds; (b) proceeds from 
recreational fishing, wildlife and bird watching; (c) commercial uses 
of wild fish and plants; (d) animals and insects controlling crop 
pests; and more.
    A fully-funded ESA is a more cost-effective ESA. With a program 
that provides protection to species as soon as possible, we will be 
able to catch species early in their decline before recovery options 
have become limited and recovery costs have skyrocketed. For species, 
funding means they will receive protection when they need it, rather 
than at the last minute when chances of long-term survival are grim. 
For landowners, as well as public land managers, full funding means 
that the agencies can respond to their need for permit or consultation 
more quickly, thereby avoiding costly and frustrating delays.
    Endangered species funding is needed for:
  --scientific assessments of wildlife populations
  --buying important habitat areas in threat of development
  --review of mining, logging, grazing, and other harmful actions
  --recovery planning and on-the-ground conservation programs
  --stopping illegal trade of endangered animals and plants
    A century ago, your Congressional predecessors allocated ``a sum 
not to exceed $5,000'' to ``investigate the forest conditions in the 
Southern Appalachian Mountain region'' in the wake of rapacious 
commercial timbering. It is to their credit that the subsequent report 
by Secretary of Agriculture, James Wilson, led to the creation of the 
first National Forests east of the Mississippi River and the natural 
bounties we enjoy and depend upon today.
    Similarly, it will be to your credit and the benefit of generations 
to come if we are to address the issues cited above in a robust and 
sustainable way. To do so will clearly require a sum far in excess of 
what was spent back in 1901. Yet rest assured that funds appropriated 
today toward the long-term health of Southern Appalachian forests will 
return dividends in the next century just as great, ecologically, 
socially and economically, as they were in the century past.
    We thank you for this opportunity to comment, and wish you well in 
your deliberations.
                                 ______
                                 
        Prepared Statement of the Georgia Appalachian Trail Club
    The Georgia Appalachian Trail Club is an organization with a 
principal purpose of protecting, managing, and maintaining the 
Appalachian National Scenic Trail, its associated side trails, and 
other designated trails in the state of Georgia. As a part of the 
protecting and managing function we sponsor programs to encourage the 
responsible use of public lands by hikers and campers and encourage 
observation of conservation ethics. We maintain the view that the 
preservation of the experience of enjoying the Appalachian Trail 
requires not only the protection of the trail corridor itself but the 
entire north Georgia region. To promote our goal of protecting the 
water, the plants, and wildlife in this area--all of which are 
important to users of the Appalachian Trail--we work closely with the 
Appalachian Trail Conference, Georgia Forest Watch, the Wilderness 
Society, and a number of state and federal agencies having management 
responsibilities for public lands in Georgia. As President of the 
Georgia Appalachian Trail Club, I present this testimony in support of 
funding the Forest Legacy Program of the US Forest Service at a minimum 
level of $100M and the full funding of the state and federal sides of 
the Land and Water Conservation Fund.
    The forests of north Georgia are some of the most magnificent 
forests in the entire state. They also contain some of the most 
biologically diverse watersheds in the United States, and indeed the 
world. The Chattahoochee River originates on National Forest land and 
provides drinking water for over four million people. The rivers and 
forests not only supply drinking water but also supply recreational 
opportunities for a rapidly expanding Atlanta population. The southern 
terminus of the Appalachian Trail on Springer Mountain lies deep within 
the Chattahoochee National Forest. Last year, the Chattahoochee 
National Forest, including the trails in this forest, received over ten 
million recreational visits, a number which rivals the twelve million 
received by the Great Smoky Mountains National Park, the most visited 
National Park in the United States.

                       AN OPPORTUNITY AND A NEED
    While ample conservation opportunities still exist here, north 
Georgia is under unprecedented development pressure due to rapid 
population growth. Georgia is now the 10th most populated state in the 
country with nearly 6.5 million people. The South (broadly defined from 
Maryland around to Texas) grew by an impressive 17 percent during the 
1990's adding some 15M people to reach a total population of 100M. This 
gain in population was greater than any other region of the country 
over the past decade. At the heart of this Southern growth are several 
of our southeastern states, some of which grew at phenomenal rates: 
Georgia by 26 percent and North Carolina by 21 percent, for example.
    This population growth, coupled with our sprawling land use 
patterns, means that the Southeast is now experiencing a rapid 
conversion of undeveloped land to urban and suburban uses. In a recent 
study of land conversion nationwide, Georgia, North Carolina, 
Tennessee, and South Carolina all ranked in the top ten states with 
respect to the most land converted to developed uses in recent years. 
Between 1989 and 1997, north Georgia lost over 90,000 acres of forest 
and agricultural land to development. These figures on population 
growth and rural land loss indicate that Georgia has an urgent need for 
conservation dollars. If we cannot seize the current opportunities to 
conserve undeveloped lands in our region in the immediate future, that 
opportunity may well be lost forever.
    The conservation of these undeveloped areas has great significance 
for the quality of life, economic health, and natural heritage of our 
region. The attractiveness and viability of this region is largely 
dependent on the maintenance of scenic beauty and open space. Investing 
in land conservation in north Georgia is also extremely important to 
the ecological diversity of our nation. The Southeast is one of the two 
regions with the highest ecological community diversity in the United 
States. Within the Southeast, the Atlantic and Gulf coastal plains and 
the Appalachian highlands are the hotspots of ecological diversity. 
These are also two of the areas most threatened by current trends. For 
example, the recently completed North Carolina Chip Mill Study found 
that 80 percent of bird species, 95 percent of reptile species, and all 
amphibians on the North Carolina coastal plain are projected to be 
negatively impacted by forest trends over the next 20 years. Protection 
of our region's natural forest ecosystems such as longleaf pine, 
forested wetlands and mature hardwoods is crucial to maintaining the 
outstanding ecological diversity in the Southeast.
  protect special places through the land and water conservation fund
    Critical to conservation efforts in north Georgia is the full 
funding of the Land and Water Conservation Fund. It should be fully 
funded in this and future years in order to take full advantage of 
important land conservation opportunities. A number of projects have 
been identified in our north Georgia area and these projects enjoy 
support from diverse constituencies, especially campers, hikers and 
fishermen.
    While LWCF enables the states and multiple federal agencies to 
complete many different kinds of projects, several proposed additions 
to our public lands in Georgia are particularly noteworthy. While 
Georgia is home to two of our National Forests in the East, these lands 
tend to be highly fragmented and are under intense pressure from urban 
sprawl. For example, the Chattahoochee National Forest in north Georgia 
is one of only two national forests in the eastern United States 
officially designated by the Forest Service as an ``Urban'' National 
Forest. This designation was derived from the fact that the 
Chattahoochee NF is within a short drive for over four million people. 
Accordingly, their recreational, scenic and ecological values can be 
significantly enhanced by acquisition of nearby parcels from willing 
sellers. A few of the projects in need of immediate LWCF funding in our 
state, all of which have been rated as priorities by the Forest 
Service, are outlined below. In each of these situations progress has 
been made toward the protection of these watersheds and ecosystems, but 
additional specific properties must be acquired to adequately protect 
these special areas.
  --Springer Mountain/Appalachian Trail Corridor--$1.5M.--This mountain 
        is the southern terminus of the Appalachian Trail. A critical 
        property needed to protect the viewshed at this location has 
        been identified.
  --Chattahoochee River (GA)--$2.7M.--This 160-mile long buffer along 
        the river would protect forests and provide open space to 
        communities.
  --Chattooga Wild & Scenic River/Watershed (GA/NC/TN)--$4.3M.--This 
        river corridor traversing three states has been a long-term 
        national priority for watershed-based conservation efforts.
    Plus, an additional $1.3M for tracts in the following areas:
  --The Jacks River (GA).--These tracts are on the main tributary of 
        the Conasauga River, the most biologically diverse river in the 
        U.S., and home to 92 species of fish--species that rely on 
        unfragmented ownership to decrease ever-threatening non-point 
        source pollution.
  --Mt. Yonah (GA).--One of Atlanta's favorite mountain playgrounds, 
        the purchase of this tract will expand the areas recreational 
        capacity and reduce impact to rare and fragile botanical areas.
  --Etowah River (GA).--This tract will increase the buffer on one of 
        Georgia's most imperiled rivers. The Etowah is threatened by 
        urban sprawl and second-home development.

                     FUND THE FOREST LEGACY PROGRAM
    We support the full funding of the Forest Legacy program in our 
state. Georgia's draft Assessment of Need (AON) for Forest Legacy 
funding resulted in the identification of six areas in Georgia that 
could possibly benefit. These areas contain Georgia's most significant 
watersheds and unbroken forested lands. The full funding of Forest 
Legacy could result in as much as $500,000 this first year to purchase 
Conservation Easements from willing sellers.
    In summary and closing, Mr. Chairman, the Georgia Appalachian Trail 
Club strongly supports both full funding for LWCF and greatly increased 
appropriations for the Forest Legacy Program. We appreciate this 
opportunity to acquaint you with the significant conservation 
opportunities that exist in our state at present and how these 
opportunities will support the protection and maintenance of the 
Appalachian National Scenic Trail in Georgia.
                                 ______
                                 
 Prepared Statement of the Appalachian Partnership for Eastern Forests

                                OVERVIEW
    The Forest Legacy Program was created in the Farm Bill of 1990. The 
program was designed to provide a new funding source and mechanism for 
forest protection in the highly threatened forests of the eastern 
United States. The eastern forests, and particularly the charismatic 
Appalachian Forest, are at serious risk of permanent degradation and 
fragmentation from the nation's most rapid rates of development and 
timber harvest. Unlike the western United States, where many states 
have as much as half of the land base in public ownership, eastern 
forests are predominantly in private hands (84 percent) and 
unprotected.\1\
---------------------------------------------------------------------------
    \1\ Hertel, Gerard. ``The Eastern Non-industrial Private Forests''. 
USDA Forest Service. 2000.
---------------------------------------------------------------------------
    Management of these abundant private lands will become even more 
important in future years. The Forest Service projects that timber 
production from non-industrial private forestlands will increase by 64 
percent over the next 50 years.\2\ As it stands now, eleven of the top 
fifteen states in the nation for timber removals are in the eastern 
forests.\3\ Almost two-thirds of the timber removals in eastern forests 
are from the lands of non-industrial private landowners.\4\
---------------------------------------------------------------------------
    \2\ Ibid.
    \3\ USDA Forest Service. ``Net Annual Growth, Removals, and 
Mortality of Growing Stock on Timberland in the United States by 
Species Group, Region, Subregion, and State''. 1996
    \4\ Hertel, ibid.
---------------------------------------------------------------------------
    Development will also increase in this densely populated region. 
The population is booming in states like Pennsylvania, Georgia, and 
Massachusetts, leading to rapid development. From 1992 to 1997, 
Pennsylvania and Georgia ranked number two and three nationally in 
acres developed, over 1.7 million acres just between the two states.\5\ 
All trends suggest that this rate of forest and farmland conversion 
will only increase.
---------------------------------------------------------------------------
    \5\ USDA Natural Resources Conservation Service. ``State Rankings 
by Acreage and Rate of Non-Federal Land Developed''.
---------------------------------------------------------------------------
    The Forest Legacy Program can help right this balance by adding 
some lands to public ownership while protecting other lands kept in 
private hands through the use of conservation easements. The 
flexibility of the Forest Legacy Program enables governments and land 
managers to work harmoniously with local communities, crafting 
conservation strategies that fit each individual situation.
    The Forest Legacy Program also takes advantage of the impressive 
commitment of states in the region to forest protection. States like 
North Carolina, New Jersey, and Vermont have been aggressive in funding 
protection for open space. Throughout the region states are setting 
aside unprecedented new sums for protection of natural areas, 
watersheds, and wildlife habitat. The Forest Legacy Program's matching 
requirement of 25 percent for each project assures that federal money 
from the program will be leveraged with state and private money for the 
maximum impact.

                            LOOKING FORWARD
    The Forest Legacy Program has historically been used to protect 
forests in New England, with smaller sums going towards projects in 
other states scattered across the country. However, as pressures on 
forestlands have grown throughout the East, other states have hurried 
to join the program. Although the overall program allocation has grown 
somewhat, it has not increased quickly enough to keep up with overall 
demand. The appropriation in fiscal year 2001 of 60 million dollars was 
only half of the almost 120 million dollars in requests that came in 
from the 22 states in the program.
    Now even more states are joining the program, including states like 
Georgia, Alabama, and Pennsylvania that have some of the nation's 
highest rates of timber removals and development. The need for Forest 
Legacy dollars will only grow more acute in the coming years.
    The Forest Legacy Program requests for this year could easily reach 
200 million dollars. In the Appalachian Forest and surrounding areas 
alone there are over 125 million dollars in identified Forest Legacy 
projects that would meet critical needs. Effective conservation of the 
eastern forests, including priority areas like the Southern 
Appalachians, Highlands, and Northern Forest, will require at least a 
100 million dollar appropriation for the Forest Legacy Program in 
fiscal year 2002.

       SAMPLING OF FOREST LEGACY PROJECTS IN THE EASTERN FORESTS
Northern Forest Region
    West Branch Project, Maine.--An ambitious and unprecedented project 
to conserve 656,000 acres along the West Branch of the Penobscot River 
in the heart of Maine's North Woods, this public-private undertaking 
will prohibit development, preserve traditional public access, and 
allow continued commercial forest management, while protecting precious 
ecological, recreational and scenic resources. The Forest Legacy 
Program was instrumental in securing phase I of this project in fiscal 
year 2001, but the all important Phase II will safeguard such 
remarkable features as the headwaters of the St, John River, the West, 
South and North Branches of the Penobscot River and other shore, 
mountain and ecologically significant areas. This project will require 
$19,600,000 from Forest Legacy in fiscal year 2002.
    The International Paper Lakes, New York.--Bordering the Whitney/
Lake Lila Wilderness Area in the Oswegatchie Wildland are miles of 
forested tracts containing numerous lakes and historic canoe routes 
long closed to the public. 26,500 acres, still owned by International 
Paper, are an excellent candidate for state acquisition of the Forest 
Preserve or a sustainable forestry easement. This project will require 
$11,000,000 from Forest Legacy in fiscal year 2002.
    West Mountain, Vermont.--The 22,000 acres of the West Mountain 
Wildlife Management Area comprise a truly wild place of rare plants and 
tranquility, deep within Nulhegan Basin. The area provides critical 
habitat for bear, moose, and bobcat, loons and bald eagles, and is a 
great draw for outdoor enthusiasts. Protecting remaining inholdings in 
this special place through the Forest Legacy program is the key to 
building a strong future for nearby Northeast Kingdom communities such 
as Island Pond, Burke and Bloomfield. This project will require 
$412,000 from Forest Legacy in fiscal year 2002.
Highlands Region
    Sterling Forest, New York.--Sterling Forest is certainly one of the 
most remarkable conservation projects in the history of the Appalachian 
Forest. This large wildland of pure waters and interior forests just 
miles from New York City is threatened by development. Despite the 
incredible pressures to develop the land, a coalition of governments 
and private interests has used the Forest Legacy Program among other 
sources to begin to protect this special place. The ultimate result 
will be enduring clean water supplies, wildlife habitat and 
recreational opportunities for the nation's most densely populated 
region.
    Newark Watershed Lands (Phase IV), New Jersey.--This critical basin 
in New Jersey contains one of the state's largest blocks of intact 
forest. The effort to preserve this land has been a multi-year effort. 
This phase includes 2,700 acres of land in West Milford and Rockaway 
Townships to be secured with a conservation easement that secures 
public access. The area is significant habitat for sensitive species 
including the barred owl, red-shouldered hawk, and bobcat. This project 
will require $5,000,000 from the Forest Legacy Program in fiscal year 
2002.
    Lake Gerard, Hardyston Township, NJ.--The protection of the Lake 
Gerard property has been of critical importance to the Trust for Public 
Land, the State of New Jersey and a broad coalition of conservation and 
municipal partners. The property, which is located within the Sparta 
Mountain Greenway, a Highlands Coalition Critical Treasure Area, 
includes nearly 2,000 acres of contiguous forest, pristine waterways 
and critical wildlife habitat. Acquisition would provide a link between 
Hamburg Wildlife Management Area and lands protected through NJDEP 
easements within the Newark Pequannock Watershed. The Lake Gerard 
property represents one of the finest large tracts of land in the fast 
developing New Jersey Highlands region. The project will require 
$4,000,000 from the Forest Legacy Program in fiscal year 2002 to 
protect 1,893 acres.
Southern Appalachian and Coastal Plain Regions
    Coastal Forest Ecosystem Restoration Initiative, Phase II, South 
Carolina.--This project involves the acquisition of conservation 
easements and fee simple rights on 22,000 acres along the Pee Dee 
River, protecting black and red river swamps near the Waccamaw National 
Wildlife Refuge. This project is particularly significant given the 
alarming rate of loss of forested wetlands in the Southeast in recent 
decades. This project will require $10,000,000 from Forest Legacy for 
fiscal year 2002.
    Tennessee River Gorge and North Chickamauga Creek Watershed, TN.--
The 2,400 acre Aetna Mountain tract is a rich forest area partially 
abutting already protected lands, comprised of mature upland forest 
dissected by deep gorges with mature cove hardwoods. Acquisition of a 
conservation easement on the 3,400 acre Gwynn tract, adjoining the 
26,000 acre Prentice Cooper State Forest near Chattanooga, would 
provide conservation linkage between these two ongoing land protection 
initiatives in the North Chickamauga Creek and Tennessee River Gorge 
Forest Legacy Areas. Tennessee is requesting a total of $10,700,000 
from Forest Legacy for 12 projects covering 8,735 acres in fiscal year 
2002.
    Shocco Creek, North Carolina.--This project involves the fee simple 
acquisition of 1,283 acres of floodplain surrounding the only stream 
known to contain two specific federally endangered mussels. This 
project will require $2,900,000 from Forest Legacy in fiscal year 2002.

                                SUMMARY
    The projects listed for each region are just a sample of the 
critical areas in the eastern forests at immediate risk from conversion 
to non-forest uses. Full funding of all the Forest Legacy project 
opportunities in any one of the three priority regions--the Northern 
Forest, Highlands, and Southern Appalachians--would consume almost the 
bulk of last year's 60 million dollar appropriation for the Forest 
Legacy Program. As our need for forest conservation in the eastern 
forests becomes more urgent, we must respond with increased funding for 
land protection.
    Looking ahead, the Forest Legacy Program will have to grow at a 
rapid rate to continue to meet demand. Forest Legacy easements and 
acquisitions will be a critical piece of achieving universal public 
goals like preventing sprawl, protecting water supplies, and conserving 
forest wildlife habitat. Remarkably, the program's inherent flexibility 
has allowed us to achieve these goals without some of the conflicts 
surrounding other land management schemes.
    The densely populated eastern United States is deeply dependent on 
these forests, as a source of clean water and air, wildlife habitat, 
for recreational opportunities, and as an enduring economic engine. 
Without a dramatic increase in funding for the Forest Legacy Program 
and other land protection programs, we may lose the eastern forests 
that are the source of life for rural and urban communities alike.
                                 ______
                                 

                          DEPARTMENT OF ENERGY

      Prepared Statement of the Coal Utilization Research Council
    These written comments are submitted on behalf of the members of 
the Coal Utilization Research Council (CURC). The CURC is an ad hoc 
group of electric utilities, coal producers, equipment suppliers, state 
government agencies, and universities. Members of CURC share a common 
vision of the strategic importance for this country's continued 
utilization of coal in a cost-effective and environmentally acceptable 
manner. The CURC membership also believes that coal-based generation 
should be preserved to ensure a diversity of fuel supply, produce 
affordable and reliable electricity, maintain a strong U.S. economy and 
help stabilize the balance of payments.

              INTRODUCTION AND SUMMARY OF RECOMMENDATIONS
    CURC has developed a strategic R&D program designed to ensure the 
continued use of our Nation's coal resources. The coal-based R&D 
program is described in a CURC technology ``roadmap'' which is an 
essential tool by which the CURC membership judges the adequacy and 
timeliness of R&D programs.
    The roadmap identifies a number of advanced coal-based energy 
systems that, if fully developed, would insure continued cost 
effective, efficient and environmentally acceptable use of coal. 
Because the ultimate economic viability and technical feasibility of 
any single coal utilization technology cannot be assured, CURC strongly 
advocates the development of a portfolio of options. The roadmap 
identifies a number of high-priority, advanced coal-based power systems 
as well as the timeframes and performance requirements of the 
components for those systems. If critical components of a particular 
system are not developed in a timely manner, a promising technology may 
not materialize.
    CURC believes that funding of the Department's fiscal year 2002 
budget request as well as future funding requests should be guided by 
the roadmap's R&D goals. The CURC is very pleased to see that this 
Administration has recommended a significant increase in funding for 
cost-shared clean coal demonstrations. The new Clean Coal Power 
Initiative (a follow-on program to the Power Plant Improvement 
Initiative that Congress began in fiscal year 2001), is a welcome 
signal that there is a recognition of the need to conduct demonstration 
scale projects to provide assurances to industry that a technology will 
operate successfully at commercial (or near commercial) scale. In 
addition, the Clean Coal Power Initiative demonstrates the President's 
fulfillment of a promise he made during his campaign to initiate a 10-
year and $2.0 billion clean coal program. The proposed Clean Coal Power 
Initiative is a welcome downpayment on that promise. The CURC supports 
the $150 million requested by the President and urges the Congress to 
grant the appropriations. It is exceedingly important, however, that 
these funds be utilized judiciously.
    As the Committee knows, the Department has yet to select proposals 
from the on-going Power Plant Improvement Initiative. The CURC has 
steadfastly advised that funding should be granted to proposals that 
will demonstrate near commercial-scale applications of technologies. 
Moreover, because these projects are likely to be large and costly, it 
is anticipated that very few projects will be selected--providing 
support for a great number of proposals may defeat the purpose of a 
program designed to encourage commercial demonstrations. Appropriations 
to initiate the Clean Coal Power Initiative should be similarly 
directed; that is large scale, cost-shared projects should be 
anticipated and the technology criteria should be ever more demanding 
so that demonstrations in each subsequent year result in significantly 
improved means to use coal.
    While we enthusiastically welcome the new Clean Coal Power 
Initiative, funding for this demonstration program should not be 
accomplished at the expense of the Department's on-going coal research 
and development program. These R&D programs are the means through which 
the President's decade-long demonstration program will be successful. 
It is the advancements that are made in research and development that 
will ``feed'' better and better demonstrations. In several important 
areas DOE's fiscal year 2002 budget request falls short and must be 
increased.
    The CURC has examined the proposed fiscal year 2002 funding levels 
for several coal-based R&D programs against the timelines and 
objectives outlined in the Roadmap. In order to achieve timely 
technology development certain levels of funding must be maintained. By 
reducing, or in certain cases, eliminating funding, it is our 
contention that the technologies will not be developed in the 
timeframes required to insure that coal remains a dominant contributor 
to meeting the Nation's energy needs. In consideration of the 
technologies and goals identified in the roadmap, the CURC is 
recommending that the Committee modify the budget request as follows:
    ADVANCED RESEARCH--Proposed fiscal year 2002 $19.5 million; CURC 
Recommendation: $23.5 million.--Advanced materials as well as basic 
science are central to technology improvements and increased funding is 
essential. CURC recommends that out of the funds included in this 
year's budget request a focus be maintained on work to advance high 
temperature heat exchanger materials, including novel alloys and 
ceramics. These materials are essential to power plant efficiency 
improvements. Of highest priority CURC recommends that $4.0 million in 
additional appropriations be provided to this account so that a program 
initiated by industry and government last year is continued over a 
several year period. The initiative is a cost-shared research program 
to develop new alloys for application in high temperature environments. 
These materials are essential to supercritical and ultra supercritical 
boilers if the promise of greater conversion efficiencies are to be 
realized.
    INTEGRATED GASIFICATION COMBINED CYCLE (IGCC)--Proposed fiscal year 
2002 $35.0 million; CURC Recommendation: $45 million.--Gasification of 
coal is projected to be the primary means by which significantly 
greater efficiency in energy conversion and emissions controls are to 
be achieved long term. To insure that IGCC systems achieve the 
technology and cost targets set forth in the CURC Technology Roadmap it 
is essential that primary subsystems are developed in a timely fashion. 
Two such subsystems are the coal feed and ash removal systems. The 
recommended increase in funds should be utilized to accelerate work in 
these two important areas. The CURC also recommends that within the 
existing funding for this program DOE focus upon projects that will 
monitor existing gasification/IGCC plants for environmental emissions, 
especially trace elements. Funding should also be allocated for R&D on 
multi-contaminate controls.
    PRESSURIZED FLUIDIZED BED (PFB)--Proposed fiscal year 2002 $8.0 
million; CURC Recommendation: $10.0 million.--The CURC supports the 
continued development of PFB to insure that a variety of options by 
which coal can be converted to useful energy are developed. However, 
with limited funds, we have also concluded that an expanded R&D effort 
in PFB is not warranted. It is recommended that the Department use the 
increase in funds recommended for the PFB program to reorient this 
program towards supporting combustion/hybrid systems. In succeeding 
budget years, it is recommended also that the focus of this program be 
shifted towards novel systems that that rely upon both combustion and 
gasification to achieve high efficiency and emissions control.
    TURBINES--Proposed fiscal year 2002 $0; CURC Recommendation: $15.0 
million.--The turbines development program supported by industry and 
the U.S. DOE has accomplished very significant improvements in turbine 
technology of producing electricity from natural gas through their 
leadership of the Advance Combustion Turbine System (ATS) program over 
that last several years. Efficiencies of over 60 percent can be 
practically achievable by as early as 2005 using technologies developed 
in the ATS program.
    DOE's Vision 21 goals present for coal-based technologies are 
projected to achieve efficiencies of over 60 present by 2015. To 
accomplish efficiencies that high will require combining coal 
gasification with advanced fuel cell technologies still in the 
development phase. Coal-based technology efficiencies can approach 50 
percent by as early as 2010 if coal gasification can be combined with 
ATS class turbines, an intermediate step toward the 60 percent 
efficiency goal of 2015. However, before we can be certain that the ATS 
class machines can operate on coal-derived gas, tests must be performed 
by the turbine manufacturers. These tests are relatively low priority 
for the turbine manufacturers at this time since their first goal is to 
make sure that they can manufacture the machines and prove their 
operation on natural gas. Industry needs an incentive or federal help 
to increase the priority of testing these machines and related 
componentry on coal-derived gas not natural gas. Since DOE currently 
has the internal expertise to develop a test program for coal-derived 
gas, it will be more cost effective in the long run to keep that 
expertise and start the coal-derived ATS test program now rather than 
try to re-build that expertise at a later date. A coal-derived gas 
program will take 3 to 5 years to complete. If we wait until 2005 to 
begin a test program, it may be too late to allow ATS class turbines to 
enter the coal-gas market by 2010.
    The most critical part of the coal-derived gas/ATS combination is 
the uncertainty in the burner/combustor performance. Burner/combustor 
performance, including life and environmental emissions cannot be 
predicted by mathematical models--the manufacturers must perform real 
tests on full-scale combustors. The $15 million recommended for fiscal 
year 2002 will provide sufficient funds to begin resolving the most 
important technical issues associated with burning coal-derived gas. 
Additional issues may be discovered during that test program.
     TRANSPORTATION FUELS AND CHEMICALS--Proposed fiscal year 2002 $7.0 
million; CURC Recommendation $30.0 million.--A fundamental issue 
regarding the future use of our Nation's vast coal resources is whether 
a significant R&D program should be maintained to develop technologies 
to convert coal to useful chemicals and clean transportation fuels. The 
CURC Technology Roadmap supports the aggressive funding of R&D programs 
conducted in cooperation with industry and the academic community to 
convert coal to chemicals or ultra clean transportation stationary 
fuels. The CURC does not support the dramatically reduced funding 
requests in this area and we urge the Congress to restore, and 
increase, funding for the coal to chemicals program as well as the coal 
component of the ultra clean fuels program.
     SEQUESTRATION R&D--Proposed fiscal year 2002 $20.7 million; CURC 
Recommendation: $30.0 million.--The CURC agrees with the budget 
increase to this program area over fiscal year 2001 and recommends an 
additional $9.3 million so that actual field testing of promising 
carbon sequestration approaches can be initiated. Also, concurrent with 
sequestration R&D, analytical tools and methodologies need to be 
developed and applied to assess the technical, environmental, safety, 
permitting and economic feasibility of CO<INF>2</INF> capture, 
separation, and sequestration concepts. This will ensure that relevant 
know-how is available, tested and reliable, when needed. To achieve the 
goals set forth in the CURC Technology Roadmap within the timeframes 
set forth a significant amount of funding for this program is required. 
Without additional funding, the program will be constrained to a bench 
scale exploratory effort.
     INNOVATIONS FOR EXISTING PLANTS--Proposed fiscal year 2002 $18.0 
million; CURC Recommendation: $21.0 million.--The existing fleet of 
coal-based generating facilities is facing ever increasingly stringent 
environmental restrictions. As a result, the need for cost-effective 
compliance options to maintain the fleet's economic viability is more 
pressing than ever. DOE is currently evaluating mercury and 
NO<INF>X</INF> control concepts to establish mercury removal 
performance, reduce the cost of mercury and NO<INF>X</INF> control, and 
increase generation reliability. To maintain the current schedule and 
meet EPA regulatory deadlines, this R&D effort requires added funding 
and a multi-year commitment. In addition, the Department's 
comprehensive fine particulate monitoring program should be fully 
funded (equipment is procured already) and studies related to the fine 
particulate matter source apportionment need to be continued. 
Evaluating the stability of HAPs captured in flue gas desulfurization 
processes, on fly ash, in scrubber gypsum and the fate of mercury in 
products made of these materials needs to be undertaken. As the EPA 
determines the regulatory requirements for HAPs it is important that 
the wastes from coal-fired power plants be managed in acceptable ways. 
Proposed funding in this area has been decreased by $3.0 million 
compared to fiscal year 2001. It is important that at least level 
funding be maintained in fiscal year 2002 and that the $3.0 million of 
added funds be focused upon the areas outlined above.

                  REASONS FOR THE CURC RECOMMENDATIONS
    A number of specific and recent events add to the urgency of these 
recommendations. The dramatic increase in dependence upon imported 
petroleum products and the likely continuation of that dependency 
emphasizes the need for maintaining a variety of energy choices and 
options. While the nation's vulnerability to crude oil price 
fluctuations is somewhat removed from the sustained use of U.S. coal 
resources it nevertheless serves as a stark reminder that dependence 
upon one fuel--especially one not derived from domestic resources--is 
dangerous to our economy and our national security. Recent increases in 
natural gas prices may accelerate the time frame during which 
electricity power generators will consider the cost-effectiveness of 
new or refurbished coal powered generation as an alternative to natural 
gas. Natural gas has been viewed as the ``fuel of choice'' for new 
generation and predicted to be so for the near term. Increased gas 
prices not only change that outlook but, unless newer more advanced 
clean coal technologies are made available sooner than expected, new 
coal-based generation will be constructed using current technology, 
which is economical and reliable, but does not apply advances in both 
efficiency and maximum environmental performance. Also, worth 
remembering is the fact that major new natural gas capacity will be 
imported from western Canada to supply the U.S. Midwest and from the 
east coast of Canada to supply the Northeast. U.S. coal is the 
indigenous domestic primary energy source that will act as an anchor to 
pricing of other fuels.
    Further, use of domestic coal resources will lend leverage and 
stability when there are political pressures elsewhere in the world 
that threaten to disrupt the economy as well as energy markets.
                                 ______
                                 
 Prepared Statement of the California Industry and Government Central 
                California Ozone Study (CCOS) Coalition
    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Central California Ozone Study 
(CCOS) Coalition, we are pleased to submit this statement for the 
record in support of our fiscal year 2002 funding request of $1,000,000 
for CCOS as part of a Federal match for the $8.7 million already 
contributed by California State and local agencies and the private 
sector. This request consists of $500,000 from the Department of Energy 
(DOE), $250,000 from the National Park Service (NPS), and $250,000 from 
the Forest Service.
    Ozone and particulate matter standards in most of central 
California are frequently exceeded. In 2003, the U.S. Environmental 
Protection Agency (U.S. EPA) will require that California submit SIPs 
for the recently promulgated, national, 8-hour ozone standard. It is 
expected that such SIPs will be required for the San Francisco Bay 
Area, the Sacramento Valley, the San Joaquin Valley, and the Mountain 
Counties Air Basins. Photochemical air quality modeling will be 
necessary to prepare SIPs that are acceptable to the U.S. EPA.
    The Central California Ozone Study (CCOS) is designed to enable 
central California to meet Clean Air Act requirements for ozone State 
Implementation Plans (SIPs) as well as advance fundamental science for 
use nationwide. The CCOS field measurement program was conducted during 
the summer of 2000 in conjunction with the California Regional PM10/
PM2.5 Air Quality Study (CRPAQS), a major study of the origin, nature, 
and extent of excessive levels of fine particles in central California. 
CCOS includes an ozone field study, a deposition study, data analysis, 
modeling performance evaluations, and a retrospective look at previous 
SIP modeling. The CCOS study area extends over central and most of 
northern California. The goal of the CCOS is to understand better the 
nature of the ozone problem across the region, providing a strong 
scientific foundation for preparing the next round of State and Federal 
attainment plans. The study includes six main components:
  --Developed the design of the field study
  --Conducted an intensive field monitoring study from June 1 to 
        September 30, 2000
  --Developing an emission inventory to support modeling
  --Developing and evaluating a photochemical model for the region
  --Designing and conducting a deposition field study
  --Evaluating emission control strategies for the next ozone 
        attainment plans
    The CCOS is directed by Policy and Technical Committees consisting 
of representatives from Federal, State and local governments, as well 
as private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and currently managing the California Regional 
Particulate Air Quality Study, are landmark examples of collaborative 
environmental management. The proven methods and established teamwork 
provide a solid foundation for CCOS. The sponsors of CCOS, representing 
state, local government and industry, have contributed approximately 
$8.7 million for the field study. The federal government has 
contributed $500,000 for some data analysis. In addition, CCOS sponsors 
are providing $2 million of in-kind support. The Policy Committee is 
seeking federal co-funding of additional $8.5 million to complete the 
data analysis and modeling and for a future deposition study. 
California is an ideal natural laboratory for studies that address 
these issues, given the scale and diversity of the various ground 
surfaces in the region (crops, woodlands, forests, urban and suburban 
areas).
    There also exists a need to address national data gaps, and 
California should not bear the entire cost of the addressing these 
gaps. National data gaps include issues relating to the integration of 
particulate matter and ozone control strategies. The CCOS field study 
took place concurrently with the California Regional Particulate Matter 
Study--previously jointly funded through Federal, State, local and 
private sector funds. Thus, CCOS was timed to enable leveraging of the 
efforts for the particulate matter study. Some equipment and personnel 
served dual functions to reduce the net cost. From a technical 
standpoint, carrying out both studies concurrently was a unique 
opportunity to address the integration of particulate matter and ozone 
control efforts. CCOS was cost-effective since it builds on other 
successful efforts including the 1990 San Joaquin Valley Ozone Study. 
Federal assistance is needed to address these issues effectively and 
CCOS provides a mechanism by which California pays half the cost of 
work that the federal government should otherwise pursue.
    For fiscal year 2002, our Coalition is seeking funding of $500,000 
from the Department of Energy (DOE) Fossil Program.--The California 
Energy Commission is a key participant, having contributed $3 million. 
Consistent with the recently signed memorandum of understanding between 
the California Energy Commission and the DOE, joint participation in 
the CCOS will result in: (1) enhanced public interest energy research-, 
development-, and demonstration-programs; (2) increased competitiveness 
and economic prosperity in the United States; and (3) further 
protection of the environment through the efficient production, 
distribution and use of energy.
    The CCOS program coincides with DOE's initiative to develop the 
Federal Government's oil technology program. In fact, the oil industry 
in California has been working for several years with DOE to identify 
innovative partnerships and programs that address how changes in those 
sectors can cost-effectively reduce particulate matter and ozone-
related emissions. This approach will likely result in new ideas for 
technologies to improve oil recovery technologies, as well as improve 
environmental protection in oil production and processing operations. 
The overlap of CCOS and the California Regional Particulate Matter Air 
Quality Study provides a unique opportunity to perform research related 
to petroleum-based VOC and particulate matter emissions as well as 
methods to characterize these categories of emissions. The CCOS program 
is utilizing modeling, instrumentation, and measurement to get results 
that can be used to better understand the impact of oil and gas 
exploration and production operations on air quality. CCOS program 
results might also be applied to identify the most efficient and cost-
effective methods of reducing emissions from oil and gas operations.
    The Department of Energy has been a key participant in many 
programs with the oil and agricultural sectors. By becoming a partner 
in this program, DOE will be furthering its own goals of ``Initiatives 
for Energy Security'' by aiding domestic oil producers to enhance their 
environmental compliance while reducing their costs. DOE will also be 
building upon an established and effective partnership between state 
and local governments, industry and institutional organizations.
    For fiscal year 2002, our Coalition is also seeking funding of 
$250,000 from the National Park Service (NPS) and $250,000 from the 
Forest Service.--The National Park Service and Forest Service conduct 
prescribed burns that contribute to both ozone and particulate matter 
pollution. Prescribed burns are needed for forest health or to reduce 
fuel loads, and must be carefully managed to minimize public health and 
visibility impacts.
    Improving the fundamental science related to emissions, 
meteorological forecasting, and air quality modeling will help in 
designing effective smoke management programs. In addition, attainment 
of air quality standards is an important goal for protecting national 
parks and forests. Ozone damage to trees and vegetation in national 
parks and forests is well documented in California and nationwide. The 
National Park Service and Forest Service are key stakeholders relying 
on the success of SIPs in achieving the emissions reductions needed to 
attain air quality standards. The participants in the CCOS have been 
partners in regional study efforts addressing visibility and haze 
impacts on national parks and forests in the West. The results of this 
study will provide valuable information that will further those efforts 
on a regional basis.
    Scientists at the University of Nevada, Desert Research Institute 
(DRI) are involved with the CCOS. To expedite research studies related 
to biomass burning and smoke management for CCOS, it is requested that 
funds provided by the National Park Service and Forest Service be 
allocated directly to DRI.
    Thank you very much your consideration of our requests.
                                 ______
                                 
     Prepared Statement of the Biomass Energy Research Association
    This testimony pertains to the request for appropriations in fiscal 
year 2002 by the Department of Energy (DOE), Office of Energy 
Efficiency and Renewable Energy (EERE), for 3 specific, mission-
oriented, biomass research programs and part of the Bioenergy/
Bioproducts Initiative (Initiative) managed by EERE's Office of 
Industrial Technologies (OIT). In addition to the Initiative, the 3 
research programs are: The production of organic commodity chemicals 
from biomass feedstocks in the Industries of the Future (Specific), 
Agriculture Vision program; The development of advanced biomass 
gasification processes in the Industries of the Future (Crosscutting), 
Enabling Technologies program; and Advanced biomass technologies for 
the forest and paper industries, Forest and Paper Products Vision 
program. The Biomass Energy Research Association (BERA) recommends that 
$36.1 million be appropriated for these high-priority biomass programs 
in fiscal year 2002. A separate statement has been prepared and 
submitted in support of biomass research funded by EERE under the 
Energy and Water Development Bill.
    BERA is a non-profit association headquartered in Washington, DC. 
It was founded in 1982 by researchers and private organizations that 
are conducting biomass research. Our objectives are to promote 
education and research on the production of energy and fuels from 
virgin and waste biomass that can be economically utilized by the 
public, and to serve as a source of information on biomass RD&D 
policies and programs. BERA does not solicit or accept federal funding 
for its efforts.
    On behalf of BERA's members, I would like to thank you, Mr. 
Chairman, for the opportunity to present our Board's position on the 
funding of mission-oriented biomass RD&D. On this occasion, I would 
like to focus on the high-priority projects and programs that we 
strongly urge be continued or started. Specifically, BERA recommends 
that the appropriations for OIT's high-priority biomass programs be 
allocated as follows in fiscal year 2002.
  --BERA urges that the Initiative that was created as a result of 
        ``The Biomass Research and Development Act of 2000,'' and 
        Executive Order 13134, ``Developing and Promoting Biobased 
        Products and Bioenergy,'' be incorporated into OIT's program 
        ($10.0 million). The goal of this program is to triple U.S. 
        usage of bioenergy and biobased products by 2010. Estimation of 
        the potential contribution to the program goal of each 
        technology that is funded under the Initiative is essential to 
        optimize the project mix. New projects should not be started 
        until this is done. The amount of fossil fuels displaced by 
        waste and virgin biomass in 1999 was 1.65 million barrels of 
        oil equivalent per day (3.49 quad per year).
  --Continuation of the chemicals-from-biomass core research ($7.0 
        million). This program should include assessments of biomass 
        feedstock production and needs in collaboration with the U.S. 
        Department of Agriculture (USDA) and independent contractors if 
        needed, and a clear definition of the potential contribution 
        that each project can make to meet program objectives before an 
        award is made.
  --Continuation of the core research started in fiscal year 2000 to 
        develop advanced biomass gasification technologies such as 
        integrated gasification-combined cycle (IGCC) processes and 
        their demonstration in the field for waste biomass including 
        black liquor ($7.0 million). This program is implemented 
        through the National Energy Technology Laboratory (NETL), and 
        should fully utilize the large background already in existence 
        on gasification technologies developed over many years, most of 
        which is readily available.
  --Continued development of advanced biomass technologies for the 
        forest and paper industries ($12.1 million).

           PROGRAM INTEGRATION, COORDINATION, AND MANAGEMENT
    For several years, BERA has urged that all biomass-related research 
funded by DOE should be internally coordinated and jointly managed at 
DOE Headquarters. The program managers at DOE Headquarters should be 
heavily involved in this activity.
    BERA strongly recommends that at least 50 percent of the federal 
funds appropriated for biomass research, excluding the funds for scale-
up projects, are used to sustain a national biomass science and 
technology base via sub-contracts for industry and universities. While 
it is desirable for the national laboratories to coordinate this 
research, increased support for U.S. scientists and engineers in 
industry, academe, and research institutes that are unable to fund 
biomass research will encourage commercialization of emerging 
technologies and serious consideration of new ideas. It will also help 
to expand the professional development and expertise of researchers 
committed to the advancement of biomass technologies.
    BERA also urges that the Bioenergy/Bioproducts Initiative be 
continued and incorporated into the overall federal biomass RD&D 
program. The USDA has a long history of developing advanced biomass 
production technologies, which are essential to meet the objective of 
tripling biomass energy consumption by 2010. It is especially important 
that the biomass research of DOE and USDA be closely coordinated so 
that each agency is fully aware and apprised of the research that the 
other is conducting.
    Implementation of the Initiative should include identification of 
each federal agency that provides funding related to biomass energy 
development, each agency's programs, and the expenditures by each 
agency. This will enable the coordination of all federally funded 
biomass energy programs through the multi-agency Biomass Research and 
Development Board (BRDB) that was established to manage the program. 
The BRDB is co-chaired by the Secretary of Energy and the Secretary of 
Agriculture. It is expected to facilitate new starts that target the 
program goal, and to avoid duplication of efforts, unnecessary 
expenditures, and continuation of projects that have been completed or 
that are not focused on the program goal. If the Initiative is fully 
implemented, the value of the federal expenditures on biomass research 
to the country will be enhanced in many different ways.

                               BACKGROUND
Bioenergy/Bioproducts Initiative
    Congress provided funding for the Initiative for biomass R&D in the 
power and transportation fuel sectors under the Energy and Water 
Development Bill in fiscal year 2000 and fiscal year 2001. BERA 
strongly recommends that this program be continued as described in our 
separate testimony for fiscal year 2002. BERA also strongly recommends 
that the Initiative be added to OIT's program at a funding level of 
$10.0 million in fiscal year 2002. It is expected that DOE will 
allocate a large portion of these funds to scale-up projects after 
evaluating the projected contribution of each technology to the goal of 
the Initiative. The main goal as already mentioned is to triple U.S. 
usage of bioenergy and biobased products by 2010. A strategic plan has 
been developed to reach this goal by the BRDB. Its achievement is 
sorely needed because of what has happened to U.S. crude oil, natural 
gas, and electricity markets, our continually increasing dependence on 
imported oil, our struggling rural economy in both the agricultural and 
forestry sectors, and environmental issues. It is also time to 
determine whether practical biomass systems can be developed that are 
capable of displacing much larger amounts of fossil fuels. The BRDB 
will address this question, and help to coordinate the many different 
biomass RD&D projects in progress in the different agencies to ensure 
that each is necessary and on course. The BRDB has projected that 
achievement of the targeted goal requires RD&D funding to be increased 
by $500 million to $1 billion per year of public-sector investment. It 
is clear that a significant increase in appropriations is necessary to 
implement this program.
Organic Commodity Chemicals from Biomass (Agriculture Vision)
    This program was started by OIT in fiscal year 1999 ($1.981 million 
appropriated). It was continued in fiscal year 2000 ($4.0 million 
appropriated) and fiscal year 2001 ($7.0 million appropriated). 
Solicitations support projects to integrate technology, markets, and 
policies for using crops and agricultural wastes to produce fuels, 
power, and biobased products in biorefineries. BERA recommends that 
this program be continued in fiscal year 2002 at a funding level of 
$7.0 million.
    The overall goal is to develop the technologies necessary to 
displace 10 percent of the U.S. market for fossil feedstocks with 
biomass for the production of organic commodity chemicals and chemical 
products. As noted in BERA's testimony for fiscal year 2001, OIT 
incorporated displacement by biomass of process energy consumption 
supplied by fossil fuels into the program objectives. BERA had 
previously recommended that the program goal be expanded to include 
both fossil feedstock displacement and process energy inputs provided 
by fossil fuels. In addition, reductions in process energy consumption 
through higher efficiency unit operations and process energy 
conservation should be part of this goal. DOE reported last year that 
they expect to achieve a 30 percent reduction in energy consumption per 
pound of chemicals produced, materials used, water consumption, and 
pollutant and toxic dispersion. This is important because in 1999 for 
example, the total fossil feedstock converted to organic commodity 
chemicals in the United States, in terms of barrels of oil equivalent 
(BOE), was approximately 1.26 million BOE/day. Ten percent of this 
value is 126,000 BOE/day, while the corresponding process energy 
consumption was about 136,000 BOE/day.
    BERA believes that this program is very worthwhile. Successful 
implementation of the chemicals-from-biomass program in the Agriculture 
Vision is expected to result in many regional and national benefits. 
Virtually all basic organic chemicals--including plastics and 
petroleum- and natural gas-derived chemicals--can be manufactured from 
biomass feedstocks. Utilization of agricultural and forest lands for 
production of renewable fossil feedstock substitutes will significantly 
improve economic growth and the environment. New markets will be opened 
for farmers and foresters, rural development and employment will 
increase, about 80 cents of every dollar spent on biomass in a given 
region will stay in that region, and federal farm subsidy payments and 
trade deficits will be reduced. The displacement of fossil feedstocks 
by virgin and waste biomass will also help reduce atmospheric 
pollutants emitted by conventional manufacturing plants that use fossil 
feedstocks, such as sulfur oxides and unburned hydrocarbons, each of 
which contributes heavily to sub-quality air.
    An in-depth assessment of the availabilities, logistics, chemical 
and physical properties, growth requirements and characteristics, and 
competitive uses and economics of existing biomass resources, including 
specific biomass species and agricultural residues, is required to 
properly structure the Agriculture Vision program and to select optimum 
biomass feedstocks. This assessment should include the energy and 
feedstock potential of new additions to biomass feedstock ``reserves.'' 
Note that the maximum economic transport distance of biomass to 
processing plants for conversion to energy and fuels is generally about 
50 to 75 miles. Note also that 1.0 quad (489,000 BOE/day) of biomass 
energy (gross) produced by hypothetical biomass plantations, exclusive 
of the energy inputs needed for planting, growing, harvesting, and 
transporting the feedstock to the conversion plant gate, and converting 
it to organic chemicals, requires about 10,000 square miles of biomass 
growth area, the equivalent of a square 100 miles on each edge. This 
assumes average biomass yields of 10 dry ton per acre per year, a yield 
level that is generally on the optimistic side in moderate climates. 
The in-depth assessment must therefore be concerned with the parameters 
outlined here and the design and net energy production efficiencies of 
integrated biomass feedstock production-transport-conversion systems. 
The EERE and its predecessor groups in DOE, USDA, and others have 
performed such assessments. The results of this work should be 
incorporated into the assessments of the Agriculture Vision.
Advanced Biomass Gasification Processes (Enabling Technologies)
    This program was started by OIT in fiscal year 2001 ($13.5 million 
appropriation). It involves preliminary design studies scheduled for 
completion in fiscal year 2001 with black liquor feedstocks, critical 
R&D needs for systems in industrial plants, and competitive 
solicitations. Supporting areas include sulfur management, gas clean-
up, materials, system integration, and other combustion-related 
studies. Black liquor gasification provides a pathway to cost-
effectively recover and recycle chemicals in the paper industry. It is 
anticipated that perfection of this technology with black liquor and 
wood waste feedstocks will open new applications in the pulp and paper 
industry and increase its global competitiveness. BERA recommends that 
this work be continued at a funding level of $7.0 million in fiscal 
year 2002.
    The federal and private-sector funding provided over the last few 
decades to perfect biomass gasification technologies and to develop 
advanced processes such as IGCC systems has been substantial. Some of 
this work is on-going and includes other EERE projects in progress that 
are currently funded under the Energy and Water Bill. Significant 
processing improvements and innovative advancements have been and 
continue to be made. However, the gasification of black liquor, a major 
biomass energy resource, has not been developed.
    This program, if successful, could result in the initiation of new 
projects to perfect biomass gasification and can help this fledgling 
technology make the successful transition to commercial use. The 
program, which will be implemented through NETL, should fully utilize 
the large background already in existence on gasification technologies 
developed over many years, most of which is readily available. It is 
strongly recommended that the history, information, and data 
accumulated to date be carefully examined, and where appropriate 
utilized by proposers before awards are made by DOE to design and build 
new biomass gasifiers.
Advanced Biomass Technologies for the Forest and Paper Industries 
        (Forest and Paper Products Vision)
    All of the Forest and Paper Products Vision has been categorized by 
DOE as biomass energy RD&D. As already stated, the potential amounts of 
fossil feedstock and process energy displaced by biomass feedstock and 
biomass energy and biofuels should be estimated for each contract 
before an award is made. Each respondent to a competitive solicitation 
should address this question in the proposal. A simple analysis is 
sufficient to predict how large a contribution can be made by a given 
project toward achievement of the overall program goal, presuming the 
project is successfully completed and the technology is utilized by 
industry. This basic assessment, along with preliminary economic 
analyses, when applied to development of this program, will help ensure 
its success.
    The appropriations provided for this program were about $12.1 
million for each of the last three fiscal years, fiscal year 1999 to 
fiscal year 2001. The program was described by various titles last year 
as follows: Energy Performance consists of approximately 12 projects on 
efficiency, heat recovery, wood and paper drying, environmental 
impacts, and Kraft pulping; Environmental Performance consists of 
approximately 10 projects on developing advanced pollution prevention 
technologies such as volatile organic compound (VOC) emissions 
reduction in Kraft mills and commercial VOC extraction and collection 
from lumber drying; Improved Capital Effectiveness consists of 
approximately 7 projects focused on system and process efficiency, such 
as a tool to predict corrosion rates in a Kraft chemical recovery 
boiler that will be commercialized; Recycling consists of approximately 
8 projects to develop a new screening technology to reduce energy 
consumption during the removal of contaminants from recycled fiber; 
Sensors and Controls consists of 8 projects for optimizing paper mill 
operations such as a project to develop an apparatus for measuring 
properties on the wet end of a paper machine; Sustainable Forestry 
consists of approximately 5 projects to improve the conversion of solar 
energy to woody biomass such as a project to increase stem growth rates 
of loblolly pine, and approximately 7 additional projects to implement 
the relevant results and 8 additional projects that involve 
biorefineries.
    This program has shown and continues to show significant value in 
addressing both national and industry priorities and has significant 
matching funds from industry. BERA recommends that it be continued in 
fiscal year 2002 at a funding level of $12.1 million.
                                 ______
                                 
 Prepared Joint Statement of the American Farm Bureau Federation; the 
     American Society of Plant Physiologists; the American Soybean 
    Association; the National Association of Wheat Growers; and the 
                   National Corn Growers Association
    The American Farm Bureau Federation, the American Society of Plant 
Physiologists, the American Soybean Association, the National 
Association of Wheat Growers, and the National Corn Growers Association 
appreciates the opportunity to provide the Subcommittee with our 
recommendations regarding the fiscal year 2002 Interior appropriations 
bill. We, strongly, urge you to provide $15 million in funding for the 
Department of Energy (DOE), the Plant/Crop-Based Renewable Resources 
Vision 2020 (the Agricultural Vision) program that is funded under the 
Industries of the Future (specific) program within the Energy 
Conservation budget.
    We can reduce our reliance on imported oil by using corn, wheat, 
soybeans, trees, and other crops, instead of petroleum, as chemical 
feed stocks to produce a wide range of everyday consumer goods, such as 
plastics, paints, adhesives, fibers, anti-freeze, and personal care 
products. Several years ago, with assistance from the DOE Office of 
Industrial Technology (OIT), the U.S. agricultural, forestry, and 
chemical communities developed a long-term, strategic vision of 
increasing the utilization of renewable inputs, such as corn, soybeans, 
and wheat, for basic, chemical building blocks. The vision is for 
plants to capture 10 percent of the market by 2020 and 50 percent by 
2050. If crops were the feed stock for 10 percent of this market, it 
would result in increased farm income of more than $5 billion per year, 
reduced greenhouse gas emissions, increased recycling opportunities, 
the creation of new, world-class industries here at home, and, most 
importantly, decreased dependence on foreign oil.
    As we have experienced first hand over the past year, the power of 
unstable oil exporting countries affects, dramatically, the price of 
gasoline, heating oil, and many consumer goods, such as plastics, due 
to our ever-increasing reliance on imported oil. The U.S., currently, 
imports more than 50 percent of domestic petroleum consumption, and, by 
2020, net imports will grow to over 65 percent.
    While we have a finite supply of fossil fuels, we have abundant 
plant/crop-based resources that are renewable over short time periods 
as annual or perennial crops. Right now, the most significant 
opportunity to help offset the need for imported oil is the use of 
alternative feed stocks derived from renewable plants and crops. With 
an adequate research investment, renewable materials, from American-
grown crops can provide many of the same basic, chemical building 
blocks as petrochemicals, and can provide others that petrochemicals 
cannot. The recent escalating fuel prices should serve as a wake-up 
call for research that will provide us with a secure, long-term supply 
of durable, high performance raw material inputs.
    To achieve the bold Agricultural Vision of using plants for 10 
percent of the chemical feed stocks market, we may lay the research 
foundation today. If we are to realize, fully, the potential for bio-
based resources, we need new routes for more efficient processing and 
utilization as well as a whole range of plant-derived building blocks. 
New technologies require time to develop and implement. Now is the time 
for significant research and development on what renewable sources and 
novel processes might be available, and for beginning to develop 
selection criteria among the possible alternatives.
    After the Agricultural Vision was unveiled in 1998, the 
agricultural, forestry, and chemical communities developed a technology 
roadmap based on the input of numerous scientific and marketing experts 
from a broad range of disciplines. The Technology Roadmap identifies 
performance goals and establishes a focused research and development 
agenda for developing the technologies needed to make the industry 
vision a reality. The Roadmap identified research needs in four major 
research categories. For each of these categories, the top priority 
is--
  --Plant Science.--understand gene regulation and control of plant 
        metabolic pathways;
  --Production.--alter plants to produce components of interest rather 
        than heterogeneous seeds;
  --Processing.--develop new separation methods--membranes, 
        distillation, etc.; and
  --Utilization.--understand structure function relationships for plant 
        constituents (protein, starch, etc).
    While each of these individual areas of opportunity is important, 
it is critical for us to develop all of the areas simultaneously and to 
develop integrated strategies for chemical production. We need funding 
for projects that will cover the full scope of the R&D needs, from 
basic plant science to utilization. Multi-disciplinary research, along 
several different pathways, will be necessary to improve the 
performance of plant resources as raw materials.
    We are at a unique place in history as the tools that are 
revolutionizing plant-based science and technology are beginning to be 
available. The advantage of modern molecular tools is that we will be 
able to meet future demand by increasing the use of renewable resources 
as basic, chemical building blocks. The disadvantage is that for modern 
science to deliver the ``leap-frog'' technology to achieve our goals, 
projects must be large, multi-institutional (including public and 
private sector participants), and multi-disciplinary with emphases on 
biology, chemistry, and engineering. Of necessity, these projects are 
expensive and a significant level of funding must be provided if they 
are to be successful.
    Our greatest opportunities over the next few years are with 
bioproducts; yet, funding in this area is substantially below the level 
needed for multi-disciplinary research that has clear linkages across 
all of the highest priorities in the Roadmap. The DOE Agricultural 
Vision is the sole program that concentrates on increasing the use of 
renewable resources for chemicals (for bioproducts) and on the R&D 
agenda outlined in the Agricultural Vision's Technology Roadmap. A 50 
percent cost-share is required for all of the projects funded under the 
Agricultural Vision program and the projects must address the OIT 
mission of improving energy efficiency and environmental performance. 
The matching requirement ensures that the science supported has a great 
potential for commercialization and increasing the efficiency of the 
Federal investment.
    We will be able to reduce our reliance on imported oil much sooner 
if we focus our efforts towards the ambitious Agricultural Vision and 
act now to fund much needed research. For the long-term success of the 
program, it is critical that research in the broad, major research 
categories, identified in the Roadmap, be coordinated and integrated to 
ensure that progress is made on all fronts. With $15 million, devoted 
to R&D needs outlined in the Agricultural Vision's Technology Roadmap, 
projects that address the highest priorities in each of the four major 
research categories listed in the Roadmap could be supported.
    While the Administration's budget reduced significantly the funding 
for most of the Industries of the Future programs, the budget request 
provides for level funding ($6.8 million) for the Agricultural Vision. 
The Administration placed a high priority on the Agricultural Vision 
program by not proposing to reduce funding. We are extremely pleased 
that the Administration believes that bioproducts have an important 
role to play in the Nation's energy policy. However, we believe that 
now is the time for a significant research investment in this area and 
level funding for this program is simply inadequate.
    We, strongly, urge you to provide $15 million for fiscal year 2002 
for OIT to implement, more fully, the Agricultural Vision's Technology 
Roadmap. This funding will help to decrease our dependence on imported 
oil, increase farm income, reduce greenhouse gas emissions, spur rural 
development, and increase recycling opportunities. We look forward to 
working with you as we lay the foundation for renewable chemical 
building blocks.
    Thank you, again, for this opportunity to provide you with our 
recommendations for the fiscal year 2002 Interior appropriations bill.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors
    The Coalition of Northeastern Governors (CONEG) is pleased to 
provide this testimony for the record to the Senate Appropriations 
Subcommittee on Interior and Related Agencies as it considers fiscal 
year 2002 appropriations for the Energy Conservation programs of the 
U.S. Department of Energy. Within this appropriation, the CONEG 
Governors request that funding for the Weatherization Assistance 
Program be increased to $306 million and that funding for the State 
Energy Program be increased to $75 million in fiscal year 2002.
    Recent increases in the price of energy, coupled with the strain on 
energy infrastructure created by the rapid growth in energy demand, 
place a new emphasis on making the most efficient use of the nation's 
energy resources. Energy efficiency is a vital component to a balanced 
energy policy that yields multiple economic, environmental and national 
security benefits. Efficient use of energy helps reduce the nation's 
energy costs and contributes to improved economic productivity.
    The Department of Energy's Weatherization Assistance Program and 
State Energy Program provide valuable opportunities for the states, 
industry, national labs and the U.S. Department of Energy to 
collaborate in moving energy efficiency and renewable energy research, 
technologies, practices and information into households, businesses, 
schools, hospitals and farms across the nation. Administered by the 50 
states, District of Columbia and territories, these programs are an 
efficient way to achieve national energy goals, as they tailor energy 
projects to specific community needs, economic and climate conditions.
    The Weatherization Assistance Program (WAP) helps low income 
households better manage their ongoing energy use, thereby reducing the 
heating and cooling bills of the nation's most vulnerable citizens. 
According to the U.S. Department of Energy, low-income households spend 
14 percent of their annual income on energy, compared to 3.5 percent 
for other households. The Weatherization Assistance Program strives to 
reduce the energy burden of low-income residents through such energy 
saving measures as the installation of insulation and energy-efficient 
lighting, and heating and cooling system tune-ups. These measures can 
result in energy savings as high as 30 percent.
    The State Energy Program (SEP) helps move energy efficiency and 
renewable energy technology into the marketplace and ensure that states 
and communities are prepared for and respond to energy emergencies. 
Through the SEP, states assist schools, municipalities, businesses, 
residential customers and others in both the private and public sectors 
to incorporate the practices and technologies which help them manage 
their energy use wisely. The modest federal funds provided to the SEP 
are also an efficient federal investment, as they are leveraged by non-
federal public and private sources.
    We request that the Subcommittee increase funding for both the 
Weatherization Assistance Program and the State Energy Programs. These 
programs have demonstrated their effectiveness in contributing to the 
nation's goal of environmentally sound energy management and improved 
economic productivity.
    We thank the subcommittee for this opportunity to share the views 
of the Coalition of Northeastern Governors, and we stand ready to 
provide you with any additional information on the importance of the 
Weatherization Assistance Program and the State Energy Program to the 
Northeast.
                                 ______
                                 
      Prepared Statement of the Gasification Technologies Council
    The Gasification Technologies Council (GTC) wishes to take this 
opportunity to comment on the fiscal year 2002 budget proposal for the 
Department of Energy's Fossil Energy Research and Development Program.
    Council members includes gasification technology developers and 
suppliers that account for more than ninety-five percent of the 
installed syngas production capacity around the world. We count among 
members a significant share of companies supplying engineering and 
construction services, turbines, industrial gases, gas cleanup and 
processing and other critical equipment and services to the industry. 
Our membership also includes a growing number of users of the 
technology, reflecting the growing commercial acceptance of 
gasification in the energy marketplace.
    Gasification provides the cleanest, most efficient means of 
producing power, chemicals and fuels from coal, petroleum residues and 
low value feedstocks. It is being used worldwide and offers the 
opportunity for further advancements in reduced cost, higher efficiency 
and lower emissions through continued research and development and 
commercial scale demonstration. Gasification is central to the 
Department of Energy's Vision 21 Program because of its high 
efficiency, environmental superiority and flexibility in feedstocks and 
product slates. Members of the Gasification Technologies Council have 
been engaged in a year-long project of company-by-company interviews 
and briefings with the Department of Energy to offer their thoughts on 
future investments the DOE and industry may wish to make in 
gasification-related research, development and demonstration. This 
process will provide the DOE with market-driven guidance on R&D 
projects and directions that offer the greatest chance for private 
sector participation and ultimate adoption in commercial scale 
manufacturing plants.
    Our statement will address the gasification-related research and 
development elements of the fossil energy budget proposal, but first we 
wish to make the general observation that the R&D portion of the budget 
(items exclusive of the proposed Clean Coal Initiative which addresses 
commercial demonstration, not research) would be cut by more than 50 
percent. This is inconsistent with President Bush's clearly expressed 
desire to accelerate development of domestic energy supplies, a move 
that will require step changes in fossil fuels technologies' 
environmental, efficiency and economic performance. If the goals of the 
Department's Vision 21 program are to be achieved, with much higher 
efficiency, sharply reduced emissions and multiple product slates from 
coal-based manufacturing plants, the R&D budget must be increased, not 
cut in half.
    Our recommended changes to the proposed budget with regard to 
specific categories include:
    Gasification Combined Cycle.--The $35 million budgeted under this 
item should be increased by $15 million to permit accelerated work on 
ceramic membrane separation technologies, advanced gas cleanup, and 
gasification system sensors and controls. These are necessary for the 
technological advances required to meet Vision 21 efficiency and 
emissions targets in a timely manner.
    Advanced Turbines.--Much of the success in increasing the 
efficiency of integrated gasification combined cycle (IGCC) technology 
has been in the development and commercial introduction of more 
efficient gas turbines. The budget proposes to zero out this program 
from a fiscal year 2001 level of just under $31 million. The funding 
for the advanced turbine program should be restored. This will 
accelerate introduction of even more efficient turbines to reduce 
carbon emissions from power generation; fuel flexible turbines that can 
run on synthesis gas as well as natural gas; and improvements that 
provide greater reductions in NO<INF>X</INF> emissions without add-on 
systems.
    Fuels R&D.--The coproduction program has also been zeroed out. It 
should be restored. Central to the concept of the Vision 21 complex is 
the ability to produce liquid fuels from coal and other fossil fuels. 
Gasification and the indirect liquefaction of the synthesis gas to 
produce ultra clean fuels, such as methanol, dimethyl ether, and 
Fischer-Tropsch liquids, provide the most viable path. R&D on the 
technologies to produce such fuels should be continued.
    Clean Coal Power Initiative.--The budget calls for $150 million as 
the first installment of President Bush's clean coal initiative. The 
budget amount should be increased to $200 million, consistent with the 
President's ten year, $2 billion program.
    Gasification offers clear and measurable environmental benefits 
when compared to combustion based power generation technologies. 
However, an active research and development program is necessary to 
build on these strengths with an eye toward the much more aggressive 
Vision 21 goals. A restored DOE fossil energy budget addressing the 
above cited items offers a way forward to make the necessary step 
changes in the supporting technologies and to induce the private sector 
involvement necessary to bring the results of the research into the 
marketplace.
    Thank you for this opportunity to present our views. Additional 
information about gasification technologies is available on our web 
site: http://www.gasification.org. I also remain available to respond 
to any questions on the issues addressed in this testimony.
                                 ______
                                 
              Prepared Statement of Ohio State University
    We strongly encourage the Subcommittee to restore a specific budget 
item currently under consideration. That item provides $6.5 million to 
the United States Department of Energy--Fossil Energy Research and 
Development--Coal and Power Systems--Fuels budget for further 
development of Clean Liquid Fuels at the LaPorte Alternative Fuels 
Development Unit, a DOE-owned pilot plant. This funding continues a 
program supported by DOE in previous years and provides a cost-sharing 
of technology development with a unique collaboration that includes 
DOE's National Energy Technology Laboratory, Iowa State University, 
Ohio State University, Washington University, and Sandia National 
Laboratories. Air Products, who operates the LaPorte AFDU under 
contract to DOE, leads seven cost-sharing industrial partners.
    The LaPorte Alternative Fuels Development Unit is a unique 
resource, as the nation's only indirect liquefaction pilot plant 
facility. This facility is one of the keys to DOE's Clean Liquid Fuels 
Program, and provides an essential link in the development of 
laboratory scale studies to commercial utilization of liquefaction 
technologies. Recently, based on pilot scale demonstrations at LaPorte, 
Eastman Chemical built a 260-ton per day coal-derived methanol plant in 
Kingsport, Tennessee, replacing 260 tons per day of foreign crude 
import with 260 tons per day of domestic coal use. Further studies 
planned for LaPorte will enable more efficient usage of liquefaction 
reactors, and more stable reactor behavior when scaling up to 
production-scale systems.

                          STATEMENT OF PROBLEM
    The basic energy policy of the United States conflicts with 
projected energy supplies: we are increasingly reliant on foreign oil. 
The projected energy supplies provide a threat to the economic health 
of this great nation.
    A look at total U.S. petroleum supplies (energy and chemical) is 
shown above. The 1979 oil crisis appears with a peak in imports during 
1979. In the years preceding 1979, U.S. utilities were converting from 
coal to oil. In 1979, President Carter declared that energy imports 
would never exceed the 1979 levels. Congress passed the Fuel Use Act 
that required utilities to convert back to coal, and the post-79 data 
show its effects in reducing crude imports.
    Beginning in the mid-80s, however, imports began to increase again, 
and now exceed both the 1979 levels and the current domestic production 
rate. Federal projections to 2020 show a continuation of current 
trends, with an America dependent on foreign supplies for 2 out of 
every 3 gallons of crude oil
    Our nation is well aware of the dangers of foreign oil dependency. 
The dangers were manifested in the ``oil shocks'' of 1973 and again in 
1979. Those supply disruptions resulted in significant damages to the 
American economy.
    In November 1999, the Department of Commerce issued a report titled 
The Effect on National Security of Imports of Crude Oil and Refined 
Petroleum Products. The report stated that there is no current 
substitute for liquid fuels used in transportation (nearly two-thirds 
of oil is consumed by transportation). The report recommends continuing 
the five policy goals set forth by the Department of Energy in 1998 as 
US energy policy. One of those goals is ``to expand future energy 
choices by continuing progress in science and technology to provide 
future generations with a portfolio of clean and reasonably priced 
energy sources.'' The recommendation specifically calls for ``continued 
budgetary increases over current levels for technology partnerships 
with the private sector.'' On March 24, 2000, President Clinton 
responded by approving the report and accepting its recommendations, 
and specifically accepted the recommendation to continue existing 
policies to--``limit the dependence on foreign oil.'' Yet, our 
dependence is increasing.

                         DISCUSSION OF PROBLEM
    A mix of coal, oil, natural gas, nuclear, and renewable energy 
sources fuel the United States energy consumption. The Department of 
Energy projects only energy sources: the chart does not represent use 
of coal/oil/or natural gas as chemical feedstocks.
    While coal, natural gas, and nuclear power compete to supply the 
nation's needs for electricity and steam, effective competition for 
petroleum used in transportation does not exist. As noted above, the 
Department of Congress states that nearly all of our transportation is 
powered by and dependent on crude oil, and therefore on foreign crude 
oil.
    It is possible to reduce our reliance on imported crude by making 
transportation fuels from coal and natural gas. Considering the price 
increases observed in natural gas during the last 2 years, and 
considering that the United States has 30 times more coal reserves than 
reserves of oil and natural gas together, the use of coal as a 
feedstock to produce liquid fuels is preferable to the use of natural 
gas.
    Conceptually, a coal-to-liquid fuel process is straightforward. 
Conversion of solid fuels to liquid fuels is based on processes 
initially developed in the early 20th century. Such processes were 
employed by Germany during WWII to produce nearly 50 million barrels 
per year. South Africa, recognizing the threat it faced from its 
dependence on foreign oil, has built 9 alternative fuel production 
plants since 1955.
    The economics of coal conversion should favor the development of 
alternative fuels. Mined coal costs around $1.25 per million Btu, while 
raw crude oil costs around $4.20. Thus, there is substantial economic 
``room'' for processing costs to liquefy coal.
    Yet, the price of alternate fuels still remains high relative to 
oil. In part, liquefaction technologies are immature relative to their 
oil technology brethren. Key advances need to be made to develop state-
of-the-art materials and catalysts, and to apply newly developed 
processes, models, and sensing technologies to improve conversion 
technology to economically competitive levels. However, the current 
price structure of the oil market, and uncertainties in that structure, 
make such investments in new technology extremely risky, providing 
little or no incentive for energy companies to invest in liquefaction 
technologies research, development, and/or commercialization.
    The U.S. energy policy correctly recognizes the need for the 
federal government to ``partner'' with private industry in these areas. 
Continued support of the Alternative Fuels Development Unit is fully 
consistent with US energy policy. Funding for this unit is one key to 
the continued development of coal-based clean liquid fuels and 
chemicals:
  --AFDU research focuses on the most promising venue for technology 
        improvements--e. g. the use of high pressure/high temperature 
        conversions;
  --AFDU research has already led to the successful commercialization 
        of one coal-derived liquid fuel plant. The Kingsport methanol 
        plant resulted from coal-derived fuel development and research 
        conducted in the pilot stage at the LaPorte facility;
  --AFDU research is built on a comprehensive multi-year partnership 
        and contributes leadership, knowledge, and skills to the 
        nation's energy needs. Termination of this program would result 
        in immediate and long-lasting detriments to the nation's 
        alternative fuels program;
  --AFDU research promises the increased use of the nation's coal 
        resources. Coal is the nation's largest known energy reserve, 
        and coal mining is the sole major economic activity in much of 
        the Appalachian area of West Virginia, Kentucky, western 
        Pennsylvania, and eastern Ohio. Coal mining in these areas has 
        been declining, with the result being a serious loss of jobs.

                      ONE SOLUTION TO THE PROBLEM
    If the nation is to fully implement its energy policy, then it is 
necessary for the government to enter into technology partnerships to 
create new alternative sources of liquid fuels. The LaPorte AFDU 
funding is one of those opportunities. Past governmental funding at 
AFDU has built an unparalleled bank of skills and abilities to 
conceive, research, design, develop, and demonstrate alternate fuel 
technologies, and resulting in notable commercial success.
    Generally, federal funding of this partnership should be 
encouraged. The rewards from further successes by the AFDU team may 
include:
  --A demand for new coal production from economically challenged areas 
        of the country;
  --A reduction of a need to import crude oil;
  --The construction and operation of coil-liquid fuel plants, creating 
        jobs and income, in the economically challenged areas of the 
        country;
  --The addition of new petroleum facilities in the nation's 
        midsection, offsetting some of the supply line problems the 
        area has faced in recent years, and stabilizing its oil prices.
    On the other hand, termination of funding would disburse the 
assembled team of industrial partners and researchers, a loss of their 
pooled skills, and result in a setback in the nation's efforts to 
develop alternative liquid fuels.

                               CONCLUSION
    The focus of the LaPorte AFDU is the key element in the attainment 
of the nation's goal of developing a portfolio of clean and reasonably 
priced energy sources. Its success will result in significant economic 
benefits to the Appalachian coal basin areas of the country, and a more 
stable supply of transportation fuels. We request that the 2002 funding 
of $6.5 million for this important program be restored.
                                 ______
                                 
         Prepared Statement of Air Products and Chemicals, Inc.
    I strongly encourage the Subcommittee to add $89 million to the 
Transportation Fuels and Chemicals Program budget request of $7.0 
million within the Fossil Energy Research and Development, Fuels and 
Power Systems, Fuels program.
    The need for domestically produced, clean liquid fuels will be a 
critical issue for this Nation in the 21st century. The Energy 
Department's Fossil Energy Program seeks to ensure the development and 
demonstration of economically competitive, efficient, environmentally 
superior coal and natural gas based technologies that produce ultra-
clean transportation fuels, stationary fuels, and chemicals.
    The Energy Information Administration (EIA) projects that by 2020, 
total carbon emissions in the U.S. will increase to 1,960 million 
metric tons under business-as-usual assumptions, with transportation 
accounting for 690 million metric tons, or 35 percent of total U.S. 
carbon emissions. Furthermore, a host of potential regulatory actions 
could require major additional reductions in energy-related emissions 
during the next decade, and some are expected to be very expensive if 
compliance must depend on conventional fuels produced via conventional 
technologies. Likewise, restructuring in the electric utility industry 
will place market pressures on utilities to find cost-effective 
approaches to meeting increasingly stringent environmental regulations 
for air pollutants. The EIA also predicts that by 2020, U.S. oil 
imports (already representing over 50 percent of consumption) will rise 
to 65 percent and increase our negative balance of payments, as well as 
our reliance on a single geographic area to satisfy the increased 
demand.
    For the long-term, the wisest policy is to depend on a balanced 
mixture of energy sources. This portfolio should include an emphasis on 
the environmentally superior use of coal, the Nation's most abundant 
energy resource, and should also include the use of remote natural gas, 
biomass, and opportunity fuels, such as petroleum coke and waste 
materials. The development of new technologies to convert coal and 
other non-oil feedstocks to clean liquid fuels is critical to our 
country's energy, economic, and environmental future. Without such new 
technologies and fuels, the ability to manage emissions of carbon 
dioxide and air pollutants will be limited, and the costs of energy 
will increase.
    Experts estimate that there are more than 38 trillion cubic feet of 
recoverable remote natural gas on the Alaskan North Slope. The United 
States Geological Survey estimates that there is more than double that 
amount of technically recoverable remote reserves in undiscovered 
fields in Alaska, as well as offshore reserves in deep waters in the 
Gulf of Mexico and along the Pacific coast.
    Alaska's challenge for years has been how to economically produce 
and transport its remote natural gas to market in an environmentally 
responsible way. Oil production in the large North Slope Alaskan fields 
is declining. Already, 4 of 11 operating crude petroleum pumping 
stations for the Trans Alaskan Pipeline System (TAPS) have been shut 
down and placed on standby. As the production decline continues, the 
long-term viability of the TAPS is uncertain. Because of its 
geographical remoteness, North Slope natural gas is an undeveloped 
resource. Developing a means to recover and transport this remote 
natural gas is of vital importance to the Alaskan economy, the Nation 
and to the future of the TAPS.
    Gas-to-Liquids (GTL) technology being developed under the DOE 
Fossil Energy Research and Development, Fuels and Power Systems, Fuels, 
Transportation Fuels and Chemicals program is the most promising means 
of converting the vast quantities of Alaskan North Slope natural gas to 
liquid fuels. These liquid fuels could then be moved to market through 
the Trans Alaska Pipeline, thereby extending its functional life. 
Additionally, a compact synthesis gas generation/liquid fuels 
production facility could be a feasible source of power generation and 
transportation fuels in remote locations for U.S. military needs.
    Widespread utilization of gas-to-liquids conversion technology is 
dependent on developing a low-cost alternative for synthesis gas 
production, the first processing step in which natural gas is converted 
to a mixture of hydrogen and carbon monoxide before being processed by 
Fischer-Tropsch (FT) technology to make clean burning liquid fuels.
    Production of synthesis gas alone can represent over 50 percent of 
final product cost. Recently, considerable DOE-supported research has 
been underway to significantly reduce the cost of synthesis gas 
production via selective high-temperature membrane systems.
    Through a team led by Air Products and Chemicals, Inc. of 
Allentown, Pa., the Department of Energy's Transportation Fuels and 
Chemicals Program has been sponsoring the multi-phase development of an 
important new synthesis gas technology--referred to as ITM Syngas. The 
University of Alaska, Fairbanks, School of Mineral Engineering, is a 
participant in the ITM Syngas project team, along with Pacific 
Northwest National Laboratories, Ceramatec, Chevron, Norsk Hydro, 
Eltron Research, McDermott International, the University of 
Pennsylvania and Penn State University. ITM Syngas technology is based 
upon a novel ceramic membrane reactor that could significantly reduce 
the cost of synthesis gas production, enabling economic GTL conversion. 
Completed conceptual process design and economics for ITM Syngas show a 
>33 percent capital cost savings versus conventional autothermal 
reforming/cryogenic air separation. When successfully developed, this 
technology will result in a major step change in the conversion of 
natural gas to hydrogen and synthesis gas for liquid fuels, and for 
chemicals.
    The ITM Syngas process is also ideally suited to generate hydrogen 
in the quantities required for future fuel cell-powered vehicles and 
stationary fuel cell power generators. Lower cost hydrogen made 
possible by ITM Syngas will also help refineries meet increased 
hydrogen demand for Clean Air Act-driven oxygenated gasoline, 
reformulated gasoline, lower sulfur diesel fuels and upgrading of 
heavier and high-sulfur crude oils.
    A major reduction in the cost of producing synthesis gas via ITM 
Syngas will also have a cross-cutting impact on many U.S. industries 
that depend upon synthesis gas as a raw material in the manufacture of 
commodity chemicals and consumer goods, such as clean-fuel additives, 
rubber, polyester textiles, urethane foam, plastics, paint, detergents, 
and fertilizers.
    The $90 million, 8\1/2\ year ITM Syngas project will ultimately 
result in a pre-commercial-scale field demonstration. The team has 
provided more than 50 percent cost-share of ITM Syngas development and 
has agreed to full payback of the Federal funding contribution should 
the technology be successfully commercialized. However, the continued 
development of the ITM Syngas process will require a substantial 
financial investment by both the private and the public sector before a 
commercial technology can be realized.
    DOE's fuels program has also led to the development of the Liquid 
Phase Methanol (LPMEOH<SUP>TM</SUP>) technology. This technology can be 
used to convert synthesis gas produced from a variety of carbonaceous 
feedstocks to produce methanol. This application has appeal both for 
the power and the refinery processing industries for co-production of 
electric power and methanol for power peak shaving or as a chemical 
feedstock. Successful development of LPMEOH<SUP>TM</SUP> at the DOE-
owned, Air Products-operated LaPorte, Texas Alternative Fuels 
Development Unit (AFDU) led to a proposal and subsequent award under 
the Clean Coal Technology Program. The resulting LPMEOH<SUP>TM</SUP> 
process demonstration unit, located at Eastman Chemical's Kingsport, 
Tennessee chemical complex, was successfully started up in April 1997. 
The LPMEOH<SUP>TM</SUP> process demonstration unit reached full 
production capacity within 4 days of start-up and maintained an on-
stream availability of 99 percent from 1998 through 2000.
    With successful technical development of the Liquid Phase Methanol 
technology, the program objectives were broadened to extend the basic 
technology to other feedstocks and to the production of other liquid 
products. One such product is dimethyl ether, a clean-burning liquid 
that has the potential to become an environmentally superior diesel 
replacement.
    A unique government/university/national laboratory/industrial 
partnership was created to effectively conduct the research and 
development work described above, including periodic operations at the 
LaPorte AFDU. The major technical objectives of the program are 
threefold: (1) to develop the design tools and a fundamental 
understanding of the hydrodynamics of a slurry bubble column reactor, 
so as to maximize reactor productivity, (2) to develop improved 
catalysts to enable the economic production of liquid fuels such as 
dimethyl ether, and (3) to demonstrate developing technologies at an 
industrially relevant scale at the LaPorte AFDU. Successful completion 
of these objectives will permit more economic reactor designs, increase 
overall reactor efficiency, and ensure a design that leads to stable 
reactor behavior when scaling up to large diameter reactors. This 
program has successfully progressed with contributions from the 
National Energy Technology Laboratory, Sandia National Laboratory, 
renowned researchers at five universities, and seven cost-sharing 
industrial partners. Current partners include the National Energy 
Technology Laboratory, Sandia National Laboratory, Iowa State 
University, Ohio State University, and Washington University in St. 
Louis.
    In the future, the LaPorte AFDU will lend itself conveniently to 
another important development in the production of low-cost liquid 
fuels. The development-scale demonstrations of ITM Syngas and other 
technologies are planned for the LaPorte site, where the infrastructure 
is already in place for such demonstrations. The synthesis gas 
generated via the ITM Syngas process could be used in conjunction with 
the AFDU to produce methanol, dimethyl ether, or FT liquids, allowing 
the complete, step-by-step demonstration of liquid fuels production 
from remote natural gas.
    The focus of the DOE Fossil Energy Fuels program is consistent with 
the national policy of meeting environmental goals through the 
development of clean-burning, liquid fuels from a vast array of 
domestic carbonaceous feedstocks. We request that the Subcommittee 
provide $96 million to continue support of this important work and make 
the Department's aggressive energy and environmental goals a reality.
                                 ______
                                 
         Prepared Statement of Bob Lawrence & Associates, Inc.
    Mr. Chairman and Members of the Subcommittee: My name is Dr. L.R. 
Lawrence, Jr., and I am President of Bob Lawrence & Associates, Inc., a 
consulting firm located in Alexandria, Virginia. With me today is Ms. 
Patrice Courtney, a Senior Associate with my firm. We are here, today, 
to request full funding for the Department of Energy's Building 
Technology Programs. Specifically, we request fiscal year 2002 funding 
of $340M for these programs within which Weatherization and State 
Grants would receive no more than $140M total. I and my firm have been 
involved in issues of Energy Efficiency and Renewable Energy since 
1975, when this Subcommittee played an active and major role in helping 
to solve our country's first, major energy crisis. Ms. Courtney is 
responsible for communications regarding energy efficiency issues with 
a focus on New York State's Hudson Valley.
    Although the major oil use in this country is in transportation, 
buildings account for one-third of all energy used here, once you 
factor in the significant percentage used to generate electricity to 
heat, cool, light, and control buildings and their occupants. In 
addition, most oil use in buildings occurs in those parts of the 
country where the percentage of imported oil use is the highest. 
Therefore, efficiency increases in buildings and their associated 
technologies offset directly the import of foreign oil.
    Our purpose today, Mr. Chairman, is to support the Department of 
Energy's Building Technology, State and Community Programs which have 
been uniquely successful. Specifically, Federal investments in five 
major areas: building design software, electronic fluorescent lamp 
ballasts, low emissivity windows, advanced oil burners, and efficient 
refrigerator compressors throughout the 1970s, 1980s and 1990s resulted 
in savings in the U.S. economy totaling nearly $33 billion through 1997 
while, simultaneously preventing the emission of millions of metric 
tons of atmospheric pollutants.
    The slowing U.S. economy is significantly threatened by still--high 
oil prices. Energy efficiency has become an economic priority--because 
it is key to reducing our vulnerability to high oil prices controlled 
by unpredictable foreign hands. Today, many states are deregulating 
electric utilities in an effort to lower electricity prices. The 
California energy crisis in recent months underscores the mounting 
challenges to our infrastructure in the wake of this deregulation, even 
in these relatively prosperous times. These developments have important 
implications for energy efficiency in building technology.
    BTS--the Department of Energy's Office of Building Technology, 
State and Community Programs--plays a major role in developing, 
introducing and encouraging the adoption of technologies that make 
buildings more energy-efficient. After a decade of investment, real 
returns are clearly materializing.
    Commercial buildings, homes, factories and schools are all being 
improved by technology developed under BTS programs. From fiscal year 
1980 through fiscal year 1999, energy cost savings of an estimated 
$90.64 billion were realized from greater energy efficiency in 
buildings. The list of innovations is long: more energy-efficient 
windows, insulation, heating and air conditioning systems and home 
appliances; better lighting; advanced oil burners; EnergyPlus design 
software for architects; and fuel cells, triple-effect chillers and 
other equipment for advanced, ``green'' buildings.
    Here are some examples of BTS programs and how they're saving 
energy and dollars:
    Rebuild America is a leading example of BTS's ability to build 
partnerships with local government and the private sector. Today, three 
years ahead of schedule, BTS has more than 300 public-private community 
partnerships at work around the country. Rebuild is saving $170 million 
every year by improving the energy efficiency and operations of 
schools, municipal buildings, businesses, multifamily residences, and 
other buildings. Rebuild partners have already completed or planned 
retrofits of more than half a billion square-feet of space. And they 
are saving more than 10 trillion Btus of energy every year, enough 
energy to power 250,000 homes.
    Schools are a large part of Rebuild America. A nationwide survey 
conducted by the U.S. General Accounting Office estimated a 
conservative $112 billion to complete needed repairs, renovations, and 
modernizations for our nation's public schools. According to the DOE, 
the nation spends $6 billion each year on energy costs for schools--
about 25 percent more than necessary.
    A number of rapidly growing school districts are using ``Energy 
Smart'' school designs. Clark County, Nevada, for example, plans to 
build upwards of 100 new schools at a cost of $4 billion over the next 
several years. The school district has hired an architect who is 
working with BTS to develop first-of-a-kind ``green'' school 
construction guidelines, which have been developed with varying 
recommendations based on climate, geography and energy mix.
    BTS and its industry partners are creating ``technology road maps'' 
to target key technologies in the building and construction industries 
and to allocate future funding for research, development and 
commercialization. The maps help industry identify barriers to 
investment in energy efficiency. Road maps were completed in 2000 for 
lighting; windows; heating, ventilation, air conditioning and 
refrigeration; and for high performance commercial buildings. Next will 
be a building envelope road map. BTS now is jumpstarting research in 
the most promising areas through competitive R&D solicitations.
    DOE is now working with two companies--Trane and York 
International--to introduce to the marketplace triple-effect chillers 
that will improve U.S. economic competitiveness and energy efficiency. 
The objective of the program is to build a U.S.-developed triple-effect 
chiller that uses lithium bromide/water fluids and has a coefficient of 
performance of 1.4, which will represent a 30 to 50 percent improvement 
over double-effect chillers now available. This level of performance 
represents a revolution in large commercial chillers.
    The joint DOE-EPA Energy Star designation has become a popular one 
with consumers. That's because the typical U.S. household spends about 
$1,300 on its home energy bill. ENERGY STAR<Register> appliances and 
heating and cooling equipment can reduce that bill by up to 40 percent.
    Today more than 4,000 stores nationwide market appliances labeled 
as ``Energy Star,'' including retailers such as Best Buy, Circuit City, 
Montgomery Wards, Sears, Tops, Appliance City and others. There now is 
a voluntary partnership with the fenestration industry to promote the 
sales of energy efficient windows, doors, and skylights bearing the 
ENERGY STAR<Register> label; and a new generation of Compact 
Fluorescent Light Bulbs (CFLs) have been introduced, which meet the 
stringent criteria of ENERGY STAR<Register>.
    High Performance Buildings are a BTS area where research has given 
way to action and the result is savings. For example, the Zion National 
Park Visitor Center and Comfort Station in Springdale, Utah is one of 
the National Park Service's most efficient complexes. Features included 
in its design are daylighting, Trombe walls for passive solar heating, 
downdraft cooltowers for natural ventilation cooling, energy-efficient 
lighting, and advanced building controls. It is estimated that these 
features result in about 10 kW of electrical demand savings. A roof-
mounted photovoltaic system provides electrical power. The PV system 
reduces the amount of power purchased from the utility and it supplies 
backup power when grid power is not available. BTS provided extensive 
technical assistance to the architects and construction team.
    BTS is a leader in technology transfer to professionals in building 
technologies. For example, on its Web site is a powerful software tool 
that can be downloaded for free. EnergyPlus, formerly known as DOE-2, 
is a new generation building energy simulation program designed for 
modeling buildings with associated heating, cooling, lighting, 
ventilating, and other energy flows. A newer area at BTS is the 
Emerging Technology program, whose purpose is to increase demand for, 
and to bring new highly efficient technologies to market for buyers, 
while assisting manufacturers, ESCOs, and utilities. The goal is to 
pull these emerging technologies, as they appear in new, highly 
efficient and affordable products, into the marketplace through 
competitive procurements that are backed by large volume buyers.
    During the 1980s, funding was drastically cut for energy-efficiency 
R&D. When the programs were revisited in the early 1990s, lost ground 
had to be regained. Research successes are now turning into 
commercially viable products. It is crucially important to cost share 
the field testing phase and to push new products through the R&D 
pipeline to market acceptance, particularly in the fragmented building 
industry.
    Mr. Chairman, the required annual investment in Energy Efficiency 
and Renewable Energy is less than one percent of what we invest in 
defense, but its purpose is no less important. It is an investment in 
our economy, our standard of living, and our very way of life.
    We thank you for your attention to this matter.
                                 ______
                                 
          Prepared Statement of General Electric Power Systems
    This statement is submitted by General Electric Power Systems (GE) 
for the information of the Committee during its review of the 
Department of Energy's fiscal year 2002 budget requests for Fossil 
Energy programs. The testimony addresses several key Department of 
Energy programs: the Next Generation Turbine Program, Integrated 
Gasification Combined Cycle, and Distributed Energy Resources.
    GE recognizes that this is a transitional year for the Department 
of Energy's budget, and that future energy policy directions will be 
guided in large part by the recommendations being developed by the 
Energy Policy Development Working Group led by Vice President Cheney. 
During this period of change in the Department's policy direction, it 
is especially important to assure that adequate emphasis is maintained 
on the advancement of technologies that will enable our nation to meet 
the growing demand for electricity generation. The Administration's 
proposals for a Clean Coal Power Initiative signify its commitment to 
advancing technologies that enable greater use of domestic fossil 
energy resources.
    The Administration's expanded focus on coal need not preclude 
continued Federal investment in focused research and development on 
natural gas power generation technologies. Natural gas turbine 
technology is fuel flexible, and will be an integral part of projects 
to make greater utilization of the nation's abundant coal resources. 
Gas turbines are an essential building block for the ``Vision 21'' 
powerplant of the future, and may offer a means to use our nation's 
coal resources to its best advantage.
    Moreover, as the Energy Information Administration has reported in 
its Annual Energy Outlook 2001, natural gas will fuel 90 percent of the 
new powerplants expected to come on line in the next 20 years. Given 
this, it is important that the DOE budget make appropriate investments 
in research and development that will enable the most reliable and 
efficient use of natural gas-fired power systems.
    The model for such programs should be the Advanced Turbine Systems 
(ATS) program. There is no better example of the benefits of 
government-industry collaboration to advance technology than the ATS. 
The ATS program was competitive, heavily cost-shared, and successful in 
achieving rigorous standards for energy efficiency and environmental 
improvement. The ATS program has been completed on time and within 
budget, and will make a major contribution to the future of power 
generation not only in this country but around the world. Technology 
developed in the ATS program is currently being incorporated into all 
new GE product designs, assuring new commercial introductions as the 
result of this successful effort in the immediate future.
    While the ATS program represents significant advancement in turbine 
technology, there are still important technical challenges to be 
overcome. For this reason, GE is particularly concerned by the 
Department's proposal to terminate all funding for the Next Generation 
Turbine (NGT) program. There is a continuing need for focused, 
cooperative DOE-industry efforts in natural gas turbine technologies.

                  NEXT GENERATION GAS TURBINE SYSTEMS
    As provided in the program's vision statement, the Next Generation 
Turbine (NGT) program seeks to ``develop advanced technologies that 
will significantly improve the performance, operation, and reliability 
of gas turbine power plants while maintaining United States industry 
leadership in global electric power markets,'' in order to support the 
continued availability of clean, reliable and low life-cycle cost gas 
turbine based power in the U.S. GE Power Systems has participated in 
the initial phases of this program, which have sought to characterize 
the technology needs and future market for new power technologies that 
are fuel flexible (capable of operating on coal, oil, natural gas or 
biomass), satisfy intermediate and peak loads, and have low life-cycle 
operating costs.
    The NGT program incorporates three primary elements: systems 
development and integration; improvement in reliability, availability 
and maintainability (RAM); and cross-cutting technology support. GE 
believes that in going forward, it is critical that the NGT program 
focus on the development of technologies that may be widely applicable, 
rather than concentrating on the identification of a specific 
technology platform. If only limited resources can be devoted to the 
NGT program in this transition year, GE urges strongly that adequate 
resources of at least $3 million to $5 million be provided for RAM and 
technology support efforts.
Reliability, Availability and Maintainability (RAM)
    There can be no clearer indication of the problems that ripple 
throughout the economy if powerplants go off line than the recent 
California experience. The high rate of powerplant outages, both 
scheduled and unscheduled, has been cited as a factor contributing to 
the rolling blackouts in California earlier this year. Research and 
development focused on RAM is critical to improving powerplant 
operability. Such a program will have tremendous economic benefit by 
increasing the operational flexibility of gas turbines to provide more 
power to the electrical grid during periods of peak demand, reducing 
the costs associated with unplanned turbine outages, making the 
scheduling of maintenance more efficient, and optimizing turbine 
performance to reduce emissions. This is particularly so with new, 
highly efficient turbines, which are also far more complex to operate 
and maintain.
    Importantly, advances in RAM technology can be moved into the 
marketplace quickly and applied to the installed base, including 
current coal based systems. The economic impacts would be substantial. 
GE estimates that if only 25 percent of the F-class turbines operating 
in 2005 could have their availability increased by one day of peak 
period usage each year, the annual economic impact to the U.S. would be 
over $150 million. Furthermore, the economic benefits would increase to 
at least $750 million per day when these RAM technologies are applied 
to other GE and non-GE gas turbine powerplants.
    Industry is diligently pursuing RAM improvements. Partnering with 
the government will accelerate the pace of this work and speed the 
introduction and widespread deployment of new technology in the field.
    Improved parts life assessment methodologies for RAM is a critical 
element of the RAM initiative. Such methodologies will provide the 
materials data and analyses required to life manage components and to 
determine when components should be taken out of service and repaired 
or replaced.
    Particular emphasis also should be placed on developing 
technologies for monitoring, predicting and managing the leading 
contributor to RAM reduction: the degradation of gas turbine combustor 
and hot gas path components. Additionally, improved information 
technology is needed to seamlessly integrate information between 
sensors, databases, and analysis tools and to provide fault detection, 
diagnostics, prognostics, predicted parts usage, and plant outage 
scheduling.
    DOE support for this RAM technology development will greatly 
accelerate the implementation of condition assessment and condition 
based maintenance procedures, which will lead to a more rapid 
realization of the associated benefits to the U.S. public and industry. 
New concepts developed under this initiative will form the foundation 
upon which fuel flexible Vision 21 powerplants will be monitored, 
controlled and optimized.
Supporting Technology
    Advances in high temperature materials and processes, cooling 
techniques, sealing techniques and design optimization tools are 
enabling technologies for improving gas turbine output and efficiency, 
increasing reliability, and increasing power availability. GE strongly 
supports process development in the critical areas of investment 
casting of airfoils and melting/casting/forging of large rotor 
structures. New advanced gas turbine engines require complex 
directionally solidified and single crystal airfoils. Improved casting 
processes, such as liquid metal cooling, are needed to reduce defects 
and improve yields. Process development for nickel-base superalloy 
rotor structures is also a critical need. Development of robust 
melting/casting processes for large ingots and development of improved 
forging process models and practices will eliminate ingot defects and 
reduce variability in forging microstructures. Advanced high 
temperature materials include nickel-base superalloys for airfoil 
applications, improved durability thermal barrier coatings, and 
ceramic-matrix composites. In addition, high temperature steel alloys 
for high efficiency steam turbines are a critical development need. A 
collaborative program to develop material design methodologies to 
address these needs would be extremely useful throughout the U.S. 
industry.

                 INTEGRATED GASIFICATION COMBINED CYCLE
    GE strongly endorses the development of technology that will 
advance the utilization of coal resources for power generation in a 
clean, environmentally superior and efficient manner. Coal fueled 
Integrated Gasification Combined Cycle (IGCC) has been demonstrated to 
provide high efficiency with low emissions. Gas turbine technology 
development has greatly contributed to increased use of IGCC power 
plants worldwide.
    IGCC technology can provide clean power from a broad range of 
coals, as well as low or negative value opportunity fuels. 
Additionally, IGCC can co-produce hydrogen, sulfur, ammonia and 
methanol. Continued support for IGCC technology can provide the United 
States with the catalyst for the environmentally compatible growth of 
coal-based power.
    GE has supported DOE's investigation of research needs in 
gasification and has provided its recommendations to the Department. 
The areas that deserve particular attention are robust gasifier 
refractory materials to increase life and reliability, and continued 
and aggressive development of low-emissions turbine combustion of low-
BTU gases. GE's own investigations have shown the potential for NOx 
emissions in the mid single-digit parts-per-million range. We urge 
Congress and DOE to support research that will provide the continued 
development of IGCC as an environmentally superior technology for the 
burning of coal.

                      DISTRIBUTED ENERGY RESOURCES
    GE supports funding for distributed generation (DG) technology 
advances, contained in both the fossil energy and energy efficiency 
budget requests. The specific areas of focus for combustion based DG 
should be reduction in emissions, increased efficiency, fuel 
flexibility and reduction in equipment cost. Combustion based DG would 
include microturbines ranging from 30 to 500 kW and reciprocating 
engines ranging from 300 to 3000 kW. The specific areas of focus for 
PEM fuel cell DG should be high temperature membranes, increased 
efficiencies, fuel flexibility and reduction in equipment cost.
    In addition to the current programs supported by DOE, there are 
other efforts that should be supported. Programs focused on grid 
interconnection cost reduction, increased power quality, system 
monitoring and reduction in installation and operating cost should all 
be considered in order to ensure success of all DG technology options.
    The Department's budget request for distributed generation programs 
in the fossil energy budget account includes funding for the 
development of a commercial prototype of a solid oxide fuel cell/
turbine hybrid. The Department's planned focus on this technology 
highlights once again the need for adequate investment in improving 
turbine technology, which will be a key contributor to the success of 
proposed hybrid systems.

                               CONCLUSION
    Investments in fossil energy programs remain essential to meeting 
the nation's energy needs. The Department's budget justifications 
acknowledge that technology development is vital to assure that a range 
of options is available for power generation in this country, and also 
to support U.S. technology leadership in export markets. Gas turbine 
technology initiatives should be part of a robust portfolio of energy 
technology development programs supported by the Department in fiscal 
year 2002.
                                 ______
                                 
  Prepared Statement of the American Society of Mechanical Engineers 
                             International
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to present the views of the Energy Committee of the Council 
on Engineering (COE Energy Committee), American Society of Mechanical 
Engineers (ASME International), regarding appropriations for the Fossil 
Energy and Energy Conservation programs of the Department of Energy. 
The 125,000-member ASME International is a worldwide engineering 
society focused on technical, educational, and research issues. Energy 
research to meet national and global needs continues to be one of the 
most important topics of interest to ASME members.

            INTRODUCTION TO THE COE ENERGY COMMITTEE OF ASME
    The 125,000-member ASME International is a worldwide society 
dedicated to the advancement of the art and science of Mechanical 
Engineering. We focus our efforts on technical, education, and research 
in Mechanical Engineering and conduct one of the world's largest 
technical publishing operations. The COE Energy Committee consists 
primarily of members representing eight technical divisions and three 
ASME Boards (approximately 40,000 members) that address energy 
technologies, resources, and utilization.

                   VIEWS OF THE COE ENERGY COMMITTEE
    Reliable and affordable sources of energy are essential for 
America's economic and national security. Recent price spikes and 
supply disruptions have brought the critical nature of energy to the 
public eye and underscore the need for a comprehensive energy strategy 
for meeting present and future consumer demands for an abundant, 
affordable, and available supply of energy.
    We offer the following recommendations to the Subcommittee as you 
address the myriad, serious energy issues facing the nation in your 
work to allocate fiscal year 2002 funding for programs in the Offices 
of Fossil Energy and Energy Efficiency:

  OBSERVATIONS ON THE PROPOSED BUDGET FOR FOSSIL ENERGY RESEARCH AND 
            DEVELOPMENT AND FOR TRANSPORTATION TECHNOLOGIES
    We applaud the administration's budget request for a Clean Coal 
Power Initiative (a $150,000,000 new program), but we note that the 
funding requested for this initiative is obtained at the expense of 
drastically reducing, or in some cases eliminating, major R&D programs 
that will be critical to addressing what is quickly becoming an energy 
crisis in this country. The Energy Committee believes strongly that the 
Clean Coal Power Initiative, as worthy as it is, should be supported 
with additional funds to the fiscal year 2002 allocation. This addition 
will enable an overall, robust fossil fuel research and development 
program, which would then be funded at a level commensurate with its 
importance. We urge the Subcommittee to attempt to identify additional 
funding within its allocation to provide resources for these important 
programs.
    If our nation is to keep pace with growing energy demand and offset 
plant retirements, the Energy Information Administration estimates that 
1,300 new power plants will have to be constructed and brought online 
by 2020. That will necessitate bringing nearly 69 new plants online 
every year for the next 19 years--more than one plant per week. We are 
concerned that the proposed fiscal year 2002 budget will seriously 
reduce our nation's investments in critical R&D for technologies 
necessary to meet the nation's ever-growing demand for electricity.
    As we struggle to meet demand, we are also concerned that the vast 
majority of the new power plants likely will be fueled with natural 
gas. The recent shortages and concomitant price spikes for that fuel 
underscore an urgent need to diversify the nation's energy portfolio. 
We firmly believe it is folly for the U.S. to continue to rely on one 
fuel for an increasing percentage of its electricity generation, while 
at the same time relying on the same fuel for a substantial portion of 
its home heating needs as well as chemical production. Fuel diversity 
will require technologies to improve the environmental performance of 
coal-fired power plants and the efficiency of gas turbines to reduce 
our reliance on natural gas.

                         FOSSIL ENERGY PROGRAMS
    Advanced coal-based power generation will depend on technologies 
for gasification, gas stream cleanup, separation of gas mixtures such 
as carbon monoxide and hydrogen or oxygen separation from air, and gas 
turbines and fuel cells that will have high efficiency and low 
emissions. The proposed budget will seriously set back the target dates 
for deployment of these technologies.
    Advanced turbine systems have been developed for natural gas fired 
systems. However, there remain serious issues in R&D to be addressed in 
achieving their design operating conditions while meeting target 
maintenance schedules. The budget request essentially eliminates the 
Advanced Turbine Program. We oppose this decision, because we believe 
it is critical that advanced turbines be fuel flexible, such as being 
able to operate on synthesis gas from coal. We recommend that funding 
be restored to a level of $30 million in fiscal year 2002, with 
increased emphasis on fuel flexible turbine designs that include coal-
generated syngas operation.
    Fuel cell technologies still require basic and applied research, 
engineering development, and successful deployment, to attain the 
promise of high efficiency and effective integration with combined 
cycle gas turbine systems. We recommend a funding increase of $16 
million over the Administration request for fiscal year 2002 in fuel 
cell research for power generation systems. Successful integration of 
fuel cells with advanced gas turbine systems will result in high 
efficiency systems, which inherently will produce fewer carbon dioxide 
emissions, in addition to reducing the release of criteria pollutants 
into the atmosphere.
    It is widely accepted that fossil fuels will be a key player in 
meeting national and global energy needs for the first half of this 
century. Carbon capture and sequestration technologies will be needed 
to address concerns about global climate change from greenhouse gas 
emissions. We recommend an increase of $9 million above the 
administration's request to enable the rapid development and deployment 
of carbon capture and sequestration technologies.
    We are dismayed that the budget request for fiscal year 2002 has 
essentially eliminated fuels research, which particularly affects the 
development and deployment of transportation fuels needed to meet new 
air pollution and efficiency criteria projected for the transportation 
sector. Attainment of alternative sources of liquid fuels, coupled with 
the requirement to meet low sulfur requirements for diesel and 
automotive fuels, will require a wide ranging research program in fuel 
manufacture, transport, and distribution. We recommend that the fiscal 
year 2002 fossil energy program in liquid fuels development--ultra 
clean fuels, future fuels, gas-to-liquids--be supported at an overall 
level of $50 million over the various programs.
    The natural gas and petroleum programs have been reduced to 
approximately half their fiscal year 2001 level in the administration's 
request. We find such recommendations to be inconsistent with our need 
to develop our indigenous resources in an environmentally responsible 
way to meet rising demand and reduce imports. Exploration and 
production technologies must be further advanced, especially with 
regard to sensitivity to the environmental impacts of such operations. 
Funding for E&P and environmental programs should be restored to their 
fiscal year 2001 enacted levels.
    We recommend similar increases over the fiscal year 2002 
recommendation for programs in reservoir life extension and management, 
emerging processing technology, infrastructure protection and 
development, and gas hydrates programs.
    The recently established National Energy Technology Laboratory must 
be adequately funded to attain the excellence expected of such 
laboratories as a leader in science and engineering, especially in a 
technology area which affects so many people in their day-to-day and 
season-to-season reliance on energy. We recommend that funding be 
restored to retain and invigorate the programs undertaken by the 
laboratory personnel.

                  TRANSPORTATION TECHNOLOGIES PROGRAMS
    The Administration is preparing a budget amendment to be submitted 
shortly which will reduce the funding for transportation technology 
programs by about $55 million compared to fiscal year 2001 
appropriations. These reductions will especially impact the Partnership 
for a New Generation of Vehicles (PNGV) program.
    Through partnerships with industry, research organizations, state 
governments, and other federal agencies, the Office of Transportation 
Technologies has developed programs to meet our national standards for 
performance and vehicle emissions for a wide class of vehicles. These 
programs will develop better engines, lighter vehicles, and better 
emission reduction systems for automotive vehicles, and light- and 
heavy-duty trucks. Consumer focus on sport utility vehicles (SUVs) 
requires innovations in this product line to reduce emissions and 
improve efficiency. The proposed significant reduction in funding for 
transportation technology programs will seriously impact our ability to 
reduce emissions and meet national goals for curbing petroleum imports.
    We are concerned that the funding cuts may preclude completion of 
the light vehicle diesel engine program that is designed to enable the 
industry to meet the Tier 2 standards. Therefore, we recommend 
restoration of funding for the PNGV program.
    The proposed budget reductions will also limit the funding which 
can be dedicated to fundamental science and engineering programs needed 
to ensure successful completion of advanced transportation vehicle 
systems. Energy efficiency programs have provided advances in 
electrochemical technology areas that will be needed in transportation 
systems of the future. Additional research is needed in fuel cells 
technology, reformer technology, and emissions systems. We recommend 
that funding for the overall OTT program be restored to the fiscal year 
2001 level.
    We note that the Office of Fossil Energy and the Office of Energy 
Efficiency are working cooperatively in the engines /fuels area with FE 
addressing the production of advanced fuels and EE addressing the 
engine and emissions components of this three legged program. Their 
mutual success depends on restoration of funding for the fuels program 
element under the fossil program as an adjunct to restoring the funding 
for engines and emissions work in the energy efficiency program.

                         BUILDING TECHNOLOGIES
    The Committee is disappointed in the proposed administration budget 
for these programs. Buildings consume about one third of the energy 
used in the U.S. The last 25 years have seen major efficiency gains 
from research and development in this sector. Efficiency of typical 
residential air conditioners has almost doubled. Variable air volume 
systems have largely replaced constant volume systems in new commercial 
buildings. Electronic ballasts and more efficient light sources are 
increasingly used. Low-e glass windows have greatly reduced heating and 
cooling impact.
    The potential for further efficiency improvements in this sector 
can lead to further efficiency improvements that can reduce the need 
for energy supply by the equivalent of more than 2 billion barrels of 
oil equivalent per year. In the face of an energy situation that at 
least borders on a crisis, this is not the time to reduce our 
commitment to improved efficiency in the buildings sector by cutting 
the budget for Buildings Technology almost in half. The industry that 
designs, builds and operates buildings is highly fragmented and spends 
little on research.
    Achieving the potential efficiency improvements in the buildings 
sector requires advances in the following areas: residential heat 
pumps, furnaces and air conditioners, water heaters, ventilation 
techniques, fundamental building thermal processes, and advanced 
building materials. Software-testing protocols are needed for 
certifying energy code compliance software. In the commercial sector, 
there is a broad consensus that better techniques for integrated design 
are needed. Development and widespread application of optimum operating 
techniques has the potential to increase the efficiency of building 
HVAC operation by 20-30 percent over the next 10-20 years. Key needs 
are development, testing and automation of the diagnostic techniques 
and simulation techniques needed to identify and implement optimum 
operation. This technology can be the most cost effective part of a 
national energy policy. Lighting, dessicant cooling, better evaporative 
coolers and chillers, and controls advances all require additional 
research in the commercial sector.
    We recommend increased funding slightly above fiscal year 1901 
levels to $109.6 million, as the minimum level needed in a budget-
constrained year to permit significant progress in this area.

                        INDUSTRIAL TECHNOLOGIES
    The Office of Industrial Technologies (OIT), through its Industries 
of the Future program, its Best Practices program, its Industrial 
Assessment Centers, and the Targeted Audits and Cost-shared Audits 
programs, works cooperatively with the nine most energy intensive 
industries in the United States. Each of these programs has 
demonstrated over many years cost-benefit ratios ranging from 5:1 to 
30:1. In helping small- and medium-sized manufacturing facilities--and 
indeed entire industries--become more energy efficient, these programs 
help to reduce the substantial demand for electricity in our nation, 
and will, over time, reduce the number of new power plants that will 
have to be brought online over the next 20 years. Because most of these 
programs have reached only a fraction of the nation's industrial base, 
we recommend that funding for these programs be restored to at least 
the levels appropriated in fiscal year 2001 so that important energy 
efficiency gains can continue to be realized.

                             OTHER COMMENTS
    The Energy Committee has concerns regarding other elements of the 
fossil and energy efficiency programs. The short interval of time 
between release of the Administration's budget and the due date for 
testimony precluded our developing additional comments. We will be in 
contact with the Subcommittee to bring additional concerns for your 
consideration in the future.
    As a general closing comment, the COE Energy Committee recommends 
that the Offices of Fossil Energy and Energy Efficiency increase 
support for programs targeted toward academe to stimulate new ideas in 
energy research and education.
    Thank you for the opportunity to offer testimony regarding the 
fossil energy and energy conservation budgets proposed for the 
Department of Energy. The COE Energy Committee will be pleased to 
respond to requests for additional information or perspectives on other 
aspects of our nation's energy program.
                                 ______
                                 
         Prepared Statement of Siemens Westinghouse Power Corp.

                       SUMMARY OF RECOMMENDATIONS
    Siemens Westinghouse Power Corporation recommends the following 
funding levels for Central Systems and Distributed Generation Systems 
in the fiscal year 2002 DOE Fossil Energy R&D budget for Interior 
Appropriations:

                        [In millions of dollars]

Central Systems, Turbines.........................................    15
Central Systems, University Gas Turbine Technology Research 
    Program.......................................................     5
Distributed Generation, Fuel Cells, Vision 21 Hybrids.............    15
Overall Fuel cell budget..........................................    60

  --Recent problems in the West and elsewhere have demonstrated the 
        need to increase the supply of clean, affordable electric power 
        while improving the efficiency of its use.
  --Technology development funding is inadequate in the 
        Administration's budget request for the two technologies that 
        offer the greatest near-term potential for improvements in 
        electric system efficiency, economics and reliability.
  --Gas turbines and fuel cells are central to increasing the 
        productivity of the US electricity system because they are the 
        final step in converting the energy stored in natural gas and 
        coal to electricity. They have the greatest potential of making 
        additional improvements in generation efficiency and 
        reliability.
  --The Administration's elimination of all fiscal year 2002 funding 
        for the DOE's Gas Turbine R&D programs is inconsistent with the 
        role that gas turbines are expected to play in the U.S. energy 
        supply mix over the next 20 years. Therefore, we recommend a 
        fiscal year 2002 funding level for DOE's Gas Turbine R&D 
        program of $15M, a 50 percent reduction from fiscal year 2001 
        levels. These funds would allow for the orderly completion of 
        on-going contracts and accommodate continued technology 
        development for the Next Generation Turbine program (NGT).
  --We also recommend continued support for the University Gas Turbine 
        Technology Research Program, administered by the South Carolina 
        Institute for Energy Studies at Clemson at a level of $5M to 
        encourage pre-competitive basic science program participation 
        by the university community.
  --Proposed 2002 funding levels for the DOE fuel cell R&D program are 
        also unrealistically low given the promise the technology holds 
        for meeting future energy efficiency expectations.
  --Expand DOE Fossil Energy's overall fuel cell budget from the 
        Administrations's request of $45 million to $60 million to 
        include full funding for the SECA program.
  --We recommend an increase in fiscal year 2002 funding for the DOE 
        Vision 21 Hybrid Fuel Cell Program from $11.5 million to at 
        least $15M; a level consistent with fiscal year 2001 funding. 
        Such funding will allow for the support of near-term hybrid 
        demonstration programs that will accelerate commercialization 
        of the technology.

                              GAS TURBINES
    According to recent testimony by the Energy Information 
Administration (EIA) natural gas use and production is projected to 
increase substantially between 2000 and 2020. A major reason for this 
projected increase is a heavier reliance on natural gas for generating 
electricity, largely from combustion gas turbines which emit very low 
levels of pollution and can be brought on line in a relatively short 
time. While EIA projects all sectors to increase their use of natural 
gas, electric generation is projected to show the greatest increase 
from about 8 TFC to perhaps 12 TCF or about 50 percent.
    EIA estimates the need for between 150 and 200 gigawatts of new gas 
turbine capacity over the next 20 years; with substantially higher 
demands if combined cycle gas turbines are included. As a major 
supplier of gas turbines to generate electricity, Siemens Westinghouse 
Power Corporation is doing everything it can to meet these challenges 
in an environmentally acceptable manner while at the same time 
addressing DOE goals for a more efficient and cost effective 
technology.
    In response to these objectives and other expectations, DOE's 
Advanced Turbine System program (ATS), which concludes in 2001, 
succeeded in significantly improving the performance of current gas 
turbine technologies by increasing operating efficiencies, lowering 
unit costs and reducing emissions. The figure below shows the projected 
impact of the program on planned additions to the U.S. power grid, 
saving almost 30 million tons of CO<INF>2</INF>. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    New environmental requirements, as well as demands for more cost 
effective generation technologies, will continue to require a next 
generation of even more efficient gas turbines. Our past experience 
with the ATS program suggests that there is a direct correlation 
between federal R&D spending and the rate of introduction of newer and 
more efficient generation technologies. For example, one speaker at the 
March 27 EIA National Energy Modeling System/Annual Energy Outlook 2001 
Conference noted that continued technology progress has provided 
substantially more value to consumers than to industry. The speaker, 
Vello A. Kuuskraa of Advanced Resources International Inc, estimated 
that over the next 20 years the benefits to domestic gas consumers of 
technology progress (a portion of which is gas turbine R&D) would be 
$1.6 trillion. This is approximately the same as the Administration's 
proposed tax cut!
    Former Congressman Phil Sharp pointed out recently in testimony 
before the House Appropriations, Subcommittee on Interior, that since 
the 1970's, significant efficiency gains have been accomplished in 
nearly every sector of energy production and consumption. He noted that 
government policies have undoubtedly contributed, through research and 
development and through energy efficiency standards, to these gains. 
Thus increased energy efficiencies, especially in gas turbines, have 
long been a cornerstone of our federal government R&D program 
initiatives. Congressman Sharp quoted one analysis undertaken by Dr. 
John Holdren which found that between 1970 and 2000, efficiency 
improvements saved us two and one half times more energy than was 
supplied by growth in all fuel use. This Subcommittee has played a 
critical role in supporting many of the technologies that have made 
this progress possible. We appreciate your leadership and we hope to 
see this strong role continued in the future.

                               FUEL CELLS
    Though results are just now entering commercial markets, the DOE 
Fuel Cell R&D program has produced its own set of successes. It is now 
clear that electrical efficiency levels approaching 50 percent are well 
within the limits of current fuel cell technologies with virtually no 
emissions. This compares to about 25 percent for other distributed 
generation technologies, and about 35 percent for the average power 
generated in the United States. The 100kW SOFC system demonstrated by 
Siemens Westinghouse has shown remarkable performance and long life, 
leading a key DOE official to call it the ``Eveready Bunny of fuel 
cells--It keeps on going.'' Furthermore, on an overall fuel 
effectiveness basis (combining heat and power) it demonstrated 73 
percent efficiency! In another recent achievement, a fuel cell hybrid 
system produced by Siemens Westinghouse, in combination with a micro-
turbine, has already demonstrated 52 percent electrical efficiency. 
Additional development will increase electrical efficiency to 60-70 
percent or more. The Subcommittee can take much pride in its support 
over the years for fuel cell R&D; but additional resource commitments 
are still required to finish the job of demonstrating system 
reliability and reducing costs.
    Solid oxide fuel cell technology, which Siemens Westinghouse 
actively developed with DOE support, has achieved extraordinary 
environmental improvements with acid rain pollutant emissions measuring 
less than 0.5 ppm, a factor 40 to 100 times lower than typical US power 
plants. While costs are still too high for fuel cells to have a rapid 
market entry, we are actively working with DOE to reduce fuel cell 
costs and accelerate widespread commercial application. We believe the 
basic prototype SOFC system can be deployed commercially in 2004. The 
Vision 21 Hybrid Power Plant, which combines a fuel cell with a micro-
turbine, holds the greatest promise for broad commercial application 
and can be deployed about one year later. Previous fiscal year funding 
shortfalls have delayed the introduction of fuel cells into the 
marketplace by perhaps as much as two years. Thus, increasing federal 
support is critical to keeping the program on an accelerated 
introduction schedule.
    The United States is Siemens Westinghouse's global center of 
excellence for solid oxide fuel cell technology. Private investment in 
SOFC fuel cell technology in fiscal year 2002 will be at least $12 
million. We believe however, that additional funding will be required 
to meet both Siemens Westinghouse's and DOE's expectations for this 
promising technology.

                       SUMMARY OF RECOMMENDATIONS
    Continue the historically strong federal support for improvements 
in gas turbine technologies by restoring the DOE gas turbine technology 
R&D program to a funding level for fiscal year 2002 of $15 million.
    Continue the Government-University-Industry partnership in gas 
turbine technology development by funding University turbine research 
at $5 million
    Continue R&D Fuel Cell Systems and Vision 21 Hybrid Fuel Cell 
research funding, increasing the administration's requested amount from 
$11.5 to $15 million for each of these programs.
    Expand DOE Fossil Energy's overall fuel cell budget from the 
Administration's request of $45 million to $60 million, to include full 
funding for the SECA program.
    As a nation, it is unlikely that we will be able to meet our public 
commitment to greater energy efficiencies, lower emissions and lower 
electricity costs without continued improvements in gas turbine and 
fuel cell technologies. No matter which direction our energy future 
takes, gas turbines and fuel cells are the solution to meeting our 
future power generation needs. Siemens Westinghouse Power Corporation 
believes that continued progress toward these commitments will 
certainly be delayed without increased support for these technologies.
    Quoting once again from the testimony of Henson Moore at the 
Interior Appropriations Subcommittee hearing on March 29, ``you are the 
investors on behalf of the American people''. These investments will 
require both foresight and commitment now if we are to meet our 
expectations and commitments in the future.
                                 ______
                                 
         Prepared Statement of the Fuel Cell Power Association
    In last year's statement to the Subcommittee, FCPA stated, ``years 
of insufficient capacity and transmission additions have resulted in 
the North American Electric Reliability Council forecasting negative 
power margins in several regions of the U.S. by the year 2007.'' This 
year's rolling blackouts in California have brought this problem to the 
attention of the entire nation. Electric power industry analysts are 
now predicting that this condition is not only going to worsen in 
California, but the Northwest, Midwest and Northeast regions of our 
nation are in danger of experiencing California style rolling 
blackouts' this summer.
    The American public now understands that an inadequate supply of 
reliable power is threatening the U.S. economy. The nation's consumers 
also recognize that electricity can, and must, be produced and 
delivered more cost effectively and more cleanly than it has in the 
past. Clean, efficient, and highly reliable fuel cells can transform 
the way power is generated and delivered in the United States. Fuel 
cells emit virtually no pollution, are substantially more efficient 
than existing technologies, and are ideally suited to the developing 
market place for distributed generation. Because fuel cells can be 
quickly installed at the ``point of demand'' to supply high-quality 
power, they are the ideal solution for the kinds of problems we are 
experiencing in California.
    To meet the nation's growing demand for clean power, FCPA 
recommends that Congress provide the following fiscal year 2002 funding 
levels for DOE government/industry fuel cell research and development 
partnerships.

 FUEL CELL POWER ASSOCIATION FISCAL YEAR 2002 STATIONARY FUEL CELL R&D 
                            RECOMMENDATIONS

Office of Fossil Energy--Distributed Generation Systems--Fuel Cells

                          [Millions of dollars]

Fuel Cell Systems.................................................  13.5
Vision 21 Hybrids.................................................  15.0
Innovative Systems Concepts--SECA.................................  21.1

    If the nation is to meet its demand for reliable power and realize 
fully the goal of clean, cost effective power, we need to increase the 
national commitment to fuel cell development and the near-term 
commercialization of these technologies. Fuel cells are devices that 
convert chemical energy in fuel to electricity and heat, without 
combustion. Exceptionally efficient, non-polluting, and highly reliable 
fuel cells will transform the way power is generated and delivered.
    DOE is leading the federal government's effort to make this vision 
a reality through its stationary fuel cell R&D initiatives. These DOE 
programs form critical partnerships with the fuel cell industry so that 
fuel cell power generation systems can be made available in a timeframe 
that coincides with the nation's growing demand for new sources of 
power.

                  FUEL CELL SYSTEMS/VISION 21 HYBRIDS
    The vision of commercially viable power generation using molten 
carbonate and solid oxide fuel cell technologies has been proven--but 
much work needs to be done before the units are ready for commercial 
use. Progress is attributable to the DOE Office of Fossil Energy Fuel 
Cell Systems technology development partnership program. The partners 
are achieving milestones consistent with program funding levels, but 
not on program schedule.
    While the Federal investment in power generation technology R&D has 
increased the pace of fuel cell development efforts, years of funding 
at levels well below the amounts identified in the program plans 
continues to delay the technologies' readiness. Again this year, the 
initial funding levels proposed by the Administration are below the 
amounts agreed upon and needed to fulfill the requirements of the 
program. Considering the current state of U.S. electric generation 
capacity, the Federal government should be attempting to accelerate, 
not decelerate, the pace of fuel cell market availability. It is 
critical that Congress and the Administration make these two projects a 
top funding priority, budgeting and appropriating the resources needed 
to drive this much needed power generation technology closer to the 
point of commercialization.
    In accordance with current program goals, the Molten Carbonate and 
Solid Oxide Fuel Cells are expected to be commercially available in 
sizes up to 2MW by 2003. These systems will have total system thermal 
efficiencies up to 85 percent LHV with fuel to electricity efficiencies 
of 50 to 60 percent. Following the markets acceptance of the initial 
commercial products, manufacturers are also planning to make systems in 
the 50 to 100 MW range. Reductions in the cost of coal gasification and 
gas cleanup will ultimately lead to the fueling of these products with 
coal as early as 2010.
    The Molten Carbonate and Solid Oxide Fuel Cell work directly 
impacts the success of Fuel Cell/Gas Turbine Hybrid Systems that are 
expected to realize a 25 percent increase in efficiency and 25 percent 
reduction in cost for a comparably sized fuel cell. Combining fuel 
cells and gas turbines wll provide the synergy needed to realize the 
highest efficiencies and lowest emissions of any fossil energy power 
plant. The Hybrid System will use the rejected thermal energy and 
combustion of residual fuel from the high-temperature molten carbonate 
and solid oxide fuel cells to drive a gas turbine. The gas turbine 
helps reduce the balance of plant cost.
    By 2010, these hybrid configurations are expected to achieve 
efficiencies greater than 70 percent, and 80 percent efficiencies are 
expected by 2015. Past and current DOE fuel cell and gas turbine R&D 
programs have laid the technological groundwork for the hybrid systems.
    Exploratory research on fuel cell/turbine hybrids is underway 
involving the evaluation of a 75-kilowatt turbine operating in 
combination with a simulated fuel cell. Researchers are engaged in 
conceptual feasibility and special purpose turbogenerator design 
studies.
    The Fuel Cell Power Association recommends the Fuel Cell Systems 
(Molten Carbonate Systems) and Vision 21 Hybrid (Solid Oxide Fuel Cell 
Systems) programs receive fiscal year 2002 funding at $13.5 and $15 
million respectively.

                   INNOVATIVE SYSTEMS CONCEPTS--SECA
    The DOE Innovative Systems Concepts--SECA R&D program goal is to 
develop a new generation of lower cost fuel cells. To attain lower 
costs, the program will focus on integration of design, high-speed 
manufacturing, and materials selection. The program aims to realize the 
full potential of fuel cell technology through long-term materials 
development
    The SECA program will focus on the development and mass production 
of 5kW solid state fuel cell modules. Ultimately, these fuel flexible, 
multi-function fuel cells are projected to attain 70-80 percent 
efficiency in combined-cycle mode, and will provide future energy 
conversion options for large and small-scale stationary and mobile 
applications. The program is also targeting the achievement of stack 
fabrication and assembly costs of $100/kW, system costs of $400/kW, 
near-zero emissions, and compatibility with carbon sequestration.
    Industrial development teams share the development costs on these 
fuel cell power generation systems. The teams will develop the 
manufacturing capability and packaging needed for the different land-
based power generation systems to automotive auxiliary power units 
targeted by the program.
    Universities, national laboratories, and other research-oriented 
organizations will participate in a Core Technology Program to support 
the industrial development teams. The industry teams will determine the 
scope of the problem-solving research needed to overcome barriers, and 
the resulting research will be made available to all industrial teams. 
The National Energy Technology Laboratory and the Pacific Northwest 
National Laboratory will provide the coordination and technical 
resources.
    FCPA recommends that the Innovative Systems Concepts--SECA Program 
should be funded at $21.1 million in fiscal year 2002.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      FULE CELL POWER ASSOCIATION
    The Fuel Cell Power Association (FCPA) promotes the interests of 
the fuel cell industry by educating the government and public on the 
societal benefits of highly efficient, clean fuel cell power. Of 
primary importance to FCPA's members is the advocacy of government 
support for R&D programs and regulatory policies to facilitate the 
development and commercialization of fuel cell technology for 
stationary power. A key element of this communication is the education 
of government officials on the essential role the government plays in 
improving the economic and technical viability of fuel cells for 
stationary power.
                                 ______
                                 
           Prepared Statement of the Gas Turbine Association
    The Gas Turbine Association (GTA) appreciates the opportunity to 
provide the Senate Appropriations Committee's Interior and Related 
Agencies Subcommittee with our industry's statement regarding the 
Department of Energy's Office of Fossil (FE) and Office of Energy 
Efficiency and Renewable Energy (EE) fiscal year 2002 funding. GTA 
recommends Congress provide funding at the following levels for DOE gas 
turbine research and development programs:

                        [In millions of dollars]

FE Next Generation Turbine Program:
    Turbine Power Systems Development and Integration.............    45
    Reliability, Availability and Maintainability Improvement.....    20
    Crosscutting Research and Development.........................    15
EE Distributed Energy Resources Program:
    Advanced Microturbine Systems.................................    20
    Industrial Gas Turbines.......................................     7
    Technology Base...............................................    13

                   FE NEXT GENERATION TURBINE PROGRAM
    U.S. Department of Energy (DOE) Next Generation Turbine (NGT) 
Program focuses on R&D to reduce power transmission congestion, and 
improve the reliability, availability, and maintainability of existing 
and future turbine power generation systems. The NGT Program has been 
designed to fully integrate into the DOE Vision 21 power plant plans by 
targeting technologies that will deliver the maximum power supply 
efficiency and fuel-flexibility. The following highlights the benefits 
of this R&D effort and the Gas Turbine Association fiscal year 2002 R&D 
funding recommendations.
Turbine Power Systems Development and Integration ($45 Million)
    Flexible Turbine Systems.--The Flexible Turbine Systems will fill a 
critical void in the U.S. power generation capability by (1) Operating 
in the intermediate range of 500-5,000 hours per year with an output 
greater than 30 MW; (2) Providing electricity at a cost 15-20 percent 
below that of current systems serving this power generation segment; 
(3) Serving as new capacity, or in re-powering of older fossil units by 
replacing the more than 120,000 MW of aging oil and natural gas fired 
steam cycle plants across the country, and providing at least 15 
percent more efficiency than current systems, with both capital cost in 
$/kW and maintenance cost in $/kWh 15 percent less than comparable 
conventional products; and (4) Enabling the partial re-powering of 
existing steam plants, without investing in a full re-powering project 
enabling both base load and on-peak power from those facilities, and 
provide waste heat for regeneration, feed-water heating, steam raising, 
and fuel heating.
    Fuel-Flexible Advanced Turbine System.--While most gas turbines are 
currently fueled by natural gas, cost-effective conversion of coal and 
renewable gas streams into clean power cannot be accomplished without 
an advanced gas turbine system. Gas Turbines are the cleanest and most 
efficient way of using coal as a fuel, via integration with coal 
gasification systems. The achievement of important technological 
advancements will enable the near-term, economical utilization of these 
fuels in state-of-the-art Fuel-Flexible Advanced Turbine System.
    Turbine Fuel Cell Hybrids.--The DOE Vision 21 initiative identifies 
Turbine Fuel Cell Hybrids as key technology for enabling energy plants 
to serve the U.S. and global energy needs of the early 21st century. A 
gas turbine is used to pressurize fuel cells and thus the system 
requires development of customized turbo machinery and balance of plant 
to reduce the overall cost of projected commercial systems. Development 
of multi-megawatt size hybrid systems, and extensive field 
demonstrations, are necessary to achieve the goals of the DOE Vision 21 
plans. The Hybrid will (1) Achieve the ultra-high 70 percent 
efficiency; (2) Emit ultra-low emissions of less than 1 ppm Nox; and 
(3) Provide distributed energy with multi-fuel capability (natural gas, 
coal and renewable).
Reliability, Availability and Maintainability (RAM) Improvement ($20 
        Million)
    The genesis of the deregulated power market has heightened the need 
to ensure that RAM improvements are made. In a deregulated market, cost 
competitiveness becomes more crucial as electric utilities enter a new 
competitive business environment where operating and maintenance costs 
cannot be passed on to the consumer. Thus turbine purchasers look more 
critically at RAM and expect the manufacturers to provide some 
guarantees. This means that RAM improvements must be made for turbines 
to thrive in the new market place. To ensure that U.S. turbine power 
plants will operate reliably and sustain system viability, improvement 
are needed in advanced condition monitoring systems for power plants 
must incorporate performance monitoring, mechanical integrity analysis, 
and component life management. Advanced monitoring will require 
considerable development effort on (1) sensors, (2) controls, (3) 
condition/health monitoring systems, (4) expert predictive systems, and 
(5) turbine power-plant life-cycle management.
Crosscutting Research and Development ($15 Million)
    To support the development and operation of next generation 
systems, teams of U.S. government organizations, industries, 
universities and DOE national laboratories, will conduct R&D. Key R&D 
technology needs have been identified for combustion systems, 
materials, advanced computing, sensors and controls /instrumentation. 
Crosscutting R&D will continue throughout the NGT Program. The 
development of these technologies will solve technical barriers that 
cut across all types of gas turbine development needs. A prominent 
highlight of the successful ATS Program was the creation of the 
Advanced Gas Turbine Systems Research (AGTSR) Program. This work is 
being continued under the NGT Program. AGTSR is a consortium of more 
then 95 universities in 37 states make up the consortium, bring 
together the engineering departments of the nation's leading 
universities and industrial turbine developers to ensure that the next 
generation of natural gas turbines is built on a solid base of 
knowledge. AGTSR programs provide training for students in research 
relevant to the U.S. gas turbine industry and hence future employees.

                    EE DISTRIBUTED ENERGY RESOURCES
    To help meet the next century's projected demand for power, 
increased emphasis is being placed on developing distributed generation 
systems. Electric utility industry deregulation and uncertainty that 
can be associated with capital intensive centralized power plants are 
making distributed generation an economically attractive alternative 
for expanding electric power generation sources. Improved microturbine 
and gas turbine/fuel cell hybrid technologies are needed to expedite 
the installation of clean, efficient and affordable distributed 
generation systems.
Microturbine Systems ($20 Million)
    Microturbines, especially when combined with a heat recovery system 
would produce compact, highly efficient power and hot water for 
commercial and small industrial applications. High efficiency 
microturbines would use significantly less fuel, and are likely to be 
environmentally preferred, compared to power generated at a non-gas 
turbine based conventional combustion power plant. Microturbines range 
in size from about 25 kW's to several hundred kW, and provide:
  --Low-maintenance, low first cost and cost effective;
  --Standalone operation, i.e. running off-grid, or can operate in 
        parallel with the grid;
  --Multi-fuel capability (natural gas, diesel, propane and even 
        landfill gas);
  --Base load, peak shaving; emergency standby service, combined heat 
        and power (cogeneration), voltage support to grid, and 
        improvement in power quality.
    Funding for advanced microturbine development to increase 
efficiency by 15 percent, reduce cost per kilowatt, achieve lower-
emissions, and customize turbo machinery for hybrid applications.
Industrial Gas Turbines ($7 Million)
    Many improvements have been made to industrial gas turbines as a 
result of the DOE Industrial ATS program. Work on further reducing the 
emissions levels of this distributed generation technology will allow 
the installation these systems in ozone non-attainment areas. This will 
expand the range of manufacturing, industrial commercial building and 
power park applications.
Technology Base ($13 Million)
    Work on advanced materials improvements, such as advanced ceramics, 
needs to continue in order to fully realize the investments already 
made in this base technology area. Materials that allow turbines to 
endure higher temperature operation will enable these systems to reach 
even higher efficiencies with lower emissions levels. Improvements in 
reliability, availability and maintainability will be achieved through 
the development and refinement of sensing and process control 
technologies. These improvements will facilitate the integration of gas 
turbine systems into distributed energy systems.

           PUBLIC BENEFITS FROM DOE GAS TURBINE R&D PROGRAMS
    DOE gas turbine R&D Programs stimulate economic growth, clean up 
the environment, and ensure that the U.S. has a reliable supply of 
power. The implementation of the next generation of advanced turbine 
technology R&D programs will accelerate U.S. market restructuring and 
environmental goals. Armed with new advanced gas turbine systems, the 
U.S. power supply industry will provide America with the following.
Provide Reliable Power
    The United States can have technologies that can operate better in 
the dynamic restructured market including technologies able to perform 
``just-in-time'' dispatch without operational or environmental 
penalties. This translates into improved power quality and fewer 
disruptions in power supply.
Increase Economic Strength through Improved Power Systems
    Develop and accelerate deployment of advanced technologies to 
reduce the cost of electricity, create new jobs, and stimulate 
investment to support economic development. U.S. expertise in these 
sophisticated technologies will also position companies for success in 
growing international power generation markets.
Meet Mounting Demand for Increased Power Production Capacity
    U.S. demand for electrical power is expected to increase by nearly 
35 percent over the next 20 years. Manufacturing and information 
technology businesses require reliable power generation thus dictating 
the need for DOE next generation of R&D programs to develop state-of-
the-art gas turbines for reliable, low-cost electricity.
Ensure A Cleaner Environment
    DOE gas turbine programs provide a cost-effective solution for 
clean power. Advanced gas turbine technologies developed through DOE 
programs have much higher efficiencies and lower emissions than 
competing combustion power systems.
Replace Environmentally Deficient, Aging Power Plants
    In today's market, only revolutionary, advanced gas turbine 
technologies provide the economic advantages needed to trigger the 
accelerated retirement of inefficient, environmentally challenged base-
load power plants.
                                 ______
                                 
       Prepared Statement of the University of Alaska, Fairbanks
    I strongly encourage the Subcommittee to support the budget request 
of $7.0 million for the Transportation Fuels and Chemicals program 
within the Fossil Energy Research and Development, Fuels and Power 
Systems, Fuels program of which $3.7 million is for the ceramic 
membrane projects. The DOE fiscal year 2002 cost share needs for the 
ITM Syngas Project (ceramic membranes) is $5.0 million--$3.7 million 
from the Fossil Energy Research and Development, Fuels and Power 
Systems, Fuels budget and $1.3 million from the Energy Supply, 
Renewable Energy Resources, Renewable Energy Technologies, Hydrogen 
Research Program.
    The University of Alaska, Fairbanks urges that the budget request 
be supported to maintain the technical progress and the program 
schedule of this important project. Underfunding of the project budget 
in fiscal year 2002 would cause a project delay that could 
significantly increase the overall cost of the project and negatively 
impact the timing of constructing a commercial-scale Gas-to-Liquids 
facility using the ceramic membrane syngas technology on the Alaskan 
North Slope. The ceramic membrane-based Syngas projects promise to 
significantly lower the cost of converting natural gas to a liquid 
fuel, resulting in the use of vast domestic remote resources of natural 
gas that cannot be economically delivered via pipeline to market.
    Experts estimate that there is more than 38 TCF of recoverable 
remote gas on the Alaskan North Slope. In a recent circular, the United 
States Geological Survey estimates that there is more than double that 
amount of technically recoverable remote reserves in undiscovered 
fields in Alaska as well as offshore reserves in deep waters in the 
Gulf of Mexico and along the Pacific coast.
    Alaska's challenge for years has been how to economically produce 
and transport its remote natural gas to market in an environmentally 
responsible way within a very competitive international economy. 
Domestic oil production, especially the large fields in Alaska, is on a 
decline, and petroleum imports are projected to exceed 60 percent of 
our national needs by 2010. Already, in Alaska, 4 out of 11 (36 
percent) operating pumping stations for the Trans Alaskan Pipeline 
System (TAPS) have been shut down and placed on standby. As the 
production decline continues, the long-term viability of the TAPS is 
uncertain. Therefore, developing a means to recover and transport 
remote natural gas in Alaska is of vital importance to the Alaskan 
economy, the nation and potentially to the future of the TAPS. 
Unfortunately, current technologies are far too costly for reserve 
owners to bring most of Alaska's gas to market.
    A promising solution is to convert the remote gas to transportable 
liquid products which could be easily delivered to the market in the 
lower 48 states using the existing petroleum infrastructure in Alaska. 
The University of Alaska, Fairbanks, School of Mineral Engineering, is 
working with the Department of Energy to conduct an evaluation of 
various methods for transporting gas-to-liquid (GTL) products, commonly 
called ``white crude,'' through the existing TAPS. Utilizing the TAPS 
for GTL product transport will significantly increase its operating 
lifetime. In addition, it will further enable the recovery of 1-2 
billion barrels of oil from the North Slope, which would remain 
unrecoverable if the pipeline were to be prematurely shut down.
    However, utilization of gas-to-liquids conversion technology is 
dependent on developing a low-cost alternative for synthesis gas 
production, the first processing step in which natural gas is converted 
to a mixture of hydrogen and carbon monoxide before being processed by 
Fischer-Tropsch (FT) technology to make liquids. This technology is 
based upon a novel ceramic membrane reactor that could significantly 
reduce the cost of syngas production, enabling economic gas-to-liquids 
conversion. Completed conceptual process design and economics for 
ceramic membrane syngas show a >33 percent capital cost savings versus 
conventional autothermal reforming/cryogenic air separation. The 
University of Alaska, Fairbanks, School of Mineral Engineering will 
provide expertise in Arctic Engineering and materials handling as part 
of the ceramic membrane syngas project team which is comprised of a 
broad, but complementary group of entities: Technology developer-Air 
Products; Economic Evaluation and ultimately commercialization--Chevron 
and Norsk Hydro; Reactor Design and Engineering--McDermott; Ceramic 
materials Processing--Ceramatec; Ceramic materials and seals 
development--Eltron Research and Pacific Northwest National 
Laboratories; and Analytical Research work--University of Pennsylvania 
and Penn State University.
    Over the past three and a half years, the project team has made 
very significant progress at the laboratory scale in the parallel path 
development of new materials, catalysts, seals, reactor designs, 
ceramic powder and membrane fabrication, process design and engineering 
and economic evaluation. All the objectives of the first phase of the 
program were successfully completed, and the project is now one year 
into Phase 2, where the technology will be demonstrated in two 
significant stages of scale-up. The program continues to be on schedule 
and to meet all of its milestones. More detailed process and economic 
assessments by Chevron, Norsk Hydro, McDermott International and Air 
Products, at larger scale plant size, and incorporating laboratory 
data, have confirmed the potential for significant >33 percent capital 
cost savings in syngas generation by the new technology compared with 
conventional routes. Eltron Research has tested under high-pressure 
process conditions laboratory samples of ceramic membranes and seals 
produced by Ceramatec. Stable performance has been demonstrated in 
these tests for over 3,500 hours of continuous operation under 
simulated process conditions. A process development unit operating at a 
nominal scale of 24,000 SCF per day of synthesis gas product 
(equivalent to 0.75 bbl/day of liquid fuel products) has been built and 
installed at Air Products, and is undergoing shakedown. This unit is on 
schedule to start operation later in April 2001, and represents the 
first significant scale-up from the laboratory test units constructed 
in Phase 1 at Eltron Research and Air Products. The unit will 
demonstrate the performance and operation of the ITM Syngas process in 
a membrane reactor resembling the full-scale design at complete 
commercial operating conditions. The first ceramic membrane modules to 
be tested in this unit, sub-scale versions of the commercial size 
modules, have been successfully fabricated by Ceramatec. A second stage 
of major process scale-up, an engineering prototype system operating at 
a nominal scale of 500,000 SCF per day (equivalent to 15 bbl/day of 
liquid fuel products), is being planned for operation in 2003.
    The continued development of the ceramic membrane syngas process 
will require a substantial financial investment by both the private and 
the public sector before a commercial technology can be realized. Since 
initiating this project in 1997, in response to a competitive DOE 
procurement, the Air Products-led project team has provided 50 percent 
cost-share of ceramic membrane syngas development and has agreed to 
full payback of the federal funding contribution should the technology 
be successfully commercialized.
    The FT GTL product is exceptionally clean burning, high cetane 
diesel fuel that is environmentally acceptable. Further, in a climate 
of high gas prices due to world crude supply restrictions, the Alaskan 
North Slope GTL process, made economically feasible by ceramic membrane 
syngas, will reduce the U.S. dependency on oil imports. In addition, 
the syngas process is ideally suited to generate hydrogen in the size 
ranges required for the distributed hydrogen required for future fuel 
cell powered vehicles and stationary fuel cell power generators. 
Cheaper hydrogen made possible by syngas will also help the petroleum 
refineries meet increased hydrogen demand for Clean Air Act-driven 
oxygenated gasoline, reformulated gasoline, lower-sulfur diesel fuels 
and upgrading of heavier and high-sulfur crude oils.
    A major reduction in the cost of producing synthesis gas via ITM 
Syngas will also have a cross-cutting impact on many U.S. industries 
which depend upon synthesis gas as a raw material in the manufacture of 
commodity chemicals and consumer goods, such as clean-fuel additives, 
rubber, polyester textiles, urethane foam, plastics, paint, detergents, 
and fertilizers.
    Furthermore, the membrane-based syngas technology will have a 
favorable environmental impact on the North Slope due to a substantial 
reduction in the emission of greenhouse gases and pollutants 
(CO<INF>2</INF>, CH<INF>4</INF>, NO<INF>X</INF> and SO<INF>X</INF>). A 
viable GTL technology will virtually eliminate the need for the current 
practice of flaring the associated natural gas and will reduce gas 
combustion requirements for wellhead reinjection, all of which are 
sources of pollutants.
    In conclusion, I would like to restate the importance of the 
Department of Energy's Emerging Processing Technology Applications 
program within the Fossil Energy-Natural Gas Research budget. This 
shared investment by government, industry, universities and national 
laboratories in developing new energy technology to efficiently use our 
natural gas resources is integral to our nation's efforts to protect 
our future economy from escalating energy costs and to improve 
environmental quality. I strongly believe that new gas processing 
technology, such as the ceramic membrane syngas, will not only benefit 
the citizens of Alaska, but will also enhance the global 
competitiveness of our nation as we move forward into the 21st century.
                                 ______
                                 
         Prepared Statement of the National Mining Association
    The NMA member companies account for approximately three-fourths of 
the coal production in the United States, over one billion tons 
annually, and the vast majority of mined minerals. The purpose of this 
statement is to present the mining industry's views on fiscal year 2002 
programs for the following agencies: Office of Industrial Technology, 
Office of Fossil Energy, Energy Information Administration, U.S. 
Geological Survey, Office of Surface Mining and Bureau of Land 
Management.

                        OFFICE OF FOSSIL ENERGY
    NMA supports the Department of Energy's (DOE) Clean Coal Power 
Initiative's requested level funding of $150 million to create 
government-industry partnerships to demonstrate innovations that will 
allow coal-fueled power plants to operate more efficiently and with 
improved environmental performance. It is difficult for utilities, 
especially under a deregulated and now competitive environment, to take 
the financial and technical risks associated with using first of a kind 
technologies. This program will help offset those risks.
    The Clean Coal Technology Program has been one of the most 
successful cooperative R, D&D efforts between the government and 
industry having demonstrated a number of technologies to enable coal to 
meet current environmental and performance standards. NMA supports the 
use of $82 million in previously appropriated funds to initiate 
construction of the Advanced Pressurized Circulating Fluidized Bed 
demonstration project, to continue construction of the fixed-bed 
slagging gasification and fuel cell demonstration project and to 
initiate operation of the Circulating Atmospheric Fluidized Bed 
demonstration project--all projects previously approved under the CCT 
program. To address ever expanding environmental requirements, NMA 
requests that the $4 million reduction in funding for the ongoing work 
on pressurized fluidized bed combustion, primarily at the Wilsonville 
Power System Development plant, be restored.
    In addition, ongoing past R&D activities must be maintained and 
support expanded use of coal while addressing existing and possibly 
more stringent environmental standards. Unfortunately, the fiscal year 
2002 budget request for Fuel and Power Systems shows a very sharp 
decrease of $69 million from fiscal year 2001 levels, $229 to $160 
million. As the Administration wants to emphasize energy supply, and 
given the importance of coal to the existing generating mix and the 
need to develop technologies to allow the currently operating fleet to 
meet new environmental and efficiency requirements, coupled with the 
need to develop the power plant of the future, the fiscal year 2002 
budget should be funded at least at fiscal year 2001 levels. The budget 
emphasizes clean coal technologies, which we fully support. But, the 
importance of basic coal and fuel systems research should not be 
ignored, and it is equally important--for future years--to maintain and 
accelerate this work.
    In particular, innovations for existing power plants should be 
increased by $7 million (in part to sustain development of mercury 
control technologies) gasification technologies by $15 million 
(important for Vision 21); and the program to develop advanced turbines 
should be funded at $30 million, level with fiscal year 2001 funding, 
rather than being zeroed out. These dollars would be used to support 
follow on work to the highly successful Advance Turbine Systems R&D 
program and will develop turbines for the next generation of power 
plants for the Vision 21 program.
    Vision 21 looks to the future where highly efficient power plants 
will continue to use coal and other fossil fuels to provide Americans 
with low-cost electricity and other products. Vision 21 will 
incorporate and expand many of the technologies developed in the Clean 
Coal Technology program (e.g., PFBC and IGCC). The work that DOE is 
proposing for fiscal year 2002 is critical if Vision 21 technologies, 
designed to reduce emissions, are to be demonstrated by 2015. This 
program should be accelerated and we support funding at or above the 
requests for the various elements of Vision 21 included in the Fuels 
and Power System Budget request. We also advocate the Los Alamos 
National Laboratory's research request of $1 million to assist with the 
development of the Zero Emission Coal Alliance (ZECA) project. ZECA 
will improve existing technology to double the net efficiency of coal-
based generation and produce a concentrated stream of carbon dioxide 
that can be sequestered.
    Carbon Sequestration Methods promise to offer an alternative to 
emitting carbon dioxide to the atmosphere. Most of these projects will 
be a longer term, with the exception of projects such as the ZECA 
project described above. NMA supports DOE's request for an increase in 
carbon sequestration funding to $20.7 million and believes that this 
program could constructively use at least $10 million in additional 
funding. This additional funding could be used to strengthen the 
portfolio of near-term R&D sequestration work, to support projects 
selected in the second solicitation for sequestration research and to 
expand work in this important area. An alternative to Kyoto is needed--
sequestration must be a vital part of that alternative if we are to 
continue to use affordable coal (and other fossil fuels) to support our 
economy in the future.
    Coal Research and Development. It is important to continue funding 
for coal preparation and liquefaction technologies. Advanced coal 
preparation technologies promise to reduce the cost of continued use of 
coal in traditional applications in large industrial and electric 
utility boilers. It is important to continue the industry cost-shared 
research work on technologies for the manufacturing of carbon products. 
Research in the areas of advanced technologies for solid-solid and 
solid-liquid separations directed toward fuel production and use is 
equally important. DOE has reduced its funding required for solid fuels 
and feedstocks by $2.3 million. This funding should be increased to 
$10.0 million, which includes $3.0 million for advanced separation 
research. NMA supports continuation of funding for the Steubenville 
Comprehensive Air Monitoring Program (SCAMP), which is a program to 
develop information that is essential for defining the relationship 
between fine particulate matter (PM) concentrations in ambient air and 
the fine PM concentrations to which individuals are exposed. SCAMP is 
co-funded by the Department of Energy, the Ohio Coal Development 
Office, the National Mining Association, the American Petroleum 
Institute, the Electric Power Research Institute, the American Iron and 
Steel Institute, and CONSOL Inc.
    University Research. The DOE provides little support for research 
on mining at the academic institutions. This diminishes the national 
capability to develop fundamental science to improve mining practices, 
and impairs the abilities of the universities to train future 
generations of mining engineers. In addition to its programs in oil and 
gas production, the Fossil Energy office should institute a program to 
support academic research in mining.

            OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY
    The Mining Industry of the Future Program. The research priorities 
developed through this industry/government partnership offer important 
direction to the DOE, industry and Congress as the research agenda 
needed for a sustainable mining industry in the 21st Century. Response 
to the program has been overwhelming. Since 1999, 111 proposals 
totaling $113 million have been received--at 50 percent, DOE's cost 
share would be $56.5 million. In 2000, 16 new crosscutting projects 
were selected from 62 proposals, bringing the total active projects to 
26. Another technology roadmap was completed which defines research 
requirements that address the industry's mineral processing needs and 
21 proposals were submitted in response to a national-laboratory call 
for proposals. These proposals were technically evaluated earlier this 
year. DOE's fiscal year 2002 obligations for the existing 26 projects 
are $3.7 million alone. The $2.1 million that DOE has requested for 
mining for fiscal year 2002 is clearly too low to meet the existing 
obligations let alone support mineral processing or other mining 
research projects. NMA respectfully requests that the Mining Industry 
of the Future Program be funded at $10 million in fiscal year 2002.

                ENERGY INFORMATION ADMINISTRATION (EIA)
    In addition to its value to the Nation, the functions performed by 
the EIA are of significant importance to the mining industry. EIA's 
unbiased analysis and independent short and long-term forecasts form a 
basis for reasoned and responsible policy decisions by the Congress, 
the DOE and other government agencies on both the Federal and State 
levels. EIA's independence and objectivity are especially important as 
the Nation considers the effects of energy price increases and energy 
shortages on our economy. EIA's energy data collection and 
dissemination responsibilities are essential to industry's ability to 
evaluate production and market trends and to make investment decisions, 
which benefit the Nation. Unfortunately, over the past several years 
funding levels for EIA have been level or declining. With this decline 
has come a very notable deterioration in data quality and timeliness. 
Coal data in particular is not of the quality that it once was and NMA 
urges the Congress to insist that attention be given to correct this 
problem. Data on coal production and consumption in 1999 is not yet 
available (April 2001) and this presents a particular problem now that 
our Nation is experiencing problems with energy supply and increases in 
energy prices. EIA could not begin to estimate either coal production 
and production trends, or coal consumption at utilities or stockpiles 
on a reliable basis due to lack of information. We urge the 
subcommittee to support current levels of funding as a minimum, and 
increase the amount available to EIA with the specific instructions to 
correct the data collection and reporting problems in the coal and 
utility sectors.

                     U.S. GEOLOGICAL SURVEY (USGS)
    The USGS's role in mineral exploration, identification of 
geological hazards and mapping offers important support to the mining 
industry. NMA supports maintaining these programs at current, or 
expanded levels. In addition, the USGS is the only source for most of 
the United States' statistical data on mining and minerals commodities. 
This information provides the basis for informed policy decisions by 
government and is extensively used by other government agencies, by 
Congress and by State and local governments, as well as by industry, 
academia and nongovernmental organizations. NMA opposes the reduction 
of funding for the Minerals Information Service included in the fiscal 
year 2002 budget request. It is our understanding that the USGS plans 
to eliminate the International Minerals Component of the USGS Mineral 
Information Team. This is the group that collects, analyzes, and 
disseminates information and data on the international supply and 
availability of more than 100 commodities in more than 180 countries. 
This is the U.S. government's ONLY source for this important 
information that allows the trackage of the availability of strategic 
minerals NOT mined in the United States. Elimination of this program is 
very short sighted in an era of increasing globalization of the 
minerals industry and expanded trade. It would be very difficult to 
replace this data and information effort once eliminated. NMA urges the 
Congress to restore this $2 million to the USGS budget with the 
explicit instructions that it be devoted to the Minerals Information 
Team and that the International Minerals Component be retained.

                         CROSSCUTTING ACTIVITY
    The NMA, the Interstate Mining Compact Commission and several 
Federal agencies (OSM, BLM, DOE, and USGS) have actively participated 
in the Acid Drainage Technology Initiatives (ADTI) since 1995. The ADTI 
is a nationwide technology development program with a guiding principle 
of building a consensus among Federal and State regulatory agencies, 
universities and consulting firms, to predict and remediate acid 
drainage from active and inactive coal and metal mines. It is not a 
regulatory or policy development program. ADTI receives funding and 
other support from industry and several Federal agencies for specific 
projects. The Office of Surface Mining has provided the ADTI $200,000 
for the last three fiscal years for activities related to acid mine 
drainage from coal mining. If each of the Federal agencies, OSM, BLM, 
DOE, USGS, USFS and other agencies as appropriate, were provided funds 
to commit $200,000 toward ADTI, approximately $1 million would be 
available to support the work of this vital initiative.

                     OFFICE OF SURFACE MINING (OSM)
    To ensure the continued success of this unique and successful 
program, State funding through the Title V grant process is crucial. 
Title V grants should be increased at a minimum to reflect the states 
``uncontrollable and fixed costs.'' It is patently unfair to increase 
the funding of Federal oversight while ignoring the needs of the states 
that are on the front-line of program implementation. The Abandoned 
Mine Land Fund is funded exclusively by a tax on active mining 
operations. The fund's current surplus as well as additional reductions 
in Federal overhead should allow for additional state mitigation of 
historic abandoned mine sites.

                    BUREAU OF LAND MANAGEMENT (BLM)
    While NMA supports additional funding to expand the energy and 
minerals activities of BLM, specific attention should be focused on the 
need to plan, prepare and implement an accelerated lease-by-application 
program for Federal coal resources to meet the increasing demand for 
this reliable and inexpensive resource. The solid minerals program has 
been all but ignored over the last eight years and needs additional 
resources as pointed out in the National Research Council's report 
``Hardrock Mining on Federal Lands'' (1999) to accomplish its mission. 
Over the next year, the Administration should be encouraged to review 
this report and make recommendations to implement necessary 
administrative changes to improve the implementation of the 1980 
Surface Management Regulations as recommended by the NRC.
                                 ______
                                 
    Prepared Statement of Virginia Polytechnic Institute and State 
                               University
    Mr. Chairman and Members of the Subcommittee. I am Roe-Hoan Yoon 
and I am the Director of the Center for Advanced Separation 
Technologies (CAST) at Virginia Polytechnic Institute and State 
University. I appreciate the opportunity to submit this statement in 
support of additional funding of $8 million for the Solid Fuels and 
Feedstock's Program, Fossil Energy Research and Development, U.S. 
Department of Energy. The additional funding request includes $3 
million for advanced separation research and development.
    In fiscal year 2001, the Congress appropriated a total of $4.291 
million for the Solid Fuels and Feedstock's program, which included the 
following subprograms:

                        [In millions of dollars]

Tailored Fuels.................................................... 2.491
Premium Carbon Products........................................... 1.427
Advanced Separation............................................... 0.300

    In the Presidents budget request for fiscal year 2002, the first 
and the third subprograms were eliminated. Both of these budget items 
were directed to develop advanced separation technologies, with the 
Tailored Fuels subprogram directed for near-term applications and the 
Advanced Separation directed for longer-term high-risk projects. I 
believe it is shortsighted to eliminate the support for these important 
efforts.

                             JUSTIFICATION
    The Administration's fiscal year 2002 budget request includes $150 
million for the Clean Coal Power Initiative, which is a part of its $2 
billion commitment for the next 10 years. In addition, it includes 
$159.8 million for Coal and Power Systems Research and Development, 
most of which is directed to develop technologies that can burn coal 
more cleanly at higher efficiencies. Both of these large programs are 
directed toward minimizing the environmental impacts of burning coal, 
and thus will eventually help the coal industry continue to mine coal. 
Therefore, many in the coal industry support the programs. However, 
there is also a dire need to develop technologies that can help the 
coal industry minimize the environmental impacts associated with 
producing coal in the United States.
    As coal industry is a mature industry, one would expect that there 
may not be any need to develop new, advanced technologies. This is far 
from the truth. Since 1985, coal mine productivity more than doubled, 
while mine fatalities were cut by more than half. These improvements 
were achieved through technology innovations. However, there remain 
serious technological problems associated with fine coal impoundments, 
valley fill mining, and acid mine drainage, all of which represent 
serious environmental issues. The technological barriers are so large 
that coal companies by themselves cannot find appropriate solutions to 
these problems in near term. The industry needs the cooperation and 
assistance from the federal government to pursue new technology 
breakthroughs, just as the Nation's utilities need the federal programs 
noted above to burn coal more cleanly.
    On October 11, 2000, a fine coal impoundment located in 
northeastern Kentucky failed, releasing 250 million gallons of coal 
sludge into local streams and schoolyards. It was fortunate that no one 
was killed by the spillage this time. In 1972, 130 million gallons of 
coal slurry ran off an impoundment in Buffalo Creek, West Virginia, and 
killed 125 people. These impoundments hold fine coal wastes that cannot 
be cleaned and dewatered using the technologies available today. Thus, 
the impoundments can be eliminated if advanced technologies become 
available from further research.
    After the accident in Kentucky, the Sierra Club called for a 
national commitment to eliminate all high-risk impoundments, and the 
Congress appropriated $2 million for National Research Council to study 
prevention of coal waste impoundments. However, this money is for paper 
studies and not for developing technologies that can be used to find 
technological solutions.

                         TECHNOLOGY DEVELOPMENT
    Run-of-the-mine coals are washed in water to remove non-combustible 
mineral matter from coal. Along with the mineral matter, much of the 
inorganic sulfur and trace elements such as mercury are removed. The 
costs of cleaning the coal particles finer than approximately 0.15 mm 
in size are substantially higher than those for cleaning coarser coals. 
Therefore, many companies discard the fines along with water to 
impoundments. In general, 5 to 10 percent of the coal mined in eastern 
U.S. is too fine to be cleaned efficiently, and approximately one half 
of it is being discarded. According to a recent survey, there are 713 
fine coal impoundments, which are holding 2.5 to 3 billion tons of fine 
coal.
    The coal fines discarded in impoundments represent: (i) the money 
that companies have already spent for mining, (ii) a waste of valuable 
national resources, and (iii) an environmental concern. If advanced 
technologies are developed through industry-university partnerships, 
they can be used to recover fine coal rather than discarding it to 
impoundments. They can also be used to re-mine the coal from old 
impoundments and, thereby, counter balance the high costs of mining.
    There are two objectives in coal cleaning. One is to separate 
mineral matter from coal (solid-solid separation), and the other is to 
separate water from cleaned coal product (solid-liquid separation or 
dewatering).
Solid-Solid Separation
    Considerable progress has been made for separating impurities from 
fine coal. The microbubble flotation technology developed with Energy 
Department's research funding is used not only in coal but also in 
mineral industries worldwide. The enhanced-gravity separation 
technology developed more recently can substantially increase the 
removal of hazardous air pollutants (HAPs) such as mercury from coal. 
These technologies represent the lowest cost options for removing 
various impurities from fine coal. Therefore, they can be the method of 
choice in many developing countries.
Solid-Liquid Separation
    The clean coal products obtained from the solid-solid separation 
processes are dewatered before being shipped to utilities for power 
generation. Since coal is a low-cost material, it is difficult to 
justify using thermal driers for dewatering. Furthermore, it is 
difficult to obtain permits to install thermal driers in the U.S. due 
to the stringent emission standards. Therefore, coal companies are 
using mechanical devices such as vacuum filters or centrifuges. But 
they are inefficient. The vacuum filters cannot reduce moistures to 
sufficiently low levels, while the centrifuges lose substantial amount 
of coal fines. Fortunately, promising new methods have recently been 
developed. The U.S. Department of Energy selected some of these 
technologies to be further developed and tested in operating plants 
using the fund appropriated in fiscal year 2001 budget. However, the 
Administration's fiscal year 2002 budget directed both the solid-solid 
and solid-liquid separation projects to be concluded without further 
support.

                                IMPACTS
    In 2000, 56 percent of the nations electricity was generated from 
coal in utilities, and this percentage may increase in view of the high 
costs of natural gas. The advanced solid-solid and solid-liquid 
separation technologies noted above should help the U.S. coal industry 
produce cleaner and lower cost solid fuels for power generation.
    According to Annual Energy Outlook 2001, the price of electricity 
should decline from 6.7 cents per kWh in 1999 to 6.0 cents per kWh in 
2020. This prediction was in part based on an assumption that the price 
of the solid fuel continues to decline by 1.4 percent per year. Further 
development of the promising advanced separation technologies may be 
instrumental in meeting this projection and help the U.S. economy 
continue to grow.
    The advanced separation technologies to be developed under the 
Solid Fuels and Feedstock's program can be used not only for cleaning 
fine coal but also for producing high-value mineral concentrates. In 
2000, the U.S. mining industry produced $59.7 billion's worth of raw 
materials, which made the U.S. the largest mining country of the world. 
Canada was the distant second with $36 billion (in 1997), and Australia 
the third with $27.6 billion (in 1998).
    While the country is facing a fuels supply crisis, it is hardly the 
time to zero out the R&D budget that can directly help the coal 
industry.
    Mr. Chairman, with the funding I am requesting for advanced 
separation technologies, the Center for Advanced Separation 
Technologies (CAST) proposes to conduct research in the areas of solid-
liquid and solid-solid separations that can be used in both the coal 
and mineral industries. The first and foremost, we would like to 
continue to develop new technologies that can be used to recover coal 
from the coal fines that are currently being discarded to impoundments. 
Availability of such technologies will be able to eliminate the high-
risk impoundment and, at the same time, recover high-value solid fuels 
for electricity generation. The values recovered from such operation 
should exceed the costs of eliminating old impoundments. The potentials 
for the financial gains are so great that several major companies 
showed interest in using the technologies.
    Of the various solid-solid separation technologies used in the coal 
and minerals industries, flotation is most widely used. In this 
technique, small air bubbles are used to separate fine particles. We 
would like to further develop this technology so that they can be used 
to separate sub-micron sized particles. This can be achieved by 
improving our understanding of the basic mechanisms involved in the 
process through mathematical modeling, by developing new reagents that 
can improve separation efficiencies, and by designing more efficient 
bubble generators. Other advanced solid-solid separation methods to be 
developed will include enhanced-gravity separation and bio-leaching. 
The latter will be an environmentally friendly method of extracting 
values from low-grade materials. In addition, CAST will conduct basic 
research on surface chemistry, which serves as the basis for developing 
new processes, mathematical models, and novel sensors.
    I thank you and the Subcommittee for its support of this program to 
develop new energy-efficient and environmentally beneficial 
technologies.
                                 ______
                                 
 Prepared Statement of the Electric Vehicle Association of the Americas

                       INTRODUCTION AND OVERVIEW
    This testimony is presented on behalf of the Electric Vehicle 
Association of the Americas (EVAA), a national non-profit organization 
of electric and other energy providers, vehicle manufacturers and 
suppliers, state and local governments and others that have joined 
together to advocate greater use of electricity as a transportation 
fuel.
    After many years of research and development, all of the world's 
major automobile manufacturers, as well as several independent small 
businesses, now have made electric vehicles (EVs) available to the 
marketplace. Since 1996, a total of 4,017 BEVs have been leased and/or 
sold in the United States. Some automakers also have begun to develop 
and market small, neighborhood BEVs that have applications in planned 
communities, college campuses, in station car applications, and other 
urban settings where space and travel distances are limited and the air 
quality is poor. In addition, there is growing use of non-road and 
industrial EVs, especially at airports located in urban areas.
    Hybrid electric vehicles also are making inroads in the 
marketplace. To date, Honda and Toyota have leased and/or sold over 
12,480 HEVs in the United States and other automobile manufacturers 
have announced plans to introduce hybrids into the marketplace in the 
next two to three years. There also is an interest among 
environmentalists, regulators, the electric utility industry and others 
to pursue development of grid-connected hybrid technologies as a means 
to improve the environmental performance of such technologies.
    Industry is providing significant investments for all of these 
electric transportation technologies, but the federal government has an 
important role to play in helping to assure that these technologies are 
developed and brought forth from the laboratories into the marketplace.

                  FUEL CELLS RESEARCH AND DEVELOPMENT
    There is near unanimous consensus among industry, government and 
environmental groups that fuel cell technology represents the best 
promise for a long-term solution to the energy and environmental issues 
associated with transportation. However, many issues remain to be 
resolved, including fuel specifications, infrastructure support and 
component technology development. Industry is in a race to bring fuel 
cell technologies to market, but the subsystems required to produce 
affordable fuel cell technologies have not been developed fully. The 
Fuel Cells Research and Development Program is a critical component to 
assuring that the technologies that are developed will translate into 
cost effective products for the 21st century.
    Fuel cells require significant cost reductions in order to make 
them acceptable in the marketplace. The California Fuel Cell 
Partnership is beginning to demonstrate fuel cell vehicle technologies 
and fueling infrastructure in very limited applications.
    The introduction of fuel cells into the transportation sector will 
increase fuel efficiency, decrease foreign oil dependency, and become 
an important strategy/technology to mitigate climate change. Last year, 
$41.5 million was appropriated for the continuation of research and 
development on fuel cell technologies that can be incorporated into 
advanced transportation technologies.
    EVAA strongly encourages the Subcommittee to fund fuel cell R&D 
efforts at or above last year's enacted level.

               UNITED STATES ADVANCED BATTERY CONSORTIUM
    EVAA continues to support funding for the United States Advanced 
Battery Consortium (USABC) and the Exploratory Technology Research 
Program. Significant breakthroughs in battery technology are required 
for the successful commercialization of full-function, consumer-
attractive BEVs. The USABC is a battery research and development 
program critical to the advancement of EVs. Through this program, 
nickel metal hydride advanced batteries have been successfully 
developed and introduced for EV use. Over 1,000 nickel metal hydride 
battery EVs have been put into service over the last few years, 
providing improved vehicle range and performance.
    The fiscal year 2002 Budget request includes only $1.079 million 
for the commencement of an orderly phase-out of DOE's commitment to 
Phase III of the program and $2.3 million for Exploratory Technology 
Research. This level of funding is not consistent with earlier 
commitments made by the Energy Department to support industry's USABC-
related activities.
    Last year, the USABC and Exploratory Technology Research Program 
received $9 million in federal funding. EVAA believes this program 
should be funded at or above last year's enacted level.
Vehicle Field Test and Evaluation Program
    The Administration's fiscal year 2002 budget request includes $1.8 
million for the Vehicle Field Test and Evaluation Program. These funds 
would be used to conduct performance and reliability testing of light-
duty hybrids and one urban EV; assist the federal agencies in acquiring 
15,000 alternative fuel vehicles (AFVs); and, assist industry in 
developing procedures to track AFV sales.
    EVAA continues to believe these funds should be used to help fund 
the increased use of AFVs by the federal agencies in order to comply 
with Energy Policy Act (Public Law 102-486) requirements. Recently, 
DOE's Field Operations Program provided $14,300 to six Federal fleets 
to help them add electric Ford Ranger pickups to their inventory. The 
DOE Field Operations Program has provided a total of $996,000 in 
incremental funding to 37 federal fleets to support the deployment of 
220 light-duty EVs over the last three years.
    EVAA also encourages DOE to consider mechanisms to encourage the 
use of ``neighborhood'' and other low speed EVs in the federal fleets. 
These quiet and environmentally friendly vehicles can be used in a 
variety of niche applications. The Vehicle Field Test and Evaluation 
Program received $3 million in funds last year; EVAA believes this 
program should be funded at or above this level in fiscal year 2002.
Hybrid Systems Research and Development Program
    While initial consumer acceptance of hybrids appears to be high, 
significant cost reductions need to take place before full volume 
marketing will occur. The EVAA supports the efforts of industry and the 
federal government to develop affordable hybrid vehicles with high fuel 
economy and ultra low emissions. DOE's fiscal year 2002 goals include 
examining several propulsion system candidates that achieve the 
performance and target goals for SUVs and light trucks; supporting R&D 
on high power batteries; evaluating advanced power electronics, and 
focusing efforts on heavy vehicle propulsion systems. The Hybrid 
Systems Research and Development Program was funded at $50 million last 
year. EVAA believes this program should be funded at or above that 
level in the coming fiscal year.
Clean Cities Program
    The U.S. Department of Energy's Clean Cities program is helping the 
U.S. to achieve energy security and environmental quality goals through 
encouraging and supporting the purchase and use of AFVs at the local 
level. Approximately 160,000 AFVs operating in public and private 
fleets and 4,800 alternative refueling stations have been deployed with 
the help of the Clean Cities program, already reducing CO<INF>2</INF> 
emissions by an estimated 641,000 metric tons. These vehicles also will 
reduce oil use by an estimated 125 million gallons per year. The Clean 
Cities program takes a unique, voluntary approach to AFV development, 
working with coalitions of local stakeholders to help develop the AFV 
industry and integrate this development into larger planning processes.
    The Clean Cities program was funded at $10 million in fiscal year 
2001. Clean Cities Coalitions are seeking $30 million in fiscal year 
2002 funding for the Clean Cites program, with the funds specifically 
being used to provide grants for the purchase of AFVs and 
infrastructure projects. EVAA believes this is an important program and 
any funds made available by this Subcommittee will be used wisely by 
the enormous cadre of local stakeholders who comprise the 80 designated 
Clean Cities.

                               CONCLUSION
    The success of electric drive technologies (including battery 
electric, hybrid electric and fuel cell electric vehicles) in the 
marketplace continues to require industry and government, working 
together, to bring down the costs. The federal government's role should 
continue to focus on participating with industry in efforts to advance 
electric transportation technologies through research programs like the 
Fuel Cell Program and the USABC; to join industry in the test and 
evaluation of the latest EV/HEV technologies through programs like the 
Vehicle Field Test and Evaluation Program; to work with communities and 
industry to facilitate deployment of the infrastructure required to 
support the convenient and safe operation of EVs; and, to use the 
purchasing power of the federal government to increase the market for 
EVs. The DOE programs mentioned in this testimony are essential to 
bringing affordable EVs to the public, and continued funding at the 
levels advocated will assure progress in the successful 
commercialization of these important technologies.
                                 ______
                                 
           Prepared Statement of the Nuclear Energy Institute

                                SUMMARY
    The Administration has requested appropriations of $75.5 million in 
fiscal year 2002 for the Energy Information Administration (EIA), an 
independent agency within the U.S. Department of Energy. This request 
includes $8.5 million for EIA's Office of Integrated Analysis and 
Forecasting. The Nuclear Energy Institute (NEI) \1\ believes that EIA's 
forecasting, at least as it pertains to nuclear energy, is based on 
flawed modeling and methodology and erroneous assumptions, and urges 
Congress to require, as a condition of providing the appropriations 
requested, independent peer review of EIA's forecasting.
---------------------------------------------------------------------------
    \1\ The Nuclear Energy Institute (NEI) is the organization 
responsible for establishing nuclear industry policy on matters 
affecting the nuclear energy industry. NEI's members include all 
companies licensed to operate commercial nuclear power plants in the 
United States, nuclear plant designers, major architect-engineering 
firms, fuel fabrication facilities, materials licensees, and other 
organizations and individuals involved in the nuclear energy industry.
---------------------------------------------------------------------------

               NEED FOR ACCURATE ANALYSIS AND FORECASTING
    There is increasing evidence that the United States faces serious 
energy supply and delivery problems. Even assuming successful 
conservation and efficiency programs, U.S. dependence on imported oil 
is at a historic high. Natural gas prices across the country have 
increased dramatically. Several regions of the country face significant 
shortages of electric generating capacity. The transportation 
infrastructure for delivery of oil and natural gas requires significant 
expansion. The transmission infrastructure necessary to move 
electricity within and between states and regions is seriously 
overloaded, placing reliability at risk.
    The imminent threat to reliable supplies of energy at stable, 
predictable prices is leading to new interest in national energy 
policy. The appropriate authorizing committees in both Senate and House 
are holding hearings on U.S. energy policy, and the Bush Administration 
intends to offer its proposals shortly. At times like these, policy-
makers in the Administration and the Congress must have access to the 
most accurate analysis and forecasting possible. In the case of nuclear 
energy, the EIA's forecasts are inaccurate, appear to be based on 
hypothetical speculation, and at least to date do not proceed from 
well-informed analysis of the current status of nuclear energy in the 
United States.

                   EIA'S FORECAST FOR NUCLEAR ENERGY
    EIA's Office of Integrated Analysis and Forecasting publishes an 
annual forecast of U.S. energy supply and demand called the Annual 
Energy Outlook (AEO). AEO 2001 provides projections of energy supply 
and demand in all consuming sectors and for all fuels through 2020. AEO 
2001 forecasts that U.S. nuclear generating capability in 2020 will be 
71,600 megawatts (MW), a 25 percent reduction from today's 97,400 MW.
    This EIA projection is achieved in three ways: EIA assumes that (1) 
some nuclear power plants will be closed before the end of their 
initial 40-year operating licenses because they are no longer 
economical to operate; (2) others will not renew their licenses for an 
additional 20 years because they are no longer economical to operate; 
and (3) no new nuclear power plants are built in the United States 
because they are too costly to compete with other forms of generation.

                 THE NUCLEAR ENERGY INDUSTRY ASSESSMENT
    NEI believes that this outlook is incorrect and does not proceed 
from a factual understanding of the current status of nuclear energy in 
the United States.
    U.S. nuclear power plants are well positioned for a competitive 
electricity market. The cost of operations, maintenance and fuel has 
been declining for more than a decade, and additional efficiencies can 
still be gained. U.S. nuclear power plants are not subject to the 
volatility in fuel prices that has caused the dramatic increase in 
electricity prices in many parts of the nation. And nuclear power 
plants are not affected by the escalating clean air compliance 
requirements that will increase the cost of electricity from coal-fired 
and gas-fired generating plants in the years ahead. In fact, non-
emitting technology like nuclear energy will become even more essential 
for providing electricity in areas that aren't in compliance with Clean 
Air Act standards.
    The steady reduction in the cost of nuclear electricity during the 
1990s is partly explained by the significant increase in plant 
reliability, and in the amount of electricity plants produce. In 2000, 
U.S. nuclear plants produced approximately 755 billion kilowatt-hours 
(the second record year in a row), and operated at an average capacity 
factor of 89.6 percent, also a record.
    On average, a U.S. nuclear power plant produces electricity for 
2.0-2.5 cents per kilowatt-hour, with the cost decreasing over the past 
few years. This includes all costs such as fuel, operations, 
maintenance, ongoing capital requirements, property tax, federal and 
state taxes, funds for decommissioning the plant at the end of its 
useful life, and the one-mill-per-kilowatt-hour fee for used fuel 
management paid to the federal government. This is the so-called 
``going forward'' cost; it does not include recovery of the original 
capital investment, but is the sole determinant of whether or not the 
unit will be dispatched.
    The 2.0-2.5 cent electricity from the average nuclear unit is 
significantly lower than the cost of electricity from new gas-fired 
combined cycle power plants. At expected future gas prices to 
generating plants ($4-5 per million Btu), NEI's analysis indicates that 
a new gas-fired plant will produce electricity for between 4.5 cents 
and 5.2 cents per kilowatt-hour. Given that new gas-fired electricity 
is twice as costly as existing nuclear electricity, no rational 
economic model would shut down a nuclear unit and replace it with gas-
fired capacity, as the EIA's forecasts suggest, unless that model were 
being supplied with incorrect economic data and assumptions. (Note: 
existing nuclear units are also more economical than gas-fired plants 
supplied with fuel at the low natural gas prices prevailing several 
years ago. A gas-fired plant using $2.50-per-million-Btu gas would 
produce electricity for 3.0-3.5 cents per kilowatt-hour, still above 
the 2.0-2.5 cents range for electricity from an existing nuclear unit.)
    As for license renewal, five nuclear units have already renewed 
their operating licenses to run for 20 years beyond their initial 40-
year license. Five other units have filed their renewal applications, 
which are now being reviewed by the Nuclear Regulatory Commission 
(NRC). Thirty-three other units have formally notified the NRC that 
they intend to renew their licenses, and NRC officials have indicated 
publicly that the agency has received informal notification that 85 of 
the 103 nuclear units in the United States intend to renew their 
licenses. The industry expects that nearly all 103 U.S. nuclear units 
will extend their licenses because operating these plants for an 
additional 20 years represents the lowest-cost, most reliable source of 
electricity available from any source.

        THE DIFFERENCES BETWEEN THE EIA AND INDUSTRY ASSESSMENTS
    Given the significant differences between the EIA's forecast for 
nuclear energy and the future suggested by today's business realities, 
NEI has analyzed the basis for the agency's forecasts in order to 
understand the assumptions and methodology behind them. NEI completed a 
detailed assessment of the 1999 edition of the Annual Energy Outlook, 
for example, and discovered a number of mistakes, suspect assumptions, 
and the use of cost and performance data that were several years out of 
date. NEI staff briefed EIA staff fully on the results of our 
assessment
    In general terms, for the 103 existing nuclear units, the EIA 
obtains its forecasting results by assuming an ``aging effect''-i.e., 
that the plants will cost more to operate as they age, and operate less 
reliably. The EIA forecast burdens the nuclear units with increasingly, 
and unrealistically, high operating and capital costs.
    There is no factual basis for these assumptions. NEI has evaluated 
the historical data for the 103 nuclear units now operating, which 
include a number of units well into the second half of their original 
40-year licenses. NEI sees: (1) no statistically significant evidence 
that operating costs increase as plants age (in fact, for the fleet as 
a whole, they are declining); (2) no evidence that capital costs will 
or can increase to levels so high that the plant becomes uneconomic; 
and (3) no evidence that capacity factors deteriorate as plants age (in 
fact, for the fleet as a whole, capacity factors are increasing).
    Consider one specific example: the three unit Oconee station (2,538 
MW) owned by Duke Power Co., which received approval from NRC last year 
to operate for an additional 20 years beyond the original 40-year 
license. From 1999 through 2006, Duke Power will invest close to $1 
billion in the Oconee station--approximately $450 million in new steam 
generators for all three units, and another $400 million in one-time 
improvements and replacements designed (1) to assure another 20 years 
of operating life,(2) to maintain plant reliability during that period, 
and (3) reduce operating and maintenance costs in the future. Even with 
this significant investment, the Oconee station remains easily 
competitive with other sources of electricity, and significantly less 
costly than building new generating capacity of any kind. The Oconee 
case study is broadly representative of nuclear units across the 
nation.

                   THE OUTLOOK FOR NEW NUCLEAR UNITS
    The 2001 Annual Energy Outlook assumes no new nuclear power plants 
will be built before 2020 in the United States. As with the EIA outlook 
for the existing nuclear units, the nuclear energy industry does not 
believe this forecast reflects what is really happening in the 
marketplace.
    The NEMS (National Energy Modeling System) model reaches this 
conclusion because EIA analysts have assigned an unrealistically high, 
and unreasonably inflated, capital cost to new nuclear generating 
capacity. The EIA assumes new nuclear plants would have an overnight 
capital cost of $2,188 per kilowatt of capacity. The nuclear energy 
industry estimates an overnight capital cost of $1,450-1,500 per 
kilowatt for the AP-600 advanced light water reactor. Unlike the EIA 
estimate, which is purely theoretical and lacks any substantive factual 
basis, the industry estimate is a robust, well-founded cost estimate 
based on over $400 million invested in detailed design and testing for 
the AP-600 and other ALWR's. Although the industry is taking actions 
that will reduce the capital cost of new nuclear generating capacity 
further, the current cost estimates for the AP-600, other advanced 
light water reactors, and new high temperature gas reactors, coupled 
with the low cost for operating nuclear plants, will make new nuclear 
capacity competitive over the period from now through 2020 and beyond.

                               CONCLUSION
    Given the potential importance attached to the Energy Information 
Administration's forecasts, NEI believes it is important that these 
forecasts have a sound factual and analytical basis. At a minimum, NEI 
urges that any additional appropriations for EIA's forecasting function 
should require (1) rigorous peer review of all EIA's nuclear-related 
assumptions and methodologies, and (2) peer-reviewed development of new 
economic models better able to simulate the dynamics of competitive 
electricity markets, the performance of existing nuclear power plants, 
and the timing for construction of new nuclear units.
                                 ______
                                 
   Prepared Statement of the Business Council for Sustainable Energy

                              INTRODUCTION
    The Business Council for Sustainable Energy is pleased to offer 
testimony on the role for government in promoting energy research, 
development and deployment, specifically natural gas and energy 
efficiency programs at the Department of Energy (DOE).
    The Council was formed in 1992 by business and industry trade 
association executives sharing a commitment to realize our nation's 
economic, environmental and national security goals through the rapid 
deployment of clean and efficient natural gas, energy efficiency and 
renewable energy technologies. Our members range in size from Fortune 
500 enterprises to small entrepreneurial companies, to national trade 
associations.

                A FEDERAL ENERGY COMMITMENT IS CRITICAL
    The recent election focused on an energy crisis like none other we 
have faced in recent memory. The President acknowledges that the energy 
situation is creating critical times for our nation. He outlined 
potential solutions in an address to a Joint Session of Congress, 
saying in part, ``We can promote alternative energy sources and 
conservation, and we must.''
    Regarding the federal role in energy supply and use, we eagerly 
await implementation of the Administration's demonstrated commitment to 
fixing the problems, and a commitment by Congress to ensure that there 
is a diverse, environmentally and economically sound menu of energy 
options available to the market.
    We continue to experience spiraling prices and supply interruptions 
in California for electricity and the problems may spread to other 
regions this summer. Environmental challenges of energy supply and use 
abound, and even energy's national security implications are coming to 
the forefront. These challenges will persist for years and will only be 
solved by the concerted efforts of industry, government and the public.
    The federal government's energy programs are as diverse as the 
activities that consume energy. Given their breadth, the BCSE will not 
attempt to address all of DOE's natural gas and energy efficiency 
programs. Rather, we focus on several programs that the BCSE believes 
illustrate the value of the federal government's energy efforts.

              DISTRIBUTED ENERGY RESOURCES AND FUEL CELLS
    The BCSE supports comprehensive efforts to remove the differing, 
but in some cases shared, barriers to the deployment of distributed 
generation technologies. Rapid deployment of these technologies, 
including microturbines reciprocating natural gas engines and fuel 
cells, will make an important contribution toward alleviating rolling 
blackouts. Not only can they make more power available to consumers, 
they can also relieve stress on the grid by putting their power output 
where the loads are, easing the need to transmit electricity long 
distances along lines operating at full capacity.
    Not only do distributed energy resources put the power where it is 
needed, they also provide enhanced energy efficiency. Modern gas 
turbines can achieve 35-45 percent efficiency when generating 
electricity, and in combined heat and power applications where normally 
wasted heat is recovered for space heating or industrial applications, 
overall efficiencies can rise to greater that 75 percent. Central 
station power plants average approximately 30 percent in overall 
efficiency.
    Fuel cells continue to make advances. BCSE member Ballard Power 
Systems successfully field-tested natural gas PEM fuel cells in Chicago 
Transit Authority busses, with actual production units entering the 
market within the next few years. More fuel cell power plants of 
various power sizes will also be available to fill diverse power 
generation requirements. In fact, Ballard plans to introduce the first 
commercially available fuel cell generation system later this year.
    Now under development are high-temperature natural gas fuel cell 
systems that may ultimately achieve a 60 percent fuel-to-electricity 
conversion efficiency. This is extremely favorable compared with the 
average of 35 percent fuel-to-electric efficiency for the mix of 
generating equipment currently used to supply the Nation's electricity.
    A key to the successful commercialization of the PEM fuel cell 
vehicle will be the availability of a safe on-board hydrogen storage 
device. BCSE member Energy Conversion Devices has been developing metal 
hydride alloys to provide a safe solid-state means of on-board storage 
of hydrogen in PEM fuel cell vehicles. Given the importance of this 
component of the fuel cell system, we would urge greater funding levels 
for metal hydride storage systems for PEM fuel cell vehicles. These 
devices would also be the safest means of storing hydrogen in hydrogen 
powered internal combustion engine or hybrid vehicles as well as for 
use in fuel cells for stationary applications and or portable power.
    All of these technologies obtain more useful energy from a given 
unit of fuel, which provides tremendous environmental benefits. For 
example, microturbines can contribute to reducing emissions 
(NO<INF>X</INF> and CO<INF>2</INF>) associated with electric power 
generation. When fueled by natural gas from our domestic resource base, 
they emit NO<INF>X</INF> at 9-40 ppm; an improvement over the existing 
U.S. generation fleet. Emissions reduction technologies such as 
catalytic combustion offer the potential of near zero emissions levels. 
To achieve these environmental, grid reliability, efficiency and cost-
reduction goals, the BCSE specifically seeks $50 million for research, 
development and verification activities in the distributed energy 
resources program.

             HEAT PUMPS, NATURAL GAS COOLING AND APPLIANCES
    The BCSE supports programs for natural gas cooling technologies 
such as GAX heat pumps and desiccant dehumidification. While more 
research is needed, these technologies hold the potential to shift 
summertime energy demand off of the overstressed grid and onto either 
directly fired natural gas applications or to combined heat and power 
systems utilizing what is now wasted heat energy.
    In both the desiccant and the natural gas cooling areas, an 
industry-DOE roadmapping has identified combinations of distributed 
energy resources with these technologies, (Buildings Combined Cooling 
Heat and Power, or BCHP), to further reduce energy cost and use and 
improve grid reliability. The BCSE supports an increase of $16 million 
in this area.
    High-efficiency appliances continue to have an important impact. 
The recent publication of rules related to high-efficiency washers that 
were put together in cooperation with industry leaders such as Maytag 
will result in energy and monetary savings for consumers, and make 
energy resources go further.

                       ALTERNATIVE FUEL VEHICLES
    Transportation remains the fastest growing energy consuming sector. 
Alternative fuel vehicles (AFVs)--including natural gas and electric 
vehicles--promise to reduce U.S. reliance on imported oil while 
virtually eliminating emissions of criteria air pollutants.
Natural Gas Vehicles
    Natural gas vehicles hold the potential to move a significant 
demand for imported petroleum over to a far cleaner, more secure and 
abundant hemispheric resource.
    The Clean Cities program is an important program that continues to 
develop. Increasing the use of gas-fueled vehicles in proven markets 
such as transit and school busses, delivery and other centrally fueled 
fleets is building experience as well as establishing critical 
infrastructure to foster further expansion. We request $30 million for 
this voluntary partnership.
    Research and development also continues to be important and the 
Council requests an additional $8 million appropriation over the 
president's budget request.
Batteries
    Advanced batteries are critical to the success of electric vehicles 
(EVs) and other alternative fueled vehicles. The technology continues 
to improve as the result of the industry-government cooperation, U.S. 
Advanced Battery Consortium. Vehicle range has far exceeded 200 miles 
in testing and costs continue to be reduced. Economies of scale created 
through verification projects promise even more cost reductions and a 
growing level of field experience.
    Accordingly, the Council recommends that the battery R&D program be 
expanded to build upon the successful battery development program.

                            UTILITY PROGRAMS
    DOE also works effectively with utilities and power authorities to 
promote energy efficiency. Through voluntary programs such as Climate 
Wise, DOE has obtained the commitment of utilities to reduce utility 
emissions of greenhouse gases. Generally, activities that reduce 
emissions also reduce energy use. Climate Wise participants--such as 
Council member Sacramento Municipal Utility District (SMUD)--have 
premised their programs on sound economic principles. California and 
soon other parts of the nation will recognize that efficiency is one 
critical tool for maintaining reliable electricity supplies.

                        STANDARDS AND INSULATION
    DOE also has provided valuable technical assistance to the 
polyurethane foam insulation industry, helping the industry to find 
substitutes for some blowing agents used in insulation installation. 
The new polyisocyanurate insulation performs as efficiently as the 
prior product.

                     INFRASTRUCTURE AND OPERATIONS
    The BCSE recognizes that the tremendous demand of the marketplace 
has added new stresses to our energy delivery systems. This budget 
provides modest sums for modeling and research on the electric grid, to 
identify changes being caused by deregulation to flows of power. It 
also recognizes that the growing use of natural gas will require 
adjustments to that infrastructure. DOE predicts that domestic natural 
gas use will increase by 47 percent by the year 2020. Such increased 
natural gas use would provide myriad benefits, but will also strain the 
existing delivery infrastructure. We request $18 million for the well-
subscribed, cost-shared program.

                   FEDERAL ENERGY MANAGEMENT PROGRAM
    The BCSE is very supportive of the Federal Energy Management 
Program (FEMP). The federal government is the single greatest consumer 
of energy in the nation and FEMP's public/private partnership program 
is working to save both energy and taxpayer dollars. In these times of 
supply constraint and rising prices, this program should be made more 
aggressive to include improving significant facilities at all federal 
agencies. Funding for FEMP should at a minimum be held level with 
current year appropriations.

                               CONCLUSION
    The Council believes that the federal government's participation in 
cost-shared public/private partnerships that develop reliability-
enhancing, cost-effective non- and low-polluting technologies is 
crucial during this time of energy stress. No single technology or fuel 
is a panacea, and making a wide breadth of technologies available to 
the marketplace will result in actual energy solutions.
                                 ______
                                 
Prepared Statement of the National Research Center for Coal and Energy, 
                        West Virginia University
    Chairman Burns and Members of the Subcommittee: Thank you for the 
opportunity to testify regarding appropriations for the Fossil Energy 
and Energy Conservation programs of the Department of Energy.

                  FUELS AND POWER SYSTEMS R&D PROGRAM
    We note that the Administration has requested a total of 
$159,801,000 for the Fuels and Power Systems R&D Program compared to 
the enacted level of $324,025,000 in fiscal year 2001. This low funding 
level will result in the drastic reduction, or in some cases, the 
elimination of important major programs. These budget cuts will 
seriously delay the R & D necessary to generate the new technologies 
needed to attain a healthful environment and a sound economy. We urge 
you to find additional funds to restore the Fuels and Power Systems 
appropriation to the fiscal year 2001 level. This action will enable us 
to meet our national goals for an abundant, affordable, and available 
supply of electric power and for a more environmentally friendly 
transportation sector which is less dependent on international oil 
supplies.

                     FUELS PROGRAM IN FOSSIL ENERGY
Liquid Fuels Research and C-1 Chemistry
    The President's budget recommendation essentially eliminates 
funding for the Transportation Fuels & Chemicals and Advanced Fuels 
Research programs, the Early Entrance Co-Production Program which is 
integrated with the Vision 21 Energy Plants of the future, the Ultra 
Clean Fuels Program, and the Natural Gas to Liquids Program. These R&D 
programs must be funded vigorously if the Administration is to achieve 
its stated goals of reducing our imports of petroleum below the level 
of 50 percent anytime in the near future. We recommend that funding of 
$50 million be allocated in the overall budget for liquid fuels 
research and development.
    In particular, we request that, of this amount, $2 million be 
included for the C-1 Chemistry Program. This program was supported by 
the Subcommittee at a level of $1.4 million in fiscal year 2001 ($0.4 
million from the FE Fuels Program and $1 million from the Office of 
Transportation Technology program). C-1 Chemistry research converts 
carbon-containing feed stocks such as natural gas, carbon dioxide, 
methanol, and synthesis gas produced from coal or natural gas into 
ultra clean, high efficiency transportation fuel, hydrogen, and 
chemicals. This effort not only supports the Fossil Energy program for 
developing alternative fuels, but also identifies fuels and fuel 
additives which will enable the Office of Transportation Technology to 
attain the Tier II goals for 2004 established by EPA.
Solid Fuels and Feedstocks Program
    We recommend that the Solid Fuels and Feedstocks Program be funded 
at a level of $10 million for fiscal year 2002. With the projected 
increased use of coal to meet our energy demands, new technologies are 
needed to minimize the environmental impacts associated with producing 
coal. Of the $10 million in funding recommended, we request $3 million 
to continue the advanced separations research in solid-solid and solid-
liquid separations initiated in fiscal year 2001 in cooperation with 
the National Mining Association and the Center for Advanced Separations 
Technology. This program is focused on new ways to economically recover 
and utilize coal fines and other minerals discarded during production. 
The advanced research supported by this program will make significant 
contributions to avoid environmental disasters such as the October 11, 
2000 failure of a fine coal impoundment in northeastern Kentucky which 
resulted in an estimated half billion dollars damage to the streams and 
rivers in Kentucky and West Virginia.
Coal Extraction Program
    We request that the Subcommittee continue funding for the WVU Coal 
Extraction Program under the Advanced Fuels Research subelement at a 
level of $1.7 million, which the Subcommittee also provided for fiscal 
year 2001. The WVU program focuses on developing an alternative coal-
based source for a dwindling supply of petroleum-based binders and 
pitches. These materials are used to produce high-value carbon products 
such as anodes for aluminum smelting, foams and fibers for strong 
lightweight materials for structural and transportation applications, 
and innovative materials from carbon micro beads and carbon wool.

                   ADVANCED RESEARCH IN FOSSIL ENERGY
    In fiscal year 2001, the Subcommittee established a Technology 
Crosscut Program called Focus Area for Computational Energy Science. 
This focus area is a key element in enabling NETL to meet the 
expectations placed on it to rise in excellence to the level of its 
peers as a newly-established national laboratory. High speed computer 
connectivity and an appropriate complement of programs and users are 
necessary to achieve these goals. This program enables the National 
Energy Technology Laboratory [NETL] to form consortium relationships 
with regional academic institutions to conduct advanced research in 
combustion modeling, dynamic simulation, and power plant design. We 
recommend that this program be continued at the fiscal year 2001 level 
of $7 million.
    We further recommend an enhancement of the Advanced Research 
Program by $10 million over the Administration's request. We are 
concerned that insufficient funds are available to provide research 
support for graduate studies in coal-related technologies. It is 
necessary to maintain a quality academic faculty and sufficient 
graduate study opportunities to retain our national coal research 
expertise. We recommend that a coal center of excellence be established 
from a portion ($3 million) of this increased funding which would 
support the major coal research universities to conduct fundamental 
programs which ensure a supply of coal technology experts well into the 
future. As noted in our testimony last year, the university coal 
research program has been severely restricted in its scope due to the 
effects of inflation on a flat funding profile extending back to the 
1980s. Increased funding is needed to keep up with inflation.

                        NATURAL GAS TECHNOLOGIES
    At a time when our nation is looking to natural gas to supply a 
wide range of power generation, transportation, chemicals production, 
and home heating markets, the fiscal year 2002 budget proposed by the 
Administration is drastically lower than fiscal year 2001. We recommend 
that the funding for Natural Gas Technologies be increased by $25 
million over the President's request. In particular, we recommend that 
the Coal Mine Methane program initiated under the Emerging Processing 
Technology subelement be continued at a level of $4.5 million in fiscal 
year 2002. Currently, coal mine methane sources provide around 7 
percent of the natural gas supply and are estimated at about 7 percent 
of our nations reserves of 1,200 TCF of natural gas. The technology 
transfer programs carried out under the Petroleum Technology Transfer 
Council [PTTC] should be continued at the fiscal year 2001 level.

                             OIL TECHNOLOGY
    We have similar concerns about the drastic reductions in oil 
research proposed for fiscal year 2002. This program has been cut by 
approximately $36 million. We recommend that the Subcommittee increase 
the level of support for this program to approach the fiscal year 2001 
appropriations. Particular emphasis should be placed on maintaining and 
increasing the level of funding to the PTTC technology transfer 
activities referenced under the Natural Gas Technologies Program above.

                           PROGRAM DIRECTION
    We note with dismay that the funding allocations for program 
direction will result in the loss of about 30 positions in Fossil 
Energy Headquarters staff and about 58 positions in field positions at 
NETL. We are further concerned that the reduction in research support 
will cause the loss of additional in-house researchers. NETL must 
maintain its staffing if it is to attain the level of excellence 
required of national laboratories. A robust research program at NETL 
will also have spin-offs to regional universities which can join with 
NETL in cooperative research programs, thereby providing additional 
staff expertise and cost sharing. We recommend funding of the Program 
Direction line to levels at least equal to the fiscal year 2001 
appropriation.

                  OFFICE OF TRANSPORTATION TECHNOLOGY
    The Office of Heavy Vehicle Technology [OHVT] in the Office of 
Transportation Technology [OTT] undertakes research and development 
programs which address engine performance, vehicle emissions, fuel 
efficiency, and materials. In fiscal year 2001, the Subcommittee 
provided approximately $76.1 million to support these components of the 
OTT overall program. The Administration has requested $75.2 million for 
fiscal year 2002 for a comparable program. The OHVT program 
accomplishments will include worthy objectives such as increasing the 
fuel efficiency of heavy vehicles, reducing emissions to meet Tier II 
standards to be placed into effect in 2004, and increasing safety. We 
recommend that the Subcommittee fully fund the Administration request 
for these programs.

                    OFFICE OF INDUSTRIAL TECHNOLOGY
    The Industries of the Future [IOF] program has enabled West 
Virginia industries to increase energy efficiency in production while 
reducing harmful environmental emissions. We believe this program is of 
major importance in helping our state industries maintain a competitive 
edge while meeting our national needs for improved environmental 
performance. The Administration has recommended reduction of the IOF 
and the IOF Crosscutting Industries programs by 36 percent and 48 
percent, respectively. Such deep cuts effectively eliminate the start 
of new projects in fiscal year 2002 and in many cases do not even 
provide enough funding to meet mortgages from previous years. We 
recommend restoration of the Steel, Aluminum, Metal Casting, Glass, 
Chemicals and Mining IOF programs to their comparable fiscal year 2001 
level.
    We are strong in our support of the Cooperative Programs with 
States and recommend that this program, which has been recommended for 
zero funding by the Administration, be restored to the fiscal year 2001 
level of $2 million. West Virginia relies on this program to enable our 
industries and researchers develop quality programs to improve major 
sectors of our economic base.

                            CLOSING COMMENTS
    We believe that long range research is essential to maintaining our 
technological edge in energy and the environment. Therefore, we 
strongly recommend that additional funds be identified to adequately 
support the programs identified above. If we do not continue to support 
basic research in the short run, then we will have no new technologies 
to demonstrate in the long run. We realize the difficult budget 
situation which the Subcommittee must address and appreciate your 
willingness to tackle the funding shortfall. Thank you for considering 
our testimony.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) is the service 
organization representing the interests of over 2,000 municipal and 
other state and locally owned utilities throughout the U.S. 
Collectively, public power utilities deliver electric energy to one of 
seven electric consumers (about 45 million people) serving some of our 
nation's largest cities. The majority of APPA's member systems are 
located in small and medium-sized communities in every state except 
Hawaii. We appreciate the opportunity to submit this statement 
concerning fiscal year 2002 appropriations. The focus of our testimony 
will be on U.S. Department of Energy (DOE) programs within this 
Subcommittee's jurisdiction.

                     DOE ENERGY EFFICIENCY PROGRAMS
    APPA is disappointed in the Administration's level of support for 
DOE energy efficiency programs in its funding request for fiscal year 
2002. We ask that this Subcommittee ensure these important programs 
continue to be among the options available to our nation's electric 
utilities as they strive to meet the increased competitive and 
environmental demands placed on them by the marketplace and society. 
While we realize the budget constraints you face, we ask for favorable 
action in this area. DOE's energy efficiency programs received funding 
of $717 million in fiscal year 1995. Appropriations were cut 25 percent 
in fiscal year 1996 and were increased by nearly 9 percent in fiscal 
year 1998. Between 1998 and 2001, appropriations rose significantly. 
The Administration's proposal to decrease funding in fiscal year 2002 
to approximately $795 million, $20 million below the fiscal year 2001 
enacted level of $817 million, is bad policy as we encourage 
conservation. An increase in expenditures is warranted because energy 
efficiency is becoming even more important in the context of changes 
occurring as a result of electric utility industry restructuring. Due 
to these changes, many utilities already have downsized or terminated 
some energy efficiency programs in order to reduce costs. Yet these 
programs can be very helpful in maximizing the overall progress made 
toward achieving a competitive, high-growth economy for our nation 
while maintaining the kind of environmental quality we all desire for 
the future.
    Partnership for a New Generation Vehicle.--We urge the Subcommittee 
to restore funding for DOE's PNGV program to the fiscal year 2001 level 
of $140.4 million. The Administration's request of $100.4 million in 
fiscal year 2002 is insufficient given the need to invest in new 
generation vehicles. It is important that these advanced technologies 
be available for application to both mobile and stationary sources. The 
availability of fuel cell technology for transportation is critical for 
cities and states that must achieve mandated federal air quality 
standards. The fuel cell vehicle is virtually pollution free and highly 
efficient. Even a 10 percent market penetration could reduce regulated 
air pollutants by more than one million tons a year and emissions of 
carbon dioxide by 60 million tons a year. (This would fulfill the U.S. 
commitment to bring its CO<INF>2</INF> emissions back to 1990 levels.) 
It also would save 800,000 barrels of oil a day. One of APPA's members, 
the Sacramento Municipal Utilities District (SMUD), has done extensive 
research in this field because of the outstanding environmental and 
energy efficiency attributes of the technology.
    Community and Building Technologies.--APPA supports the 
Administration's request of $367.1 million in fiscal year 2002 for the 
energy partnership programs and welcomes the dramatic increase in 
weatherization funding, up nearly $120 million. Among the partnership 
programs, Rebuild America, designed to accelerate energy efficiency 
improvements in existing commercial and multi-family buildings, 
contributes greatly to our environment. APPA believes however, that the 
Administration's reduction of funding from $10.9 million in fiscal year 
2001 to $5.9 million in fiscal year 2002 is bad policy. Other programs 
like DOE's Energy Partnerships for Affordable Homes Program, a 
collaboration of public and non-public groups working to make public 
and private housing more energy efficient and affordable make valuable 
contributions to America's communities. DOE can play a facilitating 
role in helping bring new technologies and standards to market. 
Examples of valuable DOE efforts in this regard include the Technology 
Introduction Partnerships (TIPS) program and Motor Challenge. TIPS, in 
particular, has been an important one for APPA member systems. Motor 
Challenge is a voluntary partnership between DOE and industry designed 
to promote adoption of motors and motor-driven equipment that increase 
energy efficiency, enhance productivity and improve environmental 
quality. This year, it is anticipated that Motor Challenge will 
generate energy cost savings of $1.2 billion and electricity savings of 
25 billion kWh.
    Building Codes and Standards.--EP Act also requires each state to 
certify that it has reviewed its residential and commercial building 
codes to determine whether they meet energy efficiency targets. DOE is 
providing important technical assistance to encourage states to adopt 
such codes. We believe the Administration's request of $56 million in 
fiscal year 2002 is insufficient to ensure that this program is 
effective. APPA urges this Subcommittee to provide level funding of 
$104.6 million in fiscal year 2002 to continue this program.
    Municipal and Community Energy Management.--This program, within 
the Office of Building Technology, provides funding to municipalities 
for conducting a variety of projects that address energy-related areas 
of greatest concern to local governments. APPA recommends this program, 
operated by the Urban Consortium Energy Task Force (UCETF), receive 
adequate funding to fulfill its mission. UCETF is a program of Public 
Technology, Inc. (PTI), the non-profit technology organization of the 
National League of Cities, the National Association of Counties and the 
International City/County Management Association. Currently 22 
jurisdictions, including some public power communities, are represented 
on UCETF: Albuquerque, NM; Austin, TX; Chicago, IL; Columbus, OH; Dade 
County, FL; Denver, CO; Greensboro, NC; Hennepin County, MN; Kansas 
City, MO; Long Beach, CA; Memphis, TN; Monroe County, NY; Montgomery 
County, MD; Orange County, FL; Philadelphia, PA; Phoenix, AZ; Portland, 
OR; San Diego, CA; San Francisco, CA; San Jose, CA; Seattle, WA, and 
Washington, D.C.
    Weatherization Assistance Program.--APPA applauds the dramatic 
increase of more than $120 over the fiscal year 2001 appropriations. 
APPA supports the Administration's budget request of $273 million for 
weatherization assistance, especially important to the working poor, 
elderly and disabled. The program helps more than 100,000 residents 
annually. Weatherization programs have the additional benefit of 
stimulating economic growth by increasing disposable income and 
creating jobs in the service sector. The DOE Weatherization Assistance 
Program has been especially effective at helping low income citizens 
afford their energy bills and at the same time reduce their energy 
usage. The funding increases requested for fiscal year 2002 should be 
provided to this valuable program to help alleviate the multi-year 
backlog of weatherization work requested locally.
    State Energy Conservation Program.--State energy offices work on 
nearly every energy efficiency issue. They encourage technology 
development, renewable energy, alternative fuels, energy emergency 
preparedness, energy facility siting, recycling, transportation 
efficiency programs, energy conservation and economic development, 
among other activities. State energy offices have been extremely 
successful in identifying the needs of local communities, businesses 
and consumers, and funding appropriate efforts to effectively transfer 
technology to constituents. With increased devolution of 
responsibilities to the states, this program offers the ideal 
combination of state-level implementation on a flexible basis with 
federal support. We ask that this Subcommittee favorably consider the 
Administration's request of $38 million for the State Energy 
Conservation Program. The program suffered a 50 percent cut in fiscal 
year 1996. The spending level requested for fiscal year 2002 represents 
level funding when compared to the fiscal year 2001 enacted level.

          DOE FOSSIL ENERGY RESEARCH AND DEVELOPMENT PROGRAMS
    Fuel Cells.--Fuel cells have captured the interest of government 
and industry alike. Their modularity, high efficiency and negligible 
emissions of smog and acid rain precursors make fuel cells an important 
growth area deserving national priority. A consortium, including APPA 
member systems, along with the National Rural Electric Cooperative 
Association (NRECA), the Electric Power Research Institute (EPRI) and 
DOE, is co-sponsoring carbonate fuel cell research, testing and the 
first utility-scale demonstration of a carbonate fuel cell power plant. 
The direct fuel cell program consists of two major efforts--the Santa 
Clara Demonstration Project and the ongoing Product Design Improvement 
(PDI) cost-shared initiative.
    The first demonstration of an U.S.-developed fuel cell power plant 
operations in Santa Clara, CA. This 2-MW fuel cell unit has achieved a 
44 percent efficiency level, a record for a fossil fueled power plant 
of this size, has recorded emissions below conventional detection 
limits and is providing valuable information on fuel cell power plant 
operations. APPA member systems participating in the consortium include 
the City of Santa Clara, Los Angeles Department of Water & Power, 
Sacramento Municipal Utility District, the City of Vernon, CA, the Salt 
River Project and Northern California Power Agency. The final phase of 
the development effort, the design and fielding of a pre-commercial 
unit has now begun. The 21 members of the Fuel Cell Commercialization 
Group (FCCG) support performance and cost targets for this final phase. 
In addition to those named as supporters of the Santa Clara project, 
APPA member systems comprising FCCG include Alabama Municipal Electric 
Authority, City of Anaheim (CA) Public Utilities Department, Florida 
Municipal Power Agency, City of Manassas (VA) Electric Department, City 
of Tallahassee (FL) Electric Department and Wisconsin Public Service 
Corporation. The Administration is requesting $449 million in fiscal 
year 2002 to support all fossil energy research and development. We 
urge Congress to fully fund this program so that progress can continue 
toward full commercialization.
    Power Technologies.--APPA strongly supports the Distributed Energy 
Resources program, which aims to develop technologies, and systems that 
will move energy supplies closer to the point of use. This provides the 
opportunity for more efficient use of waste heat to boost efficiency 
and lower emissions, and reduces the strain on congested transmission 
systems. The fiscal year 2002 budget focuses on the development of 
advanced distributed generation and thermally activated R&D programs to 
raise efficiency and performance while lowering coasts and emissions.
    Clean Coal Power Initiative.--APPA strongly urges the Subcommittee 
to support the Administration's request of $150 million in fiscal year 
2002 to fund joint government/industry-funded research, development and 
demonstration of new technologies to enhance the reliability and 
environmental performance of coal-fired power generators. The CCPI will 
also develop the technological foundation for the next generation of 
even cleaner, more efficient technologies for both new power plants and 
for modernizing older ones.
                                 ______
                                 
 Prepared Statement of the State Teachers' Retirement System, State of 
                               California

                                SUMMARY
    Acting pursuant to Congressional mandate, and in order to maximize 
the revenues for the Federal taxpayer from the sale of the Elk Hills 
Naval Petroleum Reserve by removing the cloud of the State of 
California's claims, the Federal Government reached a settlement with 
the State in advance of the sale. The State waived its rights to the 
Reserve in exchange for fair compensation in installments stretched out 
over an extended period of time.
    Following the settlement, the sale of the Elk Hills Reserve went 
forward without the cloud of the State's claims and produced a winning 
bid of $3.65 billion, far beyond most expectations. Under the 
settlement between the Federal Government and the State, the State is 
to receive compensation for its claims in annual installments over 7 
years without interest. Each annual installment of compensation is 
subject to a Congressional appropriation. In each of the past 3 fiscal 
years (fiscal years 1999-2001), Congress has appropriated the funds 
necessary to pay the $36 million installment of compensation due for 
that year.
    Congress should appropriate for fiscal year 2002 the $36 million to 
fulfill the Federal Government's obligation to make the fourth annual 
installment payment of compensation, due in fiscal year 2002 under the 
settlement that Congress directed the Administration to achieve.
    For the fourth year in a row, the entire 52 Member California House 
delegation has strongly supported by delegation letter the Elk Hills 
appropriation.

                               BACKGROUND
    Upon admission to the Union, States beginning with Ohio and those 
westward were granted by Congress certain sections of public land 
located within the State's borders. This was done to compensate these 
States having large amounts of public lands within their borders for 
revenues lost from the inability to tax public lands as well as to 
support public education. Two of the tracts of State school lands 
granted by Congress to California at the time of its admission to the 
Union were located in what later became the Elk Hills Naval Petroleum 
Reserve.
    The State of California applies the revenues from its State school 
lands to assist retired teachers whose pensions have been most 
seriously eroded by inflation. California teachers are ineligible for 
Social Security and often must rely on this State pension as the 
principal source of retirement income. Typically the retirees receiving 
these State school lands revenues are single women more than 75 years 
old whose relatively modest pensions have lost as much as half or more 
of their original value to inflation.

          CONGRESSIONAL DIRECTION TO SETTLE THE STATE'S CLAIMS
    In the National Defense Authorization Act for fiscal year 1996 
(Public Law 104-106) that mandated the sale of the Elk Hills Reserve to 
private industry, Congress reserved 9 percent of the net sales proceeds 
in an escrow fund to provide compensation to California for its claims 
to the State school lands located in the Reserve.
    In addition, in the Act Congress directed the Secretary of Energy 
on behalf of the Federal Government to ``offer to settle all claims of 
the State of California . . . in order to provide proper compensation 
for the State's claims.'' (Public Law 104-106, Sec. 3415). The 
Secretary was required by Congress to ``base the amount of the offered 
settlement payment from the contingent fund on the fair value for the 
State's claims, including the mineral estate, not to exceed the amount 
reserved in the contingent fund.'' (Id.)

             SETTLEMENT REACHED THAT IS FAIR TO BOTH SIDES
    Over the course of the year that followed enactment of the Defense 
Authorization Act mandating the sale of Elk Hills, the Federal 
Government and the State engaged in vigorous and extended negotiations 
over a possible settlement. Finally, on October 10, 1996 a settlement 
was reached, and a written Settlement Agreement was entered into 
between the United States and the State, signed by the Secretary of 
Energy and the Governor of California.
    The Settlement Agreement is fair to both sides, providing proper 
compensation to the State and its teachers for their State school lands 
and enabling the Federal Government to maximize the sales revenues 
realized for the Federal taxpayer by removing the threat of the State's 
claims in advance of the sale.

   FEDERAL REVENUES MAXIMIZED BY REMOVING CLOUD OF STATE'S CLAIM IN 
                          ADVANCE OF THE SALE
    The State entered into a binding waiver of rights against the 
purchaser in advance of the bidding for Elk Hills by private 
purchasers, thereby removing the cloud over title being offered to the 
purchaser, prohibiting the State from enjoining or otherwise 
interfering with the sale, and removing the purchaser's exposure to 
treble damages for conversion under State law. In addition, the State 
waived equitable claims to revenues from production for periods prior 
to the sale.
    The Reserve thereafter was sold for a winning bid of $3.65 billion 
in cash, a sales price that substantially exceeded earlier estimates.
    proper compensation for the state's claims as congress directed
    In exchange for the State's waiver of rights to Elk Hills to permit 
the sale to proceed, the Settlement Agreement provides the State and 
its teachers with proper compensation for the fair value of the State's 
claims, as Congress had directed in the Defense Authorization Act.
    While the Federal Government received the Elk Hills sales proceeds 
in a cash lump sum at closing of the sale in February, 1998, the State 
agreed to accept compensation in installments stretched out over an 
extended period of 7 years without interest. This represented a 
substantial concession by the State. Congress had reserved 9 percent of 
sales proceeds for compensating the State. The State school lands' 
share had been estimated by the Federal Government to constitute 8.2 to 
9.2 percent of the total value of the Reserve. By comparison, the 
present value of the stretched out compensation payments to the State 
has been determined by the Federal Government to represent only 6.4 
percent of the sales proceeds, since the State agreed to defer receipt 
of the compensation over a 7-year period and will receive no interest 
on the deferred payments.
    Accordingly, under the Settlement Agreement the Federal Government 
is obligated to pay to the State as compensation, subject to an 
appropriation, annual installments of $36 million in each of the first 
5 years (fiscal year 1999-2003) and the balance of the amount due split 
evenly between years 6 and 7 (fiscal year 2004-2005).

                  THE MONEY IS THERE TO PAY THE STATE
    The funds necessary to compensate the State have been collected 
from the sales proceeds remitted by the private purchaser of Elk Hills 
and are now being held in the Elk Hills School Lands Fund for the 
express purpose of compensating the State. (The balance in the Elk 
Hills School Lands fund has been reduced by an approximately $26 
million ``hold-back'' from the State's share pending the final equity 
determination of the Federal Government's share of the Elk Hills field 
vis-a-vis its co-owner prior to the sale, Chevron. This escrow will be 
released once the final equity shares are determined.)

  THE PRESIDENT'S BUDGET FOR FISCAL YEAR 2002 REQUESTS THE NECESSARY 
     APPROPRIATION FOR THE FOURTH ANNUAL INSTALLMENT OF ELK HILLS 
            COMPENSATION DUE UNDER THE SETTLEMENT AGREEMENT
    The President's Budget for fiscal year 2002 requests that Congress 
appropriate $36 million from the sales proceeds being held in escrow in 
the Elk Hills School Lands Fund to pay the fourth annual installment of 
Elk Hills compensation due to the California State Teachers' Retirement 
System. See Budget of the United States Government--Fiscal Year 2002, 
Appendix, at pp.416-417.

  CONGRESS SHOULD APPROPRIATE THE FUNDS DUE UNDER THE SETTLEMENT THAT 
          CONGRESS DIRECTED THE FEDERAL GOVERNMENT TO ACHIEVE
    Congress should appropriate for fiscal year 2002 the $36 million 
requested by the President to fulfill the Federal Government's 
obligation to make the fourth annual installment payment of 
compensation due in fiscal year 2002 under the settlement that Congress 
directed the Federal Government to achieve.
                                 ______
                                 
                DEPARTMENT OF HEALTH AND HUMAN SERVICES
                         Indian Health Service
 Prpared Statement of the National American Indian Housing Council and 
              Coalition for Indian Housing and Development
    On behalf of the members and Board of Directors of the National 
American Indian Housing Council and the Coalition for Indian Housing 
and Development, I would like to thank Chairman Burns, Ranking Member 
Byrd, and other distinguished members of the Subcommittee for the 
opportunity to submit public witness testimony today. I write in 
support of increased funding to a total of $280 million for water and 
sewer infrastructure within Sanitation Facilities Construction of the 
Indian Health Services and Facilities, Department of Health and Human 
Services.

                 FEDERAL HOUSING AID IN INDIAN COUNTRY
    As Chairman of the National American Indian Housing Council and the 
Coalition for Indian Housing and Development and Executive Director of 
the Navajo Housing Authority, I testify today as a voice for Americans 
who daily endure the most deplorable housing conditions in the country. 
These are people within American borders who commonly live 15 to 20 
people in one small house. These are people for whom proper sewage 
facilities, roads, and indoor plumbing is often a luxury, rather than a 
standard. These are people who, like many other Americans, dream of 
owning their own homes.
    Indian housing is at a crucial stage. The passage of the Native 
American Housing Assistance and Self-Determination Act of 1996 
(NAHASDA) has given tribes and Tribally Designated Housing Entities 
(TDHEs) incredible new opportunities, and with continued funding, 
NAHASDA can be the most important tool in building sustainable, healthy 
communities in Indian Country. Although tribes and TDHEs are able to 
utilize a number of housing programs within the Departments of HUD, 
Interior, and USDA, NAHASDA continues to be the basic and most 
pervasive program for Indian housing.
    Native Americans across the country continue to rely heavily on 
federal subsidy in place of other methods of finance that much of the 
American population take for granted. The lack of significant private 
investment and the dire conditions faced in many communities simply 
mean that federal dollars make up a larger portion of the total housing 
resources than in other areas. Common sources of construction and 
development financing simply do not exist on our nation's Indian 
reservations.
         infrastructure needs threaten ``housing renaissance''
    Under NAHASDA, Indian Country has seen a much-needed ``housing 
renaissance.'' A previously neglected population is now utilizing the 
principles of self-determination on which NAHASDA is based, creating 
self-sustaining communities that will eventually require less and less 
federal aid. Tribes have experienced great success over the last 
several years in increasing their ability to attract additional housing 
resources to their tribes. Unfortunately, the housing renaissance will 
come to an end unless currently inadequate funding for infrastructure 
development increases proportionately with housing funds. The following 
statistics help to illustrate the problem tribes face:
  --1 of every 5 homes on Indian reservations lacks complete in-house 
        plumbing--a rate 20 times the national average.
  --Less than 50 percent of homes on Indian reservations are connected 
        to a public sewer.
  --About 1 in 5 American Indian reservation households dispose of 
        sewage by means other than public sewer, septic tank or 
        cesspool.
    Those administering housing programs in Indian Country understand 
that their work must encompass so much more than basic housing 
construction. In the rural, and often remote, locations of many tribal 
communities, it cannot be assumed that support infrastructure is 
present or even available. Hauling water in barrels and pots by truck 
or on foot is a daily reality for many tribal members on the Navajo 
Nation Reservation where I live and work. The story is the same for 
many other tribes. Even where water facilities are present, they are 
often stretched beyond capacity and have fallen into disrepair.
    A crisis has been reached in Indian Country that has two serious 
effects. First, there are currently housing plans for thousands of new 
units of housing that cannot move forward without infrastructure 
development. There are also thousands of existing housing units that 
lack basic water/sewer infrastructure. Second, lack of proper sewage 
treatment and swiftly deteriorating or non-existent water systems daily 
increase health risks for tribal members.
    I ask the members of the Subcommittee today to consider increasing 
funding for Sanitation Facilities Construction at IHS to at least the 
level requested in order to combat these two urgent needs in Indian 
Country.

                            CURRENT FUNDING
    President Bush has requested $650 million for the NAHASDA block 
grant for fiscal year 2002. This is the same amount as was appropriated 
for fiscal year 2001. Although NAHASDA funding has seen an increase of 
34 percent since the Act was passed in 1996, $650 million a year will 
bring us nowhere near the levels tribes need to meet their members' 
housing needs, much less provide for basic water and sewer 
infrastructure.
    HUD no longer designates funds specifically for infrastructure, so 
tribes much choose whether to use their limited NAHASDA fund 
distribution to build homes to relieve overcrowded conditions, or to 
use their funds for infrastructure. Furthermore, limitations have been 
placed on the ability of IHS to serve HUD-funded homes, compounded by 
the sharp increase in the number of new homes being constructed.
    In the Indian Health Care Improvement Act Amendments (Public Law 
94-437), Congress states that, ``it is in the interest of the United 
States, and it is the policy of the United States, that all Indian 
communities and Indian homes, new and existing, be provided with safe 
and adequate water supply systems and sanitary sewage waste disposal 
systems as soon as possible'', and that the Indian Health Service has 
the primary responsibility and authority to provide these necessary 
sanitation facilities and services to Indian homes and communities.
    Funding for Sanitation Facilities Construction for IHS was 
appropriated at $93.6 million for fiscal year 2001 and the President 
has asked for roughly the same amount in his fiscal year 2002 budget. 
About half this amount will serve existing homes, and half is for new 
homes. Before NAHASDA, there were only around 2,000 homes being built 
per year. Twenty million dollars was enough to serve those new homes 
with adequate sanitation facilities. Since 1996, however, 20,000 new 
homes have been built or are under development with no significant 
increase in infrastructure funding. Although tribal leaders estimate 
that the infrastructure backlog in Indian Country would currently 
require several billion dollars, NAIHC requests an increase of at least 
$180 million per year above the existing amount for tribes to couple 
with NAHASDA funds for housing development and improvement. This 
increase is vital for meeting current demand and does not consider the 
likely growth of the program over the next ten years.
    NAIHC feels IHS is the proper authority in Federal trust 
assignments under the Snyder Act of 1929 to provide these health and 
sanitation funds. It is not proper that HUD funds be used to pay for 
infrastructure, especially for scattered sites. Responsibility for 
these services should not be required of funds that must be spent on 
desperately needed housing in Indian Country.

                               CONCLUSION
    In closing, I would again like to thank all the members of this 
subcommittee, in particular Chairman Burns and Ranking Member Byrd, for 
their continuing support for Indian programs and the tribes. NAIHC and 
CIHD look forward to working with each of you in this session of 
Congress and I am happy to answer any questions you may have.
                                 ______
                                 
          Prepared Statement of the Alaska Native Health Board
    The Alaska Native Health Board (ANHB) submits this statement on the 
fiscal year 2002 Indian Health Service budget. We may file additional 
comments once we have seen the details of the President's proposed IHS 
budget. We also bring to your attention that our (calendar year) 2001 
Federal Priorities paper addresses issues beyond what we can include 
within the four-page limitation of this statement. In summary, our 
fiscal year 2002 IHS budget recommendations are:
  --Health facilities and associated housing construction at St. Paul 
        ($14 million), Metlakatla ($17 million), and Arctic Slope 
        Native Association in Barrow ($8 million). All have received 
        planning and design funding.
  --Community Health Aide Practitioner increase of $9.9 million.
  --Dental health services increase and continued emphasis on bringing 
        more dentists into the IHS loan repayment program.
  --Contract Health Care funding which will reduce the deferred cases.
  --Full funding for contract support.
  --Inflation funding of at least $60 million.
    Phase-In a Needs-Based Budget.--We ask Congress to seriously 
consider the IHS needs-based budget developed last year by tribes, 
urban Indian organizations, and IHS and which was submitted to DHHS in 
June, 2000. IHS estimates that the per capita health expenditure for 
persons in the IHS service population is only $1,351 compared to a 
$3,766 per capita expenditure for the general population.
    The needs-based budget calls for an IHS appropriation of $18 
billion--phased in over ten years--and is comprised of:
  --$2.5 billion (fiscal year 2001 appropriation plus inflation)
  --$508 million to maintain current services
  --$6.3 billion for program expansions in specific health areas of 
        greatest need
  --$3.5 billion for facility backlog
  --$5.2 billion for nonrecurring facilities costs
    Facilities at St. Paul, Metlakatla, and Barrow.--St. Paul, 
Metlakatla Indian Community, and Arctic Slope Native Association health 
centers and associated staff quarters are next on the IHS priority list 
to receive funding. All have obtained planning and design funding. 
These are communities who are the sole source providers of health care 
for Native and non-Native populations.
  --St. Paul Health Center ($14.29 million).--The Pribilof Island of 
        St. Paul is the northern most island in the Aleutian chain. It 
        is located in the Bering Sea, 800 miles from Anchorage, and is 
        arguably one of the most isolated communities in the nation. 
        The current health facility at St. Paul was built in 1929--the 
        oldest facility in the IHS system. In 1970, a small addition 
        was added by IHS.
      The present clinic has many documented physical and environmental 
        deficiencies and is much too small to adequately serve the 
        Native and non-Native population. While the clinic serves the 
        approximately 900 permanent residents of St. Paul Island, it 
        also is the sole source provider of health services to 3,000 
        fishermen during fishing and crabbing seasons. The health 
        clinic is not handicapped-accessible, and hallways and doors 
        are very narrow. There are only two examination rooms. Due to 
        lack of examination space, treatment of patients must also be 
        provided in hallways and in the x-ray room. There is little 
        privacy for patients, and patient confidentiality is difficult.
      The clinic services a Native population which has the highest 
        rates of diabetes and cardio-vascular disease in Alaska. Deaths 
        from suicides and accidents among St. Paul Native residents are 
        several times the national average.
  --Metlakatla Indian Community Health Center ($17 million).--The 
        Metlakatla Indian Community has been pursuing funds for many 
        years for the replacement of its health facility. At present, 
        clinic services are housed in four modular units which were 
        built in the 1970's. The facilities are set on pilings and are 
        connected by open, elevated, wooden walkways. Over time the 
        buildings have settled unevenly, posing an unsafe environment 
        for people seeking health services (18,000+ visits per year). 
        The building continues to re-settle, particularly when freezing 
        and thawing occurs, resulting in cracked walls and other 
        damage. There is an ongoing, and losing, effort to do emergency 
        repairs. Additionally, the facilities are overcrowded and the 
        utility systems inadequate to support the modernization or 
        updating of medical equipment.
      The Metlakatla Health Center is the sole source of health care as 
        there are no private providers on the Island. Inpatient or 
        hospital services must be obtained off-island through Ketchikan 
        General Hospital, Southeast Alaska Regional Health Corporation/
        Mt. Edgcumbe Hospital in Sitka, or the Alaska Native Medical 
        Center in Anchorage. In winter months, travel between 
        Metlakatla and Ketchikan and other destinations is often cut 
        off by heavy winds and storms.
  --Arctic Slope Native Association (ASNA) ($8 million).--We request 
        fiscal year 2002 funding for the Planning and Site Acquisition 
        phase of this hospital replacement project. Efforts have been 
        underway for over ten years to replace the aging and inadequate 
        physical plant of the Samuel Simmonds Memorial Hospital (SSMH). 
        in Barrow. This critical facility is the only hospital 
        available to residents of an area larger than the State of 
        Washington. The single story wood frame building was 
        constructed in 1965 and most of the major systems in the 
        building are the original equipment. It was designed to meet 
        the requirements of a much smaller population and now provides 
        less than 25 percent of the space needed to provide appropriate 
        medical care for the current population.
      The IHS approved the Project Justification Document and a draft 
        Program of Requirements for this project in 1998. The Barrow 
        project would cost $98 million when complete and is currently 
        the fourth priority for inpatient facility construction on the 
        IHS priority list. The third construction project does not have 
        an approved Project Justification Document but has been 
        inserted in the list ahead of SSMH.
    The IHS Planned Construction Budget does not request any funds for 
the project until fiscal year 2003. The $125,000 provided by the Denali 
Commission to complete the planning phase could move the IHS funding 
ahead of this schedule.
      The normal IHS project funding process needs to be allowed to 
        work. Funding for the Planning and Site Acquisition phase 
        should be included in the fiscal year 2002 IHS budget. 
        Engineering Services based its project cost estimate on initial 
        funding in fiscal year 2002 and yet IHS Planned Construction 
        Budget for fiscal year 2002 does not include any funding for 
        SSMH. Instead, funds are budgeted for the third facility, 
        despite the fact that IHS required justification for the 
        project has not been completed. The delays in finalizing 
        planning for the third construction project should not be 
        allowed to result in delays for funding SSMH. Congressional 
        oversight to ensure that IHS follows its own procedures will 
        permit the funding of the SSMH project.
    Community Health Aide/Practitioner Program (CHA/P).--We request a 
$9.9 million increase for the CHA/P program for a total of $45 million. 
CHA/P provides emergency and primary health care for 50,000 Alaska 
Natives of $900 annually per patient. A detailed plan has been worked 
out regarding how such an increase would be used. The funding would be 
utilized as follows: $6.1 million to increase by 125 the number of CHA/
P positions (for a total of 625); $2.3 million to increase the number 
of Field Supervisors (Community Health Practitioners RNs, Midlevel 
Practitioners); $1.2 million to increase statewide CHA/P training 
capacity; and $300,000 for ongoing updates of materials which are 
specific to the CHA/P Program (medical manuals, curriculum and 
standards).
    Contract Health Care.--We appreciate the $40 million increase in 
fiscal year 2001 for Contract Health Care (total of $447 million), and 
ask that Congress continue to help address through increased 
appropriations the annual unmet need in this area. The need in Alaska 
and elsewhere exceeds by far the available contract health services 
budget. In Alaska alone, there were 9,416 deferred health services in 
fiscal year 1999 due to inadequate IHS contract health care funding. 
Nationally IHS deferred payment on 84,000 recommend contract health 
care cases in fiscal year 1999.
    The housing needs of patients, escorts, and family members who must 
travel away from home for medical care services are uniquely pressing 
in Alaska, where services are frequently sought hundreds of miles away 
in areas where hotels and other public lodging may be scarce or 
prohibitively expensive. In Anchorage, this need is partially met 
through the availability of Quyana house, a patient hostel connected to 
the Alaska Native Medical Center. Quyana House has 50 rooms and 108 
beds and is almost always filled to capacity. Patients must seek off-
campus housing in hotels or with family and friends. In the long term 
we hope that funding, possibly through HUD, can be obtained to build 
more housing on the ANMC campus, but in the interim we need additional 
funds through Contract Health Services to assist in the provision of 
patient and family housing in Anchorage, Sitka, Dillingham, Barrow, 
Kotzebue, Nome, Kodiak, and Bethel.
    Dental Care.--There is increased and welcomed attention being given 
to the dental crisis among Native people in Alaska and elsewhere. 
Studies have documented the need, and the American Dental Association 
has testified before Congress in support of increased IHS funding for 
dental health. Last year Congress enacted the Children's Health Act 
which authorized a new discretionary grant program ($10 million 
authorization) specific to Alaska Native and Indian children's dental 
health. The IHS has made its loan repayment program more available to 
dentists--in fiscal year 2000, 20 dentists participated in the IHS loan 
repayment program; in fiscal year 2001 that number increased to 66.
    We appreciate the $11 million increase in fiscal year 2001 IHS 
budget for dental care (a total of $91 million), and urge this 
Committee to again increase substantially the IHS funding for dental 
care services and education. We need to develop a system for training 
Community Dental Health Aide Practitioners to provide some types of 
dental services in villages. And we need dental hygienists to be 
trained so that their duties can be expanded, e.g, traumatic 
restoration of teeth.
    Children with rampant dental decay often go untreated because of 
lack of access to dental care. It is not uncommon to see children with 
12 out of their 20 baby teeth severely decayed. The rate of decay rate 
among children in Alaska is 2\1/2\ times the national rate. And rates 
of oral cancer among Alaska Natives are higher than in any other IHS 
area. Oral cancers are often detectable through routine oral exam and 
biopsy. These cancers generally appear in adults, the segment of the 
Alaska Native population with the least access to dental care.
    Contract Support Costs.--Our understanding is that the 
Administration will request no increase for Contract Support Costs for 
fiscal year 2002, despite the fact that there is an existing shortfall 
of approximately $45 million for ongoing and new contractors. In 
addition, when the Navajo Nation exercises its rights under the Indian 
Self-Determination Act this year and assumes administration of its 
health care program, there will be a need for another $60 million for 
contract support funds. We urge Congress to fully fund contract support 
costs.
    Inflation.--We understand that the Administration's proposed fiscal 
year 2002 IHS budget will contain no funding for inflation. Tribal and 
IHS health care providers annually see the value of their program 
dollars diminish because they must absorb substantial inflationary 
increases. While Congress generally provides funding for mandatory pay 
raises, there is often inadequate or no funding to cover inflation. IHS 
estimated the fiscal year 2001 cost of inflation to be $60 million, but 
no funding was provided for this purpose. In fiscal year 2001, Congress 
appropriated $20 million to partially offset the cost of inflation.
    Thank you for your consideration of the recommendations of the 
Alaska Native Health Board.
                                 ______
                                 
   Prepared Statement of the Confederated Tribes of the Grand Ronde 
                          Community of Oregon
    Mr. Chairman, I am Kathryn Harrison, Chairperson of the 
Confederated Tribes of the Grand Ronde Community of Oregon. I hereby 
submit this testimony on the Grand Ronde Tribe's comments and requests 
regarding the fiscal year 2002 Indian Health Service and Bureau of 
Indian Affairs proposed appropriations.
    Our requests are as follow:
    (1) For the Indian Health Service, we support the testimony of the 
Northwest Portland Area Indian Health Board.
    (2) In the Indian Health Service, increase Clinical Services to 
fully reflect cost increases for medical inflation and the service 
population increase.
    (3) In the Indian Health Service and the Bureau of Indian Affairs, 
provide full funding for Indian Self-Determination Act contract support 
costs.
    (4) In the Bureau of Indian Affairs, provide a general increase to 
TPA funding, and be skeptical of the proposed Welfare Assistance cut 
proposed in TPA.
    Mr. Chairman, because we have not had an adequate opportunity to 
receive and review the Administration's detailed budget proposal 
released April 9, my comments can only be general. But while specific 
numbers might be lacking, we firmly believe our comments are completely 
correct, and ask that the Subcommittee give them appropriate weight.

                         INDIAN HEALTH SERVICE
    With regard to the Indian Health Service, we support the comments 
of the Northwest Portland Area Indian Health Board. We understand their 
comments are on the way to the Subcommittee requesting a total IHS 
increase of $425 million over fiscal year 2001. The Health Board is a 
skilled and professional organization that has a good understanding of 
the health needs of the Northwest Indian people, and of the IHS budget.
    With further regard to the Indian Health Service, we have seen the 
rough figures of the Administration's request, and we find them very 
insufficient. Specifically, we note that Clinical Services in proposed 
for a $94 million increase, which is 4 percent over fiscal year 2001. 
Mr. Chairman, 4 percent barely covers standard inflation, and most 
likely covers little more than mandatory cost of living increases for 
IHS personnel. At a time when sky-rocketing prescription and medical 
costs are a preeminent national debate, and when the 2000 Census has 
documented an explosion in the Native American population, the proposed 
IHS Clinical budget does little to address the health difficulties 
faced everyday by the Native American population across the United 
States.
    For Contract Health Services, it is hard to believe that the 
Administration has requested zero increase for this essential function. 
The tribes in the Northwest, and many throughout the United States, 
must rely upon the Contract Health Services for all in-patient care. 
Given service population increases and medical inflation, that's 
roughly equivalent to asking us to take a 15 percent to 25 percent 
reduction for in-patient services in a single year.
    The true level of Native American clinical health care need in the 
United States has recently been demonstrated by the Senate's unanimous 
adoption Friday, April 6, of a Daschle-Domenici amendment to the fiscal 
year 2002 budget resolution increasing the budget allocation for Native 
American clinical services by $4.2 billion annually. In discussing the 
need for the amendment's $4.2 billion annual increase, Senator Daschle 
described Native American health circumstances as follows:

    ``What is happening now without that critical funding? Health care 
is being rationed, often with tragic results. Indians are being told 
they face a literal life or limb test. They cannot see a doctor unless 
their life is threatened or they are about to lose a limb. They are 
told they have to wait until they get worse; that, if there is any 
money left, they might get treatment. Non-emergency care is routinely 
denied.''

    Unfortunately, there is little chance any thing like a $4.2 billion 
increase in IHS clinical funding will be appropriated in a single year. 
But we urge the Subcommittee to dedicate a very substantial increase to 
the IHS clinical budget. To not do so relegates many of America's 
Indian people to lives of steadily declining health.

                            CONTRACT SUPPORT
    Mr. Chairman, we also ask that the Subcommittee provide full 
funding for tribal contract support costs in both IHS and BIA. With 
regard to the Indian Health Service, many tribes, including ourselves, 
have found that the profound difficulties of health care provided by 
the Indian Health Service can be somewhat eased by directly assuming 
responsibility for operating their health programs. While the 
professionals of the IHS are struggling to do their best with very 
limited resources, they are also caught up in the coils of their own 
bureaucracy, and the IHS itself is further ensnared in the larger 
bureaucracy of HRSA and the Department of HHS. By our taking over the 
health program for our Tribe, 638 allows some flexibility that enables 
us to operate the program more effectively and in a manner that better 
suits our Tribe's needs.
    But we are being penalized for taking this initiative. To the 
extent we are not provided full recovery of our contract support costs, 
the unavoidable administrative costs associated with our operating the 
program are drawn out of direct program funding, diminishing service 
levels. The same goes for BIA programs over which we have assumed 
operational responsibility. If the spirit and true meaning of Indian 
Self-Determination are to be fully realized, the tribes should not be 
required to bear this burden. Full contract support funding is only 
fair.

                        BUREAU OF INDIAN AFFAIRS
    With regard to the Bureau of Indian Affairs, again we have only had 
a brief opportunity to examine the Administration's fiscal year 2002 
proposal, but in addition to our foregoing comments on contract 
support, we offer these observations.
    First, Tribal Priority Allocation funding seriously needs an 
overall increase. It has not had any increase beyond mandatory cost of 
living adjustments for many years. Meanwhile, the costs of goods and 
services have significantly increased, and the Native American service 
population has grown. The Federal government's obligations must be met. 
Holding the BIA TPA budget basically flat steadily erodes the Bureau's 
local services and capabilities until the shortage finally manifests 
itself in a ``crisis'' like that in trust funds management, with its 
high profile publicity and accusations, and its sudden ``emergency'' 
requirement for tens of millions of new dollars. But while Congress and 
the Administration are desperately trying to patch up trust funds 
management, woefully insufficient funding is surely breeding crises in 
other Bureau functions. Like law enforcement. Like BIA administrative 
capability. Like whatever other steady and grinding deficiency will 
suddenly be ``discovered'' in some future study or news story. We 
recently saw a newspaper article showing an independent evaluation of 
several federal agencies, in which the BIA was given a ``D'' grade. 
That didn't surprise those of us who live day to day with the Bureau's 
consistently inadequate budgets. Mr. Chairman, the old English 
expression ``penny wise and pound foolish'' is called to mind, and we 
urge Congress to do all it can not to embrace it.
    Otherwise, we note and question the $2.5 million reduction proposed 
for Indian welfare assistance in TPA Human Services. In the rural and 
remote communities where most Indian people live, jobs are sparse. 
Employment education and training are sparse, and all too often, 
economic opportunity is not available. Despite many best efforts, 
unemployment and poverty are unfortunately persistent. So we ask that 
the Subcommittee carefully evaluate whether such a cut is justified.

                      ABOUT THE GRAND RONDE TRIBE.
    In 1954, members of the Confederated Tribe of the Grand Ronde lost 
federal recognition under the Western Oregon Termination Act. This 
legislation crippled our Tribal government, took away our remaining 
Tribal lands, and brought about numerous socio-economic difficulties 
for our Tribal members. In 1983, our Tribe regained its rightful place 
among Indian Nations when Congress passed the Grand Ronde Restoration 
Act.
    A survey of our Tribal membership completed in 1985 revealed the 
devastating impacts of termination. The Tribe's unemployment rate was 
23 percent. Among our population aged 19 years or older, 38 percent had 
not completed high school. And 34 percent of our households had incomes 
below the poverty level. The survey also revealed serious health 
concerns, including many members with high blood pressure, heart 
disease, arthritis, vision, hearing, and alcohol and substance abuse 
problems.
    We have since come a long way in fighting the problems that we have 
had to face with respect to termination. Despite some of the current 
positives that are taking place in Indian Country, and specifically at 
Grand Ronde, there is still a great deal of unmet need within our 
Tribal community. We have the task of trying to make up for twenty-nine 
years without support or services, and while we do our best to provide 
for our Membership, as well as the community, we still fall short. We 
will continue to strive for the best, and we are proud that today we 
are a Self-Governance Tribe with both the BIA and the IHS. As discussed 
earlier in this testimony, Self-Governance allows us some opportunities 
and flexibility to pursue Tribal priorities with otherwise limited BIA 
and IHS funds.
    We are honored to have appeared before your Subcommittee in 
previous years, and to submit this testimony today. We are proud of our 
Tribe and our heritage, and we are proud to be Oregonians and citizens 
of the United States. We look forward to continuing our government-to-
government efforts to build a strong and harmonious relationship with 
the U.S. Congress.
    Thank you. That concludes my testimony.
                                 ______
                                 
             Prepared Statement of the Rosebud Sioux Tribe
    My name is William Kindle and I am President of the Rosebud Sioux 
Tribe in South Dakota. Our reservation covers one entire county in 
South Dakota, and many of our members reside in the nearby adjoining 
counties within our health service area. We have a modern health 
facility on our reservation. The health delivery service at Rosebud 
Sioux Reservation suffers from problems that plague many if not most of 
the IHS health systems throughout the United States, most of which is 
traceable to inadequate funding across the board. As noted in more 
detail below, we are requesting increased funding in the IHS 
appropriation for the Tribe of $480,000 in Emergency Medical Services 
and funding of the Contract Health Services program at 100 percent of 
need on the Rosebud reservation.
    Despite the moral and legal responsibility of the United States to 
provide health services to Indian people, the provision of health 
services remain dependent on discretionary funding. Due to the nature 
of discretionary funding, the level of health care services varies 
greatly and the Indian Health Service budget is drastically 
underfunded. We join with all other tribes in this country seeking an 
equitable funding level for the Indian Health Service and its multiple 
programs. My focus today is on two specific issues which are a 
particularly serious problem at Rosebud--(1) Contract Health Service 
Funds and (2) Emergency Medical Services Funding.

                   EMERGENCY MEDICAL SERVICES FUNDING
    Funding for Emergency Medical Services (EMS) is a major concern for 
all involved in pre-hospital care. For every violent crime needing law 
enforcement there is a victim (sometimes more than one) needing 
attention. Heart attack victims, pregnancies, alcohol related 
accidents, and domestic violence, all needing emergency assistance, the 
need for a progressive, well grounded EMS system in health care 
delivery is essential.
    In 1996 the Highway Safety Act established an EMS program within 
the Department of Transportation. Six years later, in 1973, the 
Emergency Medical Services System Act provided general guidelines and 
funding for the development of regional EMS systems. In 1973 the 
Emergency Medical Services System Act provided federal guidelines and 
funding for the development of regional EMS systems and established 15 
costly components for EMS systems. In 1981 the Omnibus Budget 
Reconciliation Act consolidated EMS funding into State Preventive 
Health Service Block Grants and eliminated funding under the EMMSS Act 
of 1973.
    Currently EMS does not have authorizing appropriations legislation, 
creating an enormous problem as there is not any actual funding 
specifically available for EMS, especially within the Indian Health 
Service. EMS has never been a separate program, function, or service of 
the Indian Health Service, but under the original Public Law 93-638 
Indian Self-Determination and Education Assistance Act of 1975, the 
Indian Health Service used the agency's authority to contract EMS to 
tribes. When they recognized the need for EMS and assumed this 
authority, Tribes accepted the idea the Service would also have the 
responsibility for maintaining this contracted access to emergency 
health service. Throughout Indian country, especially in the Aberdeen 
Area and specifically on the Rosebud reservation, the ambulance service 
is funded at 47 percent of need. Many tribal services are considering 
rescinding their contracts with IHS as they are running out of funds 
long before the contract is due to end. The Rosebud Sioux Tribe expects 
to exhaust the funding provided to the Tribe through its 638 contract 
by May of this year for a shortfall of about $480,000.
    The Rosebud Sioux Tribe contract provides for 24 hour ambulance 
service, with 37 employees, including four paramedics, with the highest 
call volume in the State of South Dakota, an average of 425 calls per 
month (greater than the State's metropolitan areas of Sioux Falls and 
Rapid City) with a minimum of at least three transfers per day to a 
medical center. The average distance is 180 to 250 miles one way. The 
local Indian Health Service Unit does not have a fully functioning 
obstetrical or surgical unit, and for the last four years all high risk 
pregnancies and surgeries must be transferred to a private sector 
hospital, 180 to 260 miles away. Our trauma case load exceeds any in 
the State. We pay our employees at an average rate of $8.15 per hour, 
without overtime. Due to lack of adequate funds this program will 
forced to cease it's operations at the end of May unless funds can be 
found elsewhere. The local Indian Health Service Unit has stated they 
do not have any available funds to supplement this contract.
    The Rosebud Sioux Tribe seeks assistance in obtaining additional 
emergency funds in the amount of $480,000 to continue the operation of 
the Tribe's ambulance service. We also encourage you to support special 
appropriations for Emergency Medical Services in the fiscal year 2002 
appropriations act, as well as making permanent funding available for 
this essential service by making it a Presidential line item with 
appropriate funding.

                         LEVEL OF NEED FUNDING
    In review of the recent Level of Need Funding (LNF) study, the 
Rosebud Sioux Tribe believes this study is useful to a point, but 
should not be considered for a budget formula for the following 
reasons. Part one of the Study provides a very elementary baseline of 
costs associated with the provision of health care to Indian people. 
The researchers selected the lowest possible benchmark, and all other 
calculations are based on this figure. Indian Health Service user 
population does not consider tribal programs service populations (these 
are usually larger than IHS user populations). The user population data 
is out of date. The use of old surveys to provide data for the health 
adjustment assumes that the rates of disease between the two 
populations have remained constant, and the Rosebud Sioux Tribe knows 
the incidence of diabetes, cancer, and teen pregnancy has dramatically 
increased during the last decade. The geographic location adjustment 
assumes that rural health care costs are lower, when in fact rural 
hospitals can not always provide the care needed and therefore many 
patients must be transferred to major medical centers resulting in high 
health care costs.

                     CONTRACT HEALTH SERVICE FUNDS
    The Contract Health Service Program is severely underfunded 
creating many problems for tribal members. Funds at the Local level are 
frequently exhausted six to eight months into the fiscal year. As a 
result the medical needs of many tribal members do not get addressed 
due to the fact that the local IHS tribal facilities cannot make a 
commitment for payment.
    Due to oversight on the federal government's part, the Rosebud 
Reservation has members who do not live on or near the reservation as 
defined in the service delivery area definition. The live in a county 
that does not border a reservation boundary, and are betrween service 
units. (Rosebud and Wagner). This oversight means tribal members 
usually seen in Wagner, (due to distance), cannot receive contract 
health care services from either Rosebud or Wagner. They are literally 
left out of the system, causing extreme hardship on families not able 
to pay for medical care. Family credit ratings are being revoked due to 
non-payment for medical services needed but not provided within the IHS 
system. The Rosebud Sioux Tribe has sent fortyh a proposal to change 
the Contract Health Service Delivery Ara (CHSDA) but has not received 
approval at this time.
    The IHS open door policy allows a tribal members automatic aces to 
Contract Health Services of another reservation or service area 
provided the Priority System is followed. The problem created by this 
policy is tribal members from other reservations or urban areas are 
allowed immediate access to Contract Health Services. This puts a 
financial burden on the facility which is supposed to serve the local 
resident members of a reservation or service area without the benefit 
of census or enrollment data.
    The Rosebud Sioux Tribe recommends the following:
  --The Contract Health Service program be funded at 100 percent of 
        need based on last years figures. Because IHS is not capable of 
        providing the level of care needed, they must refer patients to 
        larger facilities with more expertise.
  --Tribes need to be allowed to adopt and implement a residency policy 
        according to local conditions that will adequately address the 
        eligibility and access problems of the program.
  --Preventive and rehabilitation services need to be defined and moved 
        up to a Priority 1 status. There are many types of preventive 
        services that could be done which would be relatively 
        inexpensive and would help increase the health status of the 
        Tribe while saving Contract Health Service Funds for situations 
        of a more catastrophic nature.
                                 ______
                                 
         Prepared Statement of the Winnebago Tribe of Nebraska
    This testimony addresses the fiscal year 2002 budget request for 
the Indian Health Service, and the Administration's proposed 
$23,241,000 million in fiscal year 2002 to complete construction of the 
new Winnebago hospital.
    The Tribe and Economic Development.--The Winnebago Tribe of 
Nebraska is a federally recognized Indian Tribe organized pursuant to 
Section 16 of the Indian Reorganization Act of June 18, 1934. Our 
forefathers were forcibly relocated from lands in and near what is now 
the state of Wisconsin. Our Treaty of 1865 is the first in history to 
require that the United States provide health care services to tribal 
members. The Tribe's 120,000-acre reservation includes lands in both 
Iowa and Nebraska and only about 30,000 acres of land within the 
reservation is now tribally controlled. There are 3,991 enrolled 
members, of who about 1,290 reside on the reservation.
    The Winnebago Tribe of Nebraska is very active on the economic 
front. The Tribe operates several business enterprises, including the 
WinnAVegas Casino in Sloan, Iowa, and the Heritage food store and the 
Company A Convenience Mart, both in Winnebago, Nebraska. Additionally, 
the Tribe has developed a small strip mall located on the reservation; 
leasing tribal land to outside agricultural interests generates added 
tribal revenue. Ho-Chunk, Inc., a wholly owned tribal development 
corporation, owns & operates a tobacco outlet shop in Omaha, Nebraska 
and a Native American Products Internet business located in Winnebago. 
Even with the economic contribution of these projects, tribal per 
capita income remains significantly below the poverty level at just 
over $5,000.
    Unlike states, the tribes have little or no tax base or other 
revenue sources with which to operate tribal government programs. 
Gaming has given a jump-start to our economy but those revenues are 
decreasing because of commercial competition. The Tribe still relies 
heavily on federal funds to provide even the most basic level of 
services to tribal members.
    Comprehensive Health Care Facility.--In August 2000, the Winnebago 
Tribe had a groundbreaking ceremony for the new 97,200 square foot 
Comprehensive Health Care Facility.
    In the village of Winnebago the Public Health Service Hospital 
serves the basic health care needs for the area. Critical and 
specialist care is available in Sioux City, IA and Omaha, NE. Currently 
the hospital has 30 general beds and 3 Pediatric beds. It has a staff 
of 102, 4 whom are Doctors and 20 of whom are RN's.
    The new hospital, presently under construction, will contain an 
additional 27 new beds (DDU), 40 regular ward beds and 10 IC units. A 
dental and optometry section is also scheduled. Staff employees will 
increase by 45 with 21 in Tribal health.
    Of the current staff, 20 (19.6 percent) are from Iowa, 67 (65.6 
percent) are from Nebraska, 27 (26.4 percent) live on the reservation, 
and 7 (.06 percent) are from South Dakota. Last fall, site preparations 
were completed, and actual construction of the new hospital began on 
October 5, 2001. Construction is expected to be completed June 2004.
    The Winnebago Tribe received funds in fiscal year 1999 through the 
Indian Health Service to complete the Architecture and Engineering 
phase of our hospital in the amount of $950,000. In fiscal year 2000, 
we received $9,714,000 for phase one construction, and in fiscal year 
2001, $12.3 million for phase two construction.
    We are very pleased that the Administration's fiscal year 2002 
includes funding within the Indian Health Facilities account to fund 
the balance of construction costs for the new Health Care Facility. We 
urge Congress to support this request and provide these needed funds in 
fiscal year 2002.
                                 ______
                                 
        Prepared Statement of the Sisseton-Wahpeton Sioux Tribe
    Chairman Burns and honorable members of the subcommittee, thank you 
for this opportunity to offer testimony in support of the need for 
increased funding for the Indian Health Service in fiscal year 2002, 
especially for Health Facility Construction, inflation, population 
growth, and Contract Health Services. Nationwide, Tribes have 
identified a need for a $4.2 billion increase in the Indian Health 
Service budget to begin addressing the tremendous unmet needs and 
disparities in health status that exists between First Americans and 
other citizens of this Nation. Minimally, a $263 million increase is 
required, just to keep pace with inflation and population growth.
    The Sisseton-Wahpeton Sioux Tribe's top priority need in fiscal 
year 2002 is for $2.33 million to plan and design a new ambulatory 
health center, which will replace the current facility that was 
constructed in 1936. The President's Budget requests $38 million for 
Health Facility Construction, a $48 million (or 56 percent) decrease 
from the amount that was appropriated in fiscal year 2001. The budget 
proposal includes only enough funding to complete construction of two 
Indian Health Service Hospitals (Ft. Defiance, AZ and Winnebago, NE). 
There is no provision for outpatient projects at all, although there 
are five locations that are awaiting appropriations to construct 
outpatient health centers that have already been (or are currently 
being) designed.
    This matter is of grave concern to the Sisseton-Wahpeton Sioux 
Tribe, who has been dangling on one health facilities construction 
priority list or another for three decades. At present, the Sisseton-
Wahpeton Sioux Tribe is next in line for planning and design funds for 
a replacement health facility that should have been constructed in the 
1970's (but was not, due to changes in construction planning policies 
and methodologies). The total estimated cost for the Tribe's new health 
center is $24 million; but funding for construction and then to make it 
operational would be requested from Congress over a span of four 
consecutive years. The new facility will address the Sisseton Indian 
Health Service's critical need for space in which to carry out state-
of-the art health services. The operating budget will provide for over 
twice the number of staff, modern equipment, and a more adequate 
allowance for medicine and supplies.
    The Indian Health Service has no means other than new construction 
and the Indian Health Care Improvement Fund to adjust for inequities in 
funding between Tribes. The Sisseton Service Unit is among the most 
severely underfunded Indian Health Service facilities in the Nation, 
falling in the lower twenty-fifth percentile according to the I.H.S. 
``Level of Need Funded'' (LNF) methodology. Agency-wide, the average 
level of need funded for the Indian Health Service is 60 percent, but 
our Service Unit was funded at only 43 percent of need in fiscal year 
2000. Nowhere is the need for a new facility and the improved operating 
budget that comes with it any more desperate. The quality of health 
care available to Tribal members has deteriorated. As a result, patient 
care on the Lake Traverse Reservation is compromised, and the Tribal 
members are suffering.
    Second, we would like to comment on the need for increased funding 
to offset the cost of inflation and population growth. To meet 
mandatory cost increases, the Indian Health Service will need $184 
million ($59 million to cover pay costs, $64 million for inflation, and 
$18 million for medical inflation). Nation-wide, the healthcare 
industry is projecting double-digit growth in costs again this year and 
estimates an increase of 13 percent over Year 2000 costs. As an 
example, the cost of pharmaceuticals at the Sisseton Indian Health 
Service went up 161.5 percent since 1996. Another good example is the 
Sisseton Indian Health Service Dental Clinic, which has a six-month 
waiting list for a dental appointment. Because the Service Unit has not 
had sufficient funding to recruit a second dentist, the backlog in this 
department has increased astronomically. Many go without dental 
services, to the sad detriment of their oral health, nutrition, 
appearance, and self-esteem. Because appropriations have not kept pace 
with these costs, the Service Unit has been forced to absorb this and 
other inflationary-type expenses, or patients have went without 
services. Any increase less than $263 million (or approximately 10 
percent) will not address the mandatory-type of increases the Agency 
will otherwise have to absorb. In contrast, the President's budget 
proposal requests a $78 million increase in actual appropriations, 
which represents a mere 2.69 percent increase over the fiscal year 2001 
level.
    At this juncture, we would like to point out that collection of 
third party dollars, as authorized by the Indian Health Care 
Improvement Act, by Law are not to supplant Federal appropriations to 
the Indian Health Service. Title IV, Sec. 401 and 402(b) of Public Law 
94-437 expressly states that payments received for services provided 
under title XIX of the Social Security Act shall not be considered in 
determining appropriations for the provision of health care and 
services to Indians. Yet, the President's budget proposal does shift 
$29 million of it's proposed $107 million increase for I.H.S. to 
projected third party collection increases. One hundred seven ($107) 
million would be an amount consistent with the 4 percent increase the 
Bush Administration has indicated it is requesting across-the-board for 
domestic discretionary funding. However, for the Indian Health Service, 
approximately one-fourth (25 percent) of the Bush Administration's 
proposed increase is to come from third party payments, in direct 
violation of Federal Law!
    It is important to keep in mind that escalating health care costs 
decrease the buying power of Contract Health Service appropriations. 
(Contract health care funds are used to purchase services not available 
at the I.H.S. facility, such as emergency medical services, mobile 
mammography and CT scans, and specialty services.) The ``CHS dollar'' 
appropriated by Congress has lost 50 percent of it's purchasing power 
in the past eight years, according to information provided by the 
Aberdeen Area I.H.S. Office.
    At the same time, the I.H.S. eligible population has grown. 
According to the U.S. Census Bureau, the population of American Indian, 
Eskimo and Aleuts grew by more than 300,000 between April, 1990 and 
July, 1999 to 2.4 million people. Our Native population has grown more 
rapidly than the nation's population as a whole in the 1990's--16 
percent versus 9.7 percent. Indian Country is experiencing exponential 
growth. On the Lake Traverse Reservation, for example, about half of 
our population is less than 18 years of age. Yet, the resources of the 
Indian Health Service have not kept pace with the increased demand for 
services, or with the changing needs of the population. At the Sisseton 
I.H.S., for example, maternal and child health services are quite 
fragmented, because the resources and capacity to provide the services 
``inhouse'' are not there. Maternity patients are required to apply for 
State-assisted programs in order to give birth and obtain care outside 
the I.H.S. Lack in continuity of care and late access to prenatal care 
are directly reflected in the appalling infant mortality rates 
occurring in the Aberdeen Area (14.0 per 1,000, compared to 9.3 for 
Indians nationwide and to 7.6 per 1,000 for U.S. All Races (1994-96 
data). Please note that the infant mortality rate for Indian babies is 
22 percent higher than for other Americans; for the Aberdeen Area, the 
rate is 86 percent higher! It is significant, too, that birth rates in 
the Aberdeen Area were 29.4 per 1,000 population, versus 14.9 per 1,000 
for U.S. All Races. The level of appropriations must be adjusted to 
address this change in the population served.
    It must also be pointed out that Indian Country is now seeing an 
emerging elderly population. Although the life-expectancy rate for an 
Indian person in the Aberdeen Area is still eleven (11) years less than 
for other Americans (65.2 compared to 75.8), elders comprise a 
significant and venerable portion of Tribal communities. According to 
the U.S. Census Bureau, there were an estimated 161,000 Indian elderly 
aged 65 and over, and 20,000 aged 85 and over, residing in the United 
States as of July, 1999. Projections indicate these numbers will double 
by 2020. The Indian Health Service must deal with this change by 
developing programs and services to handle the specialized needs and 
morbidity of this emerging population. Long-term care is a need in 
Indian Country, which for South Dakota, at least, is viewed as a 
Federal obligation, not the State's. The State is willing to pass-
through 100 percent Federal funding to health care programs that are 
Federally licensed, but they have been consistently resistant to the 
notion of using any funds that have been Federally matched.
    Finally, we would like to speak to the need for improved Contract 
Health Service appropriations. With the poor health status in Indian 
Country, many needs for specialty services go unmet because they do not 
present a threat to life or limb, which is all the Indian Health 
Service has funding to pay for. For example, during the past three 
years, thirty-seven (37) catastrophic cases consumed twenty-five 
percent (25 percent) of the Sisseton Indian Health Service's meager 
Contract Health Service budget (this was $1.5 Million of the $6 Million 
allocated to the Sisseton-Wahpeton Sioux Tribe for referral services 
for this three-year period). In fiscal year 1999, Sisseton I.H.S. 
expended $1,004,713 for only 15 patients. According to the data 
provided by the Sisseton Indian Health Service at the request of the 
Tribe, the Contract Health Service Program is funded at only $445.82 
per user of the I.H.S. The average amount spent per catastrophic case, 
in comparison, was $40,540.54 during the three-year period studied. 
Only six, or sixteen percent (16 percent), of these cases accessed the 
Catastrophic Health Emergency Fund (CHEF) administered by I.H.S. 
Headquarters.
    Appropriations for the CHEF has most definitely not kept pace with 
inflation and population growth, so the Fund is depleted well before 
the end of the fiscal year (requiring the costs to be absorbed by the 
local Service Units). As a result, the only patients with access to 
specialty care and treatment provided in private, tertiary facilities, 
such as Meritcare in Fargo, are those with conditions deemed to be 
``life or limb threatening''. This means that patients with chronic 
medical problems, who may be suffering pain and a reduced quality of 
life, do not get treated by a specialist in a timely manner. Symptoms 
get treated, not the disease itself. Too often, the condition is left 
untreated or is not treated until it worsens to the point of becoming 
``life or limb threatening''. Example: one visit to a rheumatologist 
would be more cost effective than the ongoing cost of prescriptions to 
treat the symptoms--without the toxic effects of drugs such as Motrin 
(which damages the kidneys). Another example is chronic gall bladder 
problems (treating the pain for months until it ruptures). A third 
example is that by the time a patient's lupus-induced tumor was 
removed, secondary problems and complications had developed that were 
costly to treat. Also, the severity of a condition progressed from one 
requiring relatively minor treatment to one requiring COSTLY major, 
life-threatening surgery. Followup visits to ophthalmologists and 
cardiologists for patients with diagnosed disorders and conditions 
(like diabetes and heart disease), surgeries for conditions that are 
chronic and debilitating but not acute at the exact moment the I.H.S. 
doctor sees the patient, hernia repair, psychiatric treatment, cleft 
lip surgery, removal of bunions and spurs of the foot . . . the list 
goes on and on . . . are deferred, because the patient does not have 
the personal finances to pay for the services out-of-pocket.
    Increased appropriations for Contract Health Services, population 
growth, inflation, and Health Facility Construction, then, are 
essential to achieving the goal of Congress, as stated in the Indian 
Health Care Improvement Act: ``The Congress hereby declares that it is 
the policy of this Nation, in fulfillment of its special 
responsibilities and legal obligations to the American Indian people, 
to assure the highest possible health status for Indians and urban 
Indians to provide all resources necessary to affect that policy''. At 
this time, we request your support for the fiscal year 2002 Indian 
Health Service budget and for the budget amendment which has been 
proposed by Senators Daschle and Domenici that will bring the Indian 
Health Service budget up to $6 billion (an increase of $4.2 billion). 
Thank you for this opportunity to express our needs.
                                 ______
                                 
            Prepared Statement of the Joslin Diabetes Center
    Mr. Chairman, thank you for this opportunity to present a status 
report on the funds the IHS Subcommittee provided for the past two 
fiscal years, and to request $6 million to continue the Indian Health 
Service/Joslin Diabetes Center telemedicine work in fiscal year 2002.

                               BACKGROUND
    The IHS Subcommittee recommended that the Indian Health Service 
develop in fiscal year 2000 a $1,000,000 cooperative relationship with 
the Joslin Diabetes Center/Joslin Vision Network (JVN) to address 
diabetes issues within the Indian Health Service and among the Native 
American patient population by integrating the JVN and Joslin Diabetes 
Eye Health Care Model into the care of the Native American population.
    The Joslin Diabetes Center JVN is a telemedicine initiative 
designed to screen for diabetes and to access all diabetic patients 
into cost-effective, quality diabetes and eye care programs across 
geographic and cultural boundaries at reduced cost.
    In the fiscal year 2001 Budget, the IHS requested $1,000,000 to 
continue this project. The request was approved by the Conference 
Committee and enacted into law. Joslin Diabetes Center welcomes this 
opportunity to work collaboratively with IHS through the sharing of 
technology and training in a clinical setting.
    Joslin is currently developing a Comprehensive Diabetes Management 
Plan that will be incorporated within the health care systems of the 
Department of Defense, Department of Veterans Affairs, and the Indian 
Health Service. This telemedicine platform will allow seamless 
migration among these three systems.

                  FISCAL YEAR 2000-2001 STATUS REPORT
    The IHS for the initial pilot site of cooperation with the Joslin 
JVN selected Phoenix Indian Medical Center (PIMC). Following the 
successful implementation at PIMC of the first pilot IHS/JVN 
telemedicine diabetes detection, prevention and treatment initiative, 
Sells, Arizona was selected as the second site. The plans for 
disbursement of remaining funds for fiscal year 2000-2001 include 
deployment at two additional sites, refinement of the IHS/JVN 
telemedicine protocol, and integrating Native-American outreach and 
education programs.

                            FISCAL YEAR 2002
    The Medicare, Medicaid, and SCHIP Act of 2000 increased IHS's 
annual diabetes funding from $30 million to $100 million through fiscal 
year 2003. The increase in resources has permitted IHS some discretion 
in choice of diabetes clinical care.
    Joslin was approached by IHS to work cooperatively at 30 additional 
sites for fiscal year 2002. The importance of quality care must be the 
first consideration for any new endeavor. Joslin does not have the 
personnel resources to support 30 additional IHS sites in fiscal year 
2002 and provide at the same time the full support and quality care 
that IHS patients and infrastructure should be accorded. The IHS and 
Joslin have reached an agreement of 15 new sites in fiscal year 2002, 
which Joslin officials believe is the appropriate and manageable number 
of new sites that Joslin can support without diminishing quality or 
necessary training and time.
    The deployment of the 15 new sites in fiscal year 2002 will be 
determined by the needs of the IHS with the intent that one site will 
include an inter-agency cooperation with the Department of Veterans 
Affairs in Anchorage, Alaska, as a first step toward seamless 
telemedicine migration of the IHS, VA and DOD Health Care systems.
    We respectfully request fiscal year 2002 funding of $6 million to 
provide for deployment of 15 new sites, to staff and operate 19 IHS/JVN 
sites, to continue application enhancements and refinements for 
adaptive patient use and reduced cost, and to begin planning for a JVN 
comprehensive disease management program for the IHS, DOD and VA.

                               CONCLUSION
    Thank you for this opportunity to present this fiscal year 2001 
status report and this request of fiscal year 2002 funding of $6 
million for the IHS/Joslin project. This project is viewed by IHS and 
Joslin Diabetes Center as a significant medical technology breakthrough 
for the patients and health care system within the Indian Health 
Service.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Abraham, Hon. Spencer, Secretary of Energy, Office of the 
  Secretary, Department of Energy................................   187
    Prepared statement...........................................   194
    Summary statement............................................   191
Acid Drainage Technology Initiative Metal Mining Sector, prepared 
  statement......................................................   413
Air Products and Chemicals, Inc., prepared statement.............   497
Alachua County, FL, prepared statement...........................   344
Alamo-Navajo School Board, Inc., prepared statement..............   274
Alaska:
    Inter-Tribal Council, prepared statement.....................   368
    Native Health Board, prepared statement......................   538
American:
    Association of Museums, prepared statements................436, 457
    Council on Education, prepared statement.....................   455
    Farm Bureau Federation, prepared statement...................   492
    Hiking Society, prepared statement...........................   371
    Museum of Natural History, prepared statement................   462
    Public Power Association, prepared statement.................   532
    Rivers, prepared statement...................................   303
    Society of Civil Engineers, prepared statement...............   383
    Society of Mechanical Engineers International, prepared 
      statement..................................................   504
    Society of Plant Physiologists, prepared statement...........   492
    Soybean Association, prepared statement......................   492
Appalachian Partnership for Eastern Forests, prepared statement..   481
Assiniboine and Sioux Tribes of the Fort Peck Indian Reservation, 
  prepared statement.............................................   347
Association of American Universities, prepared statements......436, 455

Bennett, Hon. Robert F., U.S. Senator from Utah, opening 
  statement......................................................   140
Biomass Energy Research Association, prepared statement..........   488
Black Mesa Community School, prepared statement..................   270
Blackwell, Hon. M. Sharon, Deputy Commissioner of Indian Affairs, 
  Bureau of Indian Affairs, Department of the Interior...........     1
    Prepared statement...........................................    16
    Summary statement............................................    12
Bob Lawrence & Associates, Inc., prepared statement..............   499
Bosworth, Dale N., Chief, Forest Service, Department of 
  Agriculture....................................................   137
    Prepared statement...........................................   148
    Summary statement............................................   143
Burns, Hon. Conrad, U.S. Senator from Montana:
    Opening statements..................................1, 45, 137, 187
    Prepared statements.........................................46, 138
    Questions submitted by.............................33, 83, 164, 217
Burton, John L., president pro tempore, California Senate, 
  prepared statement.............................................   412
Business Council for Sustainable Energy, prepared statement......   527
Byrd, Hon. Robert C., U.S. Senator from West Virginia:
    Opening statements.....................................47, 139, 188
    Questions submitted by.....................................121, 180

California Industry and Government Central California Ozone Study 
  (CCOS) Coalition, prepared statement...........................   486
California Industry and Government Coalition, prepared statement.   277
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado:
    Opening statements.......................................2, 47, 189
    Questions submitted by............................39, 116, 180, 230
Center for Marine Conservation, prepared statement...............   365
Central Council Tlingit and Haida Indian Tribes of Alaska, 
  prepared statement.............................................   305
Chippewa Cree Tribe of Rocky Boy's Indian Reservation, prepared 
  state- 
  ment...........................................................   292
Choctaw Indian Nation, prepared statement........................   241
City of:
    Fairfield, CA, prepared statement............................   285
    Folsom, CA, prepared statement...............................   286
    Miami Beach, FL, prepared statement..........................   460
    Newark, NJ, prepared statement...............................   341
    Roseville, CA, prepared statement............................   286
Coal Utilization Research Council, prepared statement............   483
Coalition for Indian Housing and Development, prepared statement.   536
Coalition of Northeastern Governors, prepared statements.......239, 493
Cochran, Hon. Thad, U.S. Senator from Mississippi, questions 
  submitted by.................................................115, 236
Colorado:
    River Basin Salinity Control Forum, prepared statement.......   434
    River Board of California, prepared statements........255, 276, 419
    River Commission of Nevada, prepared statement...............   432
Columbia River Inter-Tribal Fish Commission, prepared statement..   373
Confederated:
    Tribes and Bands of the Yakama Nation, prepared statement....   313
    Tribes of the Grand Ronde Community of Oregon, prepared 
      statement..................................................   540
    Tribes of the Warm Springs Reservation of Oregon, prepared 
      statement..................................................   398
Coquille Indian Tribe, prepared statement........................   280
County of Marion, OR, prepared statement.........................   286
Craig, Hon. Larry E., U.S. Senator from Idaho, opening statement.   141
Crownpoint Institute of Technology, prepared statement...........   244

Defenders of Wildlife, prepared statement........................   395
Dibe Yazhi Habitiin Olta, Inc.--Borrego Pass School, prepared 
  statement......................................................   362
Domenici, Hon. Pete V., U.S. Senator from New Mexico, questions 
  submitted by...................................................   233
Dorgan, Hon. Byron L., U.S. Senator from North Dakota:
    Opening statement............................................   190
    Questions submitted by.....................................183, 226

Electric Vehicle Association of the Americas, prepared statement.   522
Enewetak/Ujelang Local Government Council, prepared statement....   404

Florida State University, prepared statement.....................   346
Fond du Lac Band of Lake Superior Chippewa, prepared statement...   385
Frontera Audubon Society, prepared statement.....................   418
Fuel Cell Power Association, prepared statement..................   509

Gas Turbine Association, prepared statement......................   512
Gasification Technologies Council, prepared statement............   494
General Electric Power Systems, prepared statement...............   501
Georgia:
    Appalachian Trail Club, prepared statement...................   479
    Forestwatch, prepared statement..............................   307
Golden Gate Audubon Society, prepared statement..................   413
Greasewood Springs Community School, Inc., prepared statement....   253
Great Lakes Indian Fish & Wildlife Commission, prepared statement   351

Hollings, Hon., Ernest F., U.S. Senator from South Carolina, 
  questions submitted by.........................................   234
Hoopa Valley Tribe of California, prepared statement.............   324
Humane Society of the United States, prepared statement..........   415

Intertribal Timber Council, prepared statement...................   401

Jamestown S'Klallam Tribe, prepared statement....................   300
Jicarilla Apache Nation, prepared statement......................   262
Joslin Diabetes Center, prepared statement.......................   547

Kashdan, Hank, Director, Program and Budget Analysis, Forest 
  Service, Department of Agriculture.............................   137
Kayenta Community School, Inc., prepared statement...............   452
Klee, Ann R., Counselor to the Secretary, Office of the 
  Secretary, Department of the Interior..........................    45
Knik Tribal Council, prepared statement..........................   279

Lac du Flambeau Band of Lake Superior Chippewa Indians, prepared 
  statement......................................................   349
Lamb, Hon. Robert J., Deputy Assistant Secretary for Budget and 
  Finance, Department of the Interior............................     1
    Summary statement............................................    20
Leahy, Hon. Patrick J., U.S. Senator from Vermont:
    Prepared statement...........................................    63
    Questions submitted by.......................................   126
Lower Colorado River Basin States (Arizona, California, and 
  Nevada), prepared statements.................................240, 422
Lugar, Hon. Richard, U.S. Senator from Indiana, questions 
  submitted by...................................................   184
Lukachukai Community School, Inc., prepared statement............   267
Lummi Indian Nation, prepared statement..........................   319

Metlakatla Indian Community, prepared statement..................   450
Mohegan Tribe of Indians of Connecticut, prepared statement......   355
Myers, Chuck, Forest Supervisor, Monongahela National Forest, 
  West Virginia, Forest Service, Department of Agriculture.......   137

National American Indian:
    Court Judges Association, prepared statement.................   250
    Housing Council, prepared statement..........................   536
National Association of:
    Conservation Districts, prepared statement...................   468
    Professional Forestry Schools and Colleges, prepared 
      statement..................................................   471
    State Universities and Land-Grant Colleges, prepared 
      statement..................................................   455
    Wheat Growers, prepared statement............................   492
National:
    Conference of State Historic Preservation Officers, prepared 
      statement..................................................   287
    Corn Growers Association, prepared statement.................   492
    Indian Education Association, prepared statement.............   442
    Indian Gaming Commission, prepared statement.................   359
    Institutes for Water Resources, prepared statement...........   381
    Mining Association, prepared statement.......................   517
    Parks Conservation Association, prepared statement...........   391
    Research Center for Coal and Energy, West Virginia 
      University, prepared statement.............................   529
    Trust for Historic Preservation, prepared statement..........   389
Native American:
    Fish & Wildlife Society, prepared statement..................   447
    Rights Fund, prepared statement..............................   436
Navajo Mountain School Board, prepared statement.................   427
New Mexico Interstate Stream Commission, prepared statement......   243
Nez Perce Tribe, prepared statement..............................   289
NFFE Local 1957, prepared statement..............................   336
Northern Forest Alliance, prepared statement.....................   465
Northwest:
    Indian Fisheries Commission, prepared statement..............   453
    Tribal Court Judges Association, prepared statement..........   376
Norton, Hon. Gale A., Secretary of the Interior, Office of the 
  Secretary, Department of the Interior..........................    45
    Prepared statement...........................................    52
    Summary statement............................................    49
Nuclear Energy Institute, prepared statement.....................   524

Oglala Sioux Nation, prepared statement..........................   247
Ohio State University, prepared statement........................   495
Oregon Water Resources Congress, prepared statement..............   421

Partnership for the National Trails System, prepared statement...   327
Paucatuck Eastern Pequot Tribal Nation, prepared statement.......   353
Phillips, Randle, Deputy Chief, Programs and Legislation, Forest 
  Service, Department of Agriculture.............................   137
Port Gamble S'Klallam Tribe, prepared statement..................   322
Preservation Action, prepared statement..........................   439
Puyallup Tribe of Indians, prepared statement....................   309

Quinault Indian Nation, prepared statement.......................   342

Rains, Michael T., Deputy Chief, State and Private Forestry, 
  Forest Service, Department of Agriculture......................   137
Ramah Navajo School Board, Inc., prepared statement..............   429
Red Lake Band of Chippewa Indians, prepared statement............   294
Reid, Hon. Harry, U.S. Senator from Nevada:
    Opening statement............................................    48
    Prepared statement...........................................   160
    Questions submitted by.....................................129, 182
Rock Point School Board, prepared statement......................   272
Rosebud Sioux Tribe, prepared statement..........................   542

San Francisco Bay Joint Venture, prepared statement..............   265
Sauk-Suiattle Indian Tribe, prepared statement...................   257
Save San Francisco Bay Association, prepared statement...........   265
Seminole Tribe of Florida, prepared statement....................   379
Siemens Westinghouse Power Corp., prepared statement.............   507
Sierra Club, prepared statement..................................   316
Sisseton-Wahpeton Sioux Tribe, prepared statement................   545
Slonaker, Hon. Thomas N., Special Trustee for American Indians, 
  Office of the Special Trustee for American Indians, Department 
  of the Interior................................................     1
    Prepared statement...........................................     7
    Summary statement............................................     4
Society for:
    American Archaeology, prepared statement.....................   436
    Animal Protective Legislation, prepared statement............   440
    Historical Archaeology, prepared statement...................   436
Southern:
    Appalachian Forest Coalition, prepared statement.............   477
    Environmental Law Center, prepared statement.................   474
    Nevada Water Authority, prepared statement...................   445
Squaxin Island Tribe, prepared statement.........................   297
State Teachers' Retirement System, State of California, prepared 
  statement......................................................   534
Stevens, Hon. Ted, U.S. Senator from Alaska, questions submitted 
  by.............................................................   178

Tice, R. Dean, executive director, National Recreation and Park 
  Association, letter from.......................................   338
Timbisha Shosone Tribe, prepared statement.......................   337
Tohono O'odham Nation, prepared statement........................   392
Trezise, John D., Director of Budget, Office of the Secretary, 
  Department of the Interior.....................................    45
Tribal Law and Policy Institute, prepared statement..............   424

United Tribes Technical College, prepared statement..............   260
University of Alaska, Fairbanks, prepared statement..............   515
Upper Mississippi River Basin Association, prepared statement....   283
Ute Indian Tribe of the Uintah and Ouray Reservation, prepared 
  statement......................................................   356

Virginia Polytechnic Institute and State University, prepared 
  statement......................................................   520

Weston Observatory of Boston College, prepared statement.........   407
Wide Ruins Community School Board, Inc., prepared statement......   281
Winnebago Tribe of Nebraska, prepared statement..................   544
Wyoming State Engineer's Office, prepared statement..............   446

Yukon River Drainage Fisheries Association, prepared statement...   312
Yurok Tribe, prepared statement..................................   410


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

Accountability.................................................146, 150
Additional committee questions...................................   163
Aging workforce..................................................   145
Anti-Deficiency Act violation....................................   182
Categorical exclusion............................................   168
Consultation analysis............................................   161
Controversial rulemakings........................................   169
Financial accountability.........................................   170
Fire:
    Assistance...................................................   180
    Deficiency...................................................   171
    Effects of, on other programs................................   167
    Management...................................................   152
    Program--budget issues.......................................   164
    Strategy, long-term..........................................   165
    Training and hiring of locals................................   168
Forest:
    Products...................................................146, 153
    Service overall maintenance backlog..........................   181
Funding, off the top...........................................145, 163
Ground work, on the..............................................   144
Hardwood:
    Court case...................................................   155
    Tree Improvement and Regeneration Center.....................   184
Interior Columbia Basin Ecosytem Management Project (ICBEMP).....   175
Lake Tahoe land acquisitions.....................................   183
Law enforcement..................................................   159
Leadership.......................................................   144
Monongahela National Forest......................................   155
    Maintenance backlog on.......................................   156
National:
    Fire Plan.............................................145, 149, 181
        Impact of, on forest products............................   154
    Forests, drug problem in the.................................   159
NEPA Analysis....................................................   161
Oversight......................................................145, 153
Planning.........................................................   174
Priorities.......................................................   144
    Short-term...................................................   148
Range allotments.................................................   147
Recreation.......................................................   147
Research.........................................................   176
Road stabilization and watershed restoration.....................   156
Roadless ban.....................................................   180
Salvage..........................................................   166
    Timber.......................................................   161
Sierra Nevada framework..........................................   178
Small diameter and lower value research..........................   158
Southeast Alaska intertie........................................   179
Stewardship......................................................
    Contracts..................................................147, 165
    Cooperative..................................................   147
Suburban-wildland interface communities..........................   164
Survey/manage....................................................   174
Timber:
    Program......................................................   166
    Questions....................................................   172
    Sales........................................................   182
Washington office................................................   162
    Initiatives..................................................   168
Wood:
    Education Resource Center....................................   157
    In transportation............................................   180
Yakutat:
    Lodge........................................................   179
    Man (Tongass NF), criminal charges against...................   179

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

Additional committee questions...................................   217
Budget:
    Amendment and PNGV Program...................................   219
    Choices......................................................   192
    DOE, request.................................................   192
    Interior and Related Agencies Appropriation request..........   195
    Overall energy efficiency request............................   200
    Overall fossil energy research and development...............   196
    Principles guiding the fiscal year 2002 Department of Energy.   195
Carat & Gate Programs............................................   222
Clean coal:
    Initiative...................................................   233
    Power initiative.............................................   226
Climate change mitigation........................................   230
Cooperative research.............................................   226
Distributed generation...........................................   222
Earmarks.........................................................   202
Economic regulation..............................................   201
Energy:
    Conservation priorities......................................   199
    Information administration.................................201, 218
Environmental Management Program.................................   230
Federal Energy Management Program..............................220, 233
Fossil energy:
    Cooperative research.........................................   223
    Fuel cells...................................................   223
        Research.................................................   213
    Import/Export Program........................................   224
    Priorities...................................................   196
    R&D budget...................................................   204
Fuel cells.......................................................   234
    Technology...................................................   205
Gas hydrate stability zone.......................................   237
Government Performance and Results Act...........................   221
Incentives, private industry.....................................   214
Industries of the future:
    Black liquor gasification....................................   222
    General......................................................   221
National energy technology laboratory............................   215
Natural gas......................................................   236
New generation of vehicles, partnership for a....................   193
North American energy cooperation................................   208
Oil and gas research.............................................   233
Petroleum reserves...............................................   198
Power:
    Plant improvement initiative.................................   225
    Systems......................................................   206
Renewables and National Renewable Energy Laboratory (NREL).......   232
Rocky Flats......................................................   230
    GAO report on................................................   231
Savannah River Site (SRS)........................................   234
Turbines.........................................................   207
Vice President's National Energy Policy Development Group........   225
Weatherization assistance program................................   193
Weatherization vs. Research & Development........................   217

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

Abandoned Mine Reclamation Program...............................    61
Additional committee questions...................................    83
Administration's environmental policies..........................    72
American Indians, keeping our commitments to.....................    55
AML fund.........................................................    91
    Grant, fiscal year 2002......................................    92
    Reduction....................................................    61
Arctic National Wildlife Refuge..................................    76
    Drilling in..................................................    80
Biscayne Bay campsite leases.....................................   123
Bison Management.................................................   108
Black Canyon:
    Of the Gunnison..............................................    64
    Water rights.................................................   116
Budget overview..................................................    52
Building conservation partnerships...............................    53
Bureau of:
    Indian Affairs' education increases..........................    87
    Land Management.............................................94, 132
Cat Island.......................................................   115
Compact negotiations.............................................   113
Conservation:
    Balancing use with...........................................    57
    Consultation, communication and collaboration in the service 
      of.........................................................    52
    Research center in Front Royal, VA...........................    87
Construction.....................................................   110
Court monitor....................................................    66
Departmental management..........................................   113
Destin dome......................................................   101
Endangered species listing...................................58, 60, 90
Enewetak.........................................................   115
Everglades restoration..........................................58, 101
Fiber optic:
    Lease rates..................................................    77
    Right of way fees............................................    95
Fire suppression.................................................   116
Fish and Wildlife Service........................................   129
    Endangered species...........................................   123
    Law enforcement..............................................   123
Geothermal Energy................................................   134
Global:
    Climate change...............................................74, 76
    Warming treaty...............................................    80
Good government..................................................    59
Grand Canyon Transportation System...............................   109
Gulf of Mexico...................................................   100
Historic Preservation Fund.......................................   106
Indian:
    Affairs issues..............................................69, 118
    Education................................................51, 71, 81
    Law enforcement..............................................    66
    Trust reform.................................................    51
    Water rights.................................................    65
Lake Champlain Fish and Wildlife Resource Office.................   127
Land acquisitions................................................   118
Land and water conservation fund............................50, 69, 124
    Federal Side.................................................    86
    Stateside....................................................    83
Land use:
    Backlog......................................................   102
        In parks.................................................   116
    Conservation balance.........................................    51
    Maintenance..................................................   124
    Planning.....................................................    95
Managing fire....................................................    57
Marsh-Billings-Rockefeller National Historic Park................   128
Minerals Management Service......................................    97
Montana specific (Undaunted Stewardship and MSU Weed Center).....    96
National:
    Conservation Training Center.................................   121
    Park Service maintenance backlog.............................50, 65
        Snowmobiles..............................................   134
    Parks, National Wildlife Refuges, and Public Lands, operation 
      of.........................................................    58
    Parks, preserving our........................................    54
    Zoo Conservation and Research Center.........................   125
Natural Resource Challenge.......................................   104
Nevada:
    Biodiversity initiative......................................    67
    LWCF funding.................................................    68
Office of:
    Inspector General (OIG)......................................   111
    Insular Affairs..............................................   113
    The Solicitor................................................   111
Offsetting receipts..............................................    98
Payment in lieu of taxes...............................60, 94, 118, 124
    Refuge Revenue Sharing Funds (RRFS)..........................   126
Prior Service Benefits Trust Fund................................   115
Recreation Fee Demonstration Program.............................   107
Reduction in AML funding.........................................    61
Reengineering....................................................    99
Restoring the Everglades.........................................    58
Royalty-in-kind..................................................79, 97
San Carlos Irrigation Project....................................    87
Silvio O. Conte Education Center.................................   128
Staff cuts.......................................................   122
State:
    Minimum funding..............................................    93
    Regulatory programs..........................................    92
Streamlining.....................................................   121
Tobacco settlement...............................................   114
Treaty, 1992.....................................................    74
Tribal:
    Colleges.....................................................    70
    Contracting..................................................    81
Trust Reform--Cobell.............................................    93
U.S. Fish and Wildlife Service:
    Invasive alien species control...............................    88
    Wildlife Conservation and Appreciation Fund..................    90
U.S. Geological Survey:
    Funding reductions...........................................78, 82
    Mission of the Agency........................................    91
    Proposed reductions..........................................    91
    Water resources research institutes..........................   126
Valuation........................................................    98
Wild Horse and Burro Program....................................94, 133
Wildlife Program, partners for...................................   127
Wildland fire management.........................................    51

           Office of the Special Trustee for American Indians

Account Balances and the ``Sampling v. Modeling'' debate.........    42
Additional committee questions...................................    33
Address updates..................................................    23
BIA projects.....................................................    17
Closing observations.............................................    31
Cobell litigation:
    Document production..........................................    22
    Potential for settlement.....................................     6
Crow agency......................................................    24
Data cleanup.................................................14, 24, 32
Direct pay lease payments........................................    30
Fractionation....................................................    15
High Level Implementation Plan...................................    39
IIM accounts.....................................................    23
Indian:
    Land Consolidation Program...................................    15
    Trust management reform to date..............................     9
Litigation effects...............................................    31
Management authority and measuring progress......................    41
National Academy for Public Adminstration Study..................    21
Nessi memo....................................................... 5, 26
Next steps.......................................................    10
Private sector...................................................    29
Project timeline.................................................    27
Regulations......................................................    13
Scope of DOI trust asset management responsibility...............    11
Statistical sampling............................................. 6, 26
    Timeframe and costs..........................................    27
TAAMS............................................................    30
    Interfaces...................................................    15
    Modules......................................................    14
    Progress.....................................................    20
Timelines........................................................    15
Tribal:
    Consultation.................................................    27
    Federal relations............................................    19
    Withdrawal and management of funds under the 1994 Act........    44
Trust:
    Fund accounting system.......................................    29
    Records......................................................  6 23
    Reform:
        Authority................................................    25
        Efforts.................................................. 4, 21
        Institutionalizing.......................................    19
Youpee...........................................................    13

                                   - 

</pre></body></html>
